<html>
<title> - CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA ANNUAL REPORT  2009</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA 

                             ANNUAL REPORT 

                                  2009

=======================================================================

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 10, 2009

                               __________

 Printed for the use of the Congressional-Executive Commission on China


         Available via the World Wide Web: http://www.cecc.gov















                           2009 ANNUAL REPORT













              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                             ANNUAL REPORT

                                  2009

=======================================================================

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 10, 2009

                               __________

 Printed for the use of the Congressional-Executive Commission on China


         Available via the World Wide Web: http://www.cecc.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

52-610 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
Washington, DC 20402-0001 





























              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS

Senate

                                     House

BYRON DORGAN, North Dakota,          SANDER LEVIN, Michigan, Cochairman
Chairman                             MARCY KAPTUR, Ohio
MAX BAUCUS, Montana                  MICHAEL M. HONDA, California
CARL LEVIN, Michigan                 TIMOTHY J. WALZ, Minnesota
DIANNE FEINSTEIN, California         DAVID WU, Oregon
SHERROD BROWN, Ohio                  CHRISTOPHER H. SMITH, New Jersey
SAM BROWNBACK, Kansas                EDWARD R. ROYCE, California
BOB CORKER, Tennessee                DONALD A. MANZULLO, Illinois
JOHN BARRASSO, Wyoming               JOSEPH R. PITTS, Pennsylvania

                     EXECUTIVE BRANCH COMMISSIONERS

                  Department of State, To Be Appointed
                  Department of Labor, To Be Appointed
                Department of Commerce, To Be Appointed
                       At-Large, To Be Appointed
                       At-Large, To Be Appointed

                 Charlotte Oldham-Moore, Staff Director

             Douglas Grob, Cochairman's Senior Staff Member

                                  (ii)

















                             C O N T E N T S

                              ----------                              
                                                                   Page
Preface..........................................................     1

General Overview.................................................     3

I. Executive Summary and Recommendations.........................     8

    Findings and Recommendations.................................     8
    Political Prisoner Database..................................    40

II. Human Rights.................................................    44

    Freedom of Expression........................................    44
    Worker Rights................................................    68
    Criminal Justice.............................................    88
    Freedom of Religion..........................................   110
    Ethnic Minority Rights.......................................   144
    Population Planning..........................................   151
    Freedom of Residence.........................................   161
    Status of Women..............................................   165
    Human Trafficking............................................   172
    North Korean Refugees in China...............................   177
    Public Health................................................   181
    Climate Change and Environment...............................   190

III. Development of the Rule of Law..............................   203

    Civil Society................................................   203
    Institutions of Democratic Governance........................   208
    Commercial Rule of Law.......................................   217
    Access to Justice............................................   232

IV. Xinjiang.....................................................   243

V. Tibet.........................................................   270

VI. Developments in Hong Kong and Macau..........................   300

VII. Endnotes....................................................   310
          CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                       2009 ANNUAL REPORT

                                Preface

    The Chinese Government has made economic development a 
priority, and lifted millions of people out of poverty, but 
Chinese Government policies and practices continue to violate 
the rights of Chinese citizens, and fall far short of meeting 
international standards. The Congressional-Executive Commission 
on China, which formally was established in 2000 by the 
legislation that granted China Permanent Normal Trade Relations 
(PNTR) as China prepared to enter the World Trade Organization 
(WTO), is mandated by law to monitor human rights, worker 
rights, and the development of the rule of law in China, as 
well as to maintain a database of information on Chinese 
political prisoners--individuals who have been imprisoned for 
exercising their civil and political rights protected under 
China's Constitution and laws or under China's international 
human rights obligations.
    When China entered the WTO in 2001, the Chinese Government 
made commitments that were important not only for China's 
commercial development in the international marketplace, but 
also for the development of the rule of law at home. These 
commitments require that the Chinese Government ensure 
nondiscrimination in the administration of measures that are 
trade related, and publish promptly all laws, regulations, 
judicial decisions, and administrative rulings relating to 
trade. WTO accession and the Chinese Government's years of 
preparation for accession provided the impetus for many changes 
to China's legal system over the past two decades. Those 
changes, some of which have been significant, still have not 
produced a national legal system that is consistently and 
reliably transparent, accessible, and predictable. The 
Communist Party rejects the notion that the imperative to 
uphold the rule of law should preempt the Party's role in 
guiding the functions of the state. As this report shows, the 
Chinese Government's repressive tendencies at home undermine 
the credibility of its stated international commitments to 
create a more open society that provides greater respect for 
human rights, worker rights, transparency, and the rule of law.
    The development of a stable China firmly committed to the 
rule of law and citizens' fundamental rights is in the national 
interest of the United States. Those rights include the 
freedoms of speech, assembly, association, religion, and other 
rights protected under China's Constitution and laws or under 
China's international human rights obligations. To ensure a 
positive, cooperative, and comprehensive U.S.-China 
relationship, China's leaders must demonstrate genuine 
commitment, not just in words but in deeds, to promoting the 
development of the rule of law, human rights, and transparency 
in no less measure than they have prioritized economic 
development.
    The imperative to uphold the rule of law, human rights, and 
transparency could not be more relevant than it is with respect 
to planned expansion of bilateral cooperation on climate change 
recently announced by the United States and China. The United 
States and China signed a Memorandum of Understanding (MOU) on 
July 28 that elevates cooperation on climate change in the 
relationship between the two countries and expands bilateral 
cooperation to accelerate the transition to a sustainable, low-
carbon global economy. In the pursuit of such a goal, the 
integrity of scientific data and technical information must be 
preserved, free from censorship or manipulation for political 
or other purposes. Researchers, engineers, and scientists 
engaged in international collaborative projects must be free 
from concern about whether the information they share with a 
research partner today will be declared a state secret 
tomorrow, and whether they will face prosecution as criminals 
as a result. To maximize the potential for progress on climate 
change, Chinese officials must engage as allies, and not 
repress, environmental whistleblowers, a vigilant press, non-
governmental organizations (NGOs), and human rights lawyers. 
Recently announced goals for U.S.-China cooperation and top-
level business collaboration on clean technology can only be 
achieved if accompanied by reliable and consistent enforcement 
of intellectual property rights in China.
    This report documents, in each of its sections, the 
challenges and opportunities that exist for China to create a 
more open society with greater respect for human rights, 
transparency, and the rule of law. The report also demonstrates 
the importance of the Commission's Political Prisoner Database, 
a unique, powerful, and publicly available resource on which 
the Commission relies for advocacy and research work, including 
the preparation of this Annual Report. The human rights issues 
underlying political imprisonment and detention are numerous. 
Instances of human rights violations and resulting imprisonment 
form a pattern of systematic repression--the Chinese Government 
should demonstrate its commitment to international standards by 
reversing this pattern.
    The Commission intends that the detailed contents of this 
report may serve as a roadmap for progress. By documenting 
human rights violations in this report and in the Commission's 
Political Prisoner Database, by advocating in meetings with 
Chinese officials on behalf of political prisoners, by raising 
public awareness of human rights and rule of law issues, and by 
placing these issues on the agendas of bilateral and 
multilateral meetings, the United States Government establishes 
a baseline for measuring progress. Some of those who supported 
establishing permanent normal trade relations (PNTR) with China 
in 2000 believed that PNTR would improve the prospects that the 
Chinese Government would fulfill its commitments to 
international human rights standards--but the Chinese 
Government has yet to live up to those commitments. Holding the 
Chinese Government accountable to its international commitments 
and to its own laws, when those laws meet international 
standards, is an essential element of the roadmap for progress.
    As the United States and China engage in bilateral and 
multilateral dialogues, the Commission urges Members of the 
U.S. Congress and Administration officials to monitor carefully 
Chinese Government positions and actions on issues critical to 
developing the rule of law, promoting transparency, and 
protecting human rights. The Chinese Government, for example, 
issued a National Human Rights Action Plan in 2009 that uses 
the language of human rights to cast an ambitious program for 
promoting the rights of its citizens. In meetings with Chinese 
officials, Members of the U.S. Congress and Administration 
officials should inquire about the Chinese Government's 
progress in translating words into action and securing genuine 
improvements for its citizens as set forth in the plan. To that 
end, this Annual Report and the information available on the 
Commission's Web site, www.cecc.gov, provide an abundance of 
resources.

                            General Overview

    The Commission observed continuing human rights abuses and 
stalled development of the rule of law in China during the 
Commission's 2009 reporting year (October 2008 to October 
2009). The level of repression increased in the Xinjiang Uyghur 
Autonomous Region (XUAR) and the Tibetan areas of China, as did 
the level of harassment of human rights lawyers and advocates, 
and restrictions on Chinese reporters. Repression of religious 
adherents continued. Across the areas the Commission monitors, 
these general themes emerged:

          (1) Chinese leaders' increasing preoccupation with 
        maintaining what they deem to be ``social stability'';
          (2) more pronounced deficiencies in checks on state 
        power, and in some cases the government's undoing of 
        existing checks;
          (3) the reversal of some trends toward greater 
        transparency of and predictability in the legal system; 
        and
          (4) greater Chinese Government and Communist Party 
        sophistication in co-opting the language of human 
        rights and the rule of law to shape perceptions of 
        China's record on these issues.

                         Maintaining Stability

    The frequency of mass protests in China during the 
Commission's 2009 reporting year attracted attention throughout 
China and worldwide. Party leaders considered 2009 to be a 
sensitive year and set an even greater priority on maintaining 
social stability. As a result, central and local governments 
increased public security budgets and expanded mechanisms 
charged with ``stability maintenance work.'' Offices charged 
with ``stability maintenance'' focused on developing ``early 
warning systems'' for social instability and expanding networks 
of ``informants'' at local levels.
    Many protests were triggered when workers, farmers and 
other rural residents, or urban residents turned to laws and 
regulations to defend their interests against those of 
businesses, allegedly corrupt government officials, or both. 
Many such disputes resulted, for example, from complaints 
against industrial pollution, worker grievances, property 
disputes, uneven development, and wealth inequality. Citizens' 
appeals often included calls for fair and just government 
mediation. In some instances, more powerful and well-funded 
economic players took measures to cause the harassment and 
intimidation of local protesters. Local government officials in 
many cases justified taking police action against protesters by 
asserting that doing so helped to promote ``economic 
development'' and ``defend social order.'' Police action 
against protesters in the name of maintaining order and 
``stability above all else'' came to international attention in 
the past year as authorities forcefully suppressed a 
demonstration by Uyghurs in the XUAR capital of Urumqi on July 
5, a day which also marked the start of violent clashes and 
attacks in the city.
    The lack of adequate rule of law at the local level 
contributed to channeling social pressures toward 
administrative and Party officials for management or 
resolution, instead of through the judicial system. When 
economic disputes became protests, protesters often called on 
government officials to intervene on their behalf. The 
performance evaluation of officials, however, in part is based 
on the successful preemption or suppression of mass protests 
and petitioning as well as on achieving economic development 
targets. Such measures of government performance work against 
addressing the root causes of citizens' protests and against 
resolving disputes in a fair manner. Even though empowering the 
courts to fulfill their constitutional and lawful purpose would 
serve citizens' interests, officials fail to empower the 
courts. Government and Party officials are reluctant to bend to 
the rule of law, and the leadership fears that full 
implementation of the rule of law could unleash social forces 
that are beyond the capacity of the courts to control.

                         Checks on State Power

    Deficiencies in institutional and legal restraints on state 
power became more pronounced during the Commission's 2009 
reporting year. Serious abuses of fundamental human rights 
resulted in part from the weakness or absence of basic 
protections available to citizens through legal process. Even 
when procedural protections exist on paper, insufficient 
safeguards are in place to guarantee their implementation. For 
example, China's lower courts frequently seek instructions from 
higher courts before issuing decisions. This system of 
``instruction on request'' undermines the fundamental purpose 
of the appellate process, and serves as an impediment to the 
development of administrative and judicial decisions supported 
by statements of legal reasoning. That, in turn, negatively 
impacts the public's faith in the integrity of legal 
institutions. During the 2009 annual session of the National 
People's Congress, delegates introduced a bill aimed at 
abolishing ``instruction on request.'' The shortcoming, 
therefore, is not that officials have failed to identify the 
problem, or that a viable solution is out of reach. Rather, 
officials do not empower lower courts for the reasons noted 
above: the Party's unwillingness to bend to the rule of law, 
and the fear of unleashing social forces that are beyond the 
capacity of courts to control.
    Even when laws on the books are well crafted, abuses arise. 
The presumption of guilt permitted under Chinese criminal law--
especially in ``politically sensitive'' cases--confounds 
defense attorneys' attempts to present evidence of innocence, 
to provide evidence that a defendant committed a lesser crime, 
or otherwise to mount an effective defense. To uphold the 
Chinese Government's domestic and international commitments to 
adhere to legal procedure, China needs a community of legal 
scholars and lawyers well trained in procedural law to 
represent citizens--even in ``sensitive'' cases. This report 
documents that China has such lawyers, but local judicial 
bureaus and lawyers associations have denied a number of them 
renewal of their professional licenses. Absent adequate legal 
and institutional constraints on state power, government 
authorities and unofficial personnel continued during the 
Commission's 2009 reporting year to monitor unlawfully and 
subject to periodic illegal home confinement social activists, 
dissidents, religious adherents, human rights lawyers, and 
their family members. Such unlawful activity increased during 
sensitive periods, such as during the 20th anniversary of the 
Tiananmen protests.

                   Predictability of the Legal System

    The impetus for much of China's legal reform in the past 
two decades was its preparation for accession to the World 
Trade Organization in December 2001. Those changes, while 
significant, have not produced a national legal system that is 
consistently and reliably transparent, accessible, and 
predictable. The Communist Party rejects the notion that 
upholding the rule of law should preempt the Party's role in 
guiding the functions of the state.
    The ``crime'' of disclosing state secrets exemplifies the 
limitations on the rule of law. Broad categories of information 
may be classified as state secrets, including information 
related to ``economic and social development.'' Officials use 
this discretion to punish citizens for attempting to expose 
official abuse of power. For example, in 2005 officials 
sentenced Shi Tao, a journalist, to serve 10 years in prison 
for exposing a directive from propaganda officials concerning 
restrictions on media coverage of the 15th anniversary of the 
June 1989 Tiananmen protests. Officials had designated the 
directive ``top secret.'' Individuals charged with illegally 
disclosing state secrets may mount a defense against the 
charge, but they cannot legally challenge the decision that 
classified the information as a state secret. A draft revision 
of the Law on Guarding State Secrets that the National People's 
Congress published for public comment earlier this year leaves 
broad criteria for classifying information as a ``state 
secret'' intact.
    Even in the domain of commercial law, developments over the 
past year have shown how business disputes and commercial 
issues may have real consequences for human rights when the 
Chinese Government or Party perceives its interests to be 
threatened. The case of Rio Tinto, an Australian mining 
corporation whose employees Chinese authorities reportedly 
detained initially on allegations of possible violations of 
state secrets laws, and later on accusations of violating laws 
on commercial secrecy, is an example.
    Extralegal detention remains a serious problem that 
endangers the legitimacy and predictability of the legal 
system, and violates a number of basic human rights. Chinese 
citizens, including petitioners, peaceful protesters, and 
individuals deemed ``undesirable'' by authorities, remain 
subject to arbitrary detention in extralegal detention 
facilities such as secret jails and ``law education classes.'' 
Some are held for nonmedical reasons in psychiatric hospitals. 
Authorities' use of unlawful detention varies periodically--it 
increases prior to significant events and anniversaries--and 
from area to area.

                          Shaping Perceptions

    Chinese Government and Party officials displayed during the 
Commission's 2009 reporting year greater sophistication in co-
opting the language of human rights and the rule of law to 
shape perceptions of China's record on these issues. The 
soaring influence of China's Internet and a greater focus on 
competing with international media in reporting on China have 
shaped the Party's strategy of control. The Chinese Government 
and Communist Party's official media expedite reporting on some 
events in order to influence mass media coverage. At the same 
time, the government increases censorship of unofficial 
information channels, such as the Internet. International 
journalists working in China face fewer restrictions than their 
domestic Chinese counterparts, but they continue to meet with 
harassment and their ability to function as an effective 
alternative to official ``spin'' sometimes is limited.
    The Chinese Government continued to soften some rhetoric 
toward religion by articulating a ``positive role'' that 
religious communities in China should fulfill, but the 
government's language casts for religion the duty to build 
support for state economic and social goals. Officials and 
central government directives continued to warn against foreign 
groups ``using religion'' to ``interfere'' in China's 
``internal'' affairs and to ``sabotage'' the country. The 
government continued to use legal measures to restrict rather 
than protect the religious freedom of Chinese citizens. Parents 
and guardians faced restrictions on their right to pass on 
religious education to children, and children remain subject to 
restrictions on their right to exercise the freedom of 
religion. The Chinese Government continued to deny its citizens 
the freedom to prepare and distribute religious texts. The 
government permitted and, in some cases, sponsored the social 
welfare activities of state-sanctioned religious communities, 
but in the past year, authorities also took steps to block some 
social welfare activities by unregistered religious groups.
    The government has in the past year used institutional, 
educational, legal, and propaganda channels to pressure Tibetan 
Buddhists to modify their religious views and aspirations. 
Chinese officials adopted a more assertive tone in expressing 
determination to select the next Dalai Lama, and to pressure 
Tibetans living in China to accept only a Dalai Lama approved 
by the Chinese Government. Escalating government efforts to 
discredit the Dalai Lama and to transform Tibetan Buddhism into 
a doctrine that promotes government positions and policy have 
resulted instead in continuing Tibetan demands for freedom of 
religion and the Dalai Lama's return to Tibet.
    In an apparent effort to shift attention from policy 
shortcomings in China, and to appeal to international support, 
authorities blamed a demonstration by Uyghurs in the XUAR 
capital of Urumqi on July 5 and strife in the region starting 
that day on the ``three forces'' of terrorism, separatism, and 
religious extremism. Authorities also accused U.S.-based Uyghur 
rights advocate Rebiya Kadeer of orchestrating events on July 
5--a charge she denied--and launched a media campaign to 
portray family members denouncing her.
    China's global reach and expanding economy provide the 
government an array of international levers to penalize 
governments and organizations that criticize the Chinese 
Government's human rights record, as well as channels to reward 
international entities that support the government's positions, 
or who choose to remain silent. China's actions related to 
Darfur and Sudan, and China's reported surveillance and 
intimidation of non-governmental organizations, religious and 
spiritual adherents, and international activists may be 
understood, at least in part, in this context.

                I. Executive Summary and Recommendations

                      Findings and Recommendations

    A summary of findings follows below for each area that the 
Commission monitors. In each area, the Commission has 
identified a set of issues that merit attention over the next 
year, and, in accordance with the Commission's mandate, submits 
a set of recommendations to the President and the Congress for 
legislative or executive action.


                         freedom of expression


                                Findings

        <bullet> During the Commission's 2009 reporting year, 
        Chinese officials continued to target for punishment or 
        harassment citizens who peacefully expressed political 
        dissent or who advocated for human rights, including 
        those who voiced concern that the Chinese Government 
        had not adequately investigated the cause of school 
        collapses following the May 2008 Sichuan earthquake, 
        those who sought to express support for Charter 08 (a 
        document calling for political reform and greater 
        protection of human rights), and those who spoke out 
        about alleged official misconduct. Officials treated 
        such activity as a threat to national security, 
        charging citizens with the crime of ``inciting 
        subversion,'' or treated such activities as 
        ``defamation.'' Officials ordered other citizens to 
        serve time in reeducation through labor, a form of 
        administrative detention without trial. Local officials 
        also abused police power, subjecting citizens to 
        surveillance and interrogation, warning them not to 
        speak to news media, taking citizens into custody, and 
        restricting their freedom of movement.
        <bullet> The government and Communist Party continued 
        to apply a system of censorship and regulation of the 
        news media and publishing industry that violates 
        international human rights standards for free 
        expression. Top Chinese officials continued to 
        emphasize the media's subservient relationship to the 
        government and Party. Party and government officials 
        continued to punish journalists and news media (for 
        example, by suspending publication) and to rely on 
        prior restraints on publishing, including licensing and 
        other regulatory requirements, to restrict free 
        expression. Officials continued to view news media 
        commercialization as serving official over public 
        interests. They have expressed a desire to create a 
        more market-friendly media to facilitate the spread of 
        propaganda and China's ``soft power.''
        <bullet> The government continued to promote a limited 
        watchdog role for journalists and to support raising 
        professionalism among journalists, but emphasized 
        political loyalty as an important criterion.
        <bullet> The increasing influence of China's Internet 
        and a greater focus on competing with international 
        media for reporting on China have led the Party to 
        adapt its strategy of control by expediting the release 
        of official reporting of some events in order to shape 
        mass media coverage, while at the same time increasing 
        censorship of nonofficial channels of information.
        <bullet> Foreign journalists reporting in China face 
        fewer restrictions than domestic journalists but they 
        still face harassment.
        <bullet> While the Internet continued this past year to 
        serve as a limited, but important, outlet for 
        individual expression and criticism of government 
        policies, the Chinese Government's regulation of the 
        Internet and other electronic communications continued 
        to violate international standards for free expression.
        <bullet> Officials continued to shut down or block 
        access to domestic and foreign Web sites based on those 
        sites' political or religious content. Chinese 
        authorities and companies offering Internet content in 
        China continued to monitor, filter, and remove 
        political and religious content from the Internet.
        <bullet> Officials this past year also sought to 
        strengthen their ability to monitor Internet users' 
        online expression. They introduced and then backed away 
        from a requirement that all computers in China be sold 
        with pre-installed censorship software found to filter 
        political and religious content and monitor individual 
        computer behavior. Officials also began forcing news 
        Web sites to require new users to provide their real 
        name and identification number in order to post a 
        comment.
        <bullet> Officials continued this past year to describe 
        campaigns to remove content as aimed at ``vulgar'' or 
        pornographic content, but guidance issued by the 
        government included political content as well.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

        <bullet> Raise concerns with Chinese officials about 
        their government punishing peaceful expression and 
        preventing citizens from accessing information the 
        government deems sensitive for political and religious 
        reasons, under the guise of protecting national 
        security or minors from pornography. Remind Chinese 
        officials they are within their rights under 
        international human rights standards to restrict 
        freedom of expression to protect minors and national 
        security, but that those standards also provide 
        important limitations on such power.
        <bullet> Support U.S. Government programs that 
        encourage Chinese journalists to visit the United 
        States for professional development and training on a 
        wide range of topics, from the practice of journalism 
        at U.S. news media and legal protections for 
        journalists in the United States, to the role of the 
        media in American society, history, and culture, and 
        how courts decide cases involving Internet restrictions 
        and freedom of expression. The Chinese Government has a 
        stated interest in increasing the professionalism of 
        Chinese journalists, and officials have both likened 
        their Internet restrictions to purported similar 
        policies in the United States, while also saying that 
        the news media in China should learn more from the 
        United States.
        <bullet> Take steps to increase awareness by the 
        American public and international community of the 
        Chinese Government and Communist Party's controls over 
        their own media and their subsidy of Chinese media 
        expansion overseas, and urge China to allow 
        international news media freer access in China. The 
        Chinese Government has committed 45 billion yuan 
        (US$6.6 billion) to subsidize the overseas development 
        of central government and Party-controlled media such 
        as People's Daily, Xinhua, and CCTV in order to expand 
        the nation's soft power.
        <bullet> Support U.S. Government programs that make 
        available Chinese-language how-to guides on, for 
        example, how to create a blog or how to access human 
        rights Web sites. Support programs for both 
        technologies and strategies that address problems 
        implicit with China's online censorship, as well as 
        effective means of making such technologies and 
        strategies widely accessible and known by Chinese 
        citizens.
        <bullet> Support funding for Radio Free Asia and Voice 
        of America news reporting and multi-dialect and multi-
        language broadcasting to China so that Chinese citizens 
        have access to uncensored information about events in 
        China and worldwide.
        <bullet> Solicit input from U.S. Government agencies, 
        non-governmental organizations, and private companies 
        on best practices and possible legislation in order to 
        ensure American companies are promoting free expression 
        in China, and also consult similar initiatives being 
        undertaken by other countries, including the European 
        Union. The Chinese Government's recent effort to 
        require all computer makers, including those based in 
        the United States and other countries, to include 
        filtering software that blocks political and religious 
        content in all computers sold in China, is a reminder 
        that Chinese officials continue to seek ways of co-
        opting technology companies in assisting in online 
        censorship.
        <bullet> In official correspondence with Chinese 
        counterparts, include statements calling for the 
        release of political prisoners named in this report who 
        have been punished for peaceful expression, including: 
        Tan Zuoren (earthquake activist facing charges of 
        inciting subversion), Huang Qi (earthquake activist 
        facing charges of possessing state secrets), Liu Xiaobo 
        (prominent intellectual and signer detained in 
        connection with Charter 08), and other prisoners 
        included in this report and in the Commission's 
        Political Prisoner Database.


                             worker rights


                                Findings

        <bullet> Workers in China still are not guaranteed 
        either in law or in practice full worker rights in 
        accordance with international standards, including, but 
        not limited to, the right to organize into independent 
        unions. The All-China Federation of Trade Unions 
        (ACFTU), the official union under the direction of the 
        Communist Party, is the only legal trade union 
        organization in China. All lower-level unions must be 
        affiliated with the ACFTU. While the ACFTU has become 
        more active, focusing on unionization of foreign-funded 
        firms and organization of migrant workers, and pushing 
        the expansion of collective contracts, the ACFTU 
        continues to be dominated by the Communist Party with 
        its overarching political concerns of social stability 
        and economic growth.
        <bullet> Labor strife increased during the Commission's 
        2009 reporting year. With the economic crisis, Chinese 
        workers have increased pressure on the Chinese 
        Government to force employers to pay wages in a timely 
        manner, improve working conditions, and comply with new 
        labor legislation. Labor conflict occurred on a larger 
        scale and was often more organized and more legalistic 
        than in the previous reporting year. Workers were also 
        increasingly strategic in their escalation of strike 
        activity, often moving quickly from shopfloor disputes 
        to public demonstrations to press for local government 
        intervention in a workplace dispute.
        <bullet> Despite legislative activity in recent years 
        that increased legal protections for workers, in the 
        wake of the global economic crisis, the government is 
        now focused on maintaining employment, often to the 
        detriment of implementation and enforcement of the new 
        labor codes. Local implementation measures for new 
        labor laws that took effect in 2008 (i.e., the PRC 
        Labor Contract Law, PRC Employment Promotion Law, and 
        PRC Labor Dispute Mediation and Arbitration Law) are 
        concentrated in the south and southeast. Many of these 
        local measures are emanating from the judicial system 
        rather than from local legislative or administrative 
        units. Many of these judicial guiding opinions and 
        measures are focused on addressing unemployment and 
        investment flows.
        <bullet> With the large increase in labor disputes 
        since 2008, the government has put increased emphasis 
        on extrajudicial dispute resolution and flexibility in 
        resolution procedures, especially encouragement of 
        mediation at lower levels and cooperation between 
        levels of government (e.g., cooperation between 
        province and city, city and county, etc.) to limit the 
        social and political impact of large-scale disputes.
        <bullet> Proactive local governments have passed 
        regulations that offer special incentives to firms that 
        mitigate layoffs. At the same time, they are also 
        compensating workers in the wake of enterprise 
        shutdowns and bankruptcies.
        <bullet> Informalization of the Chinese labor force 
        accelerated this year as firms adopted measures to 
        reduce the costs of formal employees. Widespread use of 
        subcontracted workers and temporary workers continues. 
        Informal workers often suffer substandard working 
        conditions, nonpayment of wages, and exclusion from 
        social insurance programs.
        <bullet> The central and local governments continued 
        work on social insurance reform, especially national 
        legislation to set broad goals and local legislation 
        and policy that expand social insurance to rural 
        migrants and increase the ``portability'' of social 
        insurance benefits for mobile workers.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

        <bullet> Support projects promoting legal reform 
        intended to ensure that labor laws and regulations 
        reflect international norms. Prioritize projects that 
        do not focus only on legislative drafting and 
        regulatory development, but that ensure that 
        implementation produces outcomes for workers that 
        reflect real improvements, and measure progress in 
        terms of compliance with international norms at the 
        grassroots.
        <bullet> Support projects that enhance the 
        professionalization of the dispute resolution process, 
        including training of ACFTU officials, lawyers, human 
        resource managers, arbitrators, and mediators. 
        Prioritize programs that target the enhancement of the 
        role of non-governmental organizations (NGOs) in the 
        dispute resolution process.
        <bullet> Continue to support multi-year pilot projects 
        that showcase the experience of collective bargaining 
        in action for both Chinese workers and ACFTU officials. 
        Where possible, prioritize programs that demonstrate 
        the ability to conduct collective bargaining pilot 
        projects even in factories that do not have an official 
        union presence.
        <bullet> Support the production and distribution in 
        various formats (print, online, video, etc.) of 
        Chinese-language how-to materials on conducting 
        elections of worker representatives and collective 
        bargaining.
        <bullet> Support projects that prioritize the large-
        scale compilation and analysis of Chinese labor dispute 
        litigation and arbitration cases, leading ultimately to 
        the publication and dissemination of Chinese-language 
        casebooks that may be used as a common reference 
        resource by workers, arbitrators, judges, lawyers, 
        employers, unions, and law schools in China.
        <bullet> Support capacity-building programs to 
        strengthen Chinese labor and legal aid organizations 
        involved in defending the rights of workers.
        <bullet> Support projects that enhance the labor 
        inspection process in China. Prioritize projects that 
        involve multiple actors, including labor and legal aid 
        organizations and ACFTU officials, as well as 
        representatives of the media and government officials.


                            criminal justice


                                Findings

        <bullet> Extralegal detention remains a serious 
        problem. Chinese citizens, including petitioners, 
        peaceful protesters, and other individuals considered 
        to be ``undesirable'' by authorities, continue to be 
        arbitrarily detained in extralegal detention 
        facilities, such as ``black jails,'' ``law education 
        classes,'' and psychiatric hospitals for nonmedical 
        reasons.
        <bullet> Government authorities and unofficial 
        personnel persisted in unlawfully monitoring and 
        subjecting to periodic illegal home confinement certain 
        groups, including activists, dissidents, religious 
        adherents, human rights lawyers, and their family 
        members, particularly during sensitive periods, such as 
        the 20th anniversary of the Tiananmen protests.
        <bullet> The rights of criminal suspects and defendants 
        continued to fall far short of the rights guaranteed in 
        the Universal Declaration of Human Rights and the 
        International Covenant on Civil and Political Rights, 
        as well as rights provided for under China's Criminal 
        Procedure Law and Constitution.
        <bullet> While the revised Lawyers Law reportedly has 
        led to some improved access to detained clients in 
        certain jurisdictions, lawyers continued to confront 
        obstacles in meeting with their clients, particularly 
        in politically sensitive cases. Some suspects and 
        defendants in sensitive cases were not able to have 
        counsel of their own choosing; some were compelled to 
        accept government-appointed defense counsel.
        <bullet> The Chinese Government released its first-ever 
        human rights action plan in April, which contains 
        encouraging policy commitments with respect to, among 
        other things, fair trial rights and detainee rights.
        <bullet> There was a spate of unnatural deaths in 
        detention centers during the first few months of 2009, 
        which prompted the Supreme People's Procuratorate to 
        launch an investigation and review of management in 
        China's detention centers.
        <bullet> Although it is unlawful under Chinese law to 
        obtain confessions and other evidence through torture, 
        such evidence is nonetheless admissible in criminal 
        trials. The Supreme People's Procuratorate announced in 
        August that it was planning to issue a regulation 
        providing that confessions obtained through torture 
        would no longer be admissible in death penalty cases.
        <bullet> In June, Beijing municipality announced that 
        by the end of 2009 it would cease executing prisoners 
        by gunshot, but instead would use lethal injections. 
        The Supreme People's Court indicated that eventually 
        all executions nationwide will be carried out by lethal 
        injection.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

        <bullet> Raise with Chinese officials the issue of 
        black jails and other secret detention facilities, and 
        press the Chinese Government to adopt the 
        recommendation of the UN Committee against Torture to 
        investigate and disclose the existence of such 
        facilities, as a first step toward abolishing such 
        forms of extralegal detention. Ask the Chinese 
        Government to extend an invitation to the UN Working 
        Group on Arbitrary Detention to visit China.
        <bullet> Call on the Chinese Government to provide the 
        international community with a specific timetable for 
        its ratification of the International Covenant on Civil 
        and Political Rights, which it signed in 1998.
        <bullet> Urge the Chinese Government to amend its 
        Criminal Procedure Law to reflect the enhanced 
        protections and rights for lawyers and detained 
        suspects contained in the revised Lawyers Law, and 
        ensure its effective implementation.
        <bullet> Ask the Chinese Government what measures it is 
        taking to ensure that the laudable policy commitments 
        with respect to fair trial rights and detainee rights 
        contained in its 2009-2010 National Human Rights Action 
        Plan are translated into laws and regulations, and what 
        steps it will take to ensure their successful 
        implementation.
        <bullet> Urge Chinese officials to take all necessary 
        measures to guarantee that evidence obtained through 
        torture or other illegal means is inadmissible in all 
        criminal trials.


                          freedom of religion


                                Findings

        <bullet> The Chinese Government continued during the 
        Commission's 2009 reporting year to strictly control 
        religious practice and repress religious activity 
        outside of state-approved parameters. Local governments 
        implemented measures to prevent ``illegal'' religious 
        gatherings and to curb other ``illegal'' religious 
        activities, in some cases destroying sites of worship 
        and detaining or imprisoning religious believers.
        <bullet> In the past year, government efforts to 
        discredit the Dalai Lama and to transform Tibetan 
        Buddhism into a doctrine that promotes government 
        positions and policy escalated, resulting in continuing 
        Tibetan demands for freedom of religion and the Dalai 
        Lama's return to Tibet. Buddhist communities outside 
        the tradition of Tibetan Buddhism also faced continued 
        government controls, and unregistered Buddhist temples 
        remained subject to closure and demolition by 
        government authorities. Catholic bishops in China's 
        unregistered church community remained in detention, in 
        home confinement, under surveillance, in hiding, or in 
        unknown whereabouts, while authorities strengthened 
        rhetoric on the state-controlled Catholic church's 
        independence from the Holy See. The government 
        maintained its longstanding ban against the Falun Gong 
        spiritual movement and other religious and spiritual 
        groups deemed to be cults, subjecting some members to 
        detention, imprisonment, and other abuses. Repression 
        of Islam in the Xinjiang Uyghur Autonomous Region 
        (XUAR) worsened as authorities strengthened security 
        campaigns targeting ``religious extremism,'' and 
        outside the XUAR, the government also maintained broad 
        controls over the practice of Islam. The government 
        continued to subject registered Protestant 
        congregations to tight state control over their 
        internal affairs and officials continued to target some 
        unregistered Protestant churches for closure and to 
        harass, detain, or imprison some church leaders and 
        members. Authorities maintained restrictions over the 
        activities of registered Taoist priests, and 
        unregistered Taoist priests were subject to penalties 
        for failing to submit to state control. Other religious 
        and spiritual communities remained without legal 
        recognition to practice their faith.
        <bullet> During the Commission's 2009 reporting year, 
        the government also continued to use legal measures to 
        restrain, rather than protect, the religious freedom of 
        all Chinese citizens. Children faced continued 
        restrictions on their right to freedom of religion, and 
        parents and guardians faced restrictions on their right 
        to impart a religious education to their children. The 
        Chinese Government continued to deny its citizens the 
        freedom to prepare and distribute religious texts. The 
        government permitted, and in some cases, sponsored, the 
        social welfare activities of state-sanctioned religious 
        communities, but in the past year, authorities also 
        took steps to block some social welfare activities by 
        unregistered religious groups.
        <bullet> The Chinese Government and Communist Party in 
        the past year continued to affirm basic policies of 
        control over religious practice. Authorities continued 
        to soften some rhetoric toward religion by articulating 
        a ``positive role'' for religious communities in China, 
        but used this sentiment to bolster support for state 
        economic and social goals. At the same time, officials 
        and central government directives continued to warn 
        against foreign groups ``using religion'' to 
        ``interfere'' in China's affairs and ``sabotage'' the 
        country.
        <bullet> The Chinese Government's legal and policy 
        framework for religion violates the protections for 
        freedom of religion set forth in Article 18 of the 
        Universal Declaration of Human Rights, Article 18 of 
        the International Covenant on Civil and Political 
        Rights, and other international human rights 
        instruments. Although the PRC Constitution guarantees 
        that all citizens enjoy ``freedom of religious 
        belief,'' it limits citizens' ability to exercise their 
        beliefs by protecting only ``normal religious 
        activities,'' a vaguely defined term in both law and 
        practice that has been used as a means to suppress 
        forms of religious activity protected under 
        international human rights law. Although the national 
        Regulation on Religious Affairs and local government 
        regulations provide a measure of protection for some 
        religious activities, such protection is limited in 
        scope and applies only to state-sanctioned religious 
        communities.
        <bullet> Chinese officials harassed, detained, and in 
        some cases, physically abused attorneys who defended 
        practitioners of the banned spiritual movement called 
        Falun Gong and members of unregistered Protestant 
        churches. The Commission observed cases of procedural 
        irregularities and violations in criminal cases 
        involving religious practitioners.
        <bullet> The Communist Party's 6-10 Office, an 
        extralegal security force created to enforce the ban 
        against Falun Gong, also actively targeted other banned 
        groups deemed by the government to be ``cult 
        organizations,'' including groups of Protestant and 
        Buddhist origin. The Commission documented various 
        efforts by the 6-10 Office to suppress these groups, 
        including propaganda campaigns, surveillance and 
        intelligence operations, as well as detentions and 
        imprisonment.
        <bullet> Despite creating space for some citizens to 
        practice their religion within government-approved 
        parameters, where some, but not all, Chinese citizens 
        are allowed to do so, and where members of China's five 
        government-sanctioned religious communities remain 
        subject to tight controls over their affairs, the 
        Chinese Government has failed in its obligation to 
        protect Chinese citizens' right to freedom of religion.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

        <bullet> Call on the Chinese Government to remove its 
        policy framework of recognizing only select religious 
        communities for limited government protections and to 
        guarantee to all citizens freedom of religion in 
        accordance with Article 18 of the Universal Declaration 
        of Human Rights.
        <bullet> Call for the release of Chinese citizens 
        confined, detained, or imprisoned in retaliation for 
        pursuing their right to freedom of religion (including 
        the right to hold and exercise spiritual beliefs). Such 
        prisoners include Jia Zhiguo (unregistered Catholic 
        bishop whom authorities detained in March 2009 in 
        connection with his religious activities independent of 
        the state-controlled Catholic Patriotic Association), 
        Phurbu Tsering (Tibetan Buddhist teacher and head of a 
        Tibetan Buddhist nunnery whom authorities brought to 
        trial in April 2009 on a weapons charge his lawyers 
        said involves coerced confession and insufficient 
        evidence), Shi Weihan (bookstore owner and Protestant 
        house church leader sentenced in 2009 to three years in 
        prison for illegal operation of a business after 
        authorities accused him of illegally printing and 
        distributing Bibles), Xu Na (detained for possessing 
        documents and computer disks containing Falun Gong 
        materials and sentenced in 2008 to three years in 
        prison for ``using a cult organization to undermine the 
        implementation of the law''), Yusufjan and Memetjan 
        (university students who are members of a Muslim 
        religious group and were detained in May when members 
        of the group met on a university campus), as well as 
        other prisoners mentioned in this report and in the 
        Commission's Political Prisoner Database.
        <bullet> Support non-governmental organizations that 
        collect information on conditions for religious freedom 
        in China and that inform Chinese citizens of methods to 
        defend their right to freedom of religion against 
        Chinese Government abuses.
        <bullet> Support organizations that can provide 
        technical assistance to the Chinese Government in 
        drafting legal provisions that protect, rather than 
        restrain, freedom of religion for all Chinese citizens.


                         ethnic minority rights


                                Findings

        <bullet> The Chinese Government continued during the 
        Commission's 2009 reporting year to implement policies 
        that undermine ethnic minority citizens' rights. The 
        government repressed expressions of ethnic identity 
        perceived to challenge government authority, especially 
        in the Xinjiang Uyghur Autonomous Region, the Tibet 
        Autonomous Region and other Tibetan areas, and the 
        Inner Mongolia Autonomous Region. While the Chinese 
        Government maintained some protections in law and 
        practice for citizens it designates as ethnic 
        minorities, shortcomings in the substance and 
        implementation of Chinese policy continued to prevent 
        ethnic minorities from exercising their rights in line 
        with domestic law and international human rights 
        standards. Ethnic minorities did not enjoy ``the right 
        to administer their internal affairs,'' as provided for 
        under the PRC Regional Ethnic Autonomy Law. [See 
        Xinjiang--Findings, and Tibet--Findings in this section 
        for additional information.]
        <bullet> In the aftermath of demonstrations in 2008 and 
        2009 by Tibetans and Uyghurs that highlighted systemic 
        problems in state policies toward ethnic minorities and 
        ethnic issues, the central government continued to 
        attribute outstanding tensions to its citizens while 
        asserting the effectiveness of government policies and 
        amplifying publicity in their support.
        <bullet> In the past year, the government continued to 
        implement development policies that prioritize state 
        economic goals over protecting ethnic minorities' 
        rights and guaranteeing ethnic minority participation 
        in decisionmaking processes. It also continued in the 
        past year to impose controls over how individuals and 
        communities define their ethnicity, interpret their 
        history, and preserve their culture and language.
        <bullet> Authorities in the Inner Mongolia Autonomous 
        Region continued to implement measures that undermine 
        Mongol traditions and livelihoods and punish people who 
        defend Mongols' rights or who express dissent.
        <bullet> The Chinese Government pledged to increase 
        protection for the rights of ethnic minorities in its 
        2009-2010 National Human Rights Action Plan (HRAP). 
        While the HRAP outlines measures to support 
        legislation, governance, education, personnel training 
        and employment, language use, and cultural and economic 
        development among ethnic minorities, domestic and 
        overseas observers have questioned the likely impact of 
        the HRAP amid the Chinese Government's poor human 
        rights record, including in the area of ethnic 
        minorities' rights.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

        <bullet> Fund rule of law programs and exchanges that 
        raise awareness among Chinese leaders of different 
        models for governance that protect ethnic minorities' 
        rights and allow them to exercise meaningful autonomy 
        over their affairs.
        <bullet> Support non-governmental organizations' 
        efforts to continue or develop programs that address 
        ethnic minority issues within China, including training 
        programs that build capacity for sustainable 
        development among ethnic minorities, programs to 
        protect ethnic minority languages and cultural 
        heritage, and programs that research rights abuses in 
        the Inner Mongolia Autonomous Region.
        <bullet> Call on the Chinese Government to release 
        people confined, detained, or imprisoned for advocating 
        for the rights of ethnic minority citizens, including 
        Mongol rights advocate Hada (serving a 15-year sentence 
        after pursuing activities to promote Mongols' rights 
        and democracy) and other prisoners mentioned in this 
        report and in the Commission's Political Prisoner 
        Database.
        <bullet> Support organizations that can monitor the 
        Chinese Government's compliance with stated commitments 
        to protect ethnic minorities' rights, including the 
        commitments articulated in the government's 2009-2010 
        National Human Rights Action Plan. Provide support for 
        organizations that can provide assistance in 
        implementing programs in a manner that draws on 
        participation from communities involved and ensures the 
        protection of their rights.


                          population planning


                                Findings

        <bullet> The Commission found increasing evidence, 
        including from official sources, that Chinese 
        authorities continue to employ compulsory abortion and 
        sterilization as an official policy instrument on a 
        large scale in over a third of China's provincial-level 
        jurisdictions. In some areas, authorities specifically 
        targeted migrant workers for forced abortions.
        <bullet> In some areas, government campaigns to force 
        women with ``out-of-plan'' pregnancies to undergo 
        abortion or sterilization procedures reportedly 
        included government payments to informants. Some local 
        governments also linked job promotion with an 
        officials' ability to meet or exceed population 
        planning targets. Officials received points on their 
        performance evaluations for overseeing abortions of 
        ``out-of-plan'' pregnancies.
        <bullet> The demographic impact of China's population 
        planning policies continues to manifest, most notably 
        in the country's highly skewed sex ratio. A study 
        published in the British Medical Journal estimates that 
        in 2005, there was an excess of 32 million males under 
        the age of 20 in China. The study primarily attributes 
        this ``imminent generation of excess males'' to the 
        practice of sex-selective abortion.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

        <bullet> Urge Chinese officials to cease coercive 
        measures, including forced abortion and sterilization, 
        to enforce birth control quotas. Urge the Chinese 
        Government to dismantle coercive population controls, 
        while supporting programs that inform Chinese officials 
        of the importance of respecting citizens' diverse 
        beliefs.
        <bullet> Urge Chinese officials to release Chen 
        Guangcheng, imprisoned in Linyi city, Shandong 
        province, after exposing forced sterilizations, forced 
        abortions, beating, and other abuses carried out by 
        Linyi population planning officials.
        <bullet> Call on Chinese officials to permit greater 
        public discussion and debate concerning population 
        planning policies and to demonstrate greater 
        responsiveness to public concerns. Impress upon China's 
        leaders the importance of promoting legal aid and 
        training programs that help citizens pursue 
        compensation and other remedies against the state for 
        injury suffered as a result of official abuse related 
        to China's population planning policies. Provisions in 
        the PRC Law on State Compensation provide for such 
        remedies for citizens subject to abuse and personal 
        injury by administrative officials, including 
        population planning officials. Support the development 
        of programs and international cooperation in this area.


                          freedom of residence


                                Findings

        <bullet> The Chinese Government continued to enforce 
        the household registration (hukou) system it first 
        established in the 1950s. This system limits the right 
        of Chinese citizens to choose their permanent place of 
        residence. Regulations and policies that condition 
        legal rights and access to social services on residency 
        status have resulted in discrimination against rural 
        hukou holders who migrate to urban areas for work.
        <bullet> Authorities continued to relax certain hukou 
        restrictions for Chinese citizens who met specific 
        requirements. National-, provincial-, and municipal-
        level hukou measures enacted this past year aimed to 
        promote employment amid the current economic downturn, 
        but excluded most migrant workers who did not have a 
        college education or special skills.
        <bullet> The government continued to impose certain 
        restrictions on Chinese citizens' right to travel that 
        violated international human rights standards. 
        Authorities placed a number of Chinese activists under 
        home confinement and surveillance. Some Chinese 
        citizens were prevented from leaving mainland China, 
        while other Chinese individuals were prevented from 
        entering mainland China, Hong Kong, and Macau.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

        <bullet> In international discussions on internal 
        migration, highlight the role played by China's 
        household registration system.
        <bullet> Support programs and organizations that defend 
        migrant workers' rights and encourage policy debates on 
        household registration system reforms.
        <bullet> Call on the governments of the Hong Kong and 
        Macau Special Administrative Regions to cease the 
        practice of denying entry to Chinese democracy 
        activists or dissidents from overseas.


                            status of women


                                Findings

        <bullet> Chinese officials continued to pursue policies 
        that aim to protect women's rights. China's sexual 
        harassment and domestic violence-related legal 
        framework saw further improvements.
        <bullet> The Chinese Government's implementation of 
        some domestic laws and policies related to women's 
        rights continued to fall short of international 
        standards. Problems such as lack of transparency and 
        control over information flows have impeded some of the 
        government's efforts to fulfill these commitments.
        <bullet> Gender inequalities continue to be reflected 
        in women's low levels (relative to men) of political 
        participation, unequal access to education, limited 
        access to healthcare, and relatively weaker protection 
        of property and inheritance rights.
        <bullet> Gender-based discrimination in China in areas 
        such as wages, recruitment, retirement age, and sexual 
        harassment remains, but the government has made efforts 
        to eliminate gender-based discrimination and promote 
        women's employment.
        <bullet> The differences in mandatory retirement ages 
        for men and women in China continue to impede the 
        career advancement of some women, especially those in 
        senior positions and women with higher educational 
        levels. The lower compulsory retirement age for women 
        also contributes to hiring discrimination. Currently, 
        retirement ages for male and female government and 
        Party officials are 60 and 55, respectively, while 
        retirement ages for male and female workers in general 
        are 60 and 50, respectively.
        <bullet> Hainan province became the first province to 
        require that courts at all levels establish a collegial 
        panel of judges dedicated to the protection of women's 
        rights.

                             Recommendation

    Members of the U.S. Congress and Administration officials 
are encouraged to:

        <bullet> Support programs in China that remove barriers 
        to educational opportunities for girls, especially in 
        rural areas; that raise awareness among judicial and 
        law enforcement personnel regarding domestic violence, 
        sexual harassment, and sexual violence; and that expand 
        women's leadership training through U.S.-China 
        exchanges and international conferences.


                           human trafficking


                                Findings

        <bullet> The legal definition of trafficking under 
        Chinese law does not conform to international 
        standards. Under Article 240 of the PRC Criminal Law, 
        the trafficking of persons is defined as ``abducting, 
        kidnapping, buying, trafficking in, fetching, sending, 
        or transferring a women or child, for the purpose of 
        selling the victim.'' This definition is narrower in 
        scope than the definition provided in Article 3 of the 
        UN Protocol to Prevent, Suppress and Punish Trafficking 
        in Persons, Especially Women and Children, which China 
        has not yet signed. According to the U.S. Department of 
        State's 2009 Trafficking in Persons Report (TIP 
        Report), China's definition ``does not prohibit non-
        physical forms of coercion, fraud, debt bondage, 
        involuntary servitude, forced labor, or offenses 
        committed against male victims'' and ``does not 
        automatically regard minors over the age of 14 who are 
        subjected to the commercial sex trade as victims.''
        <bullet> China remains a country of origin, transit, 
        and destination for human trafficking and abductions. 
        The majority of trafficking cases are domestic and 
        involve trafficking for sexual exploitation, forced 
        labor, and forced marriage.
        <bullet> Although the majority of trafficking cases 
        take place within China's borders, human traffickers--
        also called snakeheads--continue to traffic Chinese 
        women and children from China to locations overseas, 
        including to Africa, Asia, Europe, Latin America, the 
        Middle East, and North America.
        <bullet> Women and girls from foreign countries, 
        including North Korea, Vietnam, and Burma, continue to 
        be trafficked into China, and forced into marriages, 
        employment, and sexual exploitation.
        <bullet> The Chinese Government made some efforts to 
        eliminate trafficking and comply with trafficking-
        related international human rights standards. 
        Authorities during the past year continued to 
        investigate, prosecute, and prevent trafficking crimes, 
        especially domestic trafficking cases, and those 
        involving the abduction of women for forced marriage or 
        commercial sexual exploitation. Officials also 
        continued to take steps to increase international 
        cooperation and improve China's anti-trafficking legal 
        framework.
        <bullet> The State Council issued the National Plan of 
        Action on Combating Trafficking in Women and Children 
        (2008-2012) (NPA) in December 2007. In March 2009, 29 
        ministries, central government offices, and Party 
        organizations jointly issued implementation regulations 
        for the NPA. The NPA and several similar provincial-
        level implementation plans and opinions issued in 2008 
        and 2009 focus mainly on women and children.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

        <bullet> Urge the Chinese Government to sign and ratify 
        the UN Protocol to Prevent, Suppress and Punish 
        Trafficking in Persons, Especially Women and Children, 
        to revise the government's definition of trafficking, 
        to create a comprehensive anti-trafficking law to align 
        with international standards, and to abide by its 
        international obligations with regard to North Korean 
        refugees who become trafficking victims.
        <bullet> Support legal assistance programs that 
        advocate on behalf of both foreign and Chinese 
        trafficking victims.
        <bullet> Call on the Chinese Government to provide more 
        services for trafficking victims, particularly for 
        Chinese citizens trafficked for labor exploitation and 
        trafficked abroad.
        <bullet> Support international and cross-border 
        mechanisms that can help enhance the Chinese 
        Government's collaboration with other countries, 
        regions, and international organizations on victim 
        identification, repatriation, and criminal prosecution.


                         north korean refugees


                                Findings

        <bullet> Central and local authorities sustained 
        efforts to locate and forcibly repatriate North Korean 
        refugees hiding in China. Trafficking of North Korean 
        women along the Chinese border into forced marriages 
        and the sex industry continued in the Commission's 2009 
        reporting year. The Chinese Government refuses to 
        provide North Korean trafficking victims with legal 
        alternatives to repatriation.
        <bullet> Chinese local authorities near the border with 
        North Korea continued to deny access to education and 
        other public goods for the children of North Korean 
        women married to Chinese citizens. Chinese Government 
        officials contravened guarantees under the PRC 
        Nationality Law (Article 4) and the PRC Compulsory 
        Education Law (Article 5) by refusing to register the 
        children of these couples to their father's hukou 
        (household registration) without proof of the mother's 
        status.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

        <bullet> Establish a task force to examine and support 
        the efforts of the UN High Commissioner for Refugees to 
        gain unfettered access to North Korean refugees in 
        China, and to recommend a strategy for creating 
        incentives for China to honor its obligations under the 
        1951 UN Convention Relating to the Status of Refugees 
        and its 1967 Protocol by desisting from the forced 
        repatriation of North Korean refugees, and terminating 
        the policy of automatically classifying all 
        undocumented North Korean border crossers as ``illegal 
        economic migrants.''
        <bullet> Urge Chinese officials to ensure that 
        household registration, and the public goods such as 
        access to education that registration provides, are 
        promptly granted to children born to North Korean women 
        in cohabitation with Chinese citizens, in accordance 
        with the PRC Nationality Law (Article 4) and the PRC 
        Compulsory Education Law (Article 5).


                             public health


                                Findings

        <bullet> The Chinese Government launched a 10-year 
        medical reform plan, which includes promises for reform 
        in the areas of medical insurance, pharmaceuticals, 
        public health services, and public hospitals.
        <bullet> Discrimination and social stigma against 
        people living with medical conditions such as 
        infectious disease, physical disability, and mental 
        illness remain commonplace.
        <bullet> Chinese non-governmental organizations and 
        individual advocates continue to play an important role 
        in raising awareness about medical conditions and the 
        rights of those living with them; however, Chinese 
        authorities continue to suppress health-related 
        activism.
        <bullet> Individuals with varying medical conditions 
        continued to bring employment discrimination lawsuits 
        under antidiscrimination provisions in the PRC 
        Employment Promotion Law that took effect in 2008.
        <bullet> Due to insufficient public health services in 
        rural areas and a lack of government transparency and 
        public awareness regarding disease outbreaks, China's 
        rural population has proved to be particularly 
        vulnerable to the spread of hand-foot-mouth disease, 
        tuberculosis, HIV/AIDS, and other infectious diseases 
        this year.
        <bullet> The Chinese Government's efforts to prevent 
        and control the spread of influenza A(H1N1)--commonly 
        referred to as ``swine flu''--have prompted discussion 
        about changes in its handling of disease outbreaks.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

        <bullet> Call on the Chinese Government to ease 
        repression of health-related activism by individuals 
        and non-governmental organizations and provide more 
        support to U.S. organizations that address public 
        health issues in China.
        <bullet> Urge Chinese officials to focus attention on 
        effective implementation of the PRC Employment 
        Promotion Law and related regulations that prohibit 
        discrimination against persons living with HIV/AIDS, 
        hepatitis B virus, and other illnesses in hiring and in 
        the workplace.
        <bullet> Urge the Chinese central government to work 
        with local governments to ensure effective 
        implementation of the healthcare reform plan. Local 
        government cooperation is critical in achieving the 
        projected goal of healthcare access for the entire 
        population by the year 2020.


                     climate change and environment


                                Findings

        <bullet> In 2007, China surpassed the United States to 
        become the world's top emitter of carbon dioxide. While 
        President Hu Jintao has stated that China will 
        ``endeavor to cut carbon dioxide emissions per unit of 
        GDP by a notable margin by 2020 from the 2005 level,'' 
        the Chinese Government has not agreed to carbon 
        emission caps. A top Chinese climate change policymaker 
        reportedly recently indicated that China's carbon 
        emissions may continue to rise until 2050. At the same 
        time, the Chinese Government has initiated a wide range 
        of measures, especially to improve energy efficiency 
        and lower energy intensity, the amount of energy 
        expended per unit of gross domestic product. In 
        addition, the Chinese Government actively has sought 
        investment from developed countries for projects 
        related to the Clean Development Mechanism that can 
        provide ``carbon credits'' to developed countries that 
        have agreed to emission reduction targets in 
        international agreements.
        <bullet> Weaknesses in China's environment-related 
        implementation and enforcement capacity will pose 
        significant challenges to efforts to improve energy 
        efficiency and transform its economy into a ``low-
        carbon economy.'' In addition, China's capacity 
        reliably to measure, report, and verify its greenhouse 
        gas mitigation actions remains uncertain.
        <bullet> Limitations on citizen access to information, 
        including pollution and related data, hinder efforts to 
        raise environmental awareness, promote public 
        participation, and develop incentives for compliance. 
        Limits on access to remedies for environmental harms, 
        selective enforcement, limited public participation in 
        decisionmaking processes, and selective suppression of 
        citizen demands for a cleaner environment also weaken 
        compliance efforts and contribute to citizen 
        dissatisfaction. Party and government officials have 
        continued to implement policies restricting the 
        operations of many NGOs.
        <bullet> The priority attached to economic development 
        has led to compliance challenges that hinder the 
        realization of some of the government's environmental 
        protection goals. Lack of accountability, corruption, 
        local governmental protectionism, and malfeasance 
        impede implementation and enforcement.
        <bullet> Without adequate procedural protections, 
        implementation of environmental and climate change 
        mitigation policy may place the rights of vulnerable 
        groups, including the rural poor and ethnic minorities, 
        especially nomadic herders, at risk. Hydroelectric dam 
        construction, for example, has been accompanied by lack 
        of attention to environmental impact assessment 
        processes mandated by law, and by reports of the 
        infringement upon the fundamental rights of local 
        populations. Planned rapid acceleration of the pace of 
        development of nuclear and hydroelectric projects 
        heightens these concerns going forward. China's planned 
        efforts to increase carbon sequestration in grassland 
        areas shines an additional spotlight on the need to 
        guarantee the rights of nomadic herders who inhabit 
        those areas.
        <bullet> During the Commission's 2009 reporting year, 
        official sources reported environmental protection 
        successes, including the continued decline of sulfur 
        dioxide emissions and chemical oxygen demand. 
        Regulatory and institutional developments included 
        issue of the Planned Environmental Impact Assessment 
        Regulation, the introduction of environmental pollution 
        liability insurance on a trial basis, the establishment 
        of ``environmental courts'' in a few cities on a trial 
        basis, the establishment of environmental ``police'' 
        (environmental protection sub-bureaus within the public 
        security bureaus) on a trial basis, and some limited 
        progress toward the development of a ``public interest 
        litigation'' system. The announcement of a draft PRC 
        Tort Liability Law may in the future improve China's 
        framework for environment-related compensation suits.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

        <bullet> Support U.S. Government cooperation with China 
        and other educational programs geared toward raising 
        awareness among Chinese officials of how to implement 
        climate change mitigation and adaptation strategies and 
        environmental protection policies effectively without 
        at the same time transgressing on fundamental rights.
        <bullet> Call upon the Chinese Government to cease 
        punishing citizens, such as Wu Lihong and Sun Xiaodi, 
        for their grassroots environmental activism, or for 
        their utilizing official and institutionalized channels 
        to voice their environmental grievances or to protect 
        their rights.
        <bullet> Support U.S. Government engagement with 
        relevant ministries in developing China's capacity to 
        reliably measure, report, publicize, and verify 
        emission reduction strategies and techniques. Encourage 
        Chinese officials to make government and expert 
        research reports regarding climate change and its 
        impacts in China public and easily available.
        <bullet> Invite domestic environmental civil society 
        organizations and urge the Chinese Government to invite 
        Chinese environmental civil society organizations as 
        participants or observers in bilateral and multilateral 
        climate change and environmental protection projects 
        and dialogues. Invite Chinese local-level leaders, 
        including those from counties, townships and villages, 
        to the United States to observe U.S. public policy 
        practices and approaches to problem solving. Engage 
        local Chinese officials in their efforts to reconcile 
        development and environmental protection goals. Call 
        upon U.S. cities with sister-city relationships in 
        China to incorporate environmental rights awareness, 
        environmental protection, and climate change components 
        into their programs. When making arrangements for 
        travel to China, request meetings with officials from 
        central and local levels of the Chinese Government to 
        discuss environmental governance and best practices.
        <bullet> Support multilateral exchanges regarding 
        environmental enforcement, environmental insurance, 
        criminal prosecution of serious environmental 
        infringements, and public interest litigation 
        mechanisms. Encourage Chinese leaders to strengthen 
        environmental impact assessment processes and citizen 
        participation in those processes.
        <bullet> Establish a Working Group on Climate Change 
        Policy Implementation, the Rule of Law, and Human 
        Rights in accordance with Section II(B) of the 
        Memorandum of Understanding to Enhance Cooperation on 
        Climate Change, Energy and Environment between the 
        Government of the United States of America and the 
        Government of the People's Republic of China (the MOU) 
        signed during the U.S.-China Strategic and Economic 
        Dialogue held in July 2009. (Section II(B) of the MOU 
        states that, ``[t]he Participants may establish working 
        groups or task forces involving relevant ministries as 
        necessary to support the objectives of the Climate 
        Change Policy Dialogue and Cooperation.'')


                             civil society


                                Findings

        <bullet> The Chinese Government continued to control 
        civil society in China in ways that contravene 
        international standards. Chinese citizens who sought to 
        establish non-governmental organizations (NGOs) and 
        organize around issues deemed by officials to be 
        sensitive faced obstacles, and officials in some cases 
        intimidated, harassed, and punished NGOs and citizen 
        activists.
        <bullet> NGOs continue to face challenges fulfilling 
        registration requirements. NGOs that do not fulfill 
        these requirements are left vulnerable to official 
        pressure and bereft of legal protection.
        <bullet> The number of NGOs participating in legal and 
        policymaking activities in areas that are not 
        politically sensitive continues to increase gradually. 
        At the same time, NGOs and individuals who work on 
        politically sensitive issues continue to face 
        challenges.
        <bullet> In 2009, at least one locality (Beijing) 
        reportedly passed measures stipulating that NGOs based 
        in the area will no longer need to obtain a sponsor 
        organization when applying for government registration. 
        In place of the sponsorship requirement, 10 city-level 
        government-organized NGOs will manage Beijing-based 
        NGOs legally registered with and approved by the 
        Beijing city government.
        <bullet> In July, Beijing officials fined and then shut 
        down Open Constitution Initiative (OCI)--a Beijing-
        based academic research and legal assistance 
        organization, and detained two of its employees, 
        including the center's cofounder and legal 
        representative, Xu Zhiyong. OCI was well known for 
        taking on cutting-edge legal issues and cases, such as 
        its investigation into the cause of the Tibetan 
        protests and rioting in March 2008. Also in July, 
        officials reportedly targeted Beijing Yirenping Center, 
        an NGO that works to raise awareness about public 
        health risks and eliminate discrimination against those 
        who carry certain diseases.
        <bullet> Volunteer activities related to the May 2008 
        Sichuan earthquake reportedly have dissipated, and 
        government officials have accused some volunteers of 
        ``stirring up protests'' by victims' families.
        <bullet> Several recent natural disasters, including 
        the snowstorm in southern China in early 2008 and the 
        May 2008 Sichuan earthquake, contributed to an 
        unprecedented spike in charitable giving. The 
        government's limited capacity to handle and manage 
        these donations, particularly during the months after 
        the May 2008 Sichuan earthquake, exposed flaws in 
        China's charity system and resulted in public demands 
        for charity reform.
        <bullet> In December 2008 and February 2009, the 
        Ministry of Finance, the State Administration of 
        Taxation, and the Ministry of Civil Affairs issued 
        circulars detailing new qualifications for legally 
        registered NGOs to obtain tax-exempt status. Under the 
        new guidelines, provincial-level governments and the 
        central government will be in charge of verifying and 
        approving the tax-exempt status of government-
        registered NGOs.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

        <bullet> Strengthen U.S. Government support of public-
        private partnerships involving governments, businesses, 
        media, and communities that will build social networks 
        for NGOs and individuals and cultivate social 
        entrepreneurship in China.
        <bullet> Develop a comprehensive strategy consistent 
        with U.S. foreign assistance policy to bolster the U.S. 
        Agency for International Development's activities in 
        China.
        <bullet> Take measures to facilitate the participation 
        of Chinese citizens who work in the NGO sector in 
        relevant international conferences and forums, and 
        support training opportunities in the United States to 
        build their leadership capacity in non-profit 
        management, public policy advocacy, strategic planning, 
        and media relations.


                 institutions of democratic governance


                                Findings

        <bullet> The Communist Party continues to exercise 
        control over political affairs, government, and society 
        through networks of Party committees, which exist at 
        all levels in government, legislative, judicial, and 
        security organs; major social groups (including 
        unions); enterprises; and the People's Liberation Army.
        <bullet> Chinese leaders made repeated public 
        statements emphasizing the leading role of the Party, 
        the need to adhere to China's unique style of 
        ``socialist democracy,'' and the impossibility of 
        implementing ``Western-style'' democracy with a 
        separation of powers and competing political parties. 
        Isolated experiments with intra-party democracy are 
        taking place around the country with high-level 
        Communist Party support.
        <bullet> During the Commission's 2009 reporting year, 
        the Party created additional organizations to 
        ``maintain social stability.'' The Party expanded in 
        2009 the number of ``stability maintenance offices'' 
        and ``stability maintenance work leading groups'' 
        across the country at the central, provincial, 
        municipal, county, township, and neighborhood levels, 
        and even in some enterprises.
        <bullet> Village elections measures continued to 
        expand, and Chinese legislators included revising the 
        PRC Organic Law on Villagers' Committees in the 
        National People's Congress Standing Committee's five-
        year legislative agenda. Problems continue to plague 
        village elections, and corruption at the village level 
        remains a concern.
        <bullet> In 2009, some Chinese Government agencies and 
        other state institutions continued efforts to implement 
        the Regulations on Open Government Information (OGI 
        Regulation). Open government information regulations 
        and high-level efforts to increase accountability and 
        transparency at the local level, in principle, have the 
        potential to improve government openness, but 
        implementation has been problematic.
        <bullet> Public hearings and other processes appear to 
        offer some opportunities for public engagement. 
        Questions remain regarding the depth and breadth of 
        participation, and the process of compiling, assessing, 
        and incorporating public input is still not 
        transparent.
        <bullet> Citizens and social groups were proactive in 
        expressing demands for democratic reforms and human 
        rights protections to be undertaken by the Party and 
        Chinese Government, but these requests were repeatedly 
        met with official reprisal, including harassment, 
        detention, and in some cases, prison sentences.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

        <bullet> Support programs that aim to reduce corruption 
        in people's congress and village committee elections, 
        including expansion of domestic election monitoring 
        systems.
        <bullet> Support projects that seek to work with local 
        governments in their efforts to improve efficiency, 
        transparency, and accountability, especially efforts to 
        expand and improve China's open government information 
        initiatives.
        <bullet> Support projects that assist local 
        governments, academics, and the non-profit sector in 
        expanding the use of public hearings and other channels 
        for citizens to incorporate their input in the 
        policymaking process.
        <bullet> Call on the Chinese Government to release 
        people detained or imprisoned for exercising their 
        right to call for political reform within China, 
        including Liu Xiaobo (signer of Charter 08 who was 
        formally arrested on June 23, 2009, on the charge of 
        ``inciting subversion of state power'') and other 
        people mentioned in this report and in the Commission's 
        Political Prisoner Database.


                         commercial rule of law


                                Findings

        <bullet> The Chinese Government's uneven implementation 
        of the commitments it has made pursuant to its 
        obligations as a member of the World Trade Organization 
        (WTO) continues to prompt serious concern. The WTO, in 
        a report dated August 12, 2009, found that certain 
        Chinese regulations that restrict foreign companies and 
        Chinese-foreign joint ventures from importing or 
        distributing products such as books, DVDs, and music, 
        as well as from importing films for theatrical release, 
        violate China's international trade obligations. In 
        another case, the WTO ruled in July 2008 that China's 
        tariffs on auto parts imports violated WTO rules. On 
        August 28, China announced that it will scrap the 
        higher tariffs starting September 1, 2009. Beyond the 
        context of China's WTO commitments, additional concerns 
        arose this year in areas such as food and product 
        safety, telecommunications regulation, intellectual 
        property, and economic crime. Developments in these 
        areas overshadowed limited improvements in areas such 
        as contract enforcement, insurance, and antimonopoly.
        <bullet> Numerous cases of Americans suffering broken 
        commercial contracts in China, incurring significant 
        financial losses, have been brought to the Commission's 
        attention. At the same time, however, the Commission 
        also noted indications of some limited improvement in 
        the environment for judicial enforcement of commercial 
        contracts, at least in large urban areas of China. In 
        addition, during the Commission's 2009 reporting 
        period, contract enforcement received attention from 
        central judicial authorities in the form of a new 
        Interpretation Related to Questions Arising in 
        Connection With Implementation of the PRC Contract Law 
        (Interpretation), issued by the Supreme People's Court. 
        The Interpretation pushes lower courts to enforce oral 
        contracts, and also is aimed at preventing local courts 
        from dismissing form contracts out of hand. In a 
        further development related to contract enforcement, on 
        March 30, 2009, the Supreme People's Court also made 
        available to the public a nationwide database of 
        judgment debtors. The online, searchable database lists 
        all defendants against whom people's courts have issued 
        orders to pay outstanding money damages or other 
        compensation for nonperformance of specific acts. The 
        database creates incentives for debtors to comply with 
        executable judgments issued by Chinese courts and also 
        may reduce the costs that companies incur when 
        assessing potential business partners and acquisition 
        targets. The information available in the database also 
        may be used by companies doing due diligence 
        evaluations.
        <bullet> Recent detentions of business executives of an 
        Australian mining company have drawn an international 
        spotlight on economic crimes and the criminalization of 
        commercial disputes in China. The range of economic 
        crime in China is broad, and business disputes in China 
        frequently become subject to criminal law enforcement.
        <bullet> Product quality and food safety emergencies 
        continued to prompt changes in Chinese law. The new PRC 
        Food Safety Law, enacted by the National People's 
        Congress on February 28, 2009, and effective as of June 
        1, 2009, aims to consolidate the regulatory and 
        legislative landscape governing food safety and product 
        quality. The impact of the law as yet is unclear as it 
        will depend not only on the effectiveness of 
        implementation and enforcement, but also on the 
        thoroughness with which regulatory authorities specify 
        standards, timeline, budgets, and dispute resolution 
        procedures, and on China's ability--as yet unproven--to 
        develop local revenue sources and local expertise to 
        hire and train qualified inspectors and regulators in 
        sufficient numbers with requisite credentials.
        <bullet> Notwithstanding international criticism of 
        China's control of the Internet (including the 
        controversy surrounding the Chinese Government's 
        proposed mandatory preinstallation of Green Dam 
        Internet filtering software on personal computers sold 
        in China [See Section II--Freedom of Expression]), the 
        Chinese Government also used regulation of the 
        telecommunications industry to control the transmission 
        and dissemination of online content that the government 
        and Party deem to be potentially detrimental to 
        themselves, or to national unity, territorial 
        integrity, social order, or stability. This was 
        illustrated in the past year via the Ministry of 
        Industry and Information Technology's issue of Measures 
        for the Administration of Permission To Provide 
        Telecommunications Services, which took effect on April 
        10, 2009.
        <bullet> In December 2008, the National People's 
        Congress passed amendments to the PRC Patent Law 
        (Amendments) that took effect on October 1, 2009, and 
        are intended to encourage domestic innovation. The 
        Amendments contain provisions for compulsory licensing 
        (i.e., requiring patent holders to license patents to 
        others) that foreign patent experts have found 
        troubling. Under the Amendments, compulsory licensing 
        decisions turn on vague standards such as 
        ``sufficient'' use of patents and ``proper 
        justification'' for patent holders' decisions, and the 
        amendments expand the potential for broad official 
        discretion that could undermine intellectual property 
        protections.
        <bullet> The PRC Insurance Law was revised in February 
        2009 and took effect October 1, 2009. If it is 
        effectively enforced, the revised law would provide for 
        stricter oversight of insurers by the China Insurance 
        Regulatory Commission, and for a number of protections 
        for policyholders. The revised law also includes 
        provisions intended to contribute to the stability of 
        the macroeconomy. The revisions require strict 
        separation between the insurance sector and other 
        finance-related sectors, namely banking, securities, 
        and trusts. In addition, insurers may not concurrently 
        engage in the personal insurance business and the 
        property insurance business. The law also introduces 
        qualification requirements for directors, supervisors, 
        senior management, and actuarial personnel of insurance 
        companies. The revised law also requires insurance 
        companies to establish internal compliance and 
        reporting systems.
        <bullet> Enforcement of the PRC Antimonopoly Law (AML) 
        has lagged as the three enforcement authorities, the 
        State Administration of Industry and Commerce, National 
        Development and Reform Commission, and Ministry of 
        Commerce (MOFCOM), have devoted efforts to developing 
        AML implementing regulations. This delay has led some 
        parties alleging anticompetitive behavior to bring 
        private cases directly to courts rather than to the 
        administrative enforcement authorities. As enforcement 
        authorities issue implementing guidelines, however, the 
        number of complaints filed with administrative 
        enforcement authorities is expected to rise. Even 
        though courts offer a forum for grievances at the 
        present time, they do not necessarily possess the 
        requisite investigatory and regulatory capacity to 
        dispose of the cases that already have been brought. 
        For this reason, while private actions offer a channel 
        for grievances now, experts on Chinese antimonopoly law 
        do not expect the cases that already have been accepted 
        by the courts to move quickly or to produce landmark 
        judicial decisions.
        <bullet> MOFCOM is the enforcement authority 
        responsible for the premerger review process under the 
        AML. MOFCOM's solicitation of third party views from 
        government entities, customers, trade groups, and 
        competitors appears to have become an integral part of 
        MOFCOM's premerger review process, a move ostensibly 
        intended, at least in part, to address concern about 
        the possibility of decisions made based on non-
        objective factors. MOFCOM's review and much publicized 
        denial of the proposed Coca-Cola/Huiyuan merger in the 
        past year provides one illustration of MOFCOM premerger 
        review processes.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

        <bullet> Support joint U.S.-China training programs and 
        legal exchanges aimed at addressing problems 
        anticipated in China's implementation of compulsory 
        licensing provisions in its newly amended Patent Law. 
        Encourage bilateral discussions between U.S. and 
        Chinese officials to address and resolve market access, 
        legal, and other policy concerns arising from the 
        amended Patent Law. Involve experts in fields where the 
        threat to intellectual property rights posed by the new 
        amendments is particularly acute (e.g., biotechnology).
        <bullet> Develop and support U.S.-China legal 
        cooperation programs aimed at increasing incentives for 
        Chinese farmers and food production companies to 
        control quality at the grassroots. That is, support and 
        develop U.S.-China legal cooperation programs aimed at 
        improving individuals' access to China's existing 
        system of private civil litigation providing improved 
        access to counsel, legal aid, and access to channels 
        for injured parties to take legal action against 
        offending parties.
        <bullet> Call upon the Chinese Government to improve 
        China's systems for obtaining damages so that food 
        product companies found to be in violation of food 
        safety laws face a real threat of bankruptcy.
        <bullet> Encourage the Chinese Government to establish 
        programs that help build the institutional foundations 
        for producers in China to acquire reputations for 
        safety and quality, which in turn would reinforce 
        market-driven incentives to maintain higher quality in 
        production and improved supply-chain management over 
        the longrun.


                           access to justice


                                Findings

        <bullet> Conditions for China's human rights lawyers 
        worsened this year. Public security officials and those 
        working under their direction increasingly used 
        abductions, physical violence, or threats of physical 
        violence to harass and intimidate human rights lawyers. 
        Authorities revoked the licenses of at least 21 human 
        rights lawyers. The academic research and legal 
        assistance organization Open Constitution Initiative 
        (OCI), or Gongmeng, was shut down for alleged tax 
        problems. Authorities detained law professor and 
        cofounder of OCI, Xu Zhiyong, for several weeks for 
        alleged tax evasion, before releasing him on bail.
        <bullet> Social stability was a major concern during 
        this reporting year, and ``mass incidents'' were 
        reportedly on the rise. Chinese authorities sought to 
        strengthen institutions and measures to handle mass 
        incidents.
        <bullet> In explaining the decline in Administrative 
        Litigation Law cases during the first half of 2009 
        compared with the same time period in 2008, the Supreme 
        People's Court acknowledged that citizens lack 
        confidence in the courts to fairly resolve disputes 
        involving government officials.
        <bullet> The xinfang (``letters and visits'') system is 
        an alternative to courts by which citizens can seek 
        redress for grievances by submitting petitions to 
        relevant authorities. However, the system's lack of 
        accountability at the local level caused many 
        petitioners not to obtain relief for their grievances, 
        and large numbers have been harassed, abused, put in 
        illegal black jails, locked up in psychiatric 
        hospitals, or sent to reeducation through labor. The 
        central government adopted measures that sought to 
        improve the handling of ``letters and visits,'' and to 
        discourage citizens with grievances from traveling to 
        Beijing to obtain redress through central-level 
        institutions.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

        <bullet> In meetings and official correspondence with 
        Chinese officials, express concern about the revocation 
        of at least 21 human rights attorneys' licenses this 
        year, and the closure of the academic research and 
        legal assistance organization Open Constitution 
        Initiative (OCI). Request that the lawyers' licenses be 
        reinstated and that OCI be permitted to continue its 
        work.
        <bullet> Support non-governmental organizations and 
        other entities that partner with China's human rights 
        lawyers and non-profit legal organizations. Provide 
        additional support to bring more Chinese human rights 
        lawyers, advocates, and scholars to the United States 
        on the International Visitors Leadership Program and 
        other similar programs.
        <bullet> Support non-governmental organizations that 
        address human rights issues confronting petitioners in 
        China, and which also aim to build capacity among 
        petitioners to protect their lawful rights. Urge the 
        Chinese Government to protect the rights of petitioners 
        to lawfully air their grievances.
        <bullet> Express concern to Chinese authorities over 
        treatment of petitioners and encourage Chinese leaders 
        to reexamine the incentive structures at the local 
        level that lead to the forced return of petitioners 
        from higher administrative levels and the stifling of 
        citizen expressions of legitimate grievances.
        <bullet> Communicate concerns about possible official 
        political abuse of psychiatry and politically motivated 
        commitment of petitioners to psychiatric facilities in 
        China to the American Psychiatric Association, the 
        Geneva Initiative on Psychiatry, the World Medical 
        Association, and the World Psychiatric Association 
        (WPA). Concerns should be raised at the regional WPA 
        meeting in Beijing in September 2010.
        <bullet> Call for the release of lawyers, activists, 
        and others who are incarcerated, subject to unlawful 
        home confinement, or who have disappeared for their 
        activities to defend and promote the rights of Chinese 
        citizens, including Hu Jia, Gao Zhisheng, and Zheng 
        Enchong, as well as other prisoners mentioned in this 
        report and in the Commission's Political Prisoner 
        Database.


                                xinjiang


                                Findings

        <bullet> Human rights conditions in the Xinjiang Uyghur 
        Autonomous Region (XUAR) deteriorated during the 
        Commission's 2009 reporting year. A demonstration held 
        by Uyghurs in the XUAR capital of Urumqi on July 5, 
        2009, was forcefully suppressed by police, and 
        outbreaks of violence in the region starting that day, 
        drew an international spotlight to longstanding 
        tensions in the XUAR and Uyghurs' grievances toward 
        government policies that have undermined the protection 
        of their rights. The ensuing harsh security crackdown 
        in the XUAR--including reports of arbitrary detention 
        targeting Uyghurs and steps to punish acts of peaceful 
        protest--further underscored longstanding government 
        repression in the region and the use of anti-crime and 
        anti-terrorism campaigns to quell dissent. Prior to the 
        July 5 demonstration, however, human rights conditions 
        in the region had already declined throughout the year, 
        maintaining a trend in worsening conditions documented 
        by the Commission in its 2008 Annual Report.
        <bullet> Authorities continued in late 2008 and in 2009 
        to tighten repressive security controls and use them to 
        stifle dissent and independent expressions of ethnic 
        and religious identity, especially among Uyghurs. The 
        Chinese Government also maintained, and in some cases 
        bolstered, policies in areas such as language use, 
        labor, and migration that continued to disadvantage 
        Uyghurs and other non-Han populations in the XUAR and 
        engineer broad cultural, economic, and demographic 
        shifts in the region.
        <bullet> Acts of deadly violence took place during the 
        week of July 5, a time during which both Uyghurs and 
        Han Chinese were reported to commit violent assaults on 
        each other. However efforts to prosecute people appear 
        to have extended beyond acts of violence and include 
        political motivations in some cases, targeting dissent 
        by Uyghurs. In the aftermath of the July 5 
        demonstration and strife in the region, the Chinese 
        Government reiterated pledges to place ``stability 
        above all else'' and called for ``striking hard'' 
        against people involved in ``instigating'' and 
        ``organizing'' events on July 5. Against the backdrop 
        of a criminal law system in which authorities have used 
        criminal charges to cast free expression as a crime, it 
        appears that some acts of peaceful protest or 
        expression may be subject to formal criminal 
        prosecution. While security measures are reported to 
        remain tight in the region, a number of details and the 
        full implications of the government response to events 
        on July 5 remain unknown, especially in light of 
        government controls over the free flow of information 
        on the events.
        <bullet> The Commission also observed problems in the 
        past year including state-sanctioned discriminatory job 
        recruitment practices, abusive practices in state-led 
        labor transfer and work-study programs, procedural 
        violations in the criminal justice system and unique 
        barriers to access to justice for non-Han ethnic 
        groups, the intensification of educational policies 
        that marginalize the use of Uyghur and other languages 
        besides Mandarin Chinese, and the maintenance of harsh 
        policies toward Uyghur refugees and other individuals 
        returned to China under the sway of China's influence 
        in other countries. In addition, in the past year, the 
        government began to destroy a cornerstone of the 
        Uyghurs' cultural heritage and undermined their 
        property rights through a project implemented in the 
        city of Kashgar to demolish most buildings in a 
        historic area and resettle residents.
        <bullet> The government sharpened rhetoric throughout 
        the year against U.S.-based Uyghur rights advocate 
        Rebiya Kadeer and ``Western hostile forces'' using the 
        ``cover'' of human rights to ``sabotage'' the XUAR's 
        stability, calling into question the government's 
        willingness to engage with the international community 
        in upholding its obligations to protect the rights of 
        XUAR residents. Government rhetoric against Rebiya 
        Kadeer heightened in July as authorities claimed that 
        Rebiya Kadeer and the World Uyghur Congress, which she 
        leads, instigated strife on July 5. Authorities did not 
        produce evidence that proved their accusations, and 
        Rebiya Kadeer has rejected the charges against her.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

        <bullet> Support legislation that expands U.S. 
        Government resources for raising awareness of human 
        rights conditions in the Xinjiang Uyghur Autonomous 
        Region (XUAR), for protecting Uyghur culture, and for 
        increasing avenues for Uyghurs to protect their human 
        rights.
        <bullet> Raise concern about human rights conditions in 
        the XUAR to Chinese officials and condemn the use of 
        antiterrorism and security campaigns to suppress human 
        rights. Stress that protecting the rights of XUAR 
        residents is a crucial step for securing true stability 
        in the region. Call on the Chinese Government to 
        demonstrate a commitment toward dialogue on human 
        rights issues by ending rhetoric against ``Western 
        infiltration'' and slander against peaceful Uyghur 
        rights advocates.
        <bullet> Call for the release of Uyghurs imprisoned for 
        advocating for their rights or for their personal 
        connection to rights advocates, including: Nurmemet 
        Yasin (sentenced in 2005 to 10 years in prison after 
        writing a short story); Miradil (Mir'adil) Yasin and 
        Mutellip Teyip (two young men detained in December 2008 
        after distributing leaflets on the Xinjiang University 
        campus calling on students to organize a public 
        demonstration); Ekberjan Jamal (sentenced in 2008 to 10 
        years in prison for ``splittism'' and revealing state 
        secrets, after he used his cell phone to make audio 
        recordings of public demonstrations and sent the 
        recordings to friends overseas); and Alim and Ablikim 
        Abdureyim (adult children of activist Rebiya Kadeer, 
        sentenced in 2006 and 2007 to 7 and 9 years in prison, 
        respectively, for alleged economic and ``secessionist'' 
        crimes), as well as other prisoners mentioned in this 
        report and in the Commission's Political Prisoner 
        Database.
        <bullet> Especially in light of events of July 5, 
        stress to Chinese officials the importance of: abiding 
        by the guarantees for freedoms of speech, assembly, and 
        association contained in the PRC Constitution, 
        Universal Declaration of Human Rights, and 
        International Covenant on Civil and Political Rights, 
        distinguishing between acts of peaceful protest and 
        acts of violence, and not treating peaceful protest as 
        a crime; providing details about each person detained 
        or charged with a crime, including each person's name, 
        the charges (if any) against each person, the name and 
        location of the prosecuting office (i.e., 
        procuratorate) and court handling each case, and the 
        name of each facility where a person is detained or 
        imprisoned; ensuring that security officials fulfill 
        their obligations under Articles 64(2) and 71(2) of the 
        PRC Criminal Procedure Law to inform relatives or 
        workplaces where detainees are being held; ensuring 
        criminal suspects are able to hire a lawyer and 
        exercise their right to employ legal defense in 
        accordance with Articles 33 and 96 of the PRC Criminal 
        Procedure Law and are able to employ legal defense of 
        their own choosing; allowing access by diplomats and 
        other international observers to the trials of people 
        charged with crimes connected to events on July 5; and 
        allowing international observers and journalists full 
        and unfettered access to all areas of the XUAR.
        <bullet> Support non-governmental organizations that 
        address human rights issues in the XUAR to enable them 
        to continue to gather information on conditions in the 
        region and develop programs to help Uyghurs increase 
        their capacity to preserve their rights and protect 
        their culture, language, and heritage. Support the 
        efforts of media outlets that broadcast news to the 
        XUAR and gather news from the region, such as Radio 
        Free Asia (RFA) and the Voice of America (VOA), to 
        expand their capacity to report on the region and to 
        provide uncensored information to XUAR residents.
        <bullet> Support legal programs in the XUAR to promote 
        rule of law and train legal personnel, including those 
        able to meet the legal needs of XUAR residents who 
        speak languages other than Mandarin Chinese. Urge 
        scholarship programs that operate in China, including 
        those in law-related subjects, to increase outreach to 
        students from the XUAR.
        <bullet> Raise the issue of Uyghur refugees with 
        Chinese officials and with officials from international 
        refugee agencies and from transit or destination 
        countries for Uyghur refugees. Call on Chinese 
        officials and officials from transit or destination 
        countries to respect the asylum seeker and refugee 
        designations of the UN High Commissioner for Refugees 
        and the refugee and citizenship designations of other 
        countries. Call on transit and destination countries to 
        abide by requirements in the 1951 Convention on the 
        Status of Refugees and Convention against Torture on 
        refoulement.
        <bullet> Call on Chinese Government officials to abide 
        by the government's domestic and international 
        commitments to protect cultural heritage within its 
        borders, including by protecting the right of Uyghurs 
        to preserve their cultural heritage and property. 
        Provide support for organizations that can directly 
        assist Uyghurs in the documentation and preservation of 
        their cultural heritage.


                                 tibet


                                Findings

        <bullet> During the Commission's 2009 reporting year, 
        the Chinese Government and Communist Party strengthened 
        the policies and measures that frustrated Tibetans 
        prior to the wave of Tibetan protests that started in 
        March 2008. Tibetans continued to express their 
        rejection of Chinese policies by means that included 
        staging political protests. As a result of Chinese 
        Government and Party policy and implementation, and 
        official campaigns to ``educate'' Tibetans about their 
        obligations to conform to policy and law that many 
        Tibetans believe harm their cultural identity and 
        heritage, the level of repression of Tibetans' freedoms 
        of speech, religion, assembly, and association 
        increased further.
        <bullet> The environment for the dialogue between the 
        Dalai Lama's representatives and Chinese Government and 
        Party officials continued to deteriorate: both sides 
        have referred to the dialogue as having stalled. The 
        principal results of the eighth round of formal 
        dialogue between the Dalai Lama's representatives and 
        Party officials were the Dalai Lama's envoys' handover 
        of a detailed memorandum explaining Tibetan proposals 
        for ``genuine autonomy,'' the Party's rejection of the 
        memorandum, and the Party's continued insistence that 
        the Dalai Lama fulfill additional preconditions on 
        dialogue.
        <bullet> The government has in the past year used 
        institutional, educational, legal, and propaganda 
        channels to pressure Tibetan Buddhists to modify their 
        religious views and aspirations. Chinese officials 
        adopted a more assertive tone in expressing 
        determination to select the next Dalai Lama, and to 
        pressure Tibetans living in China to accept only a 
        Dalai Lama approved by the Chinese Government. 
        Escalating government efforts to discredit the Dalai 
        Lama and to transform Tibetan Buddhism into a doctrine 
        that promotes government positions and policy has 
        resulted instead in continuing Tibetan demands for 
        freedom of religion and the Dalai Lama's return to 
        Tibet.
        <bullet> The government pressed forward with a Party-
        led development policy that prioritizes infrastructure 
        construction and casts Tibetan support for the Dalai 
        Lama as the chief obstacle to Tibetan development. The 
        government announced a major new infrastructure 
        program--the ``redesign'' of Lhasa--that is scheduled 
        for completion in 2020, the same year that the 
        government plans to have ready for operation several 
        new railways traversing sections of the Tibetan 
        plateau. The Tibet Autonomous Region (TAR) Communist 
        Party and the Minister of Railways discussed in May 
        2009 accelerating the construction of railways that 
        will access the TAR. Confrontations between Tibetans 
        and Chinese Government and security officials resulted 
        in 2009 when Tibetans protested against natural 
        resource development projects.
        <bullet> The government and Party crackdown on Tibetan 
        communities, monasteries, nunneries, schools, and 
        workplaces following the wave of Tibetan protests that 
        began on March 10, 2008, continued during 2009. 
        Security measures intensified in some Tibetan areas 
        during a months-long period that bracketed a series of 
        three sensitive anniversaries and observances in 
        February and March 2009. As a result of increased 
        government security measures and harsh action against 
        protesters, Tibetan political protests in 2009 were 
        smaller and of briefer duration than the protests of 
        March and April 2008. The Commission's Political 
        Prisoner Database contained as of September 2009 a 
        total of 670 records of Tibetans detained on or after 
        March 10, 2008--a figure certain to be incomplete--for 
        exercising rights such as the freedoms of speech, 
        religion, assembly, and association.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

        <bullet> Urge the Chinese Government to move beyond the 
        current stalled condition of the dialogue with the 
        Dalai Lama or his representatives. A Chinese Government 
        decision to engage the Dalai Lama in substantive 
        dialogue can result in a durable and mutually 
        beneficial outcome for Chinese and Tibetans, and 
        improve the outlook for local and regional security in 
        the coming decades.
        <bullet> Convey to the Chinese Government the urgent 
        importance of respecting Tibetan Buddhists' right to 
        the freedom of religion through measures that include: 
        ceasing aggressive campaigns of ``patriotic education'' 
        that compel Tibetans to endorse state antagonism toward 
        the Dalai Lama and increase stress to local stability; 
        allowing Tibetan Buddhists to identify and educate 
        religious teachers in a manner consistent with their 
        preferences and traditions; and using state powers such 
        as passing laws and issuing regulations to protect 
        Tibetans' religious freedom instead of remolding 
        Tibetan Buddhism to suit the state.
        <bullet> Continue to urge the Chinese Government to 
        allow international observers to visit Gedun Choekyi 
        Nyima, the Panchen Lama whom the Dalai Lama recognized, 
        and his parents.
        <bullet> In light of the heightened pressure on 
        Tibetans and their communities in the period following 
        March 2008, increase support for U.S. non-governmental 
        organizations to develop programs that can assist 
        Tibetans to increase their capacity to peacefully 
        protect and develop their culture, language, and 
        heritage; that can help to improve education, economic, 
        health, and environmental conservation conditions of 
        ethnic Tibetans living in Tibetan areas of China; and 
        that create sustainable benefits without encouraging an 
        influx of non-Tibetans into these areas. Support 
        funding for Radio Free Asia and Voice of America news 
        reporting and multi-dialect broadcasting to the Tibetan 
        areas of China so that Tibetans have access to 
        uncensored information about events in China and 
        worldwide.
        <bullet> Encourage the Chinese Government to take fully 
        into account the views and preferences of Tibetans when 
        the government plans infrastructure and natural 
        resource development projects in the Tibetan areas of 
        China. Encourage the Chinese Government to engage 
        appropriate experts in assessing the impact of such 
        infrastructure and natural resource development 
        projects, and in advising the government on the 
        implementation and progress of such projects.
        <bullet> Continue to convey to the Chinese Government 
        the importance of distinguishing between peaceful 
        Tibetan protesters and rioters, honoring the PRC 
        Constitution's reference to the freedoms of speech and 
        association, and not treating peaceful protest as a 
        crime. Request that the Chinese Government provide 
        complete details about Tibetans detained, charged, or 
        sentenced with protest-related crimes.
        <bullet> Continue to raise in meetings and 
        correspondence with Chinese officials the cases of 
        Tibetans who are imprisoned as punishment for the 
        peaceful exercise of human rights. Representative 
        examples include: former Tibetan monk Jigme Gyatso (now 
        serving an extended 18-year sentence for printing 
        leaflets, distributing posters, and later shouting pro-
        Dalai Lama slogans in prison); monk Choeying Khedrub 
        (sentenced to life imprisonment for printing leaflets); 
        reincarnated lama Bangri Chogtrul (serving a sentence 
        of 18 years commuted from life imprisonment for 
        ``inciting splittism''); and nomad Ronggyal Adrag 
        (sentenced to 8 years' imprisonment for shouting 
        political slogans at a public festival).


                          hong kong and macau


                                Findings

        <bullet> In January 2009, Hong Kong Special 
        Administrative Region Chief Executive Donald Tsang 
        announced his decision to defer the public consultation 
        on electoral methods in 2012 until the fourth quarter 
        of 2009, citing the preeminence of ``tackling economic 
        and livelihood concerns.'' Tsang's decision appears to 
        echo the Chinese central government's focus on economic 
        matters over political reform this year as well. 
        Several pro-democracy legislators protested against 
        Tsang's decision, accusing him of using the economic 
        downturn as an excuse to delay universal suffrage.
        <bullet> The Macau Special Administrative Region passed 
        a National Security Law in February 2009 which 
        criminalizes, as well as stipulates prison terms for, 
        treason, secession, subversion, sedition, theft of 
        state secrets, and association with foreign political 
        organizations that harm state security. Citizens have 
        reported concern that vague language in the law leaves 
        it open for abuse by officials, and point to the March 
        2009 barring of Hong Kong pro-democracy lawmakers, 
        academics, and activists from entering Macau as an 
        example of such abuse.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

        <bullet> Call on the government of the Hong Kong 
        Special Administrative Region to advance the progress 
        of electoral reform and avoid further delaying the goal 
        of election by universal suffrage in Hong Kong.
        <bullet> Call on the government of the Macau Special 
        Administrative Region to review its policy of 
        restricting the entry of lawmakers, scholars, 
        journalists, and activists into Macau.

    The Commission adopted this report by a vote of 16 to 
1.<dagger>

                      Political Prisoner Database


                            Recommendations

    When composing correspondence advocating on behalf of a 
political or religious prisoner, or preparing for official 
travel to China, Members of Congress and Administration 
officials are encouraged to:

        <bullet> Check the Political Prisoner Database (http://
        ppd.cecc.gov) for reliable, up-to-date information on 
        one prisoner, or on groups of prisoners. Consult a 
        prisoner's database record for more detailed 
        information about the prisoner's case, including his or 
        her alleged crime, specific human rights that officials 
        have violated, stage in the legal process, and location 
        of detention or imprisonment, if known.
        <bullet> Advise official and private delegations 
        traveling to China to present Chinese officials with 
        lists of political and religious prisoners compiled 
        from database records.
        <bullet> Urge U.S. state and local officials and 
        private citizens involved in sister-state and sister-
        city relationships with China to explore the database, 
        and to advocate for the release of political and 
        religious prisoners in China.

                    A POWERFUL RESOURCE FOR ADVOCACY

    The Commission's Annual Report provides information about 
Chinese political and religious prisoners\1\ in the context of 
specific human rights and rule of law abuses. Many of the 
abuses result from the Communist Party and government's 
application of policies and laws. The Commission relies on the 
Political Prisoner Database (PPD), a publicly available online 
database maintained by the Commission, for its own advocacy and 
research work, including the preparation of the Annual Report, 
and routinely uses the database to prepare summaries of 
information about political and religious prisoners for Members 
of Congress and Administration officials.
    The Commission invites the public to read about issue-
specific Chinese political imprisonment in sections of this 
Annual Report, and to access and make use of the PPD at http://
ppd.cecc.gov. (Information on how to use the PPD is available 
at http://www.cecc.gov/pages/victims/index.php.)
    The PPD has served, since its launch in November 2004, as a 
unique and powerful resource for governments, non-governmental 
organizations (NGOs), educational institutions, and individuals 
who research political and religious imprisonment in China, or 
advocate on behalf of such prisoners. The most important 
feature of the PPD is that it is structured as a genuine 
database and uses a powerful query engine. Though completely 
Web based, it is not an archive that uses a simple or advanced 
search tool, nor is it a library of Web pages and files.
    The PPD received approximately 30,700 online requests for 
prisoner information during the 12-month period ending July 31, 
2009. During the entire period of PPD operation beginning in 
late 2004, approximately 30 percent of the requests for 
information have originated from U.S. Government (.gov) 
Internet domains, 16 percent from commercial (.com) domains, 15 
percent from network (.net) domains, 12 percent from 
international (e.g., .fr, .ca) domains, 2 percent from 
education (.edu) domains, 2 percent from non-profit 
organization (.org) domains, 2 percent from Arpanet (.arpa) 
domains, and 1 percent from international treaty organization 
(.int) domains. Approximately 20 percent of the requests have 
been from numerical Internet addresses that do not provide 
information about the name of an organization or the type of 
domain.

                          POLITICAL PRISONERS

    The PPD seeks to provide users with prisoner information 
that is reliable and up to date. Commission staff members work 
to maintain and update political prisoner records based on 
their areas of expertise. The staff seek to provide objective 
analysis of information about individual prisoners, and about 
events and trends that drive political and religious 
imprisonment in China.
    As of September 7, 2009, the PPD contained information on 
5,176 cases of political or religious imprisonment in China. Of 
those, 1,266 are cases of political and religious prisoners 
currently known or believed to be detained or imprisoned, and 
3,910 are cases of prisoners who are known or believed to have 
been released, executed, or to have escaped. The Commission 
notes that there are considerably more than 1,266 cases of 
current political and religious imprisonment in China. The 
Commission staff works on an ongoing basis to add cases of 
political and religious imprisonment to the PPD.
    The Dui Hua Foundation, based in San Francisco, and the 
former Tibet Information Network, based in London, shared their 
extensive experience and data on political and religious 
prisoners in China with the Commission to help establish the 
database. The Dui Hua Foundation continues to do so. The 
Commission also relies on its own staff research for prisoner 
information, as well as on 
information provided by NGOs, other groups that specialize in 
promoting human rights and opposing political and religious 
imprisonment, and other public sources of information.

                      POWERFUL DATABASE TECHNOLOGY

    The PPD aims to provide a technology with sufficient power 
to cope with the scope and complexity of political imprisonment 
in China. The upgrade to the database that the Commission hoped 
to have available by the end of 2008 is nearing completion. The 
upgrade will leverage the capacity of the Commission's 
information and technology resources to support research, 
reporting, and advocacy by the U.S. Congress and 
Administration, and by the public, on behalf of political and 
religious prisoners in China.
    Each prisoner's record describes the type of human rights 
violations by Chinese authorities that led to his or her 
detention. These include violations of the right to peaceful 
assembly, freedom of religion, freedom of association, and free 
expression, including the freedom to advocate peaceful social 
or political change and to criticize government policy or 
government officials. Users may search for prisoners by name, 
using either the Latin alphabet or Chinese characters. The PPD 
allows users to construct queries that include one or more 
types of data, including personal information or information 
about imprisonment.
    The design of the PPD allows anyone with access to the 
Internet to query the database and download prisoner data 
without providing personal information to the Commission, and 
without the PPD downloading any software or Web cookies to a 
user's computer. Users have the option to create a user 
account, which allows them to save, edit, and reuse queries, 
but the PPD does not require a user to provide any personal 
information to set up such an account. The PPD does not 
download software or a Web cookie to a user's computer as the 
result of setting up such an account. Saved queries are not 
stored on a user's computer. A user-specified ID (which can be 
a nickname) and password are the only information required to 
set up a user account.
    Many records contain a short summary of the case that 
includes basic details about the political or religious 
imprisonment and the legal process leading to imprisonment. The 
upgrade will increase the length of the short summary about a 
prisoner and enable the PPD to provide Web links in a short 
summary that can open 
reports, articles, and texts of laws that are available on the 
Commission's Web site or on other Web sites. Web links in 
Commission reports and articles will be able to open a 
prisoner's PPD record.
    When the PPD upgrade is available for public use, it will 
increase the number of types of information available from 19 
to 40. [See box titled Congressional-Executive Commission on 
China Political Prisoner Database: Current and Additional Data 
Fields below.] The upgrade will allow users to query for and 
retrieve information such as the names and locations of the 
courts that convicted political and religious prisoners, as 
well as the dates of key events in the legal process such as 
sentencing and decision upon appeal. The users will be able to 
download PPD information as Microsoft Excel or Adobe PDF files 
more easily--whether for a single prisoner record, a group of 
records that satisfies a user's query, or all of the records 
available in the database.

Congressional-Executive Commission on China Political Prisoner Database:
                   Current and Additional Data Fields
------------------------------------------------------------------------
                                                  PPD Fields Added in
           Current PPD Fields (19)                    Upgrade (21)
------------------------------------------------------------------------
CECC record number                             Affiliation
Detention status                               Residence (province)
Issue category                                 Residence (prefecture)
Main name                                      Residence (county)
Chinese characters (main name)                 Formal arrest date
Other (or lay) name                            Trial date
Alternate name(s)                              Trial court
Pinyin name (for non-Han)                      Sentence date
Ethnic group                                   Sentence court
Sex                                            Appeal date
Age at detention                               Appeal court
Religion                                       Appeal ruling date
Occupation                                     Appeal ruling court
Date of detention                              Sentence ends per PRC
Province where imprisoned                      Actual date released
Current prison                                 Charge (statute)
Sentence length (years)                        Sentence length (months)
Legal process                                  Sentence length (weeks)
Short summary                                  Sentence length (days)
                                               Prefecture where
                                                imprisoned
                                               County where imprisoned
------------------------------------------------------------------------

                        Section II. Human Rights


                         Freedom of Expression


                              Introduction

    During its 2009 reporting year, the Commission observed the 
continued failure of Chinese officials to protect the right of 
citizens to engage in free expression, as guaranteed under the 
PRC Constitution and international law. Chinese officials 
continued to target for punishment citizens who peacefully 
expressed political dissent or advocated for human rights, 
including those who voiced concern that the Chinese Government 
had not adequately investigated the cause of school collapses 
following the May 2008 Sichuan earthquake, sought to express 
support for Charter 08 (a document calling for political reform 
and greater protection of human rights), and spoke out about 
alleged official misconduct. Citizens faced prison sentences or 
reeducation through labor or other abuses of police power, 
including surveillance, interrogation, and restrictions on 
movement. Officials also continued to restrict peaceful 
religious expression, confiscating or punishing the 
distribution of unapproved bibles, Muslim books, Falun Gong 
documents, and other ``illegal'' religious materials, and 
restricting religious sermons, interpretations of religious 
texts, and the ability of citizens to proselytize or teach 
religion to their children. [For more information, see Section 
II--Freedom of Religion, including subsections titled Controls 
Over Religious Publications, Controls Over Religious 
Publications in the XUAR, and Restrictions on Proselytizing, 
Contact With Foreign Christians, as well as the box titled 
Religious Prisoners.]
    Chinese officials continued to deny citizens the right to 
freedom of the press by censoring domestic news coverage and 
maintaining ``prior restraints.'' Officials censored media 
coverage of stories relating to the economy, the environment, 
and protests in Iran following the contested June 2009 
presidential election, and punished news media for covering 
``politically sensitive'' issues. Officials strengthened 
``prior restraints'' on the media, a system under which 
journalists, editors, publications, and Web sites must obtain 
licenses from the government in order to obtain legal status. 
Officials targeted for closure publications containing 
political or religious content dealing with Falun Gong, Tibetan 
areas of China, or the Xinjiang Uyghur Autonomous Region (XUAR) 
or publications by organizations that did not have a license to 
publish. The government continued to allow the media limited 
space to question government officials and policies.
    The Chinese Government's regulation of the Internet 
continued to violate international standards for free 
expression. Authorities and Internet companies continued to 
remove political and religious content from the Internet, 
including references to Charter 08, and Web sites relating to 
human rights, Tibetan areas of China, and the XUAR. Officials 
also sought to strengthen their capacity to monitor Internet 
users' online expression. They introduced and then backed away 
from a requirement that all computers in China be sold with 
pre-installed censorship software found to filter political and 
religious content and monitor individual computer behavior. 
Officials also began forcing news Web sites to require new 
users to provide their real name and identification number in 
order to post a comment. The Internet continued to serve as an 
important outlet for public criticism, including the Deng 
Yujiao case in which a young woman allegedly stabbed an 
official to death in self-defense, and public opposition to the 
government's attempt to require computers in China to come with 
pre-installed censorship software.
    This past year, the Chinese Government continued to express 
an intent to ``guarantee citizens' right of information.'' 
Implementation of the Regulations on Open Government 
Information, which took effect in May 2008, has been hampered 
by agency refusals to disclose information and the reluctance 
of courts to enforce compliance. Proposed revisions to the 20-
year-old PRC Law on the Protection of State Secrets do not 
address the vagueness and overbreadth of China's laws and 
regulations related to state secrets that make them susceptible 
to abuse. Local officials continued to fail to disclose the 
extent of mining disasters, disease outbreaks, and information 
about polluters.

Abuse of Criminal Law and Police Power To Punish Peaceful Expression of 
             Political Opposition and Human Rights Advocacy

    Chinese officials continued to target citizens who 
peacefully expressed political opposition or advocacy of human 
rights. These efforts to stifle free expression contravene 
China's constitutional protections for freedom of speech and 
freedom to criticize government officials,\1\ as well as 
international standards. Chinese officials, however, insist 
that Chinese citizens enjoy freedom of expression. During the 
February 2009 session of the UN Human Rights Council's 
Universal Periodic Review of the Chinese Government's human 
rights record, the Chinese delegation claimed that ``[n]o 
individual or press has been penalized for voicing their 
opinions or views'' and that China's laws provide ``complete 
guarantees'' on freedom of expression.\2\ [For more information 
on cases of officials in China abusing the criminal law (e.g., 
charging citizens with ``splittism'') or police power to punish 
religious expression, including possession of Falun Gong 
materials or teaching religion to their children, see box 
titled Religious Prisoners in Section II--Freedom of Religion.]

------------------------------------------------------------------------
                   Subversion and Inciting Subversion
-------------------------------------------------------------------------
  This past year officials continued to label peacefully expressed
 opposition to the Communist Party as a threat to national security and
 to rely on Article 105 in the PRC Criminal Law as the basis for this
 charge. Article 105 provides for sentences of up to life imprisonment
 for attempts to subvert state power or 15 years for inciting such
 subversion.\3\ While international law permits a government to restrict
 expression to protect national security,\4\ China's application of
 Article 105 violates international law. Specifically, both the
 International Covenant on Civil and Political Rights (Article 19) and
 the Universal Declaration of Human Rights (Article 29) require that a
 restriction on free expression be limited to that which is
 ``necessary'' to protect national security, or ``solely for the purpose
 of'' protecting national security.\5\ Chinese courts make no attempt to
 assess whether the speech in question posed an actual threat to
 national security.\6\ The UN Special Rapporteur on Torture has said
 that the vague wording of China's national security crimes leave their
 application open to abuse of freedom of speech.\7\ A recent study of
 ``inciting subversion'' cases by a human rights non-governmental
 organization found that ``speech in and of itself is interpreted as
 constituting incitement of subversion,'' \8\ and Chinese defense
 lawyers have noted that courts have wide latitude because there exists
 no legislative or judicial interpretation limiting the application of
 the subversion crime.\9\
  The recent case of Zhang Qi typifies courts' handling of subversion
 cases. The Chongqing No. 1 Intermediate People's Court sentenced Zhang
 on July 7, 2009, to four years in prison for ``inciting subversion.''
 \10\ Zhang is a member of the Union of Chinese Nationalists (zhongguo
 fanlan lianmeng), an ``illegal'' organization which opposes the
 Communist system.\11\ The court opinion cited the following evidence:
 four essays Zhang posted online that ``contained harmful information
 attacking the people's democratic dictatorship and socialist system''
 (citing only the titles of the essays and no specific passages); online
 discussions in which Zhang expressed opposition to the Communist Party
 and a desire to change the socialist system; and Zhang's involvement
 with the organization's Web site and recruiting supporters.\12\ The
 opinion provided no evidence that Zhang advocated violence, did not
 assess the threat Zhang's activities posed to national security, and
 made no attempt to balance the state's interest with Zhang's right to
 free speech or association. Other cases this past year include:  <bullet> In November 2008, the Chengdu Intermediate People's Court in
   Sichuan province sentenced freelance writer and journalist Chen
   Daojun to three years in prison for inciting subversion.\13\
   Prosecutors cited essays Chen wrote criticizing the government's
   policies toward China's ethnic Tibetan minority.\14\
  <bullet> In January 2009, the Hangzhou Intermediate People's Court in
   Zhejiang province sentenced China Democracy Party (CDP) member Wang
   Rongqing to six years' imprisonment for subversion, citing his
   publication of ``The Opposition Party'' and other articles critical
   of China's political system, as well as his organization of
   activities for the CDP, an ``illegal'' opposition party.\15\
------------------------------------------------------------------------


------------------------------------------------------------------------
              Subversion and Inciting Subversion--Continued
-------------------------------------------------------------------------
  <bullet> In March 2009, the Jixi Intermediate People's Court in
   Heilongjiang province sentenced rights activist Yuan Xianchen to four
   years' imprisonment for inciting subversion.\16\ The court cited
   Yuan's distribution of anti-Party writings to petitioners in Beijing,
   interviews with the overseas news Web site Epoch Times in which he
   criticized the Party and called for democracy, Internet essays
   ``attacking'' socialism, and funds he received from domestic and
   overseas organizations.\17\
  <bullet> In August 2009, the Suqian Municipal People's Court in
   Jiangsu province held the trial of democracy advocate Guo Quan on
   charges of subversion of state power.\18\ Guo earlier told his lawyer
   that while detained, authorities questioned him about his online
   organizing of a democratic party, support for a multi-party system,
   and essays alleged to have slandered socialism and subverted state
   power.\19\
------------------------------------------------------------------------

   PUBLIC CRITICISM OF COLLAPSE OF SCHOOLS AND SCHOOLCHILDREN DEATHS 
               FOLLOWING THE MAY 2008 SICHUAN EARTHQUAKE

    Officials sought to silence parents and other citizens 
seeking to investigate the role shoddy construction played in 
the collapse of large numbers of schools in the May 2008 
Sichuan earthquake, and legal remedies and names and figures 
for the schoolchildren who perished.\20\ Parents of deceased 
children reported that local officials offered them money in 
exchange for silence, ordered some to serve reeducation through 
labor, kept some under surveillance, stopped them from holding 
memorials, warned them not to speak to media, and prevented 
them from traveling to Beijing to petition the central 
government.\21\ As the one-year anniversary of the earthquake 
approached in May 2009, Ai Weiwei, a blogger and artist 
organizing a campaign to tally the student death toll, said 
that officials had attacked or detained 20 of his volunteers 
and that his blog postings were frequently removed from the 
Internet.\22\ Sang Jun, who lost his 11-year-old son in the 
earthquake, said that hundreds of officials were watching 
dozens of parents in Mianzhu county, Sichuan province.\23\ One 
Mianzhu official reportedly told Sang that contact with foreign 
press would be considered ``unfavorable to China.'' \24\ A 
Mianzhu official denied the reports of harassment.\25\
    Officials charged other citizen activists with national 
security crimes. In August 2009, the Chengdu Intermediate 
People's Court in Sichuan held the trial of writer and 
environmental activist Tan Zuoren on the charge of inciting 
subversion.\26\ Tan had begun an independent investigation into 
the school collapses and was detained shortly after he issued 
preliminary findings. Prosecutors reportedly cited Tan's 
previous criticism of the government's handling of the 1989 
Tiananmen protests as well as his interviews with international 
media after the earthquake.\27\ Also in August, the Chengdu 
Wuhou District People's Court held a closed trial for rights 
activist Huang Qi on suspicion of ``illegal possession of state 
secrets.'' \28\ The underlying activity leading to the charge 
is unclear, but Chengdu officials detained Huang shortly after 
he visited earthquake areas and issued a report on his human 
rights advocacy Web site about parents' demands for 
compensation and an investigation.\29\ The trials of Tan and 
Huang were marred by procedural irregularities and official 
abuse, including barring witnesses from testifying.\30\ 
Officials also released from custody Liu Shaokun and Zeng 
Hongling, both of whom were detained in connection with their 
articles, photos, and public comments about the earthquake.\31\

 CONTROLS OVER FREE EXPRESSION IN THE XINJIANG UYGHUR AUTONOMOUS REGION

    Authorities in the Xinjiang Uyghur Autonomous Region (XUAR) 
continued to block free speech and harass, detain, and imprison 
people for peaceful forms of expression. In December 2008, XUAR 
media reported that Urumqi authorities took into detention 
Miradil (Mir'adil) Yasin and Mutellip Teyip after the two young 
men distributed leaflets on the Xinjiang University campus 
calling on students to organize a public demonstration.\32\ 
University officials said the leaflets had ``reactionary'' 
content aimed at ``inciting students to demonstrate in the 
streets and create chaos.'' \33\ Available information suggests 
the leaflets may have called on students to peacefully protest 
tobacco and alcohol sales.\34\ [For more information see 
Section IV--Xinjiang--Controls Over Free Expression and 
Assembly.]

                       SUPPRESSION OF CHARTER 08

    Officials harassed a number of citizens beginning in 
December 2008 in connection with Charter 08, a document calling 
for political reform and greater protection of human rights in 
China. More than 300 Chinese citizens released Charter 08 
online on the eve of the 60th anniversary of the Universal 
Declaration of Human Rights.\35\ By October 2009, 9,700 people 
reportedly had signed the Charter.\36\ Liu Xiaobo, a prominent 
intellectual and signer, was detained on December 8, 2008, a 
day before the Charter was released.\37\ Authorities violated 
Chinese law by placing Liu under residential surveillance at an 
unknown location, instead of his Beijing home, by denying him 
access to his lawyer and family, and by holding him without 
formal charge beyond the six-month limit for residential 
surveillance.\38\ On June 23, 2009, Beijing public security 
officials arrested Liu on the charge of inciting subversion for 
``spreading rumors and defaming of the government,'' and 
refused to allow defense lawyer Mo Shaoping to represent him 
because Mo had also signed the Charter.\39\ In early January 
2009, overseas non-governmental organizations and media 
reported that Chinese authorities sought to question, formally 
summoned, threatened, or otherwise harassed more than 100 
signers of Charter 08.\40\ Those harassed reported that 
officials warned them not to give media interviews to promote 
Charter 08, sought to determine the main authors of the 
document and how it was disseminated, and demanded public 
retractions of signatures.\41\ Signers continued to report 
police questioning and surveillance during the first half of 
2009, including one signer who was placed under residential 
surveillance after she distributed copies of the Charter on the 
street.\42\

      HARASSMENT ON EVE OF 20TH ANNIVERSARY OF TIANANMEN PROTESTS

    Officials sought to suppress the free expression of 
citizens in the lead-up to June 4, 2009, the 20th anniversary 
of the government's violent suppression of the 1989 Tiananmen 
protests.

        <bullet> In March 2009, officials briefly held Zhang 
        Shijun, a former soldier who served during the 
        protests, after he published an open letter to 
        President Hu Jintao calling for a reassessment of the 
        Tiananmen protests and gave interviews to foreign 
        media.\43\
        <bullet> In April, police in Beijing detained Qi 
        Zhiyong for one day and stationed officers outside his 
        apartment. Qi, who lost a leg after being shot during 
        the 1989 protests, had spoken out about the incident 
        and given interviews to foreign news media.\44\
        <bullet> In March and May 2009, Beijing public security 
        officials summoned Dr. Jiang Qisheng, a writer and vice 
        chairman of Independent Chinese PEN Center, which is 
        affiliated with an international writers association, 
        and confiscated his computer, books, and manuscripts 
        from his home.\45\ Jiang was reportedly preparing to 
        publish an account of the Tiananmen protests and their 
        aftermath.
        <bullet> In June, officials ordered Zhang Huaiyang to 
        serve one and one-half years of reeducation through 
        labor.\46\ Officials had detained Zhang on the charge 
        of inciting subversion. Zhang had signed Charter 08 and 
        posted an essay online titled ``Is There Really No One 
        Who Dares To Take to the Street To Commemorate 6-4? '' 
        \47\
        <bullet> In June, officials in Chongqing municipality 
        ordered Chen Yang, a Charter 08 signatory, to serve one 
        year of reeducation through labor after he took part in 
        an online discussion with friends about wearing white 
        and lighting candles to commemorate the Tiananmen 
        protests.\48\
        <bullet> Chinese Human Rights Defenders reported on 
        June 4, 2009, that officials had harassed 65 activists 
        to prevent them from commemorating the Tiananmen 
        protests, including the detention of Wu Gaoxing for 
        wearing a commemorative shirt while riding a bicycle. 
        The report said police were stationed outside the homes 
        of individuals such as human rights lawyers Pu Zhiqiang 
        and Teng Biao and that other individuals were forced to 
        leave Beijing or were visited at their home by police 
        and warned against giving media interviews or meeting 
        with friends to commemorate the event.\49\

------------------------------------------------------------------------
                               Defamation
-------------------------------------------------------------------------
  Local officials continued to abuse the crime of defamation to punish
 critics and whistleblowers. At a conference held in May 2009, the
 official Legal Daily reported that a number of Chinese legal scholars
 expressed concern at what the article described as ``many'' recent
 cases of local governments using the ``crime of defamation'' to
 retaliate against whistleblowers and ``abuse government authority to
 smother citizens' freedom of speech and right to supervise.'' \50\ The
 article noted that in 2008, journalists were the targets of such cases,
 while in 2009, the targets were citizens who used the Internet to
 expose problems. Scholars interviewed for the article blamed the
 ``arbitrary'' and ``subjective'' nature of official power in China and
 criticized Article 246 of the PRC Criminal Law, which provides
 officials with a loophole to pursue a defamation case in the absence of
 a complaint if ``serious harm is done . . . to the interests of the
 State.'' \51\ China's lack of an independent judiciary also contributes
 to the problem.\52\ Cases this past year included:  <bullet> In March 2009, police from Lingbao city, Henan province,
   traveled 1,200 kilometers to Shanghai to apprehend Wang Shuai after
   he suggested in an online post that Lingbao officials had
   misappropriated funds intended for drought prevention. They brought
   him back to Lingbao and kept him in custody for five days. Following
   public outcry, provincial officials disciplined Lingbao police and
   paid Wang 784 yuan (US$115).\53\
  <bullet> In April 2009, China Daily reported that police detained
   blogger Shi Zhixian for three days in March for alleging that
   officials rigged a local election in which he ran as a candidate.
   Police reportedly issued an apology, offered him compensation, and
   disciplined five officers.\54\
------------------------------------------------------------------------

       Regulation and Censorship of the News Media and Publishing

    The Chinese Government and Communist Party continued to 
censor and regulate the news media and publishing industry in 
violation of the PRC Constitution and international standards 
for free expression. Article 35 of the PRC Constitution 
provides for freedom of the press.\55\ The International 
Covenant on Civil and Political Rights and Universal 
Declaration of Human Rights prohibit restrictions on the press 
except those ``necessary'' for, or ``solely for the purpose 
of,'' respecting the rights or reputations of others or 
protecting national security, public order, public health or 
morals, or the general welfare.\56\ The government and Party 
exceed these limits by restricting political and religious 
content and controlling the media for political purposes. 
Officials continued to deny the existence of press 
censorship.\57\

           OFFICIALS TREAT NEWS MEDIA AS A TOOL OF THE PARTY

    During the Commission's 2009 reporting year, top Chinese 
officials continued to emphasize the media's subservient 
relationship to the government and Party. In the Commission's 
previous reporting year President and Party General Secretary 
Hu Jintao gave a major speech on the role of the news media in 
June 2008, during which he said journalists should ``promote 
the development and causes of the Party and the state'' and 
that their ``first priority'' is to ``correctly guide public 
opinion.'' \58\ In November 2008, Liu Yunshan, director of the 
Party's Central Propaganda Department, told local propaganda 
bureaus and ``persons responsible for news media'' to emphasize 
``positive propaganda'' to deal with the economic downturn.\59\ 
In July 2009, Director Liu Binjie of the General Administration 
of Press and Publication, which regulates the news media, 
outlined the main tasks for news regulators during the second 
half of 2009, including ``painstakingly organizing and leading 
news units to carry out news propaganda work welcoming the 60th 
anniversary of the nation's founding.'' \60\ Liu also called 
for propaganda on the Xinjiang Uyghur Autonomous Region's 
economic and social development and ethnic solidarity and to 
provide ``ideological guarantees'' and ``public opinion 
support'' for the work of the Party and nation. In a speech in 
June 2009 on the occasion of the 60th anniversary of Jiangxi 
Daily, Jiangxi provincial Party Secretary Su Rong said 
journalists must uphold the ``Marxist view of journalism'' and 
quoted former Party chairman Mao Zedong as saying ``to do news 
work, the politicians must run the newspapers.'' \61\

                 COMMUNIST PARTY DIRECTS MEDIA COVERAGE

    This past year, the Party's view of the news media as a 
mouthpiece continued to be reflected in Party directives 
restricting news reporting of certain topics deemed politically 
sensitive. The primary source of such directives, the Party's 
Central Propaganda Department (CPD), informs publishers and 
editors what stories can and cannot be covered and how to cover 
certain topics, and in some cases instructs news media to run 
only stories from Xinhua, the official news agency of the 
central government.\62\ The following table indicates some of 
the publicly known directives over the past year.

------------------------------------------------------------------------
          Restricted Topic                       Restriction
------------------------------------------------------------------------
December 2008--Arrest of a reporter  Ban on all media coverage.
 at China's only national
 television station, CCTV.\63\
------------------------------------------------------------------------
January 2009--Charter 08.\64\        Media may not interview or write
                                      about Charter 08 signers.
------------------------------------------------------------------------
February 2009--Massive fire near     Media not to publish photos,
 CCTV's headquarters.\65\             videos, or indepth reports. Only
                                      run Xinhua reports.
------------------------------------------------------------------------
March 2009--Shoe-throwing incident   Followup reporting and news
 during Premier Wen Jiabao's visit    commentary prohibited.
 to Cambridge University.\66\
------------------------------------------------------------------------
March 2009--China's 4 trillion yuan  Media ordered to provide ``positive
 (US$586 billion) stimulus package    propaganda'' and avoid ``negative
 to revive the economy.\67\           guidance'' and ``commentary.''
------------------------------------------------------------------------


------------------------------------------------------------------------
   Restricted Topic--Continued            Restriction--Continued
------------------------------------------------------------------------
March 2009--Shanghai news media   Media should remove the report or not
 report on China's increased       carry it.
 holdings of U.S. stock.\68\
------------------------------------------------------------------------
June 2009--Public criticism of a  Media not to ``publish discussion
 government plan to require        questioning or criticizing'' the
 ``Green Dam'' filtering           government's plan, but instead to
 software in all computers sold    ``expand positive guidance.''
 in China.\69\
------------------------------------------------------------------------
June 2009--Protests following     Ban on criticism and comments on
 contested presidential election   Iranian government's measures to
 in Iran.\70\                      control protests. Only reports from
                                   Xinhua and People's Daily allowed to
                                   be published.
------------------------------------------------------------------------
August 2009--Chinese              Media ordered not to report on or
 activists.\71\                    publish essays by 247 persons,
                                   including Liu Xiaobo.
------------------------------------------------------------------------

    The directives are not transparent, and officials 
interviewed by the Commission denied their existence.\72\ In a 
prominent case from 2005, one court found that such directives 
are state secrets and sentenced the journalist Shi Tao to 10 
years in prison for leaking a directive to an overseas Web 
site.\73\ In February 2009, the Deputy Director of the Yunnan 
Provincial Party Propaganda Department publicly acknowledged 
the ability of propaganda officials to dictate news 
coverage.\74\ During a domestic media interview, Deputy 
Director Wu Hao said ``the propaganda department still has the 
power to direct the media. We can order the media to not report 
or comment . . .'' \75\ In April, officials at one television 
station acknowledged that they received broad guidance on major 
topics such as coverage of large-scale disasters, the 2008 
Beijing Summer Olympic Games, and the 60th anniversary of the 
founding of the People's Republic of China, but enjoy greater 
independence in the areas of science and technology, 
entertainment, and current affairs.\76\

       OFFICIALS PUNISH JOURNALISTS AND NEWS MEDIA FOR REPORTING

    This past year, Party and government officials continued to 
punish journalists and news media for attempting to cover 
``politically sensitive'' stories or because they published 
such stories. In September 2008, the Inner Mongolia Press and 
Publication Bureau ordered suspension of publication of the 
China Business Post for three months after the paper published 
a report critical of the state-run Agricultural Bank of China, 
which at the time was preparing for a stock offering.\77\ The 
paper said unspecified ``higher-level officials'' had punished 
it for failing to follow the requirement that ``significant and 
sensitive news stories must be verified with the party being 
reported on before publication'' and for disregarding a ban on 
``cross-regional reporting,'' in which newspapers reporting 
about events in other localities had once enjoyed some 
leeway.\78\ In November 2008, Li Changchun, a member of the 
Party's Politburo Standing Committee, reportedly ordered the 
removal of a publisher at Yanhuang Chunqiu after the magazine 
published an article in memory of former Party General 
Secretary Zhao Ziyang, who died in 2005 after spending 16 years 
under home confinement following the 1989 Tiananmen 
protests.\79\ In January 2009, authorities in Shanxi province 
reportedly suspended two journalists and two editors for 
producing a television episode on the potential bankruptcy of a 
Linfen city textile mill and the uncertain future of the mill's 
6,300 workers.\80\

         GOVERNMENT REGULATION OF THE NEWS MEDIA AND PUBLISHING

    The government continues to rely on prior restraints on 
publishing, including licensing and other regulatory 
requirements, to restrict free expression.\81\ No one may 
legally publish a book, newspaper, or magazine, or work as a 
journalist in China, unless they have a license from the 
General Administration of Press and Publication (GAPP), the 
government agency in charge of regulating the news media and 
publishing industry.\82\ Chinese law requires that every book, 
newspaper, and magazine have a unique serial number, and the 
GAPP maintains exclusive control over the distribution of these 
numbers.\83\ To obtain a license to publish news, applicants 
must meet financial requirements and must have a government 
sponsor, although sponsors vary in degree of oversight.\84\ The 
Central Propaganda Department (CPD) closely collaborates with 
government agencies to control the press.\85\
    The government continued to use its licensing authority to 
violate freedom of the press. In July 2009, Beijing public 
security officers and officials from the Beijing City Cultural 
Law Enforcement Agency raided the offices of Beijing Yirenping 
Center, a public health non-governmental organization, and 
confiscated more than 90 copies of the center's ``China's Anti-
Discrimination Legal Action Newsletter.'' The officers claimed 
Yirenping failed to possess the necessary permits to publish 
the newsletter.\86\ From January to July 2009, officials 
reportedly seized 1.35 million ``illegal'' newspapers and 
periodicals.\87\ Authorities continued to use Article 225 of 
the PRC Criminal Law, which defines operating a publishing 
business without government permission as an illegal business 
activity,\88\ to fine and imprison publishers. In June 2009, a 
Beijing court sentenced bookstore owner Shi Weihan to three 
years' imprisonment under Article 225 because Shi had printed 
and given away Bibles.\89\
    The government continued its campaign to target 
publications for their political and religious content. Chinese 
regulations include vague and sweeping prohibitions on the 
publication of material that ``undermine the solidarity of the 
nations, or infringe upon national customs and habits,'' 
``propagate evil cults or superstition,'' or ``harms the honor 
or interests of the nation.'' \90\

        <bullet> In December 2008, GAPP issued a notice calling 
        on customs officials to focus on ``illegal 
        publications'' and `` `Falun Gong' and other `cults' 
        propaganda materials.'' \91\
        <bullet> The State Administration of Industry and 
        Commerce reported in January 2009 that it targeted 
        ``illegal political publications'' in the runup to the 
        2008 Olympic Games and that rooting out such 
        publications would remain a priority in 2009.\92\
        <bullet> In April and May 2009, local and provincial 
        governments across China issued notices launching a 
        special campaign targeting ``illegal political 
        publications.'' \93\ The Fujian Provincial Transport 
        Administration Department, for example, issued a notice 
        that placed the focus on publications that ``slandered 
        the country's political system, distorted the history 
        of the Party, the country's history, the military's 
        history, slandered the Party and the country's leaders, 
        publicized `Falun Gong' and other evil cults, and 
        incited ethnic splittism.'' \94\
        <bullet> In March 2009, Harbin city police in 
        Heilongjiang province reportedly seized more than 2,000 
        copies of ``illegal political publications'' including 
        some relating to the Gang of Four and another 30,000 
        ``illegal political publications'' relating to famous 
        Party leaders such as Mao Zedong and Zhou Enlai and 
        other books on Chinese politics and history.\95\
        <bullet> In April 2009, officials in Lhasa, the capital 
        of the Tibet Autonomous Region, reportedly burned more 
        than 1,000 copies of ``illegal political'' publications 
        and ``Dalai clique splittist'' publications.\96\
        <bullet> In 2009, Xinjiang Uyghur Autonomous Region 
        authorities established a fund to reward efforts to 
        ``purify'' the cultural market, with a focus on 
        ``illegal'' religious and political publications.\97\ 
        [See Section IV--Xinjiang--Controls Over Free 
        Expression and Assembly for more information.]
        <bullet> Authorities have confiscated Bibles imported 
        to the country,\98\ and in the past year, officials 
        confiscated Bibles in raids on house churches.\99\ [See 
        Section II--Freedom of Religion--Controls Over 
        Religious Publications for more information.]

    This past year, officials strengthened oversight over 
journalists.\100\ A January 2009 GAPP circular announced that 
journalists and editors working for Chinese news organizations 
must exchange their current press cards, which they are 
required to have to legally practice their profession, for new 
ones, affecting approximately 260,000 news personnel.\101\ The 
Chinese Government claims that government licensing and 
supervision of journalists and editors is needed to prevent 
corruption and protect journalists.\102\ International experts 
on freedom of expression, however, have declared such licensing 
schemes for print media unnecessary and subject to abuse and 
have found press accreditation appropriate only where necessary 
to provide access to certain places and events.\103\ GAPP also 
announced creation of a black list of journalists who ``violate 
laws and regulations or professional ethics'' and have had 
their press cards revoked.\104\ The current code of 
professional ethics, which was last revised in 1997 and 
reportedly will be further amended by November 2009,\105\ 
requires news workers to ``make great efforts to learn and 
propagate Marxism-Leninism, Mao Zedong Thought, and Deng 
Xiaoping's theory of constructing socialism with Chinese 
characteristics'' and ``firmly implement the Party's basic 
orientation and principles.'' \106\
    This past year, the government continued to link the 
professional training and selection of journalists with 
requirements for political loyalty. In April 2009, the CPD, the 
Central Office for Overseas Publicity, the State Administration 
of Radio, Film, and Television, GAPP, and the All-China 
Journalists Association issued a circular launching a campaign 
called the ``Three Items To Study and Learn'' (sanxiang xuexi 
jiaoyu).\107\ The circular calls for ``further strengthening 
the political quality of editors and journalists,'' and 
``guaranteeing the correct orientation of news propaganda 
work.'' \108\ It notes that in recent years a large number of 
young journalists have risen in the ranks, ``making it even 
more necessary to help them practically grasp the Marxist 
view.'' \109\ An important goal of the campaign is to help news 
workers develop the capacity to avoid ``ideological errors'' 
and to ``persist in using the Marxist view to correctly analyze 
and guide news practice.'' \110\

 FACTORS PROVIDING MEDIA SOME SPACE, WHILE THE PARTY SEEKS TO MAINTAIN 
                                CONTROL

Commercialization of news media

    Over the last three decades, authorities have encouraged 
the proliferation of news media that depend less on financial 
subsidies from the government but have not sought to relinquish 
Party control over content.\111\ Commercialization has resulted 
in less severe state control, but all legal media in China 
remain ``state-controlled'' in the sense that they are still 
subject to propaganda directives and prior restraints such as 
being required to have a government sponsor. Some major media, 
such as Xinhua, People's Daily, and CCTV, remain directly under 
the control of the government or Party and have as their main 
purpose the communication of the official line.\112\ A few more 
market-oriented media, including Caijing\113\ and Southern 
Metropolitan Daily, have developed a reputation for greater 
independence.\114\ Editors at these organizations, however, 
proceed cautiously and have been punished by officials in the 
past.\115\
    Officials continue to use commercialization to serve their 
own interests. They cite the numerical growth in newspapers, 
magazines, and journalists as evidence itself of press 
freedom.\116\ They also express a desire to create market-
friendly media to facilitate the spread of propaganda and 
China's ``soft power.'' President and Party General Secretary 
Hu Jintao said in his June 2008 speech that commercial media 
need to be co-opted into a ``new setup for public opinion 
guidance.'' \117\ In March 2009, the deputy secretary of the 
Guangdong Provincial Party Committee, Liu Yupu, spoke to 
journalists in Shenzhen about the effects of the global 
economic downturn, telling them they were ``the most critical 
mouthpieces'' of the Party and government and must ``strengthen 
their own sense of political responsibility,'' while at the 
same time making their news ``more readable and watchable . . 
.'' \118\ In April 2009, the government announced a plan to de-
link most news publishers from the government and create five 
or six commercially viable media conglomerates whose aim would 
be to ``raise the nation's combined national power and cultural 
soft power.'' \119\ The plan reflects official concern over the 
perceived dominance of foreign ``Western'' media in shaping 
China's image\120\ and coincided with other recent policies to 
greatly expand China's media presence abroad. In January 2009, 
for example, the central government announced plans to spend 45 
billion yuan (US$6.6 billion) to improve the nation's image 
through the overseas expansion of three major state news media: 
CCTV, Xinhua, and People's Daily.\121\ While one Chinese 
academic said the de-linking policy could lead to less 
censorship,\122\ the guiding opinion announcing the policy 
noted the need to maintain the ``Party's leadership of news 
publishing work.'' \123\

Government continues to promote limited watchdog role for journalists

    Some aspects of the Party's policy toward the media serve 
the Party's interests but also give the news media some space 
to report. Under a policy called ``public opinion 
supervision,'' journalists are encouraged to cover abuses and 
corruption at the local level, so long as it does not threaten 
the center, as a way of keeping central officials informed of 
local problems.\124\ Governments at all levels are urging 
officials to cooperate with journalists. For example, a 
November 2008 GAPP circular stated that ``[n]o organization or 
individual should interfere with or obstruct'' the ``legal 
reporting activities'' of news personnel.\125\ In July 2009, 
authorities in Kunming city, Yunnan province, reportedly 
proposed a regulation that imposes punishments on officials who 
interfere with ``news media carrying out public opinion 
supervision in accordance with the law.'' \126\
    This past year, the Commission observed some media issuing 
reports questioning government policies. Chinese media 
published stories critical of the confinement of petitioners in 
psychiatric hospitals,\127\ black jails [see Section II--
Criminal Justice, for more information],\128\ the behavior of 
delegates to the National People's Congress session in March 
2009,\129\ abuses at detention centers,\130\ a government 
policy to require all computers sold in China to come with pre-
installed filtering software,\131\ and the August 2009 trial of 
a prominent activist.\132\ The extent to which media can report 
on such issues and the boundaries for reporting are unclear, 
although coverage of such topics as the ``military, religion, 
ethnic disputes, the inner workings of government'' is 
reportedly off-limits.\133\ Some media may have greater leeway 
because, as in the case of Xinhua, People's Daily, and CCTV, 
they are backed by top central leadership.\134\ Chinese 
officials also may allow certain stories to be published in 
English-language domestic media but not in the Chinese-language 
media.\135\

Controlling the news agenda to counter Internet and international media

    The increasing influence of China's Internet and a greater 
focus on competing with international media for reporting on 
China have led the Party to adapt its strategy of maintaining 
control through faster official reporting of some events while 
at the same time increasing censorship of nonofficial channels 
of information. In June 2008, President Hu said the Internet 
had become a significant source of information that needed to 
be managed better.\136\ He called on news reports on ``sudden-
breaking public events'' (tufa shijian) to be released 
immediately so that the government could take the initiative in 
``news propaganda work.'' \137\ Hu also called on journalists 
to help change international opinion that still reflects a 
``West is strong, we are weak'' pattern. In an October 2008 
article in the Party journal Seeking Truth (Qiushi), Central 
Propaganda Department Director Liu Yunshan praised the Party's 
propaganda response to Tibetan protests (and rioting) in 
Tibetan areas that began in March 2008 as having effectively 
``influenced international opinions.'' \138\ The Commission 
noted in its 2008 Annual Report the development that the Party 
had begun to allow journalists to report certain major breaking 
news more quickly and without official approval, so long as 
they toed the Party line.\139\
    The trend of quicker reporting, accompanied by increased 
censorship of unofficial channels, continued this past year. 
Following a demonstration by Uyghurs and violence in the 
Xinjiang Uyghur Autonomous Region (XUAR) in July 2009, Xinhua 
issued reports early on and provided regular updates, mostly in 
English, that overseas media relied upon.\140\ At the same 
time, authorities shut down numerous Web sites and deleted 
posts on Internet forums that contained descriptions or 
pictures of the protests.\141\ The government has sought to 
capitalize on this trend of quicker reporting.\142\ During the 
February 2009 session of the UN Human Rights Council's 
Universal Periodic Review of the Chinese Government's human 
rights record, the Chinese delegation cited media coverage of 
the contaminated milk scandal in the fall of 2008 as evidence 
of press freedom.\143\ As noted in the Commission's 2008 Annual 
Report, however, one newspaper that had discovered cases of 
sick children was unable to publish the story because of 
censorship before the 2008 Olympic Games, and officials banned 
commentaries and news features about the tainted milk 
products.\144\

         FOREIGN AND NON-MAINLAND JOURNALISTS WORKING IN CHINA

    Foreign journalists reporting in China face fewer 
restrictions than domestic journalists but continued to face 
harassment. As a result of China hosting the Olympics in 2008, 
since January 2007 foreign journalists allowed into China may 
report without additional government permission, with the 
notable exception of closed-off areas such as the Tibet 
Autonomous Region.\145\ In October 2008, officials issued 
permanent measures enshrining this policy.\146\ For Hong Kong, 
Macau, and Taiwanese journalists, however, new rules issued in 
February 2009 reinstated an official approval requirement for 
reporting.\147\ Despite the positive legal change for foreign 
journalists, they continued to report instances of official 
harassment. In March 2009, the Foreign Correspondents' Club of 
China (FCCC) criticized detentions and closed access as 
reporters tried to visit Tibetan areas one year after protests 
that began in March 2008.\148\ In July 2009, FCCC welcomed the 
``relatively open access'' for foreign journalists traveling to 
the XUAR to cover the aftermath of the July 5 demonstration in 
the capital of Urumqi.\149\ Chinese officials reportedly 
allowed about 60 foreign journalists to travel to Urumqi on a 
government-arranged reporting trip and set up an on-site media 
center for them.\150\ The FCCC, however, cited ``serious 
concerns,'' including officials ordering journalists to stop 
reporting and ordering them to leave certain areas, including 
the city of Kashgar.\151\
    While conditions for foreign reporters may be improving, 
officials appear to be increasing pressure on Chinese sources 
and colleagues. At a Commission roundtable in July 2009, one 
foreign correspondent reported that ``as the rules have more 
aligned with international reporting standards, harassment and 
intimidation may be `going underground.' The pressure seems 
more often directed at vulnerable Chinese sources and staff.'' 
She noted a new code of conduct for Chinese news assistants 
that reminded them that it was illegal to conduct independent 
reporting and urged them to ``promote positive stories about 
China.'' \152\ As noted elsewhere in this section, this past 
year officials warned Chinese citizens not to speak to foreign 
journalists and punished them for doing so.\153\

                         Access to Information


               CENSORSHIP OF THE INTERNET AND CELL PHONES

Internet censorship violates international human rights standards

    The Chinese Government's regulation of the Internet and 
other electronic communications continued to violate 
international standards for free expression. Article 19 of the 
International Covenant on Civil and Political Rights guarantees 
the right to ``seek, receive and impart'' information ``of all 
kinds, regardless of frontiers,'' through any media of one's 
choice.\154\ Article 19 permits restrictions on this freedom, 
provided they are prescribed by law and are necessary to 
protect the rights or reputations of others, national security, 
public order, or public health or morals. Chinese officials 
exceed these allowances, however, because their extensive 
censorship of the Internet and cell phones is not limited to 
the removal of content such as pornography, spam, or content 
deemed to violate intellectual property rights, but also 
political and religious content the government and Communist 
Party deem to be politically sensitive. Chinese officials 
continued to defend restrictions on the Internet as necessary 
and based in law,\155\ and in line with international human 
rights standards\156\ and the practice of other countries.\157\ 
They have also characterized their investment in information 
technology as done to ``strengthen the infrastructure that 
allows citizens to fully enjoy freedom of speech.'' \158\ At 
the same time, the Party has sought to reap the benefits from 
the Internet's expansion, to aid in dissemination of Party 
propaganda and to support China's economic development.\159\
    The Internet continued this past year to serve as an 
important outlet for individual expression and criticism of 
government policies. According to statistics from China 
Internet Network Information Center, the state network 
information center, China has more Internet users than any 
country in the world, and the figured reached 338 million in 
June 2009.\160\ As of March 2009, there were 670 million cell 
phone users in China, and as of June 2009, 155 million cell 
phone users accessed the Internet through their phone.\161\ 
According to Freedom House, the Internet is freer than 
traditional media because of its ``egalitarian nature and 
technical flexibility.'' \162\ As in recent years, citizens 
this past year used the Internet to organize protests, expose 
corruption among local officials, and oppose government 
policies. Internet users reportedly played a significant role 
in raising awareness about the Deng Yujiao case involving a 
young woman who stabbed a local official to death to thwart an 
attempted rape.\163\ In March 2009, a local official in Hunan 
province lost his job after Internet users posted receipts 
showing lavish spending at a karaoke club.\164\ After Internet 
users, citizens in China, and domestic media, as well as 
foreign governments and companies, criticized a government 
requirement that all computers sold in China include censorship 
software, officials backed away from the plan.\165\ The 
presence of online criticism, however, does not signal the 
government's intent to allow greater freedom of expression on 
the Internet in line with international standards. As noted 
here and elsewhere in the section, the government continues to 
control media reporting that appears on the Internet, to block, 
filter, and remove political and religious content, and 
imprison citizens such as Tan Zuoren, for using the Internet to 
disseminate criticism of the government.

Blocking social networking, human rights, and other politically 
        sensitive Web sites

    Officials continued to shut down or block access to 
domestic and foreign Web sites because of those sites' 
political or religious content. Authorities reportedly ordered 
the closure of the domestic ``Rights Defense China'' Web site 
in October 2008 for posting ``sensitive information.'' \166\ In 
January 2009, the Beijing Municipal Government's Information 
Office reportedly ordered the closure of the blog hosting Web 
site Bullog (www.bullog.cn) after the site failed to remove 
large amounts of ``harmful information'' relating to current 
events and politics.\167\ In March 2009, authorities repeatedly 
shut down the multi-language Web site Uyghur Biz (also known as 
Uyghur Online) and interrogated Beijing-based Uyghur scholar 
Ilham Toxti (Tohti), who runs the site.\168\ In July, the 
technology pages of Sina.com and Netease.com, two popular 
domestic news portals, were shut down for several hours after 
posting articles about a corruption investigation in Namibia 
involving a company that had been overseen by President Hu 
Jintao's son.\169\
    Authorities continued to block domestic access to foreign 
news and human rights Web sites, including the Commission's Web 
site,\170\ and blocked search engines and social networking 
sites during politically sensitive periods throughout the past 
year. In August 2009, the Chinese military newspaper PLA Daily 
warned that Twitter and YouTube were being used by Western 
forces as subversive tools, citing their use by those opposed 
to election results in Moldova and Iran.\171\

        <bullet> In December 2008 and January 2009, officials 
        reportedly blocked the Chinese-language sites for the 
        BBC, Voice of America, and Deutsche Welle, YouTube's 
        Hong Kong and Taiwan sites, and the Web sites for the 
        New York Times, Amnesty International, and the Hong 
        Kong-based news organizations Ming Pao, Asiaweek, and 
        Apple Daily, after some of the sites were unblocked for 
        the 2008 Olympic Games.\172\
        <bullet> In March 2009, Google reported that its 
        YouTube site was being blocked in China. Prior to the 
        block, a video was posted on the Web site purportedly 
        showing Chinese police beating Tibetans during protests 
        in March 2008.\173\
        <bullet> In June 2009, days before the 20th anniversary 
        of the 1989 Tiananmen protests, authorities reportedly 
        blocked access to the social networking site Twitter, 
        the blogging portal MSNSpaces, the photo-sharing site 
        Flickr.com, and the Microsoft search engine 
        Bing.com.\174\
        <bullet> In July 2009, authorities reportedly blocked 
        access to Twitter, YouTube, and Fanfou.com, a domestic 
        micro-blogging site similar to Twitter, following the 
        July 5 demonstration in Urumqi and outbreaks of 
        violence starting that day.\175\ Two other domestic 
        micro-blogging Web sites, Digu and Zuosa, also went out 
        of service during this time, with a spokeswoman from 
        one of the companies saying ``it's a sensitive period, 
        so we are not in a rush to re-open it.'' \176\

Active filtering and removing of political and religious content

    Chinese authorities and companies offering Internet content 
in China continued to filter and remove political and religious 
content from the Internet. Internet regulations, which apply to 
cell phone service as well,\177\ prohibit not only 
dissemination of pornographic and defamatory content, but 
political and religious content under broad and vague 
prohibitions on information ``harming the honor or interests of 
the nation,'' ``disrupting the solidarity of peoples,'' 
``disrupting national policies on religion,'' and ``spreading 
rumors,'' the meanings of which are nowhere defined in Chinese 
law.\178\ The Chinese Government monitors the Internet through 
a large number of public security officials and agencies 
overseeing the Internet and places a legal burden on companies 
providing Internet and cell phone services to filter and remove 
content. Companies providing Internet or cell phone services in 
China, including those based in other countries, are required 
to monitor and record the activities of its customers or users, 
to filter and delete information the government considers 
politically sensitive, and to report suspicious activity to 
authorities.\179\ The law's vagueness and the consequences for 
companies who allow too much information lead many companies to 
err on the side of censoring more information.\180\ In 
addition, the lack of clarity leads to wide variation in the 
level of censorship companies practice.\181\ In July 2009, the 
government reportedly issued a secret directive that 
strengthens monitoring of comments posted by Internet users on 
Chinese news Web sites. The directive forces such Web sites to 
require new users to provide their real name and identification 
number in order to post a comment, a move that could have a 
chilling effect on free expression.\182\
    This past year, officials and companies continued to filter 
political and religious content critical of China's top 
leaders, human rights record, policies toward Tibetan areas of 
China and the Xinjiang Uyghur Autonomous Region, and 
information relating to Falun Gong and the 1989 Tiananmen 
protests.\183\ In April 2009, China Digital Times reported that 
Chinese Internet users were circulating leaked documents from 
Baidu, which runs China's top search engine.\184\ The documents 
provide lists of topics and words to be censored, including 
references to petitioners, the 1989 Tiananmen protests, Falun 
Gong, and China's leaders.\185\ The China-based search engines 
of Yahoo!, MSN, and Google also filter politically sensitive 
information.\186\ In October 2008, these companies and other 
participants announced the formation of the Global Network 
Initiative, a coalition of companies, human rights groups, and 
Internet experts, whose purpose is to encourage companies to 
comply with principles of freedom of expression and to submit 
to monitoring by independent experts.\187\
    Examples of filtering politically sensitive content this 
past year include:

        <bullet> After Chinese citizens posted online Charter 
        08, a document calling for political reform and greater 
        protection of human rights, in December 2008, 
        references to the Charter appeared to have been removed 
        from the Internet, according to searches carried out 
        using the Baidu, Sina, and Google.cn search 
        engines.\188\
        <bullet> In March 2009, Internet and cell phone text 
        messaging services were reportedly disrupted in Tibetan 
        areas of western China ahead of a series of dates that 
        many Tibetans consider to have a high level of cultural 
        and political sensitivity.\189\
        <bullet> In March 2009, authorities began to censor 
        references to the ``grass-mud horse,'' a Chinese word 
        that sounds like an obscenity, after Internet users 
        began using the term to protest a government crackdown 
        on ``vulgar'' content on the Internet.\190\
        <bullet> Reporters Without Borders issued a report in 
        June confirming the continued censorship of Internet 
        searches in China for references to the 1989 Tiananmen 
        protests.\191\
        <bullet> In August 2009, China Daily reported that 
        Google.cn and Baidu had blocked searches for Xu 
        Zhiyong, the law professor and rights defender who had 
        been detained on charges of tax evasion.\192\

    Chinese officials also continued to enlist citizens to help 
monitor the Internet and influence public opinion. In recent 
years, authorities have paid commentators known as the ``50-
Cent Party'' to promote the Party's views in online forums and 
to report ``dangerous'' content to authorities.\193\ In June 
2009, Xinhua reported that Beijing officials were recruiting 
tens of thousands of volunteers by year's end to monitor the 
Internet and report ``lewd'' content or Internet users showing 
``uncivilized behavior'' while surfing the Internet.\194\
    Officials continued this past year to label campaigns to 
remove content as aimed at ``vulgar'' or pornographic content, 
but guidance issued by the government included political 
content as well.\195\ For example, this year officials launched 
a campaign against ``vulgar'' content on the Internet and 
targeted audio- and video-hosting Web sites. The State 
Administration of Radio, Film, and Television issued a circular 
in March 2009 requiring Internet audio-visual program service 
providers to edit or delete programs containing, among other 
things, ``distortions of Chinese culture,'' ``disparaging or 
mocking depictions of revolutionary leaders, heroes, and 
important historical figures,'' or ``disparaging depictions of 
the PLA, people's armed police, the public security bureau, or 
the judiciary.'' \196\
    Officials continued to acknowledge their ability to monitor 
and delete information on the Internet and expand their 
capabilities. In February 2009, Liu Zhengrong, a top official 
at China's Internet Affairs Bureau, urged heightened vigilance 
this year, telling colleagues to ``check the channels one by 
one, the programs one by one, the pages one by one. You must 
not miss any step.'' \197\ The Deputy Director of the Yunnan 
Party Propaganda Department said in a February 2009 media 
interview that ``we can delete all inconvenient, or negative, 
online posts one by one.'' \198\ According to one Party 
scholar, local officials delete unfavorable commentary about 
them on the Internet and render the IP address of those 
computers inactive; on occasion they trace the comment and 
retaliate.\199\ [See box titled Defamation above.] In March 
2009, the deputy director of the General Administration on 
Press and Publication, which also regulates online publishing, 
said that the agency would soon have the capability to monitor 
content on hundreds of thousands of publishing Web sites.\200\ 
Chinese scientists are reportedly developing better software to 
detect ``undesirable content.'' \201\ Officials this past year 
also sought to extend their ability to censor beyond the 
network level to the level of an individual computer. [See box 
titled Green Dam below.] While the government ultimately backed 
away from its Green Dam initiative, officials reportedly 
required all Internet service providers to install the Landun 
(Blue Shield) software on their servers by September 13, 2009, 
or face penalties.\202\ Blue Shield (also known as Bluedon or 
Blue Dam) blocks Web sites and records users' online 
activities, and is reportedly much more effective than Green 
Dam.\203\

------------------------------------------------------------------------
                                Green Dam
-------------------------------------------------------------------------
  In May 2009, the Ministry of Industry and Information Technology
 (MIIT) issued a circular requiring that computers sold within mainland
 China after July 1, 2009, must come ``pre-installed'' (yu zhuang) with
 the government-approved ``Green Dam-Youth Escort'' Internet browsing
 filtering software.\204\ The order did not become public until June 9
 and prompted domestic and international concerns over freedom of
 expression, the software's security, lack of notice and transparency,
 and the legality of the move under China's competition, monopoly, and
 procurement laws.\205\ Officials claimed the move was intended to
 protect young people from ``harmful information,'' but editorials in
 the official China Daily and Caijing questioned why the requirement
 applied to all computers sold and raised concerns about who would
 determine what content to block.\206\ Tests conducted by several
 outside sources found that, in addition to pornographic content, the
 software also filtered political and religious information, including
 references to Falun Gong. OpenNet Initiative (ONI), one of the groups
 that tested the software, also found that the software ``actively
 monitors individual computer behavior.'' \207\ ONI warned that the
 policy of filtering at the level of personal computers would ``increase
 the reach of Internet censorship to the edges of the network, adding a
 new and powerful control mechanism to the existing filtering system.''
 \208\ The requirement also applied to foreign manufacturers, who
 criticized the lack of transparency and short notice and called for
 reconsideration of the requirement.\209\ U.S. Secretary of Commerce
 Gary Locke and U.S. Trade Representative Ron Kirk issued a joint letter
 to the MIIT and Ministry of Commerce protesting the policy. ``China is
 putting companies in an untenable position by requiring them, with
 virtually no public notice, to pre-install software that appears to
 have broad-based censorship implications and network security issues,''
 Locke said.\210\ On June 30, 2009, the MIIT announced that it would
 delay the requirement,\211\ although some companies continued with
 efforts to comply.\212\ In August, the MIIT's minister announced that
 it would not force all computers to come with the Green Dam
 software.\213\
------------------------------------------------------------------------

Prior restraints: government licensing of Web sites

    The government requires all Web sites in China to be either 
licensed by, or registered with, the Ministry of Information 
Industry (MII),\214\ with additional licenses required for 
sites providing news content\215\ or audio or video 
services.\216\ Web sites that fail to register or obtain a 
license may be shut down and their operators fined. An October 
2008 People's Daily article said that the State Administration 
of Radio, Film, and Television was planning to target Web sites 
operating without a license for audio and video programs.\217\

Technical and legal challenges to censorship

    Chinese citizens continue to take advantage of proxy 
servers and to employ other techniques to access and share 
information that the government has attempted to block or 
filter. After a demonstration and outbreaks of violence took 
place in Urumqi, XUAR, in early July 2009, authorities cut 
Internet access in the area,\218\ and appeared to block 
nationwide access to Twitter and YouTube, remove comments about 
the demonstrations from Web sites, and filter Internet 
searches.\219\ Despite these measures, citizens were reportedly 
able to send pictures, videos, and updates from Urumqi; in some 
cases, content was posted on sites outside China in order to 
save the content.\220\
    Over the past year, citizens have filed lawsuits against 
Internet companies for censoring their online material. In 
January, a Beijing company executive and former standing 
committee member of the Anhui Province People's Political and 
Consultative Conference, filed a lawsuit with the Haidian 
District People's Court in Beijing against Sina.com after his 
blog was blocked the same day he posted an essay calling for 
political reform.\221\ In a potentially significant ruling, one 
court in Beijing ruled in May 2009 that there are limits to 
Internet companies' censorship of user content, the first time 
an Internet user has won such a case.\222\ In that case, an 
economics professor challenged the decision by Beijing Xin Net 
to shut down the professor's Web site after he posted articles 
calling for the abolition of China's reeducation through labor 
system. The court, although not addressing free speech issues, 
ruled that the company violated the user contract by not 
providing proof of its claim that the site contained 
objectionable content and failing to show that it had requested 
the content be changed. In June 2009, Huang Zhijia, a judge in 
Hubei province, filed a lawsuit in Beijing's Haidian District 
Court against Sina.com after it took down one of his blogs in 
which he accused the Party School of granting him an 
unrecognized diploma.\223\ In explaining how Sina.com applies 
government regulations, a customer service representative said 
the company works with public security officials to filter 
violent and pornographic content as well as ``radical political 
comments.'' \224\

Blocking of foreign tv, radio

    The government continued to impose restrictions on Chinese 
citizens' access to overseas TV, radio, and news. Access to 
foreign TV stations is generally restricted to hotels and 
foreign residences, and transmissions have been interrupted 
when politically sensitive stories about China appear.\225\ 
China's sole national television station, CCTV, began a live 
broadcast of U.S. President Barack Obama's inaugural address in 
January 2009, but cut away after a politically sensitive 
portion of the speech, which was later deleted from official 
``full'' translations appearing in Chinese media.\226\ Chinese 
officials repeatedly pit the ``Western'' media in a battle 
against China, this year urging China to step up jamming of 
``hostile'' foreign broadcasters such as the Voice of America 
and Radio Free Asia and ``foreign enemy'' broadcasting 
stations.\227\ In April 2009, China announced that Xinhua would 
not be regulating foreign financial information providers as 
part of an agreement in connection with a World Trade 
Organization complaint.\228\ Such financial providers are, 
however, still subject to China's censorship standards.\229\

                      Open Government Information

    This past year, the Chinese Government continued to express 
an intent to ``guarantee citizens' right of information.'' 
\230\ In March 2009, Xinhua reported that the Ministry of 
Finance (MOF) had begun posting the central government's budget 
on its Web site, whereas previous data had been available in a 
finance year book.\231\ In June, the MOF and the National 
Development and Reform Commission announced that by 2010 all 
government agencies would have Web sites.\232\ As the 
Commission has noted in previous reports, in recent years the 
Chinese Government has passed regulations to encourage the 
government's disclosure of information to citizens and improve 
public access to government information.\233\ The Regulations 
on Open Government Information (OGI regulation) went into 
effect in May 2008,\234\ and this past year citizens tested 
provisions in the regulations giving them a right to request 
information\235\ and challenge agency refusals to disclose 
information.\236\ Agencies have used a variety of reasons to 
refuse to disclose information. Agencies have, for example, 
asked for specific identification numbers of the documents 
requested, which is impossible because such documents are 
secret.\237\ They have also responded with vague or irrelevant 
answers, or claimed that the information does not exist or does 
not fall under the scope of information disclosure 
regulations.\238\ According to the vice president of Peking 
University Law School, government agencies frequently cite 
exceptions in the regulations that exempt disclosure of 
information relating to state and commercial secrets or that 
threaten national security or public order.\239\ The Ministry 
of Justice, for example, denied Beijing lawyer Xie Yanyi's 
request for information on reeducation through labor policies 
saying it related to state secrets.\240\
    A main problem, observers say, is the lack of an 
independent judiciary to enforce implementation.\241\ Almost a 
year after the OGI regulation took effect, a March 2009 Caijing 
report indicated that courts in every locality had received 
cases challenging agencies' refusal to release 
information.\242\ Chinese observers of courts' handling of OGI 
cases, however, have noted a number of problems that have 
contributed to a low success rate for plaintiffs. Courts 
reportedly have been reluctant to challenge an agency's 
determination of a state secret.\243\ The OGI regulation 
contains no provisions to provide courts with guidance on the 
boundaries of what should not be disclosed because it is a 
secret.\244\ The Supreme People's Court will reportedly issue a 
judicial interpretation by the end of 2009 that would provide 
courts with clearer guidance on handling OGI cases.\245\ The 
more fundamental issue is that China's laws loosely define 
state secrets to cover essentially all matters of public 
concern. Following passage of the OGI regulation, some scholars 
had hoped that officials would amend the PRC Law on the 
Protection of State Secrets to clarify the scope of state 
secrets to aid in implementation of the OGI regulation.\246\ 
The government is currently reviewing a draft amendment to the 
law.\247\ [See box titled Proposed Revision to State Secrets 
Law below.]

------------------------------------------------------------------------
                 Proposed Revision to State Secrets Law
-------------------------------------------------------------------------
  In June 2009, the National People's Congress (NPC) Standing Committee
 reviewed a draft revision of the PRC Law on Guarding State Secrets
 (State Secrets Law) and the NPC released the draft for public
 comment,\248\ but the proposed changes do not address abuses that occur
 under the current state secrets legal framework. Currently, the broad
 and vague definition of ``state secrets'' in Chinese law and
 regulations give officials wide latitude to declare almost any
 information a state secret.\249\ Officials use this discretion to deny
 citizen requests for government information\250\ or claim that a
 citizen possessed or leaked a state secret in order to punish political
 activity.\251\ Furthermore, police can declare that a case involves
 state secrets to deny criminal defendants basic procedural rights,
 including access to counsel and an open trial.\252\ Citizens cannot
 challenge such a determination\253\ and officials may declare
 information a state secret retroactively.\254\ Chinese academics and
 media have raised these concerns.\255\ In June 2009, the official China
 Daily issued an editorial that said:  Government institutions should no longer be allowed unlimited freedom
   in defining State secrets. The unnecessarily wide scope of State
   secrets must be streamlined. . . . If citizens continue to shoulder
   unlimited, and undefined obligations, they should not be left
   defenseless when accused. There should be legal relief for citizens
   victimized by abuse of the definition ``State secrets.'' \256\  The proposed draft lacks any substantial provisions to deal with these
 concerns. The draft law leaves unchanged the broad and vague provisions
 defining state secrets in the current law (Articles 2 and 8).\257\
 While at least one academic recommended that drafters consider granting
 people's congresses or judicial institutions the power to review an
 agency's state secret determination,\258\ the draft law failed to
 incorporate any independent review mechanism.\259\ The draft imposes an
 affirmative obligation on Internet and telecommunications companies to
 report the discovery of a disclosure of state secrets and to remove
 such information upon official request.\260\ The draft law also adds
 administrative fines ranging from 1,000 yuan (US$146) to 50,000 yuan
 (US$7,321), which may make officials more willing to classify
 information as a state secret.\261\ The draft includes a few modest
 provisions that may curb some abuses. The draft law, for example, adds
 a requirement that agencies conduct periodic audits of information
 classified as a state secret to determine if any should be
 declassified.\262\ Such periodic audits are not provided under the
 current law.
------------------------------------------------------------------------

    Despite the OGI regulation, officials continued to hide 
vital information from the public. It took nearly three months 
for word to leak out about a July 2008 explosion at an illegal 
mine in Zhonglou, Hebei province that killed 35 men. The mine 
owner paid off the families, and local officials issued a false 
report, while journalists received bribes to remain silent. Two 
weeks after the accident, officials in Shanxi province 
announced the deaths of 11 persons in a natural landslide. 
Investigators, following a tip from the Internet, later 
discovered that 41 had died.\263\ A Shanghai-based Xinhua 
journalist who exposed a mine disaster coverup in Shanxi 
province was later summoned to Beijing and told by Xinhua 
officials to lay off the story in October 2008.\264\ In 
October, it was discovered that local officials in Liaoning 
province kept the discovery of melamine-tainted eggs quiet for 
weeks and ordered a ban on discussing the issue with 
media.\265\ The Beijing News, which had reported the egg 
coverup, also reported that authorities in Sichuan province 
failed to publicly announce an epidemic of maggots in mandarin 
oranges for a month.\266\ These incidents followed an alleged 
coverup of the melamine milk scandal in the runup to the 2008 
Olympic Games. In March 2009, China National Radio reported 
that Henan officials underreported incidences of hand-foot-
mouth disease.\267\ The Chinese public has also expressed 
frustration at the government's delay in disclosing the number 
of children killed in school collapses following the May 2008 
Sichuan earthquake.\268\ An environmental non-governmental 
organization announced in June 2009 that it had requested 
disclosure of information about businesses that had violated 
environmental regulations from 113 cities, and 86 cities had 
refused to provide any information.\269\

                             Worker Rights


                              Introduction

    Workers in China still are not guaranteed either in law or 
in practice full worker rights in accordance with international 
standards, including, but not limited to, the right to organize 
into independent unions. Despite new laws that took effect in 
2008 and 
codified new protections for workers, Chinese workers in 2009, 
particularly migrant workers, bore the brunt of the global 
financial 
crisis. During economic retrenchment and rising unemployment 
pressure, the Chinese Government focused less on writing labor 
protections into formal law and less on industrial upgrading 
involving lower reliance on labor-intensive manufacturing, and 
more on maintaining employment and economic growth.
    Labor strife increased during the Commission's 2009 
reporting period. In May 2009, the Ministry of Human Resources 
and Social Security announced that labor disputes in 2008 had 
nearly doubled from a year earlier to reach 693,000 disputes, 
involving over 1.2 million workers. One official from the 
Supreme People's Court noted that labor strife has changed in 
several important ways, including more large-scale, coordinated 
labor actions.\1\ During 2009, local governments reported that 
this trend is continuing as companies look for ways to reduce 
employment and maintain flexibility in an uncertain economic 
climate. These reports also point to the increasing legal and 
rights consciousness of Chinese workers. Chinese workers also 
have become more strategic in their use of largescale, 
coordinated action outside the workplace, including street 
demonstrations, traffic blockades, or sit-ins at local 
government offices. Local officials often respond quickly to 
worker actions that they perceive to threaten what they call 
``social stability'' and that draw the attention of higher 
level officials.\2\ In some regions with concentrated labor-
intensive manufacturing, large-scale actions have been taken 
after an employer has absconded with unpaid wages or severance 
compensation, putting further pressure on local governments to 
respond.\3\
    In response to collective action that is organized and 
large scale, the government has attempted to redirect labor 
disputes away from the formal channels of arbitration and 
litigation toward more ``flexible'' and ``grassroots-level'' 
negotiation and mediation. These forms of dispute resolution 
often rely on coordination among levels of local government 
(e.g., provincial, city, town, etc.), involving local 
government and Communist Party units, the official trade union, 
and the police and security apparatus.
    Given the growing concern of local governments to maintain 
economic growth and employment, many localities have responded 
to new laws that took effect in 2008 (the PRC Labor Contract 
Law, PRC Employment Promotion Law, and PRC Labor Dispute 
Mediation and Arbitration Law) with local opinions and 
regulations of their own that have the effect of weakening the 
employee-friendly aspects of the national laws. Provincial-
level courts were the main conduit of these local regulations, 
issuing measures and ``guiding opinions'' of national laws. 
Some analysts have argued that this trend is likely to lead to 
the ``regionalization'' and ``loopholization'' of national 
law.\4\ Localities with large concentrations of foreign direct 
investment and labor-intensive manufacturing have been the most 
proactive in this regard, with high court explanations of the 
laws from Shanghai municipality and Jiangsu, Zhejiang, and 
Guangdong provinces.\5\ The Supreme People's Court also issued 
a guiding opinion in July 2009 on courts' handling of labor 
disputes during the economic crisis.\6\
    Chinese workers continue to be denied the right to freedom 
of association. The All-China Federation of Trade Unions 
(ACFTU), the official union under the direction of the 
Communist Party, is the only legal trade union organization in 
China. All lower level unions must be affiliated with the 
ACFTU. While the ACFTU has become more active, focusing on 
unionization of foreign-funded firms and organization of 
migrant workers, and pushing the expansion of collective 
contracts, the ACFTU continues to be dominated by the local 
Communist Party with its overarching political concerns of 
social stability and economic growth. In 2009, the ACFTU 
continued its drive to unionize foreign-funded enterprises and 
to press for collective negotiations with management in some 
companies. In general, however, the union does not act as an 
autonomous body with workers' rights and interests as its main 
responsibility. Rather, it facilitates relations between the 
Chinese Government and Party and employers. With the change in 
the economy, ACFTU activities in 2009 have not been as vocal or 
as aggressive as those seen in 2007 and 2008, when, for 
example, the ACFTU was involved in high-profile organizing of 
Wal-Mart stores in China. In general, the ACFTU unions are 
focused on proactive and mediation-based labor dispute 
resolution and government-led attempts to persuade enterprises 
to minimize layoffs in exchange for wage reductions, reduced 
working hours and leave rotations.
    National and local governments continue to proceed with 
social insurance reform, focusing on the expansion of social 
insurance both in terms of the types offered and the citizens 
covered. Rural citizens' and migrant workers' social insurance 
is also being expanded. Some localities are experimenting with 
programs that allow for more portable social insurance so that 
migrant workers can take their social insurance benefits with 
them when they switch jobs and relocate to other cities. The 
draft PRC Social Insurance Law was released for public comment 
in late 2008 and is expected to be passed by the end of 
2009.\7\

                National-Level Legislative Developments

    In 2007-08, the Chinese government passed three major laws 
on labor and employment: the PRC Employment Promotion Law, the 
PRC Labor Contract Law, and the PRC Labor Dispute Mediation and 
Arbitration Law. The year 2009 was a year for local 
implementation and experimentation as the new laws took effect 
shortly before the global economic downturn. The National 
People's Congress undertook several study trips to investigate 
local implementation and enforcement of the Chinese 
Government's labor codes, and the central government continued 
to promote the laws despite complaints from some local 
governments and employers that the new laws were too harsh for 
China's current economic climate. As there was with the initial 
debate during the legislative process leading to issue of the 
Labor Contract Law, there remain signs of a lack of consensus 
about the effects of the new labor legislation on different 
regions and types of workers.\8\

               THE SUPREME PEOPLE'S COURT GUIDING OPINION

    In July 2009, the Supreme People's Court (SPC) issued a 
guiding opinion urging courts, when handling labor disputes 
during the economic crisis, to consider the interests of both 
labor and enterprise management, and to do so in a manner that 
both preserves ``social stability'' and is consistent with 
national economic policy.\9\ According to SPC officials, this 
opinion was a reaction to the unprecedented pressure on courts 
to resolve a very large number of disputes even as disputes 
have grown more complicated and contentious.\10\ The guiding 
opinion attempts to balance continued emphasis on protection of 
workers' rights (that was reflected and promoted in the 2008 
legislation) and the realization that employers might simply 
close down if not given assistance during the economic crisis. 
The opinion emphasizes the need to protect workers' ``right to 
existence'' while recognizing the difficult economic position 
of many enterprises.\11\ The guiding opinion follows a long 
list of national and local administration instructions to 
employers to minimize layoffs\12\ and to seek consultation with 
employees, the trade union, and the local labor bureau when 
handling disputes, especially disputes related to layoffs.\13\

 OTHER MEASURES RELATED TO LABOR RELATIONS DURING THE GLOBAL ECONOMIC 
                                 CRISIS

    In addition to the local regulations detailed below, the 
central government, the All-China Federation of Trade Unions 
(ACFTU), and other units issued several circulars and 
instructions related to labor relations during the global 
economic crisis. On December 20, 2008, the Ministry of Human 
Resources and Social Security (MOHRSS) and the Ministry of 
Finance and State Administration of Taxation issued the 
Circular on Easing the Burdens on Enterprises and Stabilizing 
Labor Relations.\14\ This circular permits enterprises to 
temporarily suspend payment of social insurance contributions 
for six months.\15\ On January 23, 2009, the MOHRSS, the ACFTU, 
and the Chinese Enterprise Directors Association (CEDA) jointly 
issued the Guiding Opinion on Tackling the Current Economic 
Situation and Stabilizing Labor Relations.\16\ This opinion 
reiterated the government's preference for companies to use 
alternative strategies to avoid layoffs, including wage 
reductions, vacation time, and flexible working hours.\17\ 
Grassroots trade unions were also instructed to educate their 
workers to support employers' strategies.\18\ This opinion was 
particularly concerned with wage arrears and advised methods to 
reduce the impact of sudden non-payment of wages.\19\ The 
opinion also called for local governments, trade unions, and 
employers to work together to resolve any collective disputes 
that might emerge from factory closures and large-scale 
layoffs.\20\
    On January 5, 2009, Legal Daily reported the ACFTU, the 
MOHRSS, and the CEDA convened a meeting in Beijing to discuss 
tripartite bargaining and announced their intention to 
implement a ``Rainbow Plan'' across China to initiate 
collective wage negotiations. Speakers at the conference, 
however, emphasized neither conflict between employers and 
employees nor the need to protect workers' rights. Rather, 
officials spoke of the need to find common ground during the 
crisis and to emphasize ``stable employment'' and ``harmonious 
labor relations.'' \21\

                       DRAFT SOCIAL INSURANCE LAW

    The National People's Congress (NPC) addressed a key issue 
related to workers' rights and livelihood--social insurance. 
The draft Social Insurance Law was released for public comment 
in December 2008. The draft law received more than 70,000 
comments as the central government made an ambitious attempt to 
standardize social insurance for workers and to provide more 
comprehensive and portable insurance for employees generally, 
but especially for highly mobile migrant workers. The first 
step for this new welfare system is the creation of a social 
security system nationwide based on citizens' identification 
card numbers.\22\ According to an interview with Hu Xiaoyi, the 
Vice Minister of the Ministry of Human Resources and Social 
Security, the distribution of about 80 million social security 
cards was approved.\23\
    The draft law gives citizens, urban and rural, the 
possibility to receive retirement pensions and insurance for 
medical care, work-related injuries, unemployment, and 
maternity.\24\ Both employers and workers are responsible for 
paying the respective insurance premiums and fees (except that, 
for work-related injuries and maternity, only the employer has 
the responsibility to pay the insurance premiums).\25\ 
Employers are also subject to heavy legal liabilities if they 
do not pay the corresponding insurance premiums and/or partake 
in fraudulent actions.\26\
    One of the most important issues for citizens is the 
portability of insurance, especially for those citizens who 
migrate to different cities. In the draft law, citizens can pay 
retirement premiums in one location and receive payments in 
another.\27\ Medical insurance and unemployment insurance can 
also be transferred accordingly.\28\ At the same time, the 
draft law describes, as well, the establishment of a new 
cooperative healthcare system in rural areas in the medical 
insurance plan, funded by both farmers and local 
governments.\29\ Further, according to this draft law, the 
government will cover the medical insurance fees for 
individuals who live on minimum income subsidies, are disabled, 
or are more than 60 years old.\30\ Unemployed workers, may 
receive unemployment payments for a maximum of 24 months, 
depending on the accumulated amount of time these workers and 
their employers have been paying unemployment insurance.\31\
    Overall, the draft insurance law seems to offer positive 
alternatives for mobile workers who are seeking better 
retirement plans and medical insurance. Implementation of the 
final law, however, will be the responsibility of local 
governments. The China-European Union Intergovernmental Social 
Security Reform Cooperation Project, launched in April 2006, is 
a five-year program providing technical assistance and 
expertise in building social insurance programs. There 
currently are about 20 pilot projects nationwide.\32\

          Local-Level Legislative and Regulatory Developments

    In 2009, several localities released high court opinions of 
the 2008 legislation (i.e., the PRC Labor Contract Law, PRC 
Employment Promotion Law, and PRC Labor Dispute Mediation and 
Arbitration Law). This judicial activity was focused in the 
south and the southeast with judicial opinions issued in 
Shanghai municipality and Jiangsu, Zhejiang, and Guangdong 
provinces. These opinions included some important clauses that 
benefited employers, and in so doing may weaken the impact of 
protections for workers contained in the national laws.\33\ 
There is growing concern that given the economic crisis, local 
governments are increasingly opposed to implementation of the 
2008 labor laws and are using local measures to pass locally 
specific rules that will protect employers against some 
provisions of the new laws that employers regard as more 
onerous.\34\ In 2009, local regulatory activity was 
concentrated in the courts. Judicial opinions and explanations 
are not subject to the same degree of transparency or 
participation required in local legislative institutions, so 
these rules are not publicly debated, nor are they produced 
jointly by ``competing'' interests such as the All-China 
Federation of Trade Unions and the Employers' Association.

 MEASURES TO PROTECT WORKERS IN THE EVENT OF SUDDEN ENTERPRISE CLOSURE

    Following the language of the national regulations, which 
emphasized the protection of workers' interests and rights as 
the primary goals of the 2008 new labor legislation, local 
guiding opinions and regulations have maintained similar 
vocabulary in their measures with respect to issues that 
directly affect workers' interests, namely, the establishment 
or termination of labor contracts, implementation or 
cancellation of arbitral awards, payment of compensation or 
other lawful expenses, and social insurance. However, many 
regulations recognize the fact that layoffs and terminations 
continue to increase as recessions in export destinations 
persist. As a result, if an enterprise closes due to bankruptcy 
or other reasons that are in accordance with the law, employers 
can cancel any labor contracts and labor relations with workers 
by sending an advanced notification to workers or paying the 
corresponding ``substitute'' fees, as suggested in the local 
regulations by Fujian province and Shanghai municipality.\35\ 
The Fujian measures state that employees of state-owned 
companies should seek assistance through the workers' 
representative committee.\36\ The Guangdong province guiding 
opinion jointly issued by the Guangdong High People's Court and 
the Guangdong Provincial Labor Arbitration Committee also 
encourages more communication and cooperation among arbitration 
committees and judges, especially in cases that involve the 
termination or cancellation of arbitrated judgments.\37\
    Many local interpretations also address circumstances for 
workers whose employers have gone into hiding or disappeared, 
especially during labor dispute arbitration proceedings. In 
Jiangsu's most recent guiding opinion on how to handle labor 
disputes during the global economic crisis, announced in early 
2009, for example, it is stipulated that enterprise properties 
and assets should be quickly frozen or sealed up in order to 
maintain control over the properties of the hiding employers 
and to safeguard the workers' rights and interests.\38\ 
However, the national-level Supreme People's Court Guiding 
Opinion released several months later expressed sympathy for 
``responsible'' companies and advised that local governments 
should be cautious in quickly freezing or seizing the assets of 
delinquent companies.\39\
    As the global economic crisis deepened and the number of 
labor disputes has continued to increase at an alarming rate, 
there has been greater emphasis on encouraging mutual 
cooperation and agreement between employers and workers. A key 
notion in 2009 regulatory development is that protection of 
both workers' rights and employers' lawful rights and interests 
is essential to maintain stable labor relations and to continue 
with industrial and economic development.\40\ This language is 
a marked change from a year or two earlier when the central 
government spoke of industrial upgrading and leaving poor-
quality jobs behind.\41\ Currently, the emphasis is on the 
maintenance of employment levels.\42\

    MEASURES TO DEVELOP EXTRAJUDICIAL DISPUTE RESOLUTION PROCEDURES

    The 2008 PRC Law on Mediation and Arbitration of Labor 
Disputes underlined the need to first exhaust all consultation, 
negotiation, and mediation avenues to resolve labor disputes. 
The legislation suggested that arbitration and litigation 
should be used only when the other alternatives failed.\43\ It 
also indicated the importance of the tripartite system of 
coordination between labor bureaus, trade unions, and 
enterprise representatives to solve labor dispute cases 
together.\44\ Earlier local interpretations echoed and 
encouraged the use of this structure,\45\ and in some 
instances, they also suggested major collaboration and 
involvement from local governments and other relevant 
departments and organizations.\46\
    However, with the explosion of labor conflict cases in 
arbitration committees and courts, which suggests a growing 
preference on the part of workers to use formal legal channels 
over more informal negotiations with employers,\47\ the central 
government has been trying to redirect these labor conflicts to 
other channels at lower local levels, and to encourage more 
mediation in general and negotiation within the 
enterprises.\48\ Local governments are encouraged to strengthen 
and provide better guidance to improve the competence of labor 
dispute mediation organizations,\49\ and there is emphasis on 
the communication and exchange of information between the 
relevant bodies.\50\ Thus, the government is seeking 
interorganizational collaboration, where arbitration 
committees, courts, mediation committees, trade unions, and 
enterprises research and work together to resolve labor 
disputes.\51\

                   LOCAL MEASURES TO REGULATE LAYOFFS

    In response to the current global financial crisis, on 
January 23, 2009, the Ministry of Human Resources and Social 
Security (MOHRSS), the All-China Federation of Trade Unions 
(ACFTU), and the China Enterprise Directors Association (CEDA) 
issued a joint guiding opinion on how to maintain stable labor 
relations and reduce the possibilities for potential labor 
conflicts and legal disputes. In this guiding opinion, 
employers are encouraged to avoid or reduce mass layoffs and to 
adopt flexible alternatives, vocational training programs, 
especially for rural migrant workers, in order to improve 
workers' skills, flexible working hours, leave rotations, wage 
adjustments, and other cost-reducing measures.\52\ Local 
governments such as Jiangsu province have issued their own 
measures reinforcing and complementing the actions suggested in 
the guiding opinion, including the reduction of social 
insurance premiums to save jobs.\53\
    Under the guiding opinion, employers should lay off workers 
only when necessary due to ``operational difficulties.'' They 
are advised to formulate a layoff plan in accordance with the 
law and regulations and to report in a timely manner to the 
local human resources and social security bureau.\54\ This is 
intended to reinforce the requirements in the PRC Labor 
Contract Law to provide early notices to both the workers and 
the local labor departments,\55\ and it also suggests more 
government involvement. The guiding opinion emphasizes the need 
to strengthen the government's guidance and supervision and the 
provision of guidance to the struggling enterprises.\56\ 
However, there is increasing evidence that enterprises are 
avoiding these formal layoff procedures and using alternative 
measures to reduce employees, which do not require extensive 
consultation with the trade union or the workforce and also 
that do not require government notification.\57\
    While employers are told to pay severance compensation and 
clear all wage arrears to avoid potential disputes,\58\ both 
the MOHRSS Guiding Opinion and some local measures give 
enterprises the option to pay workers in stages rather than all 
at once after consulting and negotiating with the trade unions 
or workers directly.\59\ Further, in the case of a delay in 
payments, employers are required to report the delay to the 
local human resources and social security bureau in advance and 
seek the consent of the trade union or the workers.\60\ As a 
result, these measures, while strongly highlighting the 
tripartite system of coordination and cooperation among the 
government, the enterprise, and the trade union, also allow for 
direct negotiation between employers and workers in the event 
of layoffs.

------------------------------------------------------------------------
                          Labor Disputes Trends
-------------------------------------------------------------------------
  The Ministry of Human Resources and Social Security announced that
 labor disputes in 2008 had risen to 693,000, a near doubling of cases
 from a year earlier.\61\ Reports on disputes in 2009 show that this
 rapid rate of increase is continuing and that the explosion of disputes
 is particularly apparent in coastal cities and provinces, including
 Beijing, Shanghai, Jiangsu, Zhejiang, and Guangdong.\62\ The number of
 cases arbitrated in Shanghai increased 119 percent from 2007 to 2008,
 with some districts reporting increases of over 300 percent. Shanghai
 labor arbitrators' average annual caseload now exceeds 400 cases.\63\
 Taizhou city in Jiangsu province found that in the first quarter of
 2009, nearly one-third of labor dispute cases involved layoffs or
 terminations of contracts, approximately a fourfold increase from the
 same period last year. A government report stated that these statistics
 indicate ``a wave of dismissals'' as companies search for ways to trim
 their workforces.\64\
  There are several new trends in this large increase in disputes,
 including an increase in cases involving layoffs and severance
 compensation, social insurance, and wages; an increase in the
 complexity of the cases, making them more difficult to resolve; and
 finally, an increase in collective use of the courts by groups of
 workers. These issues, coupled with the large increase in the workload
 of arbitrators and judges, have lengthened the time it takes to resolve
 disputes.\65\ In some cases, workers are waiting six months to a year
 to have their cases opened by the arbitration tribunal. A labor
 arbitrator in Guangzhou municipality stated that workers filing labor
 disputes in April 2009 would have their cases heard in March 2010.\66\
 In other cities, arbitrators are sending cases directly to the courts
 without hearing cases, due to their unmanageable workload.\67\
  Local governments are also changing their procedural guidelines to
 adjust to the pressure of a rapidly rising caseload and dissatisfaction
 with long delays between case filings and hearings. In particular,
 local governments are pushing disputes down to lower levels for
 resolution, and encouraging, even coercing, the disputants to resolve
 disputes through negotiation or grassroots mediation, often led by low-
 level officials.\68\ This emphasis on mediation and extrajudicial
 resolution is not limited to local governments, but is also reflected
 in national- and provincial-level regulations and circulars.\69\ These
 procedural changes may make it more difficult to assess accurately the
 true number of disputes, as many disputes will not reach arbitration
 and litigation, which are the sources for the most commonly used
 statistics for labor conflict in China. There were also new reports
 that the rate at which workers win labor disputes is decreasing. A
 district in Ningbo city, Zhejiang province, reported a 210-percent
 increase in the loss rate for employees.\70\
------------------------------------------------------------------------


------------------------------------------------------------------------
                    Labor Disputes Trends--Continued
-------------------------------------------------------------------------
  In addition to the large increases in arbitrated cases, Chinese courts
 continued to be deluged with labor disputes. In some cases, these
 disputes were the result of strong dissatisfaction with the arbitration
 proceedings, as most arbitrated cases can be reviewed in the courts if
 either side is dissatisfied.\71\ In other cases, the increase reflected
 the strong and growing rights consciousness of Chinese workers as they
 claimed new protections offered in the legislation passed in 2008
 during a time of increased layoffs and economic crisis. The Supreme
 People's Court reported a 93.9-percent increase in labor cases over the
 course of 2008. In 2009, this trend continued with nearly 170,000 cases
 in the first half of the year, an increase of 30 percent from the 2008
 high.\72\ The President of the Guangdong High People's Court reported
 that Guangdong courts received over 76,000 new labor cases in 2008, up
 157 percent from the same period last year.\73\ The people's court with
 jurisdiction over the Tangxia industrial zone in Dongguan city reported
 that by November 2008, each judge had received over 1,000 cases. More
 than half of the annual caseload is made up of labor disputes, most
 often migrant workers asking for workers' compensation, overtime pay,
 or severance compensation.\74\ Courts in Jiangsu province reported
 similarly high increases. In Jiangyin city, labor cases at the court
 increased threefold. Court officials called for new measures to handle
 disputes earlier and to manage large, spontaneous protests that occur
 when factories suddenly close or initiate mass layoffs.\75\
  Xinhua, the Chinese Government's state-run news agency, reported that,
 due to economic pressure on companies and local governments, 2009 would
 be a year with many mass protests and some local governments at risk of
 losing control over labor protests.\76\ While strike and mass
 demonstration data are not released publicly, anecdotal evidence
 suggests that many localities in southeastern China experience large
 strikes on a daily basis. Jiangsu province reported that, in 2008,
 arbitrated labor disputes increased to 139,100, an increase of 79
 percent over the year before. Collective disputes increased to 773,
 with over 30,900 people involved, increases of 49 percent and 104
 percent, respectively. Jiangsu labor officials also intervened in 720
 mass incidents, involving over 72,900 workers.\77\ An official
 publication announced that labor protests jumped 94 percent in the
 first 10 months of 2008.\78\
------------------------------------------------------------------------

                  Significant Labor Actions 2008-2009

    Following the economic downturn that began in 2008, there 
continue to be widespread reports of strikes and demonstrations 
in China's manufacturing centers in southern China. These 
strikes are often motivated by factory slowdowns, closures, and 
non-payment of wages or overtime.\79\ There is no evidence of 
encouragement or involvement by official trade unions. Instead, 
the trade union often appears during the period of negotiation 
and settlement of the strike as subordinate to the 
government.\80\ An exception is the Wal-Mart strike discussed 
below.

        <bullet> Strikes occurred at Jetpower, a subsidiary of 
        Gold Peak Batteries, as workers in Shenzhen Special 
        Economic Zone complained of toxic poisoning from 
        cadmium during battery production. Workers seeking 
        compensation for occupational disease went on strike in 
        April; earlier, workers had gone on strike in February 
        over suspicions that the plant was relocating to 
        another city. During negotiations between the company, 
        workers, and government officials, the general manager 
        of the plant was also the plant's union chairman.\81\
        <bullet> In April 2009, 1,000 workers from a state-
        owned textile factory in Baoding city, Hebei province, 
        organized a protest walk from Baoding to Beijing in 
        order to draw attention to their dissatisfaction with 
        plans for privatization. They eventually were stopped 
        by officials, and brought back to Hebei by bus.\82\
        <bullet> In April, a nationwide plan to scrap assistant 
        manager positions at Wal-Mart stores in China was 
        cancelled after managers protested the plan, including 
        a public protest at Wal-Mart China headquarters in 
        Shenzhen. Wal-Mart employees asked the Shenzhen branch 
        of the All-China Federation of Trade Unions to 
        intervene. Under the direction of the Shenzhen union, 
        collective negotiations ensued, leading to the 
        cancellation of the plan. Later in the year, however, 
        Wal-Mart announced plans to lay off a large number of 
        employees, including many of those affected by the 
        earlier plan, by allowing short-term labor contracts to 
        expire.\83\
        <bullet> In July, steelworkers in northern China's 
        Jilin province violently protested the planned merger 
        of their state-owned company with a private company 
        from Hebei province. The number of protesters remains 
        unclear. The general manager of the Hebei company was 
        beaten to death during the protests, which took place 
        as company executives met to discuss the merger.\84\ 
        Smaller strikes, demonstrations, and individual 
        disputes also have involved violence, against both 
        workers and employers.\85\

------------------------------------------------------------------------
                             Migrant Workers
-------------------------------------------------------------------------
  Migrant workers in China are estimated to number over 140 million.\86\
 They are defined as rural residents who have left their place of
 residence to seek non-agricultural jobs in Chinese cities, sometimes in
 the same province and sometimes far from home. The Chinese household
 registration system (hukou) restricts easy migration between rural and
 urban areas in China. Therefore, migrant workers may work in a city for
 many years but are unable to qualify for city residency. Without city
 residency, they are denied many basic public benefits, such as
 inclusion into social insurance programs, education for their children,
 and healthcare. As a marginalized urban group, migrant workers are
 often abused or exploited by their employers who take advantage of
 their insecure social position and lower levels of education. While the
 central government has allowed the hukou system to relax over time,
 this system of institutionalized discrimination continues to affect
 adversely the social, civil, and political rights of migrants.\87\
------------------------------------------------------------------------


------------------------------------------------------------------------
                       Migrant Workers--Continued
-------------------------------------------------------------------------
  At the workplace, migrants have borne the brunt of the global economic
 crisis as they are concentrated heavily in sectors adversely affected
 by recessions abroad, especially in labor-intensive manufacturing and
 construction. In February, the central government reported that 20
 million migrant workers were now out of work.\88\ While the National
 Statistical Bureau (NSB) reported that 70 million migrants returned to
 rural areas during the Chinese New Year holiday because of the lack of
 job opportunities (half the total number of migrants), post-Chinese New
 Year surveys indicate that 80 percent of those migrant workers returned
 to the coastal cities to find new employment during 2009.\89\ In July,
 the mayor of the southern city of Dongguan stated that at least 10
 percent of all migrant workers in the city had lost their jobs in the
 second half of 2008 and first half of 2009.\90\
  Wage arrears and non-payment of wages are some of the most serious
 workplace problems that migrant workers face. Other serious problems
 include workplace injuries and the lack of reliable social insurance,
 especially for occupational injury and disease. During the global
 economic crisis, wage arrears problems increased dramatically as
 factories shut their doors.\91\ The NSB reported that 5.8 percent of
 all migrant workers returning home for the holidays were owed back
 wages, but the percentage jumped to over 13 percent for migrants whose
 factories had shut down.\92\ Local governments and trade unions often
 intervened in these cases, paying the workers subsidies if they agreed
 to end their protests.\93\ Human Rights Watch issued a report drawing
 attention to how discriminatory aspects of the hukou system combined
 with a more restrictive labor market threatened already tenuous
 protections for migrant workers.\94\
  The lack of social security for migrants and the long and arduous road
 through the legal system's labor dispute resolution proceedings are two
 severe problems. In 2009, there were several high-profile cases of
 migrant workers' injury and disease. In June, Liu Hanhuang, a migrant
 worker whose hand was amputated after a work injury, was pursuing a
 case through the appeals court when he reportedly murdered two
 Taiwanese managers at his former place of work.\95\ Much of the media
 coverage and Internet discussion of the Liu Hanhuang case was
 sympathetic. One commentator argued that his crimes were the result of
 his frustration and anger about his case, which had dragged on for more
 than one year.\96\
  Another migrant worker in Hebei province suffering from an
 occupational lung disease drew national attention for his pursuit of
 his legal rights for compensation.\97\ The 28-year-old worker suffering
 from pneumoconiosis demanded that he be given an invasive surgical
 examination in order to prove his illness after the local unit
 authorized to certify occupational diseases issued a different
 diagnosis. When the exam verified that Zhang suffered from the fatal
 lung disease, the government criticized the hospital for doing an
 illegal examination. Like the Sun Zhigang case in 2003, when a migrant
 worker's death in police custody was followed by changes in the laws
 governing repatriation of migrant workers to their home areas, this
 case was followed by new calls for changes to China's system of worker
 protection and labor inspection.\98\
------------------------------------------------------------------------


------------------------------------------------------------------------
                       Migrant Workers--Continued
-------------------------------------------------------------------------
  As the draft Social Insurance Law is debated and revised, many
 localities have expanded efforts to include migrants in social
 insurance coverage. However, there are still significant problems in
 terms of participation (for both employers and employees), coverage,
 and portability between rural and urban areas and even within urban
 areas. As many migrant workers returned to their hometowns during the
 Chinese New Year, there was an increase in the number of workers
 withdrawing their social insurance accounts from coastal cities.
 Migrant workers generally are able to withdraw monies only from their
 individual accounts, losing the larger percentage of their pensions
 that is paid by their employers. With migrant workers facing
 uncertainty about whether they would return to the same place to look
 for new work, and with the portability of pension accounts highly
 restricted, they chose to withdraw their pensions. A single district in
 Shenzhen Special Economic Zone reported that on a single day in March
 2009 3,000 workers applied to withdraw pensions. In addition to
 complaints regarding long lines and bureaucratic delays in withdrawing
 pensions, some migrant workers complained of the basic unfairness of
 the system. Urban workers are able to draw on both individual and
 company accounts when they retire, while migrants are able to draw out
 only their individual accounts as they move from job to job.\99\
  Official reports estimate that only about 17 percent of all migrant
 workers even participate in retirement insurance programs.\100\
 Increasing informalization of the workforce (see below) has led to
 declining social insurance protection for many migrant workers and low-
 level urban workers.
------------------------------------------------------------------------

                         Freedom of Association

    Workers in China do not enjoy the right to freedom of 
association. Trade union activity in China is organized under 
the All-China Federation of Trade Unions (ACFTU), a quasi-
governmental organ that is under the direction of the Communist 
Party.\101\ Leading trade union officials concurrently hold 
high-ranking positions in the Party. The ACFTU Constitution and 
the Trade Union Law of 1992 both highlight the dual nature of 
the ACFTU to protect the legal rights and interests of workers 
while supporting the leadership of the Party and the broader 
goals and interests of the Chinese Government.\102\ The ACFTU 
monopolizes many worker rights issues in China, such as 
shopfloor organizing and ``formalistic'' collective contract 
negotiations, but it does not consistently or uniformly advance 
the rights of workers.\103\
    In recent years, the central government has shown support 
for an enlarged trade union role in collective contracting, and 
in union organizing in private firms in China, including 
multinational companies.\104\ These changes are less a sign of 
opening up and liberalization than they are a collection of 
strategies to improve the standing and legitimacy of the ACFTU 
in workers' eyes. The government's strategy appears to be based 
on its expectation that a more vibrant and engaged ACFTU may 
limit demands for independent union organization and 
spontaneous collective action by aggrieved workers.
    At the shopfloor level, the ACFTU's unions remain weak and 
marginalized. While the ACFTU and its affiliated unions at 
lower administrative levels play important roles in legislation 
and regulation of workers' rights and employment laws, this 
bureaucratic role is not matched with power at the enterprise 
level. Generally speaking, firm level union branches are weak, 
non-democratic, and subordinate to management.\105\ Despite an 
increase in legislation and administrative regulations that 
gives the ACFTU more power at the firm-level to resolve 
disputes, the structural weaknesses of the trade union branches 
make improvements in trade union autonomy and worker advocacy 
difficult and slow.\106\
    In recent years preceding the economic crisis, the ACFTU 
initiated a number of programs and goals that enhanced its 
standing internationally and increased its visibility to 
marginalized workers, such as migrant workers and workers in 
small, private firms. The November 2008 Regulations on the 
Establishment and Development of Harmonious Labor Relations in 
the Shenzhen Special Economic Region more clearly defined the 
role of the ACFTU in Shenzhen to protect workers and to 
represent workers during stoppages or strikes. This is in 
contrast to national legislation, which instructs the union to 
represent workers and restart production as soon as possible. 
The 2008 PRC Labor Contract Law, the Shenzhen Regulations, and 
other local-level regulations also gave unions a larger role in 
enterprise decisionmaking, including the decision to initiate 
layoffs.\107\ The trade union also vowed to continue high-
profile union organizing in multinational firms.\108\ At the 
local and regional levels, unions have become more proactive in 
organizing workers across different firms and negotiating 
minimum wage standards and labor contracts.\109\ In early 2008, 
the Shenzhen Municipal Trade Union announced an ambitious plan 
to hire over 300 private lawyers to provide free legal aid to 
aggrieved workers. This plan was seen as a model for other 
unions across the country.\110\
    The ACFTU has continued its campaign to set up unions in 
large multinational firms. With the impact of the global 
economic crisis and the increased fear of social instability 
related to rising unemployment, the trade union's role has been 
focused on assisting the government in resolving disputes and 
conflict. This is reflected in the renewed emphasis on 
mediation and lower level resolution of labor disputes in local 
regulations and measures. Reports on strikes and violent 
conflict between workers and the police do not mention the 
ACFTU as representing workers effectively, but depict it as 
either absent or on the side of the employer.\111\ The 
Guangdong Provincial Trade Union announced in November 2008 
that collective wage negotiations would cease temporarily in 
enterprises suffering economic difficulty.\112\

                         Collective Contracting

    Collective contracts and some process of collective 
consultation and negotiation have been part of Chinese labor 
relations since the 1990s when state enterprise reform deepened 
and labor conflict began to increase rapidly, especially in the 
foreign and private sectors. The ACFTU has championed 
collective contracts and collective negotiations as important 
foundations for trade union work at the enterprise level. In 
recent years, the collective contract system has received more 
Chinese Government and Communist Party support as part of an 
attempt to institutionalize a tripartite system of labor 
relations at the local level between the government, the ACFTU, 
and the employer associations.\113\ Nonetheless, the collective 
contract and consultation system remains weak and formalistic 
because enterprise-level trade union leaders are not positioned 
to serve the interests of their workers. Many collective 
contracts merely reflect the basic legal standards in the 
locality and often are the result of concerted government or 
Party work to encourage the enterprise to enter into 
formalistic contracts rather than the result of true bargaining 
between management and the enterprise trade union.\114\
    The All-China Federation of Trade Unions (ACFTU) has pushed 
the establishment of collective contract regimes in foreign-
funded enterprises in particular. Wal-Mart stores in China 
began to draft collective contract provisions in 2008. Experts 
have criticized these agreements for being reached between 
ACFTU officials and Wal-Mart managers with little consultation 
with Wal-Mart employees.\115\ However, as mentioned above, 
there have been instances in which Wal-Mart unions have 
attempted to protect workers against unilateral moves by 
management to trim the workforce. The trade unions in Shanghai 
municipality Wal-Mart stores completed a 
collective contract agreement in 2008 that went beyond basic 
legal protections and rights. This agreement set an 8-percent 
increase in workers' wages for the next two years and 
stipulated that workers with three years' tenure were entitled 
to non-fixed-term contracts.\116\
    The 2008 Regulations on Harmonious Labor Relations in the 
Shenzhen Special Economic Zone are the most extensive local 
regulations regarding collective contracts and collective 
consultation. Chapter 3 of these regulations emphasizes the 
role local governments and trade unions play in collective 
consultation. The regulations encourage both employers and 
workers to use collective consultation in accordance with the 
law for the establishment and modification of labor contracts, 
adjustments in labor remunerations, improvement in labor 
conditions, and resolution of labor disputes.\117\ The 
employing unit and the labor union or the workers' 
representatives (laodongzhe daibiao) should consult 
collectively on issues that include payments, health and 
safety, insurance benefits, and salary adjustments in 
collective contracts, on any changes in regulations that may 
affect workers' interests, on the prevention and resolution of 
labor disputes, and other issues that require consultation 
between the involved parties.\118\ The city and regional 
government labor departments, as well as trade unions at every 
level, should provide guidance and help in coordinating 
collective consultation.\119\
    The regulations also provide for representation by external 
professionals.\120\ The number of these representatives should 
not exceed one-third of the number of the original 
representatives.\121\ Regional (qucheng) or enterprise trade 
unions can also represent workers in collective consultation 
and/or the establishment of collective contracts.\122\ These 
measures may allow for collective negotiations to become more 
professionalized and legalistic. They may also make it more 
possible for collective negotiations to occur in factories 
without an ACFTU presence.
    For salary adjustments, the Shenzhen Regulations instruct 
that the employing units and the trade union or the workers' 
representatives should organize collective consultation--a 
process that should occur at least once a year.\123\ In 
addition, the regulations highlight the necessity to establish 
city and regional coordination committees for labor relations 
(shi qu laodong guanxi xietiao weiyuanhui).\124\ They should be 
composed of representatives of various local governments' 
departments as well as organizations that include the 
participation of enterprise representatives and trade 
unions,\125\ and conferences should be organized to discuss 
questions related to labor relations and labor disputes, to 
provide opinions and suggestions on changes in laws and 
regulations that affect workers' interests, as well as on how 
to handle labor disputes, and to provide research on how to 
conduct collective consultation and establish collective 
contracts, or any other related issues in accordance with the 
law and regulations.\126\
    The ACFTU has also pushed for the extension of collective 
consultation to include regular negotiation between industrial 
trade unions and small and medium employers. In July, the ACFTU 
released a Guiding Opinion on Actively Launching Work on 
Industry-Level Collective Wage Consultation.\127\ According to 
the deputy chair of the ACFTU, this work by the trade union is 
to increase workers' bargaining power in industries where large 
numbers of workers are employed by small and medium enterprises 
producing similar products in one locale.\128\ This is a 
strategy to enhance and promote the ACFTU among workers who 
often are not unionized and in the past have been neglected by 
ACFTU campaigns.
    None of the ACFTU activity has changed the basic fact that 
freedom of association does not exist in China. Rather, the 
ACFTU activity and continued higher profile in recent years is 
a proactive attempt by the government to stave off the 
formation of independent unions. However, with the onset of the 
global economic crisis and increased concern for social 
instability, the ACFTU appears to have taken a more passive and 
subordinate role with respect to the Communist Party and 
government.

                 Non-Governmental Organizations (NGOS)

    The 2009 crackdown on legal activists and non-governmental 
organizations (NGOs) representing disadvantaged groups in 
public interest lawsuits is also adversely affecting the 
advancement of workers rights in China. The July detention of 
Xu Zhiyong, the closure of the Gongmeng Law Research 
Center,\129\ and the harassment of other NGOs that strive to 
protect civil rights in China impede recent advancements 
regarding migrant workers' rights and employment 
discrimination. [See Section III--Civil Society.]

                           Working Conditions

    There is increasing evidence of deteriorating working 
conditions for many Chinese workers and increasing bifurcation 
of the workforce as highly skilled workers still are in high 
demand while lower level workers bear the brunt of the global 
economic downturn. The trend of informalization also hurts the 
lower rungs of the labor market more severely as employers seek 
to retain highly sought technical workers and managers while 
reducing the size of the less-skilled labor force.\130\ 
Generally speaking, recent wage and benefits increases are 
slowing down or disappearing altogether. The government's 
emphasis on reducing layoffs and encouraging wage reductions, 
holidays, and other stopgap measures may also be leading to 
worsening compensation, though it may reduce overall 
unemployment.

                                 WAGES

    The 1994 PRC Labor Law guarantees minimum wages for workers 
and assigns local governments to set wage standards for each 
region.\131\ The new PRC Labor Contract Law improves formal 
monitoring requirements to verify that workers receive minimum 
wages. Article 74 requires local labor bureaus to monitor labor 
practices to ensure rates adhere to minimum wage standards. 
Article 85 imposes legal liability on employers who pay rates 
below minimum wage. In addition, Article 72 guarantees minimum 
hourly wages for part-time workers.\132\
    Illegal labor practices have undermined minimum wage 
guarantees. Wage arrears remain a serious problem, especially 
for migrant workers. Subcontracting practices within industry 
exacerbate the problem of wage arrearages. When investors and 
developers default on their payments to construction companies, 
workers at the end of the chain of labor subcontractors lack 
the means to recover wages from the original defaulters. 
Subcontractors, including companies that operate illegally, 
neglect their own duties to pay laborers and leave workers 
without any direct avenue to demand their salaries. In 2007, 
the Commission reported a steady increase in the number of 
workers who turned to labor arbitration to settle their 
disputes with employers.\133\ As detailed below, this trend 
appears to have continued.\134\

                             WORKING HOURS

    The PRC Labor Law mandates a maximum 8-hour workday and 44-
hour average workweek.\135\ As mentioned in the Commission's 
2008 Annual Report, forced overtime and workdays much longer 
than the legally mandated maximum are not uncommon, especially 
in export sectors, where some employers avoid paying overtime 
rates by compensating workers on a piece-rate basis with quotas 
high enough to avoid requirements to pay overtime wages.\136\ 
It has been reported that suppliers in China avoid exposing 
themselves to claims of requiring illegal, long hours by hiring 
firms that help them set up double booking systems for foreign 
importers who aim to adhere to Chinese rules and regulations. 
Such firms not only help suppliers prepare books to pass 
audits, but also coach managers and employees on how to respond 
to auditors' questions.\137\
    In 2009, disputes over working hours abuses continued to be 
a major reason for labor disputes, especially disputes 
involving overtime or wage arrears related to past abuses and 
to struggling enterprises avoiding legal responsibilities to 
cut costs.\138\ The PRC Labor Dispute Mediation and Arbitration 
Law lengthened the time allowed to file a dispute and also put 
more evidentiary responsibility on the employer to demonstrate 
that overtime abuses had not occurred, which also resulted in 
an increase in the number of workers seeking compensation.\139\ 
Many workplaces reduced hours and salaries in the wake of the 
global economic crisis, which led to workers' complaints of 
violations of the minimum wage.\140\
    The economic crisis and increasing informalization of the 
less-skilled workforce also led to greater bifurcation between 
highly skilled workers and managers and low-level or 
production-level workers. In order to retain scarce skilled 
workers, companies continued to raise wages and benefits for 
such staff, while cutting those of lower-level workers who can 
be more easily replaced when the economy recovers.\141\

                            INFORMALIZATION

    Since the mid-1990s, when China's economic reforms 
quickened, there has been a ``rapid and unprecedented rise'' in 
informal employment.\142\ Informal employment is defined as 
employment that is not stable or secure, that lacks a written 
agreement or contract, and that does not provide social 
insurance or benefits.\143\ Economists estimate that 45 percent 
of urban employment in China is now informal. Of workers in the 
state or collective sectors, 22 percent are employed 
informally, while the percentage rises to 84 percent for 
workers in the private sector. ``Informal employment is the 
rule rather than the exception,'' according to experts 
reporting on findings from the field.\144\ Informal employment 
is also more likely for women, the very young and the very old, 
and among less educated workers.\145\
    The 2008 Labor Contract Law included provisions to reduce 
informal employment and to encourage the signing of labor 
contracts, particularly longer term or open-term contracts. A 
National People's Congress (NPC) implementation report states 
that there has been considerable success in the expansion of 
the labor contract system. The NPC also reported that contract 
length had become longer. In Jiangsu province, 49.09 percent of 
all contracts were between one and three years, while contracts 
less than one year were only 14.42 percent. Open-term contracts 
had increased by 1.19 percent.\146\ However, it is likely that 
these figures overstate the number of Chinese workers with more 
security and stable employment since the passing of the PRC 
Labor Contract Law. There is evidence that the high rates of 
``labor contract signing'' are leaving out a large number of 
workers who now are employed in an informal and unstable 
manner, receiving pay by the day, hour, or piece rate with no 
formal agreement or relationship.\147\
    There are also reports of increased use of temporary 
workers to avoid the burdens of formal employment, replacement 
of older workers with younger workers to avoid longer term 
contracts, and the use of contract expiration as a principal 
method of laying off formal employees during the economic 
slowdown.\148\ Formal employment in China continues to erode, 
especially for unskilled urban workers and rural migrants.

                              Child Labor

    In spite of legal measures to prohibit the practice of 
child labor in China, child labor remains a persistent 
problem.\149\ As a member of the International Labour 
Organization (ILO), China has ratified the two core conventions 
on the elimination of child labor.\150\ The PRC Labor Law and 
related legislation prohibit the employment of minors under 
16,\151\ and both national and local legal provisions 
prohibiting child labor stipulate a series of fines for 
employing children.\152\ Under the PRC Criminal Law, employers 
and supervisors face prison sentences of up to seven years for 
forcing children to work under conditions of extreme 
danger.\153\ Systemic problems in enforcement, however, have 
dulled the effects of these legal measures. The overall extent 
of child labor in China is unclear in part because the 
government classifies data on the matter as ``highly secret.'' 
\154\
    As reported by the Commission in 2008, child laborers 
reportedly work in low-skill service sectors as well as in 
small workshops and businesses, including textile, toy, and 
shoe manufacturing enterprises.\155\ Many underage laborers 
reportedly are in their teens, typically ranging from 13 to 15 
years old, a phenomenon exacerbated by problems in the 
education system and shortages of adult workers.\156\ Children 
in detention facilities also have been subjected to forced 
labor.\157\ Reports of child labor continued in 2009 with a 
high-profile case surfacing at a factory in Guangdong province 
that implicated foreign buyers. A migrant worker, Liu Pan, was 
crushed to death in a factory producing paper goods for the 
Walt Disney Company. It was discovered after his death that Liu 
was only 15 when he was hired at the factory.\158\ China Labor 
Watch also reported that the factory's use of child laborers 
was widespread.\159\ Media also reported on the presence of 
underage workers in government-sponsored labor transfer 
programs that transferred workers from the Xinjiang Uyghur 
Autonomous Region to jobs in the interior of China [see Section 
IV--Xinjiang].
    As reported in the Commission's 2008 Annual Report, the 
Chinese Government, which has condemned the use of child labor 
and pledged to take stronger measures to combat it,\160\ 
permits ``work-study'' programs and activities that in 
practical terms perpetuate the practice of child labor, and are 
tantamount to official endorsement of it.\161\ Under work-study 
programs implemented in various parts of China, children who 
are elementary school students pick crops and engage in other 
physical labor.\162\ [See Section IV--Xinjiang for more 
information on work-study programs in the Xinjiang Uyghur 
Autonomous Region.]
    Central government legislation allows this form of child 
labor. National provisions prohibiting child labor provide that 
``education practice labor'' and vocational skills training 
labor organized by schools and other educational and vocational 
institutes do not constitute the use of child labor when such 
activities do not adversely affect the safety and health of the 
students.\163\ The PRC Education Law supports schools that 
establish work-study and other programs, provided that the 
programs do not negatively affect normal studies.\164\ A 
nationwide regulation on work-study programs for elementary and 
secondary school students outlines the general terms of such 
programs, which it says are meant to cultivate morals, 
contribute to production outputs, and generate resources for 
improving schools.\165\ These provisions contravene China's 
obligations as a member state to ILO conventions prohibiting 
child labor.\166\ In 2006, the ILO's Committee of Experts on 
the Applications of Conventions and Recommendations 
``expresse[d] . . . concern at the situation of children under 
18 years performing forced labor not only in the framework of 
re-educational and reformative measures, but also in regular 
work programs at school.'' \167\

                              Forced Labor

    In May 2009, another forced labor case was exposed at brick 
kilns in Anhui province. This case follows several high-profile 
scandals at brick kilns in 2007 and 2008, involving forced 
labor and child labor. In this case, brick kilns had employed 
mentally handicapped workers and employed them in ``slave-
like'' conditions. The official media reported that 
investigations were continuing in possible trafficking of 
mentally impaired people in China as these workers came from a 
number of different provinces and the brick kiln owner reported 
that he ``bought'' the workers from a taxi driver in a nearby 
province.\168\
    As reported in the Commission's 2008 Annual Report, Article 
244 of the PRC Criminal Law makes forced labor a crime. Events 
during this reporting year showed the deterrent value of this 
provision to be inadequate at best under current 
conditions.\169\ Current law applies only to legally recognized 
employers and does not apply to individuals or illegal 
workplaces. As the Commission noted in its last Annual Report, 
the All China Lawyers Association in June 2007 asked the 
National People's Congress Standing Committee to introduce new 
legislation making slavery a criminal charge.\170\ It is 
unclear at the time of this writing whether such legislation is 
in process. However, in March 2008, members of the Chinese 
People's Political Consultative Conference (CPPCC) recommended 
to the CPPCC (which is not a lawmaking body) that the Criminal 
Law be amended to criminalize ``violently forcing labor.'' 
\171\

------------------------------------------------------------------------
           China's International Commitments to Worker Rights
-------------------------------------------------------------------------
  As a member of the International Labour Organization (ILO), China is
 obligated to respect a basic set of internationally recognized labor
 rights for workers, including freedom of association and the
 ``effective recognition'' of the right to collective bargaining.\172\
 China is also a permanent member of the ILO's governing body.\173\ The
 ILO's Declaration on the Fundamental Principles and Rights at Work
 (1998 Declaration) commits ILO members ``to respect, to promote and to
 realize'' these fundamental rights based on ``the very fact of [ILO]
 membership.'' \174\
------------------------------------------------------------------------


------------------------------------------------------------------------
        China's International Commitments to Worker Rights--Cont.
-------------------------------------------------------------------------
  The ILO's eight core conventions articulate the scope of worker rights
 and principles enumerated in the 1998 Declaration. Each member is
 committed to respect the fundamental right or principle addressed in
 each core convention, even if that member state has not ratified the
 convention. China has ratified four of the eight ILO core conventions,
 including two core conventions on the abolition of child labor (No. 138
 and No. 182) and two on non-discrimination in employment and occupation
 (No. 100 and No. 111).\175\ The ILO has reported that the Chinese
 Government is preparing to ratify the two core conventions on forced
 labor (No. 29 and No. 105).\176\ On its face, Chinese labor law appears
 to incorporate some of the basic obligations of the ILO's eight core
 conventions, but in practice many of these obligations remain
 unfulfilled.\177\ Importantly, Chinese labor law does not incorporate
 basic obligations of the ILO's provisions relating to the freedom of
 association and the right to collective bargaining.
  The Chinese Government is a state party to the International Covenant
 on Economic, Social and Cultural Rights (ICESCR), which guarantees the
 right of workers to strike, the right of workers to organize
 independent unions, the right of trade unions to function freely, the
 right of trade unions to establish national federations or
 confederations, and the right of the latter to form or join
 international trade union organizations.\178\ In ratifying the ICESCR,
 the Chinese Government made a reservation to Article 8(1)(a), which
 guarantees workers the right to form free trade unions. The government
 asserts that application of the article should be consistent with
 Chinese law, which does not allow for the creation of independent trade
 unions.\179\
------------------------------------------------------------------------

                    U.S.-China Bilateral Cooperation

    The U.S. Department of Labor (USDOL) participated in the 
economic track of the first meeting of the United States-China 
Strategic and Economic Dialogue in July 2009. Discussions at 
the economic track focused on ways to promote a sustainable 
global recovery and to ensure that future growth results in a 
more balanced global economy and stronger financial systems. 
USDOL and China's Ministry of Human Resources and Social 
Security agreed to further bilateral cooperation on labor 
issues, including undertaking a dialogue between the two 
agencies.

                            Criminal Justice


                              Introduction

    During the Commission's 2009 reporting year, as in 2008, 
the dual priorities of maintaining ``social stability'' and 
preserving the Communist Party's hold on power have played a 
significant role in the operation of the criminal justice 
system and the use of police power.\1\ Even before the global 
financial crisis, the Chinese leadership was concerned about 
challenges to ``social stability'' during 2009 because of 
several significant anniversaries, such as the 20th anniversary 
of the 1989 Tiananmen protests and the 60th anniversary of the 
founding of the People's Republic of China, that would fall 
during the year.\2\ Anniversaries in China are potentially 
destabilizing events because they can act as a trigger for 
citizens' protests against current policies and conditions.\3\ 
The attention Chinese leaders are placing on ``social 
stability'' is not surprising; the number of group protests, 
petitions, and riots reportedly is on the rise, and clashes 
between citizens and police appeared to intensify during this 
reporting year.\4\
    The problem of unchecked police power and arbitrary 
detention of Chinese citizens showed no sign of abating during 
2009. For example, the Commission noted numerous reports of 
petitioners being held in extralegal secret ``black jails'' 
(hei jianyu) (both in Beijing and elsewhere) during the annual 
March meeting of the National People's Congress and the Chinese 
People's Political Consultative Conference.\5\ Extralegal 
detention and harassment of activists continued during this 
reporting year and intensified during the run-up to the 20th 
anniversary of the violent suppression of the 1989 Tiananmen 
protests on June 3 and 4.\6\
    Fair trial rights received significant attention among 
China's online community and the media during the past year in 
the context of two criminal cases that were plagued by 
irregularities and suspicious official conduct.\7\ Yang Jia was 
executed in November 2008 after being convicted of killing six 
public security officers in Shanghai, apparently in retaliation 
for earlier police mistreatment, and Deng Yujiao, a young 
female worker in Badong county, Hubei province was exempted 
from punishment after she killed a local official and injured 
another in self-defense to stave off an alleged attempted 
rape.\8\ That members of China's online community and activists 
sympathized with Yang Jia highlights the fraught nature of 
relations between the Chinese public security apparatus and the 
citizenry, and perhaps an increasing focus among citizens on 
the importance of procedural fairness and justice.\9\ The 
support among Chinese citizens for Deng Yujiao stemmed in part 
from the anger and resentment many citizens apparently feel 
toward corrupt local officials and the police.\10\
    There were several potentially positive developments during 
this reporting year with respect to criminal justice. The 
first-ever National Human Rights Action Plan, which the 
government released in April, contains policy commitments, 
which, if implemented effectively, could lead to improvements 
in fair trial rights and detainee rights. Also in April, the 
Supreme People's Procuratorate launched a five-month campaign 
to ensure ``proper management'' of detention centers in the 
aftermath of a spate of unnatural deaths of detainees at 
Ministry of Public Security-run detention centers during the 
first few months of 2009.\11\ In August, the Supreme People's 
Procuratorate announced that confessions obtained through 
torture would no longer be admissible as evidence in death 
penalty cases.\12\ The revised PRC Lawyers Law, which has been 
in effect for over a year, reportedly has led to some improved 
access by lawyers to their detained clients in certain 
jurisdictions; however, serious implementation challenges 
remain.\13\ In June, the municipality of Beijing announced that 
by the end of 2009 it would cease executing prisoners by 
gunshot, but instead would use lethal injections.\14\ The 
Supreme People's Court indicated that eventually all executions 
nationwide will be carried out by lethal injection.\15\

                         Abuse of Police Power


  SUPPRESSION OF DISSIDENTS AND CITIZENS WHO SEEK JUSTICE RELATED TO 
                          ``SENSITIVE ISSUES''

    Public security (gongan) officers and officers in the 
domestic security protection (guobao) unit of public security 
bureaus continued to engage in extralegal tactics such as 
harassment, assault, kidnappings, and illegal detention in 
order to punish Chinese citizens who expressed dissent or 
sought to defend their rights and the rights of others.\16\ 
Such arbitrary restrictions on personal liberty, freedom of 
expression, and freedom of peaceful assembly and association 
contravene the Universal Declaration of Human Rights (UDHR), 
International Covenant on Civil and Political Rights (ICCPR), 
as well as China's own laws.\17\
    Parents seeking justice for their children who died in the 
May 2008 Sichuan earthquake and those who were injured or 
killed from drinking melamine-tainted milk were subjected to 
illegal treatment at the hands of the police or their 
agents.\18\ Authorities warned parent protesters in Sichuan 
province ``of dire consequences if they continued to `make a 
fuss.' '' \19\ Several parents who eluded the police and made 
it to Beijing to petition reported that after they returned to 
Sichuan, ``the threats from local officials increased and the 
parents were told it was illegal for them to meet or talk to 
foreign journalists.'' \20\ Beijing-based Zhao Lianhai, an 
organizer of parents whose children were injured or killed by 
melamine-tainted milk, had been questioned by public security 
officers more than 20 times between September 2008 and March 
2009.\21\
    Several lawyers who took on ``sensitive'' cases or got 
involved in ``sensitive'' issues during the past year were 
abducted or beaten by public security officers and/or 
individuals working under the direction or with the knowledge 
of the public security bureau.\22\ [See Section III--Access to 
Justice--Harassment and Abuse of Human Rights Lawyers.] 
Shanghai-based rights defense lawyer Zheng Enchong has been 
subjected to constant surveillance and harassment since his 
release from prison in June 2006.\23\ Zheng was summoned by 
police for questioning 10 times during April 2009 alone.\24\ 
Human rights lawyer Gao Zhisheng was last seen being taken away 
by police and hired ``thugs'' in February of this year. As of 
mid-September, his whereabouts remain unknown.\25\
    Within one month of the issuance in December 2008 of 
Charter 08, a document calling for political reform and greater 
protection of human rights in China, the non-governmental 
organization Chinese Human Rights Defenders reported that more 
than 100 signatories throughout China had been summoned for 
questioning by the police.\26\ At the same time as signers of 
the Charter were being pressured by public security officers to 
renounce their support for the Charter, other officers were 
searching the individuals' homes, often confiscating computers, 
manuscripts, and even bank account books.\27\ After prominent 
intellectual and rights defender Zhang Zuhua--one of the main 
drafters of the Charter--was taken into police custody on 
December 8, his home was searched and many items were 
confiscated, including computers, cash, credit cards, and bank 
deposit books.\28\ Zhang's bank accounts were promptly 
emptied.\29\ In late March 2009, domestic security protection 
(guobao) officers warned Jiang Qisheng, a Beijing-based writer, 
activist, and signatory of Charter 08, not to engage in any 
activities commemorating the 20th anniversary of the 1989 
Tiananmen protests. Officers searched his home and took three 
computers, several bank deposit books, and many manuscripts and 
books.\30\ [See Section II--Freedom of Expression, for a 
discussion of Charter signatory Liu Xiaobo's detention and 
arrest.]
    The abuse of police power to summon citizens for 
questioning, search their homes, and arbitrarily confiscate 
their personal property sparked an unprecedented open joint 
statement from eight human rights groups in mainland China and 
Hong Kong Special Administrative Region in April 2009.\31\ The 
declaration criticizes the Chinese Government's frequent use of 
``police force to summon Chinese citizens, search their 
residences, seize their computers, bank deposit books, paper 
notebooks, drafts of their writings, etc.'' \32\ The groups 
condemned such ``illegal exercise of police power'' and 
violations of Chinese citizens' right to personal liberty and 
property, and other fundamental human rights.\33\
    Authorities also unlawfully subjected family members of 
dissidents, rights defenders, and activists to strict 
surveillance and control during the Commission's 2009 reporting 
year. Officials use harassment (or the threat of harassment) of 
family members of activists for at least three purposes: (1) to 
punish and instill fear in activists by causing their families 
to suffer, (2) to create leverage for the government in its 
efforts to pressure activists to stop whatever conduct they are 
engaged in that the government does not like (i.e., ``stop 
doing X, and we'll stop harassing your family''), and (3) in 
the case of detained activists, to obstruct attempts by family 
members to bring public attention to the activist's plight.\34\ 
For example, on December 26, 2008, police summoned Charter 08 
drafter Zhang Zuhua for a second time regarding the Charter and 
threatened him that ``severe consequences'' to his family would 
follow if he continued promoting Charter 08 and giving 
interviews to the media.\35\ Liu Xiaobo's wife, Liu Xia, has 
been followed constantly and monitored by public security 
officers since Liu Xiaobo was taken away on December 8, 
2008.\36\
    Yuan Weijing, wife of imprisoned legal advocate and rights 
defender Chen Guangcheng, continues to be placed under ``soft 
detention'' (ruanjin).\37\ As many as 26 guards, who reportedly 
work in two shifts, keep her confined to her home and prevent 
visitors from entering.\38\ Zeng Jinyan, a blogger, rights 
activist, and the wife of imprisoned human rights activist Hu 
Jia, is under strict surveillance by domestic security 
protection (guobao) officers. In February, when U.S. Secretary 
of State Hillary Rodham Clinton visited Beijing, at least six 
guobao officers prevented Zeng from leaving her apartment, 
citing ``an order from the top.'' \39\ After fleeing China to 
the United States, Geng He, wife of disappeared attorney Gao 
Zhisheng, cited the Chinese authorities' harassment and abuse 
of her children as the primary reason for their defection.\40\
    Local law enforcement officials outside of Beijing often 
abuse their power in order to silence aggrieved citizens who 
may seek to go to the provincial capital and/or Beijing to 
petition.\41\ For example, in Sichuan province, public security 
officers illegally detained some of the parents who sought 
justice for their children killed during the May 2008 Sichuan 
earthquake in order to prevent them from petitioning or 
advocating for an investigation.\42\ And a 58-year-old 
petitioner from Jilin province, Du Mingrong, told the Guardian, 
a British daily newspaper, in May that he was locked up by 
local officials for two years and was never told why. ``I was 
just petitioning to get back some money that the police had 
stolen from me. . . . I was beaten and tortured by officials in 
Baishan in Jilin. I came to Beijing to protest.'' \43\

     GOVERNMENT'S USE OF HIRED ``THUGS'' FOR INTIMIDATION AND ABUSE

    A ``disguised'' form of police abuse continued during 2009: 
the use of hired, unofficial personnel (often referred to as 
``thugs'' in media and human rights reports) to beat, abduct, 
and torture dissidents, activists, petitioners, and other 
``troublemakers,'' with the knowledge of the police or 
government officials.\44\ In December 2008, the UN Committee 
against Torture (UNCAT) concluded that the Chinese Government's 
use of ``unaccountable `thugs' who use physical violence 
against specific [human rights] defenders but enjoy de facto 
immunity'' was one of three ``over-arching problems'' that 
undermine effective implementation of the Convention against 
Torture.\45\ The UNCAT specifically noted reports that Gao 
Zhisheng and other human rights lawyers were harassed by 
``unaccountable personnel alleged to be hired by State 
authorities.'' \46\ Gao was last seen on February 4, 2009, 
being dragged out of bed from his relatives' home in Shaanxi by 
more than 10 police and ``hired thugs.'' \47\ In the fall of 
2008, Xu Zhiyong, a law professor and co-founder of the Open 
Constitution Initiative (OCI) began to organize citizen rescue 
teams to free petitioners from black jails in Beijing. 
Government-hired ``thugs'' at Beijing's Youth Hotel (which 
operates as a black jail) beat up Xu early on in his rescue 
efforts.\48\ Xu Zhiyong was told by a petitioner inside the 
black jail that the local government of Kaifeng municipality 
(in Henan province) had hired gangsters as ``guards.'' The 
hired ``guards'' reportedly received 1,000 yuan (US$146) for a 
light beating and 3,000 yuan (US$439) for a heavy beating.\49\ 
[See Section III--Civil Society, for a discussion of the 
government's shutdown of OCI and the detention and subsequent 
release of Xu Zhiyong.]

     CLASHES BETWEEN LAW ENFORCEMENT PERSONNEL AND CHINESE CITIZENS

    Relations between China's law enforcement agencies and 
Chinese citizens appear to be on a steady decline. In April, 
Hong Kong-based analyst Willy Lam observed that police 
incompetence and corruption were responsible for ``quite a 
number of relatively minor incidents . . . develop[ing] into 
law-and-order disasters.'' \50\ According to the Open 
Constitution Initiative, which ranked the Yang Jia police-
murder case as the most important law-related event of 2008, 
the fact that Yang Jia, ``was regarded as a hero by ordinary 
citizens . . . indicated the unusual tension between the police 
force and the general public. The public has lost faith in 
police.'' \51\ In March, a land dispute in Yingde county, 
Guangdong province resulted in violent clashes between police 
and farmers, resulting in many injuries.\52\ One injured 
villager told the Washington Post that he was now ``terrified'' 
of the police: ``I feel that Chinese cops can kill people like 
ants with impunity.'' \53\ In mid-August, human rights 
defenders in Beijing and Shanghai launched an online petition 
protesting police violence.\54\
    The number of ``mass incidents'' (quntixing shijian), an 
imprecise term that includes mass petitions, violent riots, and 
unauthorized peaceful demonstrations and assemblies, appears to 
be on the rise.\55\ Chinese authorities reported 74,000 ``mass 
incidents'' in 2004,\56\ and in February 2009, the Hong Kong 
magazine Cheng Ming reported that an internal report circulated 
by the Central Committee for Comprehensive Management of Public 
Security stated that during 2008 there were more than 127,000 
``mass protests'' (qunti kangzheng shijian) throughout China in 
which more than 12.1 million people participated.\57\ The 
growing number of such incidents and protests and the apparent 
inability of the Party, government, and security forces to 
prevent them in the first instance, and appropriately handle 
them once they occur, is one of the most serious problems 
facing China's leadership.\58\ The number of attacks on police 
stations and police vehicles, and even on police officers 
themselves, reportedly has increased as well.\59\
    Evidence of the fraught state of police-citizen relations 
was apparent in several high-profile incidents that occurred 
during the past year. On June 17, a mass incident erupted in 
Shishou city, Hubei province, following the suspicious death of 
a 24-year-old cook, Tu Yuangao, who was employed at a hotel 
that reportedly had close ties to the local government.\60\ 
Rumors circulated that Tu was killed because he had threatened 
to expose the hotel's involvement in the local drug trade.\61\ 
The police, however, promptly declared Tu's fall from the third 
floor to be a suicide.\62\ Protesters burned the hotel and 
overturned police cars in what became a full-blown riot that 
pitted tens of thousands of citizens against riot police for 
several days.\63\ In an unusual move, a local Shishou official 
named Li Guolin, blogged about the events and criticized the 
government's characterization of the riot as an isolated 
incident.\64\ Li wrote, ``[T]he unrest was precipitated by long 
established tensions in Shishou society. . . . Such tensions 
are what the media calls `hatred toward the rich, the officials 
and the police' that spread widely among the society.'' \65\ 
Another clash that revealed tensions between citizens and 
police occurred in late May in Huining county, Gansu province. 
Nearly 1,000 citizens protested the alleged beating of a 
student by traffic police personnel after the student failed to 
stop at a red light while riding his bicycle.\66\ A police car 
was overturned before 100 additional police showed up on the 
scene. Local citizens were reported as saying that the clash 
reflected long-simmering resentment of the rough tactics used 
by local police.\67\
    The tense relationship between China's public security 
apparatus and the citizenry was highlighted in the case of Yang 
Jia, a 28-year-old man who was convicted of killing six police 
officers in Shanghai in July 2008 and then executed for the 
crime in late November.\68\ The police killings were apparently 
in retaliation for an earlier incident of police abuse.\69\ 
Artist and blogger Ai Weiwei, who followed Yang Jia's case 
closely, believed that Yang Jia killed the police officers as a 
``protest against the system.'' \70\ Ai Weiwei noted that 
sympathy for Yang Jia grew as procedural irregularities in the 
Shanghai authorities' handling of the case spread across the 
Internet.\71\ In an online poll conducted by Southern Weekend, 
Internet users ranked Yang Jia's case as the most important 
event of 2008.\72\
    Another form of state brutality that received substantial 
attention during this reporting year was the violence 
perpetrated by urban management (or administration) officers, 
or chengguan.\73\ The responsibilities of urban management 
officers include checking permits, shutting down unlicensed 
street vendor stalls, and generally assisting in maintaining 
``stability'' in the cities, but in order to maintain 
``stability,'' chengguan often resort to violence.\74\ The 
reputation of urban management officers for brutality among 
Chinese citizens is so widespread that the word ``chengguan'' 
is used as a synonym in colloquial speech for ``violence.'' 
\75\ In April, excerpts from an official training handbook for 
Beijing's urban management officers that included instructions 
on how to beat targets without drawing blood on the face or 
leaving marks on the body was posted online, sparking outrage 
in the media and blogosphere.\76\ In May, thousands of 
university students from the Nanjing University of Aeronautics 
and Astronautics in Nanjing city, Jiangsu province, reportedly 
took to the streets after five students were beaten by 
chengguan officers as they were trying to set up vendor stands 
on the sidewalk.\77\ The unrest reportedly reflected simmering 
anger among students regarding the harsh tactics used by the 
chengguan.\78\ Over the past several years, academics and 
others have called for the abolition of the urban management 
system and have raised questions about the legal basis of the 
system.\79\ In July, the State Council's Legislative Affairs 
Office issued for public comment draft measures that would 
legalize the business activities of street vendors and 
peddlers.\80\ A Caijing report on the draft measures noted that 
conflicts between chengguan and peddlers had increased and were 
becoming more violent.\81\

                          Arbitrary Detention

    The UN Working Group on Arbitrary Detention (UNWGAD) 
defines the deprivation of personal liberty to be ``arbitrary'' 
if it meets one of the following criteria: (1) there is clearly 
no legal basis for the deprivation of liberty; (2) an 
individual is deprived of his liberty for having exercised 
rights guaranteed under the Universal Declaration of Human 
Rights (UDHR) and International Covenant on Civil and Political 
Rights (ICCPR); or (3) there is grave non-compliance with fair 
trial standards set forth in the UDHR and other international 
human rights instruments.\82\ Many forms of arbitrary detention 
also violate China's own laws.\83\ Arbitrary detention in China 
includes various forms of extralegal detention, such as 
detention in secret black jails (hei jianyu), ``soft 
detention'' (ruanjin)--a form of unlawful home confinement--and 
the arbitrary confinement of individuals in psychiatric 
hospitals for non-medical reasons. Another form of extralegal 
detention--shuanggui (``double regulation'' or ``double 
designation'')--is used by the Party for investigation of Party 
members, most often officials in cases of suspected corruption. 
Arbitrary detention also includes various kinds of 
extrajudicial administrative detention, such as reeducation 
through labor. Finally, the detention of those who have been 
deprived of their liberty for exercising rights guaranteed 
under the UDHR and ICCPR is arbitrary.\84\ [See Section II--
Freedom of Expression, Freedom of Religion, and other sections 
for information on specific cases.]

                EXTRALEGAL DETENTION AND DISAPPEARANCES

    The use of extralegal detention, discussed in previous 
Commission reports, continued unabated during this reporting 
year. As in 2008, Chinese authorities subjected citizens to at 
least three forms of extralegal detention: (1) arbitrary home 
confinement or ``soft detention'' (ruanjin) and control,\85\ 
(2) detention in black jails and other secret detention sites, 
which the UN Committee against Torture has deemed ``per se 
disappearance,'' \86\ and (3) shuanggui.\87\

Arbitrary ``soft detention'' and control

    As discussed in last year's Annual Report, and earlier in 
this section, the unlawful ``soft detention'' (ruanjin) or 
``home confinement'' that numerous dissidents, activists, and 
their family members are subjected to has no basis in Chinese 
law and constitutes arbitrary detention under international 
human rights standards.\88\ Perhaps the most famous case of 
unlawful home confinement was former Premier Zhao Ziyang's 16-
year-long period of ``soft detention,'' which ended with his 
death in 2005. Zhao's thoughts on his confinement have come to 
light this year with the release of his memoir, ``Prisoner of 
the State: The Secret Journal of Zhao Ziyang.'' Based on tapes 
he secretly recorded around 2000, the memoir contains a letter 
Zhao wrote to President Jiang Zemin in 1997 regarding his 
illegal home confinement. Zhao states:

        Since June 1989, I have been illegally subjected to 
        either house arrest or semi-house arrest. This has gone 
        on for eight and a half years already. . . . I do not 
        even know what specific laws I have violated, nor do I 
        know which state law enforcement agency and what 
        procedure of law have been used to authorize my house 
        arrest. How can subjecting a person to this kind of 
        undeclared house arrest and depriving his rights as a 
        citizen not constitute a crude trampling of the 
        socialist legal system? \89\

    The abuse of police power to unlawfully restrict the 
personal liberty of dissidents, activists, writers, and others 
during the period surrounding the 20th anniversary of the 
violent suppression of the 1989 Tiananmen protests was so 
severe that 81 individuals who signed Charter 08 launched the 
Anti-Soft Detention Anti-Surveillance United Movement.\90\ 
Their statement, issued on June 10, observes that every year, 
in the lead-up to June 4 and other politically sensitive dates, 
public security bureaus across China mobilize a massive amount 
of police power for the purpose of subjecting dissidents and 
rights defense activists to ruanjin and surveillance.\91\ The 
group accuses the Communist Party of wide-scale violations of 
human rights, particularly citizens' right to personal 
liberty.\92\

Secret detention facilities and disappearances

    According to the UN Committee against Torture, detention of 
individuals in secret detention facilities ``constitutes per se 
disappearance.'' \93\ Secret detention sites in China include 
black jails (often housed in privately-run small hotels, 
guesthouses, and government buildings), government facilities 
used for forced detention for ``legal education'' and ``study 
classes,'' and psychiatric hospitals used to hold petitioners 
and others for non-medical reasons.
    Black jails have no legal basis.\94\ Although the Chinese 
Government has denied the existence of black jails on several 
occasions, including during the February 2009 session of the UN 
Human Rights Council's Universal Periodic Review of its human 
rights record,\95\ the existence of black jails of various 
forms throughout China is well-documented.\96\ Black jails 
arose as a substitute for the dismantled ``custody and 
repatriation'' (shourong qiansong) centers that had been used 
to detain petitioners and undocumented migrants, up until they 
were abolished in 2003.\97\ Law professor and human rights 
defender Xu Zhiyong defines ``black jails'' as:

        places used by provincial governments to illegally 
        imprison petitioners; we call them black jails because, 
        first, they are just like prisons--established by the 
        government to restrict people's freedom--and, second, 
        they are ``black'' because they have no basis in any 
        laws or regulations and are totally illegal.\98\

    Xu believes that the government's use of black jails is 
``in a sense . . . the biggest human rights issue because it 
involves so many people, it's so widespread, and it's so 
lacking in legal justification.'' \99\ Chinese Human Rights 
Defenders and others have documented that the extralegal 
detention and repatriation of petitioners is good business for 
the public security apparatus in Beijing, small hotels that 
double as black jails, and interceptors (i.e., individuals who 
``catch'' petitioners). One county in Hunan province reportedly 
pays nearly US$300 for each petitioner from the county who is 
caught in Beijing.\100\ Owners of small hotels in Beijing may 
be compensated up to US$35 per prisoner per day.\101\
    There is compelling evidence that black jails in Beijing 
exist with the knowledge and even cooperation of the Beijing 
public security bureau.\102\ During one of Xu's citizen rescue 
attempts, Xu was beaten by the guards, who warned him: ``We are 
the government, what can we be afraid of? Do you want to call 
110 [police hotline for emergency]? You can call now!'' \103\ 
Beijing public security officers reportedly were also involved 
in the detention of Wang Shixiang, a petitioner from Anhui 
province, who was detained in a black jail in Beijing during 
Secretary of State Hillary Rodham Clinton's visit to China in 
February 2009.\104\ After Wang was beaten by guards at the 
black jail, he managed to contact the Beijing Public Security 
Bureau, but once the officers who arrived at the scene learned 
that Wang was a petitioner, they did nothing to help him.\105\
    ``Legal education classes'' (fajiaoban or xuefaban) or 
``study classes'' (xuexiban), are another form of secret 
detention used by the Chinese Government.\106\ Officials 
forcibly detain petitioners, Falun Gong practitioners, and 
other ``undesirables'' in illegal detention sites where they 
are, on occasion, forced to study the ``error'' of their ways 
with the goal that they achieve a new understanding and cease 
their conduct.\107\ At other times, they are simply held in 
detention without any pretext of ``education.'' \108\ For 
example, petitioner Zheng Dajing, who went to Beijing to 
petition and was subsequently abducted and taken back to his 
hometown of Yunxi county in Hubei province, spent over a year 
in a detention center that was called a ``law education 
class.'' \109\ Another petitioner from Hubei province, Wang 
Zan, ended up in a black jail in Wuhan city in early March 2009 
after traveling to Beijing to seek justice for having been 
detained in a ``law education class'' for 113 days before and 
during the 2008 Beijing Summer Olympic Games.\110\
    In October 2008, the Beijing News broke the story of Sun 
Fawu, a farmer in Xintai city, Shandong province, who was 
locked up in a psychiatric hospital by local authorities for 
approximately 20 days to prevent him from going to Beijing to 
petition.\111\ Sun was tied to a bed and forcibly 
medicated.\112\ Sun was only released after he signed an 
agreement that he would not attempt to go to Beijing to 
petition again. Following the Sun Fawu story, more journalists 
uncovered stories of petitioners like Sun who had no history of 
mental illness, being forcibly detained in psychiatric 
hospitals, and in some cases also forced to take 
medication.\113\
    Once an individual ``disappears'' into a Chinese 
psychiatric hospital for non-medical reasons, he or she exists 
completely outside the legal system.\114\ For this reason, one 
Chinese commentator has called psychiatric hospitals in China a 
``gulag archipelago'' with Chinese characteristics.\115\ 
Authorities have also used psychiatric detention as a 
convenient way to have people simply ``disappear'' who might 
present difficulties for the government, for example, in high-
profile criminal cases. In the Yang Jia case, for example, 
Yang's mother, Wang Jingmei, was taken by Beijing public 
security officers from her home on July 1, the same day that 
Yang Jia killed six public security officers in Shanghai's 
Zhabei district's police station.\116\ A few days later, Wang, 
who does not suffer from mental illness, was locked up 
incommunicado for over four months in a psychiatric hospital 
(ankang) run by the Beijing Public Security Bureau while Yang's 
case made its way through the courts.\117\ Yang's mother 
apparently knew important information related to the case, and 
her forced disappearance also may have played some role in her 
reportedly approving a defense attorney hand-picked by local 
Shanghai authorities.\118\ The attorney selected for Yang Jia, 
Xie Youming, had ties to the Zhabei district government, which 
presented a clear conflict of interest.\119\ After Wang was 
finally released and taken to Shanghai for a final meeting with 
her son before his execution, Wang insisted on speaking with a 
judge in Yang's case. When she told the judge her story and 
asked him why they had prohibited her from testifying at her 
son's trial and appeal, the judge told Wang that they had been 
unable to locate her.\120\
    In another high profile case during this reporting year--
the case of Deng Yujiao--after Deng killed a local official and 
injured another in self-defense to thwart an attempted rape, 
authorities in Hubei province detained Deng in a psychiatric 
hospital.\121\ Like Yang Jia, Deng Yujiao garnered much 
sympathy and support among Chinese Internet users and the 
media.\122\ Shortly after Deng was detained in the hospital, 
one of Deng's friends managed to get into her room and found 
her tightly strapped to the bed. Deng's friend reported that 
Deng had told him that she had been beaten and that officers 
had threatened her that if she did not admit she suffered from 
depression, they would give her the death penalty.\123\

------------------------------------------------------------------------
                    The Disappearance of Gao Zhisheng
-------------------------------------------------------------------------
  The prominent human rights attorney Gao Zhisheng was last seen being
 forcibly taken away from his hometown in Shaanxi province by more than
 10 public security officers and ``thugs'' on February 4, 2009.\124\
 More than eight months later, Gao still has not been seen and his
 whereabouts are unknown.\125\ Gao angered Chinese authorities by taking
 on sensitive cases (such as those involving house church activists,
 Falun Gong practitioners, and victims of illegal property seizures) and
 exposing human rights abuses in China.\126\ In October 2005, Gao wrote
 an open letter to President Hu Jintao and Premier Wen Jiabao detailing
 torture of Falun Gong practitioners. A month later, authorities shut
 down Gao's law firm and revoked his lawyers' license. In December 2006,
 Gao was convicted of ``inciting subversion of state power'' and was
 given a three-year sentence, suspended for five years.\127\
  In September 2007, public security officers abducted Gao, apparently
 prompted by the publication of an open letter Gao had written to the
 U.S. Congress in which he alleged widespread human rights abuses in
 China and described the Chinese Government's harsh treatment of him and
 his family.\128\ During his abduction, which lasted more than 50 days,
 Gao was tortured in an unknown location outside Beijing.\129\ Gao's
 account of his torture, titled ``Dark Night, Dark Hood, and Kidnapping
 by Dark Mafia,'' was released in February 2009.\130\ Gao describes how
 he was struck repeatedly with electric batons all over his body,
 including his genitals, and subjected to other forms of torture. He was
 told that his tormentors--apparently hired ``thugs''--were chosen
 specifically by higher level officials to torture Gao. They called him
 a ``traitor'' for writing to the U.S. Congress, and admitted that Falun
 Gong practitioners were indeed tortured as Gao had alleged, and that
 Gao would experience the same kind of torture. Gao was also warned that
 he would be killed if he told anyone about being abducted and
 tortured.\131\
------------------------------------------------------------------------


------------------------------------------------------------------------
              The Disappearance of Gao Zhisheng--Continued
-------------------------------------------------------------------------
  In January 2009, Gao's wife, Geng He, along with their two children,
 escaped from China and arrived in the United States on March 11,
 2009.\132\ Geng He explained that the main reason she defected with her
 children was that Chinese authorities had prohibited her 15-year-old
 daughter, Geng Ge, from attending school, which led her daughter to
 attempt to commit suicide several times.\133\ On March 17, 2009,
 foreign ministry spokesperson Qin Gang denied that the family had been
 mistreated. The spokesperson stated: ``There's no political persecution
 or limits on the freedom of the family.'' \134\
  Geng He issued an open letter to the U.S. Congress on April 23, 2009,
 asking that the U.S. Government pressure the Chinese Government to
 reveal the whereabouts of her husband.\135\ In official correspondence
 with Members of the U.S. Congress in early May regarding Gao's
 whereabouts, the PRC Ambassador to the United States, Zhou Wenzhong,
 indicated that Gao is ``currently serving the probation'' that he was
 sentenced to on December 22, 2006, and that ``the public security
 authority has not taken any mandatory measure against him.'' \136\
  In June, Gao's older brother, Gao Zhiyi, unsuccessfully attempted to
 locate his brother in Beijing.\137\ Gao Zhiyi first went to the Beijing
 Public Security Bureau, but was denied entry into the building. He then
 went to the police station near Gao Zhisheng's home and requested to
 see his brother.\138\ Officers at the police station told Gao that they
 needed to get instructions from above, and they did not know how long
 that would take. The officers asked where Gao Zhiyi would be staying in
 Beijing, and he responded ``at my brother's home.'' \139\ The public
 security officers said that was not permissible, even though Gao Zhiyi
 had a key to his brother's apartment.\140\ Gao Zhiyi reportedly left
 Beijing without any news of his brother.
  On July 10, Bob Fu, president of the U.S.-based non-governmental
 organization ChinaAid, delivered to the Commission and the U.S.
 Department of State a petition of more than 100,000 signatures calling
 for the Chinese Government to release Gao Zhisheng.\141\ The petition
 was also delivered to the PRC Embassy in Washington, DC. In early
 September, Teng Biao reported on Twitter that Gao had apparently called
 his family in Shaanxi province in July, but Gao still has not been seen
 since February and his whereabouts remain unknown.\142\ As of the
 release of this report, there still has been no response from the
 Chinese Government regarding Gao's whereabouts and condition.
------------------------------------------------------------------------

Shuanggui: Extralegal investigatory detention of party members

    Shuanggui, (often translated as ``double regulation'' or 
``double designation''), refers to the process of summoning a 
target of investigation (usually a Party official) to appear at 
a designated place at a designated time.\143\ As discussed in 
the Commission's 2008 Annual Report, shuanggui not only 
contravenes the right to be free from arbitrary detention 
guaranteed by the Universal Declaration of Human Rights and the 
International Covenant on Civil and Political Rights, but it 
also violates Chinese law.\144\ Shuanggui detainees generally 
are held in undisclosed locations and do not have the benefit 
of the PRC Criminal Procedure Law's protections for criminal 
suspects and defendants.\145\ In December 2008, the UN 
Committee against Torture expressed concern about 
``unacknowledged detention facilities'' and recommended that 
the Chinese Government ``ensure that no one is detained in any 
secret facility,'' noting that such detention violates the 
Convention against Torture.\146\
    Shuanggui continued to be used by Party discipline 
inspection commissions during the past year to detain high-
ranking officials in the Party's ongoing battle against 
corruption. One senior official after another from Guangdong 
province's political-legal apparatus has been put under 
shuanggui since last October, when Yang Xiancai, a former head 
of Guangdong's High People's Court was placed under shuanggui 
for his alleged involvement in a corruption scandal. Huang 
Songyou, former Vice President of the Supreme People's Court 
who had spent years working at the Guangdong High People's 
Court, was also put under shuanggui in connection with Yang's 
case.\147\ According to Caijing, a Beijing-based magazine, the 
Central Discipline Inspection Commission placed Shenzhen 
municipality's mayor, Xu Zongheng, under investigatory 
detention in an undisclosed location in early June for what the 
Xinhua news agency called ``serious violations.'' \148\ The 
allegations involve bribery in connection with large-scale 
construction and development projects for the 2011 Universiade 
Games, which will be held in Shenzhen.\149\ Xu was promptly 
stripped of his position as the city's deputy Party secretary, 
and he later resigned as mayor.\150\ In August, the former head 
of Chongqing municipality's justice bureau was placed under 
shuanggui for alleged connections with triads and organized 
crime.\151\

                        REEDUCATION THROUGH LABOR

    The reeducation through labor (RTL) system operates outside 
of the judicial system and the PRC Criminal Procedure Law 
(CPL); it is an administrative punishment that enables law 
enforcement officials to incarcerate Chinese citizens at RTL 
centers for a maximum initial period of three years, with the 
possibility of an extension of up to one year.\152\ According 
to the non-governmental organization Chinese Human Rights 
Defenders, public security departments ``control the entire 
process of sending an individual'' to an RTL center, and RTL is 
frequently used to punish, among others, dissidents, 
petitioners, Falun Gong adherents, and religious practitioners 
who belong to religious groups not approved by the 
government.\153\ Earlier this year, Professor Fu Hualing, head 
of the Department of Law at the University of Hong Kong, wrote 
that RTL ``continues to be used, extensively, for political 
control and persecution.'' \154\
    During the February 2009 session of the UN Human Rights 
Council's Universal Periodic Review of the Chinese Government's 
human rights record, the Chinese Government stated that there 
were currently 320 RTL centers in China with approximately 
190,000 inmates.\155\ In 2005, Chinese official statistics put 
the number of RTL inmates at 500,000 (in 310 RTL centers).\156\ 
The Dui Hua Foundation reports that the decline in the RTL 
population may reflect the movement of drug-related offenders 
from RTL centers to drug rehabilitation facilities, but that it 
also perhaps may reflect an effort by the government to reduce 
the number of RTL inmates with the goal of modifying or 
possibly eventually abolishing the system.\157\
    In February, Chinese Human Rights Defenders (CHRD) issued a 
report on RTL which was based on a survey of over 1,000 
petitioners in Beijing (many of whom were previously detained 
in RTL centers) and interviews with 13 former RTL inmates. 
According to CHRD's report, frequent beatings and torture, 
forced heavy manual labor with little or no compensation, 
little medical care, deprivation of access to family and 
counsel, little or no exercise, and poor diet appear to be 
standard practices in RTL centers.\158\ CHRD also reported that 
``fellow detainees, usually camp bullies, are appointed 
`supervisors.' They are instructed by camp officials to carry 
out torture and mistreatment and given free rein to tyrannize 
others.'' \159\
    While there are several avenues for challenging RTL 
decisions, such as administrative reconsideration or a lawsuit 
under the PRC Administration Litigation Law (ALL), such efforts 
rarely are successful.\160\ CHRD reports that courts often 
refuse to accept ALL cases relating to reeducation through 
labor, and that external interference (from, for example, local 
government and Party officials) when a court does accept an ALL 
lawsuit means little chance of success for RTL inmates.\161\ Of 
more than 1,000 petitioners surveyed by CHRD, only 5 percent 
had applied for administrative review or filed an ALL 
action.\162\ Not one RTL decision was overturned. One 
petitioner interviewed by CHRD stated: ``We simply don't know 
how to seek legal remedies. No one will help us or tell us 
where to look. When I was released I actually sought legal 
remedies, but without any results whatsoever.'' \163\
    Reformists and legal experts within China have been calling 
for an end to reeducation through labor for decades.\164\ 
Perhaps the most recent public call to end reeducation through 
labor came in the document Charter 08, which was issued by 303 
Chinese intellectuals, activists, and others in December 
2008.\165\ The Charter states: ``A democratic and 
constitutional China especially must guarantee the personal 
freedom of citizens. No one should suffer illegal arrest, 
detention, arraignment, interrogation, or punishment. The 
system of `Reeducation Through Labor' must be abolished.'' 
\166\

                 Torture, Abuse, and Deaths in Custody


                             UN PROCEEDINGS

    In its final report on its review of China, the UN 
Committee against Torture (UNCAT) noted that it ``remains 
deeply concerned about the continued allegations . . . of 
routine and widespread use of torture and ill-treatment of 
suspects in police custody, especially to extract confessions 
or information to be used in criminal proceedings,'' while at 
the same time it welcomed China's ``efforts to address the 
practice of torture and related problems in the criminal 
justice system.'' \167\ UNCAT repeated its call for China to 
adopt the exclusionary rule so that evidence obtained through 
torture would be inadmissible and that it amend its law to 
reflect the definition of torture contained in the Convention 
against Torture.\168\ Moreover, the UNCAT noted that the 
provisions in China's laws that prohibit the use of torture are 
limited to the use of torture to extract confessions, but 
should prohibit torture for all purposes.\169\ A spokesman for 
the Chinese Foreign Ministry called UNCAT's report ``untrue and 
slanderous.'' \170\

                 UNNATURAL DEATHS IN DETENTION CENTERS

    In its December 2008 report, UNCAT expressed concern about 
``reports of abuses in custody, including high numbers of 
deaths, possibly related to torture or ill-treatment, and about 
lack of investigation into these abuses and deaths in 
custody.'' \171\ Just a few months after UNCAT's report was 
issued, reports of a 24-year-old inmate's unnatural death in a 
detention center (kanshousuo) in Yunnan province sparked online 
protests, and more reports of other unnatural deaths in 
detention centers soon followed.\172\ The spate of deaths in 
detention centers early this year prompted calls for reform 
from academics, Internet users, and some government 
officials.\173\ Detention centers are run by the Ministry of 
Public Security and are where suspects and defendants are held 
during investigation and trial.\174\ Duan Zhengkun, a former 
vice minister of justice, stated that ``[d]etention houses 
should not be managed by public security departments, because 
they make arrests, and sometimes torture the accused to force 
them to confess.'' \175\
    The debate over detention center deaths has focused on two 
principal issues: (1) confessions extracted through torture and 
mistreatment of detainees, and (2) the use of inmates by 
detention center guards to serve as ``jail bullies'' (laotou 
yuba) to control and abuse other inmates.\176\ In late April, 
the Supreme People's Procuratorate (SPP) disclosed that there 
had been 15 unnatural deaths in detention centers to date in 
2009,\177\ and initiated a five-month review of the nearly 
3,000 detention centers across the country, with the goal of 
cracking down on ``jail bullies'' and ensuring ``proper 
management'' of detention centers.\178\ In mid-July, Xinhua 
reported that the SPP had completed its investigation of 12 of 
the 15 unnatural deaths in custody and concluded that 7 had 
been beaten to death, 3 had committed suicide, and 2 had died 
in accidents.\179\
    The 2009-2010 National Human Rights Action Plan (HRAP) 
released in mid-April restated the legal prohibition against 
confessions coerced by torture.\180\ The HRAP further declared 
that ``the state will improve legislation concerning prison 
management and take effective measures to ensure detainees' 
rights and humanitarian treatment.'' \181\ In order to prevent 
detainee abuse during interrogations, the HRAP mandates a 
physical barrier in all interrogation rooms to separate 
detainees and interrogators, and that the detainees shall be 
physically examined before and after interrogations.\182\ If 
the policies pronounced in the HRAP are implemented fully in 
law, regulations, and practice, they would mark an important 
step toward the prevention of detainee abuse during 
interrogations.

                           TORTURE AND ABUSE

    In addition to the reports of abnormal deaths in detention 
centers during 2009, reports of nonfatal torture and abuse in 
detention centers, prisons, and reeducation through labor (RTL) 
centers continued during the past year. As noted above, Chinese 
Human Rights Defenders (CHRD) has documented that torture and 
abuse in RTL centers is a common occurrence.\183\ Torture and 
abuse in detention centers and prisons remains widespread, 
despite the central government's repeated efforts to address 
this longstanding problem.\184\ Guards use torture to coerce 
confessions and enlist ``jail bullies'' to abuse inmates either 
under the direction of prison guards or with their 
knowledge.\185\
    Chinese authorities continue to subject political prisoners 
to long periods of solitary confinement, in contravention of 
the PRC Prison Law and international human rights 
standards.\186\ U.S. permanent resident and democracy activist 
Wang Bingzhang, who is serving a life sentence in Beijiang 
Prison, in Guangdong province, has been held in solitary 
confinement for years.\187\ When a family member asked the 
prison warden why Wang was being held in solitary confinement, 
the warden reportedly said that because there were no other 
political prisoners in the prison, there was no one else with 
whom Wang could share a cell.\188\
    In July, the Supreme People's Procuratorate reported that 
in the first six months of 2009, procuratorates found 6,430 
violations relating to the management of detention facilities 
and prisons, a 114-percent increase from the same period in 
2008.\189\ Deputy procurator-general Sun Qian stated that, as 
of mid-July, 291 people reportedly had been charged as a result 
of 243 investigations.\190\

                              MEDICAL CARE

    The U.S. State Department observed in its report on China's 
human rights situation for 2008 that ``adequate, timely medical 
care for prisoners remained a serious problem, despite official 
assurances that prisoners have the right to prompt medical 
treatment.'' \191\ Chinese Human Rights Defenders reports that 
there is ``extremely limited medical care'' available to 
inmates in RTL centers.\192\ Authorities have reportedly denied 
imprisoned legal advocate and rights defender Chen Guangcheng 
adequate medical treatment.\193\ Both Chen and his wife (on 
Chen's behalf) have applied for medical parole, but with no 
result.\194\ Hu Jia's wife, Zeng Jinyan, has expressed ongoing 
concern over the health of her husband, who suffers from 
hepatitis.\195\ After visiting Hu Jia in prison in April, Zeng 
wrote on her blog that Hu continues to lose weight, and that he 
told her he was unable to eat.\196\ Huang Qi, the Sichuan 
province-based human rights activist who was tried on ``illegal 
possession of state secrets'' charges in August, reportedly has 
been denied access to medical attention.\197\

                           Access to Counsel

    Most Chinese defendants confront the criminal process 
without the assistance of an attorney, despite the right to 
legal assistance provided under Article 14(3)(d) of the 
International Covenant on Civil and Political Rights, which 
China has signed, but not yet ratified.\198\ The Chinese media 
recently reported that less than 30 percent of criminal cases 
proceed with the involvement of a defense attorney, and several 
lawyers interviewed indicated that in some places, the rate is 
between 10 to 20 percent.\199\ The lawyers, including prominent 
criminal defense attorney Tian Wenchang, attributed the low 
rate of defense attorney involvement to several factors, 
including the risks and difficulties criminal defense attorneys 
face and the low compensation for criminal defense work 
compared with other areas of law.\200\
    As Professor Jerome Cohen recently observed regarding pre-
trial detention in China, ``most accused remain detained 
throughout the trial and appellate process. Bail applications 
are seldom granted. . . .'' \201\ Detained suspects and 
defendants who do have legal representation continue to face 
substantial obstacles in meeting with their attorneys. In 
December 2008, the UN Committee against Torture noted ``with 
concern the lack of legal safeguards for detainees, including . 
. . restricted access to lawyers.'' \202\ More than a year has 
passed since the implementation of the revised PRC Lawyers Law, 
which was amended in part to address the longstanding ``three 
difficulties'' (san nan) facing defense attorneys (i.e., 
gaining access to detained clients, reviewing the prosecutors' 
case files, and collecting evidence).\203\ Some of the 
provisions of the revised Lawyers Law conflict with the PRC 
Criminal Procedure Law (CPL), however.\204\ For example, with 
respect to gaining access to detained clients, the revised 
Lawyers Law provides that a lawyer need only show the ``three 
certificates'' (i.e., lawyer's license, certificate from the 
lawyer's law firm, and a power of attorney or legal aid papers) 
in order to meet with a detained suspect or defendant after the 
first interrogation, whereas the CPL stipulates that if the 
case involves state secrets, the lawyer must first obtain 
permission from the investigating entity (i.e., public security 
bureau or procuratorate).\205\ The Lawyers Law prohibits the 
monitoring of attorney-client meetings, while the CPL provides 
that investigating officers, when it is deemed necessary, have 
a right to be present at such meetings.\206\
    Since the revised Lawyers Law took effect, access to 
detained clients in ordinary, nonsensitive cases reportedly has 
improved in Beijing and some other large cities.\207\ The chair 
of the Beijing Lawyers Association Criminal Defense Committee 
stated that lawyers in Beijing now have better and easier 
access to detained clients, and that they are able to see 
clients in detention centers with just the ``three 
certificates.'' \208\ He noted, however, that permission was 
still necessary in state secrets' cases.\209\ Beijing's Haidian 
District Public Security Bureau reported that it has 
implemented several practical measures to facilitate attorney-
client meetings, such as setting up special meeting rooms and a 
lawyers' ``reception room,'' which has a full-time staff member 
to assist with, among other things, arranging attorney-client 
meetings.\210\ In addition, Beijing judicial authorities 
abolished an internal rule operative in detention centers that 
two lawyers had to be present for meetings with a detained 
client (now a single lawyer can meet a client on his or her 
own).\211\
    The revised Lawyers Law has been less successfully 
implemented in other jurisdictions. In May 2009, the Legal 
Daily (Fazhi Ribao), Legal System Net (Fazhi Wang), and the All 
China Lawyers Association (ACLA) conducted an online survey 
regarding the right of lawyers to meet with detained 
clients.\212\ Of 1,610 respondents (comprised of 1,080 lawyers, 
187 individuals from the public security system, procuracy, and 
the courts, and the rest from other professions), 73.4 percent 
indicated that the situation had not improved at all after the 
implementation of the revised Lawyers Law. Only 8 percent of 
the respondents believed that the right of lawyers to meet with 
detained clients was being implemented entirely consistently 
with the new Lawyers Law.\213\
    One challenge to the protection of lawyers' professional 
rights is the belief among some law implementation agencies 
that because they are responsible for implementing the Criminal 
Procedure Law (CPL), they must follow the current CPL, 
irrespective of the revisions to the Lawyers Law, which they 
also view as being a ``lesser'' law that regulates only the 
legal profession.\214\ While some experts contend that the 
provisions of the revised Lawyers Law governing lawyers' 
professional rights can be fully realized through amendment of 
the CPL, others believe more fundamental change is 
necessary.\215\ Professor Chen Ruihua, a prominent criminal 
procedure professor at Peking University Law School, believes 
that the ``three difficulties'' are a product of China's 
judicial system itself and that ``without reform of the 
judicial system `the three difficulties' will never be 
resolved--revising the CPL won't make any difference.'' \216\
    In politically sensitive cases, authorities continue to 
frequently deny detained suspects and defendants access to 
counsel. For example, authorities unlawfully denied well-known 
criminal defense attorney Mo Shaoping permission to see his 
detained client, prominent intellectual and Charter 08 
signatory Liu Xiaobo, from early December 2008 through mid-June 
2009--the duration of Liu's (illegally prolonged) residential 
surveillance.\217\ Under Chinese law, an individual subject to 
residential surveillance does not need to obtain permission to 
meet with his or her attorney.\218\ [See Section II--Freedom of 
Expression, for a discussion of Liu Xiaobo's detention and 
arrest.] In late March 2009, Jiang Tianyong and Tang Jitian--
two of the human rights lawyers whose licenses to practice law 
were not renewed by the May 31 deadline this year--were 
prevented from meeting their detained client, Ge Hefei, a Falun 
Gong practitioner, in Hebei province.\219\ Jiang and Tang, who 
had been entrusted to represent Ge by Ge's family, were told by 
court personnel that Ge had not hired them and had not 
requested to see them. The lawyers argued that they had a right 
to see Ge and ask him directly whether he agreed to their 
representation and that Ge had a right to access to defense 
counsel.\220\ [See Section III--Access to Justice--Harrasment 
and Intimidation of Human Rights Lawyers.]
    In its February report on reeducation through labor (RTL), 
Chinese Human Rights Defenders (CHRD) stated that many former 
RTL inmates the organization surveyed complained of lack of 
access to counsel and legal remedies. Although some of the 
former RTL inmates may have qualified for legal aid, CHRD 
observed that ``government-funded lawyers are unwilling to 
advocate for RTL detainees because they are on the `wrong side' 
of the local government.'' \221\ Individuals who have 
``disappeared'' incommunicado into black jails (including those 
held in psychiatric hospitals) are deprived of their right to 
access to counsel.\222\
    Although most criminal cases in China proceed without a 
defense attorney's involvement, in high-profile cases, 
authorities generally endeavor to ensure that defendants have 
some form of representation. The main access-to-counsel issues 
presented in such cases are whether the defendants or their 
family members are able to hire counsel of their own choosing, 
and whether government-assigned attorneys are, in fact, working 
in the defendant's best interests. The Commission reported on 
this issue in the context of the defense of Tibetans detained 
after the protests in March 2008. The Tibetans were prevented 
from hiring attorneys of their own choosing and instead were 
assigned government-selected attorneys.\223\ This year, 
following the July 5 demonstration in Urumqi, Xinjiang Uyghur 
Autonomous Region and outbreaks of violence starting that day, 
the Beijing Justice Bureau issued an urgent notice calling upon 
Beijing's law firms and lawyers to ``clearly recognize the 
nature'' of the July 5 ``beating, smashing, looting, and 
burning'' incident in Urumqi and to ``resolutely stand on the 
side of protecting national unity and harmony among ethnic 
groups'' and exercise ``caution'' with respect to receiving 
requests for legal advice and representation.\224\ The 
government-controlled Xinjiang Lawyers Association likewise 
warned Xinjiang attorneys against getting involved in July 5-
related cases.\225\ [See Section IV--Xinjiang.]
    An important issue in the Yang Jia case was whether Yang 
had access to counsel of his own choosing. As discussed above, 
Yang Jia killed six police officers and injured several others 
at the Zhabei district police station in Shanghai in July 2008, 
possibly in retaliation for police abuse he reportedly suffered 
in the fall of 2007 at the Zhabei police station.\226\ Yang 
Jia's mother, Wang Jingmei, with whom Yang had been living in 
Beijing before the attack, disappeared the night of the 
killings and was locked up in a Beijing public security-run 
psychiatric hospital (ankang) until just before Yang Jia was 
executed.\227\ During Wang Jingmei's detention in the ankang, 
officials reportedly presented her with a document authorizing 
an attorney named Xie Youming to represent Yang Jia; Wang 
signed the document.\228\ Xie had ties to the Zhabei district 
government, which raised doubts about his ability to fairly and 
vigorously represent Yang.\229\ Yang Jia's father did not agree 
to Xie representing his son, and instead lined up a group of 
Beijing criminal defense lawyers to act on his son's behalf, 
but Shanghai authorities prevented the Beijing lawyers from 
seeing Yang Jia. Judicial authorities reportedly told the 
lawyers from Beijing that Yang Jia already had defense 
attorneys and that he did not want new ones.\230\
    Another high-profile case in which local officials appeared 
to have had a hand in selecting defense counsel (and sidelining 
lawyers from Beijing) is the Deng Yujiao case.\231\ In May 
2009, Deng became an Internet sensation after news spread that 
she had stabbed a local official in Badong county, Hubei 
province to death and injured another while defending herself 
against an attempted rape.\232\ After Deng was taken away to a 
psychiatric hospital,\233\ two Beijing lawyers, Xia Lin and Xia 
Nan (no relation), volunteered to represent Deng Yujiao pro 
bono.\234\ Deng's mother hired the two lawyers. On May 21, 
after the two lawyers met with Deng Yujiao, Xia Lin filed a 
petition with the Badong Public Security Bureau demanding that 
the police press charges against the injured official, Huang 
Dezhi, for sexual assault.\235\ Xia Lin and Xia Nan were 
promptly fired. The lawyers learned of their dismissal as Deng 
Yujiao's attorneys from the Badong county government's Web 
site.\236\ Deng's mother then hired two local attorneys.\237\
    Prominent intellectual and Charter 08 signatory Liu Xiaobo, 
who has been detained since early December 2008, was also 
denied counsel of his own choosing. Liu's family had retained 
the well-known defense attorney Mo Shaoping to represent Liu 
Xiaobo.\238\ After public security officers formally arrested 
Liu on June 23 for ``inciting subversion,'' Mo Shaoping was 
informed that he was prohibited from representing Liu because 
he had also signed Charter 08.\239\ Two other attorneys from Mo 
Shaoping's law firm, Shang Baojun and Ding Xikui, are currently 
representing Liu.\240\

                      Fairness of Criminal Trials

    The ``three difficulties'' faced by criminal defense 
lawyers discussed above has serious consequences for the 
fairness of criminal trials. In addition, because of the risks 
presented by Article 306 of the PRC Criminal Law (the lawyer-
perjury statute), most defense attorneys reportedly engage in 
passive defense; they focus on finding flaws and weaknesses in 
the prosecutors' evidence rather than actively conducting their 
own investigations.\241\ According to well-known criminal 
defense lawyer Tian Wenchang, because of these challenges and 
risks, it is difficult for defense attorneys to present 
evidence of innocence or of a lesser crime.\242\ Moreover, 
there is a strong presumption of guilt, especially in 
``politically sensitive'' cases.\243\
    The failure of witnesses to appear in court to present 
testimony is a longstanding problem in China and is widely 
recognized as such by lawyers, scholars, officials, and the 
media.\244\ In late June 2009, the Chinese magazine Caijing 
reported that ``the physical presence of a courtroom witness is 
rare in China.'' \245\ Most criminal cases proceed solely on 
the basis of written witness statements that the prosecution 
presents to the court; the defense attorneys have no 
opportunity to question and cross-examine the witness who made 
the statement about its contents.\246\ The PRC Criminal 
Procedure Law states only that witnesses have a duty to 
testify; it does not require that witnesses appear in court to 
present live testimony, and there is no punishment for failure 
to appear.\247\
    Chinese Government and Communist Party interference in 
court proceedings and decisions is common, particularly in 
``politically sensitive'' cases.\248\ While the Caijing report 
on the absence of witnesses in courtrooms noted that no 
eyewitnesses appeared at Deng Yujiao's trial, the eyewitness 
testimony in Deng's case would have mattered only if the trial 
actually had been an attempt to determine innocence or guilt 
and assess whether Deng Yujiao's self-defense was justifiable 
or ``excessive'' under Chinese law. But the outcome of Deng's 
two-and-a-half-hour trial appears to have been a deal arranged 
in advance.\249\ Immediately upon conclusion of the trial, Deng 
was found guilty of inflicting intentional harm, but was 
exempted from punishment because, the court ruled, she had 
acted in self-defense and had turned herself in, and because 
she was found to have suffered from a mental illness and thus 
did not bear full criminal responsibility.\250\ Prominent human 
rights attorney Pu Zhiqiang told the South China Morning Post 
that there was no debate over evidence during the trial; it was 
``like the actual case itself was not important. What was 
important was to achieve a result acceptable by all sides.'' 
\251\ Pu opined that while the case may have been something of 
a victory for public opinion, it was ``definitely not a victory 
for the law.'' \252\
    Lengthy pre-trial detention and the reliance of public 
security officers and prosecutors on confessions to 
``establish'' guilt remain the norm. Consequently, the 
widespread use of torture to extract confessions, a 
longstanding problem acknowledged by the Chinese Government, 
persists.\253\ Confessions coerced through torture and other 
illegally obtained evidence continue to be admissible in 
courts, with obvious implications for the fairness of criminal 
trials.\254\ In August 2009, an official from the Supreme 
People's Procuratorate (SPP) announced that the SPP would soon 
introduce a new regulation making confessions coerced through 
torture inadmissible in death penalty cases.\255\ The 
regulation purportedly will also mandate that prosecutors 
investigate and prosecute law enforcement personnel who may 
have coerced a confession through torture or otherwise used 
violence to obtain evidence.\256\
    Although Chinese law requires that first-instance trials be 
held in public, there is an exception for cases involving state 
secrets.\257\ Politically sensitive cases are routinely closed 
to the public, even to family members of the defendant.\258\ 
Yang Jia's murder case was not a ``state secrets'' case, but 
officials barred Yang Jia's family and friends from attending 
his trial.\259\ Yang's mother was detained illegally in a 
psychiatric facility in Beijing during Yang's trial and appeal, 
and the lawyers from Beijing that Yang's father had hoped could 
represent his son were also prevented from observing Yang's 
first-instance trial.\260\ Yang Jia's father attended the 
appeal, as did Beijing lawyer and blogger Liu Xiaoyuan and Ai 
Weiwei, the artist and blogger.\261\ Yang had a new attorney on 
appeal, who expressed concern about the fairness of that 
proceeding.\262\
    In another death penalty case during this reporting year, 
Wo Weihan, a Chinese citizen, was convicted of military 
espionage for Taiwan and endangering state security in May 2007 
and sentenced to death.\263\ In March 2008, the Beijing High 
People's Court affirmed the conviction and death sentence; the 
Supreme People's Court approved the death sentence in November 
2008, and he was executed later that month. Wo's case 
apparently was plagued by procedural irregularities; he was 
denied access to his lawyer for 10 months following his initial 
detention, and evidence used against him was not made available 
for his defense, allegedly because it involved ``state 
secrets.'' \264\ Wo reportedly made a confession while he was 
detained without access to his lawyer, because officials told 
him he would not be prosecuted if he signed a confession.\265\ 
Wo was tried behind closed doors.\266\ The first and only time 
Wo's family was permitted to see Wo since he was first detained 
in 2005 was the day before Wo was executed in late November 
2008.\267\

                           Capital Punishment

    During the UN Human Rights Council's Universal Periodic 
Review of the Chinese Government's human rights record in 
February 2009, several delegations raised issues relating to 
China's use of the death penalty; most of the recommendations 
focused on transparency and reduction in the number of crimes, 
particularly non-violent crimes, for which the death penalty 
was available. The Report of the Working Group on the Universal 
Periodic Review notes that the Chinese delegation stated that 
the use of the death penalty is strictly controlled, and that 
in practice, it ``is only applied to very serious crimes and is 
not used in most of the applicable crimes.'' \268\ China stated 
that it would review the recommendations ``to reduce the number 
of crimes subject to [the] death penalty, especially for non-
violent crimes.'' \269\ In its 2009-2010 National Human Rights 
Action Plan, the Chinese Government stated that the death 
penalty ``shall be strictly controlled and prudently applied.'' 
\270\
    As noted in last year's Annual Report, in early May 2008, 
the Supreme People's Court (SPC) reported that there was a 30-
percent drop in death sentences during 2007, the first year in 
which SPC review of death sentences was restored, compared with 
2006.\271\ And in late June 2008, the SPC announced that it had 
overturned 15 percent of all death sentences handed down by 
lower courts during 2007 and the first half of 2008.\272\ At 
the end of July 2009, the SPC stated that only an ``extremely 
small number'' of serious criminals would receive the death 
penalty and that death sentences with a two-year reprieve 
(sihuan) would be used more often, but the SPC did not release 
figures comparing the 2007 and 2008 execution rates or the 
percentage of death sentences the SPC overturned.\273\ The 
number of executions carried out annually remains a state 
secret.\274\ Based on publicly available reports, Amnesty 
International concluded that there was a 260-percent increase 
in the number of executions in China in 2008, compared with 
2007. Amnesty International stated that 1,718 people were 
executed in China during 2008 (compared with 470 executions in 
2007), and that 7,000 individuals were sentenced to death.\275\ 
In late August, the Dui Hua Foundation estimated that there 
will be approximately 5,000 executions in China during 
2009.\276\
    In June 2009, China Daily reported that by the end of the 
year, all those sentenced to death in Beijing would be executed 
by lethal injection, rather than a firing squad.\277\ Hu 
Yunteng, director of research at the SPC, was quoted as saying 
that lethal injections were ``cleaner, safer and more 
convenient.'' \278\ Lethal injection was legalized in China as 
an alternative to shooting in the 1996 Criminal Procedure 
Law.\279\ Lethal injections were first used in Yunnan province, 
and then gradually were used elsewhere in China.\280\ The SPC 
indicated that eventually lethal injections would be used 
nationwide as the sole form of execution.\281\ Liu Renwen, a 
criminal law scholar at the Institute of Law at the Chinese 
Academy of Social Sciences, who advocates for the abolition of 
the death penalty, wrote that he believed the developments in 
Beijing were a step toward the eventual abolition of the death 
penalty.\282\ Donald Clarke, professor of Chinese law at George 
Washington University Law School noted, however, that the 
public discussion of lethal injections in China seemed to 
sidestep issues regarding the potential problems with death by 
lethal injection.\283\
    During this reporting year, it was evident that procedures 
regarding family visits and information transparency for 
individuals facing imminent execution were in need of an 
overhaul. Wo Weihan's family, who had not been able to see him 
since Wo was first taken into custody in 2005, met with Wo for 
the first time on November 27, 2008, after the SPC had approved 
his death sentence.\284\ The authorities told the family that 
they would be able to have a second visit with Wo before he was 
executed. Wo was instead put to death the next day, on November 
28, before the promised second family visit.\285\ In Yang Jia's 
case, Yang's father only had one visit with Yang since he was 
detained after the killings on July 1, and that was in October 
2008.\286\ Yang's father was not able to see his son before he 
was executed, and only learned of the execution after Yang had 
been put to death on November 26, 2008.\287\ On November 23, 
Chinese officials suddenly took Yang Jia's mother, Wang 
Jingmei, from the psychiatric hospital in Beijing where she was 
being held to Shanghai to meet with her son.\288\ She knew 
absolutely nothing about his case, let alone that the SPC had 
already approved Yang's death sentence. Wang also did not know 
that her meeting with Yang on November 24 would be the last 
time she would see her son.\289\

                          Freedom of Religion


                              Introduction

    The Chinese Government continued during the Commission's 
2009 reporting year to strictly control religious practice and 
repress religious activity outside of state-approved 
parameters. Local governments implemented measures to prevent 
``illegal'' religious gatherings and curb other ``illegal'' 
religious activities, in some cases 
destroying sites of worship and detaining or imprisoning 
religious believers. Government efforts to discredit the Dalai 
Lama and to transform Tibetan Buddhism into a doctrine that 
promotes government positions and policy escalated, resulting 
in continuing Tibetan demands for freedom of religion and the 
Dalai Lama's return to Tibet.\1\ Buddhist communities outside 
the tradition of Tibetan Buddhism also faced continued 
government controls, and unregistered Buddhist temples remained 
subject to closure and demolition by government authorities.\2\ 
Catholic bishops in China's unregistered church community 
remained in detention, home confinement, under surveillance, in 
hiding, or in unknown whereabouts, while authorities 
strengthened rhetoric on the state-controlled Catholic church's 
independence from the Holy See.\3\ The government maintained 
its longstanding ban against the Falun Gong spiritual movement 
and other religious and spiritual groups deemed to be cults, 
subjecting some members to detention, imprisonment, and other 
abuses.\4\ Repression of Islam in the Xinjiang Uyghur 
Autonomous Region (XUAR) worsened as authorities strengthened 
security campaigns targeting ``religious extremism,'' and 
outside the XUAR, the government also maintained broad controls 
over the practice of Islam.\5\ The government continued to 
subject registered Protestant congregations to tight state 
control over their internal affairs and officials continued to 
target some unregistered Protestant churches for closure and to 
harass, detain, or imprison some church leaders and members.\6\ 
Authorities maintained restrictions over the activities of 
registered Taoist priests, and unregistered Taoist priests were 
subject to penalties for failing to submit to state control.\7\ 
Other religious and spiritual communities remained without 
legal recognition to practice their faith.\8\
    During the Commission's 2009 reporting year, the government 
also continued to use legal measures to restrain, rather than 
protect, the religious freedom of all Chinese citizens.\9\ 
Children faced continued restrictions on their right to freedom 
of religion, and parents and guardians faced restrictions on 
their right to impart a religious education to children.\10\ 
The Chinese Government continued to deny its citizens the 
freedom to prepare and distribute religious texts.\11\ The 
government has permitted, and in some cases, sponsors, the 
social welfare activities of state-sanctioned religious 
communities, but in the past year, authorities also took steps 
to block some social welfare activities by unregistered 
religious groups.\12\
    The Chinese Government and Communist Party maintained an 
antagonistic stance toward religion in the past year and 
continued to affirm basic policies of control over religious 
practice.\13\ In addition to imposing controls over religion 
upon all citizens, the Party also maintained prohibitions on 
Party members' belief in or practice of religion, thereby 
cutting off religious adherents from career opportunities, 
including high-level government and enterprise jobs, contingent 
on Party membership.\14\ In an October 2008 speech, State 
Administration for Religious Affairs Director Ye Xiaowen called 
for deepening study of Marxist and Communist Party viewpoints 
toward religion and for ``keeping tabs'' on religious leaders, 
religious activity, and sites of worship.\15\ Late 2008 
anniversaries within the state-controlled Catholic and 
Protestant churches reaffirmed the government and Party roles 
in defining theology and controlling interaction between 
Chinese religious adherents and foreign religious 
institutions.\16\ Authorities continued to soften some rhetoric 
toward religion by articulating a ``positive role'' for 
religious communities in China, but used this sentiment to 
bolster support for state economic and social goals.\17\ At the 
same time, officials and central government directives 
continued to warn against foreign groups ``using religion'' to 
``interfere'' in China's affairs and ``sabotage'' the 
country.\18\ A press communique from the PRC Embassy in the 
United States included ``freedom of religious belief'' among 
``sensitive issues'' to ``properly handle'' in order to advance 
progress in U.S.-China relations.\19\
    The Chinese Government's legal and policy framework for 
religion violates the protections for freedom of religion set 
forth in Article 18 of the Universal Declaration of Human 
Rights, Article 18 of the International Covenant on Civil and 
Political Rights, and other international human rights 
instruments.\20\ Although the PRC Constitution states that all 
citizens enjoy ``freedom of religious belief,'' it limits 
citizens' ability to exercise their beliefs by protecting only 
``normal religious activities,'' \21\ a vaguely defined term in 
both law and practice that has been used as a means to suppress 
forms of religious activity protected under international human 
rights law.\22\ In addition, the government has created a 
regulatory framework that in practice recognizes only five 
religions--Buddhism, 
Catholicism, Taoism, Islam, and Protestantism--for limited 
state protections for religious activity.\23\ Variations in 
implementation of government policy have enabled some 
unrecognized religious groups to carry out activities,\24\ but 
arbitrary toleration by some local officials does not amount to 
Chinese Government protection of these communities' freedom of 
religion. In addition, the government has continued to formally 
outlaw some religious and spiritual groups,\25\ thereby wholly 
denying members of these communities the right to practice 
their faith openly. Despite creating space for some citizens to 
practice their religion within government-approved 
parameters,\26\ where some, but not all, Chinese citizens are 
allowed to do so, and where members of China's five government-
sanctioned religious communities remain subject to tight 
controls over their affairs, the Chinese Government has failed 
in its obligation to protect Chinese citizens' right to freedom 
of religion.

               The Legal Framework for Religion in China

    The Chinese Government uses law as a tool to restrain 
rather than protect Chinese citizens' right to freedom of 
religion. Although the national Regulation on Religious Affairs 
(RRA) and local government regulations provide a measure of 
protection for some religious activities, such protection is 
limited in scope and applies only to state-sanctioned religious 
communities.\27\ Under Chinese regulations, religious 
communities must apply to register with the 
government and must submit to state control over their 
affairs.\28\ Registered groups must receive government approval 
to establish venues for worship.\29\ Religious and spiritual 
groups that do not meet registration requirements and groups 
that choose not to submit to government control through 
registration risk harassment, detention, closure of sites of 
worship, and other abuses.\30\ Members of registered groups 
also risk repercussions where authorities deem their practices 
to fall outside vaguely defined legal protections for ``normal 
religious activities.'' \31\
    Based on Commission analysis, the pace of legislation on 
religious affairs at both the central and provincial government 
levels slowed in the past year, a trend with potentially 
negative consequences despite the use of law as a means to 
restrain religious practice. Chinese Government efforts in 
recent years to legislate on religious practice have lent some 
formal transparency and consistency to government policies on 
religion, including as they relate to the limited number of 
legal protections for religious practice. The slowed pace of 
legislation also means that local government officials may 
continue to regulate religious affairs based on older, local 
regulations inconsistent with the RRA, creating a confusing 
legal terrain for citizens who aim to understand their rights. 
After eight provincial areas reported issuing new or amended 
regulations in 2005 and 2006 in accordance with the RRA, three 
provincial-level areas reported taking such action in 2007. In 
2008 and in 2009, Shaanxi, Jiangsu, and Hubei provinces issued 
amended or new regulations on religious affairs.\32\
    The RRA does not include criminal penalties for violation 
of its provisions,\33\ but the Chinese Government uses the PRC 
Criminal Law and related legal provisions as a means to punish 
and detain people for forms of religious practice deemed to 
fall outside of approved parameters.\34\ In addition, the 
Chinese Government uses administrative punishments, including 
reeducation through labor, to fine or detain citizens outside 
the formal criminal justice system.\35\ Authorities also have 
penalized or detained religious citizens without adhering to 
formal legal processes.\36\
    In this reporting year, the Commission observed an increase 
in official pressure, harassment, and abuse of lawyers who 
defend religious adherents, among other groups. Although some 
religious communities and their lawyers have had some success 
in recent years in using the legal system to challenge official 
abuses,\37\ events from the past year underscore continuing 
challenges that communities face in defending their rights and 
that lawyers face in carrying out their work. [See Section 
III--Access to Justice for detailed information on the 
harassment of attorneys and see China's Religious Communities--
Falun Gong and China's Religious Communities--Protestants 
within this section for specific information on attorneys 
harassed and detained for their activities defending members of 
these communities.]

             Restrictions on Children's Freedom of Religion

    In the past year, children continued to face restrictions 
on their right to freedom of religion, and parents and 
guardians faced restrictions on their right to impart a 
religious education to children. The various restrictions lack 
basis in national Chinese law and contravene protections in 
international human rights law, including in treaties the 
Chinese Government has signed or ratified.\38\ In some cases, 
authorities extended restrictions to young people and college 
students above the age of 18, who are considered adults under 
Chinese law.\39\ While a government spokesperson said in 2005 
that no laws prohibit children from believing in a religion and 
that parents may provide a religious education to their 
children, some provincial legislation continues to penalize 
acts related to imparting religion to children.\40\ Though 
variations in local government practices have enabled children 
in some localities to access religious sites and religious 
education,\41\ the Commission in the past year tracked reports 
of ongoing efforts to prevent children from participating in 
religious activities.\42\ For example, local authorities in the 
Xinjiang Uyghur Autonomous Region have continued to impose 
restrictions on children's freedom of religion through measures 
such as monitoring their activities outside of school and 
launching a campaign to ``weaken religious consciousness'' 
among young adults and juveniles. [See China's Religious 
Communities--Islam in this section for more information.] 
Authorities also have condemned Western religious organizations 
perceived to focus their activities on Chinese youth. An August 
2008 speech by an official in Jiangxi province cautioned 
against ``Western hostile forces'' using religion to carry out 
``ideological infiltration'' of young adults and juveniles, 
expressing concern about Christian organizations in 
particular.\43\ The references to ``young adults'' (qingnian) 
illustrated efforts to extend restrictions on children's 
freedom of religion to people over the age of 18. In fall 2008, 
authorities targeted house churches near college campuses in 
Beijing and Hangzhou, Zhejiang province, detaining students in 
attendance, accusing church members of ``preaching to 
students,'' and ordering four church leaders to serve 
reeducation through labor.\44\ A report from Shaanxi province 
made available in January 2009 referred to a notice implemented 
in recent years on ``prohibiting Catholic catechism classes for 
young adults and juveniles.'' \45\

                  Controls Over Religious Publications

    The Chinese Government denies its citizens the freedom to 
prepare and distribute religious texts,\46\ and Chinese 
authorities continue to punish religious adherents who publish 
or distribute religious materials independent of government 
controls. In June 2009, a Beijing court sentenced bookstore 
owner Shi Weihan to three years' imprisonment for ``illegal 
operation of a business,'' a crime under Article 225 of the 
Criminal Law,\47\ because Shi had printed and given away 
Bibles.\48\ Six other people connected to the case also 
received prison sentences.\49\ Authorities had held Shi in 
detention since March 2008 and earlier detained him between 
November 2007 and January 2008 in connection to the same 
activities.\50\ The government controls the publishing and 
distribution of approved religious materials, and some churches 
have reported an insufficient supply of Bibles.\51\ Authorities 
have confiscated Bibles imported to the country,\52\ and in the 
past year, officials confiscated Bibles in raids on house 
churches.\53\ In 2008, authorities in the Xinjiang Uyghur 
Autonomous Region made ``illegal'' religious and political 
publications the focal point of a censorship campaign in the 
region.\54\ [See China's Religious Communities--Islam in this 
section for more information.]

           Social Welfare Activities by Religious Communities

    In the past year, the Chinese Government continued to 
permit, and in some cases, sponsor, the social welfare 
activities of state-sanctioned religious communities, but 
authorities also took steps to block some activities by non-
registered groups. The national Regulation on Religious Affairs 
permits registered religious organizations to engage in social 
welfare activities, as have earlier regional regulations.\55\ 
In addition, the Chinese Government's 2009-2010 National Human 
Rights Action Plan, released in April 2009, also states support 
for religious organizations' social welfare activities.\56\ In 
the aftermath of the May 2008 Sichuan earthquake, religious 
communities in China provided aid to earthquake victims, 
including in partnership with overseas religious 
organizations,\57\ but some groups, especially unregistered 
organizations, met with official sanction. In October 2008, the 
Shifang city, Sichuan province, United Front Work Department--
the Communist Party office that among other tasks oversees 
religious communities in China--described taking steps to curb 
``illegal proselytizing'' in accordance with provincial-level 
directives on blocking proselytizing at disaster relief sites, 
one of which singled out underground Protestant groups in 
particular.\58\ In November, the U.S.-based organization 
ChinaAid reported that the Ministry of Civil Affairs ordered 
the abolition of the organization known as the Chinese House 
Church Alliance, on the grounds that the group, which had 
engaged in earthquake relief work among other activities, was 
operating without registration as a social organization.\59\ In 
December 2008, public security officers in an earthquake-
affected village in Beichuan county, Sichuan province, 
disrupted reconstruction activities led by house church 
volunteers, detaining some people and confiscating property 
including religious materials.\60\ Zhang Xiuzhi, a registered 
church member who inquired about official mishandling of 
earthquake relief donations, reportedly was ordered to serve 
one year of reeducation through labor in April for ``disturbing 
social order.'' \61\ In June 2009, authorities in Nanbu county, 
Sichuan province, detained house church members Wei Sanhong and 
Wu Han and imposed administrative punishments on them in 
apparent connection with their earthquake disaster relief 
activities through their church.\62\

                     China's Religious Communities


                                BUDDHISM

    Although few reports of repression of Chinese Buddhists in 
non-Tibetan areas reach the international community, the 
Chinese Government and Communist Party exercise control over 
the institution and practice of Buddhism by ethnic Han citizens 
in much the same manner as for religions that demonstrate much 
higher levels of protest against state control of religion.\63\ 
The government requires all Buddhist monks, nuns, and 
institutions to register with the state-run Buddhist 
Association of China (BAC) in order to practice Buddhism 
legally.\64\ Officials often harass unregistered Buddhist 
groups, forcibly close their meeting sites, detain their 
leaders, and in cases where authorities brand such groups a 
``cult,'' punish them with detention or reeducation.\65\ 
Communities under the BAC encounter rules and regulations that 
cast nationalism and loyalty to the Communist Party as 
religious obligations with which Buddhists must comply and 
prohibit religious practices from being carried out at temples 
that the government deems ``superstitious activities.'' \66\ 
The BAC imposes rules governing personnel, practice, and 
teaching in registered Buddhist communities, examples of which 
include a BAC monopoly on issuing ordination licenses, the use 
of political criteria to judge ordination eligibility, 
prohibitions against certain traditional ordination rituals, 
restrictions on cross-provincial monastic study, restrictions 
on interactions with foreign Buddhists, requirements that 
prospective monastics receive parental and family approval 
before being ordained, and a prohibition against citizens under 
the age of 20 or over the age of 60 entering a monastic 
institution.\67\
    Authorities in a number of localities continue to target 
unregistered Buddhist temples and lay communities for closure 
or demolition.\68\ A 2008 report to the Daqing Municipal 
People's Congress in Heilongjiang province urged local 
officials to ``strengthen strikes'' against ``unlawful 
religious activities,'' and expressed concern that ``illegal 
Buddhist meetings have not stopped despite repeated attempts to 
ban them.'' \69\ Officials also warned that some residents had 
opened their homes to ``traveling monks and wild Buddhas'' who 
gave unauthorized teachings and some of whom ``spread feudal 
superstitions.'' \70\ Party officials in Gansu province 
cautioned cadres against ``indulging'' or being ``softhearted'' 
toward those engaged in illegal religious activities and 
insisted that action must be taken to stop the ``chaotic'' 
construction of unauthorized Buddhist temples and sacred 
statues.\71\ Official reports indicate that a concerted effort 
is underway to clamp down on unregistered Buddhist temples and 
meeting sites in Jiangxi province.\72\ For example, officials 
in Jiangxi's Ningdu county authorized ``special disciplinary 
work'' in order to rein in unregistered Buddhist temples. As of 
December 2008, 25 unregistered temples had been forcibly 
merged, 68 had been forcibly closed, 56 had been forcibly 
converted to non-religious use, and 3 had been demolished as a 
result of the crackdown.\73\ The government continues to 
enforce a ban against at least one Buddhist group that it has 
designated a ``cult organization'': a Taiwan-based sect known 
as the Quan Yin Method (Guanyin Famen).\74\ The 6-10 Office, an 
extralegal Party-run security force that suppresses banned 
religious groups, has stepped up efforts in some provinces to 
gather intelligence on Guanyin Famen and curb its spread.\75\ 
In June 2009, local media in Zhangye city, Gansu province, 
reported that authorities there detained six members of Guanyin 
Famen during the first six months of 2009.\76\

                            TIBETAN BUDDHISM

    Chinese Government and Communist Party interference with 
the norms of Tibetan Buddhism and unremitting antagonism toward 
the Dalai Lama, key factors underlying the March 2008 eruption 
of Tibetan protest, continued to deepen Tibetan resentment and 
fuel additional Tibetan protests during the Commission's 2009 
reporting year. The government and Party used institutional, 
educational, legal, and propaganda channels to pressure Tibetan 
Buddhists to modify their religious views and aspirations. 
Officials adopted a more assertive tone in expressing 
determination to select the next Dalai Lama, and to pressure 
Tibetans living in China to accept only a Dalai Lama approved 
by the Chinese Government. Escalating government efforts to 
discredit the Dalai Lama and to transform Tibetan Buddhism into 
a doctrine that promotes government positions and policy have 
resulted instead in continuing Tibetan demands for freedom of 
religion and the Dalai Lama's return to Tibet. [For more 
information, see Section V--Tibet.]

                              CATHOLICISM

    The government seeks to control Chinese Catholics through 
mandatory registration with the Catholic Patriotic Association 
(CPA), a state-controlled entity established to monitor and 
direct Catholic doctrines and practice and manage Catholic 
property and personnel. The CPA denies members of registered 
churches the freedom to pursue full communion and free 
communications with the Holy See and other Catholic 
institutions outside of China, and security forces regularly 
harass Catholics who resist CPA control. Since the 1950s, the 
government has prohibited traditional episcopal consecrations 
and insisted that the Holy See lacks authority to select 
Chinese bishops.\77\ In 2009, the Commission observed ongoing 
harassment and detention of unregistered bishops, priests, and 
lay Catholics in China, as well as enduring tensions between 
the Holy See and the government over the scope of papal 
authority in China.

Controlling Catholics in Shaanxi and Hebei provinces

    In the past year, authorities in Shaanxi and Hebei, the two 
provinces with the highest concentration of Catholics, have 
engaged in campaigns to suppress the activities of unregistered 
Catholics and to coerce unregistered clergy to accept CPA 
control over their communities.\78\ An official report from the 
Web site of the Shaanxi Ethnic and Religious Affairs Commission 
in January 2009 outlines 
details of an ongoing crackdown that has led to the ``dramatic 
weakening of underground Catholic forces.'' The report 
described the formation of a ``Catholic work leading group'' 
that had ``effectively driven'' the provincial effort to 
control Catholics in accordance with a nationwide campaign that 
began in 1999.\79\ In the past decade, Shaanxi has ``greatly 
strengthened the construction of patriotic organizations'' and 
now counts 44 CPA branches throughout the province.\80\ The 
Shaanxi report underscores the progress the government has 
achieved in suppressing unregistered Catholics through using 
coercive tactics:

        [We] have carried out comprehensive management of 
        underground Catholic forces, and adopted measures to 
        capture, beat, and suppress core members. We have 
        forcefully struck against illegal activities, 
        frightened core members of the underground forces, and 
        driven a segment of the underground priests to 
        experience a relatively significant ideological 
        conversion, which has brought about obvious changes. In 
        five parishes within our province that previously fell 
        under the control or influence of underground forces, 
        political power has been seized by the patriotic 
        forces, 90 percent of Catholic laity has eventually 
        taken the road of loving the motherland and loving the 
        church, and the patriotic forces have been greatly 
        strengthened.\81\

    The Shaanxi report also indicates that some unregistered 
priests and bishops relented under sustained government 
pressure to undergo ``transformation.'' One such crackdown 
reportedly yielded the ``transformation'' of 13 unregistered 
priests, and more than 10 other priests achieved ``new heights 
of ideological awareness.'' \82\ Shaanxi authorities also note 
that the ``transformation through reeducation'' of an 
unregistered bishop named Li Jingfeng was ``still being 
handled,'' while the ``illegal activities'' of another bishop, 
Yu Chengti, had been ``effectively contained.'' \83\ Shaanxi 
authorities detained unregistered Bishop Wu Qinjing of the 
Zhouzhi diocese in March 2007, and his whereabouts still are 
unknown.\84\ Foreign media and Chinese Government reports 
suggest that public security forces in Hebei province, in 
coordination with the CPA, have engaged in a multi-month 
campaign targeting unregistered priests and bishops in 2009 and 
stepped up ``guidance work'' for registered Catholic churches. 
At least one-quarter of China's Catholic population resides in 
Hebei, the ``seat of the underground church.'' \85\ On March 
24, Hebei public security officials detained Ma Shengbao, an 
unregistered priest, and his current whereabouts remain 
unknown.\86\ The campaign reportedly has resulted in the 
detention of 20 unregistered Catholic parishioners and 2 
priests who organized demonstrations protesting the 
imprisonment of Bishop Yao Liang.\87\ In December 2008, Chen 
Huixin, Hebei's top religious affairs official, warned local 
officials that their management of ``churches controlled by the 
underground Catholic forces'' had become ``soft,'' ``lenient,'' 
and ``fallen short of the desired goal.'' \88\ In response, 
Chen urged authorities to ``strengthen management awareness, 
measures, and mechanisms.'' \89\ In April 2009, Wang Xuhong, 
Secretary General of the Hebei United Front Work Department 
(UFWD), inspected registered Catholic churches and met with 
clergy in Wu'an city. While praising Catholics for various 
charity activities, Wang reminded clergy that ``Catholicism 
surely must merge into society, conform to China's national 
conditions, and construct a harmonious church. Only in this way 
will Catholicism enjoy better development.'' \90\ In October 
and November 2008, a series of Party meetings in Hebei 
concluded that authorities must ``strengthen standard 
management of Catholic seminaries, monasteries, and 
nunneries.'' \91\

Harassment, detention, and ``transformation''

    Chinese Catholics who express their faithfulness to the 
Holy See by refusing to join the state-controlled church, as 
well as those affiliated with registered parishes that run 
afoul of the Communist Party's policies, remain subject to 
harassment, arbitrary detention, and imprisonment. Unregistered 
bishops are particularly vulnerable to government persecution. 
In 2009, at least 40 unregistered Chinese bishops were either 
detained, under home confinement, under surveillance, in 
hiding, or had disappeared under suspicious circumstances.\92\ 
The government has provided no information about the condition 
or whereabouts of some unregistered bishops whom it has 
detained for years, such as Su Zhimin and Shi Enxiang.\93\ In 
March 2009, security officials forcibly removed Bishop Jia 
Zhiguo from his living quarters and took him to an undisclosed 
detention facility.\94\ Bishop Jia, the 74-year-old 
unregistered bishop of Hebei province's Zhengding diocese, 
previously served two decades in prison, and since 2003, 
authorities have detained him numerous times and kept him under 
strict surveillance when not detaining him.\95\ Authorities 
also took into custody Father Paul Ma, a 55-year-old priest 
from a nearby Catholic village called Donglu, for celebrating 
the Eucharist with unregistered Catholics.\96\ The mayor of 
Xiangong township in Shaanxi province invited Father Gao 
Jianli, a priest from the Fengxiang county diocese, to a 
meeting at his office in March 2009 to discuss a land 
dispute involving confiscated church property.\97\ When the 
priest arrived at the mayor's office, two men locked him in the 
office and beat him to the point that he required 
hospitalization.\98\
    In the past year, government officials continued to disrupt 
and obstruct pilgrimage to the Sheshan Marian shrine in 
Shanghai. In December 2008, the Longwan District Party 
Committee in Wenzhou city, Zhejiang province, reported that the 
religious affairs bureau had established a ``special work 
group'' for monitoring Catholics and maintaining ``stability 
and control'' during the May pilgrimage season.\99\ The Longwan 
report indicates that authorities ``diverted 108 pilgrims 
through persuasion,'' ``dispersed'' 20 others, and 
``dissuaded'' 247 from undertaking the pilgrimage.\100\ Zhang 
Jianlin and Zhang Li, two priests who were taken into custody 
in Hebei province as they traveled to Sheshan in May 2008, are 
believed to remain in detention more than a year later.\101\
    In 2008 and 2009, Party and government authorities 
continued to characterize unregistered Catholics as a threat to 
``social stability,'' and in some cases, called for security 
officials to ``strike against'' and ``transform'' unregistered 
communities.\102\ In September 2008, an official report from 
Fuzhou city, Jiangxi province, emphasized the need to 
``transform'' and ``expand the patriotism'' of ``underground 
Catholic forces'' as a top priority for the Party's United 
Front Work Department (UFWD).\103\ The Fuzhou report describes 
``underground Catholic forces'' as exerting a ``severe negative 
impact on social stability.'' \104\ An April 2009 report from 
the head of the Jiangxi Ethnic and Religious Affairs Bureau 
makes clear that Fuzhou city is representative of a larger 
phenomenon, noting that authorities ``have continually launched 
transformation through reeducation of underground Catholic 
forces for many years throughout the province.'' \105\ Also in 
April, Dalian Medical University posted a notice from the 
Liaoning provincial UFWD calling for authorities to 
``aggressively launch transformation through reeducation of 
underground Catholic forces.'' \106\ In 2008, a county UFWD 
office in Wenzhou city, Zhejiang province, was given an award 
for ``striking against . . . underground Catholic forces'' and 
``steadily pushing forward with transformation through 
reeducation.'' \107\ In Henan province, the Sheqi county UFWD's 
tasks for 2009 included ``transformation through reeducation of 
underground Catholic forces'' and increasing local security to 
prevent ``infiltration by foreign religious forces.'' \108\
    Intelligence gathering and surveillance of Catholic 
communities is widespread in China. Many Chinese Catholics 
report that government agents have infiltrated both 
unregistered and Catholic Patriotic Association (CPA) churches, 
and that they attempt to foment internal strife as a means of 
inhibiting Church unity and growth.\109\ In December 2008, the 
Ministry of Public Security posted a ``heroic life story'' of 
an officer in Chongqing municipality named Wang Shuncai who was 
lauded for ``throwing himself into the task'' of penetrating 
and spying on religious groups.\110\ Wang was recognized for 
``capturing'' an important unregistered bishop three times and 
contributing to his eventual ``transformation through 
reeducation.'' \111\ Wang conducted undercover stings against 
religious groups in at least six districts in Chongqing and 
traveled to Yunnan and Guizhou provinces to work on similar 
cases. Wang is also credited with having cracked three 
significant cases by ``directing secret forces'' that gathered 
``behind the scenes, early warning intelligence.'' \112\ In 
April 2009, the aforementioned Sheqi county report instructs 
UFWD cadres to carry out intelligence activities against 
unregistered Catholics in order to ``get a clear idea of the 
situation and ferret out the truth.'' \113\

Bishop appointments, relations with Rome, politicizing Catholic faith

    The state-controlled Catholic Patriotic Association (CPA) 
exercises control over bishop ordination for the registered 
Chinese Catholic church, including through coercion of bishops 
to officiate ordinations.\114\ In recent years, the government 
has tolerated 
discreet papal involvement in the selection of some bishops, 
but without changing its insistence that the Chinese church 
must be ``independent, autonomous, and self-managed.'' \115\ In 
December 2008, the CPA co-hosted a celebration to commemorate 
50 years of ``self-elected, self-ordained'' bishops, which 
featured a speech by Du Qinglin, the head of the Party Central 
Committee's UFWD.\116\ Du stressed that ``insisting on running 
the affairs of the church in an independent way is an 
inevitable path for the Chinese Catholic Church to adapt itself 
to socialist society,'' and reminded CPA officials that it is 
``necessary to put the scientific development concept in 
command of religious affairs'' and ``work hard to stimulate the 
patriotism of religious personages and believers.'' \117\ Some 
CPA-registered bishops who received tacit papal approval are 
under 
increased government pressure to publicly support the Party's 
policies. Bishop Li Shan of the registered Beijing diocese, who 
was previously friendly toward the unregistered church and 
faithful to the Pope, has incorporated CPA policy slogans such 
as ``loving the motherland, loving the Church'' and warnings 
against infiltration by ``foreign states'' in speeches 
following his September 2007 ordination.\118\ Bishop Li 
reportedly expressed regret for these speeches, one of which 
was given under conditions of duress in front of top Chinese 
Government and Communist Party officials on Christmas Eve 
2008.\119\ In 2009, Pope Benedict XVI reiterated his call for 
reconciliation between unregistered and registered Chinese 
Catholic bishops, and the Chinese Government continued a 
decade-long pattern of acting to undermine reconciliation that 
does not occur on CPA-dictated terms.\120\ The detention of 
unregistered Bishop Jia Zhiguo in March reportedly was linked 
to the CPA's displeasure at a Vatican-brokered reconciliation 
agreement between Bishop Jia and Jiang Taoran, the bishop of 
the registered Shijiazhuang diocese.\121\ Authorities in 
Shaanxi province also described cooperation between CPA bishop 
Yu Runchen and unregistered bishop Yu Chengti as an 
``intensification of foreign infiltration'' that played a role 
in the ``ideological backsliding'' of some clergy.\122\ No 
papal involvement in bishop selection occurred during the 
Commission's 2009 reporting year and no progress was made 
toward establishing formal diplomatic relations between the PRC 
and the Vatican.

                               FALUN GONG

    Since July 1999, the Chinese Government and Communist Party 
have designated Falun Gong an illegal ``cult organization'' and 
implemented a ``strike hard'' campaign of suppression against 
it--the scope and intensity of which have been unrivaled in the 
seven years since the Commission began its work. 2009 marked 
the 10th anniversary of the government's formal ban on Falun 
Gong, a spiritual movement based on the teachings of its 
founder, Li Hongzhi, and Chinese meditative exercises called 
qigong. Viewing the 10th anniversary as sensitive, the central 
government held fast in 2009 with its 2008 pre-Olympics efforts 
to ferret out and punish Falun Gong practitioners. Authorities 
conducted propaganda campaigns that deride Falun Gong, carried 
out strict surveillance of practitioners, detained and 
imprisoned large numbers of practitioners, and subjected some 
who refuse to disavow Falun Gong to torture and other abuses in 
reeducation through labor facilities. International media and 
Falun Gong sources also reported deaths of practitioners in 
Chinese police custody in 2008 and 2009.

``Strike hard'' directives and ``sensitive'' anniversaries

    The high priority that Party leaders place on the 
``struggle'' against Falun Gong was demonstrated by its 
inclusion as a principal target for a ``strike hard'' campaign 
in a directive that set the agenda for public security bureaus 
(PSB) nationwide this year.\123\ In February 2009, the Central 
Committee on the Comprehensive Management of Public Security 
circulated a directive that urged PSB forces to ``closely watch 
out for and strike hard against . . . infiltration, subversion, 
and sabotage by `Falun Gong.' '' \124\ In November 2008, the 
People's Daily reported that the Communist Party Secretary of 
Weifang municipality in Shandong province--a city where police 
tortured at least 12 Falun Gong practitioners to death in 2000 
and where more than 60,000 were estimated to reside before the 
ban\125\--urged Party cadres not to relent in the crackdown: 
``we must not loosen our hold on the struggle with `Falun Gong' 
in the slightest way. [Officials] at all levels must firmly 
grasp the objectives, go a step further to intensify measures, 
increase the force . . . make great efforts to carry out deep 
strikes against `Falun Gong' . . . [and] maintain a state of 
high pressure from the beginning to end.'' \126\ In May 2009, 
Gaoyou city in Jiangsu province issued an ``implementation 
plan'' that aimed to ``raise the people's understanding and 
support for the work of disposing of the `Falun Gong' problem . 
. . [in order to] resolutely stop the spread of `Falun Gong.' 
'' \127\ A lecturer at the Jilin Provincial Public Security 
Bureau Academy recently described the ``anti-cult struggle'' as 
an ``unrelenting protracted war,'' and reiterated the 
government's ``determination'' to ``thoroughly eliminate the 
cult cancer.'' \128\ The Wanquan County PSB in Hubei province 
reported plans in May to ``forcefully strike against `Falun 
Gong' diehard elements'' by ``strengthening patrols, forming a 
tight network of control, obtaining deep, behind-the-scenes 
intelligence, and getting to the point that we know when the 
enemy will move, before the enemy can move.'' \129\
    Chinese authorities placed the anti-Falun Gong campaign 
prominently on the agenda of a special public security 
taskforce called ``Project 6521,'' which reportedly was 
established to maintain ``social stability'' during four 
sensitive anniversaries in 2009, including the 10th anniversary 
of the April 25 Falun Gong silent demonstration near the Party 
leadership compound in Beijing.\130\ District officials in 
Guiyang city, Guizhou province, reported on ``deployment 
arrangements'' taken to implement two ``monitoring and control 
measures'' during the 10th anniversary of the April 25 Falun 
Gong protest: (1) ``take strict precautions to prevent `Falun 
Gong' from conducting illegal activities and putting up posters 
and distributing propaganda materials''; and (2) ``local police 
stations, community neighborhood committees, and public work 
units must strengthen efforts to root out and strike against 
Falun Gong . . . and in a fundamental way, eliminate hidden 
dangers.'' \131\ In Shanghai's Nanhui district, Party officials 
called an ``emergency meeting'' to focus on the ``April 25 
period,'' urging police and government 
officials to ``sharpen their vigilance'' and ``strengthen 
coordinated warfare'' against Falun Gong.\132\ In Tianjin 
municipality, officials increased police patrols and 
intelligence gathering focused on Falun Gong practitioners 
during the 20th anniversary of the violent suppression of the 
1989 Tiananmen protests.\133\

The 6-10 office

    In the past year, the 6-10 Office--an extralegal, Party-run 
security apparatus created in June 1999 to implement the ban 
against Falun Gong--continued to consolidate its central role 
in all aspects of the nationwide ``anti-cult'' campaign. A June 
2009 official report from Henan province summarizes the role of 
the Chenxi County 6-10 Office as ``taking charge of the 
supervision, inspection, direction, coordination, and 
implementation of the entire county's anti-cult work.'' \134\ 
The duties of the secretariat of the 6-10 Office include 
``taking responsibility for protecting secrets'' and 
``supervising and solving special investigations and 
coordinating the work of striking against and disposing of 
[Falun Gong].'' \135\ In December 2008, Li Xiaodong, the head 
of the central 6-10 Office, visited Siyang county in Jiangsu 
province for an inspection and told local officials: ``As for 
the cult problem, the Ethnic and Religious Affairs Bureau must 
vigorously cooperate with judicial offices in conducting 
strikes; as soon as you discover a group, simply attack it, as 
soon as it shows its head, hit it right away, you must never be 
softhearted.'' \136\ The 6-10 Office in Jiangsu's Suzhou city 
conducted ``spot checks'' in December on community and school 
``no-cult'' projects in the Canglang district.\137\ Officials 
noted how the Canglang Party Committee and government ``attach 
a high degree of importance'' to the 6-10 Office's work and 
that it had received a ``full guarantee'' of funding and 
personnel.\138\
    The 6-10 Office and public security bureaus throughout 
China surveilled and monitored communities, residences, and 
workplaces in order to identify and isolate Falun Gong 
adherents. In May 2009, the Qidong city 6-10 Office in Jiangsu 
province conducted an ``investigation to get to the bottom of 
the situation involving cults,'' which identified 176 Falun 
Gong practitioners living in one township.\139\ In October 
2008, Linxiang city in Hunan province gave credit to its ``24-
hour control and monitoring line of vision'' for 
allowing authorities to ``thoroughly suppress'' two Falun Gong 
incidents.\140\ In June 2008, Xuanwei city authorities in 
Yunnan province called for strengthened patrols, greater use of 
plainclothes 
officers, and closer cooperation between public security forces 
and residential committees in order to ``thoroughly shatter'' 
Falun Gong.\141\ Xuanwei authorities also authorized a 
``powerful political offensive'' in all villages and 
neighborhoods involving mandatory resident participation in a 
propaganda campaign to ``effectively frighten'' Falun 
Gong.\142\ In Shandong province's Huimin county, a 2008 
workplan for ``implementing concentrated rectification'' of 
Falun Gong requires various agencies to investigate all 
religious personnel within their jurisdiction for involvement 
with ``cult organizations.'' \143\ In March 2009, the head of 
the Shashi District 6-10 Office in Jingzhou city, Hubei 
province, during an inspection of sub-district offices, called 
on officials to ``reinforce monitoring and control of `Falun 
Gong' practitioners.'' \144\ In June 2009, Jiujiang city 
officials in Jiangxi province described a surveillance system 
focused on a group of 829 ``key figures,'' composed primarily 
of former Falun Gong prisoners.\145\ In July, authorities in 
Shandong province's Zibo city placed nine practitioners under a 
``system of 24-hour monitoring and control.'' \146\
    Identification and monitoring of Falun Gong practitioners 
is also accomplished through the 6-10 Office's cultivation of 
paid informants. The aforementioned circular from Xuanwei city 
offered a reward of 10,000 yuan (US$1,464) for each Falun Gong 
practitioner who is captured distributing ``reactionary 
propaganda'' and 5,000 yuan (US$732) for informants who 
``provide clues to crack a case.'' \147\ In March 2009, Linzi 
district in Shandong's Zibo city unveiled a reward system for 
citizen reports of Falun Gong activities.\148\ The 6-10 Office 
in Liuyang, a county-level city under Hunan province's Changsha 
municipality, launched a 24-hour hotline for informants in 
March and announced rewards of between 50 and 1,000 yuan (US$7 
and US$146).\149\ In April 2009, the Liuyang 6-10 Office issued 
an open letter that called for residents to ``resolutely resist 
cults'' and promised an ``appropriate material reward'' to 
those who ``courageously report cult behavior.'' \150\ The 
Wangcang County Communist Party Committee and government in 
Sichuan province issued a joint letter in April to rural 
residents that outlined the ``severe danger'' posed by Falun 
Gong, provided residents with a ``cult'' hotline, and 
guaranteed rewards for informants.\151\ Authorities in Anhui 
province's Bengbu city credited an informant's call for 
facilitating the capture of a 50-year-old disabled Falun Gong 
practitioner named Yu Xiaoping who was distributing 
leaflets.\152\
    The 6-10 Office focuses on public schools and universities 
as venues for spreading its ``anti-cult'' message. In May 2009, 
the Xinjiang Agricultural University initiated a 10-month 
campaign to ``build a durable ideological line of defense'' to 
``guard against and resist'' possible ``sabotage and 
infiltration'' by Falun Gong.\153\ In June, students and 
teachers from middle schools all across Panji district in 
Anhui's Huainan city participated in a ``surge of anti-cult 
education'' that ``raised their political consciousness.'' 
\154\ In July, elementary school students in Leshan city, 
Sichuan province, attended a ``lively'' speech from the local 
Party secretary and viewed an ``anti-cult warning film.'' The 
principal instructed students to study ``anti-cult'' materials 
during the summer, take notes or write a comic book to 
illustrate lessons learned, and return a form with a parent's 
signature to verify completion of the assignment.\155\

Detention, abuse, and death in custody

    Chinese authorities continue to employ an extrajudicial 
system of incarceration known as ``reeducation through labor'' 
(RTL) to punish multitudes of Falun Gong practitioners. Public 
security officials may order citizens who are suspected of 
minor criminal or political offenses to serve up to three years 
of RTL without establishing their guilt before a court.\156\ 
According to one scholar, authorities have ``maximized'' the 
RTL system as an ``instrument for political control'' over 
Falun Gong.\157\ In 2008, the Beijing Women's RTL Center 
reportedly held 700 Falun Gong practitioners compared to only 
140 prisoners accused of other crimes.\158\ In February 2009, 
more than half of 13 former RTL inmates interviewed for one 
study--none of whom were practitioners--noted that Falun Gong 
constituted one of the largest groups of RTL prisoners and that 
they are singled out for harsh treatment.\159\
    As security intensified ahead of the 10th anniversary of 
the ban, the ``strike hard'' campaign resulted in widespread 
detentions and imprisonment of Falun Gong practitioners. In the 
first half of 2008, Harbin municipality authorities in 
Heilongjiang province placed 53 Falun Gong practitioners in 
criminal detention, 23 in administrative detention, formally 
arrested 23, and ordered 19 to serve RTL.\160\ In November 
2008, Nanning municipality authorities in the Guangxi Zhuang 
Autonomous Region reported that they had taken 36 Falun Gong 
practitioners into custody, formally arrested 10, held 15 in 
administrative detention, and sent 3 to RTL.\161\ In December 
2008, authorities in Pingjiang county, Hunan province, detained 
two Falun Gong ``core elements'' and ``destroyed'' an 
underground printing operation as part of a workplan to 
``ruthlessly strike against'' Falun Gong.\162\ In February 
2009, Dazhou municipality in Sichuan province disclosed that 
public security officials had detained 114 practitioners and 
``destroyed'' 11 Falun Gong ``gangs'' and 17 ``underground 
nests'' in three years.\163\ Huai'an city officials in Jiangsu 
province noted that they had ``cracked'' more than 20 cases in 
the first half of 2009 that resulted in Falun Gong 
detentions.\164\
    In addition to forced labor, RTL for Falun Gong 
practitioners involves a process known as ``transformation'' 
whereby they are subjected to various methods of physical and 
psychological coercion until they recant belief in Falun 
Gong.\165\ In January 2009, Sichuan Provincial Party leaders 
inspected the Xinhua RTL center where 42 male Falun Gong 
practitioners were detained. RTL 
authorities told Party leaders that their ``unique model of 
transformation'' had recently succeeded in reforming a group of 

``die-hard'' practitioners.\166\ In June 2009, the Inner 
Mongolia Autonomous Region Justice Bureau described the Hohhot 
Women's RTL Center as a ``main battlefield'' in the 
``struggle'' against Falun Gong, where a total of 518 
practitioners had been ``transformed.'' \167\ The Assistant 
Director of the Jiangxi Provincial RTL Management Bureau 
pressed his subordinates to ``increase awareness of the 
importance of this particular year to our transformation work 
and understand the urgency of overcoming the current low rate 
of transformation.'' \168\ In July 2009, Party leaders in 
Heilongjiang's Tailai county redoubled their efforts to 
``transform'' one local practitioner who was reportedly the 
sole holdout among 212 others who had already ``thoroughly 
transformed.'' \169\
    Cases of torture and death of Falun Gong practitioners in 
official custody, both confirmed and alleged, continued to 
surface in the past year. Amnesty International reported that 
over 100 practitioners died in detention or shortly after 
release in 2008 as a result of torture or other forms of 
mistreatment.\170\ In February 2008, a popular musician and 
Falun Gong practitioner named Yu Zhou died in Beijing police 
custody 11 days after he and his wife were detained. 
Authorities refused to allow an autopsy and Yu's family 
suspects that he was beaten to death.\171\ In March 2009, a 
public security officer at the Shibei District Liaoyuan Road 
PSB station in Qingdao reportedly beat Lu Xueqin, a Falun Gong 
practitioner, for nine days until she was permanently paralyzed 
from the waist down.\172\ In July 2009, a 45-year-old 
practitioner named Yang Guiquan was reportedly declared dead 
upon arrival at the Fuxin City Mining Corporation General 
Hospital in Liaoning province after being held for 16 days by 
police and reportedly beaten with electric batons and force-
fed.\173\

Harassment of attorneys, court irregularities, coerced confessions

    In the past year, security officials in southwest China 
reportedly assaulted attorneys who attempted to defend Falun 
Gong clients facing charges in China's judicial system. On 
April 13, 2009, public security agents in the capital of 
Sichuan province intercepted and beat Beijing-based lawyer 
Cheng Hai as he was traveling to meet the mother of a Falun 
Gong client. The agents reportedly kicked and punched Cheng for 
agreeing to defend Tao Yuan, a Falun Gong practitioner who was 
seeking medical parole from Chengdu municipality's Hanyuan 
Prison.\174\ On May 13, 2009, more than 20 officers from the 
Jiangjin District Public Security Bureau (PSB) in Chongqing 
municipality reportedly physically assaulted attorneys Li 
Chunfu and Zhang Kai at the home of Jiang Xiqing, a Falun Gong 
practitioner whose death in custody they were 
investigating.\175\ Officers took Li and Zhang to the PSB where 
they hung them inside iron cages, interrogated, and beat them. 
Police reportedly told Li and Zhang that ``you absolutely 
cannot defend Falun Gong; this is the situation in China.'' 
\176\
    The Chinese Government's harsh treatment of lawyers who 
defend Falun Gong has been most severe in the case of Gao 
Zhisheng, a prominent human rights attorney who was last seen 
being forcibly taken from his hometown by public security 
officials on February 4, 2009.\177\ When public security 
officials abducted Gao in September 2007, Gao was tortured in a 
secret location outside Beijing for more than 50 days.\178\ 
Gao's account of the abduction describes how he was repeatedly 
struck with electric batons all over his body, including his 
genitals, and subjected to other forms of torture. Gao recounts 
how his tormentors admitted that Falun Gong practitioners were 
indeed tortured as Gao had previously alleged: ``you are not 
incorrect in saying that we torture Falun Gong followers. 
That's right, we do. The 12 courses we're serving you were 
perfected on the Falun Gong followers.'' \179\ Gao was also 
warned that he would be killed if he told anyone about being 
abducted and tortured.\180\ He has not been seen since 
February. [See Section II--Criminal Justice--The Disappearance 
of Gao Zhisheng.]
    In 2009, authorities in northeastern China reportedly 
detained at least four attorneys on account of their defense of 
Falun Gong clients. In Harbin city, the capital of Heilongjiang 
province, authorities detained attorney Wei Liangyue and his 
wife in February. Public security officials reportedly ordered 
Wei to serve one and one-half years of reeducation through 
labor for meeting with Falun Gong practitioners, which they 
described as ``gathering a crowd to disturb social order.'' 
\181\ In July 2009, security officials abducted two lawyers 
from Shandong province because of their involvement in Falun 
Gong cases. On July 2, Jinan city officials detained Liu Ruping 
outside of his residence and took him to an undisclosed 
detention facility. Six days later, police in Pingdu city 
reportedly detained Wang Ping, an attorney with the 
Tianzhenping Law Firm.\182\ On July 4, plainclothes officers 
raided the home of Wang Yonghang, a lawyer in Dalian city, 
Liaoning province. Police detained both Wang and his wife, and 
while she was released, Wang remains in custody.\183\
    In cases where authorities did not physically assault or 
detain attorneys who defend Falun Gong, officials often 
harassed and intimidated them. The government sought to silence 
Chinese human rights lawyers, many of whom have defended Falun 
Gong practitioners, by threatening de facto disbarment through 
the refusal to renew their licenses to practice. In May 2009, 
authorities contacted senior partners at nine law firms and 
demanded that they refrain from submitting license renewal 
applications for certain attorneys or deliberately submit 
incomplete applications that could be turned down on technical 
grounds.\184\ In four cases, authorities advised that certain 
lawyers should receive poor marks in their annual performance 
evaluations, which would be used as a pretense to disbar 
them.\185\ As of early September 2009, the government has used 
the normally routine process of ``annual assessment and 
registration'' to revoke the licenses of at least 21 rights 
lawyers.\186\ The government also obstructed Falun Gong 
practitioners' access to legal defense when it forced the 
Beijing Yitong Law Firm to close for six months in March 2009, 
largely on account of its role in human rights cases, including 
on behalf of Falun Gong practitioners.\187\ [For more 
information, see Section III--Access to Justice.]
    In the past year, trials of Falun Gong practitioners 
continued to display procedural irregularities and violations, 
while justice bureaus took actions that subverted ordinary 
legal protections. In 
October 2008, the Wuhou District People's Court in Chengdu, the 
capital of Sichuan province, sentenced 11 Falun Gong 
practitioners to between three and seven years in prison. The 
court reportedly barred family members from attending the trial 
and prohibited the defendants' lawyers from speaking.\188\ More 
than 15 lawyers joined together to appeal the ruling, but the 
appeals court attempted to obstruct their access to court 
records.\189\ The Harbin Municipal Justice Bureau issued a 
directive in October requiring attorneys who defend Falun Gong 
practitioners to report to and receive pre-trial ``guidance'' 
from the government-controlled lawyers association.\190\ In 
January 2009, lawyers for two practitioners on trial at the 
Shashi District People's Court in Jingzhou city, Hubei 
province, alleged that torture was used to extort the 
defendants' confessions and complained that the court 
repeatedly interrupted the defense counsel's statements and 
prevented them from finishing questioning.\191\ In February 
2009, the Shenyang Municipal Justice Bureau in Liaoning 
province ordered several attorneys who had 
prepared a not-guilty defense on behalf of six Falun Gong 
practitioners to either withdraw from the case or cooperate 
with authorities, and threatened to not renew their licenses if 
they failed to comply.\192\ In March, during the trial of 12 
practitioners in the Shibei District People's Court in Qingdao 
city, Shandong province, the defendants' counsel objected to 
the court proceedings because of unlawful procedural violations 
committed by the court and procuratorate, and alleged that 
authorities used torture to extort confessions from 
defendants.\193\
    The Party's 6-10 Office reportedly has interfered in the 
adjudication of Falun Gong cases. In November 2008, defense 
lawyers for two practitioners on trial at the Jiguan District 
People's Court in Jixi city, Heilongjiang province, challenged 
the court's independence when the presiding judge was seen 
meeting with 6-10 Office agents during a court recess.\194\ In 
February 2009, the Xi'an District People's Court in Liaoyuan 
city, Jilin province, reported that when preparing for a trial 
involving Falun Gong and other ``cult organizations,'' the 
court must first ``petition'' the municipal 6-10 Office, and 
only after receiving an affirmative response is the court then 
permitted to hear the case.\195\ A document that appears to be 
a ``secret'' directive dated February 10, 2009, from the 6-10 
Office in Shenyang city, the capital of Liaoning province, 
surfaced on a U.S.-based Chinese-language news Web site in 
March. Among other things, the directive mandates that the 6-10 
Office should ``dispatch personnel to audit court proceedings 
of `Falun Gong' cases and assist with managing sudden 
incidents.'' \196\

                                 ISLAM

    Conditions for religious freedom for Muslims in the 
Xinjiang Uyghur Autonomous Region (XUAR) deteriorated in the 
past year, and authorities maintained tight controls over the 
practice of Islam across China. Muslims throughout China faced 
state controls over activities including the interpretation of 
theology, the content of sermons, the training of religious 
leaders, and the freedom to make overseas pilgrimages.\197\ 
Inside the XUAR, religious repression increased as authorities 
implemented harsher controls over religion as part of broader 
efforts in the XUAR to strengthen security and guard against 
perceived threats to stability. [See Islam in the Xinjiang 
Uyghur Autonomous Region in this section and Section IV--
Xinjiang for more information.]
    Authorities continued efforts to align aspects of Islamic 
practice in China to government and Communist Party policy. An 
official from the Islamic Association of China (IAC), the 
state-controlled organization that, along with local branches, 
controls Islamic practice in China, reported in December 2008 
that the IAC had begun to establish a corps of liaisons within 
each province to deal with matters involving the interpretation 
of religious texts,\198\ a measure which builds on longstanding 
IAC work to compile sermons and religious texts consistent with 
government policy.\199\ A May 2009 report on an IAC Standing 
Committee meeting described plans to launch activities in 2009 
to promote the ``establishment of harmonious mosques,'' in 
order for Muslim circles to ``better improve their quality'' 
and contribute to political objectives including China's 
economic and social development.\200\ Authorities expressed 
concern about aspects of Islamic practice deemed incompatible 
with government and Party goals. A government report from 
Qinghai province expressed concern that some people with 
``backward, conservative religious viewpoints'' were 
challenging the authority of the democratic management 
committees formed within registered mosques.\201\ Muslim 
religious leaders throughout China remained subject to 
government- and Party-led political training classes.\202\ For 
example, in April 2009, a district in Beijing described 
enhancing efforts to train young Muslim religious leaders to 
build a ``politically reliable'' corps of such leaders.\203\ In 
the aftermath of the forceful police suppression of a 
demonstration held by Uyghurs in the XUAR capital of Urumqi on 
July 5, and outbreaks of violence in the region starting that 
day--events Chinese authorities cast as a ``riot'' and blamed 
on U.S.-based Uyghur rights advocate Rebiya Kadeer and the 
``three forces'' of terrorism, separatism, and religious 
extremism\204\--Islamic associations in China reported 
spreading Party policy on the incidents.\205\ [See Section IV--
Xinjiang, for more information on the July 5 demonstration and 
related events.]
    Chinese authorities continued to maintain restrictions on 
Muslims' freedom to carry out pilgrimages to Mecca, Saudi 
Arabia. Authorities allow Muslims to undertake trips only under 
the auspices of official groups that impose political 
requirements on participants.\206\ An official from the IAC 
said that the IAC had made progress in curbing unauthorized 
pilgrimages in 2008.\207\ [See below for details on pilgrimage 
restrictions in the XUAR.]

Islam in the Xinjiang Uyghur Autonomous Region

    Conditions for religious freedom for Muslims in the 
Xinjiang Uyghur Autonomous Region (XUAR) deteriorated in the 
past year. Authorities continued to identify ``religious 
extremism'' and ``illegal religious activity'' as key threats 
to stability\208\ and took measures to further restrict Islamic 
religious practice in the region. Government authorities 
defined ``religious extremism'' and ``illegal religious 
activity'' to encompass religious practices, group 
affiliations, and viewpoints protected under international 
human rights guarantees for freedom of religion, expression, 
and association that the Chinese Government is bound to 
uphold.\209\ Authorities tightened controls over Islam as part 
of broader campaigns in the XUAR in the past year to strengthen 
security and guard against perceived threats to stability. The 
suppressed demonstration held by Uyghurs in the XUAR capital of 
Urumqi on July 5, 2009, violence in the region starting that 
day, and heavy security measures in the region, drew an 
international spotlight on longstanding government repression 
in the region, including controls over religion. Prior to the 
July 5 demonstration, however, human rights conditions in the 
region, including conditions for religious freedom, had already 
declined throughout the year, maintaining a trend in worsening 
conditions documented by the Commission in its 2008 Annual 
Report. [See Section IV--Xinjiang, for more information.]

Tightened controls over Islam in the XUAR

    Policy statements in late 2008 and 2009 from the XUAR 
government and Communist Party indicated that heightened 
controls over religion, along with other controls implemented 
in the XUAR earlier in 2008, would remain an enduring feature 
within the region and would be further strengthened. In a major 
speech in September 2008, XUAR government chairperson Nur Bekri 
outlined increased measures to ``strike hard'' against 
perceived threats in the region including ``illegal religious 
activity'' and ``religious extremism.'' \210\ He called for 
``increasing the strength of punishment for illegal religious 
activities and curbing, in accordance with law, underground 
activities to teach religion and sermonize.'' \211\ He added 
that ``we must never allow fanatic religious ideas to gain 
ground, nor must we allow religious extremist forces to 
flourish and see success.'' \212\ In March 2009, Nur Bekri 
stated that the region's 
battle against separatism would be ``more severe, the task more 
strenuous, and the conditions for battle more intense,'' 
attributing security threats to ``Western hostile forces'' and 
to the ``three forces'' of terrorism, separatism, and religious 
extremism.\213\ Authorities pledged tighter security measures 
and carried out additional security controls in the aftermath 
of the July 5 demonstration and 
outbreaks of violence in the region starting that day. [See 
Section IV--Xinjiang for additional information.]
    Authorities at various levels of government in the XUAR 
reported throughout the year on taking steps to tighten 
controls over religion and punish ``illegal religious 
activity,'' singling out aspects of Muslim identity and 
practice in particular.\214\ Authorities integrated controls 
over Islam into wide-scale anti-separatism ideological 
campaigns launched throughout the region.\215\ In October 2008, 
XUAR Communist Party Committee Standing Committee member 
Shawket Imin called on Party cadres from the United Front Work 
Department to take measures including strengthening 
``leadership'' and ``education'' of religious people, 
strengthening cultivation and training of religious leaders, 
and curbing unauthorized religious pilgrimages and ``illegal 
religious activities.'' \216\ Steps at the local level include:

        <bullet> In February 2009, the Hoten district 
        government announced plans to implement a series of 
        measures to deal with ``illegal religious activity,'' 
        including by strengthening capacity to ``investigate'' 
        and ``ferret out'' ``illegal'' activity, strengthening 
        oversight of students during vacation periods, and 
        holding open trials to punish ``illegal religious 
        activity'' and demonstrate its consequences to the 
        public.\217\
        <bullet> The same month, an official in Shache (Yeken, 
        Yarkand) county, Kashgar district, outlined measures to 
        deal with ``outstanding'' problems including the 
        discovery of unauthorized 
        religious classes, ``illegal religious activity'' 
        extending across multiple localities, and ``inadequate 
        enthusiasm'' among some religious figures toward 
        contributing to the development of the rural 
        economy.\218\
        <bullet> Authorities in Yining (Ghulja) city, Ili 
        Kazakh Autonomous Prefecture, carried out propaganda 
        education activities to ``weaken religious 
        consciousness and uphold a civilized and healthy life'' 
        among ethnic minority women, young adults, and 
        juveniles.\219\
        <bullet> A March report on steps to expand intelligence 
        information networks in Awat county, Aqsu district, 
        described mobilizing religious leaders and other groups 
        to enhance intelligence 
        collection efforts. According to the report, as a 
        result of intelligence leads, authorities prosecuted 
        cases of underground sermonizing, investigated 
        instances of suspected participation in ``illegal 
        religious activity,'' and stopped one case of 
        ``religious interference into matrimony.'' \220\
        <bullet> Authorities temporarily detained and fined a 
        group of several hundred Uyghurs for worshiping at a 
        shrine outside their home village in March, on the 
        grounds that the gathering constituted illegal ``cross-
        village worship,'' according to information from 
        worshipers and officials provided to Radio Free Asia 
        (RFA).\221\
        <bullet> The Uyghur American Association, drawing on 
        Chinese and other sources, reported on security 
        campaigns in spring 2009 in Kashgar and Hoten 
        districts, including security sweeps and wide-scale 
        detentions, that targeted acts including ``illegal 
        religious activity.'' \222\
        <bullet> In June, RFA reported that in March 2009, the 
        Ili Intermediate People's Court in the Ili Kazakh 
        Autonomous Prefecture gave prison sentences ranging 
        from three years to life to 12 men charged with 
        ``splittism.'' \223\ The charges were connected to 
        their activities teaching religion to children, 
        according to the father of one of the men.\224\ [See 
        box titled Religious Prisoners below for more details.]

    The Commission found several reports indicating government 
and Party oversight of the religious practices and traditions 
of Muslim women, including women who play a prominent role in 
funeral rites and other religious practices. Reports of efforts 
to investigate or reduce the wearing of head scarves and alter 
women's clothing habits continued in this reporting year.\225\ 
For example, a report from Toqsu county, Aqsu district, 
describing ``outstanding problems'' in ``bizarre'' women's 
apparel, said that an expert invited by the Party-controlled 
XUAR Women's Federation provided a ``correct interpretation'' 
of the Quran's views toward women's clothes.\226\ In the past 
year, an official from the XUAR Women's Federation proposed 
bringing female religious figures (known as buwi in Uyghur) who 
have played a prominent role in practices including funeral 
rites under greater government control.\227\ In 2009, at least 
two local governments in the XUAR reported on measures to train 
or regulate the activities of buwi.\228\
    Authorities in the XUAR continued to take steps to prevent 
Muslims from making independent religious pilgrimages abroad, 
while restricting the number of people on official trips and 
subjecting them to tight oversight.\229\ For example, 
government officials in Huocheng (Qorghas) county, Ili Kazakh 
Autonomous Prefecture, reported requiring pilgrimage 
participants to sign a contract agreeing not to do such things 
as bring on pilgrimage religious garments that ``are not in 
accordance with the traditional social customs and habits of 
China's ethnic minorities,'' including certain types of women's 
veils.\230\ The Wensu (Onsu) county government in Aqsu district 
reported taking steps to monitor returnees from pilgrimages in 
order to ``place them in the `line of vision' of the government 
and Party committee'' and ``understand'' the activities they 
participated in while abroad.\231\ Overseas sources continued 
to carry reports that authorities confiscate Uyghurs' passports 
in an effort to curb unauthorized pilgrimages and that 
authorities create barriers to participating in official 
pilgrimages.\232\
    As the Commission has tracked in recent years, authorities 
also restrict Muslims' freedom to observe Ramadan. Authorities 
have placed curbs on students' and teachers' observance of the 
holiday, for example, and have ordered restaurants to remain 
open during the month-long period of daily fasting.\233\ News 
of Ramadan restrictions continued in 2009, including reported 
restrictions on government workers' observance of the holiday 
and measures to make 
restaurants stay open.\234\ In response to an August report on 
the restrictions, a XUAR government spokesperson denied that 
authorities forced government employees to eat during fasting 
periods and was paraphrased as saying ``[t]he government has 
never intervened with Uygurs' religious activities[.]'' \235\

Political training for Muslim leaders in the XUAR

    The XUAR government launched wide-scale political training 
for Muslim leaders in the past year. In a September 2008 speech 
(discussed above), XUAR government chairperson Nur Bekri 
described plans to carry out a third cycle of training for 
Muslim religious personnel,\236\ which was later reported to be 
launched in February 2009.\237\ According to Nur Bekri, the 
training will reach 29,000 religious figures between 2009 and 
2012.\238\ In his September speech, Nur Bekri said, ``We should 
always step up the ideological development of patriotic 
religious personages and the building of their ranks as the key 
link to be grasped in our religious work.'' \239\ In February 
2009, an official in Shache (Yeken, Yarkand) county, Kashgar 
district, described plans to expel religious leaders if they 
missed three political study sessions.\240\ In the aftermath of 
the July 5 demonstration and outbreaks of violence in the 
region starting that day, XUAR Communist Party Committee 
Standing Committee member Shawket Imin called on religious 
leaders to strengthen their political consciousness and 
outlined restrictions on their behavior and activities.\241\

Controls over religious expression in the XUAR

    Authorities in the XUAR continued in the past year to 
censor and confiscate religious publications. In 2008, XUAR 
authorities made ``illegal'' political and religious 
publications the focal point for that year's campaign to 
``Sweep Away Pornography and Strike Down Illegal 
Publications,'' and in 2009, authorities reported on the 
continuation of censorship campaigns that included focus on 
``illegal'' religious and political publications.\242\ A 
district in Qaramay municipality reported in November 2008 that 
the municipal government had issued a ``notice on confiscating 
Muslim books such as `The Truth About the Holy Teachings' and 
`The Call to Orthodoxy,' '' and that authorities had 
investigated local book and music sellers in accordance with 
the notice.\243\ Authorities in Urumqi and in Hoten district 
reported confiscating ``illegal'' religious materials, 
including ``illegal religious pictures'' in Urumqi, as part of 
campaigns there to inspect cultural markets and curb 
``illegal'' religious activity, respectively.\244\ In March 
2009, official media reported that XUAR authorities would 
coordinate with propaganda departments from provincial-level 
areas including Gansu, Qinghai, and Shaanxi provinces and the 
Ningxia Hui Autonomous Region to establish a cross-provincial 
mechanism to stop the printing and sales of ``illegal'' 
religious material. Media also reported that authorities 
established a fund to reward efforts to ``purify'' the cultural 
market, with focus on ``illegal'' religious and political 
publications.\245\ Authorities also continued to regulate 
religious speech by controlling the content of religious 
publications, including sermons, and by directing 
interpretations of religious doctrine.\246\

Controls over children's freedom of religion in the XUAR

    The XUAR government took steps in the past year to 
strengthen formal legal prohibitions over children's freedom of 
religion. In June, the XUAR government deliberated over a draft 
regulation on the protection of minors that would strengthen 
curbs over children's right to practice a religion and receive 
religious instruction.\247\ The draft regulation would replace 
1993 legal measures in force in the XUAR that already include 
the harshest legal restrictions in the country on children's 
freedom of religion.\248\ According to a description of the 
2009 draft regulation, it retains the prohibition that parents 
or guardians may not permit minors to participate in religious 
activities and adds that minors ``seduced into'' or ``forced'' 
to participate in religious activities can seek protection from 
schools or government offices including public security 
offices. Under the draft regulation, organizations approached 
for help must not shirk their duties and must intervene 
promptly.\249\
    In addition to restrictions in law, authorities within the 
XUAR also implemented steps in practice to restrict children's 
freedom of religion. As part of measures to deal with ``illegal 
religious activity'' in Hoten district implemented in spring 
2009, authorities outlined measures to strengthen oversight of 
students during their school vacation period through a system 
of both fixed and unscheduled contact with them.\250\ In 
February, authorities in Yining (Ghulja) city, Ili Kazakh 
Autonomous Prefecture, targeted ethnic minority women, young 
adults, and juveniles for propaganda education activities to 
``weaken religious consciousness and uphold a civilized and 
healthy life.'' \251\ A township in Bachu (Maralbeshi) county, 
Kashgar district, described promoting education in topics 
including atheism as part of the local school system's fall 
2008 anti-separatism education.\252\

                             PROTESTANTISM

    The Chinese Government continues to repress Chinese 
Protestants who worship in unregistered congregations (house 
churches) and to impose strict regulations on the registered 
Protestant church. The Communist Party seeks to control 
Protestants by requiring all congregations to register with and 
submit to state-run entities charged with overseeing their 
activities. The Three-Self Patriotic Movement (TSPM) and the 
China Christian Council (CCC) are the official state-led 
organizations that manage Protestants on behalf of the State 
Administration for Religious Affairs (SARA) and the Party's 
United Front Work Department (UFWD).\253\ Registered 
congregations are subject to state monitoring of church 
members, interference in clergy appointments, mandatory 
political study 
sessions for pastors, and restrictions on doctrine and topics 
for preaching.\254\ Officials continue to subject Protestants 
who refuse to register to harassment, detention, imprisonment, 
and forced church closure.

Controls over doctrine and theology

    China's state-controlled Protestant church manipulates and 
modifies doctrine and theology in an effort to eliminate 
elements of Christian faith that the Party regards as 
incompatible with its goals and ideology. The process whereby 
this is achieved is called ``theological reconstruction.'' 
\255\ In 2008, the CCC president described the purpose and 
function of theological reconstruction in the following terms:

        In the past, Chinese theology for the most part 
        mimicked conservative Western theology. . . . This 
        negative and outmoded theology made it difficult for 
        believers to conceive of adapting to socialist society. 
        The initiative for theological reconstruction was meant 
        to get rid of the shackles of negative theological 
        thinking and open up a new situation in Chinese 
        Christianity. . . . It is an expression of Chinese 
        Christianity's move toward reason, an essential path to 
        adapting to socialist society, and a necessary trend in 
        the fusion of Chinese Christianity and advanced Chinese 
        culture.\256\

    Chinese authorities often employ rhetoric in the 
theological reconstruction campaign that construes nationalism 
and loyalty to the Party as religious obligations with which 
Protestants must comply. In a November 2008 report, the TSPM 
argued that theological reconstruction seeks to ``strengthen 
awareness that `a good Christian should be a good citizen' '' 
and bring about a ``far greater understanding among Chinese 
Christians of patriotism . . . protecting social stability, 
ethnic solidarity, and the unification of the motherland.'' 
\257\ According to an April 2009 Party report, one of the 
TSPM's greatest accomplishments is that it has led ``vast 
numbers of Protestants to fervently love China, support the 
leadership of the Communist Party, and support the socialist 
system.'' \258\ Wang Zuo'an, Vice Director of SARA, drew the 
link between patriotism and Party loyalty when he told a 2007 
conference of registered Protestants: ``When Christians today 
speak of patriotism, its concrete expression must be to uphold 
the leadership of the Chinese Communist Party and the socialist 
system.'' \259\
    Chinese authorities further politicize Christian faith by 
insisting that the Bible not only permits patriotism, but 
requires it. When Party leaders compel Christians to ``adapt'' 
to the demands of socialism, TSPM leaders advise Protestants 
that ``there is no reason to oppose this in terms of faith: 
there is no conflict with basic biblical faith, nor is it 
harmful to biblical truth.'' \260\ Ding Guangxun, the original 
architect of theological reconstruction and former TSPM 
chairman, has declared that ``the Bible wants us to love our 
country.'' \261\ SARA leaders echo Ding in proclaiming to 
Protestants that ``love of country is a revelation and teaching 
found in the Bible.'' \262\ The dean of a TSPM seminary has 
taught that the official policy of ``loving the country, loving 
the church'' is ``an intrinsic and important part of Christian 
faith, with a wealth of biblical evidence'' to support it.\263\ 
Authorities have raised Party Chairman Hu Jintao's ``harmonious 
society'' slogan to the level of a divine mission. In 2008, the 
CCC president stated that ``making Christianity an active agent 
in building the harmonious society is both the leading of God 
for the Chinese Church and the demand of the times for us.'' 
\264\
    In 2008 and 2009, Chinese officials celebrated theological 
reconstruction and pledged to continue promoting it. In 
November 2008, the TSPM and CCC convened a national summit to 
celebrate the 10th anniversary of theological 
reconstruction.\265\ Ding Guangxun used the summit to urge 
officials and pastors to ``maintain the development of 
Theological Reconstruction as prima inter pares in every aspect 
of their work.'' \266\ Wang Zuo'an delivered a speech on behalf 
of SARA that stressed the importance of bringing about a 
``theological system with Chinese characteristics and a unique 
witness that conforms to Chinese society and culture.'' \267\ 
Wang told TSPM and CCC leaders: ``Christians not only must 
connect with God, but they must also follow God's teaching to 
connect themselves with the motherland and society.'' Giving 
credit to a decade of theological reconstruction ``enriching 
the information coming out of the pulpit,'' Wang noted that 
``more and more Christians'' have become ``enlightened'' and 
``gradually left behind the narrow faith that focuses on 
personal salvation alone.'' \268\
    In the past year, authorities wielded theological 
reconstruction as an instrument to ``correct'' specific tenets 
and traditions that are seen as out of step with Party policy 
and ideology. In a report on the 10th year of the theological 
reconstruction campaign, the TSPM identifies several Protestant 
beliefs that are problematic and warns of potential risks if 
they are not ``promptly corrected'': (1) A one-sided 
understanding of the second coming of Christ; (2) denial of the 
importance of works in this life; (3) using ``believer and 
unbeliever'' to differentiate people; (4) using ``follow God 
and don't follow men'' as a reason for despising national laws 
and regulations; (5) misconstruing the TSPM as a movement to 
unify the church and state; (6) one-sided emphasis on ``things 
of the Spirit'' to the detriment of reason, which leads some 
towards a fanatical and superstitious faith; and (7) 
overemphasis on personal salvation.\269\ A core Protestant 
tenet that theological reconstruction seeks to uproot is the 
Lutheran (Pauline) doctrine of justification by faith alone 
(sola fide).\270\ Ding Guangxun has argued that ``playing down 
some theological views today is permissible, and in fact, 
necessary,'' and identified justification by faith as a chief 
concept to be downplayed 
because it has been ``overemphasized'' in China.\271\

Controls over pastoral training and preaching

    Chinese Government efforts to shape seminary education are 
an important component of the theological reconstruction 
campaign. In its summary report on the 10th year of theological 
reconstruction, the Three-Self Patriotic Movement (TSPM) 
identified registered Protestant seminaries as the ``base'' 
that serves a ``key function'' in promoting theological 
reconstruction. For seminary students and teachers who make 
``outstanding contributions'' to theological reconstruction, 
the report recommends measures to reward them.\272\ The China 
Christian Council (CCC) also places priority on theological 
education in its 2008 work report: ``Trained personnel are the 
basis of everything. We must train for the church a large 
contingent of a variety of outstanding personnel who uphold the 
leadership of the Chinese Communist Party.'' \273\ In an 
``important speech'' during an April 2009 inspection of the 
East China Seminary, Yang Xiaodu, a high-ranking Shanghai Party 
official, praised the seminary as a ``base for cultivating 
patriotic clergy'' and expressed ``hope'' that the school would 
continue its ``fine tradition'' of ``adapting to socialism.'' 
\274\ Also in April, authorities in Linfen city, Shanxi 
province, underscored the need to ``strengthen patriotic 
education and diligently train a team of religious teachers who 
are politically reliable.'' \275\ Upon graduation from a state-
sanctioned seminary, new pastors encounter ordination 
regulations that mandate acceptance of the Party's authority. 
The Measures for Recognizing Chinese Protestant Religious 
Personnel stipulate, as the first of five ``basic conditions'' 
for ordination in a registered church, that candidates must 
``support the leadership of the Chinese Communist Party.'' 
\276\
    The theological reconstruction campaign also aims to 
restrict sermon content and control how registered pastors 
interpret the Bible. In December 2008, authorities in Wuxi 
city, Jiangsu province, provided unspecified ``support'' to the 
local TSPM's ``preaching and scripture interpretation class'' 
for registered pastors.\277\ In its 2008 work report, the CCC 
noted the distribution of ``sermon prompts'' intended to form 
``the basis of sermon content,'' based on theological 
reconstruction ``discussions'' held in registered 
churches.\278\ Two publications highlighted in the CCC report--
``A Course in Christian Patriotism'' and ``Remembering the Past 
as a Lesson for the Future''--are regarded as important 
material for seminarians that ``should be studied and discussed 
in all Christian Churches, among pastoral workers and in the 
larger Christian community.'' \279\ The latter of the two is 
described as a ``factual history of the manipulation of 
Christianity by imperialism in its aggression against China.'' 
\280\ The ``promotion of theological education'' through these 
publications will ultimately help Chinese Protestants, among 
other things, ``establish a correct view of the Bible.'' \281\ 
In April 2009, the Shenyang TSPM and CCC in Liaoning province 
designated theological reconstruction as this year's ``most 
important task'' and vowed to strengthen it ``without a 
second's delay.'' Its stated purpose was to correct 
``ideologically backward'' pastors who fail to preach an 
``interpretation of the Bible that conforms to the demands of 
social progress.'' \282\

Restrictions on proselytizing, contact with foreign Christians

    The Chinese Government restricts Protestants from 
proselytizing beyond the physical confines of registered 
churches, a prohibition that prompts many evangelicals to 
worship in unregistered congregations and limits interaction 
between Chinese and foreign Protestants.\283\ An ethnographic 
study conducted in a major city in southern China found that 
official policies ``significantly curtailed'' evangelization 
efforts by both registered and unregistered churches.\284\ 
Authorities often punish Protestants who proselytize with 
administrative detention, including reeducation through labor 
(RTL). On December 16, 2008, Zhoukou city public security 
officials in Henan province ordered three church leaders to 
serve one year of RTL for ``illegal proselytizing.'' \285\ In 
April 2009, public security officials in Henan's Xinyang city 
raided a house church service and detained two Chinese 
missionaries for holding an ``illegal'' church meeting and 
possessing illegal foreign religious publications.\286\ In 
February 2009, police stormed a meeting of house church leaders 
from four provinces that was held in Henan and detained more 
than 60 participants, claiming that the presence of two South 
Korean pastors, whom the government deported and banned from 
China for five years, rendered the meeting an ``illegal 
gathering.'' \287\ In 2008, the Daqing Municipal People's 
Congress in Heilongjiang province warned that the South Korean 
Good News Missionary Society had ``infiltrated'' local 
universities.\288\
    Chinese officials routinely characterize contact between 
Chinese Protestants and international Christian organizations 
or individuals as dangerous incidents of ``foreign 
infiltration,'' which security forces are tasked with 
preventing.\289\ State regulations on religious activities 
prohibit foreigners from engaging in missionary activity 
outside of the physical confines of government-registered 
churches and require foreigners to obtain government 
authorization before preaching inside registered churches.\290\ 
The ``three-self principles'' (self-administration, self-
support, and self-propagation) of the Three-Self Patriotic 
Movement (TSPM) embed suspicion of foreign Christians within 
the basic institutional framework of the state-sanctioned 
Protestant church. Chinese officials often speak of 
foreign Christian groups in adversarial terms and credit the 
``three-self principles'' for successfully severing the ``ties 
of Chinese Christian churches with imperialistic invaders.'' 
\291\ The China Christian Council (CCC) wrote in a 2008 report 
that ``infiltration by groups overseas undermines the 
achievements of the TSPM. . . . Some of them attempt to use 
Christianity as an entry point to `Westernize' or `split' 
China. They continually devise new plans to infiltrate China, 
using religion to disguise their political ideas.'' \292\ The 
Guangdong United Front Work Department (UFWD) deputy head has 
described the ``house churches and underground churches'' that 
receive support from ``foreign enemy forces'' as a ``political 
tool in a plot to subvert the Chinese Government.'' \293\ In 
select cases, visits by foreigners to registered churches are 
viewed positively by officials. In 2008, the UFWD praised the 
Beijing Haidian District Christian Church, a TSPM congregation, 
for cultivating foreign visitors as an ``important means for 
disseminating overseas the Party's and government's policy of 
freedom of religious belief.'' \294\

Harassment, detention, and closure of churches

    The Chinese Government's pre-Olympics campaign against 
Protestant activists and unregistered congregations in 2008 
showed few signs of abatement in 2009. Instead, government 
efforts to suppress house church activities in some areas 
retained a relatively high level of intensity, as revealed by 
official rhetoric as well as ongoing arrests and 
detentions.\295\ Numerous Chinese localities carried out 
``special investigations and studies'' in late 2008 and 2009 
that sought to gather intelligence on Protestant groups, 
strengthen the ban on house churches, and improve official 
oversight and control of the activities of registered 
churches.\296\ Clergy and laity from unregistered churches, as 
well as those affiliated with registered churches that run 
afoul of Party policy, remain vulnerable to harassment, 
detention, and imprisonment. In 2008, authorities detained at 
least 764 Protestant leaders and adherents, 35 of whom were 
sentenced or ordered to serve terms of imprisonment or 
reeducation through labor (RTL) exceeding one year.\297\ In 
2008 and 2009, government and security officials frequently 
targeted Pastor Zhang Mingxuan, president of the Chinese House 
Church Alliance (CHCA), by detaining him several times, 
confiscating money and personal belongings, evicting his family 
from their home, formally ``abolishing'' the CHCA, and severely 
beating his son with iron bars.\298\ Recent cases raise 
concerns about access to justice and the abuse of Protestants 
in official custody. In January 2009, officials told an 
attorney representing Protestants in Zhoukou city, Henan 
province, that the court rejected her lawsuit because it was 
``acting on internal documents ordering them not to accept 
cases involving religious groups.'' \299\ In December 2008, 
another court in Henan, reportedly under pressure from above, 
refused an appeal by Mao Minzi, a house church pastor who was 
ordered to serve one year of RTL.\300\ Authorities have 
harassed some attorneys who defend house church Christians, and 
in March 2009, the government forced the Beijing Yitong Law 
Firm to close for six months, which caused a setback to 
Protestants' efforts to defend their rights.\301\ In February 
2009, 79-year-old Shuang Shuying, mother of house church pastor 
Hua Huiqi, was released after serving a two-year prison 
sentence for protesting her son's detention and striking a 
police vehicle with her cane.\302\ Upon release, Shuang wrote a 
letter that told of torture that she suffered while in prison. 
Shuang was beaten, deprived of sleep, shocked with electric 
batons, forced to drink her own urine, and forced to stand 
naked outdoors in a 
stationary position for several hours at night.\303\ A U.S.-
based non-governmental organization documented 19 cases of 
Chinese authorities abusing Protestants in custody during 
2008.\304\
    Raids of house churches persist in many localities. Public 
security officials targeted house churches in at least seven 
provinces during the 2008 Christmas season.\305\ Officers 
raided a nativity reenactment in Henan's Yucheng county and 
detained nine participants for ``organizing illegal religious 
activities.'' \306\ On December 22, authorities in Dongzhi 
county, Anhui province, raided an unregistered Bible school, 
detained and interrogated 19 students and 2 leaders, and 
announced plans to demolish or sell the building.\307\ In 
Anhui's Bozhou city, a house church was raided during its 
Christmas service and two leaders were detained.\308\ On 
Christmas Eve, more than 40 public security officials attacked 
Protestant volunteers engaged in housing reconstruction for 
earthquake victims, took several into detention, confiscated 
their Bibles, and threatened to demolish the newly constructed 
homes.\309\ In Ningbo city, Zhejiang province, public security 
forces were deployed to ``closely follow Christmas activities 
at unauthorized sites and prevent illegal activities.'' \310\ 
On February 11, 2009, nearly 100 security officials in Nanyang 
city, Henan province, forcibly disrupted a meeting of house 
church leaders and detained more than 60 Chinese pastors and 2 
South Korean ministers.\311\ In October 2008, Nanyang 
authorities also dispersed a house church gathering and, after 
holding the pastor for 15 days in administrative detention, 
ordered him to serve one year of RTL for alleged membership in 
an ``evil cult.'' \312\ In April 2009, security agents forcibly 
shut down an Easter gathering of more than 1,000 unregistered 
Protestants in Chengdu, the capital of Sichuan province, and 
detained 6 organizers.\313\
    Detention and abuse of Protestants is often accompanied by 
official efforts to shut down or demolish sites of worship. On 
December 17, 2008, the Deputy General Secretary of the Yancheng 
City Party Committee in Jiangsu province and public security 
officials reportedly stormed the Chengnan Christian Church, a 
registered congregation, and began to raze the building, in 
violation of a court ruling in the church's favor issued the 
day before.\314\ More than 10 church members were physically 
assaulted during the demolition.\315\ In December, more than 
200 people with bulldozers tore down a Protestant-run drug 
rehabilitation center in Yunnan province without legal 
justification.\316\ Authorities banned an unregistered 
congregation in the Ili Kazakh Autonomous Prefecture in the 
Xinjiang Uyghur Autonomous Region (XUAR) just before Christmas 
and threatened to arrest the congregation's pastor if he defied 
the ban.\317\ In January 2009, Three-Self Patriotic Movement 
(TSPM) officials worked with government and public security 
officials to seize the property of Chang Fengying, an 
evangelist who hosted a house church in Muling city, 
Heilongjiang province.\318\ In February, Shanghai authorities 
ordered the landlord of the Wanbang Missionary Church to evict 
the congregation within 30 days because its pastor refused to 
cancel a seminar for urban house church pastors.\319\
    Authorities closed unregistered churches dispersed across a 
wide area of China in the past year and in some places 
subjected house church leaders to a coercive ``thought reform'' 
process called ``transformation through reeducation.'' \320\ In 
October 2008, local authorities reportedly issued an order 
banning house churches in Heilongjiang's Yichun city.\321\ At 
the same time, the Chengdu Municipal People's Congress reported 
that local authorities had ``banned'' 161 house churches and 
``successfully transformed'' 196 members of four Protestant 
``cult organizations.'' \322\ Chongqing municipal authorities 
also implemented a series of measures in October to ``ban'' or 
``demolish'' 88 Protestant house churches, and called for the 
``transformation through reeducation'' of unregistered 
Protestants who serve as a vehicle for ``infiltration'' by 
``anti-China political forces.'' \323\ In March 2009, officials 
in Jiangsu's Taixing city vowed to ``attach great importance to 
the transformation through reeducation of persons responsible 
for unregistered Protestant meeting sites'' and ``help them 
realize that freedom of religious belief does not equal freedom 
of religious activity.'' \324\ In May 2009, Nanjing Party 
officials pledged to ``ensure that there are no cult meeting 
sites, no unauthorized Protestant sites, no self-proclaimed 
missionaries, and that no religious conflicts reach higher 
authorities.'' \325\ In April, authorities in Ningxia Hui 
Autonomous Region declared that they would ``punish'' 
missionaries and house churches, while county-level officials 
in Jiangxi province received orders to ``investigate and 
prosecute'' the same groups.\326\

Banned Protestant groups and the 6-10 office

    The Chinese Government continues to categorically prohibit 
some Protestant groups from exercising religious freedom by 
criminalizing their communities as ``cult organizations.'' 
\327\ The government has banned at least 18 Protestant groups 
with adherents in multiple provinces, though many more 
Protestant congregations and movements have been banned that 
are active within only one province.\328\ The threat of 
``cult'' designation is a powerful tool for authorities seeking 
to intimidate and control unregistered Protestants. Three-Self 
Patriotic Movement (TSPM) leaders have invoked the specter of 
Falun Gong to persuade Protestants to embrace the theological 
reconstruction campaign. Ding Guangxun, former TSPM chairman, 
has warned Protestants that they ``will not have a future'' if 
they ``begin to resemble Falun Gong or some other cult.'' \329\ 
In October 2008, an official report from Chongqing municipality 
drew a link between ``cult'' prevention and the Party's drive 
to remake Protestant theology: ``passive, conservative, and 
backward theology is the ideological foundation that constantly 
produces cult activities.'' \330\ Wang Zuo'an, the Vice 
Director of the State Administration for Religious Affairs, 
implied in a 2008 speech that failure to cooperate with the 
TSPM would provoke a harsh response from the government: ``If 
the three-self principle is abandoned, Chinese Christianity, 
which has been moving smoothly along in the right direction, 
will veer off track and meet with a calamity of historical 
proportions.'' \331\
    Chinese authorities harassed, detained, and physically 
abused members of banned Protestant groups in the past year, 
particularly the South China Church (SCC) and the Local Church. 
The government banned the SCC in 1995 and executed its founder 
in 2001.\332\ According to the Ministry of Public Security, the 
SCC spread to 88 counties in 15 provinces and converted tens of 
thousands within one year of its founding in 1990.\333\ In 
November 2008, public 
security officials in Hubei province detained more than 18 SCC 
members, beat at least 8 of them, and raided the homes of their 
families.\334\ Several detainees were abducted from their homes 
or public places, four have since disappeared entirely, and at 
least five were compelled to write statements recanting their 
faith.\335\ Security officials have reportedly refused to 
disclose the charges against the detainees, forbidden family or 
legal counsel from visiting them, and declined their attorneys' 
requests for information.\336\ Interrogators reportedly told 
three of the detainees that authorities aimed to ``thoroughly 
destroy'' the SCC and that ``except the TSPM [Three-Self 
Patriotic Movement], all other organizations that believe in 
Jesus Christ are cults.'' \337\ Zhu Yongping, an SCC missionary 
who went missing in November 2008, previously spent three years 
in a reeducation through labor facility where he was reportedly 
tortured.\338\
    In 2008 and 2009, the Chinese Government maintained its 
longstanding campaign to suppress the Local Church, an 
indigenous Christian movement founded by Watchman Nee in the 
early 20th century which officials refer to as the 
``Shouters.'' \339\ Throughout fall 2008, security officials 
shut down at least 10 Local Church gatherings in the cities of 
Beijing and Hangzhou.\340\ The raids of gatherings in 
university areas resulted in the detention and interrogation of 
more than 400 students, many of whom were later disciplined by 
their universities upon release.\341\ In Hangzhou's Xiasha 
district, authorities simultaneously raided nine services on 
November 2 and detained more than 30 church members, 4 of whom 
have been ordered to serve a year or more of reeducation 
through labor.\342\ In Ningbo municipality, instructors used 
cartoons to teach elementary school students about the 
``dangers'' of the Local Church in ``anti-cult'' training 
classes.\343\ Official reports from two localities in Fujian 
province in early 2009 indicate that the Local Church has been 
singled out as one of the targets that public security forces 
must ``strike hard'' against.\344\ In January 2009, security 
officials in Henan province arrested septuagenarian Yuan 
Shenlun for responding to an anonymous call to pick up Watchman 
Nee books and videos. Yuan previously served 14 years in prison 
for his involvement with the Local Church.\345\
    The Communist Party's 6-10 Office, an extralegal security 
force that suppresses banned religious groups, leads the 
clampdown on unregistered Protestant groups officially deemed 
to be ``cult organizations.'' \346\ During a December 2008 
visit to Siyang county in Jiangsu province, Li Xiaodong, the 
head of the central 6-10 Office, urged local officials to 
``strengthen the punishment of privately established, rural 
Protestant meeting sites . . . ban the groups that should be 
banned, and establish a management system that is effective 
over the long term.'' \347\ An October 2008 report on official 
efforts to regulate religion in the municipality that 
administers Siyang cited government statistics that claim 90 
percent of ``cult'' participants have a Protestant 
background.\348\ A Beijing TSPM leader pledged in 2008 that the 
state-sanctioned church would ``coordinate with the district 6-
10 Office . . . to effectively hold back the spread'' of the 
Disciples Association, a banned Protestant group.\349\ In 
Changsha, an April 2009 open letter from the 6-10 Office called 
for cadres and residents to ``resolutely resist cults,'' 
specifically the Disciples Association, and promised an 
``appropriate material reward'' for those who ``courageously 
report cult behavior.'' \350\ The letter provides a window into 
the Party's use of the term ``cult'' from its description of 
their characteristics: ``using the name of `God' to incite its 
members to oppose the government.'' \351\

                                 TAOISM

    The Chinese Government requires Taoist groups and religious 
personnel to register with the state-run Chinese Taoist 
Association (CTA) in order to legally perform ritual services 
and hold Taoist ceremonies.\352\ The State Administration for 
Religious Affairs (SARA) exercises direct authority over the 
CTA, as it does for all ``patriotic religious organizations.'' 
\353\ Communities under the CTA face limitations on their 
religious freedom such as regulations that mandate political 
conformity, impose state scrutiny over doctrine, and prohibit 
religious practices that the government deems 
``superstitious.'' The CTA continues to compel Taoist 
communities to support Communist Party propaganda campaigns and 
policies; it 
declared that ``strengthening the ideological education of 
Taoist personnel'' would be the first of six work goals for 
2009.\354\ In 2008, the CTA implemented measures for confirming 
Taoist priests that rank ``fervent love of the motherland and 
support of the leadership of the Chinese Communist Party'' as 
among the first of five basic conditions that must be met for 
ordination.\355\ The measures also impose penalties on Taoist 
priests for performing rituals in the homes of lay 
practitioners without prior CTA authorization or engaging in 
activities deemed to involve ``feudal superstition'' or 
``cults.'' \356\ Unregistered Taoist priests--referred to by 
some government reports as ``fake priests''--are subject to 
various penalties imposed for failure to submit to official CTA 
confirmation, including ``transformation through reeducation.'' 
\357\ In the past year, the CTA and SARA officials continued to 
launch special administrative campaigns to bring Taoist priests 
of the Zhengyi order, who typically marry and reside outside of 
monastic communities, under the control of local and national 
CTA authorities.\358\

                      OTHER RELIGIOUS COMMUNITIES

    In the past year, the central government maintained its 
framework for recognizing only select religious communities for 
limited government protections, and it did not enlarge this 
framework to accommodate additional groups. Despite lacking 
formal central government recognition, however, some religious 
communities have been able to operate inside China.\359\ The 
Russian Orthodox Church holds services in some areas, and some 
local governments recognize the Orthodox church within local 
legislation.\360\ The Patriarch of Moscow and All Russia Kirill 
met with a delegation from China's State Administration for 
Religious Affairs (SARA) in February 2009. Kirill raised the 
issue of rebuilding an Orthodox church and the shortage of 
Orthodox clergy in cities with Orthodox communities.\361\ 
Orthodox church members in Shanghai continued to lack legal 
recognition to hold services but were reportedly able to 
participate in a feast day service at the Russian consulate in 
Shanghai in June.\362\ Under current Chinese Government 
regulations, foreign religious communities, including 
communities not recognized as domestic religions by the 
government, may hold services for expatriates, but Chinese 
citizens are not allowed to participate.\363\
    In recent years some local governments have passed 
legislation that both recognizes and provides a measure of 
protection for venues where Chinese folk belief activities are 
practiced, but that also bring such venues under government 
control.\364\ In 2007, Hunan province passed China's first 
provincial-level legislation to recognize and regulate venues 
for folk beliefs.\365\ In November 2008, SARA visited Hunan to 
investigate the issue. A SARA official reported positively on 
the province's regulation of folk beliefs and called for 
gradually bringing folk beliefs under legal regulation.\366\

------------------------------------------------------------------------
                           Religious Prisoners
-------------------------------------------------------------------------
  Authorities continue to detain, formally arrest, and in some cases
 imprison Chinese citizens for exercising their right to freedom of
 religion.\367\ Such cases include:  <bullet> Alimjan Himit (Alimujiang Yimiti), a Protestant house church
   leader in the Xinjiang Uyghur Autonomous Region, whom authorities
   have detained at the Kashgar Municipal Detention Center since January
   12, 2008. The Kashgar Intermediate People's Court tried Alimjan Himit
   on July 28, 2009, on charges of ``revealing state secrets or
   intelligence to overseas organizations.'' The court has not yet
   issued a verdict. Alimjan Himit had previously worked at a foreign-
   owned company shut down for ``engaging in illegal religious
   infiltration activities.'' A court in Kashgar first tried Alimjan
   Himit's case on May 27, 2008, and returned it to the procuratorate
   due to ``insufficient evidence.''
  <bullet> Dorje Khadro, a Tibetan Buddhist nun of Pangri Nunnery,
   founded and headed by Phurbu Tsering and located in Ganzi (Kardze)
   county, Ganzi Tibetan Autonomous Prefecture, Sichuan province, and
   one of more than 50 Pangri nuns detained on May 14, 2008,  for
   staging a political demonstration to protest against patriotic
   education underway at the nunnery and demands that the nuns denounce
   the Dalai Lama and their teacher, Phurbu Tsering. On November 20,
   2008, the Ganzi Intermediate People's Court sentenced ``Duoji
   Kangzhu'' to seven years in prison for ``inciting to split the
   country.''
  <bullet> Jia Zhiguo, the 74-year-old unregistered Catholic bishop of
   Zhengding diocese, Hebei province, whom authorities detained in March
   2009 and took to an undisclosed detention facility. Bishop Jia
   previously served two decades in prison, and since 2003, authorities
   have detained him numerous times and kept him under strict
   surveillance when not detaining him, in connection with his religious
   activities independent of the state-run Catholic Patriotic
   Association (CPA). His most recent detention was reportedly linked to
   the CPA's displeasure at a Vatican-brokered reconciliation agreement
   between Bishop Jia and Jiang Taoran, the bishop of the registered
   Shijiazhuang diocese.
------------------------------------------------------------------------


------------------------------------------------------------------------
                     Religious Prisoners--Continued
-------------------------------------------------------------------------
  <bullet> Liu Jin, a librarian at Shanghai Normal University, whom
   authorities held for nearly a year in pretrial detention. The
   Fengxian District People's Court in Shanghai convicted Liu under
   Article 300 of the PRC Criminal Law for downloading Falun Gong
   materials from the Internet and distributing them. She was sentenced
   to three-and-a-half years in prison on November 14, 2008.
  <bullet> Merdan Seyitakhun, Ahmetjan Emet, Seydehmet Awut, Erkin Emet,
   Abdujilil Abdughupur, Abdulitip Ablimit, Mewlanjan Ahmet, Kurbanjan
   Semet, Dolkun Erkin, Omerjan Memet, Mutelip Rozi, and Ubulkasim, 12
   young Uyghur men from the Ili Kazakh Autonomous Prefecture, Xinjiang
   Uyghur Autonomous Region, whom authorities detained between March and
   June 2008 and sentenced on March 24, 2009, to terms ranging from
   three years' to life imprisonment for ``splittism.'' The charges were
   connected to their activities teaching religion to children,
   according to the father of one of the men.
  <bullet> Paul Ma, a 55-year-old Catholic priest from a predominately
   Catholic village in Hebei province called Donglu, whom authorities
   detained in March 2009. Authorities reportedly took Father Ma into
   custody because he celebrated the Eucharist with unregistered
   Catholics. His current whereabouts are unknown.
  <bullet> Phurbu Tsering, a Tibetan Buddhist teacher believed by
   Tibetan Buddhists to be a reincarnation, who founded and headed a
   Tibetan Buddhist nunnery in Ganzi Tibetan Autonomous Prefecture,
   Sichuan province. Public security officials detained Phurbu Tsering
   on May 18, 2008, after security forces detained more than 50 of the
   nuns he taught for staging a peaceful political protest march. On
   April 21, 2009, the Ganzi Intermediate People's Court put Phurbu
   Tsering on trial for illegal weapons possession. One of his lawyers,
   Li Fangping, said that Phurbu Tsering denied the charges and claimed
   he was framed. On April 27, one of the judges contacted Phurbu
   Tsering's other lawyer, Jiang Tianyong, to tell him that sentencing
   had been postponed indefinitely. [See CECC, Special Topic Paper:
   Tibet 2008-2009 for information on the political detention, criminal
   prosecution, and legal defense of Phurbu Tsering.]
  <bullet> Shi Weihan, a Christian bookstore owner and Protestant house
   church leader whom Beijing authorities arrested on March 19, 2008.
   Authorities accused him of illegally printing and distributing
   Bibles. On June 10, 2009, the Beijing Haidian District People's Court
   sentenced him to three years in prison and fined him 150,000 yuan
   (US$21,960) for operating a business illegally. Public security
   officials have reportedly pressured Shi's family to refrain from
   appealing his sentence. Shi is diabetic and has reportedly suffered
   from poor health while in detention. Authorities have denied his
   lawyers' requests for medical parole.
------------------------------------------------------------------------


------------------------------------------------------------------------
                     Religious Prisoners--Continued
-------------------------------------------------------------------------
  <bullet> Xu Na, an artist and poet, and her husband, Yu Zhou, a
   popular musician, whom public security officials detained on the
   night of January 26, 2008, for possessing documents and computer
   disks containing Falun Gong materials. Yu died 11 days later in
   police custody. The Beijing Chongwen District People's Court
   sentenced Xu to three years in prison on November 25, 2008, for
   ``using a cult organization to undermine the implementation of the
   law'' (PRC Criminal Law, Article 300).
  <bullet> Yusufjan and Memetjan, a 27-year-old graduate student and 24-
   year-old undergraduate at Xinjiang University in the Xinjiang Uyghur
   Autonomous Region, whom authorities detained along with five others
   on May 10, 2009, as the students--members of a Muslim religious
   group--met on the campus of Xinjiang University. Authorities ordered
   the group members to serve 15 days of detention and fined them 5,000
   yuan (US$732) for ``holding an illegal gathering.'' Five of the
   students were released after 15 days, but Yusufjan and Memetjan were
   reported to remain in detention as of June 2009, and their
   whereabouts are unknown.
------------------------------------------------------------------------

                         Ethnic Minority Rights


                              Introduction

    The Chinese Government continued in the past year to 
implement policies that undermine ethnic minority citizens' 
rights. The government repressed expressions of ethnic identity 
perceived to challenge government authority, especially in the 
Xinjiang Uyghur Autonomous Region (XUAR), Tibet Autonomous 
Region and other Tibetan areas, and Inner Mongolia Autonomous 
Region. [See Section IV--Xinjiang and Section V--Tibet, for 
additional information on Uyghurs and Tibetans. For more 
information on Mongols, see Human Rights in the Inner Mongolia 
Autonomous Region in this section.] While the Chinese 
Government maintained some protections in law and practice for 
citizens it designates as ethnic minorities (shaoshu minzu),\1\ 
shortcomings in the substance and implementation of Chinese 
laws and policies continued to prevent ethnic minorities from 
exercising their rights in line with domestic law and 
international human rights standards.\2\ Ethnic minorities did 
not enjoy ``the right to administer their internal affairs'' 
\3\ as provided for under the PRC Regional Ethnic Autonomy 
Law.\4\ As in the case of demonstrations by Tibetans and 
Uyghurs in early 2008, a demonstration on July 5, 2009, by 
Uyghurs in the XUAR and outbreaks of violence in the region 
starting that day--followed by harsh security measures--again 
directed an international spotlight on grievances held by non-
Han ethnic groups, tensions in ethnic autonomous areas, and 
longstanding problems in Chinese Government policies toward 
ethnic minorities and ethnic issues. [See Section IV--Xinjiang, 
for details of the July 5 demonstration.]
    The Commission tracked several developments from the 
Commission's 2009 reporting year that underscored the 
continuing challenges ethnic minority citizens faced in 
protecting their rights.\5\ First, in the aftermath of 
demonstrations in 2008 and 2009 by Tibetans and Uyghurs that 
highlighted systemic problems in state policies toward ethnic 
minorities and ethnic issues, the central government continued 
to attribute outstanding tensions to its citizens while 
asserting the effectiveness of government policies and 
amplifying publicity in their support. Second, the government 
continued to implement economic development projects that 
prioritize government economic goals over broad protection of 
ethnic minorities' rights and guaranteeing ethnic minority 
participation in decisionmaking processes. The projects build 
on longstanding development programs that have brought some 
benefits to ethnic minority regions but also have introduced 
additional threats to the protection of ethnic minorities' 
rights. Third, although officials in the Inner Mongolia 
Autonomous Region reported taking steps to promote the use of 
the Mongolian language, they also continued to implement other 
measures that undermine Mongol traditions and livelihoods and 
punish people who defend Mongols' rights or who express 
dissent. Fourth, the Chinese Government continued in the past 
year to impose controls over how individuals and communities 
define their ethnicity, interpret their history, and preserve 
their culture and language.
    Also in the past year, the Chinese Government pledged to 
increase protection for the rights of ethnic minorities in its 
2009-2010 National Human Rights Action Plan (HRAP).\6\ While 
the HRAP outlines measures to support legislation, governance, 
education, personnel training and employment, language use, and 
cultural and economic development among ethnic minorities,\7\ 
domestic and overseas observers have questioned the likely 
impact of the broadly worded HRAP amid the Chinese Government's 
poor human rights record, including in the area of ethnic 
minorities' rights.\8\ The UN Committee on the Elimination of 
Racial Discrimination, which examined the Chinese Government's 
compliance with the International Convention on the Elimination 
of All Forms of Racial Discrimination in August 2009, expressed 
concern with government policies affecting ethnic minorities in 
areas such as language rights, migration, government 
representation, freedom of religion, non-discrimination, 
development, and healthcare.\9\
    In the past year, the Chinese Government continued to 
hinder opportunities for dialogue on ways to protect the rights 
of ethnic minority citizens. As the government heightened 
propaganda in support of its policies toward ethnic minorities, 
it amplified rhetoric against ``international hostile forces'' 
interfering in China's ethnic affairs.\10\ Government officials 
continued to vilify the Tibetan spiritual leader the Dalai Lama 
and Uyghur rights activist Rebiya Kadeer, both of whom aimed to 
peacefully engage with the Chinese Government to improve 
conditions for ethnic minorities in China.\11\ At the February 
2009 session of the UN Human Rights Council's Universal 
Periodic Review of the Chinese Government's human rights 
record, the Chinese Government rejected recommendations to 
review laws and policies toward ethnic minorities and to allow 
international agencies and media greater access to Tibetan 
areas of China.\12\

    Government Affirms Policy on Ethnic Issues, Heightens Propaganda

    In the aftermath of demonstrations in 2008 and 2009 by 
Uyghurs and Tibetans that highlighted systemic problems in 
state policies toward ethnic minorities and ethnic issues,\13\ 
the Chinese Government continued in this reporting year to 
attribute outstanding tensions to its citizens while asserting 
the effectiveness of government policies and amplifying 
publicity in their support. In early 2009, the Central 
Propaganda Department and the State Ethnic Affairs Commission 
(SEAC) published an outline to strengthen general propaganda 
and education on government and Communist Party policy on 
ethnic issues. The outline affirmed the government's existing 
policies and attributed perceived outstanding problems to 
``contradictions among the people.'' The outline also called 
for resisting ``international hostile forces raising the banner 
of such things as `ethnicity,' `religion,' and `human rights' 
to carry out Westernization and separatist activities toward 
our country.'' \14\
    Following the July 5 demonstration by Uyghurs in the 
Xinjiang Uyghur Autonomous Region capital of Urumqi and 
outbreaks of violence starting that day, the government again 
emphasized the efficacy of its policies. At a press conference 
in July, Wu Shimin, vice minister of SEAC, denied any 
connection between events on July 5--which authorities have 
blamed on U.S.-based Uyghur rights activist Rebiya Kadeer, the 
World Uyghur Congress, and the ``three forces'' of terrorism, 
separatism, and religious extremism\15\--and Chinese policies 
toward ethnic minorities. He described the policies as ``a 
long-term success'' and said the government had no plans to 
reevaluate them.\16\
    The government also heightened propaganda on ethnic unity 
in the past year. In November 2008, the Ministry of Education 
and SEAC issued a trial program directing schools throughout 
the country to implement ``ethnic unity education'' in a stated 
effort to promote Communist Party policy on ethnic issues.\17\ 
The program requires schools to guarantee 10 to 14 hours of 
``ethnic unity education'' a year to students starting in grade 
three of elementary school through the high school and 
vocational school levels.\18\ The Central Propaganda 
Department, Ministry of Education, and SEAC held a meeting in 
late August again calling for measures to strengthen propaganda 
and education on ethnic unity.\19\
    The government reported taking some steps in the past year 
to refine implementation of its existing framework for ethnic 
autonomy, at the same time it affirmed the basic features of 
the system. The government's 2009-2010 National Human Rights 
Action Plan, issued in April 2009, pledged to ``expedite'' 
drafting of regulations related to the implementation of the 
PRC Regional Ethnic Autonomy Law and to revise two existing 
regulations related to ethnic minorities.\20\ From May to July, 
central government and Party authorities reported investigating 
problems in implementation of state policy on ethnic issues, in 
accordance with directives issued in 2008 and 2009, and 
reported the investigations included focus on preventing and 
redressing discrimination toward ethnic minorities.\21\ 
According to Xinhua, SEAC announced plans in late July to 
increase research on ethnic issues ``in order to better solve 
minority disputes.'' \22\

                          Economic Development

    The Chinese Government continued in the past year to 
implement development projects that prioritize state economic 
goals over protecting ethnic minorities' rights and 
guaranteeing ethnic minority participation in decisionmaking 
processes. Steps implemented in the past year build on 
longstanding development efforts that have brought some 
benefits to ethnic minority regions but also have introduced 
additional threats to the protection of ethnic minorities' 
rights.\23\ Development programs--such as the decade-old 
central government Great Western Development project directed 
at 12 provinces, municipalities, or autonomous regions\24\--
have been implemented in a top-down fashion that marginalizes 
participation and decisionmaking by ethnic minority 
communities.\25\ Such policies have undermined ethnic 
minorities' rights to maintain traditional livelihoods, spurred 
migration to ethnic minority regions, promoted unequal 
allocation of resources favoring Han Chinese, intensified 
linguistic and assimilation pressures on local communities, and 
brought environmental damage.\26\ Development policies also 
remain intertwined with political objectives to foster ethnic 
unity and political stability.\27\ [For more information on 
development projects in specific areas, see Human Rights in the 
Inner Mongolia Autonomous Region in this section, Section IV--
Xinjiang, and Section V--Tibet.]
    In November 2008, the central government issued an opinion 
on advancing science and technology development among ethnic 
minorities and in ethnic minority areas,\28\ linking such 
development to strengthening ``ethnic unity,'' the ``unity of 
the motherland,'' and security in China's border areas. The 
opinion includes potentially beneficial provisions, but lacks 
measures to ensure ethnic minorities have meaningful 
participation in determining development policies\29\ and 
receive benefits that accrue from development efforts.\30\ The 
government pledged in its 2009-2010 National Human Rights 
Action Plan (HRAP) to devote 2 billion yuan (US$293 million) to 
promote economic and social development among ethnic minorities 
and in ethnic minority areas, including for infrastructure 
construction and poverty elimination for populations living in 
extreme poverty.\31\ The potential impact of the pledge remains 
unclear, however, amid the Chinese Government's poor track 
record in implementing equitable development projects and amid 
doubts concerning the effectiveness of the HRAP.\32\

                    Identity, Culture, and Language

    The Chinese Government continued in the past year to impose 
government controls over how individuals and communities define 
their ethnicity, interpret their history, and preserve their 
culture and language. Chinese Government policy imposes fixed 
ethnic identities on Chinese citizens and denies communities 
the freedom to fully interpret and define their ethnicity free 
from state intervention.\33\ Although state-determined 
identities mesh to some degree with how communities self-
identify, and citizens have some leeway to change their formal 
ethnic affiliation in accordance with state-defined 
categories,\34\ the government's system of classifying ethnic 
groups also has denied some communities the freedom to formally 
identify as distinct ethnic groups.\35\ In the past year, the 
government continued to impose official versions of Chinese 
history, including the histories of different ethnic groups, to 
legitimize the government's current borders and policies.\36\ 
In addition, the State Administration of Radio, Film, and 
Television issued a notice in July that called for ensuring the 
accuracy of historical dramas and called for greater scrutiny 
of series touching on ``particularly sensitive subject matter'' 
like ethnicity and religion.\37\
    The Chinese Government has used domestic and international 
mechanisms for cultural heritage protection to preserve some 
aspects of ethnic minority culture, but in accordance with 
government and Party aims and definitions.\38\ One central 
government official, speaking in 2006 on the protection of 
intangible cultural heritage, noted, ``Protection of intangible 
cultural heritage and maintaining continuity of the national 
culture constitute an essential cultural base for enhancing 
cohesion of the nation, boosting the national unity, 
invigorating the national spirit and safeguarding the national 
unification.'' \39\ In the Xinjiang Uyghur Autonomous Region, 
authorities launched a project in February 2009 to demolish and 
``reconstruct'' the Old City area of Kashgar city after 
determining most buildings in the nationally designated 
historic area had little historic preservation value, a project 
which has drawn opposition from Uyghur residents and outside 
observers for undermining heritage protection and forcing the 
resettlement of residents.\40\ [See Section IV--Xinjiang, for 
detailed information.]
    The government and media publicized efforts launched in 
2009 that were described as a means to promote ethnic minority 
culture, but in some cases emphasized the importance of such 
measures to meet state political goals. A June 2008 article 
noting government steps to promote ethnic minority languages 
and preserve endangered languages described such efforts as 
playing an ``irreplaceable role'' in such areas as ``political 
stability,'' ``social advancement,'' and ``ethnic unity.'' \41\ 
The Chinese Government included support for ethnic minority 
cultural endeavors in its 2009-2010 National Human Rights 
Action Plan,\42\ and in July, the State Council issued an 
opinion to ``promote the development of ethnic minorities' 
culture.'' \43\ The opinion includes calls for increasing 
support in areas such as building libraries in ethnic minority 
communities, promoting publications in ethnic minority 
languages, and preserving cultural heritage, but also calls for 
using media to disseminate information on Party policy and for 
guarding against ``cultural infiltration'' by ``hostile 
forces'' outside China.\44\
    The government has increased educational opportunities for 
ethnic minorities,\45\ but recent legislation and policy have 
reduced support for education in ethnic minority languages 
despite the regional ethnic autonomy system's support for 
educational autonomy and school instruction in ethnic minority 
languages.\46\ The 2005 implementing measures for the PRC 
Regional Ethnic Autonomy Law (REAL) curbed the REAL's support 
for education in ethnic minority languages\47\ in favor of 
``bilingual'' education. The ``bilingual'' policy has been 
implemented in some areas to focus primarily on instruction in 
Mandarin Chinese. [See Section IV--Xinjiang, for more 
information on implementation within the Xinjiang Uyghur 
Autonomous Region.] Outside of the ``bilingual education'' 
framework, other localities, such as some ethnic minority areas 
in southwestern China, have focused on educating ethnic 
minority students in Mandarin Chinese.\48\ While Mandarin 
education responds to a growing need for proficiency in the 
language to obtain economic and social mobility, it also 
underscores the shortcomings of the Chinese Government's ethnic 
minority policies in securing a form of autonomy that enables 
citizens to maintain economic and social opportunities in 
ethnic minority languages. [See Human Rights in the Inner 
Mongolia Autonomous Region in this section for information on 
language policy in the Inner Mongolia Autonomous Region.]

          Human Rights in the Inner Mongolia Autonomous Region

    As in other areas of China where authorities perceive 
ethnic minorities to challenge state power and support 
separatism, authorities in the Inner Mongolia Autonomous Region 
(IMAR) have repressed independent expressions of Mongol ethnic 
identity and punished Mongols who have protested government 
policy and advocated for the protection of their rights. Ethnic 
Mongols in the region have faced controls over traditional 
pastoral livelihoods and barriers to protecting their 
language.\49\ Mongols also have faced pressures from Han 
migration,\50\ discrimination in job hiring,\51\ and, as 
followers of Tibetan Buddhism, tighter controls over their 
religious practices.\52\
    The IMAR government continued in the past year to implement 
policies to resettle herders away from grasslands and shift 
them to new occupations, with the stated aim of improving 
grasslands conditions. For example, a March 2009 article from 
official media reported that authorities in the county-level 
Urad Rear Banner have planned to shift 80 percent of herders 
off grasslands to other sectors of employment, in order to 
relieve pressure on grasslands.\53\ In a speech the same month, 
the vice chair of the IMAR government called for better 
systematizing measures to shift farmers and herders to 
different sectors of employment.\54\ Also in March, the IMAR 
government passed a directive to promote the employment of at 
least one family member in a wage-based occupation by 2011, 
among families with no members employed in secondary or 
tertiary industries.\55\ The measures from the past year 
continue older ``ecological migration'' policies in the IMAR, 
sometimes reported to be compulsory, that have eroded Mongols' 
pastoral livelihoods.\56\ Herding communities resettled to 
towns and urban areas have faced challenges in preserving 
traditions and adapting to new, government-imposed 
livelihoods.\57\ Authorities have required those who stay on 
grasslands to abide by government directives on fencing 
grasslands and laying pastures fallow.\58\ Scholars have 
questioned the effectiveness of these government policies in 
ameliorating environmental degradation.\59\ [For additional 
information, see Section II--Climate Change and Environment.]
    After sustained implementation of policies that decreased 
the use of the Mongolian language in the IMAR, authorities have 
taken steps in recent years to spur greater use of the 
language. The IMAR government implemented legislation in 2005 
to promote the language,\60\ but reported in 2007 that problems 
remained in implementation.\61\ That year, authorities issued 
an opinion on strengthening work on ethnic minority education 
that included measures to increase Mongolian-language education 
within a three-year period.\62\ In the past year, authorities 
in the IMAR continued to report on promoting efforts to expand 
Mongolian language use, through measures including free 
schooling and increased subsidies for students who receive 
education in Mongolian.\63\ At the same time, in recent years, 
including in 2009, authorities have targeted some Mongolian-
language Web sites and Mongol discussion sites for scrutiny and 
closure,\64\ and a Mongol rights advocate in the IMAR has 
reported on curbs over the use of Mongolian on a university 
campus.\65\
    Ethnic Mongols who aim to protect their rights or preserve 
their culture continue to face the risks of harassment, 
detention, and imprisonment. Mongol rights advocates Naranbilig 
and Tsebegjab remained under illegal home confinement for part 
of this reporting year after authorities held them in detention 
in 2008 in two unrelated incidents.\66\ In addition, 
authorities took steps in the past year to block Naranbilig's 
participation in international forums to protect indigenous 
rights, including through confiscation of his passport.\67\ 
Mongol rights advocate Hada remains in prison since receiving a 
15-year sentence in 1996 after he organized peaceful protests 
for ethnic minority rights in the IMAR capital of Hohhot.\68\ 
Following a trial in 2006, Mongol doctor Naguunbilig reportedly 
continues to serve a 10-year sentence for cult-related 
offenses, while his wife, Daguulaa, is under home confinement, 
after authorities reportedly accused them of using healing 
methods that were ``a Mongolian version of Falun Gong.'' \69\

                          Population Planning


                              Introduction

    In the Commission's 2009 reporting year, central and local 
authorities continued to interfere with and control the 
reproductive lives of Chinese women through an all-encompassing 
system of family planning regulations in which the government 
is directly involved in the reproductive decisions of its 
citizens. Population planning policies limit most women in 
urban areas to bearing one child, while permitting slightly 
more than half of women in rural areas to bear a second child 
if their first child is female.\1\ In the past year, the 
Commission notes that several Chinese municipalities are 
allowing younger couples in which both spouses hail from one-
child households to have more than one child.\2\ Despite 
progress in this regard, local officials and state-run work 
units continue to interfere in the reproductive lives of 
Chinese women by monitoring their reproductive cycles in order 
to prevent unauthorized births.\3\ The Chinese government 
requires married couples to obtain a birth permit before they 
can lawfully bear a child and forces them to use contraception 
at other times.\4\ Violators of the policy are routinely 
punished with fines, and in some cases, subjected to forced 
sterilization, forced abortion, arbitrary detention, and 
torture.\5\
    China's population planning policies in both their nature 
and implementation violate international human rights 
standards. Although implementation tends to vary across 
localities, the government's population planning law and 
regulations contravene international human rights standards by 
limiting the number of children that women may bear and by 
coercing compliance with population targets through heavy 
fines.\6\ For example, the PRC Population and Family Planning 
Law is not consistent with the standards set by the 1995 
Beijing Declaration and the 1994 Programme of Action of the 
Cairo International Conference on Population and 
Development.\7\ Controls imposed on Chinese women and their 
families and additional abuses engendered by the system, from 
forced abortion to discriminatory policies against ``out-of-
plan'' children, also violate standards in the Convention on 
the Elimination of All Forms of Discrimination Against 
Women,\8\ the Convention on the Rights of the Child,\9\ and the 
International Covenant on Economic, Social and Cultural 
Rights.\10\ In December 2008, the UN Committee against Torture 
expressed concern with Chinese authorities' ``lack of 
investigation into the alleged use of coercive and violent 
measures to implement the population policy'' and urged the 
government to bring its population planning policies into 
``full compliance'' with the relevant provisions of the 
Convention against Torture and Other Cruel, Inhuman or 
Degrading Treatment or Punishment.\11\ As a state party to all 
of these treaties, China is bound to uphold their terms.

             Fines for Violators and Rewards for Informants

    Local governments have in some cases stepped up efforts to 
impose penalties and fines against couples who give birth to an 
unauthorized child. Officials refer to these fines as ``social 
compensation fees'' (shehui fuyang fei), which for certain 
couples pose a dilemma between undergoing an unwanted abortion 
and incurring potentially overwhelming financial costs. In 
February 2009, the Ganzhou municipal government in Jiangxi 
province established a ``collection management program'' for 
social compensation fees that requires officials to maintain a 
file for each person who violates family planning regulations 
and stipulates that violators who refuse to pay the fines 
should be added to a credit ``blacklist'' in China's banking 
system.\12\ The Ganzhou program also authorizes officials to 
apply ``coercive measures'' such as judicial detention and 
property seizure against those who refuse to pay the fines.\13\ 
In the same month, the Anxi county government in Fujian 
province issued a circular ordering officials to seek court 
authorization to carry out ``coercive measures'' when family 
planning violators fail to pay fines.\14\ In its 2009 work 
plan, the Qianguo County Population and Family Planning 
Commission in Jilin province called on local officials to 
``expand special punishments for illicit births, strictly 
enforce the investigation and prosecution of illicit births, 
and stress the strengthening of penalties for those who violate 
[family planning policies].'' \15\
    Authorities in some localities are levying social 
compensation fees at higher levels according to the violator's 
income and, in some cases, additional fines are imposed on 
women who resist official efforts to ``implement remedial 
measures'' such as abortion. In Chongqing municipality's 
Tongliang county, for example, officials launched a multi-month 
project in July 2008 that would impose fines of between 5,000 
yuan (US$731) and 10,000 yuan (US$1,464) on women who resist 
government efforts to compel them to have an abortion. This 
fine is levied in addition to the ordinary social compensation 
fee of 2,000 yuan (US$293) to 5,000 yuan (US$731).\16\ In 
November 2008, the Shanxi Provincial People's Congress Standing 
Committee passed an amendment to the provincial family planning 
regulations that imposes stricter standards for social 
compensation fees. For couples who have a second child in 
violation of these regulations, the government will assess a 
social compensation fee equal to 20 percent of a couple's 
combined income once per year for seven years, which must total 
no less than 7,000 yuan (US$1,025). If a couple has a third 
child, the fine rises to 40 percent of their combined income 
assessed for a 14-year period, which must total no less than 
30,000 yuan (US$4,392).\17\ In March 2009, Xinhua reported that 
authorities in Fuzhou city, Fujian province, fined two private 
entrepreneurs from the Cangshan district 200,000 yuan 
(US$29,275) and 300,000 yuan (US$43,912) each for ``illegal 
births.'' Two other entrepreneurs from nearby districts paid 
100,000 yuan (US$14,637) each in penalties for violating 
population planning policies.\18\
    Local governments also offer monetary incentives to citizen 
informants who report violations of population planning 
regulations. In March 2009, the Beijing Times reported that the 
Beijing Municipal Population and Family Planning Commission had 
begun offering rewards of an unspecified amount to informants 
who report ``out-of-plan'' pregnancies and extramarital 
pregnancies.\19\ In April 2009, the Chun'an County Bureau of 
Population and Family Planning in Zhejiang province introduced 
a system for providing informants with cash rewards of 1,000 
yuan (US$146) per violation reported. The circular also states 
that authorities will ``strictly protect the secrecy'' of the 
informant's identity.\20\ In July 2009, Yangxin county 
authorities in Shandong province released measures for 
providing citizen informants with awards ranging from 300 yuan 
(US$44) to 3,000 yuan (US$439) depending on the severity of the 
reported violation.\21\

               Implementation: Abortion and Sterilization

    The use of coercive measures in the enforcement of 
population planning policies remains commonplace despite 
provisions for the punishment of official abuse outlined in the 
PRC Population and Family Planning Law.\22\ The same law 
requires that local family planning bureaus conduct regular 
pregnancy tests on married women and administer unspecified 
``follow-up'' services.\23\ The population planning regulations 
of at least 18 of China's 31 provincial-level jurisdictions 
permit officials to take steps to ensure that birth quotas are 
not exceeded; in practice, these steps can include forced 
abortion and forced sterilization.\24\ In some cases, local 
officials coerce abortions in the third trimester.\25\ 
``Termination of pregnancy'' is explicitly required if a 
pregnancy does not conform with provincial population planning 
regulations in Anhui, Hebei, Heilongjiang, Hubei, Hunan, Jilin, 
Liaoning, and Ningxia provinces. In 10 other provinces--Fujian, 
Guizhou, Guangdong, Gansu, Jiangxi, Qinghai, Sichuan, Shanxi, 
Shaanxi, and Yunnan--population planning officials are 
authorized to take ``remedial measures'' to deal with ``out-of-
plan'' pregnancies.\26\ In the past year, the Commission 
analyzed official reports from local governments in over a 
third of China's provincial-level jurisdictions and found that 
the term ``remedial measures'' (bujiu cuoshi) is used 
synonymously with compulsory abortion.\27\
    In the past year, authorities in various localities forced 
women to undergo abortions, and in some cases, reportedly beat 
violators of population planning regulations. In February 2009, 
a woman in Guangdong's Shenzhen Special Economic Zone told 
local media that officials subjected her to a forced abortion 
six days prior to her due date because she was pregnant with 
her second child (her first was a daughter) before the 
officially mandated period between births had passed.\28\ Ten 
family planning workers took her to a clinic where she was 
injected in the abdomen with medication to induce an abortion. 
They reportedly kicked her in the stomach to expedite the 
abortion.\29\ In April 2009, several male family planning 
workers in Sihong county, Jiangsu province, reportedly took a 
woman from her home and beat her repeatedly because she missed 
the deadline for a mandatory pregnancy exam and intrauterine 
device (IUD) inspection.\30\ Authorities in Guangdong's capital 
forced three young surrogate mothers to undergo abortions when 
they were discovered hiding there in April. Authorities 
physically forced the women's thumbprints onto a consent form, 
according to one woman's account.\31\ In June 2009, family 
planning officials in Guan county, Shandong province, forced 
35-year-old Feng Junhua to have an abortion in her ninth month 
of pregnancy. The injection to induce abortion reportedly 
caused massive hemorrhaging and killed the mother.\32\
    In late 2008, officials in at least three provinces 
(Jiangsu, Guizhou, and Anhui) and one provincial-level 
administrative area (Chongqing), unveiled plans and circulars 
launching family planning campaigns that mandate abortions of 
``out-of-plan'' pregnancies. Chongqing's Tongliang county 
government introduced a multi-month project in late summer 2008 
with an ``overall objective'' to ``go further in reducing 
unwanted and out-of-plan pregnancies and to implement first 
term and mid-to-late term abortion remedial measures.'' \33\ In 
November, officials in Qingshanquan township, Xuzhou 
municipality, Jiangsu province, declared a ``month of 
concentrated corrective activities'' for family planning 
officials, the ``focus'' of which was ``the implementation of . 
. . first-term and mid- to late-term abortion and other 
remedial measures.'' \34\ The circular stressed that officials 
must ``avoid just going through the motions'' and should 
instead ``resolutely implement abortion and other remedial 
measures, strictly standardize the birth policy, adopt remedial 
measures for each and every out-of-plan pregnancy, and reliably 
prevent out-of-plan births.'' \35\ Also in November, the family 
planning ``leading group'' of Guizhou's Qiandongnan Miao and 
Dong Autonomous Prefecture pressed local officials to ``take 
forceful measures'' and ``resolutely adopt remedial measures 
for out-of-plan pregnancies.'' \36\ It recommended 
``strengthening'' pregnancy exams in order to ``remedy'' out-
of-plan pregnancies at an early stage and thereby reduce 
``late-term abortions and control measures.'' \37\ In December, 
authorities in Changfeng county, Anhui province, circulated a 
directive that ordered comprehensive inspections in which ``no 
village misses any group, no group misses any household, no 
household misses any person, and no person misses any item.'' 
During these inspections, officials must ``resolutely carry out 
remedial measures to the stipulated standard'' for households 
with a son or more than one child.\38\
    In 2009, authorities in some areas of Yunnan and Fujian 
provinces also employed abortion as an official policy 
instrument. In Yunnan's Yanjin county, Niuzhai township 
officials developed a 2009 implementation plan that outlined 
abortion targets for specific groups: ``strictly prohibit the 
birth of multiple children; for women who have multiple out-of-
plan children and become pregnant again, the abortion rate must 
reach 100 percent; for women who have two out-of-plan children 
and become pregnant again, the abortion rate must exceed 90 
percent; for women who have one out-of-plan child and become 
pregnant again, the abortion rate must exceed 85 percent.'' 
\39\ In December 2008, Luxi city authorities in Yunnan decided 
that village-level Communist Party secretaries must ``stand in 
the front of the line and set an example in breaking through 
difficult problems such as . . . abortions of out-of-plan 
pregnancies.'' \40\ In February 2009, officials in Anxi county, 
Fujian province, initiated a five-week campaign of 
``concentrated service activities'' that designated the 
``implementation of abortion remedial measures'' among its five 
``primary tasks.'' The circular authorizing the campaign 
instructs officials to ``adopt effective and comprehensive 
punitive measures and ensure that remedial measures against 
out-of-plan pregnancies are taken promptly and reliably.'' \41\ 
In May 2009, officials in Xianyou county, Fujian, detained 55-
year-old Wu Xinjie in order to pressure her daughter, who was 
nine months pregnant with a second child and had fled the area, 
to have an abortion.\42\ During the same period, Xianyou family 
planning authorities told a reporter that they forced a 20-
year-old unmarried woman who was seven months pregnant to 
undergo an abortion.\43\ In June 2009, the Wuyishan county 
government in Fujian published village family planning 
regulations that stipulate the following: ``In emergency 
situations when pregnancies violate family planning policies, 
report the matter to the village committee and promptly carry 
out remedial measures (abortion).'' \44\
    Some local governments specifically target migrant workers 
for forced abortions. In April 2009, authorities in Jinyun 
county, Zhejiang province, drafted an implementation plan for a 
month-long family planning campaign in which villages would 
``battle with themselves'' by conducting door-to-door 
inspections to obtain ``clues'' about out-of-plan pregnancies 
and determine the ``true whereabouts'' of migrant workers who 
have left the villages. The plan urges county-level officials 
to ``assist the township law enforcement group with the 
implementation of remedial measures such as abortion and the 
collection of social compensation fees.'' \45\ When migrants 
with out-of-plan pregnancies are discovered, officials should 
``promptly report to higher authorities and resolutely 
implement remedial measures; the implementation rate for 
remedial measures must reach 100 percent.'' \46\ In Kunming, 
the capital of Yunnan province, family planning provisions 
impose financial penalties designed to coerce migrant workers 
with unauthorized pregnancies to undergo an abortion.\47\ The 
provisions require enterprises that employ migrants and 
officials from the residential committees where they live to 
report out-of-plan pregnancies to the family planning 
authorities and to attempt to ``persuade'' the migrant to 
``take remedial measures.'' Local authorities then send the 
migrant a formal written ``notification'' that she must ``take 
remedial measures.'' If the migrant worker fails to have an 
abortion after receiving the notification, authorities can 
deduct a fine directly from her wages on a provisional 
basis.\48\ After 15 days of the penalty period elapse, the 
government can impose an additional fine, calculated at 3 
percent of the total deduction from her wages for each day that 
passes that she does not ``take remedial measures to terminate 
the pregnancy.'' \49\
    Local authorities continue to mandate surgical 
sterilization and the use of contraception as a means to 
enforce birth quotas. In November 2008, a township in Jiawang 
district, Xuzhou municipality, Jiangsu province, released a 
circular urging officials to ``take the rectification of hidden 
dangers as your vehicle and ruthlessly seize the implementation 
of intrauterine device (IUD) implantation measures.'' \50\ In 
March 2009, township-level authorities in Fujian province's Sha 
county issued family planning recommendations that call on 
officials to ``strictly act on the demand to carry out tubal 
ligation within one month'' for women who give birth to a 
second or third child, and set the implementation target for 
this group at 100 percent.\51\ Officials must also ensure that 
IUDs are inserted in women within three months of the birth of 
a first child.\52\ Officials from Guidong county, Hunan 
province, reported in June 2009 the completion of examinations 
conducted on 819 women, resulting in nine tubal ligations and 
17 IUD implantations.\53\ A newspaper in Yunnan province 
reported in February 2009 that officials there ambushed a woman 
named Zhang Kecui in the street and forced her to an operating 
room where she unwillingly underwent surgical 
sterilization.\54\

                 Incentives for Citizens and Officials

    Some local governments offer monetary incentives and other 
benefits to couples who voluntarily undergo sterilization or 
abortion procedures. In October 2008, the Panyu District 
Population and Family Planning Commission in Guangzhou city, 
Guangdong province, announced that women who undergo tubal 
ligation are eligible to receive a monthly reward of 25 yuan 
(US$4) starting from the month of the surgery until they turn 
55 years old.\55\ In a November 2008 circular issued by the 
Inner Mongolia Autonomous Region Population and Family Planning 
Commission, authorities increased the one-time reward for women 
with two daughters who undergo tubal ligation from 500 yuan 
(US$73) to 1,500 yuan (US$220). Women who live in rural areas 
and have two children of either sex can also receive a 1,000 
yuan (US$146) reward for choosing surgical sterilization.\56\ 
In March 2009, authorities in Guangdong province's Shenzhen 
Special Economic Zone issued a circular announcing that married 
women who become pregnant without authorization are eligible 
for ``subsidies'' if they volunteer for an abortion. The 
circular specifies a reward of 500 yuan (US$73) for voluntary 
abortions performed within the first 14 weeks of pregnancy and 
700 yuan (US$102) for those performed after the first 14 
weeks.\57\
    Many provinces link job promotion with an official's 
ability to meet or exceed population planning targets, thus 
providing a powerful structural incentive for officials to 
employ coercive measures in order to meet population goals.\58\ 
In January 2009, Wuyishan county in Fujian province published a 
``family planning responsibility manual'' for township and 
village officials that detailed a point system for performance 
evaluations on family planning issues. For example, officials 
receive 15 points for completing all of the tubal ligation 
targets for the year and 10 points for meeting intrauterine 
device targets.\59\ Five points are added for each mid- to 
late-term abortion that an official oversees and two points for 
each first-trimester abortion. Conversely, two to five points 
are deducted from an official's evaluation for each child born 
out of plan, depending on the number of children already 
present in the household. Officials who score 90 points or 
higher on their evaluations are rewarded with a bonus of 2,000 
yuan (US$293).\60\ Dasi township authorities, in Yunnan 
province's Fengqing county, issued a circular in April 2009 
that notified local officials that a percentage point would be 
deducted from their annual performance evaluations each time 
they fail to ``promptly implement'' contraception measures for 
all married women who give birth or have an abortion.\61\ 
Officials receive seven points if contraceptive measures 
sufficiently control the total number of ``remedial 
procedures'' to less than 21 ``first-trimester abortions'' and 
less than 12 ``mid- to late-term abortions.'' \62\

                           Abuse of Advocates

    Chen Guangcheng, a legal advocate and rights defender from 
Linyi city, Shandong province, on whom the Commission reported 
in 2007 and 2008, was sentenced to more than four years in 
prison in 2006 for exposing widespread abuses by local family 
planning officials.\63\ In 2007 and 2008, prison authorities 
prevented Chen from communicating with his family, refused his 
medical parole request, and accused him of having ``illicit 
relations with a foreign country.'' \64\ In April 2009, Albert 
Ho of the Hong Kong-based China Human Rights Lawyers Concern 
Group reported that Chen's health while in prison ``continues 
to worsen,'' and warned that ``[Chen's] life may be in 
danger.'' \65\ Authorities have placed Chen's wife, Yuan 
Weijing, under varying degrees of home confinement and 
surveillance since 2005. In March 2009, investigative 
journalist Wang Keqin and three companions were ``beaten out of 
[Yuan Weijing's] village'' when they attempted to bring food 
and toys to Yuan and her two young children.\66\ When Wang 
telephoned Yuan to inform her that he could not visit, she 
responded: ``[T]hese people have been around our home for more 
than a year. . . . There are always 11 people around our home, 
24 hours a day. . . . When we go shopping or work in the 
fields, someone is watching us. At night, they even stoop 
outside the window to eavesdrop on us.'' \67\ In April 2009, 
Yuan tried to visit her grieving sister after her brother-in-
law's death in a car accident, but nine men forcibly escorted 
her home where she was ``punched and kicked by the men while 
being dragged back to her house.'' \68\ Authorities have 
reportedly prevented Chen and Yuan's children from enrolling in 
school.\69\

                           Demographic Crisis

    China's skewed sex ratio presents a demographic challenge 
that will continue to worsen over the next 20 years, according 
to an April 2009 study in the British Medical Journal 
(BMJ).\70\ The study estimates that in 2005, there were 32 
million more males than females under the age of 20, and 1.1 
million more boys were born than girls.\71\ Considering the 
impact of China's population planning policies, the study notes 
that ``the fact that the problem of excess males in China seems 
to outstrip that of all other countries is perhaps no 
surprise.'' \72\ Central government data from 2007 estimates a 
greater imbalance in the sex ratio: 37 million more males than 
females.\73\ In 2000, the most recent year for which national 
census data is available, the male-to-female sex ratio for the 
infant-to-four-year-old age group was reportedly 120.8 males 
for every 100 females. This is far above the global norm of 
roughly 105 males for every 100 females.\74\ At least five 
provinces--Jiangsu, Guangdong, Hainan, Anhui, and Henan--
reported ratios over 130 in 2005.\75\ Some political scientists 
argue that large numbers of ``surplus males'' could create 
social conditions that the Chinese government may choose to 
address by expanding military enlistment.\76\ In response to 
government-imposed birth limits and in keeping with a 
traditional cultural bias for sons, Chinese couples often 
engage in sex-selective abortion, especially rural couples 
whose first child is a girl.\77\ The April 2009 BMJ study found 
a steady increase in the sex ratio in China since ultrasound 
technology--through which pregnant couples can determine the 
sex of the fetus--became available in the 1980s.\78\ The study 
attributes what it calls an ``imminent generation of excess 
males'' largely to the practice of sex-selective abortion, 
rather than under-registration of girls or infanticide.\79\ In 
2006, the National People's Congress Standing Committee 
considered, but did not pass, a proposed amendment to the PRC 
Criminal Law that would have criminalized sex-selective 
abortion.\80\ Provincial governments in at least five provinces 
(Guizhou, Hubei, Shandong, Shanxi, and Jiangsu) have passed 
similar measures; \81\ however, the central government has 
taken no action at the national level.

------------------------------------------------------------------------
              Population Planning in Jiujiang: A Case Study
-------------------------------------------------------------------------
  Throughout June and July 2009, population planning authorities in
 Jiujiang, a prefectural-level municipality in Jiangxi province,
 published policy statements, policy objectives, and statistical reports
 which, taken together, illuminate the breadth and depth of population
 planning measures in a local setting. Several themes emerged in these
 reports, including:  <bullet> Concern for ``remedying'' unplanned births and insufficient
   compliance rates. A June 17 report issued by the Jiujiang county
   government emphasized the implementation of ``remedial measures'' to
   ``resolutely put an end to unplanned births and comprehensively raise
   birth policy compliance rates.'' Officials and cadres were urged to
   place special emphasis on abortions as a part of these measures. The
   report said that ``First-trimester abortions or mid- to late-term
   abortions must be performed on all individuals with unplanned
   pregnancies within the allotted time period to ensure the birth
   policy compliance rate reaches the standard.'' \82\
  <bullet> Statistics demonstrating the scale of population planning
   measures in local communities. Governments submitted detailed
   statistics regarding local implementation of population planning
   measures to officials at higher level jurisdictions. These reports
   typically contained information on the amount of fines collected and
   the number of abortions, tubal ligations, pregnancy exams, and
   intrauterine device (IUD) implants conducted in the first half of
   2009. Yining, Huanggang, Quanfeng, and Sidu townships published
   statistical reports on the Xiushui County Population and Family
   Planning Committee (PFPC) Web site.\83\ On July 3, the Xiushui County
   PFPC reported that 13,731 instances of the ``four procedures'' were
   ``implemented'' in the first half of 2009, including 6,766 tubal
   ligations, 5,950 IUD implants, and 1,015 abortions.\84\ These
   developments are characterized as a ``rapid surge of family planning
   services'' resulting from the creation of an ``overwhelming
   atmosphere'' of ``strengthened leadership . . . concentrated energy
   and strengthened measures.'' \85\
------------------------------------------------------------------------


------------------------------------------------------------------------
        Population Planning in Jiujiang: A Case Study--Continued
-------------------------------------------------------------------------
  <bullet> A propaganda drive aimed at both residents and officials.
   July was declared the ``All-County Implementation of First-Trimester
   Abortion and Mid- to Late-Term Abortion Remedial Services Month'' at
   a meeting held for Jiujiang county population planning officials on
   July 7. Officials were told to ``ruthlessly master the implementation
   of remedial measures, the control of unplanned births, and the
   improvement of the birth policy compliance rate.'' \86\ Reports
   issued by Yining, Huanggang, Quanfeng, and Sidu townships described
   the use of propaganda vehicles, murals, banners, and slogans, and the
   distribution of leaflets and audio/video tapes to raise awareness
   about population planning policy.\87\ In Huanggang township, the
   propaganda campaign focused on the ``two inspections and four
   procedures'' (liangjian sishu), which refer to IUD inspections,
   pregnancy examinations (the two inspections), IUD implants, first-
   trimester abortions, mid- to late-term abortions, and sterilization
   (the four procedures).\88\
  <bullet> Rewards and punishments for officials in charge of
   implementing population policy. On June 14, Jiujiang county reported
   that subordinate villages and townships would be ranked according to
   their performance in meeting population planning goals, and the
   leaders of the three lowest ranking areas would be required to give a
   ``situational accounting'' at the next county meeting and to sign a
   written pledge.\89\ In Quanfeng township, two cadres were dismissed
   from their positions for ``incompetence,'' but three villages under
   the township received 2,000 yuan (US$293) bonuses for their
   population planning performance.\90\ In Sidu township, two poorly
   performing villages came under ``focused management'' and were
   threatened with a 5,000 yuan (US$732) fine if their ``rectification
   and improvement'' was unsuccessful. The villages that ranked first
   and second were given a 2,000 yuan (US$293) and 1,000 yuan (US$146)
   reward, respectively.\91\
  <bullet> Rewards and punishments to ensure citizen compliance.
   Officials in Huanggang township were told to remind women of the
   ``preferential policies'' they would enjoy after undergoing tubal
   ligation.\92\ Almost all jurisdictions, however, also discussed the
   collection of ``social compensation fees'' to punish individuals who
   violated population planning regulations.\93\ A July 3 report
   indicates that Xiushui county in Jiujiang municipality collected over
   10 million yuan (US$1.46 million) of social compensation fees in the
   first half of 2009.\94\ The Huanggang township report described fines
   for women who failed to undergo tubal ligation, IUD implantation, or
   an IUD inspection/pregnancy examination when required by the policy
   to do so. The report also stated that the fine would accumulate with
   each missed deadline until the individual underwent the required
   procedure.\95\
------------------------------------------------------------------------


------------------------------------------------------------------------
        Population Planning in Jiujiang: A Case Study--Continued
-------------------------------------------------------------------------
  <bullet> A hierarchical accountability system. According to several
   reports, cadres and officials are held responsible for their
   subordinates' performance, with the lowest level officials personally
   responsible for the population planning policy compliance of
   residents in their neighborhoods or villages.\96\ In Yining township,
   Communist Party members were also held accountable for the compliance
   of their relatives, and residents were encouraged to enforce policy
   with their partners under the slogan, ``Your partner is a
   responsibility, and that responsibility must be fulfilled.'' \97\
  <bullet> Special emphasis on requiring mothers in ``two-daughter
   households'' to undergo surgical sterilization. Local officials
   consider households that already have two daughters a high-risk group
   for population planning policy violations.\98\ Reports on population
   planning measures from Jiujiang municipality jurisdictions included
   the number of tubal ligations conducted on women in ``households with
   two daughters'' or ``households with daughters and no sons'' as a
   distinct subset of the total number of surgical sterilizations.
   Xiushui county reported that out of 6,766 total tubal ligations, 296
   were of women in two-daughter households.\99\ Sidu township reports
   that officials ``pooled their strength to ruthlessly master the
   implementation of tubal ligation measures,'' and required that every
   village ``complete their management of the amount of tubal ligations
   [and specifically] tubal ligations in two-daughter households.''
   \100\
------------------------------------------------------------------------

                          Freedom of Residence


                              Introduction

    The Chinese Government continues to enforce the household 
registration (hukou) system it first established in the 
1950s.\1\ This system limits the right of Chinese citizens to 
choose their permanent place of residence. Regulations and 
policies that condition legal rights and access to social 
services on residency status have resulted in discrimination 
against rural hukou holders who migrate to urban areas for 
work. The hukou system exacerbates barriers that migrant 
workers and their families face in areas such as employment, 
healthcare, property rights, legal compensation, and 
schooling.\2\ Central and local government reforms in recent 
years have mitigated some obstacles to equal treatment, but 
provisions that allow people to change hukou status have 
included criteria that benefit those with greater economic and 
educational resources or with family connections to urban hukou 
holders.\3\ This past year, officials continued to introduce 
limited measures that relax hukou restrictions. The 
government's restrictions on residence and discrimination in 
equal treatment, however, continue to contravene international 
human rights standards.\4\

          New Household Registration (Hukou) Policies in 2009

    This past year, authorities continued to relax certain 
hukou restrictions for Chinese citizens who meet specific 
requirements.\5\ National-, provincial-, and municipal-level 
hukou measures enacted this past year aimed to promote 
employment amid the current economic downturn,\6\ but excluded 
most migrant workers who did not have a college education or 
any special skills.\7\ Recent hukou-related developments 
include:

        <bullet> On January 19, 2009, the State Council General 
        Office issued the Circular Regarding Strengthening 
        Employment for Graduates of Common Higher Educational 
        Institutions (January 19 Circular). The January 19 
        Circular calls on local governments to lift residence 
        restrictions for university graduates recruited by 
        businesses.\8\ At least one Chinese education expert 
        expressed the concern that local officials may not 
        comply with the policy because it is not 
        ``compulsory.'' \9\
        <bullet> Shanghai issued trial measures in February 
        2009\10\ and implementing regulations in June 2009\11\ 
        that allow Shanghai residence permit holders to apply 
        for a permanent hukou if they have possessed a Shanghai 
        residence permit for at least seven years, are employed 
        as a mid- to high-level professional in Shanghai, and 
        have no history of violating national or Shanghai 
        population planning policies, among other 
        requirements.\12\ At the end of 2007, approximately 
        4.115 million persons had undertaken the process to 
        obtain a Shanghai residence permit.\13\ Xinhua reported 
        in February, however, that only about 3,000 people met 
        the seven-year residence requirement, with even fewer 
        meeting all requirements.\14\
        <bullet> From December 2008 to late April 2009, at 
        least six municipalities (Hangzhou, Chengdu, Wuhan, 
        Changsha, Chongqing, and Tianjin) issued or expanded 
        existing policies that would allow residents to 
        register for local hukou after the purchase of housing 
        within the city. For example, Hangzhou officials 
        revised their policy to cover a larger geographic area 
        and set the minimum purchase price in that area at 
        800,000 yuan (US$117,000).\15\ One Chinese newspaper 
        raised concerns about the new policy, saying some 
        cities were requiring more than the purchase of a home, 
        including additional educational requirements, and 
        withholding benefits even after the purchase of a home 
        and attainment of a hukou.\16\
        <bullet> In early 2009, officials in Guangdong province 
        were reportedly considering measures to relax hukou 
        restrictions, including making it easier for long-term 
        residents or home buyers to apply for permanent 
        hukou.\17\

                         Calls for Hukou Reform

    In recent years, Chinese citizens have supported changes in 
the hukou system.\18\ In a 2008 China Youth Daily article, one 
scholar at Tsinghua University argued that reforms to the hukou 
system should be accompanied by educational, employment, 
healthcare, and social security reforms.\19\ A Peking 
University law professor cited in the same article said that 
one possible solution to the current system is to discard 
remnants of China's planned economy, in which the government 
allocates social resources based on hukou, and move China 
further toward a market economy.\20\ Others call for the hukou 
system's complete abolishment. In 2008, Cheng Hai, a Beijing-
based lawyer who has filed multiple hukou-related lawsuits,\21\ 
submitted a proposal to the State Council, the Ministry of 
Public Security, and the Beijing municipal government 
recommending that the government abolish the temporary resident 
permit system that exists for those without a hukou.\22\ In 
2004, a Beijing Institute of Technology professor submitted a 
proposal to the National People's Congress which said that the 
current hukou system violates the PRC Constitution.\23\

                          Liberty of Movement

    The Chinese Government continues to impose certain 
restrictions on Chinese citizens' right to travel that violate 
international human rights standards.\24\ The PRC Passport Law, 
effective January 2007, articulates some beneficial features 
for passport applicants, but gives officials the discretion to 
refuse a passport where ``[t]he competent organs of the State 
Council believe that [the applicant's] leaving China will do 
harm to the state security or result in serious losses to the 
benefits of the state.'' \25\ Authorities restrict travel to 
penalize citizens who express views deemed to be objectionable. 
This past year, authorities placed a number of Chinese 
activists under home confinement and surveillance. Some Chinese 
citizens were prevented from leaving mainland China, while 
other Chinese individuals were prevented from entering mainland 
China, Hong Kong, and Macau. Chinese citizens who are mainland 
residents must obtain travel permits from their local 
government to leave the mainland, including to enter Hong Kong 
and Macau, and Hong Kong and Macau residents are required to 
have a ``Home Return Permit'' to visit the mainland.\26\

     HOME CONFINEMENT AND SURVEILLANCE OF CHINESE CITIZENS DURING 
                     POLITICALLY SENSITIVE PERIODS

        <bullet> Gao Yaojie, an 82-year-old doctor and HIV/AIDS 
        advocate, reported that in early November 2008, one 
        month before World AIDS Day, authorities had begun to 
        step up surveillance of her and her family members.\27\ 
        Gao has been under intermittent surveillance since she 
        exposed government-endorsed blood-selling schemes in 
        Henan province that led to thousands becoming infected 
        with HIV in the 1990s.\28\
        <bullet> Yu Jie, a Beijing-based writer and advocate 
        for Christian groups, said that three days before U.S. 
        Secretary of State Hillary Clinton visited a Beijing 
        church in late February 2009, plainclothes officers 
        told him that he must notify them before leaving his 
        house.\29\
        <bullet> Zeng Jinyan, a blogger and the spouse of 
        imprisoned human rights activist Hu Jia, said that she 
        was arbitrarily confined to her home during U.S. 
        Secretary of State Clinton's February visit to 
        Beijing.\30\
        <bullet> In the days following the 20th anniversary of 
        the Tiananmen protests, Ding Zilin, founder of the 
        Tiananmen Mothers, and her family were required to ride 
        in police cars each time they left their house.\31\ On 
        June 9, domestic security protection officers 
        reportedly ``accompanied'' Ding and her husband to a 
        Beijing municipality suburb to rest.\32\
        <bullet> On June 2, two days before the date of the 
        20th anniversary of the violent suppression of the 1989 
        Tiananmen protests, domestic security protection 
        officers arbitrarily confined Pu Zhiqiang, a rights 
        defense lawyer, at a resort in Fengtai district, 
        Beijing, for five days.\33\
        <bullet> Bao Tong, former senior aide to the late 
        Premier Zhao Ziyang,\34\ and his wife, Jiang Zongcao, 
        reportedly were advised by public security officials to 
        leave their Beijing residence on May 25, 2009. 
        Authorities reportedly told Bao that he could return to 
        Beijing after the 20th anniversary of the 1989 
        Tiananmen protests in early June.\35\

   CHINESE CITIZENS PREVENTED FROM TRAVELING TO HONG KONG OR OVERSEAS

        <bullet> Yunnan province border authorities reportedly 
        stopped Liao Yiwu, a writer from Sichuan province, from 
        leaving mainland China in late April 2009. Liao was 
        traveling to Australia to accept an award from a 
        foundation for a book he wrote on the May 2008 Sichuan 
        earthquake.\36\
        <bullet> In March and July 2009, public security 
        officials reportedly stopped Zan Aizong, a writer based 
        in Hangzhou, Zhejiang province, from boarding a plane 
        to Hong Kong. On his third attempt to travel to Hong 
        Kong in March, Zan held a valid travel permit for Hong 
        Kong and Macau. As of July 2009, authorities had 
        blocked Zan from leaving mainland China four times 
        since 2007.\37\

CHINESE INDIVIDUALS BARRED FROM ENTERING MAINLAND CHINA, HONG KONG, AND 
                                 MACAU

        <bullet> Between June 7 and August 1, 2009, Feng 
        Zhenghu, a Shanghai-based human rights activist and 
        Chinese citizen, was prevented from returning to China 
        from Japan seven times.\38\ Feng, who was in Japan 
        temporarily, reported that on his fourth, fifth, and 
        sixth attempts to return to China, representatives from 
        Northwest Airlines at Narita International Airport in 
        Tokyo did not allow him to board flights to 
        Shanghai.\39\ On his seventh attempt to return to 
        China, Feng took a flight on a Japanese airline from 
        Tokyo and landed in Shanghai on the night of July 31. 
        He was put forcibly on a flight back to Japan the next 
        morning by Shanghai law enforcement officials, 
        according to the non-governmental organization (NGO) 
        Chinese Human Rights Defenders.\40\ As of September 1, 
        Feng was still in Japan, unable to return to China.\41\
        <bullet> In early 2009, Lu Wenhe, Zhou Jian, and Dan 
        Xuan, who are affiliated with the Independent 
        Federation of Chinese Students and Scholars, a U.S.-
        based NGO founded after the 1989 Tiananmen protests, 
        were denied entry into China when they attempted to 
        enter the country with valid Chinese visas.\42\
        <bullet> On June 3, 2009, Wu'er Kaixi, a student leader 
        in the 1989 Tiananmen protests and a Taiwan passport 
        holder, was denied entry into Macau and repatriated 
        back to Taiwan the same day. Wu'er Kaixi reportedly had 
        flown to Macau from Taiwan to turn himself in to the 
        Chinese Government and reunite with his family in 
        Beijing.\43\
        <bullet> In May 2009, the organizer of an academic 
        conference in Hong Kong said that Chinese officials 
        denied visas to Wang Dan and Wang Juntao, two prominent 
        overseas democracy advocates. Both had been invited to 
        Hong Kong to participate in a panel on the 1989 
        Tiananmen protests. Wang Dan said that in 2008 
        authorities also had refused his request to renew his 
        Chinese passport.\44\
        <bullet> On May 9, 2009, Hong Kong Special 
        Administrative Region border control authorities 
        reportedly barred Dr. Yang Jianli, a democracy 
        advocate, from entering Hong Kong. Dr. Yang reportedly 
        had planned to discuss with other NGOs commemoration 
        activities for the 20th anniversary of the 1989 
        Tiananmen protests.\45\ Yang, who holds a valid Chinese 
        passport, was also denied entry into Hong Kong in 
        August 2008.\46\

        <bullet> In December 2008, over 20 prodemocracy 
        advocates and lawmakers from Hong Kong were denied 
        entry into Macau. The advocates and lawmakers 
        reportedly were planning to take part in demonstrations 
        against the Macau Special Administrative Region 
        National Security Law.\47\ [For more information on 
        this law, see Section III--Developments in Hong Kong 
        and Macau--Controversial National Security Bill Passed 
        in Macau.]

                            Status of Women


                              Introduction

    During the Commission's 2009 reporting year, Chinese 
officials continued to pursue policies that aim to protect 
women's rights. China's sexual harassment and domestic 
violence-related legal framework saw further improvements. 
Authorities have also promoted women's employment and taken 
steps to eliminate gender-based discrimination in the 
workplace. At the same time, gender-based discrimination in 
China with respect to issues such as wages, recruitment, 
retirement age, and sexual harassment remains widespread. The 
government's implementation of domestic laws and policies 
related to women's rights falls short of international 
standards. Problems such as lack of transparency and control 
over information flows have impeded some of the government's 
efforts to fulfill these commitments. In the report China 
submitted in November 2008 as part of the UN Human Rights 
Council's Universal Periodic Review of China's human rights 
record, the Chinese Government said that the promotion of 
equality between men and women ``has always been a basic State 
policy.'' The report noted the passage of ``some 100 laws and 
regulations'' purporting to protect women's rights.\1\

                            Gender Equality


                        POLITICAL PARTICIPATION

    The Chinese Government has committed to ensuring female 
representation in government. The 2009-2010 National Human 
Rights Action Plan states that women should occupy at least 50 
percent of government leadership positions in central 
government ministries, provincial governments, and city 
governments.\2\ Additionally, provisions in two national laws--
Article 11 of the PRC Law on the Protection of Women's Rights 
and Interests and Article 6 of the Electoral Law of the 
National People's Congress and Local People's Congresses--
stipulate that an ``appropriate number'' of female deputies 
should serve at all levels of people's congresses.\3\ The 
central government at the same time has yet to fully realize 
its goal of equal female representation in government. The 
government as of March 2009 reportedly has only about 230 
ministerial or provincial-level female officials.\4\ 
Additionally, only one woman sits on the 25-member Central 
Communist Party Committee's Politburo, the Party's most 
powerful decisionmaking body. The Party's nine-member Politburo 
Standing Committee currently has no female members.\5\ For the 
11th National People's Congress, which is currently in session, 
21.33 percent of the deputies are female, slightly less than 
the required minimum quota of 22 percent, which was set in 
March 2007 at the end of the 10th National People's 
Congress.\6\

                          ACCESS TO EDUCATION

    According to the 1986 PRC Compulsory Education Law, all 
children and teenagers who are Chinese citizens of the 
appropriate age have the right and obligation to receive nine 
years of compulsory education, regardless of their gender, 
ethnicity, race, family financial status, or religious 
beliefs.\7\ Education levels in China are rising,\8\ and the 
gender gap in compulsory education is narrowing.\9\ The Chinese 
Government has supported educational policies and programs and 
has appropriated funding to encourage equal access to 
education.\10\ However, unequal access to education for girls 
in poorer, rural areas of China remains a significant 
issue.\11\ China Youth Daily reported in February 2009 that 
some parents in rural ethnic minority areas prefer that girls 
work rather than go to school, despite government policies 
promoting and encouraging female education.\12\ The article 
also noted that girls from impoverished backgrounds in ethnic 
minority areas who face choices between early marriage and 
migrant work sometimes drop out of school at an early age.\13\

                               HEALTHCARE

    As a state party to the Convention on the Elimination of 
All Forms of Discrimination against Women and the International 
Covenant on Economic, Social and Cultural Rights, the Chinese 
Government has committed to ensuring all its citizens the right 
to health without gender-based discrimination.\14\ While 
women's health in China has improved in the last 30 years,\15\ 
the government has not yet provided all women and girls with 
equal access to healthcare and physical and mental treatment. 
Healthcare and reproductive health services for women in 
poorer, rural areas of China may be inadequate.\16\ 
Additionally, the female suicide rate in China is high,\17\ 
especially among rural women.\18\ According to some mental 
health experts, the high number of suicides and suicide 
attempts among rural women can be attributed to economic 
difficulties and marital and family conflicts, as well as the 
government's one-child policy and the prevalence of trafficking 
and abduction of women and children.\19\ Easy access to 
pesticides contributes to the prevalence of suicides among 
rural women.\20\ Inadequate mental health treatment programs 
may also contribute to suicide among women who suffer from 
mental illness and depression.\21\

                        REPRODUCTIVE HEALTHCARE

    While women's reproductive health in China has 
improved,\22\ several challenges in this area remain. The 
Chinese Government has launched public campaigns to raise 
awareness about reproductive health issues;\23\ however, women 
and girls, especially women in rural areas, continue to have 
limited access to reproductive health-related care and 
education.\24\ Cultural taboos in China regarding sex and 
reproductive health issues also may lower the likelihood that 
women will seek medical treatment for sexually transmitted 
diseases, including HIV/AIDS.\25\ China's male-female birth 
ratio in the past 30 years has grown increasingly out of 
balance. In response to government-imposed birth limits and in 
keeping with a traditional cultural bias for sons, Chinese 
couples often engage in sex-selective abortion, especially 
rural couples whose first child is a girl.\26\ One Chinese 
official estimated that by 2020, men between the ages of 20 and 
45 will outnumber women in the same age bracket by 30 
million.\27\ [For more information on the increasing problem of 
gender imbalance, see Section III--Population Planning--
Demographic Crisis.]

                     Sexual Violence Against Women

    The UN Declaration on the Elimination of Violence against 
Women provides that violence against women may encompass 
physical, sexual, and psychological violence occurring within 
the family or general community, or perpetrated or condoned by 
the state.\28\ At the United Nations' Fourth World Conference 
on Women in Beijing in 1995, China pledged to enact and 
reinforce ``domestic legislation to punish and redress the 
wrongs done to women and girls who are subjected to any form of 
violence. . . .'' \29\ The Chinese Government also pledged to 
``study the causes and consequences of violence against women 
and the effectiveness of preventive measures.'' \30\

                            SEXUAL VIOLENCE

    Several laws in China prohibit and stipulate penalties for 
sexual violence.\31\ Article 2 of the PRC Law on the Protection 
of Women's Rights and Interests prohibits ``discrimination 
against, maltreatment of, abandonment of, or cruel treatment 
causing bodily injury or death to, women.'' \32\ Articles 236 
and 237 of the PRC Criminal Law provide for the punishment of 
imprisonment for violence against women and girls, including 
sexual intercourse with girls younger than 14, rape, and the 
use of violence or coercion to commit an indecent act against a 
woman or child.\33\ The Chinese Government at the same time has 
not made available any yearly official statistics on rape or 
sexual assault in China, leaving the scale of sexual violence 
in China difficult to gauge.\34\ Migrant female workers are 
especially vulnerable to sexual violence.\35\ Young women are 
also vulnerable. Deng Yujiao, a 21-year-old worker at Xiongfeng 
Hotel in Badong county, Hubei province, became an Internet 
sensation after news spread that she stabbed a local official 
to death and injured another while defending herself against an 
attempted rape in May 2009.\36\ The case unleashed a torrent of 
sympathy and support for Deng within China and especially on 
the Internet. It also helped raise public awareness about 
women's rights and the prevalence of sexual violence against 
women.\37\ The Center for Women's Law & Legal Services of 
Peking University, for example, issued a statement after the 
stabbing saying that the case ``lay[s] bare China's long 
history of discrimination against women in a male-dominated 
society,'' \38\ and an essay posted on an Internet forum hosted 
by the People's Daily reportedly called Deng Yujiao's stabbing 
a ``heroic act'' and a turning point for women's 
liberation.\39\ Additionally, after the stabbing, five women 
reportedly staged a demonstration near the Beijing West Railway 
Station, and another protester, wrapped in white cloth and 
wearing a face mask, lay on the ground next to a sheet that 
read: ``Anyone could become Deng Yujiao.'' \40\ It is unclear 
what effect the case will have on the root causes of sexual 
violence in China, which include societal attitudes toward 
women, the lack of a coordinated national policy against sexual 
violence, and the paucity of professional services for 
victims.\41\

                           DOMESTIC VIOLENCE

    Domestic violence affects one-third of China's 267 million 
families, according to a November 2008 China Daily article, 
which cited statistics from the All-China Women's Federation, a 
Communist Party-led organization.\42\ Several laws in China 
address domestic violence. The PRC Marriage Law was one of the 
first legal documents in China to refer to domestic 
violence.\43\ Article 46 of the PRC Law on the Protection of 
Women's Rights and Interests mandates that ``the state take 
measures to prevent and deter domestic violence.'' \44\ 
Domestic violence offenders may be punished under Articles 234, 
236, and 260 of the PRC Criminal Law.\45\ Additionally, at 
least 69 local regulations reportedly contain references to 
domestic violence.\46\ Some Chinese scholars argue that China's 
current laws and regulations against domestic violence are 
difficult to implement because they are too abstract or narrow 
and do not assign legal responsibilities clearly and 
concretely.\47\ In recent years, the government passed or 
considered legislation and other measures aimed at protecting 
women from domestic violence. For example:

        <bullet> On July 31, 2008, the Opinion on Preventing 
        and Deterring Domestic Violence (Opinion) was jointly 
        issued by the Central Propaganda Department, All-China 
        Women's Federation, Supreme People's Procuratorate, 
        Ministry of Public Security, Ministry of Justice, 
        Ministry of Civil Affairs, and Ministry of Health.\48\ 
        The Opinion appears to increase the government's 
        responsibility in handling domestic violence cases.\49\
        <bullet> In March 2008, the Institute of Applied Laws 
        under the Supreme People's Court issued a guidance 
        aimed at ensuring the safety of domestic violence 
        victims who are involved in pending court cases.\50\ 
        Since it was issued, the guidance as of June 2009 has 
        reportedly resulted in at least 11 protection orders 
        issued by some of the nine pilot courts that were 
        established to prohibit spousal intimidation.\51\ These 
        court-issued protection orders marked the first time 
        that Chinese courts have issued judicial protection 
        orders for personal safety in a civil case.\52\
        <bullet> In April 2009, the Hunan High People's Court 
        reportedly issued a guiding opinion concerning the 
        strengthening of protections for female victims during 
        domestic violence-related judicial proceedings. The 
        opinion reportedly marks the first time a provincial-
        level people's court has issued a guiding opinion 
        specifically concerning domestic violence cases. The 
        guiding opinion reportedly stipulates, among other 
        measures, that victims' police and medical records, as 
        well as the appraisal of legal medical experts, can be 
        used in civil lawsuits to confirm the existence of 
        domestic violence.\53\
        <bullet> In March 2008, a proposal for legislation on 
        deterring and preventing domestic violence was 
        reportedly submitted to the National People's Congress 
        (NPC). By the end of the annual meeting of the NPC in 
        2009, there were no further developments on the 
        proposal.\54\

                   SEXUAL HARASSMENT IN THE WORKPLACE

    Chinese laws, including the PRC Law on the Protection of 
Women's Rights and Interests, prohibit sexual harassment, but 
the crime of sexual harassment is not explicitly included in 
the PRC Criminal Law.\55\ At least four provinces (Jiangsu, 
Fujian, Henan, and Hebei) and one provincial-level municipality 
(Chongqing) have reportedly included detailed definitions of 
sexual harassment in legislation.\56\ In June 2008, a court in 
Chengdu city, Sichuan province, citing the PRC Criminal Law, 
sentenced a manager to five months' criminal detention, marking 
the first time someone had been criminally punished for sexual 
harassment in China.\57\ In February 2009, a study group led by 
three Chinese researchers submitted a draft proposal to the 
National People's Congress for a law aimed at preventing sexual 
harassment in the workplace. The proposed law would hold both 
the government and employers responsible for the prevention and 
punishment of sexual harassment in the workplace.\58\

              Gender-Based Discrimination in the Workplace

    Gender-based discrimination in China with respect to issues 
such as wages, recruitment, retirement age, and sexual 
harassment remains widespread, despite the government's efforts 
to eliminate gender-based discrimination and promote women's 
employment.

                                 WAGES

    Gender-based discrimination with respect to equal pay and 
recruitment remains a challenge for women in China, despite 
laws prohibiting gender-based discrimination and promoting 
gender equality in the workplace. These laws include the PRC 
Law on the Protection of Women's Rights and Interests,\59\ the 
PRC Labor Law,\60\ and the PRC Employment Promotion Law.\61\ 
Wage-based discrimination is particularly prevalent among 
female migrant workers.\62\ A 2008 report by the Chinese 
Academy of Social Sciences indicated that the monthly wage of 
female migrant workers in China is 910.78 yuan (US$132), nearly 
200 yuan (US$29) lower than the average wage of male migrant 
workers.\63\ Women with higher levels of education also face 
gender discrimination in the workplace. When comparing college 
graduates with similar educational backgrounds, one 2009 survey 
conducted by a private company found that men's monthly 
earnings could be as high as 800 yuan (US$116) more than 
women's.\64\

                              RECRUITMENT

    Women in China continue to confront gender discrimination 
while trying to secure employment. According to a Chinese media 
article, men on average can secure a job interview after 
submitting 2 to 3 resumes, while women are only able to secure 
interviews after submitting 8 to 10 resumes. The article also 
reported that some companies in China have ``raised the 
employment threshold'' by adding physical and personal 
requirements for female candidates. These requirements, which 
are frequently related to height, appearance, age, marital 
status, and child-bearing status, are used to ``reject'' female 
job seekers.\65\ In March 2009, the Beijing Evening News 
reported that companies at a job fair required women to be 
``slender and in good disposition,'' between 5,6" and 5,7", and 
``between 99 and 121 pounds.'' \66\ Similarly, a Chinese news 
article reported that a document issued by the Hunan provincial 
government included in its criteria a stipulation that all 
female civil servant candidates should have ``symmetrical 
breasts.'' \67\ Some government departments, including 
departments within the judicial system, have also excluded 
women from hiring in favor of men of a certain height, in order 
to ``reflect the country's image,'' according to a Chinese 
expert on employment discrimination interviewed in the People's 
Daily.\68\

                       MANDATORY RETIREMENT AGES

    The difference in mandatory retirement ages for men and 
women in China obstructs some women's career advancement, 
particularly women in senior positions and women with higher 
educational levels. Currently, retirement ages for male and 
female government and Party officials are 60 and 55 
respectively, while retirement ages for male and female workers 
in general are 60 and 50 respectively. Because female employees 
have fewer years to work, they may receive smaller pensions and 
fewer social security benefits upon retirement. The lower 
compulsory retirement age for women also contributes to hiring 
discrimination, as employers prefer to hire younger women 
rather than women who are over 40.\69\ An unsuccessful lawsuit 
was filed in Henan province in 2006 against an employer for 
violating the PRC Constitution's principle of gender equality 
by forcing a senior female employee to retire.\70\ In December 
2008, the Beijing municipal government announced and sought 
public comment on a plan to increase the compulsory retirement 
age from 55 to 60 for female officials who work at the county 
level or above.\71\ In May 2009, the Beijing municipal 
government issued a revised version of the draft\72\ which, 
unlike the original draft, did not specify whether the 
retirement age for female officials would be increased from 55 
to 60. The revised draft, however, did stipulate that the 
government's retirement system may not discriminate on the 
basis of gender.\73\ During the period when the measures were 
open for public comment, an official quoted by a Chinese 
newspaper reportedly said that one of the reasons Beijing 
municipality should maintain the compulsory retirement age for 
female cadres is because the central government had already 
published measures that permitted female intellectuals to 
retire at a later age if they met certain conditions.\74\

------------------------------------------------------------------------
                      Hainan's New Court Initiative
-------------------------------------------------------------------------
  In March, the Hainan High People's Court issued a circular to courts
 at all levels in Hainan province requiring each court to establish a
 collegial panel of judges dedicated to the protection of women's
 rights. Hainan was reportedly the first province to order the
 establishment of such panels. The circular states that at least one
 judge on each panel must be female, and that the panels will hear cases
 involving marital disputes, spousal and child support, and the rights
 of female workers, as well as disputes over compensation for land taken
 from women who have married out of their villages. The circular further
 states that for cases involving women's rights and interests that could
 have a major impact in the jurisdiction, panels should invite
 representatives from the local state-run All-China Women's Federation
 to attend the hearing.\75\
------------------------------------------------------------------------

                           Human Trafficking


                              Introduction

    The Chinese Government during the Commission's 2009 
reporting year took steps to eliminate human trafficking but 
continued to fail to address longstanding challenges. Officials 
in the past year continued to focus on the abduction and sale 
of women and children. Other pervasive forms of trafficking--
including labor trafficking and trafficking for commercial 
sexual exploitation--received inadequate levels of protection 
and attention. Despite reiterating their intention to do so, 
authorities had not yet ratified the UN Protocol to Prevent, 
Suppress and Punish Trafficking in Persons, Especially Women 
and Children (TIP Protocol). The TIP Protocol contains the 
first global definition of trafficking, and obligates state 
parties to criminalize related offenses listed in the 
protocol.\1\ In 2008 and 2009, a number of provincial 
governments, central government agencies, and Communist Party 
organizations issued regulations, plans, or opinions to 
implement the National Plan of Action on Combating Trafficking 
in Women and Children (2008-2012).

                               PREVALENCE

    China remains a country of origin, transit, and destination 
for human trafficking and abductions.\2\ The majority of 
trafficking cases are domestic and involve trafficking for 
sexual exploitation, forced labor, and forced marriage. Women 
and children, who make up 90 percent of these cases, are 
trafficked from impoverished or remote areas to more affluent 
locations, such as provinces along China's east coast.\3\ 
Although the majority of trafficking cases are within China's 
borders, human traffickers--also called snakeheads--continue to 
traffic Chinese women and children from China to locations 
overseas, such as Africa, Asia, Europe, Latin America, the 
Middle East, and North America.\4\ Women and girls from 
countries including North Korea, Vietnam, and Burma are also 
trafficked into China, and forced into marriages, employment, 
and sexual exploitation. Women comprise two-thirds of the tens 
of thousands of North Korean refugees hiding in China.\5\ 
Although many North Korean women initially enter China 
voluntarily, it is estimated that up to 70 to 80 percent of 
these undocumented women become victims of trafficking.\6\ [For 
more information on North Korean refugees in China, see Section 
II--North Korean Refugees in China.] Forced labor, especially 
forced child labor, continues to be a pressing problem. In 
November 2008, cases of forced child labor were reported in 
Guangdong province, Shanghai municipality, and Hubei 
province.\7\ Child abductions are also pervasive. The 
Commission noted in 2007 that there had been an increase in 
infant abduction cases, especially between 2004 and 2006.\8\ 
The Guardian, a London-based newspaper, reported in 2007 that 
190 children are abducted per day in China.\9\ Overseas news 
organizations attribute the large number of child abductions in 
China to the state's one-child policy and Chinese families' 
preference for sons.\10\ Parents, especially those from rural 
areas in southern China, reportedly purchase boys as family 
heirs at prices ranging between 3,500 yuan (US$512) and 10,000 
yuan (US$1,464), according to international news reports.\11\ 
Girls reportedly sell at a lower price to orphanages who put 
them up for foreign adoption or to families who are looking for 
future wives for their sons.\12\ Parents of abducted children 
have initiated their own searches for missing children, or have 
traveled to Beijing to petition. In October 2008, 40 parents 
whose children had been abducted reportedly went to Beijing to 
petition and briefly protested in front of China Central 
Television's headquarters before police intervened.\13\

       EXAMPLES OF HUMAN TRAFFICKING AND ABDUCTION CASES IN 2009

        <bullet> The Washington Post and Radio Free Asia 
        reported on the presence of underage workers from the 
        Xinjiang Uyghur Autonomous Region--some as young as 14 
        years old--employed in factories in the interior of 
        China through government-sponsored labor transfer 
        programs. Some sources cited in the articles reported 
        that local officials were coercing children to leave 
        their homes and some sources said authorities used 
        fraudulent methods so the children would appear to meet 
        the working age of 18 stipulated by the factory 
        employing the workers.\14\
        <bullet> Chinese media reported in March that a woman 
        who had been forced to live in a cave in Inner Mongolia 
        Autonomous Region had been admitted to a psychiatric 
        hospital and reunited with family members. The woman 
        had been sold sometime around 1993 for 4,000 yuan 
        (US$586, according to current rates of exchange) and 
        reportedly had been trafficked and sold several times 
        before then. Chinese news reports and national 
        attention concerning the case prompted authorities to 
        establish a special team to focus on the case.\15\
        <bullet> During the past few years, children have been 
        forced into prostitution and indentured servitude, and 
        forced to beg,\16\ steal,\17\ hawk flowers,\18\ and 
        work in brick kilns.\19\ In June 2009, China's official 
        news media reported that public security officers had 
        freed 17 boys and 3 girls aged 8 to 16 who were forced 
        to steal in Guangzhou city, Guangdong province. Members 
        of a criminal syndicate reportedly would whip the 
        children and burn them with cigarettes if they did not 
        turn in 2,000 yuan (US$293) to 5,000 yuan (US$731) each 
        day.\20\
        <bullet> In April 2009, the South China Morning Post 
        reported that more than 100 parents in Dongguan city, 
        Guangdong province, protested how authorities handled 
        the alleged abduction of over 1,000 children from the 
        area during the past two years. One parent cited in the 
        article said that 80 percent of the 1,000 child 
        abduction cases reported since April 2007 in Dongguan 
        were never filed by law enforcement officials because 
        of ``inadequate evidence.'' \21\
        <bullet> Xinhua and China Daily in early July 2009 
        reported that local officials in Zhenyuan county, 
        Guizhou province, were reporting female infants as 
        abandoned children and putting them up for foreign 
        adoption at a government-run orphanage. In one reported 
        case, local family planning officials took away a 
        female child from a family who had not paid fines 
        related to family planning policy violations.\22\

                        ANTI-TRAFFICKING EFFORTS

    The Chinese Government in some cases during the past year 
investigated and prosecuted trafficking crimes and rescued 
human trafficking victims.\23\ In March 2009, Xinhua reported 
that authorities executed Ye Zengxi, the main defendant in a 
case in which eight boys were abducted in Henan province and 
sold to rural families in Henan and Shandong provinces.\24\ In 
December 2008, the Guiyang Intermediate People's Court 
reportedly sentenced He Kaixun to death for his involvement in 
the trafficking of 80 women and children, the province's 
largest documented trafficking case of women and children.\25\ 
Authorities also at times acted promptly to prosecute labor 
traffickers and employers of forced labor.\26\ In May 2009, 
public security officers reportedly arrested 10 men for buying, 
enslaving, and abusing 32 ``mentally handicapped'' individuals 
between the ages of 25 and 45 who had been forced to work in 
brick kilns in Anhui province.\27\
    Authorities also made efforts to prevent trafficking and 
improve China's anti-trafficking legal framework. After the May 
2008 Sichuan earthquake, the government issued a circular that 
strengthened enforcement measures against child abductions and 
other related crimes.\28\ Thousands of children were orphaned 
after the earthquake, and Chinese and overseas media reported 
on babies being stolen from areas affected by the quake.\29\ In 
March 2009, Chinese official media reported on the high demand 
for abducted children in China and high profits for the 
criminals who abduct them.\30\ In April 2009, the Ministry of 
Public Security launched an eight-month national anti-
trafficking campaign targeting the trafficking of women and 
girls.\31\ The Ministry of Public Security and the Central 
Committee for Comprehensive Management of Public Security in 
January 2009 began including anti-trafficking work in their 
overall evaluation of provincial-level public security 
bureaus.\32\ In June 2009, the National Working Committee on 
Children and Women, a committee administered by the State 
Council, reportedly announced a plan to protect members of the 
``floating population'' (liudong renkou) who are under 16 years 
old. Among other protections, the plan calls for a registration 
management system and would attempt to improve communication 
channels between childrens' place of origin and 
destination.\33\ Since 2004 
several Chinese ministries, the All-China Women's Federation, 
and the International Labour Organization have partnered on a 
project, which among other objectives, aims to reduce the 
vulnerability of women and girls to trafficking.\34\
    Officials also took steps this past year to increase 
international cooperation on the prevention of cross-border 
human trafficking. In November 2008, a Chinese delegation in 
Vientiane, Laos People's Democratic Republic, reported on the 
issuance of three provincial anti-trafficking action plans, as 
well as on bilateral law enforcement meetings with Burma and 
Vietnam in February 2008.\35\ In late December 2008, an anti-
trafficking border liaison office was reportedly opened in 
Jingxi county, Guangxi Zhuang Autonomous Region, and will 
promote cross-border anti-trafficking efforts between China and 
Vietnam.\36\

                      ANTI-TRAFFICKING CHALLENGES

    The legal definition of trafficking under Chinese law does 
not conform to international standards. Under Article 240 of 
the PRC Criminal Law, the trafficking of persons is defined as 
``abducting, kidnapping, buying, trafficking in, fetching, 
sending, or transferring a woman or child, for the purpose of 
selling the victim.'' \37\ This definition is narrower in scope 
than the definition provided in Article 3 of the UN Protocol to 
Prevent, Suppress and Punish Trafficking in Persons, Especially 
Women and Children, which China has not yet signed.\38\ The 
U.S. Department of State's 2009 Trafficking in Persons Report 
(TIP Report) stated:

        China's definition of trafficking does not prohibit 
        non-physical forms of coercion, fraud, debt bondage, 
        involuntary servitude, forced labor, or offenses 
        committed against male victims, although some aspects 
        of these crimes are addressed in other articles of 
        China's criminal law. China's legal definition of 
        trafficking also does not automatically regard minors 
        over the age of 14 who are subjected to the commercial 
        sex trade as victims.\39\

    Using the narrower definition of human trafficking under 
Chinese law, the Ministry of Public Security reportedly 
investigated 2,566 cases of potential trafficking in 2008.\40\ 
As the Commission reported in 2008, the disconnect between 
official statistics and China's current trafficking situation 
has negative implications for anti-trafficking work in China, 
including the government's prosecution efforts, protection of 
victims, and funding.\41\
    Authorities have focused their anti-trafficking efforts on 
cases involving the trafficking and abduction of women and 
children,\42\ while other forms of trafficking, including 
trafficking for forced labor and commercial sexual exploitation 
have received less attention and protection despite their 
prevalence.\43\ Chinese authorities also do not provide 
adequate services for trafficked victims, particularly Chinese 
citizens trafficked for labor exploitation and trafficked 
abroad.\44\ In addition, key information regarding the 
government's anti-trafficking efforts is not readily available, 
making it difficult for the public and other individuals to 
assess the government's anti-trafficking efforts.\45\ 
Authorities also continue to fail to distinguish between human 
trafficking statistics and human smuggling statistics.\46\ 
Without a clear division and recognition of the distinction 
between human trafficking and human smuggling, victims of human 
trafficking may be considered as criminals who cross borders 
illegally.\47\ In the 2009 TIP report, the U.S. Department of 
State placed China on its Tier 2 Watch List for the fifth 
consecutive year, stating ``the Chinese Government did not 
demonstrate progress in combating human trafficking from the 
previous year (2007), particularly in terms of punishment of 
trafficking crimes and the protection of Chinese and foreign 
victims of trafficking.'' \48\

------------------------------------------------------------------------
 Provincial-Level Implementation of National Plan of Action on Combating
              Trafficking in Women and Children (2008-2012)
-------------------------------------------------------------------------
  The State Council issued China's anti-trafficking guideline, the
 National Plan of Action on Combating Trafficking in Women and Children
 (2008-2012) (NPA), in December 2007.\49\ In March 2009, 29 ministries,
 central government offices, and Communist Party organizations jointly
 issued implementation regulations for the NPA.\50\ The March 2009
 implementation regulations are similar to at least five other
 implementation plans or opinions issued in 2008 and in early 2009 by
 provincial-level governments in Guizhou, Hainan, Fujian, and Yunnan
 provinces, and the Tibet Autonomous Region.\51\ The provincial-level
 plans and opinions, like the NPA, focus on women and children.\52\
 Among other stipulations,\53\ the plans and opinions call for
 intensifying prevention awareness efforts in locations where ``floating
 populations'' gather, such as train stations, bus stations, airports,
 places for public entertainment, and hotels. The plans and opinions
 also stipulate that each locality and department should include funds
 in their annual budgets for the development and implementation of anti-
 trafficking work. The plans or opinions ban illegal marriage brokerage
 and employment agencies, as well as their Web sites, and state that
 organizations or individuals who are associated with the introduction,
 purchase, or forced employment of trafficked women and children should
 be investigated and punished according to the law.\54\
  Unlike the plans or opinions of other provinces, Yunnan's provincial
 implementing opinion includes a new measure that allows rescued women
 who cannot or are unwilling to return home to remain in Yunnan
 province.\55\ Under these new measures, trafficked Chinese women
 without local household registration (hukou) would be able to avoid
 involuntary repatriation, thus minimizing the risks that traffickers
 would threaten or ``re-traffic'' them once they returned home. The
 measures do not specify whether this new policy is applicable to all
 women or only to Chinese citizens who are women. If interpreted to
 apply to all women, including non-Chinese citizens, this policy would
 comply with the international standard set forth in Article 7 of the
 TIP Protocol.\56\
------------------------------------------------------------------------

                     North Korean Refugees in China

    In 2008 and 2009, conditions for North Korean refugees 
hiding in China did not improve, and Chinese authorities did 
not relax their campaign to locate and forcibly repatriate 
refugees. The Chinese government maintained a high level of 
border surveillance and carried out periodic crackdowns against 
refugees and Chinese citizens who harbor them. The Chinese 
government's repatriation of North Korean refugees contravenes 
its obligations under the 1951 Convention Relating to the 
Status of Refugees and its 1967 Protocol.\1\ North Korea's 
chronic food shortages continue to create pressures that push 
refugees into China in search of sustenance.\2\ The North 
Korean government's treatment of repatriated refugees as 
criminals and traitors renders North Koreans in China 
``refugees sur place'' under international law, a status that 
obliges the Chinese government to refrain from repatriating 
them.\3\

        China's Unlawful Repatriation, Punishment in North Korea

    In the Commission's 2009 reporting year, Chinese 
authorities persisted with their policy of enforcing unlawful 
repatriation of North Korean refugees and criminal punishment 
of Chinese citizens who provide material assistance or refuge 
to North Koreans. In August 2009, the Erlianhaote City People's 
Court in the Inner Mongolia Autonomous Region sentenced Zhang 
Yonghu and Li Mingshun to 7 and 10 years' imprisonment, 
respectively, for providing food, shelter, and transportation 
to 61 North Korean refugees who crossed the Chinese border into 
Mongolia.\4\ In November 2008, Chinese public security agents 
detained 11 North Korean refugees in Kunming city, Yunnan 
province, who were fleeing to Southeast Asian countries in 
search of asylum. The 11 refugees, ranging in age from 19 to 
50, were sent from Kunming to a detention facility in Dandong 
city, Liaoning province, in preparation for their repatriation 
to North Korea.\5\ Also in November, Chinese authorities 
reportedly repatriated 50 refugees caught in and around Tumen 
city, Jilin province.\6\ In January 2009, a South Korean 
non-governmental organization reported that a group of refugees 
repatriated from China between May and July 2008 had been 
transferred to the Yoduck Labor Detention Center, a prison 
labor camp in North Korea's South Hamgyong province.\7\ 
Researchers have found that the constant fear of arrest and 
deportation in China coupled with the experience of persecution 
and hunger in North Korea cause enormous psychological hardship 
for North Korean refugees. A recent large-scale survey 
concluded that many North Korean refugees ``suffer severe 
psychological stress akin to post-traumatic stress disorder.'' 
When asked which factors most fuel their anxiety, 67 percent of 
refugees answered ``arrest.'' \8\
    Refugees repatriated from China routinely face the threat 
of arbitrary imprisonment, torture, and capital punishment upon 
return to North Korea, and those caught while fleeing North 
Korea receive similar treatment.\9\ On February 2, 2009, 
inspectors from North Korea's National Security Agency (NSA) 
reportedly seized a family of three that was attempting to 
cross the border near Hoeryong city, North Hamgyong province, 
with assistance from North Korean military personnel and 
detained another worker from the same province who was 
receiving assistance to cross the border from a relative in 
South Korea.\10\ Starting in January 2009, North Korean 
authorities announced that minors older than 14 years of age 
would be punished as adults if caught attempting to cross the 
border.\11\ On February 1, a court in Hoeryong reportedly 
sentenced two middle school students to three years in prison 
for illegally crossing the border into China.\12\ In late 
March, three female repatriated refugees were reportedly 
convicted in a ``public trial'' in Chungjin city, North 
Hamgyong province, and sentenced to terms of unknown duration 
in prison labor camps.\13\
    As the Commission reported in 2008, North Korean refugees 
face the dual threat of arrest by Chinese security agents and 
abduction by North Korean agents operating clandestinely on the 
Chinese side of the border.\14\ Former North Korean agents who 
have defected to South Korea have confirmed the existence of 
covert operations to infiltrate ethnic Korean churches in China 
and to capture refugees by posing as religious leaders or 
converts.\15\ Two American journalists who were investigating 
the plight of North Korean refugees reported in September 2009 
that North Korean security agents detained them on the Chinese 
side of the border and ``violently dragged'' them back to North 
Korea.\16\ Repatriated refugees are ``brutally interrogated'' 
by the NSA counterintelligence department in an effort to 
determine if they had contact with South Korean churches or 
other Christian groups in China.\17\ Belief in Christianity is 
targeted as a political offense in North Korea, punishable by 
execution or prolonged detention in a prison labor camp.\18\ 
Repatriated refugees are vulnerable to persecution on religious 
grounds because they often receive assistance from South Korean 
Christian groups operating along the border.\19\ In June 2009, 
North Korean authorities in Ryongchon city, North Pyongan 
province, executed Ri Hyon Ok, a 33-year-old mother of three 
who was accused of distributing Bibles and spying for South 
Korea.\20\

                        Border Conditions Worsen

    International non-governmental organizations (NGOs) and 
other observers report that conditions along the Chinese-North 
Korean border remained restrictive in the past year and that 
Chinese authorities continued to enforce high-level security 
measures. Some international media, citing unnamed U.S. 
officials, reported that starting in September 2008, Chinese 
authorities increased deployment of the People's Liberation 
Army (PLA) along the Chinese side of the border in preparation 
for a ``possible influx of refugees due to instability, or 
regime change, in North Korea.'' \21\ The reinforcement of PLA 
forces was reportedly accompanied by the construction of 
additional border fences and security posts at key border 
locations.\22\ Earlier in 2008, Chinese border agents 
reportedly installed electronic sensors to detect incoming 
refugees along the Tumen River, which demarcates the border 
between North Korea and the northeastern corner of Jilin 
province.\23\ In October 2008, Vitit Muntarbhorn, the UN 
Special Rapporteur on North Korean Human Rights, confirmed that 
Chinese authorities continue to promise rewards to informants 
who help public security officials locate North Korean refugees 
to be repatriated.\24\ A February 2009 report from Yanji city, 
Jilin province, indicates that Chinese public security agents 
continue to conduct periodic home inspections in residential 
areas near the border in order to ferret out North Korean 
refugees who are harbored by Chinese citizens, most of whom are 
ethnically Korean.\25\ In 2009, as in previous years, the 
Chinese central government prevented the UN High Commissioner 
for Refugees from visiting the northeastern border provinces 
where North Korean refugees reside.\26\
    Starting in October 2008, the North Korean government 
closed its side of the land border with China to all incoming 
and outgoing traffic for much of the reporting year. North 
Korean authorities also denied entrance to Chinese visitors for 
reasons that remain unclear.\27\ The closing of the border 
corresponded to the tightening of security and surveillance of 
border communities inside North Korea and in ethnically Korean 
border areas inside China. In November 2008, the North Korean 
government announced that its National Security Agency (NSA) 
would take over responsibility for ``dealing with the border-
crossing problem'' from the North Korean police, according to 
Good Friends, a South Korean Buddhist NGO that conducts 
research on humanitarian conditions in North Korea.\28\ The 
change was reportedly intended to ``increase efficiency'' in 
the criminal prosecution of refugees repatriated from China and 
those caught attempting to cross the border.\29\ In January 
2009, the NSA carried out ``special investigations of anti-
socialist activities'' in the border areas and threatened 
individuals who cross the border to China with sentences of up 
to 10 years' imprisonment at reeducation centers in North 
Korea.\30\ The NSA inspectors reportedly launched these 
extensive investigations--which included home inspections, 
efforts to detect wireless signals from civilian use of mobile 
phones, and scrutiny of local officials and military 
personnel--because suspicions arose that some military units 
were assisting refugees crossing the border.\31\
    In 2009, North Korean authorities reportedly issued threats 
of severe punishment for refugees and those who facilitate 
their flight from North Korea. In March 2009, officials in 
North Korea's Chungjin city, North Hamgyong province, 
reportedly warned local residents that ``anyone crossing the 
river will be prosecuted as a national traitor.'' \32\ 
Officials reportedly stated that crossing into China or 
communicating with anyone in China via mobile phones would be 
grounds for execution.\33\ Starting in March, North Koreans 
traveling in the border region without a pass were reportedly 
detained and fined.\34\ In late May, central officials from the 
ruling Worker's Party visited the North Korean border city of 
Hoeryong and issued an ultimatum that ``there must be no 
defectors to China'' during the ``150-Day Battle,'' a five-
month propaganda campaign leading up to the October anniversary 
of the founding of the Worker's Party.\35\ North Korean 
authorities stressed that local officials at all levels would 
be punished or dismissed if any refugees escaped.\36\ In July 
2009, the NSA reportedly ordered that North Korean refugees' 
family members who remain in North Korea and reside in border 
areas must be placed under ``strict surveillance'' in order to 
punish ``treasonous acts.'' \37\

                  Trafficking and Denial of Education

    Lacking legal status or economic opportunities in China, 
North Korean women who cross the border are frequently picked 
up by traffickers and sold into de facto marriages with Chinese 
nationals. A February 2009 report estimates that women now 
comprise more than three-quarters of the total population of 
North Korean refugees who cross into China.\38\ Trafficking 
networks of Han, Korean-Chinese, and North Korean men operate 
in areas along the 
Chinese-North Korean border, where they reportedly use search 
dogs to seek out North Koreans, including women and girls.\39\ 
Some reports also indicate that businessmen who operate in the 
area use trade routes along the Yalu River to traffic North 
Korean women into China.\40\ In some cases, North Korean women 
are forced to work in the sex industry in China, including as 
prostitutes in brothels and in Internet sex operations.\41\ De 
facto marriages 
between North Korean refugees and Chinese men are usually a 
consequence of trafficking in which women are bought, sold, and 
transferred to their new families.\42\ The Chinese government 
continues to ignore North Korean trafficking victims and 
refuses to provide them with legal alternatives to 
repatriation.
    Another problem that stems from the Chinese government's 
unlawful repatriation policy is the denial of education and 
other public goods to the children of North Korean women 
married to Chinese citizens.\43\ In 2009, non-governmental 
organization sources within China reported that the number of 
children born to North Korean women in relationships with 
Chinese citizens continues to rise, particularly in Jilin, 
Liaoning, and Heilongjiang provinces.\44\ These sources 
estimate that at least 2,000 to 5,000 of these children now 
live in the Yanbian Korean Autonomous Prefecture in Jilin 
province.\45\ Chinese law guarantees that all children born in 
China to at least one parent of Chinese nationality are 
afforded citizenship.\46\ It also decrees that all children who 
are six years old shall enroll in school and receive nine years 
of compulsory and free education, regardless of sex, 
nationality, or race.\47\ Local officials contravene Chinese 
law and violate the Chinese government's commitments under 
international law when they refuse to provide household 
registration (hukou) to the children of North Korean women in 
de facto marriages with Chinese citizens.\48\ Denial of hukou 
forces these children to live in a stateless limbo.\49\ Without 
legal registration status, most children born to North Korean 
women and Chinese fathers cannot enroll in school or be 
admitted to a hospital if they become ill.\50\

                             Public Health


                              Introduction

    Minister of Health Chen Zhu acknowledged in January 2008 
that all persons had the right to basic healthcare regardless 
of age, gender, occupation, economic status, or place of 
residence.\1\ The realization of this right, however, remains a 
challenge for the majority of those living in China. In an 
attempt to address the issue of healthcare, the government 
launched a 10-year medical reform plan, which includes promises 
for reform in the areas of medical 
insurance, pharmaceuticals, public health services, and public 
hospitals.\2\
    The rising cost of healthcare in China,\3\ coupled with 
demographic changes in the last two decades, including an aging 
population and migration from rural to urban areas, continues 
to place vulnerable groups at high risk for health problems and 
heighten the strain on the healthcare system.\4\ Large gaps in 
access to quality healthcare remain between rural and urban 
regions.\5\
    Discrimination and social stigma against people living with 
medical conditions such as infectious disease, physical 
disability, and mental illness remain commonplace.\6\ Chinese 
non-governmental organizations and individuals have become 
increasingly active in the past year,\7\ and continue to play 
an important role in raising awareness about medical conditions 
and the rights of those living with them.\8\
    China has faced the continued challenge of prevention and 
control of infectious disease in the last 12 months. Due to 
insufficient public health services in rural areas and a lack 
of government transparency and public awareness regarding 
disease outbreaks, China's rural population has proven 
particularly vulnerable to the spread of hand-foot-mouth 
disease, tuberculosis, HIV/AIDS, and other infectious diseases 
this year.\9\ The Chinese government's efforts to prevent and 
control the spread of influenza A(H1N1)--commonly referred to 
as ``swine flu''--have also prompted discussion about changes 
in its handling of disease outbreaks.\10\

                           Healthcare Reform

    In an effort to address growing public dissatisfaction with 
the healthcare system,\11\ the State Council passed a large-
scale medical reform plan in January 2009, after a three-year 
drafting period and a month of public debate.\12\ The package 
aims to establish a healthcare system that ``fundamentally 
suits the medical and health needs of the people at many 
levels'' by 2020.\13\ In April, the State Council published a 
corresponding 2009-2011 implementation plan for healthcare 
reform.\14\ The implementation plan promises to spend 850 
billion yuan (US$124 billion) to provide medical services to 
the country's population of 1.3 billion by 2011.\15\ The 2009-
2011 healthcare reform implementation plan includes the 
following components:

        <bullet> A comprehensive, basic medical insurance 
        system that would cover 90 percent of urban and rural 
        populations by 2011; \16\
        <bullet> The establishment of a new pharmaceutical 
        system to ensure the affordability, availability, and 
        safety of a list of medicines that the central 
        government has deemed ``necessary''; \17\
        <bullet> Construction of 29,000 new village and 
        township medical centers in 2009 and 2,000 new county 
        hospitals by 2011; \18\
        <bullet> Training of nearly 1.9 million healthcare 
        personnel to staff the new village clinics; \19\ and
        <bullet> Increased education on, and attention to, 
        disease prevention and control, maternal health, mental 
        health, and first aid services.\20\

    China's decentralized and market-oriented healthcare system 
has long been plagued with problems. After the establishment of 
the People's Republic of China in 1949, local governments 
covered over 90 percent of urban residents' medical expenses, 
while rural residents also enjoyed access to rudimentary, but 
in effect free, medical care,\21\ including basic treatment for 
mental illness.\22\ With the 
economic reforms of the 1980s, however, the comprehensive, 
government-subsidized system was replaced by a decentralized, 
``for-profit'' system. Public hospitals have become 
commercialized, with doctors prescribing more expensive drugs, 
tests, and treatments to boost revenues, even when 
unnecessary.\23\ According to an April 2009 Xinhua report, ``in 
many places, this [practice] could account for 90 percent of a 
hospital's income.'' \24\ An October 2008 study published by 
the medical journal The Lancet reports that ``the 
average cost of a single hospital admission is now equivalent 
to China's annual income per head, and more than twice the 
average annual income of the lowest 20 percent of the 
population.'' \25\ With deteriorating quality of services and 
soaring medical costs, the public's trust in, satisfaction 
with, and usage of the system have declined significantly.\26\ 
According to a report published in March 2009 by the Center for 
Strategic and International Studies, nearly four out of five 
farmers in China will likely never visit a doctor.\27\ In light 
of current dissatisfaction,\28\ one Chinese finance expert 
called this new plan ``necessary support for developing a 
harmonious and stable society.'' \29\
    The January 2009 healthcare reform package describes as its 
aim building a healthcare system in China that will provide 
``safe, effective, convenient, and affordable health services'' 
to all of the nation's citizens by 2020.\30\ The 2009-2011 
implementation plan clearly outlines, however, that the central 
government will not shoulder the cost of this reform alone. Of 
the 850 billion yuan (US$124 billion) that will be spent by 
2011, provincial and local governments will be expected to 
cover nearly 60 percent themselves.\31\ While this is a 
decrease from the 73 percent that local governments had been 
expected to contribute previously,\32\ concern remains over 
whether these governments are likely to shoulder their part of 
the burden.\33\ One World Health Organization health policy 
expert noted with regard to implementation of the plan: 
``Shanghai and Beijing are moving ahead very quickly . . . 
[b]ut the poorer regions will struggle to come up with the 
funds[.]'' \34\ For poorer provinces in China's west, this 
fiscal burden may slow the reform process.\35\

                            Rural Healthcare

    Despite the central government's announced plans to 
increase public spending on healthcare in rural and remote 
areas, rural residents' access to healthcare remains dependent 
on local authorities' interpretation, implementation, and 
management of the program. As reported in a November 2008 study 
published by the medical journal The Lancet, the Rural 
Cooperative Medical System (RCMS)--a cooperative medical care 
program in which farmers are reimbursed for their medical 
expenses from a fund to which farmers and local and central 
government entities contribute\36\--was expanded to cover 85.9 
percent of the rural population by the end of 2007.\37\ 
However, fund-matching requirements under the current tax 
system place a large burden on the budgets of local governments 
when implementing the RCMS.\38\ In the case of Ningjin county, 
Shandong province, for example, the fiscal burden on the local 
government has increased since the system began in 2004. Even 
with increased financial investment, however, the program 
continues to be plagued with problems such as an insufficient 
number of administrative personnel and a lack of participating 
medical institutions.\39\

                            Urban Healthcare

    The 2009-2011 healthcare reform implementation plan calls 
for urban workers' basic medical insurance and urban residents' 
basic medical insurance to be extended to the entire country by 
2011.\40\ However, with soaring unemployment rates in urban 
areas this year due to the economic downturn, access to 
healthcare for the unemployed has become more urgent. Li Zhong, 
Vice Director of the Health Insurance Department under the 
Ministry of Human Resources and Social Security, announced in 
February that basic medical insurance coverage is expected to 
be extended to unemployed urban residents in all cities and 
towns in 2009.\41\ This program aims to cover urban children, 
students, and unemployed adults. Residents with temporary jobs 
will also be allowed to participate. This basic medical 
insurance will not yet extend beyond hospitalization and major 
illnesses to cover more common diseases.\42\
    Migrant workers, an ever-increasing portion of China's 
urban population, still face difficulties due to the stringent 
household registration system that permits them to seek 
healthcare only in their hometowns.\43\ These difficulties are 
compounded by migrants' greater likelihood of working in 
environments prone to occupational hazards and living in 
unsanitary and overcrowded housing situations.\44\ [See Section 
II--Worker Rights, for additional information on migrant 
workers.]

                     Health-Related Discrimination

    Despite provisions in the PRC Employment Promotion Law 
(EPL) which explicitly forbid employment discrimination against 
persons with disabilities or infectious disease,\45\ 
discriminatory practices remain in job hiring and in the 
workplace. According to a March 2009 report published by the 
Beijing Yirenping Center, a non-governmental organization which 
works to raise awareness about public health risks and 
eliminate discrimination against those carrying certain 
diseases, at least 84 percent of 92 multinational corporations 
surveyed between October and December 2008 required potential 
employees to take a Hepatitis B Virus (HBV) test, and 44 
percent refused to hire HBV carriers.\46\ The EPL aims to 
promote employment equality, but it does not sufficiently 
define what actions constitute employment discrimination, nor 
does it offer specific methods for penalizing these actions. 
Despite these shortcomings, there have been several legal 
developments in the past year in which citizens have sought to 
defend their rights based on the EPL's provisions.\47\

------------------------------------------------------------------------
          Health-Related Discrimination Cases in the Past Year
-------------------------------------------------------------------------
<bullet> October 2008: In Guangdong province, the Dongguan Intermediate
 People's Court ruled against a man surnamed Li who sought 500,000 yuan
 (US$73,162) for ``mental suffering'' after Nokia cancelled plans to
 hire him when he tested positive for HBV.\48\ The court ruled against
 the plaintiff on evidentiary grounds.\49\
<bullet> February 2009: The Laoshan District People's Court in Qingdao
 city, Shandong province, accepted the lawsuit of university graduate
 Yang Hua (alias) whose employment contract with Haier Group was
 cancelled due to his HBV-positive test results. He requested a formal
 apology from Haier Group and compensation of 30,000 yuan
 (US$4,390).\50\
<bullet> February 2009: In Zhengzhou city, Henan province, a 24-year-old
 college graduate filed a lawsuit against a provincial rural credit
 union for employment discrimination based on his colorblindness. This
 was the first employment discrimination lawsuit based on colorblindness
 in China. The plaintiff requested the court to order the credit union
 to compensate him in the form of 3,000 yuan (US$439) for economic
 losses and 50,000 yuan (US$7,316) for emotional damages.\51\
------------------------------------------------------------------------

    While plaintiffs have seen some success in these 
antidiscrimination lawsuits, government entities continue to 
create obstacles for those living with disabilities and 
infectious diseases. Rural migrants living with HIV/AIDS in 
urban areas face difficulties accessing treatment due to their 
government-designated household registration (hukou) 
status.\52\ [See Section II--Liberty of Movement, for a more 
detailed analysis of the household registration (hukou) system. 
See Section II--Worker Rights, for a more detailed analysis of 
migrants living in urban areas. See also Spread of Infectious 
Disease in this section.] In October 2008, 101 mothers wrote a 
letter to a member of the State Council complaining that their 
children were refused enrollment into kindergarten after 
testing positive for HBV.\53\ The chance of HBV infection 
through daily contact is minimal; however, many provincial 
governments still retain regulations which prohibit carriers 
from enrolling in schools.\54\

                             Mental Health

    Radio Free Asia reported in March 2009 that China is 
experiencing a surge of mental health cases in the climate of a 
global economic downturn.\55\ This surge has further exposed 
the nation's wide gap in basic mental health services, 
according to the report.\56\ In 2001, China ratified the 
International Covenant on Economic, Social and Cultural 
Rights\57\ and has committed itself to ensure ``the right of 
everyone to the enjoyment of the highest attainable standard of 
physical and mental health,'' \58\ yet the high prevalence and 
low rate of treatment of mental disorders remain challenges in 
China, according to several reports. The medical journal The 
Lancet published a study in June 2009 which estimates that 173 
million adults are suffering from mental problems or illness in 
China and 91 percent of these (158 million) have never received 
professional treatment.\59\ According to a March 2008 report by 
Channel NewsAsia, China has only one psychiatrist for every 
100,000 people.\60\ By way of comparison, China has 
approximately the same number of psychiatrists and 
psychologists as the country of France, but more than 20 times 
the population.\61\ Despite such a large number of cases, a 
relatively small amount of central funds is allocated to mental 
health spending. According to a January 2009 article in Beijing 
Review, a mere 0.001 percent of the nation's gross 
domestic product is spent on mental health.\62\
    Inequitable allocation of medical services for the mentally 
ill is a barrier for those in China's rural areas who seek 
treatment for themselves or their family members. According to 
the June 2009 study in The Lancet, mental health services are 
concentrated in urban areas, leaving rural residents with 
limited access.\63\ Several cases in recent years have 
demonstrated that hospitalization is not considered an option 
for some families of patients with severe psychological 
illness. Western and Chinese media outlets have reported 
several instances of families resorting to confining their 
mentally ill relatives in cages, often with the knowledge of 
local officials and police.\64\ The Ministry of Health (MOH) 
has admitted awareness of this method for handling the severely 
mentally ill in the countryside and has reported making efforts 
to subsidize medical treatment costs.\65\ As of 2007, 70,000 
patients with severe mental illness received free medicine, and 
6,000 were hospitalized free of charge, according to the 
MOH.\66\ With a healthcare system characterized by the Center 
for Strategic and International Studies as ``understaffed, 
underfunded, overmatched, and overlooked,'' \67\ however, the 
prospect of appropriate medical treatment for all Chinese 
citizens living with mental illness does not appear close at 
hand.
    Some Chinese and international critics link the growing 
problem of mental disorders in children--including anxiety and 
depression\68\--with China's strict family planning policy, 
saying that children who grow up as only children in China face 
intense pressure from their families to succeed in academics 
and extracurricular activities and eventually land good 
jobs,\69\ as parents traditionally depend on their children to 
support them when they grow old.\70\ In October 2008, China 
Daily quoted a Wenhui Daily article stating that ``[m]ore than 
15 percent of Chinese youth have been found with mental 
problems,\71\ and about 30 million young people under the age 
of 17 are suffering from depression.'' \72\ [See Section II--
Population Planning, for more analysis of the impact of China's 
population planning policy on children.]

                        Health-Related Activism

    Growing activism among non-governmental organizations and 
individuals on health issues has played a valuable role in 
raising awareness about health concerns, including the 
prevention and spread of infectious diseases and environmental 
health issues.\73\ However, in this reporting year, health-
related activism has continued to meet with government 
opposition.

------------------------------------------------------------------------
     Official Repression of Public Health Advocacy in the Past Year
-------------------------------------------------------------------------
<bullet> In February 2009, retired judge Huang Yunmin was taken into
 police custody, interrogated, and criminally detained in Kashgar city,
 Xinjiang Uyghur Autonomous Region, after advocating for army veteran
 health benefits. Huang had previously been involved in nuclear testing
 during his army service in Qinghai province. In 2008, Huang led 17 army
 veterans to the Civil Affairs Bureau and complained that a 2007
 government notice mandating medical tests and benefits for soldiers
 harmed by nuclear testing had not been implemented locally. The bureau
 recognized that the notice was applicable to Huang's group, but the
 group members have so far received no testing or benefits.\74\
<bullet> In June, the Ministry of Health issued new regulations for
 Internet medical information providers which are intended to ensure the
 accuracy of medical information,\75\ but could restrict the free flow
 of important health information to citizens.\76\ The regulations
 mandate that  online medical information providers meet new
 requirements, such as staff medical expertise,\77\ and if providing sex-
 related medical research information, to allow access only to
 professionals.\78\
<bullet> In July, authorities used China's restrictive publishing
 regulations to target public health non-governmental organization
 Beijing Yirenping Center. Citing ``suspicion of engaging in publishing
 activities,'' Beijing public security officers and officials from the
 Beijing City Cultural Law Enforcement Agency raided Yirenping's offices
 and confiscated over 90 copies of the center's ``China's Anti-
 Discrimination Legal Action Newsletter.'' The officers claimed
 Yirenping failed to possess the necessary permits to publish the
 newsletter. Lu Jun, the center's coordinator, told Voice of America
 that Yirenping had never sold the newsletters and only distributed them
 internally.\79\
------------------------------------------------------------------------

                     Spread of Infectious Diseases

    Reports indicate that curtailing the spread of infectious 
diseases has become a greater challenge for the Chinese 
government due to factors such as unreliable official reporting 
on cases; discrimination against carriers of infectious 
diseases; and insufficient capacity in rural areas to detect, 
monitor, and treat infectious diseases in a timely manner. 
Stories detailing the spread of HIV/AIDS, tuberculosis (TB), 
Hepatitis B Virus, hand-foot-mouth disease, and influenza 
A(H1N1)--commonly referred to as ``swine flu''--have been 
prevalent in China's health news this year.
    In February 2009, the Ministry of Health (MOH) announced in 
its annual infectious disease report that HIV/AIDS had become 
the deadliest infectious disease in China.\80\ Statistics for 
HIV/AIDS cases in China range from the MOH's reported number of 
264,302 at the end of September 2008 to as many as 700,000 
reported in the December 2007 joint assessment of the State 
Council and a UNAIDS group.\81\ Major obstacles to curbing the 
spread of HIV/AIDS in China include general discrimination 
toward individuals living with HIV,\82\ cultural sensitivities 
regarding the discussion of sex and homosexuality,\83\ limited 
access to affordable testing, treatment, and prevention,\84\ 
insufficiently trained medical workers,\85\ unreliable official 
reporting on cases,\86\ and inadequate public HIV/AIDS 
education in rural areas.\87\
    China plays an important role in the global fight against 
TB, as it has 25 percent of the world's drug-resistant TB cases 
and the second-highest number of total TB infections (after 
India).\88\ In April 2009, the Chinese government and the Bill 
and Melinda Gates Foundation announced their US$33 million 
partnership to curb the spread of TB domestically.\89\ The 
five-year program will focus on improving diagnostic methods, 
drug regimens, and patient monitoring strategies.\90\ The 
establishment of this cooperative initiative between the 
Chinese government and a Western non-profit to combat drug-
resistant TB is a positive development. Other international 
non-profits, however, have faced barriers in attempting to 
establish similar programs in China this year. For example, in 
February 2009, the medical aid organization Doctors Without 
Borders, or Medecins Sans Frontieres (MSF), abandoned its two-
year campaign to launch a TB program in the Inner Mongolia 
Autonomous Region.\91\ MSF's former head of mission in China 
described the organization's negotiations with authorities as 
``extremely frustrating'' and said, ``We have to accept that we 
are blocked from bringing much-needed life-saving medical aid 
to [multidrug-resistant TB] patients in Inner-Mongolia.''
    In contrast to their handling of the deadly outbreak of 
Severe Acute Respiratory Syndrome (SARS) in 2003, Chinese 
health officials began to take aggressive measures against 
influenza A(H1N1) even before its reported arrival on Chinese 
soil in May 2009.\92\ These measures included frequent 
government updates on confirmed cases as well as stringent 
quarantine and hospitalization. The MOH reports thrice weekly 
on new, total, and ``cured'' cases of influenza A(H1N1), as 
well as the number of new cases that are ``imported'' and 
domestic.\93\ Authorities' quarantine policies, which mainly 
target incoming international travelers, are among the most 
aggressive in the world.\94\ One health expert questioned the 
value of these measures,\95\ and another suggested that they 
``may not be sustainable.'' \96\ The general consensus among 
many international travelers to Beijing has been that they are, 
at the very least, problematic.\97\ Nevertheless, the MOH 
claims its quarantine measures have helped the country keep a 
relatively low rate of infection (2,003 cases as of July 29, 
2009) in relation to its population of 1.3 billion.\98\
    Despite improvements in government reporting in response to 
the spread of tuberculosis and influenza AH1N1, problems such 
as a lack of transparency at the community level and delays in 
releasing information remain common in China. For example, in 
March 2009, amid an outbreak of hand-foot-mouth disease (HFMD), 
an illness common among infants and young children,\99\ the MOH 
fired four officials and punished several others in Minquan 
county, Henan province, for their involvement in the 
falsification of patients' medical histories to cover up the 
number of cases in the area.\100\ Minister of Health Chen Zhu 
subsequently called for greater accountability in local 
reporting of cases to increase awareness and preventative 
measures.\101\ HFMD cases spread across 30 provinces in China, 
killing at least 88 children\102\ within the first seven months 
of 2009 and sickening hundreds of thousands more.\103\

       Organ Transplants in China: Developments and Controversies

    In August 2009, the Red Cross Society and the Ministry of 
Health (MOH) announced the launch of China's first organized 
registration system for organ donations, beginning with a pilot 
program in 10 provinces.\104\ According to Vice Minister of 
Health Huang Jiefu, quoted in Xinhua's announcement of the 
launch, the new system is ``needed to ensure transplant 
quality, eliminate organ trading and `transplant tourism,' and 
register more donors and protect their rights.'' \105\ As the 
Commission reported in 2006, Huang acknowledged in July 2005 
that the majority of organs used in transplants in China 
originate from executed prisoners.\106\
    In July 2006, following the first allegations of organ 
harvesting, the government passed a law, which went into effect 
in May 2007, forbidding the trade of organs without the consent 
of the donor.\107\ The government also banned all organ 
transplant operations for foreigners in China--previously a 
large source of revenue for the growing trade--but reports as 
recent as February 2009 confirm that the practice of ``organ 
transplant tourism'' continues.\108\ In November 2008, the 
Beijing-based magazine Caijing reported that Huang Jiefu 
disclosed at a recent meeting that the MOH believes that ``a 
rather large proportion of organ transplants from live bodies 
are supplied by sources that are not related by family or 
friendship ties.'' \109\ The MOH also found ``illegal 
companies'' in operation that facilitate the organ trade by 
falsifying documentation intended to certify a kin relationship 
between a donor and a recipient.\110\
    In the past year, allegations of organ harvesting from 
nonconsenting Falun Gong prisoners have emerged again, further 
raising concerns about possible abuses in China's organ 
transplant industry. In December 2008, the UN Committee against 
Torture (UNCAT) indicated in its report on China that the UN 
Special Rapporteur on Torture, Manfred Nowak, had noted ``an 
increase in organ transplant operations coincides with the 
`beginning of the persecution of [Falun Gong practitioners],' 
'' and had urged the Chinese government to provide ``a full 
explanation of the source of organ transplants.'' \111\ In an 
August 2009 interview, Nowak noted that ``[i]t remains to be 
seen how it could be possible that organ transplant surgeries 
in Chinese hospitals have risen massively since 1999, while 
there are never that many voluntary donors available.'' \112\ 
The UNCAT's reference to a relationship between the increase in 
organ transplant operations in China in the last decade and the 
unexplained source of organ supply was first documented in a 
2006 investigative report (updated in 2007) produced by a 
former senior Canadian government official and a prominent 
human rights attorney.\113\ The 2006 report also provided 
transcripts of telephone calls to detention facilities and 
transplant centers in China, where officials there confirmed 
the availability of 
organs from Falun Gong prisoners.\114\ In November 2008, an 
American think tank researcher who was investigating 
allegations of organ harvesting in China reported that 16 
interviews he conducted with Falun Gong practitioners who were 
formerly incarcerated yielded details of ``inexplicable'' 
medical testing that seemed focused on organ examination.\115\ 
[See Section II--Freedom of Religion--Falun Gong, for more 
information on the government's campaign against the spiritual 
movement.]

                     Climate Change and Environment


                              Introduction

    Because China signed and ratified the UN Framework 
Convention on Climate Change and the Kyoto Protocol as a 
``developing'' country, China currently has no formal 
obligation under the Protocol to reduce its greenhouse gas 
emissions.\1\ The Chinese Government asserts that, as a 
developing country, China has a right to continue economic 
development, even at the cost of increased greenhouse gas 
emissions.\2\ In 2007, China surpassed the United States to 
become the world's top emitter of carbon dioxide.\3\ While 
President Hu Jintao stated that China will ``endeavor to cut 
carbon dioxide emissions per unit of GDP by a notable margin by 
2020 from the 2005 level,'' \4\ the Chinese Government has not 
agreed to carbon emission caps.\5\ A top Chinese climate change 
policymaker reportedly recently indicated that China's carbon 
emissions may continue to rise until 2050.\6\ While Chinese 
leaders generally acknowledge the country's top-emitter status, 
they emphasize that China's per capita emissions are still low 
relative to industrialized countries.\7\ At the same time, 
climate scientists writing in the Chinese journal, ``Advances 
in Climate Change Research,'' note that ``it is very likely 
that future climate change would cause significant adverse 
impacts on the ecosystems, agriculture, water resources, and 
coastal zones in China.'' \8\
    The Chinese Government has initiated a wide range of 
measures related to climate change.\9\ The government 
specifically has emphasized its intent to improve energy 
efficiency and lower energy intensity--the amount of energy 
expended per unit of gross domestic product.\10\ The 
government's climate policies and programs are driven by 
several domestic considerations including not only overall 
economic development and the negative impacts of climate change 
domestically but also commercial interests, energy security, 
and environmental concerns.\11\ While most discussion and 
action on climate change has taken place at the national level, 
provincial leaders are beginning to examine their role in 
crafting local solutions. As described below, the government's 
historically weak implementation and enforcement of 
environmental laws will pose significant challenges to its 
efforts to address climate change. China's capacity to measure, 
report, and verify its greenhouse gas mitigation actions 
remains uncertain.
    Without adequate procedural protections, implementation of 
climate change mitigation policy may place the rights of 
vulnerable groups, including the rural poor and ethnic 
minorities, especially nomadic herders, at risk. Hydroelectric 
dam construction has been accompanied by lack of attention to 
environmental impact assessment processes mandated by law, and 
by reports of the infringement upon the fundamental rights of 
local populations. Planned rapid acceleration of the pace of 
development of nuclear and hydroelectric projects heightens 
these concerns going forward. China's planned efforts to 
increase carbon sequestration in grassland areas shines an 
additional spotlight on the need to guarantee the rights of 
nomadic herders who inhabit those areas.
    During the Commission's 2009 reporting year, the Chinese 
Government continued environmental regulatory development, and 
reported meeting some of its environmental protection goals. 
Official sources reported several environmental protection 
successes, including the continued decline of sulfur dioxide 
emissions and chemical oxygen demand.\12\ Regulatory and 
institutional developments included revisions to or discussion 
of revisions to the PRC Water Pollution Prevention and Control 
Law,\13\ the PRC Circular Economy Promotion Law,\14\ the PRC 
Renewable Energy Law,\15\ the PRC Environmental Administrative 
Reconsideration Measures and the Planned Environmental Impact 
Assessment Regulation,\16\ as well as the introduction of 
environmental pollution liability insurance on a trial 
basis,\17\ the establishment of ``environmental courts'' in a 
few cities on a trial basis,\18\ the establishment of 
environmental ``police'' (environmental protection sub-bureaus 
within the public security bureaus) on a trial basis,\19\ and 
some limited progress toward the development of a ``public 
interest litigation'' system.\20\ The announcement of a draft 
PRC Tort Liability Law\21\ may in the future improve China's 
framework for environment-related compensation suits.
    Nonetheless, implementation, enforcement, and compliance 
problems remain a major challenge for China in its efforts to 
reach its stated environmental goals. During this reporting 
year, corruption scandals highlighted accountability issues 
throughout environmental protection bureaucracies. Limitations 
on citizen access to information, including pollution and 
related data, hinder efforts to raise environmental awareness, 
promote public participation, and develop incentives for 
compliance. Limits on access to remedies for environmental 
harms, arbitrary enforcement, limited public participation in 
decisionmaking processes, and selective suppression of citizen 
demands for a cleaner environment also weaken compliance 
efforts and contribute to citizen dissatisfaction. Finally, 
reports indicate that the current economic downturn has had a 
deleterious impact on the enforcement of environmental laws.

                             Climate Change


------------------------------------------------------------------------
              U.S.-China Cooperation on Climate Change\22\
-------------------------------------------------------------------------
   [Excerpted from Bureau of Public Affairs, U.S. Department of State,
  ``Joint Press Release on the First Round of the U.S.-China Strategic
                   Economic Dialogue,'' 28 July 2009]  ``The United States and China, being the world's largest producers and
 consumers of energy, face common challenges and share common interests
 in combating global climate change, developing clean and efficient
 energy, protecting the environment and ensuring energy security. During
 the Strategic and Economic Dialogue held in Washington, DC on July 27-
 28, 2009, the United States and China negotiated a Memorandum of
 Understanding to Enhance Cooperation on Climate Change, Energy and the
 Environment (MOU), led by the Department of State and Department of
 Energy in the United States and the National Development and Reform
 Commission in China.
------------------------------------------------------------------------


------------------------------------------------------------------------
         U.S.-China Cooperation on Climate Change\22\--Continued
-------------------------------------------------------------------------
  ``The MOU establishes a mechanism for climate change policy dialogue
 and cooperation to promote (i) discussion and exchange of views on
 domestic strategies and policies for addressing climate change; (ii)
 practical solutions for promoting the transition to low-carbon
 economies; (iii) successful international negotiations on climate
 change; (iv) joint research, development, deployment, and transfer, as
 mutually agreed, of climate-friendly technologies; (v) cooperation on
 specific projects; (vi) adaptation to climate change; (vii) capacity
 building and the raising of public awareness; and (viii) pragmatic
 cooperation on climate change between cities, universities, provinces
 and states of the two countries. . . .''
------------------------------------------------------------------------

    According to a summary in a Chinese academic article on the 
Chinese Government's first National Assessment Report on 
Climate Change completed in December 2007, ``significant and 
various impacts of climate change have been observed in China, 
showing both positive and adverse effects, dominantly the 
latter, in different sectors and regions.'' \23\ According to 
the article, the report indicated that ``climate change 
characterized by warming will impact Chinese social and 
economic life.'' \24\ Temperature increases could lead to 
eventual general water resource decline, extended droughts in 
the north, flooding in the south, glacial melting in the 
Himalayas leading to interrupted river flows and water 
shortages,\25\ acceleration of the drying of inland lakes and 
wetlands. It could also lead to intensification of weather 
patterns, damage to livestock breeding, decline in some crop 
yields,\26\ desertification--which already affects one-third of 
China\27\--changing distribution and degradation of 
grasslands,\28\ shifting forest distribution, increased 
frequency and intensity of forest fires and insect and disease 
outbreaks, and rising sea levels along coastal areas.\29\
    Chinese leaders have stated their commitment to addressing 
climate change and its impacts, emphasizing China's commitment 
to sustainable development. In May 2009, the Chinese Government 
issued an international statement setting forth this 
commitment. In it, China's leaders state:

        Climate change is one of the most serious challenges to 
        humanity in the 21st century and a matter of human 
        survival and the development of all countries, which 
        requires cooperation and joint efforts by the 
        international community. Fully aware of the seriousness 
        and urgency of climate change and with a deep sense of 
        responsibility for the long-term development of 
        mankind, China is firmly committed to sustainable 
        development and . . . [is] taking a series of strong 
        policies, measures, and actions and making unremitting 
        efforts and commendable contribution to addressing 
        climate change.\30\

    In June 2009, Chinese media reported that a recommendation 
was submitted to the Chinese People's Political Consultative 
Conference in March 2009 to ``research and formulate'' (yanjiu 
zhiding) a law related to climate change response,\31\ which, 
if drafted and passed by the National People's Congress (NPC), 
would raise the profile of climate change and related rights 
issues in China. On August 27, 2009, the NPC Standing Committee 
passed a resolution restating China's commitment to 
``sustainable development.'' \32\ The resolution states that 
China will ``. . . strengthen the capacity to deal with climate 
change and put forth new contributions in protecting the global 
climate.'' The resolution also states ``in order to provide 
stronger legal safeguards for responding to climate change, 
[China] will at the right time, amend laws relating to 
environmental protection and responding to climate change, and 
promptly provide accompanying regulations. In addition, 
according to conditions, [China] will also designate new laws 
and regulations.'' The resolution specifically states China 
will ``strictly implement the Energy Conservation Law of the 
PRC, the Renewable Energy Law of the PRC, the Circular Economy 
Promotion Law of the PRC, the Clean Production Promotion Law of 
the PRC, the Forestry Law of the PRC, and the Grassland Law of 
the PRC, among other laws and regulations, in accordance with 
the overall requirement to actively respond to climate 
change.'' The resolution also recalls the principle of ``common 
but differentiated responsibilities,'' contained in the 
Framework Convention on Climate Change and the Kyoto Protocol, 
and ``opposes using climate change as a pretext for 
implementing trade protectionism in any form.'' \33\
    The Chinese Government also previously had outlined general 
goals and regulatory steps to address climate change.\34\ 
Chinese scientists are involved in a variety of scientific 
research projects focused on climate modeling and impact 
assessment, and it will be increasingly important to ensure 
that findings from these studies are incorporated into regular 
planning processes related to poverty reduction\35\ and 
agricultural yields.\36\

                               CHALLENGES

    Compliance with environmental and energy efficiency laws, 
policies, and standards remains a hurdle for the Chinese 
Government's efforts to reduce energy intensity and move China 
along a lower carbon development path. Building capacity in 
China to accurately collect and report emission data remains a 
priority.\37\ Lack of attention to environmental impact 
assessments, the infringement upon rights related to citizen 
relocation programs, disputes over compensation for land 
seizures, and suppression of demonstrators has been 
particularly evident in areas such as hydroelectric dam 
construction. In addition, China's efforts to increase carbon 
sequestration in grassland areas by improving the quality of 
grasslands could contribute to the decline of nomadic culture 
and lead to infringing upon the rights of nomadic herders.
    During this reporting year, decisions by the Chinese 
Government to rapidly increase nuclear and hydroelectric power 
sources have raised questions concerning construction quality 
and waste management safety. According to Reuters, China's 
National Nuclear Safety Administration director and Vice 
Minister of the Ministry of Environmental Protection, Li 
Ganjie, warned in April 2009 that overly rapid construction of 
nuclear plants could lead to nuclear waste disposal hazards and 
potential construction quality and operational safety 
problems.\38\ Rapid hydroelectric power plant development also 
has raised concerns about safety. According to a South China 
Morning Post (SCMP) article, a report by the Chinese National 
Audit Office noted that cutting the construction period of the 
Xiluodu hydroelectric power plant project on the Jinsha River 
(a tributary to the Yangtze River) contributed to project 
quality problems.\39\ Between 1999 and 2008, 59 dams in China 
developed breaches, of which 20 were caused by poor 
construction quality and the remainder by excessive 
rainfall.\40\ A China Youth Daily report cited by Agence 
France-Presse stated that approximately 37,000, or 40 percent, 
of China's dams are in danger of being breached.\41\ A report 
by Reuters and an SCMP reporter, based on a Chinese news 
source, stated that ``[i]mproper construction procedures, 
shoddy materials and diversion of funds by government 
departments had contributed to fragile dams.'' \42\ The same 
report noted, ``[l]ocal contractors for dam projects revealed 
that main construction teams had paid up to 2 percent of the 
project cost in kickbacks to local officials to win the 
building contracts.'' \43\
    Lax compliance with environmental impact assessment 
measures in hydroelectric dam construction projects underscores 
problems in environmental enforcement. In mid-June 2009, the 
Ministry of Environmental Protection (MEP) ordered a halt to 
the construction of dams along the midsection of the Jinsha 
River.\44\ Despite a June 11 MEP order, and the absence of 
construction work while MEP inspectors visited the two sites, a 
China Central Television investigation revealed that 
construction had resumed.\45\ The general manager of the 
Huadian Ludila Hydropower Company reportedly stated that he had 
never known of a hydroelectric project being stopped due to 
lack of approval of its environmental assessment.\46\ In 
addition, hydroelectric dam construction in China has been 
plagued by problematic citizen relocation programs, missing or 
inadequate relocation compensation, and suppression of citizen 
protesters.\47\ [For information on protests in Ganzi TAP over 
a hydroelectric project, see Section V--Tibet.]
    The Chinese Government, as part of its measures to mitigate 
and adapt to climate change, has said it aspires to increase 
healthy grassland areas by restoring degraded and desertified 
areas by 2010.\48\ Government policies that aim to restore 
grasslands involve, in some cases, erecting fencing and 
resettling herders, and the effectiveness of current grasslands 
policies in ameliorating environmental degradation remains in 
question.\49\ [See Section II--Ethnic Minority Rights--Human 
Rights in the Inner Mongolia Autonomous Region (IMAR) for more 
information on grasslands policy in one provincial-level area 
in China.] Resettlement programs sometimes have been compulsory 
and given rise to disputes over compensation.\50\ Authorities 
in the IMAR continued in the past year to implement 
resettlement programs and measures to shift herders to other 
sectors of employment.\51\ Herders also have been compelled to 
abandon grasslands in the name of development projects that 
shift the use of, rather than aim to preserve, grasslands. 
Mongol herders in one banner (equivalent to a county-level 
area) reportedly held demonstrations in summer 2009 protesting 
the confiscation of grasslands for a mining project.\52\ The 
vulnerability of herders to land use rights infringements has 
been discussed in the official Chinese media.\53\

                        Environmental Governance

    After three decades of unprecedented economic growth, 
China's environmental problems now are devastatingly severe. 
Almost 40 percent of the water in 28 of China's major lakes is 
``too polluted to be used even for farm irrigation.'' In urban 
areas, 90 percent of river water and 50 percent of ground water 
is seriously polluted.\54\ Air pollution levels in China exceed 
the Chinese Government's own standards in one-third of its 
cities, and if air quality were measured by European standards, 
95 percent of China's cities would not meet the standard's 
threshold.\55\ Chinese officials have taken various steps to 
research and pass measures to improve rural environmental 
problems.\56\ Nevertheless, major environmental problems in 
rural areas continue to worsen, including surface water 
pollution, pollutants from mines, the safety of drinking water, 
and the relocation of polluting industries.\57\ Environmental 
health problems appeared in news headlines at various times 
during this reporting year.\58\ One Web initiative catalogued 
47 ``cancer villages,'' or villages that have had an ``unusual 
number of residents die of cancer,'' as of mid-May 2009.\59\ In 
August 2009, over 1,300 children in Hunan province reportedly 
were diagnosed with lead poisoning from a nearby unlicensed 
manganese smelter.\60\ In Shaanxi province in August 2009, 615 
out of 731 children in two villages tested positive for lead 
poisoning, allegedly originating from the Dongling Lead and 
Zinc Smelting Company plant.\61\
    During the 2009 Commission's reporting year, new 
environment-related regulatory and institutional developments 
included:

        <bullet> At the annual meetings of the National 
        People's Congress and Chinese People's Political 
        Consultative Conference in March 2009, 53 of the 518 
        proposals submitted by delegates involved environmental 
        issues.\62\
        <bullet> Pilot pollution liability insurance programs 
        continued in ``key industries'' in several 
        provinces.\63\
        <bullet> The revised PRC Water Pollution Control and 
        Prevention Law that took effect in mid-2008\64\ imposes 
        stricter environmental responsibilities on local 
        governments, strengthens access to information, opens 
        opportunities for experiments with public interest 
        litigation, and strengthens legal liabilities for 
        noncompliance.\65\ The law encourages, but does not 
        require, local environmental monitoring agencies to 
        provide data to parties involved in lawsuits.\66\
        <bullet> Relevant for enforcement and the resolution of 
        environmental disputes, including, in some cases, some 
        with a cross-provincial component, is the establishment 
        of ``environmental courts'' in Guizhou, Jiangsu, and 
        Yunnan provinces on a trial basis during 2008 and 
        2009.\67\ One scholar of Chinese environmental law 
        stated that the regional ``environmental courts'' could 
        ``have a significant impact on improving environmental 
        enforcement.'' \68\ All of the courts have announced 
        they will accept public interest cases, but there is no 
        precedent to lead these efforts, and some of the courts 
        have been more proactive in taking public interest law 
        cases than others.\69\
        <bullet> Authorities established the first 
        environmental protection subdivision within the Public 
        Security Bureau (PSB) in late 2008 in Kunming city, 
        Yunnan province.\70\ The PSB environmental subdivision 
        is tasked with investigating and enforcing 
        environmental laws in cases involving criminal 
        issues.\71\
        <bullet> Experts and scholars in China have put forward 
        proposals to establish an environmental public 
        litigation system in order to better protect citizens 
        from environmental harms.\72\ Currently in China, only 
        citizens directly harmed by pollution are able to file 
        civil cases,\73\ which potentially limits the 
        possibility of protecting the general public from harm 
        caused by pollution.
        <bullet> The National People's Congress Standing 
        Committee deliberated a draft PRC Tort Liability Law, 
        which potentially could impact China's environmental 
        compensation framework, especially if strict liability 
        provisions reportedly in the draft are included in the 
        final law.\74\

    While the Chinese Government has constructed a relatively 
comprehensive regulatory framework to address the country's 
environmental problems, compliance remains a significant 
challenge.\75\ Corruption, local governmental protectionism, 
malfeasance, and lack of accountability impede implementation 
and enforcement. In addition, the priority attached to economic 
development has led to compliance challenges that hinder the 
realization of some of the government's environmental 
protection goals. Corruption in China's environmental 
protection sector during the Commission's 2009 reporting year 
reached to the highest levels of the environmental protection 
bureaucracy.\76\ Problems with official malfeasance in local 
environmental protection bureaus were discovered across the 
country. According to Xinhua, procuratorates around China 
placed 2,637 cases of natural resource and environmental 
malfeasance, involving 3,060 officials, on file for 
investigation in 2008. Of these cases, 706 were considered 
``serious'' (zhongda) and 528 were considered ``very big'' 
(teda). Facing public prosecution were 1,529 officials, while 
1,143 officials in 954 cases were found guilty of 
malfeasance.\77\ Xinhua reported that, in some cases, 
malfeasance could be linked to activities that eventually led 
to environmental harms, such as the case of Yangzonghai Lake in 
Yunnan province, where serious lead pollution poisoned the 
drinking water source for hundreds of thousands of people.\78\ 
In another case, the former head of the forestry department in 
Guizhou province, Zhang Jinlin, was found guilty of illegally 
granting cutting permits and accepting bribes.\79\

           ENVIRONMENTAL COMPLIANCE AND ECONOMIC DEVELOPMENT

    Noncompliance with environmental laws, policies, and 
standards in China is still a major problem for several 
reasons: the vague nature of laws allows for arbitrary 
enforcement, the costs of noncompliance are still limited, and 
the prioritizing of economic growth by officials across China 
makes environmental protection a lower priority. The People's 
Daily reported that, despite numerous serious environmental 
accidents annually, very few people in environmental cases are 
held criminally liable under the PRC Criminal Law.\80\ 
Utilizing the PRC Criminal Law as the legal basis for imposing 
criminal sanctions in cases involving environmental harms 
reportedly is difficult because of the technical nature of such 
cases.\81\
    Compliance issues have blunted the usefulness of the PRC 
Environmental Impact Assessment Law (EIA Law). Theoretically, 
the EIA Law is one of the best legal tools available to 
environmental protection authorities to prevent pollution 
problems, and environmental authorities have been proactive in 
rejecting projects.\82\ A 2007 investigation of 82 projects in 
electric power, steel, and 10 other industries in 22 
provincial-level areas found that 59 enterprises had committed 
serious transgressions of the EIA Law.\83\ At the beginning of 
2007, investigations of over 500 enterprises in 100 city and 
county industrial parks found 40 percent of the projects lacked 
followup examination, making it difficult to ascertain if they 
had implemented the policies and measures required by an 
environmental assessment.\84\
    The National People's Congress Standing Committee (NPCSC) 
reviewed the EIA Law in June and July 2008, for the first time 
since it went into effect in 2003.\85\ The review uncovered 
several ways enterprises tried to evade the environmental 
assessment process, including ``built before approval'' (weipi 
xianjian), ``assessed a small project but built a large one'' 
(pixiao jianda), and ``approval of a project without an EIA'' 
(weiping xianpi).\86\ The NPCSC review indicated that 
implementing agencies claimed to have acted to ``avoid severe 
economic losses'' and avoid ``negatively impacting local 
economic development'' to shield themselves from 
responsibility.\87\ The NPCSC also found that very few 
violators of the law, including officials involved, received 
administrative punishments or were criminally charged for 
malfeasance.\88\ The report also described the lack of 
standardization of assessment quality across locales, which 
allows enterprises with outdated technology simply to 
relocate.\89\ In a China Daily article, a senior research 
fellow at the China Society of Economic Reform was paraphrased 
as citing local governments' ``outdated mindset that higher 
economic growth trumps all other priorities'' as a source of 
poor enforcement of environmental measures.\90\ He also noted 
that some local and provincial governments have ignored an 
accountability system implemented in 2007 that links career 
promotion of government officials to their performance in 
improving energy efficiency and emission control, and faulted 
some local governments for not carrying out thorough 
environmental impact assessments.\91\

           ENVIRONMENTAL COMPLIANCE AND THE ECONOMIC DOWNTURN

    Leading up to the 2008 Beijing Summer Olympic Games, 
Chinese officials took steps to showcase areas where there had 
been progress on environmental issues. During 2009, however, 
reports indicate that Chinese leaders have given priority to 
stimulating the economy over environmental protection. While 
environmental and other government officials have stated that 
China remains committed to steps to improve the 
environment,\92\ sources cited in one news article reported 
that the Ministry of Environmental Protection (MEP) has been 
warned ``not to hamper economic growth.'' \93\ Li Ganjie, Vice 
Minister of the MEP, has expressed concern that provincial and 
local governments would not be able to maintain environmental 
protection standards as they carried out the economic stimulus 
plan.\94\ To help stimulate the economy, the MEP adopted a new 
``green passage'' policy that fast-tracks environmental reviews 
for development projects. Provincial environmental agencies 
also implemented their own ``green passage'' policies. The MEP 
has recognized, however, that the ``green passage'' policy has 
been abused at local levels.\95\ The Washington Post in 
November 2008 quoted the President of the Hong Kong Chamber of 
Commerce in China as saying that Guangdong provincial officials 
relaxed enforcement of environmental regulations in late 
2008.\96\ The report also quoted the research director of the 
Guangzhou Academy of Social Sciences as saying that ``with the 
poor economic situation, officials are thinking twice about 
whether to close polluting factories, whether the benefits to 
the environment really outweigh the dangers to social 
stability.'' \97\ Some Chinese environmentalists warn that the 
government may have missed an opportunity presented by the 
economic downturn to put China on a cleaner growth path and has 
instead planted the seeds for more over-rapid growth.\98\ 
According to a March 2009 article in China Daily, some National 
People's Congress and Chinese People's Political Consultative 
Conference delegates have voiced concerns about the negative 
impact the economic downturn could have on China's green 
efforts.\99\

                    ENVIRONMENTAL RIGHTS IN PRACTICE

    The Chinese Government has created a comprehensive set of 
environmental laws, which provide for some protection of select 
environmental rights on paper, but protection of environmental 
rights in practice remains limited. Limitations on citizens' 
access to information, including pollution and related data, 
hinder efforts to raise environmental awareness, promote public 
participation, and develop incentives for compliance. Limits on 
access to remedies for environmental harms, arbitrary 
enforcement, limited public participation in decisionmaking 
processes, and selective suppression of citizen demands for a 
cleaner environment also weaken compliance efforts and lead to 
citizen dissatisfaction.

                       ENVIRONMENTAL INFORMATION

    China has gradually increased its capacity to monitor, 
collect, and make public information on pollution, yet 
information reporting at the local level lags. Environmental 
authorities slowly have increased the number of cities included 
in the annual ``pollution control examination survey'' of 
pollution sources, some results of which are released to the 
public. In 2009, authorities brought the number of cities 
included in the examination survey to 617, which amounts to 
over 94 percent of China's cities. The goal is to increase this 
to 100 percent by 2010.\100\ It remains unclear how pollution 
data below the county level, that is, from townships and 
villages, are incorporated into figures for the pollution 
examination survey.
    The Ministry of Environmental Protection (MEP) was among 
the first ministries to issue an Open Government Information 
(OGI) regulation (MEP OGI Regulation). MEP is required to issue 
an annual OGI report, and MEP issued its first-year OGI report 
on time.\101\ According to the MEP OGI report, during the first 
year the MEP OGI Regulation was in force, the MEP received 68 
formal written requests for information and 106 ``requests for 
advice'' (zixun). The ministry ``responded'' to the 68 written 
requests, but the report did not indicate how many of the 
requests were denied.\102\ The ministry received two requests 
for administrative review of OGI decisions and accepted both of 
them. These requests related to environmental impact 
assessments and establishing model environmental cities. Both 
administrative reviews upheld the original decision.\103\
    There is some indication that environmental protection 
bureaus (EPBs) at local levels refused to provide basic 
information regarding environmental conditions. According to a 
South China Morning Post article, 86 out of 113 mainland cities 
refused a request by a non-governmental organization (NGO) for 
a list of enterprises that were punished by their EPBs in 2008 
for violating environmental standards or regulations, some 
stating that the disclosures would harm local business.\104\ 
The administrative director of the NGO reportedly said that 
``an [EPB] official said that they could not give us the name 
list without the approval of the polluters--it's their business 
secret, and public exposure might hurt their business.'' \105\ 
The administrative director also noted that ``more than a dozen 
environmental protection bureaus don't even have a website, 
phone number or e-mail address.'' \106\

              DEVELOPMENT OF THE ENVIRONMENTAL NGO SECTOR

    While most Chinese environmental non-governmental 
organizations (NGOs) are involved in education and encourage 
participation in conservation and cleanup activities, several 
also have begun to become involved in environmental policy-
related activity, oversight, and rights advocacy. NGOs work in 
a wide variety of ways and focus on a wide variety of issues, 
including watershed management, ocean protection, 
desertification, recycling, energy efficiency, protecting 
endangered flora and fauna, monitoring of polluters, and to a 
lesser degree, climate change and legal aid.\107\
    Grassroots NGOs face difficulties in China.\108\ Most 
groups have problems raising money and retaining personnel. 
According to the All-China Environment Federation, it is more 
difficult for grassroots groups to register as NGOs than it is 
for government-sponsored groups (often described by experts as 
government-organized non-governmental organizations, or 
GONGOs), and that has stunted the growth of grassroots 
NGOs.\109\ Party and government officials have continued to 
implement policies restricting the operations of many 
NGOs.\110\ [For more information, see Section III--Civil 
Society.]
    Citizens and NGOs are seeking to contribute to China's 
environmental impact assessment (EIA) processes, and 
environmental authorities are slowly expanding the legal 
framework to support citizen participation. In December 2008, 
two members of the Institute for Public and Environmental 
Affairs took part in a meeting of experts for the purpose of 
conducting a technical evaluation of the EIA for the Ahai Dam 
on the Jingsha (Yangtze) River. This was the first instance 
when NGO members were formally invited to participate in such a 
meeting, marking an important step for further expansion of 
public participation in EIA processes.\111\ Typically, the 
responsibility for choosing citizens to participate in EIA 
processes rests with the company doing the EIA, which is chosen 
by the enterprise constructing the project.\112\ In December 
2008, the Ministry of Environmental Protection issued the 
Consultation Draft of the Nuclear Power Plant Environmental 
Impact Assessment Public Participation Implementation Measures, 
which outlines specific steps and requirements for public 
participation in the EIA processes during the siting, 
construction, and operation of nuclear power plants.\113\

               CITIZEN DEMANDS FOR A CLEANER ENVIRONMENT

    Despite some improvements in protecting citizens' rights to 
a clean environment by establishing comprehensive pollution 
prevention legislation and measures to encourage public 
participation in EIA processes, longstanding environmental 
injustices remain largely unresolved. For example, Chinese 
authorities detained Huang Yunmin on February 10, 2009, because 
he led a group of 17 fellow veterans that used to work at Lop 
Nor nuclear testing sites in the Xinjiang Uyghur Autonomous 
Region (XUAR) to complain at the Bureau of Civil Affairs in 
Kashgar. The veterans were complaining because authorities did 
not implement 2007 measures outlining benefits for soldiers who 
were involved in nuclear testing, including the administration 
of medical tests and financial benefits if tested positive for 
work-related health problems.\114\ A request by delegates of 
the XUAR People's Congress to the government and Party for a 
special hospital to be built to manage the large numbers of 
people with radiation sickness from testing at Lop Nor 
reportedly was denied. In addition, a Party delegate named 
Xingfu requested a study of the high incidence of radiation 
sickness in Xiaobei county, just inside the XUAR border where 
testing occurred, and called for a compensation scheme for 
those affected, but was denied.\115\
    While authorities expanded and institutionalized the system 
of managing citizen complaints about environmental pollution, 
many problems with this system remain.\116\ Citizens who 
complain about environmental pollution or take steps to protect 
their environmental rights risk harassment, detention, and 
other abuses, including retribution from local officials.\117\

        <bullet> Tang Zhirong of Yongzhou city, Hunan province, 
        was charged with ``obstructing official business'' and 
        sentenced to 18 months in prison in 2007, but media 
        speculate the real reason for the charge was his 
        complaints regarding pollution from the Suanjie 
        aluminum plant in Shuangpai county, Hunan province, 
        which reportedly emitted pollution linked to damaged 
        crops and high rates of cancer in the area.\118\ Tang 
        was released from prison in December 2008; as of May 
        2009, he reportedly was under strict surveillance.\119\
        <bullet> On July 9, 2009, Sun Xiaodi, an environmental 
        activist who reportedly exposed pollution problems and 
        illegal activities at the No. 792 Uranium Mine in Diebu 
        county, Gansu province, was ordered to serve 
        reeducation through labor (RTL) for two years for 
        ``illegally providing state secrets overseas'' and 
        ``rumor mongering.'' The RTL Management Committee of 
        Gannan Tibetan Autonomous Prefecture, Gansu province, 
        also ordered Sun's daughter, Sun Haiyan (also known as 
        Sun Dunbai) to serve 18 months of RTL for the same 
        reasons.\120\ Sun Xiaodi's wife, Hu Jianhong, stated 
        that Sun Xiaodi had recently contacted members of human 
        rights organizations and the central government 
        claiming that Diebu county officials had exaggerated 
        evidence of earthquake damage in the county from the 
        2008 Sichuan earthquake in order to obtain earthquake 
        relief funds.\121\ Sun Xiaodi also reported on 
        pollution problems and expanded production at the No. 
        792 Uranium Mine.\122\

    In some cases, victims of pollution have been able to take 
legal action on their own to protect their legal rights, 
exercising what legal scholars in China now refer to as 
``exercising one's right to environmental self-defense.'' As 
described by a Chinese expert in the field, this right has been 
considered an extension of the ``justifiable defense'' 
(fangweichuan) protected by the PRC Civil Law (Articles 128 and 
129) and PRC Criminal Law (Articles 20 and 21).\123\ According 
to this expert, the right of self-defense in China means that 
when one's own, another person's, or society's interests and 
rights are violated, appropriate means may be used to defend 
those interests and rights.\124\ To invoke the ``justifiable 
defense'' in environmental cases, several conditions must be 
met. First, there must be polluting behavior or environmental 
damage that is in violation of environmental laws. Second, the 
negative impact of the pollution or damages must be beyond what 
is considered tolerable. Third, the pollution or damaging 
behavior must be occurring at the time of citizen action. 
Fourth, it can only be invoked when the party in violation 
cannot be dissuaded from stopping the behavior and is unwilling 
to utilize normal channels of dispute resolution. In addition, 
the actions taken may not harm a third party, may not be 
directed toward facilities that are unrelated to the violation, 
and may not be excessive or cause additional harm. According to 
the expert, exercising this right also should be a last resort 
when all other channels of stopping the polluting or damaging 
behavior have been tried.\125\
    Representative cases involving environment-related claims 
that received national attention include the following:

        <bullet> According to August 2009 press reports, a 
        chemical plant that opened in 2004 in Shuangqiao 
        village, Hunan province, was likely the source of 
        untreated chemical waste, including cadmium and indium, 
        that probably killed 5 or more people and sickened 
        hundreds of the village's 4,000 residents. After 
        citizens began to get sick and die, villagers 
        complained to officials at the Zhentou township, which 
        administers the village, but officials assured them 
        that pollution was not a problem.'' \126\ Starting in 
        May 2009, food and water had to be transferred to the 
        village, and in July, the chemical plant was 
        closed.\127\ On July 29, the villagers ``staged a 
        protest for free medical checks and treatment, and 
        compensation for their ruined land.'' Local authorities 
        detained six of the protesters. The next day, 
        approximately 1,000 villagers surrounded the police 
        station and the government office to demand the 
        protesters' release.\128\ Local residents reported that 
        officials warned them not to protest. Local officials 
        were quoted as promising to crack down on further 
        protests, saying that maintaining stability was 
        paramount.\129\ On August 6, 2009, Hong Kong media 
        reported that ``at least eight journalists 
        investigating deaths'' at the chemical plant were 
        detained while interviewing villagers. At least seven 
        villagers remain in police custody.\130\
        <bullet> In Yingshan county, Hubei province, in June 
        2008, Ma Dajin and Wan Baiqing were sentenced to four 
        and two years, respectively, for ``assembling a crowd 
        and disturbing social order'' in relation to protests 
        over an illegal waste dump.\131\ Over 2,000 villagers 
        reportedly were affected by the pollution from the 
        waste dump.\132\ According to reports, protests erupted 
        after years of utilizing institutionalized channels to 
        resolve the grievances of local citizens.\133\ After 
        the June 2008 sentence announcement, Ma and Wan 
        appealed to the Huanggang Intermediate People's Court, 
        which overturned the original verdict because of a lack 
        of evidence and requested that the trial court retry 
        the case. Reportedly, witnesses were afraid to testify 
        in court or even attend the trial.\134\ On April 20, 
        2009, the Yingshan County People's Court rescinded the 
        sentences and gave Ma four years of probation and Wan 
        two years of probation. Ma had already spent over a 
        year in prison.\135\
        <bullet> On January 12, 2009, the Ministry of 
        Environmental Protection formally approved two 
        environmental impact reports regarding construction of 
        a paraxylene plant on Gulei Peninsula in Zhangzhou 
        city, Fujian province,\136\ even though the project has 
        been the subject of citizen protests. From February 28 
        to March 3, 2008, initially peaceful protests involving 
        thousands of people took place in several fishing towns 
        on the peninsula.\137\ At times, the protests turned 
        violent as protesters clashed with public security 
        officials. Several people were injured, and public 
        security officers took approximately 15 people into 
        custody.\138\ The fate of these 15 people is unclear.
        <bullet> In July 2009, thousands of residents of 
        Zhentou township in Liuyang city, Hunan province, 
        gathered to protest chemical pollution from a nearby 
        plant, which reportedly was harming residents' health. 
        The residents had repeatedly utilized the 
        institutionalized complaint system channels to resolve 
        the problem, but their grievances were not adequately 
        addressed by local officials. Security officials 
        encircled the protesters. Promises by government 
        officials to ``handle the issue'' prompted protesters 
        to disperse; however, police detained two of the 
        demonstrators.\139\

                  III. Development of the Rule of Law


                             Civil Society


                              Introduction

    The Chinese Government during the Commission's 2009 
reporting year continued to control China's civil society in 
ways that contravene international standards. Chinese citizens 
who sought to establish non-governmental organizations (NGOs) 
and organize around issues deemed by officials to be sensitive 
faced obstacles, and officials in some cases intimidated, 
harassed, and punished NGOs and citizen activists. During the 
past year, authorities revoked the licenses of at least 21 
rights lawyers, many of whom had taken on issues officials 
deemed sensitive. In July, Beijing officials fined and 
shuttered Open Constitution Initiative (OCI), an academic 
research and legal assistance organization. Shortly thereafter, 
authorities detained its cofounder and legal representative, Xu 
Zhiyong--a law professor and rights defender--and one other OCI 
employee. International news media reports and human rights 
groups suggested that these moves may be related to an official 
clampdown in the run-up to the 60th anniversary of the founding 
of the People's Republic of China on October 1, 2009.\1\ Other 
Chinese and international experts suggested that these 
incidents may signal a deeper, longer-lasting effort to rein in 
NGOs and activists who advocate for legal reform.\2\ At the 
same time, NGO participation and advocacy work in nonsensitive 
areas continued to expand gradually.

            Non-Governmental Organizations Under Chinese Law

    Constraints placed on non-governmental organizations (NGOs) 
\3\ by the Chinese Government contravene the right to freedom 
of association as defined by Article 22 of the International 
Covenant on Civil and Political Rights, which states that 
``[e]veryone shall have the right to freedom of association 
with others, including the right to form and join trade unions 
for the protection of his interests.'' \4\ The Chinese 
Government requires that all NGOs in China register with and be 
approved by the Ministry of Civil Affairs.\5\ In order to 
register with the government, all NGOs must first secure a 
sponsor organization, generally a government department or 
government-affiliated organization that performs work in an 
area related to the NGO.\6\ At least three national regulations 
serve as the legal basis for these requirements: the 1998 
Regulations on the Registration and Management of Social 
Organizations,\7\ the 1998 Temporary Regulations on the 
Registration and Management of Private Non-Enterprise Units,\8\ 
and the 2004 Regulations on the Management of Foundations 
(Foundations Regulation).\9\ Although government-registered 
NGOs all come under some degree of official control, some NGOs 
have been able to function with some level of independence.\10\
    National and provincial authorities in the past decade have 
issued minor reforms to the legal framework governing NGOs. For 
example, the Foundations Regulation retained sponsorship 
requirements but liberalized some controls for certain types of 
NGOs seeking government registration.\11\ Officials have also 
proposed and suggested publicly that the government eliminate 
the sponsorship requirement for NGOs seeking to officially 
register with the government.\12\ In 2009, at least one 
locality (Beijing) reportedly passed measures stipulating that 
NGOs based in the area will no longer need to obtain a sponsor 
organization when applying for government registration. In 
place of the sponsorship requirement, 10 city-level government-
organized NGOs (for example, Beijing Red Cross Society) 
beginning in April 2009 will manage Beijing-based NGOs legally 
registered with and approved by the Beijing city 
government.\13\
    Due to the difficulties posed by securing a government-
affiliated sponsor organization and fulfilling registration 
requirements, some NGOs opt to forgo government registration or 
register with the government as a commercial entity. NGOs that 
forgo registration with the government operate in China without 
any legal status, while NGOs that register as companies 
technically are required to pay taxes at higher rates than 
government-registered NGOs.\14\ Government officials have 
tolerated many NGOs that operate without official legal status; 
\15\ in other cases, officials have labeled unregistered NGOs 
and ``company'' NGOs--especially those that raise issues deemed 
politically sensitive--as illegal and targeted them for 
closure.\16\ In 2007, the Commission reported that since 2005, 
the government has been auditing the funding sources of 
domestic NGOs and targeting those that receive funding from 
foreign sources.\17\ In 2009, Beijing tax officials fined Open 
Constitution Initiative (OCI) 1.42 million yuan (approximately 
US$208,000), primarily for unpaid taxes on a series of foreign 
donations made to the organization beginning in 2006.\18\ OCI, 
an academic research and legal assistance organization that has 
advocated for and worked on several cutting-edge legal 
issues,\19\ was officially registered in Beijing as a company 
and not as an NGO. Less than a week after imposition of the tax 
fines, 12 to 20 officials from Beijing's Civil Affairs Bureau 
visited OCI's office and presented OCI employees with a legal 
closure notice, which said that the center was being shut down 
because it was not legally registered as an NGO.\20\ The 
officials also confiscated the organization's computers and 
materials, including documents from several hundred court cases 
from the past four or five years.\21\

            NON-GOVERNMENTAL ORGANIZATIONS AND CIVIL SOCIETY

    The number of government-registered NGOs in China continues 
to rise.\22\ Estimates of the total number of NGOs in China, 
including unregistered and ``company'' NGOs, range from 2 
million to 8 million.\23\ The Commission reported in 2007 that 
citizens continue to form organizations to address issues such 
as HIV/AIDS, women's rights, worker rights, religious charity 
work, and the environment.\24\ Civil society participation in 
nonsensitive legal and policymaking activities during the past 
several years also appears to have expanded gradually.\25\ 
Commission interviews indicate that capacity-building programs 
for some NGOs seeking to conduct 
advocacy-related activities have also increased.\26\ In March 
2009, Chinese media reported that Beijing officials announced a 
plan to establish a committee that will institutionalize legal 
experts' participation in legislative processes.\27\ 
Additionally, the Chinese Government in 2008 used the Internet 
to solicit public comments for drafts of 24 administrative laws 
and regulations.\28\ Municipal governments in Chongqing, 
Qingdao, Tianjin, Zhengzhou, and Luoyang have also 
``outsourced'' the drafting of legislation, mainly to private 
law firms.\29\ Environmental organizations in recent years have 
been particularly active in policy and advocacy-related 
work.\30\ In 2006, the State Environmental Protection 
Administration issued two provisional measures concerning 
public participation in environmental impact assessment 
procedures, which were among the first in China to specifically 
address procedures for public involvement in environmental 
issues.\31\
    Civil society-initiated efforts and participation in 
politically sensitive issue areas, such as human rights, 
remained limited due to continued official repression. In 
December 2008, some drafters and signatories of Charter 08, a 
document calling for political reform and greater protection of 
human rights in China, were placed under residential 
surveillance, detained, or arrested. [See Section II--Freedom 
of Expression--Suppression of Charter 08.] Officials continued 
to pressure and harass certain NGOs and individuals working on 
HIV/AIDS\32\ and other infectious disease-related issues; \33\ 
lesbian, gay, bisexual, and transgender rights; \34\ 
anticorruption efforts; \35\ and democracy advocacy.\36\ In 
June 2009, authorities prevented NGOs and individuals from 
commemorating the 20th anniversary of the violent suppression 
of the 1989 Tiananmen protests. [See Section II--Freedom of 
Expression--Harassment on Eve of 20th Anniversary of Tiananmen 
Protests.] Public security officials reportedly interrogated 
and raided the home of an individual, citing orders from higher 
level authorities to stop anyone from preparing a human rights 
report for the UN Human Rights Council's Universal Periodic 
Review (UPR) of the Chinese Government's human rights 
record.\37\ Among the 48 Chinese NGOs that submitted background 
documents for the UPR of China in February 2009, only 3 were 
mainland Chinese grassroots NGOs.\38\
    During the summer of 2009, authorities appeared to crack 
down on NGOs and individuals who worked on politically 
sensitive legal issues and advocated for legal reform. As of 
September 1, authorities had revoked the lawyers' licenses of 
at least 21 rights defense (weiquan) lawyers, many of whom had 
taken on sensitive cases. [For more information, see Section 
III--Access to Justice.] In July, Beijing officials fined and 
then shut down Open Constitution Initiative (OCI)--a Beijing-
based academic research and legal assistance organization--for 
not being legally registered with the government as an NGO.\39\ 
OCI, which was described by former rights defense lawyer Teng 
Biao as a ``primary meeting place for China's nascent movement 
of `rights lawyers,' '' \40\ sought to promote human rights, 
democracy, and rule of law.\41\ The center was well known for 
taking on path-breaking legal issues and cases, such as its 
investigation into the cause of the Tibetan protests and 
rioting in March 2008.\42\ Twelve days after shuttering OCI, 
Beijing police detained two OCI employees, including the 
center's cofounder and legal representative, Xu Zhiyong, a 
legal scholar and activist.\43\

                        Philanthropy and Charity

    After decades in which the notion of private wealth 
practically disappeared, philanthropic giving--a centuries-old 
practice in China--has increased since the late 1970s.\44\ In 
2008, several natural disasters, including the snowstorm in 
southern China in early 2008 and the May 2008 Sichuan 
earthquake, contributed to an unprecedented spike in charitable 
giving.\45\ The government's limited capacity to handle and 
manage these donations, particularly during the months after 
the earthquake, exposed flaws in the Chinese Government's 
charity system and resulted in public demands for charity 
reform.\46\ In May 2009, the Associated Press reported that 
volunteer activities related to the May 2008 Sichuan earthquake 
had dissipated, and that government officials had accused some 
volunteers of ``stirring up protests'' by student victims' 
families.\47\
    The Chinese Government has enacted at least seven laws and 
regulations that refer to charity-related issues.\48\ Three of 
these laws, the PRC Corporate Income Tax Law, the PRC Public 
Welfare Donations Law, and the PRC Individual Income Tax Law, 
provide tax benefits to companies and individuals who make 
donations to certain public-interest-oriented organizations and 
activities.\49\ In December 2008 and February 2009, the 
Ministry of Finance, the State Administration of Taxation, and 
the Ministry of Civil Affairs (MOCA) issued circulars detailing 
new qualifications for legally registered NGOs to obtain tax-
exempt status.\50\ Before 2007, both the Ministry of Finance 
and the State Administration of Taxation were required to 
evaluate each NGO applying for tax-exempt status, and only a 
small number of government-registered NGOs were able to obtain 
it.\51\ Under the new guidelines, provincial-level governments 
and the central government will be in charge of verifying and 
approving the tax-exempt status of government-registered 
NGOs.\52\ After the issuance of the December circular, the 
Beijing municipal government, as of June 2009, reportedly had 
approved and granted tax-exempt status to 82 government-
registered, Beijing-based NGOs.\53\ The majority of NGOs in 
China, including those not registered with the government and 
those registered in China as companies, will not qualify for 
the new tax-exempt status.\54\ The implications of these new 
measures remain unclear.\55\
    The Chinese Government in recent years has worked on 
drafting legislation for a comprehensive charity law. In 2006, 
for example, the State Council included a draft of a new 
charity law in its legislative plans.\56\ The proposed charity 
law reportedly would support the development of charity-related 
organizations and encourage more donations from individuals and 
companies.\57\ In June and July 2009, MOCA reportedly held an 
interagency discussion on a draft of the new charity law that 
would be submitted to the State Council for consideration.\58\ 
In March 2009, MOCA announced a plan to launch an emergency 
response information platform, the China Charity Information 
Center, which will coordinate available resources for charity-
related activities, and strengthen collaboration between NGOs 
and public institutions.\59\

------------------------------------------------------------------------
                           Public Institutions
-------------------------------------------------------------------------
  An estimated 1 million public institutions, or shiye danwei, operate
 in China, employing approximately 30 million people and comprising 4
 percent of China's entire labor force.\60\ Public institutions are
 government-controlled organizations that provide public services in the
 fields of science, education, culture, health, and sports.\61\ Some
 Chinese scholars compare public institutions in China to ``public
 sector'' actors in a market economy.\62\ Over the past two decades, and
 particularly since the end of the 1990s, the Chinese Government has
 reduced the level of financial support that it provides to public
 institutions.\63\ As a result, some public institutions, including
 hospitals, are now functioning increasingly like private economic
 actors rather than as Chinese Government administrative units.\64\ Some
 government officials and scholars have proposed structural reforms that
 would change some public institutions into enterprises, governmental
 entities, or public-welfare-related organizations.\65\ The National
 People's Congress in March 2008 adopted a plan that reaffirmed this
 three-pronged approach to transforming public institutions, according
 to a Chinese media report.\66\
------------------------------------------------------------------------

                 Institutions of Democratic Governance


                              Introduction

    China's political system remains an authoritarian one-party 
system. The Communist Party exercises control over government 
and society through networks of Party committees which exist at 
all levels in government, legislative, judicial, and security 
bodies; major social groups (including unions); enterprises; 
and the People's Liberation Army. During the Commission's 2009 
reporting year, the trend toward strengthening Party 
organizations at all administrative levels and increasing 
social monitoring and control measures continued, as the Party 
created additional organizations to ``maintain social 
stability.'' Chinese leaders also focused in 2009 on the 
challenges brought about by the global economic downturn.
    Chinese officials describe China's political system as a 
``socialist democracy with Chinese characteristics'' under the 
leadership of the Communist Party\1\ that includes ``multi-
party cooperation'' and ``political consultation.'' \2\ Multi-
party cooperation and political consultation purportedly take 
place among the Party, the Chinese People's Political 
Consultative Conference, and eight ``approved'' minor political 
parties.\3\ During the Commission's 2009 reporting year, 
Chinese leaders made repeated public statements emphasizing the 
leading role of the Party, the need to adhere to China's unique 
style of ``socialist democracy,'' and the impossibility of 
implementing ``Western-style'' democracy based on the 
separation of powers and competing parties. Chinese leaders 
also implemented a government spokesperson system both to 
expand and control channels of communication with the public 
and the international community. Chinese officials emphasized 
the need for transparency in public budgeting and assured the 
public that there would be accountability in spending for the 
2009 Economic Stimulus Package. Citizens and former government 
officials, however, have expressed the need for stronger 
oversight of stimulus package spending. Anticorruption efforts 
were a priority, and citizens indicated that corruption was one 
of their top concerns of the year. Whistleblower protections, 
however, remain inadequate.

     The Leading Role of the Communist Party and China's Political 
                              Development

    Though China has signed and committed to ratify the 
International Covenant on Civil and Political Rights 
(ICCPR),\4\ China's political institutions do not comply with 
international human rights standards defined in the ICCPR. 
Article 25 of the ICCPR stipulates that citizens be allowed to 
``take part in the conduct of political affairs'' and ``to vote 
and to be elected at genuine periodic elections.'' \5\ However, 
as discussed below, the participation of non-Party members in 
the conduct of China's political affairs is extremely limited. 
China's political system is dominated by the Communist 
Party.\6\ The Party has approximately 76 million members (of 
China's approximately 1.3 billion citizens) in more than 3.7 
million grassroots organizations or ``branches.'' \7\ Though 
these organizations reach down into every sector of society, 
including villages and urban neighborhoods, as well as many 
enterprises, government departments, mass organizations, law 
firms, the People's Liberation Army, and other entities,\8\ the 
Party itself is not an institution that operates on democratic 
processes. Party organizations extend into affairs at local 
levels; \9\ for example, the Party organizations in urban 
neighborhoods and residents' committees (jumin weiyuanhui) play 
a role in citizens' political, social, and economic lives. They 
are active in the provision of services and in the exercise of 
control, but they are not organs of representative 
democracy.\10\
    At the annual meetings of the National People's Congress 
(NPC) and Chinese People's Political Consultative Conference 
(Two Sessions) in March 2009, Wu Bangguo, Chairman of the NPC 
Standing Committee and the second highest ranking official in 
the Party, emphasized maintaining the dominance of the Party in 
China's political development\11\ and stated that NPC 
legislators should maintain ``the correct political 
orientation.'' \12\ In his ``Report on the Work of the Standing 
Committee of the National People's Congress'' he stated, ``We 
must draw on the achievements of all cultures, including their 
political achievements, but we will never simply copy the 
system of Western countries or introduce a system of multiple 
parties holding office in rotation, a system with the 
separation of the three powers or a bicameral system.'' \13\ In 
June 2009, the Central Party Propaganda Department introduced, 
through a series of articles in the state-run media, a set of 
ideas known as the ``six why's,'' \14\ in an apparent effort to 
guide public opinion. The collection of articles provides 
citizens with stock answers to the following six questions 
regarding China's reforms: \15\ ``Why we must insist on the 
leading status of Marxist ideology and thus must not engage in 
ideological pluralization.'' ``Why can only socialism save 
China, only socialism with Chinese characteristics can develop 
China, and thus why we cannot engage in democratic socialism or 
capitalism.'' ``Why we must insist on the people's congress 
system and thus cannot engage in the `separation of three 
powers.' '' ``Why we must insist on the Chinese Communist 
Party's system of multi-party cooperation and political 
consultation, and thus cannot institute a Western multi-party 
system.'' ``Why we must insist that public ownership of the 
means of production remains dominant, while a basic economic 
system with multiple forms of ownership develops side by side, 
and thus cannot engage in privatization or pure public 
ownership.'' ``Why we must insist on reform and opening without 
wavering, and thus cannot backtrack or turn around.'' \16\

    THE PARTY AND GOVERNMENT'S PRIMARY TASKS: CONTROL AND STABILITY

    The Party, with participation from some government 
ministries, is strengthening institutions and mechanisms to 
``maintain stability.'' \17\ Wen Jiabao said in March 2009 that 
China ``will improve the early-warning system for social 
stability to actively prevent and properly handle all types of 
mass incidents.'' \18\ [For more information on mass incidents 
and citizen grievances and the Party's efforts to manage them, 
see Section III--Access to Justice.] As part of the heightened 
focus on social stability, the Party expanded in 2009 the 
number of ``stability maintenance offices'' (weiwen ban) and 
stability maintenance work leading groups across the country at 
the central, provincial, municipal, county, township, and 
neighborhood levels, and even in some enterprises.\19\ Such 
offices are involved in developing an early warning system for 
signs of social instability.\20\ Part of the early warning 
system reportedly functions as an intelligence and informant 
network.\21\

                          Intraparty Democracy

    Isolated experiments with intraparty democracy (also 
translated as ``inner-Party democracy'') are taking place 
around the country with high-level Communist Party support. 
Before democratic practices are instituted in society more 
broadly, Chinese writers on the subject maintain, there should 
be implementation of intraparty democracy.\22\ The notion has 
been a part of the Party's basic institutional design since 
1956.\23\ Hu Jintao supported efforts in 2005 and 2006, which 
continue today, to enliven the Party and promote intraparty 
democracy.\24\ In July 2009, a China Times story stated that at 
the June Politburo meeting, officials passed a measure that 
will expand the practice of collecting public comments during 
evaluations of government officials in an effort to deepen 
intraparty democracy.\25\
    In 2008 and 2009, the Shenzhen Special Economic Zone was 
among a number of localities nationwide that continued to 
experiment with an intraparty election pilot project called 
``open recommendation, direct election'' (gongtui zhixuan) to 
choose Party committee members and some leaders within local 
government agencies.\26\ In this type of election, candidates 
are first recommended by rank-and-file Party members, the local 
Party organization, and most important, the general public.\27\ 
Nominated candidates must be approved by Party organs at the 
same level after an investigation into their 
qualifications.\28\ Then, general Party members within the 
government organization review and vote on their favored 
approved candidates.\29\ These favored candidates become the 
``primary candidates.'' Party organizations at the next higher 
level then review these ``primary candidates.'' Those 
candidates who are approved by the Party organizations at the 
next higher level become the ``official candidates.'' General 
Party members within the government organization then vote for 
new Party committee members and leaders from among the list of 
``official candidates.'' \30\

The Chinese People's Political Consultative Conference and the People's 
                               Congresses

    Though the Communist Party initially viewed the other 
parties and the Chinese People's Political Consultative 
Conference (CPPCC) as ``mere tools in a united front 
mobilization strategy,'' there are some signs of limited 
change.\31\ China's ``consultative democracy'' includes 
``multiparty cooperation,'' in which the Party meets with 
members of the national CPPCC and the eight ``democratic'' 
minor parties under the CPPCC umbrella.\32\ In 2007, the CPPCC 
had 720,000 members, though membership is expected to reach one 
million in 2010. As of 2007, 60 percent of the members of the 
CPPCC (including the minor parties) were non-Communist, while 
the other 40 percent were members of the Communist Party, a 
fact which calls into question the autonomy of the CPPCC.\33\ 
In 2006, Communist Party authorities issued an opinion on 
strengthening the CPPCC, which also acts as an intermediary 
between the Communist Party and Chinese Government on the one 
hand, and Chinese citizens on the other.\34\ The CPPCC is an 
advisory body that does not exercise legislative power.
    At the annual meetings of the National People's Congress 
(NPC) and the CPPCC in March 2009 (Two Sessions), which lasted 
approximately two weeks, NPC and CPPCC delegates put forward a 
range of proposals and expressed dissatisfaction with some 
governmental and judicial reports. NPC delegates raised 518 
motions and proposals at the NPC meeting.\35\ Delegates to the 
CPPCC, however, can only put forward proposals on major 
political and social issues to the CPPCC for forwarding to the 
government.\36\ For the March 2009 meeting, CPPCC delegates put 
forward 509 proposals on rural development, 389 on healthcare 
and medical services, 310 on education, and hundreds more on 
energy conservation, environmental protection, employment, food 
and drug safety, and other social issues.\37\ Of note is that 
505 NPC delegates opposed the Supreme People's Procuratorate 
work report and 162 delegates abstained; 519 delegates opposed 
the Supreme People's Court report--nearly one-quarter of the 
NPC delegates--and 192 delegates abstained.\38\ While some 
citizens reportedly felt a portion of the 2009 NPC and CPPCC 
motions and suggestions addressed serious issues, some 
commentators and Internet users attacked other actions as being 
frivolous.\39\ During the Two Sessions, some Chinese citizens 
made public their own proposals on the Internet, and one critic 
suggested that all of the delegates' proposals should be made 
public.\40\
    Communist Party members continue to dominate local people's 
congress elections. Only township and county congresses hold 
people's congress elections, so higher level congresses are not 
elected by ordinary citizens. Party members make up 
approximately 65 percent of township congresses and 
approximately 70 percent of congresses above this level.\41\ A 
U.S. scholar pointed out that some people's congresses can now 
``veto government reports, quiz and dismiss officials, and . . 
. reject candidates selected by the communist party for 
leadership'' (not for the congress itself).\42\ Other sources 
report that some local people's congress elections have been 
influenced by organized crime and remain particularly 
susceptible to corruption and vote buying.\43\
    Citizen attempts to recall people's congress 
representatives continue to be vulnerable to official 
suppression. In March 2009, 31 representatives of approximately 
205 citizens from Tianmen, a county-level city in Hubei 
province, submitted a demand to the standing committee of the 
city people's congress, requesting the recall of a people's 
congress deputy, stating that the election was fraught with 
illegalities.\44\ Tianmen City People's Congress cadres 
reportedly threatened some of the representatives for their 
recall efforts.\45\

            Village Autonomy and Village Committee Elections

    Authorities have established ``grassroots autonomy'' or 
village elections for ``village committees'' \46\ as ``one of 
the four institutions of the socialist democratic polity,'' 
\47\ and such elections have spread throughout China with 
considerable experimentation. In 2008, 16 provinces adopted the 
trial practice in villages of ``election without nomination.'' 
\48\ Seven provinces formulated ``open village affairs 
regulations,'' and some provinces passed administrative 
regulations guiding village committee meetings or agreed to 
village management rules.\49\ During this reporting year, the 
Ministry of Civil Affairs completed its drafting work on the 
revisions of the PRC Organic Law on Villagers' Committees and 
sent the draft to the State Council for review, and Chinese 
legislators included it in the National People's Congress 
Standing Committee's five-year schedule.\50\ Problems including 
corruption, illegal practices, and in some cases, violence, 
continue to influence village elections.\51\ A circular jointly 
issued by the General Office of the State Council and the 
General Office of the Communist Party Central Committee noted 
that ``village committee election work in some rural areas is 
not properly conducted as the bribery situation is grave and 
seriously harms the impartiality of election[s].'' \52\
    Citizens have the right to recall village committee 
representatives, as stipulated by Article 16 of the PRC Organic 
Law on Villagers' Committees,\53\ but in some cases, citizens 
who initiate the recall process risk official punishment. [For 
more information about similar problems in people's congress 
elections, see Local People's Congress Elections in this 
section.] In 2009, in Fengqiu county, Henan province, villagers 
believed the village chief election to be corrupt and took 
their complaints to Beijing, where they met with detention and 
abuse.\54\ In a 2008 case, villagers in Huiguan village, near 
Tianjin city, began the legal process to recall their village 
committee, but officials at the township level intentionally 
impeded and tried to nullify the process.\55\ Following the 
2008 Beijing Summer Olympic Games, Huiguan village committee 
members went to Tianjin municipal officials to press their 
case. When they returned home, police detained seven villagers 
on the recall committee and held them on suspicion of 
``disturbing social order.'' \56\

                      OPEN GOVERNMENT INFORMATION

    In 2009, some Chinese Government agencies and other state-
run institutions continued efforts to implement the Regulations 
on Open Government Information (OGI Regulation). The OGI 
Regulation was issued as one component of a larger 
anticorruption effort, and was aimed at increasing public 
oversight and participation in government, and expanding 
citizen access to some types of official information. The OGI 
Regulation went into effect in May 2008,\57\ and government 
departments were required by the regulation to submit their 
first annual OGI work reports by March 31, 2009. Many 
government departments and offices did not file reports; many 
of the reports that were filed were incomplete.\58\ The OGI 
Regulation does not impose penalties upon government 
organizations that fail to file their annual report with the 
State Council.\59\
    Chinese citizens raised several problematic issues with the 
OGI Regulation\60\ and its implementation, especially 
governments' seeming hesitation to release information. One 
Foshan city (Guangdong province) resident, for example, 
reported that the government failed to respond to his request 
for information regarding a government program for families who 
need financial assistance to send their children to 
kindergarten.\61\ A company in Shenzhen submitted nearly 120 
information requests to 40 local and national governmental 
departments. By mid-March 2009, it had received only two pieces 
of information from local governments and four pieces of 
information from central government departments.\62\ One 
scholar's research showed that government departments lost 
fewer than 1 in 10 court cases involving the OGI 
Regulation.\63\ [For more information regarding citizens' use 
of the courts to challenge government agencies' refusals to 
disclose information, see Section II--Freedom of Expression.]
    In the runup to the 2008 Beijing Summer Olympic Games, the 
central government instituted a new government ``press 
spokesperson'' system that may open communication channels 
between the Chinese Government and citizens, but the system may 
also control the flow and nature of information shared with the 
domestic public and with citizens of other countries.\64\

           TRANSPARENCY IN THE 2009 ECONOMIC STIMULUS PACKAGE

    When Chinese officials in November 2008 released 
information on a four trillion yuan (approximately US$584 
billion) economic stimulus package and the revised package 
details in March 2009, they promised sufficient oversight over 
the distribution of funds.\65\ In November 2008, the Central 
Discipline and Inspection Commission announced that a new 
leading group had been established to monitor stimulus package 
spending.\66\ In addition, the Ministry of Supervision, the 
Ministry of Finance, and the National Development and Reform 
Commission (NDRC) reportedly dispatched officials to local 
areas to scrutinize use of funds.\67\ Some citizens and former 
government officials filed government information disclosure 
requests and wrote open letters to government leaders to 
express concerns regarding oversight of the stimulus 
package.\68\ According to Xinhua, the China Youth Daily carried 
an editorial in February 2009 arguing that all Chinese citizens 
have the right to know how the government is spending the 
stimulus package funds and commented that citizens had not been 
able to ``find out exactly where the four trillion yuan will be 
invested from the information already released by the 
government.'' \69\

                    ECONOMIC DATA AND ACCOUNTABILITY

    Given the global economic downturn and the growing 
influence of China's economy on international markets, the 
credibility of its economic data has become an issue of great 
importance.\70\ Chinese central government authorities have 
taken some limited steps in the past year to address 
longstanding and pervasive data reporting problems. A high-
level official at the National Bureau of Statistics reportedly 
lamented in a People's Daily article that unsophisticated 
accounting methods, systematic double-counting, and deliberate 
manipulation of data at the local level had harmed the 
credibility of China's official statistics.\71\ In one example, 
Xinhua reported that the National People's Congress (NPC), 
while inspecting the implementation of the PRC Law on 
Statistics, discovered that officials in one town in Chongqing 
municipality directed statistical workers to add a ``0'' to the 
production value of a local enterprise in order to reach the 
township's annual economic growth target (the enterprise's 
production value was thus inflated from 3 million yuan to 30 
million yuan, (approximately US$439,155 to US$4.4 million).\72\ 
According to one Hong Kong media report, an economist with the 
NDRC indicated that pressure to meet economic development goals 
exerted by higher level authorities upon local officials is to 
blame for data forgery at the local level.\73\ To help resolve 
some of the longstanding data reporting problems, the NPC 
Standing Committee passed a revision to the PRC Law on 
Statistics in June that will impose penalties on officials who 
``intervene in government statistical work and manipulate or 
fabricate data.'' \74\
    Corruption at all levels of government continues to be a 
serious problem in China. On Transparency International's 2008 
Corruption Perceptions Index, which measures ``perceptions of 
the degree of corruption as seen by business people and country 
analysts,'' China received a score of 3.6 on a 10-point scale 
(10 signifies ``highly clean'' and 0 ``highly corrupt'').\75\ 
Premier Wen Jiabao stated in his work report delivered at the 
annual meeting of the NPC in March 2009 that ``corruption 
remains a serious problem in some localities, departments and 
areas.'' \76\ In 2008, Chinese procuratorates filed for 
investigation 33,546 cases of corruption, bribery, dereliction 
of duty, and rights infringement involving 41,179 
officials.\77\ The Communist Party and the Chinese Government 
continue to introduce anticorruption measures and have 
encouraged citizens to report corruption cases.\78\ In February 
2009, the Party's Organization Department launched a special 
Web site and encouraged the public to use the site to report 
any irregular practices by officials above the county 
level.\79\

                            Public Hearings

    Some evidence suggests that public hearings in China, which 
were introduced in 1996 with the promulgation of the PRC Law on 
Administrative Punishment\80\ and have slowly expanded across 
the country, offer some limited opportunities for public 
engagement.\81\ According to Xinhua, governmental agencies now 
hold hearings on a variety of issues including administrative 
fines, public service and commodity price adjustments, 
government bans, compensation schemes, and some legislative 
affairs.\82\ In November 2008, government leaders in Zhengzhou 
municipality, Henan province, announced a plan to implement a 
hearing procedure to reduce the number of administrative fines 
imposed on citizens.\83\ In 2009, central-level authorities 
called on local officials to utilize public hearings as a means 
to resolve petitioning (xinfang) issues involving petitioners 
who repeatedly take their complaints to Beijing.\84\ Officials 
in Shizuishan city, Ningxia Hui Autonomous Region, held one 
such ``xinfang hearing'' in March 2009 regarding compensation 
in a house demolition case.\85\ Citizens have begun to request 
that authorities hold hearings regarding issues of broad public 
interest. In June 2009, Beijing lawyer Li Fangping submitted a 
request to the Ministry of Industry and Information Technology 
calling for a public hearing concerning the Circular Regarding 
Requirements for Pre-Installing Green Filtering Software on 
Computers, issued on May 19, 2009.\86\ [For more information on 
the Green Filtering Software and Chinese society's response to 
it, see Section II--Freedom of Expression.]
    Central government authorities stated they would resolve 
some of the problems with price setting hearings through 
revised regulatory measures.\87\ In July 2008, the National 
Development and Reform Commission (NDRC) circulated for public 
comment draft measures that for the first time required 
officials to allow journalists to cover, and observers to 
attend, price setting hearings. This requirement, aimed at 
improving hearing transparency, is contained in the final 
version of the Government Price Setting Hearing Measures issued 
by the NDRC in October 2008,\88\ which also sets forth the 
process for the selection of journalists and observers.\89\

                  CITIZENS' CALLS FOR POLITICAL REFORM

    On the eve of December 10, 2008, the 60th anniversary of 
the adoption of the Universal Declaration of Human Rights, over 
300 Chinese citizens signed and posted online a document titled 
Charter 08 that calls for political reform and greater 
protection of human rights in China. Signers included leading 
intellectuals, lawyers, writers, farmers, and workers. By 
October 2009, 9,700 people reportedly had signed the 
Charter.\90\ Charter 08 outlines 6 fundamental principles and 
19 reforms.\91\ Drafters and signatories endorsed the ``basic 
universal values'' of freedom, human rights, equality, 
republicanism, democracy, and constitutional rule.\92\ 
Authorities have arrested, detained, threatened, and put under 
surveillance many citizens who signed Charter 08, including 
prominent intellectual Liu Xiaobo, whom public security 
officials formally arrested on June 23, 2009, on the charge of 
``inciting subversion of state power,'' \93\ and Zhao Dagong, 
whom security officials placed under surveillance in the 
Shenzhen Special Economic Zone, Guangdong province.\94\ 
Officials have harassed, detained, and arrested many other 
Charter 08 signatories. [For more information on individuals 
harassed, detained, or arrested for signing Charter 08, see 
Section II--Criminal Justice and Freedom of Expression.]
    Additional calls for greater political reform originated 
from other sectors of society. In mid-2008, a debate reportedly 
began in the Chinese media regarding the applicability of 
``universal values'' to China, including human rights and 
democracy.\95\ In February 2009, a group of 16 retired Party 
elders, including Li Rui, a former secretary to Mao Zedong, 
urged Party leaders to take steps toward political reform, 
loosen media controls, and allow opposition members to 
organize, arguing that democracy and transparency are needed to 
navigate the current economic downturn.\96\ A scholar on 
Chinese culture, Ling Cangzhou, published an open letter in 
February calling for constitutional reform and the end to one-
party rule.\97\ In August, an article or ``talk'' (tanhua) 
supporting ``political ethics'' in China was circulated that, 
according to the South China Morning Post, was ``purportedly 
written by a retired senior party leader.'' \98\ The ``talk'' 
discussed features of China's political system that had not 
changed in the 60 years since the founding of the People's 
Republic of China. It brought up the need for ``political 
ethics'' in China and the need to allow ``ordinary people and 
social organizations'' to express independent political views, 
``truly participate in the political process,'' and ``exercise 
oversight over the governing party.'' \99\
    Officials harassed or briefly detained other Chinese 
citizens for their alleged political actions, beliefs, and 
writings. Security officials detained or arrested individuals 
for monitoring village or people's congress elections. Election 
specialist Yao Lifa was monitored closely by authorities during 
the run-up to the 20th anniversary of the violent suppression 
of the 1989 Tiananmen protests.\100\ Authorities in Pudong 
district, Shanghai city, reportedly detained Yao in mid-July 
because he was monitoring elections for the Pudong People's 
Congress.\101\ Among those repeatedly harassed for their 
political views were democracy advocates in Guangdong province, 
some of whom reportedly signed Charter 08.\102\ Also among 
those harassed by authorities for their political beliefs was 
Hubei democracy advocate Hu Junxiong.\103\ Authorities have 
interfered in Hu's efforts to make a living on several 
occasions since 2004, including in March 2009, when Hubei 
provincial security officials took Hu from his place of work in 
Beijing back to Hubei, where local authorities warned employers 
not to hire Hu.\104\
    Other Chinese citizens were detained or sentenced to prison 
terms for activities memorializing the 20th anniversary of the 
violent suppression of the 1989 Tiananmen protests or for 
organizing alternative political parties. In one example, the 
Changsha Intermediate People's Court convicted Hunan democracy 
activist Xie Changfa in September 2009 on charges of 
``subversion of state power,'' a crime under Article 105 of the 
PRC Criminal Law,\105\ and handed down a harsh sentence of 13 
years' imprisonment and 5 years' deprivation of political 
rights.\106\ According to Human Rights in China (HRIC), ``[t]he 
court's decision stated that Xie Changfa illegally set up the 
China Democracy Party (CDP).'' HRIC reported that Xie was 
detained in June 2008 for having organized the ``Hunan 
Preparatory Committee of the China Democracy Party,'' drafted 
the CDP's charter, and helped prepare the first CDP national 
convention. The court reportedly also said that Xie had written 
articles that he hoped to distribute for the purpose of 
overturning the state's power.\107\ In another case, Zhou 
Yongjun, a U.S. green card holder and leader of the 1989 
Tiananmen protests,\108\ was reportedly transported from Hong 
Kong to the mainland where Chinese authorities then detained 
him in Luohu district, Shenzhen Special Economic Zone in 
September 2008.\109\ According to Radio Free Asia, paraphrasing 
Zhou's lawyer, the Hong Kong Immigration Department took Zhou 
Yongjun's passport and transported him to Shenzhen, saying some 
people on the mainland ``wanted to talk to him.'' \110\ In 
December, he was reportedly secretly moved to Shenzhen's 
Yantian district detention center.\111\ In May 2009, 
authorities notified Zhou's family that he was in the Suining 
municipal detention center in Sichuan province.\112\ 
Authorities first reportedly accused Zhou of spying and 
political crimes, and then later charged him with financial 
fraud.\113\ As of the end of September, as reported by Radio 
Free Asia, Zhou's lawyer, Chen Zerui, said officials had 
postponed Zhou's trial many times, which may mean authorities 
have insufficient evidence to prosecute.\114\ [See Section II--
Freedom of Expression for additional cases.]

                         Commercial Rule of Law


                              Introduction

    As a member of the World Trade Organization (WTO), China is 
bound by commitments outlined under both the WTO agreements and 
China's accession documents.\1\ As a WTO member, China must 
abide by obligations that generally prohibit it from 
discriminating among WTO members, as well as discriminating 
between foreign and Chinese goods, services, and intellectual 
property rights. Further, China must further transparency by 
adhering to obligations to promptly publish all laws, 
regulations, judicial decisions, and 
administrative rulings relating to trade in goods, services, 
trade-related intellectual property rights, or the control of 
foreign exchange. China's uneven implementation of its WTO 
obligations has led multiple WTO members, including the United 
States, to file WTO disputes against China.\2\ In a case 
brought by the United States, the WTO ruled in July 2008 that 
China's tariffs on auto parts imports violated WTO rules. On 
August 28, 2009, China announced that it will scrap the higher 
tariffs starting September 1, 2009.\3\ Recently, however, there 
have been improvements in some areas such as contract 
enforcement, insurance, and antimonopoly, as noted below. At 
the same time, new developments this year in areas such as food 
and product safety, telecommunications, intellectual property, 
and economic crime are potentially problematic, as described 
below. The Commission will continue to monitor and report on 
issues of concern in the coming year.

                          Contract Enforcement

    Contract enforcement in China remains problematic. While 
there have been some well-known cases where foreign parties 
have prevailed against Chinese counterparties, the coverage of 
these cases implies that the foreign litigant's success is not 
the norm. Lawyers representing foreign clients who contract 
with Chinese parties in China have informed the Commission that 
they frequently advise their clients to provide for arbitration 
of contractual disputes, preferably outside China, since China 
is a member of the New York Convention on the Recognition and 
Enforcement of Foreign Arbitral Awards. Nonetheless, there is 
some evidence of limited improvement in the environment for 
judicial enforcement of commercial contracts, at least in some 
large urban areas of China during the last year. The World Bank 
publishes ``Doing Business'' rankings annually.\4\ The 2009 
Doing Business Project report ranks 181 countries by ``ease of 
doing business,'' and covers the period June 2007 through May 
2008. China is ranked 83rd out of 181 countries. In the 
``Enforcing Contracts'' subcategory, however, China is ranked 
18th, ahead of Australia (20), Japan (21), the United Kingdom 
(23), Canada (58), Brazil (100), and India (180). The United 
States is ranked sixth in this subcategory, and Hong Kong is 
ranked first.\5\ Moreover, lawyers representing clients on the 
ground in China report that contracts that are written to 
follow closely the letter of the PRC Contract Law can be 
enforced effectively in courts in urban areas.\6\ Some of the 
problems that people outside of China associate with poor 
contract enforcement in China stem from disputes arising from 
contracts that are poorly drafted or that are enforced outside 
of urban areas.\7\ Some rulings in Chinese contract disputes 
that may appear illegitimate outside of China in fact may be 
based on principles of equity as legitimately applied by judges 
in China. In some circumstances, Chinese courts may be required 
to rely on principles of equity (gongping yuanze). A new 
interpretation issued by the Supreme People's Court, for 
instance (see below), specifically instructs courts to rely on 
principles of equity in particular circumstances.\8\ According 
to one lawyer practicing in China, ``[I]f a Chinese company is 
late on a contract because its own supplier was late in 
delivering it a necessary component part, the Chinese court may 
very well excuse the delay.'' \9\ Enforcement according to 
principles of equity should not be confused, however, with 
nonenforcement.

               NEW SUPREME PEOPLE'S COURT INTERPRETATION

    An interpretation issued by the Supreme People's Court 
(SPC) in February 2009, which took effect on May 13, 2009, may 
further contribute to effective contract enforcement.\10\ The 
SPC's new Interpretation Related to Questions Arising in 
Connection With Implementation of the PRC Contract Law 
(Interpretation) clarifies terms that have been the subject of 
much debate since the Contract Law was adopted in 1999 and 
removes ambiguity on some essential points.\11\ For example, 
the Contract Law clearly provides that oral contracts are valid 
and enforceable.\12\ Chinese courts, however, have tended to 
limit enforcement of oral contracts. With this Interpretation, 
the SPC pushes lower courts to enforce such contracts.\13\ In 
addition, the Contract Law includes several restrictions 
relating to form contracts.\14\ These provisions play an 
important role in China because Chinese companies frequently 
use form contracts. Foreign parties who ignore these provisions 
find their contracts unenforceable in Chinese courts. The new 
Interpretation clarifies the rules to which form contracts must 
conform and then makes clear that a form contract that meets 
the enumerated requirements shall be regarded as a valid 
contract.\15\ The Interpretation instructs lower courts not to 
dismiss form contracts out of hand.

                        JUDGMENT DEBTOR DATABASE

    In part to mitigate risks of doing business in China, the 
SPC on March 30, 2009, made available to the public a 
nationwide database of judgment debtors.\16\ Companies, 
especially foreign companies, frequently transact with 
companies in China about which they know little. When these 
companies encounter legal problems that go beyond 
straightforward questions of contract enforcement, they must 
rely on a legal system still not fully equipped to protect 
their rights and business interests.\17\ The online, searchable 
database addresses such problems by making available to the 
public a listing of all defendants against whom courts have 
issued orders to pay money damages or other compensation for 
nonperformance of specific acts that remain unpaid. The 
database is accessible online at http://zhixing.court.gov.cn. 
According to China Daily, quoting Jiang Bixin, a vice president 
of the SPC, the database at its inception listed 5.24 million 
judgments handed down by 3,484 Chinese courts.\18\ Records are 
searchable according to name (company or individual), business 
registration number (in the case of entities 
registered in China), or identity card number (in the case of 
individuals). Records show the name of the judgment debtor, 
corresponding business registration or identity card number, 
name of the court, date and number of the judgment, and status 
of the judgment. According to China Daily, Jiang Bixin said 
that ``[t]he failure of the courts to enforce verdicts on civil 
cases has been a significant challenge for the country's 
judicial system, with many litigants possessing limited 
awareness of legal proceedings and refusing to fulfill their 
legal obligations.'' \19\ The failure of the courts to enforce 
verdicts also may be attributable, at least in some cases, not 
only to lack of knowledge on the parts of litigants concerning 
their legal obligations, but to corruption and local 
protectionism.
    On the whole, the database appears to be a practical 
application of the principles of accountability and disclosure 
to address the difficulties that commercial entities encounter 
when attempting to make informed choices about the selection of 
business partners. Moreover, the database creates reputation 
effects that could translate into greater incentives for 
debtors to comply with executable judgments issued by Chinese 
courts. Without the database, in order to determine whether a 
potential business partner or acquisition target has been 
involved in litigated disputes, companies face the costly task 
of searching individually from court to court. The database 
reduces the costs of making such determinations. The 
information available in the database also may be used by 
companies doing due diligence evaluations, potentially reducing 
the costs of completing such evaluations. Commission staff 
found the database to be simple to use and easily 
searchable.\20\
    The database may alter the dynamics of ``forum shopping'' 
in China.\21\ It remains to be seen whether the new database 
will result in some courts developing ``good'' reputations 
based on the number of collected judgments the database 
associates with them, and other courts developing ``bad'' 
reputations based on high numbers of uncollected judgments. 
This in turn raises the question of whether courts now will 
have incentives to issue enforcement orders only in cases where 
successful collection is more likely and to avoid issuing 
orders in cases where enforcement may prove difficult. If, as a 
matter of public policy, Chinese authorities wish for 
individual courts and their personnel to be judged by the 
public or by higher authorities according to their reputation 
for competence in achieving substantive outcomes (in this case, 
effective debt collection or settlement, e.g., by mediation), 
then the database may produce effects that are positive 
according to such criteria. If, however, the objective is for 
courts to issue orders on the merits, independent of the actual 
likelihood of collection, then the database may produce effects 
that are detrimental according to these criteria.

                             Economic Crime

    The criminalization of commercial disputes in China is 
rooted in the PRC Criminal Law.\22\ Chapter III of the Criminal 
Law (Articles 140 to 231) deals with ``Crimes of Disrupting the 
Order of the Socialist Market Economy,'' including ``Crimes of 
Disrupting the Order of Administration of Companies and 
Enterprises.'' \23\ Lawyers who specialize in this practice 
area in China report that ``Crimes of Producing and Marketing 
Fake or Substandard Commodities'' may include, for example, a 
dispute in which a buyer contends that defects in its products 
are attributable to substandard material supplied by a vendor, 
while the vendor contends that defects are attributable to 
problems with the buyer's processing of the material supplied 
by the vendor.\24\ ``Crimes of Financial Fraud'' or ``Crimes of 
Disrupting Market Order'' may include, for example, a dispute 
where a company pays a consultant to produce a multi-part 
study, the company is not satisfied with the first installment, 
and the consultant agrees to forgo the balance of his fees, but 
does not refund the deposit.\25\ In the United States, 
transacting parties frequently deal with such problems through 
private civil actions. In China, however, business disputes are 
at least equally likely to become subject to criminal law 
enforcement.\26\
    The range of economic crime in China is broader than in the 
United States, and Chinese companies have been known to pursue 
criminal complaints in their business dealings more frequently 
than their counterparts in other systems, such as the United 
States.\27\ Lawyers who specialize in this practice area in 
China also report that,

        [First,] Chinese judges are more comfortable in handing 
        out criminal sanctions than they are in deciding the 
        merits of private commercial activity, and plaintiffs 
        are more comfortable in the role of beseeching the 
        police, the prosecutors, and the courts for justice 
        instead of pursuing justice on their own. Second, there 
        is an economic incentive. If the state pursues the 
        claim, the offended person or company saves on the 
        expense of hiring a lawyer. Third, as part of the 
        criminal action, the state will seek to force the 
        defendant to pay redress to the offended party. In 
        China, the state is much more likely to obtain assets 
        from the defendant for payment of redress than is a 
        private plaintiff.\28\

    The recent detentions of four Rio Tinto executives have 
drawn an international spotlight on ``economic crimes'' and the 
criminalization of commercial disputes in China. The Chinese 
Government maintains controls over market information, and 
independent market analysis by foreign companies in China is 
strictly controlled. Difficulties in obtaining reliable market 
data present significant challenges to doing business in China. 
The Rio Tinto case underscores the point.\29\ The Rio Tinto 
employees initially were accused of theft of state secrets, 
which would have allowed the government to prosecute the case 
in secret. Subsequently, the four were formally arrested on 
suspicion of commercial bribery and infringement of trade 
secrets. [See box titled Rio Tinto below and box titled 
Proposed Revision of State Secrets Law in Section II--Freedom 
of Expression.] The Commission will continue to monitor and 
report on the implications of this case for trends in the 
criminalization of commercial law in China, and for China's 
commercial rule of law development.

------------------------------------------------------------------------
                                Rio Tinto
-------------------------------------------------------------------------
  In July 2009, Chinese authorities detained four China-based employees
 of the Australian mining giant Rio Tinto--one Australian citizen and
 three Chinese nationals--on suspicion of violating China's state
 secrets laws. China is the world's largest importer of iron ore, and
 Rio Tinto reportedly is the world's second largest producer. The
 Chinese Government closely regulates the import of iron ore into China
 by China's state-controlled steel industry, negotiating the benchmark
 price on iron ore imports on an annual basis, and the detentions took
 place during this negotiation process. The case quickly was raised to a
 diplomatic level by Australia's prime minister, Kevin Rudd, and U.S.
 Secretary of Commerce Gary Locke told the Chinese Government that
 foreign executives working in China were concerned.
  Perhaps in reaction to the negative response to the case
 internationally, in August 2009, the Chinese filed formal charges
 against the four for commercial bribery and infringement of trade
 secrets. While these formal charges of economic crimes are serious,
 they are not as draconian as China's state secrets laws, under which
 the four would have faced closed-door trials and harsh penalties. The
 case highlights the potential interrelationship between economic crimes
 and the interests of different government departments and state-owned
 enterprises, be they domestic industry players or departments such as
 the state security bureaus or Ministry of Commerce.
------------------------------------------------------------------------

                   Food Safety and Product Liability

    Product quality\30\ and food safety emergencies continue to 
produce high-profile judicial decisions and to prompt changes 
in Chinese law. On January 22, 2009, Chinese courts issued 
decisions in criminal cases related to a food safety crisis 
during 2008 involving the Sanlu Group, and the contamination, 
sale, and distribution of tainted milk products.\31\ Court 
decisions included capital punishment for two defendants, a 
suspended death sentence for one, and life imprisonment for 
another three (including Sanlu's former chairman, who also was 
fined nearly 25 million yuan (US$3.7 million)). As the 
Commission reported in its 2008 Annual Report, Xinhua announced 
the arrest of individuals involved in the contamination, sale, 
and distribution of tainted milk products on September 15, 
2008.\32\ However, a Chinese court accepted the first civil 
lawsuit seeking compensation in connection with the 2008 crisis 
only on March 25, 2009.\33\ In the interim, as the Commission 
has documented, authorities pressured lawyers and prevented 
courts from accepting or handling civil cases related to the 
tainted milk crisis.\34\ The Sanlu decisions show that, when 
the potential negative impact on China's international image, 
perceived domestic stability, and economic development is 
significant, Chinese courts are likely both to impose severe 
criminal sentences and to prioritize punishment over 
compensation. [See Section III--Access to Justice.]
    China's ongoing food safety and product quality problems do 
not stem from a failure to legislate on the issue but rather 
from duplicative legislation and ineffective implementation. In 
theory, the PRC General Principles of Civil Law,\35\ PRC 
Product Quality Law,\36\ PRC Consumer Rights Protection 
Law,\37\ and the new PRC Food Safety Law\38\ allow parties 
affected by defective products to seek compensation for 
personal injury and damages. The PRC Criminal Law imposes 
criminal punishment for producing or knowingly selling fake, 
counterfeit, or defective products.\39\ The severity of 
punishment--at least according to the legislation--depends on 
the nature of the crime, the nature of the product and problem, 
and the severity of the harm caused by the problem. When a 
company is found to be criminally liable, the company itself is 
subject to a fine and the person in charge of the company 
(e.g., the ``legal representative,'' typically the chairman of 
the board or general manager) is subject to criminal punishment 
ranging from fines to 
confiscation of property, detention, imprisonment, or death. 
China's other legislation and regulations concerning food 
safety and product quality include the PRC Agricultural Product 
Quality Safety Law,\40\ State Council Special Provisions on 
Strengthening Supervision and Management of Food Safety,\41\ 
and the National Plan for Major Food Safety Emergencies.\42\ 
These laws and regulations 
create overlapping portfolios and less-than-clear lines of 
responsibility among multiple regulatory actors, including the 
State Administration for Industry and Commerce; the State Food 
and Drug 
Administration; the General Administration of Quality 
Supervision, Inspection and Quarantine; the Standardization 
Administration; the Ministry of Health; the Ministry of 
Agriculture; and the Ministry of Commerce. Overlapping 
portfolios and less-than-clear lines of responsibility among 
multiple legal and regulatory actors present additional 
challenges to implementation.

                          NEW FOOD SAFETY LAW

    Into this complex legislative and regulatory mix, the 
National People's Congress added the new PRC Food Safety Law on 
February 28, 2009, which took effect on June 1, 2009,\43\ 
replacing the 1995 PRC Food Hygiene Law.\44\ The new Food 
Safety Law aims to consolidate the regulatory and legislative 
landscape governing food safety and product quality. 
Accordingly, the new law creates a National Food Safety 
Commission charged with coordinating the work of five 
ministries that retain supervision over different phases of 
food production.\45\ The law clarifies criminal liability,\46\ 
prescribes fines,\47\ provides for confiscation of unlawful 
gains and property,\48\ and permits consumers to claim, in 
addition to compensation, punitive damages up to 10 times the 
purchase price of the product in question from the manufacturer 
or seller.\49\ In part in response to the tainted milk powder 
crisis, the new law also provides for a system for monitoring 
food production;\50\ national standards for food quality and 
safety standards for food additives, pesticides, herbicides, 
and heavy-metal content;\51\ the establishment of a 
surveillance and risk assessment system;\52\ the elimination of 
government quality inspection waivers and exemptions (aimed at 
limiting preferential treatment of producers by 
inspectors);\53\ and a food product recall system.\54\ The law 
also mandates a coordinated national program for responding to 
food safety emergencies.\55\ The impact of the law as yet is 
unclear.
    On July 20, 2009, the State Council issued the PRC Food 
Safety Law Implementing Regulations, which came into effect 
immediately. The Implementing Regulations provide little 
additional guidance, though they do provide greater detail on 
the national food safety risk monitoring program.\56\ Further, 
government departments with responsibility under the Food 
Safety Law have issued implementing measures. The State 
Administration of Industry and Commerce issued the 
Administrative Measures for Supervision of Safe Distribution of 
Food Products and the Administrative Measures on Food Product 
Distribution Licensing, both of which were adopted and became 
effective July 30. The Administration of Quality Supervision, 
Inspection and Quarantine and the Ministry of Health on July 
22, 2009, issued an announcement on how to apply standards for 
food and food additives imports. On June 1, the Ministry of 
Agriculture issued a notice on implementing the Food Safety 
Law. These implementing rules have begun to clarify China's 
food safety regime.
    The impact of the new Food Safety Law and implementing 
regulations, however, will depend not only on the effectiveness 
of implementation and enforcement, but also on the thoroughness 
with which regulatory authorities specify standards, timelines, 
budgets, and dispute resolution procedures, and on the Chinese 
Government's ability--as yet unproven--to develop funding 
resources and expertise to hire and train qualified inspectors 
and regulators in sufficient numbers with requisite 
credentials.\57\

         ENFORCING FOREIGN PRODUCT LIABILITY JUDGMENTS IN CHINA

    During the Commission's 2009 reporting year, product 
quality crises over Chinese drywall and other products\58\ 
raised legal questions that centered on the utility of suing 
Chinese defendants 
outside of China, and, relatedly, the difficulty of serving a 
foreign complaint in China. As a party to the Hague Convention 
on Service Abroad of Judicial and Extrajudicial Documents in 
Civil and Commercial Matters,\59\ China accepts service of 
process made through its central authority. Because pleadings 
must be served in Chinese, however, and reliable legal 
translation services are expensive, complainants wishing to 
serve a foreign complaint in China often find it prohibitively 
costly to do so. The question, however, is not whether serving 
a foreign complaint in China is cost effective, but rather 
whether there is any reasonable probability of collecting on a 
foreign judgment against a Chinese company in China in the 
first place. Foreign lawyers on the ground in China have 
reported 
difficulty enforcing foreign judgments in China for a variety 
of reasons besides the language barrier and have reported that 
arbitration offers a greater chance of success.\60\ Because 
China has signed the 1958 Convention on the Recognition and 
Enforcement of Foreign Arbitral Awards (the ``New York'' 
Convention), Chinese courts should enforce arbitration awards 
from the jurisdiction in which parties contractually agree to 
arbitrate.\61\ With a foreign arbitral award, parties still 
must go to a Chinese court for enforcement, and companies have 
reported great difficulty achieving effective enforcement in 
such cases. Courts frequently find procedural reasons for not 
enforcing, in some cases attributable to local protectionism.

                            PRODUCT RECALLS

    The Sanlu case highlighted the ineffectiveness of China's 
system for recalling dangerous products. Companies that seek to 
recall a defective product in China may face insurmountable 
obstacles in implementing a recall.\62\ Some foreign 
manufacturers who intended to include China in worldwide 
product recall campaigns reportedly abandoned their China 
recall programs because of the lack of a workable recall system 
within China.\63\ It is reasonable to expect, therefore, that 
implementation of any recall system in China will be most 
effective first with foreign manufacturers who already have 
shown interest in including China in product recall 
campaigns. Enforcement authorities in China, in turn, may have 
incentives to pursue enforcement disproportionately against 
foreign-produced goods due to manufacturers, interest in and 
greater relative capacity to comply.\64\

                           Telecommunications

    Notwithstanding international criticism of China's control 
of the Internet, the Chinese Government uses enhanced 
regulation of the already tightly-controlled telecommunications 
industry as a further means to control the transmission and 
dissemination of online 
content that the government and Party deem to be potentially 
detrimental to national unity, territorial integrity, social 
order, or stability.\65\ [For more information on China's 
control of the Internet, see Section II--Freedom of 
Expression--box titled Green Dam.] On March 1, 2009, for 
example, the Ministry of Industry and Information Technology 
(MIIT) issued new Measures for the Administration of Permission 
to Provide Telecommunications Services (Measures), which took 
effect on April 10, 2009.\66\ The Measures lower entry 
thresholds for ``basic'' telecommunications companies and 
improve the transparency of licensing and reporting procedures. 
However, the Measures also include specific provisions that 
obligate companies to assist in regulating the dissemination of 
``illegal'' online content (weifa xinxi).\67\ Under the 
Measures, so-called value-added service providers have an 
affirmative obligation to monitor or ``supervise'' (jiandu) Web 
sites used for the transmission of ``illegal'' content over 
networks. When prohibited transmissions occur, providers are 
required to ``suspend or terminate network access 
immediately,'' to ``preserve records,'' and to ``report to the 
relevant 
authorities.'' \68\ The measures apply to an industry that 
underwent consolidation in the past year and is already tightly 
controlled and protected. China's telecommunication industry 
underwent consolidation in May 2008, with the number of major 
operators reduced from six to three: China Mobile (mobile 
services), China Telecom (fixed services), and China Unicom 
(broadband services).\69\ This was the fourth major 
telecommunications reorganization since the Chinese Government 
opened the industry to domestic competition.\70\ Foreign 
participation in China's telecommunications industry remains 
restricted, and Chinese state actors are likely to hold 
controlling stakes in most if not all telecommunications 
service providers for the foreseeable future.

                         Intellectual Property

    Several developments in the area of patent law occurred 
over the last year and 2009 was the first year that China's 
State Intellectual Property Office (SIPO) granted more patents 
to Chinese than foreign applicants.\71\ In 2008, Chinese 
applicants were awarded 49.7 percent of the total number of 
invention patents granted by SIPO.\72\ In the first six months 
of 2009, however, according to official SIPO figures, Chinese 
applicants received 18,634 patents (51.2 percent), while 
overseas applicants received 17,737 (48.8 percent).\73\ Chinese 
patent applications tended to be for innovations related to 
computer input methods for Chinese characters, ceramics, 
beverages, food products, and Chinese medicine.\74\ Chinese 
patent 
applications for innovations related to high-tech products were 
comparatively fewer relative to foreign applications.\75\ In 
part to address this problem, SIPO has opened roughly 50 of 
approximately 100 planned intellectual property assistance and 
protection centers around the country.\76\ These centers are 
intended ``to help Chinese citizens, legal persons and other 
organizations that have financial difficulties in [intellectual 
property rights] disputes and litigation,'' \77\ and complement 
SIPO's outreach to corporate research personnel, to help them 
understand why and how they may make effective use of the 
Chinese Government's systems for protecting intellectual 
property rights (IPRs).\78\

                        AMENDMENTS TO PATENT LAW

    In December 2008, the National People's Congress passed 
amendments to the PRC Patent Law\79\ that take effect on 
October 1, 2009, and are intended to encourage domestic 
innovation. The amendments follow publication in June 2008 of 
the Outline of the National Intellectual Property Strategy 
(National Strategy).\80\ The National Strategy stated that ``by 
2020 China will become a country with a comparatively high 
standard in terms of the creation, utilization, protection and 
administration of IPRs.'' \81\ One prominent international 
publication for legal professionals described this as a 
``promise to turn `made in China' into `invented in China.' '' 
\82\ The Amendments to the Patent Law (Amendments) come after 
three decades during which China's patent system on paper has 
developed at impressive speed. While patent filings have risen 
dramatically in the last year,\83\ China still plays a small 
role in the formulation of standards.\84\ At the same time, the 
increase in filings presents China's State Intellectual 
Property Office (SIPO) with challenges familiar to patent 
offices around the world, such as maintaining sufficiently high 
examination standards while coping with an increasing amount of 
prior art in different languages, and avoiding delays in 
completing examinations.\85\ The ``biggest challenge for 
SIPO,'' a prominent Chinese intellectual property attorney has 
been described as saying, ``is not just to clear out the 
backlog of filings, but to raise examination quality to meet 
the standards of the global [intellectual property] system.'' 
\86\
    These institutional capacity challenges aside, the 
Amendments create other new problems as well.\87\ The 
Amendments contain provisions for compulsory licensing (i.e., 
requiring patent holders to license patents to others) that 
patent experts have found troubling.\88\ The Amendments allow 
compulsory licensing if, after three years from the grant of a 
patent, or four from the filing of a patent application, the 
patent holder, ``without proper justification,'' is found not 
to have ``exploited'' the patent ``sufficiently,'' or if use of 
the patent is found to restrict competition.\89\ One patent 
expert has observed that the timing set forth in the provisions 
may violate the Paris Convention for the Protection of 
Industrial Property, to which China is a party.\90\ Of equal 
importance, however, the Amendments may undermine protections 
for investment in innovation that underlie China's motivations 
for amending the law in the first place.\91\ The Amendments may 
be especially prejudicial for the biotechnology industry.\92\ 
International agreements, including the Agreement on Trade-
Related Aspects of Intellectual Property (TRIPS), recognize 
governments, right to issue compulsory licenses if a patent 
holder fails to make the patented product available to the 
public in the face of a compelling public need. A typical 
example is the case of a holder of a patent for the cure of a 
disease who refuses to make any sales during an epidemic that 
occurs after the patent has been issued.\93\ Under the amended 
PRC Patent Law, however, compulsory licensing decisions turn on 
vague standards such as the ``sufficient'' use of patents and 
``proper justification'' for patent holders, decisions, and 
there is concern that the Amendments provide the potential for 
official discretion that could undermine intellectual property 
protections.

                               COPYRIGHT

    In December 2007, the WTO Director-General composed a panel 
in relation to a dispute in which the United States challenged 
deficiencies in China's intellectual property rights protection 
and 
enforcement regime attributable to weaknesses in China's legal 
institutions and systems of policy implementation.\94\ The 
panel published its report on January 26, 2009.\95\ The panel 
found that China violated TRIPS Article 9(1) (and, by 
incorporation, Article 5(1) of the Berne Convention for the 
Protection of Literary and Artistic Works) and TRIPS Article 
41(1). Under these provisions, governments must grant copyright 
protection for qualifying works and establish enforcement 
procedures for such protection. Chinese law grants or denies 
copyright protection under Article 4(1) of the PRC Copyright 
Law (which states, ``works the publication or distribution of 
which is prohibited by law shall not be protected by this 
Law'') \96\ based on a review process conducted by Chinese 
authorities to determine whether content is prohibited under 
Chinese law on grounds such as inconsistency with fundamental 
principles established in the PRC Constitution, or that content 
is ``superstitious'' or ``immoral.'' \97\ More important, the 
panel's decision implies a need for the National People's 
Congress to amend the Copyright Law, especially Article 4(1), 
without delay. The State Council last year acknowledged the 
need for prompt revision of the Copyright Law.\98\ While some 
Chinese authorities see media openness and the protection of 
literary and artistic works as elemental to a fully functioning 
marketplace of ideas, the prevailing modus operandi among 
officials is to treat the protection of intellectual property 
as impediments to control. While some Chinese directors and 
actors have developed worldwide renown and amassed fortunes, it 
is their earnings on foreign releases for the most part that 
have enabled them to become wealthy, while piracy inside China 
prevents them from realizing material gains based on the 
popularity of their works at home.\99\

 TRADE RESTRICTIONS ON BOOKS, DVDS, MUSIC, AND FILMS--WTO PANEL REPORT

    On August 12, 2009, a WTO panel found that certain Chinese 
regulations restricting the ability of foreign companies and 
Chinese-foreign joint ventures to import or distribute (1) 
reading materials, (2) audiovisual home entertainment (AVHE) 
products, and (3) sound recordings, as well as to import films 
for theatrical release, were in violation of international 
trade agreements.\100\ The ruling did not challenge China's 
censorship of the content of the products in question or 
address China's compliance with international obligations to 
protect intellectual property rights. According to the panel 
report, reading materials include books, newspapers, 
periodicals, and electronic publications; AVHE products include 
videocassettes, VCDs, and DVDs; and sound recordings include 
recorded audio tapes. The panel report stems from a Request for 
Consultations filed by the United States in April 2007.\101\
    A summary of the panel's findings can be found on pages 461 
through 469 of the report. Specifically, the panel found the 
following measures to violate China's WTO agreements:

        <bullet> Chinese regulations that expressly prohibit 
        foreign investment in businesses that import reading 
        materials, AVHE products, or sound recordings, as well 
        as regulations that give the Chinese Government 
        discretion to determine who may import reading 
        materials, AVHE products, sound recordings, and films 
        into China. For example, Articles 10(2) and 10(3) of 
        the Catalogue for the Guidance of Foreign Investment 
        Industries prohibit foreign investment in the 
        ``business of . . . importing of books, newspaper and 
        periodical'' and the ``business of . . . 
        importing of audio and visual products and electronic 
        publications.'' \102\ The panel found that these 
        provisions violate commitments in the Chinese 
        Government's Protocol of Accession to the WTO 
        (Protocol) and the Report of the Working Party on the 
        Accession of China (Working Party Report) that require 
        China to permit all enterprises in China and foreign 
        enterprises and individuals to import and export all 
        goods (with some limited exceptions) to and from China 
        by December 2004. In addition, the panel found other 
        regulations that violate commitments in the Protocol 
        and the Working Party Report. Examples include Articles 
        41 and 42 of the PRC Regulation on the Administration 
        of Publishing, which require companies that import 
        publications into China to be Chinese wholly state-
        owned enterprises, and Article 30 of the Regulations 
        Regarding Management of Films, which gives the State 
        Administration of Radio, Film, and Television 
        discretionary authority to decide who can import 
        films.\103\
        <bullet> Chinese regulations that restrict the ability 
        of wholly foreign-owned enterprises and Chinese-foreign 
        joint ventures to distribute reading materials, AVHE 
        products, and sound recordings within China. For 
        example, the panel found that Article 8(4) of the Rules 
        for the Management of Chinese-Foreign Contractual Joint 
        Ventures for the Distribution of Audiovisual 
        Products,\104\ which stipulates that the Chinese 
        partner in a Chinese-foreign joint venture distributor 
        of audiovisual products must be the majority 
        shareholder, violates national treatment provisions in 
        the General Agreement on Trade in Services (GATS). 
        Article XVI:2(f) of the GATS prohibits parties to the 
        GATS from putting ceilings on the percentage or total 
        value of foreign investment. The panel also cited other 
        regulations expressly prohibiting foreign investors 
        from engaging in the distribution of the products in 
        question, such as Article 4 of the Several Opinions on 
        the Introduction of Foreign Capital Into the Cultural 
        Sector, which prohibits foreign-invested entities from 
        distributing publications or audiovisual products 
        within China.\105\

    China argued that its requirement that importers of reading 
materials and audiovisual products be wholly state-owned 
enterprises is ``necessary to protect public morals,'' a claim 
that the panel 
rejected. According to Article XX(a) of the General Agreement 
on Tariffs and Trade 1994 (GATT 1994), a country may adopt 
trade measures that are ``necessary to protect public morals.'' 
According to the panel's report, China argued that reading 
materials and audiovisual products are ``cultural products'' 
which are ``of a unique kind with a potentially serious 
negative impact on public morals,'' and noted that ``in the 
case of products to be imported it is critical that the content 
review be carried out at the border.'' Furthermore, China 
argued that relying solely on administrative authorities to 
carry out this review would create ``undue delays'' because of 
those authorities' ``limited resources,'' and therefore it is 
appropriate for Chinese authorities to select ``import 
entities'' that would help conduct a content review. China 
contended that the ``contribution of the import entities to the 
content review is a substantial and essential condition for an 
effective and efficient content review.'' Finally, China argued 
that these import entities must be wholly state-owned 
enterprises, because ``. . . the Government cannot require 
privately owned enterprises in China to bear the substantial 
cost [of conducting content review.]'' In response, the United 
States argued that ``content review can be conducted before, 
during, or after importation by any number of entities, with no 
need to give China's state-owned enterprises a monopoly on 
importing.'' The Panel found that the Chinese Government's 
monopoly on the screening and importing of reading materials 
and audiovisual products was not a measure ``necessary'' to 
protect public morals as allowed under Article XX(a) of the 
GATT 1994.

                                 Tires

    When China joined the WTO, it agreed that other WTO Members 
would have the right, for a period of 12 years, to provide 
temporary relief from any ``market disruption'' to a domestic 
industry caused by a surge in imports from China. (Article 16 
of the WTO Protocol on the Accession of the People's Republic 
of China.) In 2000, the United States implemented this 
agreement through section 421 of the Trade Act of 1974 (Trade 
Act). Under the rules governing China's WTO membership, 
``market disruption'' exists whenever imports ``are 
increasingly rapidly . . . so as to be a significant cause of 
material injury, or threat of material injury to the domestic 
industry.'' In determining if market disruption exists, the 
United States is required to consider factors ``including the 
volume of imports, the effect of imports on prices . . ., and 
the effect of such imports on the domestic industry[.]''
    On September 11, 2009, the Obama Administration announced 
that the United States would take action to stem a flood of 
imports of tires from China pursuant to section 421 of the 
Trade Act. In this case, the independent, bipartisan 
International Trade Commission (ITC), after an extensive 
investigation, had concluded that a surge of low-priced Chinese 
tires had injured the U.S. tire industry. Of particular note, 
the ITC found that there had been a tremendous, rapid surge in 
Chinese tire imports (a tripling of imports from 14.6 million 
in 2004 to 46 million in 2008) and evidence of persistent 
underselling by the Chinese (Chinese prices were 23 to 25 
percent lower than U.S. prices). Over the same period, the ITC 
documented that the U.S. tire industry's sales fell by 30 
percent, and more than 5,000 workers lost their jobs.

                               Insurance

    The PRC Insurance Law, which took effect in October 2002, 
was revised in February 2009. The revised PRC Insurance Law 
(Law) takes effect October 1, 2009. The revised Law provides 
for stricter oversight of insurers by the China Insurance 
Regulatory Commission (CIRC), and includes a number of 
provisions that, if implemented effectively, should strengthen 
protections for policyholders.\106\ For example, the amended 
Law limits the number of requests insurers may make for 
additional documentation to support a claim, and imposes time 
limits on claims processing.\107\ The Law obligates the insured 
to disclose information that might influence an insurer's 
decision to insure or the terms under which it will insure, but 
also includes three limitations in this regard that benefit the 
insured. First, the duty to disclose is limited to queries 
raised by the insurer.\108\ Second, in the case of 
misrepresentation by the policyholder, the Law sets forth a 
time limit within which the insurer must exercise its right to 
terminate the contract, and beyond which the insurer forfeits 
its right to terminate the contract.\109\ Third, the Law also 
provides that,

        [i]f the insurer, when concluding the contract, was 
        aware that the insured failed to provide truthful 
        information, it may not terminate the contract. If an 
        insured event occurs, the insurer shall bear the 
        obligation of paying indemnities or insurance 
        benefits.\110\

This ``estoppel'' \111\ provision is new to Chinese insurance 
law. It provides protection to consumers by addressing 
practices used in bad faith by some insurers to profit by 
taking advantage of vulnerable consumers. If enforced 
effectively, this provision, for example, would eliminate 
incentives some life insurance sales agents now have to 
encourage clients not to disclose a known illness on an 
insurance application and then to profit by selling the client 
a policy, knowing that, in light of the insured's nondisclosure 
of the illness on the original application, the insurer will 
not be required to pay on the policy after the insured's death. 
Lawyers in China have reported instances of this very practice, 
suggesting that the amendment of the Law attempts to address 
material problems affecting ordinary consumers.\112\
    The Law provides further protection to consumers by 
requiring insurers to ``explain the provisions of insurance 
contracts to the policyholder.'' \113\ The Law as amended also 
provides that,

        [t]he insurer should, when concluding an insurance 
        contract, provide on the application, insurance policy 
        document or other insurance certificate a reminder 
        sufficient to draw the attention of the insured to the 
        clauses in the insurance contract that exempt the 
        insurer from liability and shall expressly explain the 
        contents of such clauses to the insured in writing or 
        orally. If no such reminder or express explanation is 
        given, such clauses shall not take effect.\114\

The Law provides no guidance on how the permitted oral 
explanation may be verified or documented. Whether this 
flexibility 
ultimately benefits insurers or policyholders will depend on 
the interpretation of this provision by courts or other 
adjudicatory and regulatory bodies, and on any subsequent 
implementation guidelines issued by legislative organs, 
regulators, and courts.\115\
    The revised Law also includes provisions intended to 
contribute to macroeconomic stability. The Law calls for a 
strict separation between the insurance sector and other 
finance-related sectors, namely banking, securities, and 
trusts.\116\ In addition, insurers may not concurrently engage 
in the personal insurance business and the property insurance 
business.\117\ The Law also introduces qualification 
requirements for directors, supervisors, senior management, and 
actuarial personnel of insurance companies.\118\ The Law also 
now requires insurance companies to establish internal 
compliance and reporting systems.\119\

                              Antimonopoly

    Since the PRC Antimonopoly Law (AML) took effect on August 
1, 2008, AML enforcement has lagged\120\ as the three 
enforcement authorities--the State Administration for Industry 
and Commerce (SAIC), the National Development and Reform 
Commission (NDRC), and the Ministry of Commerce (MOFCOM)--have 
devoted efforts to developing AML implementing 
regulations.\121\ In part as a result, parties alleging 
anticompetitive behavior have turned instead to bringing 
private cases directly to courts. For example, the Dongcheng 
District People's Court in Beijing on March 30 accepted a case 
brought by a customer of China Mobile who accused the company 
of illegally charging a monthly rental charge on top of other 
standard charges, of charging subscribers different fees for 
similar services, and otherwise abusing its dominant market 
position.\122\ A similar case brought by a private citizen 
against a China Netcom affiliate last year resulted in the 
affiliate's changing its terms of service.\123\ Since the AML 
took effect, other private actions reportedly have been brought 
against domestic companies by plaintiffs alleging 
anticompetitive behavior, including a complaint against China's 
leading Internet search portal, Baidu,\124\ and another against 
China Petroleum and Petrochemical Corporation (SINOPEC).\125\ 
As enforcement authorities issue implementing guidelines, 
however, the number of complaints filed with administrative 
enforcement authorities is expected to rise. Even though courts 
offer a forum for grievances at the present time, they do not 
necessarily possess the requisite investigatory and regulatory 
capacity to dispose of the cases that have been brought. For 
this reason, while private actions offer a channel for 
grievances now, practitioners do not expect the cases that have 
been accepted by the courts to move quickly or to produce 
landmark judicial decisions.\126\
    Authorities, in fact, recently have begun formally issuing 
long-awaited AML implementing rules and procedures. On June 5, 
2009, the SAIC issued two sets of procedural rules related to 
the AML: \127\ Procedural Rules Regarding Prohibition of Abuse 
of Administrative Power for the Purpose of Eliminating or 
Restricting Competition\128\ and Procedural Rules Regarding 
Investigation and Handling of Cases Relating to Monopoly 
Agreement and Abuse of Dominant Market Position,\129\ both of 
which took effect on July 1, 2009.\130\ Under these rules, a 
complaint of a suspected AML violation must be made in writing, 
and include, in addition to facts about the suspected AML 
violations, basic information about the complainant.\131\ 
Furthermore, submitted evidence must identify and be signed by 
the persons providing such evidence.\132\ Some antitrust 
lawyers have expressed concern that these requirements may 
discourage reporting or providing evidence for AML 
violations.\133\ On May 24, 2009, the Antimonopoly Commission 
of the State Council issued Guidelines for Defining the 
Relevant Market.\134\ The guidelines incorporate comments made 
on an earlier draft that had been published for public comment. 
It remains to be seen how these guidelines will be applied in 
practice.\135\
    MOFCOM has authority to conduct premerger reviews under the 
AML, and the solicitation of views appears also to have become 
an integral part of MOFCOM's premerger review process. As part 
of its premerger review of proposed transactions, MOFCOM has 
been making use of its authority to solicit third-party views 
from government entities, customers, industry associations, and 
competitors.\136\ According to MOFCOM decisions posted on its 
Web site, in its review of a proposed merger transaction 
involving Coca-Cola, MOFCOM solicited third-party views from 
juice beverage enterprises, upstream juice and concentrate 
suppliers, and downstream juice beverage sales agents.\137\ 
Similarly, in its review of a proposed merger transaction 
involving InBev/Anheuser-Busch, MOFCOM 
solicited third-party views from government agencies, beer 
trade associations, domestic beer producers, distributors, and 
domestic suppliers of raw materials.\138\ In its review of a 
proposed merger transaction involving Mitsubishi Rayon/Lucite, 
MOFCOM solicited third-party views from trade associations, 
competitors, and downstream producers.\139\ If such 
solicitation of views from a wide range of third parties 
becomes routine for all MOFCOM reviews, the practice would 
bring China more closely in line with countries that have 
premerger notifications regimes.\140\ The Commission will 
monitor and report on these trends going forward.

                           Access to Justice

     Chinese citizens continue to face substantial obstacles in 
seeking remedies for violations of their legal rights by 
governmental entities and officials. During the Commission's 
2009 reporting year, according to some Chinese lawyers, the 
harassment of human rights lawyers reached an unprecedented 
level, with Chinese authorities reportedly stripping at least 
21 human rights lawyers of their licenses to practice law.\1\ 
Authorities also ordered the Yitong Law Firm, whose lawyers 
were active in the effort to seek direct election of the 
leadership of the Beijing Lawyers Association, to close for six 
months, a harsh punishment that will likely mean the demise of 
the law firm.\2\ In addition, the government shut down the 
academic research and legal assistance organization Open 
Constitution Initiative, or Gongmeng, and detained Xu Zhiyong, 
one of its cofounders, for several weeks for alleged tax 
evasion.\3\
    The courts offer little promise to citizens for obtaining 
justice in disputes relating to the government; even the 
Supreme People's Court acknowledged that citizens lack 
confidence in the courts to fairly resolve disputes involving 
government officials.\4\ The petitioning or xinfang (``letters 
and visits'') system is another channel for seeking redress of 
grievances, yet it too is beset with problems.\5\ Lacking 
reliable and effective avenues for seeking redress of 
violations of rights, more and more Chinese citizens are taking 
to the streets in protest and seeking out the support of the 
many-millions-strong online community.\6\ Protests, both real 
and virtual, appear to increasingly be the most effective way 
for Chinese citizens to be heard, a troubling trend for the 
Chinese leadership for whom maintaining ``social stability'' is 
paramount.\7\

       International Human Rights Standards and Access to Justice

    International human rights standards require effective 
remedies for official violations of citizen rights. Article 8 
of the Universal Declaration of Human Rights provides: 
``Everyone has the right to an effective remedy by the 
competent national tribunals for acts violating the fundamental 
rights granted him by the constitution or by law.'' \8\ Article 
2 of the International Covenant on Civil and Political Rights 
(ICCPR), which China has signed but not yet ratified, requires 
that all parties to the ICCPR ensure that persons whose rights 
or freedoms are violated ``have an effective remedy, 
notwithstanding that the violation has been committed by 
persons acting in an official capacity.'' \9\

          Harassment and Intimidation of Human Rights Lawyers

    The harassment and intimidation of human rights lawyers in 
China by government officials noted in the Commission's 2008 
Annual Report worsened during the Commission's 2009 reporting 
year.\10\ In the words of a group of rights defense (weiquan) 
lawyers who issued a public statement in late May:

        At the time of the 20th anniversary of June Fourth,\11\ 
        the rigid and backward political system has led to 
        social conflicts of unprecedented intensity, and 
        incidents of human rights violations are happening all 
        the time. As the Chinese government bears down heavy-
        handedly to [rein] in petitioning citizens, 
        [independent] intellectuals, rights defenders, and 
        religious figures, it has once again in 2009 
        intensified its full-scale repression of rights defense 
        lawyers to an unprecedented degree. The process of 
        building a country ruled by law has suffered a serious 
        setback, causing widespread concern through all circles 
        of society.\12\

    The primary modes of suppression of rights lawyers during 
the past year included abductions and physical violence and the 
misuse of the annual registration requirement as well as other 
administrative measures to impede the work of human rights 
lawyers.\13\

                    ABDUCTIONS AND PHYSICAL VIOLENCE

    During this reporting year, public security officials and 
those working under their direction increasingly used 
abductions, physical violence, and threats of physical violence 
to harass and intimidate human rights lawyers.\14\ The targets 
of abuse included, among others, Yang Zaixin, Cheng Hai, Li 
Chunfu, Zhang Kai, and Tang Jitian.\15\ Such actions are not 
new; imprisoned legal advocate and rights defender Chen 
Guangcheng was kidnapped in 2005, as were Gao Zhisheng and Hu 
Jia in 2006. Authorities abducted human rights lawyer Li Heping 
in the fall of 2007, and legal scholar and activist Teng Biao 
in March 2008.\16\ Several rights lawyers, such as Gao Zhisheng 
and Zheng Enchong, have been subjected to ongoing abuse and 
surveillance. In the view of a group of rights defense lawyers, 
state violence against them has escalated during this past 
year.\17\ The following are several examples of the violence 
human rights lawyers suffered during the past year:

        <bullet> On April 9, 2009, Yang Zaixin, a lawyer based 
        in the Guangxi Zhuang Autonomous Region, was beaten by 
        five unidentified assailants, an attack Yang believes 
        was in retaliation for his work representing farmers in 
        a case that challenged the expropriation of their land 
        by local officials for a tree-farming venture with a 
        foreign-invested company.\18\ According to Yang, ``The 
        message was clear: the purpose of the beating was to 
        persuade me to stop my work.'' \19\
        <bullet> In mid-April, a group of men attacked Beijing 
        lawyer Cheng Hai in Chengdu city, Sichuan province, 
        while he was on his way to meet with a detained Falun 
        Gong practitioner.\20\ Cheng reported that he believed 
        the assailants were officials from the Jinyang General 
        Management Office in Chengdu.\21\ According to the non-
        governmental organization Chinese Human Rights 
        Defenders, the main purpose of the General Management 
        Office is to coordinate various law enforcement 
        agencies and personnel, with the goal of maintaining 
        ``social stability.'' \22\
        <bullet> On May 13, Beijing lawyers Li Chunfu and Zhang 
        Kai were harassed and beaten by public security 
        officers while they were in Chongqing municipality to 
        meet with the family of a 66-year-old Falun Gong 
        practitioner who had died suddenly in detention at 
        Chongqing's Xishanping Reeducation Through Labor 
        Center.\23\ While Li and Zhang were at the family's 
        home, over 20 police officers entered the house. The 
        police officers beat the attorneys, handcuffed them, 
        and took them to a police station, where they were 
        detained for six hours.\24\ The officers tried to force 
        them to drop the case.\25\
        <bullet> Early in the morning of June 4, after human 
        rights attorney Tang Jitian had been taken into police 
        custody for questioning on June 3 and then released, he 
        was abducted by domestic security protection (guobao) 
        officers.\26\ They took Tang to a secret detention 
        facility.\27\ According to Tang, the officers told him 
        that ``. . . because it was a sensitive period, they 
        had to restrict [his] freedom.'' \28\ Tang reported 
        that the two security officers told him not to take on 
        any more human rights cases (such as Falun Gong) and 
        not to get involved in issues that would upset the 
        government; otherwise, he would find it difficult to 
        live and work in Beijing. Tang was released on the 
        evening of June 7.\29\
        <bullet> In early July 2009, Chinese authorities 
        forcibly detained three lawyers in Shandong and 
        Liaoning provinces for representing Falun Gong 
        practitioners.\30\ One of the lawyers, Wang Yonghang, 
        from Dalian city, Liaoning province, was reportedly 
        severely beaten in custody.\31\ Authorities refused to 
        renew his license to practice law earlier this year, 
        but Wang nonetheless continued to defend Falun Gong 
        petitioners. In August, Wang was arrested for allegedly 
        ``using cult organizations to undermine the 
        implementation of the law.'' \32\

   LAWYERS' ``ANNUAL ASSESSMENT AND REGISTRATION'' SYSTEM AND OTHER 
              MEASURES USED AGAINST RIGHTS DEFENSE LAWYERS

    In order to continue practicing law, lawyers in China must 
have their license to practice law renewed annually by passing 
the ``assessment and registration.'' \33\ The government-
controlled lawyers associations decide each year ``who is 
qualified to practice law,'' explained legal scholar and 
activist Teng Biao.\34\ Some rights lawyers have stated that 
this process has become a political tool to silence human 
rights lawyers and intimidate other attorneys from joining 
their ranks.\35\ Teng Biao, whose lawyer's license was revoked 
last year,\36\ wrote in the Washington Post that of all the 
different sorts of obstacles confronting rights lawyers, what 
``most impedes our work . . . is the revocation of our licenses 
to practice law.'' \37\
    As of early September 2009, at least 21 rights lawyers had 
not passed the ``annual assessment and registration.'' \38\ The 
list includes such prominent human rights lawyers as Jiang 
Tianyong, Li Heping, Li Xiongbing, Li Chunfu, Cheng Hai, Tang 
Jitian, and Xie Yanyi.\39\ According to the Hong Kong-based 
non-governmental organization (NGO) China Human Rights Lawyers 
Concern Group, there are likely more rights lawyers whose 
licenses will be either suspended or revoked this year.\40\ 
Rights lawyers and NGOs believe that authorities are punishing 
the lawyers for taking on cases the government deems sensitive 
or controversial, such as cases involving Falun Gong, the May 
2008 Sichuan earthquake, tainted milk products, Tibetans and 
other ethnic minorities, HIV carriers, political dissidents, 
house churches, expropriation of rural land, forced evictions, 
and unnatural deaths in police custody.\41\ Many of the 
targeted lawyers were also involved in the campaign for direct 
elections of the leadership of the government-controlled 
Beijing Lawyers Association. [See Section III--Institutions of 
Democratic Governance, for more details.]
    The Beijing Justice Bureau (BJB) and the Beijing Lawyers 
Association (BLA) also engage in indirect tactics to pressure 
Beijing-based human rights attorneys to stop taking on 
``sensitive'' cases.\42\ For example, the BJB and BLA will, in 
certain instances, pressure law firms to simply fire human 
rights attorneys.\43\ One of the directors of Jiang Tianyong's 
firm told him that ``since we work under them [i.e., the BJB 
and BLA], we have to yield.'' \44\ Tang Jitian also reported 
that justice bureau authorities had told his law firm to fire 
Tang, or the law firm would face punishment.\45\ Government 
authorities also have pressured landlords to stop renting 
apartments to human rights attorneys. Jiang Tianyong stated 
that after he became involved in the case of imprisoned legal 
activist Chen Guangcheng in 2006, Jiang's landlord was 
pressured by security officials to stop renting his apartment 
to him.\46\ After Tang Jitian's abduction in June 2009, Tang 
reported that his landlord told him to move out, at the request 
of the police.\47\ Li Xiongbing also reported that the police 
had asked his landlord to kick him and his wife (and child) out 
of the apartment they were renting.\48\

------------------------------------------------------------------------
         Authorities Order Six-Month Shutdown of Yitong Law Firm
-------------------------------------------------------------------------
  In February 2009, the Haidian District Justice Bureau in Beijing
 informed Yitong, a firm well-known for taking on ``sensitive'' human
 rights cases, that it was being ordered to close for six months.\49\
 According to Yitong lawyer and blogger Liu Xiaoyuan, the six-month
 closure order was ``tantamount to a death sentence'' for the law
 firm.\50\ The reason given by the judicial bureau for the
 administrative punishment was that Yitong had allegedly permitted an
 unlicensed lawyer, Li Subin, to practice law. (Li had been stripped of
 his lawyer's license in 2001 after he successfully sued a local justice
 bureau in Henan province for overcharging lawyers' registration fees.)
 \51\ Although the March 3 hearing on the administrative punishment of a
 six-month closure was supposed to be public, only the firm's managing
 partner, Li Jinsong, was permitted to attend.\52\
  The Haidian District Justice Bureau issued its official decision
 ordering the shutdown of the firm on March 17. All the lawyers were
 ordered to turn in their licenses, and at that point all of Yitong's
 employees were effectively out of work.\53\ In late June, more than
 three months after closing, Li Jinsong told the Washington Post that he
 was not sure if Yitong could still pay its rent.\54\
------------------------------------------------------------------------


------------------------------------------------------------------------
   Authorities Order Six-Month Shutdown of Yitong Law Firm--Continued
-------------------------------------------------------------------------
  Liu Xiaoyuan says he believes that the real reason for shutting down
 Yitong was the involvement of many of the firm's lawyers in the bid for
 direct elections of the leadership of the government-controlled Beijing
 Lawyers Association.\55\ The non-governmental organization Human Rights
 in China reported that the firm was also likely being punished for
 taking on cases deemed ``sensitive'' by the authorities.\56\ Liu stated
 that Li Subin worked as a legal advisor and assistant to other lawyers
 at the firm, not as an attorney, and that even if he had worked as an
 attorney without a license, the punishment of closure was a much
 harsher penalty than what had been ordered in similar cases.\57\ In
 Liu's view, the aim of the six-month closure was to force Yitong to go
 out of business. Liu noted that this was the same tactic that had been
 used to shut down Gao Zhisheng's law firm in November 2005.\58\
 According to Li Subin, the authorities' strategy is that of ``killing
 one to warn 100'' (shayi jingbai)--the shutdown of Yitong is a signal
 to other firms to stay clear of sensitive cases and issues.\59\
------------------------------------------------------------------------

    On July 29, law professor and rights defender Xu Zhiyong 
was taken into police custody for alleged tax evasion, and 
detained for more than three weeks before suddenly being 
released on bail.\60\ Xu's detention came on the heels of the 
closure of the legal assistance and research organization he 
cofounded, Open Constitution Initiative (OCI), for alleged tax 
problems. [See Section III--Civil Society, for more details 
about the shutdown of OCI.] OCI took on a range of cutting-edge 
legal cases and issues, including the publication of an 
independent report earlier this year on the March 2008 Tibetan 
protests and rioting.\61\

    Judicial Review of Violations of Citizens' Rights by Government 
                         Officials or Entities

    As the Commission has observed in previous annual reports, 
there are substantial obstacles to judicial independence in 
China--both for the courts as institutions and for individual 
judges. As noted in the Commission's 2008 Annual Report, the 
ascendance of Wang Shengjun to the position of president of the 
Supreme People's Court (SPC) was not an encouraging sign for 
legal reformers.\62\ Wang rose to his new position through the 
public security and political affairs apparatus and appears to 
have been appointed not for his law credentials, but because he 
is a ``trusted party functionary.'' \63\ In a national meeting 
of judicial and security officials in June 2008, Wang 
emphasized the necessity of the courts to uphold the ``three 
supremes'' articulated by President Hu Jintao--the Party's 
cause, the people's interest, and the constitution and 
laws.\64\
    During this reporting year, the interests of the Communist 
Party remained paramount, and political interference in the 
judiciary, both by the Party and local governments, continued, 
and according to some reports, worsened.\65\ In July 2009, the 
official news agency Xinhua reported that of 30 chief judges of 
provincial-level high people's courts, fewer than half had 
prior careers in the justice system or in legal practice.\66\ 
He Weifang, a professor at Peking University Law School 
currently teaching in the Xinjiang Uyghur Autonomous Region, 
told the South China Morning Post that the appointment of Wang 
Shengjun and the appointments of Party and government 
bureaucrats to top positions in provincial high people's courts 
indicated that the country was moving further away from the 
``rule of law.'' \67\ Professor He stated: ``They run the court 
system the way they run the party or government branches. . . . 
There are no consolidated, respected practices that people can 
rely upon to deliver justice, only orders and instructions that 
judges think are best to maintain social stability.'' \68\
    According to an August 2009 Xinhua report, an official at 
the SPC stated that many Chinese citizens believed that courts 
would not handle fairly cases involving violation of citizens' 
rights by government officials.\69\ The SPC official was 
discussing the 11-percent decline in the number of 
administrative cases handled by Chinese courts in the first 
five months of 2009 compared with the same time period in 2008. 
The official's view was that the decline did not represent 
fewer disputes between citizens and the government, but rather 
that citizens felt there was little hope pursuing a remedy in 
court.\70\ The SPC official stated that citizens chose instead 
to petition at ``letters and visits'' (xinfang) bureaus, even 
though they similarly doubted the effectiveness of the 
petitioning system.\71\ Drawing a link between the lack of 
effective means to redress citizens' grievances and ``mass 
incidents,'' the official was paraphrased as stating that 
``some people even resorted to creating disturbances in order 
to resolve problems.'' \72\
    A report by Caijing, a relatively independent financial 
magazine, on the 20-year-old PRC Administration Litigation Law 
(ALL)--the most important vehicle that enables citizens to file 
lawsuits challenging certain government actions--noted that ``. 
. . legal experts admit the law in practice does not work 
well.'' \73\ The prominent scholar and vice president of the 
China University of Law and Politics, Ma Huaide, explained that 
courts have neither the authority nor the ability to implement 
the ALL.\74\ Courts rely on local governments for their 
funding, and local governments have authority over court 
personnel.\75\ One judge in Hunan province reportedly told the 
lead plaintiff in a case against the local government: ``If I 
hear your case today, I'll be fired tomorrow.'' \76\
    Although the number of administrative cases brought under 
the ALL is declining, the overall number of lawsuits has 
risen.\77\ According to the SPC's work report, in 2008, courts 
at all levels nationwide handled 10,711,275 cases, a nearly 11-
percent increase compared with 2007.\78\ New York University 
Law School professor Jerome Cohen observed that the courts 
apparently are overwhelmed; there are too many cases and too 
few judicial personnel.\79\ As of November 2008, courts 
throughout China reportedly suffered from a 320,000-case 
backlog.\80\ Some cases had languished in the courts for up to 
10 years without resolution.\81\ As a response to the troubled 
and backlogged courts and apparently also in an 
attempt to head off ``public discontent,'' the SPC issued a new 
regulation in early August 2009 encouraging parties to mediate 
their disputes.\82\ A Caijing commentator observed that the 
renewed emphasis on mediation is a manifestation of the growing 
``popularization of the law'' and reflects the stress being 
placed on ``flexibility'' and the implementation of the law 
with a view toward local issues and characteristics.\83\
    Judicial corruption remains a serious problem in China.\84\ 
In addition to the corruption investigation of former SPC Vice 
President Huang Songyou, whose case was recently transferred to 
the procuratorate for criminal prosecution, other judicial 
officials and court personnel in Guangdong province have been 
implicated in the same corruption scandal.\85\ In early August 
2009, the former head of the justice bureau of Chongqing 
municipality, Wen Qiang, was placed under shuanggui, a form of 
investigatory detention for Party members, for alleged 
corruption involving gang activity.\86\ In January 2009, the 
SPC announced the ``five strict prohibitions,'' designed to 
address corruption and improve judicial conduct. Judges may not 
accept gifts from parties that have litigation before the court 
and are prohibited from having inappropriate interactions with 
attorneys. Judges are also prohibited from profiting from the 
outcome of cases, interfering in cases handled by other judges, 
and divulging confidential trial information.\87\

                          Citizen Petitioning

    The xinfang (``letters and visits'') system has long been a 
legal avenue outside the judicial system for citizens to 
present their grievances to authorities.\88\ China currently 
has an extensive system of xinfang offices and personnel at all 
levels within the government, courts, procuratorates, and 
people's congresses.\89\ Citizens petition regarding a wide 
variety of issues, from ``minor business disputes that local 
officials are unable or unwilling to resolve'' to the most 
egregious alleged abuses and accusations of ``murder, torture, 
and rape inflicted at the hands of government and police 
officials.'' \90\ In spite of the legal right to petition, 
citizens who take their grievances to authorities may face 
official retribution, harassment, violence, or detention in 
illegal ``black jails'' (hei jianyu), reeducation through labor 
centers, or psychiatric institutions.
    During this reporting year, the central government adopted 
measures that sought to improve the handling of petitions, and 
to keep petitioners from traveling to Beijing in an attempt to 
get their grievances heard by central government 
authorities.\91\ In April 2009, the State Council and the 
Central Committee of the Communist Party jointly issued a 
directive ordering city- and county-level officials to dedicate 
a specific amount of time to meet with 
petitioners and listen to their grievances.\92\ In July, the 
Supreme People's Court (SPC) posted a notice informing 
petitioners from Hebei, Henan, and Liaoning provinces that they 
should return home because the SPC would be sending out work 
teams from its xinfang office to directly handle their 
grievances.\93\ In early August 2009, the Party's Central 
Political-Legal Committee (CPLC) held a meeting in Beijing 
regarding the handling of petitioners' grievances related to 
the courts and procuratorates. During this meeting, Zhou 
Yongkang, Politburo Standing Committee member and the head of 
the CPLC, stated that lower level political-legal committees 
were required to handle petitioners' grievances relating to the 
courts and procuratorates locally to prevent them from reaching 
Beijing, in order to ensure a ``stable social environment'' for 
the celebration of the 60th anniversary of the founding of the 
People's Republic of China on October 1, 2009.\94\ Shortly 
after the meeting, Xinhua 
reported that the CPLC issued an opinion--which as of early 
September 2009 had not been made public--that underscored the 
Chinese leadership's determination that petitions relating to 
the courts and procuratorates (which reportedly constitute a 
large percentage of petitions) be resolved at the grassroots 
level and that petitioners not travel to Beijing with their 
grievances.\95\ Information about the opinion that appeared on 
the official Xinhua Web site indicated that legal officials 
will be sent from Beijing to localities that have a high number 
of petitioners to review cases where they arise. With respect 
to petitioners who travel to Beijing repeatedly, authorities 
may summarily dismiss their cases.\96\ The opinion warns that 
petitioners must not ``illegally'' travel to higher levels of 
government with their grievances, regardless of whether their 
complaints are ``reasonable.'' \97\ The opinion also reportedly 
instructs local authorities to strengthen alternative methods 
for resolving disputes, such as mediation.\98\

                          ABUSE OF PETITIONERS

    Despite the existence of xinfang (``letters and visits'') 
bureaus and offices and measures to handle petitioners' 
grievances, ``officials at all levels of government have a 
vested interest in preventing petitioners from speaking up 
about mistreatment and injustices they have suffered,'' 
according to the Chinese Human Rights Defenders 2007-2008 
Yearbook.\99\ Regulations dictate that local-level leaders 
should bear responsibility if a large number of petitioners 
take their grievances to higher levels, but this punishment 
structure also gives local authorities an interest in 
suppressing group petitions and preventing petitioners from 
approaching higher authorities.\100\ Local officials reportedly 
routinely detain petitioners who attempt to go to Beijing to 
petition because, among other reasons, the officials' prospects 
for promotion are harmed if too many residents take their 
grievances to Beijing.\101\ Petitioners' advocates are also at 
risk for reprisal.\102\
    Petitioners who manage to make it to Beijing often end up 
being forcibly returned to their hometowns and face various 
forms of ill treatment.\103\ According to a survey conducted by 
veteran petitioners and activists in October 2007 and reported 
by Chinese Human Rights Defenders, of over 3,300 petitioners 
nationwide who traveled to Beijing, more than one-third had 
experienced ``one form of abuse or another,'' including illegal 
detentions, sometimes in black jails.\104\ Many petitioners 
reportedly suffer violence at the hands of officials or 
police,\105\ or are sent to reeducation through labor centers 
for their petitioning activities.\106\
    During the report period, controversy broke out regarding 
commitment of petitioners in psychiatric institutions, 
triggered in part by the comments of Sun Dongdong, a Peking 
University law professor and mental health professional, and 
the ensuing protests over those comments.

------------------------------------------------------------------------
       Forcible Detention of Petitioners in Psychiatric Hospitals
-------------------------------------------------------------------------
  Although citizens have the legal right to petition without
 retribution, local government officials and police who fear punishment
 as a result of petitioners exposing local problems have nonetheless
 forcibly confined petitioners to psychiatric hospitals.\107\ According
 to the October 2007 survey of more than 3,300 petitioners,
 approximately 3.1 percent had been sent to psychiatric institutions at
 some point because of their petitioning activities.\108\ A Chinese
 commentator, Zhai Fangye, reported that in some cases, the government
 held letters of appraisal (indicating the result of an examination),
 even though the petitioners had never actually undergone a
 psychological assessment.\109\ Families reported that government
 officials sent petitioners to psychiatric facilities without notifying
 their families, let alone consulting with them.\110\ Detained
 petitioners who have no mental illness have also been forcibly
 medicated.\111\ A police officer in Liaoning province reportedly said
 that the practice of detaining petitioners in psychiatric hospitals and
 forcibly medicating them was an ``open secret.'' \112\ One scholar
 cautions, however, that taking petitioners to mental institutions by
 force not only violates their rights and the ``spirit of the law,'' but
 also ``pushes society to the edge.'' \113\
  In late March 2009, a public debate regarding the detention of
 petitioners in psychiatric hospitals arose when Peking University law
 professor Sun Dongdong stated in a Chinese Newsweek magazine story that
 99 percent of ``professional petitioners'' were mentally ill (most
 purportedly demonstrating symptoms of ``paranoia'') and that it was
 acceptable to forcibly detain them in psychiatric hospitals because
 they were disturbing public order.\114\ Sun Dongdong, considered a
 mental health expert, also said hospitalization of such petitioners was
 in the best interests of society and the petitioner, ensuring that
 their ``human rights will be protected.'' \115\ The controversy was
 fueled by the fact that Sun is involved in the drafting of China's
 first mental health law and that his department at Peking University
 assists courts in evaluating the mental health of defendants.\116\ A
 few days after Sun's comments were published, hundreds of petitioners,
 some of whom had been detained in psychiatric hospitals, signed an open
 letter in protest.\117\ One petitioner said, ``Sun's conclusion is
 shocking and irresponsible.'' \118\ A number of Peking University
 students demanded that Sun resign.\119\
  In the weeks following Professor Sun's comments, petitioners from
 around the country protested at the gates of Peking University, but
 many were taken away by police or prevented from entering the
 university by security guards.\120\ On April 6, Sun publicly apologized
 and claimed his 99 percent figure was in reference to only those
 petitioners he had personally met.\121\ Many were not satisfied with
 the apology, and it was reported that online comments in response to
 Sun's apology were censored.\122\ On April 24, several protesters who
 went to the Ministry of Health to demonstrate were taken away by police
 and some were specifically forced to promise not to protest against
 Sun.\123\
------------------------------------------------------------------------

                   FROM XINFANG TO ``MASS INCIDENTS''

    The inability of governmental entities to appropriately 
handle petitions and address petitioners' grievances is one 
type of governance failure that can lead to ``mass incidents.'' 
``Mass incidents'' is an imprecise term and can include group 
petitions, protests, sit-ins, riots, labor strikes, and other 
forms of unauthorized demonstrations.\124\ [See Section II--
Criminal Justice--Clashes Between Law Enforcement Personnel and 
Chinese Citizens, for further discussion of ``mass 
incidents.''] One Chinese commentator noted the connection 
between petitioning and ``mass incidents'' in discussing 
several incidents that occurred during 2008, including the 
Weng'an Incident in Guizhou province and the Menglian Incident 
in Yunnan province.\125\ He observed that they:

        were all directly linked to the failure to resolve in a 
        timely and effective manner cases of violating public 
        interest. 
        Before these incidents occurred, the masses traveled to 
        petition in hope of finding solutions through a 
        standard approach. However, the grassroots governments 
        avoided problems or ignored the wishes of petitioners 
        and even cracked down on petitioners. This made it 
        impossible to solve problems through institutional 
        channels. The conflicts added up, the hatred deepened, 
        and large scale mass incidents occurred in the 
        end.\126\

    There are numerous causes of ``mass incidents,'' which, 
according to the Xinhua-affiliated magazine Outlook Weekly, are 
growing in number and becoming more violent.\127\ Some of the 
most common causes of ``mass incidents'' are land seizures by 
local officials, corruption, forced evictions, taxation, 
judicial unfairness, pollution, government mismanagement of 
disasters, abuses of police power, inadequate social welfare, 
and labor disputes.\128\ Most ``mass incidents'' are local, and 
according to Yu Jianrong, the director of the Center for Social 
Issues, Institute of Rural Development at the Chinese Academy 
of Social Sciences, ``local governments manage lots of 
political, economical and judicial resources, resulting in all 
kinds of conflicts of interest. Most of the civil rights 
violations now are from local governments.'' \129\ Some 
protests arise because of a direct threat to the well-being or 
livelihood of large numbers of people, such as a local tax hike 
that led hundreds of furniture makers and businessmen to 
protest in Nankang city, Jiangxi province, in June.\130\ Other 
causes directly affect only a small number of people but spark 
more widespread outrage because of the broader issues they 
represent. The Shishou protest in Hubei province is one example 
in which tens of thousands of people took to the streets after 
the family of a deceased chef suspected foul play and disputed 
the police's claim that the young chef had committed 
suicide.\131\
    ``People's teachers'' (minban jiaoshi) (also referred to as 
``community'' teachers) are teachers usually found in rural 
areas who are not employed by the state.\132\ Such teachers 
were involved in several reported ``mass incidents'' during the 
past year.\133\ Their grievances typically related to the fact 
that public school teachers in China receive higher salaries 
than ``people's teachers'' and have guaranteed pension 
rights.\134\ In December 2008, 4,000 ``people's teachers'' in 
Shandong province staged a sit-in to protest their lack of 
pensions and health benefits.\135\ In June 2009, over 500 
``people's teachers'' petitioned in the Inner Mongolia 
Autonomous Region because of discrimination and subsidies that 
were not paid in full.\136\ Also in June, more than 3,000 
``people's teachers'' in Henan province surrounded the Henan 
Provincial Education Department building seeking redress from 
the department director.\137\
    During this reporting year, there were several ``mass 
incidents'' involving Chinese veterans, most of them focusing 
on the issue of subsidies, health benefits, and lack of 
jobs.\138\ In February 2009, more than 500 veterans in Yantai 
city, Shandong province, protested over the government's 
failure to provide them with promised jobs.\139\ In June, in 
Shaanxi province, more than 1,000 veterans also protested 
against the government's failure to provide them with promised 
jobs. They also protested low government subsidies.\140\
    ``Mass incidents'' triggered by alleged unlawful land 
expropriations and forced evictions continued during the past 
year.\141\ For example, in late June 2009, several thousand 
protesters demonstrated in Shantou city, Guangdong province, 
over land seizures by the local government.\142\ In mid-July 
2009, when residents of Pingyang county, Zhejiang province, 
protested against land expropriations by local officials for 
commercial development, authorities sent nearly 100 police with 
riot shields and batons to deal with the protesters.\143\
    During 2009, authorities sought to strengthen institutions 
and measures to handle ``mass incidents.'' At the March 2009 
National People's Congress annual meeting, Premier Wen Jiabao 
stated that China will ``improve the early-warning system for 
social stability to actively prevent and properly handle all 
types of mass incidents.'' \144\ Authorities also issued new 
rules that allow for the 
punishment of officials whose misconduct leads to ``serious 
incidents.'' \145\ In June, the South China Morning Post 
reported that the Supreme People's Court issued a guideline 
that instructs courts to ``focus on dealing with a sharp 
increase in mass incidents, especially in the mediation of 
demonstrations.'' \146\ The directive orders courts at all 
levels to identify ``potentially troublesome cases'' that could 
lead to protests and report them to the local governments.\147\

                              IV. Xinjiang


                              Introduction

    Human rights conditions in the Xinjiang Uyghur Autonomous 
Region (XUAR) deteriorated in the Commission's 2009 reporting 
year. A demonstration held by Uyghurs in the XUAR capital of 
Urumqi on July 5, 2009, forcefully suppressed by police, and 
outbreaks of violence in the region starting that day, drew an 
international spotlight on longstanding tensions in the XUAR 
and Uyghurs' grievances toward government policies that have 
undermined the protection of their rights. The ensuing harsh 
security crackdown in the XUAR--including reports of arbitrary 
detention targeting Uyghurs and steps to punish acts of 
peaceful protest--further underscored longstanding government 
repression in the region and the use of anticrime and 
antiterrorism campaigns to quell dissent. [See box titled July 
5 Demonstration in Urumqi below, for additional information.] 
Prior to the July 5 demonstration, however, human rights 
conditions in the region had already declined throughout the 
year, maintaining a trend in worsening conditions documented by 
the Commission in its 2008 Annual Report. During the previous 
reporting year, the government used security preparations for 
the 2008 Beijing Summer Olympic Games, limited reports of 
terrorist activity in the region, and protests in Tibetan areas 
of China and within the XUAR as platforms for increasing 
repressive security measures. In the aftermath of these events 
and in the face of a series of significant anniversaries within 
China and the XUAR, including the 60th anniversary of Communist 
control of the region, authorities continued in late 2008 and 
in 2009 to tighten repressive security controls and use them to 
stifle peaceful dissent and independent expressions of ethnic 
and religious identity, especially among Uyghurs. The 
government also maintained, and in some cases bolstered, 
policies in areas such as language use, labor, and migration 
that continued to disadvantage Uyghurs and other non-Han 
populations in the XUAR and engineer broad cultural, economic, 
and demographic shifts in the region.
    In the aftermath of the July 5 demonstration and strife in 
the region, the Chinese Government reiterated pledges to place 
``stability above all else'' and called for ``striking hard'' 
against people involved in ``instigating'' and ``organizing'' 
events on July 5. Acts of deadly violence took place during the 
week of July 5, a time during which both Uyghurs and Han 
Chinese were reported to commit violent assaults on each other, 
but efforts to prosecute people appear to have extended beyond 
acts of violence and include political motivations in some 
cases, targeting dissent by Uyghurs. Against the backdrop of a 
criminal law system in which authorities use criminal charges 
to cast free expression as a crime, XUAR authorities have 
conflated protest activity with acts of rioting, and official 
statements suggest some acts of peaceful protest or expression 
will be subject to formal criminal prosecution. Authorities 
claimed that U.S.-based Uyghur rights advocate Rebiya Kadeer 
orchestrated events on July 5, but did not produce evidence 
that proved their accusation. Rebiya Kadeer has rejected the 
charges against her. While security measures are reported to 
remain tight in the region, a number of details and the full 
implications of the government response to events on July 5 
remain unknown, especially in light of government controls over 
the free flow of information on the events.
    In addition to developments connected to the July 5 
demonstration, several prominent developments during the 
Commission's 2009 reporting year also underscored the worsening 
human rights conditions in the XUAR.\1\ First, following major 
speeches from XUAR officials in fall 2008 addressing perceived 
threats to stability in the region, both the XUAR government 
and local-level governments implemented widespread security 
measures and ideological campaigns targeting behavior and 
actions including peaceful political dissent and religious 
activity. A top-level XUAR official bolstered the momentum for 
heightened security controls as he announced in early 2009 that 
the region would face a more severe security terrain during the 
coming year. Second, the government's attention to ensuring 
``stability above all'' \2\ manifested itself in various 
aspects of government work, resulting in heightened 
politicization in areas including the judicial system and the 
formulation of economic development policies. Third, the number 
of crimes of ``endangering state security'' (ESS), which 
include acts such as separatism and carry harsh punishments, 
appeared to surge in 2008 over previous years. As documented by 
the Commission in previous reports,\3\ the XUAR government uses 
the criminal justice system, including ESS charges, as a weapon 
to punish dissent and expressions of ethnic identity and 
religious activity deemed ``extremist'' or ``separatist.'' 
Fourth, the government increased efforts to implement 
``bilingual'' education in XUAR schools, a program which has 
focused on school instruction in Mandarin Chinese and 
marginalized the use of Uyghur and other languages, 
contravening protections for ethnic minority languages in 
Chinese law. Fifth, authorities began to destroy a cornerstone 
of the Uyghur ethnic group's cultural heritage and undermined 
their property rights as authorities implemented a demolition 
project in a historic area in the city of Kashgar, which will 
raze most buildings and dislocate approximately 200,000 people 
from their homes.
    Amid these various developments, the government sharpened 
rhetoric throughout the year against U.S.-based Uyghur rights 
advocate Rebiya Kadeer and ``Western hostile forces'' using the 
``cover'' of human rights to ``sabotage'' the XUAR's stability, 
calling into question the government's willingness to engage 
with the international community in upholding its obligations 
to protect the rights of XUAR residents. Government rhetoric 
against Rebiya Kadeer heightened in July as authorities claimed 
that Rebiya Kadeer and the World Uyghur Congress, which she 
leads, instigated strife on July 5. Authorities also targeted 
Rebiya Kadeer's family members who live in the XUAR, reportedly 
ordering them from their homes, making plans to destroy trading 
centers held by the family, and reportedly coercing them into 
making public denunciations of Rebiya Kadeer.\4\
    Government repression in the XUAR has a disparate impact on 
non-Han ethnic groups, and Uyghurs in particular, all of whom 
are designated as ``ethnic minorities'' by the Chinese 
Government and make up almost 60 percent of the XUAR 
population, according to official statistics.\5\ State actions 
undermine these communities' capacity to maintain their 
cultures and enjoy their rights as defined in both Chinese law 
and in international human rights law that the Chinese 
Government is bound to uphold.\6\ The repressive character of 
government administration in the XUAR underscores the failures 
of the government to grant XUAR residents meaningful autonomy 
over their own affairs, as provided in Chinese law. Although 
the XUAR is a government-designated ethnic autonomous region 
with legal guarantees for measures of autonomy in governance 
and protections for ethnic minority rights,\7\ central and 
local government authorities exert control at a level 
antithetical to local residents' meaningful control over their 
own affairs and to the protection of their rights.

              Security Measures and Ideological Campaigns

    Policy statements in late 2008 and 2009 by top government 
and Communist Party figures in the Xinjiang Uyghur Autonomous 
Region (XUAR), including statements before the July 5 
demonstration, indicated that heightened controls implemented 
in the XUAR earlier in 2008 would remain an enduring feature 
within the region and would be further intensified.\8\ The 
statements outlined plans to increase security measures, 
enforce tight political and social controls, and implement 
wide-scale ideological campaigns. In a major speech in 
September 2008, XUAR government chairperson Nur Bekri outlined 
increased measures to ``strike hard'' against perceived threats 
and stated, ``We have always emphasized, Xinjiang is not like 
the interior and coastal areas [of China], and we can never at 
any time slacken our work to safeguard stability[.]'' \9\ He 
said that government cadres ``should unswervingly establish the 
notion that `stability is above all else.' '' \10\ In addition, 
Nur Bekri cast blame on U.S.-based Uyghur rights advocate 
Rebiya Kadeer and ``Western hostile forces'' for using the 
``cover of `human rights' '' to attack China.\11\ In a speech 
also in September 2008, XUAR Party Secretary Wang Lequan 
described plans to launch region-wide antiseparatism education 
later in the year.\12\ In March 2009, noting the upcoming 60th 
anniversaries of the founding of the People's Republic of China 
and the ``peaceful liberation'' of Xinjiang, Nur Bekri stated 
that the region's battle against separatism would be ``more 
severe, the task more strenuous, and the conditions for battle 
more intense,'' attributing security threats to ``Western 
hostile forces'' and to the ``three forces'' of terrorism, 
separatism, and religious extremism. He said all threats to the 
region would meet with ``hard strikes'' and ``firm opposition'' 
from the people.\13\ At the central government level, a White 
Paper on China's national defense, issued by the State Council 
Information Office in January 2009, included supporters of 
``East Turkistan independence''--a reference to perceived 
separatist movements directed toward the XUAR--as one of the 
three threats to ``China's unity and security.'' \14\ Following 
the July 5 demonstration, the central and XUAR governments 
called for officials to adhere to the notion that ``stability 
is above all else'' and called for enforcing tight security 
measures in the region.\15\ [See box titled July 5 
Demonstration in Urumqi below, for additional information.]
    The late 2008 and 2009 statements followed limited official 
Chinese Government reports in 2008 of acts the government 
described as terrorism or attempted terrorism.\16\ As in the 
past,\17\ however, the government provided scant evidence to 
back up its assertions and continued to enforce restrictions on 
free press that hindered efforts to report on the 
incidents.\18\ In June 2009, a XUAR Party official reported to 
official Chinese media that authorities had rooted out seven 
terrorist cells in Kashgar city in the first four months of 
2009, but provided ``no further details,'' according to the 
official media report.\19\ Xinhua cited sources that said 
authorities also prevented terrorist attacks following the July 
5 demonstration,\20\ and Xinhua reported in September that 
authorities rooted out a terrorist gang.\21\ The news follows 
prior official government reporting on terrorism in the region 
that has been marked by inconsistent data and indications that 
some criminal acts not otherwise considered to be terrorism may 
be conflated as terrorism or separatism.\22\ In addition, the 
government continues to characterize peaceful human rights 
advocates as terrorists and to cast peaceful forms of 
expression or dissent as ``separatist'' crimes.\23\ In May 
2009, a XUAR public security official said terrorists ``are 
still actively plotting new sabotage activities'' and included 
U.S.-based Uyghur rights advocate Rebiya Kadeer and the World 
Uyghur Congress, an organization she heads, among ``terrorist 
forces . . . actively expanding their room for maneuver.'' \24\
    The central and XUAR governments reported on efforts to 
bolster security capacity in the region during the past 
year.\25\ In November 2008, the Central Military Commission 
upgraded the status of the Xinjiang People's Armed Police force 
in a measure described as increasing the force's capacity to 
respond to stability threats.\26\ In March 2009, XUAR public 
security officials pledged to strengthen stability measures, 
citing not only general central government direction to 
``protect growth, the people's livelihood, and stability'' 
throughout China but also the need to defeat the threat of the 
``three forces'' within the XUAR.\27\ In June, Zhou Yongkang, 
member of the Politburo Standing Committee and secretary of the 
Politics and Law Commission of the Party Central Committee, 
called for strengthening China's border defense work with 
particular focus on the ``disturbance and sabotage activities 
of separatist, terrorist, and extremist forces.'' \28\ A XUAR 
government official said in late July that the XUAR government 
would draft legislation aimed specifically at separatism, 
reportedly the first of its kind at a provincial level of 
government.\29\
    Local governments within the XUAR also reported throughout 
the year on an array of measures to tighten security in the 
region, targeting acts including peaceful dissent and 
independent religious activity.\30\ In February 2009, an 
official from the Aqsu district government outlined measures 
for ensuring stability that included strengthening intelligence 
networks, stepped-up controls over religious activity, and an 
increase in ideological propaganda. The official also called 
for building off the successful experiences in Olympics 
security arrangements to tighten the district's ``prevention 
and control'' system within society.\31\ In March, authorities 
in Zepu (Poskam) county, Kashgar district, described measures 
to strengthen security work through steps that include 
mobilizing public security, procuratorate, court, and justice 
department staff to conduct nightly patrols.\32\ Starting in 
April and May, local governments reported launching 100-day 
``strike hard'' anticrime campaigns to ensure stability in the 
region in advance of the 60th anniversary of the founding of 
the People's Republic of China.\33\ In addition to focusing on 
criminal activities like homicide and robbery, the campaigns as 
reported in some areas also included a stated focus on issues 
such as preventing ``infiltration,'' strengthening control over 
religion, and guarding against the ``three forces'' of 
separatism, terrorism, and religious extremism.\34\ A resident 
and an official in one area reported to Radio Free Asia on 
detentions during that period, including for ``illegal 
religious activities.'' \35\ Following the July 5 
demonstration, authorities dispatched ``stability work teams'' 
throughout Urumqi. Urumqi's mayor reported on August 6 that 
``stability work teams'' had done onsite investigations of 
636,000 households and interviewed 1,491,000 people.\36\ An 
Urumqi branch of an emergency antiterrorism stability 
maintenance group within the people's militia was established 
in August.\37\
    As part of measures to promote stability, XUAR authorities 
implemented broad ideological education campaigns targeting 
various communities within the region. During a three-month 
period of antiseparatism reeducation starting in October 2008, 
authorities in Hoten district reported that 300,000 people 
directly received the education and that in total, the efforts 
reached more than 95 percent of the population.\38\ In 
December, authorities in Kashgar city, Kashgar district, 
outlined work on antiseparatism reeducation that divided the 
campaign into three phases, extending through April 2009, 
including a period of study, a period of ``exposing and 
criticizing,'' and a period of ``self-examination and 
rectification.'' The Kashgar measures included plans to form 
teams of cadres and religious personnel to bring antiseparatism 
education to groups including religious adherents, workers, 
youth, students and teachers, and migrants.\39\ The educational 
campaigns as described in some Chinese media reports included 
sharp rhetoric against peaceful human rights activity.\40\ For 
example, as part of antiseparatism education in the Qizilsu 
Kyrgyz Autonomous Prefecture, the Party-led Qizilsu Women's 
Federation reported in March on issuing a letter to women in 
the prefecture, calling on them to be good wives, mothers, and 
daughters, and to expose the ``true evil intent'' behind U.S.-
based Uyghur rights advocate Rebiya Kadeer's calls for human 
rights and democracy.\41\
    Authorities also implemented wide-scale ideological 
campaigns in the aftermath of the July 5 demonstration and 
outbreaks of violence in the region starting July 5. On July 
10, official media paraphrased Politburo Standing Committee 
member Zhou Yongkang as saying, ``All CPC members should fan 
out to communities and villages in the [XUAR] to publicize the 
Party's policies, in order to ensure the region's social 
stability.'' \42\ The XUAR government also announced plans in 
July to draft a regulation on ethnic unity education.\43\ 
Within Urumqi, official media described dispatching to city 
neighborhoods ``teams to uphold stability,'' comprised of 
``model workers'' who explained the ``truth'' about events on 
July 5 and conveyed government and Party policy on ethnic 
issues.\44\ In the Ili Kazakh Autonomous Prefecture, 
authorities launched activities to ``expose and denounce'' 
events on July 5, centering the activities around the themes of 
ethnic unity, antiseparatism, and upholding stability.\45\
    School systems also implemented measures to monitor 
students' and teachers' activities and to spread ideological 
campaigns. In October 2008, XUAR Party Committee Standing 
Committee Member Erkinjan Turaxun described the region's 
education system as an ``important front'' against separatism 
and called on teachers and cadres to strengthen their sense of 
responsibility and urgency in work against separatism and 
``infiltration.'' \46\ Measures implemented within various XUAR 
school systems included integrating antiseparatism education 
into the school curriculum, creating guidelines for 
``restraining'' and evaluating teachers, promoting education in 
topics including atheism, monitoring students' activities 
during school vacations, and requiring school staff to sign 
loyalty pledges.\47\ While the central government strengthened 
education on ethnic unity in schools throughout China, in 
apparent connection to protests in the XUAR and Tibetan areas 
in early 2008, the scope of such education as reported in some 
schools in the XUAR exceeded the scope at the national 
level.\48\ In May, the XUAR government issued directives to 
strengthen ethnic unity and antiseparatism among young adults 
and juveniles.\49\
    In the aftermath of events on July 5, official media 
reports indicated steps to strengthen oversight of students' 
political viewpoints, including focus on college students in 
particular--who were reported to be involved in organizing the 
July 5 demonstration\50\--and to use students to convey state-
sanctioned accounts of events on July 5. XUAR government 
chairperson Nur Bekri, speaking on July 6 at Xinjiang 
University in Urumqi, outlined steps for ``understanding 
students' ideological situation'' and ``correctly'' guiding 
them.\51\ Later in the month, XUAR Party Committee Standing 
Committee Member Erkinjan Turaxun called for measures to 
strengthen oversight in schools, calling on school staff not to 
``say'' or ``do'' things which do not ``benefit ethnic unity,'' 
among other measures.\52\ Authorities in the Ili Kazakh 
Autonomous Prefecture mobilized college students returning home 
to Ili to instruct local residents on the ``truth'' of what 
happened on July 5.\53\

------------------------------------------------------------------------
                     July 5 Demonstration in Urumqi
-------------------------------------------------------------------------
  On July 5, 2009, Uyghurs in the city of Urumqi, capital of the
 Xinjiang Uyghur Autonomous Region (XUAR)--reported to initially number
 at least 1,000 people--gathered to protest authorities' handling of a
 reported attack on Uyghur factory workers in late June in Guangdong
 province.\54\ Reports, including some from official Chinese sources,
 indicate the demonstration was planned as and began as a peaceful
 protest.\55\ Some demonstrators reportedly carried Chinese flags as
 they marched.\56\ Violence was reported to occur that day. Police
 clashed with demonstrators and used tear gas and stun batons.\57\
 Police also reportedly later fired on the crowds.\58\ In addition, some
 Uyghurs were reported to carry out attacks on Han Chinese individuals
 and businesses.\59\ Violence also took place after July 5, including
 when some Han armed with weapons took to the streets of Urumqi on July
 7\60\--some of whom were reported to carry out attacks on Uyghur
 individuals and businesses\61\--but Chinese authorities have largely
 pinpointed clashes and acts of violence to incidents on July 5.\62\
 Following events on July 5, a limited number of official Chinese
 sources acknowledged that a demonstration took place that day, but
 Chinese sources largely refer to all events on July 5 as the `` ``7-5'
 [July 5] Serious Violent Criminal Incident of Beating, Smashing,
 Looting, and Burning'' or simply the July 5 ``riot.'' \63\ Chinese
 sources have reported on detentions, injuries, and death tolls
 specifically in connection to events on July 5.\64\ Chinese authorities
 blame the ``three forces'' of terrorism, separatism, and religious
 extremism for events on July 5\65\ and allege specifically that U.S.-
 based Uyghur rights advocate Rebiya Kadeer and the World Uyghur
 Congress, which she heads, instigated the ``riot.'' \66\ Authorities
 did not produce evidence that proved their accusations, and Rebiya
 Kadeer has rejected the charges against her.\67\ Demonstrations also
 were reported in other cities in the XUAR,\68\ and demonstrations took
 place again in Urumqi after July 5, including when Uyghur women
 gathered on July 7 to call for the release of family members detained
 in connection to events on July 5.\69\                         Tight Security Measures  Following the demonstration on July 5 and outbreaks of violence
 starting that day, central government and XUAR authorities described
 implementing tight security measures in the region.\70\ By the evening
 of July 5, Chinese authorities reported sending in ``20,000 armed
 police, special police, firefighters and troops'' to curb the
 ``unrest.'' \71\ Official Chinese media initially reported on the use
 of only ``tear gas grenades, stun grenades, and high-pressure water
 guns'' on July 5,\72\ but later, the official Xinhua news agency
 reported that XUAR government chairperson Nur Bekri said police ``
 `resolutely' shot 12 mobsters [on July 5] after firing guns into the
 air had no effects on these `extremely vicious' thugs.'' \73\ Domestic
 and overseas media reported on tight security measures in various
 localities in the days and weeks following July 5, including traffic
 restrictions and curfews, ID checks, widespread security sweeps and
 detentions (see below), and the implementation of a ``ban on illegal
 gatherings.'' \74\
------------------------------------------------------------------------


------------------------------------------------------------------------
                July 5 Demonstration in Urumqi--Continued
-------------------------------------------------------------------------
  Amid the imposition of security measures, XUAR and central government
 authorities pledged through the week of July 5 and beyond to ``crack
 down'' on serious crimes and criminals, including ``instigators'' and
 ``organizers'' of the ``riot,'' to promote the principle of placing
 ``stability above all else,'' and to heighten propaganda campaigns to
 promote ``ethnic unity.'' \75\ [See Security Measures and Ideological
 Campaigns in this section for more information.]                     Widespread Detentions Reported  High-level officials have continued to pledge to punish people who
 committed crimes on July 5, including through use of capital
 punishment, and authorities have reported on continuing detentions and
 arrests in the region, as well as on transferring cases to review for
 prosecution.\76\ Some official media reports have been inconsistent on
 the number of people in detention, however, and a number of details
 about the detentions and arrests remain unknown.\77\ Overseas media
 have cited sources reporting on widespread security sweeps and mass
 detentions--including reported mass roundups of Uyghur men--indicating
 detention numbers that would exceed those reported at different times
 by the Chinese Government. Some of the people reported to have been
 detained appear to have had no involvement in either acts of protest or
 violent activity on July 5.\78\
  Nur Bekri said on July 24 that people ``unaware of the truth'' who
 ``took part in the demonstrations but did not join in the beating,
 smashing, looting, and burning,'' along with those ``not deeply
 involved,'' had been returned to their ``work unit,'' ``community'' or
 ``permanent place of residence'' for ``further assistance and
 education,'' following ``education'' while in detention and after they
 ``pledged to repent.'' \79\ Such wording suggests these people may
 remain under surveillance or supervision, or possibly a form of
 arbitrary detention. [See Section II--Criminal Justice, for more
 information on forms of arbitrary detention.] Amid many official
 statements that conflate protests with rioting, some other peaceful
 protesters, including organizers of the demonstration, appear to remain
 subject to criminal punishment. According to a directive issued July 8
 by the Party Politburo's Standing Committee, ``Instigators, organizers,
 culprits and violent criminals in the unrest shall be severely punished
 in accordance with the law,'' while ``[t]hose taking part in the riot
 due to provocation and deceit by separatists, should be given
 education.'' \80\
  Detailed information about most people officially reported to remain
 in detention, including the specific grounds for their detentions,
 remain unknown. Reports from official media indicate, however, that
 crimes allegedly committed on July 5 include crimes of endangering
 state security and that crimes committed by a first group of 83 people
 formally arrested include ``gathering crowds to disrupt social order,''
 ``picking quarrels and making trouble,'' and ``inciting ethnic hatred
 and discrimination,'' in addition to crimes like murder and arson.\81\
------------------------------------------------------------------------


------------------------------------------------------------------------
                July 5 Demonstration in Urumqi--Continued
-------------------------------------------------------------------------
  While acts of violence during the week of July 5 were reported to have
 been committed by both Uyghurs and Han, Chinese authorities appear to
 have downplayed Han violence\82\ and focused plans for prosecution of
 suspected criminals involved in alleged crimes committed on July 5--
 many of which that day were reported to have been committed by Uyghurs--
 without precisely clarifying whether prosecution will extend to acts of
 violence committed by Han in the days following July 5.\83\ Li Zhi,
 Urumqi Party Secretary during that time, said at a press conference on
 July 8 that authorities would use the death penalty for some crimes
 connected to events on July 5.\84\ [See Section II--Criminal Justice,
 for more information on recent developments concerning the death
 penalty in China.]       Procedural Violations and Challenges To Mounting a Defense  Reports indicate procedural violations and challenges to mounting a
 criminal defense in connection to events on July 5. In the days after
 July 5, Uyghur women marched in protest to call for the release of
 family members detained in connection to events on July 5 and for
 information on their family members' whereabouts.\85\ Under Articles
 64(2) and 71(2) of the PRC Criminal Procedure Law, authorities must
 inform relatives or workplaces where detainees are being held.\86\
  Authorities in Beijing and the XUAR issued orders dictating the terms
 upon which lawyers could be involved in cases related to events on July
 5, and authorities also have reportedly warned human rights lawyers
 against taking the cases.\87\ The Xinjiang Lawyers Association
 announced in late July that the XUAR Justice Department would select
 lawyers, with priority on Uyghurs, to represent ``all those suspected
 of participating in the Xinjiang riots when they face trial,''
 according to Chinese media.\88\ The Uyghur lawyers participating in the
 defense will receive three to five days of training in criminal law,
 according to an official from the Xinjiang Lawyers Association,
 suggesting the XUAR Justice Department is including lawyers without
 extensive experience in criminal defense and is using the opportunity
 to direct the appointment of lawyers to enforce political agendas
 during the criminal process.\89\ It is not clear whether authorities
 have informed suspects of the stated availability of defense counsel.
 An official media report from August 5 said that to date, no criminal
 suspects or defendants or their families had made any requests for
 legal assistance or defense counsel.\90\
------------------------------------------------------------------------


------------------------------------------------------------------------
                July 5 Demonstration in Urumqi--Continued
-------------------------------------------------------------------------
                         Death Tolls Questioned  Chinese media reported on July 15 that 192 people had died in
 connection to events on July 5, with 1,721 wounded.\91\ Uyghur sources
 from Urumqi and overseas have disputed the official number killed in
 the clashes and estimated higher death tolls, especially for
 Uyghurs.\92\ Official sources have not clarified the precise details of
 each death and injury, and it appears that the reported deaths and
 injuries may be limited to those that took place only in connection to
 incidents on July 5 and not in connection to violence later in the
 week. In August, the XUAR government reported an increased death toll
 of 197 people in connection to July 5, 156 of whom were described as
 ``innocent'' people.\93\ Some Uyghur sources and an overseas journalist
 reported cases of authorities dealing less strictly with Han who
 committed crimes or of failing to actively prevent or aid Uyghurs
 assaulted by Han.\94\
                 Controls Over Free Flow of Information  A number of details about events starting July 5 remained unknown in
 the days and weeks that followed, as the Chinese Government instituted
 controls over the flow of information on the events. Urumqi Party
 Secretary Li Zhi said on July 7, ``We cut Internet connection in some
 areas of Urumqi in order to quench the riot quickly and prevent
 violence from spreading to other places.'' \95\ Chinese media reported
 on July 24 that users within the XUAR, though not people outside the
 region, had been given access to government Web sites and some local
 media sites.\96\ The Commission found that many news, government, and
 discussion Web sites remained blocked into October.\97\ Authorities
 permitted limited access to foreign media, but journalists reported on
 repeated incidents of official interference with their ability to
 report freely on events in the region, including short-term detentions
 of some reporters, limits on whom reporters could interview, and the
 expulsion of reporters from the city of Kashgar.\98\    Demonstration Sheds Light on Reported Factory Attack, Underlying
                   Problems in Labor Transfer Program  Uyghurs demonstrating in Urumqi were protesting government handling of
 a reported attack on Uyghur workers in late June by Han workers at a
 factory in Shaoguan city, Guangdong province, also described in Chinese
 sources as a ``brawl'' among the workers.\99\ Following the incident,
 authorities sequestered the Uyghur factory workers.\100\ Official
 sources reported that two Uyghurs died in the incident and 188 were
 injured.\101\ Overseas Uyghur rights organizations estimated the number
 of dead was higher and criticized the government for failing to take
 steps to stop the attack and for its lack of transparency in handling
 the matter.\102\ A public security official from Shaoguan reported on
 July 7--two days after the Urumqi demonstration--that authorities
 detained 15 people in connection to the incident.\103\
  The Uyghur factory workers in Guangdong were there through a
 government-organized program to send people in the XUAR to factory jobs
 in the interior of China.\104\ [For detailed information, see Labor
 Conditions in this section.]------------------------------------------------------------------------


------------------------------------------------------------------------
                July 5 Demonstration in Urumqi--Continued
-------------------------------------------------------------------------
           September Demonstrations Highlight Ongoing Tensions  Demonstrations--primarily by Han Chinese--took place in Urumqi in
 early September, following the July 5 events by almost two months.
 During the September demonstrations, participants protested the
 government's response following events on July 5 and following reports
 that primarily Han residents of Urumqi alleged that persons they
 believed to be Uyghurs had randomly attacked them with syringes.\105\
 Some protesters and others reportedly attacked Uyghurs they believed
 had committed syringe attacks.\106\ Police reportedly clashed with the
 protesters and used tear gas against them.\107\ Authorities issued a
 circular during this time that bans unapproved demonstrations and
 allows the use of force to disperse crowds.\108\ Media reported that
 five people died during one day of the demonstrations, two of whom were
 ``innocent civilians,'' but did not provide additional details about
 the deaths.\109\ During the demonstrations, protesters reportedly
 called for the resignation of XUAR Party Secretary Wang Lequan.\110\
 Xinhua reported that as of September 4, ``local authorities had
 confirmed 531 victims of hypodermic syringe stabbings in Urumqi, 171 of
 whom showed obvious syringe marks,'' and reported that military medical
 specialists who examined cases of needle attacks found no evidence of
 viruses or chemicals.\111\ In a rapid progression of the criminal
 process, by mid-September, authorities had imposed prison sentences on
 7 people, apparently all Uyghurs, charged with crimes related to needle
 attacks or threatened attacks, and reported holding 75 people in
 custody.\112\
  As in the case of the July demonstration, official media and
 government portrayals of the September demonstrations pinpointed
 activities by Uyghurs as the root of conflict and downplayed Uyghur
 sources of grievances. In addition, authorities attributed the syringe
 attacks to ``separatists.'' For example, Minister of Public Security
 Meng Jianzhu described the syringe attacks as a continuation of attacks
 instigated by ``ethnic separatist forces'' on July 5.\113\ Urumqi Vice
 Mayor Zhang Hong, who reported that Uyghurs had carried out the syringe
 attacks,\114\ attributed the attacks to the ``three forces'' of
 terrorism, separatism, and religious extremism.\115\
------------------------------------------------------------------------

                   Criminal Law and Access to Justice

    Authorities in the Xinjiang Uyghur Autonomous Region (XUAR) 
continued in the past year to use the criminal justice system 
as a weapon for punishing dissent and penalizing peaceful 
expressions of ethnic identity and religious activity deemed 
``extremist'' or ``separatist.'' [For information on specific 
cases of imprisonment, see Controls Over Free Expression and 
Assembly in this section. See box titled July 5 Demonstration 
in Urumqi above, for information on criminal prosecution 
related to events on July 5.] Among other measures, XUAR 
authorities use the charge of ``endangering state security'' 
(ESS) in politically motivated prosecutions,\116\ and reports 
from the past year indicated that the number of ESS cases in 
the XUAR in 2008 may have surged over previous years.\117\ 
Crimes of ESS are defined in Articles 102-113 of the PRC 
Criminal Law to include acts such as separatism, espionage, and 
armed rebellion, and many of the ESS crimes carry the 
possibility of life imprisonment or capital punishment.\118\ 
XUAR media reported in January 2009 that courts in the XUAR 
completed trials in 2008 for a total of 268 cases involving ESS 
crimes, a figure approaching nationwide sums in the previous 
year.\119\ In addition, official media reported that as of 
November 2008, XUAR procuratorate offices had issued 
indictments in 204 ESS cases within the year, involving 1,154 
people, figures almost as high as nationwide ESS indictment 
totals in 2007 in terms of number of cases involved and 
approximately double in terms of individuals.\120\
    Defendants and prisoners within the XUAR criminal justice 
system, including political prisoners, face continued risk of 
procedural violations, repercussions for aiming to defend their 
rights, and abuses while in prison. In November 2008, the UN 
Committee against Torture said it was ``concerned with 
allegations raised in relation to acts of discrimination 
against and ill-treatment of persons of ethnic minority groups, 
in particular the Tibetans and the Uighurs, such as Ablikim 
Abdureyim, and with the alleged reluctance on the part of the 
police and authorities to conduct prompt, impartial and 
effective investigations into such acts of discrimination or 
violence[.]'' \121\ Ablikim Abdureyim, son of Uyghur rights 
advocate Rebiya Kadeer, continues to serve a nine-year prison 
sentence for ``instigating and engaging in secessionist 
activities,'' based on charges that he allegedly disseminated 
pro-secession articles, planned to incite antigovernment 
protest, and wrote an essay misrepresenting human rights 
conditions in the XUAR.\122\ The Uyghur American Association 
reported he is believed to have been tortured while in prison 
and denied medical care, while his brother Alim, serving a 
seven-year sentence on charges of tax evasion, is reported to 
have been tortured into confessing to the charges against 
him.\123\ In the past year, authorities executed Abdurahman 
Azat and Kurbanjan Hemit, two men sentenced for involvement in 
a reported August 2008 terrorist attack, after reportedly 
trying them without legal counsel.\124\ Kurbanjan Hemit 
reportedly was also beaten while in detention.\125\ In March 
2009, Radio Free Asia (RFA) reported that authorities have 
taken repercussions against imprisoned writer Nurmemet 
(Nurmuhemmet) Yasin since he met with UN Special Rapporteur on 
Torture Manfred Nowak during Nowak's 2005 mission to China, 
during which time Nurmemet Yasin reported mistreatment to 
Nowak. According to RFA, authorities reduced Nurmemet Yasin's 
family visits from every two months to twice a year and have 
restricted his activities within prison as punishment for 
having not ``reformed his views.'' \126\ Nurmemet Yasin is 
serving a 10-year prison sentence for ``inciting splittism,'' 
after he wrote a short story about a pigeon that chooses death 
over life within a cage.\127\ Reports also indicate procedural 
violations and challenges to mounting a criminal defense in 
connection to the July 5 demonstration in Urumqi and outbreaks 
of violence starting that day. [See box titled July 5 
Demonstration in Urumqi above, for detailed information.]
    The legal system in the XUAR functioned within an 
environment of heightened politicization throughout the past 
year, as ideological campaigns extended to legal institutions 
and as justice system officials identified upholding stability 
as the main goal of their work. In August 2008, the head of the 
XUAR High People's Court ``said [that XUAR courts] at all 
levels will always maintain high vigilance against ethnic 
separatism and illegal religious activities to safeguard the 
motherland's unity and national security and will give top 
priority to the trial of crimes endangering national 
security.'' \128\ A January 2009 article from the Procuratorial 
Daily reported that ``[s]ince 2008, all levels of the XUAR 
procuratorate have from start to finish taken safeguarding 
social stability as the utmost political task for strengthening 
legal supervision.'' \129\ XUAR procuratorate officials 
participated in antiseparatism education in December that 
called on officials to recognize that ``stability is above all 
else.'' \130\ In a March speech, the Communist Party leading 
group secretary of the Xinjiang Lawyers Association called on 
lawyers to take antiseparatism, safeguarding unification of the 
country, promoting unity, and guaranteeing stability as the 
``primary political responsibilities'' of lawyers' work.\131\ 
At the local level, a March report from Zepu (Poskam) county, 
Kashgar district, described measures to strengthen security 
work through steps including mobilizing public security, 
procuratorate, court, and justice bureau staff to conduct 
nightly patrols.\132\ Following the July 5 demonstration in 
Urumqi, the Party leading group in the Urumqi Intermediate 
People's Court launched antiseparatism education in the court, 
as well as in eight district courts in the municipality, 
calling for cadres and police in the courts to carry out the 
policy deployments of the Party Central Committee and XUAR 
government.\133\ In late July, the Xinjiang Legal Aid Center 
reported that legal aid centers throughout the XUAR would be 
able to provide direct legal aid services to victims of events 
on July 5. The Center said it would select legal aid workers of 
``high political caliber'' and professional skills, and called 
on legal aid centers to be united in their thinking and not let 
people in difficult circumstances be ``used'' by the ``three 
forces.'' \134\
    Non-Han ethnic groups in the XUAR also face systemic 
barriers in meeting their legal needs in both the criminal 
justice and civil law systems due to a shortage of legal 
workers who speak ethnic minority languages. According to a 
2006 report from XUAR media, personnel shortcomings in XUAR 
courts have meant that ``there is no way to guarantee the use 
of ethnic minority languages to carry out litigation,'' \135\ 
although Chinese law guarantees citizens of all ethnicities the 
right to use their own languages in judicial proceedings.\136\ 
According to 2007 reports from Chinese media, out of 4,552 
judges in the XUAR--where non-Han ethnic groups comprise 
approximately 60 percent of the total general population 
according to official Chinese statistics\137\--1,948 judges 
were ethnic minorities.\138\ As of September of that year, 380 
lawyers, or 17 percent of the total number in the region were 
ethnic minorities,\139\ up from 15 percent in 2006.\140\ The 
reports on the number of lawyers and judges did not identify 
the language capabilities of these groups.\141\ In a 2008 
article, a lawyer reported that in the city of Tacheng 
(Chochek), eight lawyers were ethnic minorities and only four 
could understand ethnic minority languages.\142\ Outside the 
XUAR, the Supreme People's Court (SPC) reported in 2007 on 
taking steps to address a need for personnel and translators 
who speak ethnic minority languages since the SPC returned in 
2007 to the process of reviewing all death sentences meted out 
within China.\143\ Authorities within the XUAR reported in 2009 
on making progress in translating national and local 
legislation into Uyghur.\144\ In May 2009, Chinese media 
reported that a legal aid station described as the XUAR's first 
to focus on ethnic minorities, opened under the supervision of 
the Urumqi Legal Aid Center.\145\

                          Freedom of Religion

    Conditions for religious freedom in the Xinjiang Uyghur 
Autonomous Region deteriorated in the past year. [For detailed 
information, see Section II--Freedom of Religion--China's 
Religious Communities--Islam.]

               Controls Over Free Expression and Assembly

    The forceful police suppression of the July 5 demonstration 
in Urumqi, ensuing official steps to punish peaceful protest, 
and subsequent measures to block the free flow of information 
underscored longstanding controls in the Xinjiang Uyghur 
Autonomous Region (XUAR) to block free speech and harass, 
detain, and imprison people for peaceful forms of expression 
and assembly. Many details about people detained for exercising 
their rights to freedom of expression and assembly, however, 
remained unknown in the face of ongoing controls over the free 
flow of information and efforts to restrict the activities of 
journalists. Authorities again quelled protests, imposed a ban 
on demonstrations, and continued controls over the free flow of 
information amid demonstrations and reported needle attacks in 
Urumqi in early September. [See box titled July 5 Demonstration 
in Urumqi above, for detailed information on events in July and 
September.]
    Prior to the July 5 demonstration, authorities continued to 
implement steps to restrict free expression and harass, detain, 
or imprison people for exercising their rights to freedom of 
expression and assembly. In December 2008, XUAR media reported 
that Urumqi authorities detained Miradil (Mir'adil) Yasin and 
Mutellip Teyip after the two young men distributed leaflets on 
the Xinjiang University campus calling on students to organize 
a public demonstration.\146\ University officials said the 
leaflets had ``reactionary'' content aimed at ``inciting 
students to demonstrate in the streets and create chaos.'' 
\147\ Available information suggests the leaflets may have 
called on students to peacefully protest tobacco and alcohol 
sales.\148\ Miradil Yasin and Mutellip Teyip's whereabouts 
remain unknown. Following their detention, and after two other 
universities also reported finding leaflets, the three 
universities involved reported taking measures to strengthen 
propaganda campaigns and oversight of students, including 
through ``supervision and control'' of technologies such as the 
Internet and cell phone messaging.\149\ In March, Chinese media 
reported that procuratorate officials initiated prosecution 
against a young man identified only as ``Ya,'' after he 
allegedly ``spread rumors'' on the Internet about a clash that 
broke out in January at an Internet cafe in Shayar county, Aqsu 
district.\150\ The report said that ``Ya'' fabricated the 
nature of the clash, reporting that Han Chinese had beaten and 
killed a Uyghur youth, describing police indifference to the 
matter, and reporting that over 500 Uyghurs took to the streets 
to demonstrate. The report said that ``Ya's'' article was then 
used by ``splittist'' Web sites overseas that aimed to 
``disrupt ethnic unity'' and ``influence social stability.'' 
\151\ Also in March, official media reported that in June 2008, 
authorities in Hoten district intercepted and arrested people 
described as members of Hizb ut-Tahrir who planned to 
``sabotage'' the Olympics torch relay.\152\ The report said 
that authorities found the group traveling in a vehicle 
carrying a computer, printer, and ``reactionary'' 
leaflets.\153\ Also in March, the Uyghur American Association 
reported that a court in Hoten city, Hoten district, sentenced 
Abdukadir Mahsum to 15 years in prison in February for his 
activities organizing peaceful demonstrations in Hoten in March 
2008 to protest government human rights abuses.\154\ In April 
2009, Radio Free Asia obtained information that on February 28, 
2008, the Turpan Intermediate People's Court sentenced a young 
Uyghur man, Ekberjan Jamal, to 10 years in prison for 
``splittism'' and revealing state secrets after he used his 
cell phone to make audio recordings of shopkeepers' 
demonstrations in Turpan in November 2007 and sent the 
recordings to friends overseas.\155\
    The Commission tracked new information on two longstanding 
cases of Uyghurs imprisoned for exercising their rights to free 
expression, while developments in some other cases remained 
unknown. In February 2009, authorities released Uyghur 
historian Tohti Tunyaz from prison upon completion of his 11-
year sentence for ``inciting splittism'' and ``unlawfully 
obtaining state secrets.'' Authorities had based the charges on 
a list of documents that Tohti Tunyaz obtained from an official 
librarian in the course of research on Uyghur history and on a 
``separatist book'' they claimed he had published.\156\ 
Following his release, authorities did not let him return to 
Japan, where he had previously lived and where his wife and 
children currently reside.\157\ As noted above, media reported 
in 2009 that imprisoned writer Nurmemet (Nurmuhemmet) Yasin has 
faced restrictions on family visits and activities within 
prison since he met with the UN Special Rapporteur on Torture 
in late 2005.\158\ The whereabouts of Mehbube Ablesh, fired 
from her job in August 2008 and placed in detention in apparent 
connection to articles she wrote for the Internet that 
criticized Chinese Government policy, remain unknown.\159\
    Internet censorship of a Web site that focuses on the 
Uyghur community continued in the past year and involved at 
least one case of detention of the Web site's staff.\160\ In 
spring 2009, authorities shut down the Web site Uyghur Online, 
a multi-language news and discussion forum that addressed 
issues of ethnicity in China, and interrogated Beijing-based 
scholar Ilham Tohti, who runs the site.\161\ Authorities later 
detained Ilham Tohti in July,\162\ after XUAR government 
chairperson Nur Bekri alleged that Ilham Tohti's Web site 
contributed to incitement of rioting in Urumqi on July 5.\163\ 
Authorities released Ilham Tohti from detention on August 
2.\164\ The whereabouts of some other Uyghur Online staff 
members are reportedly unknown.\165\
    XUAR authorities also engaged in censorship campaigns 
throughout the year. In early 2008, the XUAR Propaganda Bureau 
announced it would make ``illegal'' political and religious 
publications the focal point that year for its campaign to 
``Sweep Away Pornography and Strike Down Illegal 
Publications.'' \166\ In 2008 and 2009, the XUAR government and 
local governments reported on censorship efforts that included 
the confiscation of ``illegal'' religious and political 
publications.\167\ Of a total of 877,193 copies of items 
confiscated in the XUAR in 2008, a figure which also includes 
pirated goods, 29,905 were items of an ``illegal'' political 
nature.\168\ In 2009, XUAR authorities established a fund to 
reward efforts to ``purify'' the cultural market, with a focus 
on ``illegal'' religious and political publications.\169\ [See 
Section II--Freedom of Religion--China's Religious 
Communities--Islam for additional information on steps to 
confiscate or censor religious material.]

                Language Policy and Bilingual Education

    The government of the Xinjiang Uyghur Autonomous Region 
(XUAR) took steps in the past year to strengthen implementation 
of ``bilingual'' education,\170\ a program which has 
marginalized the use of Uyghur and other languages in XUAR 
schools by reducing or eliminating class instruction in 
languages other than Mandarin Chinese. The Mandarin-centered 
``bilingual'' education policy violates Chinese legal 
provisions that protect and promote the use of ethnic minority 
languages, which form part of broader legal guarantees to 
protect ethnic minority rights and allow autonomy in ethnic 
minority areas.\171\ Authorities have justified ``bilingual'' 
education as a way of ``raising the quality'' of ethnic 
minority students and have tied knowledge of Mandarin to 
campaigns promoting patriotism, ethnic unity, and 
stability.\172\ In a June 2009 article from official media 
describing ``bilingual'' education as a policy ``in which 
Mandarin is used as the language of instruction and minority 
languages are taught as a [separate] subject,'' XUAR government 
chairperson Nur Bekri stated that teaching Mandarin would help 
the region resist terrorism because ``[t]errorists from 
neighboring countries mainly target [Uyghurs who] are 
relatively isolated from mainstream society as they cannot 
speak Mandarin.'' \173\ Nur Bekri's statement that Uyghurs 
without Mandarin skills are isolated from mainstream society 
underscores the failures of the government to protect the 
languages of non-Han ethnic groups and maintain their use as 
lingua franca within a region putatively created to safeguard 
and promote local languages as one component of regional ethnic 
autonomy. The recent efforts to bolster ``bilingual 
education,'' coupled with reduced opportunities for higher 
education in languages other than Mandarin, have entrenched an 
incentive structure for younger students to study in Mandarin 
at the expense of other languages. While educational programs 
that diminish the use of languages other than Mandarin now 
respond to a growing need for fluency in Mandarin to achieve 
professional advancement, XUAR officials do not acknowledge 
that the need stems from government failures to implement 
autonomy in ethnic minority regions as provided in Chinese 
law.\174\
    Authorities bolstered capacity to implement ``bilingual'' 
education in 2008 and 2009 by investing more money in the 
program and increasing the number of ``bilingual'' teachers in 
the region. In 2008, the government pledged 3.75 billion yuan 
(US$549 million) for ``bilingual'' preschool education and 
called for achieving a target rate of over 85 percent of ethnic 
minority children in rural areas receiving ``bilingual'' 
education by 2012.\175\ The number represents almost a nine-
fold increase in funding over amounts pledged in 2006, and 
coupled with a lengthened timeline for realizing targets, 
suggests a more realistic and firmer commitment to the 
program.\176\ In fall 2008, official media reported the region 
would recruit 15,600 ``bilingual'' elementary school teachers 
between 2008 and 2013, to address the problem of students who 
received ``bilingual'' preschool education who are unable to 
continue ``bilingual'' schooling due to a ``bilingual'' teacher 
shortage in elementary schools.\177\ The XUAR Education 
Department also reported taking steps to increase ``bilingual'' 
teacher training in the southern XUAR,\178\ increasing the 
yearly total of teachers to receive training.\179\ In the past 
year, Chinese media also reported that 10 colleges and 
universities outside the XUAR would dispatch students to the 
region to meet teacher shortages.\180\ In addition, authorities 
reported on efforts to bolster ``bilingual'' teacher training 
at the preschool level. One program will provide 573 graduates 
of junior high schools in the southern XUAR with two years of 
free ``bilingual'' teacher training, the first year of which 
will focus on ``strengthening [trainees'] political quality'' 
and Mandarin skills.\181\
    The promotion of Mandarin-focused ``bilingual'' education 
has had a negative impact on the career prospects of non-Han 
teachers, who face Mandarin language skill requirements if 
their primary teaching language is another language.\182\ Older 
teachers in particular and those who do not meet political 
requirements face additional barriers in trying to conform to 
the requirements of the government's ``bilingual'' education 
policy.\183\ A May 2008 draft opinion on bolstering 
``bilingual'' education called for giving ``appropriate 
placements'' to older teachers with poor Mandarin skills and 
for not allowing teachers without ``bilingual'' teaching skills 
to enter the teaching force.\184\ A XUAR government circular on 
``bilingual'' teacher training issued in June 2008 stipulated 
that teachers who receive training should ``in principle be 
below 35 years of age.'' It also required that participants 
have a ``higher'' political consciousness and hold appropriate 
viewpoints toward religion, ethnicity, and the Marxist state, 
as well as hold loyalty to the Communist Party.\185\
    While the XUAR government reports that it has not fully 
implemented ``bilingual'' education throughout all XUAR 
schools, statistics indicate that the number of students 
enrolled in Mandarin-focused ``bilingual'' education continues 
to increase.\186\ Official Chinese media reported that by 2006, 
the number of students receiving ``bilingual'' education in the 
XUAR had expanded 50-fold within six years.\187\ According to 
official statistics, by October 2008, the number of non-Han 
students in preschools through high schools in the XUAR who 
received ``bilingual'' education increased by more than 125,000 
students over the previous year, representing 25.4 percent of 
the non-Han student population. Combined with students studying 
in longstanding programs that track non-Han students directly 
into Mandarin Chinese schooling, the total reached 36.5 percent 
of the non-Han student population.\188\ Implementation within 
specific areas varies.\189\
    The Commission noted in its 2008 Annual Report that 
although the long-term impact remains unclear, sustained 
implementation of Mandarin-focused ``bilingual'' education and 
other Mandarin-focused language policies increases the risk 
that Uyghur and other non-Mandarin languages are eventually 
reduced to cultural relics rather than actively used languages 
in the XUAR.\190\ The report also observed that the Chinese 
Government's current stance on ``bilingual'' education hinders 
productive dialogue on ways to carry forward policies in a 
manner to protect these languages.\191\ In March 2008, XUAR 
Chair Nur Bekri described criticisms of ``bilingual'' education 
as an attack from the ``three forces'' of terrorism, 
separatism, and extremism operating outside China.\192\

      Government-Promoted Migration, Population Resettlement, and 
                  Restrictions on Freedom of Movement


                 GOVERNMENT-PROMOTED MIGRATION POLICIES

    Central government migration policies directed at the 
Xinjiang Uyghur Autonomous Region (XUAR) continue to bring 
demographic changes to the region that disadvantage local 
populations and that undermine regional autonomy. While the 
Commission supports Chinese Government liberalizations that 
give citizens more choice to determine their places of 
residence, it remains concerned about such government migration 
policies that use economic and social benefits to channel 
migration to the XUAR. For example, national legal provisions 
implemented in 2005 provide ``preferential'' working and living 
conditions, along with ``special treatment in employment and 
schooling,'' to settlers and their dependents in the XUAR and 
other designated ethnic minority areas.\193\ Migration policies 
to date, including government-mandated resettlement in past 
decades and current migration incentives, have broadly shifted 
the demographic make-up of the region.\194\ Demographic shifts, 
facilitated by government policy, have skewed employment 
prospects in favor of Han Chinese and funneled resources in 
their favor.\195\ Migration also has affected the preservation 
of Uyghur culture and language. Scholar Gardner Bovingdon notes 
that ``Han immigration and state policies have dramatically 
increased the pressure on Uyghurs to assimilate linguistically 
and culturally, seemingly contradicting the explicit 
protections of the constitution and the laws on autonomy[.]'' 
\196\
    Government policy in such areas as security maintenance, 
development, and language use fuel the government's perceived 
need for migration. The government ties migration policies to 
the promotion of economic development and maintenance of 
``stability'' and ``ethnic unity'' in the region.\197\ A 2008 
report from the State Ethnic Affairs Commission stated that 
``work to dispatch cadres and specialized talent to Tibet, 
Xinjiang, and remote ethnic minority border regions has 
strengthened ethnic unity and safeguarded social stability and 
the unification of the state.'' \198\ As the promotion of 
``bilingual'' education in the XUAR has forced a need for more 
Mandarin speakers, the government has met teacher shortages in 
part by bringing teachers and student-teachers to the XUAR from 
elsewhere in China.\199\ In 2008, XUAR authorities reported 
that in the past five years, it had supplemented its teaching 
corps, with a focus on ``bilingual'' teachers, by 17,000 people 
from within the XUAR as well as outside provinces.\200\ The 
Xinjiang Education Department announced in May 2009 that the 
government would recruit 9,339 teachers nationwide that year to 
take up posts in cities and rural areas in the region, with a 
focus on ``bilingual'' teachers for posts at the rural 
level.\201\

          RESETTLEMENT AND RESTRICTIONS ON FREEDOM OF MOVEMENT

    The Commission tracked during the past year steps to 
resettle local XUAR populations, control freedom of movement, 
and monitor ``floating populations.'' In February, XUAR 
authorities detailed plans to relocate 220,000 residents of the 
historic, predominantly Uyghur ``Old City'' section of 
Kashgar--roughly half of the population of the city of 
Kashgar--and resettle many to high-rise buildings on the 
outskirts of the city, in a reported effort to provide 
earthquake-proof housing. Some residents have reported opposing 
the project but say they lack the means to challenge the 
government. In addition, some residents have reported receiving 
no information about compensation or inadequate compensation. 
[See box titled Demolition of Kashgar's Old City below for 
detailed information.] In April 2009, official media in the Ili 
Kazakh Autonomous Region reported investing 20 million yuan 
(US$2.9 million) to resettle herders.\202\ Overseas reports 
continued to carry information that authorities confiscate 
Uyghurs' passports in an effort to curb unauthorized 
pilgrimages.\203\ [See Section II--Freedom of Religion for more 
information.] As part of measures to uphold perceived threats 
to stability in the past year, local governments reported 
taking steps to tighten controls over various categories of 
people deemed to comprise ``floating populations.'' \204\ 
Following the July 5 demonstration, the Urumqi municipal 
government tightened oversight of rental housing, a measure 
that was a response to the presence of unregistered migrants 
who participated in events on July 5, according to an official 
cited in a South China Morning Post article.\205\

------------------------------------------------------------------------
            Continuing Risks for Uyghur Refugees and Migrants
-------------------------------------------------------------------------
  The Commission noted in its 2008 Annual Report that Chinese Government
 repression in the Xinjiang Uyghur Autonomous Region (XUAR) has forced
 some Uyghurs into exile, where depending on their destination or
 transit country, they face an uncertain legal status, barriers to local
 asylum proceedings, and risk of refoulement to China under the sway of
 Chinese influence and in violation of international protections.\206\
 The report also noted that Uyghur migrants outside the refugee and
 asylum-seeker population also face dangers, as China's increasing
 influence in neighboring countries has made Uyghur communities there
 vulnerable to harassment and to deportation proceedings without
 adequate safeguards.\207\ In this reporting year, the Commission
 tracked continuing risks for these populations.
------------------------------------------------------------------------


------------------------------------------------------------------------
      Continuing Risks for Uyghur Refugees and Migrants--Continued
-------------------------------------------------------------------------
  <bullet> At the Commission's May 2009 roundtable on ``The Rising
   Stakes of Refugee Issues in China,'' panelist Sean Roberts spoke on
   conditions for Uyghur refugees and asylum seekers. He said that
   ``China's soft-power influence has not only been employed to
   discourage countries from taking asylum-seekers; it has also been
   used to make countries one might think would be sympathetic to the
   plight of the Uyghurs willingly extradite those who might qualify for
   political asylum back to China to face prison terms and/or
   execution.'' \208\
  <bullet> A June 2009 report indicated that the Kazakh government has
   begun to discuss a bill that would align local treatment of refugees
   to international standards, but that in the meantime, most asylum-
   seekers and refugees in the country, including Uyghurs from China,
   remain vulnerable to the government's current policy of denying
   protection to these groups.\209\
  <bullet> Huseyin Celil, an ethnic Uyghur originally from the XUAR and
   a naturalized Canadian citizen who had received refugee status from
   the UN High Commissioner for Refugees, continues to serve a life
   sentence in China for alleged separatist and terrorism-related
   offenses. Uzbek authorities had extradited him to China in 2006,
   while he was visiting his wife's relatives there.\210\
  <bullet> The Commission tracked reports in the past year of Uyghurs
   extradited to China, despite risk of torture.\211\
      Pakistani media reported in April and June 2009 that Pakistani
     authorities had turned over groups of 9 and 10 people,
     respectively, to the Chinese Government.\212\ The reports said the
     people returned to China, described as ``militants'' in one case
     and members of the East Turkistan Islamic Movement in the second,
     were returned to China based on bilateral agreements between the
     two countries on fighting against ``militancy and extremism.''
     \213\
------------------------------------------------------------------------

                      Population Planning Policies

    Xinjiang Uyghur Autonomous Region (XUAR) authorities have 
continued to enforce measures to control population growth that 
target non-Han ethnic groups.\214\ In 2009, in a meeting at 
which XUAR population planning offices signed ``responsibility 
certificates'' regarding population targets for the year, 
authorities stressed strengthening population planning work in 
rural areas in the southern XUAR, which has a predominantly 
non-Han population.\215\ The steps build on earlier measures to 
target population planning in predominantly non-Han areas 
within the XUAR.\216\ According to information from the XUAR 
Population and Family Planning Commission, conditions regarding 
population growth in the XUAR in 2008 were ``comparatively 
grim,'' and both central and XUAR authorities would increase 
investment in 2009 to meet population control targets dictated 
by the central government.\217\
    The XUAR government maintained population planning policies 
in the past year that reflected continued controls over women's 
reproductive decisions, and one reported case highlighted 
official abuses engendered by the population planning system. 
According to reports from overseas media, in November 2008, 
local authorities within the Ili Kazakh Autonomous Prefecture 
announced plans to force Arzigul (Arzugul) Tursun, a villager 
from Ghulja county who was six months pregnant with her third 
child, to undergo an abortion after she was unable to pay a 
45,000 yuan (US$6,591) fine for exceeding the number of births 
permitted under the region's population planning 
regulation,\218\ an order which appears to have no basis in 
law.\219\ Following international advocacy on Arzigul Tursun's 
behalf, authorities released her from the hospital without 
carrying out the abortion, but continued to subject her and her 
family to harassment and surveillance.\220\ It is unclear if 
local authorities faced penalties for their plans to subject 
Arzigul Tursun to a forced abortion.\221\ As noted in Section 
II--Population Planning, the use of mechanisms that link 
population planning officials' career advancement to their 
enforcement of set birth quotas has created an incentive 
structure for officials to use coercive measures to meet 
population goals. [For additional information, see Section II--
Population Planning.]

                              Development

    The government imposes top-down development policies in the 
Xinjiang Uyghur Autonomous Region (XUAR) that exacerbate 
inequalities and deny local residents the autonomy to chart 
their own course of development. Scholar Calla Wiemer has noted 
that ``in an effort to ensure stability in a frontier area,'' 
the central government ``has more actively asserted its control 
over development in Xinjiang than in any other region.'' \222\ 
While development efforts have brought economic improvements to 
the region,\223\ they also have spurred migration,\224\ 
strained local resources,\225\ and disproportionately benefited 
Han.\226\ Han have benefited through development projects 
targeting Han-majority regions and development-related 
employment prospects that privilege Han areas of the XUAR and 
Han employees, including migrants.\227\ In the past year, the 
government described implementing measures to improve 
conditions in the predominantly non-Han area of the southern 
XUAR (see below for details).\228\
    Development policies implemented in the past year remained 
intertwined with political controls and government objectives 
to uphold stability. In December 2008, XUAR authorities issued 
an opinion on accelerating rural reform and development, 
combining policies described as aiming to improve economic 
conditions in rural areas with steps to promote continued 
political controls in areas such as strengthening the 
management of religious affairs and deepening campaigns on 
ethnic unity and antiseparatism.\229\ Development goals listed 
in the opinion also included integrating economic and social 
development between rural and urban areas and implementing 
preferential development policies in the southern XUAR to close 
the gap in conditions between southern and northern regions of 
the XUAR.\230\ The opinion's attention to the southern XUAR 
preceded news of specific measures to support the area. XUAR 
media reported in January 2009 that the central government 
would subsidize 53.4 billion yuan (US$7.8 billion) for a five-
year period starting in 2009 to support development in three 
southern XUAR districts.\231\ The government also proposed 
providing free high school education to students in these 
districts, in a measure designed both to promote vocational 
skills and uphold ``social security and stability,'' according 
to the Communist Party secretary of the XUAR Education 
Department.\232\

                            Labor Conditions


                             DISCRIMINATION

    Non-Han ethnic groups in the Xinjiang Uyghur Autonomous 
Region (XUAR) continued to face discrimination in job 
recruitment during the past year.\233\ The Commission observed 
discrimination in both state jobs and private sector 
employment, including private sector jobs publicized by local 
governments.\234\ The practices indicate both direct government 
involvement in discriminatory practices and endorsement of or 
failure to prevent such practices in private job 
recruitment.\235\ Such practices contravene provisions in the 
PRC Constitution and in Chinese laws that forbid 
discrimination.\236\ Among the multiple examples of 
discriminatory practices the Commission found in the past year, 
the Xinjiang Production and Construction Corps (XPCC) recruited 
within the XUAR in May for 894 positions, reserving 744 
positions for Han Chinese. Of the remaining positions, 137 were 
specified as unrestricted by ethnicity and thus open to 
applicants of all ethnic groups including Han, while 11 
positions were reserved for Uyghurs and 2 positions reserved 
for Kazakhs.\237\ During job recruitment the same month for 
teachers in Aqsu district, 347 of 436 open positions in 
district schools were reserved for Han, while the remaining 89 
positions were reserved for Uyghurs.\238\ In September 2008, a 
mining company advertising on the Web site of the Fuyun 
(Koktoqay) county government in Altay district, Ili Kazakh 
Autonomous Prefecture, recruited only for Han to fill 18 open 
positions.\239\
    The barriers to employment for non-Han job candidates come 
during a period of high unemployment in the XUAR, including for 
college graduates.\240\ As part of efforts to promote 
employment for college graduates through programs that send 
education and medical workers to rural areas, authorities 
within the XUAR said in March 2009 that they would give 
priority to hiring ethnic minority candidates, and the 
government also pledged to focus job training on ethnic 
minorities.\241\ In an examination of job recruitment 
announcements following the pledges, the Commission found 
limited information on the implementation of measures to 
encourage the hiring of non-Han candidates, while it observed 
continuing restrictions toward non-Han job candidates in jobs 
including the XPCC positions and teaching positions in Aqsu 
discussed above.\242\

                            LABOR TRANSFERS

    The July 5 demonstration in Urumqi, in which demonstrators 
protested the government's handling of a reported attack on 
Uyghur workers at a factory in Guangdong province, drew 
international attention to government-sponsored programs in the 
XUAR to transfer the rural labor force in the region to jobs in 
the interior of China. Some workers involved in the programs 
continued in the past year to report abusive labor practices, 
including the use of coercion by local officials to gain their 
participation and abusive working conditions. In a July 2009 
Washington Post article, some sources reported that authorities 
coerced families in villages in Kashgar district to send a 
family member to join the labor program by threatening families 
with a steep fine for noncompliance.\243\ Sources also reported 
penalities for noncompliance--including some fines equivalent 
to a half year's wages--in a July New York Times article.\244\ 
In the Washington Post article, a factory owner in Hebei 
province said that most Uyghur workers sent to his factory, who 
were supervised in the factory by a police officer from the 
XUAR, were not there voluntarily. He also reported that 
authorities made fake IDs and that minors, some 14 years old, 
were among the workers.\245\ In a series of spring 2009 
articles from Radio Free Asia, teenage workers and family 
members involved in the program to transfer people to factory 
jobs outside the XUAR reported being coerced by local officials 
into participating and pressured to use fraudulent methods to 
make teenagers appear to meet the legal working age in China 
and the stipulated working age of the factory employing the 
workers.\246\ The reports also described other abuses such as 
physical beatings within factories, forcing some sick workers 
to work, and fining a worker who returned home due to 
illness.\247\ The 2009 reports follow information from earlier 
years of abusive labor practices within the government-
sponsored programs.\248\
    Following the July 5 demonstration, XUAR government 
chairperson Nur Bekri denied that workers were coerced into 
participating in the government-led labor transfer programs--
versions of which exist elsewhere in China\249\--and described 
the programs as a means for XUAR residents to earn income and 
gain job training.\250\ Some workers cited by overseas media 
also have described participating voluntarily.\251\ At least 
one official report indicated, however, that workers face tight 
oversight. Nur Bekri was quoted by Xinhua as saying, ``After 
their arrival in the interior of the country, rural migrant 
workers from Xinjiang have to go through a process of 
[adaptation], during which the parties concerned may exercise 
appropriately closed or semi-closed management over them in 
order to prevent them from getting lost or being involved in an 
accident.'' \252\
    Available information from overseas and official Chinese 
sources suggests that young non-Han women comprise many of the 
workers transferred.\253\ According to a January 2009 report 
from official Chinese media, rural women formed 80 percent of 
the ``surplus labor force'' shifted to jobs elsewhere in the 
XUAR or in the interior of China in 2007, a figure which 
appears to include people transferred to jobs through 
government-sponsored programs as well as through other 
means.\254\ A Party official cited in the story, who noted that 
ethnic minorities formed the majority of the rural population, 
described ``conservative thinking'' and ``backward ideas'' as 
sources of resistance to the transfer of the female rural labor 
force.\255\
    A government opinion issued in December 2008 on 
accelerating rural reform and development in the XUAR 
(discussed above) called for training local workers and 
prioritizing XUAR residents for construction, service, and 
industry jobs in the region, but also called for expanding the 
export of the local labor force.\256\ In late July, an official 
said work to transfer the labor force could not be influenced 
by the ``incidents'' in Guangdong province in June and in 
Urumqi on July 5.\257\

                              FORCED LABOR

    Overseas media reported in the past year on cases of 
authorities in the XUAR imposing forced labor on local 
farmers.\258\ In January 2009, farmers in Yengisar county, 
Kashgar district, told Radio Free Asia (RFA) that local 
authorities forced them to work without pay during fixed 
periods of the year.\259\ In March 2009, RFA reported learning 
from contact with a resident of a township in Aqsu 
municipality, Aqsu district, that authorities had required 
farmers to plant trees in the municipality, without paying them 
for their work.\260\ Official Chinese media reported on the 
event as a tree-planting activity for cadres and residents 
within a district in the municipality, reported to be the first 
area in northwest China to receive the title ``National Forest 
City.'' \261\ The report provided no details on how or if 
workers were compensated.\262\

                               WORK-STUDY

    The XUAR government continued in 2008 to force students to 
participate in controversial ``work-study'' programs to do 
manual labor, but issued a circular to prevent students in 
junior high school and lower grades from participating in 
activities to pick cotton.\263\ The circular appeared to leave 
intact other forms of work-study activities for elementary and 
junior high school students, while leaving high school, 
college, and technical school students to continue picking 
cotton in work-study programs.\264\ Based on Commission 
monitoring, the circular's effectiveness was unclear, as at 
least one city in the XUAR reported continuing to make junior 
high school students pick cotton.\265\ Although work-study 
programs exist throughout China, the XUAR work-study program 
reflects several features unique to the region.\266\ The 
central government holds close control over the XUAR economy, 
including through directly administered Xinjiang Production and 
Construction Corps farms that harvest cotton.\267\ The central 
government placed special focus on supporting the XUAR's cotton 
industry during its 11th Five-Year Program, and the decision to 
use XUAR students to pick cotton reportedly came from the 
central government.\268\

        Right to Culture and the Protection of Cultural Heritage

    The preservation of a cornerstone of the Uyghurs' cultural 
heritage came under attack in the past year from a government 
project to demolish buildings and ``reconstruct'' the historic 
Silk Road ``Old City'' section of Kashgar, after authorities 
determined few structures in the nationally designated historic 
area had preservation value. [See box titled Demolition of 
Kashgar's Old City below for detailed information.]

                       Effects of Nuclear Testing

    New information emerged in the past year over the extent of 
possible damage resulting from nuclear tests conducted in the 
Xinjiang Uyghur Autonomous Region from the 1960s to the 1990s. 
[See Section II--Climate Change and Environment for more 
information.]

------------------------------------------------------------------------
                    Demolition of Kashgar's Old City
-------------------------------------------------------------------------
Introduction  Under a 30 billion yuan (US$4.39 billion) project launched in late
 February 2009 with funds from the central and XUAR governments,
 authorities will demolish and ``reconstruct'' the Old City of Kashgar
 within a five-year period and resettle roughly 50,000 households, or
 more than 200,000 people, according to reports from Chinese Government
 and media sources.\269\ According to Chinese media and government
 reports, the first group of residents affected by the initial stages of
 the project have been resettled in earthquake-proof high-rises in a
 suburb of the city.\270\ One media source reported that all the Old
 City families resettled as a result of the project will receive
 monetary compensation or replacement housing.\271\ Overseas media
 reports, citing local residents, have raised questions about the
 adequacy of compensation, however, and the scope of local support for
 the project.Demolition and Resettlement Plans Linked to Ethnic Issues  In addition to stated concerns about earthquakes, government and media
 sources have linked the project to policies toward security and ethnic
 issues in the region.\272\ A government official emphasized political
 concerns about the demolition, describing Kashgar as an area where
 Uyghurs are most heavily concentrated and an area in the ``front
 ranks'' in the XUAR's fight against separatism, terrorism, and
 infiltration.\273\ At a February meeting, authorities also stressed the
 political gravity of the issue and said that officials who didn't
 comply with their responsibilities to enforce the demolition project
 would be dismissed.\274\Preservation Efforts Minimal--Most Buildings To Be Demolished  At an August 2008 meeting to discuss the ``reconstruction'' of the Old
 City, officials indicated that efforts to preserve existing structures
 would be minimal. Speaking at the event, the Kashgar district Communist
 Party secretary described the ``reconstruction'' of the Old City as a
 ``human-centered'' project and stressed that ``what [the project] will
 protect is a construction style with ethnic features, and what it won't
 protect is dangerous old raw earth houses that endanger the people's
 safety.'' \275\ Noting that the Old City contained the world's largest
 complex of raw earth structures, a government official spoke of the
 importance of preserving the ``historical style and regional features''
 of the Old City, but cautioned against wide-scale preservation, stating
 instead that authorities would only protect the ``very few'' buildings
 that had preservation value.\276\------------------------------------------------------------------------


------------------------------------------------------------------------
               Demolition of Kashgar's Old City--Continued
-------------------------------------------------------------------------
Framework for Heritage Protection Weak  Details of the Kashgar demolition project indicate failures in both
 the project's capacity to protect the cultural heritage of the Old City
 as well as in the Chinese Government's overall framework for cultural
 heritage protection, including as it relates to ethnic minorities'
 right to preserve their culture. In addition, the project fails to
 clarify how the determination that few buildings hold preservation
 value relates to Kashgar's designation as a national-level historic and
 cultural city with historic districts within the Old City. Kashgar
 received the designation in 1986,\277\ and since then, the Chinese
 Government has codified its process for designating and protecting
 historic cities into a Regulation on the Protection of Famous Historic
 and Cultural Cities, Towns, and Villages (Historic Cities
 Regulation).\278\ Despite stipulating protections for historic areas,
 however, some provisions within the Historic Cities Regulation are
 defined poorly, thus appearing to permit wide latitude in determining
 what kind of structures qualify for legal protections.\279\ In the case
 of the Kashgar project, ambiguities in the framework for heritage
 protection appear to contribute to the formal leeway for authorities to
 take a narrow view of which structures have historic value and qualify
 for protection, thus removing most of the buildings in the Old City
 from the formal protections of the Historic Cities Regulation.
  Despite the determination that few buildings have preservation value,
 according to one overseas scholar describing Kashgar before the Old
 City demolition, ``Kashgar is the best-preserved example of a
 traditional Islamic city to be found anywhere in Central Asia.'' \280\
 A 2007 report from the Kashgar district government also stressed the
 city's importance as a historic area.\281\
  Details of the project also suggest that authorities have bypassed
 ways to protect Old City residents' safety while preserving existing
 buildings. Standards set by professionals in the field of cultural
 heritage preservation indicate compatibility between historic
 preservation and measures to guard against natural disaster.\282\XUAR Residents, NGO, Overseas Observers Object to Project  Reports from overseas media have indicated opposition to the project
 from local residents and some local officials, as well as concerns from
 local residents and outside observers about housing resettlement and
 historic preservation.\283\ An official from the Kashgar cultural
 relics management office, cited in one article, for example, said that
 the project was being implemented without adequate attention to
 historic preservation, and another official expressed concern about
 resettled residents' ability to sustain their livelihoods, many of
 which were tied to workshops within the Old City.\284\
------------------------------------------------------------------------


------------------------------------------------------------------------
               Demolition of Kashgar's Old City--Continued
-------------------------------------------------------------------------
  Information from overseas reports also raises questions about the
 process of consulting with residents on the project and on adequate
 compensation. Two men cited in one overseas media report said they had
 received no information about compensation and did not know where they
 would be relocated to, while other sources said that the government had
 not consulted with them about the demolition.\285\ Some Kashgar
 residents cited in another article said that compensation amounts were
 inadequate.\286\ Some residents indicated dissatisfaction with the
 project but said they lacked the means to challenge the
 government.\287\ 
Shortcomings in Property Protection, Curbs Over Cultural Rights  The complaints by residents affected by the project reflect continuing
 problems with property seizure and resettlement in China. Scholar Mo
 Zhang, who has examined the Chinese Government's current framework for
 property protection, noted that the 2007 PRC Property Law, which
 includes protections for private property rights, addresses
 expropriation of and compensation for property (Article 42), but lacks
 clear standards for determining compensation and for defining the
 ``public interest'' necessary to allow a taking.\288\
  In addition, although the XUAR is an officially designated ethnic
 minority autonomous region with legally stipulated guarantees for
 ``ethnic minorities' right to administer their internal affairs'' and
 measures to protect ethnic minority culture and cultural heritage, the
 Kashgar project also highlights the failure of the government to
 protect such rights in practice.\289\ The project is said to have
 ``unusually strong backing high in the government,'' according to one
 report.\290\
------------------------------------------------------------------------

                                V. Tibet


  Introduction: Tibetans Persist With Protest, Government Strengthens 
                           Unpopular Policies

    During the Commission's 2009 reporting year, the Chinese 
Government and Communist Party strengthened the policies and 
measures that frustrated Tibetans prior to the wave of Tibetan 
protests that started in March 2008. Such policies and measures 
include: refusing to engage the Dalai Lama in meaningful talks; 
amplifying the scope and hostility of the anti-Dalai campaign; 
increasing the repression and control of religious freedom for 
Tibetans; poor implementation of the PRC Regional Ethnic 
Autonomy Law; and strengthening economic development 
initiatives that will increase further the influx of non-
Tibetans into the Tibetan autonomous areas of China (and in 
doing so, increase the pressure on the Tibetan culture and 
heritage).
    The Chinese Government continued to state that Chinese 
policies in Tibetan areas are a success and in the past year 
adopted a more assertive stance in pressuring other governments 
to abandon support of the Dalai Lama and instead to support the 
Chinese Government position on Tibetan issues. The Chinese 
Government, to a large extent, bases its positive 
representation of conditions in Tibetan areas on economic 
growth data, and on selective comparisons between pre-1949 
Tibet\1\ and post-1978 reform-era China.
    Tibetans continued during this reporting year to express 
their rejection of Chinese policies by means that included 
staging political protests that typically called for the Dalai 
Lama's return to Tibet and for Tibetan independence or freedom. 
The presence of additional security forces, including People's 
Armed Police, in areas where Tibetan protests took place in 
spring 2008 may have succeeded at limiting Tibetan protests, 
but not at stopping them entirely. Government measures to 
prevent information about Tibetan protests and protesters from 
leaving China have hindered human rights monitoring 
organizations from providing an adequate account of protests 
and their consequences.
    As a result of Chinese Government and Party policy and 
implementation, and official campaigns to ``educate'' Tibetans 
about their obligations to conform to policy and law that many 
Tibetans believe harm their cultural identity and heritage, the 
level of repression of Tibetans' freedoms of speech, religion, 
assembly, and association increased further.

Government Shifts Toward More Aggressive International Policy on Tibet 
                                 Issue

    Senior Chinese Government and Communist Party leaders 
speaking during the Commission's 2009 reporting year, along 
with articles published in China's state-controlled media, show 
that the leadership has increased the importance it attaches to 
the Tibet issue.\2\ Statements and reports indicate that the 
Chinese Government may seek to utilize economic leverage to 
pressure other governments to support the Chinese Government's 
positions on Tibet.\3\ State Councilor Dai Bingguo, speaking in 
December 2008 before the Brookings Institution about the 30th 
anniversary of the establishment of U.S.-China diplomatic 
relations, placed Tibet alongside Taiwan as one of China's two 
``core interests'':

        To realize greater growth of China-U.S. relations, the 
        key link is to make sure we handle well issues 
        involving each other's core interests and maintain and 
        develop the strategic underpinning of our cooperation. 
        Taiwan and Tibet-related issues concern China's core 
        interests. The Chinese people have an unshakable 
        determination to defend our core interests.\4\

    China's state-run media published articles and opinions 
urging the Chinese leadership to press other governments to 
support the Chinese Government position on Tibet if other 
governments wish to have China's support on international 
issues (including on economic issues). A March 2009 People's 
Daily opinion observed that as China rises, ``the rest of the 
world'' needs ``greater cooperation with China.'' \5\ Such 
cooperation will be ``impossible,'' the opinion said, unless 
``the West . . . develops an objective and unbiased stance on 
Tibet.'' \6\ People's Daily concluded that without a ``correct 
understanding'' of the Tibet issue, ``it is impossible to 
advance cooperation with China in a sincere manner.'' \7\ A 
March 2009 China Daily opinion advocated for the emergence of a 
``China doctrine'' that would establish Tibet as a ``core 
concern'' for China.\8\ A norm of such a doctrine would be for 
all countries to deny entry to the Dalai Lama, the China Daily 
opinion said, citing a recommendation that Foreign Minister 
Yang Jiechi made in a March 7 press conference.\9\
    The notion that international support for the Dalai Lama 
could expose China to the threat of breakup, a topic that stirs 
a sense of nationalism among the Chinese people, is unsupported 
by the issues that the Chinese Government and state media 
identify.\10\ The premise that the Chinese Government should 
adopt a more aggressive Tibet policy, and use economic and 
other leverage to pressure governments to assist China in 
preventing China's breakup by denying the Dalai Lama entry into 
other countries, is flawed for at least two reasons. First, the 
Dalai Lama continues to state that he seeks genuine autonomy 
for Tibet, not independence. [See Status of Negotiations 
Between the Chinese Government and the Dalai Lama or His 
Representatives in this section.] Second, the governments of 
countries that the Chinese Government accuses of accommodating 
pro-Tibetan independence sentiment by hosting the Dalai Lama 
have not challenged China's sovereignty over the Tibetan 
autonomous areas of China.\11\ The U.S. State Department Report 
on Tibet Negotiations, for example, observes that U.S. policy 
recognizes the Tibet Autonomous Region and other Tibetan 
autonomous areas are part of China and that such a policy is 
``consistent with the view of the international community.'' 
\12\
    An expert on Tibetan political history appearing before a 
Commission roundtable in March 2009 called attention to the 
apparent emergence of a more aggressive Chinese Government 
international policy on Tibet:

        China now seems to be willing to demand that other 
        countries adhere to its position on Tibet at the risk 
        of damaging their good relations with China. The 
        financial crisis in the United States and other 
        capitalist countries has also seemed to give China the 
        impression that its own economic and political system 
        is superior and that it can be more demanding in its 
        international relations. The manifestation of this new 
        attitude has been new demands that its critics cease 
        their complaints about Tibet. Recent articles in the 
        Chinese press have suggested that not only must other 
        countries not criticize China about Tibet but they must 
        revise their beliefs about the issue.\13\

    [See CECC, Special Topic Paper: Tibet 2008-2009 for more 
information on the Chinese Government shift toward a more 
aggressive international policy on the Tibet issue.]

    BEIJING THINK TANK FINDS CHINESE GOVERNMENT POLICY PRINCIPALLY 
                 RESPONSIBLE FOR THE ``3.14 INCIDENT''

    As Chinese Government officials moved more aggressively to 
press other governments to support the government's positions 
on the Tibet issue, the Beijing-based think tank, Open 
Constitution Initiative (OCI, Gongmeng), released a May 2009 
report that rejected the government's core assertion about 
Tibetan protests and rioting in March 2008.\14\ The ``3.14 
incident'' \15\ was not the exclusive result of external 
influence by the Dalai Lama and organizations that the Chinese 
Government associates with him (i.e., ``masterminded by the 
Dalai Lama's clique''),\16\ but the result of domestic 
(``internal'') issues, OCI said.\17\ The report applied the 
term ``3.14 incident'' in a manner consistent with Chinese 
Government, Communist Party, and state-run media use: a 
collective reference to the protests and rioting that began on 
March 14, 2008, in Lhasa city, Tibet Autonomous Region, and 
then spread to other locations.\18\
    The OCI report, compiled by ``a group of prominent Chinese 
lawyers and legal scholars,'' \19\ expressed its findings in a 
manner that shows that the authors aimed for officials to 
review the document,\20\ and identified a number of policy-
based factors: The research panel discovered that the 3.14 
incident was caused by the confluence of many factors, 
including psychological loss created by development, discontent 
among economic classes, the question of migrants, influences 
from abroad, religious sentiment, and on-scene ``mass 
reactions,'' which cannot be simply reduced to ``splittist 
violence.'' \21\
    The OCI report provided nine recommendations that appear to 
be directed to the Chinese Government. Some of the 
recommendations, summarized in the order that they appear, 
follow.\22\

        <bullet> Listen to the views of ordinary Tibetans on 
        the basis for respecting and protecting the Tibetan 
        people's rights and interests.
        <bullet> Guide economic development so that Tibetans 
        acquire ample benefits, and to reduce the discrepancy 
        between urban and rural income.
        <bullet> Increase central government supervision over 
        local government in order to reduce local corruption 
        and dereliction of duty, and to speed up the process of 
        democratizing power structures.
        <bullet> Treat the education of Tibetans as the key to 
        the long-term resolution of ``the question of Tibetan 
        areas''; improve educational opportunities available to 
        young Tibetans, especially farmers and herders; develop 
        appropriate content on Tibetan history and culture.
        <bullet> Respect and protect Tibetan ``freedom of 
        religious belief,'' including recognizing the 
        importance of religion to Tibetans; allow the 
        resumption of ``normal religious activities'' such as 
        Buddhist teaching, monastic travel to attend Buddhist 
        teaching, and ``the transmission of Tibetan Buddhism.'' 
        \23\

    A Tibet issue expert addressed a March 2009 Commission 
roundtable on the significance of what he identified as a 
powerful Tibetan ``interest group,'' \24\ and what the OCI 
report described as a ``new aristocratic class.'' OCI's 
recommendation on reducing local official corruption and 
dereliction of duty focused principally on ``the new 
aristocracy.'' \25\ According to the Tibet issue expert:

        In the past 20 years in China, the people who manage 
        Tibet . . . have really gained power. Their economic 
        interests and everything else are built on this power. 
        They blame everything that goes wrong in Tibet . . . on 
        the Dalai Lama, or on Tibetans in exile. . . . [It] is 
        really important to see just how important this group 
        is in the role that they play. Sometimes it looks as 
        though we are seeing only the truly top-level of 
        China's state leadership, and we assume such high-
        ranking views are the only reason for what is 
        happening. [If] you look at the details, there's a 
        messy political process going on. In that process, 
        there are people who have political and economic self-
        interests playing a role in this particular policy.\26\

    Officials from the Beijing Civil Affairs Bureau shut OCI 
down on July 17, 2009, according to reports by international 
media organizations.\27\ The Commission did not observe any 
media reports that directly attributed the shutdown of OCI to 
the organization's report on the ``3.14 incident.''
    [See CECC, Special Topic Paper: Tibet 2008-2009 for more 
information on the OCI report on the ``3.14 incident.'']

  Status of Negotiations Between the Chinese Government and the Dalai 
                      Lama or His Representatives

    The environment for the dialogue between the Dalai Lama's 
representatives and Chinese Government and Communist Party 
officials continued to deteriorate during the Commission's 2009 
reporting year. Chinese officials increased their efforts to 
shift the focus of the dialogue away from discussing with the 
Dalai Lama's envoys measures to protect and preserve the 
Tibetan culture, religion, and language, and instead to focus 
on new preconditions on the dialogue that pressure the Dalai 
Lama to function as an active proponent of Chinese Government 
and Party policies on Tibet-related issues. [See For Tibetans, 
Another Year of Heightened Security, Repression, Isolation in 
this section.]
    U.S. Government policy recognizes the Tibet Autonomous 
Region and Tibetan autonomous prefectures and counties\28\ in 
other provinces to be a part of China.\29\ The U.S. State 
Department's 2009 Report on Tibet Negotiations observed, ``[The 
Dalai Lama] represents the views of the vast majority of 
Tibetans and his consistent advocacy of nonviolence is an 
important principle for making progress toward resolution of 
ongoing tensions. China's engagement with the Dalai Lama or his 
representatives to resolve problems facing Tibetans is in the 
interest of both the Chinese Government and the Tibetan 
people.'' \30\ The Report on Tibet Negotiations stated:

        The United States continues to believe that meaningful 
        dialogue represents the best way to resolve tensions in 
        Tibet. We are disappointed that, after seven years of 
        talks, there have not been any concrete results. We are 
        concerned that in 2008 the Chinese Government increased 
        its negative rhetoric about the Dalai Lama, increased 
        repression in Tibetan areas, and further restricted 
        religious freedoms. We continue to urge both sides to 
        engage in substantive dialogue and hope to see a ninth 
        dialogue round in the near future that will lead to 
        positive movement on questions related to Tibetans' 
        lives and livelihoods.\31\

                  THE CHINA-DALAI LAMA DIALOGUE STALLS

    The principal results of the eighth round of formal 
dialogue between the Dalai Lama's representatives and Communist 
Party officials were the Dalai Lama's envoys' handover of the 
``Memorandum on Genuine Autonomy for the Tibetan People'' \32\ 
(Memorandum), the Party's rejection of the Memorandum, and the 
Party's continued insistence that the Dalai Lama fulfill 
additional preconditions on dialogue. The Dalai Lama and Party 
officials have referred to the dialogue as having stalled.\33\

       THE EIGHTH ROUND OF DIALOGUE, HANDING OVER THE MEMORANDUM

    The Dalai Lama's Special Envoy Lodi Gyari and Envoy Kelsang 
Gyaltsen arrived in Beijing on October 30, 2008, for the eighth 
round of formal dialogue since such contacts resumed in 
2002.\34\ The envoys returned to India\35\ on November 5 
following official meetings in Beijing on November 4 and 5 with 
Du Qinglin, Head of the Communist Party United Front Work 
Department (UFWD) \36\ and Vice Chairman of the Chinese 
People's Political Consultative Conference, UFWD Executive 
Deputy Head Zhu Weiqun, and UFWD Deputy Head Sita (Sithar).\37\ 
Prior to the meetings, officials escorted the envoys to the 
Ningxia Hui Autonomous Region.\38\ Academics in Beijing 
``briefed [the envoys] on the laws, policies and practices 
concerning China's regional ethnic autonomy system.'' \39\
    The Dalai Lama's envoys handed over to UFWD officials a 
memorandum setting out general proposals to create ``genuine 
autonomy for the Tibetan people.'' \40\ The Memorandum states 
in its introduction that during the seventh round of dialogue 
in July 2008, Du Qinglin ``invited suggestions from His 
Holiness the Dalai Lama for the stability and development of 
Tibet,'' and Zhu Weiqun ``further said they would like to hear 
our views on the degree or form of autonomy we are seeking as 
well as on all aspects of regional autonomy within the scope of 
the Constitution of the PRC.'' \41\ The Memorandum ``puts forth 
our position on genuine autonomy and how the specific needs of 
the Tibetan nationality for autonomy and self-government can be 
met through application of the principles on autonomy of the 
Constitution of the People's Republic of China, as we 
understand them.'' \42\

Party officials attack the Dalai Lama, press preconditions

    The day after the Dalai Lama's envoys returned to India, 
UFWD Head Du Qinglin said the Dalai Lama should ``fundamentally 
correct his political proposals.'' \43\ Du stated that ``at no 
time under no circumstances'' would China tolerate ``the 
slightest wavering or 
deviation'' on what Du characterized as the issue of 
``safeguarding national unification and territorial 
integrity.'' \44\ ``Any attempt to create ethnic secession or 
damage ethnic unity under the banner of `genuine ethnic 
autonomy' is absolutely impermissible,'' Du stated.\45\
    Du reiterated at the eighth round of dialogue\46\ a demand 
that the Dalai Lama personally fulfill the ``four no 
supports,'' \47\ a set of preconditions on the dialogue that Du 
initially pressed the envoys to deliver to the Dalai Lama 
during the July 2008 seventh round of dialogue.\48\ The new 
preconditions attempt to hold the Dalai Lama personally 
accountable for Tibetan views and activities that he does not 
support and that contradict his policies and guidance\49\--such 
as campaigning for Tibetan independence and discussing the 
potential use of violence in such a campaign. The ``four no 
supports'' pressure the Dalai Lama to take on the role of an 
active proponent of Chinese Government political 
objectives.\50\
    UFWD Executive Deputy Head Zhu Weiqun at a November 2008 
State Council Information Office (SCIO) press conference 
elaborated on the Chinese Government's rejection of the 
Memorandum.\51\ He accused ``the secessionist clique'' of 
seeking to weaken central government authority, reject National 
People's Congress legislative authority, and revise the PRC 
Constitution in an attempt to ``have the rights of an 
independent country.'' \52\ Zhu reasserted the government's 
refusal to discuss ``the Tibet issue,'' but he acknowledged 
government willingness to allow the Dalai Lama and ``some of 
those by his side'' to return to China if the Dalai Lama first 
fulfills a number of preconditions.\53\

Neither Chinese officials nor the Dalai Lama see progress

    Zhu said in the November 2008 SCIO press conference that 
the dialogue had made no progress and blamed the unsatisfactory 

result on the envoys' proposal to create a unified area of 
Tibetan administration.\54\ In a December 2008 televised 
interview, Zhu repeated the accusation that the Dalai Lama 
sought to establish ``Greater Tibet,'' and sought to discredit 
the Memorandum's rationale that a unified administrative area 
would help to safeguard ``the cultural characteristics and 
religious faith of the Tibetan nationality.'' \55\ In a March 
2009 interview, Zhu stated that the eighth round of dialogue 
was ``stuck in a very difficult position'' and once again 
faulted the Dalai Lama and his envoys.\56\ Zhu emphasized what 
he said was their failure to ``carry out their promise'' to 
abide by the requirements of the ``four no supports.'' \57\ 
(The Dalai Lama's Special Envoy rejected the demands during the 
seventh round of dialogue when UFWD officials introduced the 
demands.) \58\
    During the Commission's 2009 reporting year, the Dalai Lama 
expressed candidly his disappointment with the Chinese 
Government and his concern about the prospects for the Tibetan 
culture and heritage. ``Although my faith in the Chinese 
leadership with regard to Tibet is becoming thinner and 
thinner, my faith in the Chinese people remains unshaken,'' he 
told European parliamentarians in December 2008.\59\ In a May 
2009 interview, the Dalai Lama likened what he described as 
``the Tibetan nation, an ancient nation with a unique cultural 
heritage,'' as ``passing through something like a death 
sentence.'' \60\

         A DETAILED TIBETAN MEMORANDUM ON ``GENUINE AUTONOMY''

    The ``Memorandum on Genuine Autonomy for the Tibetan 
People'' \61\ (Memorandum) is unprecedented in that:

          (1) it is a document (publicly available) that the 
        Dalai Lama's envoys presented directly to Communist 
        Party officials in an effort to advance the dialogue;
          (2) it sets out on behalf of the Dalai Lama a more 
        detailed explanation of Tibetan aspirations for 
        ``genuine autonomy'' than has been available previously 
        or is available in the Dalai Lama's Middle Way Approach 
        (MWA); \62\ and
          (3) it sets out on behalf of the Dalai Lama an 
        analysis of whether or not the PRC Constitution and 
        Regional Ethnic Autonomy Law (REAL) \63\ can 
        accommodate Tibetan aspirations for ``genuine 
        autonomy.''

    The Memorandum reflects and elaborates on the principles 
set out in the Dalai Lama's MWA.\64\ The Memorandum cites the 
MWA in its introductory paragraph: ``The essence of the Middle 
Way Approach is to secure genuine autonomy for the Tibetan 
people within the scope of the Constitution of the PRC.'' The 
Dalai Lama's official Web site lists eight ``important 
components'' of the MWA.\65\ [See CECC, Special Topic Paper: 
Tibet 2008-2009 for a detailed report on the Memorandum.]

Memorandum addresses, has potential to resolve, question of Tibetan 
        Territory

    With respect to the meaning of ``Tibet,'' there have been 
two principal areas of disagreement between the Chinese 
Government and the Dalai Lama and his envoys. One issue is the 
territory to be recognized as ``Tibet''; the other issue is 
whether or not all of such territory should be unified into a 
single administrative area.
    The Memorandum's description of territory to be included in 
a single Tibetan administrative area appears to resolve the 
first of the two principal areas of divergence between the 
Chinese Government and the Dalai Lama. The Memorandum states 
explicitly that a single Tibetan administrative area should 
comprise ``all the areas currently designated by the PRC as 
Tibetan autonomous areas'' \66\--rather than include ``the 
three traditional provinces of Tibet,'' as the Middle Way 
Approach states.\67\ The area of the ``traditional provinces of 
Tibet'' \68\ is about 100,000 square miles greater than the 
total area of the Tibet Autonomous Region and the Tibetan 
autonomous prefectures and counties located in Qinghai, Gansu, 
Sichuan, and Yunnan provinces.\69\
    If, under the terms of the Memorandum, the Dalai Lama and 
his envoys seek to discuss unification only of areas the 
Chinese Government has already designated as Tibetan 
autonomous, then the remaining issue is whether or not a change 
of such magnitude is possible to China's administrative 
geography.\70\ Such changes to China's map could face 
formidable opposition, but they are possible in principle under 
the PRC Constitution and Regional Ethnic Autonomy Law. The PRC 
Constitution authorizes establishing and changing areas of 
administrative geography with the approval of the National 
People's Congress or the State Council, or both.\71\ At a March 
2009 Commission roundtable, three experts on the Tibet issue 
responded to a question on whether or not the Memorandum's 
focus on areas China has already designated as Tibetan 
autonomous would advance the dialogue and help to reduce 
Chinese Government insistence that the Dalai Lama is a 
``splittist.'' None of the experts believed the change would 
result in a positive response from the government.\72\

Memorandum's vision of autonomy and China's hierarchy of people's 
        congresses and governments

    The Memorandum, in a section on ``The Nature and Structure 
of the Autonomy,'' sets out the objective for Tibetans to 
exercise autonomous rights including the right to ``create 
their own regional government and government institutions,'' 
``legislate on all matters within the competencies of the 
region,'' and to ``execute and administer decisions 
autonomously.'' \73\ The Memorandum acknowledges, however, that 
the PRC Constitution impedes the function of autonomy:

        Although the needs of the Tibetans are broadly 
        consistent with the principles on autonomy contained in 
        the Constitution, as we have shown, their realisation 
        is impeded because of the existence of a number of 
        problems, which makes the implementation of those 
        principles today difficult or ineffective.\74\

    Provisions in the PRC Constitution pose formidable 
obstacles to the Memorandum's vision of autonomy by creating a 
state hierarchy of people's congresses,\75\ governments,\76\ 
courts,\77\ and procuratorates\78\ in which higher level 
institutions supervise lower level institutions. The PRC 
Constitution's language establishes that autonomous regions, 
prefectures, and counties--irrespective of their autonomous 
status--are integrated into the state's hierarchy and are 
subordinated to tiered supervision.\79\
    [See CECC, Special Topic Paper: Tibet 2008-2009 for a 
detailed discussion of the Memorandum's vision of autonomy and 
the PRC Constitution's provisions on the structure of the 
state.]

   Religious Freedom for Tibetan Buddhists: Tightening Control Over 
                  Tibetan Buddhism, Tibetan Buddhists

    Chinese Government and Communist Party interference with 
the norms of Tibetan Buddhism and unremitting antagonism toward 
the Dalai Lama, key factors underlying the March 2008 eruption 
of Tibetan protest, continued to deepen Tibetan resentment and 
fuel additional Tibetan protests during the Commission's 2009 
reporting year. The government is taking measures to further 
increase government and Party influence over the teaching and 
practice of Tibetan Buddhism. The Party-led campaign to 
discredit the Dalai Lama as a religious leader and to prevent 
Tibetans from respecting him as such intensified. Statements by 
Chinese officials indicate that the government is ready to lead 
the selection of a successor to the Dalai Lama (now age 74) 
when he passes away, and that the government expects Tibetan 
Buddhists to embrace such a development.\80\
    The government has in the past year used institutional, 
educational, legal, and propaganda channels to pressure Tibetan 
Buddhists to modify their religious views and aspirations. 
Escalating government efforts to discredit the Dalai Lama, 
Tibetan Buddhism's leading teacher, and to transform the 
religion into a doctrine that promotes government positions and 
policy has resulted instead in continuing Tibetan demands for 
freedom of religion and the Dalai Lama's return to Tibet.

 STRENGTHENED EFFORTS TO SEPARATE TIBETAN BUDDHISTS FROM THE DALAI LAMA

    The Chinese Government and Communist Party have increased 
efforts to portray the Dalai Lama's activity as an advocate on 
behalf of the Tibetan people and culture as a basis to deny him 
status as a religious figure. Seeking to end the Dalai Lama's 
stature among Tibetans as a paramount religious leader is 
central to the government campaign to promote what it refers to 
as ``stability'' and ``harmony'' in the Tibetan areas of China.

Government, Party, Buddhist Association leaders challenge Dalai Lama's 
        suitability as a religious figure

    Senior Chinese officials and media organizations conducted 
an offensive against the Dalai Lama's role as a religious 
leader and the right of Tibetan Buddhists to regard him as such 
during the period preceding a series of sensitive anniversaries 
and observances in February and March 2009.\81\ [See For 
Tibetans, Another Year of Heightened Security, Repression, 
Isolation--Rising Tension and a Crackdown as Sensitive Dates 
Approached, Passed in this section.] Minister of Foreign 
Affairs Yang Jiechi told a press conference in March that the 
Dalai Lama is ``by no means a religious figure but a political 
figure.'' \82\ A March People's Daily editorial reasoned that 
expressing political views is incompatible with status as a 
religious figure: `` `Democracy,' `government in exile,' `new 
parliament,' `Middle Way,' `negotiation and talks,' `actual 
progress' . . . . All these expressions are baffling: how could 
a `religious leader' have such explicit `political fervor? ' '' 
\83\ Jampa Phuntsog (Xiangba Pingcuo), Chairman of the Tibet 
Autonomous Region government, asserted in March that the 
government and Party as a matter of policy promote ``religious 
harmony''--and accused the Dalai Lama of having ``created 
disharmony among various religions and caused great confusion 
among the religious believers.''\84\
    The Buddhist Association of China (BAC), a ``patriotic 
religious organization'' \85\ established under Chinese 
Government regulation\86\ and charged with serving as a 
``bridge'' linking Buddhists to the Chinese Government and the 
Communist Party,\87\ provided an example of the dependency of 
religious stature on political conformity when the BAC decided 
not to invite the Dalai Lama to the March 2009 ``Second World 
Buddhist Forum.'' \88\ The organizers chose the theme, ``A 
Harmonious World, a Synergy of Conditions,'' for the forum, 
convened in Wuxi city, Jiangsu province.\89\ BAC Vice President 
Ming Sheng described the Dalai Lama as a ``political fugitive'' 
and accused him of having done ``lots of things to secede his 
motherland and go against his identity of being a Buddhist.'' 
\90\ Ming reiterated government preconditions of the Dalai Lama 
and asserted that the Dalai Lama had yet to satisfy the 
demands.\91\ Instead of the Dalai Lama, Gyaltsen Norbu, 
installed by the government as the Panchen Lama in 1995\92\ 
after the government rejected the Dalai Lama's recognition of 
Gedun Choekyi Nyima as the Panchen Lama,\93\ appeared at the 
forum.\94\

TAR Buddhist Association uses charter to isolate monks, nuns from the 
        Dalai Lama

    The ``Tibet Branch'' of the BAC in February 2009 amended 
its charter to pressure Tibetan Buddhist monks and nuns to 
regard the Dalai Lama as a de facto criminal\95\ and a threat 
to Tibetan Buddhism, according to a report in China's state-
controlled media.\96\ The revised charter ``urges'' monks and 
nuns to ``see clearly that the 14th Dalai Lama is the 
ringleader of the separatist political association which seeks 
`Tibet independence', a loyal tool of anti-China Western 
forces, the very root that causes social unrest in Tibet and 
the biggest obstacle for Tibetan Buddhism to build up its 
order.'' \97\ Language characterizing the Dalai Lama as a 
``separatist'' incorporated into the charter of a government-
designated ``religious organization'' increases the risk of 
punishment for monks and nuns who maintain religious devotion 
to the Dalai Lama even if they do not engage in overt political 
activity.\98\

Government-built Buddhist academy near Lhasa to teach politics along 
        with religion

    Officials announced in October 2008 the start of 
construction of the Tibet Autonomous Region's (TAR) first 
``comprehensive higher educational institution of Tibetan 
Buddhism'' \99\--a facility that will have the capacity to 
increase government supervision and standardization of Tibetan 
Buddhist education. A senior TAR Party 
official said on the day of the groundbreaking ceremony that 
the government-built facility\100\ ``aims to train patriotic 
and devotional religious personnel who are widely recognized 
both in their religious accomplishments and moral character.'' 
\101\ Instructors will also teach courses on nonreligious 
subjects such as ``politics and sociology,'' the Party official 
said.\102\ The first phase of construction on the 43-acre 
campus, located in Qushui (Chushur) county, adjacent to Lhasa 
city, will include a library and buildings to accommodate 
``religious activities'' and is scheduled to be completed in 
2010.\103\

   PATRIOTIC AND LEGAL EDUCATION: SEEKING TO RESHAPE TIBETAN BUDDHISM

    Chinese Government and Communist Party officials continue 
to respond to Tibetan criticism of government policy and 
implementation--including on ``freedom of religious belief'' 
\104\--with aggressive campaigns of ``patriotic education'' 
(``love the country, love religion'') \105\ and legal 
education.\106\ Patriotic education sessions require monks and 
nuns to pass examinations on political texts, agree that Tibet 
is historically a part of China, accept the legitimacy of the 
Panchen Lama installed by the Chinese Government, and denounce 
the Dalai Lama.\107\
    Officials justify such campaigns as legitimate and 
necessary state action by seeking to characterize (and 
conflate) a range of Tibetan objections to state policy into a 
purported threat to China's unity and stability. For example, 
officials including Tibet Autonomous Region (TAR) Party 
Secretary Zhang Qingli and Vice Minister of Public Security 
Zhang Xinfeng, speaking during a February 2009 teleconference 
on ``the work of maintaining social stability,'' called for 
``large numbers of party, government, military, and police 
personnel in Tibet to immediately go into action'' and 
``resolutely smash the savage attacks by the Dalai clique and 
firmly win the current people's war against separatism and for 
stability.'' \108\ Principal speakers\109\ at the 
teleconference stressed the importance of education campaigns 
in achieving such objectives:

        Party and government organizations at various levels, 
        large numbers of cadres, and the broad masses of people 
        in Tibet received profound education in patriotism and 
        warning education in separatism in the blood-and-fire 
        struggle against separatism, maintaining social 
        stability and safeguarding the sanctity of the 
        socialist legal system with their actual deeds.\110\

    The Party and government do not limit the application of 
ideological education campaigns that allegedly protect China's 
unity and stability to religious institutions. For example, a 
Party-run Web site reported in June 2009 that students at four 
TAR ``institutes of higher education'' \111\ would receive 
increased ``ideological and political education.'' \112\ Among 
the campaign goals were the creation of ``a defensive `Great 
Wall of Steel,' '' ``increasing anti-separatist, political, and 
ideological resources available on the school Web sites, and 
`cleaning up' and monitoring information on the internet.'' 
\113\ The campaign would ``aim to strengthen the opposition to 
the Dalai Clique's separatist activities and create a solid 
educational foundation.'' \114\ Each of the tertiary education 
institutions would conduct a speech contest with the theme, 
``Gratitude for progress, determination for success, give back 
to the community.'' \115\

Intensive period of patriotic, legal education aims for ``new order'' 
        in Tibetan Buddhism

    The government and Party increased the use of intensive 
campaigns to ``educate'' monks and nuns after protests spread 
through the ethnic Tibetan areas of China in March to April 
2008\116\ and maintained such campaigns during the Commission's 
2009 reporting year. A TAR Party official said on March 9, 
2009, the day prior to a sensitive March 10th anniversary,\117\ 
that in the period since March 14, 2008, more than 2,300 
officials had been dispatched to 505 TAR monasteries and 
nunneries\118\ to ``promote the legal awareness of monks and 
nuns and dissuade them from being duped by separatist forces 
and ensure the normal practice of Buddhism.'' \119\
    Following the issuance of regulations on Tibetan Buddhism 
in 2006\120\ and 2007,\121\ Party and government officials have 
increased the emphasis on the use of legal measures and ``legal 
education'' to pressure Tibetan Buddhists into compliance with 
a state-defined ``new order'' for the religion. Lobsang 
Gyaltsen (Luosang Jianzan), a senior TAR Party and Chinese 
People's Political Consultative Conference (CPPCC) official, 
said in a February 2009 address, ``Large numbers of patriotic 
monks and nuns should assist the government in strengthening 
the management of monasteries and religious affairs and 
improving monastic rules and religious discipline and 
contribute to building a new order in monasteries and religious 
activities.'' \122\ Another senior TAR CPPCC official, Vice 
Chairman Pasang Dondrub (Basang Dunzhu), called on the 
government in March 2009 to further strengthen policies and 
legal measures that would bring the Tibetan Buddhist 
institution more firmly under state control and ``shape 
behaviors of monks and nuns.'' \123\
    Officials intend to conduct patriotic and legal education 
lectures at an unknown number of monastic institutions during 
the period surrounding October 1, 2009, the 60th anniversary of 
the Party's establishment of the People's Republic of China, 
according to a TAR official's May 2009 remarks to Drepung 
Monastery monks.\124\ The official, Lobsang Dondrub (Luosang 
Dunzhu), Vice Chairman of the Standing Committee of the TAR 
People's Congress and vice director of a ``monastery work 
group,'' \125\ reportedly told the monks to adhere to ``Four 
Standards'' set out by TAR Party Secretary Zhang Qingli.\126\

Authorities eject 1,200 monks from Drepung, Sera; detention, education, 
        abuse follows

    Tibet Autonomous Region (TAR) implementing measures issued 
in 2006\127\ for the Regulation on Religious Affairs\128\ may 
have played a role in authorities' efforts to curtail and 
reverse the inter-provincial movement of monks seeking to study 
at other monasteries, especially at premier Tibetan Buddhist 
institutions, in the post-March 2008 period. Public security 
officials and monastic authorities in Drepung Monastery and 
Sera Monastery, both located in Lhasa city, sent back to their 
home provinces (mostly Qinghai, Gansu, and Sichuan) a total of 
at least 1,200 monks, according to an official March 2009 
Chinese media report.\129\ Seven hundred of the monks were 
visiting Drepung, and 500 were visiting Sera.\130\ The head of 
Drepung's Democratic Management Committee said that monks from 
elsewhere in the TAR and from other provinces ``often spent 
years at the monastery,'' and for the previous three years 
Drepung officials had not known the exact number of monks 
living at the monastery.\131\
    Authorities transferred 675 of the monks from Lhasa to 
Qinghai in late April 2008\132\ and held the monks in a 
``military detention center'' \133\ guarded by People's Armed 
Police\134\ near Golmud (Ge'ermu, Kermo) city in Haixi (Tsonub) 
Mongol and Tibetan Autonomous Prefecture, Qinghai province, 
where authorities forced the monks to participate in ``rule of 
law education'' classes.\135\ Another report described the 
classes as ``patriotic education.'' \136\ Authorities began 
returning the monks with Qinghai residency to their hometowns 
after three months of ``education,'' \137\ but it was late 
August 2008 before officials began to release monks with 
Sichuan province residency into the custody of government, 
Party, and public security officials from the monks' home 
areas.\138\ In Golmud, authorities allegedly subjected the 
monks to ``beatings and psychological torture,'' according to a 
media organization report, and ``many'' monks suffered illness 
as a result.\139\ Few details are available about the current 
status or well-being of the 1,200 monks. [See CECC, Special 
Topic Paper: Tibet 2008-2009 for more information on the 
expulsion of 1,200 monks from Drepung and Sera Monasteries.]

Official ``Warns'' Dalai Lama That Chinese Government Must Approve Next 
                               Dalai Lama

    Chinese officials during the Commission's 2009 reporting 
year adopted a more assertive tone in expressing determination 
to select the next Dalai Lama, and to pressure Tibetans living 
in China to accept only a Dalai Lama approved by the Chinese 
Government. Remarks in March 2009 by Tibet Autonomous Region 
(TAR) officials emphasized the government position that 
Tibetans will be permitted to regard as legitimate only a Dalai 
Lama approved by the government--as currently is the case for 
the Panchen Lama.\140\
    Jampa Phuntsog (Xiangba Pingcuo), Chairman of the TAR 
government, expressed confidence that Tibetan Buddhists living 
in China would not accept a (subsequent) Dalai Lama unless the 
Chinese Government approves that Dalai Lama. ``If the Dalai 
Lama does not follow the convention for political or other 
purposes,'' he said, ``I believe his reincarnation would not be 
acknowledged by religious people in Tibet, and the central 
government will never 
approve it.'' \141\ The assertion that the government ``will 
never approve'' a Dalai Lama unless the government supervises 
the Dalai Lama's selection would ensure that, under China's 
current policy and law, a Tibetan Buddhist (in China) who 
regards an ``unapproved'' Dalai Lama as legitimate would be 
violating Chinese law--just as it currently is illegal for a 
Tibetan Buddhist (in China) to regard as legitimate Gedun 
Choekyi Nyima,\142\ the Panchen Lama whom the Dalai Lama 
recognized in 1995.\143\ Chinese security officials and courts 
have treated expressions of devotion toward Gedun Choekyi Nyima 
as ``splittism'' (a crime under Article 103 of the PRC Criminal 
Law).\144\
    The government took no publicly reported steps during the 
Commission's 2009 reporting year to allow international 
observers to visit Gedun Choekyi Nyima,\145\ who turned 20 
years of age in April 2009.\146\ Chinese officials have held 
Gedun Choekyi Nyima and his parents in incommunicado custody at 
unknown locations since May 1995.\147\

Tibetan Development Initiatives Reinforce Government Priorities: Focus 
                                on 2020

    The Chinese Government pressed forward during the 
Commission's 2009 reporting year with a Communist Party-led 
development policy\148\ that prioritizes infrastructure 
construction and casts Tibetan support for the Dalai Lama as 
the chief obstacle to Tibetan development. The government, to a 
large extent, bases its positive representation of conditions 
in Tibetan areas on economic growth data,\149\ and on selective 
comparisons between pre-1949 Tibet\150\ and post-1978 reform-
era China.\151\ The government announced a major new 
infrastructure program--the ``redesign'' of Lhasa--that is 
scheduled for completion in 2020, the same year that the 
government plans to have ready for operation several new 
railways traversing sections of the Tibetan plateau. Tibet 
Autonomous Region (TAR) Communist Party Secretary Zhang Qingli 
and Minister of Railways Liu Zhijun discussed in May 2009 
accelerating the construction of railways that will access the 
TAR.\152\

PARTY LABELS DALAI LAMA, ``DALAI CLIQUE'' AS PRINCIPAL OBSTRUCTIONS TO 
                              DEVELOPMENT

    The Chinese Government and Communist Party conducted the 
anti-Dalai Lama campaign within the sphere of economic 
development, portraying in March 2009 the Dalai Lama and 
organizations that the government associates with the Dalai 
Lama as the chief obstruction to Tibetan development.\153\ 
Lhasa mayor Dorje Tsedrub (Duojie Cezhu) stated that ``sabotage 
from the Dalai Lama group remains the biggest obstacle in the 
way of Tibet's development,'' and that ``the violent riots on 
March 14 last year denied the autonomous region a good chance 
of development.'' \154\
    Legchog (Lieque), Chairman of the Standing Committee of the 
TAR People's Congress, asserted in March 2009, ``We can't 
engage in construction amid an earthquake and pursue 
development in time of turmoil.'' \155\ He blamed ``the Dalai 
Clique'' for ``incessant sabotage,'' and stated that 
``stability is the prerequisite for Tibet's development.'' 
\156\ The TAR People's Congress would ``strengthen legislation 
and law enforcement to fight separatism and ensure national 
security and regional stability,'' he said.\157\ The Party-run 
Tibet Daily asserted in October 2008 that the TAR is unique in 
China because of ``an extremely heavy task of promoting its 
economic and social development'' as ``the Dalai clique is 
trying its utmost to make disturbances and sabotages on the 
other.'' \158\ By characterizing the Dalai Lama as hostile to 
Tibetan development (as well as to national unity and 
stability, as explained above), the Party seeks to characterize 
the Dalai Lama as the principal threat to all three of the 
Party's principal policy objectives in the Tibetan autonomous 
areas of China: unity, stability, and development. [See 
Commission Annual Reports in 2004,\159\ 2005,\160\ 2006,\161\ 
2007,\162\ and 2008\163\ for more information on Chinese 
Government development policy in the Tibetan autonomous areas 
of China.]

        MAINTAINING THE PRIORITY OF INFRASTRUCTURE CONSTRUCTION

    The Communist Party and Chinese Government continue to 
prioritize development policies that Tibetans resent and that 
many Tibetans (including the Dalai Lama) believe threaten the 
Tibetan culture and environment. The Dalai Lama said in his 
March 10, 2009, address to Tibetans,\164\ ``Many 
infrastructural developments such as roads, airports, railways, 
and so forth, which seem to have brought progress to Tibetan 
areas, were really done with the political objective of 
sinicising Tibet at the huge cost of devastating the Tibetan 
environment and way of life.'' \165\ The result, the Dalai Lama 
said, is that, ``Today, the religion, culture, language and 
identity, which successive generations of Tibetans have 
considered more precious than their lives, are nearing 
extinction . . .'' \166\

Lhasa redesign to feature ``old'' and ``new'' downtowns by 2020

    Officials announced additional infrastructure projects in 
2009 that will have a transformative effect on some Tibetan 
areas, such as Lhasa, which the government aims to ``redesign'' 
by 2020,\167\ and Rikaze (Shigatse), the TAR's second largest 
city, scheduled to have railway service in 2010\168\ and an 
airport in 2011.\169\ Prioritizing infrastructure 
construction\170\ accords with the Great Western Development 
campaign that the State Council launched in 2000.\171\ Vague 
language in a March 2009 official media report on the State 
Council-approved plan to redesign Lhasa suggests that 
authorities aim to create a city with multiple centers that 
would include Lhasa's long-established Tibetan community (an 
``old'' downtown) and one or more forthcoming urban centers 
(``new'' downtowns). ``(Authorities) ought to coordinate the 
relations between the ancient and modern civilizations, between 
the old and new downtowns, and between natural and humanistic 
resources,'' the State Council reportedly said in its approval 
of the plan.\172\ The result should be ``a coordinated and 
distinctive modern metropolis.'' \173\
    Population in the redesigned Lhasa may soar, depending on 
the meaning of the plan's reported recommendation to cap 
Lhasa's ``downtown population'' at ``less than 450,000 
persons.'' \174\ Such an urban population figure would be 
approximately 2.5 times greater than the current population of 
Lhasa city, and nearly equal to the total population of Lhasa 
municipality--a prefectural-level area that includes Lhasa city 
as well as seven counties.\175\ According to data on the 2007 
Lhasa municipality population available in the 2008 Tibet 
Statistical Yearbook, the total population of Lhasa 
municipality was approximately 465,000 persons,\176\ and the 
population of Lhasa city itself was approximately 182,000 
persons.\177\

Officials acknowledge Tibetan resentment against the ``floating 
        population,'' but call for more, better migrant services

    The announcement of Lhasa's redesign is concurrent with 
official acknowledgment that Tibetan resentment against 
increasing numbers of non-Tibetan workers and traders\178\ 
traveling into the Tibet Autonomous Region (TAR) was a factor 
in the March 14, 2008, Lhasa riots (the ``3.14 
incident'').\179\ The government acknowledged the role of the 
Qinghai-Tibet railway in facilitating such an increase.\180\ 
Official TAR population statistics, however, show little 
increase in the number of non-Tibetans in the TAR following the 
start of railway operation. Most reports in China's state-
controlled media blamed rioting on ``the Dalai Clique.'' Jampa 
Phuntsog (Xiangba Pingcuo), Chairman of the TAR government, 
speaking at a March 2009 press conference, said Tibetans killed 
18 persons, injured nearly 400 persons, and damaged or 
destroyed more than 1,000 businesses, shops, and residences 
during the Lhasa rioting.\181\ He expressed sympathy for the 
victims, whom he linked to the Qinghai-Tibet railroad and the 
issue of the ``floating population.'' \182\
    Zhang Yijiong, Vice Chairman of the TAR government, in 
September 2008 addressed the first meeting of the ``Working 
Group for Service and Supervision of Floating Population in the 
TAR'' and described the floating population as ``a major force 
behind constructing a prosperous, peaceful, and harmonious 
Tibet.'' \183\ Zhang told the working group that ``the work of 
service and supervision of Tibet's floating population has 
encountered many new situations'' in recent years following the 
``increasing strength of reform and opening up,'' and 
``especially'' following the opening of the Qinghai-Tibet 
railway. He advised the working group that ``serving and 
supervising the floating population'' should be a high 
priority, and called on all levels of the government and Party 
to ``help them resolve practical hardships and problems'' and 
to ``provide them with more and better basic public services.'' 
\184\ Members of the floating population who travel to the TAR 
should ``equally enjoy the achievements of economic and social 
development, and realistically feel the warmth of the Party and 
government,'' Zhang said.\185\
    The Communist Party-published Lhasa Evening News (LEN) 
provided in February 2009 a rare fragment of information about 
the size of Lhasa city's floating population.\186\ The fragment 
lacks context and is difficult to interpret, yet it suggests 
that the size of the city's population of itinerant workers is 
substantial and (at times) could be similar to the size of the 
city's ``official'' population. Party officials\187\ registered 
a total of 183,926 persons as ``temporary residents'' in Lhasa 
municipality's urban area (the Chengguan district) during a 
period that began in June 2008,\188\ LEN said. For the purpose 
of comparison, the figure of 183,926 ``temporary residents'' 
registered in Chengguan district during a period of several 
months beginning in June 2008 is similar to the entire 2007 
Chengguan population recorded in the 2008 Tibet Statistical 
Yearbook: 181,191.\189\
    [See CECC, Special Topic Paper: Tibet 2008-2009 for a 
discussion of TAR population statistics that show little 
increase in non-Tibetan population after the start up of the 
Qinghai-Tibet railway.]

Railway logistics center opens, will support by 2020 TAR rail links 
        with surrounding provinces

    Officials announced in April 2009 that construction of the 
TAR's largest rail traffic logistics center, located near the 
capital of Naqu (Nagchu) prefecture, would be complete in June 
2009.\190\ An April 20 official Chinese media report said that 
the center would be complete in June 2009,\191\ but the 
facility began operation on August 17, according to a 
subsequent report.\192\ The 1,317-acre\193\ Naqu Logistics 
Center, seven kilometers long and one and one-half kilometers 
wide,\194\ is intended to support TAR rail links with Qinghai, 
Sichuan, Gansu, Shaanxi, and Yunnan provinces, and possibly to 
the Xinjiang Uyghur Autonomous Region.\195\ A November 2008 
official media report reflected the government's ambition for 
the reach of the logistics center by referring to it as ``the 
bridge tower for landway of south Asia.'' \196\ Railways 
entering the eastern TAR from Chengdu city in Sichuan province 
and Kunming city in Yunnan province will pass through Naqu 
before arriving in Lhasa.\197\
    The Commission reported in its 2008 Annual Report that a 
Ministry of Railways official announced in August 2008 that the 

government expects to complete construction of six new rail 
lines feeding into the Qinghai-Tibet railway by 2020,\198\ the 
same year that Lhasa's ``redesign'' is scheduled to be 
complete. [See Lhasa 
Redesign To Feature ``Old'' and ``New'' Downtowns by 2020 in 
this section.] Authorities had announced two of the six rail 
lines (Lhasa-Rikaze, and Lhasa-Linzhi) prior to 2008.\199\ In 
May 2009, TAR Party Secretary Zhang Qingli and Minister of 
Railways Liu Zhijun held a forum on accelerating the 
construction of railways that will access the TAR.\200\ In 
August 2009, China's state-run media announced that work on the 
Sichuan-Tibet railway would begin in September.\201\ Passengers 
departing from Chengdu, the capital of Sichuan province, will 
complete the 1,629-kilometer journey to Lhasa in only eight 
hours on an electric railway capable of operating at speeds 
above 200 kilometers per hour.\202\ The 254 kilometer westward 
extension of the Qinghai-Tibet railway from Lhasa to Rikaze 
(Shigatse) is scheduled for completion in 2010, according to an 
April 2009 official media report.\203\ [See CECC, Special Topic 
Paper: Tibet 2008-2009 for information on government plans to 
construct additional railways traversing Tibetan autonomous 
areas of China, and continuing official warnings that global 
warming could threaten the Qinghai-Tibet railway.]

Hu Jintao calls for more ``socialist new villages''

    On March 9, 2009, President Hu Jintao urged Tibet 
Autonomous Region (TAR) deputies to the National People's 
Congress (NPC) to ``vigorously advance'' the program of 
constructing ``socialist new villages'' \204\--an initiative 
that establishes greater control over the Tibetan rural 
population by implementing programs that will bring to an end 
the traditional lifestyle of Tibetan nomadic herders by 
settling them in fixed communities, and reconstructing or 
relocating farm villages.\205\ The program to construct 
``socialist new villages'' is part of the Great Western 
Development campaign,\206\ which the State Council implemented 
in 2000.\207\ The Commission's 2008 Annual Report noted that 
the program is nearing completion throughout Tibetan areas, 
disrupting an important sector of the Tibetan culture and 
economy.\208\ Tibetan nomads participated in the wave of 
protests following March 10, 2008, in substantial numbers, 
including in counties where no Tibetan political protests had 
been recorded since the current period of Tibetan political 
activism began in 1987.\209\
    China's state-run media reported in August 2009 that a 
program to settle 55,700 nomadic herders living in the 
Sanjiangyuan National Nature Reserve (SNNR) in Qinghai province 
would be complete in 2010.\210\ In the past four years nearly 
50,000 herders from almost 10,600 families ``have bidden 
farewell to nomadic life and settled down in brick houses'' in 
86 newly constructed ``immigrant communities,'' an official 
said.\211\ Nearly all of the settled nomads are likely to be 
Tibetans, based on official Chinese census data for the 
counties within the SNNR.\212\
    President Hu called for more ``socialist new villages'' as 
part of the drive to promote development and stability as a 
means to ``reinforce the solid Great Wall for combating 
separatism and safeguarding national unity.'' \213\ The call 
for ``a Great Wall of stability'' preceded ``several sensitive 
dates in Tibet.'' \214\ Hu told the NPC deputies that the TAR 
``must stick to the development road with Chinese 
characteristics and Tibetan features.'' \215\ Hu's description 
of the government's approach to Tibetan development, 
identifying the main components (``characteristics'') of the 
developmental model as Chinese, and the superficial aspects 
(``features'') as Tibetan, is consistent with the government's 
implementation of the Regional Ethnic Autonomy Law. [See Status 
of Negotiations Between the Chinese Government and the Dalai 
Lama or His Representatives--A Detailed Tibetan Memorandum on 
``Genuine Autonomy''--Memorandum's Vision of Autonomy and 
China's Hierarchy of People's Congresses and Governments in 
this section.]

Confrontation over mining, hydroelectric projects; one possible 
        successful resolution

    Confrontations between Tibetans and Chinese Government and 
security officials resulted in 2009 when Tibetans protested 
against natural resource development projects.\216\ One 
incident appears to provide an unusual example of local Tibetan 
stakeholders' objecting to a development project and reaching a 
satisfactory negotiated agreement with government officials. 
The other incident involves Tibetans protesting against 
upcoming forced relocation to accommodate the construction of a 
hydroelectric project.
    In the first incident, Tibetans objected to the planned 
start of a gold mining operation on a mountain Tibetan 
Buddhists regard to be a sacred site in Mangkang (Markham) 
prefecture, Tibet Autonomous Region, and began to protest 
against the project months before the issue came to a head in 
May.\217\ By mid-May, as many as 500 local Tibetans entered 
into a standoff with Chinese Government and security officials 
as the Tibetans sought to block a bridge that provided access 
to the mining site.\218\ On June 8, Tibetans agreed to an 
arrangement that would cancel the planned mining operation and 
provide environmental cleanup and testing of existing mining 
waste that Tibetans said is ``poisonous.'' \219\ A source told 
Radio Free Asia that ``all the points of the agreement were set 
down in writing'' in the presence of government officials.\220\ 
No information is available on whether or not government and 
mining company officials signed the agreement, or if the 
agreement is legally binding. Nonetheless, the government 
decision to engage local Tibetans to resolve a disagreement on 
an economic development issue represents a positive 
development.
    In the second incident, an India-based Tibetan non-
governmental organization (NGO) reported that on May 24, 
officials told Tibetans in Yajiang (Nyagchukha) and Daofu 
(Tawu) counties, Ganzi (Kardze) Tibetan Autonomous Prefecture, 
Sichuan province, that construction would begin on a large 
hydroelectric dam, displacing a large number of Tibetans from 
their village homes.\221\ When Tibetans began to protest and 
shout their refusal to give up their ``ancestral dwelling 
place,'' public security officials and People's Armed Police 
allegedly used tear gas and gunfire to disperse the Tibetans, 
reportedly wounding six Tibetan women.\222\ The NGO report 
provided no details about the dam, and Commission staff had 
seen no confirmation of the alleged shooting as of June 2009. 
Commission staff analysis suggests that the dam may be the 
Lianghekou Hydroelectric Project, currently in a preparatory 
stage of construction in Yajiang county, south of Daofu, at the 
confluence of the Yalong and Xianshui rivers.\223\

    For Tibetans, Another Year of Heightened Security, Repression, 
                               Isolation

    The Chinese Government and Communist Party crackdown on 
Tibetan communities, monasteries, nunneries, schools, and 
workplaces following the wave of Tibetan protests that began on 
March 10, 2008, continued during the Commission's 2009 
reporting year.\224\ As of September 2009, the Commission had 
not seen public reports suggesting that Chinese authorities had 
lessened repressive security measures in Tibetan communities.
    Chinese authorities continued to attempt to prevent 
information from leaving ethnic Tibetan areas on the abuse, 
detention, and punishment of peaceful Tibetan protesters; the 
political detention of Tibetans for non-protest activity; 
patriotic and legal education campaigns; other measures to 
enforce what the government and Party describe as 
``stability''; and measures by officials to restrict or prevent 
the flow of information about conditions in Tibetan areas of 
China.\225\ During the Commission's 2009 reporting year, 
Chinese judicial officials have sentenced to lengthy terms of 
imprisonment Tibetans who shared information about Tibetan 
protests with individuals or groups outside of China.\226\ 
Authorities also took measures in various locations to prevent 
Tibetans from receiving information originating outside of 
China via the Internet.\227\ According to a June 2009 Radio 
Free Asia (RFA) report, government staff in Gannan (Kanlho) 
Tibetan Autonomous Prefecture (TAP) resorted to destroying 
satellite dishes that enabled Tibetans to receive Tibetan-
language RFA and Voice of America television broadcasts.\228\
    International media organizations reported that Chinese 
authorities took measures to close Tibetan areas to foreign 
travelers (including international journalists) in advance of 
sensitive dates in 2009.\229\ [See Rising Tension and a 
Crackdown as Sensitive Dates Approached, Passed in this 
section.] Several foreign journalists reported being expelled 
from unspecified Tibetan-populated areas of China during the 
first week of February, according to an international media 
organization report that did not name the journalists.\230\ In 
early March, People's Armed Police detained a New York Times 
reporter at a checkpoint in Gannan TAP.\231\ Public security 
officials ``interrogated'' him and put him on a plane to 
Beijing.\232\ [See Section II--Freedom of Expression, for more 
information on international journalists' access to Tibetan 
areas.]

  RISING TENSION AND A CRACKDOWN AS SENSITIVE DATES APPROACHED, PASSED

    Security measures intensified in some Tibetan areas during 
a months-long period that bracketed a series of three sensitive 
anniversaries and observances in February and March 2009.\233\ 
In each case, Chinese Government and security officials sought 
either to pressure Tibetans to participate in a publicly 
visible event when 
Tibetans preferred not to do so, or to prevent Tibetans from 
participating in a publicly visible event (a political protest) 
when some Tibetans may have wished to do so. The first date, 
February 25, was an instance when some Tibetans chose to 
``boycott'' (i.e., not to celebrate) Tibetan New Year 
(Losar),\234\ but Chinese officials pressed Tibetans to 
celebrate in the customary fashion.\235\ The second date, March 
10, was the anniversary of a key event in modern Tibetan 
political history (the 1959 ``Tibetan People's Uprising'' in 
Lhasa),\236\ and marked the potential for renewed Tibetan 
protest--a possibility that Chinese security officials were 
determined to prevent.\237\ March 10 was also the first 
anniversary of the start of Tibetan protests in 2008. The third 
date, March 28, was an instance when Tibetans sought to avoid 
participating in an official holiday (``Serfs Emancipation 
Day'') that celebrated the 1959 dissolution of the former 
Tibetan government in Lhasa,\238\ but Chinese officials staged 
closely managed ceremonies anyway.
    In a March 13, 2009, Commission roundtable, a U.S. expert 
on Tibet linked the creation of ``Serfs Emancipation Day'' to 
government attempts to counter expressions of Tibetan 
nationalism on March 10, and to the collapse of the China-Dalai 
Lama dialogue. [See Status of Negotiations Between the Chinese 
Government and the Dalai Lama or His Representatives in this 
section.]

        Now March is with us, and the struggle is between the 
        Tibetan adherence to marking March 10 as a national day 
        . . . and China's determination to purge the month of 
        any such significance by instituting instead a new 
        holiday: March 28, Serfs Emancipation Day. . . . The 
        creation of this new holiday is relevant to our 
        understanding of the collapse of talks between the 
        Dalai Lama's representatives and the Chinese Government 
        in November. . . . [The Chinese Government] rejected 
        any compromise with the Dalai Lama on any of his 
        proposals about the nature of autonomy within Tibet and 
        stated that, while the door was open for him to return, 
        he would have to recognize the errors of his ways. . . 
        . China's decision to recognize and commemorate March 
        28, 1959 as Serfs Emancipation Day put 1959 back on the 
        table and signaled that the talks really are at a dead-
        end. But that was already clear.\239\

    Officials in Lhasa implemented a ``strike hard'' anticrime 
campaign from mid-January until late March 2009--a period of 
time that bracketed all three sensitive dates--according to a 
series of reports in the Communist Party-run Lhasa Evening News 
(LEN).\240\ The campaign's stated aim, LEN reported, was to 
``strike hard according to law against all kinds of illegal 
criminal activity and to vigorously uphold the city's social 
order and stability.'' \241\ Public security officials 
conducted checks of residences, hotels, guest houses, bars, and 
Internet cafes to confirm whether or not the persons they 
encountered had a residence permit for Lhasa.\242\ During the 
campaign's first week, police checked 8,424 persons and found 
only 148 (1.8 percent) who did not have an appropriate permit. 
Public security officials detained a total of 51 of the 8,424 
persons (0.6 percent) on suspicion of criminal activity, 
including 30 on suspicion of theft, burglary, and prostitution. 
Two of the detainees had ``reactionary discussion'' and 
``reactionary songs'' on their cell phones, LEN reported.\243\

a ``farming boycott movement'' results in threats, detention, beatings, 
                                shooting

    Tibetan agricultural communities in some areas of Ganzi 
Tibetan Autonomous Prefecture (TAP) undertook a ``farming 
boycott movement'' beginning in March 2009, based on reports 
published in March and April.\244\ The protests were based on a 
``civil disobedience'' \245\ model and entailed Tibetan 
farmers' refraining from tilling their land and planting crops 
at the usual time.\246\ The farming boycott was a Tibetan 
attempt to address the same grievances that the Losar boycott 
did: the death and imprisonment of Tibetan protesters in 2008, 
and the ongoing crackdown since the protests.\247\ Tibetans 
adopted the same passive strategy for the farming boycott that 
they did for Losar--avoiding direct protest activity, and 
instead refraining from carrying out normal activity.
    Officials in Ganzi (Kardze), Luhuo (Draggo), and Xinlong 
(Nyagrong) counties in Ganzi TAP sought to force farmers to 
resume normal farming activity,\248\ and threatened farmers 
with 
confiscation of their land if they did not comply.\249\ Public 
security officials detained Tibetans in connection with the 
boycott in each of the counties.\250\ After reports in July of 
May detentions linked to the boycott in Jiangda (Jomda) 
county,\251\ Changdu (Chamdo) prefecture, TAR, the Commission's 
Political Prisoner Database contained 31 records of detention 
linked to the farming boycott--a figure certain to be 
incomplete because some reports did not name all of the 
detainees, and it is unlikely that reports on every instance of 
detention have reached the international community. Security 
officials reportedly beat Tibetans upon detention, in some 
cases so severely that authorities reportedly hospitalized the 
detainees for treatment of their injuries.\252\ A Tibetan monk, 
Phuntsog Rabten, died from a beating on March 25 after 
officials caught him putting up posters urging Tibetans to 
support the farming boycott, according to reports.\253\ On 
April 15, armed security forces in Xinlong county reportedly 
opened fire on Tibetans protesting peacefully against a court 
verdict, and against the crackdown that followed the farming 
boycott.\254\ The report stated that the shooting resulted in 
``injuries,'' but provided no details.\255\

            Political Detention and Imprisonment of Tibetans

    The series of Tibetan political protests that began in 
Lhasa on March 10, 2008,\256\ and the resulting Chinese 
Government and Communist Party crackdown on Tibetan 
communities, continued during the Commission's 2009 reporting 
year. The surge in the number of Tibetan political detainees 
and prisoners beginning in March 2008 appears to be the largest 
since the current period of Tibetan political activism began in 
1987.\257\ As of September 2009, the Commission's Political 
Prisoner Database (PPD) recorded the detention or imprisonment 
of 517 Tibetans in 2008 and an additional 153 Tibetans in 2009 
for engaging in activity such as staging peaceful political 
protests. These figures are certain to be incomplete. [See 
chart titled Tibetan Political Detention by Year, 1987-2009 
below.] Based on PPD information, the number of news media and 
non-governmental organization reports of Tibetan political 
protests that contained detailed information about the 
political detention\258\ of Tibetans declined steeply from May 
to August 2008,\259\ the period preceding and during the 2008 
Beijing Summer Olympic Games.\260\ The number of reports of 
Tibetan political detention remained at a very low level until 
December 2008,\261\ and then climbed during January to April 
2009. [See chart titled Tibetan Political Detentions Recorded 
Per Month: September 2007 to August 2009 below.]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                       PROTESTERS PERSIST, ADAPT

    Tibetan protesters resumed in January 2009 their calls for 
Tibetan independence (or Tibetan ``freedom''),\262\ the Dalai 
Lama's return to Tibet, and freedom of religion, as a series of 
sensitive observances and anniversaries in February and March 
2009 approached and passed. For the period January to April 
2009 (the 
period bracketing the sensitive dates in February and March), 
the PPD records 119 political detentions of Tibetans, a figure 
certain to be incomplete. [See chart titled Tibetan Political 
Detentions Recorded Per Month: September 2007 to August 2009 
above.] As a result of increased government security measures 
and harsh action against protesters, Tibetan political protests 
in 2009 were smaller and of briefer duration than the protests 
of March and April 2008. Tibetan protesters faced the presence 
of well-entrenched security forces tasked with ensuring 
``social stability.'' \263\ Security officials allegedly 
sometimes used excessive force such as beating protesters with 
batons, metal rods, or rifle butts.\264\
    Tibetans staging political protests during the Commission's 
2009 reporting year remained peaceful with two alleged 
exceptions, based on Commission staff monitoring.\265\ One 
incident, in March 2009 in Qinghai province, followed the 
apparent suicide of a Ragya Monastery monk immediately after he 
escaped police custody.\266\ Angry monks and other Tibetans 
``attacked'' a township police station when they learned of the 
death and allegedly caused ``minor injuries'' to government 
workers, according to an official Chinese media report.\267\ 
The report provided no details about the government victims or 
their alleged injuries. In another incident, a public security 
official alleged in June 2009 that Tibetan protesters in an 
eastern Tibetan Autonomous Region (TAR) county had beat a 
village head, but provided no details about the alleged 
incident.\268\ Tibetans have set off small explosions in a few 
instances that caused limited property damage but no 
casualties, according to reports by China's official media and 
international media reports.\269\
    Deaths of peaceful Tibetan protesters while in police 
custody, including a death that resulted from an alleged lethal 
beating, occurred during this reporting year. Three reported 
cases were of deaths within a relatively short period of 
detention or attempted detention: Pema Tsepag,\270\ monk Tashi 
Zangpo,\271\ and monk Phuntsog Rabten.\272\ In each case, the 
victim's friends, family members, or associates were nearby, 
learned of the death, and were able to convey information about 
the death to destinations outside of China.
    [See CECC, Special Topic Paper: Tibet 2008-2009 for 
information on Chinese authorities' targeting and detaining 
Tibetan writers and publishers.]

 WHERE ARE THE TIBETAN POLITICAL PROTESTERS? DETAINED, IMPRISONED, OR 
                               RELEASED?

    The scale of the wave of Tibetan protests that began on 
March 10, 2008, and of the surge in political detention of 
Tibetans, far surpasses the amount of information available 
about the detainees.\273\ The Chinese Government has provided 
almost no information about Tibetans whom security officials 
detained for peacefully protesting, or for peacefully 
expressing their views through means other than staging a 
political protest. As a result, non-governmental organizations 
and issue experts face (at present) insurmountable obstacles in 
creating an accurate account of the number of Tibetan political 
detainees and their status under China's legal system (e.g., 
detained, released, imprisoned, or serving reeducation through 
labor).
    The Commission's Political Prisoner Database (PPD), for 
example, contained as of September 2009 a total of 670 records 
of Tibetans detained on or after March 10, 2008, for exercising 
rights such as the freedoms of speech, religion, assembly, and 
association. Of those 670 records--a number certain to be far 
short of the true number of political detentions during the 
period--the PPD listed 643 Tibetans as currently known or 
believed to be detained or 
imprisoned. The other 27 persons are recorded as released or 
deceased. Of the 643 records that indicate current detention or 
imprisonment, the PPD provided a sentence length for only 105 
records--a figure certain to be incomplete. A total of 538 of 
the 643 records of current detention contain no information 
about charges or sentencing. It is likely that Chinese 
authorities have sentenced some of those 538 Tibetans and 
released many of the others.
    The Chinese Government's failure to provide adequate 
information about the detention, prosecution, and release of 
Tibetans 
detained since March 10, 2008, makes it impossible for the 
Commission to determine which existing PPD records should 
reflect current detention or imprisonment, and which records 
should reflect release. In addition, missing and incomplete 
information prevents the Commission from creating additional 
records of Tibetan political detention to represent Tibetan 
political detainees and prisoners not yet recorded in the PPD. 
As a result, the PPD cannot accurately reflect the current 
status of an unusually large number of Tibetan political 
detainees and prisoners.

Summary information: Tibetan political detention and imprisonment

    As of September 2009, the Commission's Political Prisoner 
Database (PPD) contained records of 715 Tibetan political 
prisoners believed to be currently detained or imprisoned. Of 
those 715 records of current Tibetan political imprisonment, 
643 are records of Tibetans detained on or after March 10, 
2008, and 72 are records of 
Tibetans detained prior to March 10, 2008. It is certain that 
PPD information is far from complete for the period after March 
10, 2008. [See Where Are the Tibetan Political Protesters? 
Detained, Imprisoned, or Released? in this section.]
    More than half (342) of the 643 Tibetan political prisoners 
believed to be currently detained or imprisoned and who were 
detained on or after March 10, 2008, are detained or imprisoned 
in Sichuan province, according to PPD data. The rest of the 
Tibetan political prisoners believed to be currently detained 
or imprisoned and who were detained on or after March 10, 2008, 
are detained or imprisoned in the Tibet Autonomous Region (TAR) 
(129), Gansu province (92), Qinghai province (79), and Yunnan 
province (1) according to PPD information. The 72 Tibetans 
currently detained or imprisoned and who were detained prior to 
March 10, 2008, are detained or imprisoned in the TAR (35), 
Sichuan (30), Qinghai (4), or in an unknown location (3), 
according to PPD data.
    Tibetan Buddhist monks and nuns make up 445 (62 percent) of 
the 715 cases of current Tibetan political detention and 
imprisonment, according to information available in the PPD. Of 
those 445 persons, 107 are nuns, 332 are monks, and the gender 
of 6 persons is unknown. Of the 107 nuns, 103 were detained on 
or after March 10, 2008; of the 332 monks, 292 were detained on 
or after March 10, 2008.
    Sentencing information is available for only 146 of the 715 
Tibetans the PPD records as believed to be currently imprisoned 
or 
detained, according to PPD data as of September 2009. Of the 
146 Tibetan political prisoners for whom sentencing information 
is available, 104 were detained on or after March 10, 2008. The 
104 sentences range in length from six months to life 
imprisonment.\274\ The average length of the 104 sentences 
imposed on Tibetan political prisoners detained on or after 
March 10, 2008, is approximately four years and eight 
months.\275\ Of the 146 Tibetan political prisoners for whom 
sentencing information is available, 42 were detained prior to 
March 10, 2008. The 42 sentences range in length from three 
years to life imprisonment. The average length of the 42 
sentences currently being served by Tibetan political prisoners 
detained prior to March 10, 2008, is approximately 12 years and 
8 months.
    A Tibetan non-governmental organization based in India 
reported in April 2009 that former Tibetan monk Jigme 
Gyatso\276\ (detained in 1996 and serving an extended 18-year 
sentence for printing leaflets, distributing posters, and later 
shouting pro-Dalai Lama slogans in prison) is ``seriously ill 
following years of torture and ill-treatment.'' \277\ The 
report provided no details on the illness. Jigme Gyatso is due 
for release in March 2014.\278\ The Commission is not aware of 
new developments in the cases of monk Choeying Khedrub\279\ 
(sentenced in 2000 to life imprisonment for printing leaflets); 
reincarnated lama Bangri Chogtrul\280\ (detained in 1999 and 
serving a sentence of 18 years commuted from life imprisonment 
for ``inciting splittism''); or nomad Ronggyal Adrag (sentenced 
in November 2007 to 8 years' imprisonment for shouting 
political slogans at a public festival).\281\

  TIBETANS IN GANZI TAP DOMINATE REPORTS OF PEACEFUL PROTEST ACTIVITY

    Ganzi (Kardze) Tibetan Autonomous Prefecture (TAP), Sichuan 
province, continues to be the area where Tibetans are most 
active in political protest against Chinese policies and 
implementation,\282\ based on information available in the 
Commission's Political Prisoner Database (PPD). Political 
detention of Tibetans in Ganzi 
accounted for 284 of the 670 political detentions of Tibetans 
(42 percent) in the period beginning March 10, 2008, based on 
information available in the PPD as of September 2009. It is 
certain that PPD documentation of Tibetan political detention 
since March 10, 2008, is incomplete. Political detention in 
Ganzi TAP accounted for 67 of the 119 Tibetans (56 percent) 
detained during the January to April 2009 period bracketing 
sensitive anniversaries and observances, according to PPD data 
as of September 2009.
    Buddhist monks and nuns make up a significant proportion of 
PPD records of Tibetans detained in Ganzi TAP for political 
activity since March 10, 2008: 180 of the 284 PPD records (63 
percent) of such political detentions are of Tibetan Buddhist 
monks and nuns,\283\ based on PPD data as of September 2009. 
Unusually, the number of Tibetan Buddhist nuns detained in the 
period beginning on March 10, 2008, surpasses the number of 
monks: 104 nuns and 76 monks. The high proportion of nuns is 
due to a large number of Pangri Nunnery nuns detained during a 
May 14, 2008, protest march.\284\
    Tibetan political protests in Ganzi TAP during the 
Commission's 2009 reporting year generally have been 
small\285\--about half were carried out by a single person 
based on information available in the PPD--but the protests 
have been relatively numerous. For example, at least 19 of the 
30 protests in the January to March period that resulted in a 
PPD detention record took place in Ganzi TAP, based on PPD data 
as of May 2009.\286\ At least 9 of those 19 Ganzi TAP protests 
were carried out by a single Tibetan.\287\ Although such 
protests are small, they reflect an individual's decision to 
undertake risk in order to make a public statement.
    [See CECC, Special Topic Paper: Tibet 2008-2009 for 
information on the political detention, criminal prosecution, 
and legal defense of Phurbu Tsering, a Tibetan Buddhist teacher 
in Ganzi TAP.]

     LHASA COURT HANDS DOWN LONG SENTENCES FOR SHARING INFORMATION

    The Communist Party-run Lhasa Evening News (LEN) provided 
in November 2008 the first (and, so far, only) \288\ detailed 
official information about Tibetans convicted and sentenced to 
terms of imprisonment for nonviolent activity that authorities 
seek to link to rioting on March 14, 2008, in and near 
Lhasa.\289\ The LEN report asserted that a total of seven 
Tibetans prosecuted in four different cases had ``endangered 
state security.'' \290\ All of the cases involved providing 
information (``intelligence'') to Tibetan organizations based 
in India that are part of what the Chinese Government and 
Communist Party refer to collectively as ``the Dalai Clique.'' 
\291\ The Lhasa Intermediate People's Court sentenced one 
Tibetan to life imprisonment and six Tibetans to fixed terms of 
imprisonment ranging from 8 to 15 years on charges of 
``espionage'' (PRC Criminal Law, Article 110) or ``illegally 
sending intelligence abroad'' (PRC Criminal Law, Article 
111).\292\ The charges and sentences show how China's law 
enforcement and judicial officials are able to exercise broad 
discretion in identifying and punishing behavior that they deem 
to ``concern'' or ``harm'' China's security, honor, and 
interests. The PRC Constitution (Article 54) states that 
Chinese citizens ``must not commit acts detrimental to the 
security, honor, and interests of the motherland.'' \293\ The 
Criminal Law chapter on ``Crimes of Endangering National 
Security'' (Articles 102 to 113), however, mentions the 
``security'' of the state only once (in Article 102) and only 
with respect to colluding with a ``foreign State'' \294\--a 
description that is not applicable to what the Chinese 
Government refers to as ``the Dalai Clique.''

  Lhasa Intermediate People's Court: Punishing Tibetans for Sharing Information With ``the Dalai Clique'' \295\
----------------------------------------------------------------------------------------------------------------
  Pinyin Name
 Tibetan Name    Alleged Activity    Criminal Charge   Criminal Law       Sentence Date         Sentence Length
----------------------------------------------------------------------------------------------------------------
Wangdui         Copied              ``Espionage''     Art. 110       October 27, 2008         Life imprisonment
Wangdu           ``splittist'' CD-
                 ROMs and
                 leaflets; sent
                 ``intelligence''
                 to ``the Dalai
                 Clique''
----------------------------------------------------------------------------------------------------------------
Mima Dunzhu     Distributed         ``Espionage''     Art. 110       October 27, 2008         14 years
Migmar Dondrub   ``splittist'' CD-
                 ROMs and
                 leaflets; sent
                 ``intelligence''
                 to ``the Dalai
                 Clique''
----------------------------------------------------------------------------------------------------------------
Pingcuo Duojie  ``Collected         Unlawfully        Art. 111       October 27, 2008         9 years
Phuntsog Dorje   intelligence'';     provided
                 ``illegally sent    ``intelligence'
                 intelligence        ' to an
                 abroad [to ``the    organization or
                 Dalai Clique'']     individual
                 via Wangdu''        outside of
                                     China
----------------------------------------------------------------------------------------------------------------
Ciwang Duojie   ``Collected         Unlawfully        Art. 111       October 27, 2008         8 years
Tsewang Dorje    intelligence'';     provided
                 ``illegally sent    ``intelligence'
                 intelligence        ' to an
                 abroad [to ``the    organization or
                 Dalai Clique'']     individual
                 via Wangdu''        outside of
                                     China
----------------------------------------------------------------------------------------------------------------
Suolang Zhaba   Joined ``the Dalai  Unlawfully        Art. 111       October 27, 2008         10 years
Sonam Dragpa     Clique's `Tibetan   provided
                 Youth Congress'     ``intelligence'
                 ''; collected and   ' to an
                 sent                organization or
                 ``intelligence''    individual
                 to the TYC          outside of
                                     China
----------------------------------------------------------------------------------------------------------------
Yixi Quzhen     Received            ``Espionage''     Art. 110       November 7, 2008         15 years
Yeshe Choedron   ``financial aid''
                 from ``the Dalai
                 Clique's
                 `Security
                 Department' ''
                 for providing
                 ``intelligence
                 and information''
----------------------------------------------------------------------------------------------------------------
Suolang Cidian  Collected and       Unlawfully        Art. 111       November 7, 2008         10 years
Sonam Tseten     provided            provided
                 ``intelligence''    ``intelligence'
                 to ``the Dalai      ' to an
                 Clique's `9, 10,    organization or
                 3' [Gu-Chu-Sum]     individual
                 splittist           outside of
                 organization''      China
----------------------------------------------------------------------------------------------------------------

    [See CECC, Special Topic Paper: Tibet 2008-2009 for 
information on (1) sentences for Lhasa ``rioters,'' including 
death, death with a two-year reprieve,\296\ and life 
imprisonment; and (2) exceptions to peaceful protests in which 
Tibetans allegedly carried out bombings.]

                VI. Developments in Hong Kong and Macau


                              Introduction

    The United States supports a stable, autonomous Hong Kong 
under the ``one country, two systems'' formula articulated in 
the Sino-U.K. Joint Declaration and the Basic Law of the Hong 
Kong Special Administrative Region of the People's Republic of 
China.\1\ The United States also supports the high degree of 
autonomy of Macau as set forth in the Sino-Portuguese Joint 
Declaration on the Question of Macau and the Basic Law of the 
Macao Special Administrative Region of the People's Republic of 
China.\2\ The people of Hong Kong and Macau enjoy the benefits 
of an independent judiciary\3\ and an open society in which the 
freedoms of speech, movement, and assembly are largely 
respected.\4\ The Commission notes, however, that full 
democracy in Hong Kong has been further delayed this reporting 
year, and recent developments have led to restrictions on the 
freedoms that Hong Kong and Macau citizens have been afforded 
in the regions' basic laws.\5\
    As the Commission reported in 2008, the National People's 
Congress Standing Committee issued a decision in December 2007 
prohibiting the people of Hong Kong from directly electing both 
the chief executive and the entire Legislative Council in 
2012.\6\ The plan for how to achieve the prospect of full 
democracy by 2017 was set to be unveiled in 2009, but in 
January of 2009, Chief Executive Donald Tsang announced that 
public consultation on this issue would be delayed until the 
fourth quarter as the government focuses on dealing with the 
global economic downturn.\7\ The Commission strongly supports 
the provisions of the Basic Law that provide for the election 
of the chief executive and the entire Legislative Council 
through universal suffrage, and highlights the importance of 
the central government's obligation to give Hong Kong the 
``high degree of autonomy'' promised in the Basic Law.
    Hong Kong Chief Justice Andrew Li Kwok-nang announced on 
September 2, 2009, that he would retire three years early in 
2010.\8\ Well known for his work in upholding the rule of law 
and defending Hong Kong's judicial independence, Li ``ruled out 
speculation that he had been under political pressure to step 
down,'' according to an Agence France-Presse report.\9\
    The Macau Special Administrative Region (SAR) government 
introduced national security legislation in October 2008 which 
criminalizes, as well as stipulates prison terms for, treason, 
secession, subversion, sedition, theft of state secrets, and 
association with foreign political organizations that harm 
state security.\10\ The extent to which Macau develops its own 
standards or adopts PRC standards for what constitutes these 
crimes is unclear. After a brief public consultation period, 
the legislation was passed on February 25, 2009, and went into 
effect on March 3.\11\

            Universal Suffrage Further Delayed in Hong Kong

    Although the Basic Law describes universal suffrage as the 
``ultimate aim'' for Hong Kong,\12\ the central government in 
Beijing continued to obstruct progress toward the fulfillment 
of that goal by refusing to allow constitutional and electoral 
reforms to proceed in the near term. In December 2007, the 
National People's Congress Standing Committee (NPCSC) ruled in 
favor of delaying universal suffrage for the election of the 
chief executive until 2017 and for the legislature until 2020 
at the earliest.\13\ This decision marked the second time in 
less than four years that the NPCSC has issued a formal ruling 
to delay the commencement of universal suffrage in Hong 
Kong.\14\
    The chief executive of the Hong Kong Special Administrative 
Region (HKSAR) is currently selected by an 800-member election 
committee that includes representatives from Hong Kong's 
functional constituencies, ex officio members (members of the 
Legislative Council, Hong Kong deputies to the National 
People's Congress, and Hong Kong representatives to the Chinese 
People's Political Consultative Conference), and religious 
representatives. Only half of the Legislative Council's 60 
seats currently are filled by direct elections. The remaining 
seats are chosen by functional constituency voters, many of 
which are representatives of business interests that are pro-
status quo and unwilling to challenge the central 
government.\15\
    Following the NPCSC's December 2007 decision to delay 
universal suffrage,\16\ HKSAR Chief Executive Donald Tsang 
announced in his October 2008 policy address that, ``[t]o lay a 
solid foundation for universal suffrage,'' the government would 
prioritize determining electoral arrangements for 2012, ``with 
a view to further democratizing the election systems.'' He then 
pledged to set up a public consultation in the first half of 
2009 regarding these arrangements.\17\ However, in January 
2009, Chief Executive Donald Tsang announced his decision to 
defer the public consultation until the fourth quarter of 2009, 
citing the preeminence of ``tackling economic and livelihood 
concerns.'' \18\ Tsang's decision appears to echo Beijing's 
focus on economic matters over political reform this year. 
Several pro-democracy legislators protested against Tsang's 
decision, accusing him of using the economic downturn as an 
excuse to delay universal suffrage.\19\
    A high bar imposed by the central government for passing 
universal suffrage legislation and differing conceptions about 
what constitutes universal suffrage serve as additional 
obstacles. The NPCSC's December 2007 decision to further 
postpone electoral reforms included a stipulation that any 
proposal to change the current selection methods to direct 
election by universal suffrage must originate from the HKSAR 
government, be approved by a two-thirds majority of the 
Legislative Council, and be subjected to final approval by the 
NPCSC.\20\ Proponents of democracy in Hong Kong remain 
concerned that the ultimate proposal introduced by the 
government could fall short of genuine democracy, and if 
citizens do not accept that proposal, Beijing may move back the 
entire timeline. Some lawmakers have expressed concerns that 
qualification requirements might be imposed to screen out or 
otherwise exclude certain figures from consideration in the 
nomination process for the chief executive.\21\ The NPCSC's 
decision insisted that candidates for chief executive shall 
continue to be nominated by an election committee after 
universal suffrage is implemented.\22\

              Hong Kong Chief Justice Set To Retire Early

    On September 2, 2009, Hong Kong Special Administrative 
Region (HKSAR) Chief Justice Andrew Li Kwok-nang announced his 
decision to retire three years ahead of schedule on August 31, 
2010.\23\ As the leader of the judiciary since 1997, Li has 
played a vital role in upholding the rule of law and defending 
Hong Kong's judicial independence under Chinese rule. Li said 
that his decision to retire early ``is in the best interests of 
the judiciary. It will be conducive to an orderly succession 
planning.'' \24\ The Commission will continue to monitor 
developments as the HKSAR government begins the process of 
selecting Chief Justice Li's successor.\25\

          Controversial National Security Bill Passed in Macau

    On October 22, 2008, the Macau Special Administrative 
Region (SAR) government released draft national security 
legislation, which was provided for by Chapter II, Article 23, 
of Macau SAR's Basic Law.\26\ The legislation criminalizes, as 
well as stipulates prison terms for, treason, secession, 
subversion, sedition, theft of state secrets, and association 
with foreign political organizations that harm state 
security.\27\ The extent to which Macau develops its own 
standards or adopts PRC standards for what constitutes these 
crimes is unclear. According to a July 2003 New York Times 
article, the proposal of a similar bill in Hong Kong led to 
demonstrations by approximately 500,000 people on July 1, 
2003.\28\ Then Chief Executive Tung Chee-hwa announced the 
withdrawal of the bill two months later, stating that he felt 
Hong Kong needed to focus primarily on economic concerns.\29\ 
The bill has not been reintroduced in Hong Kong.
    The Macau SAR government opened the draft legislation for 
public consultation for 40 days,\30\ and during this time 
collected 784 comments and suggestions which the government 
made available along with the Final Consultation Report on its 
Web site.\31\ While recognizing the need for national security 
legislation, citizens expressed concern that the law's unclear 
definitions, and its stiff punishments, could impinge upon the 
freedoms of association and 
expression in Macau. Many such concerns appeared in the summary 
of suggestions and comments in the Consultation Report of the 
National Security Law [draft] compiled by the Macau SAR 
government.\32\

------------------------------------------------------------------------
   Concerns Regarding Specific Provisions in the National Security Law
-------------------------------------------------------------------------
<bullet> Articles 2 and 3 include the terms ``other serious unlawful
 means,'' ``harm the security of transportation and communications,''
 and ``hinder central government officials from carrying out their
 duties,'' but do not clearly define these terms.\33\ The International
 Trade Union Confederation argued that this ambiguity would allow
 officials to charge citizens with subversion or sedition, as they do in
 China, when citizens engage in peaceful, mass demonstrations that
 temporarily disrupt traffic flow and/or the work duties of
 officials.\34\
------------------------------------------------------------------------


------------------------------------------------------------------------
  Concerns Regarding Specific Provisions in the National Security Law--
                                Continued
-------------------------------------------------------------------------
<bullet> Article 5 of the law criminalizes the act of ``breaching,
 stealing, selling, or `procuring or prying into' (citan) state secrets,
 which harms the national security, independence, unity, or integrity of
 the state or its  internal or external security.'' It defines ``state
 secrets'' as ``documents, information, or objects'' that have ``already
 been confirmed as a state  secret'' and must ``involve national
 security, external relations, or other related matters having to do
 with the relationship between central authorities and the Macau SAR as
 set forth in the Macau SAR Basic Law.'' Article 5 does not, however,
 specify what matters would be considered ``related'' to national
 security or external relations. Nor does it define the terms in the
 phrase ``harms the national security, independence, unity, or integrity
 of the state.'' Officials could interpret ``related'' and other terms
 broadly to restrict the public's access to information regarding
 relations between Macau and the central government. The article may
 thus have implications for the transparency with which the ``one
 country, two systems'' relationship will be managed.\35\
<bullet> Articles 7 and 8 criminalize the behavior of ``foreign and
 domestic Macau political organizations or groups'' if that behavior
 endangers state security. They also criminalize the establishment of
 links by Macau political organizations and groups with foreign
 political organizations and groups for the purpose of conducting acts
 found to endanger state security. ``Links'' in these provisions
 include, among other things, ``the receipt of instructions, orders,
 money, or valuables from foreign organizations or their agents,'' and
 ``the collection, preparation or public dissemination of false or
 clearly distorted news.'' Terms in the provisions including
 ``endangering state security,'' ``political organizations,'' and
 ``distributing false or clearly distorted information'' remain
 undefined.\36\ In addition, the provisions allow for fines to be levied
 against sentenced organizations, which could have the effect of
 bankrupting civic groups. The fines are assessed on a daily basis,
 i.e., Macau patacas $100 (US$12) to $20,000 (US$2,550) a day for a
 minimum of 100 days and a maximum of 1,000 days.\37\
------------------------------------------------------------------------

    Some citizens expressed concern regarding the brevity and 
inclusiveness of the public consultation period. The 
International Trade Union Confederation (ITUC), in its 
submission to the Macau SAR government, noted that the 
consultation period was ``not adequate to allow for the fullest 
possible public discussion.'' \38\ The group cited a survey of 
1,000 Macau residents which found that over 60 percent of 
residents lacked a clear understanding of the draft bill, even 
though the majority apparently agreed with its passage.\39\ The 
ITUC cited a separate survey which found that 85 percent of the 
respondents had little or no knowledge of the bill.\40\ These 
surveys suggest additional time was warranted for citizens to 
make themselves aware of the bill and its repercussions. The 
ITUC also reported concern about the selective nature of 
government-organized ``public'' forums to discuss the bill.\41\ 
While the central government-appointed chief executive 
organized six discussion sessions in late October and early 
November 2008, at least four of these meetings were ``closed-
door'' and reserved for designated communities and 
associations. In addition, the ITUC reported that a student 
forum scheduled for November 20, 2008, was canceled after 
officials from the University of Macau pressured the organizing 
students.\42\
    During and after the public comment period on the national 
security bill, there were a handful of protests against the 
bill. On November 23, 2008, about 80 protesters, including a 
few pro-
democracy activists from Hong Kong and Macau civil servants, 
workers, and students, marched to the Macau SAR government 
headquarters to protest against the bill.\43\ On December 20, 
several hundred people marched to express their concerns about 
the bill, as well as to protest local corruption and economic 
worries.\44\ In December, Macau SAR officials prevented over 20 
Hong Kong pro-democracy activists and lawmakers who had planned 
to take part in a public forum and the December 20 
demonstration from entering Macau. The officials cited internal 
security laws for barring the activists and lawmakers without 
providing details.\45\
    The Macau SAR government passed a revised version of the 
legislation on February 25, 2009, after the public consultation 
period and a review in the Macau SAR Legislative Assembly.\46\ 
The revised version clarified that state secrets need to be 
declared as 
secret in advance, disallowing post hoc classification.\47\ It 
also removed a separate provision criminalizing ``preparatory 
acts''--a term undefined in this legislation but used in the 
existing Macao Penal Code to refer to premeditated actions 
which jeopardize safety in the SAR--but retained provisions 
related to preparatory acts in the articles about treason, 
secession, and subversion.\48\ In addition, a new article 
appears in the revised version which states that legal 
proceedings involving all matters, except those involving 
charges of stealing state secrets, would be open to the 
public.\49\ During the nine sessions of clause-by-clause 
discussion at the committee level in January and February 
2009,\50\ minimum prison terms for the crimes of treason, 
secession, and subversion were reduced from 15 to 10 years and 
the effective date of the new law was pushed forward.\51\ Macau 
SAR authorities addressed some, but not all, citizen concerns 
in the revised draft bill and left some important terms 
undefined, including the definitions of ``preparatory acts,'' 
\52\ ``foreign political organizations or groups,'' \53\ and 
``inciting'' sedition.\54\
    Macau SAR Chief Executive Edmund Ho publicly stated that 
the National Security Law would not be used to limit peaceful 
expressions of dissent such as ``chanting a few slogans'' or 
``writing a few articles criticizing the central government or 
the Macau government.'' \55\ However, some groups and 
individuals maintain concern that citizens in Macau may be 
vulnerable to punishment for expressing views critical of 
officials or the government.\56\ Concern remains regarding the 
impact of ill-defined terms in the law on the freedoms 
protected by law in Macau, especially the freedoms of speech 
and association. As the Hong Kong Journalists Association 
reported in a July 2009 article, ``The law contains offences 
which in some cases are extremely broad. If they were adopted 
in a Hong Kong national security law, they would pose a very 
serious threat to freedom of expression, including press 
freedom.'' \57\ Just weeks after the passage of the bill, Hong 
Kong pro-democracy lawmakers, academics, and activists were 
denied entry into Macau.\58\ Several barred individuals 
reported that Macau immigration officers cited the National 
Security Law when turning them away.\59\

             China's International Human Rights Commitments

    The Universal Declaration of Human Rights enshrines a core 
set of rights and freedoms that individuals everywhere enjoy. 
China voted to adopt the Universal Declaration in 1948, and the 
current Chinese government has continued to commit itself to 
upholding human rights through international agreements and its 
own domestic law. In the past year, the Chinese government 
reiterated this commitment. According to the Chinese 
government's 2009-2010 National Human Rights Action Plan 
(HRAP), issued in April 2009, ``China will continue to fulfill 
its obligations to the international human rights conventions 
to which it has acceded, and initiate and actively participate 
in exchanges and cooperation in the field of international 
human rights.'' \1\
    This past year, the Chinese government also reiterated its 
stated commitment to ratify the International Covenant on Civil 
and Political Rights (ICCPR), which China signed in 1998. 
During the Universal Periodic Review of China's human rights 
record before the UN Human Rights Council in February 2009, the 
Chinese government supported recommendations that it ratify the 
ICCPR and said it was in the process of amending domestic laws, 
including the criminal procedure law and laws relating to 
reeducation through labor, to make them compatible with the 
ICCPR.\2\ According to the HRAP, the Chinese government ``will 
continue legislative, judicial and administrative reforms to 
make domestic laws better linked with this Covenant, and 
prepare the ground for approval of the ICCPR.'' \3\
    The chart below lists what action China has taken on major 
human rights treaties and protocols to the treaties.\4\

------------------------------------------------------------------------
                                                       Declarations and
     Convention or  Protocol         Ratification        Reservations
                                        Status            (excerpts)
------------------------------------------------------------------------
International Covenant on         Ratified March 27,  The application of
 Economic, Social and Cultural     2001.               article 8.1(a) of
 Rights                                                the Covenant to
                                                       the People's
                                                       Republic of China
                                                       shall be
                                                       consistent with
                                                       the relevant
                                                       provisions of the
                                                       Constitution of
                                                       the People's
                                                       Republic of
                                                       China, Trade
                                                       Union Law of the
                                                       People's Republic
                                                       of China and
                                                       Labor Law of the
                                                       People's Republic
                                                       of China.
------------------------------------------------------------------------
International Covenant on Civil   Signed October 5,
 and Political Rights              1998; not yet
                                   ratified.
------------------------------------------------------------------------
Optional Protocol to the          Neither signed nor
 International Covenant on Civil   ratified.
 and Political Rights
------------------------------------------------------------------------
Second Optional Protocol to the   Neither signed nor
 International Covenant on Civil   ratified.
 and Political Rights
------------------------------------------------------------------------
International Convention on the   Acceded to          The People's
 Elimination of All Forms of       December 29, 1981.  Republic of China
 Racial Discrimination                                 has reservations
                                                       on the provisions
                                                       of article 22 of
                                                       the Convention
                                                       and will not be
                                                       bound by it.
------------------------------------------------------------------------
Convention on the Elimination of  Ratified November   The People's
 All Forms of Discrimination       4, 1980.            Republic of China
 against Women                                         does not consider
                                                       itself bound by
                                                       paragraph 1 of
                                                       article 29 of the
                                                       Convention.
------------------------------------------------------------------------
Optional Protocol to the          Neither signed nor
 Convention on the Elimination     ratified.
 of All Forms of Discrimination
 against Women
------------------------------------------------------------------------
Convention on the Rights of the   Ratified March 2,   The People's
 Child                             1992.               Republic of China
                                                       shall fulfill its
                                                       obligations
                                                       provided by
                                                       article 6 of the
                                                       Convention under
                                                       the prerequisite
                                                       that the
                                                       Convention
                                                       accords with the
                                                       provisions of
                                                       article 25
                                                       concerning family
                                                       planning of the
                                                       Constitution of
                                                       the People's
                                                       Republic of China
                                                       and in conformity
                                                       with the
                                                       provisions of
                                                       article 2 of the
                                                       Law of Minor
                                                       Children of the
                                                       People's Republic
                                                       of China.
------------------------------------------------------------------------
Optional Protocol to the          Ratified February   1. The minimum age
 Convention on the Rights of the   20, 2008.           for citizens
 Child on the Involvement of                           voluntarily
 Children in Armed Conflict                            entering the
                                                       Armed Forces of
                                                       the People's
                                                       Republic of China
                                                       is 17 years of
                                                       age. 2. The
                                                       Government of the
                                                       People's Republic
                                                       of China is
                                                       applying
                                                       [safeguard
                                                       measures] in
                                                       implementing the
                                                       foregoingprovisio
                                                       n.
------------------------------------------------------------------------
Optional Protocol to the          Ratified December
 Convention on the Rights of the   3, 2002.
 Child on the Sale of Children,
 Child Prostitution and Child
 Pornography
------------------------------------------------------------------------
Convention against Torture and    Ratified October    1. The Chinese
 Other Cruel, Inhuman or           4, 1988.            Government does
 Degrading Treatment or                                not recognize the
 Punishment                                            competence of the
                                                       Committee against
                                                       Torture as
                                                       provided for in
                                                       article 20 of the
                                                       Convention. 2.
                                                       The Chinese
                                                       Government does
                                                       not consider
                                                       itself bound by
                                                       paragraph 1 of
                                                       article 30 of the
                                                       Convention.
------------------------------------------------------------------------
Optional Protocol to the          Neither signed nor
 Convention against Torture and    ratified.
 Other Cruel, Inhuman or
 Degrading Treatment or
 Punishment
------------------------------------------------------------------------
Convention relating to the        Acceded to          [Subject to]
 Status of Refugees                September 24,       reservations on
                                   1982.               the following
                                                       articles: 1. The
                                                       latter half of
                                                       article 14,which
                                                       reads ``In the
                                                       territory of any
                                                       other Contracting
                                                       State, he shall
                                                       be accorded the
                                                       same protection
                                                       as is accorded in
                                                       that territory to
                                                       nationals of the
                                                       country in which
                                                       he has his
                                                       habitual
                                                       residence.'' 2.
                                                       Article 16 (3).
------------------------------------------------------------------------
Protocol relating to the Status   Acceded to          With a reservation
 of Refugees                       September 24,       in respect of
                                   1982.               article 4.
------------------------------------------------------------------------
Convention on the Prevention and  Ratified April 18,  The People's
 Punishment of the Crime of        1983.               Republic of China
 Genocide                                              does not consider
                                                       itself bound by
                                                       article IX of the
                                                       said Convention.
------------------------------------------------------------------------
Convention against Transnational  Ratified September  The People's
 Organized Crime                   23, 2003.           Republic of China
                                                       makes a
                                                       reservation with
                                                       regard to Article
                                                       35, paragraph 2
                                                       of the Convention
                                                       and is not bound
                                                       by the provisions
                                                       of Article 35,
                                                       paragraph 2.
------------------------------------------------------------------------
Protocol to Prevent, Suppress     Neither signed nor
 and Punish Trafficking in         ratified.
 Persons, Especially Women and
 Children, supplementing the UN
 Convention against
 Transnational Organized Crime.
------------------------------------------------------------------------
Protocol against the Smuggling    Neither signed nor
 of Migrants by Land, Sea and      ratified.
 Air, supplementing the UN
 Convention against
 Transnational Organized Crime
------------------------------------------------------------------------
Convention on the Protection of   Neither signed nor
 the Rights of All Migrant         ratified.
 Workers and Members of Their
 Families
------------------------------------------------------------------------
Convention on the Rights of       Ratified August 1,
 Persons With Disabilities         2008.
------------------------------------------------------------------------
Optional Protocol to the          Neither signed nor
 Convention on the Rights of       ratified.
 Persons With Disabilities
------------------------------------------------------------------------


                                       Ratification of the International Labor Organization Fundamental Conventions
--------------------------------------------------------------------------------------------------------------------------------------------------------
                  Forced Labor                         Freedom of  Association                 Discrimination                      Child Labor
--------------------------------------------------------------------------------------------------------------------------------------------------------
            C. 29                   C. 105             C. 87             C. 98            C. 100            C. 111           C. 138           C. 182
--------------------------------------------------------------------------------------------------------------------------------------------------------
Not ratified                   Not ratified....  Not ratified....  Not ratified....  Ratified          Ratified         Ratified April   Ratified August
                                                                                      November 2,       January 12,      28, 1999.        8, 2002
                                                                                      1990.             2006.
--------------------------------------------------------------------------------------------------------------------------------------------------------

                             VII. Endnotes

    <dagger>Voted to adopt: Senators Dorgan, Baucus, Levin, Feinstein, 
Brown, Corker, and Barrasso; and Representatives Levin, Kaptur, Honda, 
Walz, Wu, Smith, Manzullo, Royce, and Pitts.
    Voted not to adopt: Senator Brownback.

    Notes to Section I--Political Prisoner Database
    \1\ The Commission treats as a political prisoner an individual 
detained or imprisoned for exercising his or her human rights under 
international law, such as peaceful assembly, freedom of religion, 
freedom of association, free expression, including the freedom to 
advocate peaceful social or political change, and to criticize 
government policy or government officials. (This list is illustrative, 
not exhaustive.) In most cases, prisoners in the Political Prisoner 
Database were detained or imprisoned for attempting to exercise rights 
protected by the PRC Constitution and law, or by international human 
rights conventions, or both.

    Notes to Section II--Freedom of Expression
    \1\ PRC Constitution, arts. 35 (freedom of speech) and 41 (right to 
criticize state organ or functionary).
    \2\ UN GAOR, Hum. Rts. Coun., 11th Sess., Report of the Working 
Group on the Universal Periodic Review--China, A/HRC/11/25, 3 March 09, 
para. 71.
    \3\ PRC Criminal Law, enacted 1 July 79, amended 14 March 97, 
effective 1 October 97, amended 25 December 99, 31 August 01, 29 
December 01, 28 December 02, 28 February 05, 29 June 06, 28 February 
09, art. 105. In the case of subversion, sentences are generally no 
more than 10 years, but may be life imprisonment for ``ringleaders'' or 
someone who commits a ``major crime.'' For inciting subversion, 
sentences are generally no more than five years, unless the defendant 
is a ``ringleader'' or someone who commits a ``major crime,'' in which 
case they shall be sentenced to no less than five years. Article 45 
caps fixed-term imprisonment to no more than 15 years. PRC Criminal 
Law, art. 45.
    \4\ International Covenant on Civil and Political Rights, adopted 
by UN General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76, art. 19 [hereinafter ICCPR]. China has signed, 
but has not yet ratified, the ICCPR. As in previous years, the Chinese 
Government this reporting year continued to reiterate its commitment to 
ratifying the ICCPR, which China signed in 1998. In February 2009, 
during the UN Human Rights Council's Universal Periodic Review of the 
Chinese Government's human rights record, the Chinese Government 
supported recommendations made by Member States that China ratify the 
ICCPR. At the time, Chinese officials also said China was in the 
process of amending domestic laws, including the criminal procedure law 
and laws relating to reeducation through labor, to make them compatible 
with the ICCPR. UN GAOR, Hum. Rts. Coun., 11th Sess., Report of the 
Working Group on the Universal Periodic Review--China, A/HRC/11/25, 3 
March 09, paras. 63, 114(1). Moreover, in the 2009-2010 National Human 
Rights Action Plan (HRAP) issued by the Chinese Government in April 
2009, officials stated that the ICCPR was one of the ``fundamental 
principles'' on which the plan was framed, and that the government 
``will continue legislative, judicial and administrative reforms to 
make domestic laws better linked with this Covenant, and prepare the 
ground for approval of the ICCPR.'' State Council Information Office, 
National Human Rights Action Plan of China (2009-2010), Xinhua 
(Online), 13 April 09, introduction, sec. V(1).
    \5\ International Covenant on Civil and Political Rights, adopted 
by UN General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76, art. 19; Universal Declaration of Human Rights, 
adopted and proclaimed by UN General Assembly resolution 217A (III) of 
10 December 48, art. 29.
    \6\ See previous analysis of a typical case in CECC, 2006 Annual 
Report, 20 September 06, 32.
    \7\ Manfred Nowak, Report of the Special Rapporteur on Torture and 
Other Cruel, Inhuman or Degrading Treatment or Punishment, Mission to 
China, 10 March 06, paras. 34, 82(s). Nowak, in the report, also 
recommended that political crimes ``that leave large discretion to law 
enforcement and prosecution authorities such as `endangering national 
security,' `subverting State power,' `undermining the unity of the 
country,' `supplying of State secrets to individuals abroad,' etc. 
should be abolished.''
    \8\ Chinese Human Rights Defenders (Online), ``Inciting Subversion 
of State Power: A Legal Tool for Prosecuting Free Speech in China,'' 8 
January 08.
    \9\ ``Land Rights Activist Yang Chunlin Sentenced to Five Years,'' 
CECC China Human Rights and Rule of Law Update, March/April 2008, 1. 
See also Chinese Human Rights Defenders (Online), ``Defense Pleading in 
First Trial Case of Tan Zuoren On Suspicion of Inciting Subversion of 
State Power'' [Tan zuoren shexian shandong dianfu guojia zhengquan an 
yishen bianhu ci], 12 August 09, in which defense lawyer Pu Zhiqiang 
notes that China's legal system has no legislative or judicial 
interpretation of the crime of inciting subversion of state power, and 
therefore could consider international guidelines such as the 
Johannesburg Principles on National Security, Freedom of Expression and 
Access to Information as a source of guidance.
    \10\ Chinese Human Rights Defenders (Online), ``Criminal Judgment 
of Zhang Qi, Union of Chinese Nationalists Member Who Was Imprisoned 
for Speech'' [Yinyan huozui de fanlan lianmeng chengyuan zhang qi de 
xingshi panjueshu], 11 July 09.
    \11\ Ibid.
    \12\ Ibid.
    \13\ Chinese Human Rights Defenders (Online), ``Chen Daojun 
Sentenced to 3 Years for `Inciting Subversion of State Power,' Deprived 
of Political Rights for 3 Years'' [Chen daojun beiyi `shandong dianfu 
guojia zhengquan zui' panxing sannian, boduo zhengzhi quanli sannian], 
20 November 08.
    \14\ Ibid.; Chinese Human Rights Defenders (Online), ``Chen Daojun 
Gives Up Appeal on the Basis of No Hope in China's Current Legal 
System'' [Chen daojun jiyu dui zhongguo xianxing sifa de juewang er 
fangqi shangsu], 25 November 08. Chen's lawyer said that in the essays 
Chen ``was only criticizing the party, and never said he would subvert 
it.'' Henry Sanderson, ``Chinese Journalist Sentenced to 3 Years,'' 
Associated Press (Online), 21 November 08.
    \15\ Chinese Human Rights Defenders (Online), ``Democracy Activist 
Sentenced to Six Years for `Subversion of State Power,' '' 7 January 
09; ``Wang Rongqing's Complete Sentencing Document Revealed'' [Wang 
rongqing de panjueshu quanwen puguang], Boxun (Online), 12 January 09; 
Bureau of Democracy, Human Rights, and Labor, U.S. Department of State, 
Country Report on Human Rights Practices--2008, China (includes Tibet, 
Hong Kong, and Macau), 25 February 09. Wang joins Zhang Jianhong, Yan 
Zhengxue, Chen Shuqing, Chi Jianwai, and Lu Gengsong as CDP members 
sentenced to prison in recent years for their writings and political 
activities. CECC, 2007 Annual Report, 10 October 07, 84.
    \16\ China Human Rights Lawyers Concern Group (Online), ``Criminal 
Judgment of Heilongjiang Province Jixi City Intermediate People's 
Court's Sentencing of Barefoot Lawyer Yuan Xianchen'' [Heilongjiang 
sheng jixi shi zhongji renmin fayuan panchu chijiao lushi yuan xianchen 
de xingshi panjueshu], 4 March 09.
    \17\ Ibid. The court notes that in an ``illegal'' interview Yuan 
gave to the Epoch Times in 2007, he ``called on China's vast military 
to wake up, and dismiss the Communist Party.'' Much of the interview is 
also spent criticizing the Communist Party and calling for democracy. 
The court also says that Yuan distributed 20 to 30 copies of his anti-
Party writings to petitioners in Beijing. The court merely cited the 
existence of this passage and the existence of a large number of 
writings over the Internet to conclude that Yuan had incited subversion 
and the overthrow of the socialist system, without determining whether 
Yuan's writings posed any actual threat to national security. For the 
actual interview, see ``Special Interview With Yuan Xianchen: Willing 
To Become the Second Yang Chunlin Promoting Chinese Democracy'' 
[Zhuanfang yuan xianchen: yuan chengwei yang chunlin di er tuidong 
zhongguo minzhu], Epoch Times (Online), 13 August 07.
    \18\ Chinese Human Rights Defenders (Online), ``Guo Quan Suspicion 
of `Subversion of State Power' Case Goes to Trial in Suqian,'' 7 August 
09. See also ``Chinese Democracy Advocate Stands Trial Over Subversion 
Charges,'' Kyodo, reprinted in Breitbart (Online), 7 August 09.
    \19\ Chinese Human Rights Defenders (Online), ``Guo Quan Met With 
Lawyer; Case Returned to the Public Security Bureau for Supplemental 
Materials'' [Guo quan zhongde lushi huijian, anjuan yijing tuihui 
gongan buchong cailiao], 21 April 09.
    \20\ Human Rights Watch (Online), ``China: End Quake Zone Abuses,'' 
6 May 09. The government did not release a figure for the number of 
students killed in the earthquake until May 7, 2009. Andrew Jacobs and 
Edward Wong, ``China Reports Student Toll for Quake,'' New York Times 
(Online), 7 May 09.
    \21\ Edward Wong, ``China Admits Building Flaws in Quake,'' New 
York Times (Online), 4 September 08; ``Sichuan Quake Complaints 
Squashed,'' Radio Free Asia (Online), 3 October 08; Gillian Wong, 
``Chinese Court Rejects Parents' Earthquake Lawsuit,'' Associated Press 
(Online), 23 December 08; Edward Wong, ``China Blocks Travel for 
Parents Planning Protest,'' New York Times (Online), 9 January 09.
    \22\ Andrew Jacobs, ``In Year After Quake, China Sealed an Opened 
Door,'' New York Times (Online), 12 May 09.
    \23\ Andrew Jacobs and Edward Wong, ``China Reports Student Toll 
for Quake,'' New York Times (Online), 7 May 09.
    \24\ Ibid.
    \25\ Ibid.
    \26\ ``Chengdu Courts Hold Trials of Earthquake Activists,'' 
Congressional-Executive Commission on China (Online), 21 August 09, 
citing Bao Daozu, ``Activist on Trial for Subversion,'' China Daily 
(Online), 13 August 09, and Chinese Human Rights Defenders (Online), 
``Police Bar Public From Attending Trial of Earthquake Investigator Tan 
Zuoren,'' 13 August 09.
    \27\ ``Indictment Against Activist Tan Zuoren,'' China Digital 
Times (Online), 4 August 09.
    \28\ ``Chengdu Courts Hold Trials of Earthquake Activists,'' 
Congressional-Executive Commission on China (Online), 21 August 09, 
citing Human Rights in China (Online), ``Authorities Kidnapped and 
Prevented Court Appearance by Witness for Huang Qi's Case,'' 5 August 
09.
    \29\ ``Chengdu Court Postpones Trial of Activist Huang Qi,'' CECC 
China Human Rights and Rule of Law Update, No. 2, 2009, 3.
    \30\ ``Chengdu Courts Hold Trials of Earthquake Activists,'' 
Congressional-Executive Commission on China (Online), 21 August 09.
    \31\ In September 2008, officials in Guanghan, Sichuan, released 
Liu Shaokun, a middle school teacher who posted photos of collapsed 
schools online and criticized their construction in a media interview, 
to serve out the remainder of his one year of reeducation through 
labor. ``Sichuan Teacher Previously Sentenced to Reeducation Through 
Labor, Liu Shaokun, Obtains `Serve Sentence Outside Place of Custody' 
and Is Set Free'' [Bei pan laojiao de Sichuan jiaoshi liu shaokun huo 
suo wai zhixing huo shi], Radio Free Asia (Online), 3 October 08. In 
March 2009, a human rights NGO reported that officials released retired 
professor Zeng Hongling, who was detained by Mianyang officials in 
Sichuan in June 2008 on the charge of inciting subversion after she 
posted articles online alleging corruption and poor living conditions 
in areas affected by the earthquake. Chinese Human Rights Defenders 
(Online), ``Tug of War Over China's Cyberspace: A Sequel to Journey to 
the Heart of Censorship (Part II),'' 19 March 09.
    \32\ ``Two Young Uyghurs Detained for Distributing Leaflets Calling 
for Student Demonstration,'' CECC China Human Rights and Rule of Law 
Update, No. 1, 2009, 4.
    \33\ Ibid., citing Xinjiang University (Online), ``Xinjiang 
University Rewards 3 Personnel for Meritorious Service of Preventing 
Distribution of Reactionary Leaflets'' [Xinjiang daxue zhongjiang 
zhizhi sanfa fandong chuandan de sanming yougong renyuan], 25 December 
08.
    \34\ ``Two Young Uyghurs Detained for Distributing Leaflets Calling 
for Student Demonstration,'' CECC China Human Rights and Rule of Law 
Update, No. 1, 2009, 4.
    \35\ ``Over 300 Citizens Issue `Charter 08'; Several Activists 
Detained,'' CECC China Human Rights and Rule of Law Update, December 
2008, 1-2.
    \36\ `` `Charter 08' Formal List of 16th Batch of Signatories,'' 
Charter 08 Web site (Online), 1 October 09.
    \37\ ``Officials Harass Charter 08 Signers; Liu Xiaobo Under 
Residential Surveillance,'' CECC China Human Rights and Rule of Law 
Update, No. 1, 2009, 3.
    \38\ Ibid.; ``Officials Extend Liu Xiaobo's Residential 
Surveillance Beyond Legal Time Limit,'' CECC China Human Rights and 
Rule of Law Update, No. 3, 2009, 2.
    \39\ ``Beijing Police Formally Arrest Liu Xiaobo on Inciting 
Subversion Charge,'' CECC China Human Rights and Rule of Law Update, 
No. 3, 2009, 2, citing ``Liu Xiaobo Arrested for Subversion,'' Xinhua, 
reprinted in China Daily (Online), 24 June 09.
    \40\ Ibid.
    \41\ ``Officials Harass Charter 08 Signers; Liu Xiaobo Under 
Residential Surveillance,'' CECC China Human Rights and Rule of Law 
Update, No. 1, 2009, 3, citing Jonathan Adams, ``Charter 08 Worries 
China,'' Christian Science Monitor (Online), 6 January 09.
    \42\ Tang Xiaozhao, ``My First `Tea' Experience,'' Bosi Xiaozhao 
Blog (Online), 21 February 09; ``Authorities Continue To Widen Scope of 
Charter 08 Crackdown'' [Dangju jixu kuoda ``lingba xianzhang'' daya 
fanwei], Radio Free Asia (Online), 2 April 09; ``Liu Shasha Still Under 
House Arrest for Disseminating Charter 08'' [Xuanchuan 08 xianzhang liu 
shasha reng bei ruanjin], Radio Free Asia (Online), 7 April 09.
    \43\ Civil Rights & Livelihood Watch (Online), ``Tiananmen Soldier 
Zhang Shijun Taken Away From His Home in the Middle of the Night'' 
[Qian liusi jieyan budui junren zhang shijun shenye bei cong jiazhong 
zhuazou], 20 March 09; Tania Branigan, ``Former Tiananmen Soldier 
Held,'' Guardian (Online), 21 March 09. See, however, Chinese Human 
Rights Defenders (Online), ``Just Spoke With Zhang Shijun Over Phone, 
He Thanks Everyone for Their Concern'' [Gangcai yu zhang shijun 
xiansheng tongguo dianhua ta biaoshi ganxie dajia guanxin], 5 April 09. 
Chinese Human Rights Defenders published a story in which it claimed 
one of its volunteers spoke directly to Zhang over the phone and that 
Zhang had said he was free, that reporting about his open letter was 
not accurate, that he had not been harassed, and that he wanted some 
peace and quiet and so would temporarily not be accepting media 
interviews.
    \44\ Gillian Wong, ``Police Hold Tiananmen Activist on Sensitive 
Day,'' Associated Press (Online), 15 April 09; Audra Ang, ``Tiananmen 
20 Years Later: A Survivor's Story,'' Associated Press (Online) 13 
April 09.
    \45\ Chinese Human Rights Defenders (Online), ``Vice-President of 
Independent Chinese Pen Center and Dissident Author, Jiang Qisheng, 
Summoned and His Home Raided'' [Zhongguo duli bihui fu huizhang diyi 
zuojia jiang qisheng bei chuanhuan chaojia], 31 March 09; Chinese Human 
Rights Defenders (Online), ``Beijing Dissident Jiang Qisheng Taken Away 
for Interrogation, Second Time Within Two Months,'' 18 May 09.
    \46\ Chinese Human Rights Defenders (Online), ``Charter 08 
Signatory Zhang Huaiyang's Reeducation Through Labor Notice Has Been 
Transmitted'' [Lingba xianzhang qianshuzhe zhang huaiyang de laojiao 
tongzhi yijing xiada], 27 June 09.
    \47\ ``Charter 08 Signatories Commemorate June 4, Two Youths Face 
Reeducation Through Labor'' [Qian lingba xianzhang jinian liusi liang 
qingnian mianlin laojiao], Radio Free Asia (Online), 22 June 09.
    \48\ Chinese Human Rights Defenders (Online), `` `Charter 08' 
Signatory Chen Yang Sentenced to One Year of Reeducation Through 
Labor'' [Lingba xianzhang qianshuren chen yang beichu laojiao yinian], 
20 June 09.
    \49\ Chinese Human Rights Defenders (Online), ``Police Detain and 
Harass Activists on Eve of Tiananmen Anniversary,'' 4 June 09.
    \50\ ``Legal Scholars Make Appeal: Do Not Frequently Use 
`Defamation' To Smother Citizen's Right of Supervision'' [Faxuejia 
huyu: buyao dongzhe yi `feibang' zhiming esha gongmin jianduquan], 
Legal Daily (Online), 25 May 09.
    \51\ PRC Criminal Law, enacted 1 July 79, amended 14 March 97, 
effective 1 October 97, amended 25 December 99, 31 August 01, 29 
December 01, 28 December 02, 28 February 05, 29 June 06, 28 February 
09, art. 246.
    \52\ Committee to Protect Journalists (Online), ``Falling Short: 
Olympic Promises Go Unfulfilled as China Falters on Press Freedom,'' 
2008, 36.
    \53\ Joshua Rosenzweig, ``China's Battle Over the Right To 
Criticize,'' Far Eastern Economic Review (Online), 1 May 09.
    \54\ Cai Ke, ``Wrongly-Jailed Blogger Fights for Justice,'' China 
Daily (Online), 20 May 09.
    \55\ PRC Constitution, art. 35.
    \56\ International Covenant on Civil and Political Rights, adopted 
by UN General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76, art. 19; Universal Declaration of Human Rights, 
adopted and proclaimed by UN General Assembly resolution 217A (III) of 
10 December 48, art. 29.
    \57\ UN GAOR, Hum. Rts. Coun., 11th Sess., Report of the Working 
Group on the Universal Periodic Review--China, A/HRC/11/25, 3 March 09, 
para. 71. See also CECC Staff Interviews.
    \58\ ``Hu Jintao Speech Stresses Media's Role To Serve Party,'' 
Congressional-Executive Commission on China (Online), 15 August 08.
    \59\ ``Propaganda Head Liu Yunshan Calls for Positive Spin on 
Economy,'' CECC China Human Rights and Rule of Law Update, December 
2008, 2, citing ``Liu Yunshan: Supply Powerful Support to Public 
Opinion in Order To Realize More Smooth Economic Growth Quickly'' [Liu 
yunshan: wei shixian jingji pingwen jiao kuai zengzhang tigong youli 
yulun zhichi], Xinhua (Online), 18 November 08.
    \60\ ``Liu Binjie: Outstanding Development Themes Comprehensively 
Completing All Assignments'' [Liu binjie: tuchu fazhan zhuti quanmian 
wancheng gexiang renwu], China Publishing Group (Online), 14 July 09.
    \61\ ``Jiangxi Daily Holds Grand Ceremony To Commemorate 60th 
Anniversary of Founding, Su Rong and Wu Xinxiong Deliver Letter of 
Congratulations'' [Jiangxi ribao chuangkan 60 zhounian jinian da hui 
longzhong juxing su rong wu xinxiong falai hexin], Jiangxi Daily 
(Online), 8 June 09.
    \62\ See, e.g., CECC, 2008 Annual Report, 31 October 08, 60, 64-65.
    \63\ Vivian Wu, ``Ban on Covering Reporter's Arrest,'' South China 
Morning Post (Online), 12 December 08.
    \64\ David Stanway, ``Beijing Strikes at Dissidents,'' Guardian 
(Online), 4 January 09.
    \65\ ``Propaganda Officials Censor Coverage of Beijing Fire,'' CECC 
China Human Rights and Rule of Law Update, No. 2, 2009, 4.
    \66\ ``Central Propaganda Department Unites Message To Avoid 
Flaming Nationalism'' [Zhongxuanbu tongyi koujing bi shan minzu 
qingxu], Ming Pao, reprinted in Sina (Online), 2 March 09.
    \67\ Ibid.
    \68\ ``Central Propaganda Department Bans Reporting on `China's 
Increasing Its Holding of U.S. Stock' '' [Zhongxuanbu fengsha `zhongguo 
zeng chi meigu' baodao], Ming Pao (Online), 9 March 09.
    \69\ ``China Restricts Reporting on Internet Filtering Plan, Iran 
Protests, Other Topics,'' CECC China Human Rights and Rule of Law 
Update, No. 4, 2009, 2, citing Cao Guoxing, ``Central Propaganda 
Department Requires Media Not To Call Into Question Online Filtering 
Software'' [Zhongxuanbu yaoqiu meiti bude zhiyi wangluo shencha 
ruanjian], Radio France Internationale (Online), 11 June 09.
    \70\ ``China Restricts Reporting on Internet Filtering Plan, Iran 
Protests, Other Topics,'' CECC China Human Rights and Rule of Law 
Update, No. 4, 2009, 2, citing Fiona Tam and Kristine Kwok, ``Media 
Told To Play Down Coverage of Iran Protests,'' South China Morning Post 
(Online), 20 June 09.
    \71\ ``Controlling Speech Before National Celebration, 247 
Individuals on Black List,'' Radio Free Asia (Online), 17 August 09.
    \72\ CECC Staff Interview.
    \73\ Reporters Without Borders (Online), ``Information Supplied by 
Yahoo! Helped Journalist Shi Tao Get 10 Years in Prison,'' 6 September 
05.
    \74\ ``Dian Provincial Party Committee Propaganda Department Deputy 
Director Wu Hao Answers Questions From Netizens About Eluding the Cat 
Incident'' [Dian shengwei xuanchuanbu fubuzhang wu hao deng jiu ``duo 
mao mao'' shijian dayi wangmin], Xinhua (Online), 22 February 09.
    \75\ Ibid.
    \76\ CECC Staff Interview.
    \77\ ``Inner Mongolia Press and Publication Bureau Suspends China 
Business Post,'' CECC China Human Rights and Rule of Law Update, 
December 2008, 4. Cui Fan, the author of the July 11 report, filed a 
lawsuit against the Inner Mongolia Press and Publication Bureau, 
arguing that the agency failed to follow provisions in the PRC 
Administrative Punishment Law requiring prior notice to the paper, an 
opportunity to defend itself, and a comprehensive, objective, and fair 
investigation. Cui alleged that none of these procedural protections 
were carried out.
    \78\ Ibid.; ``Chinese Government Increases Censorship by 
Restricting `Extra-Territorial' Reporting,'' Congressional-Executive 
Commission on China (Online), 12 June 05.
    \79\ Vivian Wu, ``Publisher Vows To Fight On Amid Official 
Pressure, Attempt To Remove Reformist,'' South China Morning Post 
(Online), 12 November 08.
    \80\ ``Top Officials Say Propaganda in 2009 To Focus on Economy and 
Stability,'' CECC China Human Rights and Rule of Law Update, No. 2, 
2009, 3, citing ``Watchdog Says Chinese Gov't Suspended TV Reporters 
Over Labor Story,'' Kyodo, reprinted in Breitbart (Online), 6 January 
09 and ``Linfen TV Station Editor Suspended for Report on Workers' 
Strike'' [Linfen dianshitai biancai renyuan yin baodao gongchao bei 
tingzhi], Radio Free Asia (Online), 6 January 09.
    \81\ As noted in the Commission's 2006 Annual Report: ``The Chinese 
Government imposes a strict licensing scheme on news and information 
media that includes oversight by government agencies with discretion to 
grant, deny, and rescind licenses based on political and economic 
criteria.'' CECC, 2006 Annual Report, 20 September 06, 25.
    \82\ See, e.g., Notice Regarding Prohibiting the Transmission of 
Harmful Information and Further Regulating Publishing Order [Guanyu 
jinzhi zhuanbo youhai xinxi jinyibu guifan chuban zhixu de tongzhi], 
issued 5 November 01, effective 5 November 01, art. 2: ``No one may 
establish an entity whose primary purpose is to transmit news 
information and engage in other news publishing activities without 
permission from the press and publication administration agency.''
    \83\ Regulations on the Administration of Publishing [Chuban guanli 
tiaoli], issued 25 December 01, effective 1 February 02, art. 29.
    \84\ Article 11(2) of the Regulations on the Administration of 
Publishing states that publishing work units must have a sponsoring 
work unit and a managing work unit recognized by the State Council's 
publishing administration agency. Ibid., art. 11. The ``sponsoring work 
unit'' must be a government agency of a relatively high level, and the 
publishing work unit must answer to its sponsoring work unit and 
managing work unit. Circular Regarding Issuance of the ``Temporary 
Provisions on the Functions of the Sponsoring Work Unit and the 
Managing Work Unit for Publishing Work Units'' [Guanyu fabu ``Guanyu 
chuban danwei de zhuban danwei he zhuguan danwei zhize de zanxing 
guiding'' de tongzhi], issued 29 June 93, arts. 5-6; Committee to 
Protect Journalists (Online), ``Falling Short: Olympic Promises Go 
Unfulfilled as China Falters on Press Freedom,'' 2008, 24. The 
government restricts the right to publish to those who can afford to 
invest at least 300,000 yuan (US$37,500) in registered capital. 
Regulations on the Administration of Publishing [Chuban guanli tiaoli], 
issued 25 December 01, effective 1 February 02, art. 11(4) .
    \85\ Committee to Protect Journalists (Online), ``Falling Short: 
Olympic Promises Go Unfulfilled as China Falters on Press Freedom,'' 
2008, 26.
    \86\ ``Beijing Authorities Raid Non-Governmental Organization 
Yirenping,'' Voice of America (Online), 29 July 09; Human Rights in 
China (Online), ``Raid of Public Interest Group Reveals Degree of 
Information Control,'' 29 July 09.
    \87\ ``In First 7 Months of Year, 39.256 Million Illegal 
Publications Seized in Our Country'' [Wo guo jinnian qian 7 ge yue 
shoujiao feifa chubanwu 3925.6 wan jian], China Press and Publishing 
Journal (Online), 26 August 09.
    \88\ PRC Criminal Law, enacted 1 July 79, amended 14 March 97, 
effective 1 October 97, amended 25 December 99, 31 August 01, 29 
December 01, 28 December 02, 28 February 05, 29 June 06, 28 February 
09, art. 225.
    \89\ ChinaAid (Online), ``Christian Shi Weihan Sentenced to Three 
Years in Prison for Printing and Giving Away Bibles,'' 11 June 09. See 
also, the Congressional-Executive Commission on China Political 
Prisoner Database for more information. In recent years, authorities 
have used similar criminal charges to imprison other people for 
printing and distributing religious texts. See, for example, the cases 
of Cai Zhuohua, Wang Zaiqing, and Zhou Heng in the Congressional-
Executive Commission on China Political Prisoner Database.
    \90\ Regulations on the Administration of Publishing [Chuban guanli 
tiaoli], issued 25 December 01, effective 1 February 02, art. 26.
    \91\ General Administration of Press and Publication (Online), ``To 
Meet `Two Holidays' and `Two Sessions' Strengthen Watch Over Publishing 
Market'' [Yinjie ``liangjie'' ``lianghui'' jiaqiang chubanwu shichang 
jianguan], 31 December 08.
    \92\ State Administration for Industry and Commerce (Online), 
``Energetically Go Along, A Plan Considering All Factors, State 
Administration of Industry and Commerce's 2008 Work Regarding `Sweeping 
Away Pornography and Striking Against Illegal Publications' Affirmed'' 
[Jiji peihe tongchoujiangu--2008 nian gongshang jiguan ``saohuang 
dafei'' gongzuo huo kending], 21 January 09.
    \93\ See, e.g., Yulin City Government (Online), Circular Regarding 
More Deeply Carrying Out Operation To Seal Up, Investigate, and Hand In 
Illegal Political Publications [Guanyu shenru kaizhan zhengzhixing 
feifa chubanwu fengdu chajiao xingdong de tongzhi], issued 25 May 09, 
art. 1; Changzhou City Cultural Radio Television Press and Publication 
Bureau (Online), Changzhou City Vigorously Launches Special Operation 
To Investigate and Recover Illegal Political Publications [Changzhou 
shi jiji kaizhan chajiao zhengzhixing feifa chubanwu zhuanxiang 
xingdong], 21 May 09.
    \94\ Fujian Province Department of Administration for Transporation 
Circular Regarding Deeply Carrying Out ``Sweep Away Pornography and 
Strike Down Illegal Publications'' Operation [Fujian sheng yunshu 
guanliju guanyu shenru kaizhan `shaohuang dafei' xingdong de tongzhi], 
issued 30 April 09, art. 1, para. 1.
    \95\ ``Harbin Breaks Major Rarely Seen Nationwide Case of Illegal 
Publications'' [Harbin po quanguo hanjian feifa chubanwu da an], 
Dongbei Net, reprinted in Xinhua (Online), 26 May 09.
    \96\ ``In Tibet Concentrated Burning of Pirated Products Violating 
Rights and All Types of Illegal Publications'' [Xizang jizhong xiaohui 
qinquan daoban zhipin ji gelei feifa chubanwu], Tibet Daily, reprinted 
in CCTV (Online), 22 April 09.
    \97\ ``Xinjiang Authorities Block, Punish Free Expression,'' CECC 
China Human Rights and Rule of Law Update, No. 3, 2009, 3, citing ``Our 
Region To `Enlarge Establishment' of Cultural Market Combined Law 
Enforcement Ranks'' [Wo qu jiang ``kuobian'' wenhua shichang zonghe 
zhifa duiwu], Xinjiang Daily (Online), 2 March 09.
    \98\ Bureau of Democracy, Human Rights, and Labor, U.S. Department 
of State, Country Report on Human Rights Practices--2008, China 
(includes Tibet, Hong Kong, and Macau), 25 February 09.
    \99\ See, e.g., ChinaAid (Online), ``Annual Report of Persecution 
by the Government on Christian House Churches Within Mainland China 
January 2008-December 2008,'' January 09, 19, 21 (see pages 12 and 20 
for examples in 2008 outside the Commission's 2009 reporting year).
    \100\ ``China Requires Journalists To Obtain New Press Cards To 
Practice Profession,'' Congressional-Executive Commission on China 
(Online), 18 March 09.
    \101\ Ibid., citing Circular Regarding 2009 Exchange and Issuance 
of Press Cards [Guanyu 2009 nian huanfa xinwen jizhe zheng de tongzhi], 
issued 20 January 09. Government regulation mandates the issuance of 
new press cards every five years. Measures for the Administration of 
Journalist Accreditation Cards, issued 10 January 05, effective 1 March 
05, art. 16.
    \102\ ``Liu Binjie: Focal Point for General Administration on Press 
and Publication This Year Is Striking Against Fake Journalists'' [Liu 
binjie: xinwen chuban zongshu jinnian zhongdian daji jiajizhe], Jinghua 
Times, reprinted in Xinhua (Online), 4 March 09.
    \103\ UN Press Release, UN Special Rapporteur on Freedom of Opinion 
and Expression, the Organization for Security and Cooperation in Europe 
Representative on Freedom of the Media, and the Organization of 
American States Special Rapporteur on Freedom of Expression, 
``International Experts Condemn Curbs on Freedom of Expression and 
Control Over Media and Journalists,'' 18 December 03.
    \104\ General Administration of Press and Publication (Online), 
``For Reporters and Editors Series of Regulations To Come Out 
Strengthening Oversight'' [Dui caibian congye renyuan jiaqiang jianguan 
xilie guiding jiang chutai], 13 February 09.
    \105\ ``China News Workers' Code of Professional Ethics Currently 
Being Amended, To Be Issued on Journalists' Day'' [Zhongguo xinwen 
gongzuozhe zhiye daode zhunze zheng xiuding jizhejie gongbu], 
Liberation Daily, reprinted in Xinhua (Online), 5 June 09.
    \106\ China News Workers' Code of Professional Ethics [Zhongguo 
xinwen gongzuozhe zhiye daode zhunze], issued January 1991, revised 
January 1997, preamble.
    \107\ All-China Journalists Association, Circular Regarding Further 
Deepening Carrying Out of ``Three Items To Study and Learn'' Activities 
for the News Battlefield [Guanyu zai xinwen zhanxian jinyibu shenru 
kaizhan ``sanxiang xuexi jiaoyu'' huodong de tongzhi], issued 9 April 
09.
    \108\ Ibid., sec. I, arts. 2, 3.
    \109\ Ibid., sec. I, art. 3.
    \110\ Ibid., sec. I, art. 3.
    \111\ Ashley Esarey, ``Cornering the Market: State Strategies for 
Controlling China's Commercial Media,'' Asian Perspective, Vol. 29, No. 
4, 2005, 54.
    \112\ Committee to Protect Journalists (Online), ``Falling Short: 
Olympic Promises Go Unfulfilled as China Falters on Press Freedom,'' 
2008, 24.
    \113\ Evan Osnos, ``The Forbidden Zone,'' New Yorker, 20 July 09.
    \114\ Committee to Protect Journalists (Online), ``Falling Short: 
Olympic Promises Go Unfulfilled as China Falters on Press Freedom,'' 
2008, 25.
    \115\ Evan Osnos, ``The Forbidden Zone,'' New Yorker, 20 July 09, 
60-61.
    \116\ UN GAOR, Hum. Rts. Coun., 4th Sess., National Report 
Submitted in Accordance with Paragraph 15 (A) of the Annex to Human 
Rights Council Resolution 5/1, A/HRC/WG.6/4/CHN/1, 10 November 08, 
para. 60. In a section titled ``Freedom of speech and of the 
information media,'' Chinese officials note that ``China now has some 
310 radio stations, 350 television stations, some 2,000 newspapers, 
more than 9,000 periodicals or magazines and has published 240,000 book 
titles.'' One official reasoned that news censorship is impossible in 
China because there are approximately the same number of journalists as 
police and ``if all the police did was supervise journalists, they 
could do nothing else.'' CECC Staff Interview.
    \117\ ``Hu Jintao Speech Stresses Media's Role To Serve Party,'' 
Congressional-Executive Commission on China (Online), 15 August 08, 
citing ``Speech by Hu Jintao Delivered While Inspecting the Work of 
Renmin Ribao'' [Zai renmin ribao she kaocha gongzuo shi de jianghua], 
People's Daily (Online), 21 June 08.
    \118\ City of Shenzhen Urban Management Bureau (Online), ``During 
Research Visit to Shenzhen Newspapers, TV and Radio, and Publishing 
Groups, Liu Yupu Sends a Message to the Three Major Groups To Improve 
Revolving Around the Center, To Serve the General Situation in Order To 
Promote Shenzhen Scientific Development and Supply Strong Support of 
Public Opinion'' [Liu yupu dao shenzhen baoye, guangdian, chuban faxing 
jituan diaoyan shi jiyu san da jituan jinyibu weirao zhongxin, fuwu 
daju wei tuidong shenzhen kexue fazhan tigong qiangyouli yulun zhichi], 
13 March 09.
    \119\ General Administration on Press and Publication Guiding 
Opinion Regarding Further Promoting Reform of News Publication System 
[Guanyu jin yibu tuijin xinwen chuban tizhi gaige de zhidao yijian], 
issued 6 April 09, art. 4.
    \120\ Liu Kang, ``How to Forge a Rich and Colorful National Image 
of China'' [Ruhe dazao fengfu duocai de zhongguo guojia xingxiang], 
People's Daily Online (Online), 5 January 09.
    \121\ Vivian Wu and Adam Chen, ``Beijing in 45b Yuan Global Media 
Drive,'' South China Morning Post (Online), 13 January 09.
    \122\ Henry Sanderson, ``China Moves To Make Competitive Publishing 
Giants,'' Associated Press (Online), 7 April 09. At least one academic 
said the policy could spur greater professionalism among Chinese 
journalists. In April 2009 testimony before the U.S.-China Economic and 
Security Review Commission, Dr. Judy Polumbaum expressed the view that 
``specifically in reference to journalism, I would argue that external 
propaganda efforts in exposing Chinese media workers to international 
knowledge, ideas and examples create dynamics that further encourage 
professional trends in China's journalism corps.'' China's Propaganda 
and Influence Operations, Its Intelligence Activities That Target the 
United States, and the Resulting Impacts on U.S. National Security, 
Hearing of the U.S.-China Economic and Security Review Commission, 30 
April 09, Testimony of Dr. Judy Polumbaum, Professor of Journalism and 
Mass Communications, University of Iowa. Others, however, have taken 
the view that by consolidating the media industry into fewer entities 
it would make it easier for propaganda officials to control. CECC Staff 
Interview.
    \123\ General Administration on Press and Publication, Guiding 
Opinion Regarding Further Promoting Reform of News Publication System 
[Guanyu jin yibu tuijin xinwen chuban tizhi gaige de zhidao yijian], 
issued 6 April 09, art. 8.
    \124\ CECC, 2007 Annual Report, 10 October 07, 79-80. See also 
Reporting the News in China: First-Hand Accounts and Current Trends, 
Staff Roundtable of the Congressional-Executive Commission on China, 31 
July 09, Written Statement Submitted by Ashley Esarey, Visiting 
Assistant Professor of Politics, Whitman College. In his written 
statement, Esarey noted: ``Media commercialization during the Reform 
Era (1978-present) changed the incentives for media, which recognized 
that freer, less doctrinaire reporting appeals to the public. When 
opportunities appeared, greater media freedom has emerged, although 
local, rather than central, officials are the targets of critical news 
reports. In colloquial parlance, Chinese media `swat flies' but do not 
`hit tigers.' Powerful political and economic interests can coerce or 
bribe media to abandon potentially embarrassing stories.''
    \125\ Circular Regarding Further Completing Work To Safeguard News 
Reporting Activities [Guanyu jin yibu zuohao xinwen caifang huodong 
baozhang gongzuo de tongzhi], issued 11 November 08, art. 1. The 
government also announced that the new press cards would include 
additional language stating that officials ``at people's governments of 
all levels'' should offer assistance and protection to journalists in 
possession of the card. ``Without Reasonable Reason, Public Officials 
Should Not Refuse Interviews,'' China Youth Daily (Online), 11 February 
09.
    \126\ Kunming City Government Web Site, ``Announcement Regarding 
Seeking Comment to `Regulations on Kunming City Prevention of Officials 
Committing Crimes Work' '' [Guanyu zhengqiu ``kunming shi yufang zhiwu 
fanzui gongzuo tiaoli'' yijian de gonggao], issued 21 July 09, art. 
25(2). See also Wang Jingqiong, ``New Law Protects News Media,'' China 
Daily (Online), 19 August 09. A Yunnan University journalism professor 
quoted in the article said the regulation lacked specific definitions 
of ``interference'' and ``obstruction'' and did not explain what the 
media could supervise legally.
    \127\ ``Shandong Probes Into `Mental Hospital Detentions,' '' China 
Daily (Online), 9 December 08.
    \128\ ``Xu Zhiyong: Destined To Fight for Social Justice,'' China 
Digital Times (Online), 26 November 08.
    \129\ Chen Zhongxiaolu, ``Who Are These Guys Really Representing?'' 
[Tamen daibiao shei?], Caijing (Online), 12 March 09.
    \130\ Xie Chuanjiao, ``Call To Put Inmates in `Neutral Hands,' '' 
China Daily (Online), 24 March 09.
    \131\ Qin Xudong: ``Why Has `Green Dam' Met With Skepticism?'' 
[``Luba'' weihe zaoyu zhiyi], Caijing (Online), 9 June 09; 
``Questionable Move,'' China Daily (Online), 11 June 09.
    \132\ Bao Daozu, ``Activist on Trial for Subversion,'' China Daily 
(Online), 13 August 09; Lin Jiasi, ``Independent Investigator Put on 
Trial in Chengdu,'' Global Times (Online), 13 August 09.
    \133\ Evan Osnos, ``The Forbidden Zone,'' New Yorker, 20 July 09, 
57.
    \134\ Committee to Protect Journalists (Online), ``Falling Short: 
Olympic Promises Go Unfulfilled as China Falters on Press Freedom,'' 
2008, 24.
    \135\ ``Media Silence in China,'' Agence France-Presse (Online), 5 
June 09. The new English version of Global Times, which is controlled 
by the Party's flagship People's Daily newspaper, for example, issued a 
front page report on the atmosphere at Tiananmen Square on June 4, 
2009, while Chinese-language domestic news media remained silent on the 
issue. Jiang Xueqing, ``Prosperity Tangible Along Chang'an Ave,'' 
Global Times (Online), 4 June 09; Jonathan Ansfield, ``English-Language 
Chinese Newspaper Breaks Silence on Tiananmen Crackdown,'' New York 
Times (Online), 4 June 09.
    \136\ ``Hu Jintao Speech Stresses Media's Role To Serve Party,'' 
Congressional-Executive Commission on China (Online), 15 August 08, 
citing ``Speech by Hu Jintao Delivered While Inspecting the Work of 
Renmin Ribao'' [Zai renmin ribao she kaocha gongzuo shi de jianghua], 
People's Daily (Online), 21 June 08.
    \137\ Ibid.
    \138\ Josephine Ma, ``Crises `Contained by Controls on Media,' '' 
South China Morning Post (Online), 6 October 08.
    \139\ ``China's Earthquake Coverage More Open but Not Uncensored,'' 
CECC China Human Rights and Rule of Law Update, June 2008, 2; CECC, 
2008 Annual Report, 31 October 08, 59.
    \140\ Vivian Wu, ``Censors Allow Reports on State Media, but Go To 
Work on Internet,'' South China Morning Post (Online), 7 July 09.
    \141\ Ibid.
    \142\ One official we spoke with, in describing the areas in which 
China has improved in press freedom, said that Xinhua reported the 
Sichuan earthquake just ten minutes after it occurred, beating out 
Agence France-Presse by six minutes and Associated Press by eight 
minutes. CECC Staff Interview.
    \143\ UN GAOR, Hum. Rts. Coun., 11th Sess., Report of the Working 
Group on the Universal Periodic Review--China, A/HRC/11/25, 3 March 09, 
para. 71.
    \144\ CECC, 2008 Annual Report, 31 October 08, 59.
    \145\ Ibid., 141.
    \146\ ``State Council Issues New Foreign Journalist Regulations,'' 
CECC China Human Rights and Rule of Law Update, November 2008, 3, 
citing Regulations of the People's Republic of China on News Covering 
Activities of the Permanent Offices of Foreign News Agencies and 
Foreign Journalists [Zhonghua renmin gongheguo waiguo changzhu xinwen 
jigou he waiguo jizhe caifang tiaoli], issued 17 October 08, effective 
17 October 08.
    \147\ ``New Rules on Reporting Activities in China a Rollback: HK 
Journalists,'' Kyodo, 6 February 09 (Open Source Center, 6 February 
09).
    \148\ Foreign Correspondents' Club of China (Online), ``Government 
Should Allow Reporters Access to Tibetan Areas,'' 9 March 09.
    \149\ Foreign Correspondents' Club of China (Online), ``Open Letter 
on Reporting Conditions in Xinjiang,'' 20 July 09.
    \150\ ``FM Spokesman: Violence in Urumqi Not a Peaceful Protest,'' 
Xinhua (Online), 7 July 09.
    \151\ Foreign Correspondents' Club of China (Online), ``Open Letter 
on Reporting Conditions in Xinjiang,'' 20 July 09.
    \152\ Reporting the News in China: First-Hand Accounts and Current 
Trends, Staff Roundtable of the Congressional-Executive Commission on 
China, 31 July 09, Written Statement Submitted by Kathleen E. 
McLaughlin, Chair of Media Freedoms Committee and Secretary, Foreign 
Correspondents' Club of China. See also Human Rights Watch (Online), 
``China: New Restrictions Target Media,'' 18 March 09; Foreign 
Correspondents' Club of China (Online), ``Beijing: Government Should 
Stop Intimidating Assistants of Foreign Media,'' 4 March 09.
    \153\ See, e.g., Christopher Bodeen, ``Soldier's Story a New Look 
at Tiananmen Crackdown,'' Associated Press (Online), 19 March 09; Audra 
Ang, ``Tiananmen 20 Years Later: A Survivor's Story,'' Associated Press 
(Online), 13 April 09; Tang Xiaozhao, ``My First `Tea' Experience,'' 
Bosi Xiaozhao Blog (Online), 21 February 09; Andrew Jacobs, ``Tiananmen 
Square Scars Soldier Turned Artist,'' New York Times (Online), 4 June 
09.
    \154\ International Covenant on Civil and Political Rights, adopted 
by UN General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76, art. 19.
    \155\ Ministry of Foreign Affairs (Online), ``Foreign Ministry 
Spokesperson Liu Jianchao's Regular Press Conference on December 16, 
2008,'' 17 December 08.
    \156\ UN GAOR, Hum. Rts. Coun., 11th Sess., Report of the Working 
Group on the Universal Periodic Review--China, A/HRC/11/25, 3 March 09, 
para. 71.
    \157\ Ministry of Foreign Affairs (Online), ``Foreign Ministry 
Spokesperson Qin Gang's Regular Press Conference on March 24, 2009,'' 
24 March 09. In responding to a question about China's blocking of the 
YouTube Web site, a spokesperson for the Chinese foreign ministry said 
that it had drawn upon the experience of other countries. The 
spokesperson specifically cited U.S. regulations, including the Child 
Protection Act, Digital Millennium Copyright Act, other acts protecting 
consumers and minors, and intellectual property rights, as well as the 
Patriot Act. The official failed to note, however, that these acts have 
been challenged and litigated before U.S. courts and in some cases 
provisions have been struck down as being overbroad. No practical 
equivalent exists in China for citizens to challenge the 
constitutionality of such provisions even though events this past year 
indicated widespread discontent with official campaigns nominally aimed 
at censoring ``vulgar'' material but which also swept up content deemed 
politically sensitive. The spokesperson also repeated the common claim 
that what he considered the sizable number of Internet users, Web 
sites, and blogs in China is ``convincing evidence of the fully open 
internet in China.'' The government made similar claims in its National 
Report to the UN Human Rights Council in November 2008, arguing further 
that public investment in expansion of information industries is 
intended to ``strengthen the infrastructure that allows citizens to 
fully enjoy freedom of speech.'' UN GAOR, Hum. Rts. Coun., 4th Sess., 
National Report Submitted in Accordance with Paragraph 15 (A) of the 
Annex to Human Rights Council Resolution 5/1, A/HRC/WG.6/4/CHN/1, 10 
November 08, para. 60.
    \158\ UN GAOR, Hum. Rts. Coun., 4th Sess., National Report 
Submitted in Accordance with Paragraph 15 (A) of the Annex to Human 
Rights Council Resolution 5/1, A/HRC/WG.6/4/CHN/1, 10 November 08, 
para. 60.
    \159\ CECC, 2007 Annual Report, 10 October 07, 81.
    \160\ China Internet Network Information Center (Online), ``24th 
Statistical Report on Internet Development in China'' [Di 24 ci 
zhongguo hulianwangluo fazhan zhuangkuang diaocha tongji baogao], 16 
July 09; China Internet Network Information Center (Online), ``CNNIC 
Publishes 24th Statistical Report on Internet Development in China,'' 
28 July 09.
    \161\ China Internet Network Information Center (Online), ``In Our 
Country More Than 100 Million Use Cell Phones To Browse Internet,'' 20 
April 09; China Internet Network Information Center (Online), ``24th 
Statistical Report on Internet Development in China'' [Di 24 ci 
zhongguo hulianwangluo fazhan zhuangkuang diaocha tongji baogao], 16 
July 09.
    \162\ Freedom House (Online), ``Freedom on the Net: A Global 
Assessment of Internet and Digital Media,'' 30 March 09, 34.
    \163\ Francois Bougon, ``Chinese Web Users Demonstrate Their 
Strength,'' Agence France-Presse (Online), 2 June 09.
    \164\ Ian Ransom, ``China Web Users Turn Keen Eye Back on 
Government,'' Reuters (Online), 31 March 09.
    \165\ ``China Web Controversy Highlights Public Role,'' Associated 
Press (Online), 1 July 09.
    \166\ ``The Rights Defender China Web Site Is Closed Again'' 
[Weiquan zhongguo wang zai guanbi], Radio Free Asia, reprinted in 
Chinese Human Rights Defenders (Online), 6 October 08.
    \167\ ``Officials Increase Censorship of Foreign and Domestic Web 
Sites,'' CECC China Human Rights and Rule of Law Update, January 2009, 
2, citing ``Well-Known Blog Web Site Bullog Shut Down'' [Zhiming boke 
wangzhan niubo beiguan], Southern Metropolitan Daily (Online), 12 
January 09.
    \168\ ``Xinjiang Authorities Block, Punish Free Expression,'' CECC 
China Human Rights and Rule of Law Update, No. 3, 2009, 3.
    \169\ ``Popular Websites Closed Over Reports on Inquiry Into 
Graft,'' Associated Press (Online), 22 July 09.
    \170\ CECC Testing.
    \171\ ``Internet Subversion: Will Not Tolerate and Treat With 
Contempt Threats to Security'' [Wangluo dianfu: burong xiaoqu de anquan 
weixie], PLA Daily (Online), 6 August 09; Ng Tze-wei, ``Warning Over 
Twitter, YouTube `Subversion,' '' South China Morning Post (Online), 7 
August 09.
    \172\ ``Officials Increase Censorship of Foreign and Domestic Web 
Sites,'' CECC China Human Rights and Rule of Law Update, January 2009, 
2.
    \173\ Miguel Helft, ``YouTube Being Blocked in China, Google 
Says,'' New York Times (Online), 24 March 09.
    \174\ Peter Foster, ``China Begins Internet `Blackout' Ahead of 
Tiananmen Anniversary,'' Telegraph (Online), 2 June 09.
    \175\ D'Arcy Doran, ``Savvy Internet Users Defy China's Censors on 
Riot,'' Agence France-Presse (Online), 6 July 09; Fiona Tam, 
``Censorship Issue Settled as Authorities Silence Booming Mainland 
Twitter Clone,'' South China Morning Post (Online), 20 July 09.
    \176\ Alexa Olesen, ``Chinese Web Sites Close Amid Tightening 
Controls,'' Associated Press, reprinted in South China Morning Post 
(Online), 21 July 09.
    \177\ China Internet Network Information Center (Online), China 
Cell Phone Internet Browsing Behavior Research Report [Zhongguo shouji 
shangwang xingwei yanjiu baogao], 18 February 09, 11-12.
    \178\ Measures for the Administration of Internet Information 
Services [Hulianwang xinxi fuwu guanli banfa], issued 20 September 00, 
effective 25 September 00, art. 15.
    \179\ See, e.g., Provisions on the Administration of Internet New 
Information Services, issued 25 September 05, effective 25 September 
05, arts. 19, 20, 21.
    \180\ ``Officials Increase Censorship of Foreign and Domestic Web 
Sites,'' CECC China Human Rights and Rule of Law Update, January 2009, 
2.
    \181\ For a recent study looking at how companies censor blogs, see 
Rebecca MacKinnon's February 2009 report finding that the extent of 
censorship among different blog service providers ``varies 
drastically.'' Rebecca MacKinnon, ``China's Censorship 2.0: How 
Companies Censor Bloggers,'' First Monday (Online), Vol. 14, No. 2, 2 
February 09.
    \182\ Jonathan Ansfield, ``China Web Sites Seeking Users' Names,'' 
New York Times (Online), 5 September 09. According to the New York 
Times article, officials have been pushing real name registration 
systems since 2003. As reported in the Commission's 2007 Annual Report, 
officials had sought to implement a policy requiring all bloggers to 
register under their real names but in 2007 decided against making the 
policy mandatory following industry resistance. CECC, 2007 Annual 
Report, 10 October 07, 83. Even without the real name system, officials 
can trace comments back to an Internet protocol address.
    \183\ Freedom House (Online), ``Freedom on the Net: A Global 
Assessment of Internet and Digital Media,'' 30 March 09, 37.
    \184\ ``Baidu's Internal Monitoring and Censorship Document Leaked 
(1),'' China Digital Times (Online), 1 May 09.
    \185\ Ibid.
    \186\ Human Rights Watch (Online), ``Race to the Bottom: Corporate 
Complicity in Chinese Internet Censorship,'' 9 August 06.
    \187\ Jessica E. Vascellaro, ``Google, Yahoo, Microsoft Set Common 
Voice Abroad,'' Wall Street Journal (Online), 28 October 08. The 
initiative's Web site is at www.globalnetworkinitiative.org.
    \188\ ``Officials Harass Charter 08 Signers; Liu Xiaobo Under 
Residential Surveillance,'' CECC China Human Rights and Rule of Law 
Update, No. 1, 2009, 3.
    \189\ ``Restrictions on Information Access in Tibetan Areas 
Increase,'' CECC China Human Rights and Rule of Law Update, No. 2, 
2009, 2.
    \190\ Michael Wines, ``China: Censors Bar Mythical Creature,'' New 
York Times (Online), 20 March 09.
    \191\ Reporters Without Borders (Online), ``All References to 
Tiananmen Square Massacre Closely Censored for 20 Years,'' 2 June 09.
    \192\ ``Human Rights Lawyer Arrested on Tax Evasion Charges,'' 
China Daily (Online), 19 August 09.
    \193\ David Bandurski, ``China's Guerilla War for the Web,'' Far 
Eastern Economic Review (Online), July/August 2008.
    \194\ ``Beijing To Recruit Tens of Thousands of `Internet 
Supervision Volunteers,' '' Xinhua (Online), 19 June 09.
    \195\ ``Seven Ministries and Commissions Launch Special Operation 
To Rectify Internet of Vulgar Material'' [Qi buwei kaizhan zhengzhi 
hulianwang disu zhi feng zhuanxiang xingdong], China Net (Online), 5 
January 09.
    \196\ State Administration of Radio, Film, and Television, Circular 
Regarding Strengthening Content Management of Internet Video and Audio 
Programming [Guangdian zongju guanyu jiaqiang hulianwang shiting jiemu 
neirong guanli de tongzhi], issued 30 March 09, art. 1.
    \197\ Andrew Jacobs, ``Chinese Learn Limits of Online Freedom as 
the Filter Tightens,'' New York Times (Online), 4 February 09.
    \198\ ``Dian Provincial Party Committee Propaganda Department 
Deputy Director Wu Hao Answers Questions From Netizens About `Eluding 
the Cat' Incident'' [Dian shengwei xuanchuanbu fubuzhang wu hao deng 
jiu ``duo mao mao'' shijian dayi wangmin], Xinhua (Online), 22 February 
09.
    \199\ Liu Suhua, ``Learning To Hear Public Opinion via the 
Internet,'' People's Daily (Online), 6 February 09 (Open Source Center, 
6 February 09).
    \200\ ``Jiang Jianguo: 8 Moves `To Support' Purifying the 
Publishing Market for Minors'' [Jiang jianguo: ba jucuo ``huhang'' 
jinghua wei chengnian ren chubanwu shichang], Guangming Daily, 
reprinted in Xinhua (Online), 3 March 09.
    \201\ ``Scientists Develop Software To Detect `Undesirable' 
Internet Content,'' Xinhua, 13 February 09 (Open Source Center, 13 
February 09).
    \202\ ``Inspection and Control of Internet, China Forces 
Installation of `Blue Shield' '' [Jiankong wangluo zhongguo you 
bizhuang ``landun''], Apple Daily (Online), 13 September 09.
    \203\ Rebecca MacKinnon, ``China's Censorship Arms Race 
Escalates,'' CircleID (Online), 28 September 09; `` `Blue Dam' System 
Under Development, Functionality To Exceed `Green Dam' by 20 Times'' 
[``Lanba'' xitong ni yanzhi xingneng jiang chao ``luba'' 20 bei], 
Finet.hk (Online), 2 July 09.
    \204\ Circular Regarding the Pre-Installation of Green Browsing 
Filter Software on Computers [Guanyu jisuanji yuzhuang luse shang 
wangluo guolu ruanjian de tongzhi], issued 19 May 09.
    \205\ ``Chinese Government Requires Censorship Software To 
Accompany Computers Sold After July 1,'' CECC China Human Rights and 
Rule of Law Update, No. 4, 2009, 2.
    \206\ ``Questionable Move,'' China Daily (Online), 11 June 09; Qin 
Xudong, ``Why `Green Dam' Is Being Called Into Question'' [``Luba'' 
weihe zaoyu zhiyi], Caijing (Online), 9 June 09.
    \207\ OpenNet Initiative (Online), ``China's Green Dam: The 
Implications of Government Control Encroaching on the Home PC,'' June 
2009.
    \208\ Ibid.
    \209\ ``Chinese Government Requires Censorship Software To 
Accompany Computers Sold After July 1,'' CECC China Human Rights and 
Rule of Law Update, No. 4, 2009, 2.
    \210\ Office of the United States Trade Representative (Online), 
``Secretary Gary Locke and USTR Ron Kirk Call on China To Revoke 
Mandatory Internet Filtering Software,'' 24 June 09.
    \211\ ``Chinese Government Delays Pre-Installation of Censorship 
Software on Computers Sold in China,'' CECC China Human Rights and Rule 
of Law Update, No. 4, 2009, 2.
    \212\ ``Acer, ASUS Sell Computers With `Green Dam' Pre-Installed,'' 
Radio Free Asia (Online), 24 July 09.
    \213\ ``Li Yizhong: Won't Force All Computers Sold To Install 
`Green Dam' '' [Li yishong: bu hui zai suoyou shou de jisuanjishang 
qiangzhuang ``luba''], Xinhua (Online), 13 August 09.
    \214\ All commercial Web sites must obtain a government license. 
Measures for the Administration of Internet Information Services 
[Hulianwang xinxi fuwu guanli banfa], issued 20 September 00, effective 
25 September 00, art. 4. All non-commercial Web site operators must 
register. Registration Administration Measures for Non-Commercial 
Internet Information Services [Fei jingyingxing hulianwang xinxi fuwu 
bei'an guanli banfa], issued 28 January 05, effective 20 March 05, art. 
5. Because the MII's registration system gives the government 
discretion to reject an application based on content (i.e., whether the 
Web site operator intends to post ``news,'' and if so, whether it is 
authorized to do so), it is qualitatively different from registration 
which all Web site operators must undertake with a domain registrar, 
and constitutes a de facto licensing scheme.
    \215\ Provisions on the Administration of Internet News Information 
Services [Hulianwang xinwen xinxi fuwu guanli guiding], issued 25 
September 05, effective 25 September 05, arts. 5, 11, 12.
    \216\ Provisions on the Administration of Internet Video and Audio 
Programming Services [Hulianwang shiting jiemu fuwu guanli guiding], 
issued 20 December 07, effective 31 January 08, art. 7.
    \217\ ``Internet Audiovisual Programs 2008 Third Spot Check 
TVsou.Com Ordered To Shut Down'' [Hulianwang shiting jiemu 2008 nian 
disanci choucha zeling tingzhi soushiwang], People's Daily (Online), 28 
October 08.
    \218\ ``Official: Internet Cut in Xinjiang To Prevent Riot From 
Spreading,'' Xinhua (Online), 7 July 09. An Urumqi Communist Party 
official said on July 7, ``We cut Internet connection in some areas of 
Urumqi in order to quench the riot quickly and prevent violence from 
spreading to other places.''
    \219\ Ben Blanchard, ``China Tightens Web Screws After Xinjiang 
Riot,'' Reuters (Online), 6 July 09; Owen Fletcher and Dan Nystedt, 
``Internet, Twitter Blocked in China City After Ethnic Riot,'' PC World 
(Online), 6 July 09.
    \220\ D'Arcy Doran, ``Savvy Internet Users Defy China's Censors on 
Riot,'' Agence France-Presse (Online), 6 July 09.
    \221\ Hiroyuki Sugiyama and Yomiuri Shimbun, ``Suit Latest Pro-
Democracy Move in China, Ex-Apparatchik Demanding Net Provider Unblock 
Access to His Reform-Oriented Blog,'' Daily Yomi (Online), 21 January 
09; Reporters Without Borders (Online), ``Repression Continues Six 
Months After Beijing Olympics Opening Ceremony, but Media and 
Dissidents Fight Back,'' 5 February 09.
    \222\ Kathrin Hille, ``Victim of Beijing Internet Censorship Wins 
Landmark Court Ruling,'' Financial Times (Online), 26 May 09.
    \223\ Wang Huazhong, ``Blogging Judge Sues Over Pulled Plug,'' 
China Daily (Online), 10 June 09. For an English translation of the 
civil complaint in the case, see William Farris, ``Huang Zhijia 2009 
Civil Complaint for Breach of Contract and Copyright Infringement,'' 
Feichangdao (Online), 7 June 09.
    \224\ Wang Huazhong, ``Blogging Judge Sues Over Pulled Plug,'' 
China Daily (Online), 10 June 09.
    \225\ ``Censorship of Internet and Foreign News Broadcasts 
Following Tibetan Protests,'' CECC China Human Rights and Rule of Law 
Update, May 2008, 2.
    \226\ ``Chinese Media Censor Parts of President Obama's 
Inauguration Speech,'' CECC China Human Rights and Rule of Law Update, 
February 2009, 2.
    \227\ ``Media Feature: China Urged To Step Up Jamming of `Hostile' 
Foreign Broadcasters,'' BBC, 18 March 09 (Open Source Center, 18 March 
09); ``Ma Qingsheng: Urges Enlarging of the Strength of Interference 
and Suppression of Foreign Enemy Broadcasting Stations'' [Ma qingsheng: 
jianyi qiangda ganrao he yazhi jingwai ditai gongzuo de lidu], Xinhua 
(Online), 9 March 09.
    \228\ Joe McDonald, ``China Announces Regulations for Financial 
Information in Settlement With U.S., Europe,'' Associated Press, 
reprinted in Los Angeles Times (Online), 30 April 09.
    \229\ Ibid.
    \230\ State Council Information Office, National Human Rights 
Action Plan of China (2009-2010), Xinhua (Online), 13 April 09, sec. 
II(5).
    \231\ ``China Posts Annual Government Budget Online for First 
Time,'' Xinhua (Online), 20 March 09.
    \232\ ``The Web Sites for All State Offices and Government Agencies 
Must Realize Openness to Outside by Next Year'' [Suoyou guojia jiguan 
he zhengfu jigou wangzhan mingnian xu shixian duiwai gongkai], China 
Radio, reprinted in Xinhua (Online), 15 June 09.
    \233\ CECC, 2007 Annual Report, 10 October 07, 74-75; CECC, 2008 
Annual Report, 31 October 08, 58-60.
    \234\ Regulations of the People's Republic of China on Open 
Government Information [Zhonghua renmin gongheguo zhengfu xinxi gongkai 
tiaoli], issued 5 April 07, effective 1 May 08, art. 38.
    \235\ Ibid., art. 13.
    \236\ Ibid., art. 33.
    \237\ Owen Fletcher, ``China's Transparency Is Just Thin Air,'' 
Asia Times (Online), 12 September 08.
    \238\ Ibid.
    \239\ Ye Doudou, ``A Judicial Interpretation on Open Information 
Expected This Year'' [Xinxi gongkai sifaijeshi youwang niannei chutai], 
Caijing (Online), 10 March 09.
    \240\ ``Lawyer's Request for RTL Information Disclosure Rebuffed by 
Chinese Ministry of Justice,'' Dui Hua Human Rights Journal (Online), 
18 June 09.
    \241\ Owen Fletcher, ``China's Transparency Is Just Thin Air,'' 
Asia Times (Online), 12 September 08.
    \242\ Ye Doudou, ``A Judicial Interpretation on Open Information 
Expected This Year'' [Xinxi gongkai sifa jieshi youwang niannei 
chutai], Caijing (Online), 10 March 09.
    \243\ Ibid.
    \244\ Ibid.
    \245\ Ibid.
    \246\ Ye Doudou and Duan Hongqing, ``How Wide Is the Door to 
Chinese Governments' Information Disclosure? '' Caijing (Online), 2 May 
07.
    \247\ ``China To Amend State Secrets Law, Avoid Internet Leaks,'' 
Xinhua (Online), 22 June 09.
    \248\ National People's Congress (Online), ``Guarding State Secrets 
Law (Revised Draft Legislation) Full Text and Explanation'' [Baoshou 
guojia mimi fa (xiuding caoan) quanwen ji shuoming], 27 June 09; Human 
Rights in China (Online), ``China Considers State Secrets Law 
Revision,'' 24 July 09. For an English translation of the full text of 
the draft and explanation, see Human Rights in China (Online), ``Law of 
the People's Republic of China on Guarding State Secrets (Revised 
Draft) (2009) Full Text and Explanation,'' 24 July 09.
    \249\ See, e.g., PRC Law on the Protection of State Secrets, issued 
5 September 88, effective 1 May 89, art. 8. Article 8 defines state 
secrets as, among other things, secrets relating to ``major policy 
decisions on state affairs'' (clause 1), ``national economic and social 
development'' (clause 4), ``science and technology'' (clause 5), as 
well as ``other matters that are classified as state secrets by the 
state secret-guarding department'' (clause 7). In April 2009, lawyers, 
scholars, and experts organized by Peking University and the Beijing 
Lawyers Association met to discuss revising the Law on Guarding State 
Secrets. Minzu University Professor Xiong Wenzhao said that the scope 
of state secrets under the current law was too broad and that under 
clause 7 of Article 8, ``all information can be brought within the 
scope of a secret to be guarded.'' ``Guarding State Secrets Law 
Implemented for 20 Years, Scholars Suggest the Procedures for 
Determining a Secret Be Made Clear'' [Baoshou guojia mimi fa shishi 20 
nian, xuezhe jianyi mingxi dingmi chengxu], China Ningbo Net (Online), 
20 April 09. See also Measures for the Implementation of the Law on the 
Protection of State Secrets [Baoshou guojia mimi fa shishi banfa], 
issued 25 April 90, effective 25 May 90, art. 4.
    \250\ Owen Fletcher, ``China's Transparency Is Just Thin Air,'' 
Asia Times (Online), 12 September 08; Ye Doudou, ``A Judicial 
Interpretation on Open Information Expected This Year'' [Xinxi gongkai 
sifa jieshi youwang niannei chutai], Caijing (Online), 10 March 09; 
``Lawyer's Request for RTL Information Disclosure Rebuffed by Chinese 
Ministry of Justice,'' Dui Hua Human Rights Journal (Online), 18 June 
09.
    \251\ ``Chengdu Court Postpones Trial of Activist Huang Qi,'' CECC 
China Human Rights and Rule of Law Update, No. 2, 2009, 3.
    \252\ Jerome Cohen, ``Prisoner of the System,'' South China Morning 
Post (Online), 21 July 09.
    \253\ ``Guarding State Secrets Law Implemented for 20 Years, 
Scholars Suggest the Procedures for Determining a Secret Be Made 
Clear'' [Baoshou guojia mimi fa shishi 20 nian, xuezhe jianyi mingxi 
dingmi chengxu], China Ningbo Net (Online), 20 April 09.
    \254\ Measures for the Implementation of the Law on the Protection 
of State Secrets [Baoshou guojia mimi fa shishi banfa], issued 25 April 
90, effective 25 May 90, art. 4. Article 4 expands the definition of 
state secrets beyond those matters already classified as such to 
include matters that would give rise to certain consequences, including 
that which ``harms political or economic interests of the nation with 
respect to the outside world,'' or ``weakens the nation's economy or 
technological strength.'' See also Human Rights in China, ``State 
Secrets: China's Legal Labyrinth,'' June 2007, 14.
    \255\ ``Guarding State Secrets Law Implemented for 20 Years, 
Scholars Suggest the Procedures for Determining a Secret Be Made 
Clear'' [Baoshou guojia mimi fa shishi 20 nian, xuezhe jianyi mingxi 
dingmi chengxu], China Ningbo Net (Online), 20 April 09; ``Redefine 
State Secrets,'' China Daily (Online), 23 June 09.
    \256\ ``Redefine State Secrets,'' China Daily (Online), 23 June 09.
    \257\ Ng Tze-wei, ``Onus on Lawmakers To Clarify Draft Secrets 
Law,'' South China Morning Post (Online), 31 July 09.
    \258\ ``Protecting State Secrets Law Implemented for 20 Years, 
Scholars Suggest the Procedures for Determining a Secret be Made 
Clear'' [Baoshou guojia mimi fa shishi 20 nian, xuezhe jianyi mingxi 
ding mi chengxu], China Ningbo Net (Online), 20 April 09.
    \259\ Human Rights in China (Online), ``China Considers State 
Secrets Law Revision,'' 24 July 09.
    \260\ National People's Congress (Online), ``Guarding State Secrets 
Law (Revised Draft Legislation) Full Text and Explanation'' [Baoshou 
guojia mimi fa (xiuding caoan) quanwen ji shuoming], 27 June 09, art. 
26.
    \261\ Ibid., arts. 44-49.
    \262\ Ibid., art. 17.
    \263\ Sharon LaFraniere, ``Graft in China Covers up Toll of Coal 
Mines,'' New York Times (Online), 11 April 09.
    \264\ Stephen Chen, ``Gag Order Over Fatal Dam Burst,'' South China 
Morning Post (Online), 9 October 08.
    \265\ ``Chinese Authorities Tried To Cover up Toxic Eggs,'' Agence 
France-Presse (Online), 30 October 08.
    \266\ ``China Officials Covered up Maggot Outbreak in Oranges,'' 
Agence France-Presse, 31 October 08 (Open Source Center, 31 October 
08).
    \267\ ``Henan Province Minquan County Hand, Foot, and Mouth Disease 
Situation is Serious'' [Henan sheng minquan xian shouzukoubing qing 
yanzhong], China National Radio (Online), 24 March 09.
    \268\ ``China Evasive on Number of Students Killed in Quake,'' 
Agence France-Presse (Online), 7 March 09; David Barboza, ``Artist 
Defies Web Censors in a Rebuke of China,'' New York Times (Online), 19 
March 09.
    \269\ Stephen Chen, ``Majority of Cities Refuse To Release 
Pollution Data,'' South China Morning Post (Online), 4 June 09.

    Notes to Section II--Worker Rights
    \1\ Yuan Dingbo, ``Labor Disputes Double in 2008 Amid Slowdown,'' 
China Daily (Online), 9 May 09.
    \2\ Shai Oster, ``China Faces Unrest as Economy Falters,'' Wall 
Street Journal (Online), 28 December 08; CECC Staff Interview.
    \3\ ``Forecast of Six Hot Topics in Labor Disputes During 2009'' 
[2009 nian laodong zhengyi liu da redian yuce], Zhi Ye, No. 25, 
reprinted in Bousun Wang (Online), 28 February 09.
    \4\ ``Special Report on the Labor Contract Law'' [Laodong hetong fa 
zhuanti baodao], Xinhua (Online), 30 December 08.
    \5\ Regulations To Promote Harmonious Labor Relations in the 
Shenzhen Special Economic Zone [Shenzhen jingji tequ hexie laodong 
guanxi cujin tiaoli], issued 23 September 08, effective 1 November 08; 
Jiangsu High People's Court and Labor Arbitration Committee Circular on 
the Opinion on Questions Regarding the Use of the PRC Law on Mediation 
and Arbitration in Labor Disputes [Jiangsu sheng gaoji renmin fayuan 
jiangsu sheng laodong zhengyi zhongcai weiyuanhui yinfa ``guanyu 
shiyong ruogan wenti de yijian'' de tongzhi], issued and effective 10 
October 08; Jiangsu High People's Court Guiding Opinion on the Handling 
of Labor Dispute Cases in the Current Macroscopic Economic Situation 
[Jiangsu sheng gaoji renmin fayuan guanyu zai dangqian hongguan jingji 
xingshi xia tuoshan shenli laodong zhengyi anjian de zhidao yijian], 
issued 27 February 09; Circular on Improvement of Standardized Measures 
To Handle the Establishment, Modification, Dissolution, and 
Cancellation of Enterprise Labor Contracts in Fujian Province (Trial) 
[Guanyu yinfa fujian sheng jinyibu guifan qiye laodong hetong dingli 
biangeng jiechu he zhongzhi de banfa (shixing) de tongzhi], issued 31 
March 08; Guangdong High People's Court and Guangdong Labor Dispute 
Arbitration Committee Guiding Opinion on Questions About the Use of the 
Labor Dispute Mediation and Arbitration Law and the Labor Contract Law 
[Guangdong sheng gaoji renmin fayuan guangdong sheng laodong zhengyi 
zhongcai weiyuanhui guanyu shiyong ``laodong zhengyi tiaojie zhongcai 
fa,'' ``laodong hetong fa'' ruogan wenti de zhidao yijian], issued 23 
June 08; Shanghai High People's Court Circular on the Guiding Opinion 
on Labor Dispute Procedural Questions [Shanghai shi gaoji renmin fayuan 
guanyu yinfa guanyu laodong zhengyi jiufen ruogan chengxu wenti de 
yijian de tongzhi], issued 8 July 08; Shanghai High People's Court 
Circular on Questions About the Use of the Labor Contract Law [Shanghai 
shi gaoji renmin fayuan guanyu yinfa guanyu shiyong laodong hetong fa 
ruogan wenti de yijian de tongzhi], issued 3 March 09.
    \6\ Supreme People's Court Guiding Opinion on the Correct Handling 
of Trial Work Involving Labor Dispute Cases in the Current Situation 
[Zuigao renmin fayuan guanyu dangqian xingshixia zuohao laodong zhengyi 
jiufen anjian shenpan gongzuo de zhidao yijian], issued and effective 6 
July 09.
    \7\ CECC Staff Interview.
    \8\ One expert called for a temporary halt in the Labor Contract 
Law's implementation. ``Economist Zhang Weiying Calls for a Decisive 
Halt in the Implementation of the Labor Contract Law, Says It Hurts the 
Interests of Workers'' [Jingji xuejia zhang weiying: laodong hetong fa 
sunhai gongren de liyi jianyi guoduan tingzhi zhixing], Fenghuang 
Finance Net (Online), 8 February 09.
    \9\ Supreme People's Court Guiding Opinion on the Correct Handling 
of Trial Work Involving Labor Dispute Cases in the Current Situation 
[Zuigao renmin fayuan guanyu dangqian xingshixia zuohao laodong zhengyi 
jiufen anjian shenpan gongzuo de zhidao yijian], issued and effective 6 
July 09.
    \10\ Ibid.
    \11\ Ibid., secs. 1, 2, and 7.
    \12\ Ibid., secs. 2, 9.
    \13\ Ibid., secs. 5, 9.
    \14\ Ministry of Human Resources and Social Security, Ministry of 
Finance, and State Administration of Taxation Circular on Issues 
Related to Adopting Active Measures To Ease the Burden on Enterprises 
To Stabilize Labor Relations (Issued by the Ministry of Human Resources 
and Social Security [2008] No. 117) [Renli ziyuan he shehui baozhang 
bu, caizheng bu, guojia shuiwu zongju guanyu caiqu jiji cuoshi jianqing 
qiye fudan wending jiuye jushi youguan wenti de tongzhi (renshe bu fa 
[2008] 117 hao)], issued 20 December 08.
    \15\ ``Government Takes Steps To Limit Layoffs,'' China Employment 
Law Update, Baker & McKenzie (Online), December 2008; Ministry of Human 
Resources and Social Security, All-China Federation of Trade Unions, 
and China Enterprise Directors Association, Guiding Opinion on How To 
Maintain Stable Labor Relations in the Current Economic Situation 
[Guanyu yingdui dangqian jingji xingshi wending laodong guanxi de 
zhidao yijian], issued 23 January 09.
    \16\ Ministry of Human Resources and Social Security, All-China 
Federation of Trade Unions, and China Enterprise Directors Association, 
Guiding Opinion on How To Maintain Stable Labor Relations in the 
Current Economic Situation [Guanyu yingdui dangqian jingji xingshi 
wending laodong guanxi de zhidao yijian], issued 23 January 09.
    \17\ Ibid., secs. 2, 4.
    \18\ Ibid., sec. 2.
    \19\ Ibid., sec. 5.
    \20\ Ibid., secs. 1, 2, 3, and 6.
    \21\ Yang Aoduo, ``In 2009 the `Rainbow Plan' for Collective 
Contract System Will Be Implemented Nationwide,'' [2009 nian jiti 
hetong zhidu ``caihong jihua'' jiang zai quanguo fanwei shishi], Legal 
Daily (Online), 5 January 09.
    \22\ ``Citizens Have Their Say on New Social Security System,'' 
China Daily, reprinted in China Economic Net (Online), 17 February 09. 
See also PRC Social Insurance Law (Draft) [Zhonghua renmin gongheguo 
shehui baoxian fa (cao'an)], issued 28 December 08, art. 56.
    \23\ PRC Central People's Government (Online), ``Implementation of 
a National Social Security System and Social Security Cards Is a Long-
Term Goal'' [Shixing quanguo tongyi shehui baoxian haoma he shehui 
baoxianka shi changyuan mubiao], 11 June 09.
    \24\ See also National People's Congress (Online), ``Draft Law of 
Social Insurance Draws Nationwide Debate,'' 20 February 09.
    \25\ PRC Social Insurance Law (Draft) [Zhonghua renmin gongheguo 
shehui baoxian fa (cao'an)], issued 28 December 08, arts. 9-11 (on the 
payment of retirement premiums), arts. 20-21 (on payment of medical 
insurance), and art. 39 (on the payment of unemployment insurance), 
arts. 29 (on the payment of work-related injury insurance) and 49 (on 
payment of childbirth insurance).
    \26\ Ibid., arts. 80-82.
    \27\ Ibid., art. 17. See also ``Social Security Umbrella 
Expanded,'' China National Committee on Ageing (Online), 14 July 09.
    \28\ PRC Social Insurance Law (Draft) [Zhonghua renmin gongheguo 
shehui baoxian fa (cao'an)], issued 28 December 08, arts. 28 (on the 
transfer of medical insurance), and 48 (on the transfer of unemployment 
insurance).
    \29\ Ibid., arts. 19 (on medical insurance) and 21 (on cooperative 
funds).
    \30\ Ibid., art. 21.
    \31\ Ibid., art. 42. If unemployment insurance premiums were paid 
for more than one year and less than five, the unemployed worker can 
receive unemployment payments for a maximum of 12 months. If the 
premiums were paid for more than 5 years but less than 10 years, the 
unemployed worker can receive unemployment payments for a maximum of 18 
months. If the premiums were paid for more than 10 years, unemployment 
payments can be received for a maximum of 24 months.
    \32\ EU-China Social Security Reform Co-operation Project (Online), 
``About Us,'' updated 30 July 09.
    \33\ ``Special Report on the Labor Contract Law'' [Laodong hetongfa 
zhuanti baodao], Xinhua (Online), 30 December 08; ``Shanghai High 
People's Court Issues Employer-Friendly Interpretation,'' China Law 
Employment Update, Baker & Mackenzie (Online), April 2009; IHLO 
(Online), ``Economic Crisis and Job Losses in China: Blame Victims, 
Threaten Crackdown,'' April 2009.
    \34\ ``Special Report on the Labor Contract Law'' [Laodong hetongfa 
zhuanti baodao], Xinhua (Online), 30 December 08.
    \35\ PRC Labor Contract Law, enacted 29 June 07, effective 1 
January 08, arts. 40 (on circumstances where the employer may cancel 
the labor contract), 43 (on proper notification where the employer 
cancels the labor contract unilaterally), and 46 (on circumstances 
where the employer should make economic compensation to the workers). 
See also Circular on Improvement of Standardized Measures To Handle the 
Establishment, Modification, Dissolution, and Cancellation of 
Enterprise Labor Contracts in Fujian Province (Trial) [Guanyu yinfa 
fujian sheng jinyibu guifan qiye laodong hetong dingli biangeng jiechu 
he zhongzhi de banfa (shixing) de tongzhi], issued 31 March 08, arts. 
13 (on ``substitute'' fee) and 16 (on 30-day notification); Shanghai 
High People's Court Circular on the Opinion on Questions About the Use 
of the Labor Contract Law [Guanyu yinfa guanyu shiyong laodong hetong 
fa ruogan wenti de yijian de tongzhi], issued 3 March 09, secs. 5 (on 
``substitute'' fee) and 8 (illegally terminating a contract).
    \36\ See, e.g., Circular on Improvement of Standardized Measures To 
Handle the Establishment, Modification, Dissolution, and Cancellation 
of Enterprise Labor Contracts in Fujian Province (Trial) [Guanyu yinfa 
fujian sheng jinyibu guifan qiye laodong hetong dingli biangeng jiechu 
he zhongzhi de banfa (shixing) de tongzhi], issued 31 March 08, secs. 
11 (on the termination of a labor contract and labor relations due to 
bankruptcy, revocation of license, etc.), 12 (on reaching a settlement 
in accordance to national and provincial regulations with respect to 
section above), 13 (on art. 40 of the Labor Contract Law), and 18 (on 
employer's and worker's responsibilities when terminating/canceling the 
labor contract). In art. 30 of the Guangdong High People's Court and 
Guangdong Labor Dispute Arbitration Committee Guiding Opinion on 
Questions About the Use of the Labor Dispute Mediation and Arbitration 
Law and the Labor Contract Law [Guangdong sheng gaoji renmin fayuan 
guangdong sheng laodong zhengyi zhongcai weiyuanhui guanyu shiyong 
``laodong zhengyi tiaojie zhongcai fa,'' ``laodong hetong fa'' ruogan 
wenti de zhidao yijian], issued 23 June 08, it is suggested that if a 
contract is illegally terminated, the employer should pay the relevant 
severance fees. The Shanghai High People's Court Opinion on Questions 
About the Use of the Labor Contract Law [Guanyu shiyong laodong hetong 
fa ruogan wenti de yijian], issued 3 March 09, does not seem to 
explicitly indicate what actions workers should take in case the 
employer violates or does not follow the legal procedures to end labor 
contracts and labor relations.
    \37\ See, e.g., Guangdong High People's Court and Guangdong Labor 
Dispute Arbitration Committee Guiding Opinion on Questions About the 
Use of the Labor Dispute Mediation and Arbitration Law and the Labor 
Contract Law [Guangdong sheng gaoji renmin fayuan guangdong sheng 
laodong zhengyi zhongcai weiyuanhui guanyu shiyong ``laodong zhengyi 
tiaojie zhongcai fa,'' ``laodong hetong fa'' ruogan wenti de zhidao 
yijian], issued 23 June 08, arts. 10 and 14.
    \38\ Jiangsu High People's Court Guiding Opinion on the Handling of 
Labor Dispute Cases in the Current Macroscopic Economic Situation 
[Jiangsu sheng gaoji renmin fayuan guanyu zai dangqian hongguan jingji 
xingshi xia tuoshan shenli laodong zhengyi anjian de zhidao yijian], 
issued 27 February 09, sec. 2, pt. 1.4.
    \39\ Supreme People's Court Guiding Opinion on the Correct Handling 
of Trial Work Involving Labor Dispute Cases in the Current Situation 
[Zuigao renmin fayuan guanyu dangqian xingshixia zuohao laodong zhengyi 
jiufen anjian shenpan gongzuo de zhidao yijian], issued and effective 6 
July 09, para. 11.
    \40\ Highlighted in Ministry of Human Resources and Social 
Security, All-China Federation of Trade Unions, and China Enterprise 
Directors Association, Guiding Opinion on How To Maintain Stable Labor 
Relations in the Current Economic Situation [Guanyu yingdui dangqian 
jingji xingshi wending laodong guanxi de zhidao yijian], issued 23 
January 09; and in Jiangsu High People's Court Guiding Opinion on the 
Handling of Labor Dispute Cases in the Current Macroscopic Economic 
Situation [Jiangsu sheng gaoji renmin fayuan guanyu zai dangqian 
hongguan jingji xingshi xia tuoshan shenli laodong zhengyi anjian de 
zhidao yijian], issued 27 February 09.
    \41\ See, e.g., ``Reflection on Implementation of the Labor 
Contract Law'' [Shishi ``laodong hetong fa'' de sikao], Guangming Daily 
(Online), 4 August 08.
    \42\ Ministry of Human Resources and Social Security, All-China 
Federation of Trade Unions, and China Enterprise Directors Association, 
Guiding Opinion on How To Maintain Stable Labor Relations in the 
Current Economic Situation [Guanyu yingdui dangqian jingji xingshi 
wending laodong guanxi de zhidao yijian], issued 23 January 09, secs. 1 
and 2.
    \43\ PRC Law on Mediation and Arbitration of Labor Disputes, 
enacted 29 December 07, effective 1 May 08, arts. 4, 5 (on negotiation 
and the application for mediation and arbitration), and 10 (on 
organizations that provide mediation).
    \44\ Ibid., art. 8.
    \45\ Local interpretations with explicit articles and sections 
addressing this include, e.g., Regulations To Promote Harmonious Labor 
Relations in the Shenzhen Special Economic Zone [Shenzhen jingji tequ 
hexie laodong guanxi cujin tiaoli], issued 23 September 08, effective 1 
November 08, arts. 4 (on collaboration between local governments and 
other bodies handling labor relations), 13 (on negotiation between 
employers and workers), 34 (on the tripartite system), and 47 (on 
negotiation, mediation, and arbitration); and Jiangsu High People's 
Court and Labor Arbitration Committee Circular on the Opinion on 
Questions Regarding the Use of the PRC Law on Mediation and Arbitration 
in Labor Disputes [Jiangsu sheng gaoji renmin fayuan jiangsu sheng 
laodong zhengyi zhongcai weiyuanhui yinfa ``guanyu shiyong ruogan wenti 
de yijian'' de tongzhi], issued and effective 10 October 08, arts. 6-10 
(on cases and application for mediation, arbitration, and litigation).
    \46\ See, e.g., Regulations To Promote Harmonious Labor Relations 
in the Shenzhen Special Economic Zone [Shenzhen jingji tequ hexie 
laodong guanxi cujin tiaoli], issued 23 September 08, effective 1 
November 08, arts. 4, 35, 36 (on services by the labor commission and 
the city and region's labor department), 45 (on the establishment of 
organizations to promote and carry out labor laws and regulations), 30, 
34, 50, 47, 48 (on ``group'' labor disputes), 49 (on the improvement of 
mediation), 50 (on the involvement of the regional labor relations 
committee), and 54 (on the involvement of trade unions).
    \47\ ``Labor Lawsuits Double in 2008,'' China Labour Bulletin 
(Online), 3 March 09. See also ``Cases Soar as Workers Seek Redress,'' 
China Daily (Online), 22 April 09, which suggests that litigation is 
preferred, for example, because workers seem to win more often (95% of 
the cases) at that level and get the benefits they demand. Further, 
``in most labour related cases courts do rule independently and 
according to legal statute (sic).''
    \48\ See, e.g., Jiangsu High People's Court Guiding Opinion on the 
Handling of Labor Dispute Cases in the Current Macroscopic Economic 
Situation [Jiangsu sheng gaoji renmin fayuan guanyu zai dangqian 
hongguan jingji xingshi xia tuoshan shenli laodong zhengyi anjian de 
zhidao yijian], issued 27 February 09, sec. 3. See also ``Cases Soar as 
Workers Seek Redress,'' China Daily (Online), 22 April 09, which 
suggests that experts encourage the use of ``more out-of-court 
mediation'' with ``extensive participation of government departments, 
labor unions, residents' or villagers' committees as well as 
mediators.'' Moreover, as reported in the article, Qiu Baochang, head 
of Beijing's Huijia Law Firm was quoted as saying, ``workers should not 
rely solely on the courts and arbitration committees. Fair labor 
treatment can also be achieved through negotiations between workers and 
enterprises.''
    \49\ Jiangsu High People's Court Guiding Opinion on the Handling of 
Labor Dispute Cases in the Current Macroscopic Economic Situation 
[Jiangsu sheng gaoji renmin fayuan guanyu zai dangqian hongguan jingji 
xingshi xia tuoshan shenli laodong zhengyi anjian de zhidao yijian], 
issued 27 February 09, sec. 3, pt. 2. For a discussion on handling 
labor-related cases in people's mediation committees, see also Aaron 
Halegua, ``Getting Paid: Processing the Labor Disputes of China's 
Migrant Workers,'' Berkeley Journal of International Law, Vol. 26, No. 
1, 2008, 254, 292.
    \50\ Ministry of Human Resources and Social Security, All-China 
Federation of Trade Unions, and China Enterprise Directors Association, 
Guiding Opinion on How To Maintain Stable Labor Relations in the 
Current Economic Situation [Guanyu yingdui dangqian jingji xingshi 
wending laodong guanxi de zhidao yijian], issued 23 January 09, sec. 6; 
Jiangsu High People's Court Guiding Opinion on the Handling of Labor 
Dispute Cases in the Current Macroscopic Economic Situation [Jiangsu 
sheng gaoji renmin fayuan guanyu zai dangqian hongguan jingji xingshi 
xia tuoshan shenli laodong zhengyi anjian de zhidao yijian], issued 27 
February 09, sec. 3.
    \51\ Ibid. Note that in Jiangsu High People's Court Guiding Opinion 
on the Handling of Labor Dispute Cases in the Current Macroscopic 
Economic Situation [Jiangsu sheng gaoji renmin fayuan guanyu zai 
dangqian hongguan jingji xingshi xia tuoshan shenli laodong zhengyi 
anjian de zhidao yijian], issued 27 February 09, sec. 3, pt. 4 
(guidance to lower level courts), higher level courts are advised to 
supervise and guide grassroots courts in handling labor dispute cases, 
especially when there is a large number of them. Further, these courts 
should investigate or research the reasons and causes.
    \52\ See generally Ministry of Human Resources and Social Security, 
All-China Federation of Trade Unions, and China Enterprise Directors 
Association, Guiding Opinion on How To Maintain Stable Labor Relations 
in the Current Economic Situation [Guanyu yingdui dangqian jingji 
xingshi wending laodong guanxi de zhidao yijian], issued 23 January 09. 
In sec. 2, it is indicated that large and medium-sized state-owned 
enterprises should take the lead in making efforts to avoid or reduce 
mass layoffs.
    \53\ Jiangsu High People's Court Guiding Opinion on the Handling of 
Labor Dispute Cases in the Current Macroscopic Economic Situation 
[Jiangsu sheng gaoji renmin fayuan guanyu zai dangqian hongguan jingji 
xingshi xia tuoshan shenli laodong zhengyi anjian de zhidao yijian], 
issued 27 February 09, sec. 1; ``Guangdong Lowers Social Insurance 
Premiums To Save Jobs,'' China Daily (Online), 5 February 09.
    \54\ Art. 14 of the Circular on Improvement of Standardized 
Measures To Handle the Establishment, Modification, Dissolution, and 
Cancellation of Enterprise Labor Contracts in Fujian Province (Trial) 
[Guanyu yinfa fujian sheng jinyibu guifan qiye laodong hetong dingli 
biangeng jiechu he zhongzhi de banfa (shixing) de tongzhi], issued 31 
March 08, provides specific measures to handle ``necessary'' mass 
layoffs based on art. 41 of the PRC Labor Contract Law. See also 
Ministry of Human Resources and Social Security, All-China Federation 
of Trade Unions, and China Enterprise Directors Association, Guiding 
Opinion on How To Maintain Stable Labor Relations in the Current 
Economic Situation [Guanyu yingdui dangqian jingji xingshi wending 
laodong guanxi de zhidao yijian], issued 23 January 09, sec. 4; and 
Jiangsu High People's Court Guiding Opinion on the Handling of Labor 
Dispute Cases in the Current Macroscopic Economic Situation [Jiangsu 
sheng gaoji renmin fayuan guanyu zai dangqian hongguan jingji xingshi 
xia tuoshan shenli laodong zhengyi anjian de zhidao yijian], issued 27 
February 09, sec. 2.
    \55\ PRC Labor Contract Law, enacted 29 June 07, effective 1 
January 08, art. 41.
    \56\ Ministry of Human Resources and Social Security, All-China 
Federation of Trade Unions, and China Enterprise Directors Association, 
Guiding Opinion on How To Maintain Stable Labor Relations in the 
Current Economic Situation [Guanyu yingdui dangqian jingji xingshi 
wending laodong guanxi de zhidao yijian], issued 23 January 09, sec. 4.
    \57\ CECC Staff Interview; ``Unions Flex Muscle at Wal-Mart 
China,'' China Employment Law Update, Baker & McKenzie (Online), June 
2009.
    \58\ Ibid.
    \59\ Ministry of Human Resources and Social Security, All-China 
Federation of Trade Unions, and China Enterprise Directors Association, 
Guiding Opinion on How To Maintain Stable Labor Relations in the 
Current Economic Situation [Guanyu yingdui dangqian jingji xingshi 
wending laodong guanxi de zhidao yijian], 23 January 09, sec. 4. See 
also Jiangsu High People's Court Guiding Opinion on the Handling of 
Labor Dispute Cases in the Current Macroscopic Economic Situation 
[Jiangsu sheng gaoji renmin fayuan guanyu zai dangqian hongguan jingji 
xingshi xia tuoshan shenli laodong zhengyi anjian de zhidao yijian], 
issued 27 February 09, sec. 2, pt. 1.1.
    \60\ Ministry of Human Resources and Social Security, All-China 
Federation of Trade Unions, and China Enterprise Directors Association, 
Guiding Opinion on How To Maintain Stable Labor Relations in the 
Current Economic Situation [Guanyu yingdui dangqian jingji xingshi 
wending laodong guanxi de zhidao yijian], issued 23 January 09, sec. 5.
    \61\ ``Labor Disputes Double in 2008 Amid Slowdown,'' China Daily 
(Online), 9 May 09.
    \62\ Guangzhou Economic Development Zone Labor and Social Security 
Bureau, Luogang District Community Administration, Luogang District 
Labor and Social Security Bureau, Luogang Bureau of Civil Affairs, 
Luogang Population and Family Planning Bureau (Online), ``Our District 
Convenes 2009 Annual Labor Dispute Arbitration Committee Work Meeting'' 
[Woqu zhaokai 2009 niandu laodong zhengyi zhongcai weiyuanhui gongzuo 
huiyi], 30 March 09; Office of Yunnan Province Human Resources and 
Social Security (Online), ``2008 Statistical Report on Labor and Social 
Insurance Administration, Yunnan Province'' [2008 nian yunnan sheng 
laodong he shehui baozhang shiye fazhan tongji gongbao], 19 May 09; 
``Forecast for Labor Disputes in 2009'' [2009: laodong zhengyi qushi 
yuce], Xinhua (Online), 30 December 08; ``Forecast of Six Hot Topics in 
Labor Disputes During 2009,'' [2009 nian laodong zhengyi liuda redian 
yuce], Zhi Ye, No. 25, reprinted in Bousun Wang (Online), 28 February 
09.
    \63\ ``Shanghai Labor Cases Display Upward Trend'' [Shanghai 
laodong zhengyi anjian chengxian zengjia qushi], Gansu Daily (Online), 
25 February 09.
    \64\ Taizhou City Government (Online), ``Analysis of Labor Disputes 
in the First Quarter of 2009'' [2009 nian yiji laodong zhengyi anjian 
qingkuang fenxi], 28 April 09.
    \65\ ``Forecast for Labor Disputes in 2009'' [2009: laodong zhengyi 
qushi yuce], Xinhua (Online), 30 December 08.
    \66\ Luo Jiqi, ``The Whole Story of Liu Hanhuang's Murder of the 
Taiwanese Businessmen'' [Liu hanhuang cisha taishang shimo], Caijing 
(Online), 15 July 09.
    \67\ CECC Staff Interview.
    \68\ Yuhang District Government (Online), ``Analysis of Our 
District's Resolution of Labor Disputes in the First Quarter of 2009'' 
[Woqu 2009 nian yijidu laodong zhengyi chuli qingkuang fenxi], 2 April 
09; Taizhou City Government (Online), ``Analysis of Labor Disputes in 
the First Quarter of 2009'' [2009 nian yiji laodong zhengyi anjian 
qingkuang fenxi], 28 April 09; ``Employers Lose over 90 Percent of 
Labor Disputes'' [Laodong zhengyi anjian yongren danwei baisu yuanhe 
90% yishang], Dongfang Fayan (Online), 14 May 09; Beijing Municipal 
Labor and Social Security Bureau (Online), ``According to Law, Justly 
and Efficiently Resolve Labor Disputes, Promote the Scientific 
Development of the City's Arbitration Profession, Commemorating the 
First Anniversary of the Implementation of the PRC Labor Dispute 
Arbitration and Mediation Law'' [Yifa gongzheng gaoxiao chuli laodong 
zhengyi, tuijin benshi zhongcai shiye kexue fazhan, jinian ``zhonghua 
renmin gongheguo laodong zhengyi tiaojie zhongcai fa'' shishi yi 
zhounian], 15 May 09; Shanghai Bureau of Justice (Online), ``Xuhui 
District Establishes People's Mediation Committees for Labor Disputes'' 
[Xuhuiqu chengli laodong zhengyi renmin tiaojie weiyuanhui], 11 
November 08; Wuxi Municipal Bureau of Labor and Social Security, 
Circular on the 2009 Opinion on the Resolution of Labor Disputes 
[Guanyu yinfa 2009 nian laodongzhengyi chuli gongzuo yijian de 
tongzhi], 13 March 09.
    \69\ Fujian Provincial Bureau of Labor and Social Security, 
Circular on the 2009 Main Points of Labor Dispute Mediation and 
Arbitration [Guanyu yinfa 2009 nian laodong zhengyi tiaojie zhongcai 
gongzuo yaodian de tongzhi], 6 February 09.
    \70\ Ningbo Municipal Labor and Social Security Bureau (Online), 
``Jiangbei District's January-May Labor Disputes Exhibit Five 
Characteristics'' [1-5 yue jiangbeiqu laodong zhengyi anjian chengxian 
wu tedian], 1 June 09.
    \71\ Guangzhou Economic Development Zone Labor and Social Security 
Bureau, Luogang District Community Administration, Luogang District 
Labor and Social Security Bureau, Luogang Bureau of Civil Affairs, 
Luogang Population and Family Planning Bureau (Online), ``Our District 
Convenes 2009 Annual Labor Dispute Arbitration Committee Work Meeting'' 
[Woqu zhaokai 2009 niandu laodong zhengyi zhongcai weiyuanhui gongzuo 
huiyi], 30 March 09.
    \72\ Chloe Lai, ``Labour Disputes Rise 30pc, Top Court Says,'' 
South China Morning Post (Online), 14 July 09; ``In the First Half of 
the Year, Labor Dispute Cases Explode'' [Shangban nian zhongguo laodong 
zhengyi anjian cheng jingpen taishi], Caijing (Online), 13 July 09; 
``Explosion in Disputes,'' Beijing Review (Online), 22 January 09.
    \73\ ``Last Year Provincial Courts' Labor Disputes Increase 157.43 
Percent'' [Quansheng fayuan qunian laodong zhengyi anjian tongbi 
zengzhang 157.43%], Nanfang News Network (Online), 15 February 09; 
``Cases Soar as Workers Seek Redress,'' China Daily (Online), 22 April 
09.
    \74\ Zhao Lei, ``The Busiest Courtroom in China'' [Zhongguo zui 
mang de fating], Southern Weekend (Online), 4 December 08.
    \75\ ``New Characteristics of Labor Disputes During the Financial 
Crisis'' [Jinrong weiji beijingxia laozi jiufen anjian de xin tedian], 
Dongfang Fayan (Online), 6 May 09.
    \76\ ``Forecast for Labor Disputes in 2009'' [2009: laodong zhengyi 
qushi yuce], Xinhua (Online), 30 December 08.
    \77\ Huai'an City Economic Development Zone Labor and Social 
Security Management Center (Online), ``2008 Statistical Bulletin of 
Jiangsu Province Labor and Social Security Development'' [2008 nian 
jiangsu sheng laodong he shehui baozhang shiye fazhang tongji gongbao], 
21 May 09.
    \78\ IHLO (Online), ``Economic Crisis and Job Losses in China: 
Blame Victims, Threaten Crackdown,'' April 2009.
    \79\ Shai Oster, ``China Faces Unrest as Economy Falters,'' Wall 
Street Journal (Online), 22 December 08; ``Wenzhou Taxi Drivers Pay 
Tens of Thousands per Month, City Government Proposes Six Points of 
Action'' [Wenzhou chuzuche siji yue bei choucheng shangwan shi zhengfu 
ti liudian fangan], Daily Economic News, reprinted in Fenghuang Wang 
(Online), 30 July 09.
    \80\ CECC Staff Interview.
    \81\ IHLO (Online), ``Update on the Labour Unrest at Gold Peak's 
JetPower Plant in Shenzhen, Two Women Workers Placed on Mandatory `Long 
Term Leave' After Staging a Sit In at JetPower,'' April 2009.
    \82\ IHLO (Online), ``Baoding Workers' Rally: Harbinger of a Long 
March?'' April 2009.
    \83\ ``Unions Flex Muscle at Wal-Mart China,'' China Employment Law 
Update, Baker & McKenzie (Online), June 2009.
    \84\ Sky Canaves and James T. Areddy, ``Murder Bares Worker Anger 
Over China Industrial Reform,'' Wall Street Journal (Online), 31 July 
09.
    \85\ See, e.g., ``Government Shows No Interest in Striking Zigong 
Textile Workers Whose Petition Is Met With Violence'' [Bagong youxing 
shutian zhengfu buwen buwen zigong yuqian fangzhi gongren qingyuan zao 
baoli], Radio Free Asia (Online), 25 February 09; ``Thousands of Wuhan 
Boiler Factory Workers Block Traffic, Fuchangdun Villagers Block 
Factory Gates'' [Wuhan guoluchang qianming gongren zaidu lu, baoding 
fuchangtun cunmin du changmen], Civil Rights and Livelihood Watch 
(Online), 28 July 09; ``Going It Alone: The Workers' Movement in 
China,'' China Labour Bulletin (Online), 9 July 09, 49-56; ITUC 
(Online), ``2009 Annual Survey of Violations of Trade Union Rights,'' 
2009.
    \86\ National Bureau of Statistics of China (Online), ``Chinese 
Peasant Workers Totaled 225.42 Million at the End of 2008'' [Tongji ju 
caizhi 2008 nian mo quanguo nongmingong zongliang wei 22542 wan ren], 
25 March 09.
    \87\ Kam Wing Chan, ``The Chinese Hukou System at 50,'' Eurasian 
Geography and Economics, Vol. 50, No. 2, 2009, 197-221.
    \88\ Sharon LaFraniere, ``China Puts Joblessness for Migrants at 20 
Million,'' New York Times (Online), 2 February 09.
    \89\ ``Chinese Peasant Workers Stuck Between the City and 
Countryside'' [Paihui zai chengxiang zhijian de zhongguo nongmingong], 
News of the Communist Party of China (Online), 4 April 09.
    \90\ Fiona Tam, ``Dongguan Mayor Contradicts Official Jobless 
Figures,'' South China Morning Post (Online), 30 July 09.
    \91\ ``Cases Soar as Workers Seek Redress,'' China Daily (Online), 
22 April 09.
    \92\ National Bureau of Statistics of China (Online), ``Chinese 
Peasant Workers Totaled 225.42 Million at the End of 2008'' [2008 nian 
mo quanguo nongmingong zongliang wei 22542 wan ren], 25 March 09; 
Sharon LaFraniere, ``China Puts Joblessness for Migrants at 20 
Million,'' New York Times (Online), 2 February 09.
    \93\ CECC Staff Interview.
    \94\ Human Rights Watch (Online), ``Economic Crisis Increases Risk 
for Migrant Workers,'' 23 January 09; Human Rights Watch, ``One Year of 
My Blood: Exploitation of Migrant Construction Workers in Beijing,'' 
Vol. 20, No. 3, March 2008.
    \95\ Luo Jiqi, ``The Whole Story of Liu Hanhuang's Murder of the 
Taiwanese Businessmen'' [Liu hanhuang cisha taishang shimo], Caijing 
(Online), 15 July 09; Yang Gengshen, ``Murder of an Evil Capitalist? 
How Did Liu Hanhuang Again Become an Internet Hero?'' [Shasi wan'e de 
zibenjia? liu hanhuang heyi youcheng wangluo yingxiong?], Oriental 
Morning News (Online), 18 June 09.
    \96\ Yang Gengshen, ``Murder of an Evil Capitalist? How Did Liu 
Hanhuang Again Become an Internet Hero?'' [Shasi wan'e de zibenjia? liu 
hanhuang heyi youcheng wangluo yingxiong?], Oriental Morning News 
(Online), 18 June 09.
    \97\ Dan Chungang, ``Xinmi, Henan Province Peasant Worker's 
`Thoracic Lung Exam Surgery' Attracts the Attention of Many'' [Henan 
xinmi nongmingong ``kaixiong yanfei'' yinqi gejie guanzhu], Xinhua 
(Online), 23 July 09.
    \98\ Ke Ping, ``Can the `Open-Chest Lung Exam' Expedite Reform of 
Worker Protections'' [``Kaixiong yanfei'' nengfou cuisheng zhifang 
jizhi biange], Shanxi Daily (Online), 18 August 09.
    \99\ ``Large Numbers of Peasant Workers' Pension Withdrawals Draws 
Attention in Shenzhen'' [Shenzhen chuxian daliang waisheng nongmingong 
tuibao xianxiang yinfa guanzhu], 21st Century Economic Herald (Online), 
30 March 09; ``The Labor and Social Security Department Reminds the 
Majority of Peasant Workers That It Doesn't Pay To Carelessly 
`Withdraw' Pension Payments'' [Laodong baozhang bumen tixing guangda 
nongmingong: caoshuai ``tuibao'' henbu hesuan], Xinhua (Online), 5 
January 09.
    \100\ ``Experimental New Peasant Insurance Relieves Peasants of 
Their Pension Worries'' [Shidian xinnongbao mianchu nongmin yanglao zhi 
you], China Insurance News (Online), 2 July 09.
    \101\ Bill Taylor and Qi Li, ``Is the ACFTU a Union and Does It 
Matter?'' Journal of Industrial Relations, Vol. 49, No. 5, 2007, 701-
715.
    \102\ PRC Trade Union Law, enacted and effective 3 April 92, 
amended 27 October 01; Constitution of the Chinese Trade Unions, 
amended 21 October 08.
    \103\ Mingwei Liu, ``Chinese Employment Relations and Trade Unions 
in Transition,'' Ph.D. Dissertation, Cornell University, School of 
Industrial and Labor Relations, January 2009; ``Protecting Workers' 
Rights or Serving the Party: The Way Forward for China's Trade Union,'' 
China Labour Bulletin (Online), March 2009.
    \104\ ``Unionization Campaign Against Fortune 500 Companies 
Intensifies,'' China Employment Law Update, Baker & McKenzie (Online), 
August 2008; Mingwei Liu, ``Chinese Employment Relations and Trade 
Unions in Transition,'' Ph.D. Dissertation, Cornell University, School 
of Industrial and Labor Relations, January 2009.
    \105\ ``Protecting Workers' Rights or Serving the Party: The Way 
Forward for China's Trade Union,'' China Labour Bulletin (Online), 
March 2009.
    \106\ International Trade Union Confederation (Online), ``China,'' 
in Asia and the Pacific, an Annual Survey of Violations of Trade Union 
Rights (2009).
    \107\ ``Shenzhen Pushes for Collective Bargaining,'' China 
Employment Law Update, Baker & McKenzie (Online), October 2008; Mary 
Gallagher and Dong Baohua, ``Legislating Harmony,'' in Breaking Down 
Chinese Walls, eds. Sarosh Kuruvilla, Ching Kwan Lee, and Mary 
Gallagher, forthcoming.
    \108\ ``New Push To Unionize Companies,'' China Employment Law 
Update, Baker & McKenzie (Online), June 2008.
    \109\ Mingwei Liu, ``Chinese Employment Relations and Trade Unions 
in Transition,'' Ph.D. Dissertation, Cornell University, School of 
Industrial and Labor Relations, January 2009.
    \110\ ``Three Million `Bought' Lawyers Sue on Behalf of Migrant 
Workers, Municipal Federation of Trade Unions Signs Agreements With 
Seven Law Firms for Pro Bono Rights Defense of Migrant Workers'' [300 
wan `mai' lushi wei mingong da guansi, shi zong gonghui yu qi jia lushi 
shiwusuo qianding xieyi, mianfei bang mingong weiquan], Nanfang Daily 
Net (Online), 16 April 08.
    \111\ International Trade Union Confederation (Online), ``China,'' 
in Asia and the Pacific, in Annual Survey of Violations of Trade Union 
Rights, (2009).
    \112\ ``Guangdong Provincial Trade Union: Enterprises in Difficulty 
Can Temporarily Halt Collective Wage Negotiations'' [Guangdong sheng 
zonggonghui: kunnan qiye ke zanting gongzi jiti xieshang], Nanfang 
Daily Net (Online), 22 November 08.
    \113\ Simon Clarke, Chang-Hee Lee, and Qi Li, ``Collective 
Consultation and Industrial Relations in China,'' British Journal of 
Industrial Relations, June 2004, 240.
    \114\ Ibid.
    \115\ ``The Bad and the Good of the Wal-Mart ACFTU Collective 
Agreement,'' China Labor News Translations (Online), 18 May 09.
    \116\ ``Shanghai Wal-mart Collective Contracts Set 8 Percent Wage 
Increase for the Next Two Years'' [Shanghai wa'erma qian jiti hetong 
yueding jinming liangnian zhangxin 8%], Xinhua (Online), 17 September 
08.
    \117\ Regulations To Promote Harmonious Labor Relations in the 
Shenzhen Special Economic Zone [Shenzhen jingji tequ hexie laodong 
guanxi cujin tiaoli], issued 23 September 08, effective 1 November 08, 
art. 26.
    \118\ Ibid.
    \119\ Ibid.
    \120\ Ibid., art. 29.
    \121\ Ibid.
    \122\ Ibid., art. 32
    \123\ Ibid., art. 33.
    \124\ Ibid., art. 34.
    \125\ Ibid.
    \126\ Ibid., art. 35.
    \127\ All-China Federation of Trade Unions (Online), ``Guiding 
Opinion on Actively Launching Work on Industrial Level Collective Wage 
Consultation'' [Zhonghua quanguo zonggonghui guanyu jiji kaizhan 
hangyexing gongzi jiti xieshang gongzuo de zhidao yijian], 9 July 09.
    \128\ ``ACFTU's Zhang Mingqi Responds to Journalists' Questions on 
Industrial-Level Collective Wage Consultation'' [Quanzong zhang mingqi 
jiu hangyexing gongzi jiti xieshang gongzuo da jizhe tiwen], Xinhua 
(Online), 22 July 09.
    \129\ Human Rights in China (Online), ``Law Research Center Is Shut 
Down as Authorities Tighten Control on Civil Society Groups,'' 17 July 
09; Andrew Jacobs, ``Arrest in China Rattles Backers of Legal Rights,'' 
New York Times (Online), 9 August 09.
    \130\ CECC Staff Interview; Zhou Jing, ``Dongguan Labor Disputes 
Suddenly Increase'' [Dongguan laodong zhengyi zhousheng], Caijing 
(Online), 14 January 09; Albert Park and Fang Cai, ``The 
Informalization of the Chinese Labour Market,'' Paper presented at 
Breaking Down Chinese Walls Conference, Cornell University, September 
2008.
    \131\ PRC Labor Law, enacted 5 July 94, effective 1 January 95, 
amended 10 October 01, art. 48.
    \132\ PRC Labor Contract Law, enacted 29 June 07, effective 1 
January 08, arts. 72, 74, 85.
    \133\ See Ministry of Labour and Social Security (Online), ``2006 
Statistical Communique on the Development of Labor and Social Security 
Affairs'' [2006 niandu laodong he shehui baozhang shiye fazhan tongji 
gongbu], last visited 10 October 07. For statistics by year, see data 
from the National Bureau of Statistics of China Web site. See also Guan 
Xiaofeng, ``Labor Disputes Threaten Stability,'' China Daily, 30 
January 07 (Open Source Center, 30 January 07); ``China To Enact Law To 
Deal With Rising Number of Labor Disputes,'' Xinhua, 26 August 07 (Open 
Source Center, 26 August 07); CECC, 2007 Annual Report, 10 October 07, 
66.
    \134\ China Labour Bulletin (Online), ``Help or Hindrance to 
Workers: China's Institutions of Public Redress,'' 23 April 08, 2.
    \135\ PRC Labor Law, enacted 5 July 94, effective 1 January 95, 
amended 10 October 01, art. 36.
    \136\ China Labour Bulletin (Online), ``Falling Through the Floor: 
Migrant Women Workers' Quest for Decent Work in Dongguan, China,'' 
September 2006, 6, 10, 15; CECC, 2008 Annual Report, 31 October 08, 51.
    \137\ Dexter Roberts and Pete Engardio, ``Secrets, Lies, and 
Sweatshops,'' Business Week (Online), 27 November 06.
    \138\ ``In the First Half of the Year, Labor Dispute Cases 
Explode'' [Shangban nian zhongguo laodong zhengyi anjian cheng jingpen 
taishi], Caijing (Online), 13 July 09.
    \139\ PRC Labor Dispute Mediation and Arbitration Law, enacted 29 
December 07, effective 1 May 08, arts. 6, 27, and 39.
    \140\ ``Wages Tumble as Chinese Workers Hunt Factory Jobs,'' 
Reuters (Online), 20 February 09.
    \141\ CECC Staff Interview.
    \142\ Albert Park and Fang Cai, ``The Informalization of the 
Chinese Labour Market,'' Paper presented at Breaking Down Chinese Walls 
Conference, Cornell University, September 2008.
    \143\ Ibid.
    \144\ Ibid.
    \145\ Ibid.
    \146\ National People's Congress (Online), ``National People's 
Congress Standing Committee Law Enforcement Inspection Team Report on 
Implementation of the PRC Labor Contract Law'' [Quanguo renmin daibiao 
dahui changwu weiyuanhui zhifa jianchazu guanyu jiancha zhonghua renmin 
gongheguo laodong hetong fa shishi qingkuang de baogao], 25 December 
08.
    \147\ ``Day-Salary Back in Fashion,'' Economic Observer (Online), 
12 February 09; ``Economic Crisis Plagues Dollar General, Target, Home 
Depot and Twin-Star International Workers,'' China Labor Watch 
(Online), 12 January 09.
    \148\ ``Migrant Workers Without a Labor Contract Go Unpaid for 
Nearly a Year,'' China Labour Bulletin (Online), 25 May 09; ``Steel 
Workers Laid-Off and Rehired as Temporary Employees for Lower Pay,'' 
China Labour Bulletin (Online), 3 March 09.
    \149\ See, e.g., ``Enterprises Were Found To Use Child Workers 
Without Employment Contracts and Workers' Insurance in Zhaoqing'' 
[Zhaoqing bufen qiye yong tonggong wu hetong que baoxian], Xinhua 
(Online), 6 August 08.
    \150\ ILO Convention (No. 138) Concerning Minimum Age for Admission 
to Employment, 26 June 73; ILO Convention (No. 182) Concerning the 
Prohibition and Immediate Action for the Elimination of the Worst Forms 
of Child Labour, 17 June 99.
    \151\ PRC Labor Law, enacted 5 July 94, effective 1 January 95, 
amended 10 October 01, art. 15. See also PRC Law on the Protection of 
Minors, enacted 4 September 91, effective 1 January 92, art. 28. See 
generally PRC Provisions on Prohibiting the Use of Child Labor [Jinzhi 
shiyong tonggong guiding], issued 18 September 02, effective 1 December 
02.
    \152\ PRC Provisions on Prohibiting the Use of Child Labor [Jinzhi 
shiyong tonggong guiding], issued 18 September 02, effective 1 December 
02, art. 6. See also, e.g., ``Legal Announcement: Zhejiang Determines 
Four Circumstances That Define Use of Child Labor'' [Fazhi bobao: 
zhejiang jieding shiyong tonggong si zhong qingxing], China Woman 
(Online), 26 July 08.
    \153\ This provision was added into the fourth amendment to the 
Criminal Law in 2002. Fourth Amendment to the Criminal Law of the 
People's Republic of China [Zhonghua renmin gonghe guo xingfa xiuzheng 
an (si)], issued 28 December 02. See also PRC Criminal Law, enacted 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, art. 244.
    \154\ China Labour Bulletin (Online), ``Small Hands: A Survey 
Report on Child Labor in China,'' September 2007, 3.
    \155\ Ibid., 8.
    \156\ Ibid., 15, 22, 25-32.
    \157\ For more information on this phenomenon, see International 
Labour Organization (Online), Report of the Committee of Experts on the 
Application of Conventions and Recommendations Worst Forms of Child 
Labour Convention, 1999 (No. 182) China (Ratification: 2002) 
Observation, CEACR 2006/77th Session, 2006.
    \158\ David Barboza, ``Despite Law, Job Conditions Worsen in 
China,'' New York Times (Online), 23 June 09.
    \159\ China Labor Watch (Online), ``Shattered Dreams: Underage 
Worker Death at Factory Supplying to Disney, Other International 
Brands,'' 30 April 09.
    \160\ For the government response to forced labor in brick kilns, 
including child labor, see, e.g., Zhang Pinghui, ``Crackdown on Slave 
Labor Nationwide--State Council Vows To End Enslavement,'' South China 
Morning Post (Online), 21 June 07.
    \161\ ``China Urged To End `Child Labor' in Schools,'' Reuters 
(Online), 3 December 07; Human Rights Watch (Online), ``China: End 
Child Labor in State Schools,'' 3 December 07.
    \162\ Ibid.
    \163\ PRC Provisions on Prohibiting the Use of Child Labor, issued 
18 September 02, effective 1 December 02, art. 13.
    \164\ PRC Education Law, enacted 18 March 95, effective 1 September 
95, art. 58.
    \165\ See generally PRC Regulations on Nationwide Temporary Work-
Study Labor for Secondary and Elementary Schools [Quanguo zhong xiaoxue 
qingongjianxue zanxing gongzuo tiaoli], issued and effective 20 
February 83.
    \166\ ILO Convention 138 permits vocational education for underage 
minors only where it is an ``integral part'' of a course of study or 
training course. ILO Convention 182 obligates Member States to 
eliminate the ``worst forms of child labor,'' including ``forced or 
compulsory labor.'' ILO Convention (No. 138) Concerning Minimum Age for 
Admission to Employment, 26 June 73; ILO Convention (No. 182) 
Concerning the Prohibition and Immediate Action for the Elimination of 
the Worst Forms of Child Labour, 17 June 99.
    \167\ International Labour Organization, ``Report of the Committee 
of Experts on the Application of Conventions and Recommendations, Worst 
Forms of Child Labour Convention,'' 1999.
    \168\ ``Police Free 32 Mentally-Handicapped From Forced Labor, 
Arrest 10 Suspects,'' Xinhua (Online), 22 May 09; Qiu Quanlin, ``32 
Freed as Second Slave Labor Racket Busted,'' China Daily (Online), 23 
May 09.
    \169\ PRC Criminal Law, enacted 1 July 79, amended 14 March 97, 
effective 1 October 97, amended 25 December 99, 31 August 01, 29 
December 01, 28 December 02, 28 February 05, 29 June 06, 28 February 
09, art. 244. (``Where an employer, in violation of the laws and 
regulations on labor administration, compels its employees to work by 
restricting their personal freedom, if the circumstances are serious, 
the persons who are directly responsible for the offence shall be 
sentenced to fixed-term imprisonment of not more than three years or 
criminal detention and shall also, or shall only, be fined.'')
    \170\ CECC, 2007 Annual Report, 10 October 07, 72, citing Ng Tze-
wei, ``Lawyers' Group Calls for Anti-Slavery Law,'' South China Morning 
Post (Online), 10 July 07.
    \171\ ``In Response to Brick Kiln Cases, Chinese People's Political 
Consultative Conference Members Propose Criminalizing the Use of 
Violence To Coerce a Person To Work'' [Zhengxie weiyuan zhendui hei 
zhuanyao an tiyi she baoli qiangpo laodong zui], Procuratorial Daily 
(Online), 11 March 08; ``Commentary: This Is Slavery, but There Is No 
Slavery Charge'' [Zhe shi nuyi, que meiyou nuli zuiming], Southern 
Metropolitan Daily (Online), 9 April 08.
    \172\ These other rights are ``(b) the elimination of all forms of 
forced or compulsory labour; (c) the effective abolition of child 
labour; and (d) the elimination of discrimination in respect of 
employment and occupation.'' International Labour Organization 
(Online), ILO Declaration on Fundamental Principles and Rights at Work, 
18 June 98, art. 2.
    \173\ See International Labour Organization (Online), ``ILO 
Tripartite Constituents in China,'' viewed 27 September 07.
    \174\ International Labour Organization (Online), ILO Declaration 
on Fundamental Principles and Rights at Work, 18 June 98, art. 2. China 
has been a member of the ILO since its founding in 1919. For more 
information, see the country profile on China in the ILO database of 
national labor, social security, and human rights legislation (NATLEX) 
(Online).
    \175\ International Labour Organization (Online), ``Ratifications 
of the Fundamental Human Rights Conventions by Country,'' 11 September 
07.
    \176\ International Labour Organization (Online), ``China: Forced 
Labor and Trafficking: The Role of Labour Institution in Law 
Enforcement and International Cooperation,'' August 2005.
    \177\ See generally PRC Labor Law, enacted 5 July 94, art. 12.
    \178\ International Covenant on Economic, Social and Cultural 
Rights adopted by General Assembly resolution 2200A (XXI) of 16 
December 66, entry into force 3 January 76, art. 8.
    \179\ Declarations and Reservations, United Nations Treaty 
Collection (Online), 5 February 02. Article 10 of China's Trade Union 
Law establishes the All-China Federation of Trade Unions as the 
``unified national trade union federation,'' and Article 11 mandates 
that all unions must be approved by the next higher level union body, 
giving the ACFTU an absolute veto over the establishment of any local 
union and the legal authority to block independent labor associations. 
PRC Trade Union Law, enacted and effective 3 April 92, amended 27 
October 01, arts. 10, 11.

    Notes to Section II--Criminal Justice
    \1\ See, e.g., Willy Lam, ``CCPLA: Tightening the CCP's Rule Over 
Law,'' China Brief, 2 April 09, 3; Ni An, ``CCP Leadership Establishes 
Special Group To Ensure `Social Stability' During Sensitive 
Anniversaries'' [Zhonggong gaoceng chengli zhuanmen xiaozu ying dui 
mingan jinianri quebao shehui wending], Radio France Internationale 
(Online), 10 March 09; Peter Ford, ``China Cracks Down Ahead of 
Sensitive Anniversaries,'' Christian Science Monitor (Online), 8 April 
09.
    \2\ Wu Zhongmin, ``Pay Close Attention to Social Problems Amid 
Economic Downturn,'' Outlook Weekly, 23 February 09 (Open Source 
Center, 6 March 09); Ching Cheong, ``China Acts To Defuse `Crisis 
Year,' '' Singapore Straits Times (Online), 2 March 09; Zhuang Gong, 
``The CPC Gives Prominence to Maintaining Social Stability and Stresses 
the Importance of the People's Livelihood During This Special Period,'' 
Hong Kong China News Agency, 4 June 09 (Open Source Center, 4 June 09); 
Yang Jun, ``Breaking Inertia of Maintaining `Status Quo,' '' Southern 
Wind Window, 8 April 09-21 April 09 (Open Source Center, 22 May 09); 
``China Vows To Address Public Complaints To Maintain Social 
Stability,'' Xinhua (Online), 5 March 09; Jonathan Adams, ``Charter 08: 
A `Universal Idea,' '' Far Eastern Economic Review (Online), 6 February 
09. Zhang Zuhua, one of the principal drafters of Charter 08, stated 
that during his interrogation in December 2008 the police told him that 
``high levels of the central government'' were very concerned about 
instability and chaos during 2009.
    \3\ See, e.g., Jeffrey Wasserstrom, ``China's Anniversary 
Tempest,'' openDemocracy (Online), 25 February 09; Ni An, ``CCP 
Leadership Establishes Special Group To Ensure `Social Stability' 
During Sensitive Anniversaries'' [Zhonggong gaoceng chengli zhuanmen 
xiaozu ying dui mingan jinianri quebao shehui wending], Radio France 
Internationale (Online), 10 March 09; Peter Ford, ``China Cracks Down 
Ahead of Sensitive Anniversaries,'' Christian Science Monitor (Online), 
8 April 09; Perry Link, ``China's Charter 08,'' New York Review of 
Books (Online), 15 January 09; Jeffrey Wasserstrom, ``Tiananmen at 
Twenty,'' Nation (Online), 27 May 09.
    \4\ Ng Tze-wei, ``Riots on Rise as Cadres at Fault, Magazine 
Says,'' South China Morning Post (Online), 8 September 09; ``Our 
Country To Launch Half-Year Campaign To Rectify Public Order To Welcome 
60th Anniversary of Country's Founding'' [Woguo jiang kaizhan bannian 
zhi an zhengzhi xingdong yingjie jianguo 60 zhounian], China News Net, 
reprinted in Sina (Online), 27 April 09; ``Crackdown on Crime in Run-Up 
to National Day,'' China Daily (Online), 28 April 09; Christopher 
Bodeen, ``Chinese Official Calls for Heightened Security,'' Associated 
Press (Online), 1 April 09.
    \5\ As the Commission noted in its 2008 Annual Report, black jails 
are secret detention centers that exist entirely outside the legal 
system, and which are used primarily to illegally detain petitioners. 
See CECC, 2008 Annual Report, 31 October 08, 34-35. See also ``China's 
`Black Jails' Uncovered,'' Al Jazeera (Online), 27 April 09 (video 
segment by Melissa Chan); Jamil Anderlini, ``Punished Supplicants,'' 
Financial Times (Online), 5 March 09; Chinese Human Rights Defenders 
(Online), `` `Black Jails': China's Growing Network of Illegal and 
Secret Detention Facilities,'' 19 October 08.
    \6\ The authorities' use of soft detention (illegal home 
confinement, or ruanjin) and surveillance was so extreme around June 4 
that individuals targeted for such treatment launched an ``Anti-Soft 
Detention and Anti-Surveillance United Movement.'' Ma Lin and Wang Wei, 
Chinese Human Rights Defenders (Online), ``Charter 08 Signatories 
Launch `Anti-Soft Detention Anti-Surveillance United Movement' '' 
[Lingba xianzhang qianshu ren faqi ``fan ruanjin fan jiankong lianhe da 
xingdong''], 20 June 09.
    \7\ Bureau of Democracy, Human Rights, and Labor, U.S. Department 
of State, Country Report on Human Rights Practices--2008, China 
(includes Tibet, Hong Kong, and Macau), 25 February 09, sec. 1.a 
(noting ``serious irregularities'' during Yang's trial). See discussion 
of cases of Deng Yujiao and Yang Jia in Access to Counsel and Fairness 
of Criminal Trials subsections, and elsewhere in this section.
    \8\ See, e.g., Ng Tze-Wei, ``Legal Experts Worried by Decision To 
Free Waitress,'' South China Morning Post (Online), 18 June 09; ``Deng 
Yujiao Tells Her Story,'' EastSouthWestNorth (Online), 26 May 09 
(translating account published in Southern Metropolitan Daily); Teng 
Biao, ``The Law on Trial in China,'' Washington Post (Online), 25 July 
09.
    \9\ Maureen Fan, ``Confessed Police Killer Lionized by Thousands in 
China,'' Washington Post (Online), 14 November 08, quoting an American 
commentator as saying that ``[s]upport for Yang Jia shows intolerance 
for police brutality and authority exercised without restraint.''
    \10\ Wang Yan, ``The Hands That Pull the Lever,'' NEWSCHINA 
(published by China Newsweek Corporation), 5 July 09, 15; Raymond Li, 
``Web of Support,'' South China Morning Post (Online), 10 June 09; 
Alexa Olesen, ``Chinese Praise Waitress Held for Stabbing Official,'' 
Associated Press, reprinted in Washington Post (Online), 22 May 09; Yu 
Jianrong (interviewed by Wu Huaiting), ``Local Abuses Main Reason for 
Mass Incidents,'' Global Times (Online), 1 September 09.
    \11\ State Council Information Office, National Human Rights Action 
Plan of China (2009-2010), Xinhua (Online), 13 April 09, sec. II; ``Top 
Prosecuting Body Starts Jail Safety Drive After Inmate Deaths,'' South 
China Morning Post (Online), 21 April 09.
    \12\ The announcement related to a regulation that would soon be 
released by the Supreme People's Procuratorate regarding the 
inadmissibility of such confessions. The regulation will reportedly 
apply only to death penalty cases, ``as a starting point.'' Ng Tze-wei, 
``Anti-Torture Measures in Works, Paper Says,'' South China Morning 
Post (Online), 11 August 09.
    \13\ ``New Lawyers Law Is `One Year Old': The `Three Difficulties' 
Have Not Yet Been Resolved'' [Xin lushifa `zhousui': `sannan' reng wei 
jiejue], Southern Metropolitan Daily (Online), 4 June 09; CECC Staff 
Interviews.
    \14\ Xie Chuanjiao, ``Beijing Ready for Lethal Injections,'' China 
Daily (Online), 16 June 09; ``Firing Squads To Be Phased Out as Beijing 
Moves to Lethal Injections,'' Reuters, reprinted in South China Morning 
Post (Online), 17 June 09.
    \15\ Ibid.
    \16\ The domestic security protection units (guobao zhidui) are 
contained within the public security bureaus. One of their 
responsibilities is to monitor, investigate, and conduct surveillance 
of, among others, dissidents, activists, family members of political 
prisoners, former political prisoners, human rights lawyers, house 
church leaders, and implementing illegal home confinement or ``soft 
detention'' (ruanjin).
    \17\ See, e.g., Universal Declaration of Human Rights, adopted and 
proclaimed by UN General Assembly resolution 217A (III) of 10 December 
48, arts. 3, 5, 9, 19, 20 (hereinafter UDHR); International Covenant on 
Civil and Political Rights, adopted by UN General Assembly resolution 
2200A (XXI) of 16 December 66, entry into force 23 March 76, arts. 7, 
9(1), 19(1) and (2), 21, 22(1) (hereinafter ICCPR); PRC Constitution, 
arts. 35, 37, 41; PRC Criminal Procedure Law, enacted 1 July 79, 
amended 17 March 96, effective 1 January 97, art. 3; PRC Public 
Security Administration Punishment Law, enacted 28 August 05, effective 
1 March 06, arts. 3, 9, 10, 16; PRC Legislation Law, enacted 15 March 
00, effective 1 July 00, art. 8(v).
    \18\ Amnesty International (Online), Justice Denied: Harassment of 
Sichuan Earthquake Survivors and Activists, May 2009, 22.
    \19\ Jamil Anderlini, ``Punished Supplicants,'' Financial Times 
(Online), 6 March 09.
    \20\ Ibid.
    \21\ Ariana Eunjung Cha, ``Grieving Parents Gain Clout in China: 
Party Steps Lightly in Wake of Disasters,'' Washington Post (Online), 
28 March 09.
    \22\ Chinese Human Rights Defenders (Online), ``Beijing Lawyer 
Cheng Hai Assaulted by Officials for Representing Falun Gong 
Practitioner,'' 14 April 09; China Human Rights Lawyers Concern Group 
(Online), ``Beijing Lawyers Li Chunfu and Zhang Kai Beaten for 
Representing Re-education Through Labour Camp Death Case,'' 14 May 09; 
Chinese Human Rights Defenders (Online), ``Charter 08 Original 
Signatory Lawyer Tan Jitian Released Back to His Home'' [``Ling ba 
xianzhang'' shoupi qianshuren tang jitian lushi bei fang huijiazhong], 
7 June 09.
    \23\ See, e.g., Jerome A. Cohen and Eva Pils, ``The Disappearance 
of Gao Zhisheng,'' Wall Street Journal (Online), 9 February 09. Zheng 
Enchong's record of detention is searchable through the CECC's 
Political Prisoner Database. China's Human Rights Lawyers: Current 
Challenges and Prospects, CECC Roundtable, 10 July 09, Testimony of 
Jerome A. Cohen, Professor of Law, New York University Law School, Co-
Director of U.S.-Asia Law Institute.
    \24\ Liu Fang, Chinese Human Rights Defenders (Online), ``Shanghai 
Police Have Summoned Zheng Enchong 10 Times in Half a Month'' [Shanghai 
jingfang dui zheng enchong banyue nei 10 ci chuanhuan], 24 April 09; 
Human Rights in China (Online), ``Shanghai Rights Defender Harassed on 
Heels of National Human Rights Action Plan Release,'' 15 April 09. 
Zheng has also suffered physical abuse at the hands of the Shanghai 
Public Security Bureau; during an interrogation in June, he was 
stripped to his underwear and beaten, and lit cigarettes were held to 
his lips and eyelids. See ChinaAid (Online), ``Christian Attorney Zheng 
Enchong Interrogated and Tortured by PSB,'' 23 June 09.
    \25\ See, e.g., Jerome A. Cohen and Eva Pils, ``The Disappearance 
of Gao Zhisheng,'' Wall Street Journal (Online), 9 February 09; Jerome 
A. Cohen, ``Beijing Must Reveal Fate of Human Rights Lawyer,'' South 
China Morning Post (Online), 19 March 09.
    \26\ Chinese Human Rights Defenders (Online), ``Over One Hundred 
Signatories Harassed Since Launch of Charter 08,'' 8 January 09. 
Professor Andrew Nathan recently described Charter 08 as ``the most 
broadly based and intellectually sophisticated challenge to [the 
regime's] principles of rule since Tiananmen itself.'' Andrew Nathan, 
``Authoritarian Impermanence,'' Journal of Democracy, July 2009, 40. In 
late March 2009, domestic security protection (guobao) officers warned 
Jiang Qisheng, a Beijing-based writer, activist, and signatory of 
Charter 08, not to engage in any activities commemorating the 20th 
anniversary of the violent suppression of the 1989 Tiananmen protests. 
Officers searched his home and took three computers, several bank 
deposit books, and many manuscripts and books. Liang Qiwen, Chinese 
Human Rights Defenders (Online), ``Beijing Dissident Jiang Qisheng 
Summoned, Home Searched: Police Actions Stepped Up in Advance of 
Anniversary of Tiananmen Massacre,'' 1 May 09.
    \27\ Vivian Wu, ``Dissidents Held for Collecting 300 Signatures,'' 
South China Morning Post (Online), 10 December 08; Liang Qiwen, Chinese 
Human Rights Defenders (Online), ``Beijing Dissident Jiang Qisheng 
Summoned, Home Searched: Police Actions Stepped Up in Advance of 
Anniversary of Tiananmen Massacre,'' 1 May 09; Jane Macartney, 
``Leading Chinese Dissident, Liu Xiaobo, Arrested Over Freedom 
Charter,'' Times of London (Online), 10 December 08.
    \28\ Vivian Wu, ``Dissidents Held for Collecting 300 Signatures,'' 
South China Morning Post (Online), 10 December 08.
    \29\ Jane Macartney, ``Leading Chinese Dissident, Liu Xiaobo, 
Arrested Over Freedom Charter,'' Times of London (Online), 10 December 
08.
    \30\ Liang Qiwen, Chinese Human Rights Defenders (Online), 
``Beijing Dissident Jiang Qisheng Summoned, Home Searched: Police 
Actions Stepped Up in Advance of Anniversary of Tiananmen Massacre,'' 1 
May 09.
    \31\ ChinaAid (Online), ``8 Human Rights Groups in China Issue 
Unprecedented Open Statement to Government,'' 3 April 09. The groups 
that issued the ``Chinese Citizens' Rights Defense Declaration'' 
(Declaration) include the Chinese League of Victims, the Provisional 
Committee of Chinese Farmers' Rights Defense Association, China Rights 
Defense Alliance, Chinese Christian House Church Alliance, and the 
China Human Rights Lawyers Concern Group.
    \32\ ChinaAid (Online), ``8 Human Rights Groups in China Issue 
Unprecedented Open Statement to Government,'' 3 April 09.
    \33\ Ibid.
    \34\ See, e.g., David W. Chen, ``How the Family of a Dissident Fled 
China,'' New York Times (Online), 9 May 09; Human Rights in China 
(Online), ``Torture Account by Missing Rights Defense Lawyer Gao 
Zhisheng,'' 8 February 09; Human Rights in China (Online), ``Wife of 
Abducted Rights Defense Lawyer Gao Zhisheng Requests Urgent Help From 
U.S. Congress in Open Letter,'' 23 April 09; Teng Biao, ``I Cannot Give 
Up: Record of a Kidnapping,'' China Rights Forum, No. 1, 2009, 37-38; 
The UN Human Rights Council's Review of China's Record: Process and 
Challenges, Staff Roundtable of the Congressional-Executive Commission 
on China, 16 January 09, Ms. Li Xiaorong, Senior Researcher, Institute 
for Philosophy and Public Policy, University of Maryland, Remarks 
During Question and Answer Period.
    \35\ Chinese Human Rights Defenders (Online), ``Police Summon 
Beijing Intellectual Zhang Zuhua, China Continues Crackdown on Charter 
08,'' 29 December 08.
    \36\ Ma Lin and Wang Wei, Chinese Human Rights Defenders (Online), 
``Charter 08 Signatories Launch `Anti-Soft Detention Anti-Surveillance 
United Movement' '' [Lingba xianzhang qianshu ren faqi ``fan ruanjin 
fan jiankong lianhe da xingdong''], 20 June 09.
    \37\ ``Chen Guangcheng in Poor Health and Yuan Weijing Beaten; Hong 
Kong China Human Rights Lawyers Concern Group Calls for Public 
Support'' [Chen guangcheng shenti qianjia ji yuan weijing beiou 
xianggang zhongguo weiquan lushi guanzhu zu shengyuan], Radio Free Asia 
(Online), 22 April 09.
    \38\ ``Chen Guangcheng in Poor Health and Yuan Weijing Beaten; Hong 
Kong China Human Rights Lawyers Concern Group Calls for Public 
Support'' [Chen guangcheng shenti qianjia ji yuan weijing beiou 
xianggang zhongguo weiquan lushi guanzhu zu shengyuan], Radio Free Asia 
(Online), 22 April 09; ``Yuan Weijing Beaten By Guards Again'' [Yuan 
weijing you zao kanshouren weigong ouda], Radio Free Asia (Online), 20 
April 09; Amnesty International (Online), ``Wife of Human Rights 
Activist Beaten,'' 20 April 09.
    \39\ ``Activists Claim Harassment Because of Clinton's Arrival,'' 
South China Morning Post (Online), 22 February 09 (based on Agence 
France-Press and Associated Press reports); Christopher Bodeen, 
``Dissidents Held During Clinton Beijing Visit,'' Associated Press 
(Online), 21 February 09; Zeng Jinyan, ``Soft Detention! Soft 
Detention!'' [Ruanjin! ruanjin!], Zeng Jinyan's Blog (Online), 21 
February 09.
    \40\ David W. Chen, ``How the Family of a Dissident Fled China,'' 
New York Times (Online), 9 May 09; ``Rights Dissident's Family Flees to 
US,'' Reuters (Online), 13 March 09; Bill Schiller, ``Fears Grow Over 
Chinese Lawyer's Disappearance,'' Toronto Star (Online), 13 April 09.
    \41\ Yu Jianrong, (interviewed by Wu Huaiting), ``Local Abuses Main 
Reason for Mass Incidents,'' Global Times (Online), 1 September 09; 
Does China Have a Stability Problem? Staff Roundtable of the 
Congressional-Executive Commission on China, 27 February 09, Testimony 
of Jacques deLisle, Professor of Law, University of Pennsylvania Law 
School, and Director, Asia Program, Foreign Policy Research Institute.
    \42\ Wang Weilan, ``Petitioners Say Blueprint Proves Their School 
Made of `Tofu,' '' Global Times (Online), 15 May 09; Amnesty 
International (Online), ``Justice Denied: Harassment of Sichuan 
Earthquake Survivors and Activists,'' May 2009, 10.
    \43\ Jonathan Watts, ``China Voices: The Petitioner,'' Guardian 
(Online), 21 May 09.
    \44\ UN Committee Against Torture, Consideration of Reports 
Submitted by State Parties Under Article 19 of the Convention: 
Concluding Observations of the Committee against Torture: China, CAT/C/
CHN/CO/4, 12 December 08, paras. 15, 19.
    \45\ UN Committee against Torture, Consideration of Reports 
Submitted by State Parties Under Article 19 of the Convention: 
Concluding Observations of the Committee against Torture: China, CAT/C/
CHN/CO/4, 12 December 08, paras. 15, 19. New York University Law School 
professor Jerome Cohen, a leading American expert on Chinese law, has 
observed that ``one of the biggest headaches in Chinese justice today 
is that the police take many measures that are not authorized--and to 
assist them they use non-police people who are just ad hoc recruited.'' 
Quoted in Jamil Anderlini, ``Punished Supplicants,'' Financial Times 
(Online), 6 March 09.
    \46\ UN Committee against Torture, Consideration of Reports 
Submitted by State Parties Under Article 19 of the Convention: 
Concluding Observations of the Committee against Torture: China, CAT/C/
CHN/CO/4, 12 December 08, para. 18.
    \47\ Jerome A. Cohen and Eva Pils, ``The Disappearance of Gao 
Zhisheng,'' Wall Street Journal (Online), 9 February 09; Jerome A. 
Cohen, ``Beijing Must Reveal Fate of Human Rights Lawyer,'' South China 
Morning Post (Online), 19 March 09. Another example involved an assault 
on a 75-year-old retired professor in Shandong province who attempted 
to pay respects to Zhao Ziyang, the former Secretary General of the 
Communist Party who was sacked after he refused to support the use of 
violence against protesters in June 1989. On April 5, a day to honor 
the dead in China, Sun Wenguang was reportedly attacked by five men 
while he was on his way to a local monument on Heroes' Mountain to pay 
his respects to Zhao. Although several police cars followed Sun to the 
cemetery, and were parked not far from where he was attacked, ``the 
police hid somewhere and did not stop the violence,'' Sun told the 
Christian Science Monitor. Sun ended up in an intensive care unit with 
three broken ribs. Peter Ford, ``China Cracks Down Ahead of Sensitive 
Anniversaries,'' Christian Science Monitor (Online), 8 April 09. See 
also Chinese Human Rights Defenders (Online), ``Shandong Professor 
Assaulted for Commemorating Reformist Leader Zhao Ziyang,'' 7 April 09; 
``Chinese Pensioner Recounts Beating for Bid To Commemorate 1989 Leader 
Zhao,'' Sydney Radio National, 9 April 09 (Open Source Center, 9 April 
09).
    \48\ Melissa Chan, ``China's `Black Jails' Uncovered,'' Al Jazeera 
(Online), 27 April 09 (video accompanying the article contains 
interview with Xu Zhiyong); Xu Zhiyong, ``A Visit to One of Beijing's 
`Black Jails,' '' translated by the Black and White Cat Blog, Black and 
White Cat Blog (Online), 13 October 09.
    \49\ Xu Zhiyong, ``A Visit to One of Beijing's `Black Jails,' '' 
translated by the Black and White Cat Blog, Black and White Cat Blog 
(Online), 13 October 09.
    \50\ Willy Lam, ``CCPLA: Tightening the CCP's Rule Over Law,'' 
China Brief, 2 April 09, 4.
    \51\ Open Constitution Initiative (Online), ``The Ten Legal Events 
of 2008 Listed by OCI,'' 24 February 09 (Web site no longer 
accessible); See also Willy Lam, ``CCPLA: Tightening the CCP's Rule 
Over Law,'' China Brief, 2 April 09, 4 (noting that the official 
Outlook Weekly had quoted Hainan residents in the wake of an attack on 
local police stations ``as saying that they had lost trust in law-
enforcement officials `because they are corrupt and they offer 
protection to criminals' '').
    \52\ Ariana Eunjung Cha, ``Flare-Ups of Ethnic Unrest Shake China's 
Self-Image,'' Washington Post (Online), 19 July 09.
    \53\ Ariana Eunjung Cha, ``Flare-Ups of Ethnic Unrest Shake China's 
Self-Image,'' Washington Post (Online), 19 July 09; Open Constitution 
Initiative (Online), ``About Us,'' last visited 15 July 09 (Web site no 
longer accessible). Caijing's editor-in-chief Hu Shuli wrote in a July 
editorial that ``[u]nder China's current legal system, the police 
function is more powerful than in countries with established rule of 
law. The police and prosecutors, therefore, should be more restrained 
and cautious in exercising power so that clumsy law enforcement does 
not trigger public resentment.'' Hu Shuli, ``Heeding the Lessons of 
China's Civil Unrest,'' Caijing (Online), 7 July 09.
    \54\ ``Disgruntled Victims of Police Violence Sign Petition in 
China,'' Epoch Times (Online), 30 August 09.
    \55\ Ng Tze-wei, ``Riots on Rise as Cadres at Fault, Magazine 
Says,'' South China Morning Post (Online), 8 September 09. Mu Mu-ying, 
``Number of Group Protests Exceeds 120,000 in 2008; Zhou Yongkang 
Admits That People Rebel Because of Cadres' Misconduct,'' Cheng Ming, 1 
February 09 (Open Source Center, 17 July 09).
    \56\ ``Ministry of Public Security Reports Rise in Public Order 
Disturbances in 2005,'' Congressional-Executive Commission on China 
(Online), 30 January 06; CECC, 2006 Annual Report, 20 September 06, 45.
    \57\ Mu Mu-ying, ``Number of Group Protests Exceeds 120,000 in 
2008; Zhou Yongkang Admits That People Rebel Because of Cadres' 
Misconduct,'' Cheng Ming, 1 February 09 (Open Source Center, 17 July 
09). (Although Open Source Center translates ``qunti'' as ``group,'' 
the word ``mass'' is consistent with how ``qunti'' is used in the term 
``mass incident'' (quntixing shijian). See also Mark O'Neill, ``Legal 
Crusaders on the March,'' 8 September 09 (also noting the report from 
the Central Committee for Comprehensive Management of Public Security 
that more than 12.1 million people participated in 127,000 unauthorized 
protests during 2008).
    \58\ See, e.g., Yu Jianrong, ``Rigid Stability: An Explanatory 
Framework for China's Social Situation'' [Yu jianrong: gangxing wending 
zhongguo shehui xingshi de yi ge jieshi kuangjia], Southeast News 
Agency, reprinted in QQ News (Online), 9 May 09. An English translation 
of Yu's presentation is available on the China Digital Times Web site: 
Yu Jianrong, ``Rigid Stability: An Explanatory Framework for China's 
Social Situation (Part 1),'' 9 May 09, translated by David Kelly and 
reprinted in China Digital Times (Online), 26 May 09. See also Ariana 
Eunjung Cha, ``Flare-Ups of Ethnic Unrest Shake China's Self-Image,'' 
Washington Post (Online), 19 July 09; Yang Jun, ``Breaking Inertia of 
`Maintaining Status Quo,' '' Southern Wind Window, 8 April 09-21 April 
09 (Open Source Center, 22 May 09); Mu Mu-ying, ``Number of Group 
Protests Exceeds 120,000 in 2008; Zhou Yongkang Admits That People 
Rebel Because of Cadres' Misconduct,'' Cheng Ming, 1 February 09 (Open 
Source Center, 17 July 09); Carl Minzner, ``Are Mass Incidents 
Increasing or Decreasing in China?'' Chinese Law and Politics Blog 
(Online), 31 March 07; Email communication with Professor Carl Minzner, 
23 July 09. Bao Tong, top aide to Zhao Ziyang, stated in an interview 
this year about the 1989 Tiananmen protests, that every day in China 
there are ``miniature Tiananmens . . . in counties and villages where 
people try to show their discontent and the government sends 500 
policemen to put them down.'' Jamil Anderlini, ``Tea With the FT: Bao 
Tong,'' Financial Times (Online), 29 May 09.
    \59\ See, e.g., ``Police Cars Overturned in Southern China 
Protest,'' Agence France-Presse (Online), 15 June 09 (Open Source 
Center, 15 June 09); Cao Li, ``Assaults on Police Rise in Shanghai,'' 
China Daily (Online), 13 June 09.
    \60\ Malcolm Moore, ``Tens of Thousands of Chinese Fight the Police 
in Shishou,'' Telegraph (Online), 22 June 09; Zhan Caiqiang, ``Cook 
Dies in Unusual Circumstances, Crowd Gathers and Block Streets,'' 
Southern Metropolitan Daily, 22 June 09 (Open Source Center, 22 June 
09). The police preliminarily declared Tu's fall from the third floor 
of the hotel a suicide; the protesters and the cook's family claimed it 
was a murder that the government was trying to cover up. See Cai Ke, 
``Family of Dead Man Held for Riots,'' China Daily (Online), 23 July 
09.
    \61\ Cai Ke, ``Family of Dead Man Held for Riots,'' China Daily 
(Online), 23 July 09. Malcolm Moore, ``Tens of Thousands of Chinese 
Fight the Police in Shishou,'' Telegraph (Online), 22 June 09; Lucy 
Hornby, ``Chinese Police Detain Three After Shishou Riot,'' Reuters, 
reprinted in South China Morning Post (Online), 23 July 09.
    \62\ Cai Ke, ``Family of Dead Man Held for Riots,'' China Daily 
(Online), 23 July 09; Malcolm Moore, ``Tens of Thousands of Chinese 
Fight the Police in Shishou,'' Telegraph (Online), 23 June 09; Lucy 
Hornby, ``Chinese Police Detain Three After Shishou Riot,'' Reuters, 
reprinted in South China Morning Post (Online), 23 July 09.
    \63\ Cai Ke, ``Family of Dead Man Held for Riots,'' China Daily 
(Online), 23 July 09; Sam Verran, China Elections and Governance 
(Online), ``Shishou Official Speaks Out About Riot,'' 1 July 09; Zhan 
Caiqiang, ``Cook Dies in Unusual Circumstances, Crowd Gathers and Block 
Streets,'' Southern Metropolitan Daily, 22 June 09 (Open Source Center, 
22 June 09) (reporting that ``a number of police officers were 
injured'').
    \64\ Sam Verran, China Elections and Governance (Online), ``Shishou 
Official Speaks Out About Riot,'' 1 July 09.
    \65\ Sam Verran, China Elections and Governance (Online), ``Shishou 
Official Speaks Out About Riot,'' 1 July 09 (Li's blog post was 
translated into English by China Elections and Governance). In late 
July, police detained Tu's brother and two of his cousins for 
disrupting public order in connection with the riot. See Lucy Hornby, 
``Chinese Police Detain Three After Shishou Riot,'' Reuters, reprinted 
in South China Morning Post (Online), 23 July 09. See also Yu Jianrong 
(interviewed by Wu Huaiting), ``Local Abuses Main Reason for Mass 
Incidents,'' Global Times (Online), 1 September 09. Yu Jianrong, 
Director of the Social Problems Research Center, Rural Studies 
Institute, at CASS, stated that ``[l]ocal governments and officials 
often side with the offenders and mobilize the police to crack down on 
the people, which results in violent incidents and severe social 
consequences.''
    \66\ ``Hundreds Rally in China Over Police Beating,'' Agence 
France-Presse, reprinted in Google (Online), 21 May 09; Wu Gang, 
``Anti-Police Sentiment Spills,'' Global Times (Online), 21 May 09; 
``Mass Incident in Gansu: Request That Traffic Police Who Hit People Be 
Punished'' [Gansu qunti shijian yaoqiu chengfa da ren jiaojing], Voice 
of America, reprinted in Chinese Human Rights Defenders (Online), 21 
May 09.
    \67\ ``Hundreds Rally in China Over Police Beating,'' Agence 
France-Presse, reprinted in Google (Online), 21 May 09. In another 
clash between police and citizens in May, Vietnamese Chinese tea 
farmers in Yingde city, Guangdong province, clashed with police over 
the detention of four farmers' representatives who were seeking redress 
for grievances relating to the expropriation of their land. According 
to an account provided by the villagers to the Washington Post, what 
began as a small peaceful protest by 30 or so villagers grew into a 
crowd of several thousand, and the confrontation turned violent when 
hundreds of riot police from neighboring towns arrived and started 
beating people up. A police station was attacked and several police 
cars burned. See Ariana Eunjung Cha, ``Flare-Ups of Ethnic Unrest Shake 
China's Self-Image,'' Washington Post (Online), 19 July 09; ``Tea 
Farmers Attack Police Stations,'' Agence France-Presse, reprinted in 
South China Morning Post (Online), 26 May 09.
    \68\ Eva Pils, ``Yang Jia and China's Unpopular Criminal Justice 
System,'' China Rights Forum, No. 1, 2009, 59-60; Zhang Lijia, ``Crime 
and Punishment: The Mainland Is Moving Away From Indiscriminate Death 
Sentences, but Injustices Remain,'' South China Morning Post (Online), 
2 December 08.
    \69\ Eva Pils, ``Yang Jia and China's Unpopular Criminal Justice 
System,'' China Rights Forum, No. 1, 2009, 59-60.
    \70\ Rebecca MacKinnon, ``Ai Weiwei: On Taking Individual 
Responsibility,'' RConversation (Online), 23 January 09.
    \71\ Ibid.
    \72\ Ibid.
    \73\ Open Constitution Initiative (Online), ``The Ten Legal Events 
of 2008 Listed by OCI,'' 24 February 09, last visited 15 July 09 (Web 
site no longer accessible). Yang Jia's case ranked number one on the 
list; at number eight was the killing of Wei Wenhua, who was beaten to 
death in January 2008 by more than 30 chengguan in Wanba village in 
Hubei province, after he began taking photos of urban management 
officers beating up protesting villagers. Wei's death prompted calls 
for the abolition of the urban management system, which is widely 
perceived as lawless and rife with abuses. See also David Bandurski, 
China Media Project (Online), ``Brutal Killing of (citizen journalist) 
Wei Wenhua Underscores the Evils of China's `Urban Management' 
System,'' 10 January 08; ``Guide to Beating Law-Breakers Sparks 
Outrage,'' Agence France-Presse, reprinted in South China Morning Post 
(Online), 23 April 09.
    \74\ David Bandurski, China Media Project (Online), ``Brutal 
Killing of (citizen journalist) Wei Wenhua Underscores the Evils of 
China's `Urban Management' System,'' 10 January 08; ``Guide to Beating 
Law-Breakers Sparks Outrage,'' Agence France-Presse, reprinted in South 
China Morning Post (Online), 23 April 09.
    \75\ See, e.g., Austin Ramzy, ``Above the Law? China's Bully Law-
Enforcement Officers,'' Time (Online), 21 May 09; Joel Martinsen, ``A 
Practical Handbook for Beating Street Vendors,'' Danwei (Online), 22 
April 09. Chengguan is also translated as ``city administration 
enforcement'' (Danwei) or ``city management'' (Time). Chinese Human 
Rights Defenders (Online), ``Beijing Lawyer Cheng Hai Assaulted by 
Officials for Representing Falun Gong Practitioner,'' 14 April 09; 
``Beijing City Authority Beats Peddler, Thousands Surround and Watch, 
Authorities Detain Peddler and Threaten Witnesses'' [Beijing chengguan 
ouda xiaofan qian ren weiguan dangju juliu xiafan weihe mujizhe], Radio 
Free Asia (Online), 25 March 09.
    \76\ Tania Branigan, ``Chinese Law Enforcers Told: Don't Leave 
Blood on Their Faces,'' Guardian (Online), 23 April 09; ``Guide to 
Beating Law-Breakers Sparks Outrage,'' Agence France-Presse, reprinted 
in South China Morning Post (Online), 23 April 09.
    \77\ ``Student Demonstrators Clash With Police in Nanjing,'' South 
China Morning Post (Online), 20 May 09; Austin Ramzy, ``Above the Law? 
China's Bully Law-Enforcement Officers,'' Time (Online), 21 May 09. 
According to the Hong Kong-based Information Center for Human Rights 
and Democracy, 30 students were injured, a police car was smashed, and 
3 students were taken away by the police. See ``Student Demonstrators 
Clash With Police in Nanjing,'' South China Morning Post (Online), 20 
May 09.
    \78\ ``Student Demonstrators Clash With Police in Nanjing,'' South 
China Morning Post (Online), 20 May 09.
    \79\ Austin Ramzy, ``Above the Law? China's Bully Law-Enforcement 
Officers,'' Time (Online), 21 May 09; Yu Ge, ``Road Map for Improving 
the Urban Management System,'' Oriental Morning Post (Online), 14 
January 08 (Open Source Center, 10 June 09). The UN Human Rights 
Council's Review of China's Record: Process and Challenges, Staff 
Roundtable of the Congressional-Executive Commission on China, 16 
January 09, Ms. Xiaorong Li, Senior Researcher, Institute for 
Philosophy and Public Policy, University of Maryland, Remarks During 
Question and Answer Period.
    \80\ Jeremy Chan, ``China To Revise Policy Toward Peddlers,'' Wall 
Street Journal (Online), 11 August 09 (``China is preparing to give 
millions of street vendors legal status, a move aimed at creating jobs 
and curbing a rash of violent conflicts between the sellers and law-
enforcement officials who police them.'').
    \81\ ``Legal Status To Be Granted to Street Vendors'' [Liudong 
tanfan youwang hefa shengcun], Caijing, 22 July 09.
    \82\ Office of the UN High Commissioner for Human Rights (Online), 
Working Group on Arbitrary Detention Fact Sheet No. 26, May 2000, sec. 
IV; International Covenant on Civil and Political Rights, adopted by UN 
General Assembly resolution 2200A (XXI) of 16 December 66, entry into 
force 23 March 76, arts. 12, 18, 19, 21, 22, and 27; Universal 
Declaration of Human Rights, adopted and proclaimed by UN General 
Assembly resolution 217A (III) of 10 December 48, arts. 7, 10, 13, 14, 
18, 19, and 21. Examples of the first category include individuals who 
are kept in detention after the completion of their prison sentences or 
despite an amnesty law applicable to them, or in violation of domestic 
law or relevant international instruments. The rights and freedoms 
protected under the second category include those in Articles 7, 10, 
13, 14, 18, 19, and 21 of the UDHR and in Articles 12, 18, 19, 21, 22, 
and 27 of the ICCPR. The ICCPR provides that the deprivation of an 
individual's liberty is permissible only ``on such grounds and in 
accordance with such procedure as are established by law,'' and that an 
individual must be promptly informed of the reasons for his detention 
and any charges against him or her.
    \83\ See, e.g., PRC Constitution, enacted and effective 4 December 
82, amended 12 April 88, 29 March 93, 15 March 99, 14 March 04, arts. 
35, 37, 41; PRC Criminal Procedure Law, enacted 1 July 79, amended 17 
March 96, effective 1 January 97, art. 3; PRC Public Security 
Administration Punishment Law, enacted 28 August 05, effective 1 March 
06, arts. 3, 9, 10, 16; PRC Legislation Law, enacted 15 March 00, 
effective 1 July 00, art. 8(v).
    \84\ Universal Declaration of Human Rights, adopted and proclaimed 
by UN General Assembly resolution 217A (III) of 10 December 48, arts. 
7, 10, 13, 14, 18, 19, and 21; International Covenant on Civil and 
Political Rights, adopted by UN General Assembly resolution 2200A (XXI) 
of 16 December 66, entry into force 23 March 76, arts. 12, 18, 19, 21, 
22, and 27. The rights and freedoms protected under the second 
category, i.e., ``an individual is deprived of his liberty for having 
exercised rights guaranteed under the UDHR and ICCPR'' include rights 
contained in arts. 7, 10, 13, 14, 18, 19, and 21 of the UDHR and in 
Articles 12, 18, 19, 21, 22, and 27 of the ICCPR.
    \85\ The CECC and others have also rendered ruanjin as arbitrary or 
unlawful ``house arrest,'' ``home confinement,'' or ``soft arrest.''
    \86\ UN Committee against Torture, Consideration of Reports 
Submitted by State Parties Under Article 19 of the Convention: 
Concluding Observations of the Committee against Torture: China, CAT/C/
CHN/CO/4, 12 December 08, para. 14.
    \87\ CECC, 2008 Annual Report, 31 October 08, 35-36. See Flora 
Sapio, ``Shuanggui and Extralegal Detention in China,'' 22 China 
Information, 26 (2008) for a detailed discussion of shuanggui.
    \88\ Jerome Cohen and Eva Pils, ``The Disappearance of Gao 
Zhisheng,'' Wall Street Journal (Online), 9 February 09 (describing ``a 
new and more effective `punishment at home' that is less apparent to 
outsiders than a conventional prison sentence''); CECC, 2008 Annual 
Report, 31 October 08, 34.
    \89\ Zhao Ziyang, Prisoner of the State: The Secret Journal of 
Premier Zhao Ziyang, ed. Bao Pu, et al. (New York: Simon & Schuster, 
2009), 84. See also China's Human Rights Lawyers: Current Challenges 
and Prospects, CECC Roundtable, 10 July 09, Testimony of Jerome A. 
Cohen, Professor, New York University School of Law, Co-director, U.S.-
Asia Law Institute. Zhao's top aide, Bao Tong, who was the highest 
ranking Communist Party official to serve a prison sentence after the 
1989 Tiananmen protests, has been subjected to unlawful home 
confinement and surveillance since his release from prison in 1996. See 
Jamil Anderlini, ``Tea with the FT: Bao Tong,'' Financial Times 
(Online), 29 May 09; ``Bao Tong: Beijing Should Explain How Charter `08 
Violates the Law,'' AsiaNews.it (Online), 17 December 08.
    \90\ Ma Lin and Wang Wei, Chinese Human Rights Defenders (Online), 
``Charter 08 Signatories Launch `Anti-Soft Detention Anti-Surveillance 
United Movement' '' [Lingba xianzhang qianshu ren faqi ``fan ruanjin 
fan jiankong lianhe da xingdong''], 20 June 09.
    \91\ Ibid.
    \92\ Ma Lin and Wang Wei, Chinese Human Rights Defenders (Online), 
``Charter 08 Signatories Launch `Anti-Soft Detention Anti-Surveillance 
United Movement' '' [Lingba xianzhang qianshu ren faqi ``fan ruanjin 
fan jiankong lianhe da xingdong''], 20 June 09. By June 20, 158 
individuals--the vast majority of whom also signed Charter 08--had 
signed onto the statement. The signatories include: Bao Tong, Teng 
Biao, Ai Weiwei, Jiang Qisheng, Ding Zilin, Pu Zhiqiang, Zhuo Duo, 
Zhang Zuhua, Yu Jie, Wan Yanhai, Li Heping, Li Fangping, Jiang 
Tianyong, and Li Xiongbing. Ibid.
    \93\ UN Committee against Torture, Consideration of Reports 
Submitted by State Parties Under Article 19 of the Convention: 
Concluding Observations of the Committee against Torture: China, CAT/C/
CHN/CO/4, 12 December 08, para. 14. The 1992 United Nations Declaration 
on the Protection of all Persons from Enforced Disappearance provides 
that an ``enforced disappearance'' occurs when individuals are detained 
or abducted ``or otherwise deprived of their liberty by officials of 
different branches or levels of Government, or by organized groups or 
private individuals acting on behalf of, or with the support, direct or 
indirect, consent or acquiescence of the Government, followed by a 
refusal to disclose the fate or whereabouts of the persons concerned or 
a refusal to acknowledge the deprivation of their liberty, which places 
such persons outside the protection of the law.'' UN General Assembly, 
Declaration on the Protection of all Persons from Enforced 
Disappearance, A/RES/47/133, 18 December 92. In February, during its 
Universal Periodic Review by the Working Group on the Universal 
Periodic Review at the UN Human Rights Council, the Chinese government 
rejected the recommendation that it should consider ratifying the 
International Convention for Protection of all Persons from Enforced 
Disappearance, adopted by the General Assembly in December 2006. UN 
GAOR, Hum. Rts. Coun., 11th Sess., Report of the Working Group on the 
Universal Periodic Review--China, A/HRC/11/25, 3 March 09, paras. 38, 
84, 117. The delegations from Mexico and Argentina offered this 
recommendation.
    \94\ CECC, 2008 Annual Report, 31 October 08, 34.
    \95\ UN GAOR, Hum. Rts. Coun., 11th Sess., Report of the Working 
Group on the Universal Periodic Review--China, A/HRC/11/25, 3 March 09, 
paras. 56, 82, 117. During the UPR, the Czech Republic delegation 
called upon China to abolish the system of black jails. The Chinese 
delegation stated that there are no black jails in China, and rejected 
the recommendation. Song Hansong, from the Supreme People's 
Procuratorate, stated: ``Our law clearly prohibits private detention 
facilities. There are no such things as `black jails' in the country.'' 
Tim Johnson, ``China Tells U.N. It Doesn't Censor or Abuse Human 
Rights,'' McClatchy Newspapers (Online), 9 February 09. See also 
``China's `Black Jails' Uncovered,'' Al Jazeera (Online), 27 April 09. 
Al Jazeera reported that in response to its question about the use of 
``black jails'' in China at a foreign ministry press conference, 
spokesperson Jiang Yu responded: ``I don't know what prompted you to 
ask this question. Things like this don't exist in China. China is a 
country with the rule of law, and everything is handled according to 
the law.''
    \96\ See, e.g., ``China's `Black Jails' Uncovered,'' Al Jazeera 
(Online), 27 April 09 (including accompanying video report by Melissa 
Chan); Andrew Jacobs, ``Seeking Justice, Chinese Land in Secret 
Jails,'' New York Times (Online), 8 March 09; Chinese Human Rights 
Defenders (Online), `` `Black Jails': China's Growing Network of 
Illegal and Secret Detention Facilities,'' 19 October 08; Xu Zhiyong, 
``A Visit to One of Beijing's `Black Jails,' '' translated by the Black 
and White Cat Blog, Black and White Cat Blog (Online), 13 October 08; 
Chinese Human Rights Defenders (Online), Secret Detention Facilities in 
Beijing Are Illegally Incarcerating Petitioners, 21 September 07. Liu 
Liu, ``Xu Zhiyong: Fighting for Social Justice'' [Xingxiazhangyi xu 
zhiyong], Economic Observer (Online), 13 November 08. The Economic 
Observer quoted Xu as saying that `` `black jails' were a relatively 
new phenomenon; in the past, petitioners were held at custody and 
repatriation centers, but after such centers were abolished in 2003, 
`black jails' emerged to take their place.'' ``Xu Zhiyong: Destined To 
Fight For Social Justice,'' China Digital Times (Online), 13 November 
08. While most reporting on ``black jails'' focuses on the ``black 
jails'' in Beijing, they exist throughout China. See Chinese Human 
Rights Defenders, China Human Rights Yearbook 2007-2008, 1 August 08, 
51.
    \97\ Xu Zhiyong, ``A Visit to One of Beijing's `Black Jails,' '' 
translated by the Black and White Cat Blog, Black and White Cat Blog 
(Online), 13 October 08.
    \98\ Jamil Anderlini, ``Punished Supplicants,'' Financial Times 
(Online), 5 March 09.
    \99\ Chris Buckley, ``Growing Opposition to China's `Black Jails,' 
'' Reuters (Online), 9 February 09. The non-governmental organization 
Chinese Human Rights Defenders (CHRD) reported in October 2008 that the 
black jail system ``has become increasingly extensive and systematic.'' 
Chinese Human Rights Defenders (Online), `` `Black Jails': China's 
Growing Network of Illegal and Secret Detention Facilities,'' 19 
October 08. In June 2009, approximately 1,000 petitioners protested at 
the South Train Station in Beijing demanding the abolition of black 
jails. ``Petitioners Initiate Large-Scale Gathering: Oppose Black 
Jails, Want Human Rights'' [Fangmin faqi daguimo jihui fandui hei 
jianyu yao renquan], Radio Free Asia (Online), 21 June 09.
    \100\ Andrew Jacobs, ``Seeking Justice, Chinese Land in Secret 
Jails,'' New York Times (Online), 8 March 09; Chinese Human Rights 
Defenders, China Human Rights Yearbook 2007-2008, 1 August 08, 51.
    \101\ Melissa Chan, ``China's `Black Jails' Uncovered,'' Al Jazeera 
(Online), 27 April 09.
    \102\ See, e.g., Jamil Anderlini, ``Punished Supplicants,'' 
Financial Times (Online), 5 March 09 (observing that detention (and 
abuse) of petitioners in black jails is ``at the very least tolerated 
and usually facilitated by all levels of China's government and 
police''); Chinese Human Rights Defenders (Online), `` `Black Jails': 
China's Growing Network of Illegal and Secret Detention Facilities,'' 
19 October 08; Andrew Jacobs, ``Seeking Justice, Chinese Land in Secret 
Jails,'' New York Times (Online), 9 March 09 (noting that the Beijing 
police ``have done little to prevent such abuses'').
    \103\ Chinese Human Rights Defenders Online, `` `Black Jails': 
China's Growing Network of Illegal and Secret Detention Facilities,'' 
19 October 08.
    \104\ See, e.g., Chinese Human Rights Defenders (Online), 
``Petitioner Detained and Beaten for Attempting To Appeal to Clinton,'' 
27 February 2009; Chinese Human Rights Defenders (Online), `` `Black 
Jails': China's Growing Network of Illegal and Secret Detention 
Facilities,'' 19 October 08.
    \105\ Chinese Human Rights Defenders (Online), ``Petitioner 
Detained and Beaten for Attempting To Appeal to Clinton,'' 27 February 
09. Petitioners and activists are particularly vulnerable to 
``disappearance'' during the NPC and CPPCC annual March meetings (Two 
Sessions) held in Beijing and around other ``sensitive'' dates and 
events, such as visits from foreign officials. Chinese Human Rights 
Defenders reported that in advance of the Two Sessions in early March, 
an estimated ``600 Shanghai petitioners were either put under 
residential surveillance or sent to black jails while 30 were 
administratively detained to prevent them from petitioning.'' Chinese 
Human Rights Defenders (Online), ``Abuses Against Petitioners 
Contradict Message of `Openness' at Annual Session of China's 
Legislature,'' 19 March 09. Although much of the reporting about black 
jails focuses on Beijing, black jails exist throughout China. 
Authorities in Sichuan province used black jails to silence parents of 
children killed in the May 2008 earthquake who sought to petition to 
call for an investigation into the cause of the collapse of the 
schools. According to Amnesty International, which conducted interviews 
with some of the parents whose children died in the earthquake, eight 
earthquake survivors, including an eight-year-old boy, were held in 
black jails for periods ranging from 1 to 21 days. Amnesty 
International (Online), ``Justice Denied: Harassment of Sichuan 
Earthquake Survivors and Activists,'' May 2009, 10.
    \106\ See, e.g., Chris Buckley, ``China Human Rights Record Stirs 
Struggle at Home,'' Reuters (Online), 8 February 09; Chris Buckley, 
``Growing Opposition to China's `Black Jails,' '' Reuters, reprinted in 
New York Times (Online), 9 February 09; Open Constitution Initiative 
(Online), ``OCI Comment: Judicial Reform Can't Ignore `Gray Prison' 
Under the Hidden System,'' 27 April 09; Chinese Human Rights Defenders, 
China Human Rights Yearbook 2007-2008, 1 August 08, 52.
    \107\ ``Peixian Officials Admit They Have Legal Education Classes; 
Concern Regarding Safety of [Petitioner] Who Exposed the Inside Story 
Remains'' [Peixian guanfang chengren you fazhi xuexi ban, jielu 
heimuzhe anquan reng kan you], Radio Free Asia (Online), 18 February 
09.
    \108\ See, e.g., Chris Buckley, ``China Human Rights Record Stirs 
Struggle at Home,'' Reuters (Online), 8 February 09.
    \109\ See, e.g., Chris Buckley, ``China Human Rights Record Stirs 
Struggle at Home,'' Reuters (Online), 08 February 09; `` `Black Jail' 
Plea From Hospital,'' Radio Free Asia (Online), 20 November 08 (Note 
that RFA incorrectly rendered Zheng's last name as ``Guo'').
    \110\ Chinese Human Rights Defenders (Online), ``Abuses Against 
Petitioners Contradict Message of `Openness' at Annual Session of 
China's Legislature (Appendix),'' 19 March 09, para. 26. Another 
example of the use by authorities of ``legal education classes'' to 
arbitrarily detain citizens involved parents of children who died in 
the May 2008 Sichuan earthquake. One parent who sought justice for her 
child told Amnesty International that she was held in a ``study class'' 
for 10 days (after spending 7 days in two different black jails) during 
which she was instructed repeatedly that it was the earthquake that 
caused the collapse of the schools (and not shoddy construction). 
Amnesty International (Online), ``Justice Denied: Harassment of Sichuan 
Earthquake Survivors and Activists,'' May 2009, 10.
    \111\ Zhai Fangye, ``Cases in Which Petitioner Becomes Psychotic 
Was Preface to Weng'an Incident,'' 9 December 08 (Open Source Center, 
31 March 09); Yang Tao, Open Constitution Initiative (Online), ``OCI 
Comment: Judicial Reform Can't Ignore `Gray Prison' Under the Hidden 
System,'' 27 April 09; Andrew Jacobs, ``Complainers in China 
Hospitalized,'' New York Times (Online), 8 December 08.
    \112\ Andrew Jacobs, ``Complainers in China Hospitalized,'' New 
York Times (Online), 8 December 08.
    \113\ Zhai Fangye, ``Cases in Which Petitioner Becomes Psychotic 
Was Preface to Weng'an Incident,'' 9 December 08 (Open Source Center, 
31 March 09); Andrew Jacobs, ``Complainers in China Hospitalized,'' New 
York Times (Online), 8 December 08. In its December 2008 report on 
China's compliance with the UN Convention against Torture, the UN 
Committee against Torture expressed concern that Chinese authorities 
had detained ``some people in psychiatric hospitals for reasons other 
than medical.'' See UN Committee against Torture, Consideration of 
Reports Submitted by State Parties Under Article 19 of the Convention: 
Concluding Observations of the Committee against Torture: China, CAT/C/
CHN/CO/4, 12 December 08, para. 35. In June 2009, Radio Free Asia 
reported that throughout China, local authorities forcibly send 
petitioners to psychiatric hospitals in order to prevent them from 
petitioning. See ``Inside Story on Wuhan Petitioner Sent to Psychiatric 
Hospital and Tortured'' [Wuhan fangmin bei song jingshenbingyuan zao 
cuican neimu], Radio Free Asia (Online), 12 June 09. The issue of 
governmental authorities forcibly detaining in psychiatric hospitals 
petitioners who do not suffer from mental illness gained more attention 
in April, after a professor of forensic psychiatry at Peking 
University, Sun Dongdong, stated in an interview with China Newsweek 
that 99 percent of all persistent (``professional'') petitioners were 
mentally ill. His comment prompted extensive virtual and ``live'' 
protests and criticism; the controversy became so heated that Professor 
Sun was pressured to issue an apology. Stephanie Wang, ``China's Elite 
Stirs Up `Paranoid' Petitioners,'' Asia Times (Online), 9 May 09.
    \114\ Andrew Jacobs, ``Complainers in China Hospitalized,'' New 
York Times (Online), 8 December 08 (citing Robin Munro); Su Zhi, 
Chinese Human Rights Defenders (Online), ``Psychiatric Hospitals Have 
Become a Gulag Archipelago With Chinese Characteristics'' [Jingshenbing 
yuan chengwei ju you zhongguo tese de gulage qundao], 17 May 09.
    \115\ Xiao Zhi, Chinese Human Rights Defenders (Online), 
``Psychiatric Hospitals Have Become a Gulag Archipelago With Chinese 
Characteristics'' [Jingshenbingyuan chengwei juyou zhongguo tese de 
gulage qundao], 17 May 09. The writer also warns that as the call for 
the abolition of reeducation through labor gains momentum, psychiatric 
hospitals will be used more and more frequently to arbitrarily detain 
citizens.
    \116\ ``The Story of Yang Jia's Mother,'' translated by and 
reprinted in ChinaGeeks Blog (Online), 2 April 09.
    \117\ See, e.g., Andrew Jacobs, ``Complainers in China 
Hospitalized,'' New York Times (Online), 8 December 08; Bill Savadove, 
``Killer's Mother in Mental Hospital,'' South China Morning Post 
(Online), 11 November 08; Rebecca MacKinnon, ``Ai Weiwei: On Taking 
Individual Responsibility,'' RConversation (Online), 23 January 09; 
``The Story of Yang Jia's Mother,'' translated by and reprinted in 
ChinaGeeks Blog (Online), 2 April 09.
    \118\ Bill Savadove, ``Killer's Mother in Mental Hospital,'' South 
China Morning Post (Online), 11 November 08; Simon Elegant, ``Yang Jia: 
Stranger Than Fiction,'' The China Blog, Time (Online), 13 November 09; 
Rebecca MacKinnon, ``Ai Weiwei: On Taking Individual Responsibility,'' 
RConversation, (Online), 23 January 09; Maureen Fan, ``Confessed Police 
Killer Lionized by Thousands in China,'' Washington Post (Online), 14 
November 08 (stating that Yang Jia's mother reportedly claimed that 
``police had locked her up and forced her to hire a government 
lawyer'').
    \119\ Bill Savadove, ``Killer's Mother in Mental Hospital,'' South 
China Morning Post (Online), 11 November 08; Eva Pils, ``Yang Jia and 
China's Unpopular Criminal Justice System,'' China Rights Forum, No. 1, 
2009, 59, 61. According to Wang's own account of her disappearance, 
authorities at the hospital kept her door locked at all times and 
prevented Wang from speaking with anyone (other than her guards and 
``doctors'') or from contacting anyone outside the hospital. Staff at 
the hospital attempted to force Wang to take medicine once, but she 
apparently was successful in thwarting their efforts (although the 
translation is not entirely clear on this point). At any rate, after 
that initial attempted forced ``treatment,'' the staff did not try to 
give Wang medicine again. See ``The Story of Yang Jia's Mother,'' 
translated by and reprinted in ChinaGeeks Blog (Online), 2 April 09.
    \120\ ``The Story of Yang Jia's Mother,'' translated by and 
reprinted in ChinaGeeks Blog (Online), 2 April 09.
    \121\ ``Deng Yujiao Tells Her Story,'' EastSouthWestNorth Blog 
(Online), 26 May 09 (translation of account published in Southern 
Metropolitan Daily).
    \122\ See, e.g., Wang Yan, ``The Hands That Pull the Lever,'' 
NewsChina, 5 July 09, 15; Raymond Li, ``Web of Support,'' South China 
Morning Post (Online), 10 June 09; Grace Ng, ``Rape-Bid Official's 
Killer Goes Free,'' Straits Times Online, 17 June 09, (Open Source 
Center, 17 June 09).
    \123\ Xiao Zhi, Chinese Human Rights Defenders (Online), 
``Psychiatric Hospitals Have Become a Gulag Archipelago With Chinese 
Characteristics'' [Jingshenbingyuan chengwei juyou zhongguo tese de 
gulage qundao], 17 May 09.
    \124\ Jerome A. Cohen and Eva Pils, ``The Disappearance of Gao 
Zhisheng,'' Wall Street Journal (Online), 9 February 09; Jerome A. 
Cohen, ``Beijing Must Reveal Fate of Human Rights Lawyer,'' South China 
Morning Post (Online), 19 March 09.
    \125\ See, e.g., Gao's record of detention searchable through the 
CECC's Political Prisoner Database; Jerome A. Cohen, ``Beijing Must 
Reveal Fate of Human Rights Lawyer,'' South China Morning Post 
(Online), 19 March 09; China Human Rights Lawyers Concern Group 
(Online), ``Press Invitation: Demand Information About Beijing Human 
Rights Lawyer Gao Zhisheng's Whereabouts'' [Caifang tongzhi: zaici 
yaoqiu jiaodai Beijing weiquan lushi Gao Zhisheng xialuo], 15 June 09; 
Human Rights in China (Online), ``Wife of Abducted Rights Defense 
Lawyer Gao Zhisheng Requests Urgent Help From U.S. Congress in Open 
Letter,'' 23 April 09.
    \126\ Jerome A. Cohen, ``Beijing Must Reveal Fate of Human Rights 
Lawyer,'' South China Morning Post (Online), 19 March 09; Human Rights 
in China (Online), ``Wife of Abducted Rights Defense Lawyer Gao 
Zhisheng Requests Urgent Help From U.S. Congress in Open Letter,'' 23 
April 09.
    \127\ See CECC, 2008 Annual Report, 31 October 08, 37-38. The 
suspended sentence meant that Gao did not serve prison time after the 
court sentenced him. It also meant that Gao would be closely monitored 
and surveilled for five years, and that if he did anything that 
displeased his guards, he could end up in prison to serve out his 
three-year sentence. In March 2009, Jerome Cohen, professor at New York 
University Law School and a leading American expert on Chinese law, 
described Gao's suspended sentence of ``home surveillance'' as 
``harsher than prison, not only for Gao but also for his wife and 
daughter.'' Jerome A. Cohen, ``Beijing Must Reveal Fate of Human Rights 
Lawyer,'' South China Morning Post (Online), 19 March 09.
    \128\ See Gao's record of detention searchable through the CECC's 
Political Prisoner Database; Human Rights in China (Online), ``Torture 
Account by Missing Rights Defense Lawyer Gao Zhisheng,'' 8 February 09.
    \129\ Jerome A. Cohen and Eva Pils, ``The Disappearance of Gao 
Zhisheng,'' Wall Street Journal (Online), 8 February 09.
    \130\ Human Rights in China (Online), ``Torture Account by Missing 
Rights Defense Lawyer Gao Zhisheng,'' 8 February 09 (attaching PDF of 
Gao's account titled ``Dark Night, Dark Hood, and Kidnapping by Dark 
Mafia''); ChinaAid (Online), ``A Letter From the Twenty-first Century 
Dungeon--Over Fifty Days of Endless Inhumane Tortures in the Hands of 
the Chinese Government,'' translated by ChinaAid (Online), 18 February 
09 (written on 28 November 07 and authorized for release to 
international community on 9 February 09.) The Web sites of HRIC and 
ChinaAid contain different English translations of the same Chinese 
language account written by Gao Zhisheng.
    \131\ Human Rights in China (Online), ``Torture Account by Missing 
Rights Defense Lawyer Gao Zhisheng,'' 8 February 09; ChinaAid (Online), 
``A Letter From the Twenty-first Century Dungeon--Over Fifty Days of 
Endless Inhumane Tortures in the Hands of the Chinese Government,'' 
translated by ChinaAid, 18 February 09; Jerome A. Cohen, ``Beijing Must 
Reveal Fate of Human Rights Lawyer,'' South China Morning Post 
(Online), 19 March 09.
    \132\ Human Rights in China (Online), ``Wife of Abducted Rights 
Defense Lawyer Gao Zhisheng Requests Urgent Help From U.S. Congress in 
Open Letter,'' 23 April 09.
    \133\ Josephine Ma, ``Dissident's Wife Reveals Family's Harrowing 
Escape to the West,'' South China Morning Post (Online), 14 March 09; 
``Chinese Dissident Lawyer's Family Defects,'' Radio Free Asia 
(Online), 12 March 09; Bill Schiller, ``Fears Grow Over Chinese 
Lawyer's Disappearance,'' Toronto Star (Online), 13 April 09.
    \134\ ``PRC FM Spokesman Denies China Persecuting Family of Human 
Rights Lawyer,'' Agence France-Presse (Online), 17 March 09 (Open 
Source Center, 17 March 09).
    \135\ Human Rights in China (Online), ``Wife of Abducted Rights 
Defense Lawyer Gao Zhisheng Requests Urgent Help From U.S. Congress in 
Open Letter,'' 23 April 09.
    \136\ Official correspondence on file with the Commission.
    \137\ ``Lawyer Gao Zhisheng Missing for Over Four Months; Older 
Brother Goes to Beijing To Look for Younger Brother With No Results; 
Police Do Not Allow Him To Enter His Home'' [Gao zhisheng lushi shizong 
4 yue yu dage fu jing xun di wuguo jingfang bu zhun jin jiamen], Radio 
Free Asia (Online), 17 June 09.
    \138\ Ibid.
    \139\ Ibid.
    \140\ Ibid.
    \141\ China Aid Association (Online), ``Gao Zhisheng Petition 
Delivered to Chinese Embassy, U.S. State Department and CECC,'' 16 July 
09. For information about other advocacy efforts, see, e.g., China 
Human Rights Lawyers Concern Group, ``Press Invitation: Demand 
Information About Beijing Human Rights Lawyer Gao Zhisheng's 
Whereabouts,'' 15 June 09; Jerome A. Cohen, ``Beijing Must Reveal Fate 
of Human Rights Lawyer,'' South China Morning Post (Online), 19 March 
09; Jeff Storey, ``New York Lawyers Urge Chinese To Investigate Case of 
Missing Human Rights Attorney,'' New York Law Journal, reprinted in 
Law.Com (Online), 23 April 09.
    \142\ ``An Update on Gao Zhisheng,'' Siweiluozi Blog (Online), 3 
September 09; Teng Biao on Gao Zhisheng, Twitter (Online), 2 September 
09.
    \143\ CECC, 2008 Annual Report, 31 October 08, 35; Flora Sapio, 
``Shuanggui and Extralegal Detention in China,'' 22 China Information 
(Online), 7, 12 (2008).
    \144\ CECC, 2008 Annual Report, 31 October 08, 35.
    \145\ Ibid.
    \146\ UN Committee against Torture, Consideration of Reports 
Submitted by State Parties Under Article 19 of the Convention: 
Concluding Observations of the Committee against Torture: China, CAT/C/
CHN/CO/4, 12 December 08, para. 14.
    \147\ ``Guangdong Cases Uncover Years of Abuse, Sources Say,'' 
South China Morning Post (Online), 16 April 09; ``Supreme Court Vice 
President Huang Songyou Is Placed Under `Double Stipulations,' '' 
Southern Metropolitan Daily, 29 October 08 (Open Source Center, 29 
October 08). In August, Huang Songyou was dismissed from all of his 
official positions and stripped of his Communist Party membership. His 
case was transferred to the procuratorate for criminal prosecution on 
corruption charges. See ``Party Sacks Ex-Supreme Court VP Over 
Corruption,'' Xinhua (Online), 21 August 08. In the first half of 2009, 
Zheng Shaodong, former Vice Minister of Public Security and Director of 
the Criminal Investigation Bureau of Guangdong, and Chen Shaoji, 
Chairman of the Guangdong Committee of the Chinese People's Political 
Consultative Conference and former head of Guangdong's Public Security 
Department, were also placed under shuanggui. ``Guangdong Cases Uncover 
Years of Abuse, Sources Say,'' South China Morning Post (Online), 16 
April 09. Zheng and Chen's investigation were prompted by their alleged 
links to billionaire Huang Guangyu (Wong Kwong-yu), founder of Gome 
Appliances, who was placed under investigation in November for 
suspected securities fraud. See, e.g., ``Former Top Law Officials in 
Graft Probe,'' South China Morning Post (Online), 16 April 09; 
``Shenzhen Graft Probe Hits Three More Officials,'' South China Morning 
Post (Online), 9 June 09; He Xin, Luo Jieqi, and Wang Heyan, ``Shenzhen 
Mayor Bows Out on Bribery Probe,'' Caijing (Online), 2 July 09.
    \148\ ``Shenzhen Graft Probe Hits Three More Officials,'' South 
China Morning Post (Online), 9 June 09; He Xin, Luo Jieqi and Wang 
Heyan, ``Shenzhen Mayor Bows Out on Bribery Probe,'' Caijing (Online), 
2 July 09; ``Beijing-Backed Party Boss Too Powerful for Guangdong 
Clique,'' South China Morning Post (Online), 17 April 09.
    \149\ He Xin, Luo Jieqi, and Wang Heyan, ``Shenzhen Mayor Bows Out 
on Bribery Probe,'' Caijing (Online), 2 July 09.
    \150\ ``Shenzhen Graft Probe Hits Three More Officials,'' South 
China Morning Post (Online), 9 June 09.
    \151\ Fiona Tam, ``Former Justice Chief Had His Own `Fort Knox,' '' 
South China Morning Post (Online), 4 September 09.
    \152\ CECC, 2007 Annual Report, 10 October 07, 39; Dui Hua 
Foundation, Reference Materials on China's Criminal Justice System, 
Vol. 2, June 2009, iv; CECC, 2008 Annual Report, 31 October 08, 37; 
Chinese Human Rights Defenders (Online), ``Re-Education Through Labor 
Abuses Continue Unabated: Overhaul Long Overdue,'' 4 February 09, 4.
    \153\ CECC, 2008 Annual Report, 31 October 08, 37; Chinese Human 
Rights Defenders (Online), ``Re-Education Through Labor Abuses Continue 
Unabated: Overhaul Long Overdue,'' 4 February 09, 4.
    \154\ Fu Hualing, ``Dissolving Laojiao,'' China Rights Forum, No. 
1, 2009, 55.
    \155\ UN GAOR, Hum. Rts. Coun., 11th Sess., Report of the Working 
Group on the Universal Periodic Review--China, A/HRC/11/25, 3 March 09, 
para. 66.
    \156\ CECC, 2008 Annual Report, 31 October 08, 37.
    \157\ Dui Hua Foundation, Reference Materials on China's Criminal 
Justice System, Vol. 2, June 2009, v-vi. Professor Fu Hualing also 
notes that with the handling of drug addicts in separate drug treatment 
centers, the number of RTL inmates has decreased substantially. See Fu 
Hualing, ``Dissolving Laojiao,'' China Rights Forum, No. 1, 2009, 57.
    \158\ Chinese Human Rights Defenders (Online), ``Re-Education 
Through Labor Abuses Continue Unabated: Overhaul Long Overdue,'' 4 
February 09, 3, 8, 13.
    \159\ Chinese Human Rights Defenders (Online), ``Re-Education 
Through Labor Abuses Continue Unabated: Overhaul Long Overdue,'' 4 
February 09, 16. One of the former RTL inmates who was interviewed for 
CHRD's report, Luo Hangshan, spent three years in an RTL center in 
Liaoning province. Luo reported that beatings were common and that he 
knew of seven or eight inmates who were beaten to death, a figure that 
did not include those who committed suicide because they could no 
longer stand the abuse. Luo said that all kinds of torture were common, 
including forcing the inmates to eat feces and drink urine, which the 
guards called eating fried dough sticks and drinking wine. Ibid., 58-
59. In its December 2008 report, the UN Committee against Torture 
(UNCAT) urged China, as it had in the past, to ``immediately abolish 
all forms of administrative detention.'' UN Committee against Torture, 
Consideration of Reports Submitted by State Parties Under Article 19 of 
the Convention: Concluding Observations of the Committee against 
Torture: China, CAT/C/CHN/CO/4, 12 December 08, para. 13. The Committee 
also expressed concern about allegations of torture and abuse in RTL 
centers, and the government's failure to investigate such allegations. 
Ibid., para. 14.
    \160\ Chinese Human Rights Defenders (Online), ``Re-Education 
Through Labor Abuses Continue Unabated: Overhaul Long Overdue,'' 4 
February 09, 11-12; CECC, 2006 Annual Report, 20 September 06, 53; 
Bureau of Democracy, Human Rights, and Labor, U.S. Department of State, 
Country Report on Human Rights Practices--2008, China (includes Tibet, 
Hong Kong, and Macau), 25 February 09, sec. 1.d; Fu Hualing, 
``Dissolving Laojiao,'' China Rights Forum, No.1, 2009, 54.
    \161\ Chinese Human Rights Defenders (Online), ``Re-Education 
Through Labor Abuses Continue Unabated: Overhaul Long Overdue,'' 4 
February 09, 11-12; CECC, 2006 Annual Report, 20 September 06, 53. The 
UN Working Group on Arbitrary Detention observed after its 2004 visit 
to China that ALL review of RTL decisions was ``of very little value.'' 
See UN Working Group on Arbitrary Detention, Report of the Working 
Group on Arbitrary Detention, Mission to China, Addendum, 29 December 
04, paras. 56, 73.
    \162\ Chinese Human Rights Defenders (Online), ``Re-Education 
Through Labor Abuses Continue Unabated: Overhaul Long Overdue,'' 4 
February 09, 12.
    \163\ Chinese Human Rights Defenders (Online), ``Re-Education 
Through Labor Abuses Continue Unabated: Overhaul Long Overdue,'' 4 
February 09, 61. Jin Hanyan, a petitioner who spent one year and 10 
months at the Hubei Women's RTL Center, told CHRD that the detainees 
were not allowed to have any visitors (including family), and thus she 
(and other detainees) could not meet with lawyers or others who might 
have helped them to pursue legal remedies. Jin wrote out a petition for 
administrative reconsideration herself, but later learned that the 
staff at the RTL center had kept it and not forwarded it to the 
relevant authorities. Jin stated that other detainees had experienced 
similar treatment. Ibid., 53. See also China's Human Rights Lawyers: 
Current Challenges and Prospects, CECC Roundtable, 10 July 09, Written 
Statement submitted by Jerome A. Cohen, Professor, New York University 
School of Law, Co-director, U.S.-Asia Law Institute (stating that 
generally a lawyer's only possible role in reeducation through labor 
proceedings ``is to assist people who have already been sent off to 
RETL confinement with an appeal for judicial review in the relatively 
few cases when the detainees are able to contact and hire counsel'').
    \164\ See CECC, 2008 Annual Report, 31 October 08, 36-37; Fu 
Hualing, ``Dissolving Laojiao,'' China Rights Forum, No. 1, 2009, 54; 
Dui Hua Foundation, Reference Materials on China's Criminal Justice 
System, Vol. 2, June 2009, iv-v.
    \165\ Xiaorong Li and Zhang Zuhua, Charter 08 [Lingba xianzhang], 
(Hong Kong: Open Books, 2009), 319 (noting that Charter 08 had garnered 
more than 8,400 signatures by mid-April 2009, approximately 80 percent 
from people residing in mainland China).
    \166\ ``China's Charter 08,'' translated by Perry Link, New York 
Review of Books (Online), 15 January 09. During the UN Human Rights 
Council Universal Periodic Review of China in February, several 
delegations raised concerns about administrative detention in China and 
called upon the Chinese government to abolish RTL and all other forms 
of administrative detention. See UN GAOR, Hum. Rts. Coun., 11th Sess., 
Report of the Working Group on the Universal Periodic Review--China, A/
HRC/11/25, 3 March 09, paras. 43, 82, 92. The delegations that 
recommended China abolish all forms of administrative detention 
included Germany, Sweden, and the Czech Republic. The Chinese 
delegation rejected the recommendations that it abolish RTL and other 
forms of administrative detention. Ibid., para. 117.
    \167\ UN Committee against Torture, Consideration of Reports 
Submitted by State Parties Under Article 19 of the Convention: 
Concluding Observations of the Committee against Torture: China, CAT/C/
CHN/CO/4, 12 December 08, para. 11.
    \168\ UN Committee against Torture, Consideration of Reports 
Submitted by State Parties Under Article 19 of the Convention: 
Concluding Observations of the Committee against Torture: China, CAT/C/
CHN/CO/4, 12 December 08, paras. 11, 33. In addition, the Committee 
recommended that in order to comply with the definition of torture in 
the Convention, China must include the infliction of severe mental pain 
or suffering in its definition of torture, and ensure that any person 
acting in ``an official capacity or with the consent or acquiescence of 
a public official can be prosecuted for torture.'' Ibid., para. 33. See 
also The UN Human Rights Council's Review of China's Record: Process 
and Challenges, Staff Roundtable of the Congressional-Executive 
Commission on China, 16 January 09, Testimony of Felice Gaer, Director, 
The Jacob Laustein Institute for the Advancement of Human Rights, 
Chair, U.S. Commission on International Religious Freedom (``the 
official Chinese definition [of torture] does not meet the UN 
definition''). The panelists participating in the roundtable agreed 
that China's definition of torture was too narrow; among other things, 
it does not account for mental or psychological abuse, and applies only 
to law enforcement officers or other officials within the criminal 
system, thereby excluding from criminal liability other government 
officials (or persons working under their direction) who engage in 
violence and torture, such as urban management officers (chengguan), 
guards in reeducation through labor centers, black jail guards, hired 
``thugs,'' etc.
    \169\ UN Committee against Torture, Consideration of Reports 
Submitted by State Parties Under Article 19 of the Convention: 
Concluding Observations of the Committee against Torture: China, CAT/C/
CHN/CO/4, 12 December 08, para. 33.
    \170\ Andrew Jacobs, ``China Assails UN Report That Alleges 
Torture,'' New York Times, reprinted in International Herald Tribune 
(Online), 24 November 08. During the February 2009 session of the UN 
Human Rights Council's Universal Periodic Review of the Chinese 
Government's human rights record, several delegations raised the issue 
of torture and abuse in custody. China rejected the recommendation that 
it ``take immediate measures to implement the recommendations'' made by 
the Committee against Torture after its review of China in November 
2008. See UN GAOR, Hum. Rts. Coun., 11th Sess., Report of the Working 
Group on the Universal Periodic Review--China, A/HRC/11/25, 3 March 09, 
paras. 28, 117.
    \171\ UN Committee against Torture, Consideration of Reports 
Submitted by State Parties Under Article 19 of the Convention: 
Concluding Observations of the Committee against Torture: China, CAT/C/
CHN/CO/4, 12 December 08, para. 12.
    \172\ Kent Ewing, ``Chinese Prisons: Horror and Reform,'' Asia 
Times (Online), 24 March 09. The first case that came to light in 2009 
involved the death in February of 24-year-old Li Qiaoming at a 
detention center in Yunnan, which was initially explained by officials 
to have resulted from fatal injuries sustained during a game of ``hide-
and-seek'' (``duo maomao'') with other inmates. The media and 
blogosphere spread news of the case; Internet users expressed anger 
over the death and the unconvincing explanation given by the officials, 
and called for an investigation. Amnesty International (Online), 
``China's Detention System Under Pressure After Inmate Deaths,'' 20 
March 09; Kathrin Hille, ``China To Address Torture of Prisoners,'' 
Financial Times (Online), 3 April 09. After the investigation, 
officials stated that Li, in fact, had been beaten to death by ``jail 
bullies'' (laotou yuba). More reports of other suspicious deaths in 
custody followed. In March, for example, the Chinese media reported the 
death of a 50-year-old man in a detention center in Jiangxi province; 
officials initially explained the cause of death as the result of a 
``nightmare.'' Zhu Zhe, ``Preventing Custody Deaths a Top Priority,'' 
China Daily (Online), 4 April 09.
    \173\ See, e.g., ``China Vows To Curb Custody Deaths,'' Xinhua, 
reprinted in People's Daily (Online), 4 April 09; Amnesty International 
(Online), ``China's Detention System Under Pressure After Inmate 
Deaths,'' 20 March 09.
    \174\ Amnesty International (Online), ``China's Detention System 
Under Pressure After Inmate Deaths,'' 20 March 09. If convicted and 
sentenced to a prison term by a court, a defendant is then transferred 
to a prison (jianyu).
    \175\ Amnesty International (Online), ``China's Detention System 
Under Pressure After Inmate Deaths,'' 20 March 09; Kathrin Hille, 
``China To Address Torture of Prisoners,'' Financial Times (Online), 3 
April 09.
    \176\ See, e.g., Kathrin Hille, ``China To Address Torture of 
Prisoners,'' Financial Times (Online), 3 April 09; Amnesty 
International (Online), ``China's Detention System Under Pressure After 
Inmate Deaths,'' 20 March 09; ``Investigation Into Prison Deaths 
Launched,'' Agence France-Presse, reprinted in South China Morning Post 
(Online), 2 April 09.
    \177\ ``Top Prosecuting Body Starts Jail Safety Drive After Inmate 
Deaths,'' South China Morning Post (Online), 21 April 09.
    \178\ ``Top Prosecuting Body Starts Jail Safety Drive After Inmate 
Deaths,'' South China Morning Post (Online), 21 April 09.
    \179\ ``Official: Misconduct in Chinese Prisons Doubles,'' Xinhua 
(Online), 16 July 09.
    \180\ State Council Information Office, National Human Rights 
Action Plan of China (2009-2010), Xinhua (Online), 13 April 09.
    \181\ Ibid.
    \182\ State Council Information Office, National Human Rights 
Action Plan of China (2009-2010), Xinhua (Online), 13 April 09. HRAP 
does not explain what ``physical barrier'' means.
    \183\ Chinese Human Rights Defenders (Online), ``Re-Education 
Through Labor Abuses Continue Unabated: Overhaul Long Overdue,'' 4 
February 09, 3, 16.
    \184\ CECC, 2008 Annual Report, 31 October 08, 37; UN Committee 
against Torture, Consideration of Reports Submitted by State Parties 
Under Article 19 of the Convention: Concluding Observations of the 
Committee against Torture: China, CAT/C/CHN/CO/4, 12 December 08, para. 
12.
    \185\ Human Rights in China (Online), ``Case Update: Elderly 
Activist Shuang Shuying Released; Reports Abuses in Prison,'' 13 
February 09. In February 2009, rights activist Shuang Shuying, aged 77, 
completed a two-year sentence at Beijing Women's Prison for hitting a 
police car with her cane. According to an interview Shuang gave to the 
non-governmental organization Human Rights in China shortly after her 
release, she was beaten by both prison guards and other inmates and 
also subjected to electric shock. Prison guards ordered one of Shuang's 
cellmates to beat her, and threatened Shuang that her six cellmates 
would take turns tormenting her until she was ``tormented to death.'' 
The guards warned Shuang that if she told her son about the beatings, 
they would deny her family visits and put her in solitary confinement. 
Ibid.
    \186\ See, e.g., PRC Prison Law, adopted and effective on December 
29, 1994, art. 58 (maximum term for solitary confinement is 15 days); 
Commission on Human Rights, Civil and Political Right, Including the 
Question of Torture and Detention, Report of the Special Rapporteur on 
Torture and Other Cruel, Inhuman or Degrading Treatment or Punishment, 
Manfred Nowak: Mission to China, E/CN.4/2006,6/Add. 6, 10 March 06, 
para. 45 (describing ``prolonged solitary confinement'' as a method of 
torture).
    \187\ Times Wang, ``Latest Visit With Dad,'' posted on 
Wangbingzhang.com, 11 July 09; Email correspondence with Ti-Anna Wang 
on file with the Commission, 29 July 09. For more information about 
Wang Bingzhang, see his record of detention, which is searchable 
through the CECC's Political Prisoner Database.
    \188\ Email Correspondence With Ti-Anna Wang, 31 July 09 (on file 
with the Commission). Wang Bingzhang's son, Times Wang, reported that 
during a July visit with his father Wang told him that he was in 
relatively good health (he suffers from phlebitis and bad allergies, 
among other ailments) and that he was getting along well with the 
guards. One of the guards at the prison told Times Wang that the warden 
wanted Times to know that the prison was aware of the Wang children's 
advocacy efforts on behalf of their father, and that he hoped they 
would be ``accurate and truthful'' in their assessment of their 
father's situation. Times Wang, ``Latest Visit With Dad,'' posted on 
Wangbingzhang.com, 11 July 09. Dr. Wang Bingzhang was included on a 
list of political prisoners Speaker of the House Nancy Pelosi presented 
to President Hu Jintao during her May trip to China. Speaker Nancy 
Pelosi, ``Pelosi Floor Speech on Tiananmen Square Resolution,'' Speaker 
Pelosi's Web Site (Online), 3 June 09.
    \189\ ``Official: Misconduct in Chinese Prisons Doubles,'' Xinhua 
(Online), 16 July 09.
    \190\ Ibid.
    \191\ Bureau of Democracy, Human Rights, and Labor, U.S. Department 
of State, Country Report on Human Rights Practices--2008, China 
(includes Tibet, Hong Kong, and Macau), 25 February 09, sec. 1.c.
    \192\ Chinese Human Rights Defenders (Online), ``Re-Education 
Through Labor Abuses Continue Unabated: Overhaul Long Overdue,'' 4 
February 09, 3, 16.
    \193\ Chinese Human Rights Defenders (Online), ``Shandong Human 
Rights Defender Chen Guangcheng's Illness Worsens in Prison, Family Not 
Allowed To Visit'' [Shandong weiquan renshi chen guangcheng zai yu 
zhong bingqing ehua, bu rang jiaren huijian], 24 May 09; Jerome A. 
Cohen, ``Fine Words Lack Specifics,'' South China Morning Post, 
reprinted in Council on Foreign Relations (Online), 2 May 09 (noting 
that Chen is ``deteriorating rapidly'').
    \194\ Chinese Human Rights Defenders (Online), ``Shandong Human 
Rights Defender Chen Guangcheng's Illness Worsens in Prison, Family Not 
Allowed To Visit'' [Shandong weiquan renshi chen guangcheng zai yu 
zhong bingqing ehua, bu rang jiaren huijian], 24 May 09.
    \195\ ``Dissidents Denied Family Visits,'' Radio Free Asia 
(Online), 28 January 09.
    \196\ ``Zeng Jinyan: Concerns for Health of Hu Jia in Prison,'' 
Zeng Jingyan's Blog, translated by and reprinted in China Digital Times 
(Online), 9 May 09.
    \197\ Chinese Human Rights Defenders (Online), ``Huang Qi 
Reportedly Ill in Detention, Denied Access to Medical Attention,'' 28 
July 09. During a meeting in late May with his lawyer Mo Shaoping, 
Huang stated that he suffered from headaches and insomnia and an 
irregular heartbeat, and that four lumps had appeared on his chest and 
stomach over the past several months. As of late July, Huang had not 
received any medical attention for his ailments. Ibid.
    \198\ CECC, 2008 Annual Report, 31 October 08, 38.
    \199\ ``Ignoring Facts and Law as a Concession to Popular Will 
Actually Contravenes the Will of the People'' [Weile qianjiu minyi bugu 
shishi he falu cai shi zhenzheng weibei minyi], China Youth Daily 
(Online), 18 June 09; ``Thirty Years After the Restoration of the 
Lawyers System'' [Lushi zhidu huifu 30 nian], Democracy and Legal 
System Magazine, reprinted in Sina, 30 October 08.
    \200\ Ibid.
    \201\ Jerome A. Cohen, ``Key Decisions,'' South China Morning Post 
(Online), 3 September 09. Bureau of Democracy, Human Rights, and Labor, 
U.S. Department of State, Country Report on Human Rights Practices--
2008, China (includes Tibet, Hong Kong, and Macau), 25 February 09, 
sec. 1.d.
    \202\ UN Committee against Torture, Consideration of Reports 
Submitted by State Parties Under Article 19 of the Convention: 
Concluding Observations of the Committee against Torture: China, CAT/C/
CHN/CO/4, 12 December 08, para. 11. During the Universal Periodic 
Review of China in February, the Chinese government rejected the 
recommendation that China ``ensure every detainee has the right to 
regularly see visitors and has permanent access to legal counsel and 
effective complaint mechanisms.'' See UN GAOR, Hum. Rts. Coun., 11th 
Sess., Report of the Working Group on the Universal Periodic Review--
China, A/HRC/11/25, 3 March 09, paras. 43(b), 117. Germany made the 
recommendation.
    \203\ CECC, 2008 Annual Report, 31 October 08, 38.
    \204\ CECC, 2008 Annual Report, 31 October 08, 38. Because the 
revised Lawyers Law conflicts with several provisions in the Criminal 
Procedure Law (CPL) governing lawyers' rights in criminal cases with 
respect to the ``three difficulties,'' it was unclear how these 
conflicts would be resolved once the revised Lawyers Law took effect, 
despite a clear pronouncement from the Legislative Affairs Commission 
(fagongwei) of the National People's Congress Standing Committee that 
in the case of a conflict, the more recent law (i.e., the Lawyers Law) 
takes precedence over the earlier law (i.e., CPL). See ibid., 38-39; 
``New Lawyers Law Is `One Year Old': The `Three Difficulties' Have Not 
Yet Been Resolved'' [Xin lushifa ``zhousui'': ``sannan'' reng wei 
jiejue], Southern Metropolitan Daily (Online), 4 June 09. Some lawyers 
hold the view that the fundamental issue is not whether the Lawyers Law 
is being implemented effectively, but whether it is being implemented 
at all. See ``Ignoring Facts and Law as a Concession to Popular Will 
Actually Contravenes the Will of the People'' [Weile qianjiu minyi bugu 
shishi he falu cai shi zhenzheng weibei minyi], China Youth Daily 
(Online), 18 June 09.
    \205\ PRC Law on Lawyers, enacted 15 May 96, amended 28 October 07, 
effective 1 June 08, art. 33; PRC Criminal Procedure Law, enacted 1 
July 79, amended 17 March 96, art. 96. One lawyer reported that prior 
to the revised Lawyers Law, permission needed to be obtained from 
``relevant departments'' every time a lawyer wanted to meet with his 
detained client during the investigation and review for indictment 
stages, even in non-state secrets cases. See ``One Year Anniversary of 
Implementation of the [Revised] Lawyers Law: Lawyers Discuss the 
Lawyers Law and Protection of Their Professional Rights'' [Lushifa 
shishi yi zhounian, lushi tan lushifa yu zhiye quanli baozhang], Xinhua 
(Online), 4 June 09. Another lawyer described his experience with a 
local regulation in Sichuan that requires a lawyer to get approval from 
``the relevant responsible person'' at the investigating agency before 
he or she can meet with a detained client. Li Liang and Zhu Yuchen, 
``New Lawyers Law `Annual Inspection': Difficulties With Lawyers' 
Rights Are Making Steady Improvement'' [Xin lushifa ``nian jian'': 
Lushi quanli jiannan zhong wenbu xiangqian], Legal Daily (Online), 4 
June 09. ``State secrets'' is often invoked to prevent lawyers from 
meeting with their clients, particularly in politically sensitive 
cases. See Jerome A. Cohen, ``Prisoner of the System,'' South China 
Morning Post (Online), 21 July 09; Bureau of Democracy, Human Rights, 
and Labor, U.S. Department of State, Country Report on Human Rights 
Practices--2008, China (includes Tibet, Hong Kong, and Macau), 25 
February 09, sec. 1.e.
    \206\ PRC Law on Lawyers, enacted 15 May 96, amended 28 October 07, 
effective 1 June 08, art. 33; PRC Criminal Procedure Law, enacted 1 
July 79, amended 17 March 96, art. 96.
    \207\ CECC Staff Interviews. A Beijing lawyer told CECC that for 
``ordinary'' (putongde) cases, access to detained clients was good, but 
for state secrets cases, permission to meet with detained client was 
still necessary. See also ``One Year Anniversary of Implementation of 
the [Revised] Lawyers Law: Lawyers Discuss the Lawyers Law and 
Protection of Their Professional Rights'' [Lushifa shishi yi zhounian, 
lushi tan lushifa yu zhiye quanli baozhang], Xinhua (Online), 4 June 
09. But the Legal Daily reported that relevant personnel in the 
procuratorate of an unnamed district in Beijing said that in practice, 
they were not implementing the ``three certificates'' provision of the 
revised Lawyers Law. See Li Liang and Zhu Yuchen, ``New Lawyers Law 
`Annual Inspection': Difficulties With Lawyers' Rights Are Making 
Steady Improvement'' [Xin lushifa ``nian jian'': Lushi quanli jiannan 
zhong wenbu xiangqian], Legal Daily (Online), 4 June 09.
    \208\ CECC Staff Interviews.
    \209\ Ibid.
    \210\ Ibid.
    \211\ CECC Staff Interviews; Li Liang and Zhu Yuchen, ``New Lawyers 
Law `Annual Inspection': Difficulties With Lawyers' Rights Are Making 
Steady Improvement'' [Xin lushifa ``nian jian'': Lushi quanli jiannan 
zhong wenbu xiangqian], Legal Daily (Online), 4 June 09; See also ``One 
Year Anniversary of Implementation of the [Revised] Lawyers Law: 
Lawyers Discuss the Lawyers Law and Protection of Their Professional 
Rights'' [Lushifa shishi yi zhounian, lushi tan lushifa yu zhiye quanli 
baozhang], Xinhua (Online), 4 June 09.
    \212\ ``New Lawyers Law Is `One Year Old': The `Three Difficulties' 
Have Not Yet Been Resolved'' [Xin lushifa `zhousui': `sannan' reng wei 
jiejue], Southern Metropolitan Daily (Online), 4 June 09.
    \213\ ``New Lawyers Law Is `One Year Old': The `Three Difficulties' 
Have Not Yet Been Resolved'' [Xin lushifa `zhousui': `sannan' reng wei 
jiejue], Southern Metropolitan Daily (Online), 4 June 09. According to 
Professor Chen Guangzhong, the renowned criminal procedure professor 
from Beijing's China University of Politics and Law, the basic problem 
is the lack of specific regulations governing the procedure for 
implementing the improved rights of lawyers contained in the revised 
Lawyers Law, and, as a result, the law is not being implemented 
consistently. Ibid. Two lawyers interviewed by Xinhua also believed 
that one of the biggest obstacles to the realization of the expanded 
rights under the revised Lawyers Law is the lack of an implementing 
mechanism or structure, which would include detailed implementing 
measures and the establishment of punishments for those who violate 
lawyers professional rights. See ``One Year Anniversary of 
Implementation of the [Revised] Lawyers Law: Lawyers Discuss the 
Lawyers Law and Protection of Their Professional Rights'' [Lushifa 
shishi yi zhounian, lushi tan lushifa yu zhiye quanli baozhang], Xinhua 
(Online), 4 June 09. A legal scholar from China University of Politics 
and Law writing in the July 2009 issue of Chinese Lawyer magazine also 
observed that without a corresponding implementation mechanism there 
was no way to ``operationalize'' the new Lawyers Law. See Wang Jinxi, 
``A Look Back: `Lawyers Law' Revision A Year On'' [Huimou ``lushifa'' 
xiuding hou yinian], Chinese Lawyer, July 2009, 13, 15.
    \214\ See, e.g., ``One Year Anniversary of Implementation of the 
[Revised] Lawyers Law: Lawyers Discuss the Lawyers Law and Protection 
of Their Professional Rights'' [Lushifa shishi yi zhounian, lushi tan 
lushifa yu zhiye quanli baozhang], Xinhua (Online), 4 June 09. Liu 
Renwen and Zhou Chenjie, ``China's Criminal Rule of Law in 2008'' [2008 
nian zhongguo xingshi fazhi], in Annual Report on China's Rule of Law 
No. 7, 2009 [Zhongguo fazhi fazhan baogao no. 7 (2009)], (Beijing: 
Social Sciences Academic Press, 2009), 207; Qin Xudong, ``Judicial 
Reform: A New Round,'' Caijing (Online), 24 January 09; ``New Lawyers 
Law Is `One Year Old': The `Three Difficulties' Have Not Yet Been 
Resolved'' [Xin lushifa `zhousui': `sannan' reng wei jiejue], Southern 
Metropolitan Daily (Online), 4 June 09; CECC Staff Interviews. Staff 
from a procuratorate and detention center in an unnamed district in 
Beijing told the Legal Daily that they would strictly implement the CPL 
(and not the Lawyers Law) with respect to attorney-client meetings. Li 
Liang and Zhu Yuchen, ``New Lawyers Law `Annual Inspection': 
Difficulties With Lawyers' Rights Are Making Steady Improvement'' [Xin 
lushifa ``nian jian'': Lushi quanli jiannan zhong wenbu xiangqian], 
Legal Daily (Online), 4 June 09.
    \215\ Liu Renwen and Zhou Chenjie, ``China's Criminal Rule of Law 
in 2008'' [2008 nian zhongguo xingshi fazhi], in Annual Report on 
China's Rule of Law No. 7, 2009 [Zhongguo fazhi fazhan baogao no. 7 
(2009)], (Beijing: Social Sciences Academic Press, 2009), 207; ``New 
Lawyers Law Is `One Year Old': The `Three Difficulties' Have Not Yet 
Been Resolved'' [Xin lushifa `zhousui': `sannan' reng wei jiejue], 4 
June 09.
    \216\ ``New Lawyers Law Is `One Year Old': The `Three Difficulties' 
Have Not Yet Been Resolved'' [Xin lushifa `zhousui': `sannan' reng wei 
jiejue], Southern Metropolitan Daily (Online), 4 June 09.
    \217\ Zhang Zuhua, ``China's Repression of Liu Xiaobo,'' New York 
Review of Books, 13 August 09, 76; ``Officials Extend Liu Xiaobo's 
Residential Surveillance Beyond the Legal Time Limit,'' Congressional-
Executive Commission on China (Online), 2 July 09.
    \218\ ``Officials Extend Liu Xiaobo's Residential Surveillance 
Beyond the Legal Time Limit,'' Congressional-Executive Commission on 
China (Online), 2 July 09; ``Officials Harass Charter 08 Signers; Liu 
Xiaobo Under Residential Surveillance,'' Congressional-Executive 
Commission on China (Online), 1 February 09; Provisions Concerning 
Several Issues in the Implementation of the Criminal Procedure Law, 
art. 24 (a person under residential surveillance does not need 
permission to meet with his lawyer).
    \219\ Chinese Human Rights Defenders (Online), ``Jiang Tianyong, 
Tang Jitian Prevented From Meeting With Client by Hebei Feixiang County 
Court'' [Jiang Tianyong, Tang Jitian bei hebei feixiang xian zuzhi 
huijian dangshi ren], 24 March 09.
    \220\ Chinese Human Rights Defenders (Online), ``Jiang Tianyong, 
Tang Jitian Prevented From Meeting With Client by Hebei Feixiang County 
Court'' [Jiang tianyong, tang jitian bei hebei feixiang xian fayuan 
zuzhi huijian dangshiren], 24 March 09. When Jiang and Tang went to the 
detention center where Ge was being held, they were told by detention 
center staff that the court had forbidden lawyers from meeting with Ge. 
Ibid.
    \221\ Chinese Human Rights Defenders (Online), ``Re-Education 
Through Labor Abuses Continue Unabated: Overhaul Long Overdue,'' 4 
February 09, 12. A former inmate, Jin Hanyan, who spent nearly two 
years in the Women's RTL Center in Wuhan, Hubei province, for 
``persistent and unreasonable petitioning'' explained: ``The RTL camp 
wouldn't even let us meet with people who could help us with legal 
remedies, so how could we seek any legal remedies? I submitted a 
written petition for administrative review, but I found out later that 
the camp staff withheld it from the proper authorities. Other detainees 
had the same experience, and never received any kind of legal remedy.'' 
Ibid., 53.
    \222\ UN Committee against Torture, Consideration of Reports 
Submitted by State Parties Under Article 19 of the Convention: 
Concluding Observations of the Committee against Torture: China, CAT/C/
CHN/CO/4, 12 December 08, para. 14.
    \223\ CECC, 2008 Annual Report, 31 October 08, 39, 164. In two 
recent cases involving Tibetan defendants, authorities have denied the 
defendants access to counsel of their own choosing. Court officials in 
Xining city, Qinghai province, refused to let Beijing lawyer Li Dunyong 
represent the Tibetan documentary filmmaker Dondrub Wangchen. Li 
reportedly has said that he believes that authorities will handpick 
their own lawyers to ensure a harsh result for Wangchen. Judicial 
authorities in Gansu province likewise have prevented well-known 
Beijing human rights lawyer Li Fangping from representing two monks who 
were detained after alleged involvement in a political protest. ``China 
Blocks Tibet Lawyers,'' Radio Free Asia (Online), 20 July 09.
    \224\ Chinese Human Rights Defenders (Online), ``Beijing Justice 
Bureau Restricts Lawyers in Representing Xinjiang `July 5' Cases'' 
[Beijing sifaju xianzhi daili xinjiang ``7.5'' anjian weituo], 13 July 
09; see also Human Rights Watch (Online), ``China: Cease Attacks on 
Rights Lawyers,'' 17 July 09; Audra Ang, ``Beijing Warns Lawyers Off 
Xinjiang Riot Cases,'' Associated Press (Online) via Yahoo!, 14 July 
09. The notice states that before accepting any cases involving the 
``Xinjiang incident,'' the partners of the law firm must collectively 
discuss and research the matter, handle it cautiously, and promptly 
make a report to authorities. The law firms must also proactively 
accept ``supervision and guidance'' from the legal affairs 
administrative agencies and the lawyers' association. See Chinese Human 
Rights Defenders (Online), ``Beijing Justice Bureau Restricts Lawyers 
in Representing Xinjiang `July 5' Cases'' [Beijing sifaju xianzhi daili 
xinjiang ``7.5'' anjian weituo], 13 July 09.
    \225\ China Human Rights Lawyers Concern Group (Online), ``Concern 
Over Mainland Lawyers' Freedom to Legal Practice on Urumqi Protest 
Cases,'' 15 July 09; Teng Biao, ``The Law on Trial in China,'' 
Washington Post (Online), 25 July 09 (stating that China's ``lawyers' 
associations are, in fact, puppets of the government whenever a 
political question arises''). The Xinjiang Lawyers Association 
reportedly informed lawyers in Xinjiang that it would arrange the 
handling of all cases related to the protests. See China Human Rights 
Lawyers Concern Group (Online), ``Concern Over Mainland Lawyers' 
Freedom to Legal Practice on Urumqi Protest Cases,'' 15 July 09.
    \226\ Eva Pils, ``Yang Jia and China's Unpopular Criminal Justice 
System,'' China Rights Forum, No. 1, 2009, 60-61.
    \227\ Eva Pils, ``Yang Jia and China's Unpopular Criminal Justice 
System,'' China Rights Forum, No. 1, 2009, 61; Simon Elegant, ``Yang 
Jia: Stranger Than Fiction,'' Time (Online), 13 November 08; Bill 
Savadove, ``Killer's Mother in Mental Hospital,'' South China Morning 
Post (Online), 11 November 08.
    \228\ Eva Pils, ``Yang Jia and China's Unpopular Criminal Justice 
System,'' China Rights Forum, No. 1, 2009, 61.
    \229\ Eva Pils, ``Yang Jia and China's Unpopular Criminal Justice 
System,'' China Rights Forum, No. 1, 2009, 61. When Xie said publicly 
before Yang's trial that given the circumstances, his client's 
punishment would almost certainly be death, Xie's ability to fairly 
represent Yang was questioned by many Internet users, lawyers, and even 
the official Chinese newspaper Procuratorial Daily. Ibid. (citing 
Procuratorial Daily article, ``Xie Youming Acting as Yang Jia's Defense 
Attorney Makes People Feel Uneasy'' [Xie youming danren yang jia 
bianhuren rang ren bu fangxin], 23 July 08, note 26). Although it is 
not clear how he came up with his estimate, human rights lawyer Li 
Heping estimated that 400 million Chinese were following Yang Jia's 
case (see note 15).
    \230\ Bill Savadove, ``Killer's Mother in Mental Hospital,'' South 
China Morning Post (Online), 11 November 08; Eva Pils, ``Yang Jia and 
China's Unpopular Criminal Justice System,'' China Rights Forum, No. 1, 
2009, 61-62.
    \231\ See, e.g., Raymond Li, ``Web of Support,'' South China 
Morning Post (Online), 10 June 09; Grace Ng, ``Rape-Bid Official's 
Killer Goes Free,'' Straits Times Online, 17 June 09 (Open Source 
Center, 17 June 09); Wang Yan, ``The Hands That Pull the Lever,'' 
NEWSCHINA (published by China Newsweek Corp.), 5 July 09, 15; Yu 
Xiaodong, ``Netizens, the New Watchdogs,'' NEWSCHINA (published by 
China Newsweek Corp.), 5 July 09, 17, 20.
    \232\ See, e.g., Loretta Chao, ``China Murder Case Sparks Women's 
Rights Uproar,'' Wall Street Journal (Online), 28 May 09. (``Her 
defense lawyers were fired at her mother's request this week after 
disagreements over strategy.'') Alexa Olesen, ``Chinese Praise Waitress 
Held for Stabbing Official,'' Associated Press, reprinted in Washington 
Post (Online), 22 May 09; Raymond Li, ``Public Support for Woman 
Detained in Stabbing Case,'' South China Morning Post (Online), 26 May 
09.
    \233\ Su Zhi, Chinese Human Rights Defenders (Online), 
``Psychiatric Hospitals Have Become a Gulag Archipelago With Chinese 
Characteristics'' [Jingshenbing yuan chengwei ju you zhongguo tese de 
gulage qundao], 17 May 09.
    \234\ Alexa Olesen, ``Chinese Praise Waitress Held for Stabbing 
Official,'' Associated Press, reprinted in Washington Post (Online), 22 
May 09.
    \235\ Li Ming, Chinese Human Rights Defenders (Online), ``Important 
Evidence in Deng Yujiao's Case Mysteriously Destroyed; Lawyers Raise 
Questions'' [Deng yujiao an zhongyao zhengju liqi mieshi lushi tichu 
zhiyi], 23 May 09; Raymond Li, ``Public Support for Woman Detained in 
Stabbing Case,'' South China Morning Post (Online), 26 May 09. 
According to Xia Lin, Deng Yujiao had told the lawyers that Huang Dezhi 
grabbed her first and attempted to rape her, before Deng Guida, the 
official she killed, joined in the assault. ``Deng Yujiao Tells Her 
Story,'' Southern Metropolitan Daily, translated by and reprinted in 
EastSouthWestNorth Blog, 26 May 09; Wang Yan, ``The Hands That Pull the 
Lever,'' NEWSCHINA (published by China Newsweek Corp.), 5 July 09, 16.
    \236\ Xia Lin, ``Statement Regarding Deng Yujiao'' [Guanyu Deng 
yujiao yi an de shengming], Xia Lin's Blog (Online), 23 May 09. Xia Lin 
and Xia Nan issued a statement in response. They wrote that Deng's 
mother, Zhang Shumei, was taken away by the head of the local police 
station on May 21, and since that time they had not been able to easily 
communicate with Zhang. The lawyers wrote that they really had no way 
of knowing if they had actually been dismissed and that it was 
completely inappropriate for such an announcement to come from the 
government, and, consequently, there were serious doubts as to its 
validity. The lawyers wrote that later on the morning of May 23, they 
received a call from Zhang Shumei stating that the government press 
release was not accurate and that she wanted to meet with them. They 
didn't hear from Zhang until around 4 p.m., when she called to tell 
them that she did in fact want to dismiss them, and that she was 
unwilling to meet with them. Ibid.
    \237\ Raymond Li, ``Public Support for Woman Detained in Stabbing 
Case,'' South China Morning Post (Online), 26 May 09; Loretta Chao, 
``China Murder Case Sparks Women's Rights Uproar,'' Wall Street Journal 
(Online), 28 May 09; Alexa Olesen, ``Chinese Praise Waitress Held for 
Stabbing Official,'' Associated Press, reprinted in Washington Post 
(Online), 22 May 09.
    \238\ Chinese Human Rights Defenders (Online), ``Arrested Dissident 
Writer Liu Xiaobo Meets With Lawyers for First Time,'' 27 June 09; 
Chinese Human Rights Defenders (Online), ``Liu Xiaobo Formally Arrested 
for `Inciting Subversion of State Power,' '' 24 June 09.
    \239\ ``Chinese Dissident Liu's Lawyer Challenges Police 
Interference Over Attorneys,'' Der Spiegel, 29 June 09 (Open Source 
Center, 29 June 09). Mo told Der Spiegel that the authorities had not 
provided him with any legal justification supporting their action, and 
that he planned to challenge the decision. He said that the ``police 
have absolutely no right to lay down which attorney may or may not act 
on behalf of a defendant.''
    \240\ Chinese Human Rights Defenders (Online), ``Arrested Dissident 
Writer Liu Xiaobo Meets With Lawyers for First Time,'' 27 June 09. 
Authorities in Sichuan province apparently exerted pressure on detained 
1989 student leader Zhou Yongjun's family to fire Mo Shaoping after 
having hired him to defend Zhou in May 2009. See ``Student Democracy 
Leader Zhou Yongjun's Trial About to Begin; Court Restricts Lawyer's 
Access to Case File'' [Xueyun lingxiu zhou yongjun yishen jiang 
kaiting; fating xianzhi lushi yuejuan], 3 September 09. For more 
information on Zhou Yongjun, see his record of detention searchable 
through the CECC's Political Prisoner Database.
    \241\ ``Ignoring Facts and Law as a Concession to Popular Will 
Actually Contravenes the Will of the People'' [Weile qianjiu minyi bugu 
shishi he falu cai shi zhenzheng weibei minyi], China Youth Daily 
(Online), 18 June 09. For more information about Article 306, see CECC, 
2008 Annual Report, 31 October 08, 38.
    \242\ ``Ignoring Facts and Law as a Concession to Popular Will 
Actually Contravenes the Will of the People'' [Weile qianjiu minyi bugu 
shishi he falu cai shi zhenzheng weibei minyi], China Youth Daily 
(Online), 18 June 09. See also CECC, 2008 Annual Report, 31 October 08, 
38-39; Jerome A. Cohen, ``Prisoner of the System,'' South China Morning 
Post (Online), 21 July 09 (observing that lawyers ``who prove too 
vigorous at trial . . . risk prosecution themselves'').
    \243\ Bureau of Democracy, Human Rights, and Labor, U.S. Department 
of State, Country Report on Human Rights Practices--2008, China 
(includes Tibet, Hong Kong, and Macau), 25 February 09, sec. 1.e. The 
conviction rate for first- and second-instance criminal trials combined 
was higher than 99 percent in 2007. Ibid.
    \244\ See, e.g., CECC, 2008 Annual Report, 31 October 08, 39; Ye 
Doudou, ``How China Justifies Empty Witness Chairs,'' Caijing (Online), 
26 June 09; CECC Staff Interviews.
    \245\ Ye Doudou, ``How China Justifies Empty Witness Chairs,'' 
Caijing (Online), 26 June 09.
    \246\ Bureau of Democracy, Human Rights, and Labor, U.S. Department 
of State, Country Report on Human Rights Practices--2008, China 
(includes Tibet, Hong Kong, and Macau), 25 February 09, sec. 1.e.
    \247\ Ye Doudou, ``How China Justifies Empty Witness Chairs,'' 
Caijing (Online), 26 June 09; PRC Criminal Procedure Law, art. 48; 
CECC, 2008 Annual Report, 31 October 08, 39. The Caijing report on the 
absence of witnesses in courtrooms noted that no eyewitnesses appeared 
at Deng Yujiao's trial on June 16; ``[i]nstead, the prosecution 
presented every bit of witness testimony by submitting written records 
to the court.'' In Deng Yujiao's account of what happened to her, as 
related by Beijing attorney Xia Lin, there was at least one service 
worker who witnessed the two officials assaulting Deng Yujiao and a 
``captain'' of the bathing services area who had tried to stop the two 
officials without success. Based on Xia Lin's account, it appears that 
they likely also witnessed Deng defend herself with a fruit knife, 
after being dragged around by the men and pushed onto a sofa. See 
``Deng Yujiao Tells Her Story,'' Southern Metropolitan Daily, 
translated by and reprinted in EastSouthWestNorth Blog, 26 May 09; 
``The Official News Update on Deng Yujiao (5/31/09) (Xinhua),'' 
reprinted in EastSouthWestNorth Blog, 31 May 09. Eyewitness testimony 
would have been crucial in establishing whether Deng Yujiao had been 
stripped from the waist down, as she claimed in the account provided by 
her attorney, and whether her self-defense was indeed ``excessive'' as 
the prosecution claimed.
    \248\ Bureau of Democracy, Human Rights, and Labor, U.S. Department 
of State, Country Report on Human Rights Practices--2008, China 
(includes Tibet, Hong Kong, and Macau), 25 February 09, sec. 1.e.
    \249\ See, e.g., Ng Tze-wei, ``Legal Experts Worried by Decision To 
Free Waitress,'' South China Morning Post (Online), 18 June 09; Yu 
Xiaodong, ``Netizens, the New Watchdogs,'' NEWSCHINA (published by 
China Newsweek Corp.), 5 July 09, 20; Grace Ng, ``Rape-Bid Official's 
Killer Goes Free,'' The Straits Times Online, 17 June 09; Raymond Li, 
``Court Convicts, Frees Waitress Who Killed Cadre,'' South China 
Morning Post (Online), 17 June 09.
    \250\ Ng Tze-wei, ``Legal Experts Worried by Decision To Free 
Waitress,'' South China Morning Post (Online), 18 June 09.
    \251\ Ng Tze-wei, ``Legal Experts Worried by Decision To Free 
Waitress,'' South China Morning Post (Online), 18 June 09. See also 
Raymond Li, ``Court Convicts, Frees Waitress Who Killed Cadre,'' South 
China Morning Post (Online), 17 June 09.
    \252\ Ng Tze-wei, ``Legal Experts Worried by Decision To Free 
Waitress,'' South China Morning Post (Online), 18 June 09. Nanjing-
based law professor Zhang Zanning said that the verdict appeared to be 
a compromise ``to please the higher authorities with a guilty verdict 
and, at the same time, to heed public sentiment by letting the woman 
go. But the legal system will bear the brunt for losing public trust.'' 
Raymond Li, ``Court Convicts, Frees Waitress Who Killed Cadre,'' South 
China Morning Post (Online), 17 June 09.
    \253\ UN Committee against Torture, Consideration of Reports 
Submitted by State Parties Under Article 19 of the Convention: 
Concluding Observations of the Committee against Torture: China, CAT/C/
CHN/CO/4, 12 December 08, para. 11(d) (noting with concern the 
``continued reliance on confessions as a common form of evidence for 
prosecution, thus creating conditions that may facilitate the use of 
torture and ill-treatment of suspects''); The UN Human Rights Council's 
Review of China's Record: Process and Challenges, Staff Roundtable of 
the Congressional-Executive Commission on China, 16 January 09, 
Testimony of Ms. Felice Gaer, Director, the Jacob Blaustein Institute 
for the Advancement of Human Rights; CECC 2007 Annual Report, 10 
October 07, 10-11.
    \254\ UN Committee against Torture, Consideration of Reports 
Submitted by State Parties Under Article 19 of the Convention: 
Concluding Observations of the Committee against Torture: China, CAT/C/
CHN/CO/4, 12 December 08, para. 11(d); CECC, 2007 Annual Report, 10 
October 07, 19. Not only is the arbitrary use of police power used to 
extract confessions from suspects and defendants, it is also sometimes 
used to create ``facts'' that can assist the authorities in handling 
certain cases. For example, there was no doubt that Deng Yujiao stabbed 
the two officials who had attempted to rape her on May 10, but the 
local authorities apparently were after something else when they 
confined her to a psychiatric hospital after the attack. Deng 
reportedly told a friend that authorities had beaten her and threatened 
that if she did not admit to be suffering from depression, they would 
give her the death penalty. Xiao Zhi, Chinese Human Rights Defenders 
(Online), ``Psychiatric Hospitals Have Become a Gulag Archipelago With 
Chinese Characteristics'' [Jingshenbing yuan chengwei ju you zhongguo 
tese de gulage qundao], 17 May 09. Deng's ``mental disorder'' provided 
one of the mitigating circumstances that led to the verdict of 
``exemption from punishment.'' An article in a Chinese news magazine 
suggested that Deng's ``mental illness'' was ``apparently a thinly-
veiled attempt to appease netizens by exempting Deng from punishment, 
while preserving the reputation of local officials at the same time.'' 
Yu Xiaodong, ``Netizens, the New Watchdogs,'' NEWSCHINA, 5 July 09, 20.
    \255\ Ng Tze-wei, ``Anti-Torture Measures in Works, Paper Says,'' 
South China Morning Post (Online), 11 August 09; Chinese Human Rights 
Defenders (Online), ``Supreme People's Procuratorate Official: 
Confessions Obtained Through Torture Will Not Be Admissible as 
Evidence'' [Zuigaojian guanyuan: xingxun bigong suo huo zhengju jiang 
bu bei caina], 11 August 09.
    \256\ Ibid.
    \257\ PRC Criminal Procedure Law, enacted 1 July 79, amended 17 
March 96, effective 1 January 97, art. 152; Jerome A. Cohen, ``Prisoner 
of the System,'' South China Morning Post (Online), 21 July 09.
    \258\ Bureau of Democracy, Human Rights, and Labor, U.S. Department 
of State, Country Report on Human Rights Practices--2008, China 
(includes Tibet, Hong Kong, and Macau), 25 February 09, sec. 1.e; Dui 
Hua Foundation, ``NGO Submission for the Universal Periodic Review of 
the People's Republic of China: Promoting Increased Transparency in 
China's Criminal Justice System,'' February 2009.
    \259\ Eva Pils, ``Yang Jia and China's Unpopular Criminal Justice 
System,'' China Rights Forum, No. 1, 2009, 62.
    \260\ Eva Pils, ``Yang Jia and China's Unpopular Criminal Justice 
System,'' China Rights Forum, No. 1, 2009, 62.
    \261\ Maureen Fan, ``Confessed Police Killer Lionized by Thousands 
in China,'' Washington Post (Online), 14 November 08.
    \262\ Bill Savadove, ``Killer of 6 Police Loses Death Sentence 
Appeal,'' South China Morning Post (Online), 21 October 08. The 
attorney had requested a second psychological evaluation of Yang Jia, 
which the court denied. The initial psychological assessment, which was 
ordered by the police, was conducted by an institution that reportedly 
had ties with officials under the Ministry of Justice. The assessment 
found that Yang Jia was in good mental health and had the capacity for 
full criminal responsibility. See Eva Pils, ``Yang Jia and China's 
Unpopular Criminal Justice System,'' China Rights Forum, No. 1, 2009, 
61; ``Killer of Six Chinese Police Executed in Shanghai,'' Xinhua 
(Online), 26 November 08.
    \263\ ``Execution of Chinese Prisoner May Proceed in Spite of 
Alleged Procedural Irregularities,'' Congressional-Executive Commission 
on China (Online), 26 November 08.
    \264\ ``Execution of Chinese Prisoner May Proceed in Spite of 
Alleged Procedural Irregularities,'' Congressional-Executive Commission 
on China (Online), 26 November 08; Maureen Fan and Ariana Eunjung Cha, 
``China's Capital Cases Still Secret, Arbitrary,'' Washington Post 
(Online), 24 December 08.
    \265\ Maureen Fan and Ariana Eunjung Cha, ``China's Capital Cases 
Still Secret, Arbitrary,'' Washington Post (Online), 24 December 08.
    \266\ Ibid.
    \267\ Ibid.
    \268\ UN GAOR, Hum. Rts. Coun., 11th Sess., Report of the Working 
Group on the Universal Periodic Review--China, A/HRC/11/25, 3 March 09, 
para. 67.
    \269\ UN GAOR, Hum. Rts. Coun., 11th Sess., Report of the Working 
Group on the Universal Periodic Review--China, A/HRC/11/25, 3 March 09, 
paras. 67, 116.
    \270\ State Council Information Office, National Human Rights 
Action Plan of China (2009-2010), Xinhua (Online), 13 April 09.
    \271\ CECC, 2008 Annual Report, 31 October 08, 39.
    \272\ CECC, 2008 Annual Report, 31 October 08, 39-40.
    \273\ ``Top Court: Fewer Executions Expected,'' People's Daily 
(Online), 29 July 09; Tania Branigan, ``China To Restrict Death Penalty 
and Cut Executions,'' Guardian (Online), 29 July 09; Andrew Jacobs, 
``China Pledges Fewer Death Sentences,'' New York Times (Online), 29 
July 09.
    \274\ CECC, 2008 Annual Report, 31 October 08, 40; Maureen Fan and 
Ariana Eunjung Cha, ``China's Capital Cases Still Secret, Arbitrary,'' 
Washington Post (Online), 24 December 08.
    \275\ Amnesty International (Online), Amnesty International Report 
2009: China (2009); Choi Chi-yuk, ``Mainland Executions Up 260pc, 
Report Says,'' South China Morning Post (Online), 29 May 09; Tania 
Branigan, ``China To Restrict Death Penalty and Cut Executions,'' 
Guardian (Online), 29 July 09.
    \276\ Dui Hua Foundation, ``Translation and Commentary: `The Death 
Penalty: When Will the `Last Shot' Be Heard?' '' 28 August 09. Dui Hua 
had the same estimate--5,000 executions--for 2007. See CECC, 2008 
Annual Report, 31 October 08, 40.
    \277\ Xie Chuanjiao, ``Beijing Ready for Lethal Injections,'' China 
Daily (Online), 16 June 09.
    \278\ Xie Chuanjiao, ``Beijing Ready for Lethal Injections,'' China 
Daily (Online), 16 June 09; ``Beijing To Adopt Lethal Injections Over 
Bullets,'' Agence France-Presse, reprinted in South China Morning Post 
(Online), 16 June 09.
    \279\ PRC Criminal Procedure Law, enacted 1 July 79, amended 17 
March 96, effective 1 January 97, art. 212; Xie Chuanjiao, ``Beijing 
Ready for Lethal Injections,'' China Daily (Online), 16 June 09.
    \280\ ``Firing Squads To Be Phased Out as Beijing Moves to Lethal 
Injections,'' Reuters, reprinted in South China Morning Post (Online), 
17 June 09.
    \281\ Xie Chuanjiao, ``Beijing Ready for Lethal Injections,'' China 
Daily (Online), 16 June 09.
    \282\ Liu Renwen, ``The Course of Humanization of the Criminal 
Law,'' Southern Weekend, 18 June 09, translated by Dui Hua Foundation 
and reprinted in Dui Hua Human Rights Journal (Online), 25 June 09.
    \283\ Donald Clarke, ``Liu Renwen on Death by Lethal Injection,'' 
Chinese Law Prof Blog, 25 June 09. See also Dui Hua Foundation, 
Reference Materials on China's Criminal Justice System, Vol. 2, June 
2009, x-xi (discussion) and 53-60 (reference materials in original 
Chinese and English translations).
    \284\ Maureen Fan and Ariana Eunjung Cha, ``China's Capital Cases 
Still Secret, Arbitrary,'' Washington Post (Online), 24 December 08; 
``Execution of Chinese Prisoner May Proceed in Spite of Alleged 
Procedural Irregularities,'' Congressional-Executive Commission on 
China (Online), 26 November 08.
    \285\ Maureen Fan and Ariana Eunjung Cha, ``China's Capital Cases 
Still Secret, Arbitrary,'' Washington Post (Online), 24 December 08; 
``Execution of Chinese Prisoner May Proceed in Spite of Alleged 
Procedural Irregularities,'' Congressional-Executive Commission on 
China (Online), 26 November 08.
    \286\ Eva Pils, ``Yang Jia and China's Unpopular Criminal Justice 
System,'' China Rights Forum, No. 1, 2009, 63.
    \287\ Ibid.
    \288\ C. Custer, ``The Story of Yang Jia's Mother,'' translated by 
and posted on ChinaGeeks Blog, 2 April 09.
    \289\ Ibid.

    Notes to Section II--Freedom of Religion
    \1\ See Section V--Tibet for additional information.
    \2\ See China's Religious Communities--Buddhism in this section for 
additional information.
    \3\ See China's Religious Communities--Catholics in this section 
for additional information.
    \4\ See China's Religious Communities--Falun Gong in this section 
for additional information.
    \5\ See China's Religious Communities--Islam in this section for 
additional information.
    \6\ See China's Religious Communities--Protestants in this section 
for additional information.
    \7\ See China's Religious Communities--Taoism in this section for 
additional information.
    \8\ See China's Religious Communities--Other Religious Communities 
in this section for additional information.
    \9\ See The Legal Framework for Religion in China in this section 
for additional information.
    \10\ See Restrictions on Children's Freedom of Religion in this 
section for additional information.
    \11\ See Controls Over Religious Publications in this section for 
additional information.
    \12\ See Social Welfare Activities by Religious Communities in this 
section for additional information.
    \13\ See examples within this section as well as general statements 
affirming basic Communist Party policy toward religion, as cited in, 
e.g., State Council Information Office, National Human Rights Action 
Plan of China (2009-2010), Xinhua (Online), 13 April 09; State 
Administration for Religious Affairs (Online), ``State Administration 
for Religious Affairs Holds Focused Study Training Class for Cadres 
Above Department Level'' [Guojia zongjiaoju juban chu yishang dangyuan 
ganbu jizhong xuexi peixun ban], 29 October 08; State Administration 
for Religious Affairs (Online), ``Our Bureau Launches Meeting To 
Evaluate, Critique Masses' Degree of Satisfaction With Study and 
Practice Activities for Scientific Development View'' [Wo ju zhaokai 
xuexi shijian kexue fazhan guan huodong qunzhong manyi du ce ping hui], 
27 February 09; State Administration for Religious Affairs (Online), 
``Jia Qinglin: Implement Party's Basic Policy on Religion Work, 
Unceasingly Initiate Fresh Progress for Religion Work'' [Jia qinglin: 
guanche dang de zongjiao gongzuo jiben fangzhen buduan kaichuang 
zongjiao gongzuo xin jumian], 17 April 09.
    \14\ Members of the People's Liberation Army are also forbidden 
from practicing religion. Bureau of Democracy, Human Rights, and Labor, 
U.S. Department of State (Online), International Religious Freedom 
Report--2008, China (includes Tibet, Hong Kong, and Macau), 19 
September 08.
    \15\ State Administration for Religious Affairs (Online), ``Central 
United Front Department Vice Minister Li Dezhu Comes to Our Bureau for 
Investigation and Research, Carries Out Exchange on Launching Study 
Practicum Activities'' [Zhongyang tongzhan bu fubuzhang li dezhu dao wo 
ju diaoyan jiu kaizhan xuexi shijian huodong jinxing jiaoliu], 3 
November 08.
    \16\ ``State-Controlled Catholic Church Celebrates Independence 
From `Foreign Interference,' '' CECC China Human Rights and Rule of Law 
Update, January 2009, 4. ``State-Controlled Church Continues To Align 
Protestant Doctrine to Communist Party Policy,'' CECC China Human 
Rights and Rule of Law Update, December 2008, 3.
    \17\ See, e.g., State Administration for Religious Affairs 
(Online), ``State Administration for Religious Affairs Holds Focused 
Study Training Class for Cadres Above Department Level'' [Guojia 
zongjiaoju juban chu yishang dangyuan ganbu jizhong xuexi peixun ban], 
29 October 08; State Administration for Religious Affairs (Online), 
``Our Bureau Launches Meeting To Evaluate, Critique Masses' Degree of 
Satisfaction With Study and Practice Activities for Scientific 
Development View'' [Wo ju zhaokai xuexi shijian kexue fazhan guan 
huodong qunzhong manyi du ce ping hui], 27 February 09; State 
Administration for Religious Affairs (Online), ``Director Ye Xiaowen 
Gives Lectures on Religion for Hubei Party Committee Central Figures 
Study Group'' [Ye xiaowen juzhang wei hubei shengwei zhongxin xuexi zu 
zuo zongjiao zhuanti jiangzuo], 5 March 09; State Administration for 
Religious Affairs (Online), ``Hui Liangyu Emphasizes: Conscientiously 
Heighten and Improve Capacity and Level of Religion Work'' [Hui liangyu 
qiangdiao: qieshi tigao zuohao zongjiao gongzuo de nengli he shuiping], 
10 April 09. See also mention of a ``positive role'' in State Council 
Information Office, National Human Rights Action Plan of China (2009-
2010), Xinhua (Online), 13 April 09. For an overview of past efforts to 
articulate a ``positive role'' for religion, see ``Politburo Study 
Session Calls for Uniting Religious Communities Around Party,'' CECC 
China Human Rights and Rule of Law Update, January 08, 3.
    \18\ See, e.g., ``State-Controlled Catholic Church Celebrates 
Independence From `Foreign Interference,' '' CECC China Human Rights 
and Rule of Law Update, January 2009, 4; ``Government Calls for 
Strengthening Propaganda on Ethnic Policy,'' CECC China Human Rights 
and Rule of Law Update, February 2009, 2; China National Committee for 
the Wellbeing of Youth (Online), ``Taking Socialism as the Core Value 
System for Guiding Work on Earnestly Caring About Next Generation'' [Yi 
shehuizhuyi hexin jiazhi tixi wei zhidao renzhen zuohao guanxin 
xiayidai gongzuo], 23 October 08 (citing a speech delivered on August 
21 by Liu Shangyang). See also China's Religious Communities--Islam in 
this section and Section IV--Xinjiang for information on rhetoric 
against foreign groups perceived to use religion to infiltrate Muslim 
communities, especially in the Xinjiang Uyghur Autonomous Region.
    \19\ Yan Feng, ``PRC Embassy in the US Issues a Press Communique 
Marking the 30th Anniversary of the Establishment of China-US 
Diplomatic Relations,'' Xinhua, 1 January 09 (Open Source Center, 2 
January 09).
    \20\ This section of the Commission's Annual Report primarily uses 
the expression ``freedom of religion'' but encompasses within this term 
reference to the more broadly articulated freedom of ``thought, 
conscience, and religion'' (see, e.g., the Universal Declaration of 
Human Rights (UDHR), adopted and proclaimed by UN General Assembly 
resolution 217A (III) of 10 December 48, art. 18). For protections in 
international law, see, e.g., UDHR, art. 18; International Covenant on 
Civil and Political Rights (ICCPR), adopted by General Assembly 
resolution 2200A (XXI) of 16 December 66, entry into force 23 March 76, 
art. 18; International Covenant on Economic, Social and Cultural Rights 
(ICESCR) adopted by UN General Assembly resolution 2200A (XXI) of 16 
December 66, entry into force 3 January 76, art. 13(3) (requiring 
States Parties to ``ensure the religious and moral education of . . . 
children in conformity with [the parents'] own convictions''); 
Convention on the Rights of the Child (CRC), adopted and opened for 
signature, ratification, and accession by UN General Assembly 
resolution 44/25 of 20 November 89, entry into force 2 September 90, 
art. 14; Declaration on the Elimination of All Forms of Intolerance and 
of Discrimination Based on Religion or Belief, General Assembly 
resolution 36/55 of 25 November 81. See General Comment No. 22 to 
Article 18 of the ICCPR for an official interpretation of freedom of 
religion as articulated in the ICCPR. General Comment No. 22: The Right 
to Freedom of Thought, Conscience, and Religion (art. 18), 30 July 93, 
para. 1. China is a party to the ICESCR and the CRC, and a signatory to 
the ICCPR. China has signed, but has not yet ratified, the ICCPR. As in 
previous years, the Chinese Government this reporting year continued to 
reiterate its commitment to ratifying the ICCPR, which China signed in 
1998. In February 2009, during the UN Human Rights Council's Universal 
Periodic Review of the Chinese Government's human rights record, the 
Chinese Government supported recommendations made by Member States that 
China ratify the ICCPR. At the time, Chinese officials also said China 
was in the process of amending domestic laws, including the criminal 
procedure law and laws relating to reeducation through labor, to make 
them compatible with the ICCPR. UN GAOR, Hum. Rts. Coun., 11th Sess., 
Report of the Working Group on the Universal Periodic Review--China, A/
HRC/11/25, 3 March 09, paras. 63, 114(1). Moreover, in the 2009-2010 
National Human Rights Action Plan (HRAP) issued by the Chinese 
Government in April 2009, officials stated that the ICCPR was one of 
the ``fundamental principles'' on which the plan was framed, and that 
the government ``will continue legislative, judicial and administrative 
reforms to make domestic laws better linked with this Covenant, and 
prepare the ground for approval of the ICCPR.'' State Council 
Information Office, National Human Rights Action Plan of China (2009-
2010), Xinhua (Online), 13 April 09, introduction, sec. V(1).
    \21\ PRC Constitution, art. 36.
    \22\ For specific examples of the range of religious activities 
protected under international law, see General Comment No. 22 to 
Article 18 of the International Covenant on Civil and Political Rights. 
General Comment No. 22: The Right to Freedom of Thought, Conscience, 
and Religion (art. 18), 30 July 93, para. 1. The Chinese Government 
denies such protected activities as the freedom to ``freedom to prepare 
and distribute religious texts or publications'' (General Comment No. 
22, para. 4) and the ``liberty of parents or legal guardians to ensure 
that their children receive a religious and moral education in 
conformity with their own convictions'' (General Comment No. 22, para. 
6). See Controls over Religious Publications and Restrictions on 
Children's Freedom of Religion in this section for more information. 
See also China's Religious Communities, in this section, for additional 
examples of suppression of different forms of religious practice. For 
an interpretation of the provision protecting ``normal religious 
activities'' within the Regulation on Religious Affairs (RRA), written 
by drafters of the regulation, see Shuai Feng and Li Jian, 
Interpretation of the Regulation on Religious Affairs [Zongjiao shiwu 
tiaoli shiyi], (Beijing: Beijing Religious Culture Press, 2005), 19. 
(See also page 6 of the preface of the book, noting the authors' status 
as drafters of the RRA.)
    \23\ The central government has referred to the five religions as 
China's main religions, but in practice the state has created a 
regulatory system that institutionalizes only these five religions for 
recognition and legal protection. See, e.g., State Council Information 
Office, White Paper on Freedom of Religious Belief in China [Zhongguo 
de zongjiao xinyang ziyou zhuangkuang], 1 October 97 (stating that the 
religions citizens ``mainly'' follow are Buddhism, Daoism, Islam, 
Catholicism, and Protestantism). Wording from this White Paper is 
posted as a statement of current policy on the Web sites of the United 
Front Work Department, the agency that oversees religious affairs 
within the Communist Party, and the State Administration for Religious 
Affairs. Some local regulations on religious affairs define religion in 
China to mean only these five categories. See, e.g., Guangdong Province 
Regulation on the Administration of Religious Affairs [Guangdongsheng 
shiwu guanli tiaoli], issued 26 May 00, effective 30 June 00, art. 3, 
and Henan Province Regulation on Religious Affairs [Henansheng zongjiao 
shiwu tiaoli], issued 30 July 05, effective 1 January 06, art. 2. There 
is some limited formal tolerance outside this framework for some ethnic 
minority and ``folk'' religious practices. See subsection on China's 
Religious Communities--Other Religious Communties in this section and 
see also Kim-Kwong Chan and Eric R. Carlson, Religious Freedom in 
China: Policy, Administration, and Regulation (Santa Barbara: Institute 
for the Study of American Religion, 2005), 9-10, 15-16.
    \24\ Some organizations operate without any registration. A limited 
number of organizations have registered with local officials without 
affiliating with a Party-controlled religious association. Bureau of 
Democracy, Human Rights, and Labor, U.S. Department of State (Online), 
International Religious Freedom Report--2008, China (includes Tibet, 
Hong Kong, and Macau), 19 September 08.
    \25\ See China's Religious Communities--Falun Gong in this section 
for detailed information.
    \26\ See generally Bureau of Democracy, Human Rights, and Labor, 
U.S. Department of State (Online), International Religious Freedom 
Report--2008, China (includes Tibet, Hong Kong, and Macau), 19 
September 08. According to the U.S. Commission on International 
Religious Freedom, a ``zone of toleration'' exists within China for 
registered religious communities acting within the parameters set by 
the government. U.S. Commission on International Religious Freedom, 
``Policy Focus: China,'' 9 November 05, 4.
    \27\ At the central government level, see generally Regulation on 
Religious Affairs (RRA) [Zongjiao shiwu tiaoli], issued 30 November 04, 
effective 1 March 05. For an overview of the general requirements 
within the RRA and an examination of several provincial-level 
regulations, see ``Zhejiang and Other Provincial Governments Issue New 
Religious Regulations,'' CECC China Human Rights and Rule of Law 
Update, June 2006, 9-10. Although the national RRA does not explicitly 
state that the regulation applies to state-sanctioned groups, the 
government's policy framework of recognizing only select groups for 
recognition, and in some cases banning other groups, creates a legal 
structure that excludes some religious and spiritual groups from legal 
protections.
    \28\ For registration requirements in the Regulation on Religious 
Affairs (RRA), see Regulation on Religious Affairs [Zongjiao shiwu 
tiaoli], issued 30 November 04, effective 1 March 05, art. 6. Under 
article 6 of the RRA, religious organizations must register in 
accordance with the rules established under the Regulation on the 
Registration and Management of Social Organizations, issued and 
effective 25 October 98. See the RRA generally for provisions defining 
the scope of state control over various internal affairs of religious 
groups. For detailed analysis, including analysis of registration 
requirements in local government regulations, see ``Zhejiang and Other 
Provincial Governments Issue New Religious Regulations,'' CECC China 
Human Rights and Rule of Law Update, June 2006, 9-10.
    \29\ Regulation on Religious Affairs (RRA) [Zongjiao shiwu tiaoli], 
issued 30 November 04, effective 1 March 05, arts. 12-15. In addition 
to provisions in the RRA on the registration of venues for religious 
activity, Measures on the Examination, Approval, and Registration of 
Venues for Religious Activity also govern this process. Measures on the 
Examination, Approval, and Registration of Venues for Religious 
Activity [Zongjiao huodong changsuo sheli shenpi he dengji banfa], 
issued 14 April 05, effective 21 April 05. For more analysis of 
registration requirements, including in local government regulations, 
see ``Zhejiang and Other Provincial Governments Issue New Religious 
Regulations,'' CECC China Human Rights and Rule of Law Update, June 
2006, 9-10.
    \30\ See generally Bureau of Democracy, Human Rights, and Labor, 
U.S. Department of State (Online), International Religious Freedom 
Report--2008, China (includes Tibet, Hong Kong, and Macau), 19 
September 08; Bureau of Democracy, Human Rights, and Labor, U.S. 
Department of State, Country Report on Human Rights Practices--2008, 
China (includes Tibet, Hong Kong, and Macau), 25 February 09. See also 
China's Religious Communities within this section for more information.
    \31\ For example, in 2006, local officials expelled a registered 
church leader in Shanxi province after his church invited an American 
missionary to the church. ChinaAid (Online), ``Government Intervenes 
Into a Three-Self Church in Shanxi Province, Pastor Evicted,'' 9 August 
06. The same year, the national Buddhist Association, in coordination 
with government officials, expelled a Buddhist monk from a temple in 
Jiangxi province after the monk led religious activities to commemorate 
victims of the violent suppression of Tiananmen protests and took 
measures to address corruption among government officials and the 
Buddhist Association. Authorities accused the monk of engaging in 
improper relations with lay practitioners and dismissed him on those 
alleged grounds. ``Jiangxi Buddhist Master Accused of Being a Womanizer 
and Driven Out of Temple,'' Sing Tao Jih Pao, 25 August 06 (Open Source 
Center, 27 August 06); Human Rights in China (Online), ``Top Buddhist 
Officials Join in Persecution of Activist Monk,'' 23 August 06.
    \32\ For a chart listing recent central government and provincial-
level government legislative activity in the area of religion, see 
CECC, 2008 Annual Report, 31 October 08, 74-75. The chart excludes the 
Jiangsu and Hubei province regulations. Jiangsu Province Regulation on 
Religious Affairs [Jiangsu sheng zongjiao shiwu tiaoli], issued 5 
February 02, enacted 1 June 02, amended 20 May 09, effective 1 July 09. 
See also Jiangsu Province People's Congress Standing Committee Decision 
Concerning ``Jiangsu Province Regulation on Religious Affairs'' 
[Jiangsu sheng renmin daibiao dahui changwu weiyuanhui guanyu xuigai 
``jiangsu sheng zongjiao shiwu tiaoli'' de jueding], 20 May 09 (noting 
date of amendment's effectiveness); Hubei Province Regulation on 
Religious Affairs [Hubei sheng zongjiao shiwu tiaoli], issued 31 July 
09, effective 1 October 09. In addition, in 2009, the Xinjiang Uyghur 
Autonomous Region government reported it was in the process of amending 
its regulation on the management of religious affairs. ``Xinjiang Plans 
To Draft Two Regulations on Ethnic Unity Education and Anti-Separatism 
Battle'' [Xinjiang ni zhiding minzu tuanjie jiaoyu he fan fenlie 
douzheng liang fagui], People's Daily, reprinted in China Ethnicities 
News (Online), 25 July 09.
    \33\ See detailed analysis in ``Head of Religious Association: 
Religious Adherents Not Arrested Due to Their Faith,'' Congressional-
Executive Commission on China (Online), 26 June 06. The Regulation on 
Religious Affairs (RRA) provides administrative penalties, such as 
fines, for violations of its stipulations; such administrative 
penalties also include the possibility of limited short-term detention 
under the Public Security Administration Punishment Law. The RRA is not 
authorized, as a regulation, to provide criminal penalties. At the same 
time, like other regulations, the RRA includes boilerplate language 
referring to the necessity of pursuing a criminal investigation if a 
``crime is constituted.'' For example, where ``anyone uses religion to 
carry out such illegal activities as harm state security or public 
security, infringe upon citizens' right of the person and democratic 
rights, impair the administration of public order, or infringe upon 
public or private property,'' criminal charges are to be pursued where 
a ``crime is constituted.'' Regulation on Religious Affairs [Zongjiao 
shiwu tiaoli], issued 30 November 04, effective 1 March 05, art. 40.
    \34\ The government uses Article 300 of the PRC Criminal Law to 
punish activities deemed to be cult related. Chinese authorities also 
punish religious adherents by prosecuting them under other Criminal Law 
provisions, such as by portraying the printing and distribution of 
religious literature, a freedom protected under international human 
rights law, as the crime of ``illegal operation of a business.'' See 
information on Shi Weihan, discussed within, for an example of the use 
of this charge against religious believers. PRC Criminal Law, enacted 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, arts. 225, 300.
    \35\ Administrative punishments can range from a warning or fine to 
detention in a reeducation through labor (RTL) center for up to three 
years, with the possibility of a one-year extension. Forms of 
administrative detention include short-term detention under the Public 
Security Administration Punishment Law, RTL, forced psychiatric 
commitment, forced drug detoxification, work-study schools, and 
detention of corrupt officials under Party rules. For more information, 
see CECC, 2006 Annual Report, 20 September 06, 51-53, and ``Head of 
Religious Association: Religious Adherents Not Arrested Due to Their 
Faith,'' Congressional-Executive Commission on China (Online), 26 June 
06.
    \36\ ``Head of Religious Association: Religious Adherents Not 
Arrested Due to Their Faith,'' Congressional-Executive Commission on 
China (Online), 26 June 06.
    \37\ See, e.g., CECC, 2007 Annual Report, 10 October 07, 102.
    \38\ See The Legal Framework for Religion in China in this section 
for information on domestic law. On international human rights 
standards, see, e.g., Universal Declaration of Human Rights, art. 18; 
International Covenant on Civil and Political Rights (ICCPR), adopted 
by General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76, art. 18; the International Covenant on 
Economic, Social and Cultural Rights (ICESCR) adopted by General 
Assembly resolution 2200A (XXI) of 16 December 66, entry into force 3 
January 76, art. 13(3) (requiring States Parties to ``ensure the 
religious and moral education of . . . children in conformity with [the 
parents'] own convictions''); and the Convention on the Rights of the 
Child, adopted and opened for signature, ratification, and accession by 
General Assembly resolution 44/25 of 20 November 89, entry into force 2 
September 90, art. 14. See also General Comment No. 22: The Right to 
Freedom of Thought, Conscience, and Religion (Art. 18), 30 July 93, 
para. 6.
    \39\ Law on the Protection of Minors, adopted 4 September 91, 
effective 1 January 92, art. 2. See examples that follow for 
restrictions on college students' activities.
    \40\ For the government spokesperson's statement, see ``MFA 
Spokesperson Liu Jianchao Answers Reporters Questions'' [Waijiaobu 
fayanren Liu Jianchao huida jizhe tiwen], Ministry of Foreign Affairs 
(Online), 16 March 05. The Regulation on Religious Affairs stipulates 
protections for freedom of religious belief but does not specifically 
address children. See Regulation on Religious Affairs [Zongjiao shiwu 
tiaoli], issued 30 November 04, effective 1 March 05, art. 2. For 
provincial regulations, see, e.g., Fujian Province Implementing 
Measures on the ``Law on the Protection of Minors'' [Fujiansheng shishi 
``zhonghua renmin gongheguo weichengnianren baohufa'' banfa], issued 21 
November 94, effective 21 November 94, amended 25 October 97, art. 33; 
Inner Mongolia Autonomous Region Implementing Measures on the 
Management of Venues for Religious Activity [Neimenggu zizhiqu zongjiao 
huodong changsuo guanli shishi banfa], issued 23 January 96, effective 
23 January 96, art. 13. See also China's Religious Communities--Islam 
in this section for a discussion of legislation in the Xinjiang Uyghur 
Autonomous Region.
    \41\ ChinaAid reported in July that a Bible school in Jiangsu 
province was raided and students ordered not to attend again. Prior to 
that, however, the school had ``been in existence for several years 
without any problems from authorities.'' ChinaAid (Online), ``Bible 
School Raided in Suqian City, Jiangsu Province,'' 20 July 09. See also, 
e.g., Bureau of Democracy, Human Rights, and Labor, U.S. Department of 
State, International Religious Freedom Report--2006, China (includes 
Tibet, Hong Kong, and Macau), 15 September 06; CECC, 2006 Annual 
Report, 20 September 06, 89.
    \42\ See China's Religious Communities in this section for more 
information as well as Bureau of Democracy, Human Rights, and Labor, 
U.S. Department of State, Country Report on Human Rights Practices--
2008, China (includes Tibet, Hong Kong, and Macau), 25 February 09.
    \43\ China National Committee for the Wellbeing of Youth (Online), 
``Taking Socialism as the Core Value System for Guiding Work on 
Earnestly Caring About Next Generation'' [Yi shehuizhuyi hexin jiazhi 
tixi wei zhidao renzhen zuohao guanxin xiayidai gongzuo], 23 October 
08.
    \44\ ChinaAid (Online), ``More Than 400 College Students in Beijing 
and Hangzhou Detained and Interrogated; Four Church Leaders Sentenced 
to Labor Camps,'' 3 December 08.
    \45\ Shaanxi Ethnic Affairs Commission and Religious Affairs Bureau 
(Online), ``Basic Situation for Religion in Shaanxi Province'' [Shaanxi 
sheng zongjiao jiben qingkuang], 4 January 09. The article discusses 
events through 2007 and may be a reposting of an earlier report.
    \46\ General Comment No. 22 to Article 18 of the International 
Covenant on Civil and Political Rights states that freedom of religion 
includes the ``freedom to prepare and distribute religious texts or 
publications.'' General Comment No. 22: The Right to Freedom of 
Thought, Conscience, and Religion (art. 18), 30 July 93, para. 4. For 
more information on China's system of controlling the publication of 
religious materials, see ``Prior Restraints on Religious Publishing in 
China,'' Congressional-Executive Commission on China (Online), last 
visited 23 June 09.
    \47\ PRC Criminal Law, enacted 1 July 79, amended 14 March 97, 
effective 1 October 97, amended 25 December 99, 31 August 01, 29 
December 01, 28 December 02, 28 February 05, 29 June 06, 28 February 
09, art. 225.
    \48\ ChinaAid (Online), ``Christian Shi Weihan Sentenced to Three 
Years in Prison for Printing and Giving Away Bibles,'' 11 June 09. See 
also the Congressional-Executive Commission on China Political Prisoner 
Database for more information. In recent years, authorities have used 
similar criminal charges to imprison other people for printing and 
distributing religious texts. See, e.g., the cases of Cai Zhuohua, Wang 
Zaiqing, and Zhou Heng in the Congressional-Executive Commission on 
China Political Prisoner Database.
    \49\ ChinaAid (Online), ``Christian Shi Weihan Sentenced to Three 
Years in Prison for Printing and Giving Away Bibles,'' 11 June 09.
    \50\ For more information, see, e.g., ChinaAid (Online), 
``Imprisoned Christian Shi Weihan Scheduled for Trial April 9,'' 6 
April 09; ChinaAid (Online), ``Shi Weihan Released on Bail, Government 
Officials Decide Not To Pursue Criminal Charges,'' 7 January 08. See 
also the Congressional-Executive Commission on China Political Prisoner 
Database.
    \51\ Bureau of Democracy, Human Rights, and Labor, U.S. Department 
of State (Online), International Religious Freedom Report--2008, China 
(includes Tibet, Hong Kong, and Macau), 19 September 08.
    \52\ Bureau of Democracy, Human Rights, and Labor, U.S. Department 
of State, Country Report on Human Rights Practices--2008, China 
(includes Tibet, Hong Kong, and Macau), 25 February 09.
    \53\ See, e.g., ChinaAid (Online), Annual Report of Persecution by 
the Government on Christian House Churches Within Mainland China 
January 2008-December 2008, January 2009, 19, 21 (see pages 12 and 20 
for examples in 2008 outside the 2009 reporting year).
    \54\ Based on CECC analysis, factors such as the content of the 
publications render them illegal, rather than or in addition to a 
possible status as a ``pirated'' publication or publication deemed 
pornographic. Government reports have differentiated between pirated 
publications and ``illegal'' ones. For background, see ``Xinjiang 
Government Strengthens Campaign Against Political and Religious 
Publications,'' CECC China Human Rights and Rule of Law Update, 
February 2008, 4.
    \55\ Regulation on Religious Affairs [Zongjiao shiwu tiaoli], 
issued 30 November 04, effective 1 March 05, art. 34. For an earlier 
provincial-level regulation, see, e.g., Beijing Municipality Regulation 
on Religious Affairs [Beijingshi zongjiao shiwu tiaoli], issued 18 July 
02, effective 1 November 02, art. 8.
    \56\ It states that the government ``encourages and supports 
religious circles in launching social welfare programs, exploring 
methods and channels for religions to better serve society and promote 
the people's well-being.'' State Council Information Office, National 
Human Rights Action Plan of China (2009-2010), Xinhua (Online), 13 
April 09.
    \57\ See, e.g., State Administration for Religious Affairs 
(Online), ``Hebei Province Buddhist Association Rushes to Sichuan 
Earthquake Disaster Area To Provide Disaster Relief'' [Hebeisheng 
fojiao xiehui jinji fu sichuan dizhen zaiqu zhenzai], 23 May 08; Amity 
Foundation (Online), ``Overseas Partners Visit the Earthquake Region,'' 
22 October 08; Amity Foundation (Online), ``Wheelchairs and More for 
Earthquake Victims,'' 15 October 08.
    \58\ Shifang City People's Government (Online), ``Shifang City 
Communist Party Committee United Front Work Department Report 
Concerning 5.12 Anti-Quake Disaster Relief Conditions'' [Zhong gong 
shifang shi wei tongzhanbu guanyu 5-12 kangzhen jiuzai qingkuang de 
baogao], 20 October 08.
    \59\ ChinaAid (Online), ``American Journalist and Interpreter 
Detained in Henan; Chinese Government Bans Chinese House Church 
Alliance,'' 29 November 09.
    \60\ ChinaAid (Online), ``Christians in Earthquake Disaster Areas 
Raided by Police on Christmas Eve,'' 27 December 08.
    \61\ ChinaAid (Online), ``Government Approved Church Leaders 
Withhold Donated Quake Funds; Whistleblower Christian Sentenced,'' 30 
July 09.
    \62\ ChinaAid (Online), ``Sichuan Earthquake-Relief Helpers Tried 
for `Disturbing the Peace,' '' 4 September 09.
    \63\ This section pertains to what official sources refer to as 
``Buddhism in the Han tradition,'' an inaccurate umbrella term that 
encompasses all schools of Buddhism in China, aside from the Tibetan 
tradition. ``Buddhism in the Han tradition'' (hanchuan fojiao) is 
inaccurate in religious terms. Buddhists divide themselves along lines 
determined according to a number of traditions, ritual practices, and 
schools of thought, but not in purely ethnic terms. It is also worth 
noting that with the possible exception of the Chan school of Buddhism, 
there is arguably no true ``Han tradition'' of Buddhism. All non-Chan 
schools of Buddhism in China can be clearly traced to Indian sources. 
In addition, there are Chinese citizens belonging to officially 
recognized ``ethnic minority'' groups, such as the Dai, that practice 
Theravada Buddhism--a branch of Buddhism completely outside of what 
Chinese officials mean by the ``Han tradition'' (non-esoteric Mahayana 
Buddhism as practiced by non-Tibetans).
    \64\ Regulation on Religious Affairs [Zongjiao shiwu tiaoli], art. 
6, 27-29, adopted 7 July 04, effective 1 March 05; Constitution of the 
Buddhist Association of China [Zhongguo fojiao xiehui zhangcheng], 
enacted 18 September 02, art. 3.
    \65\ See second paragraph of main text for examples of official 
harassment and closure of unregistered Buddhist temples and meeting 
sites. For examples of detention or ``transformation through 
reeducation,'' see Taixing City People's Government Opinion on the 
Launch of Special Administration for Our Township's Outstanding 
Problems With Religion [Guanyu dui wozhen zongjiao tuchu wenti kaizhan 
zhuanxiang zhili de yijian], issued 29 March 09; ``The Hearts of the 
Masses Compose `Song of Safety': Shandan Unfolds Social Order 
Comprehensive Management Work Record'' [Zhongxin pu jiu `ping'an qu' 
shandan kaizhan shehui zhi'an zonghe zhili gongzuo jishi], Zhangye 
Daily, reprinted in Zhangye Municipal Political-Legal Committee 
(Online), 30 June 09.
    \66\ For the prohibition on ``superstitious activities,'' see 
``National Measures for Managing Buddhist Temples in the Han 
Tradition'' [Quanguo hanchuan fojiao siyuan guanli banfa], enacted 21 
October 93, ch. 2, art. 8; for the political requirements, see ibid., 
ch. 3, arts. 9, 10, 16. For an example of officials manipulating the 
Buddhist tradition to advance political goals, see ``Loving the Nation 
and Loving Religion Is a Fine Buddhist Tradition--Master Xiangben'' 
[Aiguo aijiao shi fojiao de youliang chuantong--xiangben fashi], Fojiao 
Zaixian (Online), 1 April 09.
    \67\ Constitution of the Buddhist Association of China, enacted 18 
September 02, arts. 2-3; Raoul Birnbaum, ``Buddhist China at the 
Century's Turn,'' 174 China Quarterly 428, 438-439 (June 2003). For 
specific examples of restrictions cited above, see ``National Measures 
for Managing Buddhist Temples in the Han Tradition'' [Quanguo hanchuan 
fojiao siyuan guanli banfa], enacted 21 October 93, ch. 3, arts. 12-16, 
29.
    \68\ For example, in October 2008, Chengdu municipal authorities in 
Sichuan province reported that they had ``repeatedly launched'' special 
campaigns to suppress ``chaotic'' construction of unauthorized Buddhist 
temples and sacred statues. Chengdu Municipal People's Congress 
(Online), Report Concerning the Situation With Religious Work in 
Chengdu Municipality [Guanyu chengdu shi zongjiao gongzuo qingkuang de 
baogao], 29 October 08.
    \69\ Daqing Municipal People's Congress (Online), ``Investigative 
Report Concerning Religious Affairs Management in Our City'' [Guanyu 
woshi zongjiao shiwu guanli qingkuang de diaocha baogao], 28 August 08, 
sec. 2, pt. 4.
    \70\ Ibid.
    \71\ Zhengning County Yulinzi Township People's Government Opinion 
on the 2008 Plan for United Front Work [Guanyu 2008 nian tongzhan 
gongzuo de anpai yijian], issued 19 June 08.
    \72\ Ganzhou Municipal People's Government (Online), ``Ganzhou 
Municipal Bureau of Ethnic and Religious Affairs 2009 Essential Work 
Points'' [Ganzhou shi minzong ju 2009 nian gongzuo yaodian], 22 March 
09; Ningdu County People's Government (Online), ``Our Bureau Launches 
Special Disciplinary Work To Stop the Disorderly Construction of 
Temples and Sites for Religious Activities'' [Woju kaizhan zhizhi 
luanjian simiao, luanshe zongjiao huodong changsuo zhuanxiang zhengzhi 
gongzuo], 22 December 08; Ruijin City People's Government (Online), 
``Ruijin City Ethnic and Religious Affairs Bureau Work Summary for the 
First Half of 2008 and Work Plan for Last Half of the Year'' [Ruijin 
shi minzongju 2008 nian shang bannian gongzuo zongjie ji xiabannian 
gongzuo dasuan], 22 June 08; Fuyang City Party Committee's United Front 
Work Department (Online), ``Concerning Some Reflections on 
Strengthening County-Level United Front Work'' [Guanyu jiaqiang xianji 
tongzhan gongzuo de jidian sikao], 25 September 08.
    \73\ Ningdu County People's Government (Online), ``Our Bureau 
Launches Special Disciplinary Work To Stop the Disorderly Construction 
of Temples and Sites for Religious Activities'' [Woju kaizhan zhizhi 
luanjian simiao, luanshe zongjiao huodong changsuo zhuanxiang zhengzhi 
gongzuo], 22 December 08.
    \74\ A Ministry of Public Security circular indicates that public 
criticism of the Communist Party by the sect's founder--a nun called 
the Supreme Master Ching Hai--prompted the government to apply the 
``cult'' designation to her followers in 1995. See Ministry of Public 
Security, Circular on Several Issues with Designating and Banning Cult 
Organizations [Gonganbu guanyu rending he qudi xiejiao zuzhi ruogan 
wenti de tongzhi], 30 April 00.
    \75\ The Yunxi County 6-10 Office in Hubei province published a 
report in 2008 that characterized Guanyin Famen as a ``cult that hides 
behind the banner of Buddhist faith'' and urged citizen informants who 
witness or receive word about ``cult activities'' to ``immediately 
notify'' Party cadres and the public security bureau. Dianzi Township 
People's Government (Online), ``Yunxi County's Ten Things To Know in 
`Upholding Science, Opposing Cults' '' [Yunxi xian `chongshang kexue, 
fandui xiejiao' shi zhidao], 26 April 08. For other examples, see 
Hegang Municipal People's Government (Online), ``Municipal 6-10 Office 
Deploys Five Work Projects To Ensure the City's Social Stability During 
the Olympic Period'' [Shi 610 bangongshi bushu wuxiang gongzuo quebao 
aoyunhui qijian woshi shehui wending], 9 July 08; Tanggu District 
People's Government (Online), ``Xinhe Residential Community Judicial 
Office Earnestly Completed Social Stability Work in the `June 4' 
Period'' [Xinhe sifasuo renzhen zuohao `liusi' qijian de shehui wending 
gongzuo], 11 June 09.
    \76\ ``The Hearts of the Masses Compose `Song of Safety': Shandan 
Unfolds Social Order Comprehensive Management Work Record'' [Zhongxin 
pu jiu `ping'an qu' shandan kaizhan shehui zhi'an zonghe zhili gongzuo 
jishi], Zhangye Daily, reprinted in Zhangye Municipal Political-Legal 
Committee (Online), 30 June 09.
    \77\ CECC, 2006 Annual Report, 20 September 06, 87.
    \78\ ``Underground Bishop of Xiwanzi Released After Two and a Half 
Years in Prison,'' AsiaNews (Online), 12 February 09; Betty Ann Maheu, 
``The Catholic Church in China,'' 193 America 8, 10 (7 November 05).
    \79\ Shaanxi Provincial Ethnic Affairs Commission and Religious 
Affairs Bureau (Online), ``The Basic Situation for Religion in Shaanxi 
Province'' [Shaanxi sheng zongjiao jiben qingkuang], 4 January 09.
    \80\ Ibid.
    \81\ Ibid.
    \82\ Ibid.
    \83\ Ibid.
    \84\ U.S. Commission on International Religious Freedom (Online), 
2009 Annual Report, 1 May 09, 81.
    \85\ Betty Ann Maheu, ``The Catholic Church in China,'' 193 America 
8, 10 (7 November 05); John L. Allen, Jr., ``The Uphill Journey of 
Catholicism in China,'' National Catholic Reporter (Online), 3 August 
07. Richard Madsen, China's Catholics: Tragedy and Hope in an Emerging 
Civil Society (Berkeley: University of California Press, 1998), 17.
    \86\ ``As Catholics Celebrate Easter, Familiar Tensions Persist,'' 
Agence France-Presse, reprinted in South China Morning Post (Online), 
13 April 09.
    \87\ ``Underground Bishop of Xiwanzi Released After Two and a Half 
Years in Prison,'' AsiaNews (Online), 12 February 09.
    \88\ Chen blamed the local officials' failure to provide 
``effective management'' for allowing some religious organizations to 
succeed in opening Web sites and publishing periodicals and books. 
Hubei Provincial Office for Ethnic and Religious Affairs (Online), 
``Party Secretary and Head of the Hebei Office of Ethnic and Religious 
Affairs Chen Huixin's Speech to the Summary Forum on the Stage of 
Investigation and Research'' [Ting dangzu shuji, tingzhang chen huixin 
zai xuexi diaoyan jieduan zongjie zuotanhui shang de jianghua], 1 
December 08.
    \89\ Hubei Provincial Office for Ethnic and Religious Affairs 
(Online), ``Party Secretary and Head of the Hebei Office of Ethnic and 
Religious Affairs Chen Huixin's Speech to the Summary Forum on the 
Stage of Investigation and Research'' [Ting dangzu shuji, tingzhang 
chen huixin zai xuexi diaoyan jieduan zongjie zuotanhui shang de 
jianghua], 1 December 08.
    \90\ ``Hebei Provincial United Front Department Secretary-General 
Visits Wu'An City for Catholic Guidance Work'' [Hebei: sheng tongzhanbu 
mishuzhang guanglin wu'an shi tianzhu jiaotang zhidao gongzuo], China 
Catholic (Online), 19 April 09.
    \91\ Hebei Provincial Office for Ethnic and Religious Affairs 
(Online), ``Party Branch First and Second Religious Affairs Offices 
Convene Symposium on Problems With Wavering Investigations'' [Zongjiao 
yichu, erchu dangzhibu zhaokai chabai wenti taolunhui], 9 December 08.
    \92\ U.S. Commission on International Religious Freedom (Online), 
2009 Annual Report, 1 May 09, 82; Cardinal Kung Foundation (Online), 
``The Persecution of the Roman Catholic Church,'' 2007.
    \93\ Bernardo Cervellera, ``Persecution in China as Vatican Meeting 
on China Opens,'' AsiaNews (Online), 30 March 09.
    \94\ Bernardo Cervellera, ``Police Arrest Underground Zhengding 
Bishop Jia Zhiguo,'' AsiaNews (Online), 31 March 09.
    \95\ See the Congressional-Executive Commission on China Political 
Prisoner Database for more information.
    \96\ Bernardo Cervellera, ``Persecution in China as Vatican Meeting 
on China Opens,'' AsiaNews (Online), 30 March 09.
    \97\ ``Priest Beaten Inside Mayor's Office,'' Union of Catholic 
Asian News (Online), 19 March 09.
    \98\ Ibid.
    \99\ Longwan District Party Building Site (Online), ``Longwan 
District Ethnic and Religious Affairs Bureau Announces Achievements of 
Leadership Ranks'' [Longwan qu minzongju lingdao banzi zhengji 
gongshi], 17 December 08.
    \100\ Ibid. Just over 10 Catholics from Longwan, in total, 
succeeded in reaching Sheshan, according to the report.
    \101\ U.S. Commission on International Religious Freedom (Online), 
2009 Annual Report, 1 May 09, 82.
    \102\ See ``Local Governments Target `Illegal' Worship Sites and 
`Illegal' Religious Activities Throughout the Fall,'' CECC China Human 
Rights and Rule of Law Update, December 2008, 2.
    \103\ The United Front Work Department oversees the implementation 
of Party policy toward China's eight ``democratic'' political parties, 
ethnic and religious groups, intellectuals, and entrepreneurs, among 
other functions.
    \104\ See ``Local Governments Target `Illegal' Worship Sites and 
`Illegal' Religious Activities Throughout the Fall,'' CECC China Human 
Rights and Rule of Law Update, December 2008, 2.
    \105\ Jiangxi Provincial People's Congress (Online), ``Jiangxi 
Provincial People's Government Report on the Local Situation With 
Managing Religious Affairs According to the Law'' [Jiangxi sheng renmin 
zhengfu guanyu wosheng yifa guanli zongjiao shiwu gongzuo qingkuang 
baogao], 8 April 09.
    \106\ Communist Party United Front Work Department of the Dalian 
Medical University (Online), Opinion Regarding Fully Developing United 
Front Superiority in Service of Maintaining Growth, Maintaining 
Stability, and Accelerating Revitalization [Guanyu chongfen fahui 
tongyi zhanxian youshi wei bao zengzhang, bao wending, cu zhenxing fuwu 
de yijian], 23 April 09.
    \107\ Wenzhou Municipality United Front Work Department (Online), 
Notice on the Wenzhou Municipality Party Committee United Front Work 
Department's 2008 Annual ``United Front Work Innovation Awards and 
Honarary Mentions'' [Zhonggong Wenzhou shiwei tongzhan bu guanyu 
biaozhang 2008 niandu quanshi `tongzhan gongzuo chuangxin jiang' he 
`tongzhan gongzuo chuangxin guli jiang' de tongbao], issued 1 April 09.
    \108\ Sheqi County People's Government (Online), ``Sheqi County 
Chinese Communist Party United Front Work Department 2009 Work 
Points,'' 30 April 09.
    \109\ Richard Madsen, ``Catholic Revival During the Reform Era,'' 
174 China Quarterly 468, 482 (2003); Richard Madsen, ``Chinese 
Christianity: Indigenization and Conflict,'' in Chinese Society: 
Change, Conflict and Resistance, eds. Elizabeth Perry and Mark Selden 
(New York: Routledge Curzon, 2nd edition, 2003), 280.
    \110\ Ministry of Public Security (Online), ``A Heroic Life Story: 
Wang Shuncai'' [Yinglie shengping shiji: wang shuncai], 21 December 08.
    \111\ Ibid. The report does not disclose the bishop's identity or 
provide an explanation of why the same bishop was captured three times.
    \112\ Ministry of Public Security (Online), ``A Heroic Life Story: 
Wang Shuncai'' [Yinglie shengping shiji: wang shuncai], 21 December 08.
    \113\ Sheqi County People's Government (Online), ``Sheqi County 
Chinese Communist Party United Front Work Department 2009 Work Points'' 
[Zhonggong sheqi xianwei tongzhanbu 2009 nian tongzhan gongzuo 
yaodian], 30 April 09.
    \114\ See CECC, 2007 Annual Report, 10 October 07, 96-97, for 
information on coercion to participate in bishop appointments in 
previous years.
    \115\ For more information on the government's continued insistence 
on independence from the Vatican, see ``China 50th Anniversary of 
`Self-Elected, Self-Ordained' Bishops Commemorated,'' Union of Catholic 
Asian News (Online), 19 December 08. For examples of Papal involvement 
in bishop selection, see ``Bishop Ordinations in 2007 Return to Holy 
See Involvement,'' Congressional-Executive Commission on China 
(Online), 5 May 08.
    \116\ ``China 50th Anniversary of `Self-Elected, Self-Ordained' 
Bishops Commemorated,'' Union of Catholic Asian News (Online), 19 
December 08.
    \117\ ``Du Qinglin Speaks at Meeting Commemorating 50th Anniversary 
of the Self-Elected, Self-Ordained Chinese Catholic Church'' [Jinian 
zhongguo tianzhujiao zixuan zisheng 50 zhounian zuotanhui zhaokai, du 
qinglin chuxi bing jianghua], Xinhua (Online), 19 December 08.
    \118\ Bernardo Cervellera, ``The Bishop of Beijing, the Vatican, 
and Compromising with the Patriotic Association,'' AsiaNews (Online), 3 
February 09.
    \119\ Ibid. The text of the speech was reportedly drafted by Shi 
Hongxi, the general secretary of the Beijing CPA.
    \120\ The government's use of such divide and rule tactics has 
contributed to ongoing tension and division between registered and 
unregistered Catholics in China. David Willey, ``Pope Urges China 
Reconciliation,'' BBC (Online), 25 May 09; Richard Madsen, ``Chinese 
Christianity: Indigenization and Conflict,'' in Chinese Society: 
Change, Conflict and Resistance, eds. Elizabeth Perry and Mark Selden 
(New York: Routledge Curzon, 2nd edition, 2003), 280.
    \121\ The Vatican's instructions designated Jia the primary bishop 
of Shijiazhuang and Jiang his auxiliary bishop. The Catholic Patriotic 
Association objected to this arrangement, banned the two bishops from 
meeting, and placed both under 24-hour police surveillance. U.S. 
Commission on International Religious Freedom (Online), 2009 Annual 
Report, 1 May 09, 81; Bernardo Cervellera, ``Police Arrest Underground 
Zhengding Bishop Jia Zhiguo,'' AsiaNews (Online), 31 March 09.
    \122\ Shaanxi Provincial Ethnic Affairs Commission and Religious 
Affairs Bureau (Online), ``The Basic Situation for Religion in Shaanxi 
Province'' [Shaanxi sheng zongjiao jiben qingkuang], 4 January 09.
    \123\ The intention to set the public security agenda for the year 
was clearly conveyed in the title of the directive: ``Main Points for 
Comprehensive Management of Social Order Work Throughout the Country in 
2009'' [2009 nian quanguo shehui zhi'an zonghe zhili gongzuo yaodian].
    \124\ The Committee for Comprehensive Management of Public Security 
is a creation of the Party Central Committee and is chaired by 
Politburo Standing Committee member Zhou Yongkang. Central Committee 
for Comprehensive Management of Public Security, ``Main Points for 
Comprehensive Management of Social Order Work Throughout the Country in 
2009'' [2009 nian quanguo shehui zhi'an zonghe zhili gongzuo yaodian], 
reprinted in People's Daily (Online), 1 February 09.
    \125\ Ian Johnson, ``Death Trap: How One Chinese City Resorted to 
Atrocities To Control Falun Dafa,'' Wall Street Journal (Online), 26 
December 00.
    \126\ For the Weifang Party Secretary's statement, see ``Weifang 
Municipal Party Committee Convenes (Expanded) Meeting of the Members of 
the Standing Committee'' [Weifang shiwei zhaokai changwei (kuoda) 
huiyi], People's Daily (Online), 7 November 08.
    \127\ Gaoyou City Gaoyou Township People's Government (Online), 
``Gaoyou Township's `Four Things To Channel Into' Implementation Plan 
for Guarding Against and Handling Cult Problems'' [Gaoyou zhen fangfan 
he chuli xiejiao wenti `sige naru' shishi fang'an], 2 March 09.
    \128\ Ge Shuanglong, ``Forecasting the Trends of the Development of 
Mainland Chinese Cults'' [Zhongguo dalu xiejiao fazhan qushi yuce], 22 
Journal of the Jilin Public Security Academy, No. 6, 85 (2007).
    \129\ Wanquan County Party Committee (Online), Wanquan County 
Launches Acitivies To Deeply Study and Implement the Scientific 
Development Concept: Brief Report No. 55 [Wanquan xian kaizhan shenru 
xuexi shijian kexue fazhan guan huodong jianbao di 55 qi], 5 May 09.
    \130\ Each of the four digits signifies the number of decades that 
will have elapsed in 2009 since four significant events took place: 6 
decades since the founding of the PRC, 5 decades since the Lhasa 
uprising in Tibet, 2 decades since the Tiananmen crackdown, and 1 
decade since the ban on Falun Gong. The presence of two of China's top 
leaders at the helm of Project 6521, Vice President Xi Jinping and Zhou 
Yongkang, indicates the importance that the Party assigns to its 
political ``struggle'' against Falun Gong. Xi Jinping is also presumed 
by most experts as the leader most likely to replace Hu Jintao as Party 
General Secretary and President. Provincial and municipal governments 
were reportedly required to set up temporary 6521 taskforces led by the 
local deputy Party secretary and public security chief while county and 
township authorities were instructed to report their implementation of 
Project 6521 to the municipal and provincial taskforces. Cary Huang, 
``Taskforces Set Up To Keep Lid on Protests,'' South China Morning Post 
(Online), 28 February 09; Ching Cheong, ``China Acts To Defuse `Crisis 
Year,' '' Singapore Straits Times (Online), 3 March 09; Michael Wines, 
``China's Leaders See a Calendar Full of Trouble,'' New York Times 
(Online), 9 March 09.
    \131\ Nanming District People's Government (Online), ``Xinhua Road 
Sub-District Opens Meeting To Plan Deployment to Maintain Stability 
During `4.25' Period'' [Xinhua banshichu kaizhan `4.25' qijian weiwen 
anpai buzhu hui], 30 April 09.
    \132\ In response, security personnel were placed on rotating duty 
for 75 consecutive hours around the April 25 anniversary. Shengang 
Subdistrict Nanhui District People's Government (Online), ``Shengang 
Brief News (2009 No. 8)'' [Shengang jianxun (2009 nian 8 qi)], 11 May 
09.
    \133\ Tanggu District People's Government (Online), ``Xinhe 
Residential Community Judicial Office Earnestly Conducts Social 
Stability Work in the `June 4' Period'' [Xinhe sifasuo renzhen zuohao 
`liu si' qijian de shehui wending gongzuo], 11 June 09.
    \134\ Chenxi County People's Government (Online), ``Chenxi County 
Communist Party Committee 610 Office'' [Zhonggong chenxi xianwei 610 
bangongshi], 25 June 09. A December 2008 report from Leiyang city in 
Hunan province breaks down the organizational structure of the 6-10 
Office into a ``composite group'' and an ``education group.'' The 
``composite group,'' among other things, is vested with the 
responsibility for ``comprehensive investigation and research,'' 
``intelligence information,'' ``protecting secrets and confidential 
information,'' and ``administrative logistics work.'' The ``education 
group'' focuses on ``anti-cult social propaganda work'' and the 
``transformation through reeducation'' of ``Falun Gong'' practitioners. 
See Leiyang City People's Government (Online), ``The 6-10 Office'' [610 
bangongshi], 29 December 08.
    \135\ Chenxi County People's Government (Online), ``Chenxi County 
Communist Party Committee 610 Office'' [Zhonggong chenxi xianwei 610 
bangongshi], 25 June 09.
    \136\ Chinese Communist Party Committee of Suqian Municipality 
United Front Work Department (Online), ``Central 610 Office Director Li 
Xiaodong Arrives in Siyang for Investigation and Research on Cult 
Work'' [Zhongyang 610 bangongshi juzhang li xiaodong li si diaoyan 
xiejiao gongzuo], 8 December 08.
    \137\ Canglang District Political-Legal Committee of the Chinese 
Communist Party Committee (Online), ``Our District Successfully Carries 
Out Annual Work Inspection and Evaluation by the Municipal Party 
Committee 610 Office'' [Woqu shunli tongguo shiwei 610 bangongshi 
niandu gongzuo jiancha kaoping ji yanshou], 25 December 08. For another 
example of these ``anti-cult'' projects, in July 2009, officials from 
the Xuanwu District 6-10 Office in Nanjing municipality inspected and 
praised a local community for setting up ``anti-cult warning and 
education activity stations,'' which they suggested would serve as a 
model for other localities. See Xuanwu District People's Government 
(Online), ``Xuanwu District 610 Office Inspects Zixincheng Community's 
Anti-Cult Warning Education Activity Stations'' [Xuanwu qu 610 
bangongshi shicha zixincheng shequ fan xiejiao jingshi jiaoyu huodong 
zhandian gongzuo], 1 July 09.
    \138\ Canglang District Political-Legal Committee of the Chinese 
Communist Party Committee (Online), ``Our District Successfully Carries 
Out Annual Work Inspection and Evaluation by the Municipal Party 
Committee 610 Office'' [Woqu shunli tongguo shiwei 610 bangongshi 
niandu gongzuo jiancha kaoping ji yanshou], 25 December 08.
    \139\ The report did not indicate what measures were taken in 
response to this finding. Qidong City People's Government (Online), 
``Huilong Township's Situation With Social Stability Work'' [Huilong 
zhen wending gongzuo dongtai], 27 May 09.
    \140\ Linxiang City People's Government (Online), ``Chang'an 
Subdistrict Goes All Out To Defeat `Falun Gong' Cult Organization'' 
[Chang'an jiedao banshichu sanzhao licuo `falun gong' xiejiao zuzhi], 
17 October 08.
    \141\ Xuanwei City People's Government Shuanglong Subdistrict 
Office, Circular on the Printing and Distribution of ``Shuanglong 
Subdistrict Special Action Implementation Plan for Guarding Against and 
Striking Against `Falun Gong' '' [Guanyu yinfa ``shuanglong jiedao 
fangfan he daji `falun gong' zhuanxiang xingdong shishi fang'an'' de 
tongzhi], issued 4 June 08.
    \142\ Ibid.
    \143\ Huimin County People's Government (Online), ``Work Plan for 
Implementing Concentrated Rectification of Falun Gong and Other Cult 
Organizations'' [Guanyu dui falun gong ji qita xiejiao zuzhi shishi 
jizhong zhengzhi de gongzuo fang'an], 27 March 08.
    \144\ Shashi District People's Government Zhongshan Subdistrict 
Office (Online), ``Huang Yuesheng, Head of the District `610' Office, 
Visits Zhongshan Subdistrict Office To Inspect and Guide Stability 
Maintenance Work'' [Qu `610' bangongshi zhuren huang yuesheng dao 
zhongshan jieban jiancha zhidao weiwen gongzuo], 8 March 09.
    \145\ Xunyang District People's Government (Online), Gather 
Strength To Build Serenity and Tranquility--Work Report on Xunyang 
District's Unified Efforts To Create Harmony and Safety [Huiju qiangli 
zhu xiangning --xunyang qu hexie ping'an lian chuang gongzuo jishi], 11 
June 09.
    \146\ Linzi District People's Government (Online), ``Xuegong 
Subdistrict Performs Stability Work Well'' [Xuegong jiedao zuohao 
wending gongzuo], 1 July 09.
    \147\ Xuanwei City People's Government Shuanglong Subdistrict 
Office, Circular on the Printing and Distribution of ``Shuanglong 
Subdistrict Special Action Implementation Plan for Guarding Against and 
Striking Against `Falun Gong' '' [Guanyu yinfa ``shuanglong jiedao 
fangfan he daji `falun gong' zhuanxiang xingdong shishi fang'an'' de 
tongzhi], issued 4 June 08.
    \148\ Zhutai Township People's Government (Online), ``Actively 
Disseminate, Strike Hard Against `Falun Gong' and Other Illegal Cult 
Activities'' [Jiji xuanchuan yanli daji `falun gong' deng xiejiao feifa 
huodong], 19 March 09.
    \149\ Liuyang City Government Affairs Service Center (Online), 
``Liuyang City Communist Party Committee's 610 Office Announcement 
Concerning Rewards for Reporting Cult Activities'' [Zhonggong liuyang 
shiwei 610 bangongshi guanyu dui xiejiao huodong jubao youjiang de 
gonggao], 3 March 09.
    \150\ Liuyang City Government Affairs Service Center (Online), 
``Liuyang City Communist Party Committee's 6-10 Office Issues Open 
Letter to the Entire City's Cadres and Citizens Concerning `Upholding 
Science, Caring for the Family, Cherishing Life, and Opposing Cults' '' 
[Zhonggong liuyang shiwei 610 bangongshi guanyu `chongshang kexue, 
guan'ai jiating, zhenxi shengming, fandui xiejiao' zhi quanshi ganbu 
qunzhong de gongkaixin], 2 April 09.
    \151\ Wangcang County Anti-Cult Propaganda and Education Net 
(Online), ``An Open Letter From the County Party Committee and County 
Government to the Entire County's Rural Residents'' [Xianwei 
xianzhengfu zhi quanxian nongmin pengyou de yifeng gongkai xin], 1 
April 09.
    \152\ Bengbu Municipality Yuhui District Justice Bureau (Online), 
``Bringing Informants Into Effect To Capture Those Who Distribute 
Leaflets'' [Fahui xinxiyuan zuoyong zhuahuo sanfa chuandan xianxing], 
27 May 08.
    \153\ Xinjiang Uyghur Autonomous Region Education Department 
(Online), ``Xinjiang Agricultural University Earnestly Launches Anti-
Cult Warning Education Activities'' [Xinjiang nongye daxue renzhen 
kaizhan fan xiejiao jingshi jiaoyu huodong], 7 May 09.
    \154\ Anhui Provincial Bureau of Education (Online), ``Various 
Schools in Panji District Start a Surge of Anti-Cult Education 
Activities'' [Panji qu ge xuexiao xianqi fan xiejiao jiaoyu huodong 
gaochao], 30 June 09.
    \155\ Shawan District Bureau of Education (Online), ``Shawan 
Elementary School Carries Out Anti-Cult Warning Education in a 
Thoroughgoing Way'' [Shawan xiaoxue shenru kaizhan fan xiejiao jingshi 
jiaoyu], 5 July 09.
    \156\ Public security officials are also permitted to extend the 
sentence for up to one year beyond the initial three years. Fu Hualing, 
``Dissolving Laojiao,'' China Rights Forum: Rule of Law? No. 1, 2009, 
54.
    \157\ Fu Hualing, ``Dissolving Laojiao,'' China Rights Forum: Rule 
of Law? No. 1, 2009, 54. International observers estimate that Falun 
Gong practitioners may constitute as many as half of the total number 
of Chinese held in RTL facilities. U.S. Commission on International 
Religious Freedom, 2008 Annual Report, 1 May 2009, 161.
    \158\ Leeshai Lemish, ``The Games Are Over, the Persecution 
Continues,'' National Post (Online), 7 October 08.
    \159\ Chinese Human Rights Defenders (Online), ``Re-Education 
Through Labor Abuses Continue Unabated: Overhaul Long Overdue,'' 10 
February 09, 16. One interviewee remarked that practitioners were often 
deprived of sleep until they renounced their beliefs and that some were 
forced to sit on a ``tiger bench.'' According to Falun Gong sources, a 
``tiger bench'' is a small iron bench that is approximately eight 
inches tall. The victim's hands are tied together behind his/her back 
while his/her knees are tied down to the bench. Hard objects such as 
bricks are often inserted under the tied legs to cause the legs to bend 
upward in a painful manner that sometimes causes the knees to break. 
CECC staff interviews with two Falun Gong practitioners formerly 
detained in RTL and now based in the United States confirmed the use of 
sleep deprivation and solitary confinement in RTL facilities, as well 
as cases where practitioners are forced to sit stationary on a small 
stool for up to 18 hours at a time. Other inmates are often placed in 
the cell and promised a reduced sentence if they ensure that the 
practitioner does not move from the stool. CECC Staff Interviews.
    \160\ Harbin Municipal People's Government (Online), ``A Few 
Lessons Learned From Security Work for the Olympic Torch Relay'' [Aoyun 
huoju jieli an'bao gongzuo jidian tihui], 15 August 08.
    \161\ Nanning Municipal People's Government (Online), ``Nanning 
2008 Yearbook: Political-Legal Work'' [Nanning nianjian 2008: zhengfa 
gongzuo], 14 November 08.
    \162\ Pingjiang County Meixian Township People's Government 
(Online), ``Outstanding Work Points, Holistic Planning and Coordinated 
Development, Accelerate the Pace of the Promotion of Rich Citizens, 
Strong Township: Meixian Township 2008 Work Summary and 2009 Work 
Plan'' [Tuchu gongzuo zhongdian tongchou xietiao fazhan jiakuai tuijin 
fumin qiangzhen bufa--meixian zhen 2008 nian gongzuo zongjie he 2009 
nian gongzuo jihua], 10 December 08.
    \163\ Chen Dehua, ``Report on the Dazhou Public Security `Three 
Foundations' Project'' [Dazhou gong'an `san ji' gongcheng jianshe 
jishi], Dazhou Political Times (Online), 2 February 09.
    \164\ Huai'an City People's Government (Online), ``Brief Talk on 
How To Build Harmonious Relations Between the Police and the People in 
the New Period'' [Qiantan ruhe goujian xinshiqi xia de xie jingmin 
guanxi jianshe], 30 June 09.
    \165\ CECC, 2008 Annual Report, 31 October 08, 90.
    \166\ Sichuan Committee of the Chinese People's Political 
Consultative Conference (Online), ``Chen Guanquan, Vice Chairman of the 
Sichuan Provincial Chinese People's Political Consultative Conference 
Leads the Committee for Handling Proposals To Inspect the Provincial 
Xinhua Reeducation Through Labor Center'' [Sheng zhengxie fu zhuxi chen 
guanquan shuai ti'an weiyuanhui shicha sheng xinhua laojiaosuo], 8 
January 09.
    \167\ Bureau of Justice of the Inner Mongolia Autonomous Region 
(Online), ``Hohhot Women's Reeducation Through Labor Center Convenes a 
Special Theoretical Seminar on Reeducating Falun Gong Practitioners'' 
[Huhehaote nuzi laojiaosuo zhaokai shoujiao `falun gong' laijiao 
renyuan zhuanti lilun yantaohui], 22 June 09.
    \168\ Jiangxi Provincial Reeducation Through Labor Management 
Bureau (Online), ``Jiangxi Provincial Reeducation Through Labor 
System's Brief Report on Special Education Activities for Implementing 
the `Chief Standard' ''[Jiangxi sheng laojiao xitong guanche luoshi 
`shouyao biaozhun' zhuanti jiaoyu huodong jianbao], 19 June 09.
    \169\ Tailai County People's Government (Online), County Political-
Legal Committee Assistant Secretary Comrade Zhang Xinguo's 
Investigative Research Report [Xian zhengfawei changwu fushuji zhang 
xinguo tongzhi diaoyan baogao], 1 July 09.
    \170\ Amnesty International, 2008 Annual Report for China, 30 July 
08, 4.
    \171\ Michael Sheridan, ``Yu Zhou Dies as China Launches Pre-
Olympic Purge of Falun Gong,'' Times of London (Online), 20 April 08; 
Andrew Jacobs, ``China Still Presses Crusade Against Falun Gong,'' New 
York Times (Online), 28 April 09; ``Manipulation of the Criminal Law To 
Penalize `Cults' Continues in the Case of Painter and Popular 
Musician,'' CECC China Human Rights and Rule of Law Update, No. 1, 
2009, 5.
    \172\ ``Qingdao Tries Several Falun Gong Practitioners, Lu Xueqin 
Confesses Under Torture and Is Crippled'' [Qingdao jiang shenli duo 
ming falun gong xueyuan lu xueqin bei xingxun bigong zhican], Radio 
Free Asia (Online), 9 March 09; ``Three Cases of Persecution of Falun 
Gong Practitioners in Qingdao'' [San ming Qingdao falun gong xueyuan 
bei pohai anli], Radio Free Asia (Online), 11 March 09.
    \173\ ``Falun Gong Practitioner Killed Within Days of Arrest,'' 
Falun Dafa Information Center (Online), 7 August 09.
    \174\ The security agents reportedly were affiliated with the Wuhou 
District office of the Committee on the Comprehensive Management of 
Public Security. Chinese Human Rights Defenders (Online), ``Beijing 
Lawyer Cheng Hai Assaulted by Officials for Representing Falun Gong 
Practitioner,'' 14 April 09; Michael Wines, ``China Said To Threaten 
Licenses of Human Rights Lawyers,'' New York Times (Online), 28 May 09.
    \175\ Reeducation through labor authorities where Jiang was held 
cremated his body without the family's consent and said that he died of 
a heart attack, although the autopsy showed that he had three broken 
ribs. Human Rights in China (Online), ``Beijing Lawyers Beaten for 
Representing Falun Gong Case,'' 13 May 09; Michael Wines, ``China Said 
To Threaten Licenses of Human Rights Lawyers,'' New York Times 
(Online), 28 May 09; Leslie Hook, ``Doomsday for Chinese Human-Rights 
Lawyers?'' Wall Street Journal (Online), 27 May 09; ``Lawyers Beaten in 
Chongqing: Colleagues Protest in Beijing With Horizontal Banner'' 
[Beijing lushi Chongqing bei ou tonghang la heng'e kangyi], Ming Pao 
(Online), 18 May 09.
    \176\ Human Rights in China (Online), ``Beijing Lawyers Beaten for 
Representing Falun Gong Case,'' 13 May 09.
    \177\ It was Gao's investigation and documentation of the torture 
of Falun Gong practitioners that most drew the ire of the government. 
For Gao's documentation of torture of Falun Gong practitioners by 
public security officials and the 6-10 Office, see Gao Zhisheng, A 
China More Just (San Diego: Broad Press, 2007). Gao's record of 
detention is searchable through the Congressional-Executive Commission 
on China's Political Prisoner Database. Jerome A. Cohen, ``Beijing Must 
Reveal Fate of Human Rights Lawyer,'' South China Morning Post 
(Online), 19 March 09; China Human Rights Lawyers Concern Group 
(Online), ``Press Invitation: Demand Information About Beijing Human 
Rights Lawyer Gao Zhisheng's Whereabouts'' [Caifang tongzhi: zaici 
yaoqiu jiaodai beijing weiquan lushi gao zhisheng xialuo], 15 June 09; 
Human Rights in China (Online), ``Wife of Abducted Rights Defense 
Lawyer Gao Zhisheng Requests Urgent Help From U.S. Congress in Open 
Letter,'' 23 April 09.
    \178\ Jerome A. Cohen and Eva Pils, ``The Disappearance of Gao 
Zhisheng,'' Wall Street Journal Asia (Online), 8 February 09; Human 
Rights in China (Online), ``Torture Account by Missing Rights Defense 
Lawyer Gao Zhisheng,'' 8 February 09.
    \179\ ChinaAid (Online), ``A Letter From the Twenty-first Century 
Dungeon--Over Fifty Days of Endless Inhumane Tortures in the Hands of 
the Chinese Government,'' 18 February 09.
    \180\ Ibid.; Human Rights in China (Online), ``Torture Account by 
Missing Rights Defense Lawyer Gao Zhisheng,'' 8 February 09; Jerome A. 
Cohen, ``Beijing Must Reveal Fate of Human Rights Lawyer,'' South China 
Morning Post (Online), 19 March 09.
    \181\ Wei's reeducation through labor sentence was later reduced to 
30 days of administrative detention, and he and his wife were released 
on bail in late March. China Human Rights Lawyers Concern Group 
(Online), ``Heilongjiang Lawyer Wei Liangyue Is Ordered To Serve 
Reeducation Through Labor for Taking Part in a Falun Gong Gathering'' 
[Heilongjiang lushi wei liangyue yin canyu falungong xueyuan juhui 
chuyi laojiao], 26 March 09; ``Heilongjiang Lawyer Wei Liangyue 
Sentenced to Reeducation Through Labor for Participating in a Falun 
Gong Gathering'' [Heilongjiang lushi wei liangyue yin canyu falun gong 
juhui bei laojiao], Radio Free Asia (Online), 26 March 09; China Human 
Rights Lawyers Concern Group (Online), ``Breaking News: Heilongjiang 
Human Rights Lawyer Wei Liangyue and His Wife Are Released and Have 
Returned Home'' [Zuixin xiaoxi: heilongjiang weiquan lushi wei liangyue 
yu qizi huoshi huijia], 1 April 09.
    \182\ Chinese Human Rights Defenders (Online), ``Three Lawyers 
Detained for Defending Falun Gong Practitioners,'' 17 July 09.
    \183\ Ibid. Wang is reportedly being held at the Dalian Municipal 
Public Security Bureau Detention Center on charges related to Article 
300 of the PRC Criminal Law, which prohibits ``using a cult 
organization to sabotage the implementation of the law.'' For more 
information on Article 300 of the Criminal Law, see ``Manipulation of 
the Criminal Law to Penalize `Cults' Continues in Case of Painter and 
Popular Musician,'' CECC China Human Rights and Rule of Law Update, No. 
1, 2009, 5.
    \184\ Alexa Olesen, ``China Lawyers in Touchy Cases Could Be 
Disbarred,'' Associated Press (Online), 27 May 09.
    \185\ Michael Wines, ``China Said To Threaten Licenses of Human 
Rights Lawyers,'' New York Times (Online), 28 May 09.
    \186\ These lawyers include: Jiang Tianyong, Li Heping, Li 
Xiongbing, Li Chunfu, Wang Yajun, Guo Shaofei, Cheng Hai, Tang Jitian, 
Xie Yanyi, Zhang Xingshui, Yang Huiwen, Tong Chaoping, Liu Guitao, Wen 
Haibo, Liu Wei, Zhang Lihui, Zhang Chengmao, Wei Liangyue, Sun Wenbing, 
Liu Shihui, and Wang Yonghang. See China's Human Rights Lawyers: 
Current Challenges and Prospects, CECC Roundtable, 10 July 09, Prepared 
Written Statement Submitted to the Commission by Bob (Xiqiu) Fu, 
President of ChinaAid; Chinese Human Rights Defenders (Online), 
``Chinese Human Rights Lawyers Face Oppression, Many Still Unable To 
Work'' [Zhongguo renquan lushi zao daya dadu reng buneng zhiye], 1 July 
09; Chinese Human Rights Defenders (Online), ``Licenses of 18 Rights 
Lawyers Still Not Renewed a Month After Deadline,'' 2 July 09; Chinese 
Human Rights Defenders (Online), ``China Human Rights Briefing August 
17-23, 2009,'' 26 August 09; Chinese Human Rights Defenders (Online), 
``Debarred Lawyer Tortured and Arrested in Northeastern China,'' 27 
August 09.
    \187\ Luo Jieqi, ``Controversy Over the Shutdown and Punishment of 
Beijing Yitong Law Firm'' [Beijing yitong lusuo tingye chuze zhengyi], 
Caijing (Online), 4 March 09; Peter Ford, ``China Cracks Down on Human 
Rights Lawyers,'' Christian Science Monitor (Online), 25 February 09; 
ChinaAid (Online), ``Yitong Law Firm Closed for Defending Human Rights 
Cases,'' 6 March 09.
    \188\ ``Numerous Lawyers Protest Chengdu Authorities Unlawful 
Handling of `Zhong Fangqiong' Case'' [Duoming lushi kangyi chengdu 
dangju weifa chuli `zhong fangqiong' an], Radio Free Asia (Online), 15 
January 09.
    \189\ Ibid.
    \190\ Legislative Affairs Office of the State Council (Online), 
Opinion on the Implementation of the `Autumn Wind Operation' To Strike 
Hard Against Crime, Formulated and Launched by the Harbin Municipal 
Bureau of Justice [Haerbin shi sifaju zhiding kaizhan daji xingshi 
fanzui ``qiufeng xingdong'' gongzuo de shishi yijian], issued 23 
October 08.
    \191\ ``Two Falun Gong Practitioners in Hubei Are Brought to 
Trial'' [Hubei liangming falun gong xueyuan beishen], Radio Free Asia 
(Online), 15 January 09.
    \192\ ``Trial Opens on Shenyang Falun Gong Case, Lawyers Allege 
Discrimination and Interference'' [Shenyang falun gong an kaiting lushi 
biaoshi shou qishi shou ganyu], Radio Free Asia, reprinted in Chinese 
Human Rights Defenders (Online), 10 February 09; ``Not Guilty--Rights 
Lawyers Defending Falun Gong,'' China Scope (Online), 1 July 09.
    \193\ ``Lawyers Stop Judicial Proceeding To Protest Qingdao Court's 
Unlawful Trial of Falun Gong Practitioners'' [Lushi bating kangyi 
qingdao fayuan weifa shenli falungong xueyuan], Radio Free Asia 
(Online), 10 March 09; ``Qingdao Tries Several Falun Gong 
Practitioners, Lu Xueqin Confesses Under Torture and Is Crippled'' 
[Qingdao jiang shenli duo ming falun gong xueyuan lu xueqin bei xingxun 
bigong zhican], Radio Free Asia (Online), 9 March 09; ``Three Cases of 
Persecution of Falun Gong Practitioners in Qingdao'' [San ming qingdao 
falun gong xueyuan bei pohai anli], Radio Free Asia (Online), 11 March 
09.
    \194\ ``More Chinese Lawyers Defy Pressure To Defend Falun Gong 
Practitioners'' [Zhongguo gengduo lushi buwei yali wei falun gong 
xueyuan bianhu], Radio Free Asia (Online), 4 November 08.
    \195\ Liaoyuan Intermediate People's Court (Online), ``Xi'an 
District Court Successfully Completes Investigation Involving Cult 
Case'' [Xi'an qu fayuan chenggong shenjie yiqi she xiejiao anjian], 10 
February 09.
    \196\ The directive also authorizes the 6-10 Office to gather 
personal information about attorneys and law firms that accept Falun 
Gong cases. ``Prevention and Control Requirements for Responding to 
Changes and Trends Regarding the Enemy's Situation'' [Guanyu yingdui 
diqing dongxiang de fangkong yaoqiu], Boxun (Online), 10 February 09; 
``Not Guilty--Rights Lawyers Defending Falun Gong,'' China Scope 
(Online), 1 July 09.
    \197\ See China's Religious Communities--Islam--Islam in the 
Xinjiang Uyghur Autonomous Region in this section for details. For a 
detailed report based on an investigation in 2007 of Muslim communities 
in southeastern China, including information on government oversight of 
sermons, religious leaders, and establishment of mosques, see ``Scan of 
Islamic Work in Southeastern Coastal Areas'' [Dongnan yanhai diqu 
yisilanjiao gongzuo saomiao], Chinese Religions (Online), 25 June 09.
    \198\ ``Islamic Association of China Holds Magnificent Qurban 
Reception'' [Zhongguo yisilanjiao xiehui juxing shengda gu'erbangjie 
zhaodaihui], Chinese Religions (Online), 9 December 08.
    \199\ CECC, 2006 Annual Report, 20 September 06, 89.
    \200\ ``Islamic Association of China Proposes Launching 
`Establishing Harmonious Mosques' Activity'' [Zhongguo yixie changyi 
kaizhan ``chuangjian hexie qingzhensi'' huodong], Chinese Religions 
(Online), 8 June 09.
    \201\ Qinghai People's Government Counselor's Office (Online), 
``Some Suggestions on Appropriately Dealing With the Present Problem of 
Islamic Sects'' [Guanyu tuoshan chuli dangqian yisilan jiaopai wenti de 
jidian jianyi], 19 January 09. The Regulation on Religious Affairs 
mandates the establishment of democratic management committees within 
registered venues for religious activities. Regulation on Religious 
Affairs [Zongjiao shiwu tiaoli], issued 30 November 04, effective 1 
March 05, art. 17.
    \202\ See, e.g., ``Haidian District Strengthens Ahung Training'' 
[Haidian qu jiaqiang ahong duiwu peixun], China Ethnicities News 
(Online), 24 April 09; Guazhou County (Gansu) Government (Online), 
``Guazhou County Holds County-Wide Islamic Personnel Training Class'' 
[Guazhou xian juban quan xian yisilanjiao jiaozhi renyuan peixun ban], 
23 October 08. See also China's Religious Communities--Islam--Islam in 
the Xinjiang Uyghur Autonomous Region in this section for more 
information on political training.
    \203\ See, e.g., ``Haidian District Strengthens Ahung Training'' 
[Haidian qu jiaqiang ahong duiwu peixun], China Ethnicities News 
(Online), 24 April 09.
    \204\ See, e.g., ``Xinjiang Party Chief Slashes Riot Which Kills 
140,'' Xinhua (Online), 7 July 09; ``Police Have Evidence of World 
Uyghur Congress Masterminding Xinjiang Riot,'' Xinhua (Online), 7 July 
09; Ministry of Foreign Affairs (Online), ``Foreign Ministry 
Spokesperson Qin Gang's Regular Press Conference on July 14, 2009,'' 14 
July 09.
    \205\ See, e.g., ``Chen Guangyuan: 7.5 Incident Violates Spirit of 
Islam'' [Chen guangyuan: ``7-5'' shijian weibei yisilanjiao jingshen], 
Chinese Religions (Online), 8 July 09; ``Personages From Jilin Province 
Islamic Circles Hold Forum on Vehemently Condemning `7-5' Serious 
Violent Criminal Incident of Beating, Smashing, Looting, and Burning'' 
[Jilin sheng yisilanjiao jie renshi juxing zuotan qianglie qianze ``7-
5'' da za qiang shao yanzhong baoli fanzui shijian], China Ethnicities 
News (Online), 16 July 09.
    \206\ For an overview of regulations governing pilgrimage 
activities, see CECC, 2007 Annual Report, 10 October 2007, 99.
    \207\ State Ethnic Affairs Commission (Online), ``Hajis Return, 
Discuss Haj'' [Haji guilai hua chaojin], 6 January 09.
    \208\ A 1996 policy document from the Central Committee of the 
Communist Party identifies ethnic separatism and ``illegal religious 
activities'' as the ``main dangers to Xinjiang's stability.'' The 
document is cited in ``Nur Bekri's Speech at Autonomous Region Cadre 
Plenary Session'' [Nu'er baikeli zai zizhiqu ganbu dahui shang de 
jianghua], Tianshan Net (Online), 11 September 08, also available in 
translation by the Open Source Center, 29 September 08. ``Religious 
extremism'' (also described as ``extremism'') forms one of the ``three 
forces,'' along with terrorism and separatism, that Xinjiang Uyghur 
Autonomous Region authorities also identify as threats to the region's 
stability. For information on the ``three forces'' and use of the term 
to mean religious extremism, see, e.g., Kalpin (Keping) County 
Government (Online), ``Question and Answer on Reeducation in Battle 
Against Separatism and Uncovering, Condemning Terrorist Criminal 
Activities'' [Fan fenlie douzheng zaijiaoyu, jie pi baoli kongbu 
zuixing huodong zhishi wenda], 11 November 08 (cached page); Human 
Rights Watch and Human Rights in China (Online), ``Devastating Blows: 
Religious Repression of Uighurs in Xinjiang,'' April 2005, 69 
(pagination follows ``text-only'' pdf download of this report) 
(describing the ``three forces'' to include religious extremism); 
``Establishing a Harmonious Society Cannot Do Without an Environment of 
Good Social Order'' [Goujian hexie shehui libukai lianghao de shehui 
zhian huanjing], Xinjiang Daily, reprinted in Tianshan Net (Online), 13 
January 06 (discussing religious extremism in the context of the 
``three forces'').
    \209\ See examples within as well as a document defining ``23 types 
of illegal religious activities,'' such as ``letting students pray,'' 
conducting certain religious practices pertaining to marriage and 
divorce, holding private religious instruction classes, ``distorting 
religious doctrine,'' ``fabricating history,'' ``inciting religious 
fanaticism'' and advocating ``Pan-Islamism'' and ``Pan-Turkism.'' See, 
e.g., ``Autonomous Region Definitions Concerning 23 Kinds of Illegal 
Religious Activity'' [Zizhiqu guanyu 23 zhong feifa zongjiao huodong de 
jieding], 25 February 08, numbers 3, 4, 5, 20. For information on human 
rights standards, see, e.g., Universal Declaration of Human Rights, 
adopted and proclaimed by General Assembly resolution 217A (III) of 10 
December 48, art. 18; International Covenant on Civil and Political 
Rights (ICCPR), adopted by General Assembly resolution 2200A (XXI) of 
16 December 66, entry into force 23 March 76, art. 18; International 
Covenant on Economic, Social and Cultural Rights adopted by General 
Assembly resolution 2200A (XXI) of 16 December 66, entry into force 3 
January 76, art. 13(3) (requiring States Parties to ``ensure the 
religious and moral education of . . . children in conformity with [the 
parents'] own convictions''); Convention on the Rights of the Child, 
adopted and opened for signature, ratification, and accession by 
General Assembly resolution 44/25 of 20 November 89, entry into force 2 
September 90, art. 14; Declaration on the Elimination of All Forms of 
Intolerance and of Discrimination Based on Religion or Belief, 
proclaimed by General Assembly resolution 36/55 of 25 November 81. See 
General Comment No. 22 to Article 18 of the ICCPR for an official 
interpretation of freedom of religion as articulated in the ICCPR. 
General Comment No. 22: The Right to Freedom of Thought, Conscience, 
and Religion (art. 18), 30 July 93, para. 1.
    \210\ ``Nur Bekri's Speech at Autonomous Region Cadre Plenary 
Session'' [Nu'er baikeli zai zizhiqu ganbu dahui shang de jianghua], 
Tianshan Net (Online), 11 September 08, also available in translation 
by the Open Source Center, 29 September 08.
    \211\ Ibid.
    \212\ Ibid.
    \213\ ``Xinjiang Representatives, While Answering Questions Posed 
by Chinese and Foreign Media Correspondents, Indicate Firm Confidence 
in Responding to the Challenge of Battling To Accelerate Development 
and Safeguard Stability'' [Xinjiang daibiao huida zhongwai meiti jizhe 
tiwen shi biaoshi jianding xinxin yingdui tiaozhan jiakuai fazhan weihu 
wending], Tianshan Net (Online), 7 March 09. See an English-language 
description of Nur Bekri's remarks in ``Chinese Official Warns of `More 
Severe' Security Situation in Xinjiang,'' Xinhua (Online), 6 March 09.
    \214\ Official measures have targeted such things as the observance 
of Muslim holidays, religious pilgrimages, Islamic texts, and the 
wearing of head coverings. See examples within.
    \215\ See, e.g., ``Xinjiang Authorities Continue Security Measures, 
Propaganda Campaigns,'' CECC China Human Rights and Rule of Law Update, 
December 2008, 2; ``Xinjiang Authorities Announce Heightened Security 
Threat, Strengthen Security Capacity and Continue Propaganda 
Campaigns,'' CECC China Human Rights and Rule of Law Update, No. 3, 
2009, 4.
    \216\ ``Shawket Imin Calls on Grassroots United Front Cadres To 
Contribute to Stability and Development'' [Xiaokaiti yiming yaoqiu 
jiceng tongzhan ganbu wei wending fazhan zuo gongxian], Xinjiang Daily 
(Online), 17 October 08.
    \217\ ``Hoten District Carries Out in Deep Way Special 
Rectification Work on Illegal Religious Activities'' [Hetian diqu 
shenru kaizhan feifa zongjiao huodong zhuanxiang zhili gongzuo], Hoten 
Peace Net (Online), 27 February 09.
    \218\ ``Yeken County United Front and Ethnic and Religious Affairs 
Departments Launch Forum for Chinese People's Political Consultative 
Conference Members, People's Congress Representatives From Religious 
Circles'' [Shache xian tongzhan min zong bumen zhaokai zongjiaojie 
renda daibiao, zhengxie weiyuan zuotanhui], Xinjiang Peace Net 
(Online), 24 February 09.
    \219\ ``Ghulja City Launches Propaganda Education Activities on 
`Weakening Religious Consciousness, Upholding a Civilized and Healthy 
Life' '' [Yining shi kaizhan ``danhua zongjiao yishi, chongshang 
wenming jiankang shenghuo'' xuanchuan jiaoyu huodong], Fazhi Xinjiang 
(Online), 18 March 09.
    \220\ ``Awat County Intelligence Information Network Platform Gets 
Initial Results'' [Awati xian qingbao xinxi wangluo pingtai chu xian 
chengxiao], Xinjiang Peace Net (Online), 17 March 09.
    \221\ ``Uyghurs Targeted Over Prayers,'' Radio Free Asia (Online), 
2 April 09.
    \222\ Uyghur American Association (Online), ``Security Forces Clamp 
Down in Kashgar and Hotan on the Eve of Sensitive Anniversary,'' 8 
April 09.
    \223\ ``Uyghur Men Sentenced,'' Radio Free Asia (Online), 5 June 
09; ``China Harshly Punishes 12 Uyghurs in Ghulja Arrested During 
Olympics'' [Xitay olimpik mezgilide ghuljida tutulghan 12 neper 
uyghurni qattiq jazalidi], Radio Free Asia (Online), 2 June 09.
    \224\ Ibid.
    \225\ The report from Awat county, Aqsu district, discussed above, 
which referred to investigating cases of ``illegal religious 
activity,'' also described two ``masked'' (mengmian) individuals in a 
possible reference to women who wear full head coverings. ``Awat County 
Intelligence Information Network Platform Gets Initial Results'' [Awati 
xian qingbao xinxi wangluo pingtai chu xian chengxiao], Xinjiang Peace 
Net (Online), 17 March 09. The same term (mengmian) was used in a 2007 
report describing government success in getting 49 women who covered 
their faces (mengmian funu) to remove their veils. Yeken County 
Government (Online), ``Yingwusitang Township Strengthens Management of 
Religious Affairs, 49 Women With Covered Faces Take Initiative To 
Remove Veils'' [Yingwusitang xiang jiaqiang zongjiao shiwu guanli 49 
ming mengmian funu zhudong jiediao miansha], 10 August 07. According to 
the Xinjiang government-designated 23 kinds of ``illegal religious 
activities,'' wearing a veil is not illegal but ``compelling'' women to 
veil is illegal. ``Autonomous Region Definitions Concerning 23 Kinds of 
Illegal Religious Activity'' [Zizhiqu guanyu 23 zhong feifa zongjiao 
huodong de jieding], 25 February 08, number 2.
    \226\ Zhang Jijun, ``Toqsu County's Grasp of Stability Work Has 
Bright Spots'' [Xinhe xian zhua wending gongzuo you liang dian], 
Xinjiang Peace Net (Online), 7 April 09.
    \227\ Xinjiang Uyghur Autonomous Region People's Political 
Consultative Conference (Online), ``Xinjiang Uyghur Autonomous Region 
10th People's Consultative Conference, 2nd Meeting, Proposal Number 
927'' [Xinjiang weiwuer zizhiqu zhengxie shijie erci huiyi ti'an di 927 
hao], 23 December 08. See also analysis in ``Xinjiang Authorities 
Train, Seek To Regulate Muslim Women Religious Figures,'' CECC China 
Human Rights and Rule of Law Update, No. 4, 2009, 2.
    \228\ Peyziwat (Jiashi) County Government (Online), ``5th Issue 
`Trends News Flash' '' [``Dongtai xinxi kuaibao'' di wu qi], 24 April 
09; Bayangol Mongol Autonomous Prefecture Government (Online), 
``Autonomous Prefecture Soundly Launches Third Round of Patriotic 
Religious Figure Training'' [Zizhizhou zhashi kaizhan di san lun aiguo 
zongjiao renshi peixun], 4 June 09. See also analysis in ``Xinjiang 
Authorities Train, Seek To Regulate Muslim Women Religious Figures,'' 
CECC China Human Rights and Rule of Law Update, No. 4, 2009, 2.
    \229\ See, e.g., Bureau of Democracy, Human Rights, and Labor, U.S. 
Department of State, Country Report on Human Rights Practices--2008, 
China (includes Tibet, Hong Kong, and Macau), 25 February 09 and 
citations that follow.
    \230\ ``Qorghas County Uses 3 Measures To Improve Education Work 
for Participants in Organized Pilgrimages'' [Huocheng xian san xiang 
cuoshi zuohao you zuzhi chaojin renyuan de jiaoyu gongzuo], Ili Peace 
Net (Online), 11 November 08.
    \231\ ``Onsu County Strengthens Management of Tracking Returnees 
From Haj'' [Wensu xian jiaqiang dui chaojin huiguo renyuan de genzong 
guanli], Xinjiang Kunlun Net (Online), 30 March 09.
    \232\ Bureau of Democracy, Human Rights, and Labor, U.S. Department 
of State, Country Report on Human Rights Practices--2008, China 
(includes Tibet, Hong Kong, and Macau), 25 February 09. Radio Free Asia 
cited sources reporting that some Uyghurs are unable to participate in 
official pilgrimages due to political screening and corruption in the 
application process. ``Uyghurs Encountering Obstacles to All Routes To 
Go on Haj'' [Uyghurlarning hejge berishtiki barliq yolliri tosalghugha 
uchrimaqta], Radio Free Asia (Online), 6 May 09.
    \233\ CECC, 2008 Annual Report, 31 October 08, 81; ``Local 
Governments in Xinjiang Continue Religious Repression During Ramadan,'' 
Congressional-Executive Commission on China (Online), 15 January 08.
    \234\ Uyghur American Association (Online), ``Uyghur American 
Association Calls on Chinese Authorities To Guarantee the Safety of All 
People in East Turkestan in the Wake of New Unrest,'' 3 September 09. 
Amid blocked Web sites following the July 5 demonstration in Urumqi, 
the Commission was unable to find reports from XUAR local government 
Web sites, as found in previous years, on specific continued controls 
during Ramadan in 2009, though such controls would be consistent with 
ongoing campaigns throughout the year to curb ``illegal religious 
activities'' (such as children's participation in religious activities) 
and weaken aspects of religious practice and observance. In addition, a 
document issued in 2008 enumerating ``illegal religious activities'' in 
the region includes among prohibited activities letting students fast 
for Ramadan. ``Autonomous Region Definitions Concerning 23 Kinds of 
Illegal Religious Activity'' [Zizhiqu guanyu 23 zhong feifa zongjiao 
huodong de jieding], 25 February 08, number 5.
    For official media reports describing basic information on the 
holiday's commencement in the XUAR, see, e.g., ``Urumqi Welcomes First 
Day of Ramadan Amid Tranquility'' [Wulumuqi zai pingjing zhong yinglai 
zhaiyue di yi tian], Xinhua, reprinted in United Front Work Department 
(Online), 21 August 09; ``Happiness, Unity, and Mutual Aid--Information 
on Ramadan for Urumqi's Muslim Households'' [Xingfu, tuanjie, huzhu--
wulumuqi musilin jiating zhaijie jianwen], Xinhua, reprinted in United 
Front Work Department (Online), 22 August 09.
    \235\ ``Latest Uygur Rumors `Untrue': Official,'' Global Times 
(Online), 28 August 09.
    \236\ ``Nur Bekri's Speech at Autonomous Region Cadre Plenary 
Session'' [Nu'er baikeli zai zizhiqu ganbu dahui shang de jianghua], 
Tianshan Net (Online), 11 September 08, also available in translation 
by the Open Source Center, 29 September 08.
    \237\ ``Our Region Launches 3rd Round of Patriotic Religious 
Personnel Training'' [Wo qu qidong di san lun aiguo zongjiao renshi 
peixun gongzuo], Xinjiang Daily (Online), 26 February 09.
    \238\ Ibid.
    \239\ ``Nur Bekri's Speech at Autonomous Region Cadre Plenary 
Session'' [Nu'er baikeli zai zizhiqu ganbu dahui shang de jianghua], 
Tianshan Net (Online), 11 September 08, also available in translation 
by the Open Source Center, 29 September 08. For remarks from XUAR Party 
chairperson Wang Lequan stressing the importance of oversight and 
training of ``patriotic religious personages,'' see, e.g., United Front 
Work Department (Online), ``Xinjiang Autonomous Region Communist Party 
Committee Secretary Puts Forth Demands for Improving Religious Work in 
Xinjiang'' [Xinjiang zizhiqu dangwei shuji dui zuohao xinjiang zongjiao 
gongzuo tiqu yaoqiu], 18 September 08.
    \240\ ``Yeken County United Front and Ethnic and Religious Affairs 
Departments Launch Forum for Chinese People's Political Consultative 
Conference Members, People's Congress Representatives From Religious 
Circles'' [Shache xian tongzhan min zong bumen zhaokai zongjiaojie 
renda daibiao, zhengxie weiyuan zuotanhui], Xinjiang Peace Net 
(Online), 24 February 09. For another example of local-level political 
training for religious personnel, see ``Jing County Holds First Period 
of 2009 Training for Religious Personages'' [Jinghe xian juban 2009 
nian di yi qi zongjiao renshi peixun ban], Xinjiang Peace Net (Online), 
12 January 09.
    \241\ Mireguli Wu, ``Bring Into Play Bridge Function, Uphold Social 
Stability'' [Fahui qiaoliang zuoyong weihu shehui wending], Xinjiang 
Daily, 18 July 09 (Open Source Center, 9 August 09).
    \242\ While ``Sweep Away Pornography and Strike Down Illegal 
Publications'' campaigns targeting a range of materials exist 
throughout China, authorities in the Xinjiang Uyghur Autonomous Region 
target religious and political materials also as part of broader 
controls in the region over Islamic practice, over other expressions of 
ethnic identity, especially among the Uyghur population, and over 
expressions of political dissent. ``Xinjiang Government Strengthens 
Campaign Against Political and Religious Publications,'' CECC China 
Human Rights and Rule of Law Update, February 2008, 4. For general 
information on developments in late 2008 and 2009, see ``Xinjiang 
Authorities Block, Punish Free Expression,'' CECC China Human Rights 
and Rule of Law Update, No. 3, 2009, 3.
    \243\ Jerenbulaq District, Qaramay Municipal Government (Online), 
``Situation About Examination and Confiscation of Illegal Religious 
Books Like `The Truth About the Holy Teachings' '' [``Shengjiao 
zhenxiang'' deng zongjiao lei feifa shuji cha jiao qingkuang], 29 
February 09.
    \244\ Urumqi Municipal Government (Online), ``Urumqi Launches 
Supervision and Investigation Regarding Safety in Production in 
Cultural Market and `Sweep Away Pornography and Illegal Publications' 
in Publishing Market'' [Wulumuqi kaizhan wenhua shichang anquan 
shengchan ji chubanwu shichang ``saohuang dafei'' ducha], 10 February 
09; ``Hoten District Carries Out Investigation of Conditions Concerning 
Development of Special Rectification Work on Illegal Religious 
Activities'' [Hetian diqu dui feifa zongjiao huodong zhuanxiang zhili 
gongzuo kaizhan qingkuang jinxing ducha], Xinjiang Peace Net (Online), 
4 March 09.
    \245\ ``Our Region To `Enlarge Establishment' of Combined Law 
Enforcement Ranks'' [Wo qu jiang ``kuobian'' wenhua shichang zonghe 
zhifa duiwu], Xinjiang Daily (Online), 2 March 09.
    \246\ See, e.g., ``Qizilsu Prefecture Gives Greetings to Religious 
Personages During Spring Festival'' [Ke zhou chunjie qijian dui aiguo 
zongjiao renshi jinxing weiwen], Xinjiang Peace Net (Online), 2 
February 09; ``Yeken County United Front and Ethnic and Religious 
Affairs Departments Launch Forum for Chinese People's Political 
Consultative Conference Members, People's Congress Representatives From 
Religious Circles'' [Shache xian tongzhan min zong bumen zhaokai 
zongjiaojie renda daibiao, zhengxie weiyuan zuotanhui], Xinjiang Peace 
Net (Online), 24 February 09.
    \247\ Zhu Ketong, ``Regulation on Protection of Minors Submitted 
for Deliberation, School Punishment To Be Removed From Record'' 
[Xinjiang weichengnianren baohu tiaoli tijiao renda shenyi xiao chufen 
jiang chechu dang'an], Urumqi Online (Online), 1 June 09; ``Xinjiang: 
Legislation Strengthens Protection for Minors, Intensifies Household 
Duty To Protect'' [Xinjiang: lifa jiaqiang dui weichengnianren baohu 
qianghua jiating baohu zeren], Legal Daily, reprinted in Ministry of 
Commerce (Online), 8 June 09. The Xinjiang government is also 
reportedly revising its regulation on the management of religious 
affairs. ``Xinjiang Plans To Draft Two Regulations on Ethnic Unity 
Education and Anti-Separatism Battle'' [Xinjiang ni zhiding minzu 
tuanjie jiaoyu he fan fenlie douzheng liang fagui], People's Daily, 
reprinted in China Ethnicities News (Online), 25 July 09.
    \248\ Legal measures from the region, unseen elsewhere in China, 
forbid parents and guardians from allowing minors to engage in 
religious activity. Xinjiang Uyghur Autonomous Region Implementing 
Measures for the Law on the Protection of Minors [Xinjiang weiwuer 
zizhiqu shishi ``weichengnianren baohufa'' banfa], issued 25 September 
93, effective 25 September 93, art. 14. No other provincial or national 
regulation on minors or on religion contains this precise provision. 
Human Rights Watch and Human Rights in China (Online), ``Devastating 
Blows: Religious Repression of Uighurs in Xinjiang,'' April 2005, 58 
(pagination follows ``text-only'' pdf download of this report). See 
also ``Draft Regulation in Xinjiang Could Strengthen Legal Prohibitions 
Over Children's Freedom of Religion,'' CECC China Human Rights and Rule 
of Law Update, No. 4, 2009, 3.
    \249\ Zhu Ketong, ``Regulation on Protection of Minors Submitted 
for Deliberation, School Punishment To Be Removed From Record'' 
[Xinjiang weichengnianren baohu tiaoli tijiao renda shenyi xiao chufen 
jiang chechu dang'an], Urumqi Online (Online), 1 June 09; ``Xinjiang: 
Legislation Strengthens Protection for Minors, Intensifies Household 
Duty To Protect'' [Xinjiang: lifa jiaqiang dui weichengnianren baohu 
qianghua jiating baohu zeren], Legal Daily, reprinted in Ministry of 
Commerce (Online), 8 June 09.
    \250\ ``Hoten District Carries Out in Deep Way Special 
Rectification Work on Illegal Religious Activities'' [Hetian diqu 
shenru kaizhan feifa zongjiao huodong zhuanxiang zhili gongzuo], Hoten 
Peace Net (Online), 27 February 09.
    \251\ ``Ghulja City Launches Propaganda Education Activities on 
`Weakening Religious Consciousness, Upholding a Civilized and Healthy 
Life' '' [Yining shi kaizhan ``danhua zongjiao yishi, chongshang 
wenming jiankang shenghuo'' xuanchuan jiaoyu huodong], Fazhi Xinjiang 
(Online), 18 March 09.
    \252\ ``Maralbeshi County Sanchakou Township Elementary Schools 
Carry Out in Deep-Going Way Education Activities on the `Three Upholds, 
Two Opposes' '' [Bachu xian sanchakou zhen xiaoxue shenru kaizhan 
``sanwei liangfan'' jiaoyu huodong], Xinjiang Peace Net (Online), 11 
November 08.
    \253\ In Chinese, the Three-Self Patriotic Movement and the China 
Christian Council are commonly referred to as the lianghui (two 
organizations), which reflects the fact that the top leadership and 
general functions of the two often overlap.
    \254\ Daniel H. Bays, ``Chinese Protestant Christianity Today,'' 
174 China Quarterly 488, 492 (2003); Maria Hsia Chang, Falun Gong: The 
End of Days (New Haven: Yale University Press, 2004), 141.
    \255\ The term in Chinese is ``shenxue sixiang jianshe.''
    \256\ Cao Shengjie, ``Run the Church Well According to the Three-
Self Principle, Play an Active Role in Building a Harmonious Society: 
Work Report of the Seventh NCCC,'' 21 Chinese Theological Review 5, 22-
23 (2008).
    \257\ State Administration for Religious Affairs (Online), 
``Chinese Protestant Church Launches 10th-Year Summary Report on 
Theological Construction'' [Zhongguo jidujiao kaizhan shenxue sixiang 
jianshe shinian zongjie baogao], 19 November 08.
    \258\ Party School of the Chinese Communist Party Committee of the 
Xinjiang Uyghur Autonomous Region (Online), ``The History of 
Protestantism and the History of Chinese Protestantism'' [Jidujiao 
lishi ji zhongguo jidujiao de lishi], 29 April 09.
    \259\ Wang Zuo'an, ``What Kind of Christianity Do We Hope For? 
Address at the Conference on the `Missionary Movement and the Chinese 
Church,' '' 21 Chinese Theological Review 94, 97 (2008).
    \260\ Anping Xiao, ``Theological Change and the Adaptation of 
Christianity to Socialist Society,'' 16 Chinese Theological Review 10, 
12 (2001); K.H. Ting, ``Adjustments in Theology Are Necessary and 
Unavoidable,'' 17 Chinese Theological Review 118, 121 (2003).
    \261\ Guangdong Provincial Ethnic and Religious Affairs Commission 
(Online), ``Speech at the 50th Anniversary Celebration of the 
Establishment of the Protestant Three-Self Patriotic Movement of 
Guangdong Province'' [Zai guangdongsheng jidujiao sanzi aiguohui 
chengli 50 zhounian qingzhu dahui shang de jianghua], 5 September 08.
    \262\ Wang Zuo'an, ``What Kind of Christianity Do We Hope For? 
Address at the Conference on the `Missionary Movement and the Chinese 
Church,' '' 21 Chinese Theological Review 94, 97 (2008).
    \263\ Yang Donglong, ``Theological and Cultural Reflections on the 
Relationship Between Church and Society in China,'' 17 Chinese 
Theological Review 64, 72 (2003).
    \264\ Cao Shengjie, ``Run the Church Well According to the Three-
Self Principle, Play an Active Role in Building a Harmonious Society: 
Work Report of the Seventh NCCC,'' 21 Chinese Theological Review 5, 26 
(2008).
    \265\ State Administration for Religious Affairs (Online), 
``Chinese Protestant Church 10th-Year Anniversary Meeting on 
Theological Construction Convenes With Grandeur in Nanjing'' [Zhongguo 
jidujiao shenxue sixiang jianshe shi zhounian jinian dahui longzhong 
zhaokai], 19 November 08.
    \266\ ``Bishop K.H. Ting's Message at the Tenth Anniversary 
Meeting,'' Amity News Service (Online), 11 November 08.
    \267\ State Administration for Religious Affairs (Online), ``Vice 
Director Wang Zuo'an's Speech at the Chinese Protestant Church 10th 
Anniversary Meeting on Theological Construction'' [Wang zuo'an 
fujuzhang zai zhongguo jidujiao shenxue sixiang jianshe shi zhounian 
jinian dahui shang de jianghua], 19 November 08.
    \268\ Ibid. Wang attributes ``contradictions and problems'' in the 
development of Christianity in China to the ``fetters of obsolete 
theology.''
    \269\ State Administration for Religious Affairs (Online), 
``Chinese Protestant Church Launches 10th-Year Summary Report on 
Theological Construction'' [Zhongguo jidujiao kaizhan shenxue sixiang 
jianshe shinian zongjie baogao], 19 November 08.
    \270\ CECC, 2006 Annual Report, 20 September 06, 93; Li Weizhen, 
``On Justification by Faith,'' 18 Chinese Theological Review 101-107 
(2004); Ouyang Wenfeng, ``De-Emphasizing Justification by Faith: 
Theological Reflections,'' 18 Chinese Theological Review 128-132 
(2004); Wang Guanghui, ``De-Emphasis on Justification by Faith: An 
Instance of Theological Adaptation,'' 18 Chinese Theological Review 
113-121 (2004).
    \271\ K.H. Ting, ``Theology and Context: Speech on the 50th 
Anniversary of the Three-Self Patriotic Movement of the Protestant 
Churches in China,'' 17 Chinese Theological Review 123, 125 (2003).
    \272\ State Administration for Religious Affairs (Online), 
``Chinese Protestant Church Launches 10th-Year Summary Report on 
Theological Construction'' [Zhongguo jidujiao kaizhan shenxue sixiang 
jianshe shinian zongjie baogao], 19 November 08.
    \273\ Cao Shengjie, ``Run the Church Well According to the Three-
Self Principle, Play an Active Role in Building a Harmonious Society: 
Work Report of the Seventh NCCC,'' 21 Chinese Theological Review 5, 30 
(2008).
    \274\ The seminary's board of directors repeated this refrain in an 
April meeting and committed to serve as a ``base'' for theological 
reconstruction. ``Yang Xiaodu, Head of Shanghai Municipal Party 
Committee's United Front Department, Inspects East China Seminary'' 
[Shanghai shiwei tongzhanbu yang xiaodu buzhang shicha huadong 
shenxueyuan], Chinese Protestant Church (Online), 17 April 09; ``The 
23rd Board of Directors Meeting for the East China Seminary Opens in 
Shanghai'' [Huadong shenxueyuan di 23 ci dongshihui zai hu zhaokai], 
Chinese Protestant Church (Online), 7 April 09.
    \275\ Li Kun, ``Linfen Acts To Strengthen Training of Religious 
Personnel'' [Linfen zhuoli jiaqiang zongjiaojie renshi peiyang], China 
Ethnicity and Religion Net (Online), 17 April 09.
    \276\ Measures for Recognizing Chinese Protestant Religious 
Personnel [Zhongguo jidujiao jiaozhi renyuan rending banfa], art. 3, 
reprinted in Chinese Protestant Church (Online), 9 September 08.
    \277\ Wuxi Municipality Huishan District Electronic Documents 
Center (Online), ``Huishan District 2008 Ethnic and Religious Affairs 
Work Summary and 2009 Work Plan'' [2008 nian huishan qu minzu zongjiao 
gongzuo zongjie ji 2009 nian gongzuo jihua], 24 December 08.
    \278\ Cao Shengjie, ``Run the Church Well According to the Three-
Self Principle, Play an Active Role in Building a Harmonious Society: 
Work Report of the Seventh NCCC,'' 21 Chinese Theological Review 5, 9-
10 (2008).
    \279\ Ibid., 8, 28.
    \280\ Ibid., 8.
    \281\ Ibid., 10.
    \282\ Shenyang Municipal Commission for Ethnic and Religious 
Affairs (Online), ``Shenyang City Three-Self Patriotic Movement and 
China Christian Council Convene Discussion Forum on Theology'' 
[Shenyang shi jidujiao ``lianghui'' zhaokai shenxue sixiang yantaohui], 
29 April 09.
    \283\ Regulations Governing the Religious Activities of Foreign 
Nationals Within China [Zhonghua renmin gongheguo guojing nei waiguoren 
zongjiao huodong guanli guiding], effective 31 January 94, art. 8; 
Regulation on Religious Affairs [Zongjiao shiwu tiaoli], issued 7 July 
04, effective 1 March 05, art. 12; Fenggang Yang, ``The Red, Black, and 
Gray Markets of Religion in China,'' 47 Sociological Quarterly 93, 105 
(2006).
    \284\ Fenggang Yang, ``Lost in the Market, Saved at McDonald's: 
Conversion to Christianity in Urban China,'' 44 Journal for the 
Scientific Study of Religion 423, 430 (2005).
    \285\ Police initially detained them on December 3 at a house 
church gathering along with 20 others who were each ordered to serve 15 
days of administrative detention. Authorities accused the detainees of 
belonging to the ``Shouters'' (Local Church), a group deemed a ``cult'' 
by the central government, but international observers indicate that 
they were members of a house church movement called the China Gospel 
Fellowship. The spouse of one of the three church leaders held in 
reeducation through labor has pursued legal action, including filing an 
administrative lawsuit. ChinaAid (Online), ``Three Christians Sentenced 
to One Year of Re-education Through Labor in Zhoukou, Henan,'' 6 
January 09; ChinaAid (Online), ``Unprecendented Motion Filed by Chinese 
House Church Leader To Dismiss Chief Justice for Non-Action,'' 26 
January 09; ChinaAid (Online), ``Motion To Dismiss the Chief Justice of 
Chuanhui District People's Court of Zhoukou Municipality,'' 26 January 
09; ``Beijing Does Not Recognize Domestic Churches, and Persecutes 
Them,'' AsiaNews (Online), 16 January 09.
    \286\ Xinyang Municipal Party Committee (Online), ``Luoshanzi Road 
Police Station and State Security Join Forces To Destroy an Illegal 
Religious Site'' [Luoshanzi lu paichusuo yu guobao dadui lianshou 
cuihui yichu feifa zongjiaodian], 10 April 09.
    \287\ ``Henan House Church Members and Foreign Pastor Assaulted 
While Meeting, Many Are Detained'' [Henan jiating jiaohui chengyuan yu 
waiguo mushi juhui bei chongji, duoren bei juliu], Radio Free Asia 
(Online), 5 March 09; ``China: Christians Wary as Recession, Unrest 
Hit,'' Compass Direct (Online), 25 February 09; ChinaAid (Online), 
``More Than 60 House Church Leaders Arrested in Henan; 4 Still in 
Custody,'' 16 February 09.
    \288\ Daqing Municipal People's Congress (Online), Investigative 
Report Concerning Religious Affairs Management in Our City [Guanyu 
woshi zongjiao shiwu guanli qingkuang de diaocha baogao], 28 August 08, 
sec. 2, pt. 4.
    \289\ In a 2003 interview, Ye Xiaowen, State Administration for 
Religious Affairs Director, summed up the government's attitude toward 
contact between Chinese Protestants and foreign co-religionists: 
``Christianity that is patriotic is good. Christianity that is foreign-
controlled is harmful.'' David Aikman, Jesus in Beijing: How 
Christianity Is Transforming China and Changing the Global Balance of 
Power (Washington, DC: Regnery Publishing, 2003), 176. For more recent 
examples, see ``Speech by Zhou Ning, Director of the 2nd Bureau of the 
United Front Work Department, at the 10th Anniversary Meeting of 
Protestant Theological Construction'' [Zai jidujiao shenxue sixiang 
jianshe shinian zhou jinian dahui shang de jianghua, zhongyang tongzhan 
bu erju zhou ning juzhang jianghua], Chinese Protestant Church 
(Online), 20 November 08; Li Kun, ``Linfen Acts To Strengthen Training 
of Religious Personnel'' [Linfen zhuoli jiaqiang zongjiaojie renshi 
peiyang], China Ethnicity and Religion Net (Online), 17 April 09; 
Fuzhou City People's Government (Online), Report Concerning 
Investigation and Research Into Our Area's Christian Activities [Guanyu 
wochang jidujiao huodong qingkuang de diaoyan baogao], 27 November 08; 
Ganzhou Municipality Committee of the Chinese People's Political 
Consultative Conference (Online), Inspection Report on Our City's 
Religious Affairs Work [Guanyu woshi zongjiao gongzuo qingkuang de 
shicha baogao], 5 January 09; Liu Peng, ``Religion as a Factor in Sino-
U.S. Relations,'' 6 Review of Faith & International Affairs, No. 2 
(Summer 2008), 61, 64.
    \290\ Rules for the Implementation of the Provisions on the 
Administration of Religious Activities of Aliens Within the Territory 
of the People's Republic of China, effective 26 September 00, arts. 6, 
17.
    \291\ ``China's Protestant Churches To Adhere to `Three-Self' 
Principles,'' People's Daily (Online), 22 September 00.
    \292\ Cao Shengjie, ``Run the Church Well According to the Three-
Self Principle, Play an Active Role in Building a Harmonious Society: 
Work Report of the Seventh NCCC,'' 21 Chinese Theological Review 5, 18-
19 (2008).
    \293\ Guangdong Provincial Ethnic and Religious Affairs Commission 
(Online), ``Speech at the 50th Anniversary Celebration of the 
Establishment of the Protestant Three-Self Patriotic Movement of 
Guangdong Province'' [Zai guangdongsheng jidujiao sanzi aiguohui 
chengli 50 zhounian qingzhu dahui shang de jianghua], 5 September 08.
    \294\ Haidian District United Front Work Department (Online), 
``Using Real Action To Repay Society: Beijing Haidian Church's Pastor 
Wu Weiqing'' [Yi shiji xingdong huibao shehui--ji beijing jidu jiaohui 
haidian jiaotang wu weiqing mushi], 17 May 08.
    \295\ Taishan District People's Government (Online), ``Taishan 
District Launches Implementation Plan for Establishing `Harmonious 
Places for Religious Activities' '' [Taishan qu kaizhan chuangjian 
`hexie zongjiao huodong changsuo' huodong shishi fang'an], 17 March 09; 
Chengdu Municipal People's Government (Online), ``2009 Main Work Tasks 
for Chengdu Bureau of Ethnic and Religious Affairs'' [Minzongju shi 
minzongju 2009 nian gongzuo yaodian], 5 May 09; Nanjing Municipal Party 
Committee (Online), ``Yuhuatai: Party District Committee United Front 
Department's `Five Things To Strengthen' Serves and Elevates the Level 
of Scientific Development'' [Yutaihua: quwei tongzhanbu `wuge qianghua' 
tisheng fuwuyu kexue fazhan de shuiping], 6 May 09; ``Speech by Zhou 
Ning, Director of the 2nd Bureau of the United Front Work Department, 
at the 10th Anniversary Meeting of Protestant Theological 
Construction'' [Zai jidujiao shenxue jianshe shinian zhou jinian dahui 
shang de jianghua, zhongyang tongzhan bu erju zhou ning juzhang 
jianghua], Chinese Protestant Church (Online), 20 November 08; ChinaAid 
(Online), ``Persecution Intensifies After Olympics,'' 29 October 08; 
ChinaAid (Online), ``Registered Church in Jiangsu Province Demolished, 
Christians Beaten,'' 22 December 08; ChinaAid (Online), ``More Than 60 
House Church Leaders Arrested in Henan; 4 Still in Custody,'' 16 
February 09.
    \296\ Yudu County People's Government (Online), ``Implementation 
Plan for Special Investigation and Study of Religion in Luo'ao 
Township'' [Luo'an zhen zongjiao gongzuo zhuanxiang diaoyan shishi 
fang'an], 14 November 08; Tancheng County Bureau of Ethnic and 
Religious Affairs (Online), ``City Ethnic and Religious Affairs Bureau 
Comes to Tancheng County for Investigation and Research on Conditions 
Regarding Unauthorized Protestant Meeting Sites'' [Shi minzongju lai 
tancheng xian diaoyan jidujiao sishe juhuidian qingkuang], 8 October 
08; Shicheng County People's Government (Online), ``Concerning the 
Printing and Distribution of the Circular Entitled `Implementation Plan 
for the Special Investigation and Study of Protestants in Pingshan 
Township' '' [Guanyu yinfa ``pingshan zhen jidujiao zhuanxiang diaoyan 
shishi fang'an'' de tongzhi], 10 November 08; Ganzhou Municipality 
Committee of the Chinese People's Political Consultative Conference 
(Online), Inspection Report on Our City's Religious Affairs Work 
[Guanyu woshi zongjiao gongzuo qingkuang de shicha baogao], 5 January 
09; Zhongwei Municipal Party Committee (Online), ``Municipal Ethnic and 
Religious Affairs Bureau: Launch Investigations To Identify Problems, 
Get Ideas Into Shape, and Increase Measures'' [Shiminzu zongjiaoju: 
kaizhan diaoyan zhaowenti, liqing silu zeng cuoshi], 22 April 09; 
Fuzhou City People's Government (Online), Report Concerning 
Investigation and Research Into Our Area's Christian Activities [Guanyu 
wochang jidujiao huodong qingkuang de diaoyan baogao], 27 November 08; 
Yanping District People's Government (Online), ``Yanping District 
Bureau of Ethnic and Religious Affairs 2008 Main Work Points'' [Yanping 
qu minzu yu zongjiao shiwu ju 2008 nian gongzuo yaodian], 29 November 
07.
    \297\ U.S. Commission for International Religious Freedom (Online), 
2009 Annual Report, 1 May 09, 82.
    \298\ Peter Ford, ``Pastor's Private Worship Puts Him Under Public 
Scrutiny,'' Christian Science Monitor (Online), 18 December 08; 
ChinaAid (Online), ``Pastor `Bike' Zhang Mingxuan Arrested; Police 
Confiscate More Than 150,000 Yuan,'' 7 April 09; ChinaAid (Online), 
``More Than a Dozen PSB Officers Force Pastor Bike Out of Beijing,'' 16 
January 09; ChinaAid (Online), ``PSB Pay Pastor Bike Zhang 
Compensation,'' 13 January 09; ChinaAid (Online), ``Pastor Bike 
Detained in Inner Mongolia, Then Released After International 
Pressure,'' 22 December 08; ChinaAid (Online), ``Pastor `Bike' Zhang 
Mingxuan Files Administrative Complaint on Behalf of Chinese House 
Church Alliance With Support of 15 Chinese Legal Professionals and 
Intellectuals; Court Declines Case,'' 9 December 08; ChinaAid (Online), 
``Pastor `Bike' Zhang Accused of Illegal Business Operations for Giving 
Away Prayer Bands,'' 24 December 08; ChinaAid (Online), ``Son of Pastor 
Bike Zhang in Critical Condition After Severe Beating From PSB 
Officials,'' 16 October 08; ChinaAid (Online), ``China Issued `Decision 
Statement on Abolishment' of Chinese House Church Alliance,'' 30 
November 08.
    \299\ ``Christians' Legal Appeals `Denied,' '' Radio Free Asia 
(Online), 13 January 09.
    \300\ ChinaAid (Online), ``Christian Mao Minzi Sentenced to Re-
education Through Labor,'' 17 December 08.
    \301\ Luo Jieqi, ``Controversy Over the Shutdown and Punishment of 
Beijing Yitong Law Firm'' [Beijing yitong lvsuo tingye chuze zhengyi], 
Caijing (Online), 4 March 09; Peter Ford, ``China Cracks Down on Human 
Rights Lawyers,'' Christian Science Monitor (Online), 25 February 09; 
ChinaAid (Online), ``Yitong Law Firm Closed for Defending Human Rights 
Cases,'' 6 March 09.
    \302\ Human Rights in China (Online), ``Case Update: Elderly 
Activist Shuang Shuying Released; Reports Abuses in Prison,'' 13 
February 09; ChinaAid (Online), ``Shuang Shuying, 79, Released From 
Prison; Her Open Letter Reveals Torture,'' 8 February 09; Ethan Cole, 
``Christian Chinese Couple Pleads for Final Meeting,'' Christian Post 
(Online), 29 January 09; ``78 Year-Old Beijing Petitioner Shuang 
Shuying Sentenced to 2 Years,'' Radio Free Asia (Online), 26 February 
07; ChinaAid (Online), ``Beijing Elderly Christian Sentenced to 2 Years 
Imprisonment,'' 27 February 07.
    \303\ Despite her advanced age and several medical conditions, 
authorities denied Shuang's requests for medical parole. Human Rights 
in China (Online), ``Case Update: Elderly Activist Shuang Shuying 
Released; Reports Abuses in Prison,'' 13 February 09; ChinaAid 
(Online), ``Shuang Shuying, 79, Released From Prison; Her Open Letter 
Reveals Torture,'' 8 February 09; Ethan Cole, ``Christian Chinese 
Couple Pleads for Final Meeting,'' Christian Post (Online), 29 January 
09; Human Rights in China (Online), ``Elderly Activist Denied Medical 
Parole,'' 13 September 07.
    \304\ ChinaAid (Online), Annual Report of Persecution by the 
Government on Christian House Churches Within Mainland China, January 
2009, 5.
    \305\ For example, authorities shut down Christmas services at the 
Liangren church in the capital of Guangdong province and at a Bible 
school in Weifang city, Shandong province. Authorities also detained 
seven house church leaders after raiding a Christmas Day service in the 
Xinjiang Uyghur Autonomous Region's Qitai county in the Changji Hui 
Autonomous Prefecture. On January 2 in neighboring Urumqi city, 
officers stormed a house church service and took 51 attendees into 
custody for questioning. Authorities held three of them in Public 
Security Bureau custody and extrajudicially oredered one woman to serve 
10 days of administrative detention. See ChinaAid (Online), ``51 
Christians Detained in Xinjiang, One Young Mother Sentenced,'' 5 
January 09. ``Christians' Legal Appeals `Denied,' '' Radio Free Asia 
(Online), 15 January 09; ChinaAid (Online), ``Christmas Day Persecution 
in Anhui, Henan, and Xinjiang; 13 Christians in Prison,'' 26 December 
08.
    \306\ ChinaAid (Online), ``Chinese Government Launches Attacks 
Against Christians During Christmas Season,'' 25 December 08; ChinaAid 
(Online), ``Nine Arrested on Christmas Eve in Henan, Four Detained,'' 
29 December 08; ``Beijing Does Not Recognize Domestic Churches, and 
Persecutes Them,'' AsiaNews (Online), 16 January 09.
    \307\ ChinaAid (Online), ``Chinese Government Launches Attacks 
Against Christians During Christmas Season,'' 25 December 08.
    \308\ ChinaAid (Online), ``Christmas Day Persecution in Anhui, 
Henan, and Xinjiang; 13 Christians in Prison,'' 26 December 08.
    \309\ Police reportedly targeted the group because of the presence 
of Protestant volunteers from outside of the area. ChinaAid (Online), 
``Christians in Earthquake Disaster Areas Raided by Police on Christmas 
Eve,'' 28 December 08.
    \310\ Ningbo officials also ``educated'' managers of hotels, 
theaters, and schools on the importance of denying unregistered 
Christian groups access to their facilities. Zhejiang Ethnic and 
Religious Affairs Commission (Online), ``Ningbo City Deploys Safety 
Management Work for Religious Activities During Christmas Period'' 
[Ningbo shi bushu shengdanjie qijian zongjiao huodong anquan quanli 
gongzuo], 10 December 08.
    \311\ Most were released the next day after they paid fines ranging 
from 1,000 to 2,000 yuan (US$146 to 292), though two leaders were each 
ordered to serve 15 days of administrative detention. On March 1, 
Nanyang security forces raided another worship service and detained 18 
house church members. ``Henan House Church Members and Foreign Pastor 
Assaulted While Meeting, Many Are Detained'' [Henan jiating jiaohui 
chengyuan yu waiguo mushi juhui bei chongji, duoren bei juliu], Radio 
Free Asia (Online), 5 March 09.
    \312\ ChinaAid (Online), ``House Church Leader Zhu Baoguo Sentenced 
to `Re-education Through Labor,' '' 18 November 08.
    \313\ Chinese Human Rights Defenders (Online), ``Easter Services in 
Chengdu Banned, Wang Yi and Six Others Summoned to Court'' [Chengdu 
fuhuojie jingbaihui bei qudi, wang yi deng liu ren bei chuanhuan], 13 
April 09.
    \314\ Yancheng authorities not only defied the court ruling, but 
also failed to uphold property rights that are granted to registered 
churches under the State Council's Regulation on Religious Affairs. See 
Regulation on Religious Affairs [Zongjiao shiwu tiaoli], issued 7 July 
04, effective 1 March 05, art. 30; ChinaAid (Online), ``Registered 
Church in Jiangsu Province Demolished, Christians Beaten,'' 22 December 
08.
    \315\ A coalition of local officials and real estate developers had 
long sought to seize the land on which the church was built. ChinaAid 
(Online), ``Registered Church in Jiangsu Province Demolished, 
Christians Beaten,'' 22 December 08.
    \316\ ``Christians' Legal Appeals `Denied,' '' Radio Free Asia 
(Online), 13 January 09; ``Beijing Does Not Recognize Domestic 
Churches, and Persecutes Them,'' AsiaNews (Online), 16 January 09.
    \317\ ChinaAid (Online), ``Chinese Government Launches Attacks 
Against Christians During Christmas Season,'' 25 December 08.
    \318\ Authorities also detained Chang Fengying in a ``black jail'' 
during the 2008 Beijing Summer Olympic Games. A Three-Self Patriotic 
Movement church reportedly assumed ownership of Chang's property after 
it was seized. ChinaAid (Online), ``TSPM Working in Collusion With the 
Government To Persecute House Church Christians,'' 21 February 09.
    \319\ ChinaAid (Online), ``Shanghai Authorities Plan To Deprive 
Wanbang Missionary Church of Its Right To Worship,'' 13 February 09.
    \320\ The term ``transformation through reeducation'' describes a 
process of ideological reprogramming whereby religious believers are 
subjected to various methods of physical and psychological coercion 
until they recant their beliefs. See CECC, 2008 Annual Report, 31 
October 08, 90.
    \321\ ChinaAid (Online), ``Yichun House Churches Banned,'' 29 
October 08.
    \322\ Chengdu Municipal People's Congress (Online), ``Report 
Concerning the Situation With Religious Work in Chengdu Municipality'' 
[Guanyu chengdu shi zongjiao gongzuo qingkuang de baogao], 29 October 
08.
    \323\ Chongqing Municipality Hechuan District People's Government 
(Online), ``Cheng Wei's Speech at District-Wide Mobilization Meeting on 
Rectifying Illegal Religious Activities'' [Cheng wei zai quanqu zhili 
feifa zongjiao huodong dongyuan dahui shang de jianghua], 16 October 
08; ``Local Governments Target `Illegal' Worship Sites and `Illegal' 
Religious Activities Throughout the Fall,'' CECC China Human Rights and 
Rule of Law Update, December 2008, 2.
    \324\ Taixing City People's Government Opinion on the Launch of 
Special Administration for Our Township's Outstanding Problems With 
Religion [Guanyu dui wozhen zongjiao tuchu wenti kaizhan zhuanxiang 
zhili de yijian], issued 29 March 09.
    \325\ At least two other governments in Jiangsu province, Suqian 
municipality and Pei county, ordered officials to ``ban'' or 
``rectify'' house churches in 2008 and 2009. Nanjing Municipal Party 
Committee (Online), ``Yuhuatai: Party District Committee United Front 
Department's `Five Things to Strengthen' Serves and Elevates the Level 
of Scientific Development'' [Yuhuatai: quwei tongzhanbu `wuge qianghua' 
tisheng fuwuyu kexue fazhan de shuiping], 6 May 09; Suqian Municipal 
Party Committee's United Front Work Department (Online), ``Sucheng 
District Establishes a Joint Operations Mechanism To Ban Unauthorized 
Protestant Meeting Sites'' [Sucheng qu jianli liandong jizhi qudi 
jidujiao sishe juhuidian], 7 May 08; Pei County People's Government 
(Online), ``2008 Work Summary: Pei County Bureau of Ethnic and 
Religious Affairs'' [2008 nian gongzuo zongjie peixian minzu zongjiao 
shiwuju], 28 November 08.
    \326\ Zhongwei City Party Committee (Online), ``Municipal Ethnic 
and Religious Affairs Bureau: Launch Investigations To Identify 
Problems, Get Ideas Into Shape, and Increase Measures'' [Shiminzu 
zongjiaoju: kaizhan diaoyan zhaowenti, liqing silu zeng cuoshi], 22 
April 09; Duchang County Bureau of Ethnic and Religious Affairs 
(Online), ``Speech to the Countywide Meeting on Ethnic and Religious 
Affairs Work'' [Zai quanxian minzu zongjiao gongzuo huiyi shang de 
jianghua], 30 April 09.
    \327\ The Chinese term is ``xiejiao zuzhi.'' In 1995, the State 
Council and the Communist Party Central Committee formally outlawed a 
number of ``heretical'' or ``cult'' groups with Protestant roots. 
``Selection of Cases From the Criminal Law: Banned Protestant Groups,'' 
Occasional Publications of the Dui Hua Foundation, No. 12, February 
2003, iii.
    \328\ Fenggang Yang, ``The Red, Black, and Gray Markets of Religion 
in China,'' 47 Sociological Quarterly 93, 106-108 (2006). It is unknown 
how many members of these groups have been arrested or detained in 
recent years, but the total has likely risen on account of the 
extensive ``anti-cult'' crackdown of the last decade. For more 
information on the scale of the anti-cult crackdown, see CECC, 2008 
Annual Report, 31 October 08, 87-93. In the 17 months prior to the July 
1999 commencement of the anti-cult crackdown, the Ministry of Public 
Security reported over 20,000 arrests of ``cult'' members from mostly 
Protestant groups. ``Selection of Cases From the Criminal Law: Banned 
Protestant Groups,'' Occasional Publications of the Dui Hua Foundation, 
No. 12, February 2003, iv.
    \329\ K.H. Ting, ``Theology and Context: Speech on the 50th 
Anniversary of the Three-Self Patriotic Movement of the Protestant 
Churches in China,'' 17 Chinese Theological Review 123, 127-128 (2003).
    \330\ Chongqing Municipality Hechuan District People's Government 
(Online), ``Cheng Wei's Speech at Districtwide Mobilization Meeting on 
Rectifying Illegal Religious Activities'' [Cheng wei zai quanqu zhili 
feifa zongjiao huodong dongyuan dahui shang de jianghua], 16 October 
08.
    \331\ Wang Zuo'an, ``What Kind of Christianity Do We Hope For? 
Address at the Conference on the `Missionary Movement and the Chinese 
Church,' '' 21 Chinese Theological Review 94, 96 (2008).
    \332\ Ministry of Public Security, Circular on Several Issues With 
Designating and Banning Cult Organizations [Gong'an bu guanyu rending 
he qudi xiejiao zuzhi ruogan wenti de tongzhi], 30 April 00. The 
founder of South China Church was executed for alleged rape and ``using 
a cult to sabotage the enforcement of state law.'' Members of the 
church contend that the rape allegation was extracted by torturing 
female adherents with electric batons. Maria Hsia Chang, Falun Gong: 
The End of Days (New Haven: Yale University Press, 2004), 147-148.
    \333\ Ministry of Public Security, Circular on Several Issues With 
Designating and Banning Cult Organizations [Gong'an bu guanyu rending 
he qudi xiejiao zuzhi ruogan wenti de tongzhi], 30 April 00.
    \334\ ChinaAid (Online), ``Report by South China Church About 
Persecution in November 2008,'' 12 December 08; ``RFA Exclusive Report: 
Many Members of South China Church Arrested and Forbidden From Seeing 
Family and Attorney'' [RFA dujia baodao: zhongguo huanan jiaohui duoren 
beibu jinjian jiaren lushi], Radio Free Asia (Online), 5 February 09.
    \335\ ChinaAid (Online), ``Four Christians Missing in Hubei Since 
Beginning of November; Many More Persecuted by Authorities,'' 12 
December 08; ChinaAid (Online), ``Report by South China Church About 
Persecution in November 2008,'' 12 December 08.
    \336\ ``RFA Exclusive Report: Many Members of South China Church 
Arrested and Forbidden From Seeing Family and Attorney'' [RFA dujia 
baodao: zhongguo huanan jiaohui duoren beibu jinjian jiaren lushi], 
Radio Free Asia (Online), 5 February 09.
    \337\ ChinaAid (Online), ``Report by South China Church About 
Persecution in November 2008,'' 12 December 08.
    \338\ ChinaAid (Online), ``Missing Christian: Zhu Yongping,'' 12 
December 08.
    \339\ The government labeled the church a ``counterrevolutionary 
group'' in 1983 and designated it a ``cult organization'' in 1995. 
``Selection of Cases From the Criminal Law: Banned Protestant Groups,'' 
Occasional Publications of the Dui Hua Foundation, No. 12, February 
2003, vii; Ministry of Public Security, Circular on Several Issues With 
Designating and Banning Cult Organizations [Gong'an bu guanyu rending 
he qudi xiejiao zuzhi ruogan wenti de tongzhi], 30 April 00.
    \340\ ChinaAid (Online), ``More Than 400 College Students in 
Beijing and Hangzhou Detained and Interrogated; Four Church Leaders 
Sentenced to Labor Camps,'' 3 December 08.
    \341\ Ibid.; ChinaAid (Online), ``House Church Training Raided in 
Beijing; 110 Interrogated, 2 Detained,'' 3 December 08; ChinaAid 
(Online), ``Nine House Church Meetings Raided Simultaneously in 
Hangzhou City,'' 3 December 08.
    \342\ ChinaAid (Online), ``Nine House Church Meetings Raided 
Simultaneously in Hangzhou City,'' 3 December 08.
    \343\ Ninghai County Bureau of Education (Online), ``Speaking of 
Science, Opposing Cults, Preventing Infiltration, Promoting Harmony'' 
[Jiang kexue fan xiejiao fang shentou cu hexie], 11 May 09.
    \344\ Minqing County People's Government (Online), ``Tazhuang 
Township 2009 Political-Legal Comprehensive Work Points'' [2009 nian 
tazhuang zhen zhengfa zongzhi gongzuo yaodian], 11 February 09; Zhang 
Wei, Jian'ou City People's Government (Online), ``Our City Perfects 
Four Mechanisms To Safeguard Stability in the Religious Sphere'' [Wo 
shi wanshan sixiang jizhi weihu zongjiao lingyu de wending], 23 April 
09.
    \345\ ChinaAid (Online), ``Elderly House Church Leader Arrested in 
Henan,'' 17 February 09.
    \346\ For more information on the 6-10 Office, see CECC, 2008 
Annual Report, 31 October 08, 88-90.
    \347\ Suqian Municipal Communist Party Committee United Front Work 
Department (Online), ``Central 6-10 Office Director Li Xiaodong Arrives 
in Siyang for Investigation and Research on Cult Work'' [Zhongyang 610 
bangongshi juzhang li xiaodong li si diaoyan xiejiao gongzuo], 8 
December 08.
    \348\ Jiangsu Ethnic Affairs Commission and Religious Affairs 
Bureau (Online), ``Suqian City Launches Within Protestant Circles 
Practice and Pondering on Educational Activities on the `Two Big 
Topics' of Pure Belief and Development To Become Rich'' [Suqian shi zai 
jidu jiaojie kaizhan chunzheng xinyang fazhan zhifu `liang da zhuti' 
jiaoyu huodong de shijian yu sixiang], 20 October 08.
    \349\ Three-Self Patriotic Movement Committee of the Protestant 
Churches of Beijing's Fengtai District (Online), ``Promoting Harmony, 
Everyone Has a Duty'' [Cujin hexie, renren youze], 11 July 08. In May 
2009, TSPM and China Christian Council teachers in Nanjing also teamed 
up with the 6-10 Office and other departments to offer training classes 
sponsored by the local government to Protestant ``volunteers.'' See 
Nanjing Municipal Party Committee United Front Work Department 
(Online), ``Qixia District Holds 12th Training Class for Protestant 
Volunteers'' [Qixia qu juban jidujiao di shier qi yigong peixun ban], 
15 May 09.
    \350\ Liuyang City People's Government (Online), ``Liuyang City 
Communist Party Committee's 6-10 Office Issues Open Letter to the 
Entire City's Cadres and Citizens Concerning `Upholding Science, Caring 
for the Family, Cherishing Life, and Opposing Cults' '' [Zhonggong 
liuyang shiwei 610 bangongshi guanyu `chongshang kexue, guan'ai 
jiating, zhenxi shengming, fandui xiejiao' zhi quanshi ganbu qunzhong 
de gongkaixin], 2 April 09. A public notice posted in Changsha in March 
provided a 24-hour hotline to report ``cult'' activity and assured 
family and friends of ``cult'' adherents that their loved ones would be 
treated with leniency if reported. Liuyang City People's Government 
(Online), ``Liuyang City Communist Party Committee's 6-10 Office 
Announcement Concerning Rewards for Reporting Cult Activities'' 
[Zhonggong liuyang shiwei 610 bangongshi guanyu dui xiejiao huodong 
jubao youjiang de gonggao], 3 March 09.
    \351\ Liuyang City People's Government (Online), ``Liuyang City 
Communist Party Committee's 6-10 Office Issues Open Letter to the 
Entire City's Cadres and Citizens Concerning `Upholding Science, Caring 
for the Family, Cherishing Life, and Opposing Cults' '' [Zhonggong 
liuyang shiwei 610 bangongshi guanyu `chongshang kexue, guan'ai 
jiating, zhenxi shengming, fandui xiejiao' zhi quanshi ganbu qunzhong 
de gongkaixin], 2 April 09.
    \352\ Regulation on Religious Affairs [Zongjiao shiwu tiaoli], 
adopted 7 July 04, effective 1 March 05, art. 6; Chi-Tim Lai, ``Daoism 
in China Today, 1980-2002,'' 174 China Quarterly 413, 421-422 (June 
2003).
    \353\ Article 3 of the Chinese Taoist Association (CTA) 
Constitution says that the State Administration for Religious Affairs 
is the ``administrative unit in charge of'' the CTA. Constitution of 
the Chinese Taoist Association [Zhongguo daojiao xiehui zhangcheng], 
enacted 24 June 05, art. 3.
    \354\ ``China Taoist Association President's Work Meeting Convenes 
in Beijing'' [Zhongguo daojiao xiehui huizhang bangong huiyi zaijing 
zhaokai], China Taoist Association (Online), 24 April 09.
    \355\ Measures for Confirming Taoist Religious Personnel [Daojiao 
jiaozhi renyuan rending banfa], adopted 20 September 07, issued 4 March 
08, art. 3.
    \356\ Ibid., art. 11.
    \357\ For a recent example, see Taixing City People's Government 
Opinion on the Launch of Special Administration for Our Township's 
Outstanding Problems With Religion [Guanyu dui wozhen zongjiao tuchu 
wenti kaizhan zhuanxiang zhili de yijian], issued 29 March 09.
    \358\ These priests are often referred to as sanju daoshi in 
official reports. Chi-Tim Lai, ``Daoism in China Today, 1980-2002,'' 
174 China Quarterly 413, 417 (June 2003). For a recent example, 
officials in Shashi district, Jingzhou city, Hubei province, 
established a ``small work group for managing Zhengyi priests'' in 
November 2008 for the purpose of ``strengthening the management of 
Taoist affairs'' and ``striking against illegal religious activities.'' 
Ethnic and Religious Affairs Commission of Hubei Province (Online), 
``Shashi District Explores Management of Taoist Priests Who Reside at 
Home'' [Shashi qu tansuo sanju daoshi guanli gongzuo], 6 November 08.
    \359\ See discussion that follows on the Orthodox church in China. 
In addition, Chinese members of the Church of Jesus Christ of Latter-
Day Saints were reported in 2006 to have held services in Beijing. They 
met at a facility used by foreign members of the church, but at a 
different time from the foreign church members. Bureau of Democracy, 
Human Rights, and Labor, U.S. Department of State, International 
Religious Freedom Report--2006, China (includes Tibet, Hong Kong, and 
Macau), 15 September 06.
    \360\ Bureau of Democracy, Human Rights, and Labor, U.S. Department 
of State (Online), International Religious Freedom Report--2008, China 
(includes Tibet, Hong Kong, and Macau), 19 September 08; Heilongjiang 
Regulation on the Management of Religious Affairs [Heilongjiangsheng 
zongjiao shiwu guanli tiaoli], issued 12 June 97, effective 1 July 97, 
art. 2; Inner Mongolia Autonomous Region Implementing Measures for the 
Management of Venues for Religious Activity [Nei menggu zizhiqu 
zongjiao huodong changsuo guanli shishi banfa], issued 23 January 96, 
effective 23 January 96, art. 2.
    \361\ ``Patriarch Kirill Meets Ye Xiaowen, China's Religious 
Affairs Minister,'' AsiaNews (Online), 12 February 09.
    \362\ Byzantine Catholic Church in America (Online), ``Orthodox 
Clergymen From China Took Part in Divine Services in the Russian 
Consulate in Shanghai,'' 20 June 09.
    \363\ Provisions on the Management of the Religious Activities of 
Foreigners Within the PRC [Zhonghua renmin gongheguo jingnei waiguoren 
zongjiao huodong guanli guiding], issued 31 January 94, effective 31 
January 94, art. 4; Detailed Implementing Rules for the Provisions on 
the Management of the Religious Activities of Foreigners Within the PRC 
[Zhonghua renmin gongheguo jingnei waiguoren zongjiao huodong guanli 
guiding shishi xize], issued 26 September 00, effective 26 September 
00, arts. 7, 17(5).
    \364\ In addition to the provincial regulation passed in Hunan, 
discussed within, lower level governments also reported passing 
legislation on folk beliefs or issuing guidance on the regulation of 
folk beliefs. See, e.g., Hebei Province Ethnic and Religious Affairs 
Department (Online), ``Xingtai City, Pingxiang County Puts Forth Our 
Province's First `Provisional Measures on the Management of Folk Belief 
Affairs' '' [Xingtaishi piangxiangxian qutai wo sheng shoubu ``Minjian 
xinyang shiwu guanli zanxing banfa''], 16 October 07; Ningbo City 
Ethnicity and Religious Affairs Bureau (Online), ``Yinzhou District 
Standardizes Management of Venues for Folk Belief Activities'' 
[Yinzhouqu guifan minjian xinyang huodong changsuo guanli], 22 January 
08. Authorities in Pingxiang county cited concerns about 
``instability,'' inadequate management, and ``hidden dangers'' as 
reasons for establishing the province's first legal measures on the 
management of folk beliefs, even as they also cited ``protecting 
citizens' freedom of religious belief'' as another motivation for the 
legislation.
    \365\ ``Hunan Authorities Issue New Legal Measures To Regulate Folk 
Belief Venues,'' Congressional-Executive Commission on China (Online), 
14 December 07, citing Circular Concerning Printing and Distribution of 
``Hunan Province Provisional Measures for the Management of Venues for 
Folk Belief Activities'' [Guanyu yinfa ``hunan sheng minjian xinyang 
huodong changsuo dengji guanli zanxing banfa'' de tongzhi], issued 16 
August 07, effective 16 August 07.
    \366\ ``Investigation and Research Meeting on Folk Beliefs Work 
Held in Hunan'' [Minjian xinyang gongzuo diaoyan huiyi zai hunan 
juxing], Chinese Religions (Online), 2 December 08.
    \367\ See the Congressional-Executive Commission on China Political 
Prisoner Database for more information about these cases.

    Notes to Section II--Ethnic Minority Rights
    \1\ The expression ``shaoshu minzu'' encompasses populations within 
China's borders that the government designates as groups other than Han 
Chinese. Chinese and outside sources have used such terms as 
``nationality'' and ``ethnicity'' to translate ``minzu'' into English. 
Varying terminology can introduce imprecision, and some scholars 
writing in English choose to leave the term untranslated. See, e.g., 
Gardner Bovingdon, ``Autonomy in Xinjiang: Han Nationalist Imperatives 
and Uyghur Discontent,'' East-West Center, Washington, 2004, Policy 
Studies 11, 49 (endnote 4); Jonathan N. Lipman, Familiar Strangers: A 
History of Muslims in Northwest China (Seattle: University of 
Washington Press, 1997), xx-xxv (discussing the notion of minzu).
    \2\ See discussion within for more information on restrictions on 
ethnic minority rights within China. For a detailed discussion of the 
relevant domestic legal framework, see Special Focus for 2005: China's 
Minorities and Government Implementation of the Regional Ethnic 
Autonomy Law, CECC, 2005 Annual Report, 11 October 05, 13-23. Regarding 
international human rights standards, see, e.g., the Universal 
Declaration of Human Rights, adopted and proclaimed by UN General 
Assembly resolution 217A (III) of 10 December 48, arts. 2, 7; 
International Covenant on Civil and Political Rights (ICCPR), adopted 
by UN General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76, arts. 2(1), 26, 27; International Covenant on 
Economic, Social and Cultural Rights (ICESCR), adopted by UN General 
Assembly resolution 2200A (XXI) of 16 December 66, entry into force 3 
January 76, art. 2(2); Convention on the Rights of the Child (CRC), 
adopted and opened for signature, ratification, and accession by 
General Assembly resolution 44/25 of 20 November 89, entry into force 2 
September 90, arts. 2(1), 30. See generally International Convention on 
the Elimination of All Forms of Racial Discrimination (CERD), adopted 
and opened for signature and ratification by General Assembly 
resolution 2106 (XX) of 21 December 65, entry into force 4 January 69. 
Article 1(1) of CERD defines racial discrimination to mean ``any 
distinction, exclusion, restriction or preference based on race, 
colour, descent, or national or ethnic origin which has the purpose or 
effect of nullifying or impairing the recognition, enjoyment or 
exercise, on an equal footing, of human rights and fundamental freedoms 
in the political, economic, social, cultural or any other field of 
public life.'' China is a party to the ICESCR and the CRC, and a 
signatory to the ICCPR. As in previous years, the Chinese Government 
this reporting year continued to reiterate its commitment to ratifying 
the ICCPR, which China signed in 1998. In February 2009, during the UN 
Human Rights Council's Universal Periodic Review of the Chinese 
Government's human rights record, the Chinese Government supported 
recommendations made by Member States that China ratify the ICCPR. At 
the time, Chinese officials also said China was in the process of 
amending domestic laws, including the criminal procedure law and laws 
relating to reeducation through labor, to make them compatible with the 
ICCPR. UN GAOR, Hum. Rts. Coun., 11th Sess., Report of the Working 
Group on the Universal Periodic Review--China, A/HRC/11/25, 3 March 09, 
paras. 63, 114 (1). Moreover, in the 2009-2010 National Human Rights 
Action Plan (HRAP) issued by the Chinese Government in April 2009, 
officials stated that the ICCPR was one of the ``fundamental 
principles'' on which the plan was framed, and that the government 
``will continue legislative, judicial and administrative reforms to 
make domestic laws better linked with this Covenant, and prepare the 
ground for approval of the ICCPR.'' State Council Information Office, 
National Human Rights Action Plan of China (2009-2010), Xinhua 
(Online), 13 April 09, introduction, sec. V(1).
    \3\ PRC Regional Ethnic Autonomy Law, enacted 31 May 84, effective 
1 October 84, amended 28 February 01, preamble.
    \4\ For an overview of the regional ethnic autonomy system, see 
CECC, 2005 Annual Report, 11 October 05, 13-23.
    \5\ See discussion within for detailed information on these 
developments.
    \6\ State Council Information Office, National Human Rights Action 
Plan of China (2009-2010), Xinhua (Online), 13 April 09, sec. III(1).
    \7\ Ibid.
    \8\ Raymond Li, ``Beijing's Action Plan Lacks Detail on Enforcing 
People's Political and Civil Rights, Experts Say,'' South China Morning 
Post (Online), 14 April 09; Michael Sainsbury, ``Chinese Plan for Human 
Rights,'' Australian (Online), 14 April 09; Tina Wang, ``Beijing Talks 
the Talk,'' Forbes (Online), 14 April 09.
    \9\ Committee on the Elimination of Racial Discrimination, 
Concluding Observations of the Committee on the Elimination of Racial 
Discrimination, The People's Republic of China (Including Hong Kong and 
Macau Special Administrative Regions), CERD/C/CHN/CO/10-13, 28 August 
09, paras. 10-13, 18, 20, 21, 22, 24, 26.
    \10\ See Government Affirms Policy on Ethnic Issues, Heightens 
Propaganda within this section for more information.
    \11\ See Section IV--Xinjiang and Section V--Tibet, for more 
information.
    \12\ ``China's Responses at the UN Human Rights Council's Universal 
Periodic Review,'' CECC China Human Rights and Rule of Law Update, No. 
3, 2009, 3.
    \13\ For detailed information on the 2008 protests, see CECC, 2008 
Annual Report, 31 October 08, 172, 183-186. See Section IV--Xinjiang 
for detailed information on the 2009 demonstration in the Xinjiang 
Uyghur Autonomous Region.
    \14\ Central Propaganda Department and State Ethnic Affairs 
Commission, Outline Concerning Propaganda and Education on the Party 
and State's Ethnic Policy [Dang he guojia minzu zhengce xuanchuan 
jiaoyu tigang], 5 February 09 (estimated date). See also analysis in 
``Government Calls for Strengthening Propaganda on Ethnic Policy,'' 
CECC China Human Rights and Rule of Law Update, No. 2, 2009, 2.
    \15\ See, e.g., ``Xinjiang Party Chief Slashes Riot Which Kills 
140,'' Xinhua (Online), 7 July 09; ``Police Have Evidence of World 
Uyghur Congress Masterminding Xinjiang Riot,'' Xinhua (Online), 7 July 
09; Ministry of Foreign Affairs (Online), ``Foreign Ministry 
Spokesperson Qin Gang's Regular Press Conference on July 14, 2009,'' 14 
July 09.
    \16\ Choi Chi-Yuk, ``Policies Not To Blame for Rioting, Official 
Says,'' South China Morning Post, 22 July 09 (Open Source Center, 22 
July 09); ``FYI--CCTV-4 Live Coverage of PRC State Council Press 
Conference on Ethnic Policy,'' Beijing CCTV-4, 21 July 09 (Open Source 
Center, 21 July 09). Ashat Kerimbay, member of the Central Committee of 
the Communist Party and chair of the Xinjiang Uyghur Autonomous Region 
Regional Committee of the Chinese People's Political Consultative 
Conference, described China's policies on ethnic issues as ``the best 
in the world.'' ``Ethnic Unity Most Important for Regional 
Development,'' Xinhua, reprinted in China Daily (Online), 20 July 09. 
At the same time, at least one official, Guangdong Communist Party 
secretary and Politboro member Wang Yang, said state policies toward 
ethnic minorities ``need adjustments'' and that it was necessary to 
``adjust to the actual situation.'' He did not elaborate on precisely 
what kinds of adjustments are necessary. James Pomfret, ``China Needs 
New Policies After Xinjiang: Official,'' Reuters (Online), 30 July 09.
    \17\ Ministry of Education and State Ethnic Affairs Commission, 
Guiding Program on Ethnic Unity Education in Schools (Trial) [Xuexiao 
minzu tuanjie jiaoyu zhidao gangyao (shixing)], issued 26 November 08. 
See also analysis in ``Chinese Government Mandates `Ethnic Unity 
Education' To Promote Party Policy on Ethnic Groups,'' CECC China Human 
Rights and Rule of Law Update, No. 1, 2009, 3.
    \18\ Ministry of Education and State Ethnic Affairs Commission, 
Guiding Program on Ethnic Unity Education in Schools (Trial) [Xuexiao 
minzu tuanjie jiaoyu zhidao gangyao (shixing)], issued 26 November 08. 
A July 7, 2009, notice based on a May meeting examining ethnic unity 
education called for strengthening the education in accordance with the 
earlier trial program and stressed the importance of strengthening 
oversight of the ethnic unity education. General Offices of Ministry of 
Education and State Ethnic Affairs Commission, Circular on ``Summary of 
Video Conference on Deployment of Work on National Elementary and 
Secondary School Ethnic Unity'' [Jiaoyubu bangongting guojia min wei 
bangongting guanyu yinfa ``quanguo zhong xiaoxue minzu tuanjie jiaoyu 
gongzuo bushu shipin huiyi jiyao'' de tongzhi], issued 7 July 09.
    \19\ ``Teleconference on Carrying Out in a Deep Way Propaganda and 
Education Activities on Ethnic Unity Is Convened in Beijing'' [Shenru 
kaizhan minzu tuanjie xuanchuan jiaoyu huodong dianshi dianhua huiyi 
zai jing zhaokai], Xinhua (Online), 24 August 09.
    \20\ The HRAP also affirms ethnic minorities' right to administer 
in designated autonomous areas and outlines steps to further guarantee 
ethnic minority representation at various levels of government. State 
Council Information Office, National Human Rights Action Plan of China 
(2009-2010), Xinhua (Online), 13 April 09, sec. III(1).
    \21\ State Ethnic Affairs Commission (Online), ``State Ethnic 
Affairs Commission and Other Offices Organize Investigation of 
Conditions Regarding Some Provinces' Implementation of Party and State 
Ethnic Policies'' [Guojia minwei deng zuzhi dui bufen shengqu guanche 
zhixing dang he guojia minzu zhengce youguan qingkuang jinxing jiandu], 
22 July 09.
    \22\ ``China Boosting Research on Ethnic Issues To Better Resolve 
Disputes,'' Xinhua, 7 August 09 (Open Source Center, 7 August 09).
    \23\ See citations within. See also CECC, 2005 Annual Report, 11 
October 05, 17-18.
    \24\ See, e.g., `` `Go West' Campaign To Accelerate,'' China Daily, 
reprinted in China Internet Information Center (Online), 17 July 05.
    \25\ CECC, 2005 Annual Report, 11 October 05, 17-18; Human Rights 
in China, ``China: Minority Exclusion, Marginalization and Rising 
Tensions,'' 2007, 14.
    \26\ See Section IV--Xinjiang, Section V--Tibet, and Human Rights 
in the Inner Mongolia Autonomous Region within this section for 
detailed examples and citations. See also, e.g., Human Rights in China, 
``China: Minority Exclusion, Marginalization and Rising Tensions,'' 
2007, 22-24.
    \27\ See discussion within as well as Section IV--Xinjiang--
Development.
    \28\ State Ethnic Affairs Commission, Ministry of Science and 
Technology, Ministry of Agriculture, and the China Association for 
Science and Technology, Some Opinions Concerning the Increased 
Strengthening of Science and Technology Work Among Ethnic Minorities 
and Ethnic Minority Regions [Guanyu jinyibu jiaqiang shaoshu minzu he 
minzu diqu keji gongzuo de ruogan yijian], 3 November 08. See also 
analysis in ``New Science and Technology Plan for Ethnic Minorities 
Raises Questions About Ethnic Minority Rights,'' CECC China Human 
Rights and Rule of Law Update, December 2008, 3.
    \29\ For international standards on participation in economic life, 
see Declaration on the Rights of Persons Belonging to National or 
Ethnic, Religious and Linguistic Minorities, adopted by UN General 
Assembly resolution 47/135 of 18 December 92, art. 2(2).
    \30\ For example, a provision supporting the development of ethnic 
minority medicine does not specify steps for ensuring that ethnic 
minority communities maintain oversight and gain benefit from the 
development of ethnic minority medicine. State Ethnic Affairs 
Commission, Ministry of Science and Technology, Ministry of 
Agriculture, and the China Association for Science and Technology, Some 
Opinions Concerning the Increased Strengthening of Science and 
Technology Work Among Ethnic Minorities and Ethnic Minority Regions 
[Guanyu jinyibu jiaqiang shaoshu minzu he minzu diqu keji gongzuo de 
ruogan yijian], 3 November 08, art. 8. A previous provincial-level 
effort to promote the development of ethnic minority medicine and apply 
intellectual property protections has similarly lacked concrete 
measures that safeguard ethnic minorities' rights and interests. CECC, 
2008 Annual Report, 31 October 08, 157.
    \31\ State Council Information Office, National Human Rights Action 
Plan of China (2009-2010), Xinhua (Online), 13 April 09, sec. III(1). 
As of 2005, rural ethnic minority citizens comprised nearly half of all 
Chinese citizens living in extreme poverty, though ethnic minorities as 
a whole are less than 9 percent of China's population. Zhao Huanxin, 
``Priority Plan for Ethnic Minorities,'' China Daily, 30 March 07 (Open 
Source Center, 30 March 07). The 2009 Action Plan follows a separate 
five-year development program for ethnic minorities and ethnic minority 
regions issued in 2007. State Council General Office, Circular on 
Printing and Issuing the 11th 5-Year Program for Ethnic Minority 
Undertakings [Guowuyuan bangongting guanyu yinfa shaoshu minzu shiye 
`shiyiwu' guihua de tongzhi], issued 27 February 07. For more 
information, see CECC, 2007 Annual Report, 10 October 07, 106.
    \32\ See text citations above for a critique of government 
development projects. For assessments of the National Human Rights 
Action Plan, see Raymond Li, ``Beijing's Action Plan Lacks Detail on 
Enforcing People's Political and Civil Rights, Experts Say,'' South 
China Morning Post (Online), 14 April 09; Michael Sainsbury, ``Chinese 
Plan for Human Rights,'' Australian (Online), 14 April 09; Tina Wang, 
``Beijing Talks the Talk,'' Forbes (Online), 14 April 09.
    \33\ For general information on the Chinese policy of fixing ethnic 
identity, see, e.g., Stevan Harrell, ``Introduction,'' in Cultural 
Encounters on China's Ethnic Frontiers, ed. Stevan Harrell (Seattle: 
University of Washington, 1995), 22-24; Katherine Palmer Kaup, Creating 
the Zhuang: Ethnic Politics in China (Boulder: Lynne Rienner 
Publishers, 2000), 51-71. For Chinese regulations on the issue, see, 
e.g., Stipulations Concerning Chinese Citizens Determining Ethnic 
Identity [Guanyu zhongguo gongmin queding minzu chengfen de guiding], 
issued 10 May 90, effective 10 May 90; Notice by 3 Ministries and 
Commissions Concerning Executing to the Letter Stipulations Concerning 
Modifying Ethnic Status [San buwei guanyu yange zhixing biangeng minzu 
chengfen youguan guiding de tongzhi], issued 23 April 09.
    \34\ On the process of affiliation, see generally Matthew Hoddie, 
``Ethnic Identity Change in the People's Republic of China: An 
Explanation Using Data From the 1982 and 1990 Census Enumerations,'' in 
Nationalism and Ethnoregional Identity in China, ed. William Safran 
(London: Frank Cass, 1998), 119-141.
    \35\ As one example, the Baima Zangzu (White Horse Tibetans) have 
reportedly petitioned the government to reconsider their classification 
as a ``branch'' of the Tibetan ethnicity, asserting that they should 
have status as an independent ethnic group. See, e.g., ``The White 
Horse Tibetans' Tomorrow'' [Baima zangzu ren de mingtian], Nanfeng 
Chuang (Online), 19 July 08; Ashild Kolas and Monika P. Thowsen, On the 
Margins of Tibet (Seattle: University of Washingon Press, 2005), 41-42. 
For other examples, see, e.g., Colin Mackerass, China's Ethnic 
Minorities and Globalisation (London: RoutledgeCurzon, 2003), 2-3. See 
also Stipulations Concerning Chinese Citizens Determining Ethnic 
Identity [Guanyu zhongguo gongmin queding minzu chengfen de guiding], 
issued 10 May 90, effective 10 May 90, art. 1.
    \36\ For example, in its 2009 policy directive on strengthening 
propaganda on ethnic issues, the government asserted that the Chinese 
state had existed throughout history as a unified entity, save for 
brief aberrations during ``temporary'' periods of division. Central 
Propaganda Department and State Ethnic Affairs Commission, Outline 
Concerning Propaganda and Education on the Party and State's Ethnic 
Policy [Dang he guojia minzu zhengce xuanchuan jiaoyu tigang], 
estimated date February 2009. For an overview of historiography on one 
area within the borders of the People's Republic of China, see 
generally Gardner Bovingdon with contributions by Nabijan Tursun, 
``Contested Histories,'' in Xinjiang: China's Muslim Borderland, ed. S. 
Frederick Starr (Armonk, NY: M.E. Sharpe, 2004). In the past year, the 
government also continued to promote government-defined historical 
accounts of Tibet to justify current Chinese policy in its March 2009 
white paper on Tibet. State Council Information Office, Fifty Years of 
Democratic Reform in Tibet, reprinted in Xinhua (Online), 2 March 09.
    \37\ State Administration of Radio, Film, and Television, July 2009 
Circular on Publicizing the Putting on Record of Nationwide Production 
of TV Dramas [Guangdian zongju guanyu 2009 nian 7 yue quanguo paishe 
zhizuo dianshiju bei'an gongshi de tongzhi], 20 July 09. See also 
``China's TV Watchdog Warns Against Historically Inaccurate Shows,'' 
Xinhua, reprinted in People's Daily (Online), 24 July 09.
    \38\ See, e.g., the discussion in ``Demolition of Kashgar's Old 
City Draws Concerns Over Cultural Heritage Protection, Population 
Resettlement,'' CECC China Human Rights and Rule of Law Update, No. 3, 
2009, 2, as well as the discussion in Rachel Harris, The Making of a 
Musical Canon in Chinese Central Asia: The Uyghur Twelve Muqam 
(Burlington, VT: Ashgate, 2008), 109-136.
    \39\ ``Efforts Called To Protect Intangible Cultural Heritage,'' 
Xinhua, reprinted in China Internet Information Center (Online), 14 
February 06.
    \40\ In addition to Section IV--Xinjiang, see also ``Demolition of 
Kashgar's Old City Draws Concerns Over Cultural Heritage Protection, 
Population Resettlement,'' CECC China Human Rights and Rule of Law 
Update, No. 3, 2009, 2.
    \41\ ``China Now Has Over 60 Million Ethnic Minority Citizens Using 
Their Own Ethnic Minority Languages'' [Zhongguo xianyou 6000 duo wan 
shaoshu minzu gongmin shiyong ben minzu yuyan], Xinhua, reprinted in 
China Ethnicities News (Online), 8 June 09.
    \42\ State Council Information Office, National Human Rights Action 
Plan of China (2009-2010), Xinhua (Online), 13 April 09, sec. III(1).
    \43\ ``China Issues Plans To Promote Ethnic Cultural Development,'' 
Xinhua (Online), 24 July 09, describing State Council Opinions on 
Furthering the Prospering and Development of Ethnic Minorities' 
Cultural Undertakings [Guowuyuan guanyu jinyibu fanrong fazhan shaoshu 
minzu wenhua shiye de ruogan yijian], issued 5 July 09.
    \44\ State Council Opinions on Furthering the Prospering and 
Development of Ethnic Minorities' Cultural Undertakings [Guowuyuan 
guanyu jinyibu fanrong fazhan shaoshu minzu wenhua shiye de ruogan 
yijian], issued 5 July 09, arts. 7, 8, 12, 16.
    \45\ See Special Focus for 2005: China's Minorities and Government 
Implementation of the Regional Ethnic Autonomy Law, CECC, 2005 Annual 
Report, 11 October 05, 14.
    \46\ Regional Ethnic Autonomy Law, enacted 31 May 84, effective 1 
October 84, amended 28 February 01, art. 36.
    \47\ State Council Provisions on Implementing the PRC Regional 
Ethnic Autonomy Law [Guowuyuan shishi ``Zhonghua renmin gongheguo minzu 
quyu zizhifa'' ruogan guiding], issued 19 May 05, effective 31 May 05, 
art. 22.
    \48\ Mette Halskov Hansen, ``The Challenges of Sipsong Panna in the 
Southwest,'' in Governing China's Multiethnic Frontiers, ed. Morris 
Rossabi (Seattle: University of Washington Press, 2004), 66-67.
    \49\ See discussion within for more information.
    \50\ For details on pressures from migration as they affect 
culture, language, and environment, see generally Uradyn E. Bulag, 
``The Dialectics of Colonization and Ethnicity Building,'' in Governing 
China's Multiethnic Frontiers, ed. Morris Rossabi (Seattle: University 
of Washington Press, 2004), 84-116; Uradyn E. Bulag, ``Mongolian 
Ethnicity and Linguistic Anxiety in China,'' American Anthropologist, 
Vol. 105, No. 4, December 2003, 753-763; Dee Mack Williams, Beyond 
Great Walls (Stanford: Stanford University Press, 2002).
    \51\ ``Beijing Spring and Autumn: Discrimination Against the 
Minorities,'' Keizai Shinbun, translated and reprinted in Southern 
Mongolian Human Rights Information Center (Online), 23 February 09.
    \52\ Bureau of Democracy, Human Rights, and Labor, U.S. Department 
of State, Country Report on Human Rights Practices--2008, China 
(includes Tibet, Hong Kong, and Macau), 25 February 09.
    \53\ ``Inner Mongolia: Purposeful Occupational Training for Young 
Farmers and Herders Has Positive Effect'' [Neimenggu: ``you mudi'' 
peixun qingnian nongmumin jiuye xiaoguo hao], Xinhua (Online), 29 March 
09.
    \54\ ``Inner Mongolia Autonomous Region Plans in 2009 To Newly 
Increase Employment for Over 200,000 People'' [2009 nian neimenggu 
zizhiqu jihua xinzeng jiuye 20 wan ren yishang], Xinhua Inner Mongolia 
(Online), 26 March 09.
    \55\ Opinion on the Implementation of Work Concerning the 
Development of Support and Aid for ``Zero Occupation Households'' 
[Guanyu kaizhan quanqu nongcun muqu ``ling zhuanyi jiating'' jiuye 
zhuangxiang yuanzhu gongzuo de shishi yijian], 17 March 09. See also 
Inner Mongolia Autonomous Region People's Government General Office, 
Notice Concerning Work on the Development of Earmarked Employment Aid 
for ``Zero Occupation Families'' in the Countryside and Pastoral Areas 
[Neimenggu zizhiqu renmin zhengfu bangongting guanyu kaizhan nongcun 
muqu ``ling zhuanyi jiating'' jiuye zhuanxiang yuanzhu gongzuo de 
tongzhi], issued 21 January 09.
    \56\ See, e.g., China's Regional Ethnic Autonomy Law: Does It 
Protect Minority Rights? Staff Roundtable of the Congressional-
Executive Commission on China, 11 April 05, Written Statement of 
Christopher P. Atwood, Associate Professor, Department of Central 
Eurasian Studies, Indiana University. For additional information, see 
generally Dee Mack Williams, Beyond Great Walls (Stanford: Stanford 
University Press, 2002); Southern Mongolian Human Rights Information 
Center (Online), ``Statement of Enhebatu Togochog at the `Ethnicity 
With Chinese Characteristics? The Chinese State and Tibetan, Uyghur and 
Mongol Identities' Conference by the National Endowment for 
Democracy,'' 5 December 08.
    \57\ See, e.g., China's Regional Ethnic Autonomy Law: Does It 
Protect Minority Rights? Staff Roundtable of the Congressional-
Executive Commission on China, 11 April 05, Testimony of Christopher P. 
Atwood, Associate Professor, Department of Central Eurasian Studies, 
Indiana University.
    \58\ Gregory Veeck and Charles Emerson, ``Develop the West 
Assessed: Economic and Environmental Change in Inner Mongolia 
Autonomous Region, People's Republic of China 2000-2005,'' Asian 
Geographer, Vol. 25, Nos. 1 and 2, 2006, 61 (based on information on 
page 12 of pre-publication copy of article on file with the 
Commission).
    \59\ See, e.g., Gregory Veeck and Charles Emerson, ``Develop the 
West Assessed: Economic and Environmental Change in Inner Mongolia 
Autonomous Region, People's Republic of China 2000-2005,'' Asian 
Geographer, Vol. 25, Nos. 1 and 2, 2006, 61 (based on information on 
page 13 of pre-publication copy of article on file with the 
Commission); China's Regional Ethnic Autonomy Law: Does It Protect 
Minority Rights? Staff Roundtable of the Congressional-Executive 
Commission on China, 11 April 05, Testimony of Christopher P. Atwood, 
Associate Professor, Department of Central Eurasian Studies, Indiana 
University; Dee Mack Williams, Beyond Great Walls (Stanford: Stanford 
University Press, 2002), 40-60; Qiu Lin, ``Scholars Urge Improving 
Grassland Policies,'' Xinhua (Online), 31 July 09.
    \60\ See Regulation on Inner Mongolia Autonomous Region Mongolian 
Language Work [Neimenggu zizhiqu mengu yuyan wenzi gongzuo tiaoli], 
issued 26 November 04, effective 1 May 05. For more information, see 
``Inner Mongolia Government Promotes Mongolian Language,'' CECC China 
Human Rights and Rule of Law Update, September 2006, 10-11.
    \61\ ``31st Standing Committee Meeting of 10th Inner Mongolia 
Autonomous Region People's Congress Holds Group Deliberation'' 
[Neimenggu shi jie renda changweihui di 31 ci huiyi juxing fenzu 
shenyi], Inner Mongolia News Net (Online), 29 November 07.
    \62\ Inner Mongolia Autonomous Region People's Government Opinion 
Regarding Strengthening Work on Ethnic Education [Neimenggu zizhiqu 
renmin zhengfu guanyu jinyibu jiaqiang minzu jiaoyu gongzuo de yijian], 
issued 16 October 07, II(1), IV(1).
    \63\ ``Students in Baotao City, Inner Mongolia, Who Have Classes in 
Mongolian Get 12 Years of Free Education'' [Neimenggu baotong shi 
mengguyu shouke xuesheng 12 nian quan mianfei], China Ethnicities News 
(Online), 2 January 09; ``Chinese People's Political Consultative 
Conference Member Daiqinggerile: Ethnic Minority Education Will Get 
Better'' [Zhengxie weiyuan daiqinggerile: minzujiaoyu hui yue lai yue 
hao], Xinhua Inner Mongolia (Online), 1 January 09; ``Inner Mongolia: 
170 Million [Yuan] Subsidy for Mongolian-Language Boarding School 
Students'' [Neimenggu: xinzeng 1.7 yi buzhu mengyu shouke jisu 
xuesheng], China Shuobo Net (Online), 28 May 09.
    \64\ Southern Mongolian Human Rights Information Center (Online), 
``Mongolian Internet Forum Closed for Discussing Ethnic Problems,'' 16 
July 07; ``Two Ethnic Minority Web Sites in Inner Mongolia Closed,'' 
CECC China Human Rights and Rule of Law Update, July 2006, 14; 
``Authorities Close Two Mongolian-Language Web Sites for Posting 
`Separatist' Materials,'' CECC China Human Rights and Rule of Law 
Update, November 2005, 13-14. In addition, in 2009, the Web master of a 
Mongolian discussion site said authorities questioned him about the 
contents of the site, including whether it had connections to foreign 
countries and whether participants had posted articles on the 
independence of Mongols, Uyghurs, and Tibetans. Southern Mongolian 
Human Rights Information Center (Online), ``Southern (Inner) Mongolian 
Web Administrator Questioned,'' 22 June 09. Operation of this site and 
others was suspended in advance of the 60th anniversary of the founding 
of the People's Republic of China. Southern Mongolian Human Rights 
Information Center (Online), ``Continuing Shutdown and Blocks of 
Mongolian Internet Sites by Chinese Government,'' 18 September 09.
    \65\ Southern Mongolian Human Rights Information Center (Online), 
``Ms. Xinna's Statement on `Charter 08,' '' 19 January 09.
    \66\ Authorities had detained Naranbilig for 20 days in 2008 in 
connection with his plans to attend the UN Permanent Forum on 
Indigenous Issues and with his broader activities advocating for the 
rights of ethnic Mongols. The same month, authorities also detained 
Tsebegjab and held him for over a month for his alleged ties to 
overseas Mongolian activists. For information on these cases, see the 
CECC Political Prisoner Database and CECC, 2008 Annual Report, 31 
October 2008, 94.
    \67\ Southern Mongolian Human Rights Information Center (Online), 
``SMHRIC Statement (1) to the United Nations Permanent Forum for 
Indigenous Issues 8th Session,'' 28 May 09.
    \68\ While in prison, Hada has been subject to abuse, and 
authorities have harassed his wife and son. See the CECC Political 
Prisoner Database for more information on Hada's case. For information 
on harassment of his family members, see ``Authorities Try Mongol 
Couple, Assault Son of Imprisoned Mongol Activist,'' CECC China Human 
Rights and Rule of Law Update, August 2006, 2.
    \69\ See the CECC Political Prisoner Database for more information, 
as well as, e.g., Southern Mongolian Human Rights Information Center 
(Online), ``Statement of Enhebatu Togochog at the `Ethnicity With 
Chinese Characteristics? The Chinese State and Tibetan, Uyghur and 
Mongol Identities' Conference by the National Endowment for 
Democracy,'' 5 December 08; Southern Mongolian Human Rights Information 
Center (Online), ``Jaranbayariin Soyolt Released and Deported Back to 
Mongolia,'' 19 June 08.


    Notes to Section II--Population Planning
    \1\ The population planning policy was first launched in 1979, 
canonized as a ``fundamental state policy'' in 1982, and codified as 
national law in 2002. As of 2007, 19 of China's 31 provinces--
accounting for 53.6 percent of China's population--allow rural dwellers 
to have a second child if their first child is a girl. Gu Baochang et 
al., ``China's Local and National Fertility Policies at the End of the 
Twentieth Century,'' 33 Population and Development Review 133, 138 
(2007).
    \2\ David Barboza, ``1 Plus 1: Shanghai Tweaks Child Rules,'' New 
York Times (Online), 25 July 09; Sky Canaves, ``Shanghai Pushes Two-
Child Policy,'' Wall Street Journal (Online), 24 July 09.
    \3\ For example, officials in Huanggang township (Xiushui county, 
Jiangxi province) described a family planning campaign in July 2009 
that focused on the ``two inspections and four procedures'' (liangjian 
sishu), which refer to IUD inspections, pregnancy examinations (the two 
inspections), IUD implants, first-trimester abortions, mid- to late-
term abortions, and sterilization (the four procedures). See Xiushui 
County Population and Family Planning Committee (Online), ``Huanggang 
Township's Statement at the Xiushui County 2009 Population and Family 
Planning Work Dispatch Meeting'' [Huanggangzhen zai 2009 nian quanxian 
renkou he jihua shengyu gongzuo diaoduhui fayan], 15 July 09.
    \4\ For example, in Fujian province's Sha county, family planning 
officials are required to insert an IUD in women within three months of 
the birth of a first child. Sha County Zhenghu Township People's 
Government (Online), ``Recommendations Regarding Zhenghu Township's 
Population and Family Planning Work for 2009'' [Guanyu zuohao 2009 nian 
zhenghu xiang renkou yu jihua shengyu gongzuo de yijian], 25 March 09.
    \5\ CECC, 2006 Annual Report, 20 September 06, 109; Bureau of 
Democracy, Human Rights, and Labor, U.S. Department of State, 2008 
Human Rights Report: China (includes Tibet, Hong Kong, and Macau), 25 
February 09, 6; UN Committee against Torture, Consideration of Reports 
Submitted by States Parties Under Article 19 of the Convention: 
Concluding Observations of the Committee against Torture--China, CAT/C/
CHN/CO/4, 12 December 08, para. 29.
    \6\ CECC, 2007 Annual Report, 10 October 07, 108.
    \7\ The PRC Population and Family Planning Law became effective in 
2002. Beijing Declaration and Platform for Action (1995), para. 17; 
Cairo International Conference on Population and Development, para. 
7.2. On the concept of ``illegal pregnancy'' and its use in practice, 
see Elina Hemminki, et al., ``Illegal Births and Legal Abortions--The 
Case of China,'' Reproductive Health 2, No. 5 (2005).
    \8\ Convention on the Elimination of All Forms of Discrimination 
Against Women, adopted and opened for signature, ratification, and 
accession by UN General Assembly resolution 34/180 of 18 December 79, 
entry into force 2 September 81, arts. 2, 3, 16(1)(e).
    \9\ Convention on the Rights of the Child, adopted and opened for 
signature, ratification, and accession by UN General Assembly 
resolution 44/25 of 20 November 89, entry into force 2 September 90, 
arts. 2, 3, 4, 6, 26.
    \10\ International Covenant on Economic, Social and Cultural Rights 
(ICESCR), adopted by UN General Assembly resolution 2200A (XXI) of 16 
December 66, entry into force 3 January 76, art. 10(3).
    \11\ UN Committee against Torture, Consideration of Reports 
Submitted by States Parties Under Article 19 of the Convention: 
Concluding Observations of the Committee against Torture--China, CAT/C/
CHN/CO/4, 12 December 08, para. 29.
    \12\ Yudu County People's Government (Online), Circular Regarding 
the Transmission of ``Ganzhou Municipality Work Program for Collection 
of Social Compensation Fees'' [Guanyu zhuanfa ``ganzhou shi shehui 
fuyangfei zhengshou guanli gongzuo fang'an'' de tongzhi], 25 February 
09.
    \13\ Ibid.
    \14\ Anxi County People's Government (Online), Circular on Lauching 
Population and Family Planning Routine Work and Concentrated Service 
Activities [Guanyu kaizhan renkou he jihua shengyu changgui gongzuo 
jizhong fuwu huodong de tongzhi], 18 February 09.
    \15\ Qianguo Erluosi Mongol Autonomous County Population and Family 
Planning Commission (Online), Qianguo County Population and Family 
Planning Bureau's 2008 Work Summary and 2009 Work Plan [Qianguo xian 
renkou he jihua shengyu ju 2008 nian gongzuo zongjie he 2009 nian 
gongzuo anpai], 20 October 08.
    \16\ Tongliang County People's Government (Online), Tongliang 
County Population and Family Planning ``Two-Way Encouragement Model of 
Pre-Pregnancy Management'' Project Implementation Plan (Trial) 
[Tongliang xian renkou he jihua shengyu ``shuangxiang jili xing yunqian 
guanli'' xiangmu shishi fang'an (shixing)], 8 July 08.
    \17\ Shanxi Provincial Population and Family Planning Regulations, 
originally passed 6 April 99, revised 28 November 08, effective 1 June 
09, art. 53.
    \18\ ``Fuzhou Penalizes Notables and Affluent Who Exceed Birth 
Quotas, Fined 300,000 Yuan for Having Two More Children Than the Law 
Allows'' [Fuzhou chufa mingren furen chaosheng duosheng liangtai bei fa 
30 wan yuan], Xinhua (Online), 5 March 09.
    \19\ Li Qiumeng, ``City Residents Who Report Out-of-Plan 
Pregnancies Will Receive Material Rewards'' [Shimin jubao chaosheng 
jianghuo wuzhi jiangli], Beijing Times (Online), 19 March 09.
    \20\ Chun'an County People's Government (Online), Circular on the 
Implementation of Family Planning Informants' Reward System [Guanyu 
shixing jihua shengyu youjiang jubao zhidu de tongzhi], 18 April 09.
    \21\ Binzhou District Population and Family Planning Commission 
(Online), Yangxin County Family Planning Measures for Rewarding 
Informants [Yangxin xian jihua shengyu youjiang jubao banfa], 16 July 
09.
    \22\ PRC Population and Family Planning Law, enacted 29 December 
01, art. 39.
    \23\ Ibid., art. 33.
    \24\ Bureau of Democracy, Human Rights, and Labor, U.S. Department 
of State, 2008 Human Rights Report: China (includes Tibet, Hong Kong, 
and Macau), 25 February 09, 6.
    \25\ For an official source that admits to mandatory abortions in 
the third term, see Jiujiang Municipal Population and Family Planning 
Commission (Online), ``Jiujiang County Family Planning Commission 
Braves the Summer's Intense Heat and Insists on Entering Villages and 
Homes To Direct and Supervise Family Planning Work'' [Jiujiang xian 
jishengwei mao kushu jianchi jincun ruhu jiandao jisheng gongzuo], 17 
July 09. For recent examples of cases of forced abortions in the third 
trimester, see Michael Sheridan, ``Women Rebel Over Forced Abortions,'' 
Times of London (Online), 15 February 09; ``Shandong's Barbarous Family 
Planning, Mother and Child Both Die'' [Shandong yeman jisheng muzi 
shuangwang], Radio Free Asia (Online), 18 June 09.
    \26\ Bureau of Democracy, Human Rights, and Labor, U.S. Department 
of State, 2008 Human Rights Report: China (includes Tibet, Hong Kong, 
and Macau), 25 February 09, 6.
    \27\ These provinces include Fujian, Zhejiang, Guangdong, 
Chongqing, Yunnan, Guizhou, Hunan, Jiangxi, Jiangsu, Anhui, and Jilin. 
For two representative examples (Jiangsu and Fujian), see Jiawang 
District People's Government (Online), Circular on the ``Month of 
Concentrated Corrective Activities'' for Population and Family Planning 
[Guanyu zuohao renkou he jihua shengyu ``jizhong zhengzhi huodong yue'' 
de tongzhi], 2 November 08. This report explicitly calls for officials 
to ``resolutely implement first-trimester and mid- to late-term 
abortions and other remedial measures'' (jianchi luoshi liu yinchan 
deng bujiu cuoshi). In addition, a report from a village in Fujian's 
Wuyishan county states the following: ``In emergency situations when 
pregnancies violate family planning policies, report the matter to the 
village committee and promptly carry out remedial measures (first-
trimester abortion or mid- to late- term abortion).'' Wuyishan County 
People's Government (Online), Sandu Village Family Planning Village 
Regulations [Sandu cun jihua shengyu cungui minyue], 4 June 09.
    \28\ Michael Sheridan, ``Women Rebel Over Forced Abortions,'' Times 
of London (Online), 15 February 09.
    \29\ Ibid.
    \30\ Chinese Human Rights Defenders (Online), ``Jiangsu's Sihong 
County: Family Planning Bureau Violently Inspects Pregnancies'' 
[Jiangsu sihong xian jisheng bumen baoli yunjian], 25 April 09.
    \31\ John Pomfret, ``Forced Abortions Shake Up China Wombs-for-Rent 
Industry,'' Reuters (Online), 30 April 09.
    \32\ ``Shandong's Barbarous Family Planning, Mother and Child Both 
Die'' [Shandong yeman jisheng muzi shuangwang], Radio Free Asia 
(Online), 18 June 09.
    \33\ Tongliang County People's Government (Online), Tongliang 
County Population and Family Planning ``Two-Way Encouragement Model of 
Pre-Pregnancy Management'' Project Implementation Plan (Trial) 
[Tongliang xian renkou he jihua shengyu ``shuangxiang jili xing yunqian 
guanli'' xiangmu shishi fang'an (shixing)], 8 July 08.
    \34\ Jiawang District People's Government (Online), Circular on the 
``Month of Concentrated Corrective Activities'' for Population and 
Family Planning [Guanyu zuohao renkou he jihua shengyu ``jizhong 
zhengzhi huodong yue'' de tongzhi], 2 November 08.
    \35\ Ibid.
    \36\ Kaili City People's Government (Online), Opinion on Going 
Further To Strengthen and Complete Examinations of Women [Guanyu 
jinyibu jiaqiang he zuohao fujian gongzuo de yijian], 12 November 08.
    \37\ Ibid.
    \38\ Changfeng County Population and Family Planning Committee 
(Online), Circular on the Concentrated Launch of Sorting Out and 
Examination Work for Population and Family Planning in the Entire 
County [Guanyu zai quanxian jizhong kaizhan jihua shengyu qingli hecha 
gongzuo de tongzhi], 11 December 08.
    \39\ Yanjin County People's Government (Online), Niuzhai Township 
2009 Implementation Opinion for Population and Family Planning Work 
[Niuzhai xiang 2009 nian renkou yu jihua shengyu gongzuo shishi 
yijian], 30 December 08.
    \40\ Yunnan Provincial People's Government (Online), Decision To Go 
Further in Implementing Cash Rewards and Punishments for Those 
Responsible for Investigating Population and Family Planning Work 
(Trial) [Guanyu jinyibu luoshi renkou yu jihua shengyu gongzuo zeren 
zhuijiu jiangcheng duixian de jueding (shixing)], 21 December 08.
    \41\ Anxi County People's Government (Online), Circular on Lauching 
Population and Family Planning Routine Work and Concentrated Service 
Activities [Guanyu kaizhan renkou he jihua shengyu changgui gongzuo 
jizhong fuwu huodong de tongzhi], 18 February 09.
    \42\ ``RFA Exclusive: Fujian Xianyou County Violently Carries Out 
Family Planning, 8-9 Month Pregnant Women Forced To Abort, Family 
Members Persecuted'' [Fujian xianyou baoli jisheng bajiu yue zhaoliu 
qinshu shou zhu], Radio Free Asia (Online), 12 May 09.
    \43\ Ibid. Family planning officials justified the forced abortion 
because the young woman had not reached the legal age in which 
parenthood is permitted. Fujian Population and Family Planning 
Regulations stipulate that women have to reach the age of 23 and men 
must be 25 before they can legally become parents.
    \44\ Wuyishan County People's Government (Online), Sandu Village 
Family Planning Village Regulations [Sandu cun jihua shengyu cungui 
minyue], 4 June 09.
    \45\ Jinyun County People's Government (Online), Shuhong Township 
Implementation Plan for Family Planning Activities Month of ``Seizing 
the Three Inspections, Promoting Long-Term Effectiveness, Strengthening 
the Foundation'' [Shuhong zhen ``zhua sancha, cu changxiao, qiang 
jichu'' jihua shengyu huodong yue shishi fang'an], 13 April 09.
    \46\ Ibid.
    \47\ Kunming Municipality Provisions for Temporary Wage Deductions 
for Family Planning for the Floating Population [Kunming shi luidong 
renkou jihua shengyu guanli zhanshixing koukuan guiding], enacted 29 
November 06, effective 1 January 07.
    \48\ Ibid, art. 4.
    \49\ Ibid, art. 8.
    \50\ Jiawang District People's Government (Online), Circular on the 
``Month of Concentrated Corrective Activities'' for Population and 
Family Planning [Guanyu zuohao renkou he jihua shengyu ``jizhong 
zhengzhi huodong yue'' de tongzhi], 2 November 08.
    \51\ Sha County Zhenghu Township People's Government (Online), 
Opinion Regarding Zhenghu Township's Population and Family Planning 
Work for 2009 [Guanyu zuohao 2009 nian zhenghu xiang renkou yu jihua 
shengyu gongzuo de yijian], 25 March 09.
    \52\ Ibid.
    \53\ Guidong County People's Government (Online), ``Huangdong 
Township Masters the Distinct Features of Family Planning Work'' 
[Huangdong xiang zhua jihua shengyu tese gongzuo], 30 June 09.
    \54\ Michael Sheridan, ``Women Rebel Over Forced Abortions,'' Times 
of London (Online), 15 February 09.
    \55\ Panyue District Shiqi Township People's Government (Online), 
``Monthly Family Birth Control Awards for Rural Family Planning'' 
[Nongcun jihua shengyu jiating jieyu jiangjinyue yueyou], 27 October 
08.
    \56\ Population and Family Planning Commission of the Inner 
Mongolia Autonomous Region (Online), Supplementary Circular on 
``Implementation Measures for the Inner Mongolia Autonomous Region 
Family Planning Awards for Sterilized Households With Two Daughters'' 
[Guanyu yinfa ``neimenggu zizhiqu jihua shengyu shuangnu jieza hu 
jiangli gongzuo shishi banfa'' de buchong tongzhi], 21 November 08.
    \57\ Longgang District People's Government (Online), Circular on 
the Offering of Subsidies to Registered Households in Our District That 
Actively Carry Out Remedial Measures [Guanyu dui woqu huji renkou 
zhudong luoshi bujiu cuoshi jinxing buzhu de tongzhi], 31 March 09.
    \58\ For more information on the importance of incentive structures 
for local officials in China, see Jean C. Oi, Rural China Takes Off: 
Institutional Foundations of Economic Reform (Los Angeles: University 
of California Press, 1999).
    \59\ Wuyishan County People's Government (Online), ``2009-2010 
Shangmei Township Village Family Planning Responsibility Manual'' 
[2009-2010 nian shangmei xiangcun jisheng zeren shu], 16 January 09.
    \60\ Ibid.
    \61\ Yunnan Provincial People's Government (Online), Dasi Township 
People's Government Circular on Assessment Measures for Rewards and 
Penalties for 2009 Population and Family Planning Responsibility 
Objectives [Dasi xiang renmin zhengfu guanyu yinfa 2009 nian renkou yu 
jihua shengyu zeren mubiao kaohe jiangcheng banfa de tongzhi], 15 April 
09.
    \62\ Ibid.
    \63\ CECC, 2008 Annual Report, 31 October 08, 98. In April 2008, 
Chen filed a lawsuit alleging that Linyi officials had ``trumped up 
charges'' against him in retaliation for his efforts to expose their 
misdeeds. Chen also wrote a detailed letter to the Chief Justice of the 
Supreme People's Court and the Procurator-General of the Supreme 
People's Procuratorate to protest his imprisonment and petition for 
release. Li Jinsong, Chinese Human Rights Defenders (Online), ``Chen 
Guangcheng Sues Li Qun, Liu Jie, and Other Officials for Trumped Up 
Charges and Retaliation'' [Chen guangcheng konggao li qun liu jie deng 
shexian fanyou baofu xianhai zui zhi, gongmin bao'an konggao han], 5 
April 08.
    \64\ Cited in ``Chen Guangcheng Discriminated Against in Prison; 
Wife Barred From Leaving Home'' [Chen guangcheng yuzhong shou qishi, 
qizi jixu bei boquan], Radio Free Asia (Online), 21 November 07. See 
Cai Jin, ``Imprisoned Rights Defenders Guo Feixiong, Chen Guangcheng 
Prevented From Communicating With Families, Lawyers Stress Constitution 
Provides Freedom of Communication'' [Xianyu weiquanzhe guo feixiong 
chen guangcheng jia tongxun shouzu, lushi qiangdiao xianfa fuyu gongmin 
tongxun ziyou], Boxun (Online), 27 November 07; Chinese Human Rights 
Defenders (Online), ``Chen Guangcheng, Human Rights Defender in Prison, 
Update: Officials Ignored Requests for Medical Parole and for Filing 
Complaints to Higher Court About Verdict,'' 23 March 07; Zhang Min, 
Chinese Human Rights Defenders (Online), ``With the Paralympics Close, 
Imprisoned Blind Rights Activist Chen Guangcheng's Family Members, 
Villagers, and Lawyers Have Had Cellular Communications Obstacles'' 
[Canao jin, yuzhong mangren weiquanzhe chen guangcheng jiaren, cunmin 
ji lushi shouji tongxun zhang'ai], 3 September 08.
    \65\ ``Chen Guangcheng Not in Good Health and Yuan Weijing Beaten, 
Hong Kong's China Human Rights Watch Lends Support'' [Chen guangcheng 
shenti qianjia ji yuan weijing bei ou, xianggang zhongguo weiquan lushi 
guanzhu zu shengyuan], Radio Free Asia (Online), 22 April 09.
    \66\ For full account, see, e.g., ``Reflections on a Visit to Chen 
Guangcheng's Family, We Were Beaten Out of the Village,'' Wang Keqin's 
Blog (Online), 14 March 09.
    \67\ Ibid.
    \68\ ``Chen Guangcheng Not in Good Health and Yuan Weijing Beaten, 
Hong Kong's China Human Rights Watch Lends Support'' [Chen guangcheng 
shenti qianjia ji yuan weijing bei ou, xianggang zhongguo weiquan lushi 
guanzhu zu shengyuan], Radio Free Asia (Online), 22 April 09; Amnesty 
International (Online), ``China: Wife of Human Rights Activist 
Beaten,'' 20 April 09.
    \69\ ``Reflections on a Visit to Chen Guangcheng's Family, We Were 
Beaten Out of the Village,'' Wang Keqin's Blog (Online), 14 March 09; 
Amnesty International (Online), ``China: Wife of Human Rights Activist 
Beaten,'' 20 April 09.
    \70\ Wei Xing Zhu, Li Lu, and Therese Hesketh, ``China's Excess 
Males, Sex Selective Abortion, and One Child Policy: Analysis of Data 
From 2005 National Intercensus Survey,'' British Medical Journal 
(Online), 9 April 09, 6.
    \71\ Ibid, 3.
    \72\ Ibid, 1.
    \73\ ``China Has 37 Million More Males Than Females,'' People's 
Daily (Online), 10 July 07; State Council National Working Committee on 
Children and Women, ``Adjusting Sex Ratio Imbalance Should Be Done 
Without Delay'' [Zhili ``xingbie shiheng'' keburonghuan], 6 July 07.
    \74\ Barry Naughton, The Chinese Economy: Transitions and Growth 
(Cambridge, MA: MIT Press, 2007), 171-172.
    \75\ State Council National Working Committee on Children and Women 
(Online), ``Adjusting Sex Ratio Imbalance Should Be Done Without 
Delay'' [Zhili ``xingbie shiheng'' keburonghuan], 6 July 07.
    \76\ See Valerie M. Hudson and Andrea M. den Boer, Bare Branches: 
Security Implications of Asia's Surplus Male Population (Cambridge: MIT 
Press, 2004).
    \77\ See Mikhail Lipatov, Shuzhuo Li, and Marcus W. Feldman, 
``Economics, Cultural Transmission, and the Dynamics of the Sex Ratio 
at Birth in China,'' Proceedings of the National Academy of Social 
Sciences of the United States of America, 9 December 08, vol. 105 
(49):19171. According to this study, ``The root of the [gender 
imbalance] problem lies in a 2,500-year-old culture of son 
preference.'' See also Chu Junhong, ``Prenatal Sex Determination and 
Sex-Selective Abortion in Rural Central China,'' 27 Population and 
Development Review 2 (2001), 259; Joseph Chamie, ``The Global Abortion 
Bind: A Woman's Right To Choose Gives Way to Sex-Selection Abortions 
and Dangerous Gender Imbalances,'' Yale Global (Online), 29 May 08.
    \78\ This technology is now inexpensive and accessible, even in 
poorer rural regions. Wei Xing Zhu, Li Lu, and Therese Hesketh, 
``China's Excess Males, Sex Selective Abortion, and One Child Policy: 
Analysis of Data From 2005 National Intercensus Survey,'' British 
Medical Journal (Online), 9 April 09, 5.
    \79\ Ibid, 4-5.
    \80\ ``Abortion Law Amendment To Be Abolished,'' China Daily, 
reprinted in Xinhua (Online), 26 June 06; Andrew Yeh, ``China Retreats 
on Selective Abortion Law Plan,'' Financial Times (Online), 25 June 06.
    \81\ Population and Family Planning Commission of Guizhou (Online), 
``Guizhou Province Bans Non-Medically Necessary Sex Identification 
Procedures and Sex Selective Abortions'' [Guizhou sheng jinzhi fei 
yixue xuyao de taier xingbie jianding he xuanze xingbie zhongzhi 
renshen guiding], 27 December 06; Population and Family Planning 
Commission of Zaozhuang City (Online), ``Shandong Province Bans Non-
Medically Necessary Sex Identification Procedures and Sex Selective 
Abortions'' [Shandong sheng jinzhi fei yixue xuyao jianding tai'er 
xingbie he xuanze xingbie zhongzhi renshen guiding], 18 April 08; 
Population and Family Planning Commission of Zhongxiang City (Online), 
``Hubei Province Bans Non-Medically Necessary Sex Identification 
Procedures and Sex Selective Abortions'' [Hubei sheng jinzhi fei yixue 
xuyao jianding tai'er xingbie he xuanze xingbie zhongzhi renshen 
guiding], 3 July 07; Population and Family Planning Commission of 
Taiyuan City (Online), ``Shanxi Province Bans Non-Medically Necessary 
Sex Identification Procedures and Sex Selective Abortions'' [Shanxi 
sheng jinzhi fei yixue xuyao jianding tai'er xingbie he xuanze xingbie 
zhongzhi renshen guiding], 22 October 08; Population and Family 
Planning Commission of Gansu (Online), ``Jiangsu Province Concerning 
Decision on Banning of Non-Medically Necessary Sex Identification 
Procedures and Sex Selective Abortions'' [Jiangsu sheng guanyu jinzhi 
fei yixue xuyao tai'er xingbie jianding he xuanze xingbie rengong 
zhongzhi renshen de jueding], 27 December 06.
    \82\ Jiujiang Municipal Population and Family Planning Committee 
(Online), ``Jiujiang County Family Planning Commission Braves the 
Summer's Intense Heat and Insists on Entering Villages and Homes To 
Direct and Supervise Family Planning Work'' [Jiujiangxian jishengwei 
mao kushu jianchi jincun ruhu dudao jisheng gongzuo], 17 July 09.
    \83\ Xiushui County Population and Family Planning Committee 
(Online), ``Yining Township's Statement at the Xiushui County 2009 
Population and Family Planning Work Dispatch Meeting'' [Yiningzhen zai 
2009 nian quanxian renkou he jihua shengyu gongzuo diaoduhui fayan], 15 
July 09; Xiushui County Population and Family Planning Committee 
(Online), ``Huanggang Township's Statement at the Xiushui County 2009 
Population and Family Planning Work Dispatch Meeting'' [Huanggangzhen 
zai 2009 nian quanxian renkou he jihua shengyu gongzuo diaoduhui 
fayan], 18 June 09; Xiushui County Population and Family Planning 
Committee (Online), ``Quanfeng Township's Statement at the Xiushui 
County 2009 Population and Family Planning Work Dispatch Meeting'' 
[Quanfengzhen zai 2009 nian quanxian renkou he jihua shengyu gongzuo 
diaoduhui fayan], 18 June 09; Xiushui County Population and Family 
Planning Committee (Online), ``Sidu Township's Statement at the Xiushui 
County 2009 Population and Family Planning Work Dispatch Meeting'' 
[Siduzhen zai 2009 nian quanxian renkou he jihua shengyu gongzuo 
diaoduhui fayan], 15 July 09.
    \84\ Xiushui County Population and Family Planning Committee 
(Online), ``Xiushui County Brief Report on Efforts To Move Into the 
Leading Position in Population and Family Planning Work'' [Xiushuixian 
renkou he jihua shengyu gongzuo zhengxian jinwei jianbao], 3 July 09.
    \85\ Ibid.
    \86\ Jiujiang County People's Government (Online), ``Relentlessly 
Master the Implementation of Remedial Measures, Raise the Overall Level 
of Work'' [Henzhua bujiu cuoshi luoshi, tigao zhengti gongzuo 
shuiping], 14 July 09.
    \87\ Xiushui County Population and Family Planning Committee 
(Online), ``Yining Township's Statement at the Xiushui County 2009 
Population and Family Planning Work Dispatch Meeting'' [Yiningzhen zai 
2009 nian quanxian renkou he jihua shengyu gongzuo diaoduhui fayan], 15 
July 09; Xiushui County Population and Family Planning Committee 
(Online), ``Huanggang Township's Statement at the Xiushui County 2009 
Population and Family Planning Work Dispatch Meeting'' [Huanggangzhen 
zai 2009 nian quanxian renkou he jihua shengyu gongzuo diaoduhui 
fayan], 18 June 09; Xiushui County Population and Family Planning 
Committee (Online), ``Quanfeng Township's Statement at the Xiushui 
County 2009 Population and Family Planning Work Dispatch Meeting'' 
[Quanfengzhen zai 2009 nian quanxian renkou he jihua shengyu gongzuo 
diaoduhui fayan], 18 June 09; Xiushui County Population and Family 
Planning Committee (Online), ``Sidu Township's Statement at the Xiushui 
County 2009 Population and Family Planning Work Dispatch Meeting'' 
[Siduzhen zai 2009 nian quanxian renkou he jihua shengyu gongzuo 
diaoduhui fayan], 15 July 09.
    \88\ Xiushui County Population and Family Planning Committee 
(Online), ``Huanggang Township's Statement at the Xiushui County 2009 
Population and Family Planning Work Dispatch Meeting'' [Huanggangzhen 
zai 2009 nian quanxian renkou he jihua shengyu gongzuo diaoduhui 
fayan], 18 June 09.
    \89\ Jiujiang County People's Government (Online), ``Relentlessly 
Master the Implementation of Remedial Measures, Raise the Overall Level 
of Work'' [Henzhua bujiu cuoshi luoshi, tigao zhengti gongzuo 
shuiping], 18 June 09.
    \90\ Xiushui County Population and Family Planning Committee 
(Online), ``Quanfeng Township's Statement at the Xiushui County 2009 
Population and Family Planning Work Dispatch Meeting'' [Quanfengzhen 
zai 2009 nian quanxian renkou he jihua shengyu gongzuo diaoduhui 
fayan], 15 July 09.
    \91\ Xiushui County Population and Family Planning Committee 
(Online), ``Sidu Township's Statement at the Xiushui County 2009 
Population and Family Planning Work Dispatch Meeting'' [Siduzhen zai 
2009 nian quanxian renkou he jihua shengyu gongzuo diaoduhui fayan], 15 
July 09.
    \92\ Xiushui County Population and Family Planning Committee 
(Online), ``Huanggang Township's Statement at the Xiushui County 2009 
Population and Family Planning Work Dispatch Meeting'' [Huanggangzhen 
zai 2009 nian quanxian renkou he jihua shengyu gongzuo diaoduhui 
fayan], 18 June 09.
    \93\ CECC, 2008 Annual Report, 31 October 08, 96-97.
    \94\ Xiushui County Population and Family Planning Committee 
(Online), ``Xiushui County Brief Report on Efforts To Move Into the 
Leading Position in Population and Family Planning Work'' [Xiushuixian 
renkou he jihua shengyu gongzuo zhengxian jinwei jianbao], 3 July 09.
    \95\ Xiushui County Population and Family Planning Committee 
(Online), ``Huanggang Township's Statement at the Xiushui County 2009 
Population and Family Planning Work Dispatch Meeting'' [Huanggangzhen 
zai 2009 nian quanxian renkou he jihua shengyu gongzuo diaoduhui 
fayan], 18 June 09.
    \96\ Ibid.
    \97\ Xiushui County Population and Family Planning Committee 
(Online), ``Yining Township's Statement at the Xiushui County 2009 
Population and Family Planning Work Dispatch Meeting'' [Yiningzhen zai 
2009 nian quanxian renkou he jihua shengyu gongzuo diaoduhui fayan], 18 
June 09.
    \98\ CECC, 2008 Annual Report, 31 October 08, 98.
    \99\ Xiushui County Population and Family Planning Committee 
(Online), ``Xiushui County Brief Report on Efforts To Move Into the 
Leading Position in Population and Family Planning Work'' [Xiushuixian 
renkou he jihua shengyu gongzuo zhengxian jinwei jianbao], 3 July 09.
    \100\ Xiushui County Population and Family Planning Committee 
(Online), ``Sidu Township's Statement at the Xiushui County 2009 
Population and Family Planning Work Dispatch Meeting'' [Siduzhen zai 
2009 nian quanxian renkou he jihua shengyu gongzuo diaoduhui fayan], 15 
July 09.

    Notes to Section II--Freedom of Residence
    \1\ PRC Regulations on Household Registration [Zhonghuarenmin 
gongheguo hukou dengji tiaoli], issued and effective 9 January 58.
    \2\ For a detailed discussion of the Chinese hukou system and 
related reforms, see China's Household Registration (Hukou) System: 
Discrimination and Reform, Staff Roundtable of the Congressional-
Executive Commission on China, 2 September 05.
    \3\ For a fieldwork-based case study that discusses the impact of 
the hukou system, including provisions allowing family members of urban 
hukou holders to transfer their status, see Dorothy J. Solinger, ``The 
Sad Story of Zheng Erji Who Landed in the City Through the Favors 
Reform-Era Policies Bestowed But Rewrote the Rules While Suffering 
Wrongs, Once There,'' in Narratives of the Chinese Economic Reforms, 
ed. Dorothy J. Solinger, (Lewiston, NY: The Edwin Mellen Press, 2005), 
113-127, esp. 121, 123, 125.
    \4\ Universal Declaration of Human Rights, adopted and proclaimed 
by UN General Assembly resolution 217A (III) of 10 December 48, arts. 2 
and 13(1); International Covenant on Civil and Political Rights, 
adopted by UN General Assembly resolution 2200A (XXI) of 16 December 
66, entry into force 23 March 76, arts. 2(1), 12(1), 12(3), and 26.
    \5\ For a review of hukou reforms since 2005, see CECC, 2008 Annual 
Report, 31 October 2008, 103-112.
    \6\ ``Officials' Early Response to Unemployment and `Social Unrest' 
During Downturn,'' CECC China Human Rights and Rule of Law Update, No. 
2, March 2009, 3; Raymond Li, ``Plea To Make Job Hunt Easier for 
Graduates,'' South China Morning Post (Online), 17 February 09.
    \7\ ``Employment Crisis Is Best Catalyst for Reform'' [Jiuye weiji 
shi biange zuihao cuihuaji], Xinhua (Online), 17 February 09; ``Time Is 
Ripe for `Hukou' Reform,'' People's Daily, reprinted in Xinhua 
(Online), 17 February 09.
    \8\ State Council General Office, Circular Regarding Strengthening 
Employment for Graduates of Common Higher Educational Institutions 
[Guowuyuan bangongting guanyu jiaqiang putong gaodeng xuexiao biyesheng 
jiuye gongzuo de tongzhi], issued and effective 19 January 09, art. 2.
    \9\ Raymond Li, ``Plea To Make Job Hunt Easier for Graduates,'' 
South China Morning Post (Online), 17 February 09.
    \10\ Trial Measures Regarding ``Shanghai Residence Permit'' 
Holders' Application for City's Permanent Hukou [Chiyou ``shanghai shi 
juzhuzheng'' renyuan shenban benshi changzhu hukou shixing banfa], 
issued and effective 12 February 09.
    \11\ Implementing Regulations on the Trial Measures Regarding 
``Shanghai Residence Permit'' Holders' Application for City's Permanent 
Hukou [Chiyou ``shanghai shi juzhuzheng'' renyuan shenban benshi 
changzhu hukou shixing banfa shishi xize], issued 17 June 09.
    \12\ Trial Measures Regarding ``Shanghai Residence Permit'' 
Holders' Application for City's Permanent Hukou [Chiyou ``shanghai shi 
juzhuzheng'' renyuan shenban benshi changzhu hukou shixing banfa], 
issued and effective 12 February 09, arts. 5(1), 5(4), 5(5). Applicants 
must also have participated in the city's social security system and 
paid taxes, and must not have been subject to administrative 
punishments, have a more severe criminal record, or have exhibited 
other bad behavior. Trial Measures Regarding ``Shanghai Residence 
Permit'' Holders' Application for City's Permanent Hukou [Chiyou 
``shanghai shi juzhuzheng'' renyuan shenban benshi changzhu hukou 
shixing banfa], issued and effective 12 February 09, arts. 5(2), 5(3), 
5(5).
    \13\ ``Shanghai To Increase Numbers of Local Hukou Changed From 
Resident Permits'' [Shanghai jiang zeng juzhuzheng luohu], Beijing News 
(Online), 18 February 09.
    \14\ ``Shanghai Offers Permanent Residence for Some After 7 
Years,'' Xinhua (Online), 24 February 09.
    \15\ ``Policies To Allow Hukou Registration With New Home Purchases 
Cause Disputes'' [Goufang ruhu zhengce yin zhengyi], Money Management 
Weekly, reprinted in Phoenix Net (Online), 27 April 09.
    \16\ ``Allowing Hukou Registration With New Home Purchases: Half 
Flickering, Half Unfair'' [Goufang ruhu: ban huyou ban bugong], 
Shanghai Securities News, reprinted in China Youth Net (Online), 19 
February 09.
    \17\ ``Guangdong To Establish New Measures To Reform Hukou Within 
Year'' [Guangdong niannei zhiding huji gaige xin banfa], Southern Daily 
(Online), 24 February 09.
    \18\ ``Lawyer Submits Recommendations to the State Council, Stating 
That Hukou System Violates Law'' [Lushi xiang guowuyuan ji jianyishu 
zhi xianxing huji dengji zhidu weifa], China Youth Daily, reprinted in 
China Development Gateway (Online), 8 April 08. The Commission in 2006 
reported that Communist Party scholars and government officials 
publicly raised the subject of hukou reform in October 2005, after the 
conclusion of the Party plenum. CECC, 2006 Annual Report, 20 September 
06, 115. According to a national survey conducted in 2007 by the China 
Youth Daily and the popular Web site Sina.com, 91.7 percent of the 
11,168 persons surveyed considered hukou reforms as ``absolutely 
necessary.'' Untitled, Hukou Watch, No. 1, 8 March 09, 1.
    \19\ ``Lawyer Submits Recommendations to the State Council, Stating 
That Hukou System Violates Law'' [Lushi xiang guowuyuan ji jianyishu 
zhi xianxing huji dengji zhidu weifa], China Youth Daily, reprinted in 
China Development Gateway (Online), 8 April 08.
    \20\ Ibid.
    \21\ Cheng Hai has filed a series of lawsuits since 2007 that 
challenge the government's hukou policy. In February 2008, Cheng 
submitted a petition to Changping District Court in Beijing requesting 
that the court revoke his temporary residence permit registration. 
Cheng later filed a separate lawsuit against the Changping Public 
Security Bureau stating that the bureau's requirement of a temporary 
permit conflicts with more than 10 superior laws, including citizens' 
right to equal treatment as stipulated in the PRC Constitution. The 
case marked ``the first hukou relocation lawsuit,'' according to 
Chinese media reports. Zan Aizong, ``Cheng Hai Sued Beijing Public 
Security Bureau; Li Subin `Correctified' the Hukou Regulations'' [Cheng 
hai ba Beijing gonganju tuishang fating li subin wei hukou tiaoli 
boluan fanzheng], Epoch Times (Online), 23 August 07; ``Lawyer Cheng 
Hai Sued Beijing City for Temporary Resident Permit'' [Lushi cheng hai 
zhuanggao beijingshi banli zanzhuzheng xingwei weifa], Procuratorial 
Daily (Online), 3 March 08; ``Lawyer Denied Hukou Relocation and Sued 
Public Security Bureau'' [Lushi ziyou qianxi hukou zaoju zhuanggao 
gongan bumen], Beijing News, reprinted in China West (Online), 5 May 
07; ``Lawyer Submits Recommendations to the State Council, Stating That 
Hukou System Violates Law'' [Lushi xiang guowuyuan ji jianyishu zhi 
xianxing huji dengji zhidu weifa], China Youth Daily, reprinted in 
China Development Gateway (Online), 8 April 08.
    \22\ ``Lawyer Submits Recommendations to the State Council, Stating 
That Hukou System Violates Law'' [Lushi xiang guowuyuan ji jianyishu 
zhi xianxing huji dengji zhidu weifa], China Youth Daily, reprinted in 
China Development Gateway (Online), 8 April 08.
    \23\ ``Professor Submits Suggestion to the National People's 
Congress That Current Hukou System Violates Constitution'' [Jiaoshou 
shangshu quanguo renda zhiyan xianxing huji zhidu youbei xianfa], China 
Legal News, reprinted in Sina (Online), 18 November 04.
    \24\ International Covenant on Civil and Political Rights, adopted 
by UN General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76, art. 12.
    \25\ PRC Passport Law, enacted 29 April 06, effective 1 January 07, 
art. 13(7). For an example of a beneficial provision within the law, 
see Article 6, which stipulates time limits for officials to approve 
applications and allows applicants to contest rejected applications.
    \26\ CECC, 2008 Annual Report, 31 October 08, 113.
    \27\ ``On the Eve of World AIDS Day, Gao Yaojie's Family Pressured, 
Li Xige Continues To Be Under Supervision'' [Shijie aizibing ri qianxi, 
gao yaojie jiaren shou daya, li xige chixu shou jiankong], Radio Free 
Asia (Online), 2 November 08.
    \28\ See, e.g., Hu Jia, Chinese Human Rights Defenders (Online), 
``Henan Government Places Professor Gao Yaojie Under Illegal 
Residential Surveillance Because She Planned To Go to United States To 
Receive Award'' [Gao yaojie jiaoshou yinzhunbei fumei lingjiang erbei 
henan zhengfu feifa jujin], 4 February 07; Jim Yardley, ``China Covers 
Up Detention of AIDS Doctor,'' New York Times (Online), 16 February 07.
    \29\ ChinaAid (Online), ``Radio Free Asia Reports on Secretary of 
State Hillary Clinton's Visit to China; Many Christians and Pro-
Democracy Activists Placed Under Surveillance,'' 26 February 09; 
Christopher Bodeen, ``Dissidents Held During Clinton Beijing Visit,'' 
Associated Press (Online), 21 February 09.
    \30\ Paul Richter and Barbara Demick, ``Hillary Clinton, China 
Officials Agree To Put Human Rights Discussions on a Separate Track,'' 
Los Angeles Times (Online), 22 February 09. Beijing Public Security 
Bureau officers stopped Zeng when she tried to leave her home on the 
eve of the 20th anniversary of the 1989 Tiananmen protests in early 
June. ``Zeng Jinyan Prevented From Leaving Home, Several Individuals in 
Zhejiang Come Under Pressure'' [Zeng jinyan bei xianzhi chumen, 
zhejiang duo wei renshi zao da ya], Radio Free Asia (Online), 3 June 
09.
    \31\ ``Mainland Chinese Who Were Suppressed During June 4 Period 
Plan To Take Legal Action'' [Liusi qijian zao daya de dalu renshi jihua 
caiqu falu xingdong], Radio Free Asia (Online), 7 June 09. For more 
information concerning Ding's treatment during the 20th anniversary of 
the Tiananmen protests, see Jane Macartney, ``China Cracks Down on 
Mourners on Tiananmen Massacre Anniversary,'' Times Online (Online), 4 
June 09; Hong Kong Information Center for Human Rights and Democracy, 
``PRC: Dissidents Kept Under Surveillance During `4 June' Incident 
Anniversary,'' 3 June 09 (Open Source Center, 3 June 09).
    \32\ ``Ding Zilin and Husband To Leave Beijing Tomorrow 
`Accompanied' by State Security'' [Ding zilin fufu mingri jiang zai 
guoan ``peitong'' xia li jing], Radio Free Asia (Online), 8 June 09.
    \33\ ``Citizens From Various Sectors Stripped of Their Rights on 
June 4, Signatories of Charter 08 Become a Symbol'' [Ge lingyu gongmin 
liusi zao boquan, tong shu ling ba xianzhang cheng biaozhi], Radio Free 
Asia (Online), 10 June 09; Chinese Human Rights Defenders (Online), 
``Human Rights Defense Lawyer Pu Zhiqiang Taken Away by Police on June 
2, Still Unable To Return Home'' [Weiquan lushi pu zhiqiang 6 yue 2 ri 
bei jingcha daizou dao zhi jin], 5 June 09.
    \34\ Dan Martin, ``Key Tiananmen Dissident Still Defiant, 20 Years 
On,'' Agence France-Presse, reprinted in AsiaOne News (Online), 31 May 
09.
    \35\ ``Officials Remove Dissidents From Capital, Start 24/7 
Surveillance,'' Agence France-Presse, reprinted in South China Morning 
Post (Online), 28 May 09; Robert J. Saiget, ``China Clamps Down Ahead 
of Tiananmen Anniversary,'' Agence France-Presse (Online), 2 June 09.
    \36\ Chinese Human Rights Defenders (Online), ``Writer Liao Yiwu 
Prohibited From Leaving the Country Again'' [Zuojia liao yiwu zaici 
beijinzhi chujing], 6 May 09. Authorities reportedly had issued Liao a 
passport several months before his planned visit to Australia. ``Yao 
Lifa Monitored and Liao Yiwu Prevented From Exiting the Country'' [Yao 
lifa shoudao jiankong liao yiwu beizu chujing], New Tang Dynasty 
Television (Online), 8 May 09.
    \37\ ``Internet Writer Zan Aizong Prevented From Exiting the 
Country'' [Wangluo zuojia zan aizong zaici beizu chujing], Radio Free 
Asia, reprinted in New Century News (Online), 19 March 09; Chinese 
Human Rights Defenders (Online), ``Cai Chu: Zan Aizong Blocked at 
Hangzhou Airport on His Way to Hong Kong on July 1'' [Cai Chu: zan 
aizong qi yi fugang bei dangzai hangzhou jichang], 1 July 09.
    \38\ Chinese Human Rights Defenders (Online), ``Feng Zhenghu's 
Letter to United States Speaker of the House Nancy Pelosi'' [Feng 
zhenghu zhi meiguo zhongyiyuan yizhang poluoxi nushi de xin], 10 July 
09; Chinese Human Rights Defenders (Online), ``Feng Zhenghu Blocked at 
Japanese Airport During 6th Attempt To Return to China'' [Feng zhenghu 
di liuci huiguo zai riben jichang shouzu], 18 July 09; Chinese Human 
Rights Defenders (Online), ``Feng Zhenghu Passes Barrier and Arrives in 
Shanghai on His 7th Attempt'' [Feng zhenghu di 7 ci huiguo chuangguan 
dida shanghai], 1 August 09.
    \39\ Chinese Human Rights Defenders (Online), ``Feng Zhenghu's 
Letter to United States Speaker of the House Nancy Pelosi'' [Feng 
zhenghu zhi meiguo zhongyiyuan yizhang poluoxi nushi de xin], 10 July 
09; Chinese Human Rights Defenders (Online), ``Feng Zhenghu Blocked at 
Japanese Airport During 6th Attempt To Return to China'' [Feng zhenghu 
di liuci huiguo zai riben jichang shouzu], 18 July 09.
    \40\ Chinese Human Rights Defenders (Online), ``Feng Zhenghu Passes 
Barrier and Arrives in Shanghai on His 7th Attempt'' [Feng zhenghu di 7 
ci huiguo chuangguan dida shanghai], 1 August 09.
    \41\ Chinese Human Rights Defenders (Online), ``Feng Zhenghu's 
Letter to Chinese Head of State Hu Jintao'' [Feng zhenghu zhi zhongguo 
guojia zhuxi hujintao de xin], 10 September 09.
    \42\ ``Dissidents Say China Extremely Difficult With Passport and 
Visa Applications'' [Yiyirenshi zhi zhongguo diaonan huzhao qianzheng 
shenqing], Voice of America (Online), 18 April 09.
    \43\ ``Wu'er Kaixi Denied Entrance Into Macau, Returned to Taipei'' 
[Wu'er kaixi bei aomen ju rujing qianfan taibei], China Times (Online), 
3 June 09.
    \44\ ``Hong Kong Denies Entry to Tiananmen Dissidents,'' Associated 
Press, reprinted in Taipei Times (Online), 26 May 09.
    \45\ ``Dissident Yang Jianli Denied Entry to Hong Kong Again'' 
[Yiyirenshi yang jianli zaibei jujue rujing xianggang], Voice of 
America (Online), 10 May 09; ``Hong Kong Denied Democracy Movement 
Individual Yang Jianli's Entry'' [Bengang ju minyun renshi yang jianli 
rujing], Ming Pao, reprinted in Yahoo! (Online), 9 May 09.
    \46\ Nora Boustany, ``Hong Kong Bars Chinese Dissident,'' 
Washington Post (Online), 8 August 08.
    \47\ The advocates and lawmakers were also planning to take part in 
a public forum to discuss the Macau Special Administrative Region 
National Security Law. Macau officials reportedly cited internal 
security laws as the reason for denying the advocates and lawmakers 
entry into Macau. ``Hong Kong Democrats Barred From Macau Ahead of 
Rally,'' Agence France-Presse (Online), 20 December 08.

    Notes to Section II--Status of Women
    \1\ UN GAOR, Hum. Rts. Coun., 4th Sess., National Report Submitted 
in Accordance With Paragraph 15 (A) of the Annex to Human Rights 
Council Resolution 5/1, A/HRC/WG.6/4/CHN/1, 10 November 08, para. 63.
    \2\ State Council Information Office, National Human Rights Action 
Plan of China (2009-2010), Xinhua (Online), 13 April 09, sec. III(2).
    \3\ PRC Law on the Protection of Women's Rights and Interests, 
enacted 3 April 92, effective 1 October 92, amended 28 August 05, art. 
11; PRC Electoral Law of the National People's Congress and Local 
People's Congresses, enacted 1 July 79, amended 27 October 04, art. 6.
    \4\ Zhan Yan, ``Feature: Women's Changing Status in China,'' Xinhua 
(Online), 7 March 09.
    \5\ CECC, 2008 Annual Report, 31 October 08, 116.
    \6\ `` `Law on Women' Should Be Included in National Peoples 
Congress' Examination Plan of Enforcement of the Law'' [``Funufa'' ying 
lieru renda zhifa jiancha jihua], China Women's News, reprinted in 
Women's Watch-China (Online), 10 March 09; ``National People's Congress 
for First Time Issues Rule on Proportion of Women Representatives'' 
[Renda shouci dui funu daibiao bili zuochu guiding], Xinhua (Online), 9 
March 07.
    \7\ PRC Compulsory Education Law, enacted 12 April 86, amended 29 
June 06, amendment effective 1 September 06, arts. 2, 4.
    \8\ As of 2006, for example, 99.29 percent of girls and 99.25 
percent of boys that were of school age were enrolled in primary 
education, according to a UN Development Programme study. United 
Nations Development Programme (Online), UNDP: China Human Development 
Report 2007/08, 17 November 08, 101.
    \9\ For example, primary school enrollment in China has reached 
gender parity, according to the United Nations Children's Fund. United 
Nations Children's Fund (Online), ``Gender Equality,'' updated January 
2009. According to a recent study conducted by gender specialists and 
the Women's Study Institute of China, women in China during the 2006 
and 2007 school year constituted 47.2 percent of high school students, 
48.91 percent of college students, and 44.5 percent of graduate 
students. ``2006-2007: Report on China's Gender Equality and Women's 
Development'' [2006-2007: zhongguo xingbie pingdeng yu funu fazhan 
baogao], China Women's News, reprinted in Women's Watch-China (Online), 
1 March 09.
    \10\ UN Committee on the Elimination of Discrimination against 
Women, Consideration of Reports Submitted by State Parties Under 
Article 18 of the Convention on the Elimination of All Forms of 
Discrimination against Women, Combined Fifth and Sixth Periodic Report 
of States Parties, China, CEDAW/C/CHN/5-6, 10 June 04, 33.
    \11\ For example, in the poorest fifth of the population, female 
and male illiteracy rates are 56 percent and 34 percent, respectively, 
while in the wealthiest fifth of the population, female and male 
illiteracy rates are 17 percent and 6 percent, respectively. United 
Nations Development Programme (Online), UNDP: China Human Development 
Report 2007/08, 17 November 08, 101.
    \12\ ``Survey of Present Education for Poor Girls: Boys Study and 
Girls Feed Pigs'' [Pinkun nutong jiaoyu xianzhuang diaocha: nanhai 
dushu nuhai wei zhu], China Youth Daily, reprinted in Xinhua (Online), 
18 February 09.
    \13\ Ibid.
    \14\ Convention on the Elimination of All Forms of Discrimination 
against Women, adopted by UN General Assembly resolution 34/180 of 18 
December 79, entry into force 3 September 81, art. 12.
    \15\ For example, as of 2008 the average life expectancy for women 
in China had risen to 72.25 years. ``Chinese Women's Average Number of 
Years' Education Reaches 7.3 Years; Life Expectancy 72.25 Years'' 
[Woguo funu pingjun shou jiaoyu nianxian da 7.3 nian pingjun yuqi 
shouming 72.25 sui], Xinhua (Online), 24 September 08.
    \16\ Anita Swarup, Institute of Development Studies (Online), 
``China: Better Healthcare for Poor Women,'' 19 August 08.
    \17\ World Health Organization (Online), ``Suicide Rates per 
100,000 by Country, Year and Sex (Table),'' 2008.
    \18\ ``Suicide an Important Cause of Death Among Chinese Rural 
Women; 60 Percent Driven by Impulse'' [Zisha cheng zhongguo nongcun 
nuxing zhongyao siyin 60% shuyu yishi chongdong], Beijing Daily, 
reprinted in Xinhua (Online), 8 January 09. See also ``Female Suicides 
`Linked to Status,' '' Radio Free Asia (Online), 12 January 09.
    \19\ ``Research Shows: Suicide Has Become Major Cause of Death for 
Chinese Rural Women'' [Yanjiu xianshi: zisha yicheng zhongguo nongcun 
nuxing zhongyao siyin], Radio Free Asia (Online), 9 January 09.
    \20\ Ibid.
    \21\ ``Female Suicides `Linked to Status,' '' Radio Free Asia 
(Online), 12 January 09.
    \22\ For example, the maternity mortality rate at childbirth has 
decreased from 51 deaths per 100,000 childbirths in 2003 to 36.6 deaths 
per 100,000 childbirths in 2007. United Nations Children's Fund 
(Online), ``Maternal Health,'' updated September 2008. According to a 
recent United Nations report, 7,000 Chinese women die in childbirth 
every year. This figure represents roughly 1.3 percent of the world's 
total maternity deaths at childbirth, but is relatively low compared to 
other parts of the world. ``7,000 Women Die in Childbirth in China 
Every Year, Representing 1.3 Percent of the World Total'' [Zhongguo 
meinian yue 7,000 ming funu zai fenmian zhong siwang zhan quanqiu 
1.3%], China News Net, reprinted in Women's Watch-China (Online), 15 
March 09.
    \23\ ``China Launches Campaign To Break Sex Taboos,'' China Daily 
(Online), 15 February 09; ``The Changing Face of HIV in China,'' 455 
Nature 609 (October 2008).
    \24\ Human Rights in China (Online), ``Implementation of the 
Convention on the Elimination of All Forms of Discrimination against 
Women in the People's Republic of China: A Parallel NGO Report by Human 
Rights in China,'' June 2006, 12-14.
    \25\ China did not have any sex education textbooks until early 
2002. ``China Targets Adolescent Health With Sex Education,'' Xinhua, 
reprinted in China Daily (Online), 14 July 03. Only 7 percent of women 
and approximately 8 percent of men seek immediate medical assistance 
when reproductive health issues arise. More than a third of them never 
ask for help. ``China Launches Campaign To Break Sex Taboos,'' China 
Daily (Online), 15 February 09.
    \26\ See Mikhail Lipatov, Shuzhuo Li, and Marcus W. Feldman, 
``Economics, Cultural Transmission, and the Dynamics of the Sex Ratio 
at Birth in China,'' Proceedings of the National Academy of Social 
Sciences of the United States of America, 9 December 08, Vol. 105 
(49):19171. According to this study, ``The root of the [gender 
imbalance] problem lies in a 2,500-year-old culture of son 
preference.'' See also Chu Junhong, ``Prenatal Sex Determination and 
Sex-Selective Abortion in Rural Central China,'' 27 Population and 
Development Review 2 (2001), 259; Joseph Chamie, ``The Global Abortion 
Bind: A Woman's Right To Choose Gives Way to Sex-Selection Abortions 
and Dangerous Gender Imbalances,'' Yale Global (Online), 29 May 08.
    \27\ ``Why Is Village Childbearing Changing Quietly? Tenth National 
Women's Conference Analyzes Village Childbearing'' [Nongcun shengyuguan 
yuanhe qiaoran gaibian? Funu shida daibiao pouxi nongcun shengyuguan], 
Xinhua (Online), 30 October 08.
    \28\ UN Declaration on the Elimination of Violence Against Women, 
adopted by UN General Assembly resolution 48/104, 19 December 93, art. 
2.
    \29\ UN Fourth World Conference on Women, Platform for Action, 
Women and Health, September 95, para. 124(c).
    \30\ Ibid., strategic objective D.2.
    \31\ The World Health Organization defines sexual violence as ``any 
sexual act, attempt to obtain a sexual act, unwanted sexual comments or 
advances, or acts to traffic, or [acts] otherwise directed, against a 
person's sexuality using coercion, by any person regardless of their 
relationship to the victim, in any setting, including but not limited 
to home or work.'' Etienne G. Krug, Linda L. Dahlberg, James A. Mercy, 
Anthony B. Zwi, and Rafael Lozano, ed., World Report on Violence and 
Health (Geneva: World Health Organization, 2002), 149.
    \32\ PRC Law on the Protection of Women's Rights and Interests, 
enacted 3 April 92, effective 1 October 92, amended 28 August 05, art. 
2.
    \33\ PRC Criminal Law, enacted 1 July 79, amended 14 March 97, 
effective 1 October 97, amended 25 December 99, 31 August 01, 29 
December 01, 28 December 02, 28 February 05, 29 June 06, 28 February 
09, arts. 236, 237.
    \34\ In June 2006, the Chinese Government reported that between 
2001 and 2005 Chinese courts adjudicated 125,568 rape cases and 16,560 
statutory rape cases (involving girls under the age of 14). The 
government reported these numbers in response to questions raised by 
the UN Committee on the Elimination of Discrimination against Women 
during its country review of the status of women in China. United 
Nations Division for the Advancement of Women (Online), ``2006 Response 
to the List of Issues and Questions for Consideration of the Combined 
Fifth and Sixth Periodic Report of China,'' 8 June 06, 10.
    \35\ K.L. Chan, Sexual Violence Research Initiative (Online), 
``Sexual Violence Against Women & Children in China,'' August 2007, 5.
    \36\ Loretta Chao, ``China Murder Case Sparks Women's Rights 
Uproar,'' Wall Street Journal (Online), 28 May 09; Alexa Olesen, 
``Chinese Praise Waitress Held for Stabbing Official,'' Associated 
Press, reprinted in Washington Post (Online), 22 May 09.
    \37\ Ibid.; Ng Tze-wei, ``Support for Woman Held Over Killing of 
Official,'' South China Morning Post (Online), 19 May 09; ``Statement 
on Deng Yujiao by the Center for Women's Law & Legal Services of Peking 
University'' [Beijing daxue faxueyuan funu falu yanjiu yu fuwu zhongxin 
de shengming], Women's Watch-China (Online), 2 June 09.
    \38\ ``Statement on Deng Yujiao by the Center for Women's Law & 
Legal Services of Peking University'' [Beijing daxue faxueyuan funu 
falu yanjiu yu fuwu zhongxin de shengming], Women's Watch-China 
(Online), 2 June 09.
    \39\ Loretta Chao, ``China Murder Case Sparks Women's Rights 
Uproar,'' Wall Street Journal (Online), 28 May 09.
    \40\ Ibid.
    \41\ K.L. Chan, Sexual Violence Research Initiative (Online), 
``Sexual Violence Against Women & Children in China,'' August 2007, 4, 
6.
    \42\ ``Pulling No Punches Against Domestic Abuse,'' China Daily 
(Online), 25 November 08. Of these victims, 94 percent are women, 
according to the report. The report also indicated that the number of 
domestic violence complaints rose from 20,000 in 2000 to 40,000 per 
year from 2005 to 2007.
    \43\ PRC Marriage Law, enacted 10 September 80, effective 1 January 
81, amended 28 April 01, arts. 3, 32, 43, 45, 46(3).
    \44\ PRC Law on the Protection of Women's Rights and Interests, 
enacted 3 April 92, effective 1 October 92, amended 28 August 05, art. 
46.
    \45\ PRC Criminal Law, enacted 1 July 79, amended 14 March 97, 
effective 1 October 97, amended 25 December 99, 31 August 01, 29 
December 01, 28 December 02, 28 February 05, 29 June 06, 28 February 
09, arts. 234, 236, and 260. Domestic violence offenders are also 
punishable under Article 43 of the PRC Public Security Administration 
Punishment Law. PRC Public Security Administration Punishment Law, 
enacted 28 August 05, effective 1 March 06, art. 43.
    \46\ ``Domestic Violence in China,'' People's Daily, reprinted and 
translated into English in All-China Women's Federation (Online), 10 
October 08.
    \47\ ``Anti-Domestic Violence Legislation Must Be Enacted Without a 
Second's Delay'' [Fan jiating baoli dandu lifa keburonghuan], Shenzhen 
Lawyer's Net, reprinted in Women's Watch-China (Online), 16 May 08; Guo 
Jianmei and Li Ying, ``Discussing Legal Protection for Domestic 
Violence Victims'' [Lundui jiating baoli shouhaizhe de falu baohu], 
Women's Watch-China (Online), 27 November 08.
    \48\ Central Propaganda Department, All-China Women's Federation, 
Supreme People's Procuratorate, Ministry of Public Security, Ministry 
of Justice, Ministry of Civil Affairs, and Ministry of Health, Opinion 
on Preventing and Deterring Domestic Violence [Guanyu yufang he zhizhi 
jiating baoli de ruogan yijian], issued 31 July 08.
    \49\ Ibid., arts. 8, 11, 13. Among other measures, the opinion 
requires public security officers to respond to domestic violence 
complaints made by people who call ``110,'' an emergency telephone 
hotline in China. The opinion also requires hospitals and healthcare 
workers to undergo domestic violence-related training programs to 
prevent and curb domestic violence. The All-China Women's Federation is 
also required to establish domestic violence hotlines.
    \50\ Institute of Applied Laws, Supreme People's Court, Guidance on 
Trials of Cases Involving Domestic Violence in Marriage'' [Sheji 
jiating baoli hunyin anjian shenli zhinan], issued 3 March 08, arts. 
27, 29. Among other stipulations, the guidance included the following 
four measures: (1) Advise courts to issue protection orders to 
``prohibit offenders from beating, threatening, harassing, or stalking 
victims, or having unwelcome contact with the victims and their 
children''; (2) if it is necessary and if the case meets certain 
qualifications, then offenders in some cases should temporarily move 
out of their residences; (3) if it is necessary, some perpetrators of 
domestic violence may also be required to receive psychological 
therapy; and (4) courts are authorized to issue ``emergency orders'' 
effective for 15 days and ``long-term orders'' effective between 3 and 
6 months, or up to 12 months.
    \51\ Xu Wei, `` `Family Business' Needs Someone To Look After as 
Well; Guidance for Trials Involving Anti-Domestic Violence Promoted as 
Regulations'' [``Jiawushi'' ye dei you ren guan fanjiabao shenli zhinan 
shangsheng wei guifan wenjian], Legal Daily (Online), 15 June 09; 
``Judiciary Intervention Into Family Violence; Wenzhou Issued the First 
Protection Order'' [Sifa jieru ezhi jiating baoli wenzhou fachu 
shouzhang renshen baohuling], Legal Daily (Online), 29 June 09; 
Chongqing Municipal People's Government, ``City Issues First Safety 
Protection Order'' [Woshi fachu shoupi renshen baohuling], reprinted in 
Chongqing Archives (Online), 23 October 08.
    \52\ ``Domestic Violence in China,'' People's Daily, reprinted and 
translated into English in All-China Women's Federation (Online), 10 
October 08; ``Combating Domestic Violence: China Issues First Ruling 
for a Personal Safety Protective Order'' [Fanjiabao zhongguo fachu 
shouge renshen anquan baohu caiding], Legal Daily, reprinted in China 
Development Gateway (Online), 18 August 08.
    \53\ Pei Zhiyong and Yan Ke, ``Legal Insight: New Anti-Domestic 
Violence Legal Mechanism'' [Fayan: fan jiabao sifa xinjizhi], People's 
Daily (Online), 13 May 09.
    \54\ ``Anti-Domestic Violence Law Bottlenecked, Deputy of National 
People's Congress Calls for Complete Legislation'' [Fan jiating baoli 
zaoyu pingjing renda daibiao huyu wanshan lifa], China News Net, 
reprinted in Hexun (Online), 16 March 08.
    \55\ PRC Law on the Protection of Women's Rights and Interests, 
enacted 3 April 92, effective 1 October 92, amended 28 August 05, arts. 
40, 58.
    \56\ ``Chinese Women Appeal for Effective Anti-Harassment 
Legislation,'' Xinhua (Online), 30 October 08.
    \57\ CECC, 2008 Annual Report, 31 October 08, 115.
    \58\ ``Law on Prevention of Sexual Harassment in the Workplace 
Submitted to the National People's Congress (Draft Proposal)'' [Xiang 
quanguo renda tijiao ``gongzuo changsuo xingsaorao fangzhifa'' (jianyi 
gao) yi an], Maple Women's Psychological Counseling Center Beijing 
(Online), 17 February 09.
    \59\ PRC Law on the Protection of Women's Rights and Interests, 
enacted 3 April 92, effective 1 October 92, amended 28 August 05, arts. 
22-27.
    \60\ PRC Labor Law, enacted 5 July 94, effective 1 January 95, 
arts. 12, 13, 59-63.
    \61\ PRC Employment Promotion Law, enacted 30 August 07, effective 
1 January 09, art. 27.
    \62\ Referred to as the ``sticky floor'' phenomenon, gender 
inequality in wages, as part of companies' discriminatory compensation 
policies against female workers, tends to be much more pronounced in 
low-skilled jobs when most of those job holders are teenage migrant 
girls who fall victim to wage discrimination. ``China's `Sticky Floor,' 
'' McKinsey Quarterly (Online), May 2009.
    \63\ The CASS report noted that while educational background 
attributed to the wage gap, gender discrimination was also a factor. 
``Migrant Women's Hope: Pay Discrimination To Disappear Soon'' [Liudong 
funu de xiwang: baochou qishi zaori xiaoshi], China Women's News, 
reprinted in Women's Watch-China (Online), 12 March 09.
    \64\ ``Graduates Employment Report: Male Graduates Salaries Higher 
Than Females'' [Biyesheng jiuye baogao: nanxing biyesheng xinzi gaoyu 
nuxing], Worker's Daily, reprinted in Women's Watch-China (Online), 12 
June 09. See also ``China's `Sticky Floor,' '' McKinsey Quarterly 
(Online), May 2009.
    \65\ According to the article, 65 percent of female college 
graduates believe that gender discrimination is their greatest barrier 
to securing employment. Additionally, recruiters stated that they 
discuss ways to eliminate female job applicants after interviews, and 
employees from some human resources' departments stated that they 
rarely review job applications submitted by women at job fairs. 
``Shandong Jinan News: Women Encounter `Hidden' Discrimination in 
Employment'' [Shandong jinan jianwen: nuxing jiuye zaoyu ``yinxing'' 
qishi], Dazhong Daily, reprinted in Xinhua (Online), 12 March 09.
    \66\ Liang Jiangtao, ``Why Do `Appearance Thresholds' Frequently 
Appear at Employment Recruiting Fairs for Female Students?'' [Nusheng 
zhaopinhui heyi pinxian ``xiangmao menkan? ''], Sichuan News Net 
(Online), 8 March 09.
    \67\ ``Liu Ge: Recruitment Criteria Include Symmetrical Breasts for 
Female Public Servants, an Insult to Women'' [Liu ge: nu gongwuyuan 
luyong yaoqiu rufang duicheng wuru nuxing], New Century Weekly, 
reprinted in Sina.com (Online), 30 June 09.
    \68\ ``National People's Congress Deputy and University Professor 
Interview on Anti-Employment Discrimination (Transcript)'' [Renda 
daibiao daxue jiaoshou fandui jiuye qishi fangtan (shilu)], People's 
Daily, reprinted in Sohu (Online), 3 March 09.
    \69\ ``China's Compulsory Retirement Age for Males and Females 
Challenged for Violating Constitution'' [Woguo nannu tuixiu nianling 
guiding beitiqing weixian shencha], China Law Education (Online), 16 
March 06.
    \70\ Ibid.
    \71\ Xie Chuanjiao, ``Retirement Age To Rise for Women,'' China 
Daily (Online), 4 December 08.
    \72\ The increase would take place sometime in 2009. ``Beijing To 
Solicit Opinions on the Draft Measures To Implement the Law on the 
Protection of Women's Rights and Interests'' [Beijing shishi funu 
quanyi baozhangfa xiuding cao'an zhengqiu yijian], Xinhua (Online), 5 
May 09.
    \73\ ``Beijing Solicitation of Opinions on the Draft Measures To 
Implement the Law on the Protection of Women's Rights and Interests'' 
[Beijing shishi funu quanyi baozhangfa xiuding cao'an zhengqiu yijian], 
Xinhua (Online), 5 May 09, art. 26.
    \74\ ``Beijing Receives 525 Opinions Regarding Draft Measures To 
Implement the Law on the Protection of Women's Rights and Interests'' 
[Beijing shi shishi funu quanyi baozhangfa banfa zaoan shoudao 525 tiao 
yijian], Beijing Daily, reprinted in Beijing Government (Online), 13 
May 09.
    \75\ ``Hainan Requests All Courts To Establish a Panel of Judges To 
Protect Women's Rights'' [Hainan shuaixian yaoqiu geji fayuan sheli 
funu weiquan heyiting], China News Net, reprinted in Women's Watch-
China (Online), 17 March 09.

    Notes to Section II--Human Trafficking
    \1\ UN Protocol To Prevent, Suppress and Punish Trafficking in 
Persons, Especially Women and Children (TIP Protocol), adopted 15 
November 00, entered into force 25 December 03, art. 3(a). The Chinese 
Government has been considering the signing and ratification of the TIP 
Protocol for the past few years. China's laws and regulations already 
include more than 95 percent of the protocol's contents. CECC, 2008 
Annual Report, 31 October 08, 120-121. See also Wang Zhuoqiong, ``China 
Set To Ratify UN Trafficking Protocol,'' China Daily (Online), 24 
October 08.
    \2\ CECC, 2008 Annual Report, 31 October 08, 118. As documented and 
defined internationally, major forms of human trafficking include 
forced labor, bonded labor, involuntary domestic servitude, child 
soldiers, forced prostitution, children exploited for commercial sex, 
child sex tourism, and debt bondage and involuntary servitude among 
migrant laborers. Office to Monitor and Combat Trafficking in Persons, 
U.S. Department of State, Trafficking in Persons Report 2008, Major 
Forms of Trafficking in Persons, 4 June 08, 19-28.
    \3\ CECC, 2008 Annual Report, 31 October 08, 118.
    \4\ Office to Monitor and Combat Trafficking in Persons, U.S. 
Department of State, Trafficking in Persons Report--2009, China, 16 
June 09; Robert Booth, ``Revealed: 77 Trafficked Chinese Children Lost 
by Home,'' Guardian (Online), 5 May 09; ``Trafficked Women Rescued in 
Raids,'' Press Association, reprinted in UTV News (Online), 28 May 09; 
``Workers Stranded in Crisis-Hit Romania,'' Agence France-Presse 
(Online), 2 March 09; Anas Aremeyaw Anas, ``Chinese Sex Mafia Busted,'' 
Crusading Guide, reprinted in Modern Ghana (Online), 19 February 09; 
Isabelle Ligner, ``Dutch Find More Human Trafficking Victims,'' United 
Press International (Online), 6 February 09; ``Chinese Women Forced 
Into Paris Prostitution: Aid Group,'' Agence France-Presse (Online), 5 
February 09; Cathy Scott-Clark and Adrian Levy, ``It Is Down Your 
Street and in Your Lane,'' Guardian (Online), 11 October 08.
    \5\ CECC, 2008 Annual Report, 31 October 08, 121. Countries where 
women and children are trafficked into China include North Korea, 
Vietnam, and Burma. See, e.g., Committee for Human Rights in North 
Korea, Lives for Sale: Personal Accounts of Women Fleeing North Korea 
to China, March 2009; ``North Korean Women Sold in China,'' Associated 
Press, reprinted in Radio Free Asia (Online), 29 April 09; ``North 
Korean Women Sold Into Marriage in China,'' Dong-A Ilbo (Online), 28 
March 09; See also ``Kidnapping Hmong Women in Vietnam,'' Economist 
(Online), 13 March 09; ``Burma: Police Reportedly Arrest Trafficker 
Selling Women to Chinese Men,'' Rangoon 7Day News Journal, translated 
by Open Source Center (Online), 12 February 09; ``Two Vietnamese 
Teenagers Trafficked for Prostitution in Yunnan; Chinese and Vietnamese 
Police Rescued Together'' [Liang yuenan shaonu beiguai yunnan maiyin 
zhongyue jingfang lianshou jiejiu], Yunnan Information News, reprinted 
in Sohu.com (Online), 8 February 09; ``Trafficked Vietnamese Women 
Rescued in China,'' Reuters (Online), 27 November 08; Office to Monitor 
and Combat Trafficking in Persons, U.S. Department of State, 
Trafficking in Persons Report--2009, China, 16 June 09.
    \6\ CECC, 2008 Annual Report, 31 October 08, 121.
    \7\ CECC Staff Interview. ``Child Labor Exposed in Shanghai and 
Wuhan, Following Spring Scandal in Guangdong,'' CECC China Human Rights 
and Rule of Law Update, November 2008, 2. The exact scale of labor 
trafficking in China remains unknown. ``Human Trafficking for Labor 
Exploitation in China,'' Women's Watch--China (Online), 2 July 07.
    \8\ CECC, 2007 Annual Report, 10 October 07, 122.
    \9\ Clare Dwyer Hogg, ``Has Anyone Seen Our Child?'' Guardian 
(Online), 23 September 07.
    \10\ Andrew Jacobs, ``Chinese Hunger for Sons Fuels Boys' 
Abductions,'' New York Times (Online), 5 April 09; Clare Dwyer Hogg, 
``Has Anyone Seen Our Child?'' Guardian (Online), 23 September 07.
    \11\ Ibid.; ``Child Abductions Plague China,'' Al Jazeera (Online), 
6 October 08.
    \12\ Andrew Jacobs, ``Chinese Hunger for Sons Fuels Boys' 
Abductions,'' New York Times (Online), 5 April 09; ``Child Abductions 
Plague China,'' Al Jazeera (Online), 6 October 08. The New York Times 
also reported that local officials have encouraged parents to buy an 
abducted child in cases where the parents did not need to register the 
purchased infant as a new birth at the local family planning bureau.
    \13\ ``A Beijing Petitioning Adventure of 40 Parents Who Lost 
Children,'' China Digital Times (Online), 2 October 08. The 40 parents 
of abducted children came from 10 provinces.
    \14\ ``Child Labor Alleged at Factory,'' Radio Free Asia (Online), 
12 May 09; Jume, ``Human Trafficking or Arranging for Work?'' [Adem 
bedikchilikimu yaki ishqa orunlashturushmu?], Radio Free Asia (Online), 
20 March 09; Ariana Eunjung Cha, ``China Unrest Tied to Labor 
Program,'' Washington Post (Online), 15 July 09 .
    \15\ ``Pretty Girl Continuously Trafficked, Imprisoned 15 Years and 
Loses Her Mind'' [Piaoliang nuzi lianzao guaimai beiqiu 15 nian cheng 
chidai], Inner Mongolia Morning Post, reprinted in Xinhua (Online), 22 
March 09; ``Woman Trafficked for 15 Years and Mentally Ill; Cao Xiaoqin 
Walked Out of Cave Yesterday'' [Nuzi bei guaimai 15 nian fafengxu cao 
xiaoqin zuori zouchu yaodong], Inner Mongolia Morning Post, reprinted 
in Xinhua (Online), 22 March 09; ``Sichuan Woman Trafficked to Inner 
Mongolia Became Mentally Ill and Enslaved in a Cave for 15 Years'' 
[Sichuan nuzi bei guaizhi neimeng jingshen shichang qishen yaodong 15 
nian], Inner Mongolia Morning Post, reprinted in Sina.com (Online), 19 
March 09.
    \16\ Office to Monitor and Combat Trafficking in Persons, U.S. 
Department of State, Trafficking in Persons Report--2009, China, 16 
June 09.
    \17\ For example, in 2008, Xinhua reported that police found 746 
children in Xinjiang Uyghur Autonomous Region who were forced to 
pickpocket or shoplift. ``Chinese Police Rescue 746 Forced Child 
Thieves,'' Xinhua (Online), 5 February 09.
    \18\ Andrew Jacobs, ``Chinese Hunger for Sons Fuels Boys' 
Abductions,'' New York Times (Online), 5 April 09.
    \19\ He Huifeng, ``1,000 Child Slaves in Brick Factories,'' South 
China Morning Post (Online), 14 June 07.
    \20\ ``Children Forced Into Pickpocket Gang Return Home,'' Xinhua, 
reprinted in China Internet Information Center (Online), 18 June 09. 
The trafficked children who were from the Xinjiang Uyghur Autonomous 
Region reportedly were tricked into moving to Guangzhou with false 
promises of jobs by a 22-member organized crime group.
    \21\ See He Huifeng, ``Protests by Grieving Parents Grow Over Child 
Trafficking,'' South China Morning Post (Online), 28 April 09; Zhan 
Lisheng, ``City Fights Rumors of Child Abductions,'' China Daily 
(Online), 28 April 09.
    \22\ Wang Jingqiong, ``Girls Taken From Parents and Sold,'' China 
Daily (Online), 3 July 09; ``Orphanage Investigated, Officials Punished 
Over Baby Adoption Scandal in SW China,'' Xinhua (Online), 3 July 09; 
Henry Sanderson, ``China Punishes Officials After Babies Taken,'' 
Associated Press (Online), 4 July 09.
    \23\ For information on investigation and prosecution efforts, see 
CECC, 2008 Annual Report, 31 October 08, 122-123.
    \24\ ``Abductor of Nine Boys Executed by Lethal Injection in 
Central China,'' Xinhua (Online), 27 March 09; Lu Guowei and Cao Meng, 
``Criminal of Henan Especially Large Child Trafficking Case Executed 
Today'' [Henan teda guaimai ertong an zhuan jinri fufa], China Court 
Network (Online), 26 March 09 .
    \25\ Liao Bo, ``3 Main Suspects Sentenced to Death in the First 
Trial of Guizhou's Largest Trafficking of Women Case'' [Guizhou zuida 
guaimai funu an yishen sanzhufan beipan sixingsihuan], Guizhou 
Metropolitan Daily, reprinted in QQ News (Online), 17 December 08.
    \26\ Public security officials launched a nationwide campaign 
focused on the problem of forced labor and involuntary servitude 
following incidents of trafficking for forced labor in brick kilns in 
Shanxi and Henan provinces in 2007. CECC, 2008 Annual Report, 31 
October 08, 122.
    \27\ Christopher Bodeen, ``10 Arrested in East China Over Brick 
Kiln Slavery,'' Associated Press, reprinted in Washington Post 
(Online), 22 May 09.
    \28\ Supreme People's Court Circular on Completing Trial Work 
During the Earthquake Disaster Relief Period To Earnestly Safeguard 
Social Stability in the Disaster Area [Zui gao renmin fayuan guanyu 
yifa zuohao hao kangzhen jiuzai qijian shenpan gongzuo qieshi weihu 
zaiqu shehui wending de tongzhi], issued 26 May 08, effective 26 May 
08. Numerous reports of infant abductions surfaced in the wake of the 
May 2008 Sichuan Earthquake. ``Infant Trafficking From the Earthquake 
Zone and Other Cases Reflect Anti-Trafficking Challenges,'' 
Congressional-Executive Commission on China (Online), 15 August 08.
    \29\ ``Infant Trafficking From the Earthquake Zone and Other Cases 
Reflect Anti-Trafficking Challenges,'' Congressional-Executive 
Commission on China (Online), 15 August 08; ``Traffickers Stealing 
Babies From Under the Rubble Caused by the Quake,'' Asia Times 
(Online), 28 May 08.
    \30\ ``Why Has Crime of Child Abductions Continued Ceaselessly'' 
[Guaimai ertong fanzui weihe luda bujue], Xinhua (Online), 24 March 09.
    \31\ ``Ministry of Public Security Special Project To Counter Human 
Trafficking'' [Gonganbu zhuanxiang xingdong daji guaimai renkou], 
Caijing (Online), 10 April 09.
    \32\ ``China Issues Evaluation Standards for Anti-Trafficking 
Work'' [Zhongguo xiafa fandui guaimai funu ertong gongzuo jiancha kaohe 
biaozhun], Xinhua (Online), 9 March 09.
    \33\ ``China To Implement Registration and Management System for 
Floating Children Under Age of 16'' [Zhongguo jiang shixing 16 sui 
yixia liudong ertong dengji guanli zhi], China Philanthropy Times 
(Online), 9 June 09.
    \34\ Prevent Trafficking China (Online), ``About Us,'' accessed 9 
April 09.
    \35\ UN Interagency Project on Human Trafficking (Online), China's 
Brief Report on Achievements During the First Year of Phase III of 
UNIAP Project, 7 November 08, 2.
    \36\ ``China and Vietnam Join To Seriously Combat Transnational 
Trafficking in Women and Children'' [Zhongyue lianhe yanli daji kuaguo 
guaimai funu ertong fanzui], Xinhua (Online), 6 January 09.
    \37\ PRC Criminal Law, effective 1 October 97, amended 28 February 
08, art. 240.
    \38\ UN Protocol To Prevent, Suppress and Punish Trafficking in 
Persons, Especially Women and Children (TIP Protocol), adopted 15 
November 00, entered into force 25 December 03, art. 3(a). Article 3(a) 
of the TIP Protocol states: `` `Trafficking in persons' shall mean the 
recruitment, transportation, transfer, harboring or receipt of persons, 
by means of the threat or use of force or other forms of coercion, of 
abduction, of fraud, of deception, of the abuse of power or of a 
position of vulnerability or of the giving or receiving of payments or 
benefits to achieve the consent of a person having control over another 
person, for the purpose of exploitation. Exploitation shall include, at 
a minimum, the exploitation of the prostitution of others or other 
forms of sexual exploitation, forced labor or services, slavery or 
practices similar to slavery, servitude or the removal of organs.''
    \39\ Office to Monitor and Combat Trafficking in Persons, U.S. 
Department of State, Trafficking in Persons Report--2009, China, 16 
June 09.
    \40\ Ibid. The number of cases also included cases of human 
smuggling.
    \41\ CECC, 2008 Annual Report, 31 October 08, 122.
    \42\ CECC, 2007 Annual Report, 10 October 07, 121; CECC, 2008 
Annual Report, 31 October 08, 122. Some of these cases may not 
necessarily constitute human trafficking as defined by international 
standards. For example, the U.S. Department of State's 2005 Trafficking 
in Persons Report states: ``illegally selling a child for adoption 
would not constitute trafficking where the child itself is not to be 
exploited. Baby selling generally results in a situation that is non-
exploitative with respect to the child. Trafficking, on the other hand, 
implies exploitation of the victims. If an adopted child is subjected 
to coerced labor or sexual exploitation, then it constitutes a case of 
human trafficking.'' Office to Monitor and Combat Trafficking in 
Persons, U.S. Department of State, Trafficking in Persons Report 2005, 
3 June 05, 21.
    \43\ CECC, 2007 Annual Report, 10 October 07, 120.
    \44\ CECC, 2008 Annual Report, 31 October 08, 118. The U.S. 
Department of State's 2009 Trafficking in Persons Report stated, 
``There continued to be no dedicated government assistance programs for 
victims of trafficking. China has an inadequate number of shelters to 
assist trafficking victims, and regularly returns trafficking victims 
to their homes without access to counseling or psychological care. Most 
of the existing shelters are temporary, not exclusive to trafficking 
victims, and provide little or no care to repatriated victims.'' Office 
to Monitor and Combat Trafficking in Persons, U.S. Department of State, 
Trafficking in Persons Report--2009, China, 16 June 09.
    \45\ CECC, 2008 Annual Report, 31 October 08, 123; U.S. Department 
of State, Trafficking in Persons Interim Assessment (May-November 
2008): China, 27 January 09.
    \46\ CECC, 2008 Annual Report, 31 October 08, 122; Office to 
Monitor and Combat Trafficking in Persons, U.S. Department of State, 
Trafficking in Persons Report--2009, China, 16 June 09.
    \47\ For example, the U.S. State Department reported that 
trafficking victims, including some trafficked from North Korea, have 
been treated as criminals and faced punishment without government 
protection. The report also stated that trafficked North Koreans, whom 
China considers economic migrants, have also faced systematic 
deportation. Office to Monitor and Combat Trafficking in Persons, U.S. 
Department of State, Trafficking in Persons Report--2008, China, 4 June 
08; CECC, 2008 Annual Report, 31 October 08, 122. For information 
concerning distinctions between human smuggling and trafficking, see 
U.S. Department of State (Online), ``Distinctions Between Human 
Smuggling and Human Trafficking,'' 1 April 06.
    \48\ The report also stated that the ``Chinese Government does not 
fully comply with the minimum standards for the elimination of 
trafficking; however it is making significant efforts to do so.'' 
Office to Monitor and Combat Trafficking in Persons, U.S. Department of 
State, Trafficking in Persons Report--2009, China, 16 June 09.
    \49\ State Council, China National Plan of Action on Combating 
Trafficking in Women and Children (2008-2012), issued 13 December 07, 
effective 1 January 08. In February 2009, the Ministry of Public 
Security, as the coordinator of the national interagency anti-
trafficking taskforce, issued opinions on fully implementing the 
National Plan of Action. Opinions on Fully Implementing China's 
National Plan of Action on Combating Trafficking in Women and Children 
(2008-2012) [Guanyu gongan jiguan guanche shishi zhongguo fandui 
guaimai funu ertong xingdong jihua 2008-2012 nian deyijian], Ministry 
of Public Security, issued 12 February 09.
    \50\ Implementation Rules for China's National Plan of Action on 
Combating Trafficking in Women and Children (2008-2012) [Zhongguo 
fandui guaimai funu ertong xingdong jihua 2008-2012 nian shishi xize], 
issued March 2009.
    \51\ Yunnan Province Implementing Opinion on the National Plan of 
Action on Combating Trafficking in Women and Children (2008-2012) 
[Yunnan sheng guanche zhongguo fandui guaimai funu ertong xingdong 
jihua (2008-2012 nian) shishi yijian], issued 21 November 08; Tibet 
Autonomous Region Implementing Opinion on the National Plan of Action 
on Combating Trafficking in Women and Children (2008-2012) [Guanche 
luoshi zhongguo fandui guaimai funu ertong jihua (2008-2012 nian) 
shishi yijian], issued 3 February 09; Guizhou Province Implementation 
Plan on the National Plan of Action on Combating Trafficking in Women 
and Children (2008-2012) [Guizhou sheng zhongguo fandui guaimai funu 
ertong jihua (2008-2012 nian) shishi fangan], issued and effective 4 
May 08; Hainan Province Working Plan on Combating Trafficking of Women 
and Children [Hainan sheng fandui guaimai funu ertong gongzuo jihua], 
issued 6 June 08, effective 1 January 08; Fujian Province 
Implementation Plan on the National Plan of Action on Combating 
Trafficking in Women and Children (2008-2012) [Fujian sheng fandui 
guaimai funu ertong xingdong shishi jihua (2008-2012 nian)], issued 11 
June 08.
    \52\ CECC staff review of Guizhou, Hainan, Fujian, and Yunnan 
provinces and the Tibet Autonomous Region implementing measures. See, 
e.g., Yunnan Province Implementing Opinion on the National Plan of 
Action on Combating Trafficking in Women and Children (2008-2012) 
[Yunnan sheng guanche zhongguo fandui guaimai funu ertong xingdong 
jihua (2008-2012 nian) shishi yijian], issued 21 November 08; Tibet 
Autonomous Region Implementing Opinion on the National Plan of Action 
on Combating Trafficking in Women and Children (2008-2012) [Guanche 
luoshi zhongguo fandui guaimai funu ertong jihua (2008-2012 nian) 
shishi yijian], issued 3 February 09.
    \53\ The implementation plans also call for the strengthening of 
social welfare and assistance to rescued women and children, including 
occupational training and employment assistance. CECC staff review of 
Guizhou, Hainan, Fujian, and Yunnan provinces and the Tibet Autonomous 
Region implementing measures. For an example, see Guizhou Province 
Implementation Plan on the National Plan of Action on Combating 
Trafficking in Women and Children (2008-2012) [Guizhou sheng zhongguo 
fandui guaimai funu ertong jihua (2008-2012 nian) shishi fangan], 
issued and effective 4 May 08, secs. 4(6), 6(10).
    \54\ CECC staff review of Guizhou, Hainan, Fujian, and Yunnan 
provinces and the Tibet Autonomous Region implementing measures. For an 
example, see Guizhou Province Implementation Plan on the National Plan 
of Action on Combating Trafficking in Women and Children (2008-2012) 
[Guizhou sheng zhongguo fandui guaimai funu ertong jihua (2008-2012 
nian) shishi fangan], issued and effective 4 May 08, secs. 1(3)(2), 
4(9), 5(4).
    \55\ This measure is subject to the approval of the relevant 
department(s). For those rescued women who are allowed to stay in 
Yunnan, the Yunnan Provincial Population and Family Planning Commission 
would regard them as ``permanent residents'' instead of as migrants or 
members of the population who do not have a local household 
registration (hukou). See Yunnan Province Implementing Opinion on the 
National Plan of Action on Combating Trafficking in Women and Children 
(2008-2012) [Yunnan sheng guanche zhongguo fandui guaimai funu ertong 
xingdong jihua (2008-2012 nian) shishi yijian], issued 21 November 08, 
sec. 3(4)(2).
    \56\ This Protocol states that ``each State Party shall consider 
adopting legislative or other appropriate measures that permit victims 
of trafficking in persons to remain in its territory, temporarily or 
permanently, in appropriate cases.'' It is unclear how the new policy 
will be implemented. UN Protocol To Prevent, Suppress and Punish 
Trafficking in Persons, Especially Women and Children, adopted 15 
November 00, entered into force 25 December 03, art. 7.

    Notes to Section II--North Korean Refugees in China
    \1\ The 1951 Convention and its Protocol mandate that ``[n]o 
Contracting State shall expel or return (`refouler') a refugee in any 
manner whatsoever to the frontiers of territories where his life or 
freedom would be threatened on account of his race, religion, 
nationality, membership of a particular social group or political 
opinion.'' Convention Relating to the Status of Refugees, 28 July 51 by 
the UN Conference of Plenipotentiaries on the Status of Refugees and 
Stateless Persons convened under General Assembly resolution 429(V) of 
14 December 50, art. 33. China acceded to the Convention on September 
24, 1982.
    \2\ Stephan Haggard, Marcus Noland, and Erik Weeks, ``North Korea: 
The Emergence of Pre-Famine Conditions,'' Vox (Online), 7 June 08.
    \3\ The UN Special Rapporteur on Human Rights in North Korea, 
``Question of the Violation of Human Rights and Fundamental Freedom in 
Any Part of the World: Situation of Human Rights in the Democratic 
People's Republic of Korea,'' 10 January 05, 13; Joel R. Charny, Acts 
of Betrayal: The Challenge of Protecting North Koreans in China 
(Washington, DC: Refugees International, 2005).
    \4\ ChinaAid (Online), ``Christian Sentenced to 10 Years in Prison 
for Aiding North Korean Refugees,'' 1 September 09.
    \5\ ``11 N. Korean Refugees Face Repatriation,'' Korea Times 
(Online), 22 November 08.
    \6\ ``Chinese Authorities Arrest North Korean Refugees, Forced 
Repatriation Continues'' [Jung guk dang guk, talbukja chepo. Gangje 
buksong yeojeonhi gyesok], Voice of America, Korean Language Service 
(Online), 3 December 08.
    \7\ Good Friends (Online), North Korea Today, No. 261, 27 January 
09.
    \8\ 1,319 refugees participated in the survey. Yoonok Chang, 
Stephan Haggard, and Marcus Noland, Peterson Institute for 
International Economics, Working Paper, Migration Experiences of North 
Korean Refugees: Survey Evidence From China, March 2008, 2, 9.
    \9\ ``North Korea Executes 15 Attempting Escape, China Arrests 40 
Refugees,'' CECC China Human Rights and Rule of Law Update, June 2008, 
3; International Crisis Group (Online), ``Perilous Journeys: The Plight 
of North Koreans in China and Beyond,'' 26 October 06; U.S. Commission 
on International Religious Freedom, ``A Prison Without Bars: Refugee 
and Defector Testimonies of Severe Violations of Freedom of Religion or 
Belief in North Korea,'' March 2008.
    \10\ Good Friends (Online), North Korea Today, No. 266, 4 March 09.
    \11\ Ibid.
    \12\ Ibid.
    \13\ Good Friends (Online), North Korea Today, No. 271, 6 April 09.
    \14\ CECC, 2008 Annual Report, 31 October 08, 125; Bureau of 
Democracy, Human Rights and Labor, U.S. Department of State, Country 
Report on Human Rights Practices--2007, China (includes Tibet, Hong 
Kong, and Macau), 11 March 08, 21; U.S. Commission on International 
Religious Freedom, ``A Prison Without Bars: Refugee and Defector 
Testimonies of Severe Violations of Freedom of Religion or Belief in 
North Korea,'' March 2008, preface.
    \15\ U.S. Commission on International Religious Freedom, ``A Prison 
Without Bars: Refugee and Defector Testimonies of Severe Violations of 
Freedom of Religion or Belief in North Korea,'' March 2008, preface, 4-
5.
    \16\ Laura Ling and Euna Lee, ``Hostages of the Hermit Kingdom,'' 
Los Angeles Times (Online), 1 September 09; Choe Sang-hun, ``Reporters 
Tell of North Korea Arrest,'' New York Times (Online), 3 September 09.
    \17\ U.S. Commission on International Religious Freedom, ``A Prison 
Without Bars: Refugee and Defector Testimonies of Severe Violations of 
Freedom of Religion or Belief in North Korea,'' March 2008, preface, 4-
5.
    \18\ Ibid., 11, 21-22, 28.
    \19\ Tom O'Neill, ``Escape From North Korea,'' National Geographic 
Magazine (Online), 1 February 09.
    \20\ Kwang-Tae Kim, ``Activists: NKorean Executed for Distributing 
Bible,'' Associated Press (Online), 24 July 09.
    \21\ Demetri Sevastopulo, ``China Increases Troops on North Korea 
Border,'' Financial Times (Online), 13 November 08.
    \22\ Ibid.
    \23\ Michael Sheridan, ``Refugees Shot Fleeing North Korea,'' Times 
of London (Online), 29 June 08.
    \24\ ``UN Envoy Urges China Not To Send Back N. Korea Refugees,'' 
Agence France-Presse (Online), 29 October 08.
    \25\ Tom O'Neill, ``Escape From North Korea,'' National Geographic 
Magazine (Online), 1 February 09. In the lead-up to the 2008 Beijing 
Summer Olympic Games, Chinese public security officers reportedly 
conducted such inspections on a daily basis. See Life Funds for North 
Korean Refugees (Online), ``North Korea Defectors Report on Current 
Border Situation,'' 19 June 08; ``North Korean Defectors: China Urged 
To Provide Shelter to Those in Plight,'' Korea Times (Online), 26 May 
08.
    \26\ The Rising Stakes of Refugee Issues in China, Staff Roundtable 
of the Congressional-Executive Commission on China, 1 May 09, Testimony 
of Joel Charny, Vice President for Policy, Refugees International, 4.
    \27\ Malcolm Moore, ``Tensions Grow Along North Korean Border With 
China,'' Telegraph (Online), 13 November 08.
    \28\ Good Friends (Online), North Korea Today, No. 261, 27 January 
09; Good Friends (Online), North Korea Today, No. 259, 12 January 09.
    \29\ Good Friends (Online), North Korea Today, No. 259, 12 January 
09.
    \30\ Good Friends (Online), North Korea Today, No. 261, 27 January 
09.
    \31\ Good Friends (Online), North Korea Today, No. 266, 4 March 09.
    \32\ Good Friends (Online), North Korea Today, No. 267, 8 March 09.
    \33\ Ibid.
    \34\ Ibid.
    \35\ Good Friends (Online), North Korea Today, No. 283, 27 June 09; 
`` `150-Day Battle': N. Korea Succession Drama?'' Associated Press, 
reprinted on MSNBC (Online), 27 May 09.
    \36\ Good Friends (Online), North Korea Today, No. 283, 27 June 09.
    \37\ Good Friends (Online), North Korea Today, No. 288, 1 August 
09.
    \38\ Tom O'Neill, ``Escape From North Korea,'' National Geographic 
Magazine (Online), 1 February 09.
    \39\ Office to Monitor and Combat Trafficking in Persons, U.S. 
Department of State, Trafficking in Persons Report, 4 June 09, 227; 
Committee for Human Rights in North Korea, Lives for Sale: Personal 
Accounts of Women Fleeing North Korea to China (Washington, DC: 2009), 
50.
    \40\ Office to Monitor and Combat Trafficking in Persons, U.S. 
Department of State, Trafficking in Persons Report, 4 June 09, 227.
    \41\ Ibid.; Tom O'Neill, ``Escape From North Korea,'' National 
Geographic Magazine (Online), 1 February 09.
    \42\ Committee for Human Rights in North Korea, Lives for Sale: 
Personal Accounts of Women Fleeing North Korea to China (Washington, 
DC: 2009), 51; Blaine Harden, ``N. Korean Women Who Flee to China 
Suffer in Stateless Limbo,'' Washington Post (Online), 10 June 09.
    \43\ Human Rights Watch (Online), ``Denied Status, Denied 
Education: Children of North Korean Women in China,'' April 2008.
    \44\ Life Funds for North Korean Refugees (Online), ``Shadow 
Children Denied National ID,'' 6 July 09.
    \45\ Ibid.
    \46\ PRC Nationality Law, effective 10 September 80, art. 4.
    \47\ PRC Compulsory Education Law, enacted 12 April 86, art. 5.
    \48\ Ibid.; Convention Relating to the Status of Refugees, 189 
U.N.T.S. 150, effective 22 April 54, art. 22; PRC Nationality Law, 
effective 10 September 80, art. 4.
    \49\ Some local authorities along the border reportedly refuse to 
perform hukou registration for the children without seeing 
documentation that the mother is either a citizen, has been 
repatriated, or has run away. Human Rights Watch (Online), ``Denied 
Status, Denied Education: Children of North Korean Women in China,'' 
April 2008, 3; Life Funds for North Korean Refugees (Online), ``Shadow 
Children Denied National ID,'' 6 July 09.
    \50\ Life Funds for North Korean Refugees (Online), ``Shadow 
Children Denied National ID,'' 6 July 09.

    Notes to Section II--Public Health
    \1\ ``Gov't Promises Equitable Healthcare for All,'' China Daily, 
reprinted in PRC Central People's Government (Online), 8 January 08.
    \2\ State Council Opinion on Deepening Healthcare Reform [Zhonggong 
zhongyang guowuyuan guanyu shenhua yiyao weisheng tizhi gaige de 
yijian], issued 17 March 09.
    \3\ Shanlian Hu, Shenglan Tang, Yuanli Liu, Yuxin Zhao, Maria-Luisa 
Escobar, and David de Ferranti, ``Reform of How Health Care Is Paid for 
in China: Challenges and Opportunities,'' Lancet, 22 November 08, Vol. 
372, 1846. According to this report, ``The average cost of a single 
hospital admission is now almost equivalent to China's annual income 
per head, and is more than twice the average annual income of the 
lowest 20% of the population. . . . [P]aying for health care has become 
a notable cause of impoverishment for households that lack adequate 
health insurance. More than 35% of urban households and 43% of rural 
households have difficulty affording health care, go without, or are 
impoverished by the costs.''
    \4\ ``Can China Cope With an Aging Society? '' People's Daily 
(Online), 12 June 09; Shenglan Tang, Qingyue Meng, Lincoln Chen, Henk 
Bekedam, Tim Evans, and Margaret Whitehead, ``Tackling the Challenges 
to Health Equity in China,'' Lancet, 25 October 08, Vol. 372, 1493-
1501.
    \5\ Calum McLeod, ``Chinese Health Care Reformers Aim To Help Rural 
Areas,'' USA Today (Online), 6 May 09.
    \6\ See, e.g., ``Discrimination Against AIDS Patients Still 
Serious: Survey,'' China Daily, reprinted in China.org.cn, 8 July 09; 
``Discrimination Against Hepatitis B Carriers in Education Sphere 
Serious'' [Zhongguo jiaoyu lingyu qishi B gan daiyuanzhe qingkuang 
yanzhong], Radio Free Asia (Online), 19 May 09; ``Employment 
Discrimination Persists During Implementation of the Employment 
Promotion Law,'' CECC China Human Rights and Rule of Law Update, No. 3, 
2009, 3; China Disabled Persons [Zhongguo canji ren] (Online), ``How 
News Reporting Can Dispel `Mental Illness Discrimination' '' [Xinwen 
baodao ruhe xiaochu ``jingshenbing qishi''], 9 March 09.
    \7\ Dune Lawrence, ``A Flowering of Activism Poses Problems and 
Solutions for China,'' New York Times (Online), 13 January 09.
    \8\ Joan Kaufman, ``The Role of NGOs in China's AIDS Crisis: 
Challenges and Possibilities,'' in State and Society Responses to 
Social Welfare Needs in China--Serving the People, eds. Jonathan 
Schwartz and Shawn Shieh (New York: Routledge, 2009).
    \9\ See Spread of Infectious Diseases below for a more detailed 
discussion on the challenges Chinese authorities have faced this year 
in preventing and controlling the spread of infectious disease.
    \10\ See Spread of Infectious Diseases below for discussion on 
Chinese authorities' handling of the influenza A(H1N1) virus this year.
    \11\ ``There is widespread insecurity about health care in the 
country, with more than 60 percent of Chinese citizens surveyed 
unsatisfied with the health services they receive.'' Drew Thompson, 
quoted in ``China's Health Care Reform,'' Council on Foreign Relations 
(Online), 30 April 09. See also Center for Strategic and International 
Studies, China's Capacity To Manage Infectious Diseases: Global 
Implications, March 2009, VII.
    \12\ ``State Council Passes Medical Reform Plan, Estimates 
Investment of 850 Billion in Three Years'' [Guowuyuan tongguo yigai 
fang'an, 3 nian yuji touru 8500 yi yuan], Xinhua (Online), 21 January 
09; State Council Opinion on Deepening Healthcare Reform [Zhonggong 
zhongyang guowuyuan guanyu shenhua yiyao weisheng tizhi gaige de 
yijian], issued 17 March 09; Ryan Manuel, ``China's Health Care and the 
Fiscal Stimulus,'' East Asia Forum (Online), 2 April 09; Center for 
Strategic and International Studies, China's Capacity To Manage 
Infectious Diseases: Global Implications, March 2009, VII; Calum 
McLeod, ``Chinese Health Care Reformers Aim To Help Rural Areas,'' USA 
Today (Online), 6 May 09.
    \13\ State Council Opinion on Deepening Healthcare Reform 
[Zhonggong zhongyang guowuyuan guanyu shenhua yiyao weisheng tizhi 
gaige de yijian], issued 17 March 09.
    \14\ State Council Circular Regarding the Printing and Distribution 
of the 2009-2011 Healthcare Reform Implementation Plan [Guowuyuan 
guanyu yinfa yiyao weisheng tizhi gaige jinqi zhongdian shishi fangan 
(2009-2011 nian) de tongzhi], issued 18 March 09.
    \15\ Ibid.; ``China's Health Care Reform Aims at Public Interest, 
Premier Wen Says,'' Xinhua (Online), 28 February 09.
    \16\ State Council Circular Regarding the Printing and Distribution 
of the 2009-2011 Healthcare Reform Implementation Plan [Guowuyuan 
guanyu yinfa yiyao weisheng tizhi gaige jinqi zhongdian shishi fangan 
(2009-2011 nian) de tongzhi], issued 18 March 09, art. 1; ``China Steps 
Up Reforms To Improve Health Care for Urban, Rural Residents,'' Xinhua 
(Online), 6 April 09.
    \17\ State Council Circular Regarding the Printing and Distribution 
of the 2009-2011 Healthcare Reform Implementation Plan [Guowuyuan 
guanyu yinfa yiyao weisheng tizhi gaige jinqi zhongdian shishi fangan 
(2009-2011 nian) de tongzhi], issued 18 March 09, art. 7; ``China Steps 
Up Reforms To Improve Health Care for Urban, Rural Residents,'' Xinhua 
(Online), 6 April 09. The list of essential medicines was released by 
the Ministry of Health on August 18, 2009. See ``China Issues Essential 
Drugs List as Part of Medical System Reform,'' Xinhua (Online), 18 
August 09.
    \18\ State Council Circular Regarding the Printing and Distribution 
of the 2009-2011 Healthcare Reform Implementation Plan [Guowuyuan 
guanyu yinfa yiyao weisheng tizhi gaige jinqi zhongdian shishi fangan 
(2009-2011 nian) de tongzhi], issued 18 March 09, art. 9; Gordon 
Fairclough, ``China To Revamp Health Care,'' Wall Street Journal 
(Online), 8 April 09.
    \19\ State Council Circular Regarding the Printing and Distribution 
of the 2009-2011 Healthcare Reform Implementation Plan [Guowuyuan 
guanyu yinfa yiyao weisheng tizhi gaige jinqi zhongdian shishi fangan 
(2009-2011 nian) de tongzhi], issued 18 March 09, art. 10.
    \20\ Ibid., art. 13; Ben Blanchard, ``China Eyes Completing Health 
Care Reforms by 2020,'' Reuters (Online), 6 April 09.
    \21\ Michael Sainsbury, ``China's 2020 Vision on Universal 
Health,'' Australian (Online), 8 April 09; Center for Strategic and 
International Studies, China's Capacity To Manage Infectious Diseases: 
Global Implications, March 2009, VII.
    \22\ Nicholas Zamiska, ``Caged in China: Parents Grapple With 
Mentally Ill,'' Wall Street Journal (Online), 16 January 08.
    \23\ Shenglan Tang, Qingyue Meng, Lincoln Chen, Henk Bekedam, Tim 
Evans, and Margaret Whitehead, ``Tackling the Challenges to Health 
Equity in China,'' Lancet, 25 October 08, Vol. 372, 1493-1501. 
According to this report, ``[P]roviders can use their knowledge to 
persuade patients to spend more on services that will not necessarily 
lead to the best health gains, as has been happening in China. 
Providers, for example, have been prescribing tests, drugs, and 
procedures that will make them the most profit--causing cost 
escalation, unnecessary or even dangerous practices, and poorer quality 
care.'' See also Michael Sainsbury, ``China's 2020 Vision on Universal 
Health,'' Australian (Online), 8 April 09; ``China Unveils Health-Care 
Reform Guidelines,'' Xinhua (Online), 6 April 09.
    \24\ ``China Unveils Health-Care Reform Guidelines,'' Xinhua 
(Online), 6 April 09.
    \25\ Shanlian Hu, Shenglan Tang, Yuanli Liu, Yuxin Zhao, Maria-
Luisa Escobar, and David de Ferranti, ``Reform of How Health Care Is 
Paid for in China: Challenges and Opportunities,'' Lancet, 22 November 
08, Vol. 372, 1846.
    \26\ Center for Strategic and International Studies, China's 
Capacity To Manage Infectious Diseases: Global Implications, March 
2009, 60. According to this report, ``[T]he poor quality and 
expensiveness of healthcare services are a significant cause of 
dissatisfaction among the population, potentially threatening to upset 
social stability.'' Shenglan Tang, Qingyue Meng, Lincoln Chen, Henk 
Bekedam, Tim Evans, and Margaret Whitehead, ``Tackling the Challenges 
to Health Equity in China,'' Lancet, 25 October 08, Vol. 372, 1493-
1501. According to this report, ``Anecdotal evidence reported by 
Chinese media points to ridiculously high expenditures on hospital 
care, poor quality of services, and use of fake or low-quality 
medicines. These examples suggest that the public perception of 
fairness and trust in the health sector in general and doctors in 
particular is in crisis.'' See also Michael Sainsbury, ``China's 2020 
Vision on Universal Health,'' Australian (Online), 8 April 09.
    \27\ Center for Strategic and International Studies, China's 
Capacity To Manage Infectious Diseases: Global Implications, March 
2009, VII.
    \28\ Ibid. According to this report, ``Increasingly, the lack of 
adequate health care is becoming a source of significant public 
disgruntlement.'' See also Shenglan Tang, Qingyue Meng, Lincoln Chen, 
Henk Bekedam, Tim Evans, and Margaret Whitehead, ``Tackling the 
Challenges to Health Equity in China,'' Lancet, 25 October 08, Vol. 
372, 1493-1501. According to this report, ``The entire population--even 
the rich--is unhappy with the current system, which has not elicited 
trust in quality, reliability, honesty, and client-orientation.''
    \29\ Gordon Fairclough, ``China To Revamp Health Care,'' Wall 
Street Journal (Online), 8 April 09.
    \30\ State Council Opinion on Deepening Healthcare Reform 
[Zhonggong zhongyang guowuyuan guanyu shenhua yiyao weisheng tizhi 
gaige de yijian], issued 17 March 09, art. 7.
    \31\ State Council Circular Regarding the Printing and Distribution 
of the 2009-2011 Healthcare Reform Implementation Plan [Guowuyuan 
guanyu yinfa yiyao weisheng tizhi gaige jinqi zhongdian shishi fangan 
(2009-2011 nian) de tongzhi], issued 18 March 09, art. 21.
    \32\ State Council Information Office, ``PRC State Council 
Information Office News Conference on Health Care Reform,'' 8 April 09 
(Open Source Center, 8 April 09). According to Vice Minister of Finance 
Wang Jun, ``The central government will share 40% and local governments 
will share 60% of the 850 billion yuan. . . . In the past three years, 
the proportion of the central government's and local governments' 
allotments was 27:73.''
    \33\ Austin Ramzy, ``China's New Healthcare Could Cover Millions 
More,'' Time Magazine (Online), 9 April 09; Katie Lewis, ``China's Next 
Great Leap Forward,'' CMAJ, 23 June 09, Vol. 180, No. 13, E114.
    \34\ Sarah Barber, quoted in Calum McLeod, ``Chinese Health Care 
Reformers Aim To Help Rural Areas,'' USA Today (Online), 6 May 09. See 
also ``China's Poor Hope Reforms Will Fix Health Care,'' Agence France-
Presse (via Google), 18 April 09.
    \35\ Austin Ramzy, ``China's New Healthcare Could Cover Millions 
More,'' Time Magazine (Online), 9 April 09.
    \36\ ``Case Studies in Chinese Health Care Reform,'' Economic 
Observer (Online), 4 November 08.
    \37\ Shanlian Hu, Shenglan Tang, Yuanli Liu, Yuxin Zhao, Maria-
Luisa Escobar, and David de Ferranti, ``Reform of How Health Care Is 
Paid for in China: Challenges and Opportunities,'' Lancet, 22 November 
08, Vol. 372, 1848, 1851.
    \38\ Ibid.
    \39\ ``Case Studies in Chinese Health Care Reform,'' Economic 
Observer (Online), 4 November 08.
    \40\ State Council Circular Regarding the Printing and Distribution 
of the 2009-2011 Healthcare Reform Implementation Plan [Guowuyuan 
guanyu yinfa yiyao weisheng tizhi gaige jinqi zhongdian shishi fangan 
(2009-2011 nian) de tongzhi], issued 18 March 09, art. 1.
    \41\ ``Medical Insurance To Cover All Urban Residents This Year,'' 
Xinhua, reprinted in China Economic Net (Online), 23 February 08.
    \42\ Ibid.
    \43\ Michael Sainsbury, ``China Aches for a Cure,'' Australian 
(Online), 5 May 09.
    \44\ ``Not only do internal migrants face greater occupational 
hazards, but more than 80 percent lack health insurance. They often 
live in cramped housing situations where diseases such as tuberculosis 
can easily spread, creating a public health risk.'' Andrew Scheineson, 
``China's Internal Migrants,'' Council on Foreign Relations (Online), 
14 May 09.
    \45\ PRC Employment Promotion Law, enacted 30 August 07, effective 
1 January 08, arts. 29, 30.
    \46\ Yirenping (Online), ``Foreign Corporations HBV Discrimination 
Survey: 80% of Companies Still Force Job Seekers To Disclose HBV 
Status, Discrimination More Implicit'' [Waiqi yigan qishi diaocha 
baogao xianshi: 8 cheng qiye reng qiangcha yigan, qishi xingwei geng 
yinbi], 22 February 09; ``Employment Discrimination Persists During 
Implementation of the Employment Promotion Law,'' CECC China Human 
Rights and Rule of Law Update, No. 3, 2009, 3.
    \47\ ``Employment Discrimination Persists During Implementation of 
the Employment Promotion Law,'' CECC China Human Rights and Rule of Law 
Update, No. 3, 2009, 3.
    \48\ Mure Dickie, ``Nokia China Hit With Discrimination Suit,'' 
Financial Times (Online), 13 March 07; China Labour Bulletin (Online), 
``Dongguan Court's Dubious Ruling in Nokia HBV Discrimination Case,'' 6 
November 08.
    \49\ ``Dongguan Court's Dubious Ruling in Nokia HBV Discrimination 
Case,'' China Labour Bulletin (Online), 6 November 08.
    \50\ ``Court Accepts Employment Discrimination Case Against 
Qingdao's Hai'er Group'' [Qingdao haier jituan jiuye qishi an li'an], 
Legal Daily (Online), 5 March 09.
    \51\ ``College Graduate Files Suit for Being Denied Employment 
Right Based on Colorblindness,'' Dahe Net (Online), 27 February 09; 
``Employment Discrimination Persists a Year After the Employment 
Promotion Law,'' Congressional-Executive Commission on China (Online), 
13 March 09.
    \52\ ``HIV-positive internal migrants' access to treatment remains 
extremely limited, confounded in part by the effects of the hukou 
system.'' Human Rights Watch, ``Discrimination, Denial, and 
Deportation: Human Rights Abuses Affecting Migrants Living With HIV,'' 
18 June 09, 8. Another report states, ``Migrant workers have been 
identified as a population who are under-served by treatment 
programmes, as people are only usually allowed to access medical care 
in their official area of residency.'' AVERT (Online), ``HIV & AIDS in 
China,'' accessed May 18, 2009.
    \53\ Ian Ransom, ``Hepatitis Bars China Toddlers From 
Kindergarten,'' Reuters (Online), 23 October 08.
    \54\ Ibid.; ``Discrimination Against Hepatitis B Carriers in 
Education Sphere Serious'' [Zhongguo jiaoyu lingyu qishi B gan 
daiyuanzhe qingkuang yanzhong], Radio Free Asia (Online), 19 May 09.
    \55\ ``China is experiencing a surge of mental health problems as 
the global downturn begins to bite and workers are laid off, prompting 
calls from experts and politicians for a boost in fledgling mental 
health services.'' ``Mental Health Cases Sweep China,'' Radio Free Asia 
(Online), 11 March 09.
    \56\ ``Mental Health Cases Sweep China,'' Radio Free Asia (Online), 
11 March 09.
    \57\ Human Rights in China, ``Take Action, Tiananmen: 2008 and 
Beyond,'' China Rights Forum, No. 2, 2008, 43.
    \58\ International Covenant on Economic, Social and Cultural Rights 
(ICESCR), adopted by UN General Assembly resolution 2200A (XXII) of 16 
December 66, entry into force 3 January 76, art. 12 (1).
    \59\ ``Prevalence, Treatment, and Associated Disability of Mental 
Disorders in Four Provinces in China During 2001-05: An Epidemiological 
Survey,'' Lancet, 13 June 09, Vol. 373, 2052.
    \60\ Glenda Chong, ``Jump in Number of People Seeking Counseling in 
China,'' Channel NewsAsia (Online), 28 March 08. See also Sky Canaves, 
`` `A Modest Number': 100 Million Suffer From Mental Illness,'' Wall 
Street Journal (Online), 29 April 09. According to Dr. Huang Yueqin, 
director of China's National Centre for Mental Health, as paraphrased 
in a Telegraph report, ``China suffers from a serious lack of qualified 
psychiatrists, since the profession was outlawed during the Cultural 
Revolution. From the late 1960s, Maoist thought attributed any mental 
illness to an incorrect appreciation of the class struggle. Many 
mentally-ill patients were taken from hospitals and sent to labour 
camps because of their `counterrevolutionary' behaviour.'' Malcolm 
Moore, ``China Has 100 Million People With Mental Illness,'' Telegraph 
(Online), 28 April 09.
    \61\ ``The mental health profession is still in its infancy in 
China, which is home to just 14,000 psychiatrists and psychologists 
serving a population of 1.3 billion, the same number as France, with 
its population of 60 million.'' ``Mental Health Cases Sweep China,'' 
Radio Free Asia (Online), 11 March 09.
    \62\ ``Over 100 Million Chinese Suffer From Mental Illness,'' 
China.org.cn, reprinted in Beijing Review (Online), 6 January 08. 
According to this report, ``[China's] health budget accounts for only 
5.5 percent of gross domestic product (GDP), while spending on mental 
health represents only 2.35 percent of the health budget.''
    \63\ ``Prevalence, Treatment, and Associated Disability of Mental 
Disorders in Four Provinces in China During 2001-05: An Epidemiological 
Survey,'' Lancet, 13 June 09, Vol. 373, 2050.
    \64\ Nicholas Zamiska, ``Caged in China: Parents Grapple With 
Mentally Ill,'' Wall Street Journal (Online), 16 January 08; ``A 
Prisoner of His Own Mind, a Captive of His Father's Cage,'' Shanghai 
Daily (Online), reprinted in Crienglish.com, 15 November 08. See also 
``Naked Mentally Ill Youth Kept in Iron Cage for 3 Years,'' Xinhua 
(Online), 30 August 06; ``Mentally Ill Youth Caged by Family for Over 2 
Months: Already Basically Recovered,'' Nanguo Zaobao (Online), 29 April 
09.
    \65\ ``China's Ministry of Health said in a written statement that 
`there are definitely some families who lock patients with mental 
illness at home to prevent them from making trouble, but it is still 
not common in the whole country.' The ministry added that since 2003, 
the government has covered the cost of medicine and hospitalization for 
patients with serious mental illness in the countryside. As of last 
year, 70,000 such patients received medication free of charge, and 
6,000 patients were hospitalized at no cost to families, the ministry 
said.'' Nicholas Zamiska, ``Caged in China: Parents Grapple With 
Mentally Ill,'' Wall Street Journal (Online), 16 January 08.
    \66\ ``[S]ince 2003, the government has covered the cost of 
medicine and hospitalization for patients with serious mental illness 
in the countryside. As of last year, 70,000 such patients received 
medication free of charge, and 6,000 patients were hospitalized at no 
cost to families, the ministry said.'' Nicholas Zamiska, ``Caged in 
China: Parents Grapple With Mentally Ill,'' Wall Street Journal 
(Online), 16 January 08.
    \67\ Center for Strategic and International Studies, China's 
Capacity To Manage Infectious Diseases: Global Implications, March 
2009, VII.
    \68\ Anxiety disorders and depression are characterized as mental 
disorders by the World Health Organization. See World Health 
Organization (Online), ``Prevention of Mental Disorders: Effective 
Interventions and Policy Options,'' 2004, 39-43.
    \69\ Taylor Clark, ``Plight of the Little Emperors,'' Psychology 
Today (Online), 1 July 08; ``Mental Health Cases Sweep China,'' Radio 
Free Asia (Online), 11 March 09; Li Aoxue, ``Awareness of Mental Health 
Urged for the Young,'' China Daily (Online), 11 October 08.
    \70\ Taylor Clark, ``Plight of the Little Emperors,'' Psychology 
Today (Online), 1 July 08; ``Mental Health Cases Sweep China,'' Radio 
Free Asia (Online), 11 March 09. The RFA report states, ``Sun Ya, who 
runs a health care blog for Xinlang, a popular Chinese news portal, 
said the problem was linked to China's draconian family-planning 
policies. `Nowadays, most kids are only sons or daughters of their 
parents . . . This policy, which was conceived in response to massive 
population growth, has too many side-effects and is bound to cause some 
problems. . . . They are really missing out on something if they don't 
have people to communicate with, to share feelings with, to study with. 
From the parents' point of view, there is an even greater sense of 
pressure amid massive social change. This is bound to have an effect on 
the children. . . . On top of that, you have the fact that mental 
health issues aren't really taken that seriously in China, nor does 
anyone try to solve these problems, which just continue to mount up.' 
''
    \71\ The scope of what the article termed ``mental problems'' was 
not clearly defined.
    \72\ Li Aoxue, ``Awareness of Mental Health Urged for the Young,'' 
China Daily (Online), 11 October 08.
    \73\ Dune Lawrence, ``A Flowering of Activism Poses Problems and 
Solutions for China,'' New York Times (Online), 13 January 09; Joan 
Kaufman, ``The Role of NGOs in China's AIDS Crisis: Challenges and 
Possibilities,'' in State and Society Responses to Social Welfare Needs 
in China--Serving the People, eds. Jonathan Schwartz and Shawn Shieh 
(New York: Routledge, 2009).
    \74\ Chinese Human Rights Defenders (Online), ``Retired Judge in 
Xinjiang Detained for Advocating Health Rights of Veterans,'' 24 
February 09. Huang is currently being held at Tumuxiuke Detention 
Center in Bachu county, Kashgar.
    \75\ Ministry of Health, Measures on the Administration of Internet 
Medical Information Services [Hulianwang yiliao baojian xinxi fuwu 
guanli banfa], issued 1 May 09, effective 1 July 09, art. 1.
    \76\ ``China Shuts Sex Health Websites to Ordinary Users,'' Reuters 
(Online), 25 June 09.
    \77\ Ministry of Health, Measures on the Administration of Internet 
Medical Information Services [Hulianwang yiliao baojian xinxi fuwu 
guanli banfa], issued 1 May 09, effective 1 July 09, art. 5.
    \78\ Ibid., art. 15.
    \79\ ``Beijing Authorities Raid Non-governmental Organization 
Yirenping,'' Voice of America (Online), 29 July 09; Human Rights in 
China (Online), ``Raid of Public Interest Group Reveals Degree of 
Information Control,'' 29 July 09.
    \80\ Ministry of Health (Online), ``Ministry of Health Issues 2008 
National Infectious Disease Epidemic Report,'' 10 February 09. For 
background information, see, e.g., ``AIDS Ranks Top Fatal Infection 
Among Chinese in 2008,'' Xinhua (Online), 17 February 09; Raymond Li, 
``HIV/AIDS Now China's Most Deadly Infectious Disease,'' South China 
Morning Post (Online), 19 February 09.
    \81\ Raymond Li, ``HIV/AIDS Now China's Most Deadly Infectious 
Disease,'' South China Morning Post (Online), 19 February 09.
    \82\ Asian People's Alliance for Combating HIV & AIDS (Online), 
``AIDS Situation in China: Interview With Dr. Bernhard Schwartlander,'' 
accessed 24 April 09; ``China AIDS Patients Dying Because of Tragic 
Stigma,'' Reuters (Online), 30 October 08.
    \83\ ``China's Evolving Response to HIV/AIDS,'' Lancet, 28 February 
09, Vol. 373, 694. See also Julie Desne, ``China's First Gay Pride 
Festival Closes,'' Agence France-Presse (Online), 13 June 09.
    \84\ Asia Catalyst (Online), `` `I Will Fight to My Last Breath': 
Barriers to AIDS Treatment for Children in China,'' 20 April 09, 12-17, 
18-20, 26; ``China's Evolving Response to HIV/AIDS,'' Lancet, 28 
February 09, Vol. 373, 694. Another report states, ``Migrant workers 
have been identified as a population who are under-served by treatment 
programmes, as people are only usually allowed to access medical care 
in their official area of residency.'' AVERT (Online), ``HIV & AIDS in 
China,'' accessed 18 May 09.
    \85\ Asia Catalyst (Online), `` `I Will Fight to My Last Breath': 
Barriers to AIDS Treatment for Children in China,'' 20 April 09, 18-19.
    \86\ Ibid., 13; ``China's Evolving Response to HIV/AIDS,'' Lancet, 
28 February 09, Vol. 373, 694; AVERT (Online), ``HIV & AIDS in China,'' 
accessed 18 May 09.
    \87\ AVERT (Online), ``HIV & AIDS in China,'' accessed 18 May 09; 
``AIDS Outcasts Left To Suffer Alone,'' China Daily (Online), 1 July 
09.
    \88\ Bill and Melinda Gates Foundation (Online), ``Chinese 
Government and Foundation Announce Partnership To Fight Tuberculosis,'' 
1 April 09.
    \89\ Sandi Doughton, ``Gates Foundation Launches 3rd Initiative in 
China,'' Seattle Times (Online), 31 March 09.
    \90\ Bill and Melinda Gates Foundation (Online), ``Chinese 
Government and Foundation Announce Partnership To Fight Tuberculosis,'' 
1 April 09; Sandi Doughton, ``Gates Foundation Launches 3rd Initiative 
in China,'' Seattle Times (Online), 31 March 09.
    \91\ Doctors Without Borders (Online), ``MSF Halts Efforts in 
Opening MDR-TB Program in Inner-Mongolia,'' 10 February 09; Sandi 
Doughton, ``Gates Foundation Launches 3rd Initiative in China,'' 
Seattle Times (Online), 31 March 09.
    \92\ Sky Canaves, ``China Goes on Swine Flu Alert,'' Wall Street 
Journal (Online), 27 April 09; ``China Confirms a Swine Flu Case; 
Starts Quarantine,'' Wall Street Journal (Online), 12 May 09; Jonathan 
Landreth, ``Swine Flu Ruled Out for CBS News' Cooke,'' Hollywood 
Reporter (Online), 19 June 09.
    \93\ See, e.g., Ministry of Health (Online), ``Ministry of Health 
Influenza A(H1N1) Prevention and Control Work Information Bulletin'' 
[Weishengbu jiaxing h1n1 liugan fangkong gongzuo xinxi tongbao], 29 
July 09.
    \94\ ``US Raises Concerns With China Over Quarantined Americans,'' 
Agence France-Presse (Online), 29 July 09; ``Mayor of New Orleans 
Quarantined in Shanghai,'' Agence France-Presse (Online), 8 June 09; 
Austin Ramzy, ``Behind China's Aggressive Stance on Swine Flu,'' Time 
(Online), 29 July 09.
    \95\ See, e.g., Lucy Hornby, ``China Credits Quarantine for 
Containing H1N1,'' Reuters (Online), 11 June 09. According to Lo Wing-
lok, a Hong Kong infectious disease expert cited in this article, ``Flu 
is something you can't prevent with quarantine and contact tracing.''
    \96\ See, e.g., Ibid. World Health Organization spokeswoman Vivian 
Tan is quoted in this article as saying, ``[China's quarantine policy] 
is something which can be done on a small scale when there are few in 
numbers, but if the numbers increase dramatically, China may want to 
reassess that policy as it's too resource intensive and it may not be 
sustainable.''
    \97\ See, e.g., Jonathan M. Metzl, ``China's Ill-Considered 
Response to the H1N1 Virus,'' Los Angeles Times (Online), 12 June 09; 
``Caught in China's Aggressive Swine Flu Net,'' Washington Post 
(Online), 29 May 09.
    \98\ Lucy Hornby, ``China Credits Quarantine for Containing H1N1,'' 
Reuters (Online), 11 June 09; Jonathan Landreth, ``Swine Flu Ruled Out 
for CBS News' Cooke,'' Hollywood Reporter (Online), 19 June 09; 
Ministry of Health (Online), ``Ministry of Health: Influenza A(H1N1) 
Prevention and Control Work Information Bulletin'' [Weishengbu jiaxing 
h1n1 liugan fangkong gongzuo xinxi tongbao], 29 July 09.
    \99\ See generally World Health Organization (Online), 
``Enteroviruses--Non Polio,'' accessed 17 August 09.
    \100\ ``Minquan County, Henan Province, Hand-Foot-Mouth Disease 
Situation Is Serious'' [Henan sheng minquan xian shouzukou bing yiqing 
yanzhong], China National Radio (Online), 24 March 09; ``Minquan County 
Hand-Foot-Mouth Disease Outbreak Under Control, Responsible Persons 
Punished'' [Henan minquan shouzukou bing dedao kongzhi xiangguan zeren 
ren bei chufen], Xinhua (Online), 20 March 09.
    \101\ ``Health Workers Told To Monitor Rural China To Prevent Hand-
Foot-Mouth Disease,'' Xinhua (Online), 29 March 09; Wei Saite, ``In 
Emergency Public Health Crises, the Public Has the Right To Know'' 
[Miandui tufa gonggong weisheng shijian gongzhong xuyao zhiqing quan], 
Guangming Daily (Online), 24 March 09.
    \102\ The 88 reported deaths are broken down as follows: 44 deaths 
in Shandong province, 34 in Henan province, 6 in Hebei province, 1 in 
the Inner Mongolia Autonomous Region, and 3 in the Guangxi Zhuang 
Autonomous Region. See ``North China Province Reports Outbreak of Hand, 
Foot and Mouth Disease,'' Xinhua (Online), 21 May 09; ``North China 
City Acts To Prevent Hand-Foot-Mouth Disease From Spreading,'' Xinhua 
(Online), 25 June 09; ``Child Is Latest To Die in Outbreak,'' South 
China Morning Post (Online), 8 July 09; ``3 Die of Hand-Foot-Mouth 
Disease in S China County,'' China Daily (Online), 20 July 09.
    \103\ According to the Ministry of Health, the statistics for those 
sickened by HFMD in June and July 2009 were 178,860 and 162,060, 
respectively. See Ministry of Health (Online), ``Ministry of Health 
Issues June 2009 National Infectious Disease Epidemic Report'' 
[Weishengbu gongbu 2009 nian 6 yue quanguo fading chuanran bing 
yiqing], 15 July 09; Ministry of Health (Online), ``Ministry of Health 
Issues July 2009 National Infectious Disease Epidemic Report'' 
[Weishengbu gongbu 2009 nian 7 yue quanguo fading chuanran bing 
yiqing], 10 August 09.
    \104\ ``China Launches Organ Donation System,'' Xinhua (Online), 26 
August 09.
    \105\ Ibid. See also Liu Jingjing, ``Voluntary Organ Donor Program 
Established,'' Caijing (Online), 27 August 09.
    \106\ CECC, 2006 Annual Report, 20 September 06, 59; ``Organ 
Transplants: A Zone of Accelerated Regulation'' [Qiguan yizhi: jiakuai 
guizhi de didai], Caijing (Online), 28 November 05. The magazine 
reports that over 95 percent of organs transplanted in China come from 
executed prisoners.
    \107\ ``China Official Calls for Organ Registration,'' Reuters 
(Online), 15 November 06; ``Effort To Regulate Organ Trade May Not Be 
Enough,'' South China Morning Post (Online), 16 November 06; ``Rules 
Banning Human Organs Trade Go Into Effect,'' Xinhua (Online), 3 May 07.
    \108\ ``China Issues New Regulations on Transplants for 
Foreigners,'' Associated Press (Online), 3 July 07; Mark McDonald, 
``China Investigates Illegal Transplants for Tourists,'' New York Times 
(Online), 18 February 09.
    \109\ Xu Chao, ``China's Illegal Trade of Live Organs for 
Transplants Is Serious'' [Zhongguo huoti qiguan yizhi feifa maimai 
xianxiang yanzhong], Caijing (Online), 1 November 08.
    \110\ Ibid.
    \111\ UN Committee against Torture, ``Consideration of Reports 
Submitted by States Parties Under Article 19 of the Convention: 
Concluding Observations of the Committee against Torture--China,'' 21 
November 08, 10.
    \112\ ``Unsolved: Organ Harvesting in China, Interview With Manfred 
Nowak: Part II,'' Epoch Times (Online), 11 August 09.
    \113\ David Matas and David Kilgour, Bloody Harvest: Revised Report 
Into Allegations of Organ Harvesting of Falun Gong Practitioners in 
China, 31 January 07, 40-44; ``Effort To Regulate Organ Trade May Not 
Be Enough,'' South China Morning Post (Online), 16 November 06.
    \114\ David Matas and David Kilgour, Bloody Harvest: Revised Report 
Into Allegations of Organ Harvesting of Falun Gong Practitioners in 
China, 31 January 07, Appendix 14.
    \115\ Ethan Gutmann, ``China's Gruesome Organ Harvest,'' Weekly 
Standard (Online), Vol. 014, Issue 10, 24 November 08.

    Notes to Section II--Climate Change and Environment
    \1\ UN Framework Convention on Climate Change Secretariat (Online), 
``Kyoto Protocol Status of Ratification,'' 10 July 06; UN Framework 
Convention on Climate Change Secretariat (Online), Kyoto Protocol to 
the UN Framework Convention on Climate Change, adopted 11 December 99, 
effective 16 February 05, art. 3, Annexes A and B. (China is not on the 
list of Annex B countries with specific emission reduction targets.); 
UN Framework Convention on Climate Change Secretariat (Online), 
Introduction to the Kyoto Protocol to the UN Framework Convention on 
Climate Change, accessed 30 June 09.
    \2\ Carl Mortished, ``Climate Pact in Jeopardy as China Refuses To 
Cut Carbon Emissions,'' New York Times (Online), 12 June 09. See also 
``China Says Greenhouse Gases Catch Up With U.S.,'' Reuters (Online), 
29 October 08; National Development and Reform Commission, 
``Implementation of the Bali Roadmap--China's Position on the 
Copenhagen Climate Change Conference,'' reprinted in China Climate 
Change Info-Net (Online), 20 May 09, principles 1.2, 1.3; Xun Gongdi, 
``Developed Countries Should Provide More Support for Developing 
Countries--Interview With Su Wei, Chief of the Chinese Delegation to 
the UN International Talks on Climate Change,'' Xinhua, 31 March 09 
(Open Source Center, 31 March 09); ``Beijing Urges Rich Nations To Cut 
Emissions by 40pc,'' Reuters (Online), 21 May 09; John Vidal and David 
Adam, ``China Overtakes U.S. as World's Largest CO<INF>2</INF> 
Emitter,'' Guardian (Online), 19 June 07.
    \3\ John Vidal and David Adam, ``China Overtakes U.S. as World's 
Largest CO<INF>2</INF> Emitter,'' Guardian (Online), 19 June 07; Jane 
A. Leggett, Jeffrey Logan, and Anna Mackey, Congressional Research 
Service (Online), ``China's Greenhouse Gas Emissions and Mitigation 
Policies,'' 10 September 08; Todd White and Jeremy Van Loon, ``China 
Exports Made It World's Largest Greenhouse-Gas Factory,'' Bloomberg 
News (Online), 25 February 09.
    \4\ Ministry of Foreign Affairs (Online), ``Join Hands To Address 
Climate Challenge, Statement by H.E. Hu Jintao, President of the 
People's Republic of China At the Opening Plenary Session of the UN 
Summit on Climate Change, New York, 22 September 2009.''
    \5\ See, for example, Jonathan Watts, ``China To Debate 2030 
Emission Cuts Deadline,'' Guardian (Online), 18 August 09; Bruce 
Stokes, ``China Must Do More On Climate Change,'' National Journal 
(Online), 30 May 09.
    \6\ Kathrin Hille, ``China Sets Date For CO<INF>2</INF> Cut,'' 
Financial Times (Online), 15 August 09; Edmund Klamann, ``China Says 
Its Carbon Emissions To Fall by 2050: Report,'' Reuters (Online), 14 
August 09.
    \7\ Ministry of Foreign Affairs, ``Special Delegate for Climate 
Change Negotiations of the Ministry of Foreign Affairs Yu Qingtai 
Receives Interview of the Media,'' reprinted in Embassy of the People's 
Republic of China in the Republic of Lithuania (Online), 22 September 
07; State Council Information Office, ``China's Energy Conditions and 
Policies,'' December 2007, section 1.
    \8\ Lin Erda, Xu Yinlong, Wu Shaohong, Ju Hui, and Ma Shiming, 
``China's National Assessment Report on Climate Change (II): Climate 
Change Impacts and Adaptation,'' 3 (Suppl.) Advances in Climate Change 
Research, No. 6, 2007.
    \9\ See, e.g., Julian L. Wong and Andrew Light, Center for American 
Progress (Online), ``Climate Progress in China: A Primer on Recent 
Developments,'' 3 June 09; Ministry of Environmental Protection 
(Online), ``China Considers Penalty Tax on High-Polluting Business,'' 5 
June 09; ``China Eyes Massive Hike in Atomic Energy Target,'' 
Associated Press (Online), 4 February 09; ``China Considers Higher 
Renewable Energy Targets,'' China Daily (Online), 6 July 09; National 
Development and Reform Commission, ``China's National Climate Change 
Program,'' reprinted in China Climate Change Info-Net (Online), June 
2007; Jane A. Leggett, Jeffrey Logan, and Anna Mackey, Congressional 
Research Service (Online), ``China's Greenhouse Gas Emissions and 
Mitigation Policies,'' 10 September 08, 18-19.
    \10\ See supra, note 4. See, for example, Keith Bradsher, ``China 
Outpaces U.S. in Cleaner Coal-Fired Plants,'' New York Times (Online), 
11 May 09; Jing Yang, ``China's Wind Farms Come With a Catch,'' Wall 
Street Journal (Online), 28 September 09; ``Wind Power `Could Cut 
China's Emissions By 30%,' '' Guardian (Online), 11 September 09; Keith 
Bradsher, ``Drawing Critics, China Seeks To Dominate in Renewable 
Energy,'' New York Times (Online), 13 July 09. China's stimulus package 
calls for boosting domestic automobile demand, ``bringing automobiles 
to the countryside,'' ``accelerat(ing) the construction of urban 
roads,'' and new highway construction. Potentially offsetting 
consequent increases in carbon emissions from automobiles are plans to 
promote electric vehicles and stringent automotive fuel economy 
standards. PRC Central People's Government (Online), ``Program for the 
Adjustment and Rejuvenation of the Auto Industry'' [Qiche chanye 
tiaozheng he zhenxing guihua], 20 March 09; Andrew Batson, ``China Bets 
Highways Will Drive Its Growth,'' Wall Street Journal (Online), 11 
November 08. Keith Bradsher, ``China Is Said To Plan Strict Gas Mileage 
Rules,'' New York Times (Online), 28 May 09; ``China Views To Be 
World's Leader in Electric Cars,'' New York Times (Online), 1 April 09; 
Norihiko Shirouzu, ``China Puts Its Electric Vehicles on Center 
Stage,'' Wall Street Journal (Online), 24 April 09.
    \11\ Challenges and Opportunities for U.S.-China Cooperation on 
Climate Change, Hearing of the Senate Foreign Relations Committee, U.S. 
Senate, 4 June 09, Testimony of Elizabeth Economy, C.V. Starr Senior 
Fellow and Director, Asia Studies, Council on Foreign Relations.
    \12\ See, e.g., ``China Likely To Cut Energy Use Per Unit of GDP by 
5% This Year,'' Xinhua (Online), 27 September 09; Ren Zhongxi, 
``Reducing Emissions and Dealing With Climate Change, Together,'' 
China.org.cn (Online), 28 September 09.
    \13\ PRC Water Pollution Prevention and Control Law, enacted 11 May 
84, effective 1 November 84, amended 15 May 96, amended 28 February 08, 
amendment effective 1 June 08.
    \14\ PRC Circular Economy Promotion Law, enacted 29 August 08, 
effective 1 January 09.
    \15\  PRC Renewable Energy Law, enacted 28 February 05, effective 1 
January 06.
    \16\ PRC Environmental Administrative Reconsideration Measures, 
enacted and effective 30 December 08; PRC Planned Environmental Impact 
Assessment Regulation [Guihua huanjing yingxiang pingjia tiaoli], 
enacted 12 August 09, effective 1 October 09.
    \17\ Gu Jingfeng, ``Vice Minister of Environmental Protection Pan 
Yue: Promote Environmental Pollution Liability Insurance From All 
Sides'' [Huanbaobu fu buzhang pan yue: si fangmian tuijin huanjing 
wuran zeren xian], Xinhua (Online), 7 January 09. See also, Greenlaw 
(Online), Xiya Zhang, ``News Update: Environmental Pollution Liability 
Insurance,'' 26 February 09.
    \18\ See, e.g., Linden Ellis, ``Giving the Courts Green Teeth: 
Current Developments in Environmental Enforcement in China,'' Woodrow 
Wilson International Center for Scholars, China Environment Forum 
(Online), 22 October 08.
    \19\ ``Entire Country's First Environmental Protection Public 
Security Subdivision Established in Kunming'' [Quanguo shouge huanjing 
baohu gongan fenju zai kunming chengli], People's Daily (Online), 26 
November 08.
    \20\ Linden Ellis, ``Giving the Courts Green Teeth: Current 
Developments in Environmental Enforcement in China,'' Woodrow Wilson 
International Center for Scholars, China Environment Forum (Online), 22 
October 08. See also, ``Environmental Public Interest Litigation Forum: 
Can China Establish an Environmental Public Interest Litigation 
System'' [Huanjing gongyi susong luntan: zhongguo nengfo jianli 
huanjing gongyi susong zhidu], People's Daily (Online), 15 June 09.
    \21\ ``China Law To Recognize Mental Distress, Reflects Milk 
Scandal,'' Xinhua, reprinted in People's Daily (Online), 22 December 
08; Yingkou Municipal Environmental Protection Bureau (Online), ``The 
`Tort Liability Law' Draft Stipulates Pollution Responsibility'' 
[Qinguan zeren fa cao'an ni guiding wuran zeren], 29 December 08.
    \22\ Excerpted from Bureau of Public Affairs, U.S. Department of 
State (Online), ``Joint Press Release on the First Round of the U.S.-
China Strategic Economic Dialogue,'' 28 July 09. See also U.S. 
Department of Energy (Online), ``US-China Clean Energy Research Center 
Announced,'' 15 July 09.
    \23\ Lin Erda, Xu Yinlong, Wu Shaohong, Ju Hui, and Ma Shiming, 
``China's National Assessment Report on Climate Change (II): Climate 
Change Impacts and Adaptation,'' 3 (Suppl.) Advances in Climate Change 
Research, No. 6, 2007, 6.
    \24\ Ibid.; Liang Qiwen, ``Climate Change Will Hit China Hard, Says 
UK Scientist,'' China Daily (Online), 2 April 09.
    \25\ Lin Erda, Xu Yinlong, Wu Shaohong, Ju Hui, and Ma Shiming, 
``China's National Assessment Report on Climate Change (II): Climate 
Change Impacts and Adaptation,'' 3 (Suppl.) Advances in Climate Change 
Research, No. 6, 2007, 9.
    \26\ Ibid., 8-9, 11. See also ``Backgrounder: Impact of Climate 
Change on China,'' Xinhua, reprinted in People's Daily (Online), 4 June 
07.
    \27\ ``One-Third of China's Land Desertified'' [Zhongguo sanfen 
zhiyi tudi huangmohua], Radio Free Asia (Online), 26 June 09.
    \28\ Lin Erda, Xu Yinlong, Wu Shaohong, Ju Hui, and Ma Shiming, 
``China's National Assessment Report on Climate Change (II): Climate 
Change Impacts and Adaptation,'' 3 (Suppl.) Advances in Climate Change 
Research, No. 6, 2007, 8; ``China's Grasslands Mostly Hurt by Humans: 
Expert,'' Xinhua, reprinted in China Daily (Online), 2 July 09.
    \29\ State Council Information Office, ``China's Policies and 
Actions for Addressing Climate Change,'' China Climate Change Info-Net 
(Online), October 2008; Martin Parry (ed.), et al., Climate Change 
2007: Impacts, Adaptation, and Vulnerability, Contribution of Working 
Group II to the Fourth Assessment Report of the IPCC (New York: 
Cambridge University Press, 2007); ``Backgrounder: Impact of Climate 
Change on China,'' Xinhua, reprinted in People's Daily (Online), 4 June 
07.
    \30\ National Development and Reform Commission, ``Implementation 
of the Bali Roadmap--China's Position on the Copenhagen Climate Change 
Conference,'' reprinted in China Climate Change Info-Net (Online), 26 
May 09.
    \31\ ``Legislation To Respond to Climate Change Expected'' [Yingdui 
qihou bianhua qidai lifa], Hexun News (Online), 16 June 09.
    \32\ Resolution of the National People's Congress Standing 
Committee on Actively Responding to Climate Change [Quanguo renmin 
daibiao dahui changwu weiyuanhui guanyu jiji yingdui qihou bianhua de 
jueyi], issued 27 August 09.
    \33\ Ibid., preface, art. 4, and art. 6.
    \34\ Alison Klayman, ``China, U.S. Look to Energy Efficiency,'' 
Voice of America (Online), 5 March 09. See also ``Energy Efficiency 
Faces Obstacles in China,'' Forbes (Online), 30 April 09; Mark Levine, 
Lawrence Berkeley National Laboratory, ``Energy Efficiency in China: 
Glorious History, Uncertain Future,'' China-U.S. Climate Change Forum 
(Online), 23 May 06. For additional information, see supra, note 8.
    \35\ ``Climate Change `Hits Poor Hardest,''' Agence France-Presse, 
reprinted in South China Morning Post (Online), 17 June 09; Oxfam 
International, Climate Wrongs and Human Rights: Putting People at the 
Heart of Climate-Change Policy, Oxfam Briefing Paper 117, 9 September 
09.
    \36\ See, e.g., Wang Jinxia, et al., Sustainable Rural and Urban 
Development Team, Development Research Group, World Bank, Policy 
Research Working Paper 4470, Can China Continue Feeding Itself? The 
Impact of Climate Change on Agriculture, January 2008; Ministry of 
Environmental Protection (MEP), ``MEP Issues Research Project Tender 
Guidelines for the 12th Five-Year Planning Period'' [Guojia huanjing 
baohu `shierwu' guihua qianqi yanjiu keti zhaobiao zhinan], 2 March 09, 
item 10.
    \37\ Challenges and Opportunities for U.S.-China Cooperation on 
Climate Change, Hearing of the Senate Foreign Relations Committee, U.S. 
Senate, 4 June 09, Testimony of Elizabeth Economy, C.V. Starr Senior 
Fellow and Director, Asia Studies, Council on Foreign Relations; Julian 
L. Wong, Green Leap Forward (Online), ``Senate Foreign Relations 
Hearing: China Will Not Accept Caps, but Must Be Pushed to MRV,'' 12 
June 09. See also Michael Burnham, ``Air Pollution Exchanges Open in 
Beijing, Shanghai,'' EarthNews (Online), 15 August 08; Interfax 
Information Services, Report on China Carbon Trading: How Will Carbon 
Trading in China Impact the Global Market? '' 28 June 08, 1-2; 
Nathanial Gronewold, ``Links Set Up for Potential China-U.S. Carbon 
Trading,'' Climate Wire (Online), 18 June 09.
    \38\ Jim Bai and Chen Aizhu, ``China Nuclear Safety Chief Warns of 
Over-Rapid Growth,'' Reuters (Online), 20 April 09.
    \39\ Shi Jiangtao, ``Unusually Frank Report Condemns Dam Project's 
Poor Management,'' South China Morning Post (Online), 21 July 09.
    \40\ Reuters and Minnie Chan, ``Graft and Shoddy Construction 
Blamed for Poor State of Dams,'' South China Morning Post (Online), 20 
June 09.
    \41\ ``Dams Along Yellow River Near Collapse,'' Agence France-
Presse (Online), 19 June 09. See also Stephen Chen, ``37,000 Dams at 
Risk of Collapsing, Warns Water Resources Chief,'' South China Morning 
Post (Online), 8 May 09.
    \42\ Reuters and Minnie Chan, ``Graft and Shoddy Construction 
Blamed for Poor State of Dams,'' South China Morning Post (Online), 20 
June 09.
    \43\ Ibid.
    \44\ ``Chinese Ministry of Environmental Protection Suspends 
Approval of Hydroelectric Development Projects Along the Middle Reaches 
of the Jinsha River'' [Zhongguo huanbaobu zhanting shenpi jinshajiang 
zhongyou shuidian kaifa deng xiangmu], Radio Free Asia (Online), 13 
June 09; Stephen Chen, ``Expansion of Power Firms Banned After Dam 
Violations,'' South China Morning Post (Online), 12 June 09.
    \45\ Will Clem, ``Building of Dams Goes on Despite Halt Order,'' 
South China Morning Post (Online), 22 June 09.
    \46\ Ibid.; See also Shi Jiangtao, ``Ministry Softens Its Stance on 
Jinsha Dams, Watchdog Foresees Work on Barrages Restarting,'' South 
China Morning Post (Online), 26 June 09; ``Wen Calls Halt to Yunnan Dam 
Plan, Premier Orders Further Environmental Checks,'' South China 
Morning Post, reprinted in Salween Watch (Online), 22 May 09.
    \47\ See, e.g., ``Three Gorges Dam Migrants To Move in New Plan,'' 
Reuters (Online), 5 February 09; Chinese Human Rights Defenders 
(Online), ``Court Will Open Soon in the Huayang City Public Security 
Bureau State Compensation Case Brought by Sanmenxia Reservoir Area 
Resettled Migrant Leaders'' [Sanmenxia kuqu yimin lingxiu konggao 
huayinshi gong'anju guojia peichang'an jijiang kaiting], 18 June 09; 
``Chinese Displaced by Three Gorges Dam Protest,'' Associated Press 
(Online), 4 March 09; ``Xiluo Hydroelectric Dam Resettled Citizens 
Compensation Embezzled'' [Sichuan xiluo du dianzhan yimin peichang kuan 
zao kekou], Radio Free Asia, reprinted in Chinese Human Rights 
Defenders (Online), 12 February 08; ``Tibetan Government-in-Exile: 6 
Women Protesters Hurt by Gunfire,'' Voice of America (Online), 26 May 
09; Al Guo, ``Villagers Arrested After Dam Relocation Protest,'' South 
China Morning Post (Online), 17 March 09; ``Sanmenxia Reservoir Area 
Resettled Migrants Call for Freedom and Human Rights From Inside 
Prison: Demand Freedom and Human Rights'' [Shaanxi sanmenxia kuqu yimin 
fazi laoyuli de huhuan: yao ziyou yao renquan], Canyu, reprinted in 
Boxun (Online), 5 March 09. See also, David Biello, ``The Dam Building 
Boom: Right Path to Clean Energy,'' Yale Environment 360 (Online), 23 
February 09.
    \48\ National Development and Reform Commission, ``China's National 
Climate Change Programme,'' reprinted in China Climate Change Info-Net 
(Online), June 2007, 3.3.2.
    \49\ Gregory Veeck and Charles Emerson, ``Develop the West 
Assessed: Economic and Environmental Change in Inner Mongolia 
Autonomous Region, People's Republic of China 2000-2005,'' Asian 
Geographer, Vol. 25, Nos. 1 and 2, 2006, 61 (based on information on 
pages 12 and 13 of pre-publication copy of article on file with the 
Commission); China's Ethnic Regional Autonomy Law: Does It Protect 
Minority Rights? Staff Roundtable of the Congressional-Executive 
Commission on China, 11 April 05, Testimony of Christopher P. Atwood, 
Associate Professor, Department of Central Eurasian Studies, Indiana 
University; ``Inner Mongolia: Purposeful Occupational Training for 
Young Farmers and Herders Has Positive Effect'' [Neimenggu: ``you 
mudi'' peixun qingnian nongmumin jiuye xiaoguo hao], Xinhua (Online), 
29 March 09; Dee Mack Williams, Beyond Great Walls (Stanford: Stanford 
University Press, 2002), 40-60; Qiu Lin, ``Scholars Urge Improving 
Grassland Policies,'' Xinhua (Online), 31 July 09.
    \50\ CECC, 2007 Annual Report, 10 October 07, 205.
    \51\ ``Inner Mongolia: Purposeful Occupational Training for Young 
Farmers and Herders Has Positive Effect'' [Neimenggu: ``you mudi'' 
peixun qingnian nongmumin jiuye xiaoguo hao], Xinhua (Online), 29 March 
09; ``Inner Mongolia Autonomous Region Plans in 2009 To Newly Increase 
Employment for Over 200,000 People'' [2009 nian neimenggu zizhiqu jihua 
xinzeng jiuye 20 wan ren yishang], Xinhua Inner Mongolia (Online), 26 
March 09; ``121,000 Farmers and Herders Shift Occupations in First 
Quarter of This Year'' [Jinnian yi jidu neimenggu 121 wan nongmu 
mingong shixian zhuanyi jiuye], Inner Mongolia Daily, reprinted in 
Inner Mongolia News Net (Online), 9 April 09. See also Section II--
Ethnic Minority Rights--Human Rights in the Inner Mongolia Autonomous 
Region for details.
    \52\ Southern Mongolian Human Rights Information Center (Online), 
``Sit-Down Strike by Hundreds of Southern Mongolian Herders,'' 3 
September 09.
    \53\ Qiu Lin, ``Scholars Urge Improving Grassland Policies,'' 
Xinhua (Online), 31 July 09.
    \54\ ``Water, Air Pollution in China Still Serious,'' Xinhua, 
reprinted in China Daily (Online), 24 February 09.
    \55\ Ministry of Environmental Protection (Online), ``National 
Pollution Prevention: New Coordinated Regional Mechanisms Put Forward 
To Control Pollution'' [Quanguo wuran fangzhi: daqi zhili jiang litui 
quyu lianfang xin jizhi], 24 February 09.
    \56\ Ministry of Environmental Protection, Opinion Regarding 
Strengthening Village Environmental Protection Work [Guanyu jiaqiang 
nongcun huanjing baohu gongzuo de yijian], issued 21 May 07; Ministry 
of Environmental Protection (Online), ``The State of the Environment of 
China in 2008,'' 5 June 09; Ministry of Environmental Protection 
(Online), ``2008 Summary of Land and Environmental Conditions in Rural 
Areas'' [2008 nian tudi yu nongcun huanjing zhuangkuang zongshu], 17 
June 09; ``Implementing a Remedial System Based on Rewards To Open a 
New Phase in Village Environmental Protection'' [Shixing yijiang cuzhi 
kaichuang nongcun huanbao xin jumian], China Environment News (Online), 
5 March 09.
    \57\ Ministry of Environmental Protection (Online), ``2008 Summary 
of Land and Environmental Conditions in Rural Areas'' [2008 nian tudi 
yu nongcun huanjing zhuangkuang zongshu], 17 June 09.
    \58\ ``Birth Defects Soar Due to Pollution,'' China Daily (Online), 
31 January 09; Stephen Chen, ``Public Consuming `Pesticide Cocktails,' 
Greenpeace Claims,'' South China Morning Post (Online), 9 April 09.
    \59\ Kristine Kwok, ``New Online Map Pinpoints Rural `Cancer 
Villages,''' South China Morning Post (Online), 11 May 09.
    \60\ Michael Wines, ``Lead Sickens 1,300 Children in China,'' New 
York Times (Online), 20 August 09.
    \61\ Christopher Bodeen, ``China Factory Under Guard After Lead 
Poisoning,'' Associated Press, reprinted in Washington Post (Online), 
19 August 09.
    \62\ Ministry of Environmental Protection (Online), ``By the 
Closing of the 2nd Meeting of the 11th National People's Congress (NPC) 
Delegates Focused on Popular and Difficult Environmental Topics and 
Submitted 53 Environment, Ecological, Drinking Water Safety Proposals 
for Review by the Environmental and Natural Resources Commission'' 
[Shiyi jie quanguo renda erci huiyi zai jing bimu, daibiao guanzhu 
huanbao ridian nandian wenti 53 jian sheji huanbao, shengtai, yinyong 
shui anquan deng fangmian de yian yijiao quanguo renda huanzi wei 
shenyi], 16 March 09; Michael Zhang, Greenlaw (Online), ``Environmental 
Proposals Attract Attention at the NPC and CPPCC,'' 20 March 09.
    \63\ Greenlaw (Online), ``News Update: Environmental Pollution 
Liability Insurance,'' 26 February 09.
    \64\ PRC Water Pollution Prevention and Control Law, adopted 11 May 
84, amended 28 February 08, effective 1 June 08. For more information, 
see Jingyun Li and Jingjing Liu, China Environment Forum, Woodrow 
Wilson International Center for Scholars (Online), Research Brief on 
Quest for Clean Water: China's Newly Amended Water Pollution Control 
Law, January 2009.
    \65\ PRC Water Pollution Prevention and Control Law, adopted 11 May 
84, amended 28 February 08, effective 1 June 08, arts. 5, 69-90. See 
also Linden Ellis, ``Giving the Courts Green Teeth: Current 
Developments in Environmental Enforcement in China,'' Woodrow Wilson 
International Center for Scholars, China Environment Forum (Online), 22 
October 08.
    \66\ PRC Water Pollution Prevention and Control Law, adopted 11 May 
84, amended 28 February 08, effective 1 June 08, art. 89. See also 
Jingjing Liu and Jingyun Li, China Environment Forum, Woodrow Wilson 
International Center for Scholars (Online), Research Brief on Quest for 
Clean Water: China's Newly Amended Water Pollution Control Law, January 
2009; Wang Canfa, Lectures on Environmental Law [Huanjing faxue 
jiaocheng] (Beijing: China University of Political Science and Law 
Press, 1997), 164-165.
    \67\ Linden Ellis, ``Giving the Courts Green Teeth: Current 
Developments in Environmental Enforcement in China,'' Woodrow Wilson 
International Center for Scholars, China Environment Forum (Online), 22 
October 08; Gao Jie, Greenlaw (Online), ``Yunnan Province Announces 
Plan To Expand Environmental Protection Courts and Guide Public 
Interest Litigation,'' 21 May 09.
    \68\ Linden Ellis, ``Giving the Courts Green Teeth: Current 
Developments in Environmental Enforcement in China,'' Woodrow Wilson 
International Center for Scholars, China Environment Forum (Online), 22 
October 08.
    \69\ Ibid.; Gao Jie, Greenlaw (Online), ``Yunnan Province Announces 
Plan To Expand Environmental Protection Courts and Guide Public 
Interest Litigation,'' 21 May 09.
    \70\ ``Entire Country's First Environmental Protection Public 
Security Subdivision Established in Kunming'' [Quanguo shouge huanjing 
baohu gongan fenju zai kunming chengli], People's Daily (Online), 26 
November 08.
    \71\ For issues that do not involve criminal liability, the Public 
Security Bureau environmental subdivision will coordinate with the 
local EPB to implement administrative measures. ``China's First 
Environmental Protection Public Security Subdivision Established in 
Kunming'' [Quanguo shouge huanjing baohu gongan fenju zai kunming 
chengli], People's Daily (Online), 26 November 08.
    \72\ ``Environmental Public Interest Litigation Forum: Can China 
Establish an Environmental Public Interest Litigation System'' 
[Huanjing gongyi susong luntan: zhongguo nengfo jianli huanjing gongyi 
susong zhidu], People's Daily (Online), 15 June 09.
    \73\ Wang Canfa, Lectures on Environmental Law [Huanjing faxue 
jiaocheng] (Beijing: China University of Political Science and Law 
Press, 1997), 164-165.
    \74\ Yingkou Municipal Environmental Protection Bureau (Online), 
``The `Tort Liability Law' Draft Stipulates Pollution Responsibility'' 
[Qinguan zeren fa cao'an ni guiding wuran zeren], 29 December 08.
    \75\ Anna Brettell, ``China's Pollution Challenge: The Impact of 
Economic Growth and Environmental Complaints on Environmental and 
Social Outcomes,'' Challenges Facing Chinese Political Development, 
eds. Sujian Guo and Baogang Guo (Lanham: Rowman & Littlefield 
Publishers, Inc., 2007), 155, 161.
    \76\ ``Former SEPA Personnel Department Chief Li Jianxin 
Investigated and Indicted'' [Yuan huanbao zongju renshi sizhang li 
jianxin bei shencha qisu], Caijing (Online), 14 November 08; ``Former 
SEPA Personnel Department Chief Li Jianxin Indicted on Charges of 
Suspected Large-Scale Bribery'' [Yuan huanbao zongju renshi sizhang li 
jianxin shexian ju'e shouhui bei qisu], Xinhua (Online), 17 November 
09; Pacific Environment (Online), ``Corruption Is Linked to Pollution 
in China,'' 21 August 06.
    \77\ ``Cases Involving 3,060 People Nationwide Docketed for 
Investigation of Dereliction of Duty Related to Environment and Natural 
Resources Last Year'' [Quanguo qunian li'an zhengcha ziyuan huanjing 
lingyu maizhi fanzui 3,060 ren], Procuratorate Daily, reprinted in 
Xinhua (Online), 20 February 09.
    \78\ Ibid.
    \79\ Ibid.
    \80\ ``Major Environmental Accidents Occur Time and Time Again, Why 
Have So Few Cases Been Investigated for Criminal Liability? '' [Zhongda 
wuran shigu lulu fasheng zhuijiu xingshi zeren weihe liaoliaowuji], 
China Environmental News, reprinted in People's Daily (Online), 9 March 
09.
    \81\ ``Water Pollution Accidents Common but Shortcomings in 
Criminal Legislation Make Imposing Sanctions Difficult'' [Zhongguo 
shuiwuran shijian pinfa xingshi lifa que xianzhi zhicai nan], China Net 
(Online), 10 June 09.
    \82\ See, e.g., ``China Punishes 15,000 Enterprises Over Pollution 
in 2008,'' Xinhua (Online), 14 January 09.
    \83\ ``Environmental Impact Assessment `Examined' for First Time: 
1.5 Trillion Yuan Polluting Projects `Taken Off the Table''' 
[Huanpingfa shouci ``tijian'': 1.5 wanyi yuan wuran xiangmu ``xiama''], 
Science and Technology Daily, reprinted in China News, 13 November 08.
    \84\ Ibid.
    \85\ Ibid.
    \86\ Ibid.
    \87\ Ibid.
    \88\ Ibid.
    \89\ Ibid.
    \90\ ``Local Gov'ts May Ignore Environmental Standards,'' China 
Daily (Online), via China Internet Information Center, 27 April 09.
    \91\ Ibid.
    \92\ Xiao Yu, ``Gov't Will Not Relax Green Plan,'' China Daily 
(Online), 12 March 09; Chris Buckley, ``China Group Urges Government To 
Stick to Green Goals,'' Reuters (Online), 9 March 09.
    \93\ Shi Jiangtao, ``Green GDP Drive Grinds to a Halt,'' South 
China Morning Post (Online), 4 March 09.
    \94\ ``Local Governments May Ignore Environmental Standards,'' 
China Daily (Online), 27 April 09.
    \95\ Jonathan Ansfield, ``Slump Tilts Priorities of Industry in 
China,'' New York Times (Online), 18 April 09.
    \96\ Ariana Eunjung Cha, ``China's Environmental Retreat in Tough 
Economic Times, Promises Fall by Wayside,'' Washington Post (Online), 
19 November 08.
    \97\ Ibid. See also Jonathan Ansfield, ``Slump Tilts Priorities of 
Industry in China,'' New York Times (Online), 18 March 09.
    \98\ Jonathan Ansfield, ``Slump Tilts Priorities of Industry in 
China,'' New York Times (Online), 18 April 09. The environmental group, 
Friends of Nature, sent a letter to the National People's Congress in 
March 2009 to urge delegates to ``use the four trillion yuan investment 
to pioneer a green, low-carbon economy.'' Chris Buckley, ``China Group 
Urges Government To Stick to Green Goals,'' Reuters (Online), 9 March 
09.
    \99\ Xiao Yu, ``Government Will Not Relax Green Plan,'' China Daily 
(Online), 12 March 09.
    \100\ Ministry of Environmental Protection (Online), ``Ministry of 
Environmental Protection Deputy Director Zhang Lijun: 94.2 Percent of 
China's Cities Are Now Included in the Pollution Prevention and Control 
Assessment'' [Huanjing baohubu fubuzhang lijun: 94.2% chengshi naru 
fangzhi wuran kaohe], 25 February 09.
    \101\ Ministry of Environmental Protection (Online), ``Ministry of 
Environmental Protection 2008 Government Open Information Work Report'' 
[Huanjing baohubu zhengfu xinxi gongkai gongzuo 2008 niandu baogao], 20 
March 09. Article 31 of the Open Government Information regulation 
stipulates that ``administrative agencies at all levels should publish 
their annual reports on open government information work before March 
31 each year.'' Regulations of the People's Republic of China on Open 
Government Information [Zhonghua renmin gongheguo zhengfu xinxi gongkai 
tiaoli], issued 5 April 07, effective 1 May 08, art. 38.
    \102\ Ministry of Environmental Protection (Online), ``Ministry of 
Environmental Protection 2008 Government Open Information Work Report'' 
[Huanjing baohubu zhengfu xinxi gongkai gongzuo 2008 niandu baogao], 20 
March 09.
    \103\ Ibid.
    \104\ Stephen Chen, ``Majority of Cities Refuse To Release 
Pollution Data,'' South China Morning Post (Online), 4 June 09.
    \105\ Ibid.
    \106\ Ibid.
    \107\ All-China Environmental Protection Federation, 2008 
Environmental Non-Governmental Organization Development Report [2008 
Zhongguo huanbao minjian zuzhi fazhan baogao], 26 May 09, 30-31.
    \108\ Chinadialogue (Online), ``Which Way Forward for Chinese NGOs? 
'' 1 July 08.
    \109\ All-China Environmental Protection Federation, 2008 
Environmental Non-Governmental Organization Development Report [2008 
Zhongguo huanbao minjian zuzhi fazhan baogao], 26 May 09, 3.
    \110\ Chinadialogue (Online), ``Which Way Forward for Chinese NGOs? 
'' 1 July 08.
    \111\ Alex Wang, Greenlaw (Online), ``One Small Step for Chinese 
Environmental Public Participation? Civil Society Participates for the 
First Time in Hydropower Project Technical EIA,'' 16 June 09.
    \112\ Xue Huifeng, ``What Reforms Are Still Necessary for the 
Environmental Impact Assessment Process? '' [Huanping zhidu haixu zuo 
naixie gaige?], China Environmental News (Online), 9 February 09.
    \113\ Ministry of Environmental Protection, Implementation Measures 
for Public Participation in Nuclear Power Plant Environmental Impact 
Assessments (Consultation Draft) [Hedianchang huanjing yingxiang 
pingjia gongzhong canyu yu shishi banfa (zhengqiu yijian gao)], issued 
24 December 08; ``China To Strengthen Public Participation in Nuclear 
Power Projects'' [Zhongguo ni jiaqiang hedian xiangmu de gongzhong 
canyu], Caixun (Online), 30 December 08.
    \114\ Chinese Human Rights Defenders (Online), ``Retired Judge in 
Xinjiang Detained for Advocating Health Rights of Veterans,'' 24 
February 09; Michael Sheridan, ``Revolt Stirs Among China's Nuclear 
Ghosts,'' Times of London (Online), 19 April 09.
    \115\ Michael Sheridan, ``Revolt Stirs Among China's Nuclear 
Ghosts,'' Times of London (Online), 19 April 09.
    \116\ Anna Brettell, ``Channeling Dissent: The Institutionalization 
of Environmental Complaint Resolution,'' China's Embedded Activism: 
Opportunities and Constraints of a Social Movement, eds. Peter Ho and 
Richard Louis Edmonds (New York: Routledge, 2008), 133-135.
    \117\ Wang Canfa, ``Chinese Environmental Law Enforcement: Current 
Deficiencies and Suggested Reforms,'' Vermont Journal of Environmental 
Law Vol. 8, 159, 181 (2006-2007).
    \118\ Chinese Human Rights Defenders (Online), ``Handicapped Former 
Soldier Sentenced for Reporting Pollution, Life is Currently in 
Danger'' [Canji fuyuan junren jubao wuran bei panxing, xian shenming 
mianling weixie], 07 May 09; Chinese Human Rights Defenders (Online), 
``China Human Rights Briefing,'' May 4-10, 2009.
    \119\ Chinese Human Rights Defenders (Online), ``China Human Rights 
Briefing,'' May 4-10, 2009.
    \120\ Chinese Human Rights Defenders (Online), ``Environmentalist 
and Daughter Sent to Re-education Through Labor Camps,'' 17 July 09.
    \121\ Chinese Human Rights Defenders (Online), ``Environmental 
Activist Sun Xiaodi and Daughter Detained for Providing State Secrets 
Overseas,'' 25 June 09.
    \122\ ``Anti-Nuclear Activist Sun Xiaodi Detained for `Revealing 
Secret,' Wife and Daughter Implicated'' [Fan he renshi sun xiaodi she 
``luomi'' beigou funu shou zhulian], Radio Free Asia (Online), 18 June 
09.
    \123\ Wang Canfa, Lectures on Environmental Law [Huanjing faxue 
jiaocheng], (Beijing: China University of Political Science and Law 
Press, 1997), 159-160; PRC Criminal Law, enacted 1 July 79, amended 14 
March 97, effective 1 October 97, amended 25 December 99, 31 August 01, 
29 December 01, 28 December 02, 28 February 05, 29 June 06, 28 February 
09, art. 20-21; PRC General Principles of the Civil Law, enacted 12 
April 86, effective 1 January 87, art. 128-129.
    \124\ Wang Canfa, Lectures on Environmental Law [Huanjing faxue 
jiaocheng], (Beijing: China University of Political Science and Law 
Press, 1997), 159-160.
    \125\ Ibid., 160.
    \126\ Choi Chi-Yuk and Shi Jiangtao, ``Journalists Held for 
Investigating Metal Leaks Case,'' South China Morning Post (Online), 6 
August 09; He Huifeng, ``Hunan's Village of the Damned,'' South China 
Morning Post (Online), 2 August 09.
    \127\ He Huifeng, ``Hunan's Village of the Damned,'' South China 
Morning Post (Online), 2 August 09; Hu Huifeng, ``Hunan Villagers, Hit 
by Deadly Seepage, Vow To Protest Again,'' South China Morning Post 
(Online), 1 August 09; Shi Jiangtao, ``Poisoned Villagers Vow To Fight 
On,'' South China Morning Post (Online), 4 August 09.
    \128\ He Huifeng, ``Hunan's Village of the Damned,'' South China 
Morning Post (Online), 2 August 09; Shi Jiangtao, ``Poisoned Villagers 
Vow To Fight On,'' South China Morning Post (Online), 4 August 09; Shi 
Jiangtao, ``Villagers Call Off Toxic Leak Protest,'' South China 
Morning Post (Online), 5 August 09; Choi Chi-yuk and Shi Jiangtao, 
``Officials `Turned Blind Eye' to Death Factory,'' South China Morning 
Post (Online), 5 August 09.
    \129\ Shi Jiangtao, ``Poisoned Villagers Vow To Fight On,'' South 
China Morning Post (Online), 4 August 09; Choi Chi-yuk and Shi 
Jiangtao, ``Officials `Turned Blind Eye' to Death Factory,'' South 
China Morning Post (Online), 5 August 09.
    \130\ Choi Chi-Yuk and Shi Jiangtao, ``Journalists Held for 
Investigating Metal Leaks Case,'' South China Morning Post (Online), 6 
August 09; ``Liuyang Villagers Poisoned by Cadmium and Indium Demand 
Physicals but Are Denied, Lives and the Environment Are Sacrificed at 
the Back Door of the World's Factory'' [Liuyang ge yin wuran cunmin qiu 
tijian zaoju shijie gongchang houmen renming, huanjing tong xisheng], 
Radio Free Asia (Online), 6 August 09.
    \131\ ``Hubei Villagers Suffer Retaliation for Reporting on Illegal 
Dump Site'' [Hubei cunmin yi jubao feifa lajichang zao baofu], Radio 
Free Asia (Online), 2 April 09.
    \132\ Yingshan County People's Government Office (Online), ``A 
Clear Explanation of Some Problems Related to the Management of the 
Yingshan County Waste Treatment Site'' [Guanyu yingshanxian chengchu 
laji chulichang youguan wenti de chengqing shuoming], 19 May 09; 
``Hubei Environmental Rights Defenders Ma Dajin and Wan Baiqing's 
Prison Sentences Amended to Probation'' [Hubei huanbao weiquan daibiao 
ma dajin wan baiqing beigai pan huanxing], Radio Free Asia (Online), 27 
May 09.
    \133\ ``Hubei Environmental Rights Defenders Ma Dajin and Wan 
Baiqing's Prison Sentences Amended to Probation'' [Hubei huanbao 
weiquan daibiao ma dajin wan baiqing beigai pan huanxing], Radio Free 
Asia (Online), 27 May 09.
    \134\ ``Hubei Villagers Suffer Retaliation for Reporting on Illegal 
Dump Site'' [Hubei cunmin yi jubao feifa lajichang zao baofu], Radio 
Free Asia (Online), 3 April 09.
    \135\ ``Hubei Environmental Rights Defenders Ma Dajin and Wan 
Baiqing's Prison Sentences Amended to Probation'' [Hubei huanbao 
weiquan daibiao ma dajin wan baiqing beigai pan huanxing], Radio Free 
Asia (Online), 27 May 09.
    \136\ Joan Hu, Greenlaw (Online), ``Mixed Chinese Reactions Towards 
Approved PX Plant in Zhangzhou,'' 19 January 09; Liu Jianqiang, 
Chinadialogue (Online), ``Planning Failure in Xiamen,'' 12 December 07; 
Zhu Hongjun and Su Yongtong, ``The People and Wisdom Changed Xiamen: 
After Six Months, the Game With Multiple Players Move Towards Multiple 
Winners,'' Southern Weekend, 19 December 07, reprinted and translated 
by EastSouthWestNorth Blog (Online), 21 December 07; Edward Cody, 
``Thousands Clash With Police in S. China; Rumors of Chemical Factory 
Construction Spark Four Days of Demonstrations,'' Washington Post 
(Online), 4 March 08.
    \137\ Edward Cody, ``Thousands Clash With Police in S. China; 
Rumors of Chemical Factory Construction Spark Four Days of 
Demonstrations,'' Washington Post (Online), 4 March 08; Joey Liu, 
``Chemical Plant Plan Enrages Islanders,'' South China Morning Post, 3 
March 08 (Open Source Center, 3 March 08).
    \138\ Edward Cody, ``Thousands Clash With Police in S. China; 
Rumors of Chemical Factory Construction Spark Four Days of 
Demonstrations,'' Washington Post (Online), 4 March 08.
    \139\ Chinese Human Rights Defenders (Online), ``Thousands of 
Residents in Hunan Province, Liuyang City March To Protest Pollution, 
Two People Are Detained for Investigation by Police'' [Hunan liuyang 
shuqian ren shangjie kangyi wuran 2 ren bei jingfang daizou diaocha], 1 
August 09.

    Notes to Section III--Civil Society
    \1\ For articles that suggest a link between these recent moves and 
the 60th anniversary, see, e.g., Simon Montlake, ``China Snares NGOs 
With Foreign Funding,'' Christian Science Monitor (Online), 4 August 
09; Emma Graham-Harrison and Ben Blanchard, ``Leading China Rights 
Lawyer Detained,'' Reuters (Online), 30 July 09; Tini Tran, ``Brother: 
Chinese Activist Held for Tax Evasion,'' Associated Press (Online), 4 
August 09; Kathrin Hille, ``Chinese Authorities Detain Civil Rights 
Activist,'' Financial Times (Online), 30 July 09; Human Rights in China 
(Online), ``Law Research Center Is Shut Down as Authorities Tighten 
Control on Civil Society Groups,'' 17 July 09. The Commission noted in 
2007 that under President Hu Jintao the Chinese Government strengthened 
policies that restrict the growth of an independent civil society in an 
effort to guard against perceived challenges to state authority and 
sources of social unrest. CECC, 2007 Annual Report, 10 October 07, 141.
    \2\ See, e.g., Rebecca MacKinnon, ``Dark Days for China's 
Liberals,'' RConversation (Online), 7 August 09; Bill Schiller, ``China 
Tightens Reins on Dissent,'' Toronto Star (Online), 9 August 08; Qian 
Gang, ``Chinese NGOs: Reading Political Signs in the Fate of 
Gongmeng,'' China Media Project (Online), translation by David 
Bandurski, 30 July 09; Michael Sainsbury, ``China Targets Lawyers in 
Rights Crackdown,'' Australian (Online), 7 August 09.
    \3\ For purposes of this section, the term ``NGO'' refers to NGOs 
recognized in Chinese law (of which the various types recognized under 
Chinese law are sometimes referred to collectively in English as civil 
society organizations or social organizations), as well as those not 
registered with the government, or those that operate as a legally 
recognized organization but are not considered an NGO according to 
Chinese law.
    \4\ Article 22 of the International Covenant on Civil and Political 
Rights also provides that: ``[N]o restrictions may be placed on the 
exercise of [freedom of association] other than those which are 
prescribed by law and which are necessary in a democratic society in 
the interests of national security or public safety . . .'' 
International Covenant on Civil and Political Rights, adopted 16 
December 66, effective 23 March 76, art. 22.
    \5\ Chinese Human Rights Defenders (Online), ``Reining in Civil 
Society: The Chinese Government's Use of Laws and Regulations To 
Persecute Freedom of Association,'' 10 August 09; U.S. Embassy Beijing 
(Online), ``Chinese NGOs--Carving a Niche Within Constraints,'' January 
2003. The Chinese Government appears to officially recognize four types 
of NGOs: (1) social organizations (shehui tuanti), (2) private, non-
enterprise units (minban feiqiye danwei), (3) foundations (jijinhui), 
and (4) non-mainland foundation representative offices. Bureau of Civil 
Society Groups Administration (Online), Ministry of Civil Affairs 
(MOCA), People's Republic of China, last visited 7 July 09. In addition 
to the four types of NGOs recognized by MOCA, there are a number of 
other organizations that in effect operate as NGOs but whose legal 
status is other than an NGO. According to a Peking University research 
study released in December 2008, these organizations include: NGOs 
registered as commercial enterprises; urban community-based 
organizations; social groups linked to work units; rural community 
development organizations; farmers' economic cooperation associations; 
other public interest or mutual aid associations in rural communities; 
foreign aid organizations in China; foreign projects in China; foreign 
chambers of commerce and industry associations; and religious groups. 
Gao Bingzhong and Yuan Ruijun, eds., Blue Book on Civil Society 
Development in China [Zhongguo gongmin shehui fazhan lanpishu] 
(Beijing: Peking University Press, 2008), 19.
    \6\ Chinese Human Rights Defenders (Online), ``Reining in Civil 
Society: The Chinese Government's Use of Laws and Regulations To 
Persecute Freedom of Association,'' 10 August 09; U.S. Embassy Beijing 
(Online), ``Chinese NGOs--Carving a Niche Within Constraints,'' January 
2003. These restrictive registration requirements violate the right to 
freedom of association as defined by international human rights 
standards. CECC, 2007 Annual Report, 10 October 07, 141. See 
Regulations on the Registration and Management of Social Organizations 
[Shehui tuanti dengji guanli tiaoli], issued and effective 25 October 
98, arts. 3, 6; Temporary Regulations on the Registration and 
Management of Private, Non-Enterprise Units [Minban feiqiye danwei 
dengji guanli zanxing tiaoli], issued 25 September 98, effective 25 
October 98, arts. 3, 5; Regulations on the Management of Foundations 
[Jijinhui guanli tiaoli], issued 8 March 04, effective 1 June 04, arts. 
7, 9(5).
    \7\ Regulations on the Registration and Management of Social 
Organizations [Shehui tuanti dengji guanli tiaoli], issued and 
effective 25 October 98, arts. 3, 6, 9. The regulations use the term 
``social organizations'' to refer to non-profit organizations 
voluntarily created by Chinese citizens in order to achieve the 
collective desires of members, and conduct activities according to 
their charters. All groups other than state bureaus may join social 
organizations as institutional members. Regulations on the Registration 
and Management of Social Organizations [Shehui tuanti dengji guanli 
tiaoli], issued and effective 25 October 98, art. 2. The Commission in 
2005 described social organizations as voluntary associations such as 
academic or professional groups. CECC, 2005 Annual Report, 11 October 
05, 166.
    \8\ Temporary Regulations on the Registration and Management of 
Private, Non-Enterprise Units [Minban feiqiye danwei dengji guanli 
zanxing tiaoli], issued 25 September 98, effective 25 October 98, arts. 
3, 5. ``The regulations use `private, non-enterprise units' to refer to 
social groups that are engaged in non-profit social services and that 
are organized by enterprises, social organizations, other social 
forces, and individual citizens with the use of non-state funds.'' 
Temporary Regulations on the Registration and Management of Private, 
Non-Enterprise Units [Minban feiqiye danwei dengji guanli zanxing 
tiaoli], issued 25 September 98, effective 25 October 98, art. 2.
    \9\ Regulations on the Management of Foundations [Jijinhui guanli 
tiaoli], issued 8 March 04, effective 1 June 04, arts. 7, 9(5).
    \10\ Bureau of Democracy, Human Rights, and Labor, U.S. Department 
of State, Country Reports on Human Rights Practices--2007, China 
(includes Tibet, Hong Kong, and Macau), 11 March 08.
    \11\ CECC, 2007 Annual Report, 10 October 07, 141-142; Regulations 
on the Management of Foundations [Jijinhui guanli tiaoli], issued 8 
March 04, effective 1 June 04, arts. 9, 13.
    \12\ CECC, 2005 Annual Report, 11 October 05, 82. See also CECC, 
2008 Annual Report, 31 October 08, 144; CECC, 2007 Annual Report, 10 
October 07, 142.
    \13\ According to the city's policy, Beijing-based organizations 
can register and submit application materials at the Beijing City 
Social Work Committee's Social Work Office. After an interagency 
examination, the Social Work Office will then respond with a decision 
within 20 working days. ``Beijing Municipal Government Appoints Ten 
Centers for Social Organizations'' [Beijing shizhengfu wei minjian 
zuzhi zhiding le shige niangjia], Jinghua Net, reprinted in Chinese 
Human Rights Defenders (Online), 13 April 09; Guo Aiti, ``Social Work 
Committee To Accept Social Organization Applications Next Month'' 
[Shegongwei xiayue jieshou shetuan chengli shenqing], Jinghua Net 
(Online), 7 March 09.
    \14\ Zhao Ling, ``Public Interest Group Falls Into `Tax Finance' 
Trap'' [Gongyi zuzhi shenxian ``caishui'' kunjing], Southern Weekend 
(Online), 23 July 09; Chinese Human Rights Defenders (Online), 
``Reining in Civil Society: The Chinese Government's Use of Laws and 
Regulations To Persecute Freedom of Association,'' 10 August 09; U.S. 
Embassy Beijing (Online), ``Chinese NGOs--Carving a Niche Within 
Constraints,'' January 2003.
    \15\ The Commission in 2005 reported that unregistered groups 
generally experience little or no government interference as long as 
they avoid financial misdeeds or overt political challenges. CECC, 2005 
Annual Report, 11 October 05, 82.
    \16\ See, e.g., Zhao Ling, ``Public Interest Group Falls Into `Tax 
Finance' Trap'' [Gongyi zuzhi shenxian ``caishui'' kunjing], Southern 
Weekend (Online), 23 July 09; Chinese Human Rights Defenders (Online), 
``Reining in Civil Society: The Chinese Government's Use of Laws and 
Regulations To Persecute Freedom of Association,'' 10 August 09; CECC, 
2007 Annual Report, 10 October 07, 142.
    \17\ CECC, 2007 Annual Report, 10 October 07, 143.
    \18\ The fines levied were for unpaid taxes related to a series of 
donations to OCI made by Yale University's China Law Center between 
2006 and 2008. The fine levied against OCI amounts to five times what 
OCI allegedly owed the government. See Andrew Jacobs, ``Arrest in China 
Rattles Backers of Legal Rights,'' New York Times (Online), 9 August 
09; Chinese Human Rights Defenders (Online), `` `Open Constitution 
Initiative' Faces 1.42 Million Yuan Tax Administration Fine'' 
[``Gongmeng'' mianlin 142 wan yuan de shuiwu chufa], 16 July 09.
    \19\ For example, OCI in 2008 attempted to file lawsuits on behalf 
of families whose infants or children had become ill as a result of 
consuming products made with tainted milk powder, and in 2009, OCI 
released a report that investigated the cause of the Tibetan protests 
and rioting in March 2008. ``Beijing Think Tank Faults Domestic 
Policies, Issues for March 2008 Tibetan Rioting,'' CECC China Human 
Rights and Rule of Law Update, No. 4, 2009, 2; Zhu Zhe and Cui Xiaohuo, 
``Legal Help Group Told To Pack Up,'' China Daily (Online), 18 July 09.
    \20\ Zhu Zhe and Cui Xiaohuo, ``Legal Help Group Told To Pack Up,'' 
China Daily (Online), 18 July 09; Jonathan Landreth, ``China Reins in 
More Rights Activists by Seizing Computers,'' Christian Science Monitor 
(Online), 17 July 09.
    \21\ Ibid.
    \22\ The number of government-registered NGOs in China rose to 
400,000 by the end of 2008, up from 387,000 in 2007 and 154,000 in 
2000. ``Recommendation To Include `NGO Management Law' in the 
Legislative Plan'' [Jianyi jiang ``minjian zuzhi guanli fa'' lieru lifa 
guihua], Beijing News (Online), 3 March 09; CECC, 2008 Annual Report, 
31 October 08, 144.
    \23\ Gao Bingzhong and Yuan Ruijun, eds., Blue Book on Civil 
Society Development in China [Zhongguo gongmin shehui fazhan lanpishu] 
(Beijing: Peking University Press, 2008), 18.
    \24\ CECC, 2007 Annual Report, 10 October 07, 142.
    \25\ For example, private citizens reportedly have drafted laws for 
the consideration of the National People's Congress. Tian Xianghua, 
``Two Civil Society Individuals Spent 4 Years Drafting `Public Interest 
Litigation Law (Draft)' '' [Liangwei minjian renshi lishi sinian qicao 
``gongyi susongfa (cao'an)''], First Financial Daily, reprinted in 
Hexun (Online), 19 July 06.
    \26\ CECC staff interviews with international NGOs that have NGO 
lobbying and advocacy training programs in China. Song Zonghe, ``Meng 
Weina: NGOs Should Actively Participate in Lawmaking'' [Meng weina: fei 
zhengfu zuzhi ying jiji canyu lifa], China Philanthropy Times, 
reprinted in ChinaNGO.Net (Online), 2 February 05.
    \27\ The committee will also work to prevent some government 
offices from institutionalizing their interests, as well as work to 
decrease the expansion of executive power through legislation. 
``Beijing To Establish Experts' Legislative Committee'' [Beijing jiang 
chengli zhuanjia lifa weiyuanhui], Jinghua Net, reprinted in Xinhua 
(Online), 21 March 09.
    \28\ PRC Central People's Government (Online), ``Legislative 
Affairs Office: 24 Administrative Law and Regulation Drafts Solicited 
Opinions on the Internet Last Year'' [Fazhiban: Qunian ershisi bu 
xingzheng fagui cao'an wangshang gongkai zhengqiu yijian], 24 March 09.
    \29\ ``Luoyang Trial of `Civil Society Lawmaking' To Prevent 
Legislative Affairs Offices From Benefiting'' [Luoyang shishui 
``minjian lifa'' dujue lifa bumen liyihua], Dahe Net (Online), 10 April 
08.
    \30\ According to one Tsinghua University scholar, environmental 
issues in China often enjoy broader public support and are in some 
cases less politically sensitive than other issues. Environmental 
issues also often frequently align and agree with government policies. 
``Jia Xijin: Analysis of Methods of Chinese Citizens' Participation in 
NGOs'' [Jia xijin: zhongguo gongmin canyu de feizhengfu zuzhi tujing 
fenxi], TECN.net (Online), 25 March 09.
    \31\ CECC, 2006 Annual Report, 20 September 06, 102, 103.
    \32\ Local governments reportedly pressured three NGOs to withdraw 
their endorsement for a statement initiated by the Beijing Aizhixing 
Research Institute which was calling for changes to the Global Fund 
AIDS Grant's Beijing-based secondary recipients from 2007 to 2009. 
Hunger Strike for AIDS (Online), ``Three NGOs' Statements Regarding 
Changing Their Endorsements Due to Pressure'' [Sange zaoshou yali 
gaibian lichang de feizhengfu zuzhi jiqi xiangguan shengming], 2 March 
09; Wang Long, ``Wang Long: My Random Thoughts'' [Wang long wode 
suixiang], Tongzhi Google Group, reprinted by Chang Kun on China AIDS 
Group Blog (Online), 2 March 09.
    \33\ According to foreign news media reports, Beijing public 
security officers and officials from the Beijing City Cultural Law 
Enforcement Agency raided the offices of Beijing Yirenping Center--a 
public health NGO that works to raise awareness about public health 
risks and eliminate discrimination against those who carry diseases--
and confiscated more than 90 copies of the center's China's Anti-
Discrimination Legal Action Newsletter. ``Beijing Authorities Raid Non-
Governmental Organization Yirenping'' [Beijing dangju soucha feizhengfu 
zuzhi yirenping], Voice of America (Online), 29 July 09; Human Rights 
in China (Online), ``Raid of Public Interest Group Reveals Degree of 
Information Control,'' 29 July 09.
    \34\ For example, Guangzhou city public security officials on the 
evenings of March 30 and April 4, 2009, reportedly took away between 50 
and 60 people who gathered in People's Park because ``there were too 
many homosexuals in the park.'' Those who were taken away for 
examination included volunteers of Chi Heng Foundation, a Hong Kong-
based organization that assists children affected by HIV/AIDS. The 
volunteers were reportedly taken away while conducting regular outreach 
work. Chi Heng Foundation, ``Police Took Away About 60 Homosexuals Who 
Were Chatting in the People's Park in Guangzhou'' [Jinliushiming 
tongxinglianzhe zai guangzhou renmin gongyuan liaotian bei jingfang 
daizou panwen], reprinted in Xiyangzhiyue (Online), 4 April 09. On June 
10, 2009, during Shanghai's hosting of the country's first Gay Pride 
Festival, the Shanghai Municipal Government Commerce Bureau reportedly 
pressured two venues to cancel a play and a film screening. A foreign 
news media report suspected that the disruption was a result of local 
officials' nervousness about being unable to fully control public 
events. Chris Hogg, ``China Bans Parts of Gay Festival,'' BBC (Online), 
11 June 09; Qian Yanfeng, ``Shanghai Hosts First Gay Pride Festival,'' 
China Daily (Online), 10 June 09; ``Pride of Tolerance,'' China Daily 
(Online), 10 June 09.
    \35\ For example, from April 24 to May 9, 2009, the Shenzhen Public 
Security Bureau detained Guo Yongfeng, a Shenzhen-based democracy and 
anticorruption activist, for ``illegal'' civil society activity. Guo 
had been preparing to establish an organization, the Citizens' 
Association for Government Oversight, to address corruption issues. 
Chinese Human Rights Defenders (Online), ``Citizens' Association for 
Government Oversight Planner Guo Yongfeng Detained for 4 Days Due to 
June 4th'' [Gongmin jianzhenghui choubanren guo yongfeng yinwei liusi 
bei jianjin 4 tian], 7 June 09; Chinese Human Rights Defenders 
(Online), ``Citizens' Association for Government Oversight Planner Guo 
Yongfeng Released After 15 Days of Detention'' [Gongmin jianzhenghui 
choubanren guo yongfeng bei juliu 15 tian hou huoshi], 9 May 09; ``Guo 
Yongfeng Brief Biography and Statement'' [Guo yongfeng jianli ji 
shenming], Boxun (Online), 10 May 09.
    \36\ In November 2008, public security officials from the Nanjing 
Municipal Public Security Bureau (PSB) detained Guo Quan, founder of 
the China New Democracy Party (CNDP) and a former associate professor 
of Nanjing Normal University. ``Democracy Activist Guo Quan Detained 
Beyond Legal Time Limit'' [Minzhu renshi guo quan bei chaoqi jiya], 
Radio Free Asia (Online), 29 November 08. On June 18, 2009, the Suqian 
Intermediate People's Court in Jiangsu province delivered an indictment 
to Guo and informed Guo's mother that a court date would be selected 
for Guo and that he had been charged with ``subversion of state 
power.'' ``Court Puts Guo Quan Case on File, Family Pessimistic'' [Guo 
quan anjian fayuan lian jiaren beiguan], Radio Free Asia (Online), 18 
June 09. Chinese Human Rights Defenders, a human rights NGO, suspected 
that Guo's arrest is related to his work in organizing the China New 
Democracy Party and for publishing articles critical of the Nanjing 
municipal government. Chinese Human Rights Defenders (Online), 
``Nanjing Political Activist Guo Quan Detained on Suspicion of 
`Inciting Subversion,' '' 14 November 08. Guo's trial opened in early 
August 2009 in Suqian, Jiangsu. Edith Wong, ``Founder of Chinese 
Political Group To Be Tried,'' Associated Press (Online), 6 August 09.
    \37\ The UN Human Rights Council's Review of China's Record: 
Process and Challenges, Staff Roundtable of the Congressional-Executive 
Commission on China, 16 January 09, Testimony of Xiaorong Li, Senior 
Researcher, Institute for Philosophy and Public Policy, University of 
Maryland, Remarks During Question and Answer Period.
    \38\ The three grassroots organizations were Beijing Aizhixing 
Institute, Beijing Legal Aid Office for Migrant Workers, and Beijing 
Children's Legal Aid and Research Center. UN Office of the High 
Commissioner for Human Rights (Online), Universal Periodic Review--
China--Reference Documents, Civil Society. See also ``UN Human Rights 
Council To Review China's Human Rights Record,'' Congressional-
Executive Commission on China (Online), 2 February 09.
    \39\ Zhu Zhe and Cui Xiaohuo, ``Legal Help Group Told To Pack Up,'' 
China Daily (Online), 18 July 09; Beijing Municipal Civil Affairs 
Bureau, Decision Concerning Closure of ``Gongmeng Legal Research 
Center'' [Guanyu qudi ``gongmeng falu yanjiu zhongxin'' de jueding], 
reprinted in Democratic China (Online), 17 July 09.
    \40\ Teng Biao, ``The Law on Trial in China,'' Washington Post 
(Online), 25 July 09.
    \41\ Open Constitution Initiative Web site (Online), ``About Us,'' 
last visited 13 July 09 (Web site no longer accessible).
    \42\ ``Beijing Think Tank Faults Domestic Policies, Issues for 
March 2008 Tibetan Rioting,'' Congressional-Executive Commission on 
China (Online), 4 July 09.
    \43\ Xu had been planning to attend a hearing on July 30 with the 
State Administration of Taxation about its decision to fine OCI for 
``tax evasion.'' Chinese Human Rights Defenders (Online), ``Police Take 
Away Xu Zhiyong, Leader of Barred NGO,'' 31 July 09; Sky Canaves, 
``China Detains Prominent Legal Activist,'' Wall Street Journal 
(Online), 31 July 09. Xu was released on bail on August 23. Sky 
Canaves, ``Beijing Frees Jailed Activist Xu Zhiyong,'' Wall Street 
Journal (Online), 24 August 09.
    \44\ Asia Pacific Philanthropy Consortium (Online), ``China: 
Philanthropy,'' last visited 7 July 09; Michael Mackey, ``The New 
Chinese Philanthropy,'' Asia Times (Online), 14 May 05.
    \45\ According to a Ministry of Civil Affairs report, the value of 
donations in and to mainland China in 2008 totaled 107 billion yuan 
(US$15.67 billion), the largest value in donations since the founding 
of the People's Republic of China in 1949 and 3.5 times more than the 
amount donated in and to mainland China in 2007. Seventy-seven percent 
of the 107 billion yuan (US$15.67 billion) donated was dispersed to 
47.66 million people. The report valued foreign donations to mainland 
China at 13.54 billion yuan (US$1.98 billion), or about 13.4 percent of 
the total amount. Ministry of Civil Affairs (Online), 2008 Chinese 
Charitable Donations Report [2008 niandu zhongguo cishan juanzhu 
baogao], 10 March 09. See also Asia Pacific Philanthropy Consortium 
(Online), ``China: Philanthropy,'' last visited 7 July 09.
    \46\ CECC, 2008 Annual Report, 31 October 08, 144. See also ``Quake 
Shakes `Official' Charities in China,'' Caijing (Online), 30 June 08.
    \47\ Charles Hutzler, ``Government Blunts Activism Set Off by China 
Quake,'' Associated Press (Online), 9 May 09. For perspectives on the 
role of NGOs after the earthquake, see Peter Ford, ``China Quake: From 
Rubble, Civil Society Builds,'' Christian Science Monitor (Online), 10 
May 09; Wang Yingchun, ``The Strength of NGOs Becomes More Evident in 
the Post-Disaster Reconstruction Effort'' [NGO zai zaihou chongjian 
zhongde youshi jiang geng mingxian], China Economic Herald, reprinted 
in Zhejiang Normal University, Agriculture Research Center (Online), 3 
June 08; Wang Zhuoqiong, ``CPC Official Praises NGOs' Role in Relief 
Work,'' China Daily (Online), 27 May 08; ``Quake Shakes `Official' 
Charities in China,'' Caijing (Online), 30 June 08; ``Wenchuan 
Earthquake: NGOs' Growth and Breaking Through Challenges'' [Wenchuan 
dizhen: NGO de shenzhang yu jiannan tupo], China Economic Times, 
reprinted in West Women (Online), 4 June 08.
    \48\ PRC Corporate Income Tax Law [Zhonghuarenmin gongheguo qiye 
suode shui fa], issued 16 March 07, effective 1 January 08, arts. 9, 
26(4); PRC Public Welfare Donations Law [Zhonghua renmin gongheguo 
gongyishiye juanzeng fa], issued 28 June 99, effective 1 September 99; 
PRC Red Cross Law [Zhonghua renmin gongheguo hongshizihui fa], issued 
and effective 31 October 93, arts. 20(2), 23; Regulations on the 
Registration and Management of Social Organizations [Shehui tuanti 
dengji guanli tiaoli], issued and effective 25 October 98, art. 29; 
Regulations on the Management of Foundations [Jijinhui guanli tiaoli], 
issued 8 March 04, effective 1 June 04, arts. 1, 2, 25, 26, 27; 
Temporary Regulations on the Registration and Management of Private, 
Non-Enterprise Units [Minban feiqiye danwei dengji guanli zanxing 
tiaoli], issued 25 September 98, effective 25 October 98, arts. 21, 22; 
Implementation Regulations on the PRC Individual Income Tax Law 
[Zhonghua renmin gongheguo geren suodeshuifa shishi tiaoli], issued 19 
December 05, effective 1 January 06, art. 24.
    \49\ PRC Corporate Income Tax Law [Zhonghuarenmin gongheguo qiye 
suode shui fa], issued 16 March 07, effective 1 January 08, art. 9; PRC 
Public Welfare Donations Law [Zhonghua renmin gongheguo gongyishiye 
juanzeng fa], issued 28 June 99, effective 1 September 99, art. 24; 
Implementation Regulations on the PRC Individual Income Tax Law 
[Zhonghua renmin gongheguo geren suode shui fa shishi tiaoli], issued 
19 December 05, effective 1 January 06, art. 24; CECC, 2008 Annual 
Report, 31 October 08, 146.
    \50\ Circular Regarding Issues Relating to Pre-Tax Deductions for 
Public Welfare Donations [Guanyu gongyixing juanzeng shui qian kouchu 
youguan wenti de tongzhi], issued 31 December 08, effective 1 January 
08, art. 11. The December 2008 circular requires all public-interest-
oriented NGOs to apply for the new tax-exempt status, regardless of 
their tax-exempt status before the issuance of the circular. 
Authorities issued the February 2009 circular primarily to satisfy the 
requests of foundations that had been granted tax-exempt status before 
2008. None of the foundations that had tax-exempt status before 2008 
were able to receive tax-exempt status in accordance with the December 
2008 circular, because that circular was issued on December 31, 2008, 
but was effective only starting from January 1, 2008. Circular 
Regarding Foundations Applying for Public Donation Tax-Exempt Status 
With the Ministry of Civil Affairs [Zai minzhengbu dengji de jijinhui 
shenqing gongyixing juanzeng shuiqian kouchu zige xuzhi], issued 19 
February 09, sec. 2.
    \51\ Between 2000 and December 2007, only 69 national-level public 
interest organizations and NGOs were reportedly able to obtain tax-
exempt status. ``Corporate Donation Tax Preferences Still in a Vacuum'' 
[Guojia qiye juanzeng shuishou youhui chuyu zhenkong zhuangtai], China 
Philanthropy Times (Online), 16 June 09. The majority of NGOs in China, 
regardless of their registration status, cannot engage in fundraising 
activities because charity-related laws only allow a small number of 
government-approved foundations to collect and distribute donations. 
CECC, 2008 Annual Report, 31 October 08, 144.
    \52\ Circular Regarding Issues Relating to Pre-Tax Deductions for 
Public Welfare Donations [Guanyu gongyixing juanzeng shui qian kouchu 
youguan wenti de tongzhi], issued 31 December 08, effective 1 January 
08, art. 6.
    \53\ ``82 Social Organizations in Beijing Obtain Status for Pre-Tax 
Deductions of Donations'' [Beijing shishu 82 jia shehui zuzhi huode 
juanzengshui qian kouchu zige], China Philanthropy Times (Online), 16 
June 09. In April 2009, the Hunan provincial government published a 
list of 44 foundations and 11 social organizations in Hunan province 
that have been granted the new tax-exempt status. Transmitting the 
Ministry of Finance, State Administration of Taxation, and the Ministry 
of Civil Affairs Circular Regarding Issues Relating to Pre-Tax 
Deductions for Public Welfare Donations [Zhuanfa caizhengbu 
guojiashuiwuzongju minzhengbu guanyu gongyixing juanzengshui qian 
kouchu youguan wenti de tongzhi], issued 16 April 09.
    \54\ Circular Regarding Issues Relating to Pre-Tax Deductions for 
Public Welfare Donations [Guanyu gongyixing juanzeng shui qian kouchu 
youguan wenti de tongzhi], issued 31 December 08, effective 1 January 
08, arts. 4, 6.
    \55\ None of the nearly 60 foundation applications submitted by the 
Ministry of Civil Affairs to the Ministry of Finance and the State 
Administration of Taxation have been approved. See ``Corporate Donation 
Tax Break Still in a Vacuum'' [Guojia qiye juanzeng shuishou youhui chu 
zhenkong zhuangtai], China Philanthropy Times (Online), 16 June 09.
    \56\ ``Charity Law To Be Included in State Council's NPC 
Legislative Plan'' [Cishanfa lieru guowuyuan he renda changwei lifa 
jihua], Jinghua Net, reprinted in Sina.com (Online), 10 March 06.
    \57\ Ibid.
    \58\ Chen Liping, ``Last Year's Donations More Than Last 10 Years' 
Total; Ministry of Civil Affairs To Discuss Draft Charity Law'' [Qunian 
juanzeng chao shinian zonghe tuidong lifa minzhengbu jiang taolun 
cishanfa caoan], Legal Daily (Online), 19 May 09.
    \59\ See, e.g., ``Ministry of Civil Affairs: Charity Organizations 
To Receive Special Financial Support'' [Minzhengbu cishanzuzhi jiang 
huo zhuanxiang caizheng zijin zhichi], China Philanthropy Times 
(Online), 9 June 09; ``China's Ministry of Civil Affairs and Charity 
Organizations To Discuss Building of Emergency Response Information 
Platform'' [Zhongguo minzhengbu yu cishan zuzhi tantao yingji jiuzhu 
xinxi pingtai jianshe], China News Net, reprinted in Xinhua (Online), 
20 March 09; ``Ministry of Civil Affairs Plans To Establish Emergency 
Response Information Platform'' [Minzhengbu ni jian yingji jiuzhu xinxi 
pingtai], China Philanthropy Times (Online), last visited 24 March 09.
    \60\ Gao Bingzhong and Yuan Ruijun, eds., Blue Book on Civil 
Society Development in China [Zhongguo gongmin shehui fazhan lanpishu] 
(Beijing: Peking University Press, 2008), 84.
    \61\ CECC, 2004 Annual Report, 5 October 04, 71. The 1998 Temporary 
Regulations on the Registration and Management of Public Institutions 
(amended in June 2004) refer to public institutions as ``social service 
organizations sponsored by government agencies or other organizations 
using government assets that engage in educational, science and 
technological, cultural, medical, and other activities for the purpose 
of social interests.'' Temporary Regulations on the Registration and 
Management of Public Institutions [Shiye danwei dengji guanli zanxing 
tiaoli], issued and effective 25 October 98, amended 27 June 04, art. 
2.
    \62\ Examples of such ``public sector'' actors in a market economy 
include police stations, as well as public hospitals, schools, and 
research institutions. Gao Bingzhong and Yuan Ruijun, eds., Blue Book 
on Civil Society Development in China [Zhongguo gongmin shehui fazhan 
lanpishu], (Beijing: Peking University Press, 2008), 79, 80.
    \63\ CECC, 2004 Annual Report, 5 October 04, 71.
    \64\ See, e.g., ``Market Reforms of Hospitals in China,'' Gao 
Bingzhong and Yuan Ruijun, eds., in Blue Book on Civil Society 
Development in China [Zhongguo gongmin shehui fazhan lanpishu], 
(Beijing: Peking University Press, 2008), 90.
    \65\ CECC, 2004 Annual Report, 5 October 04, 71.
    \66\ ``Expert Analysis of Organizational Reform: Public 
Institutions Will Be Divided Into Three Categories'' [Zhuanjia jiexi 
jigou gaige: shiye danwei jiang bei fencheng sanlei], China News Net 
(Online), 17 March 08.

    Notes to Section III--Institutions of Democratic Governance
    \1\ State Council Information Office, White Paper on Building of 
Political Democracy in China [Zhongguo minzhu zhengzhi jianshe], 19 
October 05, preface. The White Paper states, ``Democratic rule means 
that the CPC [Communist Party of China] sticks to the principle of 
ruling the country for the people and relying on the people in its 
rule, guarantees that the people are the masters of the state, upholds 
and improves the people's democratic dictatorship and the democratic 
centralism of the Party and the state, and promotes people's democracy 
by enhancing inner-Party democracy.'' Ibid., sec. VIII.
    \2\ State Council Information Office, White Paper on China's 
Political Party System [Zhongguo de zhengdang zhidu baipishu], Xinhua 
(Online), 15 November 07, preface.
    \3\ ``Multi-party cooperation and political consultation system 
under the leadership of the Communist Party of China shall continue to 
exist and develop for a long time to come.'' Ibid., quoting the PRC 
Constitution.
    \4\ International Covenant on Civil and Political Rights (ICCPR), 
adopted by UN General Assembly resolution 2200A (XXI) of 16 December 
66, entry into force 23 March 76. China has signed, but has not yet 
ratified, the ICCPR. As in previous years, the Chinese Government this 
reporting year continued to reiterate its commitment to ratifying the 
ICCPR, which China signed in 1998. In February 2009, during the UN 
Human Rights Council's Universal Periodic Review of China's human 
rights record, the Chinese Government supported recommendations made by 
Member States that China ratify the ICCPR. At the time, Chinese 
officials also said China was in the process of amending domestic laws, 
including the criminal procedure law and laws relating to reeducation 
through labor, to make them compatible with the ICCPR. UN GAOR, Hum. 
Rts. Coun., 11th Sess., Report of the Working Group on the Universal 
Periodic Review--China, A/HRC/11/25, 3 March 09, paras. 63, 114(1). 
Moreover, in the 2009-2010 National Human Rights Action Plan (HRAP) 
issued by the Chinese Government in April 2009, officials stated that 
the ICCPR was one of the ``fundamental principles'' on which the plan 
was framed, and that the government ``will continue legislative, 
judicial and administrative reforms to make domestic laws better linked 
with this Covenant, and prepare the ground for approval of the ICCPR.'' 
State Council Information Office, National Human Rights Action Plan of 
China (2009-2010), Xinhua (Online), 13 April 09, introduction, sec. 
V(1).
    \5\ International Covenant on Civil and Political Rights (ICCPR), 
adopted by UN General Assembly resolution 2200A (XXI) of 16 December 
66, entry into force 23 March 76, art. 25. Under General Comment 25 to 
the ICCPR, this language requires that: ``The right of persons to stand 
for election should not be limited unreasonably by requiring candidates 
to be members of parties or of specific parties; Party membership 
should not be a condition of eligibility to vote; it is implicit in 
article 25 that [elected] representatives do in fact exercise 
governmental power and that they are accountable through the electoral 
process for their exercise of that power; an independent electoral 
authority should be established to supervise the electoral process and 
to ensure that it is conducted fairly, impartially and in accordance 
with established laws which are compatible with the Covenant; freedom 
of expression, assembly and association are essential conditions for 
the effective exercise of the right to vote and must be fully 
protected.'' International Covenant on Civil and Political Rights, 
adopted by UN General Assembly resolution 2200A (XXI) of 16 December 
66, entry into force 23 March 76, General Comment 25.
    \6\ Chinese President Hu Jintao has called for improved democracy 
within the Party, which as of 2008 had approximately 76 million 
members, a 17-fold increase since 1949. Kristine Kwok, ``Hu Urges 
Improved Democracy Within the Communist Party,'' South China Morning 
Post (Online), 1 July 09. Twenty-three percent of Party members are 
under the age of 35. ``CCP Is at an Important Phase of 
`Intergenerational Succession' '' [Zhonggong muqian zheng chuzai 
``daijijiti'' de shike], Radio Free Asia (Online), 1 July 09.
    \7\ ``CCP Members Have Increased 16 Fold in the 60 Years Since the 
Founding of the PRC, Totaling Nearly 76 Million'' [Xin zhonguo chengli 
60 nian lai zhongguo gongchandang dangyuan zengjia 16 bei zongshu jin 
7600 wan ming], Xinhua, reprinted in People's Daily (Online), 30 June 
09.
    \8\ For further discussion of various Party organizations, see, 
e.g., ``The Effort To Build Party Organizations in Law Firms Has 
Experienced Breakthrough Progress To Realize Complete Coverage'' [Lushi 
hangye dang zuzhi jianshe qude tupoxing jinzhan shixian quan fugai], 
Legal Daily (Online), 25 June 09. Mass organizations are described by 
the Chinese Government as ``a bridge linking the CPC [Communist Party 
of China] and government with the people. They are [an] important 
social support for State power, playing a vital role in socialist 
democratic life.'' Embassy of the People's Republic of China in the 
Federal Democratic Republic of Nepal (Online), ``Major Mass 
Organizations,'' 27 October 04.. The major mass organizations in China 
include: the All-China Federation of Trade Unions, the Communist Youth 
League of China, the All-China Women's Federation, the All-China 
Federation of Industry and Commerce, the All-China Taiwan Compatriots 
Association, the All-China Students' Federation, and the All-China 
Youth Federation. For a discussion of local residents' committees, see 
Benjamin Read, ``Revitalizing the State's Urban `Nerve Tips,' '' 163 
China Quarterly 806, 807-808 (2000).
    \9\ Benjamin Read, ``Revitalizing the State's Urban `Nerve Tips,' 
'' 163 China Quarterly 806, 807-808 (2000).
    \10\ The residents committees implement Party and government 
policies, such as birth control, and engage in a number of other tasks, 
including providing social services, collecting fees, and mediating 
disputes. They maintain close ties to police stations. Benjamin Read, 
``Revitalizing the State's Urban `Nerve Tips,' '' 163 China Quarterly 
806, 807-808 (2000). The residents committees also help to organize 
citizens for security tasks, such as patrolling the streets and 
reporting ``suspicious characters or bomb-like objects to the 
authorities'' in the run-up to the 2008 Beijing Summer Olympic Games. 
Willy Lam, ``CCPLA: Tightening the CCP's Rule Over Law,'' China Brief 
(Online), 2 April 09.
    \11\ ``In China, No Plans To Emulate West's Way,'' New York Times 
(Online), 10 March 09.
    \12\ Wu's remarks as cited in ``In China, No Plans To Emulate 
West's Way,'' New York Times (Online), 10 March 09.
    \13\ Wu Bangguo, Chairman of the Standing Committee of the National 
People's Congress, Report on the Work of the Standing Committee of the 
National People's Congress, Second Session of the Eleventh National 
People's Congress, 9 March 09. See also ``Highlights of NPC Chairman Wu 
Bangguo's Work Report,'' China Daily (Online), 9 March 09.
    \14\ ``The Six Why's'' [Liu ge weishenme], China Central Television 
(Online), 19 June 09.
    \15\ For a more indepth discussion of the ``six why's'' and their 
answers, see China Media Project (Online), ``Because Forsaking Marxism 
Means Toppling the Great Wall,'' 19 June 09.
    \16\ ``The Six Why's'' [Liu ge weishenme], China Central Television 
(Online), 19 June 09.
    \17\ Central-level authorities reportedly embarked on a special 
campaign called the ``6521 project'' to further ensure social stability 
in 2009. Ni An, ``CCP Leadership Establishes Special Group To Ensure 
`Social Stability' During Sensitive Anniversaries'' [Zhonggong gaozeng 
chengli zhuanmen xiaozu yingdui minggan ji'nianer quebao shehui 
wending], Radio France International (Online), 10 March 09. All 
provinces and municipalities have been asked to set up similar ``6521 
task forces.'' ``Taskforces Set Up To Keep Lid on Protests,'' South 
China Morning Post (Online), 28 February 09. In the first half of 2009, 
the Ministry of Public Security embarked on a three-month nationwide 
campaign to train approximately 3,080 county-level public security 
bureaus, and, according to a Xinhua article, the Minister of Public 
Security, Meng Jianzhu, has ``urged public security heads at county-
level bureaus to get better at dealing with conflicts.'' ``Public 
Security Minister Urges Enhanced Capacity To Deal With Conflicts,'' 
Xinhua (Online), 8 April 09.
    \18\ ``China Vows To Address Public Complaints To Maintain Social 
Stability,'' Xinhua (Online), 5 March 09 (Open Source Center, 5 March 
09).
    \19\ While stability maintenance leading groups have been in 
existence since the 1990s, authorities have set up the stability 
maintenance offices only in recent years. Liao Haiqing, ``Stability 
Maintenance Offices Taking the Stage,'' Southern Wind Window, 8 April 
09 (Open Source Center, 8 April 09). These offices were established 
under the Party Central Committee and are under the control of the 
Central Stability Maintenance Leading Group (Zhongyang weihu wending 
lingdao xiaozu), headed by Zhou Yongkang. The Leading Group includes 
not only representatives from the Central Political-Legal Committee, 
but also members from the public security, procuratorial, justice, and 
propaganda departments. The functions of the stability maintenance 
offices are varied and relate to coordinating and guiding resolution of 
mass incidents and major cases, collecting relevant information, and 
making policy suggestions. Ibid.
    \20\ As part of an early warning system, stability maintenance 
offices in some areas, such as Pingyang county in Zhejiang province, 
reportedly are required to conduct risk assessments of all major 
projects, proposed policies, and reform measures in a location to 
determine the probability that conflicts or social instability will 
emerge. When a ``serious conflict'' occurred in Pingyang county related 
to a major project that had not undergone an assessment, ``those 
responsible were tracked down and were deemed to have failed their 
evaluation.'' Ibid.
    \21\ Ibid.
    \22\ Xu Dongmei, Research on Chinese Communist Party Intra-Party 
Democracy [Zhongguo gongchandang dangnei minzhu yanjiu], (Beijing: 
Party Construction Reading Materials Press, 2004), 7.
    \23\ See Deng Xiaoping, ``Report on the Revision of the 
Constitution of the Communist Party of China,'' People's Daily 
(Online), 16 September 56, quoting Deng's statement, ``The measures 
taken for the development of inner-Party democracy are not meant to 
weaken necessary centralization in the Party, but to supply it with a 
powerful and vigorous base.'' Democratic centralism, the fundamental 
organizational principle of the Party as outlined by the Constitution 
of the Communist Party of China, is closely tied to the principle of 
``inner-Party democracy.'' ``Democratic centralism is a combination of 
centralism on the basis of democracy and democracy under centralized 
guidance.'' PRC Constitution. Development of inner-Party democracy was 
all but abandoned during the Cultural Revolution (1966 to 1976), but 
was revived after 1978 when the concept of ``collective leadership'' 
once again became a guiding principle of the Party. Xu Dongmei, 
Research on Chinese Communist Party Intra-Party Democracy [Zhongguo 
gongchandang dangnei minzhu yanjiu], (Beijing: Party Construction 
Reading Materials Press, 2004), 3.
    \24\ David Shambaugh, China's Communist Party: Atrophy and 
Adaptation (Washington, DC: Woodrow Wilson Center Press, 2008), 138. 
According to Shambaugh, these efforts included experimenting with 
multiple-candidate elections for Party committees; exposing Party 
committees to input and criticism from local citizens; encouraging 
intra-party criticisms of policies; increasing the transparency of 
decisionmaking and improving accountability; and increasing the 
responsiveness of Party decisions to critiques from the ``eight minor 
democratic parties.'' At the annual meetings of the National People's 
Congress and Chinese People's Political Consultative Conference in 
March 2009, President Hu encouraged Party members to supervise and make 
suggestions regarding intraparty democracy, including efforts to rein 
in corruption. Kristine Kwok, ``Hu Urges Improved Democracy Within the 
Communist Party,'' South China Morning Post (Online), 1 July 09.
    \25\ ``Hu Jintao: Speed Up Intra-Party Democracy and Rule of Law'' 
[Hu jintao jiji tuijin dangnei minzhu yifa zhizheng], China Times 
(Online), 2 July 09.
    \26\ Shenzhen Government Organs Party Construction (Online), Trial 
Measures Regarding Nominations by General Approval of CCP Cell Members 
and Direct Elections of Basic Level Party Cell Leaders in Government 
Departments Under Direct Jurisdiction of Shenzhen City [Shenzhenshi 
zhishu jiguan jizeng dang zuzhi lingdao banzi chengyuan gongtui zhixuan 
banfa (shixing)], 10 October 08, art. 6. See also China Elections and 
Governance (Online), ``Explanation Behind the Frequency With Which 
`Dark Horse' Party Committee Candidates Are Chosen in Shenzhen Using 
the `Nomination by Approval, Direct Election' Method'' [Shenzhen 
`gongtui zhixuan' xuan ganbu `heima' pinlu beihou], 26 June 09.
    \27\ Liu Zhaoyang, ``Highlights From `Open Recommendations, Direct 
Elections' Held for Party Organizations in 7 Eastern Communities in 
Jinan'' [Jinan qi dong shequ dang zuzhi `gongtui zhixuan' ceji], 
Xinhua, reprinted in Dazhong Ribao (Online), 17 April 08; Wang 
Yongbing, ``A Survey of Open Recommendation, Direct Election for 
Village and Town Committees in Sichuan's Pingchang County'' [Sichuan 
sheng pingchang xian xiangzhen dangwei gongtui zhixuan diaocha], 10 
China Reform Magazine, reprinted in Jinyueya.cn (Online), 2007.
    \28\ Shenzhen Government Organs Party Construction (Online), Trial 
Measures Regarding Nominations by General Approval of CCP Cell Members 
and Direct Elections of Basic Level Party Cell Leaders in Government 
Departments Under Direct Jurisdiction of Shenzhen City [Shenzhenshi 
zhishu jiguan jizeng dang zuzhi lingdao banzi chengyuan gongtui zhixuan 
banfa (shixing)], 10 October 08, art. 9.
    \29\ Ibid., arts. 10-13. Articles 10-13 provide that Party members 
meet together to discuss the candidates and create a list of candidates 
for primary election consideration. The primary election lists must 
have 20 percent more candidates than positions to be filled. The 
primary election candidate lists are then sent to the Party 
organization at the next higher level for inspection and approval.
    \30\ Ibid., arts. 14-16.
    \31\ David Shambaugh, China's Communist Party: Atrophy and 
Adaptation (Washington, DC: Woodrow Wilson Center Press, 2008), 137. 
According to Shambaugh, a CPPCC member had revealed that select CPPCC 
members ``were being more systematically brought into the [Communist 
Party] policymaking process by being shown drafts of various policy 
initiatives, party and state documents, and being asked for feedback on 
them.'' David Shambaugh, China's Communist Party: Atrophy and 
Adaptation (Washington, DC: Woodrow Wilson Center Press, 2008), 137.
    \32\ David Shambaugh, ``Let a Thousand Democracies Bloom,'' 
International Herald Tribune, reprinted in Brookings Institution 
(Online), 6 July 07.
    \33\ David Shambaugh, China's Communist Party: Atrophy and 
Adaptation (Washington, DC: Woodrow Wilson Center Press, 2008), 137.
    \34\ The Central Party Opinion on Strengthening the Work of the 
Chinese People's Political Consultative Conference, issued in February 
2006, outlines a broad framework for strengthening the CPPCC. See CECC, 
2006 Annual Report, 20 September 06, 127.
    \35\ Michael Zhang, ``Environmental Proposals Attract Attention at 
the NPC and CPPCC Conferences,'' Greenlaw (Online), 20 March 09.
    \36\ CPPCC delegates also comment on major political and social 
issues to local or national people's congresses. The CPPCC itself will 
forward delegates' comments, criticisms, or proposals to the relevant 
government entity. CPPCC delegates may raise issues at any time during 
the year, while NPC delegates only make proposals during the annual 
meeting. National People's Congress (Online), ``CPPCC Origins and 
Functions,'' 3 March 08.
    \37\ ``Commentary: Maturing Mode of `Deliberative Democracy'--
Chinese Way To Achieve Harmonious Politics,'' Xinhua (Online), 14 March 
08.
    \38\ The representatives approved Wen Jiabao's work report, with 
only 42 oppositional votes and 22 abstentions, while the Ministry of 
Finance report was opposed by 315 delegates with 142 abstentions. See 
``Some Parliamentarians Dare To Cast Dissenting Votes,'' Newsweek 
(Online), 13 March 09; ``Record of the 11th National NPC Congress 
Second Meeting Closing Ceremony'' [Shiyizeng quanguo renda erci huiyi 
bimuhui shilu], Phoenix (Online), 13 March 09.
    \39\ Chen Zhongxiaolu, ``Who Are These Guys Really Representing?'' 
Caijing (Online), 12 March 09; S.L. Shen, ``The Chinese People's 
Representatives,'' United Press International (Online), 9 March 09; 
Ivan Zhai, ``Academic Calls for Full-Time Delegates,'' South China 
Morning Post (Online), 11 March 09, reporting that one academic 
suggested that the NPC and the CPPCC be modified to have ``full-time'' 
delegates to improve the quality of proposals and to ensure that 
representatives could build a more well-rounded view of all the issues 
facing these representative bodies.
    \40\ S.L. Shen, ``The Chinese People's Representatives,'' United 
Press International (Online), 9 March 09.
    \41\ What ``Democracy'' Means in China After Thirty Years of 
Reform, Staff Roundtable of the Congressional-Executive Commission on 
China, 22 May 09, Testimony of Melanie Manion, Professor of Public 
Affairs and Political Science, University of Wisconsin-Madison.
    \42\ These new developments are the result of rules set in place by 
authorities and not a grassroots movement. Chinese leaders are ``taking 
a risk'' by allowing a certain level of democracy to maintain the 
dominance of the Communist Party and appear legitimate while preventing 
``run-away'' democracy. What ``Democracy'' Means in China After Thirty 
Years of Reform, Staff Roundtable of the Congressional-Executive 
Commission on China, 22 May 09, Testimony of Melanie Manion, Professor 
of Public Affairs and Political Science, University of Wisconsin-
Madison.
    \43\ Xia Ming, ``How To Prevent the Erosion of the People's 
Congress System by Sinister Influences'' [Renda minzhu zhidu jianshe 
ruhe fangkong heise shili de qinshi], Fudan Political Science Review, 
No. 6, 2008, 152-153.
    \44\ ``In Hubei Tianmen City, More Than Two Hundred Residents 
Demand Removal of Local People's Congress Representative'' [Hubei 
tianmen liangbaiduo jumin yaoqiu bamian renda daibiao], Radio Free Asia 
(Online), 12 March 09.
    \45\ Chinese Human Rights Defenders (Online), ``Hubei Tianmen City 
Voters Who Want To Recall People's Congress Representative Threatened'' 
[Hubeisheng tianmenshi xuanmin yu bamian renda daibiao fanzao weixie], 
29 April 09; ``In Hubei Tianmen City, More Than Two Hundred Residents 
Demand Removal of People's Congress Representative'' [Hubei tianmen 
liangbaiduo jumin yaoqiu bamian renda daibiao], Radio Free Asia 
(Online), 12 March 09.
    \46\ Organic Law of the Villagers' Committees of the People's 
Republic of China, enacted and effective 4 November 98. According to 
Article 2 of this law, village committees are not Party organizations, 
nor are they considered part of the government. Instead, they are ``the 
primary mass organization of self-government'' through which 
``villagers manage their own affairs, educate themselves and serve 
their own needs and in which election is conducted, decision adopted, 
administration maintained and supervision exercised by democratic 
means.'' According to Article 3, the Party branches at the village 
level should be separate from the village committee and village Party 
branches should play ``the core leading role'' [in village governance]. 
Article 4 states that the village committees ``shall assist the said 
[township] people's government in its work.''
    \47\ ``Village-Based Democracy Developing Quickly in China, Experts 
Say,'' Xinhua, 2 April 09 (Open Source Center, 2 April 09); CECC, 2006 
Annual Report, 20 September 06, 2.
    \48\ ``Village-Based Democracy Developing Quickly in China, Experts 
Say,'' Xinhua, 2 April 09 (Open Source Center, 2 April 09).
    \49\ China Elections and Governance (Online), ``An Overhaul Draft 
of the Village Committee Organization Law Issued 10 Years Ago To Be 
Sent to the State Council'' [Cun weihui zuzhifa banxing shinian jijiang 
``daxiu'' cao'an yi bao guowuyuan], 4 December 08. Local officials 
began to experiment with various types of ``open village affairs 
regulations'' in 1998 in accordance with a drive to make village 
affairs transparent. The types of projects and affairs to be made 
public include ``new projects, collective assets and finance, land 
uses, family planning, fees and levies, contracts, and cadres' 
salaries.'' Dali Yang, Discontented Miracle: Growth, Conflict, and 
Institutional Adaptations in China (Singapore: World Scientific 
Publishing Co., Pte, Ltd., 2007), 289-292.
    \50\ China Elections and Governance (Online), ``An Overhaul Draft 
of the Village Committee Organization Law Issued 10 Years Ago To Be 
Sent to the State Council'' [Cun weihui zuzhifa banxing shinian jijiang 
``daxiu'' cao'an yi bao guowuyuan], 4 December 08.
    \51\ ``Democracy Developed Rapidly in Villages,'' China Daily, 3 
April 09 (Open Source Center, 3 June 09).
    \52\ Quoted in Gui Tao and Li Yunlu, ``China's Grassroots Democracy 
Trudges on Amid Scandals,'' Xinhua, 4 June 09 (Open Source Center, 4 
June 09).
    \53\ Organic Law of the Villagers Committees of the People's 
Republic of China, enacted and effective 4 November 98, art. 16.
    \54\ The villagers reportedly had photographs of corrupt acts at 
polling places, but their complaints were ignored. ``Villagers in 
Fengqiu, Henan Protest Illegality of Local Election'' [Henan fengqiu 
xian cunmin kangyi difang xuanju weifa], Radio Free Asia (Online), 23 
June 09.
    \55\ Villagers reportedly appealed to Tianjin authorities, but 
those officials did not respond. Villagers decided to go ahead with the 
recall vote, which was passed unanimously by 617 villagers present. 
Despite the vote, the village committee head, Yuan Shiwan, and others 
refused to step down. Two of Yuan Shiwan's sons and ``thugs'' 
reportedly showed up at the house of the leader of the recall 
committee, Fang Zhaojuan, and beat her to the point that she had to be 
taken to the hospital. Peter Ford, ``A Chinese Experiment in Democracy 
Meets Fierce Resistance,'' Christian Science Monitor (Online), 3 
September 08.
    \56\ Ibid.
    \57\ PRC Regulations on Open Government Information, issued 5 April 
07, effective 1 May 08. For more information, see ``China Commits to 
`Open Government Information' Effective May 1, 2008,'' CECC China Human 
Rights and Rule of Law Update, May 2008, 2.
    \58\ Nine reports were received from the 27 departments of the 
State Council; 13 reports were received from the 16 departments 
directly under the State Council; 5 reports were received from the 6 
State Council working organs; 11 reports were received from 14 
institutions directly under the State Council; 15 reports were received 
from 19 ministries and commissions directly under the State Council; no 
reports were received from the 29 coordinating agencies of the State 
Council; and 9 reports were received from the 31 provincial-level 
governments. China Transparency (Online), `` `Open Government 
Information Deadline' Has Arrived, Many Ministry Reports Are `Blank' '' 
[Zhengfu xinxi gongkai shixian dao hen duo bumen jiao ``baijuan''], 3 
April 09.
    \59\ See, e.g., State Council General Office Opinion Regarding 
Certain Issues in the Implementation of the ``PRC Open Government 
Information Regulations'' [Guowuyuan bangongting guanyu shishi 
``zhonghua renmin gongheguo zhengfu xinxi gongkai tiaoli''], issued 29 
April 08; ``China Commits to `Open Government Information' Effective 
May 1, 2008,'' CECC China Human Rights and Rule of Law Update, May 
2008, 2.
    \60\ See, e.g., ``Three Knotty Problems One Year After 
Implementation of Open Government Information--the Government Has a 
Headache and the Masses Are Disappointed'' [Sannan nanzhu zhengfu xinxi 
gongkai shishi yinian zhengfu toutong minzong shiwang], Economic 
Observer, reprinted in China Transparency (Online), 14 March 09; State 
Council General Office Opinion Regarding Certain Issues in the 
Implementation of the ``PRC Open Government Information Regulations'' 
[Guowuyuan bangongting guanyu shishi ``zhonghua renmin gongheguo 
zhengfu xinxi gongkai tiaoli''], issued 29 April 08; ``China Commits to 
`Open Government Information' Effective May 1, 2008,'' CECC China Human 
Rights and Rule of Law Update, May 2008, 2.
    \61\ Song Yuandan, Deng Jiangbo, Wu Xiaofang, ``Foshan Accepts 4 
Open Information Requests, Guangzhou Accepts 250,000? '' [Foshan shouli 
4 jian gongkai shenqing, guangzhou 25 wan jian?], Southern Metropolitan 
Daily, reprinted in China Transparency (Online), 6 April 09.
    \62\ ``Three Knotty Problems One Year After Implementation of Open 
Government Information--the Government Has a Headache and the Masses 
Are Disappointed'' [Sannan nanzhu zhengfu xinxi gongkai shishi yinian 
zhengfu toutong minzong shiwang], Economic Observer, reprinted in China 
Transparency (Online), 14 March 09.
    \63\ Ibid.
    \64\ ``Media Spokesperson System Takes Another Step Forward: 
Setting Up Zhongnanhai Media Spokesperson Feasible or Not?'' [Xinwen 
fayanren zhidu zai xiangqian: she zhongnanhai xinwen fayanren kexing 
fou], Outlook Weekly, reprinted in People's Daily (Online), 8 June 09.
    \65\ Wang Changyong, ``Facelift for China's Economic Stimulus 
Plan,'' Caijing (Online), 6 March 09.
    \66\ Joseph Fewsmith, ``Social Order in the Wake of Economic 
Crisis,'' China Leadership Monitor, Hoover Institution, Spring 2009, 
Vol. 28, 8.
    \67\ Chen Yongrong, ``Lawyer in Battle With Ministry Over 
Governmental Stimulus Plan,'' Xinhua, reprinted in China Elections and 
Governance (Online), 12 February 09.
    \68\ See, e.g., Jonathan Ansfield, ``Party Elders Press for Checks 
on China's Stimulus Plan,'' New York Times (Online), 3 March 09; Chen 
Yongrong, ``Lawyer in Battle With Ministry Over Governmental Stimulus 
Plan,'' Xinhua, reprinted in China Elections and Governance (Online), 
12 February 09.
    \69\ Chen Yongrong, ``Lawyer in Battle With Ministry Over 
Governmental Stimulus Plan,'' Xinhua, reprinted in China Elections and 
Governance (Online), 12 February 09.
    \70\ ``Credibility of China's Statistics Is Crucial,'' South China 
Morning Post (Online), 6 August 09.
    \71\ Martin Zhou, ``Change Sought To Make the GDP Figures Add Up,'' 
South China Morning Post (Online), 13 August 09. According to Xinhua, 
``National Bureau of Statistics (NBS) Director Li Deshui revealed in 
March 2005 that the cumulative gross domestic product data submitted by 
local governments was 3.9 percentage points higher than the National 
Bureau of Statistics data. The difference was nearly 2.66 trillion yuan 
[approximately US$389.4 billion].'' ``China Revises Statistics Law To 
Curb Data Falsification,'' Xinhua (Online), 27 June 09.
    \72\ ``China Revises Statistics Law To Curb Data Falsification,'' 
Xinhua (Online), 27 June 09.
    \73\ Jane Cai, ``Parts Greater Than the GDP Sum,'' South China 
Morning Post (Online), 4 August 09.
    \74\ ``China Revises Statistics Law To Curb Data Falsification,'' 
Xinhua (Online), 27 June 09.
    \75\ Transparency International (Online), Corruption Perceptions 
Index 2008.
    \76\ ``Wen: Corruption Still Serious Problem in Some Areas,'' China 
Daily (Online), 5 March 09.
    \77\ See, e.g., ``NPC/CPPCC Meetings: 181 Bureau-Level Officials 
Were Investigated and Punished Last Year'' [Zhongguo liangyuan: qunian 
chachu 181 juji gaoguan], Voice of America (Online), 10 March 09; Wu 
Zhong, ``Dark Days for China's Whistleblowers,'' Asia Times (Online), 
26 March 09.
    \78\ Wu Zhong, ``Dark Days for China's Whistleblowers,'' Asia Times 
(Online), 26 March 09.
    \79\ ``China Launches Website To Encourage Public Supervision of 
Official Appointment[s],'' Xinhua (Online), 26 February 09.
    \80\ ``Public Hearings: Driving Engine of Democracy in China,'' 
Xinhua (Online), 5 October 09. According to Article 42 of the PRC Law 
on Administrative Punishment, promulgated 17 March 96 and effective 1 
October 96, a qualified party may request a public hearing regarding 
orders to stop production, revocation of permits or licenses, and 
administrative fines. In the late 1990s and in the current decade, 
public hearing systems have been added to a variety of other 
administrative, legislative, and judicial laws and regulations. Peng 
Zongchao et al., Public Hearing Systems in China: Transparent 
Policymaking and Public Governance [Tingzheng zhidu: touming juece yu 
gonggong zhili], (Beijing: Qinghua University Press, 2004), 3. By the 
end of 2004, nearly one-third of China's provinces, cities, and 
district courts established a public hearing system in state 
compensation cases. Peng Zongchao et al., Public Hearing Systems in 
China: Transparent Policymaking and Public Governance [Tingzheng zhidu: 
touming juece yu gonggong zhili], (Beijing: Qinghua University Press, 
2004), 5. Authorities added public hearing systems to the PRC Law on 
Pricing in 1998. The State Council issued a directive in October 2008, 
stating that government agencies may ``hold hearings for issues subject 
to examination and approval which concern the major public interests or 
the vital interests of the people.'' Human Rights in China (Online), 
``Chinese Lawyer Challenges Filtering Software Order and Requests 
Public Hearing,'' 15 June 09.
    \81\ Colin Knox and Zhang Qun, ``Building Public Service-Oriented 
Government in China,'' 20 International Journal of Public Sector 
Management, No. 5, 449-464, (2007). One Chinese scholar remarked that 
``people are more willing to cooperate with the authorities in 
implementation of public policy if they can contribute to the policy-
making process.'' ``Public Hearings: Driving Engine of Democracy in 
China,'' Xinhua (Online), 5 October 09.
    \82\ ``Public Hearings: Driving Engine of Democracy in China,'' 
Xinhua (Online), 5 October 09.
    \83\ Local administrative bodies often depend on fines as revenue, 
which can lead to disorderly fining practices. ``Zhengzhou To `Timely 
Formulate' Administrative Hearing Measures; Prohibit Self-Collection 
and Use of Fines'' [Zhengzhou jiang ``shishi zhiding'' xingzheng 
tingzheng banfa jinzhi fakuan zishou zizhi], Oriental Daily, reprinted 
in Sina (Online), 25 November 08.
    \84\ Loretta Chao, ``Beijing Moves To End Tradition of Petitions,'' 
Wall Street Journal (Online), 22 August 09.
    \85\ ``Ningxia Held Its First Public Hearing for a `Persistent 
Petitioner' '' [Ningxia shouci wei ``lao shangfanghu'' zhaokai 
tingzhenghui], Xinhua (Online), 11 March 09.
    \86\ Human Rights in China (Online), ``Chinese Lawyer Challenges 
Filtering Software Order and Requests Public Hearing,'' 11 June 09.
    \87\ ``China To Improve Transparency of Public Hearings on Price 
Setting,'' Xinhua, reprinted in China Net (Online), 15 July 08.
    \88\ Government Price Setting Hearing Measures, issued 15 October 
08, effective 1 December 08.
    \89\ See, e.g., ``China To Improve Transparency of Public Hearings 
on Price Setting,'' Xinhua, reprinted in China Net (Online), 15 July 
08; Government Price Setting Hearing Measures, issued 15 October 08, 
effective 1 December 08, art. 14. Article 14 provides in relevant part 
that for both journalists and observers, the relevant department will 
select attendees based on the order in which they registered for the 
hearing, or through a random selection process.
    \90\ `` `Charter 08' Formal List of 16th Batch of Signatories,'' 
Charter 08 Web site (Online), 1 October 09.
    \91\ ``Charter 08'' [Ling ba xianzhang], reprinted in Independent 
Chinese Pen Center (Online), 9 December 08, translation by Perry Link, 
New York Review of Books (Online), 15 January 09.
    \92\ Ibid.
    \93\ ``China Activist Formally Arrested,'' BBC (Online), 24 June 
09.
    \94\ ``Many Pro-Democracy Dissidents in Shenzhen Under High-
Pressure Control'' [Shenzhen duo wei minzhu he yiyi renshi zao gaoya 
kongzhi], Radio Free Asia (Online), 17 March 09.
    \95\ ``Kyodo Focus: Debate on `Universal Values' Simmering in 
China,'' Kyodo World Service Report (Online), 23 March 09.
    \96\ Shi Jiangtao, ``Party Elders Urge Leaders To Take Steps 
Towards Political Reform,'' South China Morning Post (Online), 21 
February 09.
    \97\ ``Chinese Scholar Openly Calls for Amendment to Constitution, 
Seeks End to One-Party Rule'' [Zhongguo xuezhe gongkai huyu xiuxian 
gaobie yidangzhi], Voice of America (Online), 9 February 09.
    \98\ Cary Huang, ``Attack on One-Party Rule Makes Communist Party 
Sweat,'' South China Morning Post (Online), 8 August 09; Verna Yu, 
``Critic Leaves Beijing Red-Faced,'' Asia Times (Online), 2 September 
09; ``The Governing Party Needs To Establish Fundamental Political 
Ethics: A Talk by an Old Comrade on the Eve of the Sixtieth Anniversary 
of the Founding of the PRC'' [Zhizheng dang yao jianli jiben de 
zhingzhi lunli: guoqing 60 zhounian qianxi yi lao tongzhi de tanhua], 
Boxun (Online), 31 July 09.
    \99\ ``The Governing Party Needs To Establish Fundamental Political 
Ethics: A Talk by an Old Comrade on the Eve of the Sixtieth Anniversary 
of the Founding of the PRC'' [Zhizheng dang yao jianli jiben de 
zhingzhi lunli: guoqing 60 zhounian qianxi yi lao tongzhi de tanhua], 
Boxun (Online), 31 July 09.
    \100\ ``Hubei's Yao Lifa Is Warned Before June 4, Hong Kong 
Education Organization Organizes a June 4th Group'' [Hubei yao lifa 
liusi qian zao jinggao xianggang jiaoyu tuanti chengli liusi xiaozu], 
Radio Free Asia (Online), 7 May 09.
    \101\ Chinese Human Rights Defenders (Online), ``Election Expert 
Mr. Yao Lifa Detained at Shanghai Tangqiao Police Station'' [Xuanju 
zhuanjia yao lifa xiansheng bei kouya zai shanghai tangqiao paichusuo], 
11 July 09.
    \102\ ``Nine Democracy Activists Taken Away by Police in Guangzhou 
While Hiking in the Mountains'' [Guangzhou jiu minzhu renshi dengshan 
youwan bei jingcha daizou], Radio Free Asia (Online), 18 July 09.
    \103\ Chinese Human Rights Defenders (Online), ``Hubei Democracy 
Activist Hu Junxiong Is Taken Away Again by State Security Officers'' 
[Hubei minzhu renshi hu junxiong, zaici bei guo'an jingcha daizou], 15 
March 09.
    \104\ Hu Junxiong has promoted democratic ideas since at least 
1998. Chinese Human Rights Defenders (Online), ``Hubei Democracy 
Activist Hu Junxiong Is Taken Away Again by State Security Officers'' 
[Hubei minzhu renshi hu junxiong, zaici bei guo'an jingcha daizou], 15 
March 09.
    \105\ PRC Criminal Law, enacted 1 July 79, amended 14 March 97, 
effective 1 October 97, amended 25 December 99, 31 August 01, 29 
December 01, 28 December 02, 28 February 05, 29 June 06, 28 February 
09, art. 105.
    \106\ Human Rights in China (Online), ``Xie Changfa Receives Severe 
Sentence of 13 Years' Imprisonment for Organizing Political Party,'' 1 
September 09; Chinese Human Rights Defenders (Online), ``Defense 
Statement Given in First Instance Trial of Hunan Democracy Activist Xie 
Zhangfa on Charges of `Subversion of State Power,' '' 30 April 09.
    \107\ Human Rights in China (Online), ``Xie Changfa Receives Severe 
Sentence of 13 Years' Imprisonment for Organizing Political Party,'' 1 
September 09.
    \108\ Chinese Human Rights Defenders (Online), ``June 4th Leader 
Zhou Yongjun's Illegal Secret Detention Exceeds Limit and Continues'' 
[Liusi lingxiu zhou yongjun bei mimi feifa chaoqi guanya yixu], 28 
April 09.
    \109\ ``Lawyers Appeal Over Dissident,'' Radio Free Asia (Online), 
21 September 09; ``[19]89 Student Leader Zhou Yongjun Arrested for 
Financial Fraud'' [Bajiu xueyun lingxiu zhou yongjun yi jingji 
zhapianzui beibu], Radio Free Asia (Online), 12 May 09.
    \110\ ``Lawyers Appeal Over Dissident,'' Radio Free Asia (Online), 
21 September 09.
    \111\ Chinese Human Rights Defenders (Online), ``June 4th Leader 
Zhou Yongjun's Illegal Secret Detention Exceeds Limit and Continues'' 
[Liusi lingxiu zhou yongjun bei mimi feifa chaoqi guanya yixu], 28 
April 09.
    \112\ ``[19]89 Student Leader Zhou Yongjun Arrested for Financial 
Fraud'' [Bajiu xueyun lingxiu zhou yongjun yi jingji zhapianzui beibu], 
Radio Free Asia (Online), 12 May 09; ``[19]89 Democracy Movement 
Student Leader Zhou Yongjun Held by Authorities for More Than Seven 
Months'' [Bajiu minyun lingxiu zhou yongjun bei dangju guanya chaoguo 
qigeyue], Boxun (Online), 29 April 09.
    \113\ Tania Branigan, ``Tiananmen Square Leader Arrested, Family 
Says,'' Guardian (Online), 13 May 09; Michael Wines, ``China Holds an 
Ex-Leader of '89 Rallies, Family Says,'' New York Times (Online), 14 
May 09.
    \114\ ``Lawyers Appeal Over Dissident,'' Radio Free Asia (Online), 
21 September 09.

    Notes to Section III--Commercial Rule of Law
    \1\ A complete and up-to-date compilation of information on China's 
participation in the World Trade Organization [hereinafter WTO], 
including principal accession documents (Working Party report, protocol 
of accession, General Council decision), schedules, trade policy 
reviews and dispute case documents can be found at the WTO Web site at 
www.wto.org.
    \2\ CECC, 2008 Annual Report, 31 October 08, 160-162.
    \3\ Keith Bradsher, ``Despite Trade Rulings, Beijing Gains From 
Delay,'' New York Times (Online), 30 August 09.
    \4\ World Bank (Online), The Doing Business Project, ``Doing 
Business: Measuring Business Regulations.''
    \5\ Ibid.
    \6\ He Xin, Foundation for Law, Justice and Society (Online), ``The 
Enforcement of Commercial Judgments in China,'' 2008; He Xin, ``Formal 
Contract Enforcement and Economic Development in Urban and Rural 
China,'' Paper prepared for New York University Conference on Law, 
Commerce, and Development, 11-12 April 08; Steve Dickinson, ``Enforcing 
Contracts in China. Way, Way Better Than You Think,'' China Law Blog 
(Online), 13 July 09. (``Chinese companies have an unfortunate tendency 
to ignore contract terms in dealing with foreigners. They do this not 
so much because they believe they can prevail in any eventual lawsuit, 
but rather, because they assume [too often rightfully] that the 
foreigner will not sue. This leads them to believe they can violate 
contract terms with little risk. . . . Many contracts entered into by 
foreigners are simply unenforceable in China. A typical unenforceable 
contract is not written in Chinese, not subject to Chinese law and 
provides for enforcement outside of China. Such contracts are truly 
usually not worth the paper on which they are written, but this is not 
due to a defect in China's legal system. . . . Many contracts are too 
vague to allow for effective action by the courts. The Chinese courts 
are good at enforcing simple, clear contracts where the standards for 
default are objective and where the penalty requires little analysis. 
The Chinese courts are not good at making a contract for the parties, 
as is common in the U.S. and English legal systems. It is therefore 
essential to use contracts in a way that will produce a good result in 
court. . . . Given the other obstacles and difficulties the Chinese 
system poses for foreign investors, it is really a big mistake not to 
take advantage of the Chinese court system for enforcement of 
contracts.'')
    \7\ Ibid.
    \8\ Supreme People's Court, Interpretation Related to Questions 
Arising in Connection With Implementation of the PRC Contract Law 
[Zuigao renmin fayuan guanyu shiyong ``Zhonghua renmin gongheguo 
hetongfa'' ruogan wenti de jieshi], issued 9 February 09, effective 13 
May 09, arts. 26, 29; Hans-Gunther Herrmann and Tian Tian, ``Supreme 
Court Interpretation Brings Major Changes to China's Contract Law,'' 
Paul Weiss China Update (Online), 26 June 09.
    \9\ Dan Harris, ``China Sex, Mistresses, and Improper Payments, and 
What They Mean for Your China Business Litigation,'' China Law Blog 
(Online), 31 May 09. (``Chinese courts tend to give large account to 
what is `fair,' not just to what the law says. This means that if a 
Chinese company is late on a contract because its own supplier was late 
in delivering it a necessary component part, the Chinese court may very 
well excuse the delay. This means that if the price of a necessary 
component part jumps precipitously, a Chinese court might very well 
excuse the Chinese supplier for substituting in a cheaper part. Many 
times, Westerners ascribe Chinese court rulings to corruption, when 
they very well might have been due to equity. If you have a dispute 
that may be heading to a Chinese court or to arbitration before a 
Chinese arbitration, think long and hard about the equities involved, 
not just the law.'')
    \10\ Supreme People's Court, Interpretation Related to Questions 
Arising in Connection With Implementation of the PRC Contract Law 
[Zuigao renmin fayuan guanyu shiyong ``Zhonghua renmin gongheguo 
hetongfa'' ruogan wenti de jieshi], issued 9 February 09, effective 13 
May 09.
    \11\ ``No Business Without Contracts,'' China Law and Practice 
(Online), June 2009.
    \12\ PRC Contract Law, issued 15 March 99, effective 1 October 99, 
art. 10.
    \13\ Supreme People's Court, Interpretation Related to Questions 
Arising in Connection With Implementation of the PRC Contract Law 
[Zuigao renmin fayuan guanyu shiyong ``Zhonghua renmin gongheguo 
hetongfa'' ruogan wenti de jieshi], issued 9 February 09, effective 13 
May 09, art. 2.
    \14\ PRC Contract Law, enacted 15 March 99, effective 1 October 99.
    \15\ Supreme People's Court, Interpretation Related to Questions 
Arising in Connection With Implementation of the PRC Contract Law 
[Zuigao renmin fayuan guanyu shiyong ``Zhonghua renmin gongheguo 
hetongfa'' ruogan wenti de jieshi], issued 9 February 09, effective 13 
May 09, art. 6.
    \16\ Supreme People's Court (Online), Several Regulations Regarding 
Handling of the Searchable Database of Parties Subject to Enforcement 
Orders of Courts Nationwide [Zuigao renmin fayuan guanyu quanguo fayuan 
bei zhixing ren xinxi chaxun pingtai xinxi yiyi chuli de ruogan 
guiding], effective 30 March 09; Supreme People's Court (Online), 
Supreme People's Court's Declaration Regarding the Use of Nationwide 
Searchable Database of Parties Subject to Enforcement Orders of Courts 
[Zuigao renmin fayuan guanyu quanguo fayuan bei zhixing ren shiyong 
xinxi chaxun shiyong shenming], 30 March 09.
    \17\ ``Nowhere To Hide for Judgment Debtors,'' China Law and 
Practice (Online), July/August 2009.
    \18\ Xie Chuanjiao, ``Court Launches Website Showing Who Hasn't 
Paid,'' China Daily (Online), 31 March 09. Descriptions of the size of 
the database vary. See, e.g., Ye Doudou, ``Supreme People's Court 
Launches Judgment Debtor Searchable Database System'' [Zuigaofa kaitong 
``bei zhixing ren xinxi chaxun'' xitong], Caijing (Online), 30 March 
09.
    \19\ Xie Chuanjiao, ``Court Launches Website Showing Who Hasn't 
Paid,'' China Daily (Online), 31 March 09.
    \20\ Commission staff found that some records contained fields that 
were incompletely or incorrectly filled out (e.g., registration numbers 
containing fewer than the nine-digit minimum, thus rendering them 
unsearchable by that field; incomplete names of organizations, such as 
records showing the name of the debtor simply as ``Beijing'' or 
``China''). These problems do not necessarily reflect deficiencies in 
the implementation of the new database, per se. They might instead 
reflect a good faith effort to post online all hard records, including 
those for which information on file is incomplete.
    \21\ ``Forum shopping'' refers to situations in which the law 
permits litigants to pursue a claim in more than one court or other 
adjudicatory forum, and litigants base their choice of forum in whole 
or in part on the different expected probabilities of prevailing in 
particular forums.
    \22\ PRC Criminal Law, enacted 1 July 79, amended 14 March 97, 
effective 1 October 97, amended 25 December 99, 31 August 01, 29 
December 01, 28 December 02, 28 February 05, 29 June 06, 28 February 
09, arts. 140-231.
    \23\ Ibid., arts. 158-169.
    \24\ Ibid., arts. 140-150; Steve Dickinson, ``Criminal Law and 
Business in China--A Strong Caution,'' China Law Blog (Online), 22 
March 06.
    \25\ Ibid., arts. 192-200, 221-231.
    \26\ ``Economic Crime: People, Culture & Controls,'' The 4th 
Biennial Global Economic Crime Survey, Industrial Manufacturing 
Industry Supplement, Pricewaterhouse Coopers (Online), 2008, 4; Qian 
Yanfeng, ``Economic Crime on Rise, Firms Warned,'' China Daily 
(Online), 20 February 09; Steve Dickinson, ``Criminal Law and Business 
in China--A Strong Caution,'' China Law Blog (Online), 22 March 06.
    \27\ Steve Dickinson, ``Criminal Law and Business in China--A 
Strong Caution,'' China Law Blog (Online), 22 March 06.
    \28\ Ibid.
    \29\ Andrew Batson and Lyndal McFarland, ``China Rio Tinto Case 
Risks Sending a Chill,'' Wall Street Journal (Online), 13 July 09; 
David Barbosa, ``China's Detentions of Executives Rattle Investors,'' 
New York Times (Online), 12 July 09; Steve Dickinson, ``China's Rio 
Tinto Arrests. Everyone Just Move Along . . .,'' China Law Blog 
(Online), 14 July 09.
    \30\ See, e.g., M.P. McQueen, ``The Prisoners of Drywall,'' Wall 
Street Journal (Online), 7 August 09; Lisa Stark and Kate Barrett, 
``Contaminant Found in Heparin,'' ABC News (Online), 5 March 08.
    \31\ For background, see also CECC, 2008 Annual Report, 31 October 
08, 157-158.
    \32\ CECC, 2008 Annual Report, 31 October 08, 157-58.
    \33\ ``China Court Accepts First Milk Scandal Lawsuit: State 
Media,'' Agence France-Presse, reprinted in AsiaOne (Online), 25 March 
09.
    \34\ ``Authorities Pressure Lawyers, Prevent Courts From Handling 
Milk Cases,'' Congressional-Executive Commission on China (Online), 26 
November 08.
    \35\ PRC General Principles of Civil Law, enacted 12 April 86, 
effective 1 January 87.
    \36\ PRC Product Quality Law, enacted 22 February 93, effective 1 
September 93, amended 8 July 00, effective 1 September 00.
    \37\ PRC Consumer Rights Protection Law, enacted 31 October 93, 
effective 1 January 94.
    \38\ PRC Food Safety Law, enacted 28 February 09, effective 1 June 
09.
    \39\ PRC Criminal Law, enacted 1 July 79, amended 14 March 97, 
effective 1 October 97, amended 25 December 99, 31 August 01, 29 
December 01, 28 December 02, 28 February 05, 29 June 06, 28 February 
09, arts. 140-150.
    \40\ PRC Agricultural Product Quality Safety Law, enacted 29 April 
06, effective 1 November 06.
    \41\ State Council Special Provisions on Strengthening Supervision 
and Management of Food Safety [Guowuyuan guanyu jiaqiang shipin deng 
chanpin anquan jiandu guanli de tebie guiding], issued and effective 26 
July 07.
    \42\ ``China Issues Emergency Plan Against Major Food Safety 
Accidents,'' Xinhua, reprinted in People's Daily (Online), 27 February 
06.
    \43\ PRC Food Safety Law, enacted 28 February 09, effective 1 June 
09.
    \44\ PRC Food Hygiene Law, adopted and effective 30 October 1995. 
Superseded by PRC Food Safety Law, adopted 28 February 09, effective 1 
June 09.
    \45\ PRC Food Safety Law, enacted 28 February 09, effective 1 June 
09, art. 4.
    \46\ Ibid., arts. 93, 98.
    \47\ Ibid., arts. 81, 84-91, 97.
    \48\ Ibid., arts. 84-86, 94.
    \49\ Ibid., art. 96.
    \50\ Ibid., ch. 2.
    \51\ Ibid., ch. 3.
    \52\ Ibid., chs. 2, 4, 5.
    \53\ Ibid., art. 60.
    \54\ PRC Food Safety Law, enacted 28 February 09, effective 1 June 
09, arts. 53, 72, 85. Consistent with similar provisions in the State 
Administration of Quality Supervision, Inspection and Quarantine 
Administrative Regulations on Food Recalls, issued August 2007, and in 
the State Administration of Quality Supervision, Inspection and 
Quarantine Administrative Regulations on Toy Recalls, issued August 
2007.
    \55\ PRC Food Safety Law, enacted 28 February 09, effective 1 June 
09, ch. 7; Steven M. Dickinson, ``Food Fumble: China Can't Regulate 
Away Its Safety Problems,'' Wall Street Journal (Online), 3 March 09.
    \56\ Implementing Regulations for the PRC Food Safety Law [Zhonghua 
renmin gongheguo shipin anquan fa shishi tiaoli], issued and effective 
25 July 09, arts. 4-12.
    \57\ Steven M. Dickinson, ``Food Fumble: China Can't Regulate Away 
Its Safety Problems,'' Wall Street Journal (Online), 3 March 09.
    \58\ See, e.g., M.P. McQueen, ``The Prisoners of Drywall,'' Wall 
Street Journal (Online), 7 August 09; Lisa Stark and Kate Barrett, 
``Contaminant Found in Heparin,'' ABC News (Online), 5 March 08.
    \59\ Hague Conference on Private International Law (Online), 
Convention of 15 November 1965 on Service Abroad of Judicial and 
Extrajudicial Documents in Civil and Commercial Matters, 15 November 
65.
    \60\ Patricia Blazey and Peter Gillies, ``Recognition and 
Enforcement of Foreign Judgments in China,'' International Journal of 
Private Law, Vol. 1, No. 3/4, 333-342 (2008); Ariel Ye, ``Enforcement 
of Foreign Arbitral Awards and Foreign Judgments in China,'' Defense 
Counsel Journal (Online), 1 July 07; Dan Harris, ``Suing Chinese 
Drywall Manufacturers. Why All the Bother? '' China Law Blog (Online), 
24 July 09; Dan Harris, ``Chinese Drywall Cases. Show Me the Money! '' 
China Law Blog (Online), 21 April 09. (``U.S. judgments are of 
virtually no value in China. Put simply, Chinese courts simply do not 
recognize them for anything. They cannot be converted to a Chinese 
judgment and they are not even evidence of anything.'')
    \61\ UN Commission on International Trade Law (UNCITRAL) (Online), 
UN Conference on International Commercial Arbitration, Convention on 
the Recognition and Enforcement of Foreign Arbitral Awards, issued 10 
June 58; Dan Harris, ``Enforcing Foreign Judgments in China--Let's Sue 
Twice,'' China Law Blog (Online), 25 March 06.
    \62\ Dune Lawrence and Luo Jun, ``China Says 432 Infants Have 
Kidney Stones From Sanlu Formula,'' Bloomberg (Online), 13 September 
08. The PRC General Administration of Quality Supervision, Inspection 
and Quarantine (AQSIQ) released in September 2008 a set of draft 
regulations for establishing a nationwide product recall system, AQSIQ 
Regulations for Management of Defective Product Recall: Comment Draft 
[Quexian chanpin zhaohui guanli tiaoli (zhengqiu yijian gao)], 18 
September 08. This draft regulation is based on the regulations 
concerning the recall of defective automobiles jointly issued in 2004 
by AQSIQ, the National Development and Reform Commission, Ministry of 
Commerce, and General Customs Administration, Regulations for Recall of 
Defective Automobiles [Quexian qiche chanpin zhaohui guanli guiding], 
issued 12 March 04, effective 1 October 04.
    \63\ Dan Harris, ``Defective Product Recalls in China. What's That? 
'' China Law Blog (Online), 16 June 09.
    \64\ Steven M. Dickinson, ``Food Fumble: China Can't Regulate Away 
Its Safety Problems,'' Wall Street Journal (Online), 3 March 09; Dan 
Harris, ``Defective Product Recalls In China. What's That? '' China Law 
Blog (Online), 16 June 09.
    \65\ ``Communicating Changes,'' China Law and Practice (Online), 
May 2009.
    \66\ Ministry of Industry and Information Technology, Measures for 
the Administration of Permission To Provide Telecommunications Services 
[Dianxin yewu jingying xuke guanli banfa], issued 1 March 09, effective 
10 April 09.
    \67\ Ibid., art. 27.
    \68\ Ibid., art. 27, para. (4).
    \69\ ``Communicating Changes,'' China Law and Practice (Online), 
May 2009.
    \70\ Ibid.
    \71\ State Intellectual Property Office (Online), ``Grants for 
Three Kinds of Patents Received From Home and Abroad (year)--2009,'' 
last visited 2 August 09; State Intellectual Property Office (Online), 
``Grants for Three Kinds of Patents Received From Home and Abroad 
(year)--2008,'' last visited 2 August 09; State Intellectual Property 
Office (Online), ``Applications for Three Kinds of Patents Received 
From Home and Abroad (year)--2008,'' last visited 2 August 09; Joff 
Wild, ``Major Breakthrough for Chinese Companies in the Patenting 
Stakes,'' IAM (Intellectual Asset Management) Magazine Blog (Online), 
22 July 09.
    \72\ Ibid.
    \73\ Ibid.
    \74\ ``Not Enough,'' China Daily, reprinted in State Intellectual 
Property Office (Online), 18 February 08; State Intellectual Property 
Office (Online), ``Grants for Three Kinds of Patents Received From Home 
and Abroad (year)--2009,'' last visited 2 August 09; State Intellectual 
Property Office (Online), ``Grants for Three Kinds of Patents Received 
From Home and Abroad (year)--2008,'' last visited 2 August 09; State 
Intellectual Property Office (Online), ``Applications for Three Kinds 
of Patents Received From Home and Abroad (year)--2008,'' last visited 2 
August 09; Joff Wild, ``Major Breakthrough for Chinese Companies in the 
Patenting Stakes,'' IAM (Intellectual Asset Management) Magazine Blog 
(Online), 22 July 09; ``The Tasks of Tian,'' Managing Intellectual 
Property, February 2009, reprinted in China Law and Practice (Online), 
April 2009.
    \75\ ``The Tasks of Tian,'' Managing Intellectual Property, 
February 2009, reprinted in China Law and Practice (Online), April 
2009.
    \76\ ``China To Build 100 IP Assistance Centers,'' Intellectual 
Property Protection in China (Online), 9 February 09.
    \77\ Ibid.
    \78\ ``The Tasks of Tian,'' Managing Intellectual Property, 
February 2009, reprinted in China Law and Practice (Online), April 
2009.
    \79\ PRC Patent Law, enacted 12 March 84, amended 4 September 92, 
25 August 00, 27 December 08, effective 1 October 09.
    \80\ State Council, Outline of the National Intellectual Property 
Strategy [Guojia zhishi chanquan zhanlue gangyao], 5 June 08. Besides 
the amendments to the PRC Patent Law, legislative and regulatory 
developments related to the national strategy during the Commission's 
2009 reporting year include: Supreme People's Court, Opinion on Several 
Issues Concerning the Thorough Implementation of the State Intellectual 
Property Strategy [Zuigao renmin fayuan guanyu guanche shishi guojia 
zhishi chanquan zhanlue ruogan wenti de yijian], 30 March 09 (focusing 
mainly on civil and criminal enforcement of intellectual property 
rights before the courts).
    \81\ State Council, Outline of the National Intellectual Property 
Strategy [Guojia zhishi chanquan zhanlue gangyao], 5 June 08, English 
translation reprinted in State Intellectual Property Office (Online), 5 
June 08, para. 6.
    \82\ ``The Tasks of Tian,'' Managing Intellectual Property, 
February 2009, reprinted in China Law and Practice (Online), April 
2009.
    \83\ State Intellectual Property Office (Online), ``Grants for 
Three Kinds of Patents Received From Home and Abroad (year)--2009,'' 
last visited 2 August 09; State Intellectual Property Office (Online), 
``Grants for Three Kinds of Patents Received From Home and Abroad 
(year)--2008,'' last visited 2 August 09; State Intellectual Property 
Office (Online), ``Applications for Three Kinds of Patents Received 
From Home and Abroad (year)--2008,'' last visited 2 August 09.
    \84\ ``The Tasks of Tian,'' Managing Intellectual Property, 
February 2009, reprinted in China Law and Practice (Online), April 
2009.
    \85\ Ibid.
    \86\ Ibid., describing remarks made by Zhang Tianan, a practicing 
Chinese patent attorney, former editor-in-chief of China Patents and 
Trademarks, and currently vice president of CCPIT Patent and Trademark 
Law Office.
    \87\ Joff Wild, ``Major Breakthrough for Chinese Companies in the 
Patenting Stakes,'' IAM (Intellectual Asset Management) Magazine Blog 
(Online), 22 July 09; ``Not Enough,'' China Daily, reprinted in State 
Intellectual Property Office (Online), 18 February 08.
    \88\ See, e.g., Lisa Haile, ``Update on Patent Law Revisions in 
China: New Amendments Predicted To Affect Intellectual Property 
Protection,'' Genetic Engineering & Biotechnology News, Vol. 29, No. 1, 
1 January 09. (``What is more disconcerting is the proposal to grant a 
compulsory license, upon request, for the use of a patented invention 
if the patent owner, `without any legitimate reason,' has not 
`adequately practiced the patented invention for three years after 
issuance of the patent. . . .' This section of the compulsory license 
amendment may be especially prejudicial for the biotechnology industry. 
Consider the typical situation where a technology is under development 
and a patent application is filed in the USA, followed by a Patent 
Cooperation Treaty (PCT) application, and then later filed in China. In 
many instances, the claims that are issued or granted in a patent (the 
patented invention) are not actually practiced at the time of the 
patent grant or even within three years of the patent grant. Should 
companies consider setting up a small clinical trial in China as soon 
as the Chinese patent is granted? Would that qualify as adequately 
practicing the claimed invention? The ambiguity in the language of this 
proposed amendment, combined with the potential impact of patentees 
losing rights in China for inventive contributions as determined by the 
SIPO makes this section particularly disturbing for life sciences 
companies seeking patent protection in China.''); Ronald A. Cass, 
``Patent Reform With Chinese Characteristics,'' Wall Street Journal 
(Online), 10 February 09.
    \89\ PRC Patent Law, enacted 12 March 1984, amended 4 September 92, 
25 August 00, 27 December 08, effective 1 October 09, arts. 48-50.
    \90\ Ronald A. Cass, ``Patent Reform With Chinese 
Characteristics,'' Wall Street Journal (Online), 10 February 09.
    \91\ Ibid.
    \92\ Lisa Haile, ``Update on Patent Law Revisions in China: New 
Amendments Predicted To Affect Intellectual Property Protection,'' 
Genetic Engineering & Biotechnology News, Vol. 29, No. 1, 1 January 09.
    \93\ Ronald A. Cass, ``Patent Reform With Chinese 
Characteristics,'' Wall Street Journal (Online), 10 February 09.
    \94\ World Trade Organization (Online), DS362, China--Measures 
Affecting the Protection and Enforcement of Intellectual Property 
Rights, Constitution of the Panel Established at the Request of the 
United States, Note by the Secretariat, WTO Doc. No. 07-5564, 13 
December 07; United States Trade Representative (USTR) (Online), ``WTO 
Case Challenging Weaknesses in China's Legal Regime for Protection and 
Enforcement of Copyrights and Trademarks,'' Trade Delivers, April 2007; 
USTR (Online), ``United States Files WTO Cases Against China Over 
Deficiencies in China's Intellectual Property Rights Laws and Market 
Access Barriers to Copyright-Based Industries,'' 9 April 07; World 
Trade Organization (Online), DS362, China--Measures Affecting the 
Protection and Enforcement of Intellectual Property Rights, 
Communication From the Chairman of the Panel, WTO Doc. No. 08-3478, 18 
July 08.
    \95\ World Trade Organization (Online), DS362, China--Measures 
Affecting the Protection and Enforcement of Intellectual Property 
Rights, Report of the Panel, WT/DS362/R, 26 January 09. See also ``WTO-
China IPR Case: A Mixed Result,'' China Law and Practice (Online), 
March 2009.
    \96\ PRC Copyright Law, enacted 7 September 90, amended 27 October 
01, art. 4(1)--``works the publication or distribution of which is 
prohibited by law shall not be protected by this Law.''
    \97\ World Trade Organization (Online), DS362, China--Measures 
Affecting the Protection and Enforcement of Intellectual Property 
Rights, Report of the Panel, WT/DS362/R, 26 January 09, paras. 7.72-
7.82. China defended its denial of copyright protection for prohibited 
works under Article 17 of the Berne Convention, which is incorporated 
by reference into TRIPS and which allows a government to ``permit, to 
control, or to prohibit . . . the circulation, presentation, or 
exhibition of any work . . . in regard to which the competent authority 
may find it necessary to exercise that right.'' But the WTO panel 
disagreed that Article 17 authorizes the denial of all copyright 
protection in any work. (WTO Panel Report, China--IPR, para. 7.127). It 
found that, while a government's rights under Article 17 may interfere 
with the exercise of certain rights by the copyright owner, censorship 
cannot legally eliminate those rights entirely for a particular work. 
(WTO Panel Report, China--IPR, para. 7.132.) See ``WTO-China IPR Case: 
A Mixed Result,'' China Law and Practice (Online), March 2009.
    \98\ State Council, Outline of the National Intellectual Property 
Strategy [Guojia zhishi chanquan zhanlue gangyao], 5 June 08, para. 8.
    \99\ Steve Dickinson, ``The WTO, China's Media, Copyrights and 
Other IP. It's a Control Thing,'' China Law Blog (Online), 9 February 
09; Tina Wang, ``U.S. Talks Up WTO Piracy Ruling, But It's All Wind,'' 
Forbes (Online), 27 January 09.
    \100\ World Trade Organization, DS363, China--Measures Affecting 
Trading Rights and Distribution Services For Certain Publications and 
Audiovisual Entertainment Products, Report of the Panel, WT/DS363/R, 12 
August 09.
    \101\ World Trade Organization, DS363, China--Measures Affecting 
Trading Rights and Distribution Services for Certain Publications and 
Audiovisual Entertainment Products, Request for Consultations by the 
United States, WT/DS363/1, WTO Doc. No. 07-1499, 16 April 07.
    \102\ National Development and Reform Commission and Ministry of 
Commerce, Catalogue for the Guidance of Foreign Investment Industries 
[Wai shang touzi chanye zhidao mulu], Catalogue of Industries in Which 
Foreign Investment Is Prohibited [Jinzhi waishang touzi chansheng 
mulu], issued 31 October 07, effective 11 December 07, arts. 10(2) and 
10(3).
    \103\ Regulations on the Administration of Publishing [Chuban 
guanli tiaoli], issued 12 December 01, effective 1 February 02, arts. 
41-42; Regulations Regarding Management of Films [Dianying guanli 
tiaoli], issued 25 December 01, effective 1 February 02, art. 30.
    \104\ Ministry of Commerce and Ministry of Culture, Measures for 
the Management of Chinese-Foreign Joint Ventures for the Distribution 
of Audiovisual Products [Zhong wai hezuo yinxiang zhipin fenxiao qiye 
guanli banfa], issued 18 December 03, effective 1 January 04, art. 
8(4).
    \105\ Ministry of Culture, State Administration of Radio, Film and 
Television, General Administration for Press and Publication, National 
Development and Reform Commission, and Ministry of Commerce, Circular 
on Several Opinions Concerning the Introduction of Foreign Capital Into 
the Cultural Sector [Guanyu wenhua lingyu yinjin waizi de ruogan yijian 
de tongzhi], issued 6 July 05, art. 4.
    \106\ ``A Clearer Road for Insurers,'' China Law and Practice 
(Online), April 2009; ``A Long Wait for a Quick Insurance Fix,'' China 
Law and Practice (Online), April 2009.
    \107\ PRC Insurance Law, enacted 30 June 95, amended 28 October 02, 
amended 28 February 09, effective 1 October 09, arts. 22-24.
    \108\ Ibid., art. 16, paras. 1-2.
    \109\ Ibid., art. 16, paras. 2-3.
    \110\ Ibid., art. 16, para. 6.
    \111\ Estoppel prevents a party from adopting a position, action, 
or attitude inconsistent with an earlier position if the new position 
would result in an injury to another person.
    \112\ See, e.g., ``A Long Wait for a Quick Insurance Fix,'' China 
Law and Practice (Online), April 2009. (``In the past, some insurance 
companies would issue a policy to bring in revenue, despite knowing 
that the insured person had a disease such as cancer, says (Luming) 
Chen (of Jones Day, Shanghai), for example. `They still issued the 
policy and then refused to pay out on the basis that cancer is not 
insurable.' The new clause prohibits the insurer from terminating the 
insurance contract if it `was aware that the proposer failed to provide 
truthful information' when entering into the contract.'').
    \113\ PRC Insurance Law, enacted 30 June 95, amended 28 October 02, 
amended 28 February 09, effective 1 October 09, art. 17.
    \114\ Ibid.
    \115\ For an overview of questions raised by the law as amended, 
see also ``A Long Wait for a Quick Insurance Fix,'' China Law and 
Practice (Online), April 2009.
    \116\ PRC Insurance Law, enacted 30 June 95, amended 28 October 02, 
amended 28 February 09, effective 1 October 09, art. 8.
    \117\ Ibid., art. 95(3). (``An insurer may not concurrently engage 
in personal insurance business and property insurance business. 
However, an insurance company engaging in property insurance business 
may, with the approval of the State Council's insurance regulatory 
authority, engage in short-term health insurance business and 
accidental injury insurance business.'')
    \118\ Ibid., arts. 81-83, 85.
    \119\ Ibid., arts. 85-88.
    \120\ State Administration for Industry and Commerce (Online), 
Publication of Statistical Analysis: 2009 First Quarter Report of Basic 
Situation in the Enforcement of Competition Law [Tongji fenxi fabu: 
2009 niandu di yijidu jingzheng zhifa jiben qingkuang], 13 May 09; 
State Administration for Industry and Commerce (Online), Publication of 
Statistical Analysis: 2009 First Quarter Report on the Development of 
National Market Players [Tongji fenxi fabu: 2009 nian yijidu quanguo 
shichang zhuti fazhan baogao], 11 May 09.
    \121\ ``The First Steps Toward Economic Analysis of the Anti-
Monopoly Law,'' China Law and Practice (Online), March 2009; see also 
``Competition Enforcement Under Old Laws Is Declining,'' China Law and 
Practice (Online), June 2009.
    \122\ Qin Xudong, ``Court Accepts Anti-Monopoly Case Against China 
Mobile'' [Fayuan shouli zhongguo yidong beisu longduan an], Caijing 
(Online), 30 March 09. For the legal basis of plaintiff's claims, see 
PRC Antimonopoly Law, enacted 30 August 07, effective 1 August 08, 
especially art. 17.
    \123\ ``China's First Domestic Anti-Monopoly Case Filed: China 
Netcom Becomes First Defendant'' [Guonei shouqi fanlongduan su gong 
anli an: wangtong cheng di yi bei gao], ChinaNews, reprinted in Xinhua 
(Online), 17 September 08.
    \124\ Qin Xudong, ``Baidu Sued for Anti-Monopoly in Court of First 
Instance'' [Baidu bei su longduan an yi shen kaiting], Caijing 
(Online), 22 April 09; ``Baidu Sued for Monopoly,'' Caijing (Online), 
23 April 09. In a case filed with Beijing No. 1 Intermediate People's 
Court by Tangshan Renren Information Service Company, Baidu allegedly 
had ``monopolized the Chinese search engine market'' and had 
``blacklisted'' a subsidiary after it altered advertising arrangements. 
Wang Huazhong, ``Baidu Under Attack Over `Monopoly,' '' China Daily 
(Online), 23 April 09; Mao Lijun, ``Baidu in Dock Over Alleged 
Blacklisting,'' China Daily (Online), 1 June 09.
    \125\ ``China Mobile Sued on Anti-Monopoly Grounds,'' China Law and 
Practice (Online), April 2009. For the legal basis of plaintiffs' 
claims, see PRC Antimonopoly Law, enacted 30 August 07, effective 1 
August 08, especially art. 17.
    \126\ Ibid.; ``Baidu Is Latest To Be Sued Under Anti-Monopoly 
Law,'' China Law and Practice (Online), May 2009; Zhan Hao, ``The Role 
of SAIC in Enforcement of the Anti-Monopoly Law,'' China Law and 
Practice (Online), February 2009.
    \127\ Qin Xudong, ``State Administration of Industry and Commerce 
Issues Antimonopoly Law Procedural Provisions'' [Gongshang zongju chu 
tai fan longduan zhifa chengxu guiding], Caijing (Online), 8 June 09.
    \128\ State Administration for Industry and Commerce, Procedural 
Rules Regarding Prohibition of Abuse of Administrative Power for the 
Purpose of Eliminating or Restricting Competition [Gongshang xingzheng 
guanli jiguan zhizhi jian yong xingzheng quanli paichu, xianzhi 
jingzheng xingwei chengxu guiding], issued 5 June 09, effective 1 July 
09.
    \129\ State Administration for Industry and Commerce, Procedural 
Rules Regarding Investigation and Handling of Cases Relating to 
Monopoly Agreement and Abuse of Dominant Market Position [Gong shang 
xingzheng guanli jiguan chachu longduan xieyi, jianyong shichang zhipei 
diwei anjian chengxu guiding], issued 5 June 09, effective 1 July 09.
    \130\ For a comprehensive overview of the new procedural 
provisions, see, e.g., Peter Wang, Yizhe Zhang, H. Stephen Harris, Jr., 
and Mark Allen Cohen, ``Chinese Antitrust Authority Publishes New 
Procedural Rules for Non-Merger Investigations,'' Jones Day (Online), 
11 June 09.
    \131\ State Administration for Industry and Commerce, Procedural 
Provisions Regarding Investigation and Handling of Cases Relating to 
Monopoly Agreement and Abuse of Dominant Market Position [Gong shang 
xingzheng guanli jiguan chachu longduan xieyi, jianyong shichang zhipei 
diwei anjian chengxu quiding], issued 5 June 09, effective 1 July 09, 
art. 5.
    \132\ Ibid.
    \133\ For a comprehensive overview of the new procedural rules, 
see, e.g., Peter Wang, Yizhe Zhang, H. Stephen Harris, Jr. and Mark 
Allen Cohen, ``Chinese Antitrust Authority Publishes New Procedural 
Rules for Non-Merger Investigations,'' Jones Day (Online), 11 June 09.
    \134\ State Council Antimonopoly Commission, Guidelines for 
Defining the Relevant Market [Guowuyuan fanlongduan weiyuanhui guanyu 
xiangguan shichang jieding de zhinan], issued 24 May 09.
    \135\ Martyn Huckerby and Alex Yang, ``Chinese Competition 
Regulators Focus on Cartels and Sharpen Their Investigatory Tools,'' 
Mallesons Stephen Jaques (Online), 14 July 09.
    \136\ Bradley S. Lui and Tej Srimushnam, ``Emerging Trends in 
Merger Reviews Under China's Anti-Monopoly Law,'' Morrison and Foerster 
(Online), June 09.
    \137\ Ministry of Commerce (Online), ``Ministry of Commerce Reaches 
a Decision in Its Antimonopoly Review of Coca-Cola Inc.'s Proposed 
Purchase of China's Huiyuan, Inc.'' [Shangwubu jiu kekou kele gongsi 
shougou zhongguo huiyuan gongsi an fan longduan shen cha zuochu 
caijue], 18 March 09.
    \138\ Ministry of Commerce (Online), ``Ministry of Commerce 2008 
Public Announcement Number 95'' [Zhonghua renmin gongheguo shangwubu 
gonggao 2008 nian di 95 hao], 18 November 08.
    \139\ Ministry of Commerce (Online), ``Ministry of Commerce 2009 
Public Announcement Number 28, MOFCOM Reaches a Decision of Limited 
Approval in Its Antimonopoly Review of Mitsubishi Rayon/Lucite Proposed 
Merger'' [Shangwubu gonggao 2009 nian di 28 hao, shangwubu guanyu fu 
jia xianzhixing tiaojian pizhun riben sanling liyang gongsi shougou lu 
cai te guoji gongsi shencha jueding de gong gao], 24 April 09.
    \140\ Bradley S. Lui and Tej Srimushnam, ``Emerging Trends in 
Merger Reviews Under China's Anti-Monopoly Law,'' Morrison and Foerster 
(Online), 9 June 09.

    Notes to Section III--Access to Justice
    \1\ The terms ``human rights lawyers'' and ``rights defense'' 
(weiquan) lawyers are used interchangeably. See China's Human Rights 
Lawyers: Current Challenges and Prospects, CECC Roundtable, 10 July 09, 
Written Statement Submitted by Bob (Xiqiu) Fu, President of ChinaAid, 
attaching Zhang Kai & Li Chunfu, ``Joint Declaration of Rights Defense 
Attorneys.'' The de-licensed lawyers include: Jiang Tianyong, Li 
Heping, Li Xiongbing, Li Chunfu, Wang Yajun, Guo Shaofei, Cheng Hai, 
Tang Jitian, Xie Yanyi, Zhang Xingshui, Yang Huiwen, Tong Chaoping, Liu 
Guitao, Wen Haibo, Liu Wei, Zhang Lihui, Zhang Chengmao, Wei Liangyue, 
Sun Wenbing, Li Shihui, and Wang Yonghang. See China's Human Rights 
Lawyers: Current Challenges and Prospects, CECC Roundtable, 10 July 09, 
Written Statement Submitted by Bob (Xiqiu) Fu, President of ChinaAid; 
Chinese Human Rights Defenders (Online), ``Chinese Human Rights Lawyers 
Face Oppression, Many Still Unable To Work'' [Zhongguo renquan lushi 
zao daya dadu reng buneng zhiye], 1 July 09; Chinese Human Rights 
Defenders (Online), ``Licenses of 18 Rights Lawyers Still Not Renewed a 
Month After Deadline,'' 2 July 09; Ariana Eunjung Cha, ``Human Rights 
Lawyers `Disbarred' by Paperwork: Chinese Officials Decline To Renew 
Annual Licenses,'' Washington Post (Online), 26 June 09; Chinese Human 
Rights Defenders (Online), ``China Human Rights Briefing August 17-23, 
2009,'' 26 August 09; Chinese Human Rights Defenders (Online), 
``Debarred Lawyer Tortured and Arrested in Northeastern China,'' 27 
August 09.
    \2\ Jerome A. Cohen, ``The Struggle for Autonomy of Beijing's 
Public Interest Lawyers,'' China Rights Forum, No. 1, 2009, 12.
    \3\ Andrew Jacobs, ``Hepatitis Group Is Harassed in China,'' New 
York Times (Online), 31 July 09; Barbara Demick, ``Beijing Frees Legal 
Activist Xu Zhiyong,'' Los Angeles Times (Online), 24 August 09.
    \4\ Li Huizi, ``Fewer Disputed Cases Between Government, People 
Reveals Lack of Confidence in Courts,'' Xinhua (Online), 4 August 09.
    \5\ Yu Jianrong, interviewed by Wu Huaiting, ``Local Abuses Main 
Reason for Mass Incidents,'' Global Times (Online), 1 September 09. Yu 
Jianrong states in the interview: ``The current petition system is a 
political participation and rights compensation system with strong 
Chinese characteristics. It worked at one time, but has too many flaws 
to fit in the current market economy. The failure of the system damaged 
the credibility of the central government and stimulates more and more 
mass incidents. Gradually, the people have lost confidence in or even 
abandon the judicial and petition system and so resort to mass 
incidents.''
    \6\ See, e.g., Yu Jianrong, ``Anger in the Streets,'' Caijing 
(Online), 7 July 09; Yu Jianrong, interviewed by Wu Huaiting, ``Local 
Abuses Main Reason for Mass Incidents,'' Global Times (Online), 1 
September 09.
    \7\ Yu Jianrong, ``Anger in the Streets,'' Caijing (Online), 7 July 
09. In this article, Yu quotes an apparently popular expression saying, 
``People deeply believe in the governing logic of `small noises bring 
small solutions, big noises bring big solutions, and no noise brings no 
solution.' '' See also Yu Jianrong, interviewed by Wu Huaiting, ``Local 
Abuses Main Reason for Mass Incidents,'' Global Times (Online), 1 
September 09.
    \8\ Universal Declaration of Human Rights, adopted and proclaimed 
by UN General Assembly resolution 217A (III) of 10 December 48, art. 8. 
See also International Covenant on Civil and Political Rights, adopted 
by UN General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76, art. 9; CECC, 2008 Annual Report, 31 October 
08, 163.
    \9\ International Covenant on Civil and Political Rights, adopted 
by UN General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76, art. 2. China has signed, but has not yet 
ratified, the ICCPR. As in previous years, the Chinese government this 
reporting year continued to reiterate its commitment to ratifying the 
ICCPR, which China signed in 1998. In February 2009, during the UN 
Human Rights Council's Universal Periodic Review of China's human 
rights record, the Chinese government supported recommendations made by 
Member States that China ratify the ICCPR. At the time, Chinese 
officials also said China was in the process of amending domestic laws, 
including the criminal procedure law and laws relating to reeducation 
through labor, to make them compatible with the ICCPR. UN GAOR, Hum. 
Rts. Coun., 11th Sess., Report of the Working Group on the Universal 
Periodic Review--China, A/HRC/11/25, 3 March 09, paras. 63, 114 (1). 
Moreover, in the 2009-2010 National Human Rights Action Plan (HRAP) 
issued by the Chinese government in April 2009, officials stated that 
the ICCPR was one of the ``fundamental principles'' on which the plan 
was framed, and that the government ``will continue legislative, 
judicial and administrative reforms to make domestic laws better linked 
with this Covenant, and prepare the ground for approval of the ICCPR.'' 
State Council Information Office, National Human Rights Action Plan of 
China (2009-2010), Xinhua (Online), 13 April 09, introduction, sec. 
V(1).
    \10\ CECC, 2008 Annual Report, 31 October 08, 163.
    \11\ ``June Fourth'' refers to the violent suppression of the 1989 
Tiananmen protests on June 3-4.
    \12\ Human Rights in China (Online), ``Chinese Rights Defense 
Lawyers Under All-Out Attack by the Authorities,'' 4 June 09. This 
quote is from an attached statement by a group of rights defense 
lawyers, translated by Human Rights in China, titled ``On the Eve of 
June Fourth, Chinese Rights Defense Lawyers Face Full-Scale Repression: 
Nearly 20 Lawyers Will Be Unable To Practice.''
    \13\ See, e.g., Human Rights in China (Online), ``Chinese Rights 
Defense Lawyers Under All-Out Attack by the Authorities,'' 4 June 09; 
China Human Rights Lawyers Concern Group (Online), ``Please Pay Close 
Attention to the Police Kidnapping and Disappearance of Beijing Human 
Rights Lawyer Tang Jitian on June 4'' [Qing guanzhu beijing weiquan 
lushi tang jitian liusi bei jingfang bangjia hou shizong], 5 June 09.
    \14\ Ibid.; Jerome A. Cohen, ``Rough Justice: Mainland Rights 
Lawyers Are Risking Careers, Liberty and Even Their Lives by Taking 
`Sensitive' Cases,'' South China Morning Post (Online), 9 July 09.
    \15\ In another case of a physical attack on a rights lawyer in 
April 2009, three unidentified men reportedly attacked prominent 
Shanghai lawyer Yan Yiming in his office. Posing as potential clients 
seeking a consultation, the men attacked Yan with a steel bar, leaving 
him with a broken right shoulder and a fractured left shoulder, and 
bruises on his back, arms, and hands. Yan explained that he had 
received several threats this year, and had made many enemies because 
of his work on controversial cases and issues during the preceding 10 
years. Louisa Lim, ``Rights Lawyers in China Face Growing Threats,'' 
National Public Radio (Online), 3 May 09. See also Lilian Zhang, 
``Rights Lawyer Beaten by Thugs With Steel Bar,'' South China Morning 
Post (Online), 18 April 09.
    \16\ See, e.g., Human Rights Watch (Online), ``China: Pre-Congress 
Clampdown Intensifies,'' 9 October 07; Teng Biao, ``I Cannot Give Up: 
Record of a `Kidnapping,' '' China Rights Forum, No. 1, 2009, 30.
    \17\ Human Rights in China (Online), ``Chinese Rights Defense 
Lawyers Under All-Out Attack by the Authorities,'' 4 June 09. See also 
two statements from a group of rights defense lawyers translated by 
Human Rights in China from late May 2009 and early June 2009. Moreover, 
surveillance and monitoring of human rights attorneys intensified 
around the 20th anniversary of the violent suppression of the Tiananmen 
protests on June 4. Authorities placed under surveillance Jiang 
Tianyong, Li Heping, and Li Xiongbing, three of the lawyers whose 
lawyers' licenses were revoked this year. Jiang Tianyong reported that 
he was prohibited from leaving his house from June 3 to June 7, and 
that the police officers stationed at his door physically threatened 
Jiang, his wife, and their daughter. See China's Human Rights Lawyers: 
Current Challenges and Prospects, CECC Roundtable, 10 July 09, Written 
Statement Submitted by Bob (Xiqiu) Fu, President of ChinaAid, attaching 
Jiang Tianyong, ``Human Rights Attorneys in China Very Active but Find 
Themselves in a Dire Situation.'' Li Xiongbing reported that he was 
monitored and followed by the police from June 2 through June 9. See 
China's Human Rights Lawyers: Current Challenges and Prospects, CECC 
Roundtable, 10 July 09, Written Statement Submitted by Bob (Xiqiu) Fu, 
President of ChinaAid, attaching Li Xiongbing, ``Practicing Law Under 
Ubiquitous Pressure.'' Prominent rights defense lawyers Li Fangping and 
Pu Zhiqiang were also monitored and followed. See Human Rights in China 
(Online), ``Chinese Rights Defense Lawyers Under All-Out Attack by the 
Authorities,'' 4 June 09.
    \18\ Chinese Human Rights Defenders (Online), ``Lawyers Face 
Revocation of Their Licenses for Defending Human Rights,'' 25 May 09; 
Human Rights in China (Online), ``Chinese Rights Defense Lawyers Under 
All-Out Attack by the Authorities,'' 4 June 09; Chinese Human Rights 
Defenders (Online), ``China Human Rights Briefing, July 6-12,'' 23 July 
09.
    \19\ Petteri Tuohinen, ``Chinese Farmers Lose Land to Stora Enso 
Tree Plantations,'' Helsingin Sanomat International Edition (Online), 
26 June 09; Xiao Zhi, Chinese Human Rights Defenders (Online), 
``Another Case of Human Rights Lawyer Being Beaten in Guangxi: 
Suspected To Be Work of Collusion Between Officials, Business Leaders 
and Organized Criminals'' [Guangxi zaici fasheng weiquan lushi bei ou 
shijian yi wei guanshanghei sangu shili muhou zhishi], 11 April 09.
    \20\ See, e.g., Human Rights in China (Online), ``Chinese Rights 
Defense Lawyers Under All-Out Attack by the Authorities,'' 4 June 09; 
Chinese Human Rights Defenders (Online), ``Beijing Lawyer Cheng Hai 
Assaulted by Officials for Representing Falun Gong Practitioner,'' 14 
April 09; ``Human Rights Lawyers Cheng Hai and Yang Zaixin Attacked, 
Get Public Attention'' [Weiquan lushi cheng hai, yang zaixin zao 
weigong, yinfa yulun guanzhu], Radio Free Asia (Online), 13 April 09.
    \21\ Chinese Human Rights Defenders (Online), ``Beijing Lawyer 
Cheng Hai Assaulted by Officials for Representing Falun Gong 
Practitioner,'' 14 April 09; Human Rights in China (Online), ``Chinese 
Rights Defense Lawyers Under All-Out Attack by the Authorities,'' 4 
June 09.
    \22\ Chinese Human Rights Defenders (Online), ``Beijing Lawyer 
Cheng Hai Assaulted by Officials for Representing Falun Gong 
Practitioner,'' 14 April 09. Cheng Hai was employed at the Yitong Law 
Firm until October 2008, when he left under pressure from the firm for 
his role in advocating for direct elections of the leadership of the 
government-controlled Beijing Lawyers Association. See Human Rights in 
China (Online), ``Beijing Law Firm Faces Six-Month Shutdown for 
Attorney's Support of Direct Bar Election,'' 19 February 09.
    \23\ China Human Rights Lawyers Concern Group (Online), ``Beijing 
Lawyers Li Chunfu and Zhang Kai Beaten for Representing Re-education 
Through Labor Camp Death Case,'' 14 May 09; Dong Lei, Chinese Human 
Rights Defenders (Online), ``Breaking News: Beijing Lawyers Zhang Kai, 
Li Chunfu Are Taken Away in Handcuffs in Chongqing by More Than 20 
Domestic Security Protection Officers'' [Jinji kuaixun: beijing zhang 
kai, li chunfu lushi zai chongqing ban'an bei dangju guobao jingcha 
ershi duo ren yong shoukao kaozou], 13 May 09; Chinese Human Rights 
Defenders (Online), ``Three Lawyers Detained for Defending Falun Gong 
Practitioners,'' 17 July 09.
    \24\ China's Human Rights Lawyers: Current Challenges and 
Prospects, CECC Roundtable, 10 July 09, Written Statement Submitted by 
Bob (Xiqiu) Fu, President of ChinaAid, attaching Zhang Kai and Li 
Chunfu, ``Joint Declaration of Rights Defense Attorneys,'' 6 July 09, 
1; China Human Rights Lawyers Concern Group (Online), ``Beijing Lawyers 
Li Chunfu and Zhang Kai Beaten for Representing Re-education Through 
Labor Camp Death Case,'' 14 May 09; Dong Lei, Chinese Human Rights 
Defenders (Online), ``Breaking News: Beijing Lawyers Zhang Kai, Li 
Chunfu Are Taken Away in Handcuffs in Chongqing by More Than 20 
Domestic Security Protection Officers'' [Jinji kuaixun: beijing zhang 
kai, li chunfu lushi zai chongqing ban'an bei dangju guobao jingcha 
ershi duo ren yong shoukao kaozou], 13 May 09.
    \25\ China Human Rights Lawyers Concern Group (Online), ``Beijing 
Lawyers Li Chunfu and Zhang Kai Beaten for Representing Re-education 
Through Labor Camp Death Case,'' 14 May 09; Dong Lei, Chinese Human 
Rights Defenders (Online), ``Breaking News: Beijing Lawyers Zhang Kai, 
Li Chunfu Are Taken Away in Handcuffs in Chongqing by More Than 20 
Domestic Security Protection Officers'' [Jinji kuaixun: beijing zhang 
kai, li chunfu lushi zai chongqing ban'an bei dangju guobao jingcha 
ershi duo ren yong shoukao kaozou], 13 May 09.
    \26\ Chinese Human Rights Defenders (Online), `` `Charter 08' 
Original Signatory Beijing Lawyer Tang Jitian's Forced Disappearance: 
Update 1'' [Lingba xianzhang shoupi qianshuren beijing tang jitian 
lushi bei qiangpo shizong houxu yi], 4 June 09.
    \27\ China's Human Rights Lawyers: Current Challenges and 
Prospects, CECC Roundtable, 10 July 09, Written Statement Submitted by 
Bob (Xiqiu) Fu, President of ChinaAid, attaching Tang Jitian, 
``Fighting for Rights Continues Even as Persecution Escalates--A Human 
Rights Attorney's Experience and Perseverance''; Chinese Human Rights 
Defenders (Online), `` `Charter 08' Original Signatory Beijing Lawyer 
Tang Jitian's Forced Disappearance: Update 1'' [Lingba xianzhang shoupi 
qianshuren beijing tang jitian lushi bei qiangpo shizong houxu yi], 4 
June 09.
    \28\ Chinese Human Rights Defenders (Online), ``Charter 08 Primary 
Signatory Lawyer Tang Jitian Released, Is Now Returning Home'' 
[``Lingba xianzhang'' shoupi qianshuren tang jitian lushi bei fang hui 
jia zhong], 7 June 09.
    \29\ China's Human Rights Lawyers: Current Challenges and 
Prospects, CECC Roundtable, 10 July 09, Written Statement Submitted by 
Bob (Xiqiu) Fu, President of ChinaAid, attaching Tang Jitian, 
``Fighting for Rights Continues Even as Persecution Escalates--A Human 
Rights Attorney's Experience and Perseverance.''
    \30\ Chinese Human Rights Defenders (Online), ``Three Lawyers 
Detained for Defending Falun Gong Practitioners,'' 17 July 09.
    \31\ Chinese Human Rights Defenders (Online), ``Debarred Lawyer 
Tortured and Arrested in Northeastern China,'' 27 August 09.
    \32\ Chinese Human Rights Defenders (Online), ``Three Lawyers 
Detained for Defending Falun Gong Practitioners,'' 17 July 09 (CECC 
translation of relevant language in article 300 of the PRC Criminal 
Code); Chinese Human Rights Defenders (Online), ``Debarred Lawyer 
Tortured and Arrested in Northeastern China,'' 27 August 09.
    \33\ China Human Rights Lawyers Concern Group (Online), ``Online 
Petition: Support Human Rights Lawyers Who Failed the `Annual 
Assessment and Registration,' '' 5 August 09.
    \34\ Teng Biao, ``The Law on Trial in China,'' Washington Post 
(Online), 25 July 09.
    \35\ China's Human Rights Lawyers: Current Challenges and 
Prospects, CECC Roundtable, 10 July 09, Written Statement Submitted by 
Bob (Xiqiu) Fu, President of ChinaAid, attaching Li Fangping, ``The 
Challenges Rights Defense Attorneys in China Face and Its Future 
Prospect''; Ariana Eunjung Cha, ``Human Rights Lawyers `Disbarred' by 
Paperwork: Chinese Officials Decline To Renew Annual Licenses,'' 
Washington Post (Online), 26 June 09.
    \36\ CECC, 2008 Annual Report, 31 October 08, 164; Teng Biao, ``The 
Law on Trial in China,'' Washington Post (Online), 25 July 09.
    \37\ Teng Biao, ``The Law on Trial in China,'' Washington Post 
(Online), 25 July 09.
    \38\ These lawyers include: Jiang Tianyong, Li Heping, Li 
Xiongbing, Li Chunfu, Wang Yajun, Guo Shaofei, Cheng Hai, Tang Jitian, 
Xie Yanyi, Zhang Xingshui, Yang Huiwen, Tong Chaoping, Liu Guitao, Wen 
Haibo, Liu Wei, Zhang Lihui, Zhang Chengmao, Wei Liangyue, Sun Wenbing, 
Liu Shihui, and Wang Yonghang. See China's Human Rights Lawyers: 
Current Challenges and Prospects, CECC Roundtable, 10 July 09, Written 
Statement Submitted by Bob (Xiqiu) Fu, President of ChinaAid; Chinese 
Human Rights Defenders (Online), ``Chinese Human Rights Lawyers Face 
Oppression, Many Still Unable To Work'' [Zhongguo renquan lushi zao 
daya dadu reng buneng zhiye], 1 July 09; Chinese Human Rights Defenders 
(Online), ``Licenses of 18 Rights Lawyers Still Not Renewed a Month 
After Deadline,'' 2 July 09; Chinese Human Rights Defenders (Online), 
``China Human Rights Briefing August 17-23, 2009,'' 26 August 09; 
Chinese Human Rights Defenders (Online), ``Debarred Lawyer Tortured and 
Arrested in Northeastern China,'' 27 August 09.
    \39\ Chinese Human Rights Defenders (Online), ``Chinese Human 
Rights Lawyers Face Oppression, Many Still Unable To Work'' [Zhongguo 
renquan lushi zao daya dadu reng buneng zhiye], 1 July 09.
    \40\ China Human Rights Lawyers Concern Group (Online), ``Online 
Petition: Support Human Rights Lawyers Who Failed the `Annual 
Assessment and Registration,' '' 24 July 09.
    \41\ Jerome A. Cohen, ``Rough Justice: Mainland Rights Lawyers Are 
Risking Careers, Liberty and Even Their Lives by Taking `Sensitive' 
Cases,'' South China Morning Post (Online), 9 July 09; China's Human 
Rights Lawyers: Current Challenges and Prospects, CECC Roundtable, 10 
July 09, Written Statement Submitted by Bob (Xiqiu) Fu, President of 
ChinaAid; Chinese Human Rights Defenders (Online), ``Chinese Human 
Rights Lawyers Face Oppression, Many Still Unable To Work'' [Zhongguo 
renquan lushi zao daya dadu reng buneng zhiye], 1 July 09; Chinese 
Human Rights Defenders (Online), ``Licenses of 18 Rights Lawyers Still 
Not Renewed a Month After Deadline,'' 2 July 09.
    \42\ These methods are likely employed outside Beijing as well, but 
most human rights lawyers are based in Beijing, and the reports on the 
plight of the human rights lawyers from China have focused on the 
situation in Beijing.
    \43\ China's Human Rights Lawyers: Current Challenges and 
Prospects, CECC Roundtable, 10 July 09, Written Statement Submitted by 
Bob (Xiqiu) Fu, President of ChinaAid, attaching Li Heping, ``The 
Challenges Rights Defense Attorneys in China Face and Its Future 
Prospect.'' For example, lawyer Zhang Kai, whose license was renewed 
this year, was nevertheless fired by his law firm without explanation. 
See Human Rights in China (Online), ``Chinese Rights Defense Lawyers 
Under All-Out Attack by the Authorities,'' 4 June 09.
    \44\ China's Human Rights Lawyers: Current Challenges and 
Prospects, CECC Roundtable, 10 July 09, Written Statement Submitted by 
Bob (Xiqiu) Fu, President of ChinaAid, attaching Jiang Tianyong, 
``Human Rights Attorneys in China Very Active but Find Themselves in a 
Dire Situation.'' According to this statement, the director of Jiang's 
law firm expressed concern that the government would shut down the law 
firm because of Jiang's and several other attorneys' involvement in 
human rights cases.
    \45\ China's Human Rights Lawyers: Current Challenges and 
Prospects, CECC Roundtable, 10 July 09, Written Statement Submitted by 
Bob (Xiqiu) Fu, President of ChinaAid, attaching Tang Jitian, 
``Fighting for Rights Continues Even as Persecution Escalates--A Human 
Rights Attorney's Experience and Perseverance.''
    \46\ China's Human Rights Lawyers: Current Challenges and 
Prospects, CECC Roundtable, 10 July 09, Written Statement Submitted by 
Bob (Xiqiu) Fu, President of ChinaAid, attaching Jiang Tianyong, 
``Human Rights Attorneys in China Very Active but Find Themselves in a 
Dire Situation.''
    \47\ China's Human Rights Lawyers: Current Challenges and 
Prospects, CECC Roundtable, 10 July 09, Written Statement Submitted by 
Bob (Xiqiu) Fu, President of ChinaAid, attaching Tang Jitian, 
``Fighting for Rights Continues Even as Persecution Escalates--A Human 
Rights Attorney's Experience and Perseverance.''
    \48\ China's Human Rights Lawyers: Current Challenges and 
Prospects, CECC Roundtable, 10 July 09, Written Statement Submitted by 
Bob (Xiqiu) Fu, President of ChinaAid, attaching Li Xiongbing, 
``Practicing Law Under Ubiquitous Pressure.''
    \49\ Rebecca MacKinnon, ``Beijing Legal Crusader Gets `Dealt With,' 
'' RConversation (Online), 19 February 09; Human Rights in China 
(Online), ``Beijing Law Firm Faces Six-Month Shutdown for Attorneys' 
Support of Direct Bar Election,'' 19 February 09.
    \50\ Jerome A. Cohen, ``The Struggle for Autonomy of Beijing's 
Public Interest Lawyers,'' China Rights Forum, No. 1, 2009, 12; Rebecca 
MacKinnon, ``Beijing Legal Crusader Gets `Dealt With,' '' RConversation 
(Online), 19 February 09.
    \51\ Human Rights in China (Online), ``Beijing Law Firm Faces Six-
Month Shutdown for Attorney's Support of Direct Bar Election,'' 19 
February 09; ChinaAid (Online), ``Yitong Law Firm Closed for Defending 
Human Rights Cases,'' 6 March 09; Jerome A. Cohen, ``The Struggle for 
Autonomy of Beijing's Public Interest Lawyers,'' China Rights Forum, 
No. 1, 2009, 12.
    \52\ ChinaAid (Online), ``Yitong Law Firm Closed for Defending 
Human Rights Cases,'' 6 March 09; Louisa Lim, ``Rights Lawyers in China 
Face Growing Threats,'' National Public Radio (Online), 3 May 09; ``Law 
Firm That Defends Dissenters To Be Closed, Say Activists,'' Agence 
France-Presse, reprinted in South China Morning Post (Online), 22 
February 09; Chinese Human Rights Defenders (Online), ``Li Jinsong: 
Beijing Lawyers Association Suspected of Evading 32.72 Million Yuan of 
Income Tax'' [Li Jinsong: Beijing luxie shexian toutao suode shui 3272 
wan yuan], 4 August 09.
    \53\ Jerome A. Cohen, ``The Struggle for Autonomy of Beijing's 
Public Interest Lawyers,'' China Rights Forum, No. 1, 2009, 12; Liu 
Xiaoyuan, ``Beijing Yitong Law Firm Forced To Close; All Employees Are 
Out of Work for 6 Months'' [Beijing yitong lushisuo tingye zhengdun, 
quan suo renyuan xiagang liuge yue], reprinted in Chinese Human Rights 
Defenders (Online), 17 March 09.
    \54\ Ariana Eunjung Cha, ``Human Rights Lawyers `Disbarred' by 
Paperwork: Chinese Officials Decline To Renew Annual Licenses,'' 
Washington Post (Online), 26 June 09.
    \55\ Rebecca MacKinnon, ``Beijing Legal Crusader Gets `Dealt With,' 
'' RConversation (Online), 19 February 09; ChinaAid (Online), ``Yitong 
Law Firm Closed for Defending Human Rights Cases,'' 6 March 09. See 
also ``Law Firm That Defends Dissenters To Be Closed, Say Activists,'' 
Agence France-Presse, reprinted in South China Morning Post (Online), 
22 February 09; China's Human Rights Lawyers: Current Challenges and 
Prospects, CECC Roundtable, 10 July 09, Written Statement Submitted by 
Bob (Xiqiu) Fu, President of ChinaAid, attaching Wen Haibo, ``Defending 
Rights in Hardship and on a Thin Line.''
    \56\ `` `Killing One to Warn 100' (Shayi jingbai): The Shutdown of 
Yitong Law Firm,'' China Rights Forum, No. 1, 2009, 22.
    \57\ ChinaAid (Online), ``Yitong Law Firm Closed for Defending 
Human Rights Cases,'' 6 March 09; Human Rights in China (Online), 
``Beijing Law Firm Faces Six-Month Shutdown for Attorney's Support of 
Direct Bar Election,'' 19 February 09.
    \58\ Human Rights in China (Online), ``Beijing Law Firm Faces Six-
Month Shutdown for Attorney's Support of Direct Bar Election,'' 19 
February 09; China's Human Rights Lawyers: Current Challenges and 
Prospects, CECC Roundtable, 10 July 09, Written Statement Submitted by 
Bob (Xiqiu) Fu, President of ChinaAid, attaching Wen Haibo, ``Defending 
Rights in Hardship and on a Thin Line.''
    \59\ Louisa Lim, ``Rights Lawyers in China Face Growing Threats,'' 
National Public Radio (Online), 3 May 09; `` `Killing One to Warn 100' 
(Shayi jingbai): The Shutdown of Yitong Law Firm,'' China Rights Forum, 
No. 1, 2009, 22.
    \60\ Barbara Demick, ``Beijing Frees Legal Activist Xu Zhiyong,'' 
Los Angeles Times (Online), 24 August 09. For more information about Xu 
Zhiyong, see his record of detention searchable through the CECC's 
Political Prisoner Database.
    \61\ ``Beijing Think Tank Faults Domestic Policies, Issues for 
March 2008 Tibetan Rioting,'' Congressional-Executive Commission on 
China (Online), 6 August 09. Teng Biao, another co-founder of OCI (or 
Gongmeng), described OCI as ``the primary meeting place for China's 
nascent movement of `rights lawyers.' '' Teng Biao, ``The Law on Trial 
in China,'' Washington Post (Online), 25 July 09.
    \62\ Jerome A. Cohen, ``Body Blow for the Judiciary,'' South China 
Morning Post (Online), 18 October 08; China's Human Rights Lawyers: 
Current Challenges and Prospects, CECC Roundtable, 10 July 09, 
Testimony of Professor James V. Feinerman, Georgetown University Law 
Center.
    \63\ Willy Lam, ``The CCP Strengthens Control Over the Judiciary,'' 
China Brief (Online), 3 July 08; CECC, 2008 Annual Report, 31 October 
08, 166.
    \64\ CECC, 2008 Annual Report, 31 October 08, 166; Willy Lam, ``The 
CCP Strengthens Control Over the Judiciary,'' China Brief (Online), 3 
July 08; Al Guo, ``Half of Top Judges Lack Legal Training,'' South 
China Morning Post (Online), 21 July 09.
    \65\ Jerome A. Cohen, ``Body Blow for the Judiciary,'' South China 
Morning Post (Online), 18 October 08; China's Human Rights Lawyers: 
Current Challenges and Prospects, CECC Roundtable, 10 July 09, Written 
Statement of Professor James V. Feinerman, Georgetown University Law 
Center, 2-3; Jerome A. Cohen, ``People's Justice,'' South China Morning 
Post (Online), 25 June 09.
    \66\ ``Heads of High People's Courts Nationwide: 14 [Presiding] 
Judges Are of the Party/Political Type, 14 Are of the Justice System 
Type'' [Quanguo gaoyuan yuanzhang 14 wei dangzhengxing, 14 wei 
sifaxing], Xinhua, reprinted in Chengdu Commercial News (Online), 20 
July 09; Al Guo, ``Half of Top Judges Lack Legal Training,'' South 
China Morning Post (Online), 21 July 09.
    \67\ Al Guo, ``Half of Top Judges Lack Legal Training,'' South 
China Morning Post (Online), 21 July 09.
    \68\ Ibid. Georgetown University Law Center Professor James 
Feinerman noted in his Prepared Statement presented at a Commission 
roundtable in July that the implications of the Communist Party's 
political interference in the judicial system ``for legal practice and 
protection of citizens' rights are ominous.'' China's Human Rights 
Lawyers: Current Challenges and Prospects, CECC Roundtable, 10 July 09, 
Written Statement of Professor James V. Feinerman, Georgetown 
University Law Center, 3.
    \69\ Li Huizi, ``Fewer Disputed Cases Between Government, People 
Reveals Lack of Confidence in Courts,'' Xinhua (Online), 4 August 09.
    \70\ Ibid.
    \71\ Ibid.
    \72\ Ibid.
    \73\ Ye Doudou, ``Embattled Courts, a Backlog of Grievances,'' 
Caijing (Online), 17 April 09. Practicing attorneys also are losing 
faith in the efficacy of the PRC Administration Litigation Law. In this 
article, Liu Wen, an administrative litigation lawyer at the Mo 
Shaoping Law Firm in Beijing, was quoted in the Caijing article as 
saying: ``The more I do, the less confident I become.''
    \74\ Ibid.
    \75\ See, e.g., Qin Xudong, ``Judicial Reform: A New Round,'' 
Caijing (Online), 24 January 09; Yu Jianrong, interviewed by Wu 
Huaiting, ``Local Abuses Main Reason for Mass Incidents,'' Global Times 
(Online), 1 September 09.
    \76\ Ye Doudou, ``Embattled Courts, a Backlog of Grievances,'' 
Caijing (Online), 17 April 09.
    \77\ ``Supreme Court Encourages Mediation To Resolve Disputes as 
Lawsuits Increase,'' Xinhua (Online), 4 August 09.
    \78\ Report on the Work of the Supreme People's Court, Xinhua 
(Online), 17 March 09 (Open Source Center, 20 March 09).
    \79\ Jerome A. Cohen, ``People's Justice,'' South China Morning 
Post (Online), 25 June 09; Jerome A. Cohen, ``The Court of Mass 
Appeal,'' South China Morning Post (Online), 4 April 09.
    \80\ ``Summary: Supreme People's Court Urges Efforts To Clear Trial 
Backlogs,'' Xinhua, 10 March 09 (Open Source Center, 21 March 09).
    \81\ Ibid.
    \82\ ``Supreme People's Court Encourages Mediation To Resolve 
Disputes as Lawsuits Increase,'' Xinhua (Online), 4 August 09. 
According to this report, the regulation provides that arbitration 
agreements will have equal force in law as court decisions.
    \83\ Qin Xudong, ``Judicial Reform: A New Round,'' Caijing 
(Online), 24 January 09.
    \84\ Willy Lam, ``Hu's Anti-Graft Drives Lack Institutional Checks 
and Reforms,'' China Brief (Online), 20 August 09; Cary Huang, 
``Reshuffle Targets Judicial Corruption,'' South China Morning Post 
(Online), 29 June 09; CECC, 2008 Annual Report, 31 October 08, 167; 
Duan Hongqing, ``President Hu Calls for Deeper Judicial Reform,'' 
Caijing (Online), 17 October 07. According to this report, ``corruption 
has been rampant throughout the nation's judiciary.''
    \85\ China Fires Supreme Court Judge Amid Bribery Probe,'' 
Associated Press, reprinted in Newsday (Online), 21 August 09; ``Party 
Sacks Ex-Supreme Court VP Over Corruption,'' Xinhua (Online), 21 August 
09; Cary Huang, ``Reshuffle Targets Judicial Corruption,'' South China 
Morning Post (Online), 29 June 09; CECC, 2008 Annual Report, 31 October 
08, 167.
    \86\ Fiona Tam, ``Former Justice Chief Had His Own `Fort Knox,' '' 
South China Morning Post (Online), 4 September 09; Yang Xingyun, ``The 
War Against Chongqing Triads,'' Economic Observer (Online), 25 August 
09. According to this report, local authorities considered Wen to be 
``the biggest `protective umbrella' for the mafia activities in 
Chongqing.'' See also Wang Xiangwei, ``Triad Ties With Officials Ring 
Alarm Bells,'' South China Morning Post (Online), 31 August 09; Qiu 
Wei, ``Gang Crackdown Targets `Umbrella' Within Governments,'' Global 
Times (Online), 2 September 09.
    \87\ Cary Huang, ``Reshuffle Targets Judicial Corruption,'' South 
China Morning Post (Online), 29 June 09, noting ``rampant judicial 
corruption.'' Another article from the South China Morning Post 
reported that the Supreme People's Court and hundreds of lower courts 
asked citizens to e-mail their comments about the legal system to the 
courts' newly established e-mail boxes. Two of the main issues raised 
by members of the online community were lack of access to the legal 
process and judicial corruption. See David Eimer, ``First Rule of Law: 
What the Party Says, Goes,'' South China Morning Post (Online), 9 June 
09.
    \88\ Sun Weiben ed., PRC Administrative Management Encyclopedia 
[Zhonghua renmin gongheguo xingzheng guanli dacidian], (Beijing: 
People's Daily Publishing House, 1992), 329. The right to petition, 
without retribution, is protected in the PRC Constitution (1982). 
According to Article 41 of the PRC Constitution, ``citizens have the 
right to make grievances against relevant state organs or charges 
against, or exposures of; any state organ or functionary for violation 
of the law or dereliction of duty; but fabrication or distortion of 
facts for purposes of libel or false incrimination is prohibited. The 
state organ concerned must deal with grievances, charges or exposures 
made by citizens in a responsible manner after ascertaining the facts. 
No one may suppress such grievances, charges and exposures or retaliate 
against the citizens making them. Citizens who have suffered losses as 
a result of infringement of their civic rights by any state organ or 
functionary have the right to compensation in accordance with the 
law.'' PRC Constitution, adopted 4 December 82, art. 41. The right is 
also protected by the more recent 2005 National Regulations on Letters 
and Visits. CECC, 2008 Annual Report, 31 October 08, 165. The practice 
of submitting grievances to local authorities has existed in China 
since imperial times. Since the founding of the People's Republic of 
China, the xinfang system, in theory, has ideally functioned to enhance 
relations among the Party, the government, and the people.
    \89\ Sun Weiben ed., PRC Administrative Management Encyclopedia 
[Zhonghua renmin gongheguo xingzheng guanli dacidian], (Beijing: 
People's Daily Publishing House, 1992), 257; Human Rights Watch 
(Online), `` `We Could Disappear at Any Time': Retaliation and Abuses 
Against Chinese Petitioners,'' December 2005, 17.
    \90\ Jamil Anderlini, ``Punished Supplicants,'' Financial Times 
(Online), 5 March 09. See also Chinese Human Rights Defenders (Online), 
``China Human Rights Briefing, March 1-15, 2009,'' 24 March 09, for 
details regarding a number of recent petitioning cases.
    \91\ In December 2008, the Central Party School convened a meeting 
titled ``Xinfang, Law, and Scientific Development'' (Xinfang-fazhi-
kexue fazhanguan yantaohui). More than 100 people from various fields 
attended to discuss problems and possibilities of the country's xinfang 
system, emphasizing the necessity and feasibility of legislation. In 
February, the National Xinfang Bureau held a study meeting to 
strengthen management of the xinfang system. At the meeting, leaders 
urged xinfang authorities to raise their understanding of the concept 
of ``scientific development,'' to discuss the breakthrough in the 
xinfang system work of having leaders receive citizens with grievances 
on a regular basis, and to strengthen the monitoring of leaders' 
xinfang work. State Xinfang Bureau (Online), ``National Xinfang Bureau 
Opens Scientific Development Study Meeting'' [Guojia xinfangju zhaokai 
xuexi shijian kexue fazhanguan huodong zongjie dahui], 24 February 09; 
``Beijing Expels Petitioners on Large Scale, Xinfang Offices Serve No 
Purpose'' [Beijing daju quqian fangmin; xinfangban xingtong xushe], 
Radio Free Asia (Online), 5 August 09; Gillian Wong, ``China Orders 
Local Governments To Listen to Petitioners,'' Associated Press, 
reprinted in Yahoo! (Online), 14 April 09.
    \92\ City officials should meet with people with grievances once 
every three months, county-level officials at least once a month, and 
township authorities any time grievances arise. Gillian Wong, ``China 
Orders Local Governments To Listen to Petitioners,'' Associated Press, 
reprinted in Yahoo! (Online), 14 April 09.
    \93\ The notice stated that ``eligible petitioners should return to 
their home provinces to meet with the visiting teams.'' Some 
petitioners reportedly believe the effort is simply another trick to 
get them to leave Beijing. Chinese Human Rights Defenders (Online), 
``Petitioners Told To Return Home as Supreme People's Court Will Travel 
to Three Provinces To Hear Their Complaints'' [Zuigao fayuan zhangtie 
gonggao rang san sheng de fangmin huisheng fanying suqiu], 30 July 09.
    \94\ ``Political-Legal Committee Demands That Petitions Involving 
the Courts and Procuratorates Should Be Solved Before They Reach 
Beijing'' [Zhengfawei yaoqiu shefa shesu xinfang ``budao beijing ye 
neng jiejue wenti''], Xinhua (Online), 7 August 09. See also Chinese 
Human Rights Defenders (Online), ``China Human Rights Briefing, August 
3-9, 2009,'' 12 August 09.
    \95\ The opinion is titled ``Opinion of the Central Political-Legal 
Committee on Strengthening and Improving Law and Litigation-Related 
Xinfang Work.'' See, e.g., ``Central Political-Legal Committee Answers 
Reporters' Questions on Opinion Regarding Strengthening and Improving 
Law and Litigation-Related Xinfang Work'' [Zhongyang zhengfawei jiu 
jiaqiang he gaijin shefa shesu xinfang gongzuo yijian da jizhe wen], 
Xinhua (Online), 18 August 09; Flora Sapio, ``If You Want To File a 
Petition Don't Come to Beijing Please,'' Forgotten Archipelagoes Blog 
(Online), 11 August 09; Loretta Chao, ``Beijing Moves To End Tradition 
of Petitions,'' Wall Street Journal (Online), 22 August 09. Human 
rights lawyer Li Fangping is quoted in this article as saying that the 
measure seemed designed to prevent petitioners from appealing to a 
higher authority: ``It should be a normal process to go upward for an 
appeal.''
    \96\ Shirong Chen, ``China Bans Petitioners in Beijing,'' BBC 
(Online), 19 August 09.
    \97\ ``Central Political-Legal Committee Answers Reporters' 
Questions on Opinion Regarding Strengthening and Improving Law and 
Litigation-Related Xinfang Work'' [Zhongyang zhengfawei jiu jiaqiang he 
gaijin shefa shesu xinfang gongzuo yijian da jizhe wen], Xinhua 
(Online), 18 August 09.
    \98\ ``Central Political-Legal Committee Answers Reporters' 
Questions on Opinion Regarding Strengthening and Improving Law and 
Litigation-Related Xinfang Work'' [Zhongyang zhengfawei jiu jiaqiang he 
gaijin shefa shesu xinfang gongzuo yijian da jizhe wen], Xinhua 
(Online), 18 August 09; Flora Sapio, ``If You Want To File a Petition 
Don't Come to Beijing Please,'' Forgotten Archipelagoes Blog (Online), 
11 August 09. Petitions may also be filed online, and the authorities 
have a 60-day deadline to respond. See Shirong Chen, ``China Bans 
Petitioners in Beijing,'' BBC (Online), 19 August 09.
    \99\ CECC, 2008 Annual Report, 31 October 08, 165-166.
    \100\ Carl Minzner, ``Xinfang: Alternative to Formal Chinese Legal 
Institutions,'' 42 Stanford Journal of International Law 103, 154 
(2006).
    \101\ See, e.g., Gillian Wong, ``China Orders Local Governments To 
Listen to Petitioners,'' Associated Press, reprinted in Yahoo! 
(Online), 14 April 09. In its 2008 Annual Report, the Commission noted 
that authorities increased and further systematized their efforts to 
illegally intercept and arbitrarily detain petitioners, especially in 
Beijing during the period preceding the Olympics. CECC, 2008 Annual 
Report, 31 October 08, 165.
    \102\ Gillian Wong, ``China Orders Local Governments To Listen to 
Petitioners,'' Associated Press, reprinted in Yahoo! (Online), 14 April 
09. Reportedly, in Hunan, the Provincial Public Security Bureau issued 
a document stipulating that citizens were not allowed to act as 
representatives in xinfang cases and that any petitioner whose 
grievance was resolved, but continued to petition, would be detained. 
See Chinese Human Rights Defenders (Online), ``Hunan Issues Ruling, 
Petitioners Who Petition Again Will Be Detained,'' 17 April 09.
    \103\ Gillian Wong, ``China Orders Local Governments To Listen to 
Petitioners,'' Associated Press, reprinted in Yahoo! (Online), 14 April 
09; Chinese Human Rights Defenders (Online), ``Silencing Complaints: 
Human Rights Abuses Against Petitioners in China,'' 14 March 09.
    \104\ Chinese Human Rights Defenders (Online), ``Silencing 
Complaints: Human Rights Abuses Against Petitioners in China,'' 14 
March 09.
    \105\ For example, in July 2009, one 50-year-old woman was beaten 
inside the Heilongjiang Provincial People's Congress petition reception 
center. Her fellow petitioners called the police, who simply took the 
50-year-old woman away from the scene. See Chinese Human Rights 
Defenders (Online), ``Petitioning Citizens Beaten Within Heilongjiang 
People's Congress Xinfang Office'' [Heilongjiang renda xinfang 
banyuannei shangfang gongmin bei ouda], 14 July 09.
    \106\ Cao Shunli was ordered to serve one year of reeducation 
through labor on charges of ``disturbing the office of a public 
organ,'' for complaining about being illegally detained by the 
Andingmenwai police for 36 hours after she attended a protest over 
Professor Sun Dongdong's comments about persistent petitioners being 
mentally ill. Human Rights in China, ``Timeline: Human Rights 
Defenders--April 2, 2009-May 6, 2009,'' China Rights Forum, No. 2, 
2009, 148.
    \107\ Zhai Fangye, ``Cases in Which Petitioner Becomes Psychotic 
Was Preface to `Weng'an Incident,' '' Harbin Dongbei Net, 9 December 08 
(Open Source Center, 9 December 08); Chinese Human Rights Defenders 
(Online), ``Psychiatric Hospitals Have Become a Gulag Archipelago With 
Chinese Characteristics'' [Jingshenbingyuan chengwei juyou zhongguo 
tese de gulage qundao], 17 May 09; Andrew Jacobs, ``Complainers in 
China Hospitalized,'' New York Times (Online), 8 December 08; Huang 
Yuhao, ``Petitioners Forcibly Sent to Mental Hospitals,'' Beijing News, 
8 December 08 (Open Source Center, 9 December 08).
    \108\ Chinese Human Rights Defenders (Online), ``Silencing 
Complaints: Human Rights Abuses Against Petitioners in China,'' 14 
March 09.
    \109\ Zhai Fangye, ``Cases in Which Petitioner Becomes Psychotic 
Was Preface to `Weng'an Incident,' '' Harbin Dongbei Net, 9 December 08 
(Open Source Center, 9 December 08).
    \110\ Ibid.
    \111\ ``Petitioners Sent to Mental Hospitals,'' Radio Free Asia 
(Online), 11 December 08.
    \112\ Ibid. Police have also reportedly sent devout religious 
followers and Falun Gong practitioners to psychiatric hospitals. See 
``China's Draft Mental Health Law Called Into Question'' [Zhongguo 
jingshen weisheng fa cao'an shou zhiyi], Radio Free Asia (Online), 17 
June 09.
    \113\ ``Dongbei Wang Commentary: Ignoring Petitioners' Issues Leads 
to Mass Incidents,'' Harbin Dongbei Net, 8 December 08 (Open Source 
Center, 9 December 08).
    \114\ Zhu Zhe, ``Scholar Sorry for `Insane' Words on Petitioners,'' 
China Daily (Online), 7 April 09; ``Sun Dongdong: Sending Mentally Ill 
Patients to Hospitals Is the Greatest Safeguard'' [Sun dongdong: ba 
jingshenbingren song dao yiyuan shi zui da de baozhang], China Newsweek 
(Online), 23 March 09; Sky Canaves, ``A Professor's Comments on Mental 
Illness Draw Ire in China,'' Wall Street Journal (Online), 3 April 09.
    \115\ Sky Canaves, ``A Professor's Comments on Mental Illness Draw 
Ire in China,'' Wall Street Journal (Online), 3 April 09.
    \116\ Henry Sanderson, ``Beijing Professor's Remarks Spark Angry 
Protests,'' Associated Press (Online), 10 April 09; Zhu Zhe, ``Scholar 
Sorry for `Insane' Words on Petitioners,'' China Daily (Online), 7 
April 09.
    \117\ Ivan Zhai, ``Petitioners Decry `99 pc Mentally Ill' Remark,'' 
South China Morning Post (Online), 2 April 09; ``300 People Publicly 
Refute Petitioners Are Mentally Ill'' [Sanbai ming renshi gongkai fanbo 
cheng shangfangzhe bing fei jingshen bingren], Radio Free Asia 
(Online), 31 March 09.
    \118\ Zhu Zhe, ``Scholar Sorry for `Insane' Words on Petitioners,'' 
China Daily (Online), 7 April 09. According to this article, prominent 
academic Yu Jianrong, the Director of the Social Issues Research Center 
(affiliated with the Chinese Academy of Social Sciences), said that 
``scholars should be more careful with their words.'' Yu stated that he 
believed ``a stronger sense of social responsibility and more sympathy 
for the weak can help professionals see the broader picture.''
    \119\ Aaron Jeske and Alyssa Farrelly, China Elections and 
Governance (Online), `` `Crazy' Petitioners and a Broken System,'' 22 
April 09; Sky Canaves, ``A Professor's Comments on Mental Illness Draw 
Ire in China,'' Wall Street Journal (Online), 3 April 09.
    \120\ ``More Than One Thousand Petitioners Protest at Beijing 
University, Zhongnanhai, and Tiananmen, Half of Them Are Caught'' 
[Beida zhongnanhai tiananmen kangyi shang qian fangmin ban bei zhua], 
Radio Free Asia (Online), 13 April 09; Zhu Zhe, ``Scholar Sorry for 
`Insane' Words on Petitioners,'' China Daily (Online), 7 April 09; 
Lilian Zhang, ``Protest at `Mentally Ill' Slur by Academic,'' South 
China Morning Post (Online), 8 April 09; Ivan Zhai, ``Petitioners Decry 
`99 pc Mentally Ill' Remark,'' South China Morning Post (Online), 2 
April 09; Dong Lei, Chinese Human Rights Defenders (Online), 
``Petitioners Continue To Protest Sun Dongdong, Sun's Wife Visits Homes 
of Petitioners To Apologize and Compensate'' [Fangmin chixu kangyi sun 
dongdong, sun dongdong qizi xiangqian qu ta jia fangmin daoqian bing 
peiqian], 6 April 09.
    \121\ Zhu Zhe, ``Scholar Sorry for `Insane' Words on Petitioners,'' 
China Daily (Online), 7 April 09. According to this article, Sun also 
promised to be more careful in the future with his words.
    \122\ ``Sun Dongdong Apologizes for Theory That Petitioners Are 
Mentally Ill, Popular Indignation Difficult To Quell, News 
Constrained'' [Sun dongdong jiu fangmin jingshenbing lun daoqian minfen 
nanping xinwen gentie shouxian], Radio Free Asia (Online), 6 April 09. 
During the week of April 27, several petitioners from outside of 
Beijing came to the capital and sought to file grievances against Sun 
in the Haidian District People's Court. ``Petitioners Sue Sun Dongdong 
for Defamation, Detentions in Mental Health Institutions Still Continue 
in Different Locations'' [Fangmin zhuanggao sun dongdong sunhai min yu 
gedi guanya jingshenbingyuan qingkuang buduan], Radio Free Asia 
(Online), 28 April 09.
    \123\ Chinese Human Rights Defenders (Online), ``Several Hundred 
Fearless Petitioners Head to Health Ministry, Continue To Protest 
Against Sun Dongdong'' [Shubai fangmin buju daya qianwang weishengbu 
jixu kangyi sun dongdong], 25 April 09. One of the largest protests 
occurred on April 13 involving 1,000 petitioners in various places 
around Beijing, with nearly 500 protesting at the gate of Beijing 
University. ``More Than One Thousand Petitioners Protest at Beijing 
University, Zhongnanhai, and Tiananmen, Half of Them Are Caught'' 
[Beida zhongnanhai tiananmen kangyi shang qian fangmin ban bei zhua], 
Radio Free Asia (Online), 13 April 09.
    \124\ Murray Scot Tanner, ``China Rethinks Unrest,'' Washington 
Quarterly (Online), Summer 2004, 138.
    \125\ CECC, 2008 Annual Report, 31 October 08, 33. See also Chow 
Chung-yan, ``City Leaders Disciplined Over Fatal Yunnan Riots,'' South 
China Morning Post (Online), 5 September 08; ``Summary: Yunnan 
Provincial Party Committee Punishes Cadres Over Menglian Incident,'' 
China News Agency, 4 September 08 (Open Source Center, 4 September 08); 
``Two Killed in Yunnan Mass Action,'' China Daily (Online), 21 July 08; 
Li Hanyong, ``Yunnan Province Adopts Effective Measures To Channel the 
Masses' Emotions and Appropriately Handle the Menglian Clash Incident 
To Maintain Stability in the Border Area,'' 21 July 08 (Open Source 
Center, 21 July 08).
    \126\ Zhai Fangye, ``Cases in Which Petitioner Becomes Psychotic 
Was Preface to `Weng'an Incident,' '' Harbin Dongbei Net, 9 December 08 
(Open Source Center, 9 December 08).
    \127\ Ng Tze-wei, ``Riots on Rise as Cadres at Fault, Magazine 
Says,'' South China Morning Post (Online), 8 September 09; Hu Zujin, 
``Insight Into the Prevention of and Dealing With Mass Incidents by 
Public Security Agencies,'' Beijing Gongan Yanjiu, 11 May 09 (Open 
Source Center, 16 July 09).
    \128\ See, e.g., Ng Tze-wei, ``Riots on Rise as Cadres at Fault, 
Magazine Says,'' South China Morning Post (Online), 8 September 09; Yu 
Jianrong, interviewed by Wu Huaiting, ``Local Abuses Main Reason for 
Mass Incidents,'' Global Times (Online), 1 September 09; Liu Zhen and 
Lucy Hornby, ``China To Sack Officials Who Mishandle Protests,'' 
Reuters (Online), 13 July 09; Hu Shuli, ``Heeding the Lessons of 
China's Civil Unrest,'' Caijing (Online), 7 July 09. See also Chris 
Buckley, ``China's Rural Teachers Join Rumble of Unrest,'' Reuters, 
reprinted in International Herald Tribune (Online), 6 February 09; 
``Hundreds Rally in China Over Police Beating,'' Agence France-Presse 
(Online), 21 May 09; ``Upwards of One Thousand Boiler Factory Workers 
Block Road in Protest in Wuhan'' [Wuhan guoluchang shangqian zhigong 
dulu kangyi], Radio Free Asia (Online), 14 July 09; Yan Xiu, 
``Applicants of Farmers' Association Summoned; Veterans Petitioning in 
Beijing'' [Shenqing chengli nonghuizhe bei chuanhuan zhuantui junren 
shangfang beijing], Radio Free Asia (Online), 8 July 09.
    \129\ Yu Jianrong, interviewed by Wu Huaiting, ``Local Abuses Main 
Reason for Mass Incidents,'' Global Times (Online), 1 September 09.
    \130\ ``Police Cars Overturned in South China Protest,'' Agence 
France-Presse, 15 June 09 (Open Source Center, 15 June 09).
    \131\ Civil Rights and Livelihood Watch (Online), ``Several Tens of 
Thousands of People Confirmed on Streets of Hubei Shishou, Family 
Members Still Protecting Corpse'' [Hubei shishou jin bei zhengshi 
shuwan minzhong shang jie, jia ren reng zai baohu shiti], 20 June 09; 
Malcolm Moore, ``Tens of Thousands of Chinese Fight the Police in 
Shishou,'' Telegraph (Online), 22 June 09. Earlier this year, public 
anger was triggered by an alleged police coverup of another murder. In 
the Deng Yaqing case, local police in Wuchuan city in Guangdong 
province abducted the body of a 57-year-old man who was killed in a 
dispute with staff at an impound lot. Police drove a bread truck to the 
hospital where Deng's body was being held and seized it, pushing the 
deceased's family to the ground when they tried to intervene. The 
incident caused several thousand people to protest. `` `Excited to 
Death' During Car Pickup? One Thousand People Protest Wuchuan Police 
Snatching of Body'' [Qukou che shi ``xingfen si?'' wuchuan jingfang 
qiang shi qian ren kangyi], Radio Free Asia (Online), 18 May 09.
    \132\ Minban jiaoshi, sometimes translated as ``people's 
teachers,'' ``rural teachers,'' or ``teachers who are not state 
employees,'' are teachers usually found in rural areas who are not 
hired by the government to teach in contrast to the better-paid guojia 
jiaoshi, who are teachers hired by the government.
    \133\ In late June, over 600 ``people's teachers'' from various 
parts of Gong'an county, Hubei who had been laid off protested at the 
county government building for several days, demanding that the 
government recognize them as public school teachers. The police 
detained six teachers' representatives for 15 days and sent a number of 
others home. ``People's Teachers From Gong'an County, Hubei Gather To 
Petition, Representatives Detained'' [Hubei gong'an xian minban jiaoshi 
juji shangfang, daibiao bei xingju], Radio Free Asia (Online), 1 July 
09. In early February, teachers in Xinning county in Hunan province 
``signed a petition demanding wages, pensions and health care.'' Last 
December, hundreds of teachers attacked the Xinning county government 
building. See Chris Buckley, ``China's Rural Teachers Join Rumble of 
Unrest,'' Reuters, reprinted in International Herald Tribune (Online), 
6 February 09. Other incidents involving teachers in 2009 include a 
group of about 200 ``people's teachers'' from various places in Shaanxi 
province who petitioned at the Ministry of Education in Beijing in May 
over official recognition of their status, layoffs, and pensions and 
health benefits. Liu Feiyue, Chinese Human Rights Defenders (Online), 
``Several Hundred Teachers From Shaanxi Province Enter Beijing, 
Petition in Front of Ministry of Education'' [Shanxi quansheng shubai 
minshi jin jing, jiaoyubu men qian tao shuofa], 18 May 09.
    \134\ China Labour Bulletin (Online), ``Up to 2,000 Teachers 
Protest Against Unfair Work Practices in Suizhou, Hubei Province,'' 27 
January 04.
    \135\ Chris Buckley, ``China's Rural Teachers Join Rumble of 
Unrest,'' Reuters, reprinted in International Herald Tribune (Online), 
6 February 09.
    \136\ ``Inner Mongolian Teachers Strike, `People's Teachers' in 
Hubei Collectively Petition'' [Neimenggu jiaoshi banke hubbei minshi ji 
shangfang], Radio Free Asia (Online), 10 June 09.
    \137\ The protesters demanded to see the department director. The 
teachers were there for hours but in the evening police vehicles and 
about 500 riot police advanced on the teachers in locked arms. The 
teachers scattered, with a few elderly teachers being knocked to the 
ground. Some were run over by the advancing vehicles, including a 60-
year-old woman. Civil Rights and Livelihood Watch (Online), ``In Henan 
Several Hundred Police Encircle and Forcefully Disperse `People's 
Teacher' Petitioners'' [Henan shubai jingcha qiangxing baowei quzhu 
qingyuan minban jiaoshi], 18 June 09.
    \138\ Several other protests involving veterans took place during 
this reporting year. For example, on June 25, several hundred Korean 
War veterans protested at the office of the Guizhou Provincial Party 
Committee over inadequate subsidies. Chinese Human Rights Defenders 
(Online), ``Guiyang Korean War Veterans Form Petitioner Group and Hold 
Protest Demonstration at Gate of Provincial Party Committee'' [Guiyang 
yuanchao laobing zucheng shangfang tuan dao shengwei men qian kangyi 
youxing], 29 June 09. On April 29, nearly 400 veterans and their family 
members demonstrated at the city government building of Nanchong city, 
Sichuan province, demanding social security, health benefits, and 
higher wages. Chinese Human Rights Defenders (Online), ``Veterans in 
Nanchong City, Sichuan Province Block City Government's Gates'' 
[Sichuan sheng nanchong shi tuiwu bing jiti fengdu shi zhengfu damen], 
29 April 09.
    \139\ Chinese Human Rights Defenders (Online), ``Petitioning 
Military Veterans in Yantai, Shandong Block Roads'' [Shandong yantai 
baofa tuiwu junren da guimo qingyuan dulu huodong], 23 February 09.
    \140\ Chinese Human Rights Defenders (Online), ``Shaanxi Veterans 
Who Became Industry Cadres Again Present Petition to Provincial 
Government'' [Shanxi laojun zhuanqi ganbu zaici dao sheng zhengfu 
qingyuan], 29 June 09. Some veterans faced repression for their 
advocacy efforts, including retired judge Huang Yunmin who was detained 
by police for speaking out in support of health rights for veterans who 
had negative health impacts from handling radioactive materials related 
to China's nuclear tests in Lop Nor, Xinjiang Uyghur Autonomous Region. 
Chinese Human Rights Defenders (Online), ``Retired Judge in Xinjiang 
Detained for Advocating Health Rights of Veterans,'' 24 February 09. 
[For more information on Huang Yunmin's case, see Section II--Climate 
Change and Environment.]
    \141\ According to Yu Jianrong, 65 percent of rural protests 
involve land disputes, primarily relating to the illegal or forceful 
appropriation of land. Yu Jianrong, interviewed by Wu Huaiting, ``Local 
Abuses Main Reason for Mass Incidents,'' Global Times (Online), 1 
September 09. See also Yu Jianrong, ``Anger in the Streets,'' Caijing 
(Online), 7 July 09; ``Yishui, Shandong Residents' Homes Torn Down, 
Villagers Petition for Arrangement With No Result'' [Shandong yishui 
qiangchai minfang, cunmin shangfang anzhi wuguo], Radio Free Asia 
(Online), 20 June 09.
    \142\ ``Inside Story on Shantou Rural Land Division, Several 
Thousand Rural Residents March in Protest'' [Shantou nongcun fendi lu 
heimu, shuqian nongmin youxing kangzheng], Radio Free Asia (Online), 20 
July 09.
    \143\ ``Pingyang, Zhejiang Mobilizes Nearly One Hundred Police To 
Deal With Rural Residents Who Have Lost Their Land'' [Zhejiang pingyang 
chudong jin bai tejing duifu shidi nongmin], Radio Free Asia (Online), 
20 July 09.
    \144\ ``Further on Wen Jiabao Says PRC To Improve `Early-Warning 
System' for Stability,'' Xinhua (Online), 5 March 09 (Open Source 
Center, 5 March 09). In February, the director of the Office of the 
Central Leading Group on Agricultural Affairs discussed three 
``important principles'' in managing ``mass incidents,'' stressing the 
need for leaders to face citizens if a ``mass incident'' occurs. The 
three principles are (1) to put the people first and govern for the 
people; (2) to put local officials at the ``front line'' and confront 
protesters face to face when a mass incident occurs, rather than hiding 
behind the police; and (3) to educate people and assess responsibility 
after an incident calms down. See ``Chen Xiwen: Three Principles To 
Handle Mass Incidents; No Use of Police Force in Principle'' [Chen 
xiwen: chuli tufa qunti shijian you san yuanze, yuanze shang bu shiyong 
jingli], Xinhua (Online), 2 February 09.
    \145\ ``China To Sack Officials Who Mishandle Protests,'' Reuters 
(Online), 13 July 09. According to this article, ``Penalties range from 
a public apology to suspension, forced resignation and dismissal.'' The 
regulations are titled ``Party and Government Administration Cadres 
Temporary Accountability Provisions'' [Guanyu shixing dangzheng lingdao 
ganbu wenze de zhanxing guiding]. See also Chinese Human Rights 
Defenders (Online), ``Party and Government Administration Cadres 
Temporary Accountability Provisions Go Public: Cadres Who 
Inappropriately Handle Sudden Mass Incidents Will Be Held Accountable'' 
[Dangzheng ganbu wenze zhanxing guiding chutai chunti tufa shijian 
chuzhi shidang jiang wenze], 13 July 09.
    \146\ Choi Chi-yuk, ``Courts Told To Create Warning System To Help 
Prevent Protests,'' South China Morning Post (Online), 10 June 09.
    \147\ Ibid.
    Notes to Section IV--Xinjiang
    \1\ See discussion within for detailed information and citations.
    \2\ For background information on this expression, see Kathrin 
Hille, ``China Cracks Down on Activists,'' Financial Times, 12 August 
09 (Open Source Center, 12 August 09) (describing the expression as 
``stability is the overriding priority'').
    \3\ See, e.g., CECC, 2006 Annual Report, 20 September 06, 90-91; 
CECC, 2007 Annual Report, 10 October 07, 106-107; CECC, 2008 Annual 
Report, 31 October 08, 168-169.
    \4\ See, e.g., ``Uyghur Leader's Family Evicted,'' Radio Free Asia 
(Online), 20 August 08; Uyghur American Association (Online), ``Family 
Members of Rebiya Kadeer Ordered Out of Urumchi Homes,'' 19 August 09; 
``Uyghur Leader Kadeer Denies Children Turned Against Her,'' Agence 
France-Presse, reprinted in France 24 (Online), 4 August 09. For 
Chinese reporting on the building demolitions and denunciations, see, 
e.g., ``Rebiya Kadeer Building To Be Demolished Over Security 
Concern,'' Xinhua, 8 September 09; Cui Jia, ``Family Letter to Kadeer 
Genuine,'' China Daily (Online), 5 August 09; ``Family Asks Rebiya 
Kadeer Not To Organize Violence, Undermine Harmony,'' Xinhua (Online), 
3 August 09.
    \5\ Stanley Toops, ``Demographics and Development in Xinjiang After 
1949,'' East-West Center Washington Working Papers No. 1, May 2004, 1. 
See discussion and accompanying footnotes in Section II--Ethnic 
Minority Rights on the use of the term ``ethnic minorities'' and 
government controls over the way people define their ethnic identity.
    \6\ For detailed information, including information on China's 
domestic and international obligations toward ethnic minorities, see 
Section II--Ethnic Minority Rights, as well as the section on ``Ethnic 
Minority Rights'' in CECC, 2007 Annual Report, 10 October 07, 105-108, 
and ``Special Focus for 2005: China's Minorities and Government 
Implementation of the Regional Ethnic Autonomy Law,'' CECC, 2005 Annual 
Report, 11 October 05, 13-23.
    \7\ Ibid.
    \8\ See citations within.
    \9\ ``Nur Bekri's Speech at Autonomous Region Cadre Plenary 
Session'' [Nu'er baikeli zai zizhiqu ganbu dahui shang de jianghua], 
Tianshan Net (Online), 11 September 08, also available in translation 
by the Open Source Center, 29 September 08.
    \10\ Ibid.
    \11\ Ibid.
    \12\ ``Autonomous Region Convenes Cadre Plenary Session on Making 
Concerted Efforts To Safeguard Xinjiang's Social and Political 
Stability'' [Zizhiqu zhaokai ganbu dahui qixinxieli weihu xinjiang 
shehui zhengzhi wending], Tianshan Net (Online), 11 September 08. For 
an additional reference to increased antiseparatism education, see 
``Wang Lequan's Speech at Autonomous Region 5th Commendation Meeting on 
Advancement of Ethnic Unity'' [Wang lequan zai zizhiqu di wu ci minzu 
tuanjie jinbu biaozhang dahui shang de jianghua], Tianshan Net 
(Online), 16 September 08.
    \13\ ``Xinjiang Representatives, While Answering Questions Posed by 
Chinese and Foreign Media Correspondents, Indicate Firm Confidence in 
Responding to the Challenge of Battling To Accelerate Development and 
Safeguard Stability'' [Xinjiang daibiao huida zhong-wai meiti jizhe 
tiwen shi biaoshi jianding xinxin yingdui tiaozhan jiakuai fazhan weihu 
wending], Tianshan Net (Online), 7 March 09; ``Chinese Official Warns 
of `More Severe' Security Situation in Xinjiang,'' Xinhua (Online), 6 
March 09.
    \14\ State Council Information Office (Online), White Paper on 
China's National Defense in 2008, January 2009.
    \15\ See within as well as, e.g., Wang Xinhong, ``Autonomous Region 
Government Calls for Improving All Work To Uphold Stability, 
Development, and People's Livelihood'' [Zizhiqu zhengfu yaoqiu zuohao 
bao wending bao fazhan bao minsheng gexiang gongzuo], Xinjiang Daily, 
reprinted in Xinhua (Online), 21 July 09; ``Hu Holds Key Meeting on 
Xinjiang Riot, Vowing Severe Punishment on Culprits,'' Xinhua (Online), 
9 July 09.
    \16\ CECC, 2008 Annual Report, 31 October 08, 168-169.
    \17\ The government has long claimed the continued existence of 
terrorist and separatist threats through spurious statistics and shoddy 
factual support. For an analysis of Chinese reporting on terrorist 
activity, see ``Uighurs Face Extreme Security Measures; Official 
Statements on Terrorism Conflict,'' CECC China Human Rights and Rule of 
Law Update, May 2006, 12.
    \18\ For an analysis of Chinese reporting on one of the alleged 
terrorist plots and on the aircraft attack, see ``Xinjiang Authorities 
Pledge Crackdown Against `Three Forces,' '' CECC China Human Rights and 
Rule of Law Update, March/April 2008, 2. For more information on two of 
the alleged terrorist plots, see ``Ministry of Public Security 
Circulates Notice on Recently Cracking Two Cases of Plots To Carry Out 
Terrorist Activity'' [Gong'anbu tongbao jinqi pohuo de liangqi cehua 
shishi baoli kongbu huodong anjian], Tianshan Net (Online), 10 March 
08.
    \19\ Cui Jia, ``7 Terror Cells Uncovered in Kashi: Govt,'' China 
Daily, 3 June 09.
    \20\ ``Police Prevent Terrorist Attacks in Xinjiang,'' Xinhua, 3 
August 09 (Open Source Center, 3 August 09).
    \21\ ``Xinjiang Police Capture Terror Gang and Explosives,'' Xinhua 
(Online), 16 September 09.
    \22\ ``Uighurs Face Extreme Security Measures; Official Statements 
on Terrorism Conflict,'' CECC China Human Rights and Rule of Law 
Update, May 2006, 12.
    \23\ See example that follows for information on characterizing 
peaceful human rights activists as terrorists and see Freedom of 
Expression and Assembly within this section for examples of people 
imprisoned on charges of separatism for peaceful forms of expression.
    \24\ De Yongjian, ``Xinjiang Public Security Department Says 
Xinjiang Will Crack Down on Terrorist Activities According to Law,'' 
China News Service, 22 May 09 (Open Source Center, 24 May 09). In 
addition, following the July 5 demonstration in Urumqi and ensuing 
violence in the region, XUAR Party Secretary Wang Lequan was 
paraphrased by official media as saying ``the riot in Urumqi revealed 
the violent and terrorist nature of the separatist World Uyghur 
Congress leader Rebiya Kadeer.'' ``Xinjiang Party Chief Slashes Riot 
Which Kills 140,'' Xinhua (Online), 7 July 09.
    \25\ See individual citations within this paragraph as well as an 
overview of these developments as reported in ``Xinjiang Authorities 
Announce Heightened Security Threat, Strengthen Security Capacity, and 
Continue Propaganda Campaigns,'' CECC China Human Rights and Rule of 
Law Update, No. 3, 2009, 4.
    \26\ ``Xinjiang People's Armed Police Upgrade in Status, Central 
Politburo Members Attend Announcement and Commendation Meeting'' 
[Wujing xinjiang zongdui shengge zhongyang zhengzhiju weiyuan chuxi 
xuanbu mingling dahui], Tianshan Net, reprinted in NetEase (Online), 27 
November 08; ``Xinjiang Armed Police Elevated to Greater Role in 
Fighting Terror,'' Xinhua (Online), 28 November 08.
    \27\ `` `Three Forces' Vainly Attempt To Carry Out New Sabotage 
Activity'' [Xinjiang `san gu shili' wangtu jinxing xin de pohuai 
huodong], Xinjiang Daily (Online), 6 March 09.
    \28\ Zhang Jingyong and Li Xuanliang, ``Zhou Yongkang: Strengthen 
Mass Work in New Period, Safeguard Harmony and Stability on Border 
Areas'' [Zhou yongkang: jiaqiang xin shiqi qunzhong gongzuo weihu 
bianjiang hexie wending], Xinhua (Online), 8 June 09.
    \29\ ``Xinjiang To Speed Up Legislation Against Separatism, 
Regional Top Lawmaker,'' Xinhua (Online), 20 July 07; Tini Tran, 
``After Riots, China To Promote Anti-Separatist Laws,'' Associated 
Press, reprinted in Yahoo! (Online), 20 July 09; ``Xinjiang Plans To 
Draft Two Regulations on Ethnic Unity Education and Anti-Separatism 
Battle'' [Xinjiang ni zhiding minzu tuanjie jiaoyu he fan fenlie 
douzheng liang fagui], People's Daily, reprinted in China Ethnicities 
News (Online), 25 July 09. The Standing Committee of the XUAR People's 
Congress also passed a resolution on cracking down on crime and 
upholding stability. ``Resolution on Sternly Cracking Down on Serious 
Violent Crime According to Law and Firmly Safeguarding Nationality 
Solidarity and Social Stability,'' Xinjiang Daily, 25 July 09 (Open 
Source Center, 16 August 09).
    \30\ See examples that follow as well as other examples cited in 
``Xinjiang Authorities Announce Heightened Security Threat, Strengthen 
Security Capacity, and Continue Propaganda Campaigns,'' CECC China 
Human Rights and Rule of Law Update, No. 3, 2009, 4.
    \31\ Aqsu District Environmental Protection Bureau, ``Aqsu District 
Administrative Office Official Puts Forth Four Points for Grasping 
Social Stability'' [Aqsu diqu xingshu zhuanyuan tichu zhua shehui 
wending si xiang zhongdian], reprinted on the Web site of the Xinjiang 
Environmental Protection Department (Online), 23 February 09.
    \32\ Kashgar District Government (Online), ``Poskam County Moves To 
Build Social Safety Net'' [Zepu xian duo jucuo gouzhu shehui anquan 
wang], 12 March 09.
    \33\ Some reports specifically cite direction from the Xinjiang 
regional government. See, e.g., Qaramay Municipal Government (Online), 
``Municipal Public Security Bureau Launches 100-Day Strike Hard 
Campaign, Gets Incremental Results'' [Shi gonganju kaizhan bairi yanda 
zhuanxiang xingdong qude jieduanxing jieguo], 15 June 09; Tang 
Linjiang, ``Changji Prefecture Public Security Organs Carry Out `100-
Day Strike Hard' Campaign'' [Changji zhou gongan jiguan shishi ``bairi 
yanda zhuanxiang xingdong''], Changji Peace Net (Online), 4 April 09. 
For additional reports on the campaign in the XUAR, see, e.g., Liu 
Qingxia, ``Urumqi Unveils `100-Day Strike Hard' Campaign'' [Wulumuqi 
``bairi yanda'' zhuanxiang xingdong lakai weimu], Urumqi Online 
(Online), 21 April 09; Zhao Jing, ``Yopurgha County Unveils `100-Day 
Strike Hard' Campaign'' [Yuepuhu xian ``bairi yanda'' zhuanxiang 
douzheng lakai weimu], Kashgar News Network (Online), 14 May 09. At the 
nationwide level, the Ministry of Public Security called in late April 
for public security offices across China to launch a six-month campaign 
to ``rectify public order'' in advance of the anniversary of the 
founding of the People's Republic of China. ``Our Country To Launch 
Half-Year Campaign To Rectify Public Order To Welcome 60th Anniversary 
of Country's Founding'' [Wo guo jiang kaizhan bannian zhian zhengzhi 
xingdong yingjie jianguo 60 zhou nian], China News Net, reprinted in 
Sina (Online), 27 April 09.
    \34\ See, e.g., Chen Longbing, ``Our County Opens `100-Day Strike 
Hard' Mobilization Meeting'' [Wo xian zhaokai `bairi yanda' dongyuan 
dahui], Shufu County Public Information Network (Online), 19 May 2009; 
Xinjiang Regional Government (Online), ``Shihezi Public Security Bureau 
Launches `100-Day Strike Hard' Campaign'' [Shihezi shi gonganju kaizhan 
``bairi yanda'' zhuanxiang xingdong], 20 April 09; Zhao Jing, 
``Yopurgha County Unveils `100-Day Strike Hard' Campaign'' [Yuepuhu 
xian ``bairi yanda'' zhuanxiang douzheng lakai weimu], Kashgar News 
Network (Online), 14 May 09; Tang Linjiang, ``Changji Prefecture Public 
Security Organs Carry Out `100-Day Strike Hard' Campaign'' [Changji 
zhou gongan jiguan shishi ``bairi yanda zhuanxiang xingdong''], Changji 
Peace Net (Online), 4 April 09.
    \35\ ``Uyghurs Held in Clampdown,'' Radio Free Asia (Online), 19 
June 09. For more information on controls over religious practice 
implemented as part of security campaigns, see Section II--Freedom of 
Religion--China's Religious Communities--Islam.
    \36\ Wen Linuo, ``Jierla Yishamuding Reports on Situation Regarding 
Dealing With the `July 5' Incident'' [Jierla yishamuding tongbao guanyu 
``7.5'' shijian de chuzhi qingkuang], Xinjiang City News, reprinted in 
China Xinjiang (Online), 7 August 09. See also Wang Xiaojuan and Du 
Jianjia, ``Report on Over 8000 Cadres in Urumchi Launching Upholding 
Stability Work'' [Wulumuqi shi 8000 yu ming ganbu kaizhan weihu wending 
gongzuo jishi], Urumqi Online, reprinted in Xinhua (Online), 13 August 
08; Li Rui, Ren Libo, and Hwang Yen, ``Seen and Heard During Community 
Work by Urumqi `7-5' Upholding Stability Work Force'' [Wulumuqi ``7-5'' 
shijian weiwen gongzuodui shequ gongzuo jianwen], Xinhua (Online), 21 
July 09; Yang Qinglin, ``Urumqi's Anti-Terrorist Stability Maintenance 
Net Established at Grassroots Level,'' Ta Kung Pao, 16 July 09 (Open 
Source Center, 24 August 09). See also discussion that follows on the 
role of stability work teams in spreading Party-sanctioned accounts of 
events on July 5.
    \37\ Gao Ji, ``Urumqi Capital Branch of Anti-Terrorism Stability 
Maintenance People's Militia Emergency Joint Defense Group 
Established'' [Wulumuqi shou zhi fankong weiwen minbing yingji lianfang 
dadui chengli], Xinjiang Metropolitan News, reprinted in Xinhua 
(Online), 11 August 09.
    \38\ `` `Big Hands Lead Small Hands, Walking Forever With the 
Party,' Results of Hoten District's Anti-Separatism Reeducation Are 
Striking'' [``Dashou la xiaoshou yongyuan gen dang zou'' hetian diqu 
fan fenlie douzheng zaijiaoyu xiaoguo xianzhu], Xinjiang Daily 
(Online), 8 February 09.
    \39\ Kashgar District Government (Online), ``Ideological Anti-
Separatism Reeducation Activities Comprehensively Launched in Kashgar 
City'' [Kashi shi yishi xingtai lingyu fan fenlie douzheng zaijiaoyu 
huodong quanmian zhankai], 22 December 08.
    \40\ See generally ``Xinjiang Authorities Announce Heightened 
Security Threat, Strengthen Security Capacity, and Continue Propaganda 
Campaigns,'' CECC China Human Rights and Rule of Law Update, No. 3, 
2009, 4.
    \41\ The letter also denounced the World Uyghur Congress and 
``Tibet Independence.'' For more information on this women's federation 
campaign and examples of other rhetoric against human rights activity, 
see ``Xinjiang Authorities Announce Heightened Security Threat, 
Strengthen Security Capacity, and Continue Propaganda Campaigns,'' CECC 
China Human Rights and Rule of Law Update, No. 3, 2009, 4, citing 
Qizilsu Prefecture Anti-Separatism Office, ``Qizilsu Prefecture Women's 
Association's `Letter to Women of the Prefecture' Boosts Anti-
Separatism Propaganda and Education Activities'' [Ke zhou fulian ``zhi 
quan zhou funu yifeng xin'' zhutui fan fenlie xuanchuan jiaoyu 
huodong], reprinted in Xinjiang Peace Net (Online), 19 December 08.
    \42\ ``Senior Chinese Leader Calls for `Tough Measures' To Ensure 
Stability,'' Xinhua (Online), 10 July 09. See also, e.g., Cheng Lixin 
and Wang Xinhong, ``Wang Lequan Emphasizes at Regional Cadre Gathering: 
Go All-Out To Fight Well This Tough Battle To Maintain Stability,'' 
Xinjiang Daily, 16 July 09 (Open Source Center, 7 August 09); Feng Jin, 
``In His Report on Handling the `5 July' Incident, Nur Bekri Calls for 
Going All Out To Safeguard the Motherland's Unification, Ethnic 
Solidarity and Social Stability,'' Xinjiang Daily, 25 July 09 (Open 
Source Center, 17 August 09).
    \43\ ``Xinjiang Plans To Draft Two Regulations on Ethnic Unity 
Education and Anti-Separatism Battle'' [Xinjiang ni zhiding minzu 
tuanjie jiaoyu he fan fenlie douzheng liang fagui], People's Daily, 
reprinted in China Ethnicities News (Online), 25 July 09.
    \44\ Li Rui, Ren Libo, and Hwang Yen, ``Seen and Heard During 
Community Work by Urumqi `7-5' Upholding Stability Work Force'' 
[Wulumuqi ``7-5'' shijian weiwen gongzuodui shequ gongzuo jianwen], 
Xinhua (Online), 21 July 09.
    \45\ Authorities used ``face-to-face'' talks to convey the 
``truth'' of events on July 5, according to the Ili Party secretary. He 
Zhanjun, ``Face-to-Face Exchange, Heart-to-Heart Communication--College 
Students Returning to Ili, Xinjiang, Enter the Home and Explain Truth 
of `7-5' Incident'' [Mianduimian jiaoliu xinyuxin xiangtong--xinjiang 
yili fanxiang daxuesheng ruhu xuanjiang `7-5' shijian zhenxiang], 
Xinhua, 22 July 09 (Open Source Center, 22 July 09).
    \46\ ``Erkinjan Turaxun Calls for Our Region's Education System To 
Carry Out in Deep-Going Way Work on Opposing Separatism and 
Infiltration'' [Erkenjiang tulahong yaoqiu wo qu jiaoyu xitong shenru 
kaizhan fan fenlie fan shentou gongzuo], Xinjiang Daily (Online), 8 
October 08. In addition, at a March 2008 training session for school 
principals and Party secretaries, XUAR Party Secretary Wang Lequan 
called on personnel to strengthen their ``sense of political 
responsibility'' and take steps to spread information on Chinese 
socialism to counter threats of ``infiltration'' from the ``three 
forces'' of terrorism, separatism, and religious extremism. ``At Our 
Region's Third Term of Study for Secondary School Secretaries and 
Principals, Wang Lequan Stresses Strengthening Sense of Political 
Responsibility, Raising Quality and Levels for Running Schools'' [Wang 
lequan zai wo qu di san qi zhongxue shuji xiaozhang peixun ban shang 
qiangdiao zengqiang zhengzhi zerengan tigao banxue zhiliang he 
shuiping], Xinjiang Daily (Online), 1 April 09.
    \47\ See detailed information in ``Xinjiang Authorities Continue 
Security Measures, Propaganda Campaigns,'' CECC China Human Rights and 
Rule of Law Update, December 2008, 2, and ``Xinjiang Authorities 
Announce Heightened Security Threat, Strengthen Security Capacity, and 
Continue Propaganda Campaigns,'' CECC China Human Rights and Rule of 
Law Update, No. 3, 2009, 4.
    \48\ For a comparison of the scope of propaganda education in XUAR 
schools and in schools nationwide in China, as stipulated in a trial 
program announced in November 2008 that directs schools throughout the 
country to implement ``ethnic unity education,'' see ``Xinjiang 
Authorities Announce Heightened Security Threat, Strengthen Security 
Capacity, and Continue Propaganda Campaigns,'' CECC China Human Rights 
and Rule of Law Update, No. 3, 2009, 4; ``Xinjiang Authorities Continue 
Security Measures, Propaganda Campaigns,'' CECC China Human Rights and 
Rule of Law Update, December 2008, 2; ``Chinese Government Mandates 
`Ethnic Unity Education' To Promote Party Policy on Ethnic Groups,'' 
CECC China Human Rights and Rule of Law Update, No. 1, 2009, 3. For 
more information on central government measures to strengthen education 
on ethnic issues in Chinese schools, as well as broader efforts to 
promote government policy toward ethnic issues, see also Section II--
Ethnic Minority Rights.
    \49\ ``Autonomous Region To Strengthen and Drive Ahead With Ethnic 
Unity Education and Anti-Separatism Education Among Young Adults and 
Juveniles'' [Zizhiqu jiang jiaqiang he tuijin qingshaonian minzu 
tuanjie he fan fenlie jiaoyu], Xinjiang Daily (Online), 25 May 09.
    \50\ Uyghur American Association (Online), ``Protest in Urumqi 
Violently Suppressed by Chinese Government Forces,'' 5 July 09.
    \51\ Li Xing, ``Nur Bekri Emphasizes: Use Strong Measures To Ensure 
Safety and Stability of Colleges and Universities'' [Nu'er baikeli 
qiangdiao: yi qiangyouli cuoshi quebao gaoxiao anquan wending], 
Xinjiang Daily, reprinted in Xinhua (Online), 7 July 09.
    \52\ Zhang Xinyu, ``Erkinjan Turaxun Stresses: Safeguard Stability 
in Schools, Strengthen Ethnic Unity'' [Erkenjiang tulahong qiangdiao: 
weihu xuexiao wending jiaqiang minzu tuanjie], Xinjiang Daily, 
reprinted in Xinhua (Online), 25 July 09.
    \53\ He Zhanjun, ``Face-to-Face Exchange, Heart-to-Heart 
Communication--College Students Returning to Ili, Xinjiang, Enter the 
Home and Explain Truth of `7-5' Incident'' [Mianduimian jiaoliu 
xinyuxin xiangtong--xinjiang yili fanxiang daxuesheng ruhu xuanjiang 
`7-5' shijian zhenxiang], Xinhua, 22 July 09 (Open Source Center, 22 
July 09).
    \54\ The information in this box provides an overview of events in 
the XUAR starting July 5 and is largely based on previously published 
Commission analyses of the demonstration. For detailed information, see 
``Xinjiang Authorities Forcefully Suppress Demonstration, Restrict Free 
Flow of Information,'' CECC China Human Rights and Rule of Law Update, 
No. 4, 2009, 2 and ``Authorities Pledge Crackdown Following Xinjiang 
Demonstration and Clashes,'' CECC China Human Rights and Rule of Law 
Update, No. 4, 2009, 1.
    \55\ Information on the timing of events, including information in 
Chinese reports suggesting a lag time between when people gathered and 
when ``rioting'' began, supports overseas reports that people initially 
gathered and began to protest peacefully. See, e.g., ``Peaceful 
Demonstration Meets Suppression'' [Tinch shekildiki namayish 
basturushqa uchrighan], Radio Free Asia (Online), 5 July 09; ``Urumqi 
Tense, Quiet After Violence,'' Radio Free Asia (Online), 5 July 09; 
Uyghur American Association (Online), ``Protest in Urumqi Violently 
Suppressed by Chinese Government Forces,'' 5 July 09; ``Recalling the 
Nightmare: Witnesses' Account of Xinjiang Riot,'' Xinhua (Online), 6 
July 09; ``Victims in Toy Plant Brawl Condemn Xinjiang Riots,'' Xinhua 
(Online), 7 July 09. See also analysis in ``Xinjiang Authorities 
Forcefully Suppress Demonstration, Restrict Free Flow of Information,'' 
CECC China Human Rights and Rule of Law Update, No. 4, 2009, 2. 
Different reports have used different systems for telling time in the 
region. Although the Chinese government uses one time zone throughout 
China, some reports on events in July 5 refer to local ``Urumqi'' time, 
an unofficial time standard that is two hours behind Beijing time. For 
a report using Urumqi time, see, e.g., ``Peaceful Demonstration Meets 
Suppression'' [Tinch shekildiki namayish basturushqa uchrighan], Radio 
Free Asia (Online), 5 July 09. A limited number of Chinese sources 
refer to a demonstration on July 5, in addition to ``rioting.'' (See 
discussion within this subsection.)
    \56\ Uyghur American Association (Online), ``Protest in Urumqi 
Violently Suppressed by Chinese Government Forces,'' 5 July 09.
    \57\ ``Peaceful Demonstration Meets Suppression'' [Tinch shekildiki 
namayish basturushqa uchrighan], Radio Free Asia (Online), 5 July 09; 
``Over 20,000 Police Sent To Quell Xinjiang Unrest,'' Xinhua (Online), 
7 July 09; Edward Wong, ``Riots in Western China Amid Ethnic Tension,'' 
New York Times (Online), 6 July 09.
    \58\ ``Demonstration Took Place in Urumqi, Turned Into Clash'' 
[Urumchide namyish [sic] yuz berdi, namayish toqunushqa aylandi], Radio 
Free Asia, 5 July 09. See discussion within this subsection for 
official acknowledgement of the use of firearms on July 5.
    \59\ See, e.g., Edward Wong, ``Riots in Western China Amid Ethnic 
Tension,'' New York Times (Online), 6 July 09; Tyra Dempster and Mark 
Chisholm, ``China Says 140 Dead in Xinjiang Riot, Blames Separatists,'' 
Reuters, reprinted in Yahoo! (Online), 6 July 09; William Foreman, 
``Armed Mobs Spread Ethnic Strife in China's West,'' Associated Press, 
reprinted in Time (Online), 7 July 09. See also ``Witnesses Describe 
Two-Way Violence,'' Radio Free Asia (Online), 17 July 09.
    \60\ See, e.g., William Foreman, ``Armed Mobs Spread Ethnic Strife 
in China's West,'' Associated Press, reprinted in Time (Online), 7 July 
09; ``Fresh Chaos Erupts in Urumqi,'' Xinhua (Online), 7 July 09.
    \61\ William Foreman, ``Armed Mobs Spread Ethnic Strife in China's 
West,'' Associated Press, reprinted in Time (Online), 7 July 09; 
``Armed Mobs Throng Urumqi,'' Radio Free Asia (Online), 7 July 09; 
Edward Wong, ``Fuse of Fear, Lit in China, Has Victims on 2 Sides,'' 
New York Times (Online), 12 July 09; Peh Shing Huei, ``Brutality 
Reigns,'' Straits Times (Online), 9 July 09; ``Riots Engulf Chinese 
Uighur City,'' BBC (Online), 7 July 09.
    \62\ See analysis in ``Authorities Pledge Crackdown Following 
Xinjiang Demonstration and Clashes,'' CECC China Human Rights and Rule 
of Law Update, No. 4, 2009, 1.
    \63\ In one English-language Xinhua report in mid-July, XUAR 
government chairperson Nur Bekri was reported to ``[admit] that they 
had never expected a student parade could turn into such ferocious 
violence,'' a seemingly rare official description of events on that day 
to include mention of a ``parade'' or demonstration. ``Official Says 12 
Mobsters in Riot Shot Dead, Xinjiang Confident of Revival,'' Xinhua, 
reprinted in People's Daily (Online), 19 July 09. In a Chinese-language 
Xinhua report, Nur Bekri made reference to people who ``took part in 
the demonstrations but did not take part in beating, smashing, looting, 
and burning.'' ``Nur Bekri: Criminal Elements Involved in `5 July' 
Violent Incident Should Be Captured and Brought to Justice by 
Punishment According to Law as Early as Possible'' [Nu'er baikeli: yao 
jinzao jiang ``7-5'' baoli shijian fanzui fenzi zhuona gui'an yifa 
chengzhi], Xinhua, reprinted in Ta Kung Pao (Online), 24 July 09. 
Information from Xinjiang Medical University, reported in Xinhua, 
acknowledged that a call was circulating on the Internet for ethnic 
minority students to gather and ``demonstrate'' at 8 p.m. on July 5. 
The report did not describe the announcement as a call to ``riot.'' 
``Students and Teachers at Xinjiang Medical University Successfully 
Protect Campus During `July 5' Incident'' [Xinjiang yike daxue shisheng 
zai `7.5' shijian zhong chenggong shouhu xiaoyuan], Xinhua (Online), 12 
July 09. Many early and subsequent Chinese reports have referred to 
incidents on July 5 simply as a ``riot'' or incident of ``beating, 
smashing, looting, and burning,'' and have not reported that a 
demonstration took place. See, e.g., sources cited in ``Xinjiang 
Authorities Forcefully Suppress Demonstration, Restrict Free Flow of 
Information,'' CECC China Human Rights and Rule of Law Update, No. 4, 
2009, 2, and ``Authorities Pledge Crackdown Following Xinjiang 
Demonstration and Clashes,'' CECC China Human Rights and Rule of Law 
Update, No. 4, 2009, 1.
    \64\ See analysis in ``Authorities Pledge Crackdown Following 
Xinjiang Demonstration and Clashes,'' CECC China Human Rights and Rule 
of Law Update, No. 4, 2009, 1.
    \65\ See, e.g., ``Xinjiang Party Chief Slashes Riot Which Kills 
140,'' Xinhua (Online), 7 July 09; Ministry of Foreign Affairs 
(Online), ``Foreign Ministry Spokesperson Qin Gang's Regular Press 
Conference on July 14, 2009,'' 14 July 09.
    \66\ ``Xinjiang Party Chief Slashes Riot Which Kills 140,'' Xinhua 
(Online), 7 July 09; ``Police Have Evidence of World Uyghur Congress 
Masterminding Xinjiang Riot,'' Xinhua (Online), 7 July 09.
    \67\ See ``Police Have Evidence of World Uyghur Congress 
Masterminding Xinjiang Riot,'' Xinhua (Online), 7 July 09; Uyghur 
American Association (Online), ``Statement of Rebiya Kadeer at July 6 
Press Conference on Unrest in Urumqi,'' 6 July 09. At the press 
conference on July 6, Rebiya Kadeer stated, ``I did not organize the 
protests or call on people to demonstrate. My only contact with any 
Uyghur inside East Turkestan in recent days was a call I placed to my 
brother in Urumchi on Saturday evening Washington time, in which I told 
my brother that my daughters had seen announcements being circulated 
widely on the Internet regarding plans to demonstrate in Urumchi on 
Sunday. I urged my brother to stay at home that day, and to ask my 
other family members to stay at home as well, fearing that they may be 
subject to violence at the hands of the authorities if they ventured 
outside. In no way did I call on anyone, at any time, to demonstrate 
within East Turkestan.''
    \68\ Edward Wong, ``China Locks Down Restive Region After Deadly 
Clashes,'' New York Times (Online), 6 July 09; ``Death Toll in Xinjiang 
Riot Rises to 156,'' Xinhua (Online), 7 July 09; Uyghur American 
Association (Online), ``Statement of Rebiya Kadeer at July 6 Press 
Conference on Unrest in Urumqi,'' 6 July 09; ``Uyghur Area Being 
Administered Across the Board by Martial Law'' [Uyghur elide omumyuzluk 
herbiy halet yurguzulmekte], Radio Free Asia (Online), 6 July 09.
    \69\ Edward Wong, ``China Locks Down Restive Region After Deadly 
Clashes,'' New York Times (Online), 6 July 09; ``Protestors Surround 
Foreign Reporters in Xinjiang, Official,'' Xinhua (Online), 7 July 09.
    \70\ See generally ``Xinjiang Authorities Forcefully Suppress 
Demonstration, Restrict Free Flow of Information,'' CECC China Human 
Rights and Rule of Law Update, No. 4, 2009, 2, and ``Authorities Pledge 
Crackdown Following Xinjiang Demonstration and Clashes,'' CECC China 
Human Rights and Rule of Law Update, No. 4, 2009, 1, as well as 
citations that follow.
    \71\ ``Over 20,000 Police Sent To Quell Xinjiang Unrest,'' Xinhua 
(Online), 7 July 09. For additional reporting on troop presence, see 
``31 Cities' Police Units Deployed to Xinjiang After Riot,'' China 
Daily (Online), 18 August 09.
    \72\ ``Over 20,000 Police Sent To Quell Xinjiang Unrest,'' Xinhua 
(Online), 7 July 09.
    \73\ ``Official Says 12 Mobsters in Riot Shot Dead, Xinjiang 
Confident of Revival,'' Xinhua, reprinted in People's Daily (Online), 
19 July 09.
    \74\ See, e.g., Urumqi City People's Government, ``Urumqi City 
Government Urgent Notice on Safeguarding Normal Social Order'' 
[Wulumuqi shi renmin zhengfu guanyu weihu shehui zhengchang zhixu de 
jinji tonggao], reprinted in Xinhua (Online), 6 July 09; ``Traffic 
Blockade Remains in Some Streets of NW Chinese City,'' Xinhua (Online), 
7 July 09; ``Tight Security in Xinjiang,'' Radio Free Asia (Online), 6 
July 09; ``Detentions Continue in Urumqi'' [Urumchi shehiride tutqun 
qilish dawamlashmaqta], Radio Free Asia (Online), 6 July 09; ``Uyghur 
Area Being Administered Across the Board by Martial Law'' [Uyghur elide 
omumyuzluk herbiy halet yurguzulmekte], Radio Free Asia (Online), 6 
July 09; ``Urumqi Citizens Ordered To Carry ID Documents for Police 
Inspection,'' Xinhua (Online), 13 July 09; ``Clampdown on Uyghur 
Cities,'' Radio Free Asia (Online), 9 July 09; ``Urumqi Police Ban 
Illegal Assembly,'' Xinhua (Online), 11 July 09; Kathrin Hille, 
``Xinjiang Widens Crackdown on Uighurs,'' Financial Times (Online), 19 
July 09.
    \75\ See, e.g., Guo Likun and Li Huizi, ``Hu Holds Key Meeting on 
Xinjiang Riot, Vowing Severe Punishment on Culprits,'' Xinhua (Online), 
9 July 09; ``Senior Chinese Leader Calls for `Tough Measures' To Ensure 
Stability,'' Xinhua (Online), 10 July 09. See also ``Authorities Pledge 
Crackdown Following Xinjiang Demonstration and Clashes,'' CECC China 
Human Rights and Rule of Law Update, No. 4, 2009, 1.
    \76\ See analysis in ``Xinjiang Authorities Continue Detentions, 
Announce Arrests Connected to July 5 Incident,'' Congressional-
Executive Commission on China (Online), 14 September 09.
    \77\ ``Xinjiang Authorities Continue Detentions, Announce Arrests 
Connected to July 5 Incident,'' Congressional-Executive Commission on 
China (Online), 14 September 09.
    \78\ See, e.g., Andrew Jacobs, ``Countering Riots, China Rounds Up 
Hundreds,'' New York Times (Online), 19 July 09; David Eimer, ``As 
China Reels From 184 Deaths in Urumqi Riots, a Beaten Woman Fears for 
Her Husband,'' Telegraph (Online), 11 July 09; ``Tight Security in 
Xinjiang,'' Radio Free Asia (Online), 6 July 09; Kathrin Hille, 
``Xinjiang Widens Crackdown on Uighurs,'' Financial Times (Online), 19 
July 09.
    \79\ ``Nur Bekri: Criminal Elements Involved in `5 July' Violent 
Incident Should Be Captured and Brought to Justice by Punishment 
According to Law as Early as Possible'' [Nu'er baikeli: yao jinzao 
jiang ``7-5'' baoli shijian fanzui fenzi zhuona gui'an yifa chengzhi], 
Xinhua, reprinted in Ta Kung Pao (Online), 24 July 09.
    \80\ Guo Likun and Li Huizi, ``Hu Holds Key Meeting on Xinjiang 
Riot, Vowing Severe Punishment on Culprits,'' Xinhua (Online), 9 July 
09. See also ``Xinjiang Authorities Continue Detentions, Announce 
Arrests Connected to July 5 Incident,'' Congressional-Executive 
Commission on China (Online), 14 September 09.
    \81\ Wu Yadong, `` `July 5 Incident' Allegedly Involved Over 20 
Crimes in 5 Categories, Instigators To Be Severely Punished'' [She 5 
lei fanzui 20 duo xiang zuiming ``7-5'' shijian zhaoshizhe jiang shou 
yancheng], Legal Daily (Online), 18 July 09; ``Arrests Authorized for 
First Group of 83 Suspects in Urumqi `July 5' Incident'' [Wulumuqi 7-5 
shijian shoupi 83 ming fanzui xianyiren bei pibu], Xinhua (Online), 4 
August 09.
    \82\ See, e.g., ``Xinjiang Authorities Forcefully Suppress 
Demonstration, Restrict Free Flow of Information,'' CECC China Human 
Rights and Rule of Law Update, No. 4, 2009, 2. In addition to 
pinpointing acts of violence specifically to July 5 and official media 
reporting events on July 7 as a ``protest,'' Wu Shimin, Vice Chairman 
of the State Ethnic Affairs Commission, appeared to minimize Han acts 
of violence when he appeared to describe acts of violence committed by 
Han by stating simply, ``[S]ome people in Urumqi, out of indignation of 
the crimes committed by rioters, or sorrow for the loss of their 
families, did take to the streets.'' Ian Johnson, ``Beijing's Ethnic 
Policy Faces Data Challenge,'' Wall Street Journal (Online), 22 July 
09.
    \83\ See, e.g., Liu Qingxia, Wang Lei, and Chen Yan, ``Urumchi 
Police Capture 190 Criminal Suspects'' [Wulumuqi shi jingfang zhuahuo 
190 ming fanzui xianyi ren], Urumqi Online, reprinted in Xinhua 
(Online), 10 July 09; ``Mobs in Deadly Xinjiang Violence Subject to 
Severe Punishment: Official,'' Xinhua (Online), 7 July 09; ``Traffic 
Blockade Remains in Some Streets of NW Chinese City,'' Xinhua (Online), 
7 July 09; ``Xinjiang Police Confirm Over 100 Suspects'' [Xinjiang 
jingfang queren 100 duo ming fanzui xianyi ren], CCTV, reprinted in 
Chongqing News Net (Online), 10 July 09. See also analysis in 
``Authorities Pledge Crackdown Following Xinjiang Demonstration and 
Clashes,'' CECC China Human Rights and Rule of Law Update, No. 4, 2009, 
1.
    \84\ Edward Wong, ``China Warns of Executions as Riots Ebb,'' New 
York Times (Online), 8 July 09.
    \85\ Edward Wong, ``China Locks Down Restive Region After Deadly 
Clashes,'' New York Times (Online), 6 July 09; William Foreman and 
Gillian Wong, ``Uyghur Women Lead Protests in Restive West China,'' 
Associated Press, reprinted in Google (Online), 10 July 09; John 
Garnaut, `` `Release Our Husbands, Free Our Sons,' '' The Age (Online), 
8 July 09.
    \86\ PRC Criminal Procedure Law, enacted 1 July 79, effective 1 
January 80, amended 17 March 96, effective 1 January 97, arts. 64(2), 
71(2).
    \87\ The Beijing Municipal Judicial Bureau issued a notice on July 
8 calling on justice bureaus, the municipal lawyers association, and 
law offices in Beijing to ``exercise caution'' in representing cases 
related to events in the XUAR. The notice specified that before 
accepting cases, partners in law offices should look into the issue, 
``report the matter,'' and ``take initiative to accept supervision and 
direction from judicial organs and the lawyers association.'' Sources 
in China reported to Amnesty International that authorities warned some 
law firms employing human rights lawyers that the lawyers were not to 
work on cases related to events in the XUAR. The Xinjiang Lawyers 
Association is also reported to have ordered lawyers not to take cases 
on their own initiative and instead let authorities ``arrange'' all 
defense efforts. Beijing Judicial Bureau Lawyer Work Management 
Division (Online), ``Beijing Judicial Bureau Lawyer Work Management 
Division's Urgent Notice Regarding Requiring All Lawyers in the City To 
Be Cautious in Offering Legal Services in the Urumqi `July 5' Beating, 
Smashing, Looting, and Burning Serious Violent Criminal Incident'' 
[Beijing shi sifaju lushi gongzuo guanlichu guanyu yaoqiu quanshi lushi 
shenzhong wei wulumuqi shi `7.5' da za qiang shao yanzhong baoli fanzui 
shijian tigong falu fuwu de jinji tongzhi], 8 July 09; Amnesty 
International (Online), ``China: Authorities Widen Crackdown After 
Xinjiang Riots,'' 10 July 09. See also ``Xinjiang Lawyers Told That 
Authorities Will Make All Legal Arrangements in Relation to July 5 
Incident'' [Xinjiang lushi zhi 7.5 shijian xiangguan susong you 
guanfang tongyi anpai], Radio Free Asia (Online), 14 July 09; China 
Human Rights Lawyers Concern Group (Online), ``Concern Over Mainland 
Lawyers' Freedom To Legal Practice [sic] on Urumqi Protest Cases,'' 15 
July 09.
    \88\ ``Defense Attorneys Free for Riot Suspects,'' Global Times 
(Online), 24 July 09.
    \89\ Ibid.
    \90\ Mao Yong and Zhou Shengbin, ``Suspects, Defendants in Urumqi 
`7-5' Incident Can Get Legal Aid,'' Xinhua (Online), 5 August 09.
    \91\ ``Death Toll Increases to 192 in Urumqi `7-5' Incident'' 
[Wulumuqi ``7-5'' shijian siwang renshu zeng dao 192 ren], Xinhua, 
reprinted in Sina (Online), 15 July 09.
    \92\ According to figures released by the Chinese government on 
July 10--reporting 184 dead as of that date--137 of the dead were Han, 
46 were Uyghur, and 1 was Hui. Ariana Eunjung Cha, ``Death Toll Debated 
in China's Rioting,'' Washington Post (Online), 11 July 09; Edward 
Wong, ``China Raises Death Toll in Ethnic Clashes to 184,'' New York 
Times (Online), 11 July 09; Edward Wong, ``China Says Its Forces Killed 
12 in Xinjiang,'' New York Times (Online), 20 July 09.
    \93\ ``One Month After 7-5 Incident, Urumqi Spares No Effort in 
Breaking Up the Haze'' [7-5 shijian hou yi yue wulumuqi fenli qusan 
yinmai], Xinhua (Online), 5 August 09.
    \94\ ``Clampdown on Uyghur Cities,'' Radio Free Asia (Online), 9 
July 09; Peh Shing Huei, ``Brutality Reigns,'' Straits Times (Online), 
9 July 09; Edward Wong, ``Fuse of Fear, Lit in China, Has Victims on 2 
Sides,'' New York Times (Online), 12 July 09.
    \95\ ``Official: Internet Cut in Xinjiang To Prevent Riot From 
Spreading,'' Xinhua (Online), 7 July 09. Authorities also appeared to 
block nationwide access to the social networking site Twitter and video 
sharing site YouTube, cut off mobile phone access, remove comments 
about the protests from Web sites, and filter Internet searches for 
information. D'Arcy Doran, ``Savvy Internet Users Defy China's Censors 
on Riot,'' Agence France-Presse, reprinted in Google (Online), 6 July 
09; Owen Fletcher and Dan Nystedt, ``Internet, Twitter Blocked in China 
City After Ethnic Riot,'' IDG News Service, reprinted in PCWorld 
(Online), 6 July 09; Ben Blanchard, ``China Tightens Web Screws After 
Xinjiang Riot,'' Reuters, reprinted in Yahoo! (Online), 6 July 09; 
Chris Hogg, ``Incomplete Picture of Xinjiang Unrest,'' BBC (Online), 6 
July 09; Dan Martin, ``China Says Web Access Cut Off Due to Riots,'' 
Agence France-Presse, reprinted in Inquirer (Online), 7 July 09.
    \96\ ``Defense Attorneys Free for Riot Suspects,'' Global Times 
(Online), 24 July 09. Earlier, XUAR government chairperson Nur Bekri 
announced that the government would soon gradually remove controls over 
the Internet. ``Xinjiang Uyghur Autonomous Regional Government Chairman 
Says It `Will Not Be Long' Before the Government Lifts the Internet 
Control,'' Xinhua, 18 July 09 (Open Source Center, 19 July 09).
    \97\ Based on Commission monitoring.
    \98\ See, e.g., ``FM Spokesman: Violence in Urumqi Not a Peaceful 
Protest,'' Xinhua (Online), 7 July 09; ``Journalists From More Than 60 
Overseas Media Come to Urumqi After Riot,'' Xinhua (Online), 7 July 09; 
Michael Wines, ``In Latest Upheaval, China Applies New Strategies To 
Control Flow of Information,'' New York Times (Online), 7 July 09; 
Gillian Wong, ``Tense Western China Looks for Answers After Week of 
Chaos,'' Associated Press, reprinted in Maclean's (Online), 11 July 09; 
``Reporter From Japan Released After Detention in China's Urumqi,'' 
Kyodo, reprinted in Japan Today (Online), 11 July 09; ``Radio Free Asia 
Journalist Held in Urumqi Back in Hong Kong,'' Hong Kong RTHK Radio 3 
Online, 12 July 09 (Open Source Center, 12 July 09); Committee to 
Protect Journalists (Online), ``Xinjiang Reporters Detained; Beijing 
Commentator Missing,'' 13 July 09; ``Foreign Reporters Ordered Out,'' 
Agence France-Presse, reprinted in Straits Times (Online), 10 July 09.
    \99\ Chinese media initially reported that a ``mass brawl'' broke 
out after a factory worker upset over not being rehired for a job 
posted what Xinhua described as a fake rumor on the Internet claiming 
six men from the XUAR had raped two women at the factory. XUAR 
government chairperson Nur Bekri later was paraphrased in a Xinhua 
report as saying the fight was ``triggered by the sexual assault of a 
female Han worker by a Uygur coworker.'' A report that followed Nur 
Bekri's comments attributed it to an ``unintentional scream'' by a Han 
woman who said she felt scared when a group of Uyghur men she 
encountered ``were unfriendly.'' A Uyghur factory worker who was an 
eyewitness to the event reported that Han factory workers instigated 
the attack when they entered a dormitory for Uyghur workers. 
``Rumormonger Held Over Guangdong Toy Factory Brawl,'' Xinhua (Online), 
29 June 09; ``Civilians and Armed Police Officer Killed in NW China 
Violence,'' Xinhua (Online), 6 July 09; ``Armed Assailants Stormed 
Dorms,'' Radio Free Asia (Online), 5 July 09. Zhou Yan, Wang Pan, and 
Pan Ying, `` `Unintentional Scream' Triggered Xinjiang Riot,'' Xinhua 
(Online), 8 July 09.
    \100\ ``Armed Assailants Stormed Dorms,'' Radio Free Asia (Online), 
5 July 09; Kathleen E. McLaughlin, ``Fear Grips Shaoguan's Uighurs,'' 
Far Eastern Economic Review (Online), 17 July 09.
    \101\ ``Rumormonger Held Over Guangdong Toy Factory Brawl,'' Xinhua 
(Online), 29 June 09.
    \102\ Uyghur American Association (Online), ``UAA Condemns Killing 
of Uyghur Workers at Guangdong Factory,'' 29 June 09; World Uyghur 
Congress (Online), ``WUC Calls All Uyghur Organizations Around the 
World To Organize Protests in Front of the Chinese Embassies,'' 1 July 
09.
    \103\ ``15 Suspects Detained Over Factory Fight That Triggered 
Xinjiang Violence,'' Xinhua (Online), 7 July 09. In addition, in 
August, authorities reported detaining Kurban Khayum, ``who allegedly 
spread rumors used to trigger the Urumqi riots on July 5,'' after he 
allegedly fabricated the death toll in Shaoguan and gave the 
information to the World Uyghur Congress (WUC). ``Rumormonger of Urumqi 
Riots Arrested,'' China Daily (Online), 6 August 09. `` `World Uyghur 
Congress' Informer Inside China Admits Starting Rumor'' [``Shi wei 
hui'' jingnei xinxiyuan chengren zaoyao], Beijing Times, reprinted in 
People's Daily (Online), 6 August 09. The WUC and other people 
allegedly involved rejected the Chinese account of events. East 
Turkistan Information Center (Online), ``China Is Trying Hard To 
Tarnish the Media Credibility of Uyghur News Sources,'' 20 August 09.
    \104\ Liang Qiwen, ``Rape Rumor Led to Brawl, 2 Killed,'' China 
Daily (Online), 30 June 09.
    \105\ For general information on the demonstrations, see, e.g., 
``China Seeks To Quell Unrest in Far-West City,'' Reuters, reprinted in 
New York Times (Online), 3 September 09; Christopher Bodeen, ``China 
Blames Muslim Separatists for Needle Attacks,'' Associated Press, 
reprinted in Yahoo! (Online), 4 September 09; ``Urumqi Protesters 
Confront Police Over Syringe Attacks,'' Xinhua (Online), 4 September 
09; ``Situation Basically Under Control in Urumqi: Deputy Mayor,'' 
Xinhua (Online), 4 September 09; ``Protesters Jostle Cops in Urumqi,'' 
Xinhua, reprinted in China Daily (Online), 5 September 09; Royston 
Chan, ``China Threatens Punishment for Rumour-Mongering,'' Reuters 
(Online), 7 September 09.
    \106\ ``China Seeks To Quell Unrest in Far-West City,'' Reuters, 
reprinted in New York Times (Online), 3 September 09; ``Situation 
Basically Under Control in Urumqi: Deputy Mayor,'' Xinhua (Online), 4 
September 09.
    \107\ For information on the demonstrations, see, e.g., ``China 
Seeks To Quell Unrest in Far-West City,'' Reuters, reprinted in New 
York Times (Online), 3 September 09; Christopher Bodeen, ``China Blames 
Muslim Separatists for Needle Attacks,'' Associated Press, reprinted in 
Yahoo! (Online), 4 September 09; ``Urumqi Protesters Confront Police 
Over Syringe Attacks,'' Xinhua (Online), 4 September 09; ``Situation 
Basically Under Control in Urumqi: Deputy Mayor,'' Xinhua (Online), 4 
September 09; ``Protesters Jostle Cops in Urumqi,'' Xinhua, reprinted 
in China Daily (Online), 5 September 09; Royston Chan, ``China 
Threatens Punishment for Rumour-Mongering,'' Reuters (Online), 7 
September 09.
    \108\ ``Urumqi Issues Circular on 3 September That Aims at Ensuring 
Sustained Normal Social Order in the City,'' China News Service, 4 
September 09 (Open Source Center, 3 September 09).
    \109\ ``Situation Basically Under Control in Urumqi: Deputy 
Mayor,'' Xinhua (Online), 4 September 09.
    \110\ ``China Seeks To Quell Unrest in Far-West City,'' Reuters, 
reprinted in New York Times (Online), 3 September 09; Christopher 
Bodeen, ``China Blames Muslim Separatists for Needle Attacks,'' 
Associated Press, reprinted in Yahoo! (Online), 4 September 09.
    \111\ ``Tests Find No Infections in Xinjiang Needle Attack 
Victims,'' Xinhua (Online), 13 September 09.
    \112\ See, e.g., ``3 Sentenced Over Needle Attacks in Urumqi,'' 
Xinhua, reprinted in China Daily (Online), 13 July 09; ``Four Sentenced 
Over Syringe Attack in Urumqi,'' Xinhua (Online), 17 September 09; Cui 
Jia and Lei Xiaoxun, ``Seven Syringe Attack Groups Arrested,'' China 
Daily (Online), 16 September 09.
    \113\ ``Minister of Public Security Meng Jianzhu Goes to Urumqi To 
Guide Work To Uphold Stability'' [Gongan buzhang meng jianzhu fu 
wulumuqi zhidao weihu wending gongzuo], Xinhua, reprinted in Xinjiang 
News Net (Online), 7 September 09.
    \114\ ``Protesters Jostle Cops in Urumqi,'' Xinhua, reprinted in 
China Daily (Online), 5 September 09.
    \115\ ``Situation Basically Under Control in Urumqi: Deputy 
Mayor,'' Xinhua (Online), 4 September 09.
    \116\ See, e.g., the cases of Nurmemet Yasin, Toxti Tunyaz, and 
Ekberjan Jamal, mentioned in Controls Over Free Expression and Assembly 
within this section. Information on these cases is also available in 
the Congressional-Executive Commission on China Political Prisoner 
Database.
    \117\ See full analysis in ``State Security Cases From Xinjiang 
Appear To Surge in 2008,'' CECC China Human Rights and Rule of Law 
Update, No. 1, 2009, 3.
    \118\ PRC Criminal Law, enacted 1 July 79, amended 14 March 97, 
effective 1 October 97, amended 25 December 99, 31 August 01, 29 
December 01, 28 December 02, 28 February 05, 29 June 06, 28 February 
09, arts. 102-113.
    \119\ Nationwide, the number of trials for ESS crimes was 306 in 
2007, and within the XUAR, courts are reported to have accepted an 
average of roughly 150 ESS cases per year between 2003 and 2007. 
``State Security Cases From Xinjiang Appear To Surge in 2008,'' CECC 
China Human Rights and Rule of Law Update, No. 1, 2009, 3. For the 
original report from XUAR media in January, see ``Xinjiang Courts in 
Total Complete Investigation of 268 Endangering State Security Cases'' 
[Xinjiang fayuan gong shenjie weihai guojia anquan fanzui anjian 268 
qi], Xinhua (Online), 10 January 09. According to The Dui Hua 
Foundation, which has compiled data based on the China Law Yearbook, 
this figure ``[i]ncludes a small number of trials for dereliction of 
duty by military personnel.'' The Dui Hua Foundation, ``Ten Years of 
Endangering State Security in China,'' Dialogue Newsletter, Winter 
2009.
    \120\ In 2007, procuratorates nationwide issued indictments in 231 
cases involving 619 people. ``State Security Cases From Xinjiang Appear 
To Surge in 2008,'' CECC China Human Rights and Rule of Law Update, No. 
1, 2009, 3. For the original report from XUAR media on statistics as of 
November 2008, see ``Xinjiang: Strike Hard Against Crimes of 
Endangering State Security'' [Xinjiang: yanda weihai guojia anquan 
fanzui], Procuratorial Daily, reprinted in Xinhua (Online), 3 January 
09. Estimates by The Dui Hua Foundation on the number of indictments 
nationwide in 2008, based on initial data released by the Chinese 
government, place the nationwide number at approximately 1,300 
individuals. ``Chinese State Security Arrests, Indictments Doubled in 
2008,'' Dui Hua Human Rights Journal (Online), 25 March 09.
    \121\ UN Committee against Torture (Online), ``Consideration of 
Reports Submitted by States Parties Under Article 19 of the Convention: 
Concluding Observations of the Committee against Torture--China,'' CAT/
C/CHN/CO/4, 21 November 08.
    \122\ Uyghur American Association (Online), ``Son of Rebiya Kadeer 
Sentenced to Nine Years in Prison on Charges of `Secessionism,' '' 17 
April 07. See also the Congressional-Executive Commission on China 
Political Prisoner Database.
    \123\ Uyghur American Association (Online), ``Rebiya Kadeer's 
Imprisoned Son in Urgent Need of Medical Treatment,'' 11 December 07; 
Uyghur Human Rights Project, ``Rebiya Kadeer's Son Sentenced to Seven 
Years; Another Fined; Another Feared Tortured,'' 27 November 06.
    \124\ Under Article 34 of the PRC Criminal Procedure Law, ``If 
there is the possibility that the defendant may be sentenced to death 
and yet he has not entrusted anyone to be his defender, the People's 
Court shall designate a lawyer that is obligated to provide legal aid 
to serve as a defender.'' PRC Criminal Procedure Law, enacted 1 July 
79, effective 1 January 80, amended 17 March 96, effective 1 January 
97, art. 34.
    \125\ ``China Executes Two for Pre-Olympics Attack in Xinjiang,'' 
Reuters (Online), 9 April 09.
    \126\ ``Writer Nurmemet Yasin Punished for Having `Not Properly 
Reformed His Views' '' [Yazghuchi nurmuhemmet yasingha ``idiyisini 
yaxshi ozgertmigenlik'' sewebi bilen jaza berilgen], Radio Free Asia 
(Online), 17 March 09. For Nowak's account of his 2005 mission to 
China, see Manfred Nowak, Report of the Special Rapporteur on Torture 
and Other Cruel, Inhuman or Degrading Treatment or Punishment, Mission 
to China, 10 March 06.
    \127\ See the Congressional-Executive Commission on China Political 
Prisoner Database for more information about Nurmemet Yasin. In 
addition, see, e.g., ``What Is Love? An Essay by Jailed Uyghur Writer 
Nurmehemmet Yasin,'' Radio Free Asia (Online), 23 May 06.
    \128\ Yan Wenlu, ``Xinjiang Higher People's Court To Sternly Crack 
Down on Crimes of the `Three Forces' in Accordance With the Law,'' 
China News Service, 15 August 08 (Open Source Center, 15 August 08).
    \129\ ``Xinjiang: Strike Hard Against Crimes of Endangering State 
Security'' [Xinjiang: yanda weihai guojia anquan fanzui], Procuratorial 
Daily, reprinted in Xinjiang Peace Net (Online), 4 January 09.
    \130\ ``Xinjiang Procuratorate Launches Anti-Separatism Reeducation 
Mobilization Meeting, Strengthens Supervision, Conscientiously 
Shoulders Heavy Responsibility of Upholding Stability'' [Xinjiang 
jiancha jiguan kaizhan fan fenlie douzheng zaijiaoyu huodong 
dongyuanhui qianghua jiandu qieshi danfuqi weiwen zhongren], Xinjiang 
Legal Daily (Online), 3 December 08.
    \131\ Xinjiang Lawyer's Association (Online), ``Secretary Yuan's 
Speech at the Autonomous Region Lawyers Association Seventh Session 
Second Directors Meeting'' [Yuan shuji zai zizhiqu luxie qi jie er ci 
lishihui shang de jianghua], 23 March 09.
    \132\ Kashgar District Government (Online), ``Poskam County Moves 
To Build Social Safety Net'' [Zepu xian duo jucuo gouzhu shehui anquan 
wang], 12 March 09.
    \133\ ``Two Levels of Courts in Urumqi Use Post To Promote 
Stability'' [Wulumuqi liang ji fayuan lizu gangwei cu wending], 
People's Court Daily, reprinted in Xinhua (Online), 25 July 09.
    \134\ ``Xinjiang Legal Aid Lowers Threshhold for Victims of `July 
5' Incident, Financial Investigations Exempted'' [Xinjiang fayuan wei 
`7-5' shijian shouhai qunzhong jiangdi menkan mian jingji shencha], 
Legal Daily (Online), 23 July 09.
    \135\ Wang Shulin and Zhao Xinwen, ``Meticulously Picking Talent: 
Problem of Faultline in Xinjiang Courts Makes First Steps at 
Improvement'' [Jingxin linxuan rencai xinjiang faguan duanceng wenti 
chubu huanjie], Tianshan Net (Online), 7 February 06. See also Pan 
Congwu and Wu Yadong, ``Lack of Ethnic Minority Judges in Xinjiang 
Basic-Level Courts Especially Prominent'' [Xinjiang jiceng fayuan 
shaoshu minzu faguan buzu youwei tuchu], Legal Daily, reprinted in 
Xinhua (Online), 22 November 07; Cheng Qian, ``Courts Throughout 
Country To Join Forces To Help Xinjiang'' [Quanguo fayuan jiang heli 
yuan jiang], Tianshan Net (Online), 20 August 07.
    \136\ For legal bases for use of one's native language in judicial 
proceedings, see, e.g., PRC Constitution, art. 134; PRC Regional Ethnic 
Autonomy Law, enacted 31 May 84, effective 1 October 84, amended 28 
February 01, art. 47; PRC Criminal Procedure Law, enacted 1 July 79, 
effective 1 January 80, amended 17 March 96, effective 1 January 97, 
art. 9; PRC Administrative Procedure Law, enacted 4 April 89, art. 8; 
PRC Civil Procedure Law, enacted 9 April 91, amended 28 October 07, 
art. 11; Xinjiang Uyghur Autonomous Region Regulation on Spoken and 
Written Language Work [Xinjiang weiwu'er zizhiqu yuyan wenzi gongzuo 
tiaoli], issued 25 September 93, amended 20 September 02, art. 12.
    \137\ Stanley Toops, ``Demographics and Development in Xinjiang 
After 1949,'' East-West Center Washington Working Papers No. 1, May 
2004, 1.
    \138\ Tian Yu, ``Work Regarding Courts Nationwide Assisting 
Xinjiang Courts Is Launched'' [Quanguo fayuan duikou zhiyuan xinjiang 
fayuan gongzuo qidong], Xinhua (Online), 14 August 07.
    \139\ Li Xiaoling, ``Xinjiang Actively Constructs Troops of Ethnic 
Minority Lawyers'' [Xinjiang jiji jianshe shaoshu minzu lushi duiwu], 
Xinhua, reprinted in Tianshan Net (Online), 15 October 07. For 
information on the number of full- and part-time ethnic minority 
lawyers in Hoten district, though without information on the language 
capacities of ethnic minority lawyers, see Hoten District Government 
(Online), ``Ethnic Minority Personnel a Main Force of Legal 
Profession'' [Shaoshu minzu renyuan cheng lushi hangye zhulijun], 22 
April 09. For information on conditions within the Ili Kazakh 
Autonomous Prefecture, see ``Xinjiang Uyghur Autonomous Region Sorely 
Lacks Ethnic Minority Lawyers'' [Xinjiang weiwuer zizhiqu shaoshu minzu 
lushi qique], Uyghur Online (Online), 20 April 07.
    \140\ ``Xinjiang Bilingual Lawyers and Courts Develop With Grace'' 
[Xinjiang shuangyu lushi fating zhan fengcai], Tianshan Net (Online), 
19 May 2006.
    \141\ ``Work Regarding Courts Nationwide Assisting Xinjiang Courts 
Is Launched'' [Quanguo fayuan duikou zhiyuan xinjiang fayuan gongzuo 
qidong], Xinhua (Online), 14 August 07; ``Xinjiang Actively Constructs 
Troops of Ethnic Minority Lawyers'' [Xinjiang jiji jianshe shaoshu 
minzu lushi duiwu], Xinhua, reprinted in Tianshan Net (Online), 15 
October 07.
    \142\ Wen Jing and Jing Dejun, ``Two Congresses Observation: 
Xinjiang Female Lawyer Calls for the Fostering of Ethnic Minority 
Lawyers and Judges'' [Lianghui guancha: xinjiang nu lushi huyu peiyang 
shaoshu minzu lushi faguan], China National Radio (Online), 8 March 08.
    \143\ ``China Exclusive: More Ethnic Judges, Translators Needed To 
Cope With Stricter Death Penalty,'' Xinhua, 13 March 07 (Open Source 
Center, 13 March 07).
    \144\ ``XUAR People's Congress Standing Committee Translates and 
Authorizes 204 National Laws'' [Zizhiqu renda changweihui fanyi 
shending guojia falu 204 bu], 3 June 09.
    \145\ ``Our Region's First Ethnic Minority Legal Aid Station 
Established Yesterday'' [Wo qu shou jia shaoshu minzu falu yuanzhu zhan 
zuo chengli], Xinjiang Legal Daily, reprinted on the Web site of Urumqi 
Municipal Government (Online), 15 May 09.
    \146\ ``Two Young Uyghurs Detained for Distributing Leaflets 
Calling for Student Demonstration,'' CECC China Human Rights and Rule 
of Law Update, No. 1, 2009, 4.
    \147\ Xinjiang University (Online), ``Xinjiang University Rewards 
Three Personnel for Meritorious Service of Preventing Distribution of 
Reactionary Leaflets'' [Xinjiang daxue zhongjiang zhizhi sanfa fandong 
chuandan de sanming yougong renyuan], 25 December 08.
    \148\ ``Two Young Uyghurs Detained for Distributing Leaflets 
Calling for Student Demonstration,'' CECC China Human Rights and Rule 
of Law Update, No. 1, 2009, 4.
    \149\ Xinjiang University, ``Xinjiang University Commends Three 
Security Personnel, Including Niyazmemet Imam'' [Xinjiang daxue 
longzhong biaozhang niyazi maimaiti yimamu deng sanming bao'an 
renyuan], 25 December 08.
    \150\ ``Xinjiang Youth Who Fabricated Ethnic Incident on Internet 
Is Arrested'' [Xinjiang yi qingnian wangshang bianzao minzu shiduan 
beibu], Tianshan Net (Online), 17 March 09; ``Man Arrested After 
Posting Rumors of Ethnic Conflict in NW China,'' Xinhua, reprinted in 
China Daily (Online), 17 March 09.
    \151\ Ibid.
    \152\ Li Liansi, ``Public Security Bureau Commends Units and 
Individuals That Cracked the Hoten `6-17' Case'' [Gong'anbu jiajiang 
zhenpo hetian ``6-17'' anjian de danwei he geren], Hoten Peace Net 
(Online), 3 March 09.
    \153\ Ibid.
    \154\ See the Congressional-Executive Commission on China Political 
Prisoner Database and Uyghur American Association (Online), ``Two 
Uyghurs in Hotan Sentenced to Lengthy Prison Terms for Peaceful 
Political Expression,'' 16 March 09.
    \155\ Ekberjan Jamal's friends gave the recordings to Hong Kong-
based Phoenix News and to Radio Free Asia. Ekberjan Jamal later posted 
on his own Web site the news based on his audio recordings. For more 
details, see ``Youth Jailed for Alleged Separatism,'' Radio Free Asia 
(Online), 15 April 09; ``Ekberjan Jamal Gets 10 Year Sentence for 
Conveying Information to Phoenix News and RFA'' [Ekberjan jamal sumrugh 
telewiziyisi we erkin asiya radiyosigha uchur yetkuzgini uchun 10 
yilliq kesilgen], Radio Free Asia (Online), 13 April 09; ``Ekberjan 
Jamal's Imprisonment and Current Condition'' [Ekberjan jamalning 
kesilishi we uning nowettiki ehwali], Radio Free Asia (Online), 14 
April 09.
    \156\ ``Uyghur Historian Released From Prison,'' CECC China Human 
Rights and Rule of Law Update, No. 2, 2009, 3.
    \157\ For information on Tohti Tunyaz's condition after his 
release, see ``How Is Tohti [Tunyaz's] Life [After Prison] Being 
Arranged?'' [Toxti muzatning keyinki turmushi qandaq 
orunlashturulmaqchi?], Radio Free Asia (Online), 17 February 09.
    \158\ See Criminal Law and Access to Justice within this section 
for more information.
    \159\ See the Congressional-Executive Commission on China Political 
Prisoner Database for more information about Mehbube Ablesh, as well as 
``Uyghur Radio Worker Sacked, Detained,'' Radio Free Asia (Online), 8 
September 08; ``Supplementary Information on Prisoner Mehbube Ablesh'' 
[Tutqun mehbube ablesh heqqide toluqlima melumatlar], Radio Free Asia 
(Online), 8 September 08; ``Uyghur Staff Member in Xinjiang Criticizes 
Government, Is Arrested'' [Xinjiang weizu yuangong piping zhengfu bei 
jubu], Radio Free Asia (Online), 9 September 08.
    \160\ The censorship follows the closure of several Web sites 
during the 2008 Beijing Summer Olympic Games. ``Authorities Increase 
Repression in Xinjiang in Lead-Up to and During Olympics,'' CECC China 
Human Rights and Rule of Law Update, November 2008, 4.
    \161\ Ilham Tohti reported that authorities accused him of 
separatism. Authorities initially shut down the site in early March, 
after Ilham Tohti gave an interview criticizing government 
administration in the XUAR. They again closed down the site later in 
the month, after Ilham Tohti posted an article criticizing XUAR 
government chairperson Nur Bekri. The site has since reopened under a 
new Web address (www.uighurbiz.net). Site last visited 4 September 09. 
The 2009 closures follow other closures of the site in past years. 
``Xinjiang Authorities Block, Punish Free Expression,'' CECC China 
Human Rights and Rule of Law Update, No. 3, 2009, 3.
    \162\ Ilham Tohti reported on July 8 that he had received notice 
that he would be detained, and associates reported his whereabouts 
unknown after that time. Alexa Olesen, ``Chinese Economist Missing, 
Apparently Detained,'' Associated Press, reprinted in Washington Post 
(Online), 9 July 09.
    \163\ Alexa Olesen, ``Chinese Economist Missing, Apparently 
Detained,'' Associated Press, reprinted in Washington Post (Online), 9 
July 09.
    \164\ ``Uyghur Economist Freed, Warned,'' Radio Free Asia (Online), 
24 August 09.
    \165\ ``Uyghur Online Staff Whereabouts Unknown, Includes CCTV 
Reporter and CPPCC Member'' [Weiwuer zai xian renyuan xialuobuming 
baokuo yangguang jizhe zheng-xie renyuan], Radio Free Asia (Online), 25 
August 09.
    \166\ While ``Sweep Away Pornography and Strike Down Illegal 
Publications'' campaigns targeting a range of materials exist 
throughout China, authorities in the XUAR target religious and 
political materials also as part of broader controls in the region over 
Islamic practice, over other expressions of ethnic identity, especially 
among the Uyghur population, and over expressions of political dissent. 
``Xinjiang Government Strengthens Campaign Against Political and 
Religious Publications,'' CECC China Human Rights and Rule of Law 
Update, February 2008, 4.
    \167\ ``Xinjiang Authorities Block, Punish Free Expression,'' CECC 
China Human Rights and Rule of Law Update, No. 3, 2009, 3.
    \168\ Jin Shaobin, ``Xinjiang: Persons To Be Assigned Within the 
Year To Supervise Publishing Markets Near School Grounds'' [Xinjiang: 
xiaoyuan zhoubian chubanwu shichang niannei shixing zhuanren guanli], 
Tianshan Net (Online), 18 March 09. The article did not report the 
number of ``illegal'' religious items confiscated.
    \169\ Yan Rong, ``Our Region To `Enlarge Establishment' of Cultural 
Market Combined Law Enforcement Ranks'' [Wo qu jiang ``kuobian'' wenhua 
shichang zonghe zhifa duiwu], Xinjiang Daily (Online), 2 March 09.
    \170\ The Chinese expression for this term is ``shuangyu.'' Some 
Chinese government and media reports use quote marks when describing 
shuangyu, a convention retained in the Commission's reporting on the 
topic. See citations within for Chinese usage of ``shuangyu.''
    \171\ See, e.g., PRC Constitution, arts. 4, 121, and PRC Regional 
Ethnic Autonomy Law (REAL), enacted 31 May 84, effective 1 October 84, 
amended 28 February 01, arts. 10, 21, 37. 2005 Implementing Provisions 
for the REAL affirm the freedom to use and develop minority languages, 
but also place emphasis on the use of Mandarin by promoting 
``bilingual'' education and bilingual teaching staff. State Council 
Provisions on Implementing the PRC Regional Ethnic Autonomy Law (REAL 
Implementing Provisions) [Guowuyuan shishi ``zhonghua renmin gongheguo 
minzu quyu zizhifa'' ruogan guiding], issued 19 May 05, effective 31 
May 05, art. 22.
    \172\ See, e.g., ``Xinjiang's First Round of Love My China Ethnic 
Minority Youth Bilingual Oral Speech Contest Opens'' [Xinjiang shoujie 
ai wo zhonghua shaoshu minzu shao'er shuangyu kouyu dasai qimu], 
Tianshan Net (Online), 15 September 06; Kashgar District Government 
(Online), ``Love My China Bilingual Speech Contest Enters Semi-Finals'' 
[Ai wo zhonghua shuangyu dasai jinru fusai], 31 October 06; Cui Jia, 
``Mandarin Lessons in Xinjiang `Help Fight Terrorism,' '' China Daily 
(Online), 4 June 09.
    \173\ Cui Jia, ``Mandarin Lessons in Xinjiang `Help Fight 
Terrorism,' '' China Daily (Online), 4 June 09.
    \174\ See, e.g., `` `Bilingual' Policy Reduces Use of Ethnic 
Minority Languages in Xinjiang Preschools,'' CECC China Human Rights 
and Rule of Law Update, March/April 2008, 3; ``Xinjiang Official 
Describes Plan To Expand Use of Mandarin in Minority Schools,'' CECC 
China Human Rights and Rule of Law Update, March 2006, 13.
    \175\ For multiple reports on this figure, see ``Number of Xinjiang 
Students Receiving Mandarin-Focused `Bilingual' Education Increases,'' 
CECC China Human Rights and Rule of Law Update, No. 3, 2009, 4.
    \176\ In 2006, official media reported the government would invest 
430 million yuan (US$59.76 million) over five years to support 
``bilingual'' preschool programs in seven prefectures and would aim to 
reach a target rate of over 85 percent of rural ethnic minority 
children in all counties and municipalities able to enroll in two years 
of ``bilingual'' preschool education by 2010. ``Xinjiang Makes 5-Year 
430 Million Yuan Investment To Develop Rural Preschool `Bilingual' 
Education'' [Xinjiang 5 nian touru 4.3 yi fazhan nongcun xueqian 
``shuangyu'' jiaoyu], Xinjiang Economic News, reprinted in Tianshan Net 
(Online), 10 October 06.
    \177\ ``Autonomous Region Program for the Replenishment of 
Elementary School `Bilingual' Teachers Is Launched'' [Zizhiqu xiaoxue 
``shuangyu'' jiaoshi buchong jihua qidong], Xinjiang Daily (Online), 24 
September 08. The figure was reported in early 2009 as 16,000 teachers. 
``Number of Xinjiang Students Receiving Mandarin-Focused `Bilingual' 
Education Increases,'' CECC China Human Rights and Rule of Law Update, 
No. 3, 2009, 4, citing ``Xinjiang Elementary School `Bilingual' 
Teachers To Expand by 16,000'' [Xinjiang xiaoxue ``shuangyu'' jiaoshi 
jiang kuochong zhi 1.6 wan ren], Tianshan Net (Online), 20 January 09; 
``16,000 More Bilingual Teachers Trained for Elementary Schools,'' 
Xinhua (Online), 2 February 09.
    \178\ ``Xinjiang Enlarges Scope of Special Training Plan for Rural 
Bilingual Teachers'' [Xinjiang kuoda nongcun ``shuangyu'' jiaoshi tepie 
jihua guimo], Xinhua (Online), 21 April 09.
    \179\ Jing Bo, ``Our Region Starts Special Training Plan for Rural 
`Bilingual' Teachers'' [Wo qu qidong nongcun ``shuangyu'' jiaoshi tepie 
jihua], Xinjiang Daily (Online), 4 June 09.
    \180\ Wang Dalin, ``Over 10 of Our Country's Colleges To Detail 
College Students To Support Educational Undertakings at Grassroots 
Xinjiang Schools'' [Wo guo 10 duo suo gaoxiao jiang xuanpai daxuesheng 
zhijiao xinjiang jiceng xuexiao], Xinhua (Online), 7 November 08.
    \181\ ``573 Junior High Students in Xinjiang Receive Bilingual 
Preschool Education Teacher Training'' [Xinjiang 573 ming chuzhongsheng 
jieshou xueqian shuangyu jiaoshi peixun], Tianshan Net (Online), 7 
October 08.
    \182\ ``Xinjiang Authorities Recruit More Teachers for Mandarin-
Focused `Bilingual' Education,'' CECC China Human Rights and Rule of 
Law Update, December 2008, 3. Sustained Commission monitoring of 
available information on the scope of ``bilingual'' teacher training 
provides no indication that monolingual Mandarin-speaking teachers are 
required to learn a second language, a decision that would be 
consistent with the Mandarin focus of ``bilingual'' classes. See 
sources cited within this section for examples of the focus on non-Han 
teachers for teacher training.
    \183\ In addition to sources cited within, see also `` `Equality' 
and Inequality at Kashgar Teacher's College'' [Qeshqer pidagogika 
institutidiki `teng' we tengsizlikler], Radio Free Asia (Online), 14 
May 09.
    \184\ Xinjiang Education Department (Online), Notice Concerning 
Soliciting Opinions on ``Opinion Concerning the Vigorous and Reliable 
Promotion of Ethnic Minority Preschool and Elementary and Secondary 
`Bilingual' Education Work (Soliciting Opinions)'' [Guanyu zhengqiu 
``guanyu jiji, wentuode tuijin shaoshu minzu xueqian he zhongxiaoxue 
`shuangyu' jiaoxue gongzuo de yijian (zhengqiu yijian gao)'' yijian de 
tongzhi], 5 May 08.
    \185\ Xinjiang Education Department (Online), Notice Concerning 
Organization and Implementation of 2008 Fall Quarter Secondary and 
Elementary Ethnic Minority ``Bilingual'' Teacher Training Project 
[Guanyu zuzhi shishi 2008 nian qiuji xinjiang zhong xiaoxue shaoshu 
minzu ``shuangyu'' jiaoshi peixun gongcheng de tongzhi], 5 June 08.
    \186\ ``Number of Xinjiang Students Receiving Mandarin-Focused 
`Bilingual' Education Increases,'' CECC China Human Rights and Rule of 
Law Update, No. 3, 2009, 4.
    \187\ ``Xinjiang Bilingual Education Students Increase 50-Fold in 6 
Years'' [Xinjiang shuangyu xuesheng liu nian zengzhang 50 bei], 
Xinjiang Economic News, reprinted in Tianshan Net (Online), 31 October 
06.
    \188\ See analysis and compilation of statistics in ``Number of 
Xinjiang Students Receiving Mandarin-Focused `Bilingual' Education 
Increases,'' CECC China Human Rights and Rule of Law Update, No. 3, 
2009, 4.
    \189\ For example, official media reported that 92 percent of 
ethnic minority elementary school students in Ghulja county, Ili Kazakh 
Autonomous Prefecture, enrolled in ``bilingual'' classes or wholly 
Mandarin schools in the fall semester of 2008. `` `Bilingual' Education 
in Ghulja County Continues To Gain Popularity'' [Yining xian 
``shuangyu'' jiaoxue chixu sheng wen], Xinjiang Daily (Online), 2 March 
09. In Zepu (Poskam) county, Kashgar district, almost 50 percent of all 
preschool students were in ``bilingual'' preschool classes in 2008, 
while the number of total students receiving wholly Mandarin-centered 
``bilingual'' education was 15.6 percent of the ethnic minority student 
population. ``Innumerable Great Achievements for Poskam County's 
Bilingual Education Work'' [Zepu xian shuangyu jiaoxue gongzuo 
shuoguoleilei], Xinjiang Peace Net (Online), 20 November 08.
    \190\ CECC, 2008 Annual Report, 31 October 08, 179.
    \191\ Ibid.
    \192\ He also claimed that ``bilingual'' education in the region 
equally valued ethnic minority languages and Mandarin, despite evidence 
of the focus on Mandarin from official sources. CECC, 2008 Annual 
Report, 31 October 08, 179, citing ``Autonomous Region Chair Nur Bekri 
Responds to Separatists' Attack on Bilingual Education'' [Zizhiqu zhuxi 
nu'er baikeli huiying fenlie fenzi dui shuangyu jiaoyu gongji], 
Xinjiang Metropolitan News, reprinted in Xinhua (Online), 5 March 08; 
`` `Bilingual' Policy Reduces Use of Ethnic Minority Languages in 
Xinjiang Preschools,'' CECC China Human Rights and Rule of Law Update, 
March/April 2008, 3.
    \193\ State Council Provisions on Implementing the PRC Regional 
Ethnic Autonomy Law [Guowuyuan shishi ``Zhonghua renmin gongheguo minzu 
quyu zizhifa'' ruogan guiding], issued 19 May 05, effective 31 May 05, 
art. 29.
    \194\ According to an official government census, in 1953, Han 
Chinese constituted 6 percent of the XUAR's population of 4.87 million, 
while Uyghurs made up 75 percent. In contrast, the 2000 census listed 
the Han population at 40.57 percent and Uyghurs at 45.21 percent of a 
total population of 18.46 million. Scholar Stanley Toops has noted that 
Han migration since the 1950s is responsible for the ``bulk'' of the 
XUAR's high population growth in the past half century. Stanley Toops, 
``Demographics and Development in Xinjiang After 1949,'' East-West 
Center Washington Working Papers No. 1, May 2004, 1. On past migration 
policies see Gardner Bovingdon, ``Heteronomy and Its Discontents,'' in 
Governing China's Multiethnic Frontiers, ed. Morris Rossabi (Seattle: 
University of Washington Press, 2004), 126 (noting, ``Between 1950 and 
1978, the Party cajoled, induced, or ordered several million Han to 
move to Xinjiang[.]''). See also ``Xinjiang Focuses on Reducing Births 
in Minority Areas To Curb Population Growth,'' CECC China Human Rights 
and Rule of Law Update, April 2006, 15-16; ``Xinjiang Reports High Rate 
of Population Increase,'' CECC China Human Rights and Rule of Law 
Update, March 2006, 16-17. For a recent journalistic account, see 
Andrew Jacobs, ``Migrants to China's West Bask in Prosperity,'' New 
York Times (Online), 6 August 09.
    \195\ See, e.g., Calla Wiemer, ``The Economy of Xinjiang,'' in 
Xinjiang: China's Muslim Borderland, ed. S. Frederick Starr (Armonk, 
NY: M.E. Sharpe, 2004), 179-180; David Bachman, ``Making Xinjiang Safe 
for the Han?'' in Governing China's Multiethnic Frontiers, ed. Morris 
Rossabi (Seattle: University of Washington Press, 2004), 167-168. For 
specific information on job discrimination observed in a town in the 
southern XUAR, see Ildiko Beller-Hann, ``Temperamental Neighbors: 
Uighur-Han Relations in Xinjiang, Northwest China,'' in Imagined 
Differences: Hatred and the Construction of Identity, ed. Gunther 
Schlee (New York: Palgrave, 2002), 65. See also the discussions in 
Development, as well as Labor Conditions--Discrimination, within this 
section for additional information, including information on 
discriminatory job recruitment processes.
    \196\ Gardner Bovingdon, ``Autonomy in Xinjiang: Han Nationalist 
Imperatives and Uyghur Discontent,'' East-West Center Washington 2004, 
Policy Studies 11, 47.
    \197\ State Ethnic Affairs Commission (Online), ``Section 2 
Carrying Out in a Deep-Going Way Exchange of Cadres in Ethnic Minority 
Areas With Central and State Organs as Well as Cadres From Other 
Areas'' [Di er jie minzu diqu ganbu yu zhongyang he guojia jiguan ji 
qita diqu ganbu jiaoliu shenru kaizhan], 16 December 08; State 
Administration for Ethnic Affairs (Online), ``Important Meaning'' 
[Zhongyao yiyi], 13 July 04; Gardner Bovingdon, ``Autonomy in Xinjiang: 
Han Nationalist Imperatives and Uyghur Discontent,'' East-West Center 
Washington 2004, Policy Studies 11, 44.
    \198\ State Ethnic Affairs Commission (Online), ``Section 2 
Carrying Out in a Deep-Going Way Exchange of Cadres in Ethnic Minority 
Areas With Central and State Organs as Well as Cadres From Other 
Areas'' [Di er jie minzu diqu ganbu yu zhongyang he guojia jiguan ji 
qita diqu ganbu jiaoliu shenru kaizhan], 16 December 08. A report from 
2004 noting the same sentiment added that ``hostile forces'' inside and 
outside the country have continued ``infiltration, destruction, and 
subversion activities'' in border areas, explaining that the government 
selected large batches of cadres with ``good political caliber'' and 
``strong professional qualifications'' to settle in these areas. State 
Administration for Ethnic Affairs (Online), ``Important Meaning'' 
[Zhongyao yiyi], 13 July 04.
    \199\ See generally ``Xinjiang Authorities Recruit More Teachers 
for Mandarin-Focused `Bilingual' Education,'' CECC China Human Rights 
and Rule of Law Update, December 2008, 3.
    \200\ State Ethnic Affairs Commission (Online), ``Xinjiang's 
Kashgar District Supplements Grassroots Teachers With 17,000 People 
Within 5 Years'' [Xinjiang kashi diqu wunian buchong jiceng jiaoshi 1.7 
wan ming], 7 April 09.
    \201\ ``Xinjiang Recruits 9339 Elementary and Secondary School 
Teachers Nationwide for `Specially Appointed Posts' '' [Xinjiang 
mianxiang quanguo zhaopin 9339 ming zhong xiaoxue ``tejiao''], Tianshan 
Net (Online), 27 May 09.
    \202\ ``Jeminay Invests 20 Million To Carry Out Herder Settlement'' 
[Jimunai touzi 2000 wan shishi mumin dingju], Ili News Net (Online), 17 
April 09. For information on how resettlement of herding populations 
has affected groups outside the XUAR, see Section II--Ethnic 
Minorities--Human Rights in the Inner Mongolia Autonomous Region.
    \203\ Bureau of Democracy, Human Rights, and Labor, U.S. Department 
of State, Country Report on Human Rights Practices--2008, China 
(includes Tibet, Hong Kong, and Macau), 25 February 09; ``Uyghurs 
Encountering Obstacles to All Routes To Go on Haj'' [Uyghurlarning 
hejge berishtiki barliq yolliri tosalghugha uchrimaqta], Radio Free 
Asia (Online), 6 May 09.
    \204\ For example, in March, the Xinhe (Toqsu) county government in 
Aqsu district called for investigating ``five types of floating 
populations'': those who come to the region from elsewhere in China, 
people from the XUAR who go to the interior of China, internal migrants 
within the XUAR, XUAR residents who leave the country, and non-PRC 
citizens who come to the XUAR. ``Toqsu County Implements 3 Mechanisms 
To Safeguard Stability, Maintain Social Harmony and Stability'' [Xinhe 
xian luoshi san xiang weiwen jizhi, baochi shehui hexie wending], Aqsu 
Peace Net (Online), 19 March 09. For other measures to strengthen 
oversight of ``floating populations,'' see ``Aqsu District 
Comprehensively Launches Floating Population and Room Rental `2-Stroke' 
Investigation'' [Akesu diqu quanmian kaizhan liudong renkou he chuzu 
fangwu `liangge' mo pai cha], Xinjiang Peace Net (Online), 16 January 
09; Hoten District Government (Online), ``Four Measures in Keriye 
County Grasp Work on Management of Floating Population'' [Yutian xian 
sixiang cuoshi zhuahao liudong renkou guanli gongzuo], 12 February 09.
    \205\ Kelly Chan, ``Urumqi Acts Against Migrants,'' South China 
Morning Post, 10 August 09 (Open Source Center, 10 August 09).
    \206\ CECC, 2008 Annual Report, 31 October 08, 176.
    \207\ Ibid.
    \208\ The Rising Stakes of Refugee Issues in China, Staff 
Roundtable of the Congressional-Executive Commission on China, 11 April 
05, Testimony of Sean R. Roberts, Associate Professor of the Practice 
of International Affairs, George Washington University.
    \209\ Aygerim Beysenbayeva, ``Refugees Still Face Uncertainty in 
Kazakstan,'' Institute for War & Peace Reporting (Online), 5 June 2009.
    \210\ Omar El Akkad, ``Detained Canadian Complains of Illness,'' 
Globe and Mail (Online), 13 April 09; UN Committee against Torture 
(Online), ``Written Replies by the Government of the People's Republic 
of China to the List of Issues (CAT/C/CHN/4) To Be Taken Up in 
Connection With the Consideration of the Fourth Periodic Report of 
China (CAT/C/CHN.4),'' CAT/C/CHN/Q/4/Add.1 (Future), 10 September 08, 
25-26; Uyghur American Association (Online), ``Uyghur Canadian 
Sentenced to Life on `Terrorism' Charges,'' 19 April 07.
    \211\ See Criminal Law and Access to Justice within this section 
for more information on the risks of torture in prisons inside China 
and in the XUAR in particular. Under the Convention against Torture, 
``No State Party shall expel, return (`refouler') or extradite a person 
to another State where there are substantial grounds for believing that 
he would be in danger of being subjected to torture.'' Convention 
against Torture and Other Cruel, Inhuman or Degrading Treatment or 
Punishment, adopted by UN General Assembly resolution 39/46 of 10 
December 84, entry into force 26 June 87, art. 3(1).
    \212\ ``Pakistan Hands Over Nine Chinese Militants to Beijing,'' 
Karachi Geo TV, 27 April 09 (Open Source Center, 27 April 09); Amir 
Mir, ``10 Terror Suspects Extradited to China,'' Islamabad The News 
Online, 6 June 09 (Open Source Center, 6 June 09).
    \213\ Ibid. The April report described the people as ``Chinese 
militants'' in apparent reference to their citizenship but associated 
the event with the XUAR, where it claimed an ``extremists' uprising'' 
took place in 2005.
    \214\ For examples from past years, see ``Xinjiang Focuses on 
Reducing Births in Minority Areas To Curb Population Growth,'' CECC 
China Human Rights and Rule of Law Update, April 2006, 15-16, and 
``Xinjiang Reports High Rate of Population Increase,'' CECC China Human 
Rights and Rule of Law Update, March 2006, 16-17.
    \215\ ``Autonomous Region Population and Family Planning Work 
Meeting Proposes, Stabilize Birth Rates, Raise Quality of Population'' 
[Zizhiqu renkou he jihua shengyu gongzuo huiyi tichu wending shengyu 
shuiping tigao renkou suzhi], Xinjiang Daily, 19 January 09. On the 
predominantly ethnic minority makeup of the southern XUAR, see, e.g., 
Stanley Toops, ``Demographics and Development in Xinjiang After 1949,'' 
East-West Center Washington Working Papers No. 1, May 2004, 18, 20-21. 
The XUAR regulation on population planning allows urban Han Chinese 
couples to have one child, urban ethnic minority couples and rural Han 
Chinese couples to have two, and rural ethnic minority couples to have 
three. Xinjiang Uyghur Autonomous Region Regulation on Population and 
Family Planning [Xinjiang weiwu'er zizhiqu renkou yu jihua shengyu 
tiaoli], issued 28 November 02, effective 1 January 03, amended 26 
November 04 and 25 May 06, art. 15. While this legislation indicates 
some flexibility to adapt national legislation to suit ``local 
conditions,'' as stipulated in the PRC Regional Ethnic Autonomy Law, 
XUAR residents nonetheless lack the autonomy to choose not to implement 
any limits at all on childbearing. PRC Regional Ethnic Autonomy Law 
(REAL), enacted 31 May 84, effective 1 October 84, amended 28 February 
01, arts. 4, 44. For information on the limits of the legal framework 
for autonomy, see, e.g., CECC, 2005 Annual Report, 11 October 05, 15-
17. Scholar Gardner Bovingdon discusses the role of population planning 
requirements within the context of the regional ethnic autonomy system 
in Gardner Bovingdon, ``Autonomy in Xinjiang: Han Nationalist 
Imperatives and Uyghur Discontent,'' East-West Center Washington 2004, 
Policy Studies 11, 26.
    \216\ ``Xinjiang Focuses on Reducing Births in Minority Areas To 
Curb Population Growth,'' CECC China Human Rights and Rule of Law 
Update, April 2006, 15-16.
    \217\ ``Xinjiang Total Population Estimated To Increase to 26.23 
Million People by 2025'' [Yuji dao 2025 nian xinjiang zongrenkou jiang 
zengjiadao 2623 wan ren], Xinjiang Peace Net (Online), 6 January 09.
    \218\ ``Authorities Cancel Plans To Subject Uyghur Woman to Forced 
Abortion (Update),'' CECC China Human Rights and Rule of Law Update, 
November 2008, 3; ``New Son for Uyghur Woman,'' Radio Free Asia 
(Online), 13 February 09.
    \219\ An official cited in one report had said Arzigul Tursun 
``should undergo an abortion'' because she violated population planning 
requirements, a statement that appears to have no basis in law. Article 
15 of the XUAR Regulation on Population and Family Planning permits 
urban ethnic minority couples to give birth to two children and rural 
couples to give birth to three. Where one member of the couple is an 
urban resident, urban birth limits apply. According to RFA, although 
Arzigul Tursun is a rural resident, her husband has urban residency 
status. Article 41 of the regulation requires those in violation of 
Article 15 to pay a fine equivalent to a multiple of a locality's 
average per capita income as a ``social compensation fee.'' The 
regulation does not stipulate that pregnancies must be terminated if 
the fee cannot be paid, nor do separate procedures on paying the fees 
stipulate this. Item 6 of the procedures on paying fees permits people 
facing economic hardship to apply to stagger payments of the fee. 
Xinjiang Uyghur Autonomous Region Regulation on Population and Family 
Planning [Xinjiang weiwu'er zizhiqu renkou yu jihua shengyu tiaoli], 
issued 28 November 02, effective 1 January 03, amended 26 November 04 
and 25 May 06, arts. 15, 41; Xinjiang Uyghur Autonomous Region Social 
Compensation Fee Collection Procedures [Xinjiang weiwu'er zizhiqu 
shehui fuyangfei zhengshou chengxu], issued 25 March 03, art. 6.
    \220\ ``Authorities Cancel Plans To Subject Uyghur Woman to Forced 
Abortion (Update),'' CECC China Human Rights and Rule of Law Update, 
November 2008, 3; ``Uyghur Woman Released, Without Forced Abortion,'' 
Radio Free Asia (Online), 18 November 08; ``New Son for Uyghur Woman,'' 
Radio Free Asia (Online), 13 February 09.
    \221\ Article 39 of the national Population and Family Planning Law 
and Article 52 of the Xinjiang regulation provide sanctions for 
government officials who infringe on citizens' rights or abuse their 
power in carrying out population planning requirements. Xinjiang Uyghur 
Autonomous Region Regulation on Population and Family Planning 
[Xinjiang weiwu'er zizhiqu renkou yu jihua shengyu tiaoli], issued 28 
November 02, effective 1 January 03, amended 26 November 04 and 25 May 
06, art. 52; PRC Population and Family Planning Law, enacted 29 
December 01, effective 1 September 02, art. 39.
    \222\ Calla Wiemer, ``The Economy of Xinjiang,'' in Xinjiang: 
China's Muslim Borderland, ed. S. Frederick Starr (Armonk, NY: M.E. 
Sharpe, 2004), 164.
    \223\ See, e.g., Calla Wiemer, ``The Economy of Xinjiang,'' in 
Xinjiang: China's Muslim Borderland, ed. S. Frederick Starr (Armonk, 
NY: M.E. Sharpe, 2004), 188 (noting improvements in transport and 
communications that have produced ``broad benefits'' in the region); 
Gardner Bovingdon, ``Autonomy in Xinjiang: Han Nationalist Imperatives 
and Uyghur Discontent,'' East-West Center Washington 2004, Policy 
Studies 11, 38.
    \224\ See, e.g., a government statement connecting migration to 
economic development in State Administration for Ethnic Affairs 
(Online), ``Important Meaning'' [Zhongyao yiyi], 13 July 04.
    \225\ Stanley W. Toops, ``The Ecology of Xinjiang: A Focus on 
Water,'' in Xinjiang: China's Muslim Borderland, ed. S. Frederick Starr 
(Armonk, NY: M.E. Sharpe, 2004), 270-271.
    \226\ Although the Chinese government does not aggregate economic 
data by ethnic group, scholars who have looked at other indicators have 
noted that the most prosperous regions in the XUAR are those with 
majority Han populations. Areas in the XUAR with overwhelmingly ethnic 
minority populations remain the region's poorest. Calla Wiemer, ``The 
Economy of Xinjiang,'' in Xinjiang: China's Muslim Borderland, ed. S. 
Frederick Starr (Armonk, NY: M.E. Sharpe, 2004), 177-180; David 
Bachman, ``Making Xinjiang Safe for the Han?'' in Governing China's 
Multiethnic Frontiers, ed. Morris Rossabi (Seattle: University of 
Washington Press, 2004), 165-168.
    \227\ Calla Wiemer, ``The Economy of Xinjiang,'' in Xinjiang: 
China's Muslim Borderland, ed. S. Frederick Starr (Armonk, NY: M.E. 
Sharpe, 2004), 179-180; David Bachman, ``Making Xinjiang Safe for the 
Han?'' in Governing China's Multiethnic Frontiers, ed. Morris Rossabi 
(Seattle: University of Washington Press, 2004), 167-168. For specific 
information on job discrimination observed in a town in the southern 
XUAR, see Ildiko Beller-Hann, ``Temperamental Neighbors: Uighur-Han 
Relations in Xinjiang, Northwest China,'' in Imagined Differences: 
Hatred and the Construction of Identity, ed. Gunther Schlee (New York: 
Palgrave, 2002), 65. See also the discussion on Labor Conditions--
Discrimination in this section for additional information on 
discriminatory job recruitment processes.
    \228\ In addition, official media reported that the XUAR government 
would also receive a US$100 million loan from the Asian Development 
Bank (ADB) for urban infrastructure improvement, which, according to an 
ADB official cited by official media, ``will generate employment 
opportunities, and improve urban living standards and the environment 
for residents in the project cities, particularly for ethnic minorities 
and the poor.'' ``China's Xinjiang Region To Get 100-mln-dlr Loan From 
ADB,'' Xinhua, 1 July 09 (Open Source Center, 1 July 09).
    \229\ For example, one part of the opinion calls for strengthening 
implementation of a two-point system to monitor mosques and religious 
leaders, for continuing to impose political training on religious 
personnel, and for forbidding ``underground'' sermonizing and private 
religious pilgrimages. See further analysis in ``Xinjiang Authorities 
Issue Plan Combining Rural Reform With Continued Political Controls,'' 
CECC China Human Rights and Rule of Law Update, No. 1, 2009, 4, and see 
Xinjiang Uyghur Autonomous Region Communist Party Committee and 
Government Opinion on Deepening the Promotion of Rural Reform and 
Development [Zizhiqu dangwei zizhiqu renmin zhengfu guanyu jinyibu 
tuijin nongcun gaige fazhan de yijian], issued 8 December 08. See 
points 29 and 30 for specific information on controls over religion and 
on propaganda campaigns.
    \230\ See further analysis in ``Xinjiang Authorities Issue Plan 
Combining Rural Reform With Continued Political Controls,'' CECC China 
Human Rights and Rule of Law Update, No. 1, 2009, 4, and see Xinjiang 
Uyghur Autonomous Region Communist Party Committee and Government 
Opinion on Deepening the Promotion of Rural Reform and Development 
[Zizhiqu dangwei zizhiqu renmin zhengfu guanyu jinyibu tuijin nongcun 
gaige fazhan de yijian], issued 8 December 08, point 6.
    \231\ He Zhanjun, ``State To Subsidize 53.4 Billion Yuan in 
Investment Within 5 Years To Support Accerelated Development of 
Xinjiang's 3 Southern Districts'' [5 niannei guojia jiang buzhu touzi 
534 yi yuan zhichi xinjiang nanjiang san di zhou jiakuai fazhan], 
Xinjiang Peace Net (Online), 4 January 09.
    \232\ ``Xinjiang Plans Free Senior High School Education,'' China 
Daily, reprinted in People's Daily (Online), 8 January 09. According to 
a May report, the proposal is still ``under the discussion of the State 
Council.'' ``Xinjiang Education Efforts Expanding,'' China Daily, 
reprinted in People's Daily (Online), 20 May 09.
    \233\ The job recruitment programs observed by the Commission 
continue a trend in discriminatory practices in the XUAR reported by 
the Commission in previous years. In 2006, the Xinjiang Production and 
Construction Corps recruited 840 civil servants from the XUAR, 
designating 38 positions for ethnic minorities and reserving the 
remainder for Han. ``Civil Servant Recruitment in Xinjiang Favors Han 
Chinese,'' CECC China Human Rights and Rule of Law Update, August 2006, 
6. During 2005 civil service recruitment in the XUAR, the government 
reserved 500 of 700 open positions for Han. ``Xinjiang Government Says 
Ethnic Han Chinese Will Get 500 of 700 New Civil Service 
Appointments,'' Congressional-Executive Commission on China (Online), 7 
April 05.
    \234\ See information that follows as well as ``Governments in 
Xinjiang Continue To Sponsor, Sanction Job Recruitment That 
Discriminates Against Ethnic Minorities,'' CECC China Human Rights and 
Rule of Law Update, No. 2, 2009, 3; ``Recruitment for State Jobs in 
Xinjiang Discriminates Against Ethnic Minorities,'' CECC China Human 
Rights and Rule of Law Update, No. 3, 2009, 2. See also examples cited 
in Uyghur American Association (Online), ``Uyghurs, Women Need Not 
Apply for Government Jobs in East Turkestan,'' 25 June 09.
    \235\ See information that follows as well as ``Governments in 
Xinjiang Continue To Sponsor, Sanction Job Recruitment That 
Discriminates Against Ethnic Minorities,'' CECC China Human Rights and 
Rule of Law Update, No. 2, 2009, 3; ``Recruitment for State Jobs in 
Xinjiang Discriminates Against Ethnic Minorities,'' CECC China Human 
Rights and Rule of Law Update, No. 3, 2009, 2.
    \236\ Article 4 of the Constitution and Article 9 of the PRC 
Regional Ethnic Autonomy Law (REAL) forbid discrimination based on 
ethnicity. Article 12 of the Labor Law and Article 3 of the Employment 
Promotion Law state that job applicants shall not face discrimination 
in job hiring based on factors including ethnicity, and Article 28 of 
the Employment Contract Law states that all ethnicities enjoy equal 
labor rights. Within this framework of non-discrimination, Article 14 
of the Labor Law allows for separate legal stipulations to govern the 
hiring of ethnic minorities, and Article 28 of the Employment Promotion 
Law says that employing units shall give appropriate consideration to 
ethnic minority workers in job hiring. In addition, Article 22 of the 
REAL provides that ethnic autonomous government agencies shall give 
appropriate consideration to ethnic minorities in job hiring. Article 
28 of the Implementing Provisions for the REAL also provides that 
ethnic autonomous areas give appropriate consideration to ethnic 
minorities in the job hiring process for government positions and 
includes provisions for their participation in higher levels of 
government. PRC Constitution, art. 4; PRC Regional Ethnic Autonomy Law 
(REAL), enacted 31 May 84, effective 1 October 84, amended 28 February 
01, arts. 9, 22; State Council Provisions on Implementing the PRC 
Regional Ethnic Autonomy Law [Guowuyuan shishi ``Zhonghua renmin 
gongheguo minzu quyu zizhifa'' ruogan guiding], issued 19 May 05, 
effective 31 May 05, art. 28; PRC Labor Law, enacted 5 July 94, 
effective 1 January 95, arts. 12, 14; PRC Employment Promotion Law, 
enacted 30 August 07, effective 1 January 08, art. 28.
    \237\ For analysis and to access job recruitment rosters for the 
XPCC positions, see ``Recruitment for State Jobs in Xinjiang 
Discriminates Against Ethnic Minorities,'' CECC China Human Rights and 
Rule of Law Update, No. 3, 2009, 2.
    \238\ For analysis and to access job recruitment rosters for the 
teaching positions, see ``Recruitment for State Jobs in Xinjiang 
Discriminates Against Ethnic Minorities,'' CECC China Human Rights and 
Rule of Law Update, No. 3, 2009, 2.
    \239\ For analysis and a link to the recruiting announcement, see 
``Governments in Xinjiang Continue To Sponsor, Sanction Job Recruitment 
That Discriminates Against Ethnic Minorities,'' CECC China Human Rights 
and Rule of Law Update, No. 2, 2009, 3.
    \240\ See analysis in ``Recruitment for State Jobs in Xinjiang 
Discriminates Against Ethnic Minorities,'' CECC China Human Rights and 
Rule of Law Update, No. 3, 2009, 2, citing, e.g., ``Barely 20 Percent 
of Xinjiang 2009 College Grads Sign Job Contracts, Multiple Measures 
Ensure Employment'' [Xinjiang 2009 nian gaoxiaosheng biyesheng qianyue 
jin 2 cheng duoxiang cuoshi bao jiuye], Xinhua (Online), 18 May 09. In 
late March, XUAR government chairperson Nur Bekri stressed prioritizing 
the employment of university and technical school graduates. ``116,000 
University and Tech School Grads in Xinjiang Need Employment'' 
[Xinjiang 11.6 wan da zhongzhuan biyesheng jinnian xu jiuye], Tianshan 
Net (Online), 27 March 09.
    \241\ Lei Xiaoxun, ``Region Vows Job Offers to Fresh Graduates,'' 
China Daily, 10 March 09 (Open Source Center, 10 March 09); State 
Administration for Ethnic Affairs (Online), ``Xinjiang Establishes 5 
On-Site Learning Employment Bases To Ensure University Students' 
Employment Rate Is Not Lower Than 70 Percent'' [Xinjiang jian 5 ge 
jiuye jianxi jidi quebao daxuesheng jiuyelu budiyu 70%], 2 March 09. A 
Communist Party official in Urumqi, referring to a specific program in 
that city, said, ``We will encourage employers to hire ethnic minority 
students and the government at all levels will arrange positions for 
them.'' Lei Xiaoxun, ``Region Vows Job Offers to Fresh Graduates,'' 
China Daily, 10 March 09 (Open Source Center, 10 March 09).
    \242\ ``Recruitment for State Jobs in Xinjiang Discriminates 
Against Ethnic Minorities,'' CECC China Human Rights and Rule of Law 
Update, No. 3, 2009, 2.
    \243\ Ariana Eunjung Cha, ``China Unrest Tied to Labor Program,'' 
Washington Post (Online), 15 July 09..
    \244\ Andrew Jacobs, ``At a Factory, the Spark for China's 
Violence,'' New York Times (Online), 16 July 09.
    \245\ Ariana Eunjung Cha, ``China Unrest Tied to Labor Program,'' 
Washington Post (Online), 15 July 09.
    \246\ ``Child Labor Alleged at Factory,'' Radio Free Asia (Online), 
12 May 09; ``Human Trafficking or Arranging for Work?'' [Adem 
bedikchilikimu yaki ishqa orunlashturushmu?], Radio Free Asia (Online), 
20 March 09; ``Local Government Authorities Fined Those in `Surplus 
Labor Force' Who Fell Ill and Returned Home'' [Yerlik hokumet dairiliri 
aghrip qaytip kelgen `eshincha emgek kuchlirdin' jerimane alghan], 
Radio Free Asia (Online), 5 March 09.
    \247\ Ibid.
    \248\ For information on reports from previous years, see CECC, 
2008 Annual Report, 31 October 08, 179, and accompanying footnotes.
    \249\ See, e.g., A.S. Bhalla and Shufang Qiu, Poverty and 
Inequality Among Chinese Minorities (London: Routledge, 2006), 139.
    \250\ ``Nuer Bekri Refutes the Allegation That Women of Uyghur 
Ethnic Group `Are Forced To Work in the Interior of the Country,' '' 
Xinhua, 18 July 09 (Open Source Center, 20 July 09). For additional 
background and a muted critique of some aspects of the program in an 
article written by scholars at the Chinese Academy of Social Sciences, 
see Feng Jianyong and Adil Aney, ``Build a Bridge That Binds Workers of 
All Hues,'' China Daily, 2 September 09 (Open Source Center, 2 
September 09).
    \251\ For varying reactions to the program, see, e.g., Ariana 
Eunjung Cha, ``China Unrest Tied to Labor Program,'' Washington Post 
(Online), 15 July 09; Kathleen E. McLaughlin, ``At a Nike Factory, 
Uighur Workers Worry,'' GlobalPost (Online), 13 July 09.
    \252\ ``Nuer Bekri Refutes the Allegation That Women of Uyghur 
Ethnic Group `Are Forced To Work in the Interior of the Country,' '' 
Xinhua, 18 July 09 (Open Source Center, 20 July 09).
    \253\ Overseas reporting has focused on the transfer of rural 
Uyghur women, and some Chinese reporting also has reported specifically 
on the transfer of non-Han women or transfer of women from 
predominantly non-Han areas of the XUAR. Uyghur Human Rights Project 
(Online), ``Deception, Pressure, and Threats: The Transfer of Young 
Uyghur Women to Eastern China,'' 8 February 08; ``656 Women From Rural 
Families in Yengisar County Go to Interior To Work and Earn 5.90 
Million Yuan'' [Yingjisha xian 656 ming nongjia nu fu neidi wugong 
chuangshou 590 wan yuan], Kashgar Daily, reprinted on the Web site of 
the Kashgar District Government (Online), 9 March 09; ``Ayimgul Feels 
Left Behind'' [Ayimuguli xiang liu xialai], Xinjiang Economic News, 
reprinted on NetEase (Online), 16 June 07; ``Over 5700 Rural Women From 
Yeken Go Out To Work'' [Shache 5700 duo ming nongjia nu waichu wugong], 
Xinjiang Daily, 17 September 07.
    \254\ ``Xinjiang People's Political Consultative Conference Member 
Proposes Enlarging Strength of Employment Training Force To Support 
`Mobility' of Rural Women'' [Xinjiang zhengxie weiyuan jianyi jiada 
jiuye peixun lidu cunongmuqu nuxing ``liudong''], Tianshan Net 
(Online), 12 January 09.
    \255\ Ibid.
    \256\ Xinjiang Uyghur Autonomous Region Communist Party Committee 
and Government Opinion on Deepening the Promotion of Rural Reform and 
Development [Zizhiqu dangwei zizhiqu renmin zhengfu guanyu jinyibu 
tuijin nongcun gaige fazhan de yijian], issued 8 December 08, point 16.
    \257\ ``Resolutely Drive Ahead With Projects for the People's 
Livelihood for On-the-Spot Labor Transfers and Employment in the 
Interior'' [Jiandingbuyi tuijin jiudi zhuanyi he neidi jiuye zhe xiang 
minsheng gongsheng], Xinjiang Daily, reprinted in Xinhua (Online), 30 
July 09.
    \258\ The information follows a report from Radio Free Asia in 
early 2008 that authorities required local residents in the southern 
XUAR to plant trees and build irrigation works. In addition, 2007 
reports from RFA, based on official Chinese sources and on interviews 
with officials and residents in the XUAR, indicated that during that 
year, authorities in Yeken (Yarkand, Shache) county required 100,000 
farmers to turn uncultivated land into a nut production base. See CECC, 
2008 Annual Report, 31 October 08, 180.
    \259\ ``Chinese New Year's Day: A Holiday for the Chinese, Forced 
Labor for Uyghurs'' [Chaghan kuni: xitaylar bayramda, uyghurlar 
hasharda], Radio Free Asia (Online), 28 January 09.
    \260\ ``Turning the Desert Into Oasis--The Sweat and Blood of a 
Farmer Doing Forced Labor'' [Cholni bostan qiliwatqan--hashagha 
ishlewatqan dehqanning qan teri], Radio Free Asia (Online), 25 March 
09; ``Uyghur Farmers Continually Being Made To Do Forced Labor'' 
[Uyghur dehqanliri dawamliq hashargha mejburlanmaqta], Radio Free Asia 
(Online), 26 March 09; ``Chinese Authorities Again Impose Forced Labor 
on Uyghur Farmers in Aqsu'' [Xitay hokumiti aqsuda uyghur dehqanlirigha 
yene hasha qoydi], Radio Free Asia (Online), 25 March 09.
    \261\ ``All Ethnicities in Xinjiang's Aqsu Municipality Busy 
Planting Trees'' [Xinjiang akesu shi ge zu qunzhong zhishu mang], 
Xinhua (Online), 24 March 09.
    \262\ Ibid.
    \263\ ``Starting This Fall, Xinjiang Students Attending Compulsory 
Education Will Not Pick Cotton Again'' [Jin qiu qi xinjiang jiu nian 
yiwu jiaoyu xuesheng buzai shi mianhua], Tianshan Net (Online), 19 
September 08. See also analysis in ``Xinjiang Work-Study Programs 
Continue; Cotton-Picking Activities Limited,'' CECC China Human Rights 
and Rule of Law Update, December 2008, 4.
    \264\ Ibid.
    \265\ See, e.g., Wusu City Letters and Visits Office (Online), 
``Concerning the Problem of Middle School Students Picking Cotton'' 
[Guanyu chuzhong xuesheng shi mianhua de wenti], 10 October 08, and 
information in ``Xinjiang Work-Study Programs Continue; Cotton-Picking 
Activities Limited,'' CECC China Human Rights and Rule of Law Update, 
December 2008, 4.
    \266\ ``Xinjiang Government Continues Controversial `Work-Study' 
Program,'' CECC China Human Rights and Rule of Law Update, November 
2006, 11.
    \267\ Ibid.
    \268\ Ibid.
    \269\ Based on the reports, the number of people affected 
approaches half of the Kashgar city population. He Xiangyang, Kashgar 
District Government (Online), ``District Launches Meeting To Report on 
the Comprehensive Administration of Kashgar Old City'' [Diqu zhaokai 
kashi shi laochengqu zonghe zhili xiangmu huibaohui], 13 August 09; Zhu 
Mingjun, ``Kashgar Old City Transformation Project Full Implemented 
Gross Investment 3 Billion Yuan, Gives Benefit to 51,000 Households and 
Nearly 200,000 People'' [Kashi shi laochengqu gaizao gongcheng quanmin 
shishi zong touzi 30 yi yuan, huiji 51000 hu jin 20 wan ren], Xinjiang 
Daily (Online), 27 February 09; Li Jun and Wu Yang, ``State and 
Xinjiang Invest 3 Billion Yuan To Benefit of 220,000 in Kashgar's Old 
City'' [Guojia he xinjiang touru 30 yi yuan fuze 22 wan kashi laocheng 
baixing], Xinjiang News Net (Online), 27 February 09; Zhao Chunlin, 
``Central Government and Xinjiang Jointly Invest 3 Billion Yuan in 
Funds to Transform Kashgar's Old City'' [Zhongyang he xinjiang gong 
toufang 30 yi yuan ju zi gaizao laochengqu], Xinjiang News Net 
(Online), 27 February 09; ``China Contributes 3 Billion To Redo 
Important Silk Road Site of Kashgar's Old City'' [Zhongguo chizi 
sanshiyi gaizao gu sizhouzhilu zhongzhen kashi laochengqu], China News 
Net (Online), 28 February 09; Guo Linjun, ``Ustang Boyi Neighborhood 
Committee in Kashgar Launches Pilot Project To Raze Dangerous Old 
Buildings'' [Kashi wusitang boyi jie ban shidianqu weijiufang chaiqian 
gongzuo qidong], Kashgar Daily, reprinted on Web site of Kashgar 
District Government (Online), 27 March 09; Hu Xiaorong, ``Xinjiang's 
Kashgar Uses 3 Billion Yuan To Remake Old City, To Backfill 35.9 
Kilometers of Tunnels'' [Xinjiang kashi 30 yi yuan gaizao laochengqu, 
jiang huitian 35.9 gongli didao], Yaxin (Online), 23 March 09; Li Huan, 
``Transformation of Xinjiang Kashgar's Old City Proceeding Smoothly'' 
[Xinjiang kashi laochengqu gaizao jinzhan shunli], Xinhua (Online), 27 
May 09; ``Transformation of Xinjiang Kashgar's Old City Proceeding 
Smoothly'' [Xinjiang kashi laochengqu gaizao jinzhan shunli], Yaxin 
(Online), 8 June 09. For detailed information on the project, see 
generally ``Demolition of Kashgar's Old City Draws Concerns Over 
Cultural Heritage Protection, Population Resettlement,'' CECC China 
Human Rights and Rule of Law Update, No. 3, 2009, 2.
    \270\ He Xiangyang, Kashgar District Government (Online), 
``District Launches Meeting To Report on the Comprehensive 
Administration of Kashgar Old City'' [Diqu zhaokai kashi shi laochengqu 
zonghe zhili xiangmu huibaohui], 13 August 09; Hu Xiaorong, 
``Xinjiang's Kashgar Uses 3 Billion Yuan To Remake Old City, To 
Backfill 35.9 Kilometers of Tunnels'' [Xinjiang kashi 30 yi yuan gaizao 
laochengqu, jiang huitian 35.9 gongli didao], Yaxin (Online), 23 March 
09.
    \271\ Hu Xiaorong, ``Xinjiang's Kashgar Uses 3 Billion Yuan To 
Remake Old City, To Backfill 35.9 Kilometers of Tunnels'' [Xinjiang 
kashi 30 yi yuan gaizao laochengqu, jiang huitian 35.9 gongli didao], 
Yaxin (Online), 23 March 09.
    \272\ For example, one media report said the dangers posed by the 
buildings also affected factors including ``economic development, 
ethnic unity, and the reinforcement of Xinjiang's borders.'' Li Jun and 
Wu Yang, ``State and Xinjiang Invest 3 Billion Yuan to Benefit of 
220,000 in Kashgar's Old City'' [Guojia he xinjiang touru 30 yi yuan 
fuze 22 wan kashi laocheng baixing], Xinjiang News Net (Online), 27 
February 09. See also sources cited within.
    \273\ He Xiangyang, Kashgar District Government (Online), 
``District Launches Meeting To Report on the Comprehensive 
Administration of Kashgar Old City'' [Diqu zhaokai kashi shi laochengqu 
zonghe zhili xiangmu huibaohui], 13 August 09.
    \274\ For an overview of this meeting, see Uyghur American 
Association (Online), ``Kashgar Demolition Is a `Serious Political 
Issue': Official Document Reveals Aggressive Nature of Propaganda Work 
Used To Enforce Kashgar Resettlement,'' 26 June 09, citing Kashgar 
Municipal Government (Online), ``Kashgar City Convenes Mobilization 
Meeting on Comprehensive Administration of Transformation of Dangerous 
Old Residences in the Old City'' [Kashi shi zhaokai lao chengqu wei jiu 
fang gaizao zonghe zhili dongyuan dahui], 31 May 09.
    \275\ He Xiangyang, Kashgar District Government (Online), 
``District Launches Meeting To Report on the Comprehensive 
Administration of Kashgar Old City'' [Diqu zhaokai kashi shi laochengqu 
zonghe zhili xiangmu huibaohui], 13 August 09.
    \276\ Ibid. According to the official, ``The reconstruction of the 
Old City must take place under the premise of protecting historical and 
regional features, but some experts and scholars propose retaining the 
original appearance of Kashgar's Old City, and we think that [view] is 
out of touch with reality. . . . Moreover, according to general 
surveys, buildings in the Old City with real historic preservation 
value are very few. We'll resolutely protect the buildings with 
historic preservation value, but we can't take every old and shabby 
building and keep them all.''
    \277\ Circular Concerning Announcement of Roster of Second Group of 
National Historic and Cultural Cities [Guanyu qing gongbu di er pi 
guojia lishi wenhua mingchen mingdan baogao de tongzhi], issued 8 
December 86.
    \278\ Regulation on the Protection of Famous Historic and Cultural 
Cities, Towns, and Villages [Lishi wenhua mingcheng mingzhen mingcun 
baohu tiaoli], issued 2 April 08, effective 1 July 08.
    \279\ See, e.g., article 47(1) of the regulation, discussed in 
``Demolition of Kashgar's Old City Draws Concerns Over Cultural 
Heritage Protection, Population Resettlement,'' CECC China Human Rights 
and Rule of Law Update, No. 3, 2009, 2, citing Regulation on the 
Protection of Famous Historic and Cultural Cities, Towns, and Villages 
[Lishi wenhua mingcheng mingzhen mingcun baohu tiaoli], issued 2 April 
08, effective 1 July 08, art. 47(1).
    \280\ George Michell, Kashgar: Oasis City on China's Old Silk Road 
(London: Frances Lincoln, 2008), 79.
    \281\ The report described many of the buildings as more than 400 
years old and most individual residences as more than 50 to 80 years 
old, with some as old as 150 years, which differs from a later report 
from the Kashgar government dating many houses to the 1950s and 1960s. 
Cheng Zhiqiang, Kashgar District Government (Online), ``Famous City 
Kashgar Masterpiece'' [Mingcheng kashi dashoubi], 27 February 07; Hu 
Xiaorong, ``Xinjiang's Kashgar Uses 3 Billion Yuan To Remake Old City, 
To Backfill 35.9 Kilometers of Tunnels'' [Xinjiang kashi 30 yi yuan 
gaizao laochengqu, jiang huitian 35.9 gongli didao], Yaxin (Online), 23 
March 09. In addition to houses, at least one cornerstone of Islamic 
architecture in the XUAR, a religious school, was targeted for 
demolition. Radio Free Asia reported in June that a religious school 
dating to the first millennium was demolished that month. ``Xanliq 
Madrassa--Level-One Cultural Relic in Kashgar--Is Destroyed'' 
[Qeshqerde 1--derijilik qoghdilidighan medeniy yadikarliq--xanliq 
medrisi cheqiwetildi], 17 June 09.
    \282\ See International Council on Monuments and Sites (Online), 
``Charter for the Conservation of Historic Towns and Urban Areas,'' 
October 1987.
    \283\ See Michael Wines, ``To Protect an Ancient City, China Moves 
To Raze It,'' New York Times (Online), 27 May 09; Paul Mooney, ``China 
Razes the Cradle of a Culture,'' National (Online), 3 May 09; ``Plan To 
Destroy Kashgar Old City Meets With Criticism'' [Qeshqer kona seherni 
cheqish pilani tenqidke uchridi], Radio Free Asia (Online), 25 March 
09; ``Demolition Plan for Kashgar,'' Radio Free Asia (Online), 2 April 
09; Maureen Fan, ``An Ancient Culture, Bulldozed Away,'' Washington 
Post (Online), 24 March 09; Uyghur American Association (Online), 
``Uyghur American Association Condemns Demolition of Kashgar Old 
City,'' 24 March 09; Kristine Kwok, ``Uygurs Upset at Kashgar Revamp,'' 
South China Morning Post (Online), 26 March 09; Henryk Szadziewski, 
``Kashgar's Old City: The Politics of Demolition,'' openDemocracy 
(Online), 3 April 09. A report from a Beijing-based non-governmental 
organization also has expressed concern about historic preservation and 
raised questions about procedural aspects of the project. Beijing 
Cultural Heritage Protection Center (Online), ``Please Help To Protect 
Kashgar Old Town,'' 16 April 09. For additional information, see 
``Demolition of Kashgar's Old City Draws Concerns Over Cultural 
Heritage Protection, Population Resettlement,'' CECC China Human Rights 
and Rule of Law Update, No. 3, 2009, 2.
    \284\ ``Demolition Plan for Kashgar,'' Radio Free Asia (Online), 2 
April 09.
    \285\ Paul Mooney, ``China Razes the Cradle of a Culture,'' 
National (Online), 3 May 09.
    \286\ Michael Wines, ``To Protect an Ancient City, China Moves To 
Raze It,'' New York Times (Online), 27 May 09.
    \287\ See information in ``Plan To Destroy Kashgar Old City Meets 
With Criticism'' [Qeshqer kona seherni cheqish pilani tenqidke 
uchridi], Radio Free Asia (Online), 25 March 09; Maureen Fan, ``An 
Ancient Culture, Bulldozed Away,'' Washington Post (Online), 24 March 
09.
    \288\ In addition, an older regulation that also addresses takings 
``has a focus on the advancement of urban development, and as such it 
does not make the fair process for takings a priority. On the contrary, 
it has a bias against owners of households.'' Mo Zhang, ``From Public 
to Private: The Newly Enacted Chinese Property Law and the Protection 
of Property Rights in China,'' 5 Berkeley Business Law Journal 360-361 
(2008), and PRC Property Law, enacted 16 March 07, effective 1 October 
07.
    \289\ See analysis in ``Demolition of Kashgar's Old City Draws 
Concerns Over Cultural Heritage Protection, Population Resettlement,'' 
CECC China Human Rights and Rule of Law Update, No. 3, 2009, 2. See 
also PRC Regional Ethnic Autonomy Law, enacted 31 May 84, effective 1 
October 84, amended 28 February 01, preamble, art. 38; State Council 
Provisions on Implementing the PRC Regional Ethnic Autonomy Law 
[Guowuyuan shishi ``zhonghua renmin gongheguo minzu quyu zizhifa'' 
ruogan guiding], issued 19 May 05, effective 31 May 05, art. 25.
    \290\ Michael Wines, ``To Protect an Ancient City, China Moves To 
Raze It,'' New York Times (Online), 27 May 09.

    Notes to Section V--Tibet
    \1\ When Chinese government and Party officials refer to ``Tibet,'' 
they generally refer to the area of what is today the Tibet Autonomous 
Region.
    \2\ See, e.g., ``Top Lawmakers of China, U.S. Meet on Wide-Ranging 
Issues,'' Xinhua (Online), 27 May 09. Wu Bangguo, Chairman of the 
Standing Committee of the National People's Congress (and a member of 
the Standing Committee of the Politburo of the Central Committee of the 
Communist Party) told Speaker Nancy Pelosi of the U.S. House of 
Representatives that ``The key to the bilateral relationship lies in 
respecting and taking care of each other's core interests,'' and 
identified ``Taiwan and Tibet'' as ``the most important and sensitive 
ones.''
    \3\ ``Wrong Stance on Tibet Hinders Ties With China,'' People's 
Daily, 2 March 09, reprinted in China Daily (Online), 5 March 09. The 
People's Daily opinion advanced the notion that other countries in the 
West would find ``cooperation'' with China ``impossible'' unless 
countries ``develop an objective and unbiased stance on Tibet.''
    \4\ ``Address at the Dinner Marking the 30th Anniversary of the 
Establishment of China-U.S. Diplomatic Relations Hosted by The 
Brookings Institution,'' Prepared Statement of Dai Bingguo, State 
Councilor of the People's Republic of China, The Brookings Institution 
(Online), 11 December 08.
    \5\ ``Wrong Stance on Tibet Hinders Ties With China,'' People's 
Daily, 2 March 09, reprinted in China Daily (Online), 5 March 09. 
``With China's status rising on the world stage and contacts deepening 
with the rest of the world, Western ideas about Tibet are also 
changing. . . . Relations between China and the rest of the world have 
experienced a historic transition. China's development is now tied to 
the world's, while the rest of the world also needs greater cooperation 
with China.''
    \6\ Ibid. ``However, it is impossible for the West to cooperate 
with China unless it develops an objective and unbiased stance on 
Tibet.''
    \7\ Guo Jiping, ``Mistaken Knowledge About Tibet Runs Contrary to 
Development, Progress,'' People's Daily, 2 March 09 (translated in Open 
Source Center, 3 March 09).
    \8\ Zhang Haizhou, ``The Time Has Come for Country To Set Its Own 
Rules in Diplomacy,'' China Daily (Online), 12 March 09. ``But the 
`China doctrine' is a totally new concept to the international 
community and in the international relations discipline. So why is 
China pursuing it? And what principles are at its core? . . . In an 
earlier interview, China's ambassador to Germany Ma Canrong told me 
many Westerners still do not understand that Tibet is China's core 
concern.''
    \9\ Ibid. According to the China Daily article: Yang used the news 
conference as an opportunity to let the world know the autonomous 
region is integral to China's core interest. He urged the international 
community ``to not allow the Dalai Lama to visit their countries'' and 
``to not allow him to use their territories to separate Tibet from 
China.'' ``PRC Foreign Minister Yang Jiechi's News Conference With 
Chinese and Foreign Media at the Great Hall of the People in Beijing,'' 
China Central Television, 7 March 09 (translated in Open Source Center, 
10 March 09). According to the transcript, Yang said: ``In handling 
their relations with China, no country in the world should allow Dalai 
to pay visits or use their territory to engage in separatist 
activities. That should be within the norms of international relations, 
not a so-called special favor to China. We simply hope that various 
countries would do things according to the standards they have 
established and proclaimed to the outside world, which is to respect 
the norms of international relations, respect international law, 
respect China's Constitution, and respect China's law of autonomy in 
ethnic regions.''
    \10\ See The Crisis in Tibet: Finding a Path to Peace, Hearing of 
the Committee on Foreign Relations, U.S. Senate, 23 April 08, Written 
Statement Submitted by Steven Marshall, Senior Advisor, Congressional-
Executive Commission on China. ``Tibetan protestors, in their 
widespread calls for Tibetan independence, have provided an 
unprecedented referendum on China's autonomy system. Weak 
implementation of the Regional Ethnic Autonomy Law is a principal 
factor preventing Tibetans from protecting their culture, language, and 
religion. The Chinese leadership's refusal to recognize the role of 
Chinese policy in driving Tibetan discontent, and their insistence on 
blaming the Dalai Lama, puts the leadership in an increasingly risky 
position.''
    \11\ CECC staff research cannot locate any information indicating 
that a government maintaining diplomatic relations with China 
challenges China's sovereignty over the Tibetan areas of China.
    \12\ Office of the Special Coordinator for Tibetan Issues, U.S. 
Department of State, Report on Tibet Negotiations, April 2008. The 
Report is mandated by Section 611 of the Foreign Relations 
Authorization Act, 2003. ``The United States recognizes the Tibet 
Autonomous Region (TAR) and Tibetan autonomous prefectures and counties 
in other provinces to be a part of the People's Republic of China. This 
long-standing policy is consistent with the view of the international 
community.''
    \13\ A Year After the March 2008 Protests: Is China Promoting 
Stability in Tibet? Staff Roundtable of the Congressional-Executive 
Commission on China, 13 March 09, Written Statement of Warren W. Smith, 
Writer, Radio Free Asia, Tibetan Service.
    \14\ Austin Ramzy, ``Failed Government Policies Sparked Tibet 
Riots,'' Time Magazine (Online), 26 May 09. The article refers to the 
Open Constitution Initiative as ``a Beijing-based think tank,'' and 
describes OCI as ``a six-year-old NGO run by Chinese lawyers. The group 
focuses on issues such as last year's tainted milk powder scandal and 
reform of China's household registration policy, which limits migration 
from the countryside to cities.'' Edward Wong, ``Report Says Valid 
Grievances at Root of Tibet Unrest,'' New York Times (Online), 5 June 
09. The article stated that, according to the report, ``[The] Tibetan 
riots and protests of March 2008 were rooted in legitimate grievances 
brought about by failed government policies--and not through a plot of 
the Dalai Lama, the exiled Tibetan spiritual leader.''
    \15\ Gongmeng Law Research Center, ``An Investigative Report Into 
the Social and Economic Causes of the 3.14 Incident in Tibetan Areas,'' 
Google Docs (Online), translated in International Campaign for Tibet 
(Online), ``Bold Report by Beijing Scholars Reveals Breakdown of 
China's Tibet Policy,'' 1 June 09. OCI described ``the 3.14 incident,'' 
which is not constrained either to Lhasa or to March 14, 2008, in the 
first sentence of the Foreword: ``From March to April of 2008, a series 
of mass violent incidents occurred in the Lhasa, Gannan [Tib: Kanlho, 
in Gansu province] and Aba [Tib: Ngaba, in Sichuan province] regions of 
our country.''
    \16\ ``Crush `Tibet Independence' Forces' Conspiracy, People's 
Daily Urges,'' Xinhua, reprinted in People's Daily (Online), 22 March 
08. ``Evidence shows that the violent incidents were created by the 
`Tibet independence' forces and masterminded by the Dalai Lama clique 
with the vicious intention of undermining the upcoming Olympics and 
splitting Tibet from the motherland.''
    \17\ Gongmeng Law Research Center, ``An Investigative Report Into 
the Social and Economic Causes of the 3.14 Incident in Tibetan Areas,'' 
Google Docs (Online), translated in International Campaign for Tibet 
(Online), ``Bold Report by Beijing Scholars Reveals Breakdown of 
China's Tibet Policy,'' 1 June 09. ``The 3.14 incident of course had 
its external causes, such as the political and religious demands from 
groups of Tibetans in exile overseas, and the influence of the Dalai 
Lama abroad. However, such a large social contradiction could not have 
been created solely by external factors; there must have been internal 
causes, but the news reports gave little detailed consideration to 
exposing the social roots of these violent incidents.''
    \18\ Although authorities generally refer only to ``Lhasa'' and 
only to the date ``3.14,'' some of the violent activity took place in 
counties adjacent to Lhasa city and under Lhasa municipality 
administration (e.g., Linzhou (Lhundrub), Dazi (Tagtse), and 
Duilongdeqin (Toelung Dechen) counties), and some of the violent 
activity took place on March 15 (e.g., in Dazi county). ``Judgments 
Pronounced Publicly on Some Defendants Involved in Lhasa's `14 March' 
Incident,'' Xinhua, 29 April 08 (Open Source Center, 30 April 08). The 
Xinhua article refers to five monks sentenced for rioting in Dechen 
township of Duilongdeqing county. ``94 Criminal Suspects in Linzhou 
County Surrender Themselves to Justice,'' Tibet Daily, 19 March 08 
(Open Source Center, 19 March 08). The Tibet Daily article reports the 
surrender of persons allegedly involved in ``serious incidents of 
beating, smashing, looting, and burning'' in Linzhou county. ``Tibet 
Issues Arrest Warrants for 16 Suspects in Riot,'' Xinhua (Online), 5 
April 08. According to the April article in Xinhua, the 16 suspects 
allegedly took part in a March 15 riot in Dechen township, located in 
Dazi county.
    \19\ Edward Wong, ``Report Says Valid Grievances at Root of Tibet 
Unrest,'' New York Times (Online), 5 June 09.
    \20\ Gongmeng Law Research Center, ``An Investigative Report Into 
the Social and Economic Causes of the 3.14 Incident in Tibetan Areas,'' 
Google Docs (Online), translated in International Campaign for Tibet 
(Online), ``Bold Report by Beijing Scholars Reveals Breakdown of 
China's Tibet Policy,'' 1 June 09. For example: the report states that 
external causes such as ``the political and religious demands from 
groups of Tibetans in exile overseas, and the influence of the Dalai 
Lama abroad,'' played a role in the ``3.14'' incident; the report 
mentions the Dalai Lama only 3 times and does not introduce the topic 
of the China-Dalai Lama dialogue; the report refers 29 times to 
``contradictions'' (a vague term Party and government officials use to 
refer to problems arising from social and economic conditions and 
policies). The report states that the Party-led system of regional 
ethnic autonomy is generally successful and utilizes Party terminology 
in doing so: ``Since the establishment of the new China and under the 
leadership of the Party and government, regional ethnic autonomy has 
generally been realized in the Tibetan region of Amdo, and the Tibetan 
people have exercised the right to be their own masters.''
    \21\ Ibid.
    \22\ Ibid.
    \23\ ``The transmission of Tibetan Buddhism'' refers to the Tibetan 
Buddhist process of identifying and educating Tibetan Buddhist teachers 
whom Tibetan Buddhists believe are reincarnations of a teacher who 
passed away. See, e.g., ``New Legal Measures Assert Unprecedented 
Control Over Tibetan Buddhist Reincarnation,'' Congressional-Executive 
Commission on China (Online), 22 August 07; State Administration for 
Religious Affairs, Measures on the Management of the Reincarnation of 
Living Buddhas in Tibetan Buddhism [Zangchuan fojiao huofo zhuanshi 
guanli banfa], issued 13 July 07, effective 1 September 07.
    \24\ A Year After the March 2008 Protests: Is China Promoting 
Stability in Tibet? Staff Roundtable of the Congressional-Executive 
Commission on China, 13 March 09, Testimony of Tseten Wangchuk, Senior 
Research Fellow, Tibet Center, University of Virginia; Senior Editor, 
Voice of America, Tibetan Language Service.
    \25\ Gongmeng Law Research Center, ``An Investigative Report Into 
the Social and Economic Causes of the 3.14 Incident in Tibetan Areas,'' 
Google Docs (Online), translated in International Campaign for Tibet 
(Online), ``Bold Report by Beijing Scholars Reveals Breakdown of 
China's Tibet Policy,'' 1 June 09, Section III, b. The report addresses 
``the new aristocracy'' in the section on ``Problems in Power 
Structures Within Regional Autonomy in Tibetan Areas,'' and states that 
such problems ``inevitably lead to a high incidence of corruption and 
dereliction of duty.''
    \26\ A Year After the March 2008 Protests: Is China Promoting 
Stability in Tibet? Staff Roundtable of the Congressional-Executive 
Commission on China, 13 March 09, Testimony of Tseten Wangchuk, Senior 
Research Fellow, Tibet Center, University of Virginia; Senior Editor, 
Voice of America, Tibetan Language Service.
    \27\ Edward Wong, ``China Shuts Down Office of Volunteer Lawyers,'' 
New York Times (Online), 17 July 09; ``China v. Civil Society,'' Wall 
Street Journal (Online), 21 July 09.
    \28\ Steven Marshall and Susette Cooke, Tibet Outside the TAR: 
Control, Exploitation and Assimilation: Development With Chinese 
Characteristics (Washington DC: self-published CD-ROM, 1997), Table 7. 
The 13 Tibetan autonomous areas include the provincial-level Tibet 
Autonomous Region (TAR), with an area of 1.2 million square kilometers 
(463,320 square miles), as well as 10 Tibetan autonomous prefectures 
(TAP) and two Tibetan autonomous counties (TAC) located in Qinghai, 
Gansu, Sichuan, and Yunnan provinces. Qinghai province: Yushu TAP, 
197,791 square kilometers (76,367 square miles); Guoluo (Golog) TAP, 
78,444 square kilometers (30,287 square miles); Huangnan (Malho) TAP, 
17,901 square kilometers (6,912 square miles); Hainan (Tsolho) TAP, 
41,634 square kilometers (16,075 square miles); Haibei (Tsojang) TAP, 
52,000 square kilometers (20,077 square miles); Haixi (Tsonub) Mongol 
and Tibetan AP, 325,787 square kilometers (125,786 square miles). Gansu 
province: Gannan (Kanlho) TAP, 45,000 square kilometers (17,374 square 
miles); Tianzhu (Pari) TAC, 7,150 square kilometers (2,761 square 
miles). Sichuan province: Ganzi (Kardze) TAP, 153,870 square kilometers 
(59,409 square miles); Aba (Ngaba) Tibetan and Qiang AP, 86,639 square 
kilometers (33,451 square miles); Muli (Mili) TAC, 11,413 square 
kilometers (4,407 square miles). Yunnan province: Diqing (Dechen) TAP, 
23,870 square kilometers (9,216 square miles). The Table provides areas 
in square kilometers; conversion to square miles uses the formula 
provided on the Web site of the U.S. Geological Survey (USGS): one 
square kilometer = 0.3861 square mile. Based on data in the Table, the 
10 TAPs and 2 TACs have a total area of approximately 1.04 million 
square kilometers (402,000 square miles). The TAR and the Tibetan 
autonomous prefectures and counties are contiguous and total 
approximately 2.24 million square kilometers (865,000 square miles). 
Xining city and Haidong prefecture, located in Qinghai province, have a 
total area of 20,919 square kilometers (8,077 square miles) and are not 
Tibetan autonomous areas.
    \29\ Office of the Special Coordinator for Tibetan Issues, U.S. 
Department of State, Report on Tibet Negotiations, March 2009. The 
Report is mandated by Section 611 of the Foreign Relations 
Authorization Act, 2003.
    \30\ Ibid.
    \31\ Ibid.
    \32\ ``Memorandum on Genuine Autonomy for the Tibetan People,'' 
Tibetan Government-in-Exile (Online), 16 November 08 (hereinafter, 
Memorandum).
    \33\ ``Dalai Lama Says He Is Loosing Faith on Talks With China,'' 
Phayul (Online), 26 October 09. Speaking on October 25, 2008, just 
before the eighth round of dialogue took place, the Dalai Lama referred 
to an upcoming November meeting of Tibetans and said, according to the 
report: ``So, in the coming meeting Tibetan people must take serious 
responsibility to discuss the future course of action on Tibet and find 
out where what has stalled our dialogue process.'' ``Official: Dalai 
Lama `Stubborn in Talks, Not True to His Word,' '' Xinhua, reprinted in 
People's Daily (Online), 26 March 09. According to the article, Zhu 
Weiqun said the talks were ``stuck in a very difficult position.'' 
``19th Task Force Meeting Starts in Dharamsala,'' Tibetan Government-
in-Exile (Online), 16 June 09. The article states that the dialogue 
``came to a standstill.''
    \34\ ``China-Dalai Lama Dialogue Round Ends: Party Restates Hard 
Line, Tibetans Begin Meeting,'' Congressional-Executive Commission on 
China (Online), 17 November 08. The report discusses the seventh round 
of dialogue in July 2008 and the eighth round in November 2008. ``Dalai 
Lama's Envoys To Begin China Visit on May 3,'' Congressional-Executive 
Commission on China (Online), 5 May 08. The report lists the first six 
sessions of dialogue: September 2002, May-June 2003, September 2004, 
June-July 2005, February 2006, and June-July 2007. All of the rounds of 
dialogue took place in China except in 2005, when the envoys met their 
counterparts in Bern, Switzerland.
    \35\ The Dalai Lama lives in exile near the town Dharamsala, 
located in the state of Himachal Pradesh, India. The Tibetan 
government-in-exile is based near the Dalai Lama's residence. Office of 
His Holiness the Dalai Lama (Online), ``Contact,'' last visited 9 June 
09; ``CTA Contact Addresses,'' Tibetan Government-in-Exile (Online), 26 
February 08.
    \36\ The United Front Work Department has functioned as the Dalai 
Lama's envoys' hosts and interlocutors since formal dialogue resumed in 
2002. ``Communist Party Adds Tibetan Affairs Bureau to the United Front 
Work Department,'' Congressional-Executive Commission on China 
(Online), 12 September 06. The CECC article describes the United Front 
Work Department: ``The UFWD oversees the implementation of Party policy 
toward China's eight `democratic' political parties, ethnic and 
religious groups, intellectuals, and entrepreneurs, among other 
functions.''
    \37\ ``China-Dalai Lama Dialogue Round Ends: Party Restates Hard 
Line, Tibetans Begin Meeting,'' Congressional-Executive Commission on 
China (Online), 17 November 08; ``Statement by Special Envoy of His 
Holiness the Dalai Lama, Kasur Lodi Gyaltsen Gyari,'' Tibetan 
Government-in-Exile (Online), 5 July 08.
    \38\ The Hui are a Chinese-speaking, principally Muslim ethnic 
minority.
    \39\ ``Dalai Lama Urged To Truly Not Support `Tibet Independence,' 
'' Xinhua (Online), 6 November 08.
    \40\ ``Statement of Special Envoy Kasur Lodi Gyari, Head of the 
Tibetan Delegation, Following the 8th Round of Discussions With 
Representatives of the Chinese Leadership,'' Tibetan Government-in-
Exile (Online), 6 November 08.
    \41\ ``Memorandum on Genuine Autonomy for the Tibetan People,'' 
Tibetan Government-in-Exile (Online), last visited 16 November 08. The 
Memorandum's original language is: ``During the seventh round of talks 
in Beijing on 1 and 2 July 2008, the Vice Chairman of the Chinese 
People's Political Consultative Conference and the Minister of the 
Central United Front Work Department, Mr. Du Qinglin, explicitly 
invited suggestions from His Holiness the Dalai Lama for the stability 
and development of Tibet. The Executive Vice Minister of the Central 
United Front Work Department, Mr. Zhu Weiqun, further said they would 
like to hear our views on the degree or form of autonomy we are seeking 
as well as on all aspects of regional autonomy within the scope of the 
Constitution of the PRC.''
    \42\ Ibid.
    \43\ ``Du Qinglin Meets the Dalai Lama's Personal Representatives 
and Their Entourage,'' Xinhua, 6 November 08 (translated in Open Source 
Center, 7 November 08).
    \44\ Ibid.
    \45\ Ibid.
    \46\ State Council Information Office, ``Transcript of PRC State 
Council Information Office 10 November News Briefing on Contacts and 
Talks With the Dalai Lama's Private Representatives,'' 10 November 08 
(translated in Open Source Center, 13 November 08). ``When we held 
talks with Gyari and his party, we pointed this out to them first: 
during the contacts last July, you pledged that you would not have any 
problem meeting the Central Government's `four not-support' 
requirement.''
    \47\ ``The Responsible Person of the Central United Front Work 
Department Answers Xinhua Reporter's Questions on the Recent Contact 
With Dalai Lama's Personal Representatives,'' Xinhua, 6 July 08 (Open 
Source Center, 7 July 08). The ``four no supports'' directed the Dalai 
Lama to ``give an open and explicit promise and take corresponding 
actions'' that he would give (ordered as in Xinhua) ``no support for 
activities that aimed to disturb and sabotage the Beijing Olympic 
Games''; ``no support for and making no attempt to conspire and incite 
violent criminal activities''; ``no support for and taking earnest 
steps to check the violent terrorist activities of the `Tibetan Youth 
Association' '' [Tibetan Youth Congress]; and ``no support for any 
propositions [zhuzhang] or activities that sought to achieve `Tibet 
independence' and split the motherland.''
    \48\ ``China Demands That the Dalai Lama Fulfill Additional 
Preconditions to Dialogue,'' Congressional-Executive Commission on 
China (Online), 30 July 08.
    \49\ Ibid. The Dalai Lama has expressed support for the 2008 
Beijing Summer Olympic Games; he counsels Tibetans not to engage in 
violent activity; he does not lead the Tibetan Youth Congress (which 
does not support the Dalai Lama's Middle Way Approach); he seeks 
``genuine autonomy,'' not independence. The Dalai Lama's Special Envoy 
said in his July 5, 2008, statement that the envoys ``categorically 
rejected the Chinese attempt to label [the TYC] as a violent and 
terrorist organization.''
    \50\ Ibid.; ``Beijing Holds Talks With Dalai's Representatives,'' 
Xinhua, reprinted in China Daily (Online), 3 July 08.
    \51\ State Council Information Office, ``Transcript of PRC State 
Council Information Office 10 November News Briefing on Contacts and 
Talks With the Dalai Lama's Private Representatives,'' 10 November 08 
(translated in Open Source Center, 13 November 08).
    \52\ Ibid. Zhu said, ``The provisions in the `Memoranda' concerning 
`genuine autonomy' are provisions that attempt to pit the Central 
Government's centralized leadership against regional national autonomy; 
attempt to reject, restrict and weaken the Central Government's 
authority; reject the supreme legislative authority of the National 
People's Congress; and even attempt to let you people of the 
secessionist clique revise the Constitution so that you actually can 
have the rights of an independent country.''
    \53\ Ibid. ``The things we talked with them were those about the 
Dalai Lama's need to completely renounce his secessionist proposition 
and activities, his plea for the understanding of the Central 
Government and the people of the country, and his future and the future 
of some of those by his side. We simply would not discuss with them 
about any so-called `Tibet issue.' . . . There are certain things the 
Dalai Lama can do. Our central government has clearly specified what he 
can do: truly abandoning his position of dividing the country, stopping 
his activities of dividing the motherland, openly acknowledging that 
Tibet is an inalienable part of China, openly acknowledging that Taiwan 
is an inalienable part of China, and acknowledging that the People's 
Republic of China is the only legitimate government of China. Then, we 
may continue to have contacts and talks with him on his personal 
future.''
    \54\ Ibid. ``Creating what you call a Greater Tibetan Autonomous 
Region simply is unrealistic and absolutely impossible. Now, after more 
than 20 years, you still want to talk to the central authorities on 
this issue, albeit in a roundabout way. This specifically shows that 
you don't even have the minimum sincerity. Now the contacts and talks 
have made no progress, and you should bear all the responsibilities.''
    \55\ ``Text Version of TV Interview With PRC Tibet Affairs Official 
on CPC-Dalai Talks,'' Hong Kong Phoenix Net (Fenghuang wang), 23 
December 08 (translated in Open Source Center, 25 December 08). ``What 
he seeks is a so-called `Greater Tibet' that never existed in history. 
It has no basis either in history or in reality. But in the memorandum, 
this issue was blatantly brought up to the central government, yet 
again. They did not give much justification. The only rationale they 
cited was that they could only safeguard the cultural characteristics 
and religious faith of the Tibetan nationality by bringing together the 
Tibetans in all the places where Tibetans live.'' (According to the 
transcript, Zhu then sought to discredit the envoys' rationale by 
asking them why they didn't attempt to gather in a single location all 
Tibetans living in exile in order to preserve their cultural 
characteristics.)
    \56\ ``Official: Dalai Lama `Stubborn in Talks, Not True to His 
Word,' '' Xinhua, reprinted in People's Daily (Online), 26 March 09.
    \57\ Ibid. ``In the July discussions, the Dalai Lama's 
representatives said they had no problems following the `four not-to-
supports' put forward by the central authorities. . . . But what did 
they do then? They absolutely forgot to carry out their promise and did 
not stop boycotting and destroying the Beijing Olympics. Instead, they 
intensified sabotaging activities and continued to attack the central 
government.'' ``The Responsible Person of the Central United Front Work 
Department Answers Xinhua Reporter's Questions on the Recent Contact 
With Dalai Lama's Personal Representatives,'' Xinhua, 6 July 08 (Open 
Source Center, 7 July 08). ``During the discussion, Dalai's personal 
representatives recognized the requirement as a new gist put forward by 
the central government, and indicated that they would accept the 
requirement raised by the central government.'' ``Official: Dalai Lama 
`Stubborn in Talks, Not True to His Word,' '' Xinhua, reprinted in 
People's Daily (Online), 26 March 09. (Following the July 2008 seventh 
round of dialogue, Chinese officials characterized as a ``promise'' the 
envoys' alleged ``acceptance'' of the conditions of the ``four not 
supports.'') In the interview, Zhu Weiqun said: ``They absolutely 
forgot to carry out their promise and did not stop boycotting and 
destroying the Beijing Olympics. Instead, they intensified sabotaging 
activities and continued to attack the central government. They 
supported the `Tibetan Youth Congress' and other organizations to 
publicly advocate `Tibetan independence' and fanned or organized 
violent criminal activities. They also continued to set up a claim to 
internationalize the Tibet issue, trying to make use of foreigners to 
press the central government. They continued to collude with such dregs 
as overseas democracy activists, `Falun Gong elements' and `Eastern 
Turkistan terrorists,' trying to form so-called `united front work' to 
oppose the central government and split the motherland.'' ``Chinese 
Official Urges Dalai Lama To Respond With Sincerity After Recent 
Contact,'' Xinhua (Online), 7 July 08. The article states that the 
``four not supports'' are ``detailed measures'' of the ``three stops'': 
``stop activities aimed at splitting China, stop plotting and inciting 
violence, and stop disrupting and sabotaging the Beijing Olympic 
Games.'' (The intent of the ``three stops'' apparently is to instruct 
the Dalai Lama to take broad measures to bring about an end to each of 
the types of activity.)
    \58\ ``Statement by Special Envoy of His Holiness the Dalai Lama, 
Kasur Lodi Gyaltsen Gyari,'' Tibetan Government-in-Exile (Online), 5 
July 08. ``[T]hey are now urging His Holiness not to support violence, 
terrorism, and sabotaging the Olympics. We stated in the strongest 
possible terms that no one needs to urge us on this as His Holiness and 
the Tibetan struggle are universally acknowledged and appreciated for 
consistently rejecting and opposing such acts. . . . His Holiness has 
repeatedly and clearly stated publicly he is not seeking separation and 
independence of Tibet.''
    \59\ Office of His Holiness the Dalai Lama (Online), ``Address by 
H.H. the Dalai Lama to the European Parliament,'' 4 December 08.
    \60\ ``Interview With the Dalai Lama; Crisis in Pakistan,'' CNN 
(Online), 10 May 09.
    \61\ ``Memorandum on Genuine Autonomy for the Tibetan People,'' 
Tibetan Government-in-Exile (Online), 16 November 08.
    \62\ Office of His Holiness the Dalai Lama (Online), ``His 
Holiness's Middle Way Approach for Resolving the Issue of Tibet,'' last 
visited 9 June 09.
    \63\ PRC Regional Ethnic Autonomy Law, enacted 31 May 84, effective 
1 October 84, amended 28 February 01, effective same day.
    \64\ Office of His Holiness the Dalai Lama (Online), ``His 
Holiness's Middle Way Approach for Resolving the Issue of Tibet,'' last 
visited 9 June 09.
    \65\ Ibid. (Numbers added for clarity.) (1) Without seeking 
independence for Tibet, the Central Tibetan Administration strives for 
the creation of a political entity comprising the three traditional 
provinces of Tibet; (2) Such an entity should enjoy a status of genuine 
national regional autonomy; (3) This autonomy should be governed by the 
popularly-elected legislature and executive through a democratic 
process and should have an independent judicial system; (4) As soon as 
the above status is agreed upon by the Chinese government, Tibet would 
not seek separation from, and remain within, the People's Republic of 
China; (5) Until the time Tibet is transformed into a zone of peace and 
non-violence, the Chinese government can keep a limited number of armed 
forces in Tibet for its protection; (6) The Central Government of the 
People's Republic of China has the responsibility for the political 
aspects of Tibet's international relations and defense, whereas the 
Tibetan people should manage all other affairs pertaining to Tibet, 
such as religion and culture, education, economy, health, ecological 
and environmental protection; (7) The Chinese government should stop 
its policy of human rights violations in Tibet and the transfer of 
Chinese population into Tibetan areas; (8) To resolve the issue of 
Tibet, His Holiness the Dalai Lama shall take the main responsibility 
of sincerely pursuing negotiations and reconciliation with the Chinese 
government.
    \66\ ``Memorandum on Genuine Autonomy for the Tibetan People,'' 
Tibetan Government-in-Exile (Online), last visited 16 November 08. ``In 
order for the Tibetan nationality to develop and flourish with its 
distinct identity, culture and spiritual tradition through the exercise 
of self-government on the above mentioned basic Tibetan needs, the 
entire community, comprising all the areas currently designated by the 
PRC as Tibetan autonomous areas, should be under one single 
administrative entity.''
    \67\ Office of His Holiness the Dalai Lama (Online), ``His 
Holiness's Middle Way Approach for Resolving the Issue of Tibet,'' last 
visited 9 June 09. ``Without seeking independence for Tibet, the 
Central Tibetan Administration strives for the creation of a political 
entity comprising the three traditional provinces of Tibet.''
    \68\ ``Tibet at a Glance,'' Tibetan Government-in-Exile (Online), 
last visited 9 June 09. ``Land Size: 2.5 million square kilometres, 
which includes U-Tsang, Kham and Amdo provinces.''
    \69\ Steven Marshall and Susette Cooke, Tibet Outside the TAR: 
Control, Exploitation and Assimilation: Development With Chinese 
Characteristics (Washington DC: self-published CD-ROM, 1997), Table 7. 
The total area of the TAR, 10 Tibetan autonomous prefectures, and 2 
Tibetan autonomous counties is approximately 2.24 million square 
kilometers (865,000 square miles). The area that Tibetans claim as 
Tibet, 2.5 million square kilometers, is approximately 965,000 square 
miles.
    \70\ The resulting single area of Tibetan autonomy would include 
the entire Tibet Autonomous Region, approximately 97 percent of Qinghai 
province, 52 percent of Sichuan province, 11 percent of Gansu province, 
and 6 percent of Yunnan province. Steven Marshall and Susette Cooke, 
Tibet Outside the TAR: Control, Exploitation and Assimilation: 
Development With Chinese Characteristics (Washington DC: self-published 
CD-ROM, 1997), Table 7. The only prefectural-level administrative areas 
in Qinghai province that are not areas of Tibetan autonomy are Xining 
municipality and Haidong prefecture. Together, Xining municipality and 
Haidong prefecture make up approximately 21,000 square kilometers. 
``Provinces and Autonomous Regions,'' China Internet Information 
Center, last visited 9 June 09. The area of Qinghai province is 
approximately 721,200 square kilometers. (Xining municipality and 
Haidong prefecture make up approximately 3 percent of the area of 
Qinghai.). Steven Marshall and Susette Cooke, Tibet Outside the TAR: 
Control, Exploitation and Assimilation: Development With Chinese 
Characteristics (Washington DC: self-published CD-ROM, 1997), Table 7. 
Together, the areas of Ganzi (Kardze) TAP (153,870 square kilometers), 
Aba (Ngaba) Tibetan and Qiang AP (86,639 square kilometers), and Muli 
(Mili) TAC (11,413 square kilometers) total approximately 251,800 
square kilometers. ``Provinces and Autonomous Regions,'' China Internet 
Information Center, last visited 27 March 09. The area of Sichuan 
province is approximately 485,000 square kilometers. (Ganzi TAP, Aba 
Tibetan and Qiang Autonomous Prefecture, and Muli Tibetan Autonomous 
County make up approximately 52 percent of Sichuan province.) Steven 
Marshall and Susette Cooke, Tibet Outside the TAR: Control, 
Exploitation and Assimilation: Development With Chinese Characteristics 
(Washington DC: self-published CD-ROM, 1997), Table 7. Together, the 
areas of Gannan (Kanlho) TAP (45,000 square kilometers) and Tianzhu 
(Pari) TAC (7,150 square kilometers) total approximately 52,150 square 
kilometers. ``Provinces and Autonomous Regions,'' China Internet 
Information Center, last visited 27 March 09. The area of Gansu 
province is approximately 454,400 square kilometers. (Gannan TAP and 
Tianzhu TAC make up approximately 11 percent of Gansu province.) The 
area of Diqing (Dechen) TAP is approximately 23,870 square kilometers. 
``Provinces and Autonomous Regions,'' China Internet Information 
Center, last visited 27 March 09. The area of Yunnan province is 
approximately 394,000 square kilometers. (Diqing TAP makes up 
approximately 6 percent of Yunnan province.)
    \71\ PRC Constitution, passed 4 December 82, effective same day, 
amended 12 April 88, 29 March 93, 15 April 99, 14 March 04, art. 
62(12). The National People's Congress exercises the function and power 
to ``approve the establishment of provinces, autonomous regions, and 
municipalities directly under the Central Government.'' PRC 
Constitution, art. 89(15). The State Council exercises the function and 
power to ``approve the geographic division of provinces, autonomous 
regions, and municipalities directly under the Central Government, and 
to approve the establishment and geographic division of autonomous 
prefectures, counties, autonomous counties, and cities.''
    \72\ A Year After the March 2008 Protests: Is China Promoting 
Stability in Tibet? Staff Roundtable of the Congressional-Executive 
Commission on China, 13 March 09. Testimony of Elliot Sperling, 
Associate Professor, Department of Central Eurasian Studies, Indiana 
University: ``[T]he dialogue process was entered into as a means of 
dragging it all out, walking a proposal to death, if you will. I'm not 
against dialogue, people talking, but it was clear, many, many, many 
years ago that this was not a dialogue that was being entered into 
sincerely by both parties; rather, on the part of one party it was a 
tactic to drag things out to irresolution until the Dalai Lama passes 
away.'' Testimony of Tseten Wangchuk, Senior Research Fellow, Tibet 
Center, University of Virginia; Senior Editor, Voice of America, 
Tibetan Language Service: ``I think in many ways I agree with Professor 
Sperling, that what the Dalai Lama says may not make much difference 
right now. The reasons, really, that China is not able to come to some 
sort of a realization about having an alternative policy toward Tibet 
is, by and large, determined by the Chinese political system right now, 
by the political atmosphere in China.'' Testimony of Warren W. Smith, 
Writer, Radio Free Asia, Tibetan Service: ``The answer to Steve's 
question is no. That will not make any difference, that they have more 
accurately defined now the territorial limits of what they mean by the 
Greater Tibetan Autonomous Region. . . . I am glad to see that 
Dharamsala has clearly defined that at last, but I don't think it's 
going to make any difference. As everyone else has said, you can see 
the different reasons that China uses to claim that the Dalai Lama has 
not met their conditions, and therefore they will not dialogue with 
him.''
    \73\ ``Memorandum on Genuine Autonomy for the Tibetan People,'' 
Tibetan Government-in-Exile (Online), last visited 16 November 08.
    \74\ Ibid.
    \75\ With respect to the hierarchy of people's congresses, see, 
e.g., PRC Constitution, arts. 67(8), 104, 116. Article 67 stipulates, 
``The Standing Committee of the National People's Congress exercises 
the following functions and powers: . . . (8) To annul those local 
regulations or decisions of the organs of state power of provinces, 
autonomous regions and municipalities directly under the Central 
Government that contravene the Constitution, the statutes or the 
administrative rules and regulations; . . .'' Article 104 states, ``The 
standing committee of a local people's congress at and above the county 
level . . . `annuls inappropriate resolutions of the people's congress 
at the next lower level'; . . .'' Article 116 directs that, ``People's 
congresses of national autonomous areas have the power to enact 
autonomy regulations and specific regulations in the light of the 
political, economic and cultural characteristics of the nationality or 
nationalities in the areas concerned. The autonomy regulations and 
specific regulations of autonomous regions shall be submitted to the 
Standing Committee of the National People's Congress for approval 
before they go into effect. Those of autonomous prefectures and 
counties shall be submitted to the standing committees of the people's 
congresses of provinces or autonomous regions for approval before they 
go into effect, and they shall be reported to the Standing Committee of 
the National People's Congress for the record.''
    \76\ With respect to the hierarchy of governments, see, e.g., PRC 
Constitution, arts. 89(4, 11, 15), 108. Article 89 states, ``The State 
Council exercises the following functions and powers: . . . (4) To 
exercise unified leadership over the work of local organs of state 
administration at different levels throughout the country, and to lay 
down the detailed division of functions and powers between the Central 
Government and the organs of state administration of provinces, 
autonomous regions and municipalities directly under the Central 
Government; . . . (11) To direct and administer affairs concerning the 
nationalities and to safeguard the equal rights of minority 
nationalities and the right of autonomy of the national autonomous 
areas; . . . (15) To approve the geographic division of provinces, 
autonomous regions and municipalities directly under the Central 
Government, and to approve the establishment and geographic division of 
autonomous prefectures, counties, autonomous counties and cities; . . 
.'' Article 108 stipulates, ``Local people's governments at and above 
the county level direct the work of their subordinate departments and 
of people's governments at lower levels, and have the power to alter or 
annul inappropriate decisions of their subordinate departments and 
people's governments at lower levels.''
    \77\ With respect to the hierarchy of courts, see PRC Constitution, 
art. 127. ``The Supreme People's Court is the highest judicial organ. 
The Supreme People's Court supervises the administration of justice by 
the local people's courts at different levels and by the special 
people's courts; people's courts at higher levels supervise the 
administration of justice by those at lower levels.''
    \78\ With respect to the hierarchy of procuratorates, see PRC 
Constitution, art. 132. ``The Supreme People's Procuratorate is the 
highest procuratorial organ. The Supreme People's Procuratorate directs 
the work of the local people's procuratorates at different levels and 
of the special people's procuratorates; people's procuratorates at 
higher levels direct the work of those at lower levels.''
    \79\ See, e.g., PRC Constitution arts. 67(8, 12), 89(4, 11, 15), 
104, 108, 115, 116, 127, and 132.
    \80\ ``Tibetan Official: Dalai Lama's Reincarnation Needs Nod From 
Central Gov't,'' Xinhua (Online), 12 March 09. Jampa Phuntsog (Xiangba 
Pingcuo), Chairman of the TAR government, said, ``The reincarnation of 
the Dalai Lama, like that of any Grand Living Buddha, must follow 
historical conventions and required religious rituals, and, more 
importantly among the traditions, approval from the central government. 
If the Dalai Lama does not follow the convention for political or other 
purposes, I believe his reincarnation would not be acknowledged by 
religious people in Tibet, and the central government will never 
approve it.''
    \81\ ``Ahead of Sensitive Dates, Lhasa Officials Add `Strike Hard' 
to Crackdown,'' Congressional-Executive Commission on China (Online), 
25 February 09. The CECC article lists these dates in February and 
March 2009: February 25 (Tibet New Year, or Losar), March 10 (the 1st 
anniversary of the start of Tibetan protests in 2008, and the 50th 
anniversary of the start of events in 1959 that led to the Dalai Lama's 
escape into exile), and March 28 (the first observance of ``Serfs 
Emancipation Day,'' a new TAR holiday commemorating a Chinese 
government decree that dissolved the Dalai Lama's Lhasa-based Tibetan 
government).
    \82\ ``Dalai by No Means a Religious Figure, but a Political One: 
Chinese FM,'' Xinhua (Online), 7 March 09. Minister Yang Jiechi made 
his remark at a press conference during the National People's Congress 
in Beijing.
    \83\ ``Political Plot Under Religious Banner,'' People's Daily, 18 
March 09 (translated in Open Source Center, 16 April 09).
    \84\ ``The Same Tibet but Widely Different Views--An Exclusive 
Interview With Qiangba Puncog, Chairman of the Tibet Autonomous 
Regional Government,'' Xinhua, 13 March 09 (translated in Open Source 
Center, 15 March 09).
    \85\ ``At the CPC Central Committee Political Bureau's Second 
Collective Study, Hu Jintao Stresses the Need To Comprehensively 
Implement the Party's Basic Policy on Religious Work and Actively Do a 
Good Job in Religious Work Under the New Situation,'' Xinhua, 19 
December 07 (translated in Open Source Center, 20 December 07). 
Communist Party General Secretary Hu Jintao addressed members of the 
Political Bureau (Politburo) of the Party's Central Committee and 
discussed the role of ``patriotic religious organizations'' in 
performing the Party's ``religious work'': ``We should bring into play 
the positive role of patriotic religious organizations, help and guide 
them to increase their ability of self-cultivation, exercise self-
management according to law and regulations, portray the wishes of 
religious believers, and earnestly protect the legitimate rights and 
interests of religious circles.'' ``Tibet Leader Speaks on Dalai, 
Regional Stability,'' Tibet People's Radio, 27 October 99 (translated 
in Open Source Center, 27 October 99). Jiabao, Vice Chairman of the TAR 
government, told ``regional leaders'' attending the seventh congress of 
the Tibet Branch of the Buddhist Association of China, ``The BAC is a 
patriotic religious organization under the leadership of the party and 
the government and is a bridge for linking believers with the party and 
the government.''
    \86\ PRC Regulation on Religious Affairs (RRA) [Zongjiao shiwu 
tiaoli], issued 30 November 04, effective 1 March 05, translated on the 
Web site of China Elections and Governance, art. 6. ``The 
establishment, alteration, or cancellation of registration, of a 
religious body shall be registered in accordance with the provisions of 
the Regulations on Registration Administration of Associations. The 
articles of association of a religious body shall comply with the 
relevant provisions of the Regulations on Registration Administration 
of Associations.'' Tibet Autonomous Region Temporary Measures on the 
Management of Religious Affairs, issued by the Standing Committee of 
the Tibet Autonomous Region People's Government on December 9, 1991, 
art. 15. ``The Buddhist Association is a mass organization of 
personages from religious circles and religious believers, and a bridge 
for the Party and government to unite and educate personages from 
religious circles and the believing masses. Its effectiveness shall be 
vigorously brought into play under the administrative leadership of the 
government's religious affairs department.''
    \87\ ``Tibet Leader Speaks on Dalai, Regional Stability,'' Tibet 
People's Radio, 27 October 99 (translated in Open Source Center, 27 
October 99). Jiabao, Vice Chairman of the TAR government, told 
``regional leaders'' attending the seventh congress of the Tibet Branch 
of the Buddhist Association of China, ``The BAC is a patriotic 
religious organization under the leadership of the party and the 
government and is a bridge for linking believers with the party and the 
government. . . . Patriotism, unity, and progress constitutes a 
brilliant policy of the party for guiding people of religious circles 
and religious believers and also constitutes a political demand from 
them.''
    \88\ ``Dalai Lama Not Invited to World Buddhist Forum in Eastern 
Chinese City,'' Xinhua (Online), 27 March 09. Vice President Ming Sheng 
of the Buddhist Association of China (BAC) explained that the BAC would 
have invited the Dalai Lama to the forum if the BAC deemed that the 
Dalai Lama had adequately fulfilled a set of Chinese government 
political demands: ``[Ming Sheng] said the organizers would have 
considered sending invitation to him, had the 14th Dalai Lama been 
willing to abandon his `Tibet independence' claims, stop secessionist 
activities and publicly avow that Tibet and Taiwan are both inalienable 
parts of China, and the People's Republic of China is the sole legal 
government of China.''
    \89\ ``Panchen Lama To Attend World Buddhist Forum in Eastern 
Chinese City,'' Xinhua (Online), 27 March 09. ``The forum, with the 
theme `A harmonious world, a synergy of conditions,' was jointly 
organized by the Buddhist Association of China, the Buddha's Light 
International Association, the Hong Kong Buddhist Association, and the 
China Religious Culture Communication Association.''
    \90\ ``Dalai Lama Not Invited to World Buddhist Forum in Eastern 
Chinese City,'' Xinhua (Online), 27 March 09.
    \91\ Ibid. After listing the demands that the Dalai Lama must 
``abandon his `Tibet independence' claims, stop secessionist activities 
and publicly avow that Tibet and Taiwan are both inalienable parts of 
China, and the People's Republic of China is the sole legal government 
of China,'' Meng stated, ``It is evident that the precondition doesn't 
exist for the time being.''
    \92\ ``New Panchen Lama Enthroned at Ceremony, 8 December Events 
Summarized,'' Xinhua, 8 December 95 (Open Source Center, 8 December 
95). The enthronement ceremony in Rikaze (Shigatse) was on December 8, 
1995. ``The ceremony was jointly presided over and monitored by Li 
Tieying, the representative of the State Council and a State Councilor, 
Gyalcan Norbu [Gyaltsen Norbu], special commissioner and chairman of 
the Tibet Autonomous Regional People's Government, and Ye Xiaowen, 
special commissioner and director of the State Council's Religious 
Affairs Bureau.'' (The Chairman of the TAR government and the boy whom 
Chinese officials installed as the Panchen Lama were both named 
Gyaltsen Norbu.)
    \93\ CECC, 2008 Annual Report, 31 October 08, 189. See, e.g., ``The 
Panchen Lama and the Golden Urn: China's Model for Selecting the Next 
Dalai Lama'' for more information on the Chinese government's 
supervision of the installation of Gyaltsen Norbu as the Panchen Lama.
    \94\ ``Panchen Lama To Attend World Buddhist Forum in E Chinese 
City,'' Xinhua (Online), 27 March 09; ``Panchen Lama Says China Enjoys 
Religious Freedom,'' Xinhua (Online), 28 March 09. According to the 
Xinhua article, Gyaltsen Norbu told forum attendees that ``China 
nowadays enjoys social harmony, stability and religious freedom.''
    \95\ PRC Criminal Law, enacted 1 July 79, amended 14 March 97, 
effective 1 October 97, amended 25 December 99, 31 August 01, 29 
December 01, 28 December 02, 28 February 05, 29 June 06, 28 February 
09, art. 103 (``organize, plot or carry out the scheme of splitting the 
State or undermining unity of the country''; ``incites others to split 
the State or undermine unity of the country'').
    \96\ ``Revised Tibetan Buddhists Constitution Says No to 
Separatism,'' Xinhua (Online), 18 February 09.
    \97\ Ibid.
    \98\ See, e.g., Tibet Autonomous Region Implementing Measures for 
the ``Regulation on Religious Affairs'' (Trial Measures) [Xizang 
zizhiqu shishi ``zongjiao shiwu tiaoli'' banfa (shixing)], issued 19 
September 06, effective 1 January 07, art. 3, 46. The second clause of 
Article 3 requires ``religious personnel'' (monks and nuns) to 
``safeguard the unification of the country, ethnic unity, and social 
stability.'' The third clause forbids ``religious personnel'' from 
carrying out activities that, among other things, ``harm national 
security.'' Article 46 states that ``religious personnel'' who violate 
the third clause of Article 3 may face administrative punishment if the 
circumstances are not ``serious,'' or criminal proceedings if the 
circumstances are ``serious.'' (Article 103 of the Criminal Law 
punishes ``inciting'' the split of the state. Chinese public security 
officials, prosecutors, and courts may treat even the possession of a 
photograph of the Dalai Lama as a separatist crime. See, e.g., ``RFA: 
Three Tibetans, Previously Unknown, Serve Prison Sentences for Dalai 
Lama Photos, Teachings,'' Congressional-Executive Commission on China 
(Online), 26 January 06.)
    \99\ ``Tibet Builds First Buddhism Academy,'' Xinhua (Online), 18 
October 08. Image caption: ``A foundation-laying ceremony of Tibetan 
Buddhism College is held in Lhasa, capital of southwest China's Tibet 
Autonomous Region, on Oct. 18, 2008. With a total investment of 80 
million yuan (about 11 million U.S. dollars) and an area of 17.5 
hectares, the college is expected to be the first comprehensive higher 
educational institution of Tibetan Buddhism in the region.''
    \100\ Ibid. ``Its total investment is all from the central 
government budget.''
    \101\ Ibid. The article reports that ``Lobsang Gyaincan'' (Lobsang 
Gyaltsen, or Luosang Jianzan) is the head of the United Front Work 
Department of the TAR Communist Party Committee. (A Commission staff 
delegation met in Lhasa in 2003 with Lobsang Gyaltsen when he served as 
Vice Chairman of the TAR government.)
    \102\ Ibid.
    \103\ Ibid. ``The first phase of construction will cost about 50 
million yuan [US$7.32 million] and is scheduled for completion in 2010. 
Its design includes a library and buildings for religious activities.''
    \104\ PRC Constitution, passed 4 December 82, effective same day, 
amended 12 April 88, 29 March 93, 15 April 99, 14 March 04, art. 36. 
China's Constitution grants Chinese citizens the ``freedom of religious 
belief,'' not the freedom of religion. The Constitution forbids 
citizens from using religion to ``disrupt public order'' or ``interfere 
with the educational system of the state.''
    \105\ ``A Reader for Advocating Science and Technology and Doing 
Away With Superstitions'' (translated by International Campaign for 
Tibet in When the Sky Fell to Earth: The New Crackdown on Buddhism in 
Tibet, 2004). ``Conducting patriotic education among the monks and nuns 
in the monasteries is an important aspect of strengthening the 
management of religious affairs by the government. . . . Dalai's bloc 
has never stopped penetrating and engaging in splittist activities in 
our region under the support of international antagonistic forces. . . 
. The monks and nuns should be religious professionals who love the 
country, love religion, obey the discipline, and abide by the law.''
    \106\ Campaigns at monasteries and nunneries emphasize ``legal,'' 
``political,'' and ``patriotic'' issues. The relative importance and 
emphasis on legal issues has increased as state regulation of religion 
has increased.
    \107\ ``Lhasa Area Monks and Nuns Face a New Round of `Patriotic 
Education,' '' CECC China Human Rights and Rule of Law Update, November 
2005, 10; Tibetan Centre for Human Rights and Democracy (Online), 
``China Recommences `Patriotic Education' Campaign in Tibet's Monastic 
Institutions,'' 13 October 05.
    \108\ ``Tibet Makes All-Round Arrangements for the Work of 
Maintaining Social Stability,'' China Tibet News, 19 February 09 
(translated in Open Source Center, 21 February 09).
    \109\ Ibid. According to the article: ``Secretary Zhang Qingli of 
the Tibet Autonomous Regional Party Committee, Vice Minister Zhang 
Xinfeng of the Public Security Ministry, and Deputy Secretary Zhang 
Yijiong attended and made important speeches at the teleconference. 
Legqog [Legchog/Lieque], deputy secretary of the Tibet Autonomous 
Regional Party Committee and chairman of the standing committee of the 
regional people's congress, presided over the teleconference.''
    \110\ Ibid.
    \111\ Official Chinese reports on the number of TAR university-
level institutions of learning are inconsistent. Two of the following 
official sources report that there are four such institutions and two 
report that there are six. The four official sources name a total of 
seven university-level institutions. None of the sources list the Tibet 
Academy of Social Sciences. The seven university-level institutions 
listed by at least one of the following sources are: Tibet University, 
Tibet College of Tibetan Medicine, Tibet Ethnic Nationality Institute, 
Lhasa Teacher Training Academy, Tibet Police Academy, Tibet Technology 
Institute, and Tibet Institute of Agriculture and Animal Husbandry 
(listed only in a 2000 Chinese government white paper). A plausible 
list of the four institutions where students will undergo ideological 
education may be the four institutions listed on a current English-
language Ministry of Education Web page: Ministry of Education 
(Online), ``List of Chinese Higher Education Institutions,'' last 
visited 12 June 09. The ministry reports on an English-language Web 
page that there are four university-level institutions in the TAR: 
``Tibet University, Tibet University of Traditional Tibet Medical, 
Tibet Institute for Nationalities, and Tibet Institute of Police 
Officer.'' Ministry of Education (Online), ``List of Chinese Higher 
Education Institutions [Quanguo putong gaoxiao mingdan],'' last visited 
12 June 09. The ministry reports on a Chinese-language page that there 
are six university-level institutions in the TAR: Tibet University, 
Tibet College of Tibetan Medicine, Tibet Ethnic Nationality Institute, 
Lhasa Teacher Training Academy, Tibet Police Academy, and Tibet 
Technology Institute. State Council Information Office, White Paper on 
Protection and Development of Tibetan Culture, 25 September 08. The 
white paper states, ``At present, there are . . . six colleges and 
universities [in the TAR], with students numbering 27,000 and an 
enrollment rate of 17.4 percent.'' State Council Information Office, 
White Paper on The Development of Tibetan Culture (2000), reprinted on 
the Web site of the National People's Congress, June 2000. ``Tibet has 
now established four universities--the Tibet Ethnic Institute, Tibet 
Institute of Agriculture and Animal Husbandry, Tibet University, and 
Tibet College of Tibetan Medicine, with a total enrollment of 5,249.'' 
(The NPC Web site omits identification of the State Council Information 
Office as the white paper's publisher. The China Internet Information 
Center Web site posts the white paper and identifies the SCIO as the 
publisher.)
    \112\ ``Tibetan Schools Increase Ideological, Political Education 
Activities,'' China Tibet News, 11 June 09 (summarized translation in 
Open Source Center, 11 June 09).
    \113\ Ibid.
    \114\ Ibid.
    \115\ Ibid.
    \116\ CECC, 2008 Annual Report, 31 October 08, 199.
    \117\ ``Ahead of Sensitive Dates, Lhasa Officials Add `Strike Hard' 
to Crackdown,'' Congressional-Executive Commission on China (Online), 
25 February 09. The Commission article lists sensitive dates in 
February and March 2009. Among the three dates (February 25, March 10, 
and March 28), March 10 represents two anniversaries: the 1st 
anniversary of the start of Tibetan protests in 2008 and the 50th 
anniversary of the start of events in 1959 that led to the Dalai Lama's 
escape into exile.
    \118\ Details are not available about the 505 TAR monasteries and 
nunneries where officials conducted education campaigns between March 
2008 and March 2009. ``Religious sites'' can refer to places (e.g., 
temples and hermitages) that are not a monastery or nunnery. Chinese 
officials have throughout the period 1996 to 2009 stated that in the 
TAR there are approximately 46,000 monks and nuns and 1,700 ``religious 
sites'' for Tibetan Buddhism. State Council Information Office, White 
Paper on Fifty Years of Democratic Reform in Tibet, Xinhua (Online), 2 
March 09. ``The freedom of religious belief and normal religious 
activities of the Tibetan people are protected. Today, there are more 
than 1,700 religious venues in Tibet, with more than 46,000 resident 
monks and nuns, which can fully meet the needs of religious believers 
in Tibet.'' ``Actively Guide Religion To Accommodate Itself to 
Socialist Society,'' Tibet Daily, 4 November 96 (translated in Open 
Source Center, 4 November 96). ``Relevant data and statistics show that 
in 1986, 50 monasteries in Tibet were open, 43 were under renovation 
but still open, and there were 408 spots for religious activities. At 
that time, it was planned that 229 monasteries would be renovated and 
opened, but the actual situation is that in early 1996, there are 1,787 
monasteries, which is greater than the total number of towns and 
townships in the region. There are over 46,000 nuns and monks, 
outnumbering secondary school students throughout the region.''
    \119\ ``China Focus: Legal Education at Tibetan Monasteries Bears 
Fruits,'' Xinhua (Online), 9 March 09. Sonam Rigzin (Suolang Renzeng), 
deputy head of the United Front Work Department of the TAR Communist 
Party Committee, made the remark.
    \120\ Tibet Autonomous Region Implementing Measures for the 
``Regulation on Religious Affairs'' (Trial Measures) [Xizang zizhiqu 
shishi ``zongjiao shiwu tiaoli'' banfa (shixing)], issued 19 September 
06, effective 1 January 07.
    \121\ State Administration for Religious Affairs, Measures on the 
Management of the Reincarnation of Living Buddhas in Tibetan Buddhism 
[Zangchuan fojiao huofo zhuanshi guanli banfa], issued 13 July 07, 
effective 1 September 07.
    \122\ ``Ten Patriotic, Law-Abiding, and Advanced Monasteries and 36 
Patriotic, Law-Abiding, and Advanced Monks and Nuns in Tibet Are 
Commended,'' Tibet Daily, 19 February 09 (translated in Open Source 
Center, 23 February 09).
    \123\ ``Tibetan Political Advisor: Secure Religious Order and Stem 
Separatism Infiltration,'' Xinhua (Online), 9 March 09. Pasang Dondrub 
(Basang Dunzhu) made recommendations including the following: (1) 
``China should secure the order of Tibetan Buddhism according to law to 
stem infiltration of `Tibet independence' separatists''; (2) 
``Monasteries and nunneries must strengthen their management by setting 
up or improving regulations, which should be used, along with Buddhism 
doctrines, to shape behaviors of monks and nuns''; (3) ``Nurture 
patriotism among the religious circle in Tibet and cultivate a team of 
personages who are `politically reliable, versed in Buddhism studies 
and morally admirable' ''; and (4) ``Law education for religion 
administrators should also be strengthened to enhance their 
understanding of the rule of law and their administration capability.''
    \124\ ``Zhebang Monastery Launches Assembly for Monks To Establish 
Peaceful Monastery Work,'' China Tibet News, 27 May 09 (summarized 
translation in Open Source Center, 22 June 09). (The Open Source Center 
summary did not provide any information on the extent of the education 
campaign that will take place over the October 1, 2009, period. 
Officials generally conduct such campaigns at what they deem to be 
appropriate institutions within one or more administrative areas. 
Because the 60th anniversary of the founding of the People's Republic 
of China is significant nationwide, it is possible that such education 
campaigns may take place in Tibetan autonomous areas outside the Tibet 
Autonomous Region as well as within the TAR.)
    \125\ Party and government offices sometimes set up ``work groups'' 
to assist and advise on various matters. An especially prominent ``work 
group'' with respect to Tibetan issues is the Communist Party's 
``Central Tibet Work Coordination Group.'' See ``Party Congress 
Promotes Officials Linked to Harsh Policies Toward Tibetans,'' 
Congressional-Executive Commission on China (Online), 22 January 08.
    \126\ ``Zhebang Monastery Launches Assembly for Monks To Establish 
Peaceful Monastery Work,'' China Tibet News, 27 May 09 (summarized 
translation in Open Source Center, 22 June 09). According to the Open 
Source Center summary, which does not state explicitly whether or not 
the demands Lobsang Dondrub listed are Zhang Qingli's ``Four 
Standards'': ``Luosang Dunzhu reportedly made four demands regarding 
peaceful monastery work, including preserving unity of the motherland 
and opposing ethnic separatism, building a long-term management system 
within the monastery to resolve problems and eliminate the reactionary 
influence of the Dalai Clique, increase the patriotic, legal, and 
political consciousness of every monk, and create an implementation 
plan at the monastery which includes the organization of all the 
monks.''
    \127\ Tibet Autonomous Region Implementing Measures for the 
``Regulation on Religious Affairs'' (Trial Measures) [Xizang zizhiqu 
shishi ``zongjiao shiwu tiaoli'' banfa (shixing)], issued 19 September 
06, effective 1 January 07, art. 43.
    \128\ PRC Regulation on Religious Affairs (RRA) [Zongjiao shiwu 
tiaoli], issued 30 November 04, effective 1 March 05, translated on the 
Web site of China Elections and Governance, art. 6.
    \129\ ``China Focus: Legal Education at Tibetan Monasteries Bears 
Fruits,'' Xinhua (Online), 9 March 09. ``After the riots, the 
management sent away about 700 visiting monks back to their home 
provinces and only the registered 600 stayed on at Drepung. The Sera, 
another major [monastery] in Lhasa, cleaned out more than 500 visiting 
monks and lodgers in the post-riots head-count.''
    \130\ The monks were ``visiting'' Drepung and Sera Monasteries for 
the purpose of Buddhist study. For centuries, monks from throughout 
what is today the TAR and the Tibetan areas of Qinghai, Gansu, Sichuan, 
and Yunnan provinces have engaged in (often advanced) study at the 
Drepung and Sera.
    \131\ ``China Focus: Legal Education at Tibetan Monasteries Bears 
Fruits,'' Xinhua (Online), 9 March 09.
    \132\ ``Tibetan Monks Still Held in Qinghai,'' Radio Free Asia 
(Online), 28 August 08. ``According to an authoritative source who 
spoke on condition of anonymity, 675 Tibetan monks from the three 
targeted monasteries were put on a train from Lhasa on April 25.''
    \133\ Ibid. RFA's source said: ``They were transported to a 
military detention center in Golmud.''
    \134\ International Campaign for Tibet (Online), ``A Great Mountain 
Burned by Fire: China's Crackdown in Tibet,'' March 2009, 16. The 
report states, ``. . . installations surrounded by uniformed PAP. . . 
.'' (ICT released the report on March 7, 2009. International Campaign 
for Tibet (Online), ``A Great Mountain Burned by Fire: China's 
Crackdown in Tibet,'' 7 March 09.)
    \135\ Ibid.
    \136\ Edward Wong, ``Tibetans Greet New Year in Opposition,'' New 
York Times (Online), 25 February 09. According to the article, ``About 
700 [monks] were sent to a camp in Golmud, in Qinghai, for patriotic 
education, then ordered to return to their hometowns, said three young 
monks who were at the camp.''
    \137\ International Campaign for Tibet (Online), ``A Great Mountain 
Burned by Fire: China's Crackdown in Tibet,'' March 2009, 16. (ICT 
released the report on March 7, 2009. International Campaign for Tibet 
(Online), ``A Great Mountain Burned by Fire: China's Crackdown in 
Tibet,'' 7 March 09.)
    \138\ ``Tibetan Monks Freed From Detention in Golmud,'' Radio Free 
Asia (Online), 3 September 08. With respect to monks resident in 
Sichuan province, the RFA report said: ``On Aug. 26, a group of 60 
monks detained in Golmud was moved to the Aba area in Sichuan. 
Officials of the United Front and Religious Affairs Bureau, along with 
a group of local police, went to Golmud and took charge of the monks 
belonging to their respective counties. Other monks belonging to 
different areas in Sichuan were moved in different groups on Aug. 27, 
28, and 29 from Golmud under escort by officials from their respective 
United Front and Religious Affairs Bureaus and the police. The last 
group of 14 monks was moved on Aug. 29 to the Kardze area from 
Golmud.'' Monks resident in Qinghai province were turned over to 
officials earlier, according to the report, which did not provide 
specific dates: ``Monks originally from Qinghai had been released 
earlier into the custody of officials from Qinghai's United Front and 
Religious Affairs Bureau and taken from Golmud into house arrest near 
their homes.''
    \139\ Ibid. According to an RFA source, ``The monks who were held 
in Golmud had endured beatings and psychological torture. As a result, 
many became ill and several developed heart problems.'' For an 
additional report of abusive treatment of monks under detention, see 
International Campaign for Tibet (Online), ``A Great Mountain Burned by 
Fire: China's Crackdown in Tibet,'' March 2009, 17. (ICT released the 
report on March 7, 2009. International Campaign for Tibet (Online), ``A 
Great Mountain Burned by Fire: China's Crackdown in Tibet,'' March 
2009.) In a February 3, 2009, blog entry, Tibetan writer Woeser (Oezer, 
Weise) reported that an unnamed monk ``simply couldn't bear it any 
longer. He started banging his head against the wall and then jumped 
from the window when he was taken to hospital. He broke several bones 
and is deaf in one ear.''
    \140\ The Chinese government does not permit Tibetan Buddhists in 
China to treat as a legitimate religious figure Gedun Choekyi Nyima, 
the boy the Dalai Lama recognized as the Panchen Lama in May 1995. The 
Chinese State Council declared the Dalai Lama's recognition of Gedun 
Choekyi Nyima ``illegal and invalid'' and supervised the selection and 
installation of another boy, Gyaltsen Norbu, as the Panchen Lama. ``It 
Is Both Illegal and Invalid for the Dalai Lama To Universally Identify 
the Reincarnated Soul Boy of the Panchen Lama,'' People's Daily, 1 
December 95 (Open Source Center, 1 December 95); ``New Panchen Lama 
Enthroned at Ceremony, 8 December Events Summarized,'' Xinhua, 8 
December 95 (Open Source Center, 8 December 95). The enthronement 
ceremony in Rikaze (Shigatse) was on December 8, 1995. ``The ceremony 
was jointly presided over and monitored by Li Tieying, the 
representative of the State Council and a State Councilor, Gyalcan 
Norbu [Gyaltsen Norbu], special commissioner and chairman of the Tibet 
Autonomous Regional People's Government, and Ye Xiaowen, special 
commissioner and director of the State Council's Religious Affairs 
Bureau.'' (The Chairman of the TAR government and the boy whom Chinese 
officials installed as the Panchen Lama were both named Gyaltsen 
Norbu.)
    \141\ ``Tibetan Official: Dalai Lama's Reincarnation Needs Nod From 
Central Gov't,'' Xinhua (Online), 12 March 09.
    \142\ A November 1995 broadcast by Communist Party-operated Tibet 
People's Radio provided questions and answers outlining the government 
position on the Dalai Lama's recognition of Gedun Choekyi Nyima as the 
Panchen Lama. Two of the questions asked why the Dalai Lama's action 
was ``illegal.'' The first answer focused on the Chinese government's 
view of Tibetan Buddhist religious processes and historical tradition; 
the second answer focused on China's sovereignty over Tibet. The first 
answer stated that ``the search for and confirmation of the Panchen's 
reincarnation must proceed according to religious rituals and 
historical norms'' which include, among other things, ``drawing lots 
from the golden urn, and submitting the results to the central 
government for approval.'' The second response was short and indicates 
that failure to accept the Chinese government's role in approving 
reincarnations is deemed to be a rejection of China's sovereignty over 
``Tibet'' (therefore, a potentially criminal act under Article 103 of 
the Criminal Law): ``Tibet is an inalienable part of China. Since the 
Yuan dynasty [1271 to 1368], Tibet's local administrative systems have 
been set up by the central government and its political and religious 
leaders could not exercise their authority if they were not appointed 
by the central government.'' ``Questions and Answers Regarding the 
Reincarnated Child of the 10th Panchen'' compiled by the Tibet 
Autonomous Regional Nationalities and Religious Affairs Commission, 
Tibet People's Radio Network, 4 November 95 (translated in Open Source 
Center, 4 November 95).
    \143\ P. Jeffrey Hopkins, ``The Identification of the Eleventh 
Panchen Lama,'' University of Virginia, Center for South Asian Studies 
Newsletter, Fall 1995. ``May 14, 1995. After extensive analysis of over 
thirty children is performed, four prophecies are consulted from 
oracles, and nine divinations including the dough-ball ritual are 
performed, the Dalai Lama formally recognizes a six-year-old boy, 
Dedhun [Gedun] Choekyi Nyima, born on April 25, 1989, in the Lhari 
District of Nagchu, Tibet, as the eleventh Panchen Lama.''
    \144\ CECC Staff Interview, September 2003. A Chinese judicial 
official explained that a photograph of Gedun Choekyi Nyima is illegal 
because the Chinese government had already approved a legal Panchen 
Lama (Gyaltsen Norbu). Disseminating photos of an illegal Panchen Lama 
can endanger the sovereignty and unity of the country, and aims to 
split the country.
    \145\ U.S. Commission on International Religious Freedom, Annual 
Report of the U.S. Commission on International Religious Freedom, May 
2009, 79. ``The Chinese government continues to deny repeated 
international requests for access to 19-year-old Gedhun Choekyi Nyima, 
whom the Dalai Lama designated as the 11th Panchen Lama when he was six 
years old. No one has seen him since, nor have any independent or 
transparent interviews taken place. While he is a `disappeared' person, 
government officials claim that he is in fact alive and well and being 
`held for his own safety.' ''
    \146\ Gedun Choekyi Nyima's date of birth is April 25, 1989. 
International Campaign for Tibet (Online), ``The Panchen Lama's 17th 
Birthday: More Control of Religion in Tibet, Ban on Prayer-Flags in One 
Tibetan Area,'' 25 April 06. The ICT states that April 25, 2006, was 
Gedun Choekyi Nyima's 17th birthday.
    \147\ P. Jeffrey Hopkins, ``The Identification of the Eleventh 
Panchen Lama,'' University of Virginia, Center for South Asian Studies 
Newsletter, Fall 1995. The chronology entry for May 21, 1995, includes 
this statement: ``The boy and his family, as well as two other children 
who were leading candidates, have disappeared and are reported to have 
been removed to Beijing.'' (For more information, see CECC, 2008 Annual 
Report, Section V on Tibet, ``The Panchen Lama and the Golden Urn: 
China's Model for Selection the Next Dalai Lama,'' 31 October 08, 189.)
    \148\ ``At the Symposium on the 50th Anniversary of Tibet 
Nationalities Institute, Zhang Qingli Emphasized Implementing the 
Strategy of Rejuvenating Tibet Through Science, Education and 
Employment of Talented Personnel, and Working Hard To Carry Out 
Education to the People's Satisfaction,'' Tibet Daily, 6 October 08 
(translated in Open Source Center, 28 October 08). Zhang Qingli, 
Secretary of the Communist Party Committee of the Tibet Autonomous 
Region, emphasized Party leadership in developing Tibet in an October 
2008 speech: ``Through its development in the previous more than half a 
century, education in Tibet had formed its own system, made remarkable 
achievements, and realized a historical leap forward. Facts had 
strongly proved that, only under the leadership of the CPC, in the arms 
of the big family of the motherland and by unswervingly following the 
socialist road could Tibet have a bright prospect and beautiful 
future.''
    \149\ See, e.g., State Council Information Office, White Paper on 
``Fifty Years of Democratic Reform in Tibet,'' 2 March 09, reprinted in 
Xinhua (Online), 2 March 09. ``Thanks to the care of the central 
authorities and the support of the whole nation, Tibet has witnessed 
remarkable progress in economic and social development. From 1959 to 
2008, the local GDP soared from 174 million yuan to 39.591 billion 
yuan, a 65-fold increase or an average annual growth of 8.9 percent at 
comparable prices.'' ``Overall Situation Stable in Tibet,'' Xinhua 
(Online), 6 March 09. According to the article, TAR GDP in 2008 
surpassed 39.59 billion yuan (US$5.82 billion), an increase of 10.1 
percent over 2007. Rural per capita income in the TAR in 2008 averaged 
3,176 yuan in 2008, an increase of 13.9 percent over 2007. Urban per 
capita income in the TAR in 2008 averaged 12,482 yuan, an increase of 
12.1 percent over 2007.
    \150\ When Chinese government and Party officials refer to 
``Tibet,'' they generally refer to what is today the Tibet Autonomous 
Region.
    \151\ See, e.g., State Council Information Office, White Paper on 
``Fifty Years of Democratic Reform in Tibet,'' 2 March 09, reprinted in 
Xinhua (Online), 2 March 09. With respect to education: ``In old Tibet 
there was not a single school in the modern sense. The enrollment rate 
for school-age children was less than two percent, while the illiteracy 
rate was as high as 95 percent. . . . The enrollment rate for primary 
school-age children has reached 98.5 percent, that for junior high 
school 92.2 percent, and that for senior high school 51.2 percent. 
There are 884 primary schools, 117 high schools and 1,237 teaching 
venues now in Tibet.'' With respect to highway infrastructure: ``In the 
old days, there was not a single highway in Tibet. Today, a convenient 
transportation network has taken shape, with highway transportation as 
the backbone and air, rail and pipeline transportation as supplement, 
stretching from Lhasa to all directions. In 2008, nearly all counties 
in Tibet became accessible by highways.'' (Commission staff cannot 
confirm the accuracy of Chinese government statistics on educational 
infrastructure and student attainment in the TAR. The Commission's 2006 
Annual Report stated, based on official Chinese government 2000 census 
data: ``Education levels among Tibetans are much lower than those of 
ethnic Han, undermining the ability of Tibetans to compete for 
employment and other economic advantages in an emerging market economy 
that attracts an increasing number of Han. Based on 2000 census data, 
the Tibetan rate of illiteracy (47.55 percent) is more than five times 
higher than for Han (8.60 percent), while Han reach senior middle 
school at more than five times the rate of Tibetans (8.83 percent 
compared to 1.70 percent).'' CECC, 2006 Annual Report, 20 September 06, 
169.)
    \152\ ``Tibet Party Chief: Conditions Ripe for Building Lhasa-
Xigaze Railway,'' Tibet Daily, 3 June 09 (summarized translation in 
Open Source Center, 22 June 09). According to the Open Source Center 
summary: ``Zhang Qingli, secretary of the Tibet CPC Committee, and 
Minister of Railways Liu Zhijun on 30 May have a forum on accelerating 
the construction and development of railways in Tibet.''
    \153\ See, e.g., ``Dalai Lama Group's Sabotage Biggest Obstacle to 
Tibet's Development,'' Xinhua (Online), 6 March 09.
    \154\ Ibid.
    \155\ ``Tibet To Step Up Legislation, Law Enforcement To Fight 
Splittism,'' Xinhua (Online), 12 March 09.
    \156\ Ibid.
    \157\ Ibid.
    \158\ ``Comprehensively Carrying out the Guiding Ideology Set by 
the Central Authorities for the Tibet Work in the New Period--First 
Commentary on Launching Activities for Thoroughly Studying and 
Practicing the Scientific Development Concept,'' Tibet Daily, 10 
October 08 (translated in Open Source Center, 19 October 08). ``One 
prominent feature about Tibet, which makes Tibet different from all the 
other provinces, regions, and municipalities in the country, is that 
Tibet is shouldered with an extremely heavy task of promoting its 
economic and social development on the one hand and the Dalai clique is 
trying its utmost to make disturbances and sabotages on the other.''
    \159\ CECC, 2004 Annual Report, Section VI on Tibet, ``Culture, 
Demography, and Development,'' 5 October 04, 98-100.
    \160\ CECC, 2005 Annual Report, Section VI on Tibet, ``Culture, 
Development, and Demography,'' 11 October 05, 108-110.
    \161\ CECC, 2006 Annual Report, Section VIII on Tibet, ``Culture, 
Development, and Demography,'' 20 September 06, 165-170.
    \162\ CECC, 2007 Annual Report, Section IV on Tibet: Special Focus 
for 2007, ``Tibetan Culture Under Chinese Development Policy and 
Practice,'' 10 October 07, 200-207.
    \163\ CECC, 2008, Annual Report, Section V on Tibet, ``Economic 
Development vs. Ethnic Minorities' Autonomous Rights,'' 31 October 08, 
192-194.
    \164\ The Dalai Lama has made a statement on the anniversary of the 
March 10, 1959, Lhasa uprising every year that he has lived in exile, 
beginning in 1960. The statements for the years 1961 to 2009 are 
available on the Web site of His Holiness at http://www.dalailama.com/
page.104.htm.
    \165\ Office of His Holiness the Dalai Lama (Online), ``Statement 
of His Holiness the Dalai Lama on the Fiftieth Anniversary of the 
Tibetan National Uprising Day,'' 10 March 09.
    \166\ Ibid.
    \167\ For example, Hu Yinan, ``Lhasa To Boast Modern Redesign,'' 
China Daily (Online), 17 March 09.
    \168\ ``Tibet Starts Building 5th Civil Airport,'' Xinhua (Online), 
30 April 09. ``China is also building a 254-km railway linking Xigaze 
with the regional capital Lhasa. Construction on the 11-billion-yuan 
[US$1.61 billion] Qinghai-Tibet railway's extension line started in 
2008 and was expected to be completed in 2010.''
    \169\ Ibid. Construction began on April 29, 2009, according to the 
article, and would be complete in two years.
    \170\ ``Opinions on the Implementation of Certain Policy Measures 
for the Large-Scale Development of the West Region (by the State 
Council Office for the Development of the West Region on 28 August 
2001),'' Xinhua, 20 December 01 (translated in Open Source Center, 20 
December 01). Under the subheading, ``Giving Priority to the West 
Region in Making Arrangements for Construction Projects,'' the State 
Council Opinion states, ``It is necessary to give priority to the west 
region in making arrangements for construction and other development 
projects, including water conservancy, highway, railway, airport, oil 
and gas pipes, telecommunications and other infrastructure construction 
projects; ecological and environmental improvement; the development of 
agriculture with special characteristics and hydroelectric power; the 
production of fine coal, petroleum, natural gas, copper, aluminum, 
potassium, phosphorus and other advantageous energy sources; the 
development of tourism and high-technology with special 
characteristics; and the industrialization of military technologies for 
civilian use.''
    \171\ Ibid. (The opinion provides 2000 as the date of a State 
Council circular on implementation of the Great Western Development 
campaign.) ``The implementation of the strategy of large-scale 
development of the west region and the acceleration of the development 
of China's central and west regions is a major policy decision of the 
party Central Committee after taking the overall situation into 
consideration with great foresight. According to the `State Council 
Circular on Implementing Certain Policy Measures for the Large-Scale 
Development of the West Region' (Guo Fa [2000] No. 33), the State 
Council Office for the Development of the West Region has further 
studied and formulated opinions on the implementation of certain policy 
measures for the large-scale development of the west region in 
conjunction with concerned departments.''
    \172\ Hu Yinan, ``Lhasa To Boast Modern Redesign,'' China Daily 
(Online), 17 March 09.
    \173\ Ibid.
    \174\ Ibid. ``According to the plan, Lhasa, Tibet's largest city, 
should cap its downtown population at less than 450,000, while 
constraining its land used for urban development within 75 sq km.''
    \175\ Tibet Statistical Yearbook 2008 (Beijing: China Statistics 
Press, June 2008), Table 3-7, ``Population by Region,'' 36. The seven 
counties included in Lhasa municipality are Linzhou (Lhundrub), 
Dangxiong (Damshung), Nimu (Nyemo), Qushui (Chushur), Duilongdeqing 
(Toelung Dechen), Dazi (Tagtse), and Mozhugongka (Maldro Gongkar).
    \176\ Ibid.; Tabulation on Nationalities of 2000 Population Census 
of China, Department of Population, Social, Science and Technology 
Statistics, National Bureau of Statistics, and Department of Economic 
Development, State Ethnic Affairs Commission (Beijing: Ethnic 
Publishing House, September 2003), Table 10-4. The total 2007 
population of Lhasa municipality (464,736 persons) and of Lhasa city 
(181,191) provided in the 2008 Tibet Statistical Yearbook are less than 
the population for the same areas recorded in the official 2000 census: 
Lhasa municipality (474,499); Lhasa city (223,001). (The notion that 
Lhasa's population in 2007, after the opening of the Qinghai-Tibet 
railway, was lower than in 2000, before the construction of the 
railway, is an example of problems that official Chinese population 
data can pose, especially when comparing census data on population with 
population data in provincial statistical yearbooks. The national 
census and annual provincial population surveys use different methods 
to collect data. See CECC, 2006 Annual Report, Section VIII--Tibet, 20 
September 06, 168-169; CECC, 2005 Annual Report, Section VI--Tibet, 11 
October 05, 110.)
    \177\ Tibet Statistical Yearbook 2008 (Beijing: China Statistics 
Press, June 2008), Table 3-7, ``Population by Region,'' 36. The 
yearbook provides the following data for 2007: Lhasa municipality total 
(464,736). Lhasa city (181,991); Linzhou (Lhundrub) county (58,426); 
Dangxiong (Damshung) county (43,534); Nimu (Nyemo) county (30,394); 
Qushui (Chushur) county (33,159); Duilongdeqing (Toelung Dechen) county 
(45,551); Dazi (Tagtse) county (26,723); Mozhugongka (Maldro Gongkar) 
county (44,958).
    \178\ For a discussion of official Chinese reports on the number 
and characterization of passengers traveling on the Qinghai-Tibet 
railway into the Tibet Autonomous Region, and of the views of some 
Tibetan residents of Lhasa toward the increase in non-Tibetans in 
Lhasa, see CECC, 2007 Annual Report, Section IV on Tibet: Special Focus 
for 2007, ``Qinghai-Tibet Railway Carries 1.5 Million Passengers Into 
the TAR in First Year,'' 10 October 07, 203-204.
    \179\ ``Transcript of Tibet Officials' 6 Mar Interview With 
Reporters During NPC Session,'' Xinhua, 6 March 09 (translated in Open 
Source Center, 15 March 09); Lan Jinshan, ``Zhang Yijiong's Emphasis on 
the Promotion of Services and Management for Floating Population Sets a 
New Platform'' [Zhang Yijiong qiangdiao tuidong liudong renkou fuwu he 
guanli mai shang xin taijie], China Tibet News (Online), 3 September 
08; See also ``Unavoidable Internal Problems, Separatists Blamed for 
Lhasa Riot,'' China Daily (Online), 19 March 09.
    \180\ Ibid. Lan Jinshan, ``Zhang Yijiong's Emphasis on the 
Promotion of Services and Management for Floating Population Sets a New 
Platform'' [Zhang Yijiong qiangdiao tuidong liudong renkou fuwu he 
guanli mai shang xin taijie], China Tibet News (Online), 3 September 
08. According to the report, Zhang Yijiong said: ``In recent years, 
following the increasing strength of reform and opening up in Tibet, 
especially following the opening of the Green Tibet Railroad, the work 
of service and supervision of Tibet's floating population has 
encountered many new situations, is facing many new problems, and 
requires that we research and find solutions with increased 
sincerity.''
    \181\ ``Transcript of Tibet Officials' 6 Mar Interview With 
Reporters During NPC Session,'' Xinhua, 6 March 09 (translated in Open 
Source Center, 15 March 09). Referring to the March 14 rioting, Jampa 
Phuntsog (Xiangba Pingcuo) said: ``At that time, the violent acts of 
the thugs caused 18 deaths of innocent people and injured 382 people, 
and some became disabled. The thugs set fires at more than 300 places 
including five hospitals, 908 shops, and 120 civilian houses.''
    \182\ Ibid. Chairman of the TAR Government, Jampa Phuntsog, said of 
the floating population: ``They conducted legal business here and made 
contributions to Tibet's development, but they were killed for no 
reason. . . . This involves some issues concerning the management of 
the floating population and issues concerning social management. With 
the completion of the Qinghai-Tibet railway and increases in the stream 
of people, the flow of merchandise, and the flow of information, we are 
behind in some work.''
    \183\ Lan Jinshan, ``Zhang Yijiong's Emphasis on the Promotion of 
Services and Management for Floating Population Sets a New Platform'' 
[Zhang Yijiong qiangdiao tuidong liudong renkou fuwu he guanli mai 
shang xin taijie], China Tibet News (Online), 3 September 08.
    \184\ Ibid.
    \185\ Ibid.
    \186\ ``With People First, Do Good Floating Population Management 
Work'' [Chengguan qu liudong renkou guanli gongzuo huiyi qiangdiao], 
Lhasa Evening News (Online), 4 February 09. ``It is understood that 
since June of last year, the autonomous region, Lhasa Municipality and 
Chengguan District have sent 40 county-level cadres and 147 normal 
cadres into the 40 village (neighborhood) committees in Chengguan 
District to work on floating population service and management 
stations. In total, 69,000 rental accommodation units have been checked 
and registered, 183,926 people have been registered with temporary 
residency, 61,380 rented accommodation [law and] order responsibility 
contracts have been signed, and 59,186 rented accommodation [law and] 
order leases have been signed.''
    \187\ Ibid. (Although the article refers to the officials who 
registered temporary residents in Lhasa's Chengguan district as ganbu 
(cadres), they may have held government jobs in addition to their Party 
post if they were registering residents, a government function.)
    \188\ Ibid. ``It is understood that since June of last year, the 
autonomous region, Lhasa Municipality and Chengguan District have sent 
40 county-level cadres and 147 normal cadres into the 40 village 
(neighborhood) committees in Chengguan District to work on floating 
population service and management stations. In total, 69,000 rental 
accommodation units have been checked and registered, 183,926 people 
have been registered with temporary residency, 61,380 rented 
accommodation [law and] order responsibility contracts have been 
signed, and 59,186 rented accommodation [law and] order leases have 
been signed.''
    \189\ Tibet Statistical Yearbook 2008 (Beijing: China Statistics 
Press, June 2008), Table 3-7, ``Population by Region,'' 36. The 
yearbook provides the following data for 2007: Lhasa municipality total 
(464,736), Lhasa city (181,991).
    \190\ ``Construction of Tibet's Largest Logistics Center Nears 
Completion,'' Xinhua, 20 April 09, reprinted in China Internet 
Information Center (Online); ``Nagqu Logistics Center: Beautiful 
Scenery in Changtang,'' China Tibet Information Center (Online), 9 
April 09.
    \191\ ``Construction of Tibet's Largest Logistics Center Nears 
Completion,'' Xinhua, 20 April 09, reprinted in China Internet 
Information Center (Online). ``It is scheduled to be finished in June, 
but when it would start operation remained unknown, said Yang.'' (The 
article described Yang Yanguang as ``a project leader from China 
Railway Construction Engineering Group.'') ``Nagqu Logistics Center: 
Beautiful Scenery in Changtang,'' China Tibet Information Center 
(Online), 9 April 09. An April 9 report, however, provided June 30, 
2009, as the startup date: ``This center as the beautiful scenery in 
Changtang is expected to start operation on June 30, 2009.''
    \192\ ``Tibet's Largest Logistics Center Starts Operation,'' 
Xinhua, reprinted in China Daily (Online), 18 August 09.
    \193\ ``Construction of Tibet's Largest Logistics Center Nears 
Completion,'' Xinhua, 20 April 09, reprinted in China Internet 
Information Center (Online). The report states that the facility 
occupies 533 hectares (1,317 acres).
    \194\ ``Key Railway Logistics Center Set Up in Tibet,'' Xinhua 
(Online), 17 August 09.
    \195\ ``Nagqu Logistics Center: Beautiful Scenery in Changtang,'' 
China Tibet Information Center (Online), 9 April 09. ``[The logistics 
center] . . . will have a great impact on Chamdo county of TAR, Sichuan 
Province, and Yunnan Province in the east and in the west it will 
influence Ngari county [sic: prefecture], which is connected with the 
Xinjiang Uygur Autonomous Region. In the north, Nagqu Logistics Center 
will connect Shaanxi Province, Gansu Province and Qinghai Province 
while in the south it will boost the central areas of the Tibet 
Autonomous Region.''
    \196\ ``Nagqu Logistics Center: Bridge Tower for Landway of S 
Asia,'' Xinhua (Online), 25 November 08.
    \197\ ``Qinghai-Tibet Rail Line Opens Way for Future,'' China Daily 
(Online), 10 January 09. According to the article, ``In the near 
future, a new railway will be built from Lhasa to Xigaze, and before 
2020 a railway is planned connecting Xinjiang Uygur autonomous region 
and Tibet.'' Sun Yongfu, former Vice-Minister of Railways said, ``In 
the long term, there will also be railways entering Tibet from Chengdu 
in Sichuan province and Kunming in Yunnan province.''
    \198\ ``Qinghai-Tibet Railway To Get Six New Lines,'' China Daily 
(Online), 17 August 08. ``The six new tracks include one from Lhasa to 
Nyingchi [Linzhi] and one from Lhasa to Xigaze [Rikaze], both in the 
Tibet autonomous region. Three tracks will originate from Golmud in 
Qinghai province and run to Chengdu in Sichuan province, Dunhuang in 
Gansu province, and Kuerle [Ku'erle] of the Xinjiang Uygur Autonomous 
Region. The sixth will link Xining, capital of Qinghai, with Zhangye in 
Gansu.'' ``Qinghai-Tibet Plateau To Embrace 6 More Railway Lines by 
2020,'' Xinhua (Online), 3 December 08.
    \199\ CECC China Human Rights and Rule of Law Update, September 
2006, 14; ``Government Announces Extension of Qinghai-Tibet Railway to 
Rikaze,'' Congressional-Executive Commission on China (Online), 28 
August 06.
    \200\ ``Tibet Party Chief: Conditions Ripe for Building Lhasa-
Xigaze Railway,'' Tibet Daily, 3 June 09 (summarized translation in 
Open Source Center, 22 June 09). According to the Open Source Center 
summary: ``Zhang Qingli, secretary of the Tibet CPC Committee, and 
Minister of Railways Liu Zhijun on 30 May have a forum on accelerating 
the construction and development of railways in Tibet.''
    \201\ ``Work on Sichuan-Tibet Railway To Begin in September,'' 
China Tibet Online (Online), 31 August 09.
    \202\ A September 2, 2009, Xinhua article reported that railway 
officials said that a Sichuan-Tibet railway construction timetable had 
yet to be established. The report did not take issue with any other 
details previously reported. ``Ministry Refutes Media Reports on New 
Railway to Tibet,'' Xinhua (Online), 2 September 09. ``Work on Sichuan-
Tibet Railway To Begin in September,'' China Tibet Online (Online), 31 
August 09. According to the report, the planned 8-hour journey from 
Chengdu to Lhasa on the Sichuan-Tibet railway will be a fraction of the 
current 45 hours from Chengdu to Lhasa via the Qinghai-Tibet railway. 
Tabulation on Nationalities of 2000 Population Census of China, 
Department of Population, Social, Science and Technology Statistics, 
National Bureau of Statistics, and Department of Economic Development, 
State Ethnic Affairs Commission (Beijing: Ethnic Publishing House, 
September 2003), Table 10-1. According to 2000 census data: the 
population of Lhasa municipality was 0.475 million and the population 
of the TAR was 2.62 million; the population of Xining municipality was 
1.85 million and the population of Qinghai province was 4.82 million; 
the population of Chengdu municipality was 11.11 million and the 
population of Sichuan province was 82.34 million. (Based on 2000 census 
data, the Sichuan-Tibet railway will connect Lhasa municipality to a 
municipal area (Chengdu) with a population more than 23 times greater 
than Lhasa municipality. The railway will connect the TAR to a province 
(Sichuan) with a population more than 31 times greater than the TAR. In 
comparison, the Qinghai-Tibet railway connects Lhasa municipality to a 
municipal area (Xining) with a population less than four times greater 
than Lhasa municipality. The railway connects the TAR to a province 
(Qinghai) with a population less than double the TAR.)
    \203\ ``Tibet Starts Building 5th Civil Airport,'' Xinhua (Online), 
30 April 09. ``China is also building a 254-km railway linking Xigaze 
with the regional capital Lhasa. Construction on the 11-billion-yuan 
[US$1.61 billion] Qinghai-Tibet railway's extension line started in 
2008 and was expected to be completed in 2010.''
    \204\ ``Hu Calls for Great Wall of Stability in Tibet,'' Xinhua 
(Online), 9 March 09. ``The President urges Tibet to vigorously advance 
the program of building `socialist new villages,' develop industries 
with distinguished features and strengthen ecological and environmental 
protection.''
    \205\ See CECC, 2007 Annual Report, Section IV on Tibet, ``Tibetan 
Culture Under Chinese Development Policy and Practice,'' Rebuilding the 
Tibetan Countryside: Allegations of Forced Settlement, Re-housing, 10 
October 07, 204-207.
    \206\ ``Opinions of the Tibet Autonomous Regional CPC Committee and 
the Tibet Autonomous Regional People's Government on Agriculture, 
Animal Husbandry, and on the Work in Agricultural and Pastoral Areas 
During the 10th Five-Year Plan Period (4 April 2000),'' Tibet Daily, 11 
April 00 (translated in Open Source Center, 11 April 00). (This series 
of excerpts establishes the ``socialist new villages'' construction as 
part of the Great Western Development campaign.) ``In order to seize 
the historical opportunities of extensively developing the west 
regions, . . . the regional party committee and government specially 
studied and formulated the opinions on the regional agriculture, animal 
husbandry and the work in agricultural and pastoral areas for the `10th 
Five-Year Plan' period. . . . 7. Promote the Comprehensive Social 
Development of Agricultural and Pastoral Areas. . . . 18. Construction 
of socialist spiritual civilization should be intensified. Construction 
of spiritual civilization should be aimed at improving the quality of 
farmers and herdsmen and building socialist new villages.''
    \207\ ``Grand Western Development Is a Vivacious Chapter in 
Implementation of `Three Represents,' '' People's Daily, 20 October 02 
(Open Source Center, 20 October 02). ``Since 1999, Comrade Jiang Zemin 
has frequently presided over meetings to specifically study the issue 
of implementing the strategy of great western development and has 
issued a series of important directives. In early 2000, the State 
Council founded a leading group for the development of the western 
region and presented the strategy of great western development.''
    \208\ CECC, 2008 Annual Report, Section V on Tibet, ``Economic 
Development vs. Ethnic Minorities' Autonomous Rights,'' 31 October 08, 
194; Human Rights Watch (Online), `` `No One Has the Liberty To 
Refuse'--Tibetan Herders Forcibly Relocated in Gansu, Qinghai, Sichuan, 
and the Tibet Autonomous Region,'' 11 June 07.
    \209\ For example, incidents of political protest were reported in 
nomadic areas such as Banma (Pema), Jiuzhi (Chigdril), and Dari 
(Darlag) counties in Guoluo (Golog) TAP, Qinghai province. ``Latest 
Updates on Tibet Demonstrations,'' Tibetan Government-in-Exile 
(Online), 26 March 08. Banma county: ``After the arrival and the 
subsequent tight restrictions by Chinese military forces in Pema 
County, a protest was held during which the people demanded concrete 
results in the Sino-Tibetan dialogue. The same evening in Panchen, 
Pangrue and Markhog villages, Tibetans held peaceful demonstrations.'' 
``Latest Updates on Tibet Demonstrations,'' Tibetan Government-in-Exile 
(Online), 23 March 08. Jiuzhi county: ``Around 500 monks and lay people 
from Palyul village are holding a sit-down on a hill-top to demand that 
Karwang Nyima Rinpoche (Dharthang Monastery head) not be harassed by 
the Chinese military. The people have also demanded the United Nations, 
U.S. and other countries intervene to resolve the issue.'' ``Latest 
Updates on Tibet Demonstrations,'' Tibetan Government-in-Exile 
(Online), 22 March 08. Dari county: ``Around 200 protesters (including 
many horsemen) held protests in Toema and Meyma villages.''
    \210\ ``China Resettles 50,000 Herdsmen To Protect Environment of 
Qinghai-Tibet Plateau,'' Xinhua (Online), 24 August 09.
    \211\ Ibid. According to Xinhua, the project commenced in 2003 and 
was stepped up in 2005. Li Xiaonan, Deputy Director of the Sanjiangyuan 
Ecological Preservation and Construction Office, told Xinhua, ``A total 
of 49,631 people from 10,579 families has moved out of the reserve 
during the last few years. There has been an input of more than 300 
million yuan and public infrastructures have been constructed for 86 
immigrant communities.''
    \212\ According to information available on the Web site of the 
non-governmental organization Plateau Perspectives, the geographic area 
of the Sanjiangyuan National Nature Reserve includes a total of 17 
counties in four of Qinghai province's Tibetan Autonomous Prefectures 
and one Mongol and Tibetan Autonomous Prefecture. Yushu (Yulshul) TAP, 
six counties: Yushu (Kyegudo), Nangqian (Nangchen), Zaduo (Dzatoe), 
Zhiduo (Dritoe), Chengduo (Tridu), and Qumalai (Chumarleb) counties. 
Guoluo (Golog) TAP, six counties; Maqin (Machen), Banma (Pema), Gande 
(Gade), Dari (Darlag), Jiuzhi (Chigdril), and Maduo (Matoe) counties. 
Hainan (Tsolho) TAP, two counties: Xinghai (Tsigorthang) and Tongde 
(Gepasumdo). Huangnan (Malho) TAP, two counties: Zeku (Tsekhog) county 
and Henan (Yulgan) Mongol Autonomous County. Haixi (Tsonub) M&TAP, one 
county-level area: Ge'ermu (Golmud, Kermo) city. Plateau Perspectives 
(Online), ``Sanjiangyuan (Three Rivers' Headwaters) National Nature 
Reserve (SNNR),'' last visited 31 August 09. Tabulation on 
Nationalities of 2000 Population Census of China, Department of 
Population, Social, Science and Technology Statistics, National Bureau 
of Statistics, and Department of Economic Development, State Ethnic 
Affairs Commission (Beijing: Ethnic Publishing House, September 2003), 
Tables 10-2, 10-4. According to 2000 census data, a total of 529,526 
Tibetans and 32,173 Mongols lived in the 17 county-level areas that are 
partially or entirely within the SNNR. Of the 32,173 Mongols, 28,879 
lived in Henan MAC. (Mongols also have a tradition of living as nomadic 
herders.)
    \213\ ``Hu Calls for Great Wall of Stability in Tibet,'' Xinhua 
(Online), 9 March 09.
    \214\ Ibid. ``Chinese President Hu Jintao called for the building 
of a Great Wall of stability in Tibet here on Monday, prior to the 50th 
anniversary of the foiling of an armed rebellion led by the Dalai 
Lama's supporters. . . . Hu's remarks came ahead of several sensitive 
dates in Tibet.''
    \215\ Ibid.
    \216\ This section of the Commission 2009 Annual Report is not a 
complete account of all 2009 disagreements between Tibetans and Chinese 
government officials involving natural resource development projects.
    \217\ ``Standoff at Tibet Gold Mine,'' Radio Free Asia (Online), 24 
May 09. RFA sources stated: ``Tibetan Buddhists regard [the mountain] 
as a sacred site''; and ``the protest had been continuing for several 
months.''
    \218\ ``Mine Standoff Said Resolved,'' Radio Free Asia (Online), 28 
May 09. According to local residents: ``On May 16, a contingent of 
police and security forces arrived, but as many as 500 Tibetans began 
blocking the road, according to residents there.'' Pema Trinley, a 
senior TAR official traveled to Mangkang earlier in the year to 
persuade Tibetans to accept the mining project, but Tibetans continued 
to protest and Pema Trinley returned to Lhasa on April 5, RFA said. 
(The RFA report identified ``Pema Thinley'' as the ``vice chairman of 
the TAR Communist Party.'' A March 2008 Xinhua report identified 
``Baima Chilin'' (Pema Trinley) as the Executive Vice Chairman of the 
TAR government.) Wang Cong and De Ji, ``Tibet Official Says No Punitive 
Measures Will Be Taken Against a Small Number of Monks Who Obstructed 
Chinese and Foreign Reporters,'' Xinhua, 27 March 08 (translated in 
Open Source Center, 28 March 08.)
    \219\ ``Mine Dispute Largely Settled,'' Radio Free Asia (Online), 9 
June 09. According to the RFA source: ``It was agreed in writing that 
there will be no mining in the area.'' According to RFA sources: 
``[Q]uestions remain regarding the disposal of poisonous waste at the 
site.'' Mangkang PSB official, Mr. Wang: ``So it was decided that the 
Tibetans will hire a professional group from China to examine it, and 
the government will assign the TAR Environmental Protection Department 
to carry out its own examination.''
    \220\ Ibid. According to the RFA source: ``All points of agreement 
were set down in writing in the presence of prefecture- and county-
level officials.''
    \221\ Tibetan Centre for Human Rights and Democracy (Online), 
``China Displaces Tens and Thousands of Tibetans in Tawu County,'' 25 
May 09; Tibetan Centre for Human Rights and Democracy (Online), ``6 
Tibetans Seriously Wounded in Protests Against China's Hydroelectric 
Dam Project,'' 26 May 09. Both reports claimed that the dam's 
construction would displace ``tens of thousands of local Tibetans,'' 
but did not provide any basis for the estimate. (Commission staff 
research suggests a dam is unlikely to displace ``tens of thousands of 
Tibetans.'' If the dam is the Lianghekou Hydroelectric Project, as 
available information suggests, the reservoir will be principally in 
Yajiang county. According to China's 2000 census, the population of 
Yajiang county was 39,701 persons and the population of Daofu county 
was 44,848 persons. Tabulation on Nationalities of 2000 Population 
Census of China, Department of Population, Social, Science and 
Technology Statistics, National Bureau of Statistics, and Department of 
Economic Development, State Ethnic Affairs Commission (Beijing: Ethnic 
Publishing House, September 2003), Table 10-4.)
    \222\ Ibid.
    \223\ Ertan Hydropower Development Company, ``Lianghekou 
Hydroelectric Project,'' last visited 22 June 09. ``The project sits 
where the Yalong merges respectively with the Qingda and Xianshui 
rivers, hence the name `lianghekou' (meaning `estuary of two rivers'). 
Because of its particular location with one dam blocking three rivers, 
and because of its large reservoir, this project is truly a controlling 
project in the middle and lower reaches of the Yalong.'' The reservoir 
will have a storage capacity of 6.33 billion cubic meters and power 
generation capacity of 3,000 megawatt/hours. (According to a graphic on 
the construction company's Web site, the Lianghekou dam will result in 
what appears to be the second largest reservoir of the series of 
hydroelectric dams constructed or planned for the Yalong river. The 
scaling of the graphic suggests that the dam may be approximately 275 
meters (approximately 900 feet) high. The graphic is available at 
http://www.ehdc.com.cn/newsite/en/big_pic.html.)
    \224\ See, e.g., ``Chinese Forces Fire in Nyagrong, Arrest 9 
Tibetans,'' Phayul (Online), 20 April 09 (Sichuan province, April 2009: 
``The local Tibetans also defied the government order to begin farming 
activities despite stringent measures adopted by the authorities to 
quell the movement that is still continuing in various Tibetan 
inhabited areas.''); Emma Graham-Harrison, ``Riot Shows Desperate 
Tibetans May Defy Security,'' Reuters (Online), 23 March 09 (March, 
Qinghai province: ``A weekend riot by hundreds of ethnic Tibetans was a 
spontaneous response to tough Chinese security measures, activists and 
an expert said on Monday, and more destabilising outbursts are likely 
in coming months.''); ``6 Monks of Lutsang, 2 Others Released,'' Phayul 
(Online), 13 April 09 (Qinghai province, February 2009: About 100 
Lutsang Monastery monks staged a candlelight protest ``in memory of 
Tibetans killed in the ongoing crackdown following protests across 
Tibet since March 10, 2008.''); ``Tibetan Monk Beaten to Death,'' Radio 
Free Asia (Online), 30 March 09 (Sichuan province, March 2009: 
according to the reports, on March 25, monk Phuntsog Rabten 
``distributed several leaflets in the Draggo area calling on Tibetans 
not to till their land to protest Chinese crackdowns and to mourn 
Tibetans killed in last year's protests [against Chinese rule].''); 
International Campaign for Tibet (Online), ``New Protest Today in Ngaba 
After Officials Ban Prayer Ceremony,'' 1 March 09 (Sichuan province, 
March 2009: ``The crackdown in Ngaba has been particularly severe 
following a major protest involving monks from Kirti monastery and 
local people on March 16 last year, and the presence of troops in the 
area has been stepped up more recently.''); Edward Wong, ``China Adds 
to Security Forces in Tibet Amid Calls for a Boycott,'' New York Times 
(Online), 19 February 09 (Lhasa and Qinghai, Gansu, Sichuan provinces, 
February 2009: ``Chinese officials have significantly increased 
security forces across Tibet in the face of a grass-roots movement to 
boycott festivities during the coming Tibetan New Year, according to 
residents of the region and recent visitors.''); Ariana Eunjung Cha, 
``Clash Over Tibet Has County in Lockdown,'' Washington Post (Online), 
19 February 09 (Lhasa, February 2009: ``With the approach [in March 
2009] of the 50th anniversary of the Tibetan uprising of 1959 that 
ended with the flight of the Dalai Lama to India, the crackdown has 
become even harsher, residents say.''); Tibetan Centre for Human Rights 
and Democracy (Online), ``China Re-arrests Monk Who Exposed Chinese 
Crackdown to Foreign Media,'' 4 November 08 (Gansu province, February 
2009: A monk told Voice of America's Tibetan language service on 
September 12, 2008, that the crackdown at Labrang Tashikhyil Monastery 
was still continuing.); Mark Magnier, ``China Tightening Control in 
Tibet Region, Exiles Say,'' Los Angeles Times (Online), 20 November 08 
(Lhasa, November 2008: ``We've monitored an even more intense crackdown 
in the past couple of weeks,'' said Kate Saunders, communication 
director with the International Campaign for Tibet.); International 
Campaign for Tibet (Online), `` `A choked silence'; images from Tibet 
of crackdown,'' 31 October 08 (``New images and footage from Tibet 
depict the continuing crackdown in Tibet and convey an atmosphere of 
fear and intimidation across the plateau.'').
    \225\ See, e.g., the following reports of Chinese government 
obstruction of information flow: Maureen Fan, ``China Tightens Grip as 
Tibet Revolt Hits 50-Year Mark,'' Washington Post (Online), 16 March 
09. ``The owner of an Internet cafe in Ma'erkang county, in the Aba 
[Tibetan and Qiang] Autonomous Prefecture, said he had been without 
Internet service for a week. `The whole prefecture has no Internet 
connection now,' said the owner, surnamed He. `There was no notice, it 
was just cut.' '' The article said that Tibetan blogger Woeser had 
written that ``in at least 17 counties of the Ganzi Tibetan Autonomous 
Prefecture in Sichuan province, cell phone messaging and Internet 
service were cut off in mid-February,'' and that ``Phone calls from 
foreign countries to Tibetan areas cannot get through.'' International 
Campaign for Tibet (Online), ``Amdo Monks Taken for `Study' After 
Peaceful Protest,'' 16 March 09. Andrew Jacobs, ``Tibet Atrocities Dot 
Official China History,'' New York Times (Online), 13 March 09. ``With 
Tibet closed to foreign journalists and much of the region suddenly, 
and mysteriously, troubled by patchy phone and Internet service, . . 
.'' Audra Aung, ``China's Show of Force Keeps Tibet Quiet,'' Associated 
Press, 10 March 09 (reprinted in Yahoo!, 10 March 09). ``Lhasa 
residents received notice on their cell phones Tuesday from carrier 
China Mobile that voice and text messaging services may face 
disruptions from March 10 to May 1 for `network improvements.' Similar 
measures were recently taken in other Tibetan communities as the 
government sought to unplug communications that activists used to 
spread word of the protests last year.'' ``Police Tighten Control of 
Lhasa Monasteries Before Anniversary,'' South China Morning Post 
(Online), 5 March 09. ``A middle-aged monk at Sera Monastery said it 
had been without communications since police confiscated all their 
mobile phones and other equipment last April [2008].'' The article said 
of Drepung Monastery: ``Since last year's unrest, authorities have sent 
hundreds of young monks home and confiscated the communication devices 
of those left behind.'' Royston Chan, ``Heavy Security as Tibetans 
Prepare for New Year,'' Reuters (Online), 22 February 09. ``In a 
further sign of government wariness, Internet services throughout 
[parts of Ganzi Tibetan Autonomous Prefecture] the area have been cut 
and people are unable to send or receive mobile telephone text 
messages, residents say.''
    \226\ ``Lhasa Court Sentences Tibetans for Sharing Information With 
`The Dalai Clique,' '' Congressional-Executive Commission on China 
(Online), 22 January 09. The Lhasa Intermediate People's Court in late 
October and early November 2008 sentenced seven Tibetans to terms of 
imprisonment ranging from 8 years to life imprisonment on charges of 
``espionage'' (Criminal Law, Article 110) or unlawfully providing 
``intelligence'' to an organization or individual outside of China 
(Criminal Law, Article 111). The Tibetans allegedly provided 
information (``intelligence'') to Tibetan organizations based in India 
that are part of what the Chinese government and Party refer to 
collectively as ``the Dalai Clique.''
    \227\ See, e.g., the following reports of Chinese government 
obstruction of Internet and television access: Maureen Fan, ``China 
Tightens Grip as Tibet Revolt Hits 50-Year Mark,'' Washington Post 
(Online), 16 March 09. According to the owner of an Internet cafe in 
Ma'erkang (Barkham) county, Aba Tibetan and Qiang Autonomous 
Prefecture: ``The whole prefecture has no Internet connection now.'' 
Tibetan blogger Woeser had written that ``in at least 17 counties of 
the Ganzi Tibetan Autonomous Prefecture in Sichuan province . . . 
Internet service [was] cut off in mid-February, . . .'' Andrew Jacobs, 
``Tibet Atrocities Dot Official China History,'' New York Times 
(Online), 13 March 09. The article described the TAR as ``mysteriously, 
troubled by patchy phone and Internet service.''
    \228\ ``Tibetan TV Dishes Pulled,'' Radio Free Asia (Online), 12 
June 09. According to the report, a Tibetan resident of Xiahe (Sangchu) 
county, Gannan (Kanlho) TAP, told RFA: ``Beginning in April of this 
year, the local broadcasting department in Kanlho prefecture dispatched 
staff to the counties to install cable lines and to pull down the 
satellite dishes used by local Tibetans to listen to foreign broadcasts 
like RFA and VOA Tibetan programs.'' A photographic image published 
with the report shows a monk standing near a large pile of severely 
damaged satellite dishes, a Tibetan Buddhist temple behind the 
satellite dishes, and has the following caption: ``Satellite dishes 
confiscated and destroyed by authorities in Labrang, Amdo, May 20, 
2009.''
    \229\ Malcolm Moore, ``China Closes Tibet to Foreigners,'' 
Telegraph (U.K.), 18 February 09; ``Official: Tibetan Areas Closed to 
Foreigners,'' Associated Press, reprinted in Washington Post, 12 
February 09.
    \230\ ``Official: Tibetan Areas Closed to Foreigners,'' Associated 
Press, reprinted in Washington Post, 12 February 09. ``Several foreign 
journalists have reported being expelled from Tibetan-populated areas 
in China in the past week.''
    \231\ Edward Wong, ``The Heights Traveled To Subdue Tibet,'' New 
York Times (Online), 15 March 09. According to the report (datelined 
Maqu (Machu), Gannan TAP): ``The paramilitary officer took our 
passports. It was close to midnight, and he and a half-dozen peers at 
the checkpoint stood around our car on the snowy mountain road. After 
five days, our travels in the Tibetan regions of western China had come 
to an abrupt end.''
    \232\ Ibid. ``We were to be escorted to the local police station, 
interrogated and put on a plane back to Beijing.''
    \233\ See, e.g., Emma Graham-Harrison, ``Riot Shows Desperate 
Tibetans May Defy Security,'' Reuters (Online), 23 March 09 (March, 
Qinghai province: ``A weekend riot by hundreds of ethnic Tibetans was a 
spontaneous response to tough Chinese security measures, activists and 
an expert said on Monday, and more destabilising outbursts are likely 
in coming months.''); ``Tibetan Monk Beaten to Death,'' Radio Free Asia 
(Online), 30 March 09 (Sichuan province, March 2009: According to the 
report, on March 25, Phuntsog Rabten ``distributed several leaflets in 
the Draggo area calling on Tibetans not to till their land to protest 
Chinese crackdowns and to mourn Tibetans killed in last year's protests 
[against Chinese rule].''); International Campaign for Tibet (Online), 
``New Protest Today in Ngaba After Officials Ban Prayer Ceremony,'' 1 
March 09 (Sichuan province, March 2009: ``The crackdown in Ngaba has 
been particularly severe following a major protest involving monks from 
Kirti monastery and local people on March 16 last year, and the 
presence of troops in the area has been stepped up more recently.''); 
Edward Wong, ``China Adds to Security Forces in Tibet Amid Calls for a 
Boycott,'' New York Times (Online), 19 February 09 (Lhasa and Qinghai, 
Gansu, Sichuan provinces, February 2009: ``Chinese officials have 
significantly increased security forces across Tibet in the face of a 
grass-roots movement to boycott festivities during the coming Tibetan 
New Year, according to residents of the region and recent visitors.''); 
Ariana Eunjung Cha, ``Clash Over Tibet Has County in Lockdown,'' 
Washington Post (Online), 19 February 09 (Lhasa, February 2009: ``With 
the approach [in March 2009] of the 50th anniversary of the Tibetan 
uprising of 1959 that ended with the flight of the Dalai Lama to India, 
the crackdown has become even harsher, residents say.'').
    \234\ Edward Wong, ``China Adds to Security Forces in Tibet Amid 
Calls for a Boycott,'' New York Times (Online), 19 February 09. ``The 
campaign for the boycott of Losar, the Tibetan New Year, has spread via 
text and e-mail messages and fliers.'' Barbara Demick, ``China Expects 
Tibet To Celebrate, or Else,'' Los Angeles Times (Online), 23 February 
09. ``Even among Tibetans, there is a vigorous debate about the 
campaign to boycott Losar.'' ``Tibetan Monks in Protest March,'' Radio 
Free Asia (Online), 26 February 09. ``Tibetans have largely boycotted 
traditional Losar festivities this year in memory of Tibetans killed 
and jailed in protests against Chinese rule throughout the region last 
year.''
    \235\ Edward Wong, ``China Adds to Security Forces in Tibet Amid 
Calls for a Boycott,'' New York Times (Online), 19 February 09. 
According to the article, ``[A] monk said many Tibetans in Lhasa were 
talking of joining the boycott. But he said that Chinese officials were 
urging the Tibetans to carry on with festivities and were even offering 
them money to do so.'' Barbara Demick, ``China Expects Tibet To 
Celebrate, or Else,'' Los Angeles Times (Online), 23 February 09. ``The 
tactic appears to be driving Chinese authorities crazy. They're 
countering with their own campaign of forced merriment, organizing 
concerts, pageants, fireworks, horse races, archery competitions.''
    \236\ Office of His Holiness the Dalai Lama (Online), ``Chronology 
of Events,'' last visited 9 May 09. The chronology refers to the Lhasa 
events of March 10, 1959, as the beginning of the ``Tibetan People's 
Uprising.'' (The March 10, 1959, events in Lhasa are sometimes referred 
to as the ``1959 Lhasa Uprising.'')
    \237\ See, e.g., ``Tibet Remains Stable Despite Repeated 
Secessionist Attempts,'' Xinhua (Online), 8 March 09. ``Legqog, 
chairman of the Standing Committee of the Tibetan Autonomous Regional 
People's Congress, confirmed that armed police have enhanced their 
service in some parts of Tibet but stressed that they are temporary 
security measures.'' Choi Chi-yuk, ``Police Chiefs Replaced in Troubled 
Regions,'' South China Morning Post (Online), 20 May 09. ``Almost 
70,000 [PAP] were reportedly sent to Tibet in the run-up to the first 
anniversary of the crackdown in March.''
    \238\ ``TAR Creates March 28 Holiday To Celebrate 1959 Dissolution 
of Dalai Lama's Government,'' Congressional-Executive Commission on 
China (Online), 6 February 09.
    \239\ A Year After the March 2008 Protests: Is China Promoting 
Stability in Tibet? Staff Roundtable of the Congressional-Executive 
Commission on China, 13 March 09, Written Statement of Elliot Sperling, 
Associate Professor of Tibetan Studies, Department of Central Eurasian 
Studies, Indiana University.
    \240\ ``Ahead of Sensitive Dates, Lhasa Officials Add `Strike Hard' 
to Crackdown,'' Congressional-Executive Commission on China (Online), 
25 February 09; ``Winter Strike Hard Unified Checking Campaign 
Progresses Steadily'' [Dongji yanda tongyi qingcha xingdong wenbu 
tuijin], Lhasa Evening News (Online), 23 January 09 (the ``strike 
hard'' campaign started on January 18); ``Behind the Scenes of the 42-
Day Winter Strike Hard'' [42 tiandongji yanda lakai xumu], Lhasa 
Evening News (Online), 23 January 09 (the ``strike hard'' campaign will 
be of 70 days' duration). (For a full translation of ``Winter Strike 
Hard Unified Checking Campaign Progresses Steadily,'' Lhasa Evening 
News, 23 January 09, see International Campaign for Tibet (Online), 
``Authorities Launch `Strike Hard' Campaign, Heightening Lhasa 
Tension,'' 27 January 09.)
    \241\ ``Ahead of Sensitive Dates, Lhasa Officials Add `Strike Hard' 
to Crackdown,'' Congressional-Executive Commission on China (Online), 
25 February 09; ``Winter Strike Hard Unified Checking Campaign 
Progresses Steadily'' [Dongji yanda tongyi qingcha xingdong wenbu 
tuijin], Lhasa Evening News (Online), 23 January 09 (the ``strike 
hard'' campaign started on January 18). (For a full translation of 
``Winter Strike Hard Unified Checking Campaign Progresses Steadily,'' 
Lhasa Evening News, 23 January 09, see International Campaign for Tibet 
(Online), ``Authorities Launch `Strike Hard' Campaign, Heightening 
Lhasa Tension,'' 27 January 09.)
    \242\ ``Ahead of Sensitive Dates, Lhasa Officials Add `Strike Hard' 
to Crackdown,'' Congressional-Executive Commission on China (Online), 
25 February 09; ``Lhasa City Police Corps Winter Strike Hard Campaign 
Achieves Successes'' [Lasa shi gonganju xingjing zhidui dongji yanda 
zhuanxiang xingdong qude chengxiao], Lhasa Evening News (Online), 25 
January 09. ``From January 18 when the winter strike-hard campaign 
started until yesterday [January 24], Lhasa city police had mobilized a 
police force of 203 people and 60 vehicles. In those seven days, 
people's police carried out operations night and day checking a total 
of 30 residential courtyards, 3813 rented residences, 33 hotels and 
guest houses, and 56 bars and internet cafes. A total of 8424 people 
were checked, among whom 148 were found not to have [resident's] 
permits, . . .''
    \243\ ``Ahead of Sensitive Dates, Lhasa Officials Add `Strike Hard' 
to Crackdown,'' Congressional-Executive Commission on China (Online), 
25 February 09; ``Lhasa City Police Corps Winter Strike Hard Campaign 
Achieves Successes'' [Lasa shi gonganju xingjing zhidui dongji yanda 
zhuanxiang xingdong qude chengxiao], Lhasa Evening News (Online), 25 
January 09. ``A total of 8424 people were checked, among whom 148 were 
found not to have [resident's] permits, 51 were suspected of criminal 
activity, 30 people were detained on suspicion of theft, burglary and 
prostitution, including 5 people detained in the process of stealing a 
motorbike, and 2 people who had reactionary opinions and reactionary 
songs on their cell phones.''
    \244\ Tibetan Centre for Human Rights and Democracy (Online), 
``China Arrest Tibetan in Kardze Over Farming Boycott Movement,'' 21 
March 09; Tibetan Centre for Human Rights and Democracy (Online), 
``Three More Tibetans Arrested in Connection With Farming Boycott 
Movement,'' 23 March 09; ``Tibetans Stage Farm Boycott,'' Radio Free 
Asia (Online), 25 March 09; ``Tibetan Monk Beaten to Death,'' Radio 
Free Asia (Online), 30 March 09; ``Chinese Police Open Fire in Eastern 
Tibet, 9 Arrested and Several Injured,'' Tibetan Government-in-Exile 
(Online), 22 April 09.
    \245\ Tibetan Centre for Human Rights and Democracy (Online), 
``Drango Farmers Arrested and Beaten by the Chinese Security Police,'' 
1 April 09. ``. . . the Chinese authorities are on an arrests and 
beatings drive of the Tibetan farmers staging a civil disobedience 
movement by refusing to till their farmlands in eastern Tibet.''
    \246\ See, e.g., ``Tibetan Monk Beaten to Death,'' Radio Free Asia 
(Online), 30 March 09. According to RFA's source, police saw monk 
Phuntsog Rabten putting up posters ``calling on Tibetans not to till 
their land to protest Chinese crackdowns and to mourn Tibetans killed 
in last year's protests [against Chinese rule].'' The monk fled but 
police caught him and, according to Tibetan reports, beat him to death.
    \247\ See, e.g., ``Tibetan Monk Beaten to Death,'' Radio Free Asia 
(Online), 30 March 09. According to RFA's source, police saw monk 
Phuntsog Rabten putting up posters ``calling on Tibetans not to till 
their land to protest Chinese crackdowns and to mourn Tibetans killed 
in last year's protests [against Chinese rule].'' ``Tibetans Stage Farm 
Boycott,'' Radio Free Asia (Online), 25 March 09. ``Tibetans in the 
Kardze (in Chinese, Ganzi) Tibetan Autonomous Prefecture had refused to 
cultivate their land following a week of other protests and detentions 
during a tense and politically sensitive month, sources in the Kardze 
area and abroad said.''
    \248\ As of May 2009, Commission staff had seen reports on farming 
boycotts in Ganzi (Kardze), Luhuo (Draggo), and Xinlong (Nyagrong). 
Tibetan Centre for Human Rights and Democracy (Online), ``China Arrest 
Tibetan in Kardze Over Farming Boycott Movement,'' 21 March 09 (Ganzi 
county); Tibetan Centre for Human Rights and Democracy (Online), 
``Three More Tibetans Arrested in Connection With Farming Boycott 
Movement,'' 23 March 09 (Ganzi county); ``Tibetans Stage Farm 
Boycott,'' Radio Free Asia (Online), 25 March 09 (Ganzi county); 
``Tibetan Monk Beaten to Death,'' Radio Free Asia (Online), 30 March 09 
(Luhuo county); ``Chinese Police Open Fire in Eastern Tibet, 9 Arrested 
and Several Injured,'' Tibetan Government-in-Exile (Online), 22 April 
09 (Xinlong (Nyagrong) county).
    \249\ ``Tibetans Stage Farm Boycott,'' Radio Free Asia (Online), 25 
March 09. In Ganzi (Kardze) county: ``In response, Chinese authorities 
called a meeting in Lopa village in which Tibetan farmers were told 
that if they failed to till their land, they would be detained and 
their land would be confiscated.'' Tibetan Centre for Human Rights and 
Democracy (Online), ``China Arrests Two Nuns of Dragkar Nunnery in 
Kardze,'' 3 April 09. In Luhuo (Draggo) county: ``According to other 
sources, the local Chinese authorities in Drango County, Kardze `TAP' 
have given [an] ultimatum to the Tibetan farmers to till their farmland 
before 11 April or their farmland [will] be confiscated by the 
government.'' (Commission staff have not seen public reports on Xinlong 
(Nyagrong) county officials threatening to confiscate farmland from 
Tibetans who participated in the farming boycott.)
    \250\ See, e.g., ``Three More Tibetans Arrested in Connection With 
Farming Boycott Movement,'' 23 March 09 (Ganzi county); ``Tibetan Monk 
Beaten to Death,'' Radio Free Asia (Online), 30 March 09 (Luhuo 
(Draggo) county); ``Chinese Police Open Fire in Eastern Tibet, 9 
Arrested and Several Injured,'' Tibetan Government-in-Exile (Online), 
22 April 09 (Xinlong (Nyagrong) county).
    \251\ ``One Suffers Gun Shot, Three Seriously Wounded in Chamdo,'' 
Phayul (Online), 17 June 09; ``Chinese Police Fires at Tibetan 
Protesters in Eastern in Tibet,'' Tibetan Government-in-Exile (Online), 
16 June 09.
    \252\ Tibetan Centre for Human Rights and Democracy (Online), 
``Drango Farmers Arrested and Beaten by the Chinese Security Police,'' 
1 April 09. In Luhuo (Draggo) county: ``. . . a group of farmers 
refused to comply [with] the Chinese authorities order to till their 
farmlands, they were subsequently arrested and then subjected to severe 
beatings and ill-treatment. According to sources, fourteen Tibetans 
sustained injuries, some seriously. They were currently known to be 
kept in a hospital.'' ``Tibetans Stage Farm Boycott,'' Radio Free Asia 
(Online), 25 March 09. In Ganzi (Kardze county): an RFA source said, 
referring to six detentions apparently linked to the boycotts, 
``Witnesses saw Chinese PSB personnel detaining them and beating them 
with iron rods and rifle butts.''
    \253\ ``Tibetan Monk Beaten to Death,'' Radio Free Asia (Online), 
30 March 09; Tibetan Centre for Human Rights and Democracy (Online), 
``A Tibetan Monk Beaten to Death by Chinese Security Police,'' 30 March 
09.
    \254\ ``Chinese Police Open Fire in Eastern Tibet, 9 Arrested and 
Several Injured,'' Tibetan Government-in-Exile (Online), 22 April 09 
(Xinlong (Nyagrong) county). According to the report: ``At least 9 
Tibetans, including a woman and 8 men, were arrested and several 
injured after the Chinese police opened fire on Tibetans protesting 
against the Chinese government. . . .''
    \255\ Ibid.
    \256\ ``China Detains Tibetan Monks Protesting on Key 
Anniversary,'' Radio Free Asia (Online), 10 March 08; ``Tibet Update 
(1),'' China Digital Times (Online), last visited on 31 July 08; 
``Chinese Police Fire Tear-Gas at Protesting Tibetan Monks,'' Radio 
Free Asia (Online), 12 March 08; Tibetan Centre for Human Rights and 
Democracy (Online), ``Picture Identities of Visiting Monk Students of 
Sera Monastery Arrested on 10 March 2008 From Barkhor Street, Lhasa, 
for Their Pro-Tibet Protest,'' 12 March 08; Tibetan Centre for Human 
Rights and Democracy (Online), ``TCHRD Fears Torture and Inhumane 
Treatment on the Arrestees From Barkhor Protest on Tibetan Uprising 
Day,'' 12 March 08; ``Report: Lhasa City People's Procuratorate Gives 
Permission To Arrest the First Suspect Who Held Up a Reactionary 
Flag,'' China Tibet News, 25 March 08 (translated in Open Source 
Center, 27 March 08). (According to the reports, approximately 300 
Drepung Monastery monks attempted to stage a peaceful protest from the 
monastery to the Potala Palace. Public security forces and People's 
Armed Police prevented the monks from reaching the Potala Palace. In a 
separate protest the same day, at least 15 monks who were temporary 
students at Sera Monastery but who hailed from other provinces staged a 
brief political protest on the Barkor near the Jokhang Temple. Police 
detained at least 15 of the protesters. The Lhasa People's 
Procuratorate later charged 13 of them with illegal assembly.)
    \257\ For example, incidents of political protest were reported in 
nomadic areas such as Banma (Pema), Jiuzhi (Chigdril), and Dari 
(Darlag) counties in Guoluo (Golog) TAP, Qinghai province. ``Latest 
Updates on Tibet Demonstrations,'' Tibetan Government-in-Exile 
(Online), 26 March 08. Banma county: ``After the arrival and the 
subsequent tight restrictions by Chinese military forces in Pema 
County, a protest was held during which the people demanded concrete 
results in the Sino-Tibetan dialogue. The same evening in Panchen, 
Pangrue and Markhog villages, Tibetans held peaceful demonstrations.'' 
``Latest Updates on Tibet Demonstrations,'' Tibetan Government-in-Exile 
(Online), 23 March 08. Jiuzhi county: ``Around 500 monks and lay people 
from Palyul village are holding a sit-down on a hill-top to demand that 
Karwang Nyima Rinpoche (Dharthang Monastery head) not be harassed by 
the Chinese military. The people have also demanded the United Nations, 
U.S. and other countries intervene to resolve the issue.'' ``Latest 
Updates on Tibet Demonstrations,'' Tibetan Government-in-Exile 
(Online), 22 March 08. Dari county: ``Around 200 protesters (including 
many horsemen) held protests in Toema and Meyma villages.''
    \258\ The Commission treats as a political prisoner an individual 
detained or imprisoned for exercising his or her human rights under 
international law, such as peaceful assembly, freedom of religion, 
freedom of association, free expression, including the freedom to 
advocate peaceful social or political change, and to criticize 
government policy or government officials. (This list is illustrative, 
not exhaustive.)
    \259\ Based on data available in the Commission's Political 
Prisoner Database (PPD) as of May 22, 2009, Chinese security officials 
detained 131 Tibetans for political activity in May 2008, 49 Tibetans 
in June, 13 Tibetans in July, and 1 in August. Information recorded in 
the PPD is certain not to be complete.
    \260\ The 2008 Beijing Summer Olympic Games opened on August 8 and 
closed on August 24.
    \261\ As of September 2009, data available in the Commission's 
Political Prisoner Database (PPD) showed no more than one political 
detention of a Tibetan in each month during the period August to 
December 2008. PPD data on political detention of Tibetans during the 
period, however, is certain not to be complete, and Commission staff 
cannot create a PPD record unless adequate information is available. 
The overall trends that PPD data indicates may be indicative of 
proportional levels of detentions across a period even if the true 
number of detentions remains unknown and unrecorded.
    \262\ See, e.g., ``Tibetans in New Kardze Protests,'' Radio Free 
Asia (Online), 9 January 09 (on December 29, 2008, a Tibetan protester 
``shouted slogans for several minutes calling for Tibetan freedom and 
for the long life of His Holiness the Dalai Lama''); ``Protest in 
Kardze, 6 Arrested,'' Phayul (Online), 1 April 09 (on April 1, 2009, 
``six Tibetans shouted slogans calling for the return of His Holiness 
the Dalai Lama to Tibet and freedom for Tibetans in Tibet'').
    \263\ See, e.g., ``Tibet's Armed Police Chief Says Ready To Handle 
Incident,'' Xinhua (Online), 9 March 09. ``A senior armed police chief 
in Tibet said here Monday that Tibet is `very stable' but his troops 
are ready to handle any infiltration and sabotage activities by the 
Dalai Lama clique and other hostile forces.'' (The report was on an 
interview with Kang Jinzhong, Political Commissar of the TAR People's 
Armed Police.) ``Tibet Makes All-Round Arrangements for the Work of 
Maintaining Social Stability,'' China Tibet News, 19 February 09 
(translated in Open Source Center, 21 February 09). The report covers a 
teleconference of Communist Party, government, and public security 
officials, including TAR Party Secretary Zhang Qingli, Vice Minister 
Zhang Xinfeng of the Public Security Ministry, TAR Deputy Party 
Secretary Zhang Yijiong, and Legchog (Lieque) TAR Deputy Party 
Secretary and Chairman of the Standing Committee of the TAR People's 
Congress: ``The teleconference called on large numbers of party, 
government, military, and police personnel in Tibet to immediately go 
into action and to conscientiously carry out various measures and 
fulfill various tasks in a down-to-earth manner according to the 
arrangements made at this teleconference. United as one and with a 
community of spirit and purpose, they should resolutely smash the 
savage attacks by the Dalai clique and firmly win the current people's 
war against separatism and for stability in order to greet the 60th 
anniversary of the founding of New China and the 50th anniversary of 
democratic reform in Tibet with outstanding achievements.''
    \264\ See, e.g., Free Tibet Campaign (Online), ``Hundreds of 
Tibetans Protest Over Two Days in Restive Lithang County,'' 17 February 
09. Referring to a February 15, 2009, protest in Litang (Lithang) 
county, Ganzi (Kardze) TAP, Sichuan province: ``Eyewitnesses told the 
sources that the armed police used batons and rifle butts to beat the 
protesters, many of whom were badly bruised and bleeding as a result of 
their injuries.'' Referring to a February 16 protest in the same 
location: ``The protest did not last long before it was violently put 
down by large numbers of armed police wielding batons and rifle 
butts.'' ``Tibetans Stage Farm Boycott,'' Radio Free Asia (Online), 25 
March 09. Referring to a March 16, 2009, protest in Ganzi (Kardze) 
county, Ganzi TAP, Sichuan province, an RFA source said: ``Witnesses 
saw Chinese PSB personnel detaining them and beating them with iron 
rods and rifle butts.'' Tibetan Centre for Human Rights and Democracy 
(Online), ``China Arrests Two Nuns of Dragkar Nunnery in Kardze,'' 3 
April 09. Referring to a March 24, 2009, protest in Ganzi county, TCHRD 
said: ``The Chinese People's Armed Police (PAP) immediately detained 
both the Tibetan nuns from the site of protest and [they were] beaten 
indiscriminately with rods and electric batons before being thrown into 
and driven away in a security vehicle.''
    \265\ In a third incident that did not involve violent behavior by 
Tibetan protesters toward other persons or property, Kirti Monastery 
monk Tashi (or Tabe) attempted to burn himself to death on February 27, 
2009. Security officials put out the fire and removed Tashi from the 
scene. Xinhua reported that Tashi was recovering in a hospital and 
denied reports that security officials had shot Tashi. ``Self-
Immolating Tibet Monk Recovering--Xinhua,'' Reuters (Online), 5 March 
09; ``China Refutes Shooting Tibetan Man Who Attempts To Set Himself 
Alight,'' Xinhua (Online), 3 March 09.
    \266\ Tibetan Centre for Human Rights and Democracy, ``Ragya 
Monastery Encircled, Reeling Under Severe Restriction,'' 23 March 09. 
TCHRD reported that police subjected Tashi Zangpo to ``harsh beatings, 
inhumane torture and long interrogation,'' and that on March 21 he 
escaped from the police compound while on a bathroom break and 
committed suicide by leaping into the nearby Machu River (Huanghe, 
Yellow River) gorge. ``Lawbreakers Who Participated in Attacking the 
Police Station in Ragya Township and Assaulting Policemen and 
Government Workers Were All Brought to Justice,'' Xinhua, 22 March 09 
(translated in Open Source Center, 22 March 09). The Xinhua report 
partially corroborates the TCHRD account: on March 21, a monk 
``suspected of breaking the law and under investigation at the Ragya 
police station'' climbed over the wall while on a toilet break. 
``Someone reported to the local police that this monk jumped into the 
Yellow River . . . and attempted to swim to the opposite bank.''
    \267\ ``Lawbreakers Who Participated in Attacking the Police 
Station in Ragya Township and Assaulting Policemen and Government 
Workers Were All Brought to Justice,'' Xinhua, 22 March 09 (Open Source 
Center, 22 March 09). ``[C]lose to 100 monks from the Ragya Monastery 
and some local masses gathered at the Ragya police station. They then 
attacked the police station and assaulted the policemen and government 
workers. As a result, many government workers suffered minor 
injuries.''
    \268\ ``More Tensions and Arrests Are Reported in Eastern Tibet,'' 
Radio Free Asia (Online), 18 June 09. A public security official in 
Jiangda (Jomda) county, Changdu (Chamdo) prefecture, TAR, told RFA that 
police had to ``crack down on the Tibetan protesters'' because Tibetans 
had been ``very bold and aggressive these days.'' The official said 
that five Tibetans had been sentenced to two years and six months' 
imprisonment for beating a village leader. The report provided no 
details on the alleged incident and beating, such as when it took 
place, how many protesters were involved, and what the Tibetans were 
protesting against.
    \269\ See, e.g., ``Tibetan Protesters Beaten, Detained,'' Radio 
Free Asia (Online), 21 January 09 (reports an alleged bombing in 
Jiangda (Jomda) county, Changdu (Chamdo) prefecture, TAR); Audra Ang, 
``Bomb Lobbed at Police Station in China's West,'' Associated Press, 
reprinted in Google, 17 March 09 (reports a bombing in Litang (Lithang) 
county, Ganzi (Kardze) TAP, Sichuan province); ``Police Probe Six 
Suspects Over NW China Police Car Explosion,'' Xinhua (Online), 10 
March 09 (reports a bombing in Banma (Pema) county, Guoluo (Golog) TAP, 
Qinghai province).
    \270\ Police beat Pema Tsepag upon detention on January 20, 2009. 
He died from his injuries three days later on January 23. ``Tibetan 
Youth Dies in Custody,'' Radio Free Asia (Online), 30 January 09. RFA 
reported that police detained Pema Tsepag and two other men on January 
20, 2009. A Tibetan living in India who has contacts in Chamdo 
prefecture told RFA, ``[Pema Tsepag] was so severely beaten that his 
kidneys and intestines were badly damaged. He was initially taken to 
Dzogang [county] hospital, but they could not treat him, and they took 
him to Chamdo hospital instead.'' ``China Beats Tibetan Youth to 
Death,'' Phayul (Online), 27 January 09.
    \271\ Tashi Zangpo escaped from police detention on March 21, 2009, 
11 days after police detained him on March 10, and jumped into the 
nearby Yellow River gorge. Tibetan Centre for Human Rights and 
Democracy, ``China Detains 95 Tibetans Who Protested in the Aftermath 
of Tashi Sangpo's Suicide in Machu River,'' 23 March 09. Tibetan Centre 
for Human Rights and Democracy, ``Ragya Monastery Encircled, Reeling 
Under Severe Restriction,'' 23 March 09. TCHRD reported that police 
subjected Tashi Zangpo to ``harsh beatings, inhumane torture and long 
interrogation,'' and that on March 21 he escaped from the police 
compound while on a bathroom break and committed suicide by leaping 
into the nearby Machu River (Huanghe, Yellow River) gorge. 
``Lawbreakers Who Participated in Attacking the Police Station in Ragya 
Township and Assaulting Policemen and Government Workers Were All 
Brought to Justice,'' Xinhua, 22 March 09 (translated in Open Source 
Center, 22 March 09). The Xinhua report partially corroborates the 
TCHRD account: on March 21, a monk ``suspected of breaking the law and 
under investigation at the Ragya police station'' climbed over the wall 
while on a toilet break. ``Someone reported to the local police that 
this monk jumped into the Yellow River . . . and attempted to swim to 
the opposite bank.''
    \272\ Phuntsog Rabten fled after police saw him putting up 
political protest posters on March 25, 2009. ``Tibetan Monk Beaten to 
Death,'' Radio Free Asia (Online), 30 March 09. A source told RFA, 
after police saw Phuntsog Rabten distributing leaflets, ``He tried to 
escape on a motorcycle, and then on foot, but local police called the 
county police, and he was cornered at a place called Wada. He was 
severely beaten by the Chinese security force and died at the scene. 
His body was tossed over a cliff in order to cover up the death.''
    \273\ As of June 2009, the Commission's Political Prisoner Database 
recorded the political detention or imprisonment of approximately 500 
Tibetans during 2008--but Commission staff analysis suggests that the 
actual number of political detentions and imprisonments, while unknown, 
is far higher than 500. For example, an India-based Tibetan NGO 
published in January 2009 a list of 1,863 Tibetans whom officials had 
detained since March 10, 2008. The NGO did not assert that all of the 
1,863 persons listed were political detainees or prisoners. The list 
did not provide information about each detainee or prisoner's alleged 
activity. Chinese authorities may have detained or imprisoned some of 
the Tibetans on the list for activities that are not protected under 
international human rights conventions. But at the same time, it is 
certain that the list does not provide a complete account of all the 
Tibetans detained for exercising peacefully their freedoms of speech, 
religion, association, and assembly. Tibetan Centre for Human Rights 
and Democracy (Online), ``Human Rights Situation in Tibet: Annual 
Report 2008, Appendix 2: List of Known Tibetans Who Were Arrested, 
Detained and Released in the Aftermath of Uprising in Tibet Since 10 
March 2008,'' 22 January 09, 125-163.
    \274\ For the purpose of calculating average sentences, the 
Political Prisoner Database provides 20 years as a nominal length of a 
life sentence. Official Chinese information about the actual average 
time served by prisoners sentenced to life imprisonment is not 
available.
    \275\ For the purpose of calculating average sentences, the 
Political Prisoner Database provides 20 years as a nominal length of a 
life sentence. Official Chinese information about the actual average 
time served by prisoners sentenced to life imprisonment is not 
available.
    \276\ Office of the UN High Commissioner for Human Rights (Online), 
Working Group on Arbitrary Detention, Report of the Working Group on 
Arbitrary Detention: Addendum, Mission to China, 29 December 04, 22; 
CECC, 2005 Annual Report, 11 October 05, 112. Jigme Gyatso was 
sentenced in 1996 to 15 years' imprisonment for counterrevolution. 
Chinese officials told a UN Working Group on Arbitrary Detention 
(UNWGAD) delegation in September 2004 that he was guilty of ``planning 
to found an illegal organization and seeking to divide the country and 
damage its unity.'' Office of the UN High Commissioner for Human Rights 
(Online), Working Group on Arbitrary Detention, Opinions Adopted by the 
Working Group on Arbitrary Detention, Opinion No. 8/2000, adopted 17 
May 00, 67-70. The UNWGAD opinion on the case found that ``there is 
nothing to indicate that the `illegal organization' . . . ever 
advocated violence, war, national, racial, or religious hatred,'' and 
that Jigme Gyatso was ``merely exercising the right to freedom of 
peaceful assembly with others in order to express opinions.''
    \277\ Tibetan Centre for Human Rights and Democracy (Online), 
``TCHRD Calls for the Release of Jigme Gyatso on Medical Ground,'' 20 
April 09.
    \278\ Dui Hua Dialogue (Online), ``Official Responses Reveal Many 
Sentence Adjustments,'' Fall 2006.
    \279\ CECC, 2005 Annual Report, 11 October 05, 112. Choeying 
Khedrub, a monk of Tsanden Monastery in the TAR, was sentenced in 2000 
to life imprisonment for his role in a group of men who allegedly 
printed pro-independence leaflets. According to information that the 
Chinese government provided to the UN Working Group on Arbitrary 
Detention (UNWGAD), he was found guilty of endangering state security 
and ``supporting splittist activities of the Dalai clique.'' The UNWGAD 
reports that the Chinese response ``mentions no evidence in support of 
the charges, or if they used violence in their activities,'' and finds 
that the government ``appears'' to have misused the charge of 
endangering state security.
    \280\ CECC, 2007 Annual Report, 10 October 07, 210. Bangri Chogtrul 
(Jigme Tenzin Nyima), who lived as a householder in Lhasa and managed a 
children's home along with his wife, was convicted of inciting 
splittism and sentenced to life imprisonment in a closed court in Lhasa 
in September 2000. ``Lhasa Court Commutes Life Sentence for Children's 
Home Director to 19 Years,'' CECC China Human Rights and Rule of Law 
Update, April 2006, 16. The sentencing document lists evidence against 
Bangri Chogtrul that includes meeting the Dalai Lama, accepting a 
donation for the home from a foundation in India, and a business 
relationship with a Tibetan contractor who lowered a Chinese flag in 
Lhasa in 1999 and tried to blow himself up. Jigme Tenzin Nyima 
acknowledged meeting the Dalai Lama, accepting the contribution, and 
knowing the contractor, but he denied the charges against him and 
rejected the court's portrayal of events.
    \281\ CECC Political Prisoner Database, 10 June 09. On August 1, 
2007, Tibetan nomad Ronggyal Adrag climbed onto a stage at a horse-
racing festival in Litang (Lithang) county, Ganzi (Kardze) TAP, Sichuan 
province and shouted slogans calling for the Dalai Lama's return to 
Tibet, freedom of religion, Tibetan independence, and the releases of 
Gedun Choekyi Nyima (the Panchen Lama identified by the Dalai Lama) and 
Tenzin Deleg (a Buddhist teacher from the same area imprisoned in 2002 
on charges of splittism and involvement in a series of bombings). The 
Ganzi Intermediate People's Court sentenced him on November 20, 2007, 
to eight years' imprisonment for inciting splittism (PRC Criminal Law, 
art. 103(2)). ``CECC Political Prisoner Data Shows Rise in Tibetan 
Detentions in 2007,'' Congressional-Executive Commission on China 
(Online), 31 January 08; ``China Sentences 4 for Spying, Secessionist 
Activities,'' Xinhua (Online), 20 November 07; ``Tibetan Sentenced for 
`Inciting To Split Country' at Sports Event,'' Xinhua (Online), 20 
November 07; ``Tibetan Nomad Calling for Dalai Lama's Return Convicted 
of Subversion and Splittism,'' Congressional-Executive Commission on 
China (Online), 1 November 07. The CECC report cites an October 30, 
2007, Radio Free Asia report that the Ganzi Intermediate Court 
convicted Ronggyal Adrag on charges of splittism and subversion (PRC 
Criminal Law, arts. 103, 1005). (The court, however, did not sentence 
Ronggyal Adrag on the charge of subversion.)
    \282\ CECC, 2008 Annual Report, 31 October 08, 190, 281. The report 
stated, ``Ganzi TAP has been the site of more known political 
detentions of Tibetans by Chinese authorities than any other TAP 
outside the TAR since the current period of Tibetan political activism 
began in 1987.'' The report provided detailed statistics based on the 
Commission's Political Prisoner Database.
    \283\ One record of a Ganzi TAP person with a religious occupation 
is of Phurbu Tsering, a person regarded by Tibetans as a reincarnated 
Tibetan teacher, or Rinpoche, but who lives as a householder, not as a 
monk, in a monastery. Phurbu Tsering heads Pangri Nunnery. Statements 
in an analysis by lawyers Li Fangping and Jiang Tianyong representing 
Phurbu Tsering (Pubu Ciren, Buronglang) refer to his residence. 
International Campaign for Tibet (Online), ``Verdict on Tibetan Lama 
Deferred: Chinese Lawyers' Statement on Charges Against Phurbu 
Rinpoche,'' 27 April 09. ``On May 18, 2008 Ganzi County Public Security 
investigative personnel conducted a search of the suspect Pubu Ciren's 
residence on 277 Liberation Street, Ganzi Town, . . .''
    \284\ About 55 Pangri Nunnery nuns protested and were detained on 
May 14, 2008, according to reports at that time. (The Political 
Prisoner Database contains 51 records of Pangri nuns who protested and 
were detained on May 14.) International Campaign for Tibet (Online), 
``More Than 80 Nuns Detained After Peaceful Protests Continue in 
Kham,'' 30 May 08 (reports 55 Pangri nuns protested and were detained); 
Tibetan Centre for Human Rights and Democracy (Online), ``China Arrests 
55 Nuns of Pang-ri Nunnery for Protesting,'' 17 May 08 (more than 55 
Pangri nuns protested; 55 were detained); ``Update on Tibet, 15 May 
2008,'' Tibetan Government-in-Exile (Online), 15 May 08 (60 nuns 
protested; 52 nuns were detained).
    \285\ The largest protests in Ganzi TAP during the Commission's 
2009 reporting year, based on reports available as of June 10, 2009, 
took place in Litang (Lithang) county on February 25 (100 to 200 
protesters) and February 26 (300 to 400 protesters). Free Tibet 
Campaign (Online), ``Hundreds of Tibetans Protest Over Two Days in 
Restive Lithang County,'' 17 February 09. ``One source reported a total 
of about one hundred protesters and the other source reported between 
150 and 200 protesters.'' Free Tibet Campaign (Online), ``Hundreds of 
Tibetans Protest Over Two Days in Restive Lithang County,'' 17 February 
09. ``Sunday's [February 15] protest was followed by a much larger 
protest in the same location the next day. Both sources reported that 
the protest of 16 February started in the morning when 14 Tibetans, 
including relatives of Lobsang Lhundup, started shouting slogans: `Free 
Tibet'; `Long live His Holiness the Dalai Lama'; `Don't celebrate 
Losar;' and `Release Lobsang Lhundup.' . . . The protesting Tibetans 
were quickly joined by between 300 and 400 Tibetans, according to both 
sources.''
    \286\ Based on information summarized in this section, Tibetan 
political protests in Ganzi TAP during January to March 2009 that 
resulted in a Political Prisoner Database record took place on the 
following dates: January 5, 7, and 27; February 15 and 16; and March 5 
(at least two protests), 6, 11, 12, 14, 16, 19, 21, 22, 23, 24, 25, and 
27.
    \287\ Based on information summarized in this section, Tibetan 
protests in Ganzi TAP carried out by a single Tibetan whom security 
officials detained and on whom the Political Prisoner Database contains 
a record took place on the following dates: January 5 and 7; February 
15 and 27; and March 6, 10, 12, 14, and 22.
    \288\ Except for a March 25, 2008, China Tibet News report on the 
formal arrest of 13 monks on the charge of ``illegal assembly'' for 
staging a political protest on March 10, 2008, in front of Lhasa's 
Jokhang Temple, CECC staff have not seen any other public Chinese 
government or state-run media reports that provide specific information 
about individual Tibetans detained for peaceful political protests 
during the period beginning on March 10, 2008. For information on the 
China Tibet News report, see ``Lhasa Court Sentences Tibetans for 
Sharing Information With `The Dalai Clique,' '' Congressional-Executive 
Commission on China (Online), 22 January 09.
    \289\ ``Lhasa City Intermediate People's Court Pronounces Sentence 
in Four `March 14 Incident' Cases for the Crime of Endangering State 
Security,'' Lhasa Evening News, 8 November 08, 2 (translated in 
International Campaign for Tibet (Online), ``NGO Worker Sentenced to 
Life Imprisonment: Harsh Sentences Signal Harder Line on Blocking News 
From Tibet,'' 22 December 08); ``Lhasa Court Sentences Tibetans for 
Sharing Information With `The Dalai Clique,' '' Congressional-Executive 
Commission on China (Online), 22 January 09.
    \290\ ``Lhasa City Intermediate People's Court Pronounces Sentence 
in Four `March 14 Incident' Cases for the Crime of Endangering State 
Security,'' Lhasa Evening News, 8 November 08, 2 (translated in 
International Campaign for Tibet (Online), ``NGO Worker Sentenced to 
Life Imprisonment: Harsh Sentences Signal Harder Line on Blocking News 
From Tibet,'' 22 December 08). ``Tibet's Lhasa City Intermediate 
People's Court in accordance with the law and in open court publicly 
passed sentence in recent days in four `March 14 incident' cases for 
the crime of endangering state security.'' One case involved four 
Tibetans: Wangdu (Wangdui), Migmar Dondrub (Mima Dunzhu), Phuntsog 
Dorje (Pingcuo Duojie), and Tsewang Dorje (Ciwang Duojie). Each of the 
other three cases involved one Tibetan: Sonam Dragpa (Suolang Zhaba), 
Yeshe Choedron (Yixi Quzhen), and Sonam Tseten (Suolang Cidian).
    \291\ Ibid. The LEN report names a total of three Tibetan 
organizations in connection with the four cases: ``the Dalai clique's 
security department'' (the Tibetan government-in-exile's security 
department), the Tibetan Youth Congress (TYC, an India-based NGO that 
advocates for Tibetan independence), and Gu-Chu-Sum (an India-based NGO 
that Tibetan former political prisoners established to work on behalf 
of Tibetan political prisoners). Tibetan Youth Congress (Online), 
``About Us,'' last visited 3 June 08. According to the TYC Web site, 
among the four ``tasks'' assigned to TYC members are, ``To dedicate 
oneself to the task of serving one's country and people under the 
guidance of His Holiness the Dalai Lama, the Spiritual and Temporal 
Ruler of Tibet,'' and ``To struggle for the total independence of Tibet 
even at the cost of one's life.'' (The TYC does not, however, accept 
the Dalai Lama's guidance on seeking ``genuine autonomy'' for ``Tibet'' 
under Chinese sovereignty, nor does the TYC expressly disavow the use 
of violence in the campaign for independence.) Gu-Chu-Sum (Online), 
``What is Gu Chu Sum?'' last visited 24 May 09. ``The Gu-Chu-Sum (9-10-
3) Movement of Tibet was established . . . by ex-political prisoners of 
the Tibetan freedom movement . . . to help the suffering Tibetans 
remaining in prisons in Tibet and to provide needed support to ex-
political prisoners who have journeyed into exile.''
    \292\ ``Lhasa City Intermediate People's Court Pronounces Sentence 
in Four `March 14 Incident' Cases for the Crime of Endangering State 
Security,'' Lhasa Evening News, 8 November 08, 2 (translated in 
International Campaign for Tibet (Online), ``NGO Worker Sentenced to 
Life Imprisonment: Harsh Sentences Signal Harder Line on Blocking News 
From Tibet,'' 22 December 08). ``On October 27, Lhasa City Intermediate 
People's Court sentenced the defendant Wangdui in accordance with the 
law to life imprisonment with deprivation of political rights for life, 
for the crime of espionage; the defendant Mima Dunzhu was sentenced to 
fixed term imprisonment of 14 years with deprivation of political 
rights for five years, for the crime of espionage; the defendant 
Pingcuo Duoji was sentenced to fixed term imprisonment of nine years 
with deprivation of political rights for five years, for the crime of 
illegally sending intelligence abroad; and the defendant Ciwang Duoji 
was sentenced to eight years imprisonment with deprivation of political 
rights for five years, for the crime of illegally sending intelligence 
abroad.'' ``On October 27, Lhasa City Intermediate People's Court 
sentenced Suolang Zhaba in accordance with the law to fixed term 
imprisonment of 10 years with deprivation of political rights for five 
years, for the crime of illegally sending intelligence abroad.'' ``On 
November 7, Lhasa City Intermediate People's Court sentenced the 
defendant Yeshi Choedon in accordance with the law to fixed term 
imprisonment of 15 years with deprivation of political rights for five 
years, for the crime of espionage.'' ``On November 7, Lhasa City 
Intermediate People's Court sentenced the defendant Suolang Cidian in 
accordance with the law to fixed term imprisonment of 10 years with 
deprivation of political rights for five years, for the crime of 
illegally sending intelligence abroad.''
    \293\ PRC Constitution, passed 4 December 82, effective same day, 
amended 12 April 88, 29 March 93, 15 April 99, 14 March 04, art. 54. 
``It is the duty of citizens of the People's Republic of China to 
safeguard the security, honor and interests of the motherland; they 
must not commit acts detrimental to the security, honor and interests 
of the motherland.''
    \294\ PRC Criminal Law, enacted 1 July 79, amended 14 March 97, 
effective 1 October 97, amended 25 December 99, 31 August 01, 29 
December 01, 28 December 02, 28 February 05, 29 June 06, 28 February 
09, art. 102. ``Whoever colludes with a foreign State to endanger the 
sovereignty, territorial integrity and security of the People's 
Republic of China shall be sentenced to life imprisonment or fixed-term 
imprisonment of not less than 10 years.''
    \295\ ``Lhasa City Intermediate People's Court Pronounces Sentence 
in Four `March 14 Incident' Cases for the Crime of Endangering State 
Security,'' Lhasa Evening News, 8 November 08, 2 (translated in 
International Campaign for Tibet (Online), ``NGO Worker Sentenced to 
Life Imprisonment: Harsh Sentences Signal Harder Line on Blocking News 
From Tibet,'' 22 December 08); ``Lhasa Court Sentences Tibetans for 
Sharing Information With `The Dalai Clique,' '' Congressional-Executive 
Commission on China (Online), 22 January 09.
    \296\ PRC Criminal Procedure Law, enacted 1 January 79, amended 17 
March 96, effective 1 January 97, arts. 180, 201, 202, 208, 210. If a 
defendant does not appeal a people's intermediate court's verdict of 
death with a two-year reprieve, then a provincial high people's court 
must approve the verdict (art. 201). If a defendant appeals a verdict 
of death with a two-year reprieve in the ``trial of first instance,'' 
then the next-higher people's court (the provincial high people's 
court) would conduct a ``trial of second instance'' (art. 180). Reviews 
by a high people's court of a penalty of death with a two-year reprieve 
must be conducted by a panel of three judges (art. 202). A judgment of 
death with a two-year reprieve does not become ``legally effective'' 
until the provincial high people's court approves it (art. 208). If the 
prisoner ``commits no intentional offense during the period of 
suspension of the sentence'' the sentence should be commuted (art. 
210). PRC Criminal Law, enacted 1 July 79, amended 14 March 97, 
effective 1 October 97, amended 25 December 99, 31 August 01, 29 
December 01, 28 December 02, 28 February 05, 29 June 06, 28 February 
09, art. 50. A sentence of death with a two-year reprieve may be 
commuted to life imprisonment upon expiration of the two-year 
suspension if a prisoner ``commits no intentional crime'' during the 
suspension. If a prisoner ``has truly performed major meritorious 
service,'' then the sentence may be commuted to a fixed-term sentence 
of not less than 15 years and not more than 20 years. If the prisoner 
``has committed an intentional crime'' during the period of suspension, 
the death penalty ``shall be executed upon verification and approval of 
the Supreme People's Court.''

    Notes to Section VI--Developments in Hong Kong and Macau
    \1\ U.S.-Hong Kong Policy Act of 1992, Public Law No. 102-383, 
enacted 5 October 92; Basic Law of the Hong Kong Special Administrative 
Region of the People's Republic of China, enacted by the National 
People's Congress 4 April 90, effective 1 July 97; Joint Declaration of 
the Government of the United Kingdom of Great Britain and Northern 
Ireland and the Government of the People's Republic of China on the 
Question of Hong Kong, adopted 19 December 84.
    \2\ U.S.-Macau Policy Act of 2000, Public Law No. 106-570, enacted 
27 December 2000; Joint Declaration of the Government of the People's 
Republic of China and the Government of the Republic of Portugal on the 
Question of Macau, adopted 13 April 87; Basic Law of the Macao Special 
Administrative Region of the People's Republic of China, enacted by the 
National People's Congress 31 March 93, effective 20 December 99, art. 
83.
    \3\ Basic Law of the Macao Special Administrative Region of the 
People's Republic of China, art. 83, enacted by the National People's 
Congress 31 March 93, effective 20 December 99; Basic Law of the Hong 
Kong Special Administrative Region of the People's Republic of China, 
enacted by the National People's Congress 4 April 90, effective 1 July 
97, art. 85.
    \4\ Basic Law of the Hong Kong Special Administrative Region, 
enacted by the National People's Congress 4 April 90, effective 1 July 
97, arts. 27, 32; Basic Law of the Macao Special Administrative Region 
of the People's Republic of China, enacted by the National People's 
Congress 31 March 93, effective 20 December 99, arts. 27, 34.
    \5\ Basic Law of the Macao Special Administrative Region of the 
People's Republic of China, enacted by the National People's Congress 
31 March 93, effective 20 December 99, art. 83; Basic Law of the Hong 
Kong Special Administrative Region of the People's Republic of China, 
enacted by the National People's Congress 4 April 90, effective 1 July 
97, art. 85.
    \6\ Decision of the Standing Committee of the National People's 
Congress on Issues Relating to the Methods for Selecting the Chief 
Executive of the Hong Kong Special Administrative Region and for 
Forming the Legislative Council of the Hong Kong Special Administrative 
Region in the Year 2012 and on Issues Relating to Universal Suffrage, 
issued 29 December 07.
    \7\ Government of the Hong Kong Special Administrative Region 
(Online), ``Election Consultation To Be Deferred: CE,'' 15 January 09.
    \8\ ``Hong Kong's Top Judge To Retire Next Year,'' Agence France-
Presse, reprinted in Google (Online), 2 September 09.
    \9\ Ibid. See infra for more details on Li's retirement.
    \10\ The length of prison terms for state security crimes included 
15 to 25 years for treason, secession, and subversion (lowered to 10 to 
25 years after committee review in January 2009), 1 to 8 years for 
sedition, and 2 to 15 years for stealing, selling, or buying state 
secrets. Government of the Macao Special Administrative Region 
(Online), Macao National Security Bill (Draft) Final Consultation 
Report, 16 December 08.
    \11\ The Central People's Government of the PRC (Online), ``Macau 
SAR Formally Issues National Security Law, Effective March 3,'' 2 March 
09.
    \12\ Universal suffrage is described as the ``ultimate aim'' in the 
Basic Law. Basic Law of the Hong Kong Special Administrative Region, 
enacted by the National People's Congress 4 April 90, effective 1 July 
97, arts. 45, 68.
    \13\ Decision of the Standing Committee of the National People's 
Congress on Issues Relating to the Methods for Selecting the Chief 
Executive of the Hong Kong Special Administrative Region and for 
Forming the Legislative Council of the Hong Kong Special Administrative 
Region in the Year 2012 and on Issues Relating to Universal Suffrage, 
issued 29 December 07; Frank Ching, ``Universal Suffrage in Hong 
Kong,'' Korea Times (Online), 20 January 08.
    \14\ The first instance came in April 2004 when the National 
People's Congress Standing Committee ruled against universal suffrage 
for the 2007 chief executive election and the 2008 Legislative Council 
election. For more information, see CECC, 2004 Annual Report, 5 October 
04, 104-106.
    \15\ Government of the Hong Kong Special Administrative Region, 
Registration and Electoral Office (Online), ``The Third Term Chief 
Executive Election: Election Committee,'' 7 February 07; Keith 
Bradsher, ``China Plans To Allow Hong Kong a Bigger Voice in Choosing 
Its Leaders,'' New York Times (Online), 25 September 05; Human Rights 
Watch (Online), ``A Question of Patriotism: Human Rights and 
Democratization in Hong Kong,'' 9 September 04, 33-34; Alvin Y. So, 
``The Tiananmen Incident, Patten's Electoral Reforms, and the Roots of 
Contested Democracy in Hong Kong,'' in The Challenge of Hong Kong's 
Reintegration With China, ed. Ming K. Chan (Hong Kong: Hong Kong 
University Press, 1997), 70-72.
    \16\ Decision of the Standing Committee of the National People's 
Congress on Issues Relating to the Methods for Selecting the Chief 
Executive of the Hong Kong Special Administrative Region and for 
Forming the Legislative Council of the Hong Kong Special Administrative 
Region in the Year 2012 and on Issues Relating to Universal Suffrage, 
issued 29 December 07.
    \17\ Government of the Hong Kong Special Administrative Region 
(Online), ``2008-09 Policy Address: Embracing New Challenges,'' 15 
October 08.
    \18\ Government of the Hong Kong Special Administrative Region 
(Online), ``Election Consultation To Be Deferred: CE,'' 15 January 09.
    \19\ ``Hong Kong Delays Highly Anticipated Consultation To Focus on 
Economy,'' China Post (Online), 16 January 09.
    \20\ Decision of the Standing Committee on Methods for Selecting 
the Chief Executive of the Hong Kong Special Administrative Region, 
Forming the Legislative Council, and on Issues Relating to Universal 
Suffrage, issued 29 December 07.
    \21\ Chris Yeung, ``Change of Tack,'' South China Morning Post 
(Online), 22 January 08.
    \22\ Decision of the Standing Committee on Methods for Selecting 
the Chief Executive of the Hong Kong Special Administrative Region, 
Forming the Legislative Council, and on Issues Relating to Universal 
Suffrage, issued 29 December 07.
    \23\ ``Hong Kong's Top Judge To Retire Next Year,'' Agence France-
Presse, reprinted in Google (Online), 2 September 09.
    \24\ Ibid. See also ``Chief Justice Announces Early Retirement,'' 
South China Morning Post (Online), 2 September 09; ``Hong Kong Chief 
Justice To Retire in Sep 2010, 3 Years Ahead of Plan,'' Nasdaq 
(Online), 2 September 09.
    \25\ ``Hong Kong Chief Justice To Retire in Sep 2010, 3 Years Ahead 
of Plan,'' Nasdaq (Online), 2 September 09.
    \26\ Government of the Macao Special Administrative Region 
(Online), Macao National Security Bill (Draft) Final Consultation 
Report, 16 December 08, 1; Basic Law of the Macao Special 
Administrative Region of the People's Republic of China, enacted by the 
National People's Congress 31 March 93, effective 20 December 99, arts. 
27, 31.
    \27\ The length of prison terms for state security crimes included 
15 to 25 years for treason, secession, and subversion (lowered to 10 to 
25 years after committee review in January 2009), 1 to 8 years for 
sedition, and 2 to 15 years for stealing, selling, or buying state 
secrets. See generally Government of the Macao Special Administrative 
Region (Online), Macao National Security Bill (Draft) Final 
Consultation Report, 16 December 08.
    \28\ Keith Bradsher, ``Emboldened Hong Kong Protesters Call for 
Free Elections,'' New York Times (Online), 9 July 03.
    \29\ ``Hong Kong Withdraws National Security Bill,'' China Daily 
(Online), 5 September 03.
    \30\ The consultation period lasted from October 22 to November 30, 
2008. Government of the Macao Special Administrative Region (Online), 
``Macau SAR Government Launches Public Consultation Work for National 
Security Bill'' [Tequ zhengfu qidong ``weihu guojia anquan fa'' zixun 
gongzuo], 22 October 08; Amnesty International (Online), ``Macao: Stop 
the National Security Bill Now,'' 23 February 09.
    \31\ Government of the Macao Special Administrative Region 
(Online), Macao National Security Bill (Draft) Final Consultation 
Report, 16 December 08, 3.
    \32\ Ibid., 18.
    \33\ Government of the Macao Special Administrative Region, 
National Security Law, enacted 2 March 09, effective 3 March 09.
    \34\ Government of the Macao Special Administrative Region, Public 
Administration and Civil Service Bureau (Online), ``International Trade 
Union Confederation Comments and Recommendations to the Macau SAR 
Government Macau Concerning the Draft Legislation on Article 23 of the 
Macau SAR Basic Law,'' 29 November 08.
    \35\ ``Macau Government Passes Controversial National Security 
Bill,'' Congressional-Executive Commission on China (Online), 
(forthcoming).
    \36\ Ibid.; Government of the Macao Special Administrative Region, 
National Security Law, enacted 2 March 09, effective 3 March 09.
    \37\ ``Macau Government Passes Controversial National Security 
Bill,'' Congressional-Executive Commission on China (Online), 
(forthcoming); Government of the Macao Special Administrative Region 
(Online), Macao National Security Bill (Draft) Final Consultation 
Report, 16 December 08, 62.
    \38\ Government of the Macao Special Administrative Region, Public 
Administration and Civil Service Bureau (Online), ``International Trade 
Union Confederation Comments and Recommendations to the Macau SAR 
Government Macau Concerning the Draft Legislation on Article 23 of the 
Macau SAR Basic Law,'' 29 November 08.
    \39\ Ibid.
    \40\ Ibid.
    \41\ Ibid.
    \42\ Ibid.
    \43\ ``Macau Catholics Concerned About Proposed National Security 
Law,'' Union of Catholic Asian News (Online), 4 December 08.
    \44\ ``Macau Protesters March for Democracy, Better Livelihood on 
Reversion Anniversary,'' Union of Catholic Asian News (Online), 23 
December 08.
    \45\ ``Hong Kong Democrats Barred From Macau Ahead of Rally,'' 
Agence France-Presse (Online), 20 December 08; Dikky Sin, ``Macau 
Refuses Hong Kong Activists, Lawmakers Entry To Protest Bill,'' China 
Post (Online), 21 December 08.
    \46\ ``Macau Legislation Process for National Security Bill 
Completed,'' Union of Catholic Asian News (Online), 27 February 09; 
Government of the Macao Special Administrative Region, National 
Security Law, enacted 2 March 09, effective 3 March 09; ``Macau Passes 
Security Laws That Hong Kong Rejected,'' Reuters (Online), 25 February 
09.
    \47\ Government of the Macao Special Administrative Region 
(Online), Macao National Security Bill (Draft) Final Consultation 
Report, 16 December 08, 58.
    \48\ ``Macao Revises National Security Bill, Calming Public Fears 
of Losing Speech Freedom,'' Xinhua, reprinted in People's Daily, 17 
December 08.
    \49\ Government of the Macao Special Administrative Region 
(Online), Macao National Security Bill (Draft) Final Consultation 
Report, 16 December 08.
    \50\ Amnesty International (Online), ``Macao National Security Law 
Threatens Human Rights,'' 2 March 09.
    \51\ The length of prison terms for state security crimes included 
15 to 25 years for treason, secession, and subversion (lowered to 10 to 
25 years after committee review in January 2009). Government of the 
Macao Special Administrative Region (Online), Macao National Security 
Bill (Draft) Final Consultation Report, 16 December 08.
    \52\ Government of the Macao Special Administrative Region, 
National Security Law, enacted 2 March 09, effective 3 March 09, art. 
1.
    \53\ Ibid., art. 6.
    \54\ Ibid., art. 4.
    \55\ ``Macau Unveils Proposed Nat'l Security Bill,'' China Post 
(Online), 23 October 08.
    \56\ Amnesty International (Online), ``Macao: Stop the National 
Security Bill Now,'' 23 February 09. See also ``Macau Unveils Proposed 
Nat'l Security Bill,'' China Post (Online), 23 October 08. In this 
report, opposition lawmaker Ng Kuoc Cheong was quoted expressing 
concern that officials might classify actions they dislike as 
``preparation'' for treason or other such acts. Provisions that ban 
preparatory acts can carry a punishment of up to three years in jail. 
``Macao SAR Legislature Passes State Security Bill,'' Xinhua, reprinted 
on Sina.com, 5 January 09. In this report, lawmaker Au Kam San is 
quoted expressing concern about the unclear definitions of preparatory 
acts, sedition, and theft of state secrets in the revised bill. Hong 
Kong Journalists Association (Online), ``2009 Annual Report: `Macau 
Takes the Lead--Dangers for Freedom of Expression in Hong Kong,' '' 5 
July 09.
    \57\ Hong Kong Journalists Association (Online) 2009 Annual Report: 
``Macau Takes the Lead--Dangers for Freedom of Expression in Hong 
Kong,'' 5 July 09.
    \58\ ``Hong Kong Democrats Barred From Macau,'' Taiwan News 
(Online), 16 March 09.
    \59\ Natalie Leung, ``Ho Backs Macau's Entry Ban, Hong Kong Shows 
Concerns,'' Macau Daily Times (Online), 5 March 09.
    Notes to China's International Human Rights Commitments
    \1\ State Council Information Office, National Human Rights Action 
Plan of China (2009-2010), Xinhua (Online), 13 April 09, sec. V.
    \2\ UN GAOR, Hum. Rts. Coun., 11th Sess., Report of the Working 
Group on the Universal Periodic Review?China, A/HRC/11/25, 3 March 09, 
paras. 63, 114(1).
    \3\ State Council Information Office, National Human Rights Action 
Plan of China (2009-2010), Xinhua (Online), 13 April 09, sec. V(1).[CMS 
120731]
    \4\ The following chart excludes declarations or reservations made 
in connection to the status of Hong Kong and Macau.

                                 <all>

</pre></body></html>
